<html>
<title> - NOMINATIONS</title>
<body><pre>[Senate Hearing 116-273]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-273

       NOMINATIONS OF THE 116th CONGRESS, FIRST SESSION, PART II

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                                PART II


                SEPTEMBER 19, 2019 TO DECEMBER 17, 2019

                               ----------                       

       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web: 
                         http://www.govinfo.gov
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-448 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                     COMMITTEE ON FOREIGN RELATIONS

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        


                           C O N T E N T S

                              ----------                              

Responses to additional questions from the committee and any 
  additional material submitted for the record are located at the 
  end of each hearing transcript.
                              ----------                              


                                 Part I

March 6, 2019....................................................     1

    Abizaid, General John P., to be Ambassador Kingdom of Saudi 
      Arabia.....................................................     6

    Tueller, Hon. Matthew H., of Utah, to be Ambassador to the 
      Republic of Iraq...........................................    10


March 12, 2019...................................................    65

    Johnson, Ronald Douglas, of Florida, to be Ambassador to the 
      Republic of El Salvador....................................    69

    Fitzpatrick, Michael J., of Virginia, to be Ambassador to the 
      Republic of Ecuador........................................    72


March 27, 2019...................................................   113

    Destro, Robert A., of Virginia, to be Assistant Secretary of 
      State for Democracy, Human Rights, and Labor...............   121

    Krach, Keith, of California, to be Under Secretary of State 
      for Economic Growth, Energy, and the Environment; U.S. 
      Alternate Governor of the European Bank for Reconstruction 
      and Development; U.S. Alternate Governor of the 
      International Bank for Reconstruction and Development; and 
      U.S. Alternate Governor of the Inter-American Development 
      Bank.......................................................   123

    Stilwell, Brigadier General David, USAF (Ret.), of Hawaii, to 
      be Assistant Secretary of State for East Asian and Pacific 
      Affairs....................................................   128


April 9, 2019....................................................   207

    Eberhardt, Jeffrey L., of Wisconsin, to be Special 
      Representative of the President for Nuclear Non-
      Proliferation..............................................   211

    Gilmore, Hon. James S., of Virginia, to be U.S. 
      Representative to the Organization for Security and 
      Cooperation in Europe......................................   214

    Swendiman, Alan R., of North Carolina, to be Deputy Director 
      of the Peace Corps.........................................   217


April 11, 2019...................................................   251

    Crawford, Edward F., of Ohio, to be Ambassador to Ireland....   254

    Byrnes, Kate Marie, of Florida, to be Ambassador to the 
      Republic of North Macedonia................................   257

    Satterfield, Hon. David Michael, of Missouri, to be 
      Ambassador to the Republic of Turkey.......................   260



                                 (iii)

May 16, 2019.....................................................   303

    Brink, Bridget A., of Michigan, to be Ambassador to the 
      Slovak Republic............................................   305

    Howery, Kenneth A., of Texas, to be Ambassador to the Kingdom 
      of Sweden..................................................   307

    Klimow, Colonel Matthew S., USA (Ret.), of New York, to be 
      Ambassador to Turkmenistan.................................   310

    Daigle, John Jefferson, of Louisiana, to be Ambassador to the 
      Republic of Cabo Verde.....................................   313


May 21, 2019.....................................................   343

    Bates, Pamela, of Virginia, to be U.S. Representative to the 
      Organization for Economic Cooperation and Development......   347

    Landau, Christopher, of Maryland, to be Ambassador to the 
      United Mexican States......................................   350

    Nordquist, Jennifer D., of Virginia, to U.S. Executive 
      Director of the International Bank for Reconstruction and 
      Development................................................   353

    Pedrosa, Eliot, of Florida, to be U.S. Executive Director of 
      the Inter-American Development Bank........................   356


June 20, 2019....................................................   393

    Bremberg, Andrew P., of Virginia, to be U.S. Representative 
      to the Office of the United Nations and other International 
      Organizations in Geneva....................................   397

    Goldberg, Hon. Philip S., of the District of Columbia, to be 
      Ambassador to the Republic of Colombia.....................   400

    Manchester, Doug, of California, to be Ambassador to the 
      Commonwealth of the Bahamas................................   402

    Zuckerman, Adrian, of New Jersey, to be Ambassador to Romania   405

    Norland, Hon. Richard B., of Iowa, to be Ambassador to Libya.   430

    Cohen, Jonathan R., of California, to be Ambassador to the 
      Arab Republic of Egypt.....................................   433

    Rakolta, John, Jr. to be Ambassador to the United Arab 
      Emirates...................................................   436


July 17, 2019....................................................   605

    Marks, Lana, of Florida, to be Ambassador to the Republic of 
      South Africa...............................................   606

    Lapenn, Jessica, of New York, to be U.S. Representative to 
      the African Union..........................................   609

    Bell, Richard K., of Pennsylvania, to be Ambassador to the 
      Republic of Cote D' Ivoire.................................   612

    Leonard, Hon. Mary Beth, of Massachusetts, to be Ambassador 
      to the Federal Republic of Nigeria.........................   615

    Bekkering, Michelle, of the District of Columbia, to be an 
      Assistant Administrator of the U.S. Agency for 
      International Development, Economic Policy, Economic 
      Growth, Education, and Environment.........................   618


July 30, 2019....................................................   701

    Carwile, John Leslie, of Maryland, to be Ambassador to the 
      Republic of Latvia.........................................   703

    McKee, Erin Elizabeth, of California, to be Ambassador to 
      Papua New Guinea, Ambassador to the Solomon Islands, and 
      Ambassador to the Republic of Vanuatu......................   706

    Godfrey, Anthony F., of Virginia, to be Ambassador to the 
      Republic of Serbia.........................................   710

    Mustafa, Herro, of California, to be Ambassador to the 
      Republic of Bulgaria.......................................   714

                                Part II


September 19, 2019...............................................   759

    Billingslea, Hon. Marshall, of Virginia, to an Under 
      Secretary of State for Civilian Security, Democracy, and 
      Human Rights...............................................   772

    Boehler, Adam Seth, of Louisiana, to be Executive Officer of 
      the U.S. International Development Finance Corporation.....   776

    Pack, Michael, of Maryland, to be Chief Executive Officer of 
      the Broadcasting Board of Governors........................   778


October 16, 2019.................................................   897

    Cantor, Carmen G., of Puerto Rico, to be Ambassador to the 
      Federated States of Micronesia.............................   899

    DeSombre, Michael George, of Illinois, to be Ambassador to 
      Thailand...................................................   902

    Kim, Hon. Sung Y., to be Ambassador to the Republic of 
      Indonesia..................................................   906

    Tan, Morse H., of Illinois, to be Ambassador at Large for 
      Global Criminal Justice....................................   908

    Currie, Hon. Kelley Eckels, of Georgia, to be Ambassador at 
      Large for Global Women's Issues............................   911


October 29, 2019.................................................   965

    Cabral, Roxanne, of Virginia, to be Ambassador to the 
      Republic of the Marshall Islands...........................   966

    Degnan, Kelly C., of California, to be Ambassador to Georgia.   969

    Gilchrist, Robert S., of Florida, to be Ambassador to the 
      Republic of Lithuania......................................   972

    Kim, Yuri, of Guam, to be Ambassador to the Republic of 
      Albania....................................................   975

October 30, 2019.................................................  1017

    Sullivan, Hon. John Joseph, of Maryland, to be Ambassador to 
      the Russian Federation.....................................  1025


October 31, 2019.................................................  1167

    Castillo, Andeliz N., of New York, to be U.S. Alternate 
      Executive Director of the Inter-American Development Bank..  1170

    Golden, Dr. Alma L., of Texas, to be an Assistant 
      Administrator of the U.S. Agency for International 
      Development................................................  1172

    Haymond, Peter M., of Virginia, to be Ambassador to the Lao 
      People's Democratic Republic...............................  1176

    Romanowski, Alina L., of Illinois, to be Ambassador to the 
      State of Kuwait............................................  1179

    Tsou, Leslie Meredith, of Virginia, to be Ambassador to the 
      Sultanate of Oman..........................................  1182


November 20, 2019................................................  1255

    Biegun, Stephen E., of Michigan, to be Deputy Secretary of 
      State......................................................  1260


December 17, 2019................................................  1393

    Chapman, Hon. Todd C., of Texas, to be Ambassador to the 
      Federative Republic of Brazil..............................  1396

    Hennessey-Niland, John, of Illinois, to Ambassador to the 
      Republic of Palau..........................................  1399

    Shea, Dorothy, of Virginia, to be Ambassador to the Lebanese 
      Republic...................................................  1403

    Wright, Dr. Donald, of Virginia, to be Ambassador to the 
      United Republic of Tanzania................................  1406

 
                              NOMINATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2019

                                       U.S. Senate,
                             Committee on Foreign Relations
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:33 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Johnson, Gardner, 
Romney, Barrasso, Paul, Young, Cruz, Menendez, Cardin, Shaheen, 
Coons, Murphy, Kaine, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Today, the committee will hold a nominations hearing for 
four very important positions, some of which have been pending 
for a long period of time. Our nominees today are: The 
Honorable Marshall Billingslea, to be Under Secretary of State 
for Civilian Security, Democracy, and Human rights; Mr. Adam 
Seth Boehler, to be Chief Executive Officer of the United 
States International Development Finance Corporation; The 
Honorable Darrell Issa, to be Director of the U.S. Trade and 
Development Agency; and Mr. Michael Pack, to be Chief Executive 
Officer of the U.S. Agency for Global Media, also known as the 
Broadcasting Board of Governors.
    Before we take that on, we have the honor and privilege of 
having two of our distinguished colleagues present with us 
today who would like to make an introduction.
    So, with that, Senator Whitehouse and Senator Cassidy, I 
will give you the floor to make some. If you--I--who is the 
chairman of your delegation, Senator Whitehouse?
    Senator Whitehouse. I think----
    [Laughter.]
    The Chairman. Never----
    Senator Whitehouse [continuing]. Senator----
    The Chairman. You do not have to answer that question.
    Senator Whitehouse [continuing]. Cassidy said that he 
would--he will bat cleanup, and I can be his leadoff batter.
    [Laughter.]

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Chairman, thank you very much, and 
Ranking Member Menendez, members of the committee, for having 
me here today to be part of the bipartisan Cassidy-Whitehouse 
tag team introducing Adam Boehler.
    The President has called on Adam to run an entirely new 
institution in the U.S. International Development Finance 
Corporation. This bank will combine several functions and 
capabilities from existing Federal agencies to perform the 
vital role of fostering economic development and prosperity. As 
someone who grew up in the Foreign Service, I know well the 
importance of that mission. Ensuring this agency's success will 
take more than a steady hand, it will take vision and 
innovation and determination. Others can testify to Adam's 
background in finance, which will serve him well in this 
position.
    I am here as a result of our work together when Adam served 
at the Center for Medicare and Medicaid Innovation. As Rhode 
Island's Attorney General, I helped to found the Rhode Island 
Quality Institute, an organization aimed at bringing people 
together to improve the quality and performance of our 
healthcare system. So, CMMI's work is very close to my heart, 
and it was that work that brought me and Adam together.
    Adam has led CMMI in the move towards value-based 
healthcare, a shift that helps innovative States like mine 
lower healthcare costs while improving quality. Adam and CMMI 
developed new models to pay primary care physicians for high-
quality, coordinated care, and to encourage physicians to care 
for high-need, seriously-ill patients, who often lack effective 
care coordination. These new models can help remove red tape 
for providers, and can help patients and their families access 
the care that they need.
    Adam's work at CMMI also focused on reining in drug prices 
and led a important charge to improve care to patients with 
kidney disease, and to expand access to medication-assisted 
treatment, which has been a pivotal weapon in the battle in the 
opioid crisis.
    Adam comes before this committee with experience in 
healthcare, finance, and global investment. He has been, in all 
of my dealings with him, a consummate professional who has 
always been honorable, responsive, innovative, determined, and 
smart. I have been very impressed with my dealings with him at 
CMMI.
    I wish him great success in his new role. And I am happy to 
be Senator Cassidy's leadoff batter.
    The Chairman. Thank you so much.
    Senator Cassidy.

                STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Mr. Chairman, Mr. Ranking Member, it is a 
privilege to introduce fellow Louisianan Adam Boehler as he 
seeks confirmation to head the Overseas Private Investment 
Corporation.
    Adam has, just, a really innovative mind. And problems that 
stymie others, he develops solutions which benefit all. And I 
think the country will be well-served by his ability as he 
brings this ability to international development.
    Now, sustainable prosperity depends upon developing market 
forces, which create and distribute wealth to the broadest part 
of society. And sustainable development can be started, if you 
will, by public investment. This will be Adam's task and 
challenge, and it is a--the additional challenge to do it in 
places which have underperformed relative to their potential. 
So, if I am going to enthusiastically nominate somebody for 
such a position with such a task, it would behoove me to kind 
of review that and his resume that would support this 
enthusiastic endorsement.
    Adam graduated from Wharton Business School at the 
University of Pennsylvania. He served in the private sector as 
a partner in an international investment firm, and worked in 
several high-level positions in equity and analytics, 
conducting business around the world.
    But, I actually know of him through his last role, before 
he joined this administration. He founded Landmark Health, in 
which they--Landmark Health took the sickest of the sick in 
Medicare and Medicaid patients, optimized their health, and, at 
the same time, saved dollars for the
    American taxpayer. Now, if you want to talk about a system 
that is underperforming its potential in caring for those who 
have needs, the Medicare/Medicaid patient are among those.
    And, as a physician, seeing the innovation which he brought 
made me enthusiastic when he joined this administration as the 
head of the CMMI. In that role, he was creative, inclusive, and 
energetic, which is why Whitehouse and Cassidy flank him as he 
seeks this nomination. He will be accessible and ready to 
listen as he embarks on this new role, because that is how he 
was as he headed CMMI. He is ideally suited.
    I urge a speedy confirmation and wish him godspeed in 
fulfilling the task of heading the Overseas Private Investment 
Corporation.
    Thank you.
    The Chairman. Senator Cassidy, thank you so much.
    Both Senator Whitehouse, Senator Cassidy, thank you for 
joining us this morning. I know you have other things that you 
have to attend to, and we have a lot of work to do here this 
morning, so we will excuse you.
    And with that, we would ask the--our other nominees to join 
us at the table.
    And with that, I am going to make an opening statement, 
yield to Senator Menendez to do so. We will then hear from our 
nominees, and then have a round of questions.
    So, with that, today we are going to consider the 
nomination of these four individuals to serve our Nation for 
very important capabilities. Three out of the four have been 
waiting long times, some over a year, for this moment, and we 
are glad to have you here. We welcome you and thank you for 
your willingness to serve, and, just as importantly, your 
willingness--your families' willingness to allow that and 
cooperate with you in your service.
    First, we have The Honorable Marshall Billingslea, 
nominated to serve as the Under Secretary of State for Civilian 
Security, Democracy, and Human Rights. Mr. Billingslea has a 
long history of public service, most recently as an Assistant 
Secretary at the Department of Treasury, where he addresses 
terrorist financing and the threats that illicit finance pose 
to the United States. Prior to his service at Treasury, Mr. 
Billingslea worked at the Department of Defense in NATO. This 
Under Secretary position oversees critical bureaus and offices, 
including the Bureau on Counterterrorism, Countering Violent 
Extremism, the Bureau of Democracy, Human Rights, and Labor, 
and the Office to Monitor and Combat Trafficking in Persons. I 
look forward to hearing from you on these and many other issues 
during today's hearing.
    I have a number of letters in support of Mr. Billingslea's 
nomination that I will enter into the record. It includes, 
interestingly enough, a letter from the President of Venezuela, 
the legitimate President of Venezuela, Juan Guaido.
    Next, we have Adam Smith--Adam Seth Boehler, nominated to 
be Chief Executive Officer of the United States International 
Development Finance Corporation. Mr. Boehler is already--has 
already been introduced by our distinguished colleagues, and I 
wanted to highlight the importance of the position he has been 
nominated for. The DFC will create new opportunities for U.S. 
businesses and open pathways for private-sector-led growth in 
developing countries, will also provide an alternative to the 
malign development model of the Chinese and others. I am 
looking forward to hearing how you plan to run this new 
organization.
    Next, we have Congressman Darrell Issa, who is nominated to 
be Director of the Trade and Development Agency. Congressman 
Issa was the Republican U.S. Representatives for California's 
48th and 49th Congressional Districts. He served in Congress 
from 2001 till the end of last Congress. From January 2011 to 
January 2015, he served as Chairman of the House Oversight and 
government Reform Committee. Prior to serving in Congress, Mr. 
Issa served as CEO of Directed Electronics, which he cofounded 
in 1982 and is one of the largest makers of automobile after-
market security and convenience products in the United States. 
At a time where our President is focused on promoting American 
companies and products around the world, the U.S. Trade and 
Development Agency plays a critical role in that agenda. I look 
forward to hearing more about your plans to engage with the 
private sector in development projects.
    Finally, we have Mr. Michael Pack, who is nominated to be 
the Chief Executive Officer of the U.S. Agency for Global 
Media, also known as the Broadcasting Board of Governors. Mr. 
Pack is the president of Manifold Productions, Inc., an 
independent film and television production company that he 
founded in 1977. Mr. Pack has previously served twice at the 
Corporation for Public Broadcasting, first as the co-chair of 
the International TV Council in 1993, then as senior vice 
president for television programming from 2003 to 2006. 
Additionally, his public service includes a term on the 
National Council on Humanities from 2002 to 2005, as well as 
the director of Worldnet, the U.S. Information Agency's global 
satellite network. It is no secret the challenges we face when 
it comes to disinformation from our adversaries. USGAM plays a 
critical role in our national security by ensuring that true, 
factual stories about current events are available in societies 
where simply reporting the reality around you can get a 
reporter tossed in jail, or worse.
    Thanks, to all of you, for being with us here today.
    And now I will turn it over to the Ranking Member Menendez 
for his opening statement.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, I have to be honest. I wish we were not here 
today. We could be holding a normal nominations hearing, where 
we ask the nominees about the serious challenges facing our 
country and the world, where we could spend the committee's 
time wisely, discussing policy and judging the substance of the 
qualifications of the witnesses for ourselves. But, today is 
not a normal nominations hearing, and I think that your process 
has made sure of that.
    This hearing is occurring over my objection and the 
objections of every Democrat on this committee, something I 
have never witnessed during my time on this committee for 14 
years, and something I never did when I served as Chairman. And 
let us be clear, our objection was not over policy, although, 
for as long as I am aware, members on this committee and in 
this body, Democrats and Republicans alike, have objected, at 
time, to specific nominees on policy grounds. Our objection is 
over the administration's refusal to provide the committees 
information to secure basic vetting information.
    We requested that you not move forward with Mr. Billingslea 
and Mr. Issa until members had the information needed to assess 
whether these two nominees are fit for confirmation. Instead, 
we are being asked to evaluate the two nominees without knowing 
all the facts. Why do we not know all the facts? Because there 
is information that the White House controls and this 
administration refuses to share. I am not talking about a 
nominee's favorite color or where they had dinner, I am talking 
about serious issues that go to credibility and suitability for 
these positions.
    Mr. Chairman, my concerns about the fitness of nominees is 
not hypothetical. Senior officials have been allowed to engage 
in corrosive, unacceptable retaliation against career 
employees, sometimes with any--without any consequences for the 
offender, even despite shocking findings by the State 
Department Inspector General. Another senior official forcibly 
resigned after it came to light that he--and I wish I was 
making this up--carried a whip around the office and harassed 
employees. Another left following allegations of mismanagement. 
And that is only for the State Department. If I went down the 
list of issues for the administration as a whole, we would be 
here all day. There are real consequences for the men and women 
who work in the State Department and across the Federal 
government.
    So, yes, Mr. Chairman, it has taken some time to try to get 
answers, but it is not for lack of trying. For Mr. Billingslea, 
in particular, we have asked the same exact questions, in some 
cases for almost a year, without any serious response. What is 
astounding and dismaying is that, while these efforts to get 
answers were ongoing, you decided to schedule this hearing 
anyway. We have a constitutional duty. At a minimum, ``advise 
and consent'' means that we ensure that the individuals we are 
sending to serve as senior department officials, to serve at 
embassies overseas, to manage career Federal employees are not 
experienced and qualified, but suitable for public service. 
But, if we cannot do that, if we do not--we cannot do that if 
we do not have the basic facts.
    Now, Mr. Chairman, you have told me and some of my 
colleagues that, as a former prosecutor, you treat a 
nominations hearing like a trial. We gather all the relevant 
information, air it at the hearing, and let the chips fall 
where they may. I hope you will help me understand this, 
because, based on that, we are not even meeting your own 
standard. We simply do not have the information we need to make 
informed decisions.
    With regard to Mr. Issa, as you know, there is information 
in his FBI background investigation that concerns me greatly 
and that I believe members may find problematic and potentially 
disqualifying for Senate confirmation. I firmly believe that 
every member on this committee should have the opportunity to 
review that information. There is ample precedent for doing so. 
And you joined me in requesting that the White House make good 
on that request, which we appreciated. So, I am a little 
confused as to why we have Mr. Issa before us today, when no 
other member has been granted access.
    Our joint request to the White House concerning Mr. Issa's 
file has gone unanswered. So, let that sink in for a moment. 
The White House simply has ignored the joint request of the 
Chairman and the Ranking Member of this committee for 
additional information on an executive branch nominee. Yet, 
here we are, holding a hearing for that very nominee.
    In the case of Mr. Billingslea, the administration has not 
been forthcoming on two separate vetting-related matters. The 
first is related to Mr. Billingslea's role in the development 
and implementation of Bush-era detainee torture policies while 
working in the Office of the Secretary of Defense under 
Secretary Rumsfeld. Given that Mr. Billingslea, if confirmed, 
would be the senior U.S. government official responsible for 
human rights, a fulsome and accurate understanding of his 
involvement in detainee torture matters is both essential and 
directly relevant to his current nomination.
    It took the administration months to dig up memos that Mr. 
Billingslea authored or approved on torture. First, it was two, 
then ten, then a few more. From the beginning, it was clear 
that documents that were, quote, according to the Department, 
``missing''--missing attachments, missing pages. But, each 
time, the administration and the Chairman's staff said, ``That 
was it, the search was complete, do not be ridiculous, stop 
asking.'' And then, when we pressured, they would find more.
    My staff, at my request, first asked for more information 
on these, quote, ``missing'' documents in November of 2018. 
That is almost a full year ago. Despite repeated requests, the 
administration has not shared how many documents are, quote/
unquote, ``missing,'' or the titles of those documents, and 
they have refused to provide any information on how they 
searched for the ``missing'' documents. Instead, in effect, 
they said, ``Trust us.'' Well, I am sorry, but ``trust us'' 
does not cut it when it comes to ``missing'' torture documents, 
and it does not cut it when it comes to this administration and 
its propensity for obfuscation and lies.
    The second line of inquiry related to Mr. Billingslea 
pertains to an incident that we have sought more clarity and 
details on, but have been stonewalled. These allegations are 
more appropriate for discussion in closed session, so I will 
not, at the moment, go into detail on the substance. What I 
will say is that the administration has refused to provide any 
information related to these allegations. And it was only until 
this morning, in a way that I just cannot ascertain the 
veracity of it, that Mr. Billingslea came forward with some 
information.
    I would also add that we are talking about two nominees, 
here, Mr. Chairman. Two. Despite the fact that, under this 
administration, we are facing an unprecedented number of 
nominees, who, in the past, never would have made it out of the 
White House, let alone to a committee hearing. Democrats have 
joined Republicans in agreeing to advance more than 150 
nominees to this committee and to confirmation. Only a small 
fraction have moved at a slower pace, largely due to concerns 
of personal character or fitness.
    Need I remind my colleagues of the not-so-distant past? 
Need I remind them of the more than 50 ambassadorial nominees 
that stalled in this body under the last administration, of 
nominees who languished, some for years--for years--without 
ever receiving a hearing or a vote? Need I read back to the 
list of reasons that were cited for holding up nominees, which 
had nothing to do with vetting concerns and everything to do 
with sticking it to the administration?
    So, Mr. Chairman, I think even you would agree, that is not 
your quibble here. We have raised some serious, very basic 
concerns. We are discussing the same concerns now that I 
discussed with you at the beginning of this Congress. And it is 
stunning that this is where we are.
    It is no secret what is happening here. Starting with the 
President, this administration seems to view Congress as a 
nuisance. Unless they absolutely need to engage us, they will 
not. Why would the administration bother to respond, even in a 
cursory fashion, to future vetting requests as long as, at the 
end of the day, they know the Chairman will move a nominee 
anyhow?
    So, my fellow committee members, I appreciate your 
forbearance. I know that I have spoken for quite some time, 
longer than I have ever felt compelled to speak at a nomination 
hearing. But, I believe it is critical for us to understand 
exactly how we wound up at this moment, and reflect on it.
    If this White House gets away with treating the committee 
with such disdain, you can bet future Presidents, regardless of 
what party they come from, will do the same. Given the nature 
of the outstanding vetting questions related to Mr. Billingslea 
and Mr. Issa, I continue to believe that it is preferable to 
discuss those matters in closed session so that, at a minimum, 
Senators can have a frank discussion about what we currently 
know and how best to proceed, and so we can have that 
discussion without causing embarrassment or harm to any of the 
nominees.
    As such, Mr. Chairman, I move to go into closed session, 
pursuant to committee rule III:f:3.
    Senator Cardin. Second.
    The Chairman. The motion has been made, and duly seconded, 
that we go into closed session. And the Chairman will oppose 
the rule so we can have an open hearing and people can hear 
what everyone has to say. I think these nominees have subjected 
themselves to that and are going to have to tolerate whatever 
embarrassing things that you wish to bring up. But, the public 
should be able to see this, so I am going to oppose a motion--
the motion to go into closed session.
    So, with that----
    Senator Paul. Mr. Chairman, may I speak to the motion?
    The Chairman. You may.
    Senator Paul. You know, as much as I am for public scrutiny 
of things, I think it is actually a courtesy to people, if you 
are going to talk about things that may go to their character 
that may or may not be true, that we hear about them in 
private. And it is not that I have drawn a conclusion on any of 
this, but, frankly, if it is very emotional, I would rather not 
speak about it in front of people's kids and everybody else if 
it is not true, or may or may not be true. So, I think there is 
a role for committees like ours--you know, I think, you know, 
during the Supreme Court hearings, I kind of wished some of 
that had been done a little more in closed hearing. But, I will 
support this, not because I have prejudged it, but I will 
support the motion, because I think there are times when we 
should have some discussions. Not that we are not going to have 
a public hearing. We would have a public hearing after we have 
a private discussion of some of the things that, hopefully, if 
true or untrue, might be damaging to people and to their 
public, you know, and to their family. So, I am in favor of, if 
this is sensitive material, to discussing it in private.
    The Chairman. Thank you, Senator.
    Any other Senators wishing to speak to the motion?
    [No response.]
    The Chairman. If not, could I have the Clerk call the roll?
    Oops, I am sorry.
    Senator Coons. Mr. Chairman?
    The Chairman. Senator Coons.
    Senator Coons. Mr. Chairman, I just want to speak in 
support of the comments of the Ranking Member and to express my 
appreciation to the Senator from Kentucky, as well.
    In confirmation hearings, there come times when we need to 
have an opportunity to air things that are probably best first 
discussed, because they are contentious, because they are 
private, in a closed session, and then, if appropriate, air 
them publicly.
    The Chairman. Thank you, Senator.
    If the committee wishes to go to--into a closed session, 
that is what we will do. And the Clerk will call the roll.
    The Clerk. Mr. Rubio?
    The Chairman. No, by proxy.
    The Clerk. Mr. Johnson?
    Senator Johnson. No.
    The Clerk. Mr. Gardner?
    The Chairman. No, by proxy.
    The Clerk. Mr. Romney?
    The Chairman. No, by proxy.
    The Clerk. Mr. Graham?
    The Chairman. No, by proxy.
    The Clerk. Mr. Isakson?
    The Chairman. No, by proxy.
    The Clerk. Mr. Barrasso?
    The Chairman. No, by proxy.
    The Clerk. Mr. Portman?
    The Chairman. No, by proxy.
    The Clerk. Mr. Paul?
    Senator Paul. Aye.
    The Clerk. Mr. Young?
    The Chairman. No, by proxy.
    The Clerk. Mr. Cruz?
    The Chairman. No, by proxy.
    The Clerk. Mr. Menendez?
    Senator Menendez. Aye.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mrs. Shaheen?
    Senator Shaheen. Aye.
    The Clerk. Mr. Coons?
    Senator Coons. Aye.
    The Clerk. Mr. Udall?
    Senator Menendez. Aye, by proxy.
    The Clerk. Mr. Murphy?
    Senator Murphy. Aye.
    The Clerk. Mr. Kaine?
    Senator Kaine. Aye.
    The Clerk. Mr. Markey?
    Senator Menendez. Aye, by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Booker?
    Senator Menendez. Aye, by proxy.
    The Clerk. Mr. Chairman?
    The Chairman. No.
    The Clerk will report.
    The Clerk. Mr. Chairman, yeas are 11, the nays are 11.
    The Chairman. The motion has failed.
    Senator Menendez, I appreciate the motion that you have 
made. I simply disagree with that. This is the purpose of what 
we are doing here, is the American public can hear exactly what 
the complaints are that you have. And these people have 
subjected themself to this. They know what is coming. They know 
what is in their background. They know what is in these 
reports. Let us get at it.
    Senator Cardin. Mr. Chairman? Would the Chairman yield for 
one moment?
    The Chairman. In just a moment, Senator.
    I think we ought to get at it. I think we ought to have 
this hearing. And you--you have looked at those FBI reports, 
you know what the issues are here. We ought to litigate them. 
And, when we are done, we should vote. And I understand that 
there will be a lot of no-votes, as there usually are on these 
kinds of things. But, the American public have a right to know. 
And so, let us get at it.
    Senator Cardin.
    Senator Cardin. If I understand correctly, and please 
correct me if I am wrong, both the Chairman and Ranking Member 
believe that,with one nominee, information which only the two 
of you know should be made available to all members of this 
committee. How can we talk about that in an open session if 
only two members know about it and the rest of us are in the 
dark in regards to that information?
    The Chairman. Well, first of all, I am not opposed to all 
members seeing this. I have always said, anything that is 
available to myself and the Ranking Member ought to be 
available to everybody.
    Senator Cardin. Well, my question is, in an open session, 
where we have not been privy to that information, how can we 
talk about it?
    The Chairman. Well, we can talk about it. I am not going to 
stop anybody from talking about it. And Senator Menendez has 
seen the entire file. He knows what all the facts are in it. 
So, he can bring that up and then you guys can follow it up on 
it. And I am not--I am not going to restrain any discussion of 
these facts.
    Senator Cardin. But, how can I question about it if I do 
not know about it?
    The Chairman. Well, Senator Menendez has seen it, and----
    Senator Menendez. Mr. Chairman, if I may, to be responsive 
to Senator Cardin.
    The Senate rules do not permit us to speak about it unless, 
of course, there is a vote of the committee to do so. Since we 
are now in uncharted territory, not only are Mr. Billingslea 
and Mr. Issa here, in violation of comity, where we are now 
operating outside of the scope of the committee rules for 
closed session, which is unfortunate. These are not matters 
that should be discussed in an open session. I think it is 
unfair to the nominees. And because of restraints on releasing 
committee confidential information, it would be extraordinary 
to adequately and appropriately discuss these issues in full 
public. I feel deeply uncomfortable with this approach. But, if 
that is what the Chair and the majority of the members has 
agreed to, and have this discussion in open, then I will 
reluctantly defer to that path forward.
    With that in mind, however, I move for a vote on the 
question of approval of discussion of the Billingslea and Issa 
matters, to the extent possible, in open session.
    Senator Shaheen. Mr.----
    The Chairman. Is there a second?
    Senator Cardin. Second.
    The Chairman. It has been moved----
    Senator Shaheen [continuing]. I did you wish to speak to 
the motion?
    I need a clarification. Who makes the decision that this 
information was not available for the rest of the committee? 
And if--and should we not take a look at how that decision is 
being made? I mean, if your position is everybody should be 
able to see it, and what you are telling me, Senator Menendez, 
is that Senate rules prohibit that, then that seems to create a 
contradiction in how we operate that we ought to try and fix.
    The Chairman. Well, I think that--the White House, I think, 
has said that they--that the matter is closed. But, we are 
about to have a motion, here, which I am going to support, by 
the way, that allows us to discuss everything here in open 
session. And we need to get at it. And if there are things 
there that need further--we can have questions for the record. 
And I----
    Senator Paul. Mr. Chairman, may I speak, when you are done, 
to the issue?
    Senator Shaheen. Can I just get a followup on that?
    Senator Paul. Go ahead.
    Senator Shaheen. So, does that mean that we will have 
access to that information after this hearing so that we can 
read it?
    The Chairman. Yeah. I am going to do everything I can to 
get access to that. But, Senator Menendez has seen it. I 
suspect, when the meeting is over, you are not going to need to 
see it, because he is going to talk about everything that is in 
there. So, that----
    Senator Menendez. Mr. Chairman, if I may respond to the 
Senator's question.
    The White House is refusing to give access, at this point, 
to all members, in a bipartisan fashion, to the files that are 
in question. And, to the Chairman's credit, he joined me in a 
letter, which I think speaks volumes as to the importance of 
you all getting the opportunity to read what is in it, to the 
White House which has gone unresponded and was one of the 
reasons I, you know, would not agree to this hearing, because I 
believe we need a response. And hopefully, that response would 
be that, in this case, all members would have access to the 
file. You would read the file, and you would come to your own 
judgments, as I have, as a result of what is there. And, 
unfortunately, we have not had an answer from the White House.
    So, the question you have posed, Senator Shaheen, ``Who is 
barring you?''--at this point, it is the administration.
    The Chairman. Fair enough. And I will go even further----
    Senator Cardin. After Senator Paul, if I could be 
recognized.
    The Chairman. Okay. In response to Senator Shaheen, the 
Ranking Member and I are in full agreement on this, that all 
members should have access to this. I commit to this committee, 
there will be no vote on Mr. Issa until the White House has 
agreed to allow you all to see that. When this hearing is over, 
you may not--and it may not be necessary, because we are about 
to vote on a motion that allows Senator Menendez to ask any 
questions about what he has seen in the file.
    Senator Shaheen. Thank you.
    The Chairman. Fair enough.
    I think, Senator Paul is next.
    Senator Paul. You know, I am supportive of Congressman Issa 
for the position. I have not yet seen the reports, but I would 
like to see it, but I am supportive of his nomination. But, at 
the same time, I have known him for years. I do not want to, 
like, vote to say, ``Oh, we are going to release the FBI 
report, and we are all going to talk about an accusation to him 
that may be unfounded, or may go to his character, or may be 
something that should not be said in front of his family or 
anybody else.'' I have no idea what is in the FBI report. You 
are going to ask me to vote on whether it should be public; we 
all get to talk about it, while only two of you have read it. I 
think this is a terrible process and a terrible precedent and 
an injustice to people you support. If you support Congressman 
Issa, and you are going to just say we are going to release all 
this and have--and talk up and down about his character or some 
accusation? We could not talk about this in private and then 
decide what is in the report before we decide to discuss it in 
front of everybody? This is exactly the opposite of what we all 
complained about with the Supreme Court, that they did not talk 
about it all in private before it became public. So, I think it 
is a terrible, rotten thing that we are doing, and I will 
oppose the motion to talk about something I have no idea of 
what is in the report. I just think it is a bad idea.
    The Chairman. Thank you, Senator Paul.
    Senator Murphy.
    Senator Murphy. I mean, Mr. Chairman, I understand you to 
be saying that you will not hold a vote until we have access to 
the information----
    The Chairman. Correct.
    Senator Murphy [continuing]. But you will hold a hearing 
before we have access to the information. You will not allow 
the committee to go into closed session. And so, what you are 
essentially guaranteeing is that none of us have the ability to 
ask questions of the nominee regarding what is in this file. 
You are guaranteeing that we will be able to look at it before 
the vote.
    The Chairman. Yeah.
    Senator Murphy. But, if you are willing to say we will not 
have a vote before we have access, why would you not just 
postpone the hearing? Why deny all the members of your 
committee the ability to have access to the information so 
that, if we chose, we could question the nominee, if you are 
willing to make sure we have access to that information before 
the vote? I just cannot understand that.
    The Chairman. Well, you are going to have access to all 
that information before you----
    Senator Murphy. But, why not do it for the hearing if you 
are willing to do it before the vote? I just do not understand 
the difference.
    The Chairman. Senator----
    Senator Murphy. It really--I mean, I--to be honest, it--
there is only one reason to do that. The only reason to do that 
is to deny us the ability to be able to question the nominee 
about that information.
    The Chairman. Senator Coons.
    Senator Coons. Following up on Senator Murphy's point, I 
assume the only member of this company on our side of the dais 
who had access to it, and thus could fully question the 
nominee, is the Ranking Member. Has the nominee been given the 
opportunity to review the file? And is he willing to simply 
consent to an open debate about it?
    The Chairman. I cannot----
    Senator Coons. That is the one way to cure the concern that 
I think Senator Paul has reasonably raised.
    The Chairman. I cannot answer that, whether you have--
Senator--or, Congressman Issa, have you had access to the file?
    Senator Cardin. Mr. Chairman, can I just ask a question, 
first, before we get to that point?
    The Chairman. Senator Cardin.
    Senator Cardin. Because I think it is important.
    I have been in the Senate a long time. I know the 
procedures that we use. Senator Paul is raising a very valid 
point. I have reviewed FBI files. I was Ranking Member for a 
period of time here when I reviewed FBI files. And there were 
issues in the FBI files that I was concerned about. I had a 
chance to talk to the nominee in private about those issues 
before making a judgment as to where we should go next with 
that issue. I believe that Senator Menendez and your request 
should be honored, and every member of this committee should 
have an opportunity to take a look at the FBI file. But, I also 
believe we should have an opportunity to talk to the nominee in 
private before having to go through a public hearing in regards 
to that information. Now, I do not know what that information 
is.
    So, I would just urge the Chairman to exercise the regular 
process we use here, and not require this to be released in 
public without an opportunity for us to have that discussion. I 
just do not think this is the right process to be used, and I 
urge the Chairman to exercise restraint here to give us an 
opportunity to talk about this in private before a decision is 
made in regards to an FBI record.
    The Chairman. Thank you, Senator Cardin.
    Senator Merkley. Mr. Chairman.
    The Chairman. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Putting any of ourselves into the same seat as those who 
come before this committee, I think all of us would feel 
uncomfortable with a public discussion of issues that may be 
just rumors or unfounded accusations. And I was just pondering, 
because I know that, in your life, you have served both in the 
role of prosecutor and the role as trial attorney, and there is 
a basic--I am not a lawyer, but I understand, I believe, that 
to have a fair hearing in any world, whether it is the--a 
civilian challenge on a trial-attorney basis or it is a 
criminal issue, like, information--basic information has to be 
shared in advance so that the--both teams can have the same 
information, and ponder it.
    I just think that, for multiple reasons, fairness to each 
member's ability to participate, we need to be able to see, in 
advance, the information, ponder it. And, in fairness to those 
who come before this committee now and in the future, I would 
hate for the idea to be that someone may be absolutely unfairly 
treated to a public airing of unfounded rumors or 
possibilities. I--if we could just, maybe, delay this for a 
week, get the information in advance, it just seems like it is 
a fairness factor that would benefit everyone.
    The Chairman. Some reasonable requests here.
    Senator Menendez and I have had a sidebar, and we are going 
to take a short recess while we counsel with Congressman Issa 
to get his view on the matter.
    Senator Johnson. Mr. Chairman? Just real quick, because I 
am going to run out of time with this recess. I came, really, 
to question Mr. Pack. I would just ask that, ``The World''--the 
article by The Hill, ``The World Will be Freer, Safer By 
Smashing Firewalls of Closed Societies'' be entered into the 
record for this hearing, because I will not be able to be here 
when you come back.
    And, Mr. Pack, I will be submitting questions for the 
record that I hope I can get good answers and good responses 
from you on that.
    So, thank you, Mr. Chairman.
    The Chairman. Thank you, much, and that will be put in the 
record.
    [The information referred to can be found at the following 
website:]


https://thehill.com/opinion/technology/445360-the-world-will-
be-freer-safer-by-smashing-firewalls-of-closed-societies


    The Chairman. And with that, the committee will be at ease, 
hopefully briefly.
    [Recess.]
    The Chairman. The committee will come back to order.
    After a sidebar between Senator Menendez and I and the 
nominee and others, we have agreed that, as far as the--a 
number of the requests here are very reasonable requests--we 
are going to postpone the hearing on Mr. Issa, to which he has 
agreed. We are going to get this file opened so that all of you 
can have a chance to review that file and be able to ask 
questions intelligently. The question whether the meeting be 
open or closed after that, we will discuss at a future time. 
That is an open question at this point. Again, we can get 
everybody's input into that. Senator Paul has issues on it, 
others have issues on it, and we will take it up at that point.
    But, in any event, reasonable requests accommodated, and we 
will move on with the other three nominees.
    The bad news for you is that we will have more time to ask 
you questions.
    [Laughter.]
    The Chairman. Thank you so much.
    Well, moving on, we will turn now to our first nominee, Mr. 
Billingslea. Your full statement will be included in the 
record. And if you would please keep your remarks to no more 
than 5 minutes, we have a lot of work to do yet this morning.
    So, with that, Mr. Billingslea, your statement, please.

STATEMENT OF HON. MARSHALL BILLINGSLEA, OF VIRGINIA, NOMINEE TO 
     BE AN UNDER SECRETARY OF STATE FOR CIVILIAN SECURITY, 
                  DEMOCRACY, AND HUMAN RIGHTS

    Mr. Billingslea. Thank you, Chairman Risch and Ranking 
Member Menendez and members of this committee. I am honored to 
appear before you today as the President's nominee for Under 
Secretary of State for Civilian Security, Democracy, and Human 
Rights.
    And, Senators, at the outset, I thank my family--my wife, 
Karen, and my two daughters, Morgan and Elsa--for having 
supported me in my decision to accept a second nomination from 
the President; in this case, to serve at the Department of 
State. These positions do require enormous family sacrifice, 
and I could not do this without their love and their backing.
    I have had the opportunity, over the past year, to meet 
with a number of members of the committee. And it has been very 
helpful for me to hear about a wide range of issues that are 
viewed as important with respect to the ``J Family'' of bureaus 
at the Department of State. And, if confirmed, I look forward 
to working with all of the members of the committee and your 
staff on the full range of topics.
    The recent discussions notwithstanding, I must say at the 
outset that it is wonderful to be back in this hearing room. I 
began my government career, nearly 25 years ago, on the staff 
of this august committee. And, in thinking about this hearing, 
I vividly remember one of the very first hearings I attended--
in fact, I believe it was the very first hearing I attended in 
my capacity as a staff member--sitting back on the bench in 
that corner over there, and it was on a matter highly relevant 
to the Office of the Under Secretary, both then and now. The 
topic was Chinese repression of the Tibetans.
    So, my familiarity and my involvement with issues falling 
within the purview of J goes back more than two decades, and to 
the very beginning of my time in government service. From the 
days on this committee staff, working with the Department's 
counterterrorism experts, to my work with the International 
Narcotics and Law Enforcement Bureau on Colombia and 
Afghanistan while I was at the Pentagon, and my present role in 
driving the use of Treasury authorities to combat human rights 
abuses across the globe, from Nicaragua to Venezuela, Burma, I 
have been fortunate to work with the many fine career 
professionals within the J Family.
    There are three points I would like to emphasize today:
    First, support for civilian security, democracy, and human 
rights is crucial to advancing vital American interests. For 
example, fighting terrorists, disrupting transnational 
organized crime, and stopping the trafficking of opioids and 
other illicit drugs protects the American people and our 
communities. And building the capacity of foreign partners to 
strengthen their own law enforcement capabilities and to 
counter trafficking helps them take on greater responsibility 
for addressing common threats. And championing our values, such 
as justice, humanitarian ideals, religious freedom, and other 
human rights, inspires and promotes strong, stable global 
partners.
    Second, threats to civilian security and democracy and 
human rights are prevalent, and they are multifaceted. And 
Venezuela is an example of what can happen when a regime 
engages in massive corruption and undermines the rule of law 
and fails to respect basic human rights and fundamental 
freedoms. And I am gratified that a number of human rights 
group in support of my nomination from Venezuela are here 
today. Indeed, Mr. Chairman, I believe you inserted in the 
record letters from opposition leader Maria Corina Machado 
Antonio Ledezma, and Julio Borges, but I am also humbled, as 
you said, that President--interim President Juan Guaido has 
written a letter to this committee on my behalf. These are 
incredible men and women, and they are valiantly speaking out 
against the brutality of the Maduro dictatorship, in hope for a 
better future for the Venezuelan people. And, if confirmed, I 
commit to using the Office of the Under Secretary, as I have 
used my current office within the Department of the Treasury, 
to do everything I can to help alleviate the suffering in 
Venezuela, as well as the suffering of those around the world 
who are preyed upon by despots, oligarchs, and criminals.
    I mentioned Tibet at the outset. China continues to seek to 
silence criticism of its severe human rights violations and 
abuses there. And, as Secretary Pompeo has said, China is home 
to one of the worst human-rights crises of our time. And these 
are all issues that fall within the responsibility of the J 
structure to address.
    This brings me to my final point in the final time allowed, 
Mr. Chairman, which is to say that, in order to address these 
complex challenges effectively, we have got to bring holistic 
solutions that leverage not just all of the tools currently in 
the repository of the Department of State, but also the 
additional tools that this committee is able to provide through 
the legislative process. As a former senior professional staff 
member on this committee, I worked for many years on a wide 
range of bipartisan issues that had overwhelming support. The 
same is true of my work at the Treasury. And the same, if 
confirmed, Mr. Chairman and Ranking Member, will be true for my 
work at the Department of State.
    Thank you, sir.
    [The prepared statement of Mr. Billingslea follows:]


            Prepared Statement of Hon. Marshall Billingslea

    Chairman Risch, Ranking Member Menendez, and members of the 
committee, I am honored to appear before you today as the President's 
nominee for Under Secretary of State for Civilian Security, Democracy, 
and Human Rights.
    Senators, at the outset I thank my family--my wife Karen and my two 
daughters Morgan and Elsa, for having supported my decision to accept 
the President's nomination to the Department of State. These positions 
require enormous family sacrifice, and I could not do this without 
their love and backing.
    I have had the opportunity over the past weeks to meet with several 
members of the committee, and it has been very helpful for me to hear 
about a wide range of issues that are viewed as important with respect 
to the ``J Family'' of bureaus and offices at the State Department. If 
confirmed, I look forward to working with all members of the committee, 
and your staff, on the full range of topics.
    At the outset, I must say that it is wonderful to be back in this 
hearing room. I began my government career, nearly twenty-five years 
ago, on the staff of this august committee. In fact, I vividly remember 
one of the very first hearings I attended, sitting on the bench in the 
corner over there. It was on a matter highly relevant to the Office of 
the Under Secretary, both then and now; the topic was Chinese 
repression of Tibetans.
    So my familiarity and involvement with issues falling within the 
purview of J goes back more than two decades, to the very beginning of 
my time in government service. From the days on this committee's staff, 
working with the Department's counterterrorism experts, to my work with 
the International Narcotics and Law Enforcement Bureau on Colombia and 
Afghanistan while I was at the Pentagon, and my present role in driving 
use of Treasury authorities to combat human rights abuses and 
corruption across the globe, from Nicaragua and Venezuela, to Uganda 
and Burma, I have been fortunate to work with the many fine career 
professionals within the J Family.
    There are three points I would like to emphasize today:
    First, support for civilian security, democracy, and human rights 
is crucial to advancing vital American interests. For example, fighting 
terrorists, disrupting transnational organized crime, and stopping the 
trafficking of opioids and other illicit drugs protects the American 
people and our communities. Strengthening the rule of law overseas 
improves the investment climate for American businesses, while 
advancing international labor standards the playing field for American 
workers. Building the capacity of foreign partners to strengthen their 
law enforcement capabilities and counter trafficking helps them to take 
on greater responsibility for addressing common threats. Championing 
our values such as justice, humanitarian ideals, religious freedom, and 
other human rights inspires and promotes strong, stable global partners 
that help keep the American people more safe and secure.
    Second, threats to civilian security, democracy, and human rights 
are prevalent and multi-faceted. Venezuela is an example of what can 
happen when a regime engages in massive corruption, undermines the rule 
of law, fails to respect human rights and fundamental freedoms, 
dismantles democracy, and drives instability in the region. These 
efforts to strangle the democratic aspirations of the Venezuelan people 
have created the largest refugee crisis in Latin American history as 
four million Venezuelans have fled. I have been outspoken in my current 
role regarding the appalling acts perpetrated by the former Maduro 
regime, from its use of food and hunger as a political tool, to the 
ecocide conducted in the Orinoco belt, to the kleptocratic, wholesale 
looting of Venezuela's natural resources. Like you, I am appalled at 
the former regime's unconscionable human rights abuses, including 
torture and extrajudicial killings. I am therefore so gratified that my 
courageous friends in the Venezuelan opposition have written to the 
committee in support of my nomination. Mr. Chairman, I submit for the 
record letters from opposition leaders Maria Corina Machado, Antonio 
Ledezma, and Julio Borges. These are incredible men and women, 
valiantly speaking out against the brutality of the former Maduro 
regime in the hope of a better future for the Venezuelan people.
    I commit, if confirmed, to using the Office of the Under Secretary 
to do everything I can to help alleviate the suffering in Venezuela, as 
well as to help those around the world preyed upon by despots, 
oligarchs, and criminals. I mentioned Tibet at the outset. China 
continues to seek to silence criticism of its severe human rights 
violations and abuses there, as well as its detention of more than one 
million Uighurs, ethnic Kazakhs, Kyrgyz, and other Muslims in Xinjiang 
since April 2017. As Secretary Pompeo has said, ``China is home to one 
of the worst human rights crises of our time.'' More broadly, places 
such as Syria, Central America, and Burma all show the 
interconnectedness of religious intolerance, impunity, violence, porous 
borders, trafficking of illicit goods, human rights abuses, human 
trafficking, and large-scale forced displacement.
    These are all situations where the multiple capabilities housed 
within ``J'' must be brought to bear in a synchronized fashion.
    This brings me to my final point: to address these complex 
challenges effectively we must develop holistic solutions that leverage 
all of the tools and resources at our disposal. This begins by 
sustaining a close, bipartisan working relationship with Congress. In 
partnership with Congress, the State Department has developed a broad 
range of tools to promote civilian protection. In addition to 
diplomatic engagement, these include foreign assistance programs; human 
rights and corruption-related visa restriction regimes; terrorism, drug 
trafficking, organized crime, and other rewards, sanctions, and 
designation efforts; and public reports that draw global attention to 
issues such as human rights, religious freedom, human trafficking, 
atrocity prevention, narcotics control, and terrorism. The Under 
Secretary for Civilian Security, Democracy, and Human Rights is 
uniquely positioned to ensure the Department leverages these tools to 
achieve our strategic objectives.
    As a former senior professional staff member on the Foreign 
Relations Committee, I worked for many years on a range of issues that 
enjoyed overwhelming bipartisan support. The same is true for my work 
at Treasury. I look forward to continuing to work in a strong 
bipartisan fashion, if confirmed, in this new role.
    In conclusion, Chairman Risch and Ranking Member Menendez, I 
greatly appreciate the opportunity afforded by the committee to appear 
before you today as you consider my nomination. Over more than two 
decades, I have had the privilege of working closely with the 
Department of the State on counterterrorism, conflict stabilization, 
illicit finance, and other issues, and I believe I would bring a unique 
combination of executive branch, legislative, and private sector 
experience to the role of Under Secretary. If confirmed, I will 
collaborate with this committee to design and implement the policies 
and strategies necessary to advance civilian security, democracy, and 
human rights.


    The Chairman. Thank you very much, Mr. Billingslea.
    Now we will turn to Mr. Boehler. Your statement, please.

  STATEMENT OF ADAM SETH BOEHLER, OF LOUISIANA, NOMINEE TO BE 
  CHIEF EXECUTIVE OFFICER OF THE UNITED STATES INTERNATIONAL 
                DEVELOPMENT FINANCE CORPORATION

    Mr. Boehler. Thank you, Chairman Risch, Ranking Member 
Menendez, and members of the committee.
    I want to thank Senators Cassidy and Whitehouse also for 
their kind words and their partnership.
    It is an honor to be here today in front of you to be the 
nominee for the Chief Executive Officer of the International 
Development Finance Corporation. This committee's ongoing 
insights will be critical to ensure that we serve the interests 
of the American people by addressing development challenges 
through investment and economic growth.
    I am joined this morning by my wife, Shira, and our four 
children, Ruth, Abraham, Esther, and Rachel. I hope they are 
not too young to appreciate witnessing democracy in action.
    I would also like to say hi to the first and third great 
classes at Newman Elementary School in New Orleans, who I think 
are still watching it live.
    [Laughter.]
    Mr. Boehler. Maybe not.
    The Chairman. I doubt it, but go ahead.
    [Laughter.]
    Senator Menendez. You should have told me that before the 
hearing.
    [Laughter.]
    Mr. Boehler. I would like to start by recognizing the 
talented professionals at OPIC and at USAID's Development 
Credit Authority. If confirmed, I am committed to working in 
partnership with USAID and other Federal agencies to further 
build upon the goals that Congress established with the BUILD 
Act.
    I would like to thank the current acting and former 
presidents of OPIC, David Bohigian, Elizabeth Littlefield, Rod 
Mosbacher, and Peter Watson, for being here today with me, as 
well as Ray Washburne, for all of his insights.
    I grew up in a small town outside of Albany, New York. My 
father is a primary care physician, and my mother is a speech 
pathologist who made home visits to children in need. Their 
commitment to helping others made a deep impression on me.
    My first professional experience was in South Africa. The 
mayor of Johannesburg was taking executive education classes at 
my university, and I stood outside his class to meet with him. 
This led to a summer working for the Financial and Fiscal 
Commission, an agency set up by the South African Parliament to 
advocate on behalf of the nine provinces. That summer, I was 
fortunate enough to attend President Mbeki's inauguration and 
watch as Nelson Mandela passed the torch.
    The first half of my career was focused on domestic and 
international investing in the United States and Israel. I then 
started three successful businesses, the most recent being 
Landmark Health. At Landmark, we cared for chronically ill 
patients by providing 24/7 home medical care. My team and I 
grew Landmark from an idea to the largest home physician 
medical group in the country, with 20 offices and over 1,000 
employees in the United States and India.
    Two years ago, my predecessor at CMS, Dr. Patrick Conway, 
asked if I would consider joining the government to run 
innovation for our country. This meant walking away from a 
company that I had built and loved. It was one of the most 
difficult decisions in my life. I chose to do this because I 
saw public service as an opportunity to go from helping 
thousands to helping millions. I am proud of the 600 committed 
people on my team and all that we are accomplishing at HHS.
    I believe in empowering others and that diverse viewpoints 
drive successful innovation. If confirmed, I will apply this 
same belief, along with my international investment, 
entrepreneurial, and public-sector experience to DFC.
    The need for a nimble, strategic development finance agency 
is clear in today's geopolitical landscape. The challenges 
facing less-developed countries are vast. Private capital is an 
essential ingredient in solving the problems that people in 
emerging countries grapple with every day. From water 
purification in India to energy in El Salvador, from a clinic 
in Cameroon to thousands of loans to women entrepreneurs 
throughout the world, DFC will work to improve conditions in 
developing countries. DFC will further benefit from close 
collaboration with other Federal agencies as well as our allies 
internationally. DFC will be a critical tool in American 
foreign policy to address the growing influence of China and 
other authoritarian governments. American values, transparency, 
rule of law, respect for people, and environment offer--afford 
us a unique competitive advantage.
    DFC is a product of this committee's bipartisan 
collaboration. If confirmed, I commit to work together with you 
and your staffs to ensure that we realize its full potential.
    When I entered public service, I did not realize how 
emotional it would be. I did not realize that I would feel a 
bit different when I see our flag or when I stand for our 
national anthem. I am proud to be an American, and I am proud 
to have the opportunity to continue to serve our great Nation.
    Thank you for considering my nomination.
    [The prepared statement of Mr. Boehler follows:]


                   Prepared Statement of Adam Boehler

    Thank you, Chairman Risch, Ranking Member Menendez, and members of 
the committee. Thank you, Senators Cassidy and Whitehouse, for your 
kind introductions and your partnership.
    It is an honor to appear before you as the nominee for Chief 
Executive Officer of the new U.S. International Development Finance 
Corporation. This committee's ongoing insights will be critical to 
ensure that we serve the interests of the American people by addressing 
development challenges through investment and economic growth.
    I am joined this morning by my wife Shira and our four children: 
Ruth, Abraham, Esther, and Rachel. I hope that they are not too young 
to appreciate witnessing democracy in action. I would also like to say 
hi to the first and third grade classes at Newman Elementary School in 
New Orleans who are watching this hearing right now.
    I would like to recognize the talented professionals at OPIC and 
USAID's Development Credit Authority. If confirmed, I am committed to 
working in partnership with USAID and other federal agencies to further 
the goals established by Congress through the BUILD Act.
    I would like to thank the current acting and former presidents of 
OPIC--David Bohigian, Elizabeth Littlefield, Rob Mosbacher, and Peter 
Watson--for being here today with me, as well as Ray Washburne for all 
of his insights.
    I grew up in a small town outside of Albany, New York. My father is 
a primary care physician, and my mother is a speech pathologist who 
made home visits to children in need. Their commitment to helping 
others made a deep impression on me.
    My first professional experience was in South Africa. The mayor of 
Johannesburg was taking classes at my university, and I stood outside 
his class to introduce myself. This led to a summer working for the 
Financial and Fiscal Commission, an agency set up by the South African 
Parliament to advocate on behalf of the provinces. That summer I was 
fortunate to attend President Mbeki's inauguration and watched Nelson 
Mandela pass the torch.
    The first half of my career was focused on domestic and 
international investing in the United States and Israel. Later I 
started three successful businesses, the most recent being Landmark 
Health. At Landmark, we cared for chronically ill patients by providing 
24/7 home medical care. My team and I grew Landmark from an idea to the 
largest home physician group in the country, with 20 offices and over 
1,000 employees in the U.S. and India.
    Two years ago, Dr. Patrick Conway, my predecessor at CMS, asked me 
if I would consider joining the government to run health care 
innovation for our country. This meant walking away from a company that 
I had built and loved. It was one of the most difficult decisions of my 
life. I chose to do this because I saw public service as an opportunity 
to go from helping thousands to helping millions. I'm proud of the 600 
committed people on my team and all that we are accomplishing at HHS.
    I believe in empowering others and that diverse viewpoints drive 
successful innovation. If confirmed, I will apply this same belief, 
along with my international investment, entrepreneurial, and public 
sector experience, to DFC.
    The need for a nimble, strategic development finance agency is 
clear in today's geopolitical landscape. The challenges facing less 
developed countries are vast. Private capital is an essential 
ingredient in solving the problems that people in emerging countries 
grapple with every day. From water purification in India, to energy in 
El Salvador; from a clinic in Cameroon to thousands of loans to women 
entrepreneurs throughout the world, DFC will work to improve conditions 
in developing countries. DFC will further benefit from close 
collaboration with other federal agencies as well as our allies 
internationally.
    DFC will be a critical tool in American foreign policy to address 
the growing influence of China and other authoritarian governments. 
American values--transparency, rule of law, respect for people and the 
environment--afford us a unique competitive advantage.
    DFC is a product of this committee's hard work and bipartisan 
cooperation. If confirmed, I commit to work together with you and your 
staffs to ensure that we realize its full potential.
    When I entered public service, I did not realize how emotional it 
would be. I did not realize that I would feel a little bit different 
when I see our flag or stand for our national anthem. I am proud to be 
an American, and I am proud to have the opportunity to continue to 
serve our great nation.
    Thank you for considering my nomination today. I look forward to 
answering your questions.


    The Chairman. Thank you, Mr. Boehler.
    Mr. Pack. the floor is yours.

  STATEMENT OF MICHAEL PACK, OF MARYLAND, NOMINEE TO BE CHIEF 
 EXECUTIVE OFFICER OF THE BROADCASTING BOARD OF GOVERNORS FOR 
                    THE TERM OF THREE YEARS

    Mr. Pack. Good morning, Chairman Risch, Ranking Member 
Menendez, and distinguished members of this committee. It is an 
honor to be with you today as the President's nominee to serve 
as CEO of the Broadcasting Board of Governors, recently renamed 
the U.S. Agency for Global Media.
    With me today is my wife of 33 years, Gina--she is my 
business partner and closest confident--and the oldest of my 
three sons, William. I want to thank Gina, William, and my 
entire family for their support.
    I have a long love affair with international broadcasting. 
In 1992, my wife and I were living in Los Angeles and running 
our independent film company. My wife was pregnant with our 
first child, William. Our life was very much on track. Then I 
received a call from the U.S. Information Agency asking if I 
would serve as director of Worldnet, which is now the 
television component of the Voice of America. The Cold War had 
recently ended, and the VOA had helped make that happen. Now I 
could be part of this storied institution. Without hesitation, 
my very pregnant wife and I rerouted our lives, sold our home, 
moved to D.C., and never looked back.
    Let me tell you a little about myself. I was born and 
raised in New York City, where I started my film company, 
Manifold Productions, in 1977. I have produced more than 15 
documentaries, which have been nationally broadcast on PBS. We 
made films about the Nation's founding fathers, the 
entertainment industry, the history of America's political 
parties, great engineers and scientists, and much more. Over 
the years, I have also served as a senior executive in media 
companies.
    In 1993, I went to the Corporation for Public Broadcasting 
to launch the International TV Council geared to arranging co-
productions in the former Soviet Union. Years later, in 2003, I 
returned to CPB as the senior vice president for television 
programming. Part of my mission was to launch new programming 
initiatives. One of these was the series ``America at a 
Crossroads,'' which examined challenges facing America after 
September 11th from a variety of perspectives.
    In between my stints at CPB, I was nominated by President 
George W. Bush and confirmed by the Senate to serve on the 
National Council of the National Endowment for the Humanities. 
More recently, I was president and CEO of the Claremont 
Institute, a think tank based in southern California, and I 
have since returned to Manifold Productions, the successful 
small business which my wife and I have run for over 30 years.
    Now I feel called back to international broadcasting. 
America's adversaries have stepped up their propaganda and 
disinformation efforts. I am reminded of this famous quote from 
Abraham Lincoln, quote, ``Public sentiment is everything. 
Without it, nothing can fail. Against it, nothing can succeed. 
Whoever molds public sentiment goes deeper than he who enacts 
statutes or pronounces judicial decisions,'' unquote. Although 
Lincoln had democratic America in mind, in today's connected 
age, molding global public sentiment matters. As Lincoln would 
have counseled, we need to counter lies with the truth.
    If confirmed, I would have three goals:
    The first is to raise employee morale at the agency. USAGM 
consistently ranks at or near the bottom in surveys of midsized 
agencies, in terms of morale. I will make it a priority to 
change that.
    The second is addressing the scandals besetting USAGM. The 
agency has been rocked by a series of scandals, including 
accusations of bribery, anti-Semitism, and malfeasance by a 
senior official. I will make certain that the agency is doing 
everything that it can to make sure such scandals cease and do 
not occur in the future.
    Third, and most important, my mission will be to make the 
agency more effective.
    There was bipartisan support to create this new CEO 
position. The hope was that a CEO would provide the leadership 
and vision to ramp up the impact of the five broadcasting 
entities, and to create a more effective U.S. international 
broadcasting effort on the world stage. That will not be easy 
or fast. I will confer extensively with the talented and 
dedicated men and women of USAGM, and I will consult with all 
stakeholders, including here in Congress. So, you will be 
hearing from me often.
    Thank you for your time this morning, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Pack follows:]


                   Prepared Statement of Michael Pack

    Good Morning Chairman Risch, Ranking Member Menendez, and 
distinguished members of the committee. It is an honor to be with you 
today as the President's nominee to serve as CEO of the Broadcasting 
Board of Governors, recently re-named the U.S. Agency for Global Media. 
As you all know, this is a new position, and I want to thank the 
committee for having had the foresight and vision to create it.
    With me today is my wife of soon to be 33 years, Gina Cappo Pack; 
she is my business partner and my closest confidant. Our anniversary is 
tomorrow. The oldest of my three sons, William, is also in the 
audience. I want to thank Gina, William and my entire family for their 
support and encouragement. Let me also thank my good friend Ambassador 
Paula Dobriansky for making time to introduce me today.
    I have a long love affair with international broadcasting. In 1992, 
my wife and I were living Los Angeles and running our independent film 
company. We had recently bought a new home in the Hollywood Hills with 
a lovely view. My wife was eight months pregnant with our first child, 
William. Our life was very much on track.
    Then, I received a call from the U.S. Information Agency asking if 
I would serve as Director of Worldnet, which is now the television 
component of the Voice of America.
    The biggest event of my life--the end of the Cold War--was recent 
history, and the VOA had helped bring that about. Now, I could be part 
of this storied institution and help it bring free media and fact-based 
reporting to the now newly-liberated states of the former Soviet Union, 
and rest of the world. Without hesitation, my very pregnant wife and I 
rerouted our lives, sold our home, moved to DC, and never looked back.
    Since then, I have been a participant, an observer, and a fan of 
international broadcasting. I have never wavered in my admiration and 
support of its mission and the men and women who work so hard to 
fulfill it.
    Let me tell you a little about myself. I was born and raised in New 
York City, where I started my film company--Manifold Productions--in 
1977. As I said, we moved to LA in 1988, and then to DC in 1992. I have 
produced more than 15 documentaries which have been nationally 
broadcast on PBS, all received favorable reviews and excellent ratings.
    Our films tell America's story--also one of the goals of 
international broadcasting. The stories we've told range from history 
to politics to culture. We've made films about our nation's founding 
fathers, the entertainment industry, the history of America's political 
parties, Congress, great engineers and scientists, and much more.
    In addition to my documentary filmmaking, I have served as a senior 
executive in media companies, gathering experience managing 
journalists, writers, professors, staff and others. Often, I have had 
to restructure and move these organizations in new directions.
    I've already mentioned my time serving as Director of Worldnet 
under President George H.W. Bush. I reported to both the Director of 
the U.S. Information Agency and the Director of the Voice of America 
and managed a staff of 291, mostly civil servants but also contractors 
and foreign service officers. During my time there, we were able to 
more fully integrate Worldnet with the VOA, producing their first ever 
collaboration, a weekly public affairs television series for Ukraine. 
And, I forged life-long friendships that continue to enrich my life 
today.
    After leaving Worldnet, I took what I had learned about 
international broadcasting to the Corporation for Public Broadcasting 
and launched, with Paula Dobriansky, the International TV Council, 
geared to arranging co-productions between American producers and their 
counterparts in the former Soviet Union, to aid in their transition to 
independent, free media.
    Years later, in 2003, I returned to the Corporation for Public 
Broadcasting as the Senior Vice President of Television Production. 
Part of my mission was to launch new programming initiatives, which CPB 
had not done in many years. The first was America at a Crossroads, a 
series of prime-time documentaries examining challenges facing America 
after September 11th, from a variety of perspectives. The second was 
the History and Civics initiative, employing all media, from 
traditional TV to video games, to address middle and high schoolers' 
declining knowledge of our nation's past. Both these initiatives, in 
their way, focused on telling America's story.
    In between my stints at CPB, I was nominated by President George W. 
Bush and confirmed by the Senate to serve on the Council of the 
National Endowment for the Humanities.
    Most recently, I was the President and CEO of the Claremont 
Institute, a think tank based in Southern California. The Institute is 
dedicated to restoring the principles of the American Founding to the 
rightful, preeminent authority in our national life. I opened the 
Institute's first Washington, D.C. office and its first communications 
department, which significantly raised the profile of the Institute. 
And under my direction, we launched a website based on its flagship 
publication, the Claremont Review of Books.
    My many years running Manifold Productions, in between these other 
professional opportunities, has provided varied and relevant management 
experience. Each film produced is like launching a mini-company, with 
50 to 75 associates, from journalists and historians to film 
professionals and other experts, all working on it at one time or other 
over several years. In addition to the creative work, my wife and I are 
responsible for all business functions, from raising and managing the 
finances to marketing and development and we have run this successful 
small business for over 30 years.
    Although making documentaries is very satisfying work, I feel 
called back to international broadcasting again, just as I was 
originally called in 1991, though this time my wife is not pregnant, 
and we don't have to move three thousand miles.
    America's adversaries have stepped up their propaganda and 
disinformation efforts. They are aggressively promoting their very 
different visions of the world. Consider this famous quote from Abraham 
Lincoln's first debate with Senator Stephen Douglas, ``Public sentiment 
is everything. With it, nothing can fail; against it, nothing can 
succeed. Whoever molds public sentiment goes deeper than he who enacts 
statutes or pronounces judicial decisions.''
    Although Lincoln had democratic America in mind, in today's 
connected age, molding global public sentiment matters. As Lincoln 
would have counseled, we need to counter lies with the truth. We need 
to make clear to the world the ideals America strives to live up to. 
That is the mission of the U.S. Agency for Global Media. I would be 
honored to assist in that noble effort.
    If confirmed, I have would have three goals: The first is to raise 
employee morale at the Agency. USAGM consistently ranks at the bottom 
in surveys of mid-sized Agencies in terms of morale and job 
satisfaction. I will make it a priority to improve morale. The second 
is addressing the scandals besetting USAGM. In recent years, the Agency 
has been rocked by a series of scandals including accusations of 
bribery, anti-Semitism, and malfeasance by a senior official. I will 
make certain that the Agency is doing everything it can to make sure 
such scandals cease and put processes in place to prevent such 
situations in the future. Third, and most importantly, my mission will 
be to make the Agency more effective. There was bi-partisan support to 
create this new CEO position and to replace the existing Broadcasting 
Board of Governors. The hope was that a CEO would provide the 
leadership and vision to help ramp up the impact of the five 
broadcasting entities and to create a more effective U.S broadcasting 
effort on the world stage. Fulfilling that hope won't be easy or fast. 
I will confer extensively with the talented and dedicated men and women 
of USAGM and will consult with all stakeholders, most definitely 
including here in Congress. So, you will be hearing from me often.
    Thank you for your time this morning. I look forward to answering 
your questions.


    The Chairman. Mr. Pack, thank you very much.
    And thank you, to all of our nominees.
    We are now going to do a round of questions, 5 minutes 
each. I am going to reserve my time.
    And, with that, I will yield to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me start with Mr. Billingslea. I still have some issues 
that I want to pursue on the other matter, and I will pursue 
those. But, since you are here and the Chairman has decided to 
move forward with your nomination, let me ask you some 
questions. I want to ask you questions particularly on your 
record on interrogation and torture.
    Do you consider the bipartisan 2008 SASC Detainee Report an 
accurate and reliable account of the events that led to the 
abuse of detainees in U.S. custody?
    Mr. Billingslea. Senator, I do.
    Senator Menendez. The SASC report found that the 
interrogation technologies requested by GITMO on October 11th 
of 2002, and approved by Secretary Rumsfeld in December, quote, 
``influenced and contributed to the use of abusive techniques, 
including military working dogs, forced nudity, stress 
positions in Afghanistan and Iraq.'' October 10th, the day 
before GITMO made that formal response, was the last day of an 
8-day interrogation of one of the detainees which had used 
military dogs and stress positions. It was also the day--
October 10th--that military personnel from the Afghanistan 
Special Mission Unit Task Force, over which your office at DOD 
exercised policy oversight, left GITMO after studying the new 
interrogation techniques.
    On October 10th, that also was the day that you wrote a 
member--a memo, I should say, to Secretary Rumsfeld titled 
``Detainees at GITMO.'' While in this setting, I cannot say 
exactly what you wrote in that memo. I can say that I found it 
very disturbing, and I urge my colleagues on both sides of the 
committee to read that important memo.
    Mr. Billingslea, I want to ask you about another memo that 
we can talk about in public that you wrote, this one in April 
of 2003, titled ``Interrogation Methods for GITMO.'' In it, you 
recommended that Secretary Rumsfeld approve 11 interrogation 
techniques, which you supported, but, at that point, he no 
longer did--meaning the Secretary. These are the same 
techniques that the SASC report concluded--bipartisan SASC 
report concluded led to abuses in Afghanistan and Iraq. In the 
memo, which is quoted in the SASC report, you wrote that the 
techniques were, quote, ``not controversial from either a legal 
or policy standpoint,'' end quote. But, the Judge Advocate 
Generals from every military service raised serious legal and 
policy objectives to these techniques, including that they 
violated the UCMJ and domestic criminal law, and could expose 
servicemembers to possible prosecution, would have a negative 
effect on the treatment of U.S. POWs by their captors, would 
adversely impact the pride, discipline, and self-respect within 
the United States Armed Forces, and would adversely affect 
human intelligence exploitation and surrender of foreign enemy 
forces and cooperation and support of friendly nations,'' close 
quote.
    Why did you write that stress positions, hooding, 20-hour 
interrogations, forced grooming, and scenarios designed to 
convince the detainee that death or severely painful 
consequences were imminent for him or his family, were not 
controversial, when all the military services had clearly 
stated that they were highly controversial?
    Mr. Billingslea. Senator, I was not then, and I am not 
today, an expert on interrogation. I had to rely at the time on 
what people from the combatant commands told us about how 
different techniques would be used, and I had to rely on 
lawyers up and down the chain of command to tell us that these 
things were legal. I never supported any measure that was even 
remotely possibly determined to be illegal by the lawyers. In 
fact, in 2015, Congress passed a law making clear what is 
allowable and what is not. But, this was 2002. We did not have 
the benefit of the investigation that you referenced by the 
bipartisan group of the Senate Armed Services Committee. And we 
were--I was in the Pentagon on 9/11. All--many of us remember 
those dark days. Some of the interrogation techniques, as you 
point out, that were proposed by the combatant command--
proposed by the combatant command, not by me--in the aftermath 
of the attack are now clearly prohibited by law. And if I were 
ever called upon, and I hope never to be again, to have a view 
on these matters, I would, without question, uphold the law and 
reject anything not contained in the Army Field Manual.
    Now, Senator, I am honored and I am humbled that Senator 
John McCain voted for my confirmation to the current position. 
As we all know, he was tortured gravely by the North 
Vietnamese. He would not have done that if I were a torture 
advocate.
    The different assertions that are being made in the press 
in the past days are decades-old claims that were examined and 
discarded by the very investigation of the Senate Armed 
Services Committee that you referenced. That bipartisan 
investigation lasted a year and a half. They reviewed hundreds 
of thousands of documents. They interviewed, in person, more 
than 70 people. And they did not ever ask to talk to me. And 
the reason is that they knew I was not involved in advocating 
for torture, Senator. In fact, do not take my word for it, take 
Senator Levin's own--one of his own lead investigators, Dr. 
Mark Jacobson, who has written letters on my behalf and made 
himself available to your staff on the Minority committee 
staff, who has made crystal clear that I did not advocate for 
torture, that I was not in a deciding role, and that I was one 
of the key people trying to bring order to an orderless, 
chaotic process at GITMO.
    Senator Menendez. I have allowed you to use most of my time 
to answer the question, because it is a serious one. And, in 
follow-ups, I would like to explore what you have just 
answered, because, in fact, you were the author of the memos, 
you were the approver of some others. So, regardless of what 
you try now to claim was the framework, you know, the--maybe 
this would not be an issue, except for the position that you 
are being nominated for. You are going to travel the world on 
behalf of the United States. You are going to speak out against 
torture. You are going to, supposedly, speak out for human 
rights. Well, it is difficult to be in some country in the 
world speaking about that, when they are going to reference 
your own history. And that is why I am asking this line of 
questioning. But, in deference to my colleagues, I will wait 
for our second round.
    The Chairman. Thank you, Senator----
    Senator Menendez. I do have, also, other questions, as 
well, for the other nominees. I do not want them to think I 
have no affection for you.
    [Laughter.]
    Senator Menendez. I will have questions for Mr. Boehler, 
though I largely support his nomination. I have spoken to Mr. 
Pack, and there are some questions that have arisen of late, 
but our meeting, I thought, went relatively well, and we will 
look forward to how you answer those questions.
    But, I will, hopefully, follow up on a second round.
    The Chairman. Thank you, Senator. Affection is good.
    [Laughter.]
    The Chairman. We will go on with our round of questioning, 
and we will back to you, Senator Menendez, so you can pursue 
some more.
    Senator Paul.
    Senator Paul. I would like to continue on that line of 
questioning with Mr. Billingslea. You no longer support these, 
but I think, at the time, it was clear that you did support 
these enhanced interrogation techniques. In April of 2003, 
Richard Myers proposed to Rumsfeld the authorization of 24 
interrogation techniques. You then sent a memo, which I believe 
is authored by you, to Secretary Rumsfeld recommending that he 
approve 11 additional abusive techniques that are now illegal. 
So, it seems to me that you were an advocate for things that 
are now illegal.
    Mr. Billingslea. Senator, thank you for that question.
    As the Armed Services Committee report makes clear, I was 
not pushing techniques that the lawyers group had rejected. The 
group had decided on all the various techniques----
    Senator Paul. Which are now illegal.
    Mr. Billingslea [continuing]. Senator, yes, they----
    Senator Paul. But, you were an advocate for them when they 
were legal, when people thought they were legal. No one was 
telling you they were illegal. You were an advocate for these 
techniques. You are no longer for them, now that they are 
illegal.
    Mr. Billingslea [continuing]. So, Senator, again, I am not 
an expert on interrogation. I had to go on the basis of what we 
were told by those who had described the techniques, and I had 
to rely on the--I am not a lawyer, either, so we had to rely on 
the legal counsel.
    Senator Paul. But, there were a considerable amount of 
legal counsel on the other side. Major General Thomas Romig was 
the Judge Advocate General of the U.S. Army. He responded 
verbally to you, and has recounted that he was against the 
expansion of the enhanced interrogation. So was his assistant--
let us see if I have got it here--the Deputy Judge Advocate 
General and also the Navy JAG, Michael Lohr. So, I am assuming 
they are all lawyers, and they were all very much opposed to 
what you were for at the time. So, there were some lawyers 
saying it was legal, some lawyers saying it was illegal. But, 
at the time, you did agree to these things, and I think that is 
an important fact.
    I guess the question is, is that--do you think that these 
interrogation techniques--advocating for them, did you think, 
at the time, that there might be an adverse effect on our POWs, 
that, once they are captured, if we are torturing people here, 
that other countries might say, ``Well, hell, if America does 
it, why do we not do it to their people, as well?'' Did you 
ever consider that it might have an adverse effect on our POWs?
    Mr. Billingslea. Senator, absolutely. In fact, that is the 
reason why I was the individual in the Pentagon who blocked the 
use of waterboarding at Guantanamo, for exactly that reason. 
And that is why it was never considered, beyond the early 
stages of discussion, by the various legal groups. In fact, I 
am pleased, and the committee should have a letter on my behalf 
from Dr. Michael Gelles, who, at the time, was the chief 
psychologist for the Naval Criminal Investigative Service, and 
someone who was raising major concerns about what was going on 
at GITMO. And he has supported my nomination. And Dr. Gelles 
has made crystal clear that I have never supported torture, nor 
anything resembling torture, based on all the information I was 
given at the time.
    Senator Paul. But, you did support 11 additional enhanced 
interrogation techniques, which are now illegal. And whether we 
call them ``torture'' or not, people, later on, did decide, and 
the Judge Advocate at that time did also think, that these were 
not advisable.
    I guess another reason to think about this is whether or 
not, you know, we can ultimately prosecute and keep in prison 
potentially bad people. So, the prisoner, Slahi--I know you 
were involved with advocating for enhanced interrogation there, 
as well. The problem ended up being that the prosecutor--the 
military prosecutor, who went--joined after 9/11, because he 
was gung-ho to do something to our enemies--in the end, this is 
a guy who really wanted to convict the enemy, dropped the 
charges because he felt like the information that was gathered 
was done under stress and could never be used in court.
    Ultimately, though, people have also said that, when you do 
all these things to people, when you pretend to drown them, 
when you take them out to sea and you say, ``We have got your 
mother now, and this is the paperwork. We have got your mother, 
and we are killing her tomorrow''--when you do these abusive 
techniques, you get information that largely is not true. And 
so, I think that was the case with Slahi. And it also is not 
only not true, it ended up not being usable.
    So, I think it really was a judgment error. And, I mean, I 
think it is great, now, that you do not believe in torture, and 
you will obey the law, but I do question whether or not this is 
a problem, that, at the time, you were advocating, you were 
writing reports, you were the author of someone who wanted to 
go beyond even what Rumsfeld was willing to approve. You know, 
there were 24 approved, and you were for 11 more different 
enhanced interrogation techniques. So, I am bothered by it. I 
am willing to hear your answer here today, but also in writing, 
if you would like to follow up.
    Mr. Billingslea. Senator, yes. Because, again, I think a 
lot of the different dynamics are not getting conveyed in the 
way that the Armed Services Committee examined the matter.
    The memo you are referencing--I will talk about Slahi, with 
permission of the Chairman--but, the memo you are talking 
about, the decision--my concern was not trying to push one set 
of interrogation techniques or another, it was that we had 
worked for months to even get to a point where there was a 
process by which the legal teams would meet and discuss these 
matters. The entire--GITMO was complete chaos. In fact, what 
the committee has seen in the way of memoranda--the committee 
has seen a huge number of documents where I am literally 
personally trying to get people out of Guantanamo, get them 
onto planes and send them home, where I am trying to document 
human rights abuses that are being alleged by these detainees, 
where I am focused on making sure they have reading materials. 
These are not the kinds of interventions that a torture 
advocate would be making.
    Senator Paul. One thing that would help me in my vote would 
be if there are contemporaneous documents. We have reports that 
sound like you are advocating for more enhanced interrogation. 
If there are any reports or documents, from that period of time 
that we are not aware of, where you are arguing the opposite, I 
am more than happy to look at that. It seems like what I am 
seeing from the time, the contemporaneous stuff, is, you were 
advocating for more enhanced interrogation, with your memos and 
your reports.
    Mr. Billingslea. So, Senator, the--Chairman, with your 
permission--the very memo you referenced with regard to Slahi 
is a good example, where that was a request, started at GITMO, 
on how to do--we did not come up with these--this was not our--
this is not my plan. This was a request made by the Joint Task 
Force at GITMO. It made its way past their lawyers. It came to 
U.S. Southern Command. It made its way past those lawyers. It 
came to the Joint Staff. It made its way past those lawyers. 
Then it got to me. And handwritten on that memo is me saying 
that OGC, the legal team, has concurred that this is legal. 
Senator, what that tells you is that, despite the fact that 
dozens of lawyers at every which level had looked at this 
document, I did not trust it, and I wanted to hear, for myself, 
again, that these measures were legal. That is not something a 
torture advocate would do.
    The Chairman. Senator Cardin.
    Senator Cardin. Let me thank all of our nominees, thank 
your families.
    Mr. Pack, I want to start with you, because you are from 
Maryland. We had a wonderful discussion in my office. Very 
impressed with your background and your desire to serve our 
country. You would be the first confirmed CEO of the agency now 
known as the U.S. Agency for Global Media.
    We talked in my office, but I want to put this on the 
record, the balance that you are required to do as CEO. The law 
provides that you respect the professional independence and 
integrity of the agency. First and foremost, you are reporters, 
so you have to have the integrity of presenting the facts and 
the news. But, on the other side, this is a government-
supported function, and we are countering propaganda that is 
out there that is anything but factual, which is clearly aimed 
at a political objective. So, how do you go about balancing the 
professional integrity of the reporting versus the mission to 
counter propaganda that is out there?
    Mr. Pack. Thank you, Senator. An excellent question and a 
difficult problem.
    But, I want to say that I think the whole agency rests on 
the belief that the reporters are independent, that no 
political influence is telling them how to report the news and 
what to say. Without that, without that trust, I think the 
agency is completely undermined. So, I think that is a bedrock 
principle.
    On the other hand, I think that you can decide what 
countries to focus on, you can make some decisions that keep 
the work of this agency in line with what the United States 
global interests are. But, it is a difficult balancing act.
    But, the first principle has to be the editorial 
independence of journalists in the field. And no one should be 
telling them which reporter how to shade the news.
    Senator Cardin. I agree completely with that statement, and 
I tell you, you will find that tested, because political 
expediency, at times, will challenge the bedrock principle. 
But, I concur with how you answered that question and tell you, 
you have allies in Congress who will support that principle and 
urge you to rely upon that bedrock support incorporated in the 
law itself.
    Mr. Billingslea, I want to, first, underscore the point 
that Senator Paul made and Senator Menendez made, in that we 
are not comfortable that we have all of the information we need 
in regards to the history of your role in regards to enhanced 
techniques, interrogation techniques. I will be asking you some 
questions for the record. Others will. To the extent that you 
can provide that information, it will make our task a little 
bit easier in evaluating this.
    But, I want to get to the question that Senator Menendez 
ended with that has really troubled me, that the press reports 
about your support for the use of enhanced techniques, 
interrogation techniques, for expediency purposes will run up 
against people that you will be meeting internationally. If you 
are confirmed for a democracy and human rights agenda for our 
country, you will be in Turkey, where their leaders will say, 
``Well, we had to suspend civil rights in order to prevent a 
coup or a future coup in this country, so it is important to 
suspend human rights.'' Or you will be Hungary, where you will 
have leaders who have a concentration of the media messaging in 
that country through their relationships with the oligarchs, 
and they will say they needed that in order to be able to keep 
popular support for elections, and their elections are not free 
and fair today. Or you will run into the Philippines and the 
leaders there saying, ``Well, extrajudicial killings, no one 
likes it, but we needed to do that in order to control our 
national security on drug infiltration.'' So, how do you 
respond when you raise those issues and they say, ``Well, you 
were a head, or part, of the process of the United States that 
said enhanced interrogation techniques were necessary--i.e., 
torture--in order to protect the security of your own country. 
Do not yell at us. You did the same thing''? How do you answer 
that?
    Mr. Billingslea. Thank you, Senator.
    Well, first of all, to start with the simple fact that I am 
not an advocate for torture, and I never have been.
    Secondly, I travel--in the current role, I travel the 
world, I have hit 77 different countries, some of them repeats, 
in the current capacity, where I have worked on more than 700 
human-rights-related designations of all manner of vile 
behavior, whether we are talking about the Burmese army units 
that have repressed the Rohingya or we are talking about the 
former police chief in Uganda, where I was, and what he was 
doing to local populations. I am very plain-spoken with my 
counterparts, and there is no ambiguity over the fact that we 
will uphold human rights and combat corruption at every step of 
the way. And there is no doubt of my commitment, when I deal 
with these interlocutors, over the intensity with which both 
the United States government and I hold these issues.
    So, we have to be, just, very clear that there were a 
series of representations and legal determinations that were 
made 18, 19 years ago, in the wake of 9/11, which have 
subsequently, in 2015, codified into law, which I will advocate 
for and respect. But, that is actually part of the narrative 
here, which is that we have to talk to our counterparts about 
the fact that we are a nation of law, and we learn from our 
mistakes, and we evolve. And therefore, we will expect that 
other countries understand this and learn with us on these 
matters.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Cruz[presiding]. Thank you very much.
    Mr. Billingslea. I want to talk with you a little bit about 
the service you have been providing at Treasury. And you and I 
had a long and, I think, productive conversation in my office 
on these topics just a few days ago. By all accounts, you have 
excelled in the position you are currently serving in. 
Nonetheless, as you know, I have some concerns about policy 
that I would like to discuss.
    First of all, regarding Iran, as you know, the Europeans 
are currently engaged in efforts to circumvent our sanctions 
against the ayatollahs, including through a range of 
initiatives. One of those initiatives is the so-called special-
purpose vehicle. I am deeply concerned about this vehicle, and 
I believe it would badly undermine our campaign of maximum 
pressure. Could you please give me your assessment of the 
effect you think the vehicle would have on our maximum pressure 
campaign?
    Mr. Billingslea. Senator, I share your concern about the 
so-called INSTEX vehicle, which is the special-purpose vehicle. 
Ostensibly, that vehicle is intended--we are told is intended 
to allow for the furnishing of humanitarian assistance. It is 
not clear to me why that is required, because the Department of 
the Treasury has never impeded or otherwise objected to 
humanitarian assistance and medical--provision of medical 
support anywhere in the world. So, they seem to be developing 
it, perhaps, for other purposes. We have made incredibly clear, 
to the European countries involved, that we are following 
INSTEX very closely, and we will not allow it to be used to 
circumvent United States sanctions or the maximum pressure 
campaign we have on Iran.
    Senator Cruz. I want to also dig a little deeper in the 
issue with another initiative the Europeans are proposing. And, 
specifically, the French are proposing extending a $15 billion 
credit line to the ayatollahs. What effect do you think 
providing a $15 billion credit line would have on our pressure 
campaign?
    Mr. Billingslea. Senator, I think that would be very 
counterproductive, and the Secretary of the Treasury has made 
clear that this is not something we support.
    Senator Cruz. I am glad to hear it.
    Let us shift to another part of the world. As you know, I 
am also concerned about Russia's construction of the Nord 
Stream II pipeline, which would go to Germany and give Putin 
much greater control over Europe's energy security. Can you 
please give me your assessment of what the completion of the 
Nord Stream II pipeline would do to our national security and 
to Europe's security?
    Mr. Billingslea. Senator, the President has made clear that 
he opposes the Nord Stream II pipeline. Likewise, Secretary 
Pompeo and Secretary Mnuchin have both been clear with our 
counterparts that we think this is an unwise development. There 
have been representations made to us about how the Ukrainians 
will be shielded from the development of a whole new pathway 
that, frankly, I think, would allow Russia to bypass Ukraine 
and deny Ukraine the revenue that they currently generate from 
the existing pipeline structure. And I think that gives us 
great pause, as well.
    But, ultimately, if your question is going to be whether we 
feel that disrupting Nord Stream II through the application of 
sanctions--at the moment, the perspective of the United States 
government is that that is not the right way to address it. And 
we, on the Treasury side, speaking in my Treasury capacity, are 
working with the Department of State to ensure that the 
diplomatic channels are maximized in an effort to prevent this 
pipeline from coming online.
    Senator Cruz. When you say it is the administration's view 
that sanctions are not the right way to address it, why is 
that?
    Mr. Billingslea. Those sanctions authorities, first of all, 
do not reside with the Treasury Department, so I have not been 
privy to the internal deliberations within the State Department 
on it. But, at this stage, I think our goal is to attempt to 
work through other ways of disrupting the pipeline, with 
European allies, including passage through various territorial 
waters.
    Mr. Billingslea. Senator, I will need to look into this 
with Ambassador Sales and understand how he is thinking about 
reorganization of the mission. But, I think it is very, very 
important that we provide clarity on the swim lanes that exist 
within the different Department of State bureaus. And, if 
confirmed, you have my commitment that I will look into this 
and get back to you.
    Senator Cruz. I look forward to working with you on it.
    A final question. Many of us are deeply horrified by the 
Chinese persecution against the Uyghur minorities. Religious 
liberty will be within your portfolio if you are confirmed. The 
Chinese have created a 1984 dystopia, where they track the 
movement of millions of people, using cutting-edge 
biotechnology and artificial intelligence. I have introduced 
legislation to prevent exports and re-exports of U.S. goods to 
the companies that are aiding China in this persecution. Could 
you please describe both the Chinese campaign and how you 
intend to counter it, should you be confirmed?
    Mr. Billingslea. Senator, as I mentioned in my opening 
statement, the idea that China could be doing to the Uyghur 
population in Xinjiang today what they are doing in this day 
and age is--it is outrageous, it is reprehensible. We are, and 
I am personally, alarmed by the repressive campaign. As you 
mentioned, it is not just the cruel and inhumane treatment, it 
is the pervasive high-tech and arbitrary surveillance of the 
population. But, it goes beyond that. It also involves the 
insertion of the Han--ethnic Han Chinese into the houses, into 
the families of Uyghurs, some of whom's heads of household are 
imprisoned in these camps. And Chinese claims that these are 
humane job training centers is an outright falsehood, and it is 
belied by a wide range of evidence. In these camps, China is 
trying to force the Uyghurs to renounce their ethnic identity, 
their religious beliefs, and their religious practices. And 
this is unacceptable. They have to be held to account, and we 
have to decry this behavior in every shape and form and 
fashion.
    Senator Cruz. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations, to the witnesses, for your 
nominations.
    Mr. Billingslea. I want to ask you a question about the 
position into which you could be confirmed. The important role 
that you will play includes many portfolios, but one of the 
portfolios of importance to this committee is the Magnitsky 
Act. And I know you are familiar with the Act, because, at 
Treasury, you have been involved in Magnitsky Act's decisions 
and sanctions. The committee was very discouraged earlier this 
year. In February, 120 days after the--it was--Committee under 
a Republican majority, there was a bipartisan request to the 
President to make a determination about culpability for the 
assassination of Virginia resident, Washington Post journalist, 
Jamal Khashoggi. The Magnitsky Act requires such a 
determination. The President has 120 days to respond to a 
direct request from Congress about violations of the Act. The 
administration's answer, after 120 days, was, quote, ``The 
President maintains his discretion to decline to act on 
congressional committee requests, when appropriate.'' That was 
the White House's response.
    This was not just a congressional committee request, it was 
pursuant to a statute that is in law, that was a statute that 
was signed by a President. So, it is not just a request, like a 
document request or something pedestrian--more pedestrian. It 
was a legal requirement. And I think there was a sense, on the 
committee, Democratic and Republican, that the President was 
flouting the law by not giving us an answer. And the answer 
was--either these people are responsible and others are not, 
and the administration was asked to make a decision, one way or 
the other, and refused to answer.
    Do you know what the role of your position would be, should 
you be confirmed, in a process with the White House to render 
Magnitsky Act determinations, when requested by Congress?
    Mr. Billingslea. Well, Senator, I am not steeped in the 
State Department side of the Magnitsky Act. I have studied on 
it, and especially following our conversation, because I 
understand, in addition to just the fact that this was a 
horrific, barbaric act perpetrated, it was also one of your 
constituents, and those who were involved have to be held 
accountable. The Treasury Department, as you know, has 
designated, now, 18 of the individuals involved. I understand, 
however, that there are a series of legal issues that date back 
to the Obama administration and the signing of the Act, in 
terms of how, when, where, and if the executive branch responds 
to these kinds of requests. And again, I am not--I have not 
been party to those discussions----
    Senator Kaine. Are you aware of a--of an earlier case, 
where a President refused to answer the Magnitsky Act's 
question that is established pursuant to the statute?
    Mr. Billingslea. I am not. But, I am also not--I am not 
aware of how many such requests have been made. But, Senator, 
what I would commit to you to do--and I--also, I think you may 
have seen--the committee may have seen intelligence on this 
issue, which I have not. So, if you do confirm me into this 
job, I view it as a fundamental responsibility to make sure 
that the details and the considerations regarding human rights 
abuses are escalated and furnished to the Secretary of State, 
to give the best possible advice, and to ensure that those 
topics do not fall off the table when other equities and 
considerations are being presented to the Secretary of State.
    Senator Kaine. I think that is very important. Obviously, a 
decision has to be made at some point about what are the 
equities in the relationship between the United States and 
Saudi Arabia, but I worry that it sends a very, very bad signal 
about our commitment to human rights when the White House is 
unwilling to answer a question about whether there has been a 
human rights violation or whether certain individuals are 
responsible for human rights violations.
    Mr. Boehler. let me ask you a question. I was pleased that, 
in your discussion with my staff, one of the things you talked 
about was the desire to focus on investments in the Northern 
Triangle. You know, we have been bedeviled here with all kinds 
of issues dealing with immigration and others. And my strong 
belief, having lived in Honduras many years ago, is, if we do 
not deal with some of the root causes of challenges in that 
region, we can do whatever we want here, but there will be a 
natural desire of people to protect themselves, and that might 
include leaving their neighborhoods, leaving their cities, 
leaving their countries if they do not feel like they are safe. 
What would you intend to do, should you be confirmed, to 
prioritize the Northern Triangle with the development work you 
would be charged with?
    Mr. Boehler. Thank you for the question, Senator.
    I think, now that DFC will be a new agency, and if I am 
confirmed, I have the opportunity to be the first CEO. I think 
it represents an excellent opportunity to have that discussion 
with the administration and to work closely together with this 
committee to address that issue.
    Senator Kaine. I think it is important, just as I close. 
Because what we are seeing is the administration, you know, 
being pretty harsh in terms of slashing funding----
    Mr. Boehler. Yeah.
    Senator Kaine.--for initiatives in these countries, and 
then bemoaning the fact that people from the countries are 
leaving neighborhoods of violence to come to the United States 
or elsewhere. I think if we really want to deal with this 
migration issue, the smartest way to do is to go upstream and 
try to work in partnership with these countries, as we have 
with Colombia, for example, to try to promote more internal 
stability. And I would look forward to working with you on 
that.
    Thank you, Mr. Chair.
    The Chairman [presiding]. Thank you, Senator Kaine.
    Back to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me return to Mr. Billingslea. As the Principal Deputy 
Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict, your office had policy oversight of the 
Special Mission Unit Task Forces in Afghanistan and Iraq, which 
were composed of Special Operation Forces in charge with 
finding WMD and high-value targets. According to the 2008 SASC 
report, those units' interrogation policies, quote, ``were a 
direct cause of detainee abuse and influenced interrogation 
policies at Abu Ghraib and elsewhere in Iraq,'' close quote. 
There are numerous written records, including Department of 
Justice IG interviews with FBI agents, which state that 
concerns about the abuses that I just mentioned by those units 
were raised directly with you. Did you take any steps to 
address those abuses?
    Mr. Billingslea. Thank you, Ranking Member Menendez.
    First of all, I need to be very, very clear, we did not, 
and I never, provided, nor did I have the authority to provide, 
policy oversight to Special Mission Units operating in 
Afghanistan or Iraq. That is not the way SOLIC is organized. 
The office created by Congress for the Special Operating--the 
senior civilian for Special Operations is responsible for 
engaging with U.S. Special Operations Command in Tampa 
directly. Those Special Mission Units were elements of the 
Joint Special Operations Command, and they worked for the 
regional combatant commanders. They were well outside of any 
kind of direct engagement or direct contact.
    Moreover, we had no role in, and had no input into, any 
type of interrogation activities or techniques being employed 
by these units. Our sole involvement in the interrogation 
process that we were trying to create was focused on 
Guantanamo.
    Senator Menendez. But, you were directly told that there 
were concerns about the abuses of those units. What did you do?
    Mr. Billingslea. So, Senator, thank you.
    It came to our attention--I do not know that we were told--
it came to our attention that, actually, in the case of, I 
believe, an individual in--may have been Bagram--that there had 
been a death in one of these facilities. And I escalated that 
issue, personally, to the Special Operations combatant 
commander and asked him, in effect, what is going on here?
    Senator Menendez. All right. So, that is a specific 
incident. I assume that, in that specific incident, there would 
be some written record as to what happened. Is that a fair 
statement?
    Mr. Billingslea. I believe the Armed Services Committee 
looked into this exhaustively and tackled this question. But, 
again, I had no role----
    Senator Menendez. On the broad question that you were 
directly--according to these FBI agents, that they brought this 
directly to your attention about the abuses at Abu Ghraib, 
about the abuses of this policy, what did you do? You mentioned 
one specific incident. Did you say, ``We need to review this 
policy of torture? We need to end some of this?''
    Mr. Billingslea. Senator, I was long gone from SOLIC--I was 
at NATO at the time Abu Ghraib happened.
    Senator Menendez. You know, I heard your previous answer to 
me. And the problem is that all of the service chiefs and 
others, like Alberto Mora and William Taft, were strongly 
opposing torture. They were telling everyone who would listen 
to them that torture was ineffective, immoral, and illegal. You 
were clearly not among the group who sought to oppose that 
torture. What you are claiming is that you were trying to put 
order around a disorderly process. Well, that is bureaucratic 
jargon. What it means is that you furthered the machinery of 
torture. You put a process around memos, decisions, et cetera, 
but you did not seek to stop it. You advocated for it, and then 
you helped advance the development and implementation of 
torture.
    So, you cannot change history, or hide from it in 
bureaucratic jargon. And this goes--you may be doing a good job 
in what you are doing now, but this goes to the very heart of 
the position you have been nominated for. I do not know how you 
go talk to the Chinese about the Uyghurs. I do not know--when, 
you know, we were conducting torture against other Muslim 
entities. I mean, I--do you not understand the debility, based 
upon your past, in terms of this specific position?
    Mr. Billingslea. Well, Senator, simply put, I dispute the 
claim that I ever advocated for torture. And again, I refer you 
to multiple individuals, who felt strongly and disagreed 
strongly with what was occurring at Guantanamo, who have made 
the point that I never advocated for torture or anything 
resembling it. And again, I repeat, I opposed waterboarding at 
Guantanamo, as an example of the stand that I took.
    Senator Menendez. Would you urge the Department of Defense 
to provide us all of the documents that involve you in this 
regard so that we could come to a clear understanding before 
there is a vote on your nomination?
    Mr. Billingslea. Senator, I have asked the Department of 
Defense to give you everything. But, I think, more importantly, 
you are retreading ground that has already been well covered by 
the Senate Armed Services Committee in an exhaustive bipartisan 
investigation that lasted more than a year and a half. And that 
report, the definitive report which led to the changes in law, 
in no way, shape, or fashion remotely accuses me of having been 
a proponent for torture. They simply did not--in fact, to the 
point that they never even asked to talk to me about this 
matter.
    Senator Menendez. Well, we have seen no documents to 
support the statements you have made about waterboarding. We 
need to see them all. And that is, ultimately, the challenge 
with your nomination.
    Let me turn to Mr. Boehler, if I may. Mr. Boehler, I want 
to know from you whether the--the committee passed the BUILD 
Act because we saw the need to modernize and expand our 
development finance capabilities. As you noted in your 
statement, it is critical that the DFC offer an alternative to 
State-directed investment. There is a lot of expectations here. 
But, as far as I can tell, the administration is asking DFC to 
take on all the new requirements of the BUILD Act with, 
essentially, the same resources as before. How will you 
deliver, under those circumstances? And what can we do to help?
    Mr. Boehler. Thank you for the question, Senator.
    First, I am a big believer in using what you have. And I do 
not see DFC as independent of other U.S. government agencies. I 
think it is a great opportunity to work very closely with 
USAID, with our missions, with our embassies internationally. I 
think you rightly identify--we lack boots on the ground, to a 
large extent. We have 300 employees. And so, it will be 
critical to use and leverage our other partners, like USAID and 
State.
    I would also note, I think there is a huge opportunity to 
partner with our allies to work together to counter China and 
other autocratic governments.
    And finally, I would note that I would love to work closely 
with the committee as we think about resources, going forward. 
It is important to me, as I am sure it is to you, that the DFC 
is--comes into being as this Congress intended. And I would 
work closely with you to ensure that.
    Senator Menendez. Can we rely upon you, if confirmed, to 
answer truthfully when you are asked a question, for example, 
such as resourcing?
    Mr. Boehler. Yes, Senator.
    Senator Menendez. There are four members who had to leave. 
All happen to be members of the Appropriations Committee who 
are also members of this committee. So, I think it is a very 
good opportunity to be honest with them when they ask you, 
because you have several allies among them, as well as myself.
    Let me ask you one other question. What is your opinion--
the USDFC is authorized to create enterprise funds--new 
enterprise funds--what is your opinion on them and their dual 
mandate to increase development but also to make a return on 
investment?
    Mr. Boehler. Senator, I think enterprise funds are a 
potentially excellent opportunity, both looking at regions as 
well as product-specific-type enterprise funds. And I think the 
new DFC could be a tool to operate them in an effective manner. 
So, I am interested in that potential tool, going forward.
    Senator Menendez. Yeah. The problem is--is the history--you 
know, development funds, in and of itself, has a national 
policy purposes, a foreign policy purpose. Getting a return on 
investment is not always easy as it relates to development 
funds. So, I hope we are not constrained in the enterprise 
funds in a way that the return on investment outweighs the 
national interest as it relates to the actual development.
    Mr. Pack. some issues have arisen since we spoke, and I am 
not going to raise it here today, but my staff has asked you a 
series of questions. I am--I want you to state for the 
committee: Do you commit to providing the committee prompt and 
complete responses to those questions, as well as any 
followups, before we advance your nomination to the full 
Senate?
    Mr. Pack. Senator, I did get those questions yesterday 
afternoon. And the extent and breadth of the questions made it 
impossible to answer quickly. They will require adequate 
research, consultation, going back over some relevant 
documents. But, I absolutely commit that I will get you the 
answers as expeditiously as possible. And I take the questions 
seriously, and I will put in the time and energy to get them to 
you as quickly as I possibly can.
    Senator Menendez. Well, I appreciate it. That is why I am 
not asking you today. I do not expect you to have the answers. 
But, I do want a commitment to get them.
    Finally, this is an incredibly important position. The 
Chairman and I were talking about this entity, and how 
important it is. And you and I talked a little bit about this, 
but I want to establish it for the record. Much has been made 
of your collaboration with former Trump campaign advisor Steve 
Bannon. In 2017, you penned an article titled, quote, ``Will 
Steve Bannon Help Break the Left's Monopoly on Documentaries,'' 
in which you wrote--``Democracy,'' as well--but, in any event, 
``Documentaries,'' in which you wrote, ``Given the explosion of 
interests in documentaries and the rise of conservative news 
and talk radio, you might expect that Steve and I are typical 
of a large and growing group of conservative documentarians.'' 
You continued, quote, ``Trump, with Bannon's help, campaigned 
against political correctness and self-dealing elites, and they 
won,'' close quote.
    Now, my question, based upon that, is, How can we expect 
someone who has publicly embraced his role as a conservative 
documentarian to steward an agency that is charged with 
supporting independent, politically unmotivated press?
    Mr. Pack. Senator, well, that article--that op-ed called 
for diversity in documentary programming, something I still 
believe in. But, I think you should look to my track record. I 
have worked at other institutions, and I have had the same 
political views--for example, the Corporation for Public 
Broadcasting--where I had a charge to assist programming and 
reflect the highest journalistic standards and a diversity of 
opinion. I cited, in my opening remarks, ``America at the 
Crossroads,'' a series that I caused to--I initiated at the 
CPB, that was 30-plus programs that dealt with post-9/11 issues 
from a variety of perspectives. I did not try to impose my 
views on the filmmakers. And they were very well received, and 
they did not have my views enforced upon them.
    I think it is very different to write an op-ed and have a 
role--at the time, I was CEO of a think tank. I think that is a 
very different kind of a role than the role at USAGM, where I 
think I would not--or I would take seriously that it is not my 
job to impose my views on journalists. As I said earlier, their 
independence is the bedrock of the institution.
    Senator Menendez. So, let me finalize, then. How will you 
protect the firewall between journalists and political 
interference?
    Mr. Pack. Well, I am not sure about all the journalistic 
practices and techniques inside the agency now to do that, but 
I would look at those and try to strengthen them. I guess it 
comes down to that we need to say no when you get a call from 
somebody--a political person telling journalists what to do. 
But, I will look for ways to make sure that journalists 
maintain----
    Senator Menendez. Are you capable of saying no?
    Mr. Pack. I think so. I have said no before.
    Senator Menendez. Well, there is going to be enormous 
pressure, at times, here. And, regardless of the quarter--I do 
not care if it is the Ranking Member of the Foreign Relations 
Committee, the leader of the Senate or the House, or the 
President of the United States calling and saying, ``You need 
to have your journalists tell this story in this way.'' That is 
not what broadcasting is across the globe. If we have 
independent, free, balanced reporting, then people in the world 
will listen to what we have to say. If we are just promoting 
somebody's view, then people in the world will very quickly--I 
give people a lot of credit, at the end of the day--they will 
very quickly, you know, tune off and turn out.
    So, that is one of the critical elements of this job, and I 
hope that what you said, that you have the ability to say no--I 
hope you are never called upon to say no, but, if you are, I 
would expect you to say no.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    And thank you, to our nominees, for your patience with us 
this morning.
    For information of the members, the record will remain open 
until close of business on Friday, including for members to 
submit questions for the record.
    With many thanks to this committee, this committee is now 
adjourned.


    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
   Submitted to Hon. Marshall Billingslea by Senator Robert Menendez

    Question. Mr. Billingslea, no matter what other talents you might 
bring to this position, it would be remarkable that someone who worked 
to advance this nation's use of enhanced interrogation techniques would 
be serving in the job of Under Secretary for Civilian Security, 
Democracy, and Human Rights. Do you see how that threatens to undercut 
America's moral voice, harm our strategic interests, and undermine the 
morale of our diplomatic workforce?

    Answer. In my capacity as Assistant Secretary of the Treasury, I 
have made human rights a foundational cornerstone of my work. In this 
role, I have advocated for--and driven implementation of--more than 700 
sanctions using human-rights and corruption-related authorities. I have 
traversed the globe pursuing human rights abusers and their finances, 
and a number of them have found their access to the international 
financial system cut off due to these actions. If confirmed by the 
Senate, I will bring to the role of Under Secretary a strong moral 
voice that will advance our strategic interests and a proven track 
record of leadership that will bolster the morale of our diplomatic 
workforce.

    Question. How will you look torture survivors in the eye and tell 
them that what happened to them is wrong, and that the United States 
stands with them? Why do you think that they should trust you?

    Answer. As I stated in the hearing, I have never advocated for 
torture. If confirmed, I look forward to making clear that torture is 
illegal, counterproductive, and wrong.

    Question. How will you engage in conversations--with America's 
friends and foes alike--about how torture is illegal, 
counterproductive, and wrong?

    Answer. As someone who has never advocated for torture, if 
confirmed I will engage aggressively in conversations to make clear 
that torture is illegal, counterproductive, and wrong.

    Question. When you're engaged in a conversation with Chinese 
officials about how that government is systematically locking up and 
abusing its Muslim population, do you not expect that they will 
reference your own history of advocating for the mistreatment of 
(Muslim) detainees?

    Answer. I have never advocated for torture or the mistreatment of 
detainees. Indeed, the committee staff have seen multiple classified 
documents showing that I was very concerned with everything from 
ensuring detainees had appropriate reading materials, to ensuring that 
detainees were returned home from Guantanamo Bay Naval Base. If 
confirmed, I look forward to making clear that torture is illegal, 
counterproductive, and wrong.

    Question. How do you believe that engaging in this conversation 
could possibly advance U.S. interests and work to the benefit of 
repressed Uighurs?

    Answer. I will actively pursue the human rights of repressed 
Uighurs, if confirmed by the Senate.

    Question. Similarly, you will, no doubt, be called upon to engage 
with some of America's security partners, like Saudi Arabia, UAE, and 
Egypt, who are known to routinely torture their citizens at home and 
abroad. You will need to engage in difficult, but important 
conversations around how repression drives radicalization and foments 
instability. How are we, members of the committee, to believe that your 
very presence in these conversations will not send a signal that, for 
now, the U.S. government stands not with the tortured, but with the 
torturer?

    Answer. As stated in Answer 1, in my capacity as Assistant 
Secretary of the Treasury, I have made human rights a foundational 
cornerstone of my work. In this role, I have advocated for--and driven 
implementation of--more than 700 sanctions using human-rights and 
corruption-related authorities. If confirmed, I look forward to making 
clear that torture is illegal, counterproductive, and wrong.

    Question. As you know, the State Department is currently grappling 
with historically low morale due to mismanagement, ill-conceived hiring 
freezes, and in some instances, outright political retribution. If 
confirmed, many of the staff members that you will oversee have 
dedicated their lives to fighting on behalf of the most marginalized, 
including torture victims. In some instances, they've spent years in 
conflict-ridden and inhospitable locations. They've seen first-hand how 
torture and other forms of repression break bodies, break communities, 
and break societies. Yet in their new boss, they will see that when the 
going got tough, you decided to dispense with law and policy (e.g., the 
Army Field Manual dictating acceptable interrogation techniques). They 
will know that the torture policies you played a role in led to a 
massive stain on America's standing in the world. They will know that 
the torture inflicted on detainees held in U.S. custody meant that 
these detainees, some of whom sought to harm America, could never be 
brought to trial. They will know that your engagement with foreign 
officials on human rights issues leaves the United States with a weak 
hand.
    Given all of this, how can you in good conscience argue that you 
are the appropriate person to lead the human rights bureau and serve as 
Under Secretary for Civilian Security, Democracy, and Human Rights?

    Answer. As stated in previous answers and my testimony, in my 
capacity as Assistant Secretary of the Treasury, I have had the 
opportunity to work with the outstanding professionals within the ``J 
Family'' on a wide range of topics. Many staff know that I have made 
human rights a cornerstone of my work and that I have advocated for--
and driven implementation of--more than 700 sanctions based upon human-
rights and corruption-related authorities. If confirmed by the Senate, 
I look forward to leading this organization to advocate strongly around 
the world for human rights.

    Question. If confirmed, you will oversee a significant portion of 
the State Department's foreign assistance in key accounts related to 
human rights, refugees, and law enforcement, among other things. The 
Trump administration has consistently sought to decimate U.S. foreign 
assistance, including in many accounts you will oversee. Will you 
commit to defend and strengthen critical foreign assistance aimed at 
improving governance, upholding human rights, supporting democracy, and 
precluding conflict?

    Answer. Yes. In the FY 2020 Request, the administration requested 
nearly $2 billion in foreign assistance funding to support democracy, 
good governance, and human rights, as well as to mitigate conflict and 
promote stabilization, reflecting its commitment to these priorities.
    The work of the family of bureaus and offices which report to the 
Under Secretary for Civilian Security, Democracy, and Human Rights--
including the foreign assistance they provide--is essential to 
protecting the United States and projecting our values abroad. If 
confirmed, I will do everything I can to support these bureaus, 
offices, and U.S. missions overseas as they do this important work.

    Question. Thousands of people have fled persecution, violence, and 
deprivations in Honduras, Guatemala and El Salvador. Many are unable to 
secure protection from governments wracked with corruption. Yet the 
U.S. has failed to stand up for major anti-corruption initiatives in 
the region, and is cutting programs in these countries that were aimed 
at improving access to protection in these countries--for instance, for 
children targeted by gangs. Do you agree that cutting aid aimed at 
fighting corruption and reducing crime serves the U.S. national 
interest?

    Answer. I understand that President Trump and Secretary Pompeo 
believe the governments of El Salvador, Guatemala, and Honduras must 
take clear action to stem migration to the United States. These 
governments must address corruption, enhance citizen security and the 
rule of law, and promote economic development. I understand that the 
United States continues to support anti-corruption efforts whether or 
not we provide foreign assistance. It is clear that political will and 
partner commitment are critical to ensuring the effectiveness of any 
such assistance. If confirmed, I will make the case to our partners 
that when we share a strong commitment, our combined efforts better 
serve U.S. interests.

    Question. What steps, if any, will you take to ensure the State 
Department advances the human rights of people in these countries, 
instead of undermining their ability to secure protection at home--
pushing many to flee in search of protection?

    Answer. I believe the United States must continue to support human 
rights and anti-corruption efforts regardless of whether we provide 
foreign assistance through one specific program or another. If 
confirmed, I will work to engender political will and partner 
commitment so that all people at risk are not pushed to flee in search 
of protection.

    Question. How do you see this position to which you have been 
nominated as supporting and/or being impacted by implementation of the 
State Department's reorganization efforts?

    Answer. If confirmed, I will work with the Under Secretary for 
Management to ensure any potential reorganizations are coordinated and 
bureaus and offices within the J family are positioned to advance 
foreign policy priorities.

    Question. What is your current understanding of how any 
reorganization efforts may affect the bureaus for which you would be 
responsible?

    Answer. I am not currently involved in any discussions related to 
potential reorganization efforts within the Department of State that 
would affect bureaus and offices within the J family.

    Question. From your perspective, what affect has the hiring freeze 
instituted under Secretary Tillerson had on staffing levels within the 
bureaus and offices overseen by the position?

    Answer. If confirmed, I will analyze the current staffing levels 
within the bureau under my purview and work with the Under Secretary 
for Management and Director General to ensure appropriate staffing 
levels to advance foreign policy objectives.

    Question. If confirmed, you will oversee the Bureau of Population, 
Refugees, and Migration (PRM). In many cases, key U.S. allies are 
struggling to host large numbers of refugees in the face of declining 
aid and resettlement, both of which are key tools that help support the 
stability of these allies as they continue to provide refuge to the 
persecuted. As you know, the Trump administration has already reduced 
refugee resettlement to the lowest level ever, and is considering 
simply eliminating the program. Two weeks ago, 27 retired generals and 
admirals--a veritable who's who of recent four and three-star 
commanders of America's military--spoke out in opposition to this 
decision. The retired generals and admirals wrote that, among other 
things, the U.S. refugee resettlement program has ``demonstrated our 
humanitarian leadership and values,'' ``provided life-saving 
assistance,'' and ``served critical national security interests.'' In 
particular, these retired military leaders referenced the Special 
Immigrant Visa (SIV) and Iraqi Direct Access (P-2) programs that 
directly support the safety of U.S. service members. Given the truth of 
this perspective, if confirmed, will you state unequivocally that you 
will strenuously advocate not just the maintenance of the refugee 
resettlement program, but for a return to historic resettlement levels 
for this critical national security tool?

    Answer. I understand that the United States remains one of the 
largest resettlement countries in the world. I am also aware that the 
United States exercises international leadership as the single largest 
donor of humanitarian assistance worldwide, last year delivering more 
than $8 billion in life-saving aid around the world. If confirmed, I 
will support the President's emphasis on coordinated, effective, and 
efficient international responses, as well as the need for other 
governments and private sector actors to contribute to humanitarian 
efforts.

    Question. In light of U.S. interests, as explained by former U.S. 
military leaders, what steps will you take to strengthen--and 
increase--US refugee resettlement?

    Answer. If confirmed, I look forward to working with the career 
professionals dedicated to managing refugee programs. I understand that 
the United States anticipates resettling up to 30,000 refugees in FY 
2019 under the refugee ceiling. These refugees will join hundreds of 
thousands of asylum seekers who are already inside the United States 
awaiting adjudication of their claims. The refugee admissions program 
must take into account this operational reality. I understand that in 
consideration of both the U.S. national security interest and the 
urgent need to restore integrity to an overwhelmed asylum system, the 
administration is focusing on addressing the humanitarian protection 
cases of those already in the country. Moreover, it is important that 
the refugee ceiling number should not be viewed in isolation from 
America's other, expansive humanitarian programs. I understand that in 
FY 2018, the United States provided more than $8 billion in 
humanitarian assistance, including to refugees.

    Question. Please comment on PRM's response capacity and contingency 
planning. To what extent does the current level of staffing of the PRM 
bureau adequately address its fundamental areas of responsibility?

    Answer. If confirmed, I am committed to ensuring that the Bureau of 
Populations, Refugees, and Migration (PRM) has sufficient staff to 
carry out its diplomatic, program management, and oversight functions, 
including humanitarian response and contingency planning, in order to 
implement efficiently and effectively the funds appropriated by 
Congress. This includes having sufficient refugee coordinators overseas 
as well as staff within the bureau at the Department.

    Question. What is your view of the role of the United States in 
global fora, such as the global compacts on refugees and migration?

    Answer. Our National Security Strategy states that the United 
States will continue to lead the world in humanitarian assistance and 
that we will provide this generous assistance as close to refugees' 
homes as possible in order to meet their needs until they can return 
home safely, voluntarily, and with dignity. I understand that the 
United States remains the largest single donor of humanitarian 
assistance worldwide, and supports engagement to create conditions for 
predictable response and greater burden-sharing among U.N. member 
states and other stakeholders, including development actors, refugee-
hosting communities, and the private sector.

    Question. What do you see as the key drivers for the U.S. 
withdrawal from participation in the Global Compact on Migration?

    Answer. I understand the United States does not support the Global 
Compact on Migration or any process that imposes or has the potential 
to impose international guidelines, standards, expectations, or 
commitments that might constrain our ability to make decisions in the 
best interests of our nation and citizens. The Compact is inconsistent 
with how we choose to exercise our sovereignty in managing our 
immigration system and establishing national policy and laws.

    Question. What do you see as the U.S. role in refugee resettlement?

    Answer. I understand that the United States offers humanitarian 
protection to the most vulnerable of those who have experienced 
persecution or who fear persecution, while prioritizing the safety and 
security of the American people. The National Security Strategy says 
that the United States will prioritize supporting displaced people 
close to their homes to help meet their needs until they can safely and 
voluntarily return home. I understand that U.S. humanitarian assistance 
reaches millions of refugees and displaced people worldwide every year, 
including those who will never be considered or qualify for 
resettlement.

    Question. The U.S. refugee ceiling for FY2019 is historically low 
at 30,000. In the area of humanitarian protection, the administration 
has stated that it is giving priority to the adjudication of asylum 
cases. Do you think the United States will (or should) continue to be 
the leading country for the resettlement of refugees? Why or why not?

    Answer. I understand that the United States anticipates resettling 
up to 30,000 refugees in FY 2019 under the refugee ceiling. These 
refugees will join hundreds of thousands of asylum seekers who are 
already inside the United States awaiting adjudication of their claims. 
The refugee admissions program must take into account this operational 
reality. I understand that in consideration of both the U.S. national 
security interest and the urgent need to restore integrity to an 
overwhelmed asylum system, the administration is focusing on addressing 
the humanitarian protection cases of those already in the country. 
Moreover, it is important that the refugee ceiling number should not be 
viewed in isolation from America's other expansive humanitarian 
programs. I understand that in FY 2018, the United States provided more 
than $8 billion in humanitarian assistance, including to refugees.

    Question. If you were making a recommendation to the President 
today on what the resettlement number should be, what would that 
recommendation be and why?

    Answer. Each year, the President makes an annual determination, 
after appropriate consultation with Congress, regarding the refugee 
admissions ceiling for the following Fiscal Year. I understand that 
determination is expected to be made prior to the start of Fiscal Year 
2020 on October 1, 2019. I cannot speculate on internal and interagency 
deliberations or communications involved in such deliberations.

    Question. What message do you think it sends to other countries 
that resettle refugees that the U.S. is drastically lowering its 
resettlement number? Are you concerned about the ripple affect the U.S. 
approach could have on refugee resettlement globally?

    Answer. I understand the United States continues to be one of the 
largest resettlement countries in the world. U.S. advocacy--through 
engagement within the United Nations, other multilateral fora, as well 
as bilaterally with nations around the world--focuses on expanding the 
number of donors, increasing global contributions to humanitarian 
appeals and response, and ensuring that American taxpayer dollars serve 
our foreign policy interests. The administration applauds those 
refugee-hosting countries that are making generous and critical 
contributions to support refugees. I agree that a global response, with 
the increasing financial support of multiple nations and non-
traditional actors, is critical to ensuring regional stability and 
creating conditions so that refugees can return home voluntarily and 
safely.

    Question. What will your priorities be for the CT Bureau?

    Answer. If confirmed, counterterrorism will be one of my top 
priorities. While the United States has made real progress, the threats 
from ISIS, al-Qa'ida, and Iran and its proxies are far from behind us. 
I believe that the State Department is central to any successful 
counterterrorism strategy and approach. In this effort, we must fully 
leverage the Department's diplomatic, foreign assistance, and sanctions 
tools, among others. While the United States will continue to lead the 
global campaign to defeat terrorist groups, it is not a battle that we 
can win on our own. Working with the Coordinator for Counterterrorism, 
I will focus on ensuring our partners do their part and appropriately 
share the burden.

    Question. What policies or activities may need to be reassessed or 
improved?

    Answer. While our partners around the world have taken significant 
steps in recent years to address the terrorist threats confronting the 
international community *- particularly in countering the rise of 
ISIS--significant gaps remain. Some countries still lack the basic 
counterterrorism tools mandated by U.N. Security Council resolutions, 
including UNSCR 2396 on terrorist travel, which the State Department 
was instrumental in conceiving and adopting. I also worked closely with 
the CT Bureau in my current capacity to secure UNSCR 2462, which 
requires nations to criminalize the financing of terrorism even when 
the financial flows are not associated with a particular terrorist 
attack. Many nations have not addressed either of these two critical 
resolutions. The State Department is assisting countries on the front 
line to build these capabilities, but I believe we can do even more. 
However, these partners must be equally committed to this effort. If 
confirmed, one of my top priorities would be ensuring that our partners 
are doing their part and that we are doing everything we can to help 
them.

    Question. How do you envision CT/CVE informing and supporting the 
work of the other bureaus and offices you will be leading?

    Answer. The Bureau of Counterterrorism (CT) guides and coordinates 
the Department's countering violent extremism (CVE) policy, assistance, 
and programming, which is conducted by a range of State Department 
bureaus and offices including those that, if confirmed, I will lead. 
Countering violent extremism requires a whole-of-government and whole-
of-society approach. The Department has many bureaus and offices that 
can bring their expertise and programming to bear. If confirmed, I will 
work to ensure the Department works collaboratively to bring all of our 
resources to bear on CT and CVE.

    Question. How will you address and resolve potential internal State 
Department counterterrorism-related coordination issues?

    Answer. While there are a number of bureaus and entities in the 
State Department that play an important counterterrorism role, the 
Bureau of Counterterrorism (CT) is at the forefront of these efforts. 
The Global Engagement Center, the Special Envoy for the Global 
Coalition to Defeat ISIS, and various other bureaus also have a vital 
role to play. While these actors may have individual views at times 
about counterterrorism policy, strategy, and approach, if confirmed, I 
will work with other Department leaders to ensure that the Department 
is speaking with one voice to the interagency, to our international 
partners, and to the public and media.

    Question. How do you see the role of the National Security Council 
(NSC) in supporting the activities of the Bureau of Counterterrorism?

    Answer. The National Security Council (NSC) plays a critical role 
in setting United States counterterrorism policy, strategy, and 
approach. The State Department works closely with the NSC in this 
effort. For example, I understand that the State Department was 
integrally involved in the development, drafting, and implementation of 
the NSC-led National Strategy for Counterterrorism. The NSC's 
interagency Counterterrorism Security Group, in which the State 
Department participates, serves as the key venue to coordinate 
counterterrorism policy, through which the CT Bureau and U.S. Chiefs of 
Mission ensure foreign policy and counterterrorism efforts remain 
aligned around the world. The CSG, along with the Deputies and 
Principal Committee, are fora where the Department can ensure our 
counterterrorism efforts are aligned to broader U.S. foreign policy 
objectives.

    Question. The annual Country Reports on Terrorism are often 
criticized for putting forth politicized findings. Do you agree with 
this assessment? What changes, if any, do you envision for this report?

    Answer. The State Department's annual Country Reports on Terrorism, 
submitted to Congress and released publicly, lay out the United States' 
assessment of the state of the terrorist threat around the world, 
significant developments, and other countries' efforts to address the 
threat. I understand that career professionals serving at U.S. 
embassies provide substantial input, and the reports are widely 
reviewed by the experts in the State Department and other U.S. agencies 
to ensure that they are accurate and comprehensive. I understand the 
Department continually looks for ways to improve these products so that 
they are useful and informative. If confirmed, I will consult with 
stakeholders to determine whether improvements can be made, while fully 
complying with the Congressional intent in the statute mandating the 
report.

    Question. What is your assessment of the effectiveness of U.S. 
diplomacy in rallying the international community to find and eliminate 
terrorist cells and to seize their financial assets?

    Answer. The United States is a global counterterrorism leader that 
relies on robust international partnerships to ensure a broad and 
coordinated approach to disrupting and disabling terrorist networks. In 
addition to domestic terrorist designations, the United States has 
worked successfully to disrupt ISIS and al-Qa'ida financing through 
multilateral organizations such as the Counter ISIS Finance Group, the 
Terrorist Financing Targeting Center, and the U.N. Security Council 
1267 Sanctions Committee. The State Department also is actively engaged 
in a range of efforts to counter the far reaching terrorist and illicit 
activities of Iran and Hizballah, and continues to urge other countries 
to designate Hizballah in its entirety.

    Question. Do you believe that the resources and funding dedicated 
to U.S. counterterrorism programs at the State Department are adequate?

    Answer. I greatly appreciate continued Congressional support for 
State Department programs, including through the provision of 
resources. I understand these funds allow the Department to sustain its 
assistance in the highest priority areas and improve civilian 
capabilities with some of its most important partners in Afghanistan, 
Bangladesh, Iraq, the Philippines, Somalia, Tunisia, and beyond. I 
understand the Department has developed a comprehensive program review 
and budget planning process to ensure that it knows where every dollar 
is spent, the effectiveness of its programs, and what threats and needs 
exist. If confirmed, I look forward to supporting the Department's 
process to develop its budget request and ensure that it requests the 
resources it needs to execute the President's strategy.

    Question. What is being done to win the ``hearts and minds'' of 
individuals and groups that may be susceptible to the influences and 
teachings of radical Islamic fundamentalists?

    Answer. I understand the Bureau of Counterterrorism (CT) and USAID 
have worked to implement a multi-pronged approach to offer alternatives 
to individuals who may be susceptible to the influences and teachings 
of radical Islamic fundamentalists. These strategic countering violent 
extremism priorities and lines of effort inform policy formulation, 
diplomatic engagement, and foreign assistance programming. If 
confirmed, I will work with host and affected governments where Islamic 
fundamentalists may be propagating problematic influences and 
teachings.

    Question. How does the State Department assess the effectiveness of 
efforts to counter violent extremism?

    Answer. It is my understanding that CT Bureau senior leadership has 
been engaged on ensuring that CVE grants and cooperative agreements are 
achieving desired results by overseeing (1) the development of a single 
definition for what constitutes CVE programs or projects, and (2) the 
establishment of a process to verify that CVE grants and cooperative 
agreements comply with that definition.

    Question. What particular issues and/or regions and countries 
within DRL's broad mandate would you direct the DRL Assistant Secretary 
to prioritize?

    Answer. If confirmed, I will build on my work at the Treasury 
Department and continue to support efforts to isolate and hold 
accountable perpetrators of human rights abuses in countries such as 
Venezuela, Iran, Syria, and China. I also will prioritize support for 
vulnerable communities and persons, such as members of ethnic and 
religious minority groups living in areas liberated from ISIS. If 
confirmed, I will work with the Bureau of Democracy, Human Rights and 
Labor (DRL) to support its Human Rights and Democracy Fund rapid 
response mechanisms and other initiatives that reinforce U.S. 
leadership in global human rights promotion. I am aware of longstanding 
Congressional support for democracy programming, and I pledge to 
respond quickly and flexibly to changing needs and opportunities to 
advance human rights around the world.

    Question. How would you help ensure that democracy and human rights 
issues are adequately prioritized in our relations with other 
countries?

    Answer. I believe that promoting democracy and human rights is in 
the best interests of the United States and should always be a part of 
U.S. foreign relations.
    If confirmed, I will raise these issues with counterparts, 
including when I travel. Consistent with the National Security 
Strategy, I will use diplomacy, sanctions, and other tools to isolate 
and hold accountable states and leaders who threaten our interests and 
whose actions run contrary to our values. I will also support efforts 
to strengthen democratic institutions and empower democracy and human 
rights activists, including through U.S. assistance.
    Also, if confirmed, I will meet with a broad cross-section of civil 
society and opposition leaders during my overseas trips. The United 
States values the voice and opinions of civil society and has a long 
history of engaging leaders both inside and outside the government, a 
tradition I will continue. Hearing this range of views is essential in 
understanding country conditions, including the state of democracy and 
human rights, and plays a key role in informing and advancing U.S. 
foreign policy.

    Question. How do you view DRL's role within the broader State 
Department and its relation to the regional bureaus?

    Answer. The Bureau of Democracy, Human Rights, and Labor (DRL) 
plays a key role by leading the State Department's efforts to promote 
human rights, which is in the best interests of the United States. DRL 
champions American values, including the rule of law and the rights of 
individuals that contribute to strong, stable, prosperous, and 
sovereign states. American security is advanced in the struggle against 
authoritarianism and terrorism when we stand for the freedoms of 
religion, speech, and the press, and the rights of people to assemble 
peaceably and to petition their government for a redress of grievances. 
I commit to you that, if confirmed, I will be a fierce advocate for DRL 
continuing to play this vital role, including in its relationships with 
regional bureaus.

    Question. Some believe that the United States must balance its 
promotion of ``values'' issues with its pursuit of interests, while 
others tend to argue that promoting human rights and democracy can 
itself support U.S. interests, particularly over the long term. What is 
your view? Are there sometimes trade-offs between the pursuit of more 
immediate security or other interests and these arguably longer term 
objectives? If so, how should the United States balance these trade-
offs?

    Answer. The National Security Strategy states that, ``Liberty, free 
enterprise, equal justice under the law, and the dignity of every human 
life are central to who we are as a people.'' It also makes clear that 
a commitment to human rights is essential to advance U.S. influence 
abroad, and that respect for human rights produces peace, stability and 
prosperity--making it integral to U.S. national security. I believe the 
promotion of human rights is in the best interests of the United 
States, and these issues and concerns should always be at the table 
when foreign policy decisions are made. If confirmed, I pledge to 
ensure that human rights and democracy always receive due attention and 
consideration.

    Question. Many experts argue that the world is in the midst of a 
``democratic recession,'' with evidence of democratic erosion within 
existing democracies while key non-democracies such as China are 
arguably becoming both more repressive internally and more influential 
internationally. How would you direct DRL to respond to these 
developments? What implications, if any, do these trends have for DRL 
policies and programs?

    Answer. I share these concerns regarding democratic backsliding in 
many parts of the world. In fact, I believe that the situation may be 
even more dire than suggested by the question. A number of repressive 
regimes around the world are actively colluding with one another to 
counter U.S. and allied efforts to foster democracy and the rule of 
law. If confirmed, I will work with the Bureau of Democracy, Human 
Rights, and Labor (DRL) and others to use diplomacy, sanctions, and 
other tools to isolate and hold accountable states and leaders who act 
contrary to human rights norms. I am aware of longstanding 
Congressional support for democracy programming, and I pledge to 
respond quickly and flexibly to changing needs and opportunities to 
strengthen democratic institutions and advance human rights around the 
world. In each of these cases, I will seek to reinforce U.S. leadership 
in democracy and human rights promotion, for example by using DRL's 
Human Rights and Democracy Fund rapid response mechanisms to leverage 
partnerships with governments, the private sector, faith-based 
organizations, and other stakeholders.

    Question. INL has contributed to the U.S. government's efforts to 
shine a light on foreign corrupt practices around the world. Please 
assess how INL's anti-corruption programming has contributed to U.S. 
foreign policy efforts and what more, if any, can INL do to ensure U.S. 
priorities in this area are achieved.

    Answer. I understand that the Bureau of International Narcotics and 
Law Enforcement Affairs (INL) has played a variety of important roles 
in addressing corruption internationally. Its extensive capacity-
building programs provide foreign partners with the know-how to adopt 
effective anticorruption reforms and equip officials with the ability 
to implement them. INL also has worked with partners to help establish 
consensus international rules of the road such as the U.N. Convention 
against Corruption. It also has helped to develop political consensus 
on these issues in bodies such as the Group of Twenty. Within the U.S. 
government, I understand that INL assists in implementing the Global 
Magnitsky Act and coordinates the State Department's corruption visa 
restrictions.

    Question. How have INL programs, activities, and funding been 
realigned to contribute to U.S. efforts to combat the opioid crisis?

    Answer. The State Department has developed a comprehensive new 
strategy to disrupt the supply of illicit synthetic drugs that fuel the 
U.S. opioid crisis. I understand that to support its implementation, 
the Bureau of International Narcotics and Law Enforcement Affairs (INL) 
allocated FY 2018 funding toward a new Drug Supply Reduction (DSR) 
program and developed a dedicated DSR funding request in the 
administration's FY 2020 budget request. DSR programs include expanding 
public-private partnerships; targeting trafficking by mail; increasing 
scheduling of new substances; and strengthening national capacities to 
investigate, detect, and interdict opioids. I understand that these 
efforts complement INL's bilateral counterdrug programs as well as the 
Department's ongoing work abroad to stop flows of synthetic opioids 
into the United States and prevent the crisis from spreading.

    Question. What further efforts, if any, would you propose for INL 
to pursue under your leadership at State?

    Answer. I believe that the Bureau of International Narcotics and 
Law Enforcement Affairs (INL) plays an important role in keeping 
Americans safe by countering crime, illegal drugs, and instability 
abroad. I support INL's continued focus on countering narcotics and 
transnational crime; helping foreign countries assess, build, reform, 
and sustain competent and legitimate criminal justice systems; and 
building partnerships and international frameworks to combat 21st 
century crime.

    Question. What is your opinion of the effectiveness of the GCJ 
office in promoting accountability for perpetrators of atrocities, 
including genocide, crimes against humanity, and war crimes?

    Answer. The Office of Global Criminal Justice (J/GCJ) leads U.S. 
policy formulation on redressing atrocities--including genocide, war 
crimes, and crimes against humanity--and is the U.S. government's 
primary liaison with criminal tribunals and non-judicial transitional 
justice mechanisms. My understanding is that J/GCJ--despite its small 
size--provides senior policymakers with expert advice and actively 
ensures that accountability for atrocities is a core component of U.S. 
policy in any country or region. If confirmed, I will review J/GCJ's 
activities and take steps to maximize its effectiveness.

    Question. How can the office improve its effectiveness? What do you 
believe is the future of the U.S.-ICC relationship in meeting the 
mutual goals of holding perpetrators of atrocity crimes accountable for 
their actions?

    Answer. If confirmed, I will review the activities and mandate of 
the Office of Global Criminal Justice (J/GCJ) and take steps to 
maximize its effectiveness.
    Regarding the U.S. relationship with the International Criminal 
Court (ICC), I understand that current U.S. policy is not to cooperate 
with or provide assistance to the ICC given the ICC's attempts to 
assert jurisdiction over U.S. personnel. Rather, the United States 
supports meaningful accountability and justice for victims of 
atrocities, including through legitimate and effective prosecutions by 
international, hybrid, mixed, and national tribunals.

    Question. Please comment on how adequately the TIP Office is 
resourced to carry out its mission. What issues would you direct the 
TIP Ambassador to prioritize within its broad mission?

    Answer. Both the White House and the State Department have 
demonstrated that combating human trafficking is a priority. I know 
that Secretary Pompeo is committed to making sure the Office to Monitor 
and Combat Trafficking in Persons (J/TIP) has the resources it needs to 
continue the Department's critical work on this front. If confirmed, I 
will work with Congress and Department colleagues to address any needs 
J/TIP may have while making the most efficient use of its existing 
resources.
    I will also work closely with Ambassador Richmond to continue the 
excellence of the TIP Report, the State Department's year-round 
diplomatic engagement and support for the President's Interagency Task 
Force to coordinate interagency anti-trafficking efforts, and its 
international programming. Together these efforts advance U.S. 
interests, consistent with the National Security Strategy.

    Question. What was the award this year to Global Fund? What was the 
objective behind previous PEMS awards of over $23 million to now just a 
little over $1 million this year? Please explain.

    Answer. The Global Fund has received more than $46 million to date 
from the U.S. government and has leveraged an additional $39 million 
from other governments, all while absorbing and seeking to program 
these resources at a rate commensurate with its growth as an 
organization. I understand the Office to Monitor and Combat Trafficking 
in Persons (J/TIP) has conducted an open and transparent competition 
for the third tranche of PEMS funding, which expires September 30, and 
will announce award(s) soon.
    If confirmed, I will work hard to ensure that the $100 million 
appropriated to date by Congress for the Program to End Modern Slavery 
(PEMS) will support transformational programming that leads to 
measurable and substantial reductions of the prevalence of modern 
slavery in targeted sectors and populations.

    Question. Will you support efforts to ensure that the tier rankings 
accurately reflect efforts to combat human trafficking in each country? 
How will you help ensure the TIP report is seen as credible and 
objective?

    Answer. Combating trafficking in persons (TIP) is a priority for 
this administration and will be a priority of mine at the Department, 
if confirmed. From my work at the Treasury Department, I know the 
Department's TIP Report to be the gold standard in assessing government 
efforts to monitor and combat trafficking in persons. If confirmed, I 
will work closely with Ambassador Richmond and State Department experts 
to ensure that the TIP Report is as credible, objective, and accurate 
as possible, based solely on a country's efforts to combat trafficking, 
as required by the Trafficking Victims Protection Act. I am told the 
Department has had robust engagement with this committee on the Report, 
and I look forward to continued partnership, if confirmed.

    Question. The President's Interagency Task Force to Monitor and 
Combat Trafficking in Persons (PITF), established pursuant to the 
Trafficking Victims Protection Act and chaired by the Secretary of 
State, does not appear to have yet convened during the Trump 
administration. TIP Ambassador-designate John Cotton Richmond indicated 
in recent testimony that he hoped the PITF would convene prior to the 
end of the year. In your view, what is the value of the PITF? Would you 
work with the TIP Ambassador to support the Secretary of State's 
convening of a PITF meeting?

    Answer. President Trump opened the meeting of the President's 
Interagency Task Force to Monitor and Combat Trafficking in Persons 
(PITF) on October 11, 2018, at the White House. Secretary Pompeo 
chaired the meeting and principals of 14 other U.S. departments and 
agencies attended, as did the U.S. Advisory Council on Human 
Trafficking, recipients of the 2018 Presidential Award for 
Extraordinary Efforts to Combat Trafficking in Persons, and other 
distinguished guests. I understand that plans are underway for PITF to 
meet again in 2019.
    If confirmed, I will work closely with Ambassador Richmond and 
others across the government in 2020 to commemorate progress over the 
previous 20 years (since enactment of the Trafficking Victims 
Protection Act and the Palermo Protocol) and set an even higher bar for 
future federal anti-trafficking efforts.

    Question. The United States has been a leader for decades in 
promoting human rights and ensuring the protection of human rights 
defenders across the world. In accordance with this leadership, we've 
been gratified to see the Department's use of Global Magnitsky 
designations to hold individuals and entities who commit serious human 
rights violations or who engage in acts of corruption accountable by 
freezing their assets and denying their visa requests to the United 
States. Do you support the use of Global Magnitsky designations and 
calling out human rights abusers as a tool of foreign policy in order 
to hold individuals and entities to account?

    Answer. Yes. The Global Magnitsky Human Rights Accountability Act 
is an invaluable tool. If confirmed, I will seek to continue to use it 
with respect to human rights violations or abuses. As I have noted in 
answers to other related questions, I have been and will continue to be 
a strong advocate for the application of financial sanctions in 
response to human rights abuse and corruption. I believe that, because 
I understand Treasury Department processes related to these 
designations, I will be a ``force multiplier'' within interagency 
deliberations on use of ``GloMag'' authorities.

    Question. Do you agree that that there should be additional 
resources provided to those who review Global Magnitsky designations in 
order to ensure a more robust sanctions regime that targets the worst 
human rights abusers?

    Answer. The Global Magnitsky Human Rights Accountability Act is a 
valuable tool, which I will seek to use with respect to human rights 
violations or abuses. If confirmed, I will review the resources 
available for such designations and ensure that the State Department 
supports those efforts effectively.

    Question. What role do you see the 7031(c)-authority playing in 
upholding human rights abroad?

    Answer. The 7031(c) authority is a valuable tool which promotes 
accountability of those involved in gross human rights violations and 
can deter future abuses. Its usage sends a clear signal that the United 
States stands for its values and will not ignore gross human rights 
violations.

    Question. This past May, Secretary Pompeo stated that the U.S. 
``firmly opposes criminalization, violence and serious acts of 
discrimination such as housing, employment and government services 
directed against LGBTQI persons.'' He went on to say that the U.S. uses 
``public and private diplomacy to raise human rights concerns, provide 
emergency assistance to people at risk, and impose visa restrictions 
and economic sanctions against those who persecute them.'' What 
specific actions will you take to support the human rights of LGBTQI 
people abroad?

    Answer. If confirmed, I am committed to protecting the human rights 
and fundamental freedoms of all persons, including historically 
marginalized or persecuted populations such as LGBTI persons. The 
safety and security of LGBTI persons is of the utmost importance. LGBTI 
status or conduct remains criminalized in some seventy countries, so I 
will focus on supporting local efforts that may lead to 
decriminalization. I will work with the Bureau of Democracy, Human 
Rights, and Labor (DRL) and State Department regional bureaus to 
develop strategies that prioritize regular discussions with local LGBTI 
community and civil society partners. I will also raise human rights of 
LGBTI persons in the context of larger human rights and democracy 
concerns wherever possible. I also note that, while in the Department 
of the Treasury, I supported application of financial sanctions against 
Ayub Kataev a ruthless Russian proxy who has perpetrated grave human 
rights abuses against the LGBTI community in Chechnya. In May of this 
year, I supported designations of Abuzayed Vismuradov and the Terek 
Special Rapid Response Team for detention and torture of LGBTI 
individuals. If confirmed, I will actively pursue the use of both State 
and Treasury authorities to protect the LGBTI community abroad.

    Question. In countries around the world, there are criminal 
penalties associated with exercising sexual and reproductive health and 
rights. LGBTQI people are criminalized for who they love and are 
regularly prosecuted or incarcerated for consensual same sex sexual 
conduct or in places like Indonesia, Chechnya and Egypt. There are also 
women who are in jail in places like El Salvador and Senegal for having 
miscarriages or abortions. These are gross human rights violations. As 
Undersecretary, would you raise concerns about laws that criminalize 
same-sex relationships and women's personal health decisions in public 
and private diplomatic settings?

    Answer. If confirmed, I am committed to protecting the human rights 
and fundamental freedoms of all persons, including historically 
marginalized or persecuted populations such as women and LGBTI persons. 
I will also raise LGBTI and women's human rights issues in the context 
of larger human rights and democracy concerns wherever possible, 
including addressing decriminalization of LGBTI status or conduct. 
Women should not be jailed for having a miscarriage. If confirmed, I 
will raise this issue where relevant.

    Question. Furthermore, do you plan on instructing DRL to report on 
LGBTI rights and access to sexual and reproductive health services in 
the Human Rights Report?

    Answer. If confirmed, I will support the Bureau of Democracy, Human 
Rights, and Labor's approach to the Human Rights Report (HRR), which 
includes reporting on the rights of LGBTI individuals. I understand 
that the HRR subsection entitled ``Reproductive Rights'' by the 
previous administration was renamed ``Coercion in Population Control'' 
consistent with the requirement of U.S. law to report ``wherever 
applicable, practices regarding coercion in population control, 
including coerced abortion and involuntary sterilization.'' Additional 
material on maternal mortality, access to contraception, and similar 
issues is available via hyperlink in the text of each country chapter 
and in an appendix to the HRR. If confirmed, I will ensure the State 
Department continues to comply with statutory reporting requirements 
and delivers objective, evidence-based, rigorous human rights reports.

    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. These 
reports have noted that legal determinations should be considered, 
including crimes against humanity and genocide. Previously, the State 
Department has acknowledged these atrocities as ethnic cleansing, which 
has been the U.S.'s stance toward the atrocities taking place in Burma. 
Do you believe that these crimes amount to crimes against humanity or 
genocide?

    Answer. I am appalled by the ethnic cleansing of Rohingya in 
northern Rakhine State. Credible reports of massacres, gang rape, and 
village and mosque burnings shock the conscience, and I am committed to 
promoting accountability for those responsible.
    The U.S. determination of atrocity crimes, including genocide or 
crimes against humanity, is generally made by the Secretary of State. I 
would emphasize that there is no hierarchy of atrocity crimes; they are 
all equally abhorrent and shocking. If confirmed, I will consult with 
experts within the State Department and examine all the information to 
provide the Secretary with my best advice.

    Question. What position and specific actions will you take with the 
Burmese military?

    Answer. If confirmed, I will prioritize promoting accountability 
for those responsible for these abuses, and justice for victims as part 
of larger efforts to promote and defend human rights. Further, I will 
work with State Department counterparts and likeminded partners to 
promote democratic governance, reduce the military's role in politics, 
and strengthen civilian control of the security forces to safeguard 
human rights for all in Burma.

    Question. The United Nations Fact Finding Mission, the U.S. 
government, and several non-governmental organizations have documented 
the Burmese military's killing of tens of thousands of Rohingya, cases 
of summary executions, mass rapes, and burnings of villages, which led 
to the displacement of over 700,000 to neighboring Bangladesh. As of 
August 2019, over 900,000 Rohingya reside in refugee camps in 
Bangladesh. As Undersecretary, will you commit to more funds and focus 
going to these refugees through PRM?

    Answer. The United States has led the donor response to the Rakhine 
State crisis since it began in August 2017, providing nearly $542 
million in humanitarian assistance in Bangladesh and Burma. If 
confirmed, I will continue U.S. leadership in the humanitarian response 
to this crisis, as well as support efforts in developing durable 
solutions. It is important for the international community to continue 
providing humanitarian assistance to vulnerable populations affected by 
the Rakhine State crisis, while durable solutions are being pursued, 
given that conditions in Rakhine State are not yet conducive for 
voluntary, safe, dignified, and sustainable returns.

    Question. How will you ensure that the basic human rights of the 
Rohingya refugees in Bangladesh are met, including rights to food, 
livelihood, health care and education?

    Answer. I understand that the United States is the leading 
contributor of humanitarian assistance in response to the Rakhine State 
crisis, having provided nearly $542 million since the escalation of 
violence in August 2017, of which nearly $464 million is for programs 
inside Bangladesh. This money funds programs that save lives. It helps 
provide protection; emergency shelter; water, sanitation, and hygiene; 
healthcare; psychosocial support; food and nutritional assistance; non-
food items; site management and development; education, and access to 
livelihood opportunities to approximately one million beneficiaries in 
Bangladesh, most of whom are Rohingya women and children from Burma, 
and the related needs of Bangladeshi host communities, and other 
vulnerable populations affected by the crisis. If confirmed, I will 
work with the international community to support efforts of the United 
Nations and its partners to ensure that human rights and humanitarian 
needs of Rohingya refugees are met, while durable solutions are being 
pursued, given that conditions in Rakhine State are not yet conducive 
for voluntary, safe, dignified, and sustainable returns.

    Question. Additionally, given that the most effective way to 
permanently resolve the Rohingya refugee crisis is by restoring their 
citizenship in Burma and ensuring safe, dignified and voluntary 
repatriation process, how do you propose employing the Department's 
resources to resolving the Rohingya refugee crisis in a more permanent 
manner?

    Answer. If confirmed, I will continue the State Department's 
efforts to engage, influence, and lead actions of the international 
community, including like-minded states, non-traditional partners, and 
international organizations, to resolve the Rakhine State crisis and 
advance U.S. interests and values in Burma. I will support efforts and 
mechanisms at the United Nations to foster justice and accountability 
for human rights abuses and violations in Rakhine State and other areas 
of Burma. These include the Fact Finding Mission for Myanmar, the 
Independent Investigative Mechanism for Myanmar, the U.N. Special Envoy 
to Myanmar, and the U.N. Special Rapporteur on the human rights 
situation in Myanmar. If confirmed, I will also continue to call on the 
government of Burma to fully implement the Annan Commission 
recommendations, including recommendations related to access to 
citizenship and freedom of movement, and to create the conditions that 
would allow for voluntary, safe, dignified, and sustainable returns.

    Question. What do you see as the role of PRM during this process?

    Answer. If confirmed, I will support the Bureau of Populations, 
Refugees, and Migration (PRM) to lead the humanitarian response and 
work towards developing durable solutions for communities affected by 
the Rakhine State crisis. PRM will continue its role working with U.N. 
bodies, other international and local humanitarian organizations, like-
minded countries, and communities affected by the Rakhine State crisis 
to provide life-saving humanitarian assistance and protection to those 
in need. Through diplomatic engagements from the beginning of the 
crisis, the U.S. government with PRM's lead, has effectively pressed 
Bangladesh to take a principled humanitarian approach to addressing the 
refugee influx. PRM's longstanding relationships with U.N. agencies and 
international organizations in both Burma and Bangladesh led to an 
effective humanitarian response since the outbreak of violence in 
August 2017.

    Question. The Department of State's documentation of atrocities in 
Northern Rakhine State released in September 2018 says the violence was 
``extreme, large-scale, widespread, and seemingly geared toward both 
terrorizing the population and driving out the Rohingya residents.'' In 
response to these atrocities, the U.S. administration has sanctioned 
five military officers and two military units thus far under Global 
Magnitsky. Most recently, in recognition of the second anniversary of 
the ongoing genocide against the Rohingya people, Secretary Pompeo 
publicly designated the main architects of the Rohingya genocide, 
including the military Commander-in-Chief, General Min Aung Hlaing and 
Deputy Commander-in-Chief Soe Win. What do you believe the impact of 
these sanctions have been?

    Answer. I share your concern regarding the atrocities perpetrated 
by Burmese security forces against civilians during the ethnic 
cleansing of Rohingya, and your commitment to seek accountability and 
justice. I welcomed the United States' leadership for being the first 
nation to take public action against the Burmese Commander in Chief and 
the Deputy Commander in Chief for their command responsibility for the 
gross violations of human rights in Northern Rakhine State. I believe 
sustained diplomatic engagement, working with likeminded partners, 
using U.N. mechanisms, such as the International Investigative 
Mechanism for Myanmar, and other policy tools, including sanctions, can 
both promote accountability and deter future abuses.

    Question. Do you believe that the individuals publicly designated 
in July should also have their assets frozen?

    Answer. Absolutely. If confirmed, I will prioritize promoting 
accountability for those responsible for these abuses. I will aim to 
continue U.S. leadership of the international response to the Rakhine 
State crisis and efforts to deter further atrocities. In this regard, I 
will consider the utility of all policy tools at our disposal, 
including further sanctions. Further, I would work closely with the 
U.S. Mission to the U.N. and like-minded countries and regional 
partners, to press the government of Burma to grant unhindered access 
to U.N. mechanisms, including the International Investigative Mechanism 
for Myanmar, the U.N. Special Rapporteur, and the U.N. Special Envoy.

    Question. Do you pledge to support targeted sanctioning mechanisms 
when credible information about military officials' role in violations 
of human rights are provided to the U.S. government?

    Answer. Absolutely. If confirmed, I will support the use of 
targeted sanctions when the State Department has credible information 
about military officials' role in gross violations of human rights. One 
advantage I bring to the ``J Family'' if confirmed, is a detailed 
understanding of Treasury processes, which will influence and 
strengthen the manner in which diplomatic reporting is developed and 
provided to the Treasury for targeted financial designations.

    Question. The State Department's 2018 Human Rights Report says 
there were ``substantial interference with the rights of peaceful 
assembly and freedom of association, including arrests of peaceful 
protesters and restrictions on civil society activity; restrictions on 
religious freedom; significant restrictions on freedom of movement,'' 
among other human rights issues in Burma. How do you propose to protect 
and promote democratic norms and ideals in a country where the military 
is conducting human rights abuses with impunity and the space for civic 
engagement is shrinking?

    Answer. I understand that the State Department has focused on 
changing behavior and promoting accountability in the civilian and 
military sectors of the Burmese government to ensure the human rights 
of all persons in Burma, including religious, ethnic and other 
minorities are respected. If confirmed, I will work with Department 
experts to promote democratic governance, protect fundamental freedoms, 
reduce the military's role in politics, and strengthen civilian control 
of the security forces to safeguard human rights for all in Burma.

    Question. To eliminate opposition and consolidated power, 
Guatemala's Congress is trying to pass a new legislation governing 
NGOs. If passed, the law would give the Ministry of Interior, and by 
extension the president and his allies, the power to shut down any 
organization that challenges them under the guise of protecting public 
law and order. What are the specific actions that the Department will 
take to support a vibrant and active civil society in Guatemala, 
particularly because this is so tied to regional stability and 
migration?

    Answer. Protecting and supporting a vibrant and active civil 
society, including human rights defenders (HRDs) is a key U.S. foreign 
policy priority. The United States supports HRDs as they work 
tirelessly--and sometimes at great personal risk--to protect human 
rights and fundamental freedoms, advocate for government transparency 
and accountability, promote rule of law, and expose corruption. 
Democratic governance is strongest when NGOs are able to operate free 
from burdensome regulation.
    The fight against corruption and impunity is of critical importance 
in Guatemala. The Department takes threats against civil society actors 
seriously. Those who are involved in such threats can face consequences 
from the U.S. government including possible economic sanctions and visa 
restrictions.

    Question. Given the administration's recent unvetted decision to 
cut funding from Guatemala and other Northern Triangle countries, how 
do you intend to ensure regional stability without this funding?

    Answer. The State Department will continue its long history of 
engagement with the countries in Central America by working with them 
and others in the hemisphere on the many shared challenges we face, 
including narcotics smuggling, human trafficking, illegal immigration, 
natural disasters, malign outside influences, and others. It is only 
through coordinated, cooperative action that the nations of the 
hemisphere can successfully address such problems, and it is that very 
coordinated effort that will help promote stability in the region. If 
confirmed, I will continue Department efforts to work bilaterally, and 
through multilateral organizations such as the Organization of American 
States, to ensure peaceful relations within the hemisphere.

    Question. Guatemala has made incredible strides in promoting 
accountability for abuses of power, including cases of human rights 
atrocities and acts of corruption. One of the emblematic institutions 
created to address corruption and impunity is the U.N.-backed 
International Commission Against Impunity in Guatemala (CICIG). Since 
2007, CICIG identified more than 600 elected officials, businesspeople, 
and bureaucrats in corruption and broke up 60 criminals' networks in 
the country. On January 7, 2019, Morales announced that his 
administration would unilaterally cancel the international agreement 
that established CICIG, defying Constitutional Court orders in what 
amounts to a technical coup. Just two weeks ago, CICG's mandate ended 
in Guatemala, and since that time human rights organizations and civil 
servants have reported physical insecurity and threats against their 
safety. How do you plan to address the ongoing human rights situation 
in Guatemala, particularly as CICIG is no longer operating?

    Answer. I understand that the departure of CICIG does not affect 
the State Department's commitment to continue working with Guatemalan 
judicial partners to build their capacity to fight corruption and 
impunity. If confirmed, I will support the Guatemalan people and 
institutions in their ongoing fight against corruption and impunity, 
and will use all the tools at the Department's disposal in order to do 
so.

    Question. Do you pledge to support other justice and anti-
corruption mechanisms in Guatemala through designated U.S. funding?

    Answer. I understand that the departure of CICIG does not affect 
the State Department's commitment to continue working with Guatemalan 
judicial partners to build their capacity to fight corruption and 
impunity. If confirmed, I will support the Guatemalan people and 
institutions in their ongoing fight against corruption and impunity, 
and will use all the tools at the Department's disposal in order to do 
so.

    Question. Will you raise concerns about Morales' attacks on CICIG 
or other mechanisms and support foreign policy measures to defend these 
bodies?

    Answer. I understand that the departure of CICIG does not affect 
the State Department's commitment to continue working with Guatemalan 
judicial partners to build their capacity to fight corruption and 
impunity. If confirmed, I will support the Guatemalan people and 
institutions in their ongoing fight against corruption and impunity, 
and will use all the tools at the Department's disposal in order to do 
so.

    Question. In his written response to a question on Tibet during his 
confirmation hearing, Secretary Mike Pompeo said that he ``will express 
publicly, and at the highest levels of government, that Chinese 
authorities need to engage in meaningful and direct dialogue with the 
Dalai Lama or his representatives, without preconditions, to lower 
tensions and resolve differences.'' Since 2010, there have been no 
dialogue between the two sides. If you are designated as the US Special 
Coordinator for Tibetan Issues, what could be the actions that 
Secretary Pompeo could take to fulfill this commitment?

    Answer. As I noted in my testimony, my involvement in supporting 
Tibetan human rights and the Dalai Lama dates to 1995. I was on the 
Foreign Relations Committee staff when the Special envoy position was 
created by law. This administration is committed to raising Tibetan 
issues with Chinese government counterparts at multiple levels. If 
confirmed, and if I am designated as the U.S. Special Coordinator for 
Tibetan Issues, I will continue these efforts to establish conditions 
that lead to a direct and meaningful dialogue between Chinese 
authorities and the Dalai Lama or his representatives, without 
preconditions, that leads to a sustainable settlement.

    Question. No U.S. Special Coordinator for Tibetan Issues has been 
able to visit Tibet to date, primarily because the Chinese government 
refuses to grant access. However, Chinese officials purporting to 
represent Tibet have been freely coming to the United States and 
interacting with all levels of the society here. In 2018, the 
Reciprocal Access to Tibet Act was passed to change the situation. 
Since the Tibetan Policy Act of 2002 mandates that the Special 
Coordinator for Tibetan Issues should undertake ``regular travel to 
Tibetan areas of the People's Republic of China,'' if designated to the 
position, how would you promote reciprocal access to Tibet?

    Answer. President Trump has regularly stated his desire for 
reciprocity in the U.S.-China relationship. If confirmed and designated 
to the position of Special Coordinator for Tibetan Issues, I will raise 
concerns about the lack of regular access to the Tibetan Autonomous 
Region (TAR) for U.S. diplomats, journalists, academics, and others. I 
will work to ensure that U.S. diplomats, as well as journalists, civil 
society representatives, legislators, religious leaders, and scholars 
have full access to China, including the TAR and Tibetan areas. I also 
will support full implementation of the Reciprocal Access to Tibet Act. 
If confirmed by the Senate, and if named as the Special Coordinator, I 
will seek aggressively and repeatedly to gain access to Tibet.

    Question. Since 2007, China has adopted regulations that give to 
the Chinese atheist state the authority to identify the reincarnation 
of Tibetan Buddhist masters, in total violation of Tibetan religious 
freedom. The Chinese Communist Party plans to identify its own 
reincarnation of the next Dalai Lama. The Tibetan Policy and Support 
Act of 2019, which is before Congress, makes it a policy of the United 
States to ``ensure that the identification and installation of Tibetan 
Buddhist religious leaders, including a future 15th Dalai Lama, is 
determined solely within the Tibetan Buddhist faith community, in 
accordance with the universally-recognized right to religious 
freedom.'' Would you commit to making the preservation of religious 
freedom of Tibetan Buddhists a priority of your term in dealing with 
the Chinese authorities and categorically let them know that the 
authority of the current Dalai Lama and the Tibetan Buddhists should be 
respected on matters of reincarnations?

    Answer. The administration is deeply concerned about Chinese 
government interference in the selection, education, and veneration of 
Tibetan Buddhist religious leaders. I believe that Tibetan Buddhist 
communities, like all faith communities, should be able to select, 
educate, and venerate their leaders without government interference. If 
confirmed, I will urge the Chinese government to respect that decisions 
regarding the selection of Tibetan Buddhist leaders rest with the Dalai 
Lama, Tibetan Buddhist leaders, and the people of Tibet.

    Question. The major rivers of Asia that flow from the Tibetan 
Plateau and are subject to current and potential dam and diversion 
projects by China. These projects are planned and implemented without 
the proper involvement of the Tibetan people, who are the best stewards 
for the preservation of the delicate environment of the Tibetan 
Plateau. India and other governments in Asia are increasingly worried 
about China's plans to dam rivers originating in Tibet which serve over 
a billion people downstream. Given that the Tibetan waters play an 
important role in the Indo-Pacific region, would you raise the need to 
fully involve Tibetans in the preservation of Tibet's fragile 
environment with the Chinese authorities? Would you call on the Chinese 
authorities to engage China's neighbors for the development of a 
regional framework on water security?

    Answer. If confirmed, I will encourage all countries, including 
China, to manage their water resources soundly and to cooperate on the 
management of shared waters. I will press China to make decisions on 
dams and other major water-related infrastructure needs deliberatively, 
based on the best science available, and in transparent consultation 
with all affected stakeholders, including the people of Tibet.

    Question. Will you commit to pressing the Chinese authorities to 
allow for the opening of a U.S. consulate in Lhasa as highlighted in 
the Tibetan Policy and Support Act of 2019 that is before the Congress?

    Answer. Yes. I am committed to pressing the Chinese government to 
allow the opening of a U.S. Consulate in Lhasa, consistent with the 
goals of the Tibetan Policy and Support Act. I am also committed, if 
confirmed, to working closely with Congress in pursuit of our shared 
goal of seeing Americans have full access to China, including the 
Tibetan Autonomous Region and other Tibetan areas.

    Question. President Trump has made it clear on many occasions that 
he believes torture is effective and the U.S. should resume 
waterboarding and approve additional torture techniques. In 2015, 
President Trump said, ``Would I approve waterboarding? You bet your ass 
I would. In a heartbeat. I would approve more than that. It works.and 
if it doesn't work, they deserve it anyway for what they do to us.'' In 
2016, President Trump wrote, ``I have made it clear in my campaign that 
I would support and endorse the use of enhanced interrogation 
techniques if the use of these methods would enhance the protection and 
safety of the nation. Though the effectiveness of many of these methods 
may be in dispute, nothing should be taken off the table when American 
lives are at stake.'' Also in 2016, President Trump said, ``We should 
go much stronger than waterboarding. That's the way I feel.'' Do you 
agree with President Trump's statements? Please answer yes or no.

    Answer. I do not believe that torture is effective, and I have 
never supported the use of torture. In fact, as noted in my hearing, I 
opposed the use of waterboarding at Guantanamo, when the issue arose 
while I served at the Department of Defense.

    Question. Do you agree with President Trump's claim that torture is 
effective? What is the basis for your answer?

    Answer. As stated in Answer 73, I do not believe torture is 
effective.

    Question. You have said that you do not support waterboarding. If 
the President decides to ``approve'' waterboarding, and it is up to you 
to implement, would you carry out the President's wishes?

    Answer. No. I would resign from office before implementing 
waterboarding.

    Question. If the President wanted to re-institute waterboarding, 
putting aside any legal arguments, would you counsel him against it, 
based on your prior knowledge of the effects of waterboarding?

    Answer. Yes. I opposed contemplation of waterboarding for use at 
Guantanamo, and I would continue to do so.

    Question. Do you agree with President Trump's desire to ``go much 
stronger than waterboarding''?

    Answer. I opposed contemplation of waterboarding for use at 
Guantanamo, and I would continue to do so.

    Question. How do you plan to explain or discuss President Trump's 
public support for torture with countries around the world?

    Answer. The United States does not support any action which could 
constitute torture.

    Question. How do you plan to explain or discuss your own role in 
previous U.S. government policy regarding torture with countries around 
the world?

    Answer. As noted in multiple previous answers, and as stated during 
my testimony, I have never advocated for torture. I will strongly 
represent U.S. policy against the use of torture.

    Question. What would you say in meeting a dictator who wants to use 
torture?

    Answer. That this is unacceptable. Torture should never be employed 
under any circumstances. Nations have undertaken solemn national and 
international obligations that reject the use of torture, and any 
regime which violates these obligations will suffer the opprobrium of 
the United States, our friends and Allies.

    Question. President Trump said in January 2017 that he would allow 
Defense Secretary Mattis, who opposed reinstating torture, to 
``override'' him on this issue. Secretary Mattis left the Defense 
Department in January 2019. Do you agree with President Trump that the 
U.S. should reinstate torture?

    Answer. I have always opposed the use of torture.

    Question. If the President wanted to re-instate techniques that 
constitute torture, how would you counsel him?

    Answer. I have always opposed the use of torture.

    Question. In June 2018, the Trump administration announced that the 
U.S. was withdrawing from the U.N. Human Rights Council. Do you agree 
with President Trump's decision to withdraw the U.S. from the U.N. 
Human Rights Council? Why or why not?

    Answer. Yes, I agree with the administration's decision to withdraw 
from the Human Rights Council. As Secretary Pompeo noted, ``the only 
thing worse than a council that does almost nothing to protect human 
rights is a council that covers for human rights abuses.''

    Question. Do you agree with President Trump's response to the 
murder of Jamal Khashoggi?

    Answer. The murder of Jamal Khashoggi was a terrible crime, one 
that President Trump swiftly condemned. The United States was the first 
nation in the world to take action against those responsible for his 
murder, including imposing sanctions and travel bans on 17 Saudi 
government officials. I understand that the administration continues to 
review information on the killing and take appropriate action, as well 
as press the Kingdom of Saudi Arabia to hold accountable any individual 
involved in the murder.

    Question. How would you characterize the message that the Trump 
administration has sent in its response to Khashoggi's murder?

    Answer. President Trump has made clear in no uncertain terms that 
the killing of Jamal Khashoggi was an ``unacceptable and horrible 
crime'' that required a swift U.S. government response and full 
accountability for those involved.

    Question. Do you think it has undermined the U.S. ability to stand 
up for human rights and denounce extrajudicial killings around the 
world?

    Answer. The administration has taken a strong stance against Jamal 
Khashoggi's killing and continues to take steps to promote human rights 
and denounce extrajudicial killings. The administration sanctioned 17 
Saudi government officials involved in Mr. Khashoggi's killing using 
the executive order that implements the Global Magnitsky Human Rights 
Accountability Act. The administration then designated Saudi government 
officials involved in the killing under Section 7031(c) of the 
Department of State, Foreign Operations, and Related Programs Act, 
2018. The administration further highlighted Mr. Khashoggi's killing--
and denounced extrajudicial killings throughout the world--in the 
Department's 2018 Country Reports on Human Rights Practices.

    Question. Do you agree with President Trump's decision to believe 
Saudi Crown Prince Mohammed bin Salman over the assessment of the U.S. 
Central Intelligence Agency?

    Answer. The President and Secretary Pompeo have been clear that we 
will hold accountable all involved. I am not in a position to discuss 
matters of the U.S. Central Intelligence Agency.

    Question. If you were counseling President Trump in the aftermath 
of Khashoggi's murder, would you recommend any changes to his approach?

    Answer. The administration took concrete measures to promote 
accountability for Jamal Khashoggi's murder. President Trump swiftly 
condemned Mr. Khashoggi's killing. In addition, the United States was 
the first nation in the world to take action against those responsible 
for his murder, including imposing sanctions and travel bans on 17 
Saudi government officials. I understand the administration continues 
to review information on the killing and take appropriate action, as 
well as press the Kingdom of Saudi Arabia for full accountability.

    Question. In October 2018, President Trump told a cheering crowd at 
a campaign rally that there was once tough talk ``back and forth'' 
between himself and North Korean leader Kim Jong-un ``and then we fell 
in love.'' What is your assessment of President Trump's statement that 
he ``fall in love'' with North Korean Leader Kim Jong Un, a notorious 
human rights abuser?

    Answer. The administration's goal is to achieve the final, fully 
verified denuclearization of the DPRK, as committed to by Chairman Kim 
in Singapore. I understand it is engaged in a diplomatic effort to 
eliminate the DPRK's U.N.-prohibited WMD and ballistic missile program. 
Meanwhile, as the President has said, sanctions on the DPRK remain in 
effect.
    On human rights, the DPRK is among the most repressive 
authoritarian states in the world. Its human rights situation is 
deplorable. If confirmed, I will continue the administration's efforts 
to work with the international community to raise awareness, highlight 
abuses and violations, increase access to independent information, and 
promote respect for human rights in the DPRK.

    Question. Do you think that is an appropriate statement for the 
leader of the United States to make?

    Answer. The administration's goal is to achieve the final, fully 
verified denuclearization of the DPRK, as committed to by Chairman Kim 
in Singapore. On the deplorable human rights situation in North Korea, 
the United States continues to work with the international community to 
raise awareness, highlight abuses and violations, increase access to 
independent information, and promote respect for human rights in the 
DPRK. If confirmed, I would support these efforts.

    Question. In February 2019, Trump said that he believed Kim Jong 
Un's claim that he did not have prior knowledge of the mistreatment of 
Otto Warmbier, an American college student who died days after being 
released, in a coma, from 17 months in captivity in 2017. Do you agree 
with President Trump's decision to believe Kim Jong Un about the 
condition of Otto Warmbier?

    Answer. As Secretary Pompeo has said, ``The North Korean regime is 
responsible for the death of Otto Warmbier and the humanitarian 
violations that are continuing to take place.'' If confirmed, I will 
work to advance human rights and accountability in the DPRK by 
supporting documentation efforts; fostering the free flow of 
information into, out of, and within the DPRK; and promoting strong 
international pressure on the DPRK to respect human rights. I also have 
personally engaged with the member states of the Gulf Cooperation 
Council (GCC) in my current capacity to bring to a speedy end the use 
of DPRK workers in the region--a practice which I believe is tantamount 
to use of slave labor. I am pleased that our Arab partners have made 
clear that they will not allow these workers to stay beyond the U.N.-
imposed deadline, and several countries expelled the workers prior the 
U.N. General Assembly, at my request.

    Question. In August 2019, President Trump said the Chinese leader 
Xi had acted responsibly in handling the Hong Kong protests, for 
calling the demonstrations ``riots,'' and for saying the issue is 
between ``Hong Kong and China.'' Do you agree with President Trump's 
stance on the protests in Hong Kong?

    Answer. In speaking about Hong Kong, the President has been clear 
that he supports democracy and liberty, and that he expects the 
situation in Hong Kong to be resolved in a humane and peaceful fashion. 
I support this stance.

    Question. How do you plan to explain or discuss President Trump's 
apparent disdain for human rights with countries around the world?

    Answer. President Trump has made clear that human rights are in our 
national interest, and his National Security Strategy (NSS) reflects a 
strong commitment to human rights. The NSS states that, ``Liberty, free 
enterprise, equal justice under the law, and the dignity of every human 
life are central to who we are as a people.'' It also makes clear that 
a commitment to human rights is essential to advance U.S. influence 
abroad, and that respect for human rights produces peace, stability and 
prosperity--making it integral to U.S. national security. Secretary 
Pompeo has emphasized to this committee that he is firmly committed to 
defend the human rights of all people and will work to strengthen 
democracy where it exists and promote it where it does not. If 
confirmed, I will raise human rights concerns with counterparts, 
including when I travel.

    Question. How would you characterize President Trump's approach to 
human rights?

    Answer. As President Trump said in Warsaw, ``We value the dignity 
of every human life, protect the rights of every person, and share the 
hope of every soul to live in freedom. That is who we are. Those are 
the priceless ties that bind us together as nations, as allies, and as 
a civilization.'' Secretary Pompeo noted in his remarks during the 
release of the 2018 Country Reports on Human Rights Practices that the 
State Department continues to play a leading role in championing human 
rights around the globe, honoring the vision of our founders and 
expressing our time-honored American aspiration for all people to be 
free. If confirmed, I will uphold those values in defending the human 
rights of all people and will work to strengthen democracy where it 
exists and promote it where it does not.

    Question. If confirmed, what changes would you make or recommend 
for his administration's rhetoric and approach to human rights?

    Answer. The National Security Strategy makes it clear that, 
``Liberty, free enterprise, equal justice under the law, and the 
dignity of every human life are central to who we are as a people.'' It 
also emphasizes that a commitment to human rights is essential to 
advance U.S. influence abroad, and that respect for human rights 
produces peace, stability, and prosperity--making it integral to U.S. 
national security. That message is clear, and one that, if confirmed, I 
will be pleased to advance.

    Question. In May 2019, on World Press Freedom Day, President Trump 
criticized the press, saying, ``They go out of their way to cover me 
inaccurately.'' President Trump told Russian leader Vladimir Putin in 
June 2019, ``Get rid of them [journalists]. Fake news is a great term, 
isn't it? You don't have this problem in Russia, but we do.'' Do you 
agree with President Trump's attacks on independent media?

    Answer. An informed citizenry is a fundamental requirement for free 
nations and people. If confirmed, I will actively advocate with 
governments for free expression and freedom of the press. I will also 
work to strengthen independent voices in the media, and push for 
accountability for violence against or killings of journalists around 
the world.

    Question. Leaders around the world, particularly authoritarian and 
autocratic leaders, have repeated President Trump's use of ``fake 
news.'' What is your assessment of the impact that authoritarian 
leaders are using the President of the United States' words to further 
attack the media in their countries?

    Answer. Freedom of opinion and expression is enshrined in the 
Universal Declaration of Human Rights, and as an obligation in the 
International Covenant on Civil and Political Rights as a fundamental 
freedom. All parties to the Covenant have an obligation to provide 
their inhabitants with these rights. If countries fall short, we should 
call them out and press for reforms. If confirmed, I will actively 
advocate with governments for free expression and freedom of the press, 
and I will push for accountability for violence against or killings of 
journalists around the world.

    Question. How, in the face of President Trump's rhetoric will you 
stand up for journalists facing violence, threats, and persecution?

    Answer. Freedom of speech is guaranteed in the U.S. Constitution. 
Internationally, the Universal Declaration on Human Rights and the 
International Covenant on Civil and Political Rights cover freedom of 
speech. If countries fall short, we should call them out and push for 
reforms. If confirmed, I will actively advocate with governments for 
free expression and freedom of the press, and I will push for 
accountability for violence against or killings of journalists around 
the world.

    Question. Do you agree with President Trump's sentiment that Putin 
is lucky to be able to get rid of journalists?

    Answer. Freedom of expression is fundamental to democracy. If 
confirmed, I will actively advocate with governments for freedom of 
expression, including for the press. I will also work to strengthen 
independent voices in the media, and push for accountability for 
violence against or killings of journalists around the world.

    Question. How do you plan to explain or discuss President Trump's 
disdain for a free and independent media with countries around the 
world, especially those struggling with press freedom?

    Answer. I understand the Department of State is firmly committed to 
protecting and promoting press freedom. In addition to its diplomatic 
engagement on that issue, its annual Country Reports on Human Rights 
Practices document the status of press and media freedoms, violence and 
harassment against journalists, and censorship and content restrictions 
in each country around the world. The Department also has programs to 
support economic, legal, and regulatory conditions to enable media 
freedom, as well as support to media outlets and journalists to improve 
professionalism and financial sustainability. If confirmed, I will 
continue this work and actively advocate with governments for free 
expression and freedom of the press.

    Question. In May 2017, President Trump said in Saudi Arabia, ``We 
are not here to lecture. We are not here to tell other people how to 
live, what to do, who to be or how to worship. Instead, we are here to 
offer partnership, based on shared interests and values.'' Do you agree 
with President Trump that the U.S. should not advocate for democratic 
values abroad?

    Answer. As President Trump said in Warsaw, ``We value the dignity 
of every human life, protect the rights of every person, and share the 
hope of every soul to live in freedom. That is who we are. Those are 
the priceless ties that bind us together as nations, as allies, and as 
a civilization.'' Secretary Pompeo has emphasized to this committee 
that he is firmly committed to defend the human rights of all people 
and will work to strengthen democracy where it exists and promote it 
where it does not. If confirmed, I will raise human rights concerns 
with counterparts, including when I travel. Promoting human rights and 
defending the dignity of all persons is in the best interest of the 
United States.

    Question. How do you plan to explain or discuss President Trump's 
disdain for democratic values with countries around the world?

    Answer. The President's National Security Strategy (NSS) reflects 
the administration's commitment to democratic values. The NSS states 
that ``We will continue to champion American values and offer 
encouragement to those struggling for human dignity in their societies. 
There can be no moral equivalency between nations that uphold the rule 
of law, empower women, and respect individual rights and those that 
brutalize and suppress their people.'' If confirmed, I will use a range 
of diplomatic tools to support democracy and human rights around the 
world.

    Question. Do you think the Muslim ban is smart policy? Do you have 
any concerns that it will undermine our effectiveness or advocacy for 
human rights around the world? What is your assessment of the impact 
the Muslim ban has had on relationships with Muslim majority countries?

    Answer. There is no Muslim ban. It is my understanding that 
Presidential Proclamation 9645 includes exceptions and waiver 
provisions that will permit travel in certain circumstances and that 
the Department of State's consular officers identify and expedite those 
individuals with urgent travel needs who qualify for exceptions or 
waivers. If confirmed, I will seek opportunities to understand if there 
are impacts on our bilateral relationships with Muslim majority 
countries.

    Question. How will you justify it to Muslim majority countries?

    Answer. If confirmed, I will seek opportunities to explain that Per 
Section 2 of Executive Order 13780 of March 6, 2017 (Protecting the 
Nation from Foreign Terrorist Entry Into The United States), the 
Department of Homeland Security (DHS), in consultation with the 
Department of State and the Director of National Intelligence, 
conducted a global review to determine what additional information, if 
any, was needed from each foreign country to assess whether foreign 
nationals who seek to enter the United States pose a security or safety 
threat. As part of that review, DHS developed a comprehensive set of 
criteria to evaluate the information-sharing practices, policies, and 
capabilities of foreign governments on a worldwide basis. That review 
also included a 50-day period of engagement with foreign governments 
aimed at improving their information sharing practices (an engagement 
facilitated by our embassies and consulates overseas). After 
considering DHS' recommendations, and foreign policy, national 
security, and counterterrorism goals, the President deemed it necessary 
to impose certain restrictions on the entry of nonimmigrants and 
immigrants who are nationals of certain countries in Presidential 
Proclamation 9645.

    Question. Do you agree with President Trump's approach to 
immigration policy in the United States?

    Answer. The Department of State and partner agencies have the 
responsibility to implement the immigration laws of the United States 
consistently and correctly. If confirmed, I will take this 
responsibility very seriously.

    Question. Do you agree with the Trump administration's enforcement 
of a zero tolerance policy that forcibly separated nearly 2,800 
children from their parents and maybe thousands more that have yet to 
be identified??

    Answer. I understand that this is a matter of domestic immigration 
policy that falls under the authorities of the Department of Homeland 
Security and Department of Justice. Further, I understand that this 
issue is the subject of ongoing litigation in the Federal courts. I am 
therefore unable to speculate about how it might or might not affect 
our diplomatic engagement.

    Question. What is your assessment of the impact of the 
administration's zero-tolerance family separation policy on the 
children that were separated from their families and do you believe 
that separation caused these children any type of emotional or mental 
distress??

    Answer. I understand that this is a matter of domestic immigration 
policy that falls under the authorities of the Department of Homeland 
Security and Department of Justice. Further, I understand that this 
issue is the subject of ongoing litigation in the Federal courts. I am 
therefore unable to speculate about how it might or might not affect 
our diplomatic engagement.

    Question. How do you plan to credibly push other countries to 
improve human rights when the Trump administration has created a 
massive family separation crisis on its own soil??

    Answer. I understand that this is a matter of domestic immigration 
policy under the purview of the Department of Justice and the 
Department of Homeland Security. Further, I understand that this issue 
is the subject of ongoing litigation in the Federal courts. I am 
therefore unable to speculate about how it might or might not affect 
our diplomatic engagement.

    Question. What is your assessment of the impact of the Trump 
administration's efforts to restrict asylum to foreign nationals on our 
relationships with foreign countries??

    Answer. I understand that the new Interim Final Rule on Asylum 
Eligibility and Procedural Modifications issued by the Department of 
Homeland Security and Department of Justice only recently went into 
effect. It is too soon to judge its effect, if any, on our 
relationships with foreign countries.

    Question. Did you oppose the implementation of any enhanced 
interrogation techniques that were ultimately approved by Secretary 
Rumsfeld?

    Answer. I have testified regarding my opposition to waterboarding, 
which was--to my knowledge--never approved by Secretary Rumsfeld. As 
documented by the Senate Armed Services Committee in its definitive 
work on this matter, I also was concerned that certain techniques 
should not be simply delegated to the Combatant Commander, and that 
instead the Secretary of Defense should be notified prior to their use 
in order to ensure maximum supervision, accountability, and oversight.

    Question. When did you first hear concerns from the field about 
concerns of the effects of interrogation techniques?

    Answer. I served as the Principal Deputy Assistant Secretary of 
Defense for Special Operations/Low-Intensity Conflict (SO/LIC) from the 
summer of 2002 through the late fall of 2003. Shortly after taking 
office, I began hearing about a wide range of concerns relating to 
Guantanamo, ranging from interrogation topics to the non-transparent 
inflow of detainees from CENTCOM, to the lack of a process for 
repatriating detainees of no further intelligence or prosecutorial 
value, to a complete disregard for civilian oversight. As I testified, 
upon taking office within SO/LIC, I was confronted in short order by 
multiple broken or non-existent processes at GTMO.

    Question. From whom and how did you first hear concerns about the 
use of interrogation techniques at GTMO?

    Answer. I do not recall.

    Question. What did you do upon learning of concerns?

    Answer. A number of things. First and foremost, I needed to create 
an office within SO/LIC to investigate the full range of issues about 
which we were hearing. I proposed, and received permission, to create 
the first Deputy Assistant Secretary of Defense for Detainee Affairs, 
and to staff it with a mix of career civilian and military 
professionals to bring greater oversight and transparency.

    Question. What did you do, personally to address the concerns that 
were raised about interrogation techniques at GTMO?

    Answer. I began asking for information. As stated in Answer 113, 
the responsibilities within SO/LIC were broad and demanding, and I was 
operating as the PDASD without a confirmed Assistant Secretary. I 
therefore created the DASD for Detainee Affairs and staffed it with 
experts of the highest caliber in order to assist with information 
gathering.

    Question. As you know, my staff and I have reviewed a number of 
memos you regarding interrogation techniques under the Bush 
administration. Taken as a whole, it is clear that you sought to 
advance the effort by the Bush administration to implement techniques 
that our nation later agreed constitute unlawful torture. Are there any 
specific memos or documents you can point to that demonstrate you 
sought to stop, block, or in which you objected to any of the 
techniques implemented by the Bush administration?

    Answer. I have never advocated for torture, and have testified to 
the fact that I strongly opposed contemplation of waterboarding at 
GTMO. The Senate Armed Services Committee report of November 20, 2008, 
is the definitive report into the matter and had the benefit of a 
bipartisan investigation over more than a year, with access to the 
documentary record.

    Question. You testified that when it comes to torture, you would 
``uphold the law.'' But ensuring that the United States does not make 
the mistakes it made in the past, we need leaders who will stand up for 
what is right, what is humane, and what is best for the country, even 
if it may be ``legal.'' How can we be confident that you will do just 
that?

    Answer. I am known as a forthright, honest public servant who has 
devoted most of his professional career to defending our nation. I mean 
what I say, and I do what I say, which is why both my previous and 
current nominations have received bipartisan support.

    Question. When you served in the Bush administration, did you ever 
question that you were not standing up for what was right, as the 
administration was expanding and advancing the use of torture on 
detainees?

    Answer. As stated in multiple other answers, I have never advocated 
for torture.

    Question. At your hearing, you maintained that you never advocated 
for waterboarding. Are there any memos that you wrote or approved that 
demonstrate you did not support the use of waterboarding? Please 
provide specific information that would enable us to locate them. If 
the response requires a classified response, please provide it in the 
appropriate form.

    Answer. I refer you to the Senate Armed Services Committee, which 
conducted the definitive investigation into interrogation at 
Guantanamo. I have testified that I opposed discussion of 
waterboarding. The Senate report makes clear that waterboarding was 
flagged as ``red'' by the Working Group that Secretary Rumsfeld 
established indicating significant legal or policy concerns. My office 
made clear our policy objections, contributing to that red color 
coding. I also note that waterboarding was not approved for use at GTMO 
by Secretary Rumsfeld.

    Question. As you know, there have been troubling reports of 
targeting and retaliation against career employees based on their 
perceived political affiliation or work on policy initiatives under the 
previous administration. Do you agree that such actions have no place 
in federal government?

    Answer. You mentioned this in the hearing. I have not been privy to 
the details of the reports, but based on the information I have, I 
agree.

    Question. If confirmed, do you commit to familiarize yourself with 
these allegations, including reading the recent Inspector General 
report in the International Organizations Bureau?

    Question. Yes.

    Question. What will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. This will be communicated clearly, and any such behaviors 
will be referred through appropriate State Department mechanisms.

    Question. A public Deloitte document cited you describing Marigold, 
a product you were selling as: ``Deloitte's proprietary, web-based 
Marigold due diligence solution, for example, automates risk assessment 
and monitoring through proprietary algorithms and an automated alert 
system.'' Other sales documents claimed that Marigold ``automates and 
standardizes information gathering tasks that commonly consume the 
majority of an analyst's time'' and ``can potentially provide an 
estimated 54% reduction in labor vs. comparative manual due-diligence 
investigation.''
    According to several of your former colleagues, the ``automated 
risk assessment'' that ran on ``proprietary algorithms'' never worked 
as advertised, and analysts manually performed the work and uploaded it 
into the web-based platform. In addition, several of your former 
colleagues said that the ``automated alert system'' never worked, and 
instead analysts would periodically re-run their checks and upload any 
new information into the system.
    Did you ever overstate Marigold's automated and alert capabilities 
(or any other supposed capabilities) to internal and/or external 
clients, including the U.S. government?

    Answer. No. The Marigold software had the capability to automate 
risk assessments and to automatically alert users of changes to risk 
profiles.

    Question. In your meeting with SFRC Democratic staff, you said that 
you never claimed to clients that Marigold could perform ``persistent'' 
due diligence. However, sales documents state that Marigold's 
``persistent monitoring provides even greater cost savings over time.'' 
Furthermore, another sales document with your name on it describes 
Marigold's ``four-phased process of Aggregating, Automating and 
Alerting, Analyzing, and Persisting.'' Please explain the discrepancy 
between your statement to staff and Deloitte sales documents.

    Answer. Marigold had the capability to automate the due diligence 
process by gathering information and providing users with automatic 
alerts. This automation allowed some clients to realize cost savings.

    Question. SFRC Democratic understands that a complaint was filed 
against you for misrepresenting the capabilities of Marigold. Were you 
ever made aware of this complaint?

    Answer. No. I am not aware of any complaints.

    Question. To your best knowledge, did any employees of Deloitte 
ever express dissatisfaction about the way that you or others presented 
Marigold to existing internal or external clients and potential 
clients, including the U.S. government?

    Answer. I do not recall any dissatisfaction.

    Question. To your best knowledge, did any employees of Deloitte 
ever refuse to write promote Marigold in the way that you wanted them 
to?

    Answer. I do not recall any such circumstances.
    Question. If Marigold worked as portrayed in interviews you gave 
and in sales documents, why did Deloitte stop selling the product soon 
after you left the company?

    Answer. I cannot speculate as to the business decisions made after 
I separated from Deloitte.


    Question. Did you ever attempt to become a partner at Deloitte? If 
so, what was the outcome? If you were not selected as a partner, were 
the issues with Marigold a contributing factor?

    Answer. I was in the process of converting from Managing Director 
to Partner when I was asked to join the administration and accepted the 
President's nomination to the Treasury Department.
Department of Treasury Office of Terrorist Financing and Financial 
        Crimes
    Since June 2017, you have served as the Assistant Secretary for 
Terrorist Financing U.S. Department of the Treasury. Results of 
Employee Viewpoint Surveys, which poll employees, (see table below) 
show declines across a range of factors, including morale, since you 
have taken office. Please review the table and answer the questions 
below:

                                   Results of EVS Surveys for Department of Treasury: ``Asst Sec Terrorist Financing''
                             Percent Responding Positive: (``Strongly Agree and Agree'' or ``Very Satisfied and Satisfied'')
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         2016                                   2017                                   2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
Arbitrary action, personal                               69.0                                   58.5                                   42.9
 favoritism and coercion for
 partisan political purposes are
 not tolerated.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Prohibited Personnel Practices (for                      85.4                                   70.5                                   65.6
 example, illegally discriminating
 for or against any employee/
 applicant, obstructing a person's
 right to compete for employment,
 knowingly violating veterans'
 preference requirements) are not
 tolerated.
--------------------------------------------------------------------------------------------------------------------------------------------------------
In my organization, senior leaders                       65.7                                   57.4                                   47.2
 generate high levels of motivation
 and commitment in the workforce.
--------------------------------------------------------------------------------------------------------------------------------------------------------
My organization's senior leaders                         85.1                                   72.0                                   57.8
 maintain high standards of honesty
 and integrity.
--------------------------------------------------------------------------------------------------------------------------------------------------------
I have a high level of respect for                       77.5                                   58.4                                   59.4
 my organization's senior leaders.
--------------------------------------------------------------------------------------------------------------------------------------------------------
How satisfied are you with the                           68.5                                   48.7                                   47.1
 policies and practices of your
 senior leaders?
--------------------------------------------------------------------------------------------------------------------------------------------------------
Considering everything, how                              67.5                                   64.7                                   57.1
 satisfied are you with your job?
--------------------------------------------------------------------------------------------------------------------------------------------------------
Considering everything, how                              70.0                                   62.2                                   52.1
 satisfied are you with your
 organization?
--------------------------------------------------------------------------------------------------------------------------------------------------------



    Each of the categories above witnessed a decline in the number of 
employees who responded favorably. Note that the results are only 
reported if there is a sufficient response pool to be significant. For 
each, please explain, separately, what you attribute for the decline in 
the percentage of employees who agree with the statements.
    Question. To what do you attribute the decline in the percentage of 
employees who agreed that arbitrary action, personal favoritism, and 
coercion are not tolerated?

    Answer. I note that data from 2016 and 2017 is completely unrelated 
to my tenure in office. To the extent that this data shows trends, it 
predates my confirmation by the Senate. I also note that the scores 
highlighted have been picked from among other questions which showed 
either no significant change year over year, or noteworthy 
improvements, particularly with regard to my leadership of the 
organization.


    As examples:

                                          Percent Responding Positively
----------------------------------------------------------------------------------------------------------------
                                                                                                      Treasury-
                                                                          TFFC 2017     TFFC 2018     wide 2018
----------------------------------------------------------------------------------------------------------------
I am given a real opportunity to improve my skills in my organization.         56.7          68.3          62.6
----------------------------------------------------------------------------------------------------------------
My performance appraisal is a fair reflection of my performance.               73.2          82.0          75.7
----------------------------------------------------------------------------------------------------------------
Creativity and innovation are rewarded.                                        46.1          56.9          40.2
----------------------------------------------------------------------------------------------------------------
My supervisor is committed to a workforce representative of all                65.1          67.6          75.0
 segments of society.
----------------------------------------------------------------------------------------------------------------
Supervisors work well with employees of different backgrounds.                 64.6          67.9          68.4
----------------------------------------------------------------------------------------------------------------
Overall, how good a job do you feel is being done by the manager               59.2          75.6          63.9
 directly above your immediate supervisor?
----------------------------------------------------------------------------------------------------------------
I have a high level of respect for my organization's senior leaders.           58.4          59.4          53.9
----------------------------------------------------------------------------------------------------------------

    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. To what do you attribute the decline in the percentage of 
employees who agreed that prohibited personnel practices are not 
tolerated than before you took office?

    Answer. I note that data from 2016 and 2017 is completely unrelated 
to my tenure in office. To the extent that this data shows trends, it 
predates my confirmation by the Senate. I also note that the scores 
highlighted have been picked from among other questions which showed 
either no significant change year over year, or noteworthy 
improvements.
    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. To what do you attribute the decline in the percentage of 
employees who agreed that senior leaders generate high levels of 
motivation and commitment than before you took office?

    Answer. I note that data from 2016 and 2017 is completely unrelated 
to my tenure in office. To the extent that this data shows trends, it 
predates my confirmation by the Senate. I also note that the scores 
highlighted have been picked from among other questions which showed 
either no significant change year over year, or noteworthy 
improvements.
    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. To what do you attribute the decline in the percentage of 
employees who agreed that their organization's senior leaders maintain 
high standards of honesty and integrity than before you took office?

    Answer. I note that data from 2016 and 2017 is completely unrelated 
to my tenure in office. To the extent that this data shows trends, it 
predates my confirmation by the Senate. I also note that the scores 
highlighted have been picked from among other questions which showed 
either no significant change year over year, or noteworthy 
improvements.
    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. To what do you attribute the decline in the percentage of 
employees who agreed that they have a high level of respect for their 
organization's senior leaders than before you took office?

    Answer. I note that data from 2016 and 2017 is completely unrelated 
to my tenure in office. To the extent that this data shows trends, it 
predates my confirmation by the Senate. I also note that the scores 
highlighted have been picked from among other questions which showed 
either no significant change year over year, or noteworthy 
improvements.
    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. To what do you attribute the decline in the percentage of 
employees who agreed that they are satisfied with the policies and 
practices of their senior leaders than before you took office?

    Answer. I note that data from 2016 and 2017 is completely unrelated 
to my tenure in office. To the extent that this data shows trends, it 
predates my confirmation by the Senate. I also note that the scores 
highlighted have been picked from among other questions which showed 
either no significant change year over year, or noteworthy 
improvements.
    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. To what do you attribute the decline in the percentage of 
employees who agreed that they are satisfied with their jobs and their 
organization than before you took office?

    Question. I note that data from 2016 and 2017 is completely 
unrelated to my tenure in office. To the extent that this data shows 
trends, it predates my confirmation by the Senate. I also note that the 
scores highlighted have been picked from among other questions which 
showed either no significant change year over year, or noteworthy 
improvements.
    I will not speculate as to the reason for the increases or declines 
in employee responses. However, I take seriously all results of the EVS 
survey, which is why I convened several management meetings to address 
areas requiring improvement and created a new position to oversee 
efforts to drive change. I enacted a plan to respond to many of these 
challenges in 2018 and a revised version for 2019 continues to guide 
our office's efforts to improve.

    Question. In January 2018, the Treasury Department released its 
public list of prominent Russian political figures and business leaders 
with ties to Putin and the Russian government. Treasury's list was an 
exact replica of the Forbes 2017 list of the world's billionaires, and 
reporting indicates that a senior administration official replaced the 
original list drawn up by Treasury analysts with the Forbes list 
shortly before publication. To the best of your knowledge, which 
administration official made that decision, and why?

    Answer. I cannot comment on the internal deliberative processes of 
the administration.

    Question. What was your role in the oligarch's list process, and 
did you object to the original list being replaced by the Forbes list?

    Answer. I cannot comment on the internal deliberative processes of 
the administration.

    Question. During the period under which the Rusal and EN+ sanctions 
de-listings were being reviewed by Congress, were you or anyone else at 
the Treasury Department aware of Rusal's intention/desire to invest in 
a commercial venture in the state of Kentucky? If so, how were you made 
aware?

    Answer. The administration has provided multiple briefings to 
Congress regarding sanctions pertaining to EN+ and Rusal. I believe the 
sanctions on Oleg Deripaska, Rusal, and EN+ sent a strong message to 
Vladimir Putin and the oligarchs that we will not tolerate their 
continued malign behavior. Our efforts to hold Oleg Deripaska 
accountable for his actions continue in a number of overseas 
jurisdictions.

    Question. In April 2003, you wrote a memo to Secretary Rumsfeld 
titled ``Interrogation Methods for GTMO.'' In it, you recommended that 
Secretary Rumsfeld approve 11 interrogation techniques which you 
supported but, at that point, he no longer did. These are the same 
techniques that the Senate Armed Services Committee (SASC) report 
concluded led to abuses in Afghanistan and Iraq. In the memo, which is 
quoted in the SASC report, you wrote that the techniques were ``not 
controversial from either a legal, or policy standpoint.''


    (If a classified response is necessary to respond to any of the 
questions below fully and completely, please provide a response in 
classified form, but only to the extent necessary to protect classified 
information).



    Question. Putting the legal concerns of the military JAGs aside, 
how did you determine that the techniques were not controversial from a 
policy standpoint?

    Answer. As I testified, I am not an expert on interrogation 
techniques, nor am I a lawyer. We relied upon descriptions provided at 
the time by interrogation specialists and upon the determinations by 
counsel of which techniques were legally permissible. As I have noted 
in other answers, I also created an office charged with detainee 
matters, and I relied upon the advice of career professionals within 
the Office of the Secretary of Defense. The combination of these two 
factors (legal and policy) was used by the Working Group to categorize 
different requested authorities, as described in the SASC report.

    Question. During your time at Special Operations/Low-Intensity 
Conflict (SO/LIC), did you ever oppose the use of any interrogation 
techniques not in the Army Field Manual?

    Answer. I opposed the use of waterboarding, which I understand was 
not included in the Army Field Manual at the time.

    Question. If so, which techniques did you oppose using? Was your 
opposition recorded in any memos you authored or approved? If so, 
please provide specific information that would enable us to identify 
and locate those memos. If a classified response is necessary, please 
provide it.

    Answer. I refer to Answer 140 and multiple other answers indicating 
that the Senate Armed Services Committee conducted the definitive 
investigation into these topics and had access to the historical record 
on a bipartisan basis.

    Question. Did you ever advocate for or approve the use of the 
enhanced interrogation technique (EIT) known as ``hooding,'' which 
involved placing a hood or blindfold over the detainee's head during 
questioning?

    Answer. As made clear in materials furnished to the committee, 
including a letter from Dr. Mark Jacobson, who both worked in SO/LIC 
and later as an investigator for Senator Levin on the Senate Armed 
Services Committee staff, I was not in the position of deciding on 
interrogation-related matters. The role of SO/LIC at the time was to 
endeavor to create a transparent process whereby requests made by the 
Joint Task Force at GTMO were routed through multiple levels of 
scrutiny, including multiple layers of legal review, to ensure that the 
Secretary of Defense was provided with a fulsome and considered set of 
views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of JAGs and law enforcement 
professional interrogators believed that this technique constituted 
torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed interrogation measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``threat of transfer,'' which involved threatening to transfer 
the subject to a 3rd country that the subject is likely to fear would 
subject him to torture or death?

    Answer. As stated in Answer 142, I was not in the position of 
deciding on interrogation-related matters. The role of SO/LIC at the 
time was to endeavor to create a transparent process whereby requests 
made by the Joint Task Force at GTMO were routed through multiple 
levels of scrutiny, including multiple layers of legal review, to 
ensure that the Secretary of Defense was provided with a fulsome and 
considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``use of prolonged interrogations,'' which involved the 
continued use of a series of approaches that extend over a long period 
of time (e.g., 20 hours per day per interrogation)?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any technique that 
constituted torture. I do not recall that the various Working Group 
draft reports ever defined this technique as torture. Within SO/LIC, we 
relied upon determinations by the Department of Defense's Office of the 
General Counsel regarding the legality of proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``forced grooming,'' which involved forcing a detainee to 
shave their hair or beard?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``sleep deprivation,'' which involved keeping the detainee 
awake for an extended period of time, up to 4 days in succession?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures. As I have noted in responses to multiple other 
questions, Congress enacted a law in 2015--more than a decade after my 
time in SO/LIC--which established that only techniques contained in the 
Army Field Manual may be used in interrogations. I strongly support 
this law, and do not support any interrogation technique not contained 
in the Manual.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``isolation,'' which involved separating a detainee from 
others for up to 96 hours?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``sound modulation''?

    Answer. As stated in Answer 142, I was not in the position of 
deciding on interrogation-related matters. The role of SO/LIC at the 
time was to endeavor to create a transparent process whereby requests 
made by the Joint Task Force at GTMO were routed through multiple 
levels of scrutiny, including multiple layers of legal review, to 
ensure that the Secretary of Defense was provided with a fulsome and 
considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``face slap/stomach slap,'' which involved a quick glancing 
slap to the fleshy part of the cheek or stomach, used as a shock 
measure?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``removal of clothing,'' which involved potential removal of 
all clothing, to be done by military police if not agreed to by the 
subject?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Did you ever advocate for or approve the use of the EIT 
known as ``increasing anxiety by use of aversions,'' which involved 
introducing factors that create anxiety, such as military working dogs?

    Answer. I was not in the position of deciding on interrogation-
related matters. The role of SO/LIC at the time was to endeavor to 
create a transparent process whereby requests made by the Joint Task 
Force at GTMO were routed through multiple levels of scrutiny, 
including multiple layers of legal review, to ensure that the Secretary 
of Defense was provided with a fulsome and considered set of views.

    Question. If so, were you aware of the objections of military JAGs 
and law enforcement professional interrogators (FBI, NCIS, etc.) to 
this technique?

    Answer. I depended upon law enforcement and intelligence 
professionals, together with legal counsels from multiple organizations 
and services, to provide their best advice on interrogation techniques 
requested for use at Guantanamo. The purpose of the Working Group, was 
to assemble a wide array of individuals to develop a set of 
recommendations for the Secretary. As I am not an expert in 
interrogation, I relied upon SO/LIC staff to attend various meetings 
where differing views were expressed.

    Question. Were you aware that some of them believed that this 
technique constituted torture?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Do you now consider this technique to be abusive? If so, 
why did you not consider it abusive at the time?

    Answer. I have never supported the use of any interrogation 
technique that constituted torture. I do not recall that the various 
Working Group draft reports ever defined this technique as torture. 
Within SO/LIC, we relied upon determinations by the Department of 
Defense's Office of the General Counsel regarding the legality of 
proposed measures.

    Question. Retired U.S. Army Major General Thomas J. Romig, who 
served as the Judge Advocate General of the U.S. Army, wrote a letter 
to the committee after your hearing stating that:

          I, and several other military lawyers, spoke up against 
        proposals to abuse and torture detainees by using so-called 
        `enhanced interrogation methods.' During meetings on the 
        matter, I encountered Mr. Marshall Billingslea, who at the time 
        was in the very influential role of Principal Deputy Assistant 
        Secretary of Defense for Special Operations and Low Intensity 
        Conflict at the Pentagon. I write to you today because I 
        understand that Mr. Billingslea has been nominated to serve as 
        Under Secretary of State for Civilian Security, Democracy, and 
        Human Rights-a position that requires moral courage, 
        leadership, and credibility on human rights. Yet during the 
        critical test of our nation's moral courage after 9/11, Mr. 
        Billingslea failed. He not only failed to stand up for what was 
        right, but he also went out of his way to advocate for using 
        abusive interrogation techniques against detainees in our 
        custody. And he advocated for such abuses despite being told 
        that his positions were wrong, counterproductive, and unlawful 
        by a group of senior military lawyers with over 100 collective 
        years of military experience and nearly that many years of 
        military law experience.

   Do you dispute General Romig's assertion that you ``advocate[d] for 
        using abusive interrogation techniques against detainees in 
        [U.S.] custody''? If so, do you know of any documents that can 
        support your account?

    Answer. I do dispute this assertion. The SASC report was conducted 
on a bipartisan basis and had access to the full documentary record. At 
no point in that report am I accused of advocating for torture.

    Question. Do you dispute General Romig's assertion that you were 
``told that [your] positions were wrong, counterproductive, and 
unlawful by a group of senior military lawyers''? If so, do you know of 
any documents that can support your account?

    Answer. I depended upon the Department of Defense's Office of the 
General Counsel to identify techniques that were unlawful or which 
constituted torture. The SASC report was conducted on a bipartisan 
basis and had access to the full documentary record. At no point in 
that report am I accused of advocating for torture.

    Question. You said at your hearing that ``Dr. Mark Jacobson, who 
has written letters on [your] behalf . . . has made crystal clear that 
[you] did not advocate for torture.'' However, the letter you 
referenced was written by Dr. Jacobson in 2017, regarding your 
confirmation process for Treasury Assistant Secretary of Terrorist 
Financing and Illicit Finance, correct? Please answer yes or no.

    Answer. Yes.

    Question. Dr. Jacobson did not write that letter for your 
nomination as Under Secretary for Civilian Security, Democracy, and 
Human Rights, correct? Please answer yes or no.

    Answer. Yes. He has spoken at length with Minority Staff as well 
with respect to my current nomination.

    Question. Dr. Jacobson's letter says only that you were ``not the 
decider as to whether the Pentagon would push forward with aggressive 
interrogation techniques.'' Please cite the relevant text in the 2017 
letter where he makes it ``crystal clear'' that you did not advocate 
for torture.

    Answer. Dr. Jacobson's letter speaks for itself. I was focused on 
creating a transparent process on all matters relating to GTMO, as the 
Department of Defense documents provided to the committee demonstrate.

    Question. The day after your hearing, Dr. Jacobson submitted a new 
letter to the committee to ``clarify the context of [his] letter of 
June 22, 2017 to the Chair of the Senate Armed Services Committee.'' He 
followed:

          I wrote this letter in 2017 in response to a particular set 
        of news articles published in the 2004-2007 period that I felt 
        overstated Billingslea's ``central'' or ``directing'' role in 
        the development of interrogation techniques at Guantanamo Bay. 
        I was concerned, based on what the Senate Armed Services 
        Committee investigation (completed April 2009) had uncovered, 
        that those articles when taken alone overplayed Billingslea's 
        role as opposed to that of more senior leaders and could 
        potentially let those more senior leaders off the hook. In 
        terms of any other issues regarding Mr. Billingslea's 
        involvement with the detention and interrogation policies I 
        stand by the findings and text of the Senate Armed Services 
        Committee report.

   Do you know of any documents that can support your account that you 
        did not advocate for torture?

    Answer. The SASC report was conducted on a bipartisan basis and had 
access to the full documentary record. At no point in that report am I 
accused of advocating for torture.

    Question. Another SASC staffer that worked on the investigation, 
Joe Bryan, also submitted a letter to the committee the day after your 
hearing. Mr. Bryan's letter states that ``In his September 19, 2019 
testimony before your committee Mr. Billingslea referred to a 
statement, which he attributed to a third party, that he has `never 
supported torture nor anything resembling torture.' The record 
established in the SASC investigation does not support that 
assessment.'' The letter cites as evidence for this assertion your memo 
from April 10, 2003 (see page 131 of the SASC report) and memo from 
July 24, 2003 (see page 138 of the SASC report).

   Do you know of any documents that can support your account that you 
        have never supported torture or anything resembling torture?

    Answer. The two pages referenced (plus a footnote) are the only 
times I am mentioned in a report that is 263 pages long. The SASC 
report is the definitive bipartisan assessment of detainee matters 
related to Guantanamo.

    Question. Mr. Bryan wrote that ``senior military lawyers repeatedly 
raised concerns about the legality of interrogation techniques that 
[you] endorsed.'' The letter cites as evidence concerns from JAGs prior 
to your recommendation to authorize additional techniques (see pages 
67-69 and 126-127 of the SASC report). What did you do when senior 
military lawyers raised concerns about the legality of interrogation 
techniques?

    Answer. As a civilian within the Office of the Secretary of 
Defense, I depended upon the Office of the General Counsel to evaluate 
and provide determinations on the legality of interrogation techniques.

    Question. Are there any documents that can support any actions you 
took in response?

    Answer. The SASC report is the definitive bipartisan assessment of 
detainee matters related to Guantanamo, and was based on a review of 
the complete documentary history.

    Question. If you took no action, why did you ignore the concerns of 
those military lawyers?

    Answer. As I have indicated, I opposed consideration of the use of 
waterboarding at GTMO.

    Question. You said at your hearing that the reason SASC staffers 
never interviewed you during the course of their investigation into 
detainee abuse was because ``they knew that [you] were not involved in 
advocating for torture.'' Multiple former SASC staffers who worked on 
the detainee report assert that you were not interviewed during the 
course of the investigation because the written record you left behind 
clearly showed your role in advocating for or approving the use of 
enhanced interrogation techniques, and therefore there was no need to 
interview you to gain any further information. Do you have any factual 
basis for the assertion you made at the hearing?

    Answer. I stand by my testimony.

    Question. Do any documents or witnesses that can support your 
version?

    Answer. The SASC report is the definitive bipartisan assessment of 
detainee matters related to Guantanamo, and was based on a review of 
the complete documentary history.

    Question. At your hearing, you stated that at SO/LIC you ``never 
provided and did not have the authority to provide policy oversight to 
Special Mission Units in Iraq or Afghanistan.'' You said that SO/LIC is 
``responsible for engaging with U.S. Special Operations Command (SOCOM) 
in Tampa directly. Those Special Mission Units (SMU) were elements of 
the Joint Special Operations Command (JSOC) and they worked for the 
regional Combatant Commanders (COCOMS).''
    If the SMUs were elements of JSOC, and JSOC is a component command 
of SOCOM, and SOCOM falls under the policy oversight of SO/LIC, how did 
SO/LIC not have the authority to provide civilian oversight to SMUs in 
Iraq and Afghanistan?

    Answer. Geographic combatant commanders, such as U.S. Central 
Command, maintain chain of command responsibility for military units 
operating within their area of responsibility. For a wide range of 
reasons, historically, the civilian staff with the Office of the 
Secretary of Defense (Policy) do not intercede within the military 
chain of command. SO/LIC engages with U.S. Special Operations Command 
and the Joint Staff on policy matters.

    Question. If SO/LIC did not provide civilian oversight of the SMUs 
in Iraq and Afghanistan, which DOD civilian element did?

    Answer. I am unaware that anyone within the Office of the Secretary 
of Defense (Policy) intercedes within the military chain of command to 
provide direct oversight of Special Mission Units.

    Question. While at SO/LIC, which you started at in August 2002, 
were you aware that GTMO interrogators traveled to Army Special 
Operations Command Joint Personnel Recovery Agency (JPRA) in September 
2002?

    Answer. I do not recall being aware of that.

    Question. If so, did you play any role in that visit or receive any 
information about it?

    Answer. Not to my recollection.

    Question. If so, were you aware that they went to learn 
interrogation techniques that U.S. military personnel are taught to 
resist as part of SERE (Survive, Evade, Resist, Escape) training, which 
are based on techniques used by enemies that did not follow the Geneva 
convention, such as those used by the Chinese Communist army against 
American POWs during the Korean War to elicit false confessions?

    Answer. I do not recall being aware of the visit at the time.

    Question. While at SO/LIC, were you aware that on October 2, 2002 
the chief counsel of the CIA's Counter-Terrorism Center traveled to 
GTMO and sanctioned the use of SERE techniques--including waterboarding 
and phobias--in the interrogation of Mohammed Khatani, as recounted in 
the SASC report?

    Answer. I do not recall being aware of the visit.

    Question. If so, did you play any role in that visit or receive any 
information about it?

    Answer. Not to my recollection.

    Question. While at SO/LIC, were you aware that from October 2-10, 
2002, the Khatani interrogation occurred at GTMO and included the use 
of military dogs for intimidation, sleep deprivation, body placement 
discomfort (stress positions), loud music, and bright lights?

    Answer. I do not recall being aware of this.

    Question. If so, did you play any role in that visit or receive any 
information about it?

    Answer. Not to my recollection.

    Question. While at SO/LIC, were you aware that from October 8-10, 
2002, U.S. military personnel from the Afghanistan Special Mission Unit 
Task Force (SMU TF) visited GTMO and learn new interrogation 
techniques? If so, did you play any role in that visit or receive any 
information about it?

    Answer. I do not recall being aware of this.

    Question. While at SO/LIC, were you aware that on October 11, 2002, 
the GTMO commander sent a memo to SOUTHCOM requesting authority for 
GTMO interrogators to use the newly-learned SERE techniques from their 
September visit to JPRA, which were also used in the interrogation of 
Khatani?

    Answer. I do not recall being aware of this.

    Question. Was the memo you wrote to Secretary Rumsfeld on or about 
October 10, 2002, titled ``Detainees at GTMO,'' informed or influenced 
in any way by any of the events of the preceding 8 days and the 
following day, including either the visit by the CIA CTC chief counsel, 
the interrogation of Khatani, the visit of the Afghanistan SMU TF team 
to GTMO, and/or the impending request from the GTMO commander for 
authority to use more interrogation techniques?

    Answer. Not to my recollection.

    Question. While at SO/LIC, were you aware that SMUs in Afghanistan 
and Iraq were conducting their own interrogations?

    Answer. As I indicated in Answers 194 and 195, the Special Mission 
Units fell under the military chain of command. I do not recall being 
aware of interrogation techniques used by the SMUs, if any.

    Question. If not, was another civilian element of DOD?

    Answer. Not to my knowledge.

    Question. If so, did you ever review or were you ever made aware of 
their interrogation policies?

    Answer. Not to my recollection.

    Question. While at SO/LIC, were you aware of or did you review or 
approve the January 2003 interrogation SOP created by Afghanistan SMU 
TF?

    Answer. Not to my recollection.

    Question. If not, did another civilian element of DOD?

    Answer. Not to my knowledge.

    Question. While at SO/LIC, were you aware of or did you review or 
approve the February 2003 interrogation SOP created by Iraq SMU TF?

    Answer. Not to my recollection.

    Question. If not, did another civilian element of DOD?

    Answer. Not to my knowledge.

    Question. While at SO/LIC, did intelligence reports you received 
from SMU interrogations in Afghanistan and Iraq lead you to believe 
that their interrogation methods were effective?

    Answer. I do not recall ever receiving ``intelligence reports . 
from SMU interrogations.'' We received daily threat stream reporting 
from the Defense Intelligence Agency, but sources and methods were not 
disclosed.

    Question. While at SO/LIC, were you aware of reports that SMU 
interrogations in Afghanistan and Iraq were resulting in the abuse of 
detainees?

    Answer. As I testified, I recall learning of a death at Bagram. I 
do not recall being told that it was associated with abuse of 
detainees, but I recall asking the SOCOM commander to investigate.

    Question. If so, did you take any steps to have the alleged abuse 
investigated

    Answer. As I stated earlier, I raised the issue with the Commander 
of USSOCOM.

    Question. While at SO/LIC, did you ever draft or recommend 
interrogation techniques or policy, either independently or jointly 
with another division or unit?

    Answer. Requests for interrogation techniques did not originate 
from within SO/LIC. As I have stated, I am not an expert on 
interrogation techniques, and had to depend upon the intelligence and 
law enforcement communities to describe the techniques they were 
requesting, and upon the Office of the General Counsel for 
determinations on legality.

    Question. You said during your hearing that ``it came to your 
attention that in the case of an individual in Bagram, there had been a 
death in one of the facilities, and [you] escalated that case 
personally to the Special Operations Combatant Commander (SOCOM) and 
asked him, in effect, `what is going on here?''' Do you know of any 
documents that can support your account?

    Answer. I am unaware of any documents.

    Question. In November 2002, did you review or approve the Joint 
Staff Action Processing Form--which was approved by the Under Secretary 
of Defense for Policy's office--for JPRA to train interrogators?

    Answer. I do not recall that document.

    Question. While at SO/LIC, were you aware that in May 2003 CIA 
general counsel Scott Muller told Jim Haynes that Iraq SMU TF 
interrogators were more aggressive than the CIA interrogators? Did you 
hear any such reports from other sources?

    Answer. I do not recall being aware of that conversation.

    Question. Where you aware of any objections by military JAGs, law 
enforcement professionals, or any others to the techniques used in the 
second interrogation of Khatani at the time that you approved the 
interrogation plan?

    Answer. I do not recall this.

    Question. If all of the methods used in the Khatani interrogation 
were legal today, would you approve the interrogation plan?

    Answer. I strongly support the law enacted by Congress in 2015 to 
prohibit use of interrogation techniques beyond those contained in the 
Army Field Manual. I would not support use of any technique not 
contained in the Manual.

    Question. What was your role on the Working Group that Secretary 
Rumsfeld established on or around January 15, 2003?

    Answer. SO/LIC was asked to participate in the Working Group, along 
with a large number of other participants from law enforcement, 
intelligence, the uniformed military, and lawyers.

    Question. While on the Working Group, did you have any role in 
removing the reference to ``SERE schools'' or techniques used in 
``military training'' from the February 2nd draft report?

    Answer. Not to my recollection.

    Question. While on the Working Group, did you have any role in the 
insertion of language in the February 2nd draft report that stated the 
techniques were ``considered effective by interrogators and for which 
USSOUTHCOM and USCENTOM have requested approval''?

    Answer. Not to my recollection.

    Question. While on the Working Group, did you approve of the 
interrogation techniques in the ``Final Report''--which was later re-
characterized as a draft--that was circulated on February 04, 2003?

    Answer. As I have testified, I objected to consideration of 
waterboarding as a technique for use at GTMO. As the SASC report also 
documents, while the Working Group found certain techniques to be 
legally permissible, I thought the Secretary of Defense should be 
notified prior to use of a number of techniques in order to ensure that 
these measures were subject to rigorous oversight.

    Question. What is your recollection your role in the March 2003 
meeting with Wolfowitz, Haynes, Myers, Cambone, Feith, Captain Dalton, 
and yourself to discuss the Working Group's findings?

    Answer. I do not recall that meeting.

    Question. Why did you disagree with the decision from that meeting 
to only authorize 24 techniques?

    Answer. I do not recall that meeting.

    Question. During your hearing you quoted from a 2017 letter from 
Dr. Michael Gelles which states that you ``never condoned the use of 
torture, nor did [you] advocate any technique that could constitute 
torture.''

   Do you disagree with the findings of the Legislative, Executive, 
        and Judicial branches of the U.S. government that the 
        techniques you advocated for, such as hooding, threat of 
        transfer, 20-hour interrogations, forced grooming, sleep 
        deprivation, face slap/stomach slap, removal of clothing, 
        increasing anxiety by use of aversions, do in fact constitute 
        torture? If you do not agree, why not? If you do agree, then 
        how can you stand by the assertion made in Dr. Gelles letter?

    Answer. I strongly support the law enacted by Congress in 2015 to 
prohibit use of interrogation techniques beyond those contained in the 
Army Field Manual. I would not support use of any technique not 
contained in the Manual. At the time, as neither a lawyer nor an expert 
in interrogation techniques, I depended upon the Office of the General 
Counsel to determine the legality of proposed measures. I have never 
advocated for the use of torture.

    Question. Dr. Gelles letter also states that you were ``the person 
who single-handedly blocked consideration of the use of waterboarding 
at GTMO.'' In your meeting with SFRC Democratic staff, you were asked 
how Dr. Gelles knew that, and you responded that he was on the Working 
Group. But Dr. Gelles was not on the Working Group. Did you tell Dr. 
Gelles that you blocked the consideration of waterboarding from being 
used at GTMO? If not, how would he know that you blocked the 
consideration of waterboarding from being used at GTMO?

    Answer. There were many working meetings at the time regarding 
GTMO. Most of the meetings I personally attended were focused on 
securing agreement to release detainees from GTMO who were of no 
further intelligence value and were no longer a threat to U.S. national 
security. I made clear my opposition to waterboarding in multiple fora.

    Question. While at Deloitte, did you help Dr. Gelles win any 
business from the company or profit from the company in any way?

    Answer. Dr. Gelles is a Managing Director at Deloitte, as I was. I 
routinely partnered with a number of Managing Directors during my 
employment at Deloitte.

    Question. While at Deloitte, did you hire or help hire Dr. Gelles 
son to work at the company?

    Answer. Bryan Gelles was hired by Deloitte Financial Advisory 
Services and worked within the Business Intelligence Services group, 
the business practice which I led.

    Question. Did you ask anyone else to write letters supporting your 
nomination (or have anyone request on your behalf)? Did anyone refuse?

    Answer. I am pleased that so many individuals and representatives 
of nonprofits and human rights organizations have supported my 
nomination to serve as Under Secretary. In addition to the multiple 
letters of support that have already been placed into the hearing 
record, on September 18, 14 more human rights and democracy advocates 
wrote to the Chairman and Ranking Member in support of my nomination. 
Their letter is attached to the QFR responses.

    Question. When and how did you allegedly block waterboarding from 
being considered at GTMO?

    Answer. I raised clear objections in meetings with the Office of 
the General Counsel. As the SASC report indicates, waterboarding was 
identified as ``red'' by the working group and was not a technique 
presented to Secretary Rumsfeld for approval.

    Question. Is there any way to independently verify your claim that 
you blocked waterboarding from being considered at GTMO?

    Answer. I have been clear in my testimony. There is no evidence to 
the contrary.

    Question. Does the account of the Working Group in Vice Admiral 
Church's report support your assertion that you blocked waterboarding 
from being considered at GTMO?

    Answer. The SASC report is the definitive bipartisan assessment of 
detainee matters related to Guantanamo, and was based on a review of 
the complete documentary history.

    Question. Mark Fallon, who was Deputy Assistant Director for 
Counterterrorism for the Navy Criminal Investigative Service while you 
were at DOD (and also lead the USS Cole Task Force and was Deputy 
Commander of the task force investigating Al-Qaeda before military 
commission trials), told a human rights organization after your hearing 
that:

          In my direct experience, Mr. Billingslea was the single 
        biggest bureaucratic obstacle at the Pentagon, short of the 
        Department of Defense's senior-most leaders, to stopping the 
        use of EITs. He was a vocal advocate for the use of the 
        techniques and the claim that torture worked. When experienced 
        investigators and interrogation professionals, like those on 
        the investigative task force established to bring terrorists to 
        justice attempted to tell him that the techniques were 
        ineffective, he told us we didn't know what we were talking 
        about. If it were not for Mr. Billingslea's full-throated 
        support for the use of EITs at Guantanamo, we may have been 
        able to prevent the techniques from being approved by senior 
        leadership at the Pentagon. And while he may not have intended 
        that the abusive techniques then be employed at Abu Ghraib and 
        elsewhere, that is exactly what happened as a direct result of 
        him pushing for their use at Guantanamo. In all the years 
        since, despite having mutual friends and contacts, I have never 
        once heard any suggestion that Mr. Billingslea has since had a 
        change of heart.

   Since the days when you worked to get EITs approved, have you had a 
        change of heart?

    Answer. As I testified, and as I have indicated in multiple answers 
to QFRs, I strongly support the law enacted by Congress in 2015 to 
clearly identify that only the techniques contained in the Army Field 
Manual may be used in interrogations.

    Question. If, as you claimed at your hearing, you were not an 
``expert on interrogation,'' why did you ignore the opinions of law 
enforcement professionals from the FBI, NCIS, etc. who were experts on 
interrogation, and, according to government documents such as a 
Department of Justice Inspector General report, raised their concerns 
about these interrogation techniques directly with you?

    Answer. As the Senate Armed Services Committee report makes clear, 
there were a wide range of views expressed by the law enforcement, 
intelligence, and legal communities on a number of interrogation 
techniques.

    Question. During your time at SO/LIC, how many memos did you author 
regarding general detainee or interrogation policy, or the 
interrogation of individual detainees? If you do not know the exact 
number, please provide your best estimate (e.g. ``between 5 and 10, 
between 10 and 20, between 20 and 30, more than 30,'' etc.).

    Answer. I authored very few memos. Most were drafted by SO/LIC 
staff. The classified memos furnished to the committee by the 
Department of Defense are representative of the fact that, with regard 
to GTMO, I spent the majority of my short tenure working to properly 
regulate the inflow of detainees and to expedite transfer of detainees 
out.

    Question. During your time at SO/LIC, how many memos did you 
approve regarding general detainee or interrogation policy, or the 
interrogation of individual detainees? If you do not know the exact 
number, please provide your best estimate (e.g. ``between 5 and 10, 
between 10 and 20, between 20 and 30, more than 30,'' etc.).

    Answer. As stated in Answer 240, the classified memos furnished to 
the committee by the Department of Defense are representative of the 
fact that, with regard to GTMO, I spent the majority of my short tenure 
working to properly regulate the inflow of detainees and to expedite 
transfer of detainees out.

    Question. During your time at SO/LIC, how many interrogation plans 
for individual detainees did you approve? If you do not know the exact 
number, please provide your best estimate (e.g. ``between 5 and 10, 
between 10 and 20, between 20 and 30, more than 30,'' etc.).

    Answer. I cannot recall a number.

    Question. Since the date of your nomination, have you spoken to or 
corresponded with anyone at DOD regarding your memos on interrogation 
techniques, including any efforts to locate those memos? If so, please 
include describe the nature and content of those communications.

    Answer. I requested that Legislative Affairs at State Department 
press the Department of Defense to provide all memoranda pertaining to 
detainee matters and my time in SO/LIC. The classified memoranda 
provided clearly show that, far from being an advocate for torture, I 
spent a great deal of time trying to bring transparency to a chaotic 
process.

    Question. Since the date of your nomination, have you reviewed any 
memos, interrogation plans, or other records regarding interrogation 
techniques or interrogation or detainee policy that you drafted, 
reviewed, authored, or approved? If so, please provide a complete list 
of those documents and records, includes dates and titles.

    Answer. The only documents I have seen were those provided to the 
committee, as well as the unclassified Senate Armed Services Committee 
report.

    Question. Do you have any memos, interrogation plans, or other 
records regarding interrogation techniques or interrogation or detainee 
policy that you drafted, reviewed, authored, or approved in your 
possession or control? If so, please provide a complete list of those 
documents and records, includes dates and titles.

    Answer. I do not.

    Question. Do you think that the approximately 14 memos provided for 
review to the committee by DOD capture the full universe of all memos 
you authored or approved regarding general detainee or interrogation 
policy, or the interrogation of individual detainees, while at SO/LIC? 
Please provide a yes or no answer and a justification for your answer.

    Answer. As I stated earlier, the classified memos furnished to the 
committee by the Department of Defense are representative of the fact 
that, with regard to GTMO, I spent the majority of my time working to 
properly regulate the inflow of detainees and to expedite transfer of 
detainees out. I believe the classified memoranda provided clearly show 
that, far from being an advocate for torture, I spent a great deal of 
time trying to bring transparency to a chaotic process.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. I do.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. I do.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes, consistent with all Department of State policies and 
procedures.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. None. My disclosure forms to the Ethics Office are up to 
date.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. I have not.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes, if requested.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. Not to my knowledge.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I have not, but those types of behaviors will not be 
tolerated. If confirmed, I commit to upholding the Department of 
State's policies and regulations relating to sexual harassment, 
discrimination, and other inappropriate conduct.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I do. As I have stated in other questions for the record, 
if confirmed I will start by creating a leadership climate that makes 
clear that the J Family will operate in an inclusive fashion, and that 
retaliation, blacklisting, or other prohibited personnel practices will 
not be tolerated. If I become aware of such behaviors, appropriate 
actions will be undertaken consistent with Department of State policies 
and procedures.

                               __________


            Responses to Additional Questions for the Record
  Submitted to Hon. Marshall Billingslea by Senator Benjamin L. Cardin

    Question. As discussed during your nominations hearing, I have not 
had the opportunity to review the classified memos you authored or 
authorized related to enhanced interrogation techniques. Will you 
commit to providing additional information to me, as well as other 
members of this committee, so that we can make informed decisions on 
your nomination as soon as possible?

    Answer. Senator, I will always be responsive to both you, and your 
staff, as well as other members of the committee. I share a deep 
admiration for the role of the Senate Committee on Foreign Relations, 
stemming from my several years as a professional staff member.

    Question. Will you commit to meeting with me separately to discuss 
this information?

    Answer. Yes.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In my capacity as Assistant Secretary of the Treasury, I 
have made human rights a foundational cornerstone of my work. In this 
role, I have advocated for--and driven implementation of--more than 700 
sanctions using human-rights and corruption-related authorities. I have 
traversed the globe pursuing human rights abusers and their finances, 
and a number of them have found their access to the international 
financial system cut off due to these actions.
    I believe, for example, that our sanctions against a key weapons 
trafficker and conflict mineral exploiter in the Democratic Republic of 
the Congo directly contributed to the decision by Kabila to allow a 
democratic transition in that country. Nowhere have I been more 
aggressive than in the cases of Nicaragua and Venezuela. In the former 
instance, I drove sanctions against both President Ortega, and well as 
the ``First Lady'' Murillo, and their national security advisor, for 
ordering the brutal repression and killing of civilians. In the latter, 
I am widely known to be one of the fiercest opponents of the Maduro 
regime, having spearheaded creation of a number of Executive Orders to 
empower the Department of the Treasury to combat the horrific abuses of 
the regime.
    I was the first U.S. official to decry Maduro's weaponization of 
food aid as a form of social control, and have devoted enormous amounts 
of time working with Latin American partners in Mexico, Panama, 
Colombia, Argentina, Uganda, the United Arab Emirates, and Belgium (to 
name a few jurisdictions) to dismantle the abusive CLAP program run by 
Alex Saab for the purposes of enriching Maduro and his cronies. Because 
of my efforts, Saab's network is in shambles, and he is now a wanted 
man. I was also the first U.S. government official to highlight the 
ecocide being perpetrated by the Maduro regime against the indigenous 
peoples of Venezuela in the rapacious exploitation of the Orinoco 
Mining Belt. I presented the ``blood gold'' case to the United Nations 
Security Council and have driven efforts to prevent purchasing of 
Venezuelan gold in a number of companies. As was noted by the 
Associated Press this week, I was also deeply involved in trying to 
prevent the Maduro kelptocracy from looting and destroying the cultural 
heritage and art of the Venezuelan people. I believe it is for these 
reasons that multiple members of the Venezuelan National Assembly--the 
only democratic body left in Venezuela--have written in support of my 
nomination, as have Venezuelan human rights organizations. I am deeply 
humbled that interim President Juan Guaido, despite everything else 
with which he must contend, took the time to pen a letter of support 
for me to the committee. I believe that all of these actions have been 
impactful, but I believe that much more must be done, and I will not 
rest until the dictatorships in Venezuela and Nicaragua are fully 
dismantled.

    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Department of State?

    Answer. Diversity is exceptionally important. My hiring practices 
at Deloitte and the Treasury show that I emphasize having people from 
as broad a range of backgrounds and perspectives as possible. This will 
be a focus area for me, if confirmed, because I believe that a diverse 
staff gives the best and most fully-considered advice. Diversity is the 
enemy of group think and go-along get-along conformity. For the J 
Family to be effective, it must be willing to sail into strong 
headwinds carrying important values-driven messages relating to human 
rights, democracy, religious freedom, tolerance, and anti-corruption, 
to name a few. We need a diverse staff to best advance this agenda.

    Question. What steps will you take to ensure each of the 
supervisors in your department are fostering an environment that is 
diverse and inclusive?

    Answer. Stemming from my time at NATO, and in the Department of 
Defense, I believe it starts with setting a healthy ``command 
climate.'' If confirmed, I will make clear to each component head that 
I expect a diverse and inclusive environment. Moreover, it has long 
been my practice in critical decision-making sessions, to task one or 
more staff to play the role of contrarian. To argue--no matter what 
their personal belief may be--the counterpoint to the prevailing 
sentiment in the room. I learned from my time at DoD that I must be 
able to fairly represent the opposing view, when asked, and I will 
expect the same of the J family leadership. By having a diverse and 
inclusive community, we will ensure that opposing views are surfaced 
early and discussed robustly.

    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. Yes, in accordance with appropriate procedures.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes, in accordance with appropriate procedures.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No. My financial holdings are fully disclosed to the Office 
of government Ethics.

    Question. When we met over a year ago, you provided me with letters 
from Dr. Michael Gelles and Mark Jacobson indicating that you were not 
directly involved in recommending the use of enhanced interrogation 
techniques during your time at the Department of Defense. These letters 
indicated that groups had overplayed and misstated your involvement in 
these areas--since we met, and since my vote to confirm your initial 
nomination at the Department of Treasury, more information has come to 
my attention regarding these letters. For example, the letter from Dr. 
Gelles states ``I also know that Marshall was the person who single-
handedly blocked consideration of the use of waterboarding at GTMO.'' 
Did you instruct Dr. Gelles to write this letter to the Chair and 
Ranking Member of the Senate Armed Services Committee in support of 
your nomination?

    Answer. No, I did not instruct Dr. Gelles.

    Question. Can you confirm that Dr. Gelles has personally reviewed 
ALL memos you and members of your team at the time prepared on enhanced 
interrogation techniques at Guantanamo Bay? If so, can you provide all 
of those memos to this committee, including procedural memos and others 
that the Ranking Member has requested?

    Answer. That is a question best directed to Dr. Gelles. The 
committee has been shown no documents that contradict what is contained 
in his letter. It is my understanding that the committee has been 
provided every document located by the Department of Defense. Moreover, 
the Senate Armed Services Committee had fulsome bipartisan access to 
the entire record, and- as I stated in testimony- I was not accused of 
advocating torture in that comprehensive assessment.

    Question. Publically available reports indicate that in July 2003, 
while serving as a senior Pentagon official, you recommended that then-
Defense Secretary Rumsfeld authorize an interrogation plan for 
Mohamedou Ould Slahi that included ``sleep deprivation'' and ``sound 
modulation.'' The letter you provided to me and others from Mr. 
Jacobson on your behalf states: ``Marshall was not the decider as to 
whether the Pentagon would push forward with aggressive interrogation 
techniques,'' and that ``To my knowledge OSD SO/LIC personnel were not 
aware [that DOD General Counsel] Haynes had already made the legal and 
policy decisions on aggressive techniques under consideration.'' For 
the record, did you at any time recommend or otherwise indicate support 
for the use of aggressive interrogation techniques to Secretary 
Rumsfeld?

    Answer. As the Slahi memo also shows, I penned a handwritten note 
that clearly shows that I personally went back to verify with legal 
counsel that the requested techniques were legal. I never advocated for 
the use of any technique that was described to me as illegal, or as 
torture.

    Question. Do you agree that sleep deprivation, sound modulation, 
and any other techniques that could amount to torture or cruel, 
inhuman, or degrading treatment of prisoners are unlawful and 
inappropriate?

    Answer. As I testified, Congress legislated on this issue in 2015 
and made clear that any technique not contained in the Army Field 
Manual may not be used. I strongly support the law. In 2002, we did not 
have such legislation and, as Dr. Jacobson notes, I was not the decider 
on these matters.

    Question. Many Trump administration national security and foreign 
policy officials have spoken against torture-on several grounds. For 
example: CIA Director Gina Haspel has said, ``I don't believe that 
torture works.'' Director Haspel also offered the following commitment 
``clearly and without reservation'': ``Under my leadership, on my 
watch, CIA will not restart a detention and interrogation program.'' 
FBI Director Christopher Wray has stated, ``My view is that torture is 
wrong, it's unacceptable, it's illegal and I think it's ineffective.'' 
Secretary Pompeo has stated, ``Torture is illegal. It is never 
permitted,'' and that ``it would not be lawful to use any interrogation 
technique, including waterboarding, that is not among those that the 
Army Field Manual lists as permissible.'' Secretary Pompeo has also 
expressed his agreement with former Defense Secretary Mattis' statement 
that he has never found torture useful. Further, Secretary Pompeo has 
stated that he would ``absolutely not'' return to torture techniques if 
ordered to do so by President Trump. Will you believe that both torture 
and cruel, inhuman, and degrading treatment of detainees are immoral, 
illegal, and counterproductive?

    Answer. I agree completely and without reservation.

    Question. Both war and peacetime atrocities tragically persist 
around the globe, from Syria and South Sudan to Burma and Iraq. As you 
know, early this year, my and Senator Young's ``Elie Wiesel Genocide 
and Atrocities Prevention Act,'' became law. On September 12, the 
President submitted to Congress the first Elie Wiesel Genocide and 
Atrocities Prevention report. The report announced the launch of a 
White House-led interagency mechanism to coordinate efforts on 
atrocities prevention--the Atrocity Early Warning Task Force, which 
replaces the Atrocity Prevention Board. The Bureau of Conflict and 
Stabilization Operations will serve as the Task Force Secretariat. What 
are your views on State Department training to address atrocities?

    Answer. I recognize the impact mass atrocities have on U.S. global 
national security interests and believe that training is an important 
component of helping the State Department work to prevent and address 
atrocities. If confirmed, I support development of Atrocity Prevention 
training that is accessible to Foreign Service Officers worldwide. Such 
training is critical for diplomats and staff in countries deemed at-
risk for mass atrocities to better anticipate and respond to early 
warning signs of violence.

    Question. What are the most effective tools for the Department of 
State to implement and monitor early warning systems to prevent 
atrocities globally?

    Answer. I recognize that mass atrocities rarely occur without 
warning, and that the international community has established a set of 
broadly accepted early warning indicators, which saves civilian lives 
and U.S. financial, diplomatic and other resources. If confirmed, I 
support the Department's development and usage of analytical products 
to support the U.S. government's ability to track and predict conflict, 
instability, and mass atrocities, and enable decision-makers to better 
anticipate and respond to early warning signs of violence.

    Question. In what areas do you believe the Atrocity Prevention 
Board was most/least effective, and how would CSO under your direction 
implement these lessons in its role as the Task Force Secretariat?

    Answer. It is my understanding that the White House-led Atrocity 
Early Warning Task Force will provide technical support for regional 
policy discussions at the White House, identify key priority countries 
for policy coordination, and provide an interagency toolkit for 
atrocity prevention and mitigation. If confirmed, I support the use and 
development of data analytics for early warning, recognizing that the 
U.S. government's options are most constrained and costly when 
atrocities are already taking place.

    Question. In an interconnected world, some might argue that the 
rule of law and efforts to combat transnational crime are only as good 
as the world's weakest links, where entrenched criminality thrives. In 
your view, where are the world's criminal hotspots?

    Answer. Unfortunately, the multifaceted nature of 21st century 
criminality is such that no region is immune. Hotspots and trafficking 
routes shift, and growing major crime areas such as cybercrime respect 
no border. For example, given that synthetic opioids are not produced 
from specific plants grown in delimited geographic areas, that they can 
be transacted over the Internet, and that their potency means that 
small quantities can be shipped anywhere, the concept of a hotspot is 
an ephemeral one. It is incumbent on the Department and its interagency 
partners to remain agile and act strategically to identify and pivot to 
emerging threats, wherever they may manifest.

    Question. What can be done to address crime, corruption, and 
impunity in these locales?

    Answer. Tackling transnational criminal activity in these locales 
relies on building capacity across the entire justice sector continuum 
in key countries, while also bolstering cross border cooperation, in 
order to reduce the gaps available for criminal organizations to 
exploit. With the borderless nature of transnational crime, hotspots 
and trafficking routes shift; international cooperation is essential to 
countering these crimes and responding effectively to such shifts.

    Question. According to the Director of National Intelligence, 
``transnational organized crime'' is among the top 10 global threats to 
the United States identified in the U.S. intelligence community's 2019 
Worldwide Threat Assessment. In your view, what are the most critical 
consequences of transnational crime with respect to U.S. national 
interests and foreign policy objectives?

    Answer. Transnational organized crime not only brings violence and 
insecurity to communities across the United States, it also creates 
instability and insecurity in countries and regions of vital importance 
to U.S. interests. Drug trafficking, human trafficking, gang violence, 
financial crimes, corruption, and cybercrime undermine citizen security 
and rule of law, threaten public health, and create economic 
instability. The administration's E.O. 13773 prioritizes our response 
to transnational organized crime and calls for us to strengthen our 
efforts around the globe to counter these threats to national security.

    Question. In what ways can transnational crime undermine U.S. goals 
of civilian security, democracy, and human rights?

    Answer. Transnational organized crime exploits weak governance, 
fueling corruption and undermining confidence in the ability of 
government institutions to uphold the rule of law. Transnational crime 
networks compromise democratic institution-building and transparency 
and threaten economic stability by creating illicit economies and 
infiltrating financial sectors. Because countries with weak governance 
are particularly susceptible to transnational crime, U.S. capacity 
building efforts to strengthen and professionalize government 
institutions, promote the rule of law, and support anticorruption 
reform are critical elements of our comprehensive approach.

    Question. In your view, is the State Department strategically 
positioned to respond to the national security challenges caused by 
transnational crime?

    Answer. Yes, the Department is strategically positioned to respond 
to these challenges. The Department plays a vital role in tackling 
transnational crime and implementing Executive Order 13773 on Enforcing 
Federal Law with Respect to Transnational Criminal Organizations and 
Preventing International Trafficking. Advancing U.S. interests in this 
area relies on cooperation with other nations. Where the question is 
foreign government know-how, the Department's has great expertise in 
managing programs to build capacity. Where pressure needs to be brought 
to bear, the State Department wields tools such as the Transnational 
Organized Crime Rewards Program and can work with other agencies, or on 
its own, to deploy sanctions.

    Question. What State Department policy responses are working to 
combat transnational crime?

    Answer. As the State Department works to build foreign government 
know-how to address transnational crimes such as drug trafficking and 
human trafficking, there are encouraging signs that this effort has had 
a positive impact in the form of stronger laws, greater enforcement, 
and enhanced ability and willingness to cooperate with U.S. 
authorities. Given the borderless nature of many crimes, and the 
financing that fuels it, encouraging international legal and 
operational cooperation is an important focus that is bearing fruit. 
The Department's efforts to enhance international standards that, among 
other benefits, offer tools for international cooperation are critical 
as well.

    Question. What areas do you think require attention and 
improvement?

    Answer. Twenty-first century crime is agile and innovative, and 
knows no borders. The State Department's response must reflect the 
challenges posed by today's transnational crime threats. That includes 
maintaining a whole of government posture; ensuring coordination and 
complementarity among our operational, sanctions, diplomatic, 
intelligence, and other tools will remain critical. Likewise, the 
Department's multilateral engagement, bilateral diplomacy, and capacity 
building should remain cognizant of emerging challenges, such as new 
models for drug production and trafficking; sophisticated schemes to 
finance crime and launder profits; corruption as a business model; and 
of course cybercrime and cyber-enabled crime.

    Question. For FY 2020, President Trump identified, in Presidential 
Determination No. 2019-22 of August 8, 2019, 22 countries as major drug 
transit or major illicit drug producing countries: Afghanistan, The 
Bahamas, Belize, Bolivia, Burma, Colombia, Costa Rica, Dominican 
Republic, Ecuador, El Salvador, Guatemala, Haiti, Honduras, India, 
Jamaica, Laos, Mexico, Nicaragua, Pakistan, Panama, Peru, Venezuela. Of 
these, Bolivia and ``the illegitimate regime of Nicolas Maduro in 
Venezuela'' were singled out as having ``failed demonstrably during the 
previous 12 months'' to adhere to their international drug control 
commitments. In your view, is this list of ``drug major'' countries 
complete? If not, which additional countries would you recommend adding 
next year?

    Answer. The list this year represents the consensus view of the 
U.S. government, so in my view, it is complete, taking into account the 
wide range of perspectives across the executive branch. For next year, 
the Department will again consult with relevant interagency 
stakeholders, including the Departments of Justice, Defense, and 
Homeland Security, before making any recommendation to the President on 
how to implement this legal requirement, including whether to add any 
new countries.

    Question. International drug control is not a new policy issue and, 
yet, a durable solution to this global challenge remains elusive. In 
your view, what are we doing wrong?

    Answer. The hardest part about tackling a problem like this is that 
results are never immediate. Steps forward in one country are 
overshadowed by steps backward in another. The Department continues to 
devote resources to counternarcotics because of those steps forward, 
and because it is impossible to know--but easy to imagine--how much 
worse the problem would be if we were not working as hard as we are to 
solve it. If I would improve anything, I would work to strengthen even 
further our international cooperation and technical assistance, because 
it is only with the help of other capable, committed governments and 
active participation from civil society that we will find an enduring 
solution to this challenge.

    Question. If confirmed, how would you tackle this seemingly 
intractable problem?

    Answer. First and foremost, I would build on the work already done 
by the Department to strengthen the capacity of foreign partners to 
help us combat the supply of illicit drugs. If we have learned anything 
from our decades combating drugs overseas, it is that we cannot go it 
alone. Strong partners act as force multipliers for our own law 
enforcement agencies. I would place special emphasis on building 
capacity to target the unique characteristics of drug trafficking in 
the 21st century: drug sales on the internet and the dark web, 
synthetic drug production, and trafficking by mail, for example. This 
is the only way we will keep pace with the traffickers, and help our 
partners do the same.

    Question. What upcoming narcotics challenges are on the horizon 
that the United States should anticipate today?

    Answer. Synthetic drugs will continue to be a significant challenge 
given their extreme potency and the ability of chemists to create new 
synthetics using different precursor chemical combinations. Trafficking 
in synthetic drugs offers numerous advantages to criminals, including 
the ability to be manufactured almost anywhere and be trafficked in 
small quantities, lowering operational costs and risk of arrest. We 
should anticipate the continued diversification of source countries and 
trafficking routes for synthetic drugs, as well as accelerated 
innovations in synthetic drug design and production.

    Question. In your view, are U.S. foreign aid programs to counter 
illegal narcotics production and trafficking effective?

    Answer. U.S. foreign assistance programs have helped partners 
across the Western Hemisphere and elsewhere to disrupt the production 
of illicit drugs, dismantle clandestine drug laboratories, and 
interdict illicit drug trafficking. Still, the effectiveness of 
counternarcotics assistance should be assessed within the broader 
realities of security and governance challenges, and broader global 
drug and crime trends that complicate detection and interdiction 
efforts. The most successful foreign assistance programs reflect 
sustained U.S. engagement, robust program design, and commitment from 
our foreign partners.

    Question. If confirmed, how would you prioritize counternarcotics 
aid-to which countries and on which programs?

    Answer. I would prioritize counternarcotics assistance relevant to 
combating illicit drugs most responsible for killing Americans, 
consistent with the National Drug Control Strategy. This includes 
programming related to the State Department's Five-Year Global Plan of 
Action to Combat Emerging Synthetic Drug Threats, and programming in 
the Western Hemisphere, the source of the majority of cocaine, heroin, 
and methamphetamines used in the United States. This includes working 
with Colombian President Duque to achieve the joint goal of reducing 
coca cultivation and cocaine production by half by 2023, and with the 
government of Mexico to disrupt the business model of transnational 
criminal organizations that produce and traffic illicit drugs. An 
effective counternarcotics strategy must also reflect the reality of 
globalized supply chains, emerging technologies, and the role criminal 
facilitation and weak governance plays in enabling drug trafficking.

    Question. What aspects of current and recent counternarcotics 
programming would you deprioritize?

    Answer. The success of our programs relies on the commitment of our 
foreign partners to address these shared security challenges. When our 
foreign partners commit to specific goals, and direct adequate 
resources to achieve those goals, counternarcotics assistance can 
deliver results. We should ensure our foreign assistance resources are 
applied not only where they are strategically relevant, but also where 
the intervention is likely to achieve the desired results.

    Question. Beyond foreign aid, what other policy tools available to 
the State Department can be used to promote our counternarcotics 
objectives?

    Answer. Diplomatic engagement has achieved concrete outcomes, 
including China's decision to implement class-wide controls on fentanyl 
in response to a 2018 request by President Trump. This is a key 
milestone in a broader diplomatic effort to ensure the international 
community has the architecture necessary for drug control in the 21st 
century. The State Department also coordinates security assistance 
efforts across the interagency, including for counternarcotics. The 
State Department also supports the full utilization of U.S. government 
sanctions and deterrence tools that support anti-crime and anti-
corruption efforts. It works through international organizations to 
promote and help countries implement global standards based on U.S. law 
and practice, including the three U.N. drug conventions, and to 
pressure foreign governments to live up to their commitments.

    Question. A June 2019 Office of Inspector General (OIG) audit of 
the State Department's implementation of policies intended to counter 
violent extremism indicated that OIG could not affirm whether State 
Department grants and cooperative agreements awarded to counter violent 
extremism were achieving desired results in part because the CT Bureau 
lacked the authority to ensure such agreements were consistent with the 
department's CVE goals. Please describe any efforts that senior 
leadership at the State Department is making to designate the Bureau as 
the controlling authority on CVE issues with the authority to ensure 
broad alignment on policy, strategy, and program design, as recommended 
by the OIG.

    Answer. CT Bureau senior leadership has been engaged on ensuring 
that CVE grants and cooperative agreements are achieving desired 
results by overseeing (1) the development of a single definition for 
what constitutes CVE programs or projects, and (2) the establishment of 
a process to verify that CVE grants and cooperative agreements comply 
with that definition. I understand that CT is also working with J and R 
family bureaus and offices to make CT the ``controlling authority'' on 
CVE issues and policy per the OIG's recommendations. The common 
definition and an eventual controlling authority designation by the 
Secretary will be mutually reinforcing. If confirmed, I will ensure 
that these developments are implemented across J components as 
recommended by the OIG.

    Question. What has been the impact of U.S. countering violent 
extremism (CVE) programming abroad? Where has it been the most and 
least successful?

    Answer. The Department's CVE work focuses on reaching, and 
positively affecting, those who may be vulnerable to terrorist 
radicalization and recruitment. CVE programming is based on research 
and analysis, which includes identifying vulnerable populations and 
communities that we want to partner with or positively affect. Many of 
these populations reside in Muslim-majority communities. As an example, 
through the Global Counterterrorism Forum (GCTF), the Department 
supports government, community, and NGO collaboration to develop good 
practices on CVE. The GCTF has endorsed best practice documents that 
promote CVE tools, including the Abu Dhabi Memorandum for Education and 
CVE; Good Practices on Women and CVE; and the Rome Memorandum on Good 
Practices for Rehabilitation and Reintegration of Violent Extremist 
Offenders, among others.

    Question. How has the State Department sought to evaluate its CVE 
programming since a critical 2015 GAO report, and what bureaucratic 
hurdles remain?

    Answer. I support the Department's efforts to conduct regular and 
comprehensive evaluations of CVE programs. I understand that the CT 
Bureau employs third-party contractors to perform the majority of CT 
and CVE evaluative work, ensuring objective and professional results. 
CT evaluations have wide-ranging impacts, from refining projects and 
replicating successful approaches, to revising both internal and 
external processes that have informed program design, implementation, 
and strategy. The findings and recommendations from these evaluations 
lead to more effective programs, more productive and analysis-driven 
processes, and more efficient management and execution. For example, a 
focused evaluation of CT's global CVE prison programming, completed in 
2018, directly informed the design and implementation of new prison 
reform assistance in Indonesia and Kosovo.

    Question. How, if at all, has the U.S. approach to CVE changed 
under the Trump administration's counterterrorism strategy?

    Answer. The U.S. approach to CVE is becoming more streamlined and 
institutionalized as part of the Trump administration's 
counterterrorism strategy. The Office of U.S. Foreign Assistance 
Resources (F) published guidance that suggests a clear and streamlined 
definition governing CVE broadly within State and USAID. As the reports 
suggests, other parts of the Department support establishing a common 
definition and working together to ensure greater coherence and closer 
coordination. If confirmed, I will work to implement the suggestions in 
the FAR report, as well as the guidance in the 2018 National CT 
Strategy.

    Question. How does the administration's CVE strategy address the 
issue of weak, predatory and corrupt governments that often feed 
violent extremist narratives?

    Answer. The Department implements a multi-prong approach to address 
violent extremist narratives emanating from weak, predatory and corrupt 
governments. This strategy includes but is not limited to: (1) working 
diplomatically with governments to develop and implement national CVE 
strategies to help themselves organize efforts against radicalization 
and recruitment; (2) collaborating with the Global Engagement Center 
(GEC) to develop effective counter extremist narratives; (3) working 
with international CVE centers on developing alternative messaging to 
counter extremist narratives including within governments; and (4) 
supporting actors that counter extremist messages online and offline at 
government community levels.

    Question. Given the Defense Department's significant footprint in 
combatting terrorism and countering violent extremism, how are you 
coordinating with the Defense Department to ensure mutually reinforcing 
efforts to prevent/counter violent extremism?

    Answer. CT coordinates CVE efforts and leverages the expertise and 
knowledge of our Department of Defense (DoD) colleagues. The CT Bureau 
has a cross-cutting staff that includes multiple staff detailed from 
various entities within DoD. Their role is to liaise with DoD combatant 
commands, Joint Staff, and OSD Policy on a regular basis. If confirmed, 
I will work to ensure this working relationship stays robust to counter 
terrorism and violent extremism.

    Question. The 2018 Worldwide Threat Assessment of the Intelligence 
Community found that ``poor governance, weak national political 
institutions, economic inequality, and the rise of violent non-state 
actors all undermine states' abilities to project authority and elevate 
the risk of violent-even regime-threatening-instability and mass 
atrocities.'' If confirmed, how will you prioritize efforts to address 
the root causes of violent conflict like poor governance, weak 
political institutions, and economic inequality? What tools will you 
prioritize in addressing this challenge?

    Answer. State fragility and violent conflict directly affect U.S. 
interests. If confirmed, I support prioritizing our resources on places 
clearly tied to U.S. interests, prioritizing prevention to get ahead of 
costly crises, recognizing the political nature of conflict, countering 
our adversaries' efforts to sow or exploit fragility, and focusing on 
intentional burden-sharing and coordination among our partners. In 
addition, we must use data analytics, qualitative assessments, and on-
the-ground reporting to identify trends in countries with indicators of 
fragility and instability that pose the greatest risks to U.S national 
security.

    Question. The President's National Security Strategy placed 
emphasis on addressing fragile states, recognizing that ``failing 
states can destabilize entire regions,'' and threaten American security 
and interests. What role do you see the State Department playing in 
efforts to reduce instability and prevent state failure? What tools 
will you prioritize in addressing this challenge?

    Answer. I am aware of the pending bipartisan, bicameral ``Global 
Fragility Act'' that calls for the creation of a U.S. government global 
fragility strategy, the selection of priority focus countries, the 
creation of new appropriation accounts, and the establishment of a new 
multilateral funding mechanism (Senate version). The legislation 
emphasizes the role of the State Department as the lead actor in 
developing fragility strategies. The Bureau of Conflict and 
Stabilization Operations is well placed to be the lead actor at the 
Department for the implementation of the Act, using its expert 
analytical capabilities and deep bench of conflict and stabilization 
advisors.

    Question. There is a growing body of evidence that poor governance-
marked by high corruption and lack of government transparency-is a key 
driver of fragility and political instability in many parts of the 
world today. Citizens frustrated by government corruption, repression, 
and a loss of dignity and hope are more likely to tolerate or support 
violent extremist groups such as Al Qaeda, ISIS and Boko Haram. 
Obviously, this jeopardizes both the United States and its allies. Can 
you tell this committee what concrete steps you will take, if 
confirmed, to promote good governance, anti-corruption, and 
transparency efforts around the world to help keep America safe?

    Answer. Terrorist groups exploit poor governance and social 
divisions to recruit new members. It is critical that we continue to 
analyze local conditions and reduce specific pathways to violence and 
conflict. I also support prioritizing prevention to get ahead of costly 
crises, recognizing the political nature of conflict, countering our 
adversaries' efforts to sow or exploit fragility, and focusing on 
intentional burden-sharing and coordination among our partners. In 
addition, we must use data analytics, qualitative assessments, and on-
the-ground reporting to identify trends in countries with indicators of 
fragility and instability that pose the greatest risks to U.S national 
security.

    Question. During your August 21 testimony before the Senate Foreign 
Relations Committee, you describe the role and impact of targeted 
sanctions on combating malign Russian activity and illicit finance. In 
this testimony, you mention Treasury's implementation of 
``comprehensive financial diplomacy.'' Will you describe how you plan 
to tailor some of the tools you mentioned-engagement with foreign 
governments, advancing multilateral efforts, public affairs engagement-
-if confirmed, in your new role as Under Secretary for Civilian 
Security, Democracy, and Human Rights?

    Answer. If confirmed, I will bring to bear the range of tools 
available within the ``J family'' of bureaus and offices to advance 
U.S. foreign policy objectives. For example, to disrupt, deter, and 
hold accountable perpetrators of human rights violations and abuses, I 
will: pursue diplomatic engagement through bilateral and multilateral 
channels; shine a spotlight on challenges through public remarks and 
reporting; use authorities such as those provided under the Magnitsky 
Act and the International Religious Freedom Act to exact costs for 
malign actions; target U.S. foreign assistance to empower and defend 
frontline activists; and meet with a broad cross-section of civil 
society and opposition leaders to signal U.S. support for civic 
participation and political competition.

    Question. In 2017, former Secretary of State Tillerson referred to 
the Tatmadaw's attacks on the Rohingya as ``ethnic cleansing.'' Since 
then, the State Department has not issued any statement regarding its 
assessment of whether or not those attacks constitute genocide, crimes 
against humanity, or war crimes, even though the State Department 
commissioned an investigation of the alleged human rights abuses in 
Burma, and issued a summary of its findings in September 2018. Do you 
believe that the crimes committed against the Rohingya constitute 
genocide or crimes against humanity?

    Answer. I am appalled by the ethnic cleansing of Rohingya in 
northern Rakhine State. Credible reports of massacres, gang rape, and 
village and mosque burnings shock the conscience, and I am committed to 
promoting accountability for those responsible.The U.S. determination 
of atrocity crimes, including genocide or crimes against humanity, is 
generally made by the Secretary of State. I would emphasize that there 
is no hierarchy of atrocity crimes; they are all equally abhorrent and 
shocking. If confirmed, I will consult with experts within the 
Department and examine all the information to provide the Secretary 
with my best advice.

    Question. The administration has placed several Burmese military 
officers and two military units on the Global Magnitsky list, and 
placed visa restrictions on Commander in Chief Senior General Min Aung 
Hlaing and three other Burmese generals. Various organizations have 
provided evidence that other Burmese officers and units were 
responsible for gross human rights violations in Burma. Do you think 
the U.S. government should place similar restrictions or sanctions on 
these other officers and units?

    Answer. If confirmed, I will prioritize promoting accountability 
for those responsible for these abuses, and justice for victims. I will 
aim to continue U.S. leadership to promote human rights and efforts to 
deter further atrocities in Burma. In this regard, I will consider the 
utility of all policy tools at our disposal, including sanctions. 
Further, I would work closely with the U.S. Mission to the U.N. and 
like-minded countries and regional partners, to press the government of 
Burma to grant unhindered access to U.N. mechanisms, including the 
International Investigative Mechanism for Myanmar, the U.N. Special 
Rapporteur, and the U.N. Special Envoy.

    Question. What are the specific actions that the Department will 
take to support a vibrant and active civil society in Guatemala, 
particularly because this is so tied to regional stability and 
migration?

    Answer. Protecting and supporting a vibrant and active civil 
society, including human rights defenders (HRDs) is a key U.S. foreign 
policy priority. The United States supports HRDs as they work 
tirelessly--and sometimes at great personal risk--to protect human 
rights and fundamental freedoms, advocate for government transparency 
and accountability, promote rule of law, and expose corruption.
    The fight against corruption and impunity is of critical importance 
in Guatemala. The Department takes threats against civil society actors 
seriously, and engages with the governments of the region so that they 
protect civil society activists and prosecute those who harm them. 
Those who are involved in such threats can face consequences from the 
U.S. government. including possible economic sanctions and visa 
revocations.

    Question. Given the administration's recent decision to cut funding 
from Guatemala and other Northern Triangle countries, how do you intend 
to ensure regional stability without this funding?

    Answer. The State Department is working with governments in the 
region to achieve the shared goal of reducing irregular migration to 
address the humanitarian and security crisis at the U.S. southern 
border. The U.S. government coordinates with governments throughout the 
hemisphere, including Mexico and Central America, on a broad range of 
issues related to migration and management of our border, including 
security cooperation, trade, counter narcotics, human rights, and other 
regional issues.

    Question. Guatemala has made incredible strides in promoting 
accountability for abuses of power, including cases of human rights 
atrocities and acts of corruption. One of the emblematic institutions 
created to address corruption and impunity is the U.N.-backed 
International Commission Against Impunity in Guatemala (CICIG). Since 
2007, CICIG identified more than 600 elected officials, businesspeople, 
and bureaucrats in corruption and broke up 60 criminals' networks in 
the country. On January 7, 2019, Morales announced that his 
administration would unilaterally cancel the international agreement 
that established CICIG, defying Constitutional Court orders in what 
amounts to a technical coup. Just two weeks ago, CICG's mandate ended 
in Guatemala, and since that time human rights organizations and civil 
servants have reported physical insecurity and threats against their 
safety. How do you plan to address the ongoing human rights situation 
in Guatemala, particularly as CICIG is no longer operating?

    Answer. I understand that the departure of CICIG does not affect 
the State Department's commitment to continue working with Guatemalan 
judicial partners to build their capacity to fight corruption and 
impunity. If confirmed, I will be committed to supporting the 
Guatemalan people and institutions in their ongoing fight against 
corruption and impunity and will use all the tools at the Department's 
disposal in order to do so.

    Question. Do you pledge to support other justice and anti-
corruption mechanisms in Guatemala through designated U.S. funding?

    Answer. From my long experience working closely with the Department 
of State, I have seen that the State Department takes corruption very 
seriously. Secretary Pompeo fully understands how corruption undermines 
the trust of citizens in their governmental institutions, allows both 
local and transnational criminal organizations to thrive, and 
contributes to irregular immigration to the United States. The 
Department continues to use all tools at its disposal to respond to 
corruption, which can include utilizing economic sanctions and visa 
restrictions where appropriate. We also press for accountability and an 
end to impunity for corrupt actors in the countries. The President and 
the Secretary believe that the governments of El Salvador, Guatemala, 
and Honduras must take clear action to stem migration to the United 
States prior to any decisions to restart assistance. The fight against 
corruption and impunity is of critical importance in Guatemala.

    Question. Will you raise concerns about Morales' attacks on CICIG 
or other mechanisms and support foreign policy measures to defend these 
bodies?

    Answer. I understand that the departure of CICIG does not affect 
the State Department's commitment to continue working with Guatemalan 
judicial partners to build their capacity to fight corruption and 
impunity. If confirmed, I will be committed to supporting the 
Guatemalan people and institutions in their ongoing fight against 
corruption and impunity and will use all the tools at the Department's 
disposal in order to do so.

    Question. United Nations human rights experts have expressed deep 
concern over the frequency and severity of attacks and other acts of 
intimidation against human rights defenders in Guatemala last year. 
What concrete measures will you take to protect those individuals who 
are on the frontlines of defending human rights in Guatemala?

    Answer. I share these concerns regarding attacks and intimidation 
against human rights defenders in Guatemala. If confirmed, I will work 
with my Department of State colleagues to advance the protection of 
human rights defenders in Guatemala and hold human rights abusers to 
account. I will support the use of the Bureau of Democracy, Human 
Rights, and Labor's rapid response funds to help human rights defenders 
worldwide who are under threat. I will also promote the use of 
accountability mechanisms such as the Global Magnitsky Act and section 
7031(c) of the 2018 Department of State, Foreign Operations, and 
Related Programs Appropriation Act, to hold accountable the 
perpetrators of abuses. I will also work with Department counterparts 
and Embassy Guatemala City to speak out regularly, condemning violence 
against and standing with human rights defenders in Guatemala.

    Question. You have discussed the connection between the collapse in 
oil revenue to the collapse in the Maduro government's ability to 
import food, medicine, and other goods. If confirmed, how do you plan 
to address the ongoing humanitarian crises in Venezuela and the 
spillover to other countries in the region?

    Answer. I am deeply concerned about the regional impact of the 
current crisis in Venezuela. As the largest donor for the response to 
the Venezuela regional crisis, the United States has provided more than 
$377 million since FY 2017--including nearly $334 million in 
humanitarian assistance and approximately $43 million in development 
and economic assistance to reach more than 4.3 million Venezuelans 
displaced abroad. If confirmed, I intend to assess options for 
leveraging humanitarian assistance to meet Venezuelans' needs and to 
reduce the impact of the crisis on both Venezuelans and the countries 
that generously host them.

    Question. Over the past two years, hundreds of died and nearly 
500,000 others have been displaced following violence surrounding the 
Anglophone/Francophone linguistic split in Cameroon. The government of 
President Biya (in power since 1982) claims that Anglophone separatists 
are terrorizing civilians and attacking government forces, while 
residents of the Anglophone regions of Northwest and Southwest Cameroon 
accuse security forces of committing extrajudicial killings and burning 
villages indiscriminately. Please discuss the status and intended 
outcomes of CSO's programming in Cameroon, particularly in the context 
of the conflict in Cameroon's Anglophone region.

    Answer. It is my understanding is that the goal of CSO's program in 
Cameroon is to build capacity to increase coordination and become more 
effective advocates on behalf on behalf of affected populations. This 
capacity building will support dialogue and peace initiatives in the 
Anglophone Regions. The program will help identify and build awareness 
of champions for peace towards the resolution of the ongoing conflict 
in Cameroon's Anglophone regions. CSO awarded the grant at the end of 
August to an implementing civil society organization to begin its work. 
If confirmed, I support continuing this important work to resolving the 
conflict in Cameroon.

    Question. What policy insights has CSO drawn from its work in other 
conflict settings that might be applicable to Cameroon? What more might 
CSO do to promote a peaceful resolution of the crisis?

    Answer. Each conflict CSO has worked in is unique. However, we do 
know that human rights abuses by fighters make ending conflict more 
difficult. We also know that dialogue initiatives will be successful 
only if all parties perceive the dialogue and the interlocutors as 
legitimate, and if women are included. CSO has technical staff with 
experience working with parties to conflicts in over two dozen places. 
CSO supports the USG in our efforts to promote a peaceful resolution in 
Cameroon, including providing technical support to our Embassy. If 
confirmed, I would continue working closely with our international 
partners to inform and advance peace initiatives in Cameroon.

    Question. As you know, Senator Rubio and I introduced legislation, 
alongside Representatives Smith and McGovern in the House, that would 
amend the U.S.-Hong Kong Policy Act of 1992 to require the Secretary of 
State to produce an annual report assessing the status of Hong Kong's 
autonomy, as well as impose sanctions on officials of China and Hong 
Kong who the President determines are responsible for suppressing basic 
freedoms in Hong Kong. If confirmed, would you support passage of the 
Hong Kong Human Rights and Democracy Act?

    Answer. I share Congressional concerns about efforts by Beijing to 
erode the autonomy that underpins U.S. special treatment of Hong Kong. 
If I am confirmed, I would certainly hope to work closely with the 
Senate and would be pleased focus on the legislation.

    Question. Many demonstrators have complained of the excessive use 
of force by the Hong Kong police. U.S. companies are significant 
suppliers of riot control gear and weapons used by the Hong Kong police 
forces including tear gas. How do you view proposals for the temporary 
ban on the U.S. sale of riot control munitions and equipment to the 
Hong Kong police?

    Answer. I find allegations of excessive use of force by Hong Kong 
police deeply disturbing. I understand that the Department of State and 
its partner agencies carefully review relevant license applications for 
transactions involving controlled goods on a case by case basis, 
weighing the national security and foreign policy implications, 
including those related to human rights, of each proposed transaction. 
I believe this vigilance continues to be of the utmost importance with 
respect to Hong Kong.

    Question. In South Sudan where more than 400,000 people have been 
killed and 4.2 million displaced since the civil war erupted in 2013, 
there is growing risk of renewed violence and displacement of the 
formation of an inclusive national unity government is not met by the 
upcoming November 12, 2019 deadline. A breakdown in the peace process 
and resumption of fighting threatens regional stability, nascent 
political transitions in Sudan and Ethiopia, and Ebola preparedness and 
prevention. As Under Secretary for Civilian Security, what diplomatic 
efforts will you undertake to ensure that the warring parties reach a 
political settlement and form an inclusive government of national 
unity?

    Answer. In addition to the important diplomatic work being carried 
out by our Embassy in Juba to advance these goals, I would continue to 
work closely with our Norwegian and British allies through the troika 
mechanism to continue to convey to all parties in South Sudan the 
importance of continuing dialogue to resolve outstanding political 
issues that will allow for the formation of an inclusive national unity 
government by the November 12, 2019, deadline. I would also continue to 
engage with the Inter-Governmental Authority on Development, the 
African Union, and key regional players, including Uganda, Sudan, 
Kenya, and Ethiopia to ensure that our diplomatic efforts are 
complementing the important work that these actors are doing to assist 
South Sudan.

    Question. What are the contingency options you would mobilize if 
parties fail to uphold the agreement and violence escalates?

    Answer. In such a scenario, I would work closely with other members 
of the U.N. Security Council to determine how best to utilize the U.N. 
Mission in South Sudan to ensure civilian protection and humanitarian 
access. I would also coordinate with our allies in the troika and with 
regional partners including the Inter-Governmental Authority on 
Development and the African Union available options to place pressure 
on all actors to cease hostilities.

    Question. Will you take decisive action using authorities granted 
under the Global Magnitsky Human Rights Accountability Act to ensure 
accountability for those who incite violence and threaten peace in 
South Sudan?

    Answer. The Global Magnitsky Human Rights Accountability Act is a 
valuable tool, which I will carefully consider with respect to alleged 
human rights violations or abuses in South Sudan.

    Question. Widespread corruption is a significant driver of conflict 
in South Sudan--as civilians suffer from a severe humanitarian crisis 
fueled by years of chronic war, the wealth of South Sudanese elites 
continues to grow. The United States--by way of State and Treasury--has 
commendably sought to isolate corrupt South Sudan actors from the U.S. 
financial system by levying sanctions under Global Magnitsky. Under 
your leadership, informed by your experience at the Department of 
Treasury, what additional measures--diplomatic or otherwise--would you 
advise the administration put in place to target the means through 
which South Sudanese elites are able to acquire resources to fund 
conflict and launder illicit profits through regional and international 
financial institutions, including Kenya and Uganda banks and U.S. 
correspondent banks?

    Answer. I would continue to work closely with our allies to ensure 
that we have as full a picture possible of the ways in which South 
Sudanese elites are acquiring and moving illicit resources. I would 
coordinate closely with both regional and international allies to 
ensure that our allies are aware of risks and taking robust steps to 
prevent illicit South Sudanese money from moving through their 
financial systems. I would also continue to use Global Magnitsky and 
South Sudan specific sanctions to continue to deny funding to those 
furthering the conflict in South Sudan.

    Question. In previous assessments by the State Department in its 
annual International Narcotics Control Strategy Report (INCSR), South 
Sudan was determined to not have sufficient laws, regulations, or 
enforcement capacity in place to address financial crime. As Under 
Secretary for Civilian Security, would you advise the State Department 
to continue to monitor South Sudan as a country of concern for purposes 
of money laundering and financial crime?

    Answer. I would advise the State Department to continue to monitor 
South Sudan as a country of concern for the purposes of money 
laundering and financial crimes.

    Question. Senator Rubio and I plan to introduce the Senate 
companion legislation to Representative McGovern and Smith's Tibetan 
Policy and Support Act of 2019 in the coming days. Among many other 
actions, the legislation would require the U.S. open a consulate in 
Lhasa. Will you commit to pressing the Chinese authorities to allow for 
the opening of a U.S. consulate in Lhasa as highlighted in the Tibetan 
Policy and Support Act of 2019 that is before the Congress?

    Answer. I am committed to pressing the Chinese government to allow 
the opening of a U.S. Consulate in Lhasa, consistent with the Tibetan 
Policy Act. I am also committed, if confirmed, to working closely with 
Congress in pursuit of our shared goal of seeing Americans have full 
access to China, including the Tibetan Autonomous Region and other 
Tibetan areas.

    Question. To date, no U.S. Special Coordinator for Tibetan Issues 
has been able to visit Tibet. In 2018, the Reciprocal Access to Tibet 
Act was passed to change the situation. Since the Tibetan Policy Act of 
2002 mandates that the Special Coordinator for Tibetan Issues should 
undertake ``regular travel to Tibetan areas of the People's Republic of 
China", if designated to the position, how would you promote reciprocal 
access to Tibet?

    Answer. President Trump has regularly stated his desire for 
reciprocity in the U.S.-China relationship. I am committed to pushing 
for reciprocity regarding the open access China and many other 
countries enjoy in the United States, and raising concerns about the 
lack of regular access to the Tibetan Autonomous Region (TAR) for U.S. 
diplomats, journalists, academics, and others. If confirmed, and if I 
am designated to the position of Special Coordinator for Tibetan 
Issues, I will work to ensure that U.S. diplomats, including the 
Special Coordinator, as well as journalists, civil society, 
legislators, religious leaders, and scholars have full access to China, 
including the Tibet Autonomous Region and Tibetan areas.

    Question. The United States has been a leader for decades in 
promoting human rights and ensuring the protection of human rights 
defenders across the world. In accordance with this leadership, Global 
Magnitsky designations hold individuals and entities who commit serious 
human rights violations or who engage in acts of corruption accountable 
by freezing their assets and denying their visa requests to the United 
States. Do you support the use of Global Magnitsky designations and 
calling out human rights abusers as a tool of foreign policy in order 
to hold individuals and entities to account?

    Answer. Yes. The Global Magnitsky Human Rights Accountability Act 
is a valuable tool, which I will seek to continue to use with respect 
to human rights violations or abuses.

    Question. Do you agree that that there should be additional 
resources provided to those who review Global Magnitsky designations in 
order to ensure a more robust sanctions regime that targets the worst 
human rights abusers?

    Answer. The Global Magnitsky Human Rights Accountability Act is a 
valuable tool, which I will seek to use with respect to human rights 
violations or abuses. If confirmed, I will review the resources 
available for such designations and ensure that the Department supports 
those efforts robustly.

    Question. Secretary Pompeo stated that the U.S. ``firmly opposes 
criminalization, violence and serious acts of discrimination such as 
housing, employment and government services directed against LGBTQI 
persons.'' What specific actions will you take to support the human 
rights of LGBTQI people abroad?

    Answer. If confirmed, I am committed to protecting the human rights 
and fundamental freedoms of all persons, including historically 
marginalized or persecuted populations such as LGBTI persons. The 
safety and security of LGBTI persons is of the utmost importance; 
therefore, I will ensure our global approach first and foremost does no 
harm. LGBTI status or conduct remains criminalized in some seventy 
countries, so I will focus on supporting local efforts that may lead to 
decriminalization. I will work with DRL and Regional Bureaus to develop 
strategies that prioritize regular discussions with local LGBTI 
community and civil society partners. I will also raise human rights of 
LGBTI persons in the context of larger human rights and democracy 
concerns wherever possible.

    Question. Do you pledge to prioritize the human rights of LGBTQI 
people in your position as the Undersecretary?

    Answer. If confirmed, I am committed to protecting the human rights 
and fundamental freedoms of all persons, including historically 
marginalized or persecuted populations such as LGBTI persons. I will 
also raise LGBTI human rights issues in the context of larger human 
rights and democracy concerns wherever possible.

    Question. In countries around the world, there are criminal 
penalties associated with exercising sexual and reproductive health and 
rights, including criminalizing same-sex relationships and abortion. As 
Undersecretary, would you raise concerns about laws that criminalize 
same-sex relationships and women's personal health decisions in public 
and private diplomatic settings?

    Answer. If confirmed, I am committed to protecting the fundamental 
rights and freedoms of all persons, including historically marginalized 
or persecuted populations such as women and LGBTI persons. I will also 
raise LGBTI human rights, including decriminalization, and women's 
human rights issues in the context of larger human rights and democracy 
concerns wherever possible.

    Question. Will you instruct DRL to report on LGBTI rights and 
access to sexual and reproductive health services in the Human Rights 
Report?

    Answer. If confirmed, I will support DRL's approach to the Human 
Rights Report, which includes reporting on the rights of LGBTI 
individuals. I understand that the HRR subsection entitled 
``Reproductive Rights'' by the previous administration was renamed 
``Coercion in Population Control'' consistent with the requirement of 
U.S. law to report ``wherever applicable, practices regarding coercion 
in population control, including coerced abortion and involuntary 
sterilization.'' Additional material on maternal mortality, access to 
contraception, and similar issues is available via hyperlink in the 
text of each country chapter and in an appendix to the HRR. If 
confirmed, I will ensure the State Department continues to comply with 
statutory reporting requirements and delivers objective, evidence-
based, rigorous human rights reports.

    Question. One International entity designed to help countries fight 
transnational organized crime is INTERPOL. Some observers, however, 
have alleged that institutions like INTERPOL are being manipulated by 
autocratic regimes to facilitate repression and target political 
opponents through the misuse of INTERPOL red notice and other law 
enforcement information-sharing databases. In your view, are 
allegations of INTERPOL abuse and misuse cause for U.S. concern?

    Answer. The United States is aware of such allegations, shares 
concerns, and remains vigilant and committed to countering attempts by 
any INTERPOL member state to misuse the INTERPOL red notice mechanism 
or other law enforcement information-sharing databases to target 
political opponents or for other political purposes.

    Question. How can the United States and the State Department in 
particular use its voice in international institutions like INTERPOL to 
promote U.S. Values and thwart U.S. Adversaries?

    Answer. The State Department, working closely with the Department 
of Justice, engages with members of the INTERPOL Executive committee 
and the general INTERPOL membership to raise concerns about 
politicization and to support positions and candidates for leadership 
positions whom we believe best reflect the technical, objective, non-
political nature of the organization's work.
    We support and encourage INTERPOL's efforts to enhance its legal 
review of all red notices prior to publication to ensure compliance 
with its Constitution and governing rules.

                               __________


            Responses to Additional Questions for the Record
    Submitted to Hon. Marshall Billingslea by Senator Jeanne Shaheen

    Question. You said in your confirmation hearing before the 
committee that the administration did not support the sanctioning of 
companies constructing the Nord Stream 2 gas pipeline from Russia to 
Europe. What actions is the administration undertaking in order to 
prevent its construction?

    Answer. The United States continues to oppose Nord Stream 2. The 
administration believes Nord Stream 2 does nothing to advance Europe's 
energy security goals and would provide Russia another tool for the 
political coercion of European countries, especially Ukraine.
    The administration supports Europe's efforts to develop more 
competitive, transparent, and resilient energy markets so that Russia 
cannot use Europe's reliance on its energy resources as a source of 
political and economic leverage. Without this leverage, European 
countries will be able to better respond to possible disruptions.
    Though much work remains to be done, some European energy markets 
are becoming more competitive, challenging Russia's historically 
dominant position in those markets. In part this is because exports of 
U.S. LNG are making global LNG markets more liquid, providing countries 
with greater choice.

    Question. In a hearing before this committee on September 18, 2019, 
Assistant Secretary of State David Stilwell discussed the cooperation--
or lack thereof--between China and the U.S. on stopping to flow of 
synthetic opioids into our country. If confirmed, you will oversee the 
Bureau of International Narcotics and Law Enforcement (INL). How would 
you instruct INL and the State Department to work with other agencies 
and departments like DOJ and DHS to coordinate its efforts to address 
this issue? How will you work with countries like Mexico and China to 
stop the flow of illegal drugs into the United States?

    Answer. If confirmed, I will direct efforts at the State 
Department, particularly within INL, to continue supporting U.S. law 
enforcement agencies and other interagency partners involved in the 
fight against synthetic opioids in their overseas engagement, and to 
draw upon their expertise in the provision of foreign assistance to 
opioid source and transit countries. I plan to continue our work under 
the Merida Initiative to build the capacity of Mexican authorities to 
interdict drug shipments, dismantle clandestine labs, track precursor 
chemicals, and investigate and prosecute drug traffickers. I will also 
give top priority to engaging Beijing to ensure China follows through 
on strict enforcement of new regulations on fentanyl and precursor 
chemicals.

    Question. Over the 2,000 foreign fighters in Northeast Syria are in 
the custody of the Syrian Democratic Forces (SDF). While the SDF has 
been doing a remarkable job, it is unclear how much longer the SDF can 
manage this situation. In particular, I am worried about the fate of 
the British Beatles who remain in Syria and have been identified as 
suspects in the kidnappings, torture and deaths of several Americans. 
If confirmed, would you direct the Counterterrorism Bureau to deal with 
this issue differently?

    Answer. I salute the SDF's success in subduing the remnants of the 
so-called territorial ``caliphate''. I also understand the challenges 
associated with the ongoing detention of FTFs. I believe CT is taking 
the right steps in addressing the case of the Beatles, who are 
suspected of involvement in terrorist acts against Americans, by 
continuing to engage UK partners for updates as the case wends its way 
through the courts and encouraging the UK to share relevant evidence 
with the United States. If confirmed, I will work with CT to continue 
engaging the UK as well as reiterating our preference to try these 
individuals in a U.S. court. I will also work with CT to continue its 
interagency coordination help SDF partners address detention 
challenges.

    Question. Given the number of national security agencies involved 
in this work, how would you ensure that all Agencies involved were 
sharing info not just with each other, but with the families of those 
Americans who have been harmed by ISIS?

    Answer. The interagency Hostage Recovery Fusion Cell, the Office of 
the Special Presidential Envoy for Hostage Affairs, and the Bureau of 
Consular Affairs have the primary responsibility for supporting 
hostages and their families, including hostages held or killed by ISIS. 
While U.S. government agencies, of necessity, protect sources, methods 
and the integrity of the work process, under Presidential Policy 
Directive--30 the Hostage Recovery Fusion Cell coordinates 
declassification of information to share with families of hostages held 
by ISIS. If confirmed, I will respect professional requirements to 
maintain controls on information but will encourage appropriate sharing 
of information with the families while protecting ongoing activities.

    Question. I worked on legislation that will soon become law to 
establish an ISIS Detainee Coordinator. The legislation authorizes this 
new position to be housed at State. Critical responsibilities of the 
Coordinator will include pushing countries to repatriate foreign 
fighters and communicating with American families about suspects held 
as detainees who may be responsible for crimes against their loved 
ones. If the position is eventually placed at State, it will likely 
either fall under your jurisdiction or perhaps even directly report to 
you. If that is the case, will you commit to ensuring that this 
position be adequately staffed, resourced and able to carry out the 
responsibilities detailed in the legislation?

    Answer. I am aware of your legislation to establish an ISIS 
Detainee Coordinator at the Department of State. If confirmed, I will 
work to ensure that this position and the associated offices possess 
adequate staff, resources, and capacity to carry out the 
responsibilities detailed in the legislation. The Bureau of 
Counterterrorism and Countering Violent Extremism (CT), part of the J 
family, has developed capabilities to lead the interagency coordination 
necessary to encourage countries to repatriate FTFs from Syria, and 
leads coordination with other bureaus to communicate with American 
families about cases involving their loved ones. As such, if confirmed, 
I would also recommend that the office of the coordinator reside within 
CT.

    Question. Earlier this year, the State Department released its 
Congressionally-mandated 2018 Country Reports on Human Rights 
Practices. I continue to be disappointed that the administration does 
not consider reproductive rights to be worthy of inclusion in these 
influential reports and has significantly scaled back reports on 
gender-based violence. If confirmed, you would oversee the Bureau in 
charge of these reports. Do you consider gender-based violence to be a 
human rights violation? Will you commit to reporting on the prevalence 
of gender-based violence in these country reports? Will you commit to 
restoring the reproductive rights section of the human rights reports?

    Answer. The National Security Strategy states that the U.S. 
government will support efforts to advance women's equality and protect 
the rights of women and girls. Reporting on violence against women and 
girls is an important component and complements other U.S. efforts to 
press governments to protect women and girls from such violence.
    The Country Reports on Human Rights Practices (HRR) continues to 
cover gender-based violence throughout each country chapter and 
particularly in Section 6. I understand that the HRR subsection 
entitled ``Reproductive Rights'' by the previous administration was 
renamed ``Coercion in Population Control'' consistent with the 
requirement of U.S. law to report ``wherever applicable, practices 
regarding coercion in population control, including coerced abortion 
and involuntary sterilization.''
    Additional material on maternal mortality, access to contraception, 
and similar issues is available via hyperlink in the text of each 
country chapter and in an appendix to the HRR. If confirmed, I will 
ensure the State Department continues to comply with statutory 
reporting requirements and delivers objective, evidence-based, rigorous 
human rights reports.

    Question. For nearly four decades, the United States has been a 
world leader in refugee protection. This leadership has been critical 
to advancing U.S. foreign policy interests around the world. Former 
Department of Homeland Security Secretary Michael Chertoff, who served 
under President George W. Bush, has written that ``Our values and our 
national security interests argue for raising our refugee ceiling, not 
lowering it. The president should seize the mantle of Reagan and 
fortify U.S. leadership on refugees.'' Do you agree with this 
statement?

    Answer. I understand that the United States remains one of the 
largest resettlement countries in the world. I am also aware that the 
United States exercises international leadership as the single largest 
donor of humanitarian assistance worldwide, last year delivering more 
than $8 billion in life-saving aid around the world. If confirmed, I 
will support the President's efforts to emphasize the importance of 
coordinated, effective, and efficient international responses, as well 
as the need for other governments, and other actors in the private 
sector, to step in to contribute to humanitarian efforts.

    Question. Do you believe that it is important for the United States 
to continue to serve as a global leader in refugee protection, 
including resettlement?

    Answer. Yes. I understand that the United States offers 
humanitarian protection to the most vulnerable of those who have 
experienced persecution or who fear persecution, while prioritizing the 
safety and security of the American people. The December 2017 National 
Security Strategy says that the United States will prioritize 
``support[ing] displaced people close to their homes to help meet their 
needs until they can safely and voluntarily return home.'' U.S. 
humanitarian assistance reaches millions of refugees and displaced 
people worldwide every year, including those who will never be 
considered or qualify for resettlement.

    Question. How do the administration's severe reductions in refugee 
admissions over the past three years, including the proposal from some 
administration officials that zero refugees be resettled next year, 
harm U.S. interests at home and abroad?

    Answer. The United States anticipates resettling up to 30,000 
refugees in FY 2019 under the refugee ceiling. They will join hundreds 
of thousands of asylum seekers who are already inside the United States 
awaiting adjudication of their claims. The refugee admissions program 
must take into account this operational reality. In consideration of 
both the U.S. national security interest and the urgent need to restore 
integrity to an overwhelmed asylum system, the administration is 
focusing on addressing the humanitarian protection cases of those 
already in the country. Moreover, it is important that the refugee 
ceiling number should not be viewed in isolation from America's other 
expansive humanitarian programs. In FY 2018, the United States provided 
more than $8 billion in humanitarian assistance, including to refugees.

    Question. In your current role at Department of Treasury, you work 
with other departments and agencies on the implementation of 
coordinated sanctions packages. Do you regard sanctions as a tool that 
can be used to change another state's behavior? What is the importance 
of coordinating U.S. sanctions with European allies? Is it ever 
appropriate to delay coordination of sanctions with allies for 
political purposes? What are your views on the effectiveness of Global 
Magnitsky sanctions and other target sanctions?

    Answer. I believe sanctions are a fundamental tool of diplomacy and 
are best used as part of a whole-of government strategy. The purpose of 
the sanctions is to modify malign actors' behavior by targeting their 
assets and access to the U.S. financial system in an effort to change 
their calculus. These sanctions have the greatest impact when partners 
and allies also undertake similar measures.
    I have spent my time at Treasury working hard to ensure our 
partners have the tools they need to work with the United States on 
sanctions actions across a wide swath of programs. In recent years, the 
U.S. government has used sanctions to target actors within economies 
that are more complex and more integrated into the global financial 
system. As a result, we have developed new methods for targeting malign 
actors to minimize collateral consequences, as well as strategic use of 
licensing and implementation authorities. Our European allies are 
critical sanctions partners, as are our friends and allies in the 
Pacific and Canada. The effectiveness of sanctions is dependent upon 
their ability to deter, constrain, disrupt, and identify bad behavior, 
all of which is augmented through a multilateral approach.

                               __________


            Responses to Additional Questions for the Record
   Submitted to Hon. Marshall Billingslea by Senator Edward J. Markey

    Question. Twenty-one human rights and civil rights groups are 
opposing your nomination because of your advocacy for harsh 
interrogation practices you claimed were ``not controversial from 
either a legal, or policy standpoint.'' Military JAGs and law 
enforcement had repeatedly raised seriously legal and policy concerns 
about these practices, including violation of the Unified Code of 
Military Justice and domestic criminal law--even while you were at the 
Department of Defense. How do you define torture? How does it differ 
from enhanced interrogation techniques?

    Answer. I defer to the Department of Justice and legal counsel on 
the definition of torture as it applies to interrogation techniques. As 
I stated in my testimony, if ever called upon again to be involved in 
interrogation policy, I would not support use of any technique not 
identified as allowable in the Army Field Manual, as set forth by a law 
enacted by Congress in 2015.

    Question. Do you think it's important for the United States, as one 
of the world's moral leaders, to stand against torture?

    Answer. Yes. Torture is prohibited under international law and is 
incompatible with the values that define us as a people. As Secretary 
Pompeo stated ``The United States is unambiguous. We never conduct 
torture, period. Full stop.''

    Question. How would you assuage fears in foreign countries that 
your work at the Department of Defense on interrogation would undermine 
American credibility on opposing torture and supporting key human 
rights?

    Answer. I am unaware of any such fears. As I repeatedly stated in 
the hearing, I have never supported the use of torture. Foreign nations 
around the world know that I have actively promoted human rights in my 
Department of Treasury role and have driven use of sanctions 
authorities against hundreds of individuals and entities involved in 
human rights abuses. My work against the dictatorships in Venezuela and 
Nicaragua are two good examples, where Venezuala-focused human rights 
organizations and opposition members have written the committee in 
strong support of my nomination.

    Question. How would you pursue a robust human rights agenda if 
foreign governments declined to meet with or otherwise engage in 
substantial discussions with the J Bureau based on the belief that you 
supported torture techniques?

    Answer. I do not anticipate any such situation arising. I have 
never supported the use of torture. In fact, the classified documents 
provided to the committee staff show that I was greatly concerned with 
slowing and regulating the inflow of detainees into Guantanamo, and in 
expediting the transfer of detainees out. Also, as shown in the 
documents, I was concerned that allegations of human rights abuses 
raised by detainees be fully documented. If confirmed, I will 
aggressively press the human rights agenda around the world and 
reiterate the position of the United States: Torture is prohibited 
under international law and is incompatible with the values that define 
us as a people.

    Question. The human rights of LGBTQI people are under attack around 
the world. Reports have shown that many are regularly persecuted, 
prosecuted, and incarcerated in places like Indonesia, Chechnya, and 
Egypt. At the same time, trans people are also prosecuted worldwide in 
at least 26 countries. Even recently, the United States has substituted 
language like ``gender equity'' with ``equality between girls and 
boys'' in international agreements. These are gross human rights 
violations. How can the administration claim to support LGBTQI rights 
externally while undermining the rights of LGBTQI people through its 
policy and diplomacy?

    Answer. The administration continues to seek to advance the human 
rights of LGBTI individuals globally through public and private 
diplomacy.

    Question. What specific actions will you take to prioritize the 
human rights of LGBTQI people abroad?

    Answer. If confirmed, I am committed to protecting the human rights 
and fundamental freedoms of all persons, including historically 
marginalized or persecuted populations such as LGBTI persons. The 
safety and security of LGBTI persons is of the utmost importance; 
therefore, I will ensure our global approach first and foremost does no 
harm. LGBTI status or conduct remains criminalized in some seventy 
countries, so I will focus on supporting local efforts that seek to 
achieve decriminalization. I will work with DRL and Regional Bureaus to 
develop strategies that prioritize regular discussions with local LGBTI 
community and civil society partners. I will also raise human rights of 
LGBTI persons in the context of larger human rights and democracy 
concerns wherever possible.

    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department, there have been 
credible reports documenting the egregious human rights violations that 
have occurred in Rakhine State. These reports noted that legal 
determinations should be considered, including crimes against humanity 
and genocide. However, Secretary Pompeo has declined to issue a 
genocide determination regarding the atrocities committed against the 
Rohingya. Do these atrocities constitute genocide? If so, will you 
encourage the Secretary to issue such a determination? If not, will you 
encourage the Secretary to issue some other determination?

    Answer. I am appalled by the ethnic cleansing of Rohingya in 
northern Rakhine State. Credible reports of massacres, gang rape, and 
village and mosque burnings shock the conscience, and I am committed to 
promoting accountability for those responsible.
    The U.S. determination of atrocity crimes, including genocide or 
crimes against humanity, is generally made by the Secretary of State. I 
would emphasize that there is no hierarchy of atrocity crimes; they are 
all equally abhorrent and shocking. If confirmed, I will consult with 
experts within the Department and examine all the information to 
provide the Secretary with my best advice.

    Question. Do you believe that there are negative consequences to 
the global human rights campaign by not issuing a determination of any 
kind?

    Answer. In November of 2017, the Department of State concluded that 
the atrocities committed in Northern Rakhine State constituted ethnic 
cleansing. The United States has taken a leading role in promoting 
justice and accountability for these atrocities and other human rights 
abuses and violations in Burma, using both bilateral and multilateral 
tools. If confirmed, I will continue to prioritize promoting 
accountability for those responsible for these abuses, justice for 
victims, and broader efforts to promote and defend human rights.

    Question. Should the United States target military leaders in Burma 
with Global Magnitsky sanctions, or are visa bans sufficient to send a 
message about the importance of the human rights in the face of foreign 
governments that are intent on persecuting ethnic minorities?

    Answer. If confirmed, I will prioritize promoting accountability 
for those responsible for these abuses, and justice for victims as part 
of larger efforts to promote and defend human rights. I will aim to 
continue U.S. leadership of the international response to the Rakhine 
State crisis and efforts to deter further atrocities. In this regard, I 
will consider the utility of all policy tools at our disposal, 
including sanctions. Further, I would work closely with the U.S. 
Mission to the U.N. and like-minded countries and regional partners, to 
press the government of Burma to grant unhindered access to U.N. 
mechanisms, including the International Investigative Mechanism for 
Myanmar, the U.N. Special Rapporteur, and the U.N. Special Envoy.

    Question. Recently the Guardian reported the State Department's 
Bureau of Population, Refugees, and Migration (PRM) pressured the 
International Organization for Migration (IOM) to censor documents and 
remove references to climate change or risk losing funding from the 
bureau. It is unacceptable for the administration to extort recipients 
of U.S. funding into toeing the administration's climate-denial line. 
Do you believe it is good public policy to require IOM or any other 
PRM-funded entity to engage in self-censorship in exchange for U.S. 
government support? If yes, why?

    Answer. The International Organization for Migration (IOM) is an 
important partner for the United States around the globe. It is my 
understanding that IOM receives 97% of its funding through voluntary 
contributions to specific projects. Donors--including the United 
States--fund those IOM projects and activities that are consistent with 
each donor's foreign policy goals and objectives.

    Question. On what basis would PRM be able to lawfully cut or 
withhold funding from IOM if its program activities are not in line 
with Trump administration foreign policy objectives?

    Answer. It is my understanding that the Bureau of Population, 
Refugees, and Migration issues requests for proposals consistent with 
foreign policy priorities and federal funding guidelines. If confirmed, 
I would work to ensure proposals received in response to these requests 
are evaluated rigorously.

    Question. Do you support the United States rejoining the 2018 
Global Compact on Migration? Why or why not?

    Answer. I do not support the United States rejoining the 2018 
Global Compact on Migration (GCM). The United States regularly engages 
with other countries on many immigration issues and will continue to do 
so. A migration compact is not needed to facilitate this type of 
engagement.

    Question. Do you support the United States rejoining the 2018 
Global Compact on Refugees? Why or why not?

    Answer. I support much of what is contained in the Global Compact 
on Refugees, including improving responses to refugee crises by the 
U.N. Refugee Agency (UNHCR) as well as facilitating the work of UNHCR 
in refugee hosting countries. In particular, I support a basis for 
predictable response and greater burden sharing among U.N. member 
states and other stakeholders, including development actors, refugee-
hosting communities, and the private sector. I understand that the 
Global Compact on Refugees is not legally binding, and states retain 
the sovereign right, subject to their international legal obligations, 
to determine their own immigration laws, policies, and practices.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Adam Seth Boehler by Senator John Barrasso

    Question. Under you leadership, are you committed to ensuring the 
International Development Finance Corporation promotes projects 
involving all forms of energy?

    Answer. Yes, to the extent permissible by applicable law.

    Question. Why is it in the U.S. taxpayers interest for the U.S. 
government to become an equity investor in private and public 
businesses in foreign countries?

    Answer. Congress provided DFC with equity authority for it to 
further its development mandate and advance foreign policy. OPIC has 
had difficulty working in partnership with--and leveraging the 
investment of--other DFIs because of its lack of equity authority. This 
authority will put the United States on equal footing with other DFIs 
so that we can invest alongside our allies such as Germany, Japan, and 
the UK and not lose attractive deals that drive development as well as 
provide economic return. Finally, equity authority provides an 
additional and important, way for the DFC to mobilize private sector 
capital.

    Question. Do you believe the International Development Finance 
Corporation should provide equity investments in a foreign state-owned 
enterprise? If yes, under what circumstances?

    Answer. DFC is designed to help bring private sector investment to 
the developing world. As such, these are not the type of investments 
that I anticipate.

    Question. With the increased risks and exposure of equity 
investments, what specific requirements must be in place in place to 
ensure adequate oversight and risk management?

    Answer. The BUILD Act lays out several requirements related to its 
equity authority which I will follow. All equity investments will be 
reviewed in full by investment professionals with a full risk/return 
analysis. Any investment recommendation will then be reviewed in full 
by the Board of Directors. In addition, the legislatively mandated 
position of Chief Risk Officer will analyze the risk of the portfolio 
to ensure that appropriate decisions are being made across the 
organization. Finally, DFC will have its own independent Inspector 
General to ensure appropriate oversight.

    Question. How are the investments of the International Development 
Finance Corporation going to specifically counter international 
investment strategies like China's Belt and Road Initiative?

    Answer. DFC will be a critical tool in American foreign policy to 
address the growing influence of China and other authoritarian 
governments. American values--transparency, rule of law, respect for 
people and environment-afford us a unique competitive advantage. We 
will not pursue the same strategy as China or others but our own. We 
will collaborate with other U.S. government agencies such as State and 
USAID to ensure that our investment strategy is furthering American 
foreign policy goals.

    Question. Do you believe it is appropriate for the International 
Development Finance Corporation to provide equity or investment 
financing to upper-middle income countries like Brazil, China, Mexico, 
Russia, and Turkey? If yes, under what circumstances?

    Answer. The BUILD Act prioritizes the work of DFC in low-income and 
low-middle income countries. DFC support in upper-middle income 
countries is restricted. OPIC has been closed in China since the 1980s 
and Russia for several years. I do not anticipate that that would be 
any different for DFC.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Adam Seth Boehler by Senator Robert Menendez

Overview of Expanded Development Mandate
    Question. As you are aware, the United States International 
Development Finance Corporation (DFC) is set to replace the Overseas 
Private Investment Corporation. The new institution has additional 
legislative mandates, like women's economic empowerment, a focus on 
lower income countries, and a stronger development focus.

  Could you describe how you plan to ensure these and other new 
        mandates are successfully implemented throughout the DFC 
        especially in a flat funding environment?

    Answer. Congress gave DFC a clear development mandate that I am 
committed to implementing. The new authorities, such as equity 
investment and technical assistance, will put the United States on 
equal footing with the current authorities of other international DFIs 
and remove barriers that have stood in the way of OPIC investing 
alongside allies. I intend to collaborate closely with these allies to 
identify opportunities. I also look forward to working closely with 
other U.S. government agencies such as USAID and State to leverage 
resources in local markets to identify and monitor projects. Finally, I 
look forward to working closely with the Chief Development Officer and 
Development Advisory Council.

    Question. Do any of your plans require additional staff to ensure 
that the new DFC can successfully implement, monitor, and evaluate all 
the mandated areas?

    Answer. As I noted during the hearing, fully utilizing resources 
and leveraging other government agencies abroad to advance our mission 
is essential for success. This type of cooperation is envisioned by the 
coordination report recently submitted by the head of OPIC and USAID to 
the committee. It notes that USAID will use its global presence and 
depth of technical expertise to assist in monitoring DFC-funded 
transactions, which will enable the DFC to provide a deeper level of 
monitoring of development impact on its projects than previously 
possible. If confirmed, I also intend to continually monitor the 
success and resources of DFC to assess any staffing needs and commit to 
working with the Administration and Congress to ensure that DFC has the 
resources it needs to meet the vision the committee has intended for 
the agency.

    Question. In addition to existing efforts, how will you ensure that 
the DFC is prioritizing higher-impact investments that potentially 
incur higher risk and lower reward?

    Answer. As a development finance agency, the focus of the agency's 
support is to assist private sector investments to maximize development 
impact. In the BUILD Act, it is clear that Congress intends DFC to be 
more forward leaning and proactive in its investment support. I 
understand OPIC has been working with USAID, MCC, and other development 
experts to modernize the way it evaluates development impact of 
potential supported investments. I look forward to working with the 
Chief Development Officer to finalize this system so that supported 
projects can be better evaluated on their development impact.

    Question. How do you plan on managing and prioritizing limited 
resources while also attempting to maximize the potential of the new 
DFC?

    Answer. I believe that collaboration with our allies--examples 
include the recently signed agreements with Japan and Australia--will 
yield significant return. DFC will also leverage other government 
agencies abroad to advance our mission. I also believe that the 
flexibilities in the BUILD Act will allow for support of more projects 
in lower income countries helping to maximize DFC's potential. I will 
work to ensure that new statutory positions such as Chief Development 
Officer, Chief Risk Officer and the Inspector General are adequately 
resourced. If confirmed, I commit to working with the Administration 
and Congress to ensure DFC has the resources it needs to meet the 
vision the committee has intended for the agency.

    Question. Will you commit to ensuring that Development outcomes 
drive the mission and agenda for OPIC?

    Answer. Yes. I am committed to the clear development mandate that 
Congress has given DFC.

    Question. How do you plan on empowering the Office of the Chief 
Development Officer?

    Answer. I believe in recruiting top talent and empowering those 
individuals. The Chief Development Officer is a key position which will 
be responsible for infusing development throughout the organization and 
ensuring DFC meets its development mandate across the portfolio. Before 
coming into government service, I founded what became the largest home 
physician group in the country. I am not a clinician but hired and then 
partnered closely with the Chief Medical Officer at the company. I will 
bring the same organizational philosophy to DFC.

    Question. OPIC has been at work developing an `impact quotient' 
intended to maximize the development impact of DFC investments. How do 
you intend to prioritize development impact from the top in this 
leadership position?

    Answer. Congress has given DFC a clear development mandate and I am 
committed to this mandate. The flexibilities in the BUILD Act will 
allow DFC to support more projects. I plan to use the modernized 
development impact assessment tool to prioritize support of projects 
with the greatest development impact.

    Question. How do you think about the DFC's priorities-particularly 
where they might sometimes be in conflict?

    Answer. As a development finance agency, the focus of support of 
projects is to maximize development impact. If confirmed I will also 
prioritize the role DFC can play in helping to advance U.S. foreign 
policy in concert with other U.S. government agencies. We will follow 
an objective process in order to identify and analyze opportunities 
that create the largest development impact in countries of interest 
from a foreign policy perspective.

    Question. How will you measure progress against these three 
objectives to ensure balance in the portfolio?

    Answer. The BUILD Act requires DFC to establish performance metrics 
that will help measure progress against these key areas. Additionally, 
the Chief Development Officer and Chief Risk Officer will be working to 
ensure these objectives are being met and balanced across the portfolio 
with a particular emphasis on our new development impact assessment 
tool.

Economic Statecraft
    Question. I am increasingly concerned that the United States is not 
well positioned to engage in economic statecraft for the twenty-first 
century, including promoting U.S. jobs, business and economic 
interests, engaging in development financing for infrastructure and 
other needs, including climate change-related resiliency, and setting 
standards for emergent technologies and the digital economy.

   Can you expand upon how you view your role and your institutions 
        role, if you are confirmed, in helping to renew and replenish 
        U.S. economic statecraft instruments?

    Answer. I share your concern about the United States role in the 
world in this regard. I believe American values-transparency, rule of 
law, respect for people and the environment-afford us a unique 
competitive advantage. The BUILD Act addressed barriers that will 
enable DFC to be more proactive and strategic. I believe that DFC will 
serve an important role, in combination with other government agencies, 
to drive global development while promoting U.S. interests abroad in 
developing countries. BUILD Act firmly places DFC in the United States 
foreign policy architecture where it can serve as a key instrument of 
economic statecraft as part of a wholistic government approach.

    Question. Where do you see the biggest challenges? Biggest 
opportunities?

    Answer. The BUILD Act has created a modernized DFI. Our main 
challenge will be confronting the ongoing and vast effort by countries 
such as China that are using inexpensive capital to exert influence on 
the developing world. DFC is well designed to encourage large sources 
of private capital in the United States to back investments in the 
developing world that support innovative American technology and know-
how that will give these countries the best chance to power their 
economies forward. Our competitors, such as China's BRI, have made a 
number of decisions as of late that make it clear that their capital 
comes with a number of strings attached, such as a heavy debt load, 
infrastructure failures, and loss of control of critical projects. I 
believe that DFC's role mobilizing U.S. private business, people, 
values, and innovations overseas is a strategic opportunity and 
advantage. The time is now to emphasize our competitive advantages and 
partner with our allies.

    Question. Have you considered developing an internal incentive 
structure to reward staff for positive development outcomes and the 
avoidance of negative environmental and social impacts?

    Answer. As I understand it, part of the modernized development 
impact scoring would evaluate and elevate projects that have positive 
development impact over negative environment and social impacts. I 
believe that incentives are important tools to influence behavior and 
will evaluate our incentive programs if confirmed.

    Question. The (BUILD Act) places an increased emphasis on 
development outcomes and impact, how do you plan to help guide this 
cultural shift?

    Answer. The combining of OPIC and DCA will certainly invoke a 
culture shift, and the increased mandate on development outcomes will 
be part of this shift. As noted above, if confirmed, one of my 
priorities will be ensuring a smooth transition and the amplification 
of a strong culture that supports the diverse expertise and experience 
to advance the new mission. Further, one of the jobs of the Chief 
Development Officer will be to infuse development throughout the 
organization and ensure DFC meets its development mandate across the 
portfolio. I will also ensure that goals and incentives are aligned to 
meet our mission where I am able.

    Question. Have you considered developing an internal incentive 
structure to reward staff for positive development outcomes and the 
avoidance of negative environmental and social impacts?

    Answer. As I understand it, part of the modernized development 
impact scoring would evaluate and elevate projects that have positive 
development impact over negative environment and social impacts. I 
believe that incentives are important tools to influence behavior and 
will evaluate our incentive program if confirmed.

Countering Chinese Development Influence
    Question. The DFC is often cited as part of the administration's 
response to China's Belt and Road Initiative, but while the DFC cannot 
compete with China's investments dollar for dollar, with the help of 
the DFC's enhanced toolkit the U.S. will be better positioned to offer 
an alternative to China's investment model-a key feature of which is 
opacity. Under provisions of the BUILD Act, the DFC will need to make 
public detailed project-level information to the extent practical.

  Recognizing there are issues of commercial confidentiality to 
        navigate, if confirmed will you commit to working to ensure the 
        DFC is best in class when it comes to DFI transparency?

    Answer. Yes. I believe that transparency is a value that sets the 
United States apart from autocratic governments and should be 
considered an advantage, while striking the right balance of working 
with the private sector to ensure business confidentiality.

    Question. Would that include considering publishing financial terms 
(even if on a time delay) or working with other DFIs to release 
anonymized contract data?

    Answer. If confirmed, the DFC will carefully evaluate what 
information may be made public to ensure transparency while maintaining 
business confidentiality and compliance with other applicable legal 
requirements.

Equity Investment
    Question. The BUILD Act granted the DFC limited equity authority, a 
key enhancement over its predecessor OPIC.

  How important is equity authority to achieving DFC's goals? What 
        barriers to you see to deploying equity?

    Answer. Congress provided DFC with equity authority to further its 
development mandate. This is particularly important when investing in 
challenging, credit constrained environments. Debt service requirements 
create the prospect of taking cash out of a company--which is often 
operating in some of the toughest markets on earth--when it possibly 
can least afford it.
    For all its strengths, OPIC has difficulty working in partnership 
with--and leveraging the investment of--other DFIs because of its lack 
of equity authority. Therefore, this authority would also allow the 
United States to be ``economically interoperable'' with our allies such 
as Germany, Japan, and the UK, that have the ability to provide support 
in this manner.
    DFC will need to ensure that the appropriate processes and 
procedures are in place to deploy equity. I understand this work is 
ongoing at OPIC and I will ensure that it is successfully implemented 
if I am confirmed. I will also work with the administration to ensure 
that Congress' intent is implemented.

    Question. What can Congress do to ensure DFC has the tools it needs 
to fulfill its mandate?

    Answer. While DFC has been established in law, it needs an 
appropriation from Congress that funds all of its new authorities.

Transparency
    Question. The DFC must comply with the transparency requirements of 
the Foreign Aid Transparency and Accountability Act (FATAA) as well as 
the BUILD Act.

  How do you think about the need to balance commercially sensitive 
        information with the importance of transparency?

    Answer. I believe that transparency is a value that sets the United 
States apart from our competitors and should be considered as an 
advantage, while striking the right balance of working with the private 
sector to ensure business confidentiality.

    Question. Will you commit to hearing, and providing forums for 
engagement and discussion, from all stakeholders with concerns about 
projects the IDFC is considering--well before any decisions are made by 
the IDFC's board to approve or reject proposals?

    Answer. Yes. I believe that stakeholder engagement is a critical 
pillar in helping the DFC to advance its mission.

Interagency Cooperation
    Question. The committee sees the mission of the DFC is enhanced 
when aligned with other government agencies and allies.

 Would you support having officers from other agencies, like USAID, 
        serve details at the IDFC?

    Answer. Yes.

    Question. Will you ensure and encourage USAID to use tools, like 
the Development Credit Authority, that are being moved to the IDFC?

    Answer. Yes. As the DFC increases its ability to mobilize private 
capital, and USAID places more emphasis on its engagement with the 
private sector, coordination between USAID and the DFC to pursue U.S. 
development objectives is essential. The DFC and USAID must forge and 
maintain strong linkages for the United States to maintain its 
leadership in international development.

    Question. How do you intend to ensure intergovernmental access to 
the IDFC's financing tools and mechanisms?

    Answer. The DFC will regularly convene meetings of interagency 
partners. These meetings will serve as a venue to share information on 
the DFC's transactions and policies; identify priority countries, 
sectors, and initiatives for engagement; and identify specific ways 
interagency partners can support DFC. Many State Department and USAID 
initiatives could be bolstered by DFC's investment tools.

    Question. What are your thoughts regarding partnership with 
agencies such as USAID, State, and MCC as well as partnering with the 
investment organizations of allies such as the Japan Bank for 
International Cooperation or JBIC?

    Answer. I believe that this is essential and I am encouraged by the 
introductory conversations I have already had with each of these 
agencies. Many State Department and USAID initiatives could be 
bolstered by DFC's investment tools, giving them greater heft. There 
are also likely ways that DFC supported projects can complement and 
leverage MCC compacts. Likewise, we must work closely with 
international partners to tackle development challenges.

Administration Coordination Report
    Question. We received the Administration's Coordination Report, as 
required under the BUILD Act, earlier this year.

 Does the Coordination Report sufficiently reorganize our 
        development finance instruments?

    Answer. I am familiar with the Coordination Report recently 
submitted to Congress by the heads of OPIC and USAID. I believe the 
report includes many encouraging aspects such as greater interagency 
coordination to enhance the United States' use of development finance 
to pursue development and foreign policy goals.

    Question. Do you have any recommendations or suggestions as to what 
you would like to see implemented differently?

    Answer. DFC is a new agency of the United States government. If 
confirmed, I will view DFC operations with fresh eyes to ensure the 
agency is maximizing its potential as Congress intended.

    Question. Do you believe that the $21 billion in Sovereign Loan 
Guarantees (SLG), which were previously housed at USAID and are 
currently up in the air on where they will fall after the 
reorganization, would severely harm the capacity of the USDFC if that 
money would be counted on its books?

    Answer. Under the BUILD Act, the current SLG exposure is expected 
to count against the DFC maximum contingent liability if responsibility 
for SLGs is assigned to the DFC. The administration has stated that 
this is an outcome the Administration would like to avoid and I agree.

    Question. How would you suggest the administration goes about 
transferring this money?

    Answer. The administration has stated that it would like to avoid a 
situation in which this exposure counts against the DFC's maximum 
contingent liability.

Overall Commitment to Gender Equality and Integration
    Question. As it replaces the Overseas Private Investment 
Corporation, the DFC has additional legislative mandates, like women's 
economic empowerment, a focus on lower income countries, and a stronger 
development focus.

  Could you describe how you plan to ensure these and other new 
        mandates are successfully implemented throughout the DFC 
        especially in a flat funding environment?

    Answer. I am committed to the clear development mandate that 
Congress has given to DFC. As studies have shown, a focus on 
economically empowering and investing in women is bound to bring 
increased development impact. I am encouraged by the work OPIC has done 
to focus on women's economic empowerment to date and look forward to 
continuing and further strengthening that focus. I was excited to hear 
that OPIC has been working with USAID, MCC, and other development 
experts to modernize the way it evaluates development impact of 
potential supported investments and leverage the full capabilities of 
the U.S. government in unison. I look forward to working with the Chief 
Development Officer to expand our cooperation as well as partner with 
our allies

    Question. Do any of your plans require additional staff to ensure 
that the new DFC can successfully implement, monitor, and evaluate all 
the mandated areas?

    Answer. As I noted during the hearing, fully utilizing existing 
resources and leveraging other government agencies to advance our 
mission is critical to success. This type of cooperation is envisioned 
by the coordination report recently submitted by the heads of OPIC and 
USAID to the committee. Indeed, it notes that USAID will use its global 
presence and depth of technical expertise to assist in monitoring DFC-
funded transactions, which will enable the DFC to provide a deeper 
level of monitoring of development impact on supported projects than 
previously possible. I was also pleased to hear about State support for 
a number of additional DFC positions overseas. If confirmed, I will 
further evaluate staffing needs and work with Congress and the 
Administration to ensure that the intent of Congress in establishing 
the DFC is preserved.

Women's Equality
    Question. How do you plan to ensure that the DFC fully meets its 
mandate in the Better Utilization of Investments Leading to Development 
Act of 2018 (BUILD Act) [Sec. 1451 (f)] to ``prioritize the reduction 
of gender gaps and maximize development impact by working to improve 
women's economic opportunities''throughout the DFC's entire portfolio?

    Answer. I am committed to the clear development mandate that 
Congress has given to DFC. As studies have shown, a focus on women's 
economic empowerment is bound to bring increased development impact. I 
am encouraged by the work OPIC has done to focus on women's economic 
empowerment to date and look forward to continuing and strengthening 
that focus. Women's economic empowerment will also be a key aspect that 
the DFC team evaluates in analyzing development impact on any project.

    Question. Monitoring, evaluation, and learning are important 
components to ensuring that the DFC's projects positively impact on 
both men and women. The BUILD Act [Sec. 1443 (b) (3) (A)], calls for 
genderdisaggregated data. How do you plan to ensure that this is 
consistently done across the entire portfolio and for all indicators or 
metrics that are about people?

    Answer. If confirmed, I am committed to leading an organization 
that learns and grows from its experiences. An essential part of 
learning is data collection which can help inform future investments. 
As you note, the BUILD Act calls for genderdisaggregated data which 
will be useful as DFC seeks to reduce gender gaps.

    Question. Ensuring women have equal access to economic 
opportunities has the potential to increase women's rights, power, 
autonomy, and also can be a catalyst for growth and change around the 
world. However, there can also be unintended negative consequences for 
women both in the community and the workplace. The United States 
International Development Finance Corporation (DFC) currently has a 
process to identify environmental and social risk and create plans to 
mitigate them, do you plan to build on and enhance these efforts to 
ensure that the wide array of risks to women are comprehensively 
included and monitored throughout the full project cycle and across the 
entire portfolio?

    Answer. I was pleased to hear that part of OPIC's 2X women's 
initiative has been training OPIC investment officers to view 
transactions through a ``gender lens''which is intended in part to 
ensure such unintended negative consequences are avoided. DFC will 
commit to ensuring that environmental and social risks are evaluated 
and monitored.

    Question. In your role as the Chief Executive Officer of the United 
States International Development Finance Corporation (DFC), you will be 
tasked with recommending members for the Development Advisory Council 
to the board. What are your plans to ensure that membership includes a 
diverse group, including women's rights organizations so that DFC has 
access to a critical cross section of expertise to most successfully 
spend United States' tax payer dollars?

    Answer. The Development Advisory Council promises to be a key body 
in which the Board and I, if confirmed, will rely upon to make 
recommendations on how DFC can better meet its development mandate. I 
am committed to working with the Chief Development Officer to recommend 
individuals to the Board representing diverse points of view to better 
inform our thinking and ensure that the DFC has access to the right 
expertise to most successfully deploy capital based on the mandate 
established by Congress with the Build Act.

    Question. I understand Overseas Private Investment Corporation 
(OPIC) staff has been looking into EDGE Certification-a global 
certification standard for gender equality, which development finance 
institutions such as the International Financial Corporation and Inter-
American Development Bank have pursued. If confirmed, will you commit 
to continuing to explore certification as well as to actively working 
to identify partners who prioritize gender equality?

    Answer. Yes.

Development Impact, Monitoring, Evaluation, and Reporting
    Question. The BUILD Act includes an increase in the legislative 
mandates around monitoring, evaluation, and reporting in part due to 
the conforming amendment that applies the Foreign Aid Transparency and 
Accountability Act of 2015 (FATAA) [Title IV Sec. 1470-(l)] to the DFC.

 When evaluating projects how important do you think it is for the 
        agency to assess, if the project holistically improved the 
        lives of people in the intended communities, versus focusing on 
        specific project outcomes like increasing the number of jobs 
        available?

    Answer. I am committed to the clear development mandate that 
Congress has given to DFC. I understand OPIC has been working with 
USAID, MCC, and other development experts to modernize the way it 
evaluates development impact of potential investments both specifically 
and holistically. If confirmed, I look forward to working with the 
Chief Development Officer to finalize this system so that projects can 
be better evaluated on their development impact and our work can be 
more focused.

    Question. When evaluating projects how important do you think it is 
for the agency to assess, if holistically the project improved the 
lives of people in the intended communities versus focusing on specific 
project outcomes like increasing the number of jobs available?

    Answer. I am committed to the clear development mandate that 
Congress has given to DFC. I understand OPIC has been working with 
USAID, MCC, and other development experts to modernize the way it 
evaluates development impact of potential investments both specifically 
and holistically. If confirmed, I look forward to working with the 
Chief Development Officer to finalize this system so that projects can 
be better evaluated on their development impact and our work can be 
more focused.

    Question. Due to the FATAA conforming amendment, 50% of the DFC's 
portfolio will now have to be evaluated, what are your plans to ensure 
this mandate is met?

 Will this go beyond having partners fill out a self-report 
        questionnaire? If yes, can you briefly explain what an 
        evaluation at the DFC would look like under your leadership, 
        and how lessons learned would be incorporated into future 
        planning?

    Answer. Yes. Monitoring and evaluation mandates in the BUILD Act 
are new and important aspects of the changes for DFC. I am committed to 
using best in class tools to monitor transactions efficiently. My 
management practice is to continually learn from experience to guide 
future planning and lessons would be regularly incorporated.

    Question. What are the plans to address the gaps in monitoring 
practices identified in recent reports from USAID's Office of Inspector 
General (2019 and 2015), OPIC's Office of Accountability (2018), and 
the government Accountability Office (2015)?

    Answer. I take oversight reports seriously. If confirmed, I commit 
to better understand the recommendations contained in these reports and 
to identify if and where additional work is needed to address any gaps.

Climate Change
    Question. Do you believe the scientific consensus that human 
activity from burning fossil fuels is driving global warming?

    Answer. While I am not an expert in this area, from what I have 
read and understand I believe human activity is contributing to changes 
in our climate.

    Question. You come from the healthcare industry with a strong 
record of promoting public health. Do you believe climate change is a 
factor that is exacerbating public health crises around the world?

    Answer. Yes, I believe that climate change can have a meaningful 
impact on public health.

    Question. OPIC has a strong environmental and social policy 
statement that demonstrates the agency's commitment to transparency, 
accountability, and environmental and social performance-including 
performing climate-related vulnerability assessments on certain 
projects. Do you intend to carry-over this policy to the new DFC? If 
not, why not?

    Answer. Yes.

    Question. The OPIC board recently approved the Vaca Muerta ``Dead 
Cow'' fracking project in Argentina. The extraction and combustion of 
natural gas poses a myriad of problems for clean air, clean water, 
wildlife, landscapes and ecosystems, human health, local communities, 
and our climate. Leaking natural gas infrastructure is a source of 
unaccounted climate and toxic air emissions which creates emissions 
hotspots, negative human health impacts, and environmental justice 
issues.

  How can OPIC or the new DFC justify funding a project like Vaca 
        Muerta if it poses a threat to the public health of local 
        communities and lock them into decades of climate-warming 
        pollution?

    Answer. I am not a current officer at OPIC, so I cannot speak to 
this project. If confirmed, I will ensure that projects that have 
potential significant adverse environmental impacts go through detailed 
analysis and assessment by the career professionals at DFC before 
receiving any support from the organization.

    Question. OPIC continues to weigh approval of the Kosovo e Re 
lignite burner coal fired power plant. The World Bank has rejected 
financing for this project nearly a year ago out due to the greenhouse 
gas emissions that would be associated with this project.

  Do you believe that this project is the best and most responsible 
        energy option for the U.S. to support in Kosovo?

    Answer. I do not currently have enough information about this 
particular project to make such a determination.

    Question. Do you believe that the World Bank made a prudent 
decision to withdraw from the Kosovo e Re lignite burner project as 
explained in the following statement made by Jim Yong Kim last year: 
``We are required by our by-laws to go with the lowest cost option and 
renewables have now come below the cost of coal. So without question, 
we are not going to [support the plant].''

    Answer. I do not currently have enough information about this 
particular project to make such a determination.

    Question. Will commit to working with the Kosovo government, and 
investors interested in pursuing renewable and low carbon energy 
solutions for Kosovo, as means of finding energy alternatives to the 
Kosovo e Re lignite burner project?

    Answer. I do not currently have enough information about this 
particular project to make such a determination.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. Over the course of my career, I have had thousands of 
people under my direct or indirect supervisory authority. Anytime an 
issue has been brought to my attention, I have insisted upon swift 
response and fully complied with appropriate policies.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree. I will clearly state this policy. In 
addition, I will create an environment that does not support 
retaliation, blacklisting, or other prohibited personnel practices by 
rectifying any situation, whether in public or in private, 
expeditiously and in a manner that ensures that it will not be 
tolerated.

                               __________


            Responses to Additional Questions for the Record
          Submitted to Adam Seth Boehler by Senator Todd Young

    Question. The BUILD Act and our own American economic model varies 
greatly from the state driven model presented in China. We cannot 
compete directly with BRI but in your view, what sectors or industries 
are most critical for the United States to support in Asia and Africa 
to provide a counter weight to the influence China is exerting under 
BRI?

    Answer. DFC will be a critical tool in American foreign policy to 
address the growing influence of China and other authoritarian 
governments. American values--transparency, rule of law, respect for 
people and environment--afford us a unique competitive advantage. We 
will not pursue the same strategy as China or others but our own. We 
will collaborate with other U.S. government agencies such as State and 
USAID to ensure that our investment strategy is furthering our foreign 
policy goals.
    I am excited by the opportunities in a number of sectors in Asia 
and Africa including critical infrastructure, energy, investments in 
small and women-owned businesses, technology, and health care.

    Question. In your view, how should the United States go about 
building a coalition to counter China's economic activities in a way 
that strengthens multilateral relationships and provides a viable off-
ramp for industries and countries who may feel trapped in unescapable 
ties with China and Chinese institutions?

    Answer. Our relationships with our allies will be critical in our 
approach, particularly given the difference in funds allocated to 
development between the United States and China. If I am confirmed, I 
will build on the recent relationships with Japan and Australia as well 
as Western European and Latin American DFIs.
    DFC's new equity authority will put the United States on equal 
footing with other DFIs so that we can invest alongside our allies and 
not lose attractive deals that drive development as well as economic 
return.

    Question. What challenges do you anticipate encountering as DFC 
gets up and running?

    Answer. If confirmed, I will lead the talented staffs of OPIC and 
USAID's Development Credit Authority, which together will combine to 
form DFC and a more explicit development mandate. Such a melding of 
staffs will involve a culture shift. It will also be critical that DFC 
forge strong relationships with other U.S. government agencies like MCC 
and the Department of State.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Adam Seth Boehler by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My first professional experience was in South Africa. I 
worked for the Financial and Fiscal Commission, an agency set up by the 
South African Parliament to advocate on behalf of the provinces. During 
my tenure there, we made recommendations to parliament designed to 
ensure the fiscal accountability and transparency of every province--a 
key ingredient in ensuring a free society.
    In my career, I also employed hundreds of people in developing 
countries. We had a very high retention rate because I believe that 
fair compensation, dignity, and respect create a strong work 
environment and engender loyalty.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the International Development Finance Corporation?

    Answer. I believe in empowering others and that diverse viewpoints 
drive successful innovation. I have a strong history in private and 
public sectors of teams that come from diverse backgrounds and 
underrepresented groups. I will continue my commitment to promote and 
mentor this talent if I am confirmed.

    Question. What steps will you take to ensure each of the 
supervisors in the International Development Finance Corporation are 
fostering an environment that is diverse and inclusive?

    Answer. I believe that a culture of diversity and inclusion comes 
from the top. My actions and focus in this area will set the tone for 
the organization. In addition to leading by example, I will adhere to 
all employment laws and processes.
Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the International Development Finance 
Corporation) any change in policy or U.S. actions that you suspect may 
be influenced by any of the President's business or financial 
interests, or the business or financial interests of any senior White 
House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

Countering China's Belt and Road Initiative
    Question. As you know, a key policy rationale for the BUILD Act was 
to respond to China's Belt and Road Initiative and China's growing 
economic influence in developing countries.

  If confirmed, how will you use your role and the new DFC to counter 
        China's growing influence in developing countries? With this in 
        mind, what countries and/or regions would you target first? How 
        specifically do you think the DFC can play a role in these 
        countries/regions?

    Answer. DFC will be a critical tool in American foreign policy to 
address the growing influence of China and other authoritarian 
governments. American values--transparency, rule of law, respect for 
people and environment, afford us a unique competitive advantage. We 
will not pursue the same strategy as China or others but our own. We 
will collaborate with other U.S. government agencies such as State and 
USAID to ensure that our investment strategy is furthering our foreign 
policy goals.
    We will need allies and partners. I am encouraged by the recent 
cooperation agreements that OPIC has signed with Japan and Australia, 
which are intended to drive economic growth in emerging markets and 
provide an alternative to state-directed initiatives. I believe that 
there is significant opportunity in the Indo-Pacific to leverage these 
relationships and counter China's influence in these regions. I also 
note the opportunity to work with our allies to counter China in Africa 
and Latin America. There is a significant pipeline of deals in these 
regions and the new DFC flexibility will allow for further investment.

Small Business Participation
    Question. As Ranking Member of the Senate Committee on Small 
Business and Entrepreneurship, I'm pleased that the law creating the 
International Development Finance Corporation includes my amendment 
requiring the corporation to ``broaden the participation of United 
States small businesses and cooperatives.in the development of small 
private enterprise in less developed friendly countries or areas.'' My 
amendment also requires that the Corporation--to the maximum extent 
possible--give preferential consideration to projects sponsored by or 
involving U.S. small businesses, and that those projects comprise at 
least 50 percent of all projects for which the Corporation provides 
support and that involve United States persons. Under the previous OPIC 
requirement, that percentage was just 30 percent.

   What actions will you take to ensure the broad participation of 
        U.S. small businesses in DFC projects?

    Answer. Thank you for working to ensure that small businesses 
continue to be a focus of DFC. I share your commitment to small 
businesses as they are often the most valuable, innovative, and agile 
partners in achieving development goals. I know this firsthand because 
I started three of them from the ground up. I will work with you and 
with other partners to ensure that the small business community is 
aware of and involved with our development projects abroad.

Women and Minority Owned Businesses
    Question. The Corporation is required to collect data on the 
involvement of women and minorityowned businesses in projects supported 
by the Corporation, including: (1) the amount of insurance and 
financing provided by the Corporation to such businesses in connection 
with projects supported by the Corporation; and (2) the involvement of 
such businesses in procurement activities conducted or supported by the 
Corporation.
    Question. Mr. Boehler, if confirmed, will you provide this 
information to Congress as required? What steps will you take to reach 
out to women and minority owned businesses?

    Answer. Yes, I will follow all applicable reporting requirements. 
As you know, a primary goal of OPIC's 2X women's initiative is to 
support women-owned, women-led companies that provide a product or 
service that intentionally empowers women. I look forward to continuing 
and expanding on this work.
    I also believe the vibrant diaspora communities in the United 
States could be a good source of project sponsors and investors for 
DFC. Diaspora investors often understand the investment environment in 
developing countries and thus feel more comfortable taking on risk in 
these regions.

Small Business Workshops
    Question. Over the past 15 years, OPIC has held more than 40 
workshops and seminars throughout the United States to educate U.S. 
small business owners and entrepreneurs on how to expand into the 
global marketplace. In 2016, more than 170 small businesses 
participated in an OPIC workshop in Baltimore--so I can tell you there 
is great interest and demand for this type of outreach.

 Do you plan to conduct similar workshops and seminars for U.S. 
        Small Businesses?

    Answer. Yes. Given the small business focus that you mention in 
your question earlier, I believe it is important to ensure that there 
is an outreach campaign to businesses and stakeholders to educate them 
and build awareness about DFC's products and mandate.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Adam Seth Boehler by Senator Jeanne Shaheen

    Question. Last November, the U.S. government's National Climate 
Assessment found that more frequent and extreme weather events are 
already severely damaging the environment and economy at a cost of tens 
of billions of dollars while increasing harm to human health and loss 
of life. Meanwhile, a 2016 Oxford study found that for the world to 
have a 50% chance of staying within internationally agreed limits for 
global warming, no new fossil fuel plants could be built after 2017. Do 
you believe that climate impacts should be a major consideration for 
every energy, transportation, agriculture, and forest related project 
that the DFC--as a development finance institutions--considers? What 
will you do to ensure that climate risk is made an integral part of the 
DFC's risk management policy and practice?

    Answer. Yes. I believe that we must be good stewards of our 
environment. As I noted in my written testimony, respect for the 
environment is one of the aspects that sets us apart from our 
competitors and is a reason why United States engagement in the 
developing world is so critical.
    If confirmed, I will ensure that DFC will complete rigorous 
environmental analyses prior to pursuing any project Any projects with 
potentially significant adverse environmental impact will go through 
detailed analysis and assessment by the career professionals at DFC 
before receiving support from the organization.
    OPIC has not financed coal projects for about a decade. Given the 
climate emergency and that coal is an extremely dirty form of energy, 
would you agree that coal financing should be banned at the DFC?
    I believe that projects with potentially significant adverse 
environmental impacts need to go through detailed analysis and 
assessment and the bar is far higher to receive support from the 
organization.
    Given climate change and DFC's appropriate emphasis on lower and 
lower-middle income countries, would you support DFC financing another 
gas pipeline in Argentina, an upper middle income country that just 
received $688.1 million worth of financing at OPIC's final board 
meeting? In addition, would you support fossil fuel financing in other 
upper middle income countries?
    I am not aware of the specific circumstances of the deal referred 
to above. That said, the BUILD Act prioritizes the work of DFC in low-
income and low-middle income countries. DFC support in upper-middle 
income countries is restricted and any potential significant adverse 
environmental impact would need to be analyzed very carefully and face 
a high bar.

    Question. Congressional action in 2009 mandated OPIC adopt a 
climate change mitigation policy (i.e., carbon cap) to reduce GHG 
emissions associated with projects and sub-projects in the agency's 
portfolio by at least 30% over a ten year period and 50% over a 15 year 
period. With the DFC coming on board in 2019, how will you ensure that 
it becomes a first-in-its-class development finance institution in 
tackling climate change? How will you push the DFC to adhere to the 
carbon cap and what will you do to improve upon OPIC's climate change 
policies and make them more in line with a world that urgently needs to 
decarbonize?

    Answer. I was pleased to learn that OPIC is considered first-in-its 
class when it comes to efforts to reduce portfolio emissions. Under the 
BUILD Act, these same rigorous environmental standards transfer to DFC. 
I further believe that advances in U.S. technology may present an 
opportunity to finance advances in renewable energy in the developing 
world and look forward to evaluating investments in these areas.

    Question. OPIC has supported over $1 billion in renewable energy 
projects over the past decade, providing integral support to the 
renewables industry and helping improve access to clean electricity all 
over the world. If confirmed, what would you do to continue and 
increase support for renewables projects?

    Answer. Over the past five years, about 80 percent of OPIC's energy 
projects were in renewables. If confirmed, I will continue to support 
our renewable energy portfolio.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Adam Seth Boehler by Senator Edward J. Markey

Northern Triangle Projects
    Question. In July, per the administration's request, the State 
Department cut millions of dollars in aid to Central America.

 How does the administration's current policy of cutting foreign 
        assistance to the Northern Triangle affect OPIC (and soon) the 
        U.S. Development Finance Corporation's (DFC) risk assessment of 
        current and potential projects in the Northern Triangle?

    Answer. I believe that investment in developing countries can have 
a stabilizing effect on their society. OPIC has worked within the past 
two years to significantly ramp up its support in this critical region. 
The administration has halted OPIC investments in the Northern 
Triangle. If confirmed, I look forward to engaging in a discussion on 
this topic with the administration given the new capabilities and 
mandate of DFC.

    Question. Is it possible to continue implementation of those 
projects in light of the administration's aid cuts in the region? If 
so, how?

    Answer. The investments backed by OPIC prior to the 
administration's funding stance are still honored by the Corporation.

    Question. Will you and DFC advocate for the administration to 
reestablish full levels of foreign assistance to the Northern Triangle, 
to address root causes of migration out of the region?

    Answer. If confirmed, I look forward to engaging on this topic as 
part of the administration.

    Question. How many projects (if any) does DFC plan to fund or 
evaluate in the Northern Triangle region in the coming year?

    Answer. As I understand it, there are approximately $1 billion 
worth of projects that the DFC could pursue in the northern triangle in 
the near-term.

    Question. Do you believe that climate change is a root cause of 
migration to the United States from the Northern Triangle and elsewhere 
in Central America? If so, do you believe that the DFC can better take 
into account the effects of climate change when developing 
infrastructure in the region?

    Answer. Projects that potentially have significant adverse 
environmental impacts--no matter the income level of the country--will 
go through detailed analysis and assessment by the career professionals 
at DFC. Over the past five years, about 80 percent of OPIC's energy 
projects were in renewables. If confirmed, I will continue to support 
our renewable energy portfolio.

    Question. If costs appear to be too high in development projects 
that substantially account for the negative effects of climate change, 
how would you instruct the DFC to move forward?

    Answer. I believe that we must be good stewards of our environment. 
As I noted in my written testimony, respect for the environment is one 
of the aspects that set us apart from other autocratic governments 
competitors and a reason why United States engagement in the developing 
world is so critical. If confirmed, I will ensure that the DFC will 
conduct a rigorous environmental analysis to ensure that projects that 
have potential significant adverse environmental impacts go through 
detailed assessment by the career professionals at DFC.

Argentina
    Question. OPIC is about to provide $450 million in financing for 
oil and gas fracking in Argentina, without a thorough environmental & 
social impact assessment.

 If you are confirmed, will DFC insist on a full environmental and 
        social impact assessment for every investment? If not, why not?

    Answer. Yes. If confirmed, I will ensure that the DFC will conduct 
a rigorous environmental analysis to ensure that projects that have 
potential significant adverse environmental impacts go through detailed 
assessment by the career professionals at DFC.

    Question. Argentina has some of the world's best wind resources and 
excellent opportunities for solar energy deployment.

  What were the factors that led OPIC to choose this fossil-fuel 
        project over possible wind and solar energy projects?

    Answer. I am not an OPIC official today, so I can not speak to the 
factors that led to the support of this project.

    Question. Would you support fossil fuel project financing in other 
upper middle income countries?

    Answer. The BUILD Act prioritizes the work of DFC in low-income and 
low-middle income countries. DFC support in upper-middle income 
countries is restricted. If confirmed, I will ensure that the DFC will 
conduct a rigorous environmental analysis to ensure that projects that 
have potential significant adverse environmental impacts go through 
detailed assessment by the career professionals at DFC.

Climate Change
    Question. Congressional action in 2009 mandated OPIC to adopt a 
climate change mitigation policy (i.e., carbon cap) to reduce GHG 
emissions associated with projects and sub-projects in the agency's 
portfolio by at least 30% over a ten year period and 50% over a 15-year 
period.

  Will you push the DFC to adhere to the carbon cap?

    Answer. Yes. Under the BUILD Act, these same standards transfer to 
DFC.

    Question. What will you do to improve upon OPIC's climate change 
policies and make them more in line with a world that urgently needs to 
decarbonize?

    Answer. I was pleased to learn that OPIC is considered first-in-its 
class when it comes to efforts to reduce portfolio emissions. Under the 
BUILD Act, these same rigorous environmental standards will transfer to 
DFC. I believe that advances in U.S. technology may present further 
opportunity to finance advances in renewable energy in the developing 
world.

    Question. How will you convince the administration of the need for 
these improvements to OPIC's climate change policy to the 
administration?

    Answer. Respect for and stewardship of the environment is one of 
the aspects that sets us apart from our competitors--a competitive 
advantage--and is a reason why United States engagement in the 
developing world is so critical.

Relations with International Financial Institutions and the Private 
        Sector
    Question. How do you view the DFC's relationship with multilaterals 
like the World Bank in defining global standards for development 
finance?

    Answer. I believe it is important that DFC projects meet 
international best practices--including IFC performance standards--for 
environmental and social sustainability, treatment of workers, and 
respect for human rights. We will work closely with these organizations 
in this area.

    Question. Will the DFC fully explore opportunities to partner with 
private sector and multilateral institutions, such as the World Bank 
and others, to promote universal access to reliable electricity in the 
Indo-Pacific? If so, how?

    Answer. Yes. I believe access to electricity is essential for 
economic growth and development. If confirmed, I look forward to 
working with multilateral and other partner organizations in the region 
such as the World Bank and JBIC to further this goal.

China and the Indo-Pacific
    Question. Does the current statutory framework enable the DFC to 
respond effectively to U.S.strategic concerns in the Indo-Pacific?

    Answer. Yes. It is important to note that, DFC is one part of what 
must be a whole-of-government approach to this critical region.

    Question. What are DFC's goals and approaches relative to China's 
Belt and Road initiative? How will you determine that the DFC has been 
successful--particularly in the Indo-Pacific itself--in comparison to 
China's BRI projects in the same region?

    Answer. DFC will be a critical tool in American foreign policy to 
address the growing influence of China and other authoritarian 
governments. American values--transparency, rule of law, respect for 
people and environment--afford us a unique competitive advantage. We 
will not pursue the same strategy as China or others but our own. We 
will collaborate with other U.S. government agencies such as State and 
USAID to ensure that our investment strategy is furthering American 
foreign policy goals. Success in the IndoPacific will be based on 
extending our relationships with Japan and Australia to identify and 
complete new investments (as well as support existing) in critical 
regions of strategic importance to the United States such as Indonesia, 
Vietnam, and the Philippines.

    Question. Through what mechanisms will you engage Southeast Asian 
countries to advocate for renewable energy projects?

    Answer. OPIC has one representative based in Bangkok and is working 
with the State Department to boost its regional presence. We will also 
work closely with USAID missions and our embassies in these countries 
to identify and source new deals. I was pleased to learn that OPIC 
recently backed Indonesia's first wind power project, which will 
provide 75MW of installed generating capacity and support the country's 
clean energy goals.


                               __________


            Responses to Additional Questions for the Record
          Submitted to Michael Pack by Senator James E. Risch

    Question. Do you believe that there is a congressionally-mandated 
``firewall'' between USAGM's political leadership and USAGM's networks, 
particularly Radio Free Asia (RFA), Middle East Broadcasting Networks 
(MBN), and Radio Free Europe/Radio Liberty (RFE/RL)?

    Answer. I believe that the credibility of USAGM broadcasting 
entities rest on the belief that the reporters at all the networks are 
independent. As I stated during the committee hearing, the Agency would 
be completely undermined if there was political influence telling these 
journalists how to report the news and what to say.

    Question. Do you believe the ``firewall'' is a good thing? Why or 
why not?

    Answer. The protection of the independence of USAGM is more than a 
good thing, it is absolutely essential to the USAGM's fulfilling its 
mission. I expect the reporters at each broadcasting entity to do their 
job with the utmost professionalism, without bias, and free from 
political interference telling them how to report the news and what to 
say.

    Question. Do you believe that it is important for the non-federal 
grantees--RFA, MBN, and RFE/RL--to remain separate independent entities 
with their own management structures and full editorial independence 
from USAGM?

    Answer. I have no plans to change the current structure. I do think 
that part of my job is review the current management structure and 
practice, in every aspect. As I mentioned at my hearing, ``The hope was 
that a CEO would provide the leadership and vision to ramp up the 
impact of the five broadcasting entities and to create a more effective 
U.S international broadcasting effort on the world stage. That won't be 
easy or fast. I will confer extensively with the talented and dedicated 
men and women of USAGM and will consult with all stakeholders, 
including here in Congress.'' So, this is a long, complex process.

    Question. Given the expanded powers of the next Senate-confirmed 
CEO, do you intend to remove any heads of USAGM's networks? If yes, 
which positions? Under what conditions would it be appropriate to 
remove the head of a network?

    Answer. It is premature for me to anticipate any changes at any 
USAGM networks at this juncture. However, all USAGM and network staff 
will be held to the highest standards. As I mentioned in my previous 
answer, I expect to conduct a thorough review of the Agency. There will 
likely be changes that result from that review, but I cannot anticipate 
what they would be in advance.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Michael Pack by the Committee's Minority Staff

    Question. How much did Manifold receive from the Claremont 
Institute for fundraising? (California Attorney General database lists 
nearly $80,000 in 2016 out of $170,000 raised and nearly $30,000 in 
2017 out of the same amount raised--2017 data also available here)

    Answer. Manifold Productions, Inc. was paid a monthly fee of $6,250 
per month to provide development and fundraising services to the 
Claremont Institute, a fee in line with that paid other entities 
providing development and fundraising services to Claremont.

    Question. Did Claremont's board convene to review the contract with 
Manifold and determine whether it was the best choice for fundraising 
and whether the terms and conditions were at no more than fair market 
value?

    Answer. Claremont's Board of Directors' Compensation Committee 
reviewed the contract. Although I was an ex officio member of the 
Compensation Committee, I absented myself from that entire committee 
meeting and review. I personally did not advocate for the contract, had 
no involvement in the negotiations of the contract, and did not review 
the contract. I also refrained from any role in the approval of the 
contract by Claremont. Once the contract was approved by Claremont, I 
refrained from the ongoing evaluation and enforcement of the contract.

    Question. Why did you not recuse yourself from any involvement in 
the contract with Manifold?

    Answer. By not attending the meeting of Claremont's Board of 
Directors' Compensation Committee and by not having any involvement in 
the review of the contract (as mentioned in the answer above), I in 
effect recused myself. I removed myself from the entire process of the 
consideration and approval of the contract. Once the contract was 
approved by Claremont I refrained from the ongoing evaluation and 
enforcement of the contract.

    Question. What fundraising services did Manifold perform for the 
Claremont Institute? Had Manifold ever performed fundraising services 
for any other organization prior to its contract with the Claremont 
Institute?

    Answer. The services performed by Manifold for Claremont included 
the following: (i) event planning support, (ii) developing 
relationships with high capacity donors, (iii) maintaining and 
increasing donations of existing donors, (iv) overall support to the 
development department such as expanding client profiles for inter-
departmental communication, and (v) administrative support, 
particularly for the newly opened Washington, DC offices of Claremont.
    The Manifold contract with Claremont required the services of Gina 
Cappo Pack. Before joining Manifold in 1987, Mrs. Pack worked 
extensively in marketing and new product development in New York. At 
Manifold, Mrs. Pack helped raise millions of dollars for documentary 
and educational film projects. In addition, she volunteered for close 
to eight years as part of a fundraising team for Annual Giving for the 
St. Albans School in Washington, DC.
    As a result of the Manifold contract Claremont maintained and 
increased the giving of existing donors in the seven figures, 
cultivated relationships with new donors in the six figures, and 
Claremont's Washington, DC office was successfully launched and 
established.

    Question. Why were you provided a severance package of nearly 
$130,000 from the ClaremontInstitute?

    Answer. To answer this question more fully and provide some 
context, I have incorporated the answer to this question into the 
answer to the following question.

    Question. Please describe the circumstances of your departure from 
the Claremont Institute. If you were asked to leave the Claremont 
Institute, please explain why.

    Answer. My departure from the Claremont Institute was a mutual 
decision. The Board of Directors and I decided to end my contract with 
Claremont early. For me, it made sense to return to Washington DC full 
time. My employment contract with Claremont contained certain severance 
and other obligations and the Board honored those contractual 
obligations. To this date, I remain a Senior Fellow of the Claremont 
Institute.

    Question. Who are the other officers/members of Manifold?

    Answer. As of this date, these are the officers of Manifold 
Productions, Inc.: Michael Pack, President; Gina Cappo Pack, Secretary/
Treasurer.

    Question. What is Public Media Lab's purpose? How has Public Media 
Lab fulfilled that purpose?

    Answer. The purpose of the Public Media Lab (PML) is to: receive 
grants and funding to develop, promote, and support educational 
documentary films and filmmakers, and to conduct related public 
education and information activities in the United States and abroad; 
engage in other charitable and educational activity as determined by 
the Board of Directors consistent with the mission of PML; and, assist 
and support other charitable and educational organizations in the 
conduct of similar activities.
    To fulfill this purpose, PML supports the production of educational 
documentary films; provides advice and counseling to young, up and 
coming filmmakers, such as reviewing treatments, production budgets, 
rough cuts and other materials; advises other foundations about how to 
make successful grants to documentary filmmakers; and endeavors to 
involve leaders in public media, academia and other nonprofits to 
collaborate and support training programs in the arts and humanities.

    Question. How many awards has Public Media Lab made to Manifold? 
How much do those awards add up to?

    Answer. Manifold and PML together approach a third-party funder to 
support a documentary film project. The grant is given by the funder to 
PML, and Manifold produces the film in accordance with the proposal and 
the grant agreement. PML serves as the fiscal agent and manager of the 
film project in accordance with the grant agreement. From 2008 through 
2019, Manifold and PML developed seven projects, and received 38 
grants, totaling $4.28 million.

    Question. Has Public Media Lab ever made awards to any recipients 
besides Manifold? How much do those awards add up to?

    Answer. PML has offered its services as a fiscal agent and manager 
to several other filmmakers. For example, PML formally applied to the 
National Endowment for the Humanities for a film project to be produced 
by another film company, but the project was not selected by the NEH 
for a grant. While there have yet to be occasions for PML to perform 
fiscal agent and manager services for other filmmakers besides 
Manifold, PML continually looks for projects that can further fulfill 
its mission. PML also continues to look for opportunities to launch 
other initiatives to further its mission.

    Question. Did you fill out the grant application for Manifold's 
$250,000 award from Arthur Vining Davis in 2013? If not, who did?

    Answer. My staff and I filled out the grant application and 
proposal to the Arthur Vining Davis Foundation.

    Question. Did the grant application claim that Manifold was a 
public charity? (See page 18 of Arthur Vining Davis's 990 from that 
year, which lists Manifold as a ``public charity'') Or was there an 
Exercising Expenditure Responsibility contract between Arthur Vining 
Davis and Manifold?

    Answer. At no time in the process of applying for the Arthur Vining 
Davis grant did Manifold claim that it was a public charity or request 
that the funding go to Manifold. On the contrary, the request was that 
funding from the grant from Arthur Vining Davis go to PML.

    Question. Did you fill out the grant application for Manifold's 
$40,000 award from the Lynde and Harry Bradley Foundation? If not, who 
did?

    Answer. My staff and I filled out the grant application to the 
Lynde and Harry Bradley Foundation.

    Question. Did the grant application claim that Manifold was a 
public charity? (See page 261-2 of the Lynde and Harry Bradley 
Foundation's 990 from that year, which lists Manifold as a ``public 
charity'') Or was there an Exercising Expenditure Responsibility 
contract between the Lynde and Harry Bradley Foundation and Manifold?

    Answer. At no time in the process of applying for the Lynde and 
Harry Bradley Foundation grant did Manifold claim that it was a public 
charity. The Lynde and Harry Bradley Foundation grant in fact went to 
PML, which is a public charity.

    Question. What percentage of the nearly $800,000 grant from the 
Sloan Foundation to Public Media Lab was subsequently awarded by Public 
Media Lab to Manifold?

    Answer. As is customary, the PML grant application to the Sloan 
Foundation identified Manifold as the production company for the film 
described in the application. The grant application and proposal to the 
Sloan Foundation from PML stated that the entire grant would support 
the production of a documentary about Admiral Rickover, father of the 
Nuclear Navy, which was distributed by the Public Broadcasting Service 
(PBS).

                               __________


            Responses to Additional Questions for the Record
            Submitted to Michael Pack by Senator Ron Johnson

    Question. Authoritarian governments use internet firewalls to block 
the free flow of information to their citizens in order to maintain 
control. Do you believe that the rapid bypass of closed society 
internet firewalls should be a priority for the United States? If so, 
and if confirmed, what actions would you take at the U.S. Agency for 
Global Media to achieve the bypass of internet firewalls in 
authoritarian states? If confirmed, would you commit to reporting to me 
and the Senate Foreign Relations Committee on the steps you are taking 
to implement a robust set of policies designed to rapidly achieve the 
bypass of these firewalls? Will you commit to spend the funding that 
Congress appropriates to accomplish this goal?

    Answer. Successfully circumventing firewalls in closed societies, 
especially China, would strike a great blow for freedom. I can think of 
few actions of greater consequence. Far too many people live behind 
firewalls in China, Iran, Vietnam, Cuba, and other autocracies are 
denied unfettered access to internet content for which they yearn for.
    Rapidly assessing and rebalancing USAGM's investment strategies on 
these most important tools will become a priority and, as I said in our 
brief conversation during my committee hearing, I will endeavor to keep 
you and the SFRC fully informed as we proceed. You can expect to hear 
from me often.

                               __________


            Responses to Additional Questions for the Record
          Submitted to Michael Pack by Senator Robert Menendez

    Question. In your hearing I asked you how you would protect the 
firewall between journalists and political influence. You did not seem 
aware of the mechanisms in place to ensure that firewall.
   As you will be charged with leading this agency, can you please 
        clarify how specifically you will protect journalistic 
        integrity at the USAGM?

    Answer. We spoke briefly about this issue in our private meeting as 
well as the hearing, and as I said to you privately and publicly, I 
firmly believe that the credibility of USAGM broadcasting entities rest 
on the belief that the reporters at all the networks are independent. 
As I stated during the committee hearing, the Agency would be 
completely undermined if there was political influence telling these 
journalists how to report the news and what to say. I expect the 
reporters at each broadcasting entity to do their job with the utmost 
professionalism, without bias, and adhering the highest standards of 
journalism. In my briefing by USAGM leadership, my mechanisms to 
preserve these goals were described to me. If confirmed, I will review 
those closely and look for ways to strengthen them.

    Question. How do you see the missions differing between the 
grantees and the networks of USAGM? Do you believe this structure is 
the best way for each of these entities to pursue their missions?

    Answer. While the overall mission for all USAGM networks remains 
the same, ``to inform, engage, and connect people around the world in 
support of freedom and democracy,'' the approach differs greatly 
between the federal organizations and the grantees. The Voice of 
America (VOA) has the primary role of telling America's story 
throughout the world, and it does so as a federal broadcaster while the 
grantees serve as local independent media, focusing primarily on 
domestic news for areas where accurate, timely local news and 
information is otherwise unavailable.
    As I mentioned at my hearing, ``The hope was that a CEO would 
provide the leadership and vision to ramp up the impact of the five 
broadcasting entities and to create a more effective U.S international 
broadcasting effort on the world stage. That won't be easy or fast. I 
will confer extensively with the talented and dedicated men and women 
of USAGM and will consult with all stakeholders, including here in 
Congress.'' Part of that process would be to examine and evaluate the 
current management structure and practice, in every aspect--but that 
does not mean, necessarily, a change in structure. Any change would 
involve a good deal of consultation, including with Congress.

    Question. The Office of Cuba Broadcasting has an important mission 
of bringing free and independent media to a population under 
totalitarian control. Recently, as I hope you are aware, there have 
been a number of incidents that have potentially compromised its 
mission.

  What do you think is the best path forward for the Office of Cuba 
        Broadcasting?

    Answer. As I stated in my written testimony, if confirmed, I will 
address the scandals hampering USAGM. These are just a few of the 
scandals reported, and I will make certain that the Agency is doing 
everything it can to make sure such scandals cease and put processes in 
place to prevent such situations in the future. Doing so will 
inevitably contribute to making USAGM more effective.
    I have read the USAGM May 21st report ``Embarking on Reform of the 
Office of Cuba Broadcasting,'' which resulted, in part, from the 
incidents you refer to. I was very impressed by the report: the 
sterling qualifications of its panelists, the depth of its analysis, 
and its concern to be fair. However, it would be premature for me to 
endorse its conclusions. If confirmed, I would need to look into the 
situation at OCB for myself, as part of my overall review of USAGM's 
work, and confer with the concerned parties and stakeholders as well as 
USAGM staff and the reports panelists.

    Question. What is your plan for technological upgrades for the 
Agency?

    Answer. In my briefing by USAGM staff, I have been made aware of an 
existing proposal being considered at USAGM for technological upgrades. 
Before committing--or dismissing--an existing plan based on limited 
knowledge of the needs or the specifics of the plan itself, I commit to 
evaluate the strategy currently under consideration based on the needs 
of the Agency and the broadcasters.

    Question. In the context of whole of government efforts, what role 
do you think the USAGM has to play in countering disinformation, 
Russian or otherwise?

    Answer. Before proposing changes to current broadcasting strategy 
for countering disinformation or foreign propaganda, I would assess to 
what extent the five USAGM networks are successfully achieving the 
Agency's statutory responsibility, mission and strategic goals by 
meeting with the leadership and staff of each and fully investigating 
the implementation realities.

    Question. How do you plan to address annual performance reviews?

    Answer. As I said in my hearing, one of my three goals is ``to 
raise employee morale at the Agency. USAGM consistently ranks at or 
near the bottom in surveys of mid-sized Agencies in terms of morale. I 
will make it a priority to change that.'' Properly implementing and 
responding to annual performance reviews is an important part of 
restoring morale. Without clear expectations, individuals cannot strive 
for personal or professional success.

    Question. How do you asses the success of relatively new 
initiatives like CurrentTime and Radio Farda? Do you think these are 
appropriately constructed and what do you view as their fundamental 
missions?

    Answer. Based on the information I have received from USAGM 
leadership, CurrentTime is available through 92 distributors in 20 
countries, and world-wide via over-the-top (OTT) media services and 
online. Individual Current Time programs are available in 14 countries 
via more than 50 affiliates, including nine inside Russia. Current 
Time's digital products and strong social media presence have helped 
tap into key markets. In 2018, the network logged more than 520 million 
online views--more than half from inside Russia, an increase from 2017 
of 30 percent.
    Radio Farda has partnered with the Voice of America in the launch 
of its global Farsi-language digital network, VOA365. This is an effort 
to reach Farsi-speaking audiences globally and utilize their social 
networks to share information back into Iran, as well as reaching 
USAGM's traditional audiences in Iran. According to a 2018 national 
survey of Iran managed by Gallup on behalf of USAGM, 15.7% of Iranian 
adults use Radio Farda weekly. 76.8% of past-week listeners told Gallup 
that they trust Radio Farda as a news source; the figure rises to 83.8% 
when asking multi-platform Farda users. Through briefings, I've been 
told that despite a government ban, Farda logged a monthly average of 
12.2 million visits to its website and almost 22 million-page views. 
Almost two-thirds of all website traffic originated inside Iran. Farda 
has more than 3.5 million combined followers on Facebook, Instagram, 
Twitter and Telegram.
    I have been very impressed by all the data I have received about 
these initiatives. But, based on what I know now, I cannot fully assess 
if CurrentTime and Radio Farda are appropriately constructed. As part 
of my thorough review of USAGM operations and products, referred to 
above, I will certainly be looking closely at these initiatives. I will 
most certainly report back to you after I assess their missions and 
current structures, if confirmed.

    Question. Do you believe network and grantee heads should have 
editorial independence? How do you plan to enforce this? How do you 
plan to handle disputes should they arise?

    Answer. As USAGM CEO, I would be required to ``respect the 
professional independence and integrity'' of USAGM's broadcasting 
services and grantee broadcasters. As I have stated, I believe that 
USAGM broadcasting entities' credibility rest on the belief that the 
reporters at all the networks are independent and free of political 
interference, without anyone telling them how to slant the news. As I 
said at the hearing, in response to a question of yours, if someone in 
the government or elsewhere tried to direct the coverage of USAGM 
journalists, it would be my responsibility to say ``no.''

    Question. How do you see the missions differing between the 
grantees and the networks of USAGM?

    Answer. While the overall mission for all USAGM networks remains 
the same, ``to inform, engage, and connect people around the world in 
support of freedom and democracy,'' the approach differs greatly 
between the federal organizations and the grantees. The Voice of 
America (VOA) has the primary role of telling America's story 
throughout the world, and it does so as a federal broadcaster while the 
grantees serve as local independent media, focusing primarily on 
domestic news for areas where accurate, timely local news and 
information is otherwise unavailable.

    Question. Do you believe this structure is the best way for each of 
these entities to pursue their missions?

    Answer. As I mentioned at my hearing, ``The hope was that a CEO 
would provide the leadership and vision to ramp up the impact of the 
five broadcasting entities and to create a more effective U.S 
international broadcasting effort on the world stage. That won't be 
easy or fast. I will confer extensively with the talented and dedicated 
men and women of USAGM and will consult with all stakeholders, 
including here in Congress.'' Part of that process would be to examine 
and evaluate the current management structure and practice, in every 
aspect--but that does not mean, necessarily, a change in structure. Any 
change would involve a good deal of consultation, including with 
Congress.

    Question. The Office of Cuba Broadcasting has an important mission 
of bringing free and independent media to a population under 
totalitarian control. Recently, as I hope you are aware, there have 
been a number of incidents that have potentially compromised its 
mission. What do you think is the best path forward for the Office of 
Cuba Broadcasting?
    As I stated in my written testimony, if confirmed, I will address 
the scandals hampering USAGM. These are just a few of the scandals 
reported, and I will make certain that the Agency is doing everything 
it can to make sure such scandals cease and put processes in place to 
prevent such situations in the future. Doing so will inevitably 
contribute to making USAGM more effective.
    I have read the USAGM's May 21st report ``Embarking on Reform of 
the Office of Cuba Broadcasting,'' which resulted, in part, to the 
incidents to which you refer. I was very impressed by the report: the 
sterling qualifications of its panelists, the depth of its analysis, 
and its concern to be fair. However, it would be premature for me to 
endorse its conclusions. If confirmed, I would need to look into the 
situation at OCB for myself, as part of my overall review of USAGM's 
work, and confer with the concerned parties and stakeholders as well as 
USAGM staff and the reports panelists.

    Question. What is your plan for technological upgrades for the 
Agency?

    Answer. In my briefing by USAGM staff, I have been made aware of an 
existing proposal being considered at USAGM for technological upgrades. 
Before committing--or dismissing--an existing plan based on limited 
knowledge of the needs or the specifics of the plan itself, I commit to 
evaluate the strategy currently under consideration based on the needs 
of the Agency and the broadcasters.

    Question. In the context of whole of government efforts, what role 
do you think the USAGM has to play in countering disinformation, 
Russian or otherwise?

    Answer. Before proposing changes to current broadcasting strategy 
for countering disinformation or foreign propaganda, I would assess to 
what extent the five USAGM networks are successfully achieving the 
Agency's statutory responsibility, mission and strategic goals by 
meeting with the leadership and staff of each and fully investigating 
the implementation realities.

    Question. How do you plan to address annual performance reviews?

    Answer. As I said in my hearing, one of my three goals is ``to 
raise employee morale at the Agency. USAGM consistently ranks at or 
near the bottom in surveys of mid-sized Agencies in terms of morale. I 
will make it a priority to change that.'' Properly implementing and 
responding to annual performance reviews is an important part of 
restoring morale. Without clear expectations, individuals cannot strive 
for personal or professional success.

    Question. How do you asses the success of relatively new 
initiatives like CurrentTime and Radio Farda? Do you think these are 
appropriately constructed and what do you view as their fundamental 
missions?
    Based on the information I have received from USAGM leadership, 
CurrentTime is available through 92 distributors in 20 countries, and 
world-wide via over-the-top (OTT) media services and online. Individual 
Current Time programs are available in 14 countries via more than 50 
affiliates, including nine inside Russia. Current Time's digital 
products and strong social media presence have helped tap into key 
markets. In 2018, the network logged more than 520 million online 
views--more than half from inside Russia, an increase from 2017 of 30 
percent.
    Radio Farda has partnered with the Voice of America in the launch 
of its global Farsi-language digital network, VOA365. This is an effort 
to reach Farsi-speaking audiences globally and utilize their social 
networks to share information back into Iran, as well as reaching 
USAGM's traditional audiences in Iran. According to a 2018 national 
survey of Iran managed by Gallup on behalf of USAGM, 15.7% of Iranian 
adults use Radio Farda weekly. 76.8% of past-week listeners told Gallup 
that they trust Radio Farda as a news source; the figure rises to 83.8% 
when asking multi-platform Farda users. Through briefings, I've been 
told that despite a government ban, Farda logged a monthly average of 
12.2 million visits to its website and almost 22 million-page views. 
Almost two-thirds of all website traffic originated inside Iran. Farda 
has more than 3.5 million combined followers on Facebook, Instagram, 
Twitter and Telegram.
    I have been very impressed by all the data I have received about 
these initiatives. But, based on what I know now, I cannot fully assess 
if CurrentTime and Radio Farda are appropriately constructed. As part 
of my thorough review of USAGM operations and products, referred to 
above, I will certainly be looking closely at these initiatives. I will 
most certainly report back to you after I assess their missions and 
current structures, if confirmed.

    Question. Do you believe network and grantee heads should have 
editorial independence? How do you plan to enforce this? How do you 
plan to handle disputes should they arise?

    Answer. As USAGM CEO, I would be required to ``respect the 
professional independence and integrity'' of USAGM's broadcasting 
services and grantee broadcasters. As I have stated, I believe that 
USAGM broadcasting entities' credibility rest on the belief that the 
reporters at all the networks are independent and free of political 
interference, without anyone telling them how to slant the news. As I 
said at the hearing, in response to a question of yours, if someone in 
the government or elsewhere tried to direct the coverage of USAGM 
journalists, it would be my responsibility to say ``no.''

    Question. How much did Manifold Productions, LLC receive from the 
Claremont Institute for fundraising?

    Answer. Manifold Productions, Inc. was paid a monthly fee of $6,250 
per month to provide development and fundraising services to the 
Claremont Institute, a fee in line with that paid other entities 
providing development and fundraising services to Claremont.

    Question. Did Claremont's board convene to review the contract with 
Manifold and determine whether it was the best choice for fundraising 
and whether the terms and conditions were at no more than fair market 
value?

    Answer. Claremont's Board of Directors' Compensation Committee 
reviewed the contract. Although I was an ex officio member of the 
Compensation Committee, I absented myself from that entire committee 
meeting and review. I personally did not advocate for the contract, had 
no involvement in the negotiations of the contract, and did not review 
the contract. I also refrained from any role in the approval of the 
contract by Claremont. Once the contract was approved by Claremont, I 
refrained from the ongoing evaluation and enforcement of the contract.

    Question. Why did you not recuse yourself from any involvement in 
the contract with Manifold?

    Answer. By not attending the meeting of Claremont's Board of 
Directors' Compensation Committee and by not having any involvement in 
the review of the contract (as mentioned in the answer above), I in 
effect recused myself. I removed myself from the entire process of the 
consideration and approval of the contract. Once the contract was 
approved by Claremont I refrained from the ongoing evaluation and 
enforcement of the contract.

    Question. What fundraising services did Manifold perform for the 
Claremont Institute? Had Manifold ever performed fundraising services 
for any other organization prior to its contract with the Claremont 
Institute?
    The services performed by Manifold for Claremont included the 
following: (i) event planning support, (ii) developing relationships 
with high capacity donors, (iii) maintaining and increasing donations 
of existing donors, (iv) overall support to the development department 
such as expanding client profiles for inter-departmental communication, 
and(v) administrative support, particularly for the newly opened 
Washington, DC offices of Claremont.
    The Manifold contract with Claremont required the services of Gina 
Cappo Pack. Before joining Manifold in 1987, Mrs. Pack worked 
extensively in marketing and new product development in New York. At 
Manifold, Mrs. Pack helped raise millions of dollars for documentary 
and educational film projects. In addition, she volunteered for close 
to eight years as part of a fundraising team for Annual Giving for the 
St. Albans School in Washington, DC.
    As a result of the Manifold contract Claremont maintained and 
increased the giving of existing donors in the seven figures, 
cultivated relationships with new donors in the six figures, and 
Claremont's Washington, DC office was successfully launched and 
established.

    Question. Why were you provided a severance package of nearly 
$130,000 from the Claremont Institute?

    Answer. To answer this question more fully and provide some 
context, I have incorporated the answer to this question into the 
answer to the following question.

    Question. Please describe the circumstances of your departure from 
the Claremont Institute. If you were asked to leave the Claremont 
Institute, please explain why.

    Answer. My departure from the Claremont Institute was a mutual 
decision. The Board of Directors and I decided to end my contract with 
Claremont early. For me, it made sense to return to Washington DC full 
time. My employment contract with Claremont contained certain severance 
and other obligations and the Board honored those contractual 
obligations. To this date, I remain a Senior Fellow of the Claremont 
Institute.

    Question. Who are the other officers/members of Manifold?

    Answer. As of this date, these are the officers of Manifold 
Productions, Inc.: Michael Pack, President; Gina Cappo Pack, Secretary/
Treasurer.

    Question. What is Public Media Lab's purpose? How has Public Media 
Lab fulfilled that purpose?

    Answer. The purpose of the Public Media Lab (PML) is to: receive 
grants and funding to develop, promote, and support educational 
documentary films and filmmakers, and to conduct related public 
education and information activities in the United States and abroad; 
engage in other charitable and educational activity as determined by 
the Board of Directors consistent with the mission of PML; and, assist 
and support other charitable and educational organizations in the 
conduct of similar activities.
    To fulfill this purpose, PML supports the production of educational 
documentary films; provides advice and counseling to young, up and 
coming filmmakers, such as reviewing treatments, production budgets, 
rough cuts and other materials; advises other foundations about how to 
make successful grants to documentary filmmakers; and endeavors to 
involve leaders in public media, academia and other nonprofits to 
collaborate and support training programs in the arts and humanities.

    Question. How many awards has Public Media Lab made to Manifold? 
How much do those awards add up to?

    Answer. Manifold and PML together approach a third-party funder to 
support a documentary film project. The grant is given by the funder to 
PML, and Manifold produces the film in accordance with the proposal and 
the grant agreement. PML serves as the fiscal agent and manager of the 
film project in accordance with the grant agreement. From 2008 through 
2019, Manifold and PML developed seven projects, and received 38 
grants, totaling $4.28 million.

    Question. Has Public Media Lab ever made awards to any recipients 
besides Manifold? How much do those awards add up to?

    Answer. PML has offered its services as a fiscal agent and manager 
to several other filmmakers. For example, PML formally applied to the 
National Endowment for the Humanities for a film project to be produced 
by another film company, but the project was not selected by the NEH 
for a grant. While there have yet to be occasions for PML to perform 
fiscal agent and manager services for other filmmakers besides 
Manifold, PML continually looks for projects that can further fulfill 
its mission. PML also continues to look for opportunities to launch 
other initiatives to further its mission.

    Question. What percentage of the nearly $800,000 grant from the 
Sloan Foundation to Public Media Lab was subsequently awarded by Public 
Media Lab to Manifold?

    Answer. As is customary, the Public Media Lab grant application to 
the Sloan Foundation identified Manifold as the production company for 
the film described in the application. The grant application and 
proposal to the Sloan Foundation from PML stated that the entire grant 
would support the production of a documentary about Admiral Rickover, 
father of the Nuclear Navy, which was distributed by the Public 
Broadcasting Service (PBS).

Political Targeting
    Question. As you know, there have been troubling reports of 
targeting and retaliation against career employees in this 
Administration, based on their perceived political affiliation or work 
on policy initiatives under the previous administration.

   Do you agree that such actions have no place in federal government?

    Answer. Yes, I do.

    Question. If confirmed, do you commit to familiarize yourself with 
these allegations, including reading the recent Inspector General 
report regarding the International Organizations Bureau in the State 
Department?

    Answer. Yes, I do.

    Question. What will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. Pursuant to statutory and regulatory guidelines, I will 
ensure that all personnel practices are followed without exception. I 
will work with the Office of Personnel Management, USAGM human 
resources, and general counsel's office. I will employ a zero tolerance 
regarding targeting and/or retaliation of any kind.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by any member of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I do agree. Pursuant to statutory and regulatory 
guidelines, I will ensure that all personnel practices are followed 
without exception. I will work with the Office of Personnel Management, 
USAGM human resources, and general counsel's office. I will employ a 
zero tolerance regarding targeting and/or retaliation of any kind.

                               __________


            Responses to Additional Questions for the Record
           Submitted to Michael Pack by Senator John Barrasso

    Question. In your opinion, is the United States Agency for Global 
Media (USAGM) effectively promoting U.S. foreign policy goals and 
national security interests?

    Answer. From my view as a private citizen, USAGM could be more 
effective in the promotion of U.S. foreign policy goals and national 
security interests, in the very broad sense that such promotion is an 
existing goal of USAGM. However, I am not privy to any interagency 
communications on strategy and programs. It is important to note, 
however, as I communicated in my written testimony and during my 
committee hearing, one of my three goals, if confirmed as CEO, would be 
to make the Agency more effective. ``The hope was that a CEO would 
provide the leadership and vision to help ramp up the impact of the 
five broadcasting entities and to create a more effective U.S 
broadcasting effort on the world stage. Fulfilling that hope won't be 
easy or fast. I will confer extensively with the talented and dedicated 
men and women of USAGM and will consult with all stakeholders, most 
definitely including here in Congress.''

    Question. Are there better and more cost efficient ways for the 
United States to be get our message out across the globe?

    Answer. As I said at my hearing, one of my first orders of business 
will to ``confer extensively with the talented and dedicated men and 
women of USAGM and will consult with all stakeholders, including here 
in Congress.'' Once I conduct a thorough review, I be able to assess 
what USAGM is doing now and whether there is a better and more cost-
efficient way to get our message out.

    Question. What is the USAGM's broadcasting strategy for countering 
foreign propaganda from countries like China and Russia?

    Answer. I have been told in my briefings by the Agency that in 
underserved and information-denied areas, USAGM seeks to introduce 
services in selected new languages; serve as a conduit for the 
transmission of reporting from inside closed societies lacking press 
freedom to outside audiences; ensure strong local news coverage, as 
warranted by events, to meet urgent audience needs in areas of crisis; 
and draw on the experiences of the world's many models of free 
societies. In Russia, USAGM broadcasts in Russian through the Voice of 
America and Radio Free Europe/Radio Liberty, along with hyper-local 
websites in languages like Tatar-Bashkir. In China, USAGM broadcasts in 
Mandarin, Cantonese, Uighur, and Tibetan. USAGM also supports two fact-
checking websites in Russian and English, called Factograf and 
Polygraph respectively, that call out and investigate disinformation 
campaigns.

    Question. What changes would you make to current USAGM's 
broadcasting strategy for countering foreign propaganda?

    Answer. Before proposing changes to current broadcasting strategy 
for countering foreign propaganda, I would assess how successful five 
USAGM networks are in achieving the Agency's statutory responsibility, 
mission and strategic goals by meeting with the leadership and staff of 
each and fully investigating their current efforts.

    Question. How should the USAGM coordinate with other government 
agencies who are also working on countering foreign propaganda and 
disinformation like the Global Engagement Center in the States 
Department?

    Answer. USAGM should communicate regularly with other government 
agencies on its strategy and programs while protecting the professional 
integrity of its cadre of journalists, consistent with the Agency's 
current practices.

    Question. How would you ensure all U.S. international broadcasting 
is being consistent with the broad foreign policy objectives of the 
United States and counterbalancing antiAmerican sentiment?

    Answer. If confirmed, I would confer regularly with the State 
Department and other government agencies who have a role in U.S. 
foreign policy, including Congress. I understand this is USAGM's 
current policy. This process will ensure that USAGM targets its 
resources strategically to provide accurate and credible news and 
information for audiences impacted by state-sponsored disinformation. I 
understand USAGM currently conducts mandated annual language service 
reviews that evaluate all broadcast languages, and potential languages, 
with input from the State Department and others.
    ``Telling America's story'' truthfully and fairly is the best way 
to counter anti-American sentiment. The principles and ideals of this 
country, toward which we strive however imperfectly, should be a light 
to all nations.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Michael Pack by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a documentary filmmaker, I have spent my career 
``telling America's story,'' which includes human rights and democracy. 
This may be most evident in our two films on founding fathers, 
Rediscovering George Washington and Rediscovering Alexander Hamilton, 
but it is a theme throughout my work. Since my fifteen plus films have 
been nationally broadcast to high ratings and excellent review, as well 
as used extensively in schools, I believe the impact is significant.
    These values underlie all my other work as well, including serving 
as Senior Vice President for Television Programming at the Corporation 
for Public Broadcasting; at the National Council on the Humanities; 
President and CEO of The Claremont Institute; and Director of WORLDNET, 
then the U.S. Information Agency's global satellite network. For 
example, while at CPB, I launched two major initiatives. The first was 
America at a Crossroads, a series of prime-time documentaries examining 
challenges facing America after September 11th, from a variety of 
perspectives. Many of these films dealt directly with issues involving 
democracy and human rights. The second was the History and Civics 
initiative, employing all media, from traditional TV to video games, to 
address middle and high schoolers' declining knowledge of our nation's 
past-including the nature of American democratic values.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Broadcasting Board of Governors?

    Answer. As a manager, supervisor, and CEO--if confirmed--I will 
continue to expect that not only policies be in place to mentor and 
support a diverse staff, but that every manager and supervisor embrace 
a culture of diversity. I value each person contributing to the success 
of the organization, and I expect my employees to do the same. In 
addition to the legal responsibility, I see it as a human 
responsibility.

    Question. What steps will you take to ensure each of the 
supervisors in the Broadcasting Board of Governors are fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I will review the policies and procedures in 
place now regarding diversity and inclusion and will work with USAGM 
leadership to strengthen them and effectively implement them.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the Broadcasting Board of Governors) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. Yes, I do.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

Technology
    Question. What, in your opinion, is the best mix of technologies to 
use in broadcasting to countries with repressive governments? Should 
USAGM be focused primarily on increasing audience size with its 
platform choice, or on increasing the resilience of such broadcasting 
against government interference and tracking?

    Answer. The complement of countries targeted by the USAGM 
represents the most diverse mix of media markets in existence. As such, 
the mix of technological solutions deployed by the USAGM needs to craft 
each country's distribution tactics with the needs, desires and 
capabilities of each country-including those with highly repressive 
governments. In some cases, for example North Korea and Cuba, 
increasing the resilience of our broadcasting is particularly 
important.

Importance of Professional Independence and Integrity
    Question. As USAGM CEO, you would be required to ``respect the 
professional independence and integrity'' of USAGM's broadcasting 
services and grantee broadcasters.

   As a presidential appointee statutorily required to seek guidance 
        from the Secretary of State, do you see any potential problems 
        carrying out this requirement?

    Answer. I do not anticipate problems. There would be a problem if 
the Secretary of State, or anyone else, tried to direct the coverage of 
USAGM journalists. As I said to Senator Menendez at my hearing, it 
would be my responsibility to say ``no.''

    Question. How do you plan to meet this requirement while at the 
same time promoting the foreign policy goals of the United States?

    Answer. As I said at my hearing, if confirmed, I will communicate 
and consult with all stakeholders--including the State Department and 
including Congress--and confer extensively with the talented and 
dedicated men and women of USAGM. I believe that you can both maintain 
the independence and integrity of the journalists working for USAGM and 
also promote the broad foreign policy goals of the United States-and 
both are stated goals of USAGM.

Importance of Complete and Balanced Coverage
    Question. U.S. international broadcasters are required under U.S. 
law to provide complete and balanced coverage that examines all sides 
of important issues and related U.S. government policies, not just the 
official U.S. government position, and to provide an opportunity for 
debate on such issues and policies in their programming.

  Should U.S. international broadcasters fashion their reporting to 
        promote U.S.interests?

    Answer. Reporters and journalists are independent and should not be 
told to slant their coverage. This does not conflict with the USAGM's 
mission of supporting freedom and democracy and communicating America's 
democratic experience and values.

    Question. If not, do you agree that U.S. international media can 
only be successful if the broadcast entities act as objective providers 
of information?

    Answer. USAGM's media need to be objective, fair, and without bias-
and to be perceived that way. To ensure that result, journalists must 
employ the highest level of professional standards, ethics, and 
accountability.

    Question. Should other U.S. foreign policy actors, including the 
State Department, have a greater say in directing or coordinating U.S. 
international media?

    Answer. As I stated above, if confirmed, I will regularly consult 
with all stakeholders, include the State Department and the Senate 
Foreign Relations Committee, as is current USAGM practice.

Issues with Office of Cuba Broadcasting
    Question. In 2018 reports surfaced that the Office of Cuba 
Broadcasting had disseminated a story attacking George Soros that was 
deemed anti-Semitic and ``unjournalistic.'' Other stories targeting the 
Cuban population included an opinion piece decrying the 
``Islamization'' of Europe and its threat to the United States. It was 
reported on February 27, 2019 that USAGM is seeking to terminate the 
employment of eight journalists, editors, and anchors in response to 
these broadcasts.

 What steps can be taken by USAGM to better protect against such 
        lapses in journalistic standards, and what will be your 
        approach to prevent and respond to these types of problems 
        across the broadcasters you supervise?

    Answer. As I stated in my written testimony, if confirmed, I will 
address the scandals besetting USAGM. This is just one of the scandals 
reported. I will make certain that the Agency is doing everything it 
can to make sure such scandals cease and put processes in place to 
prevent such situations in the future. Doing so will inevitably 
contribute to making USAGM more effective.

Countering Russian Propaganda
    Question. Congress has authorized substantial funding to counter 
foreign propaganda, especially messaging from Russia, including 
creating the Countering Russian Influence Fund, and expanding the 
mandate of the Global Engagement Center in the State Department, 
significantly increasing its available resources. Meanwhile, USAGM has 
increased resources and created targeted programming to counter Russian 
messaging.

  How does USAGM coordinate with other government agencies to best 
        counter foreign propaganda?

    Answer. Based my briefings by USAGM staff, USAGM conducts a 
mandated annual language service review that evaluates all broadcast 
languages, and potential languages. The State Department provides its 
input to USAGM on this process and how these languages fit into the 
foreign policy priorities of the Department.

    Question. Do you believe USAGM should have a larger role, or more 
resources from Congress, to meet the challenge presented by such 
foreign messaging?

    Answer. I would need to conduct a thorough review of the current 
operations before I had an informed opinion on whether USAGM should 
change its strategy or seek more resources to counter foreign 
propaganda. However, I reaffirm what we discussed during our meeting, 
and again stated during my hearing, that you will hear from me often.

Countering Propaganda (General)
    Question. USAGM has been criticized for a perceived failure in some 
cases to counter propaganda from certain countries of vital interest to 
U.S. foreign policy, including Russia and China.

 In your opinion, has USAGM been deficient in meeting these 
        challenges, and if so, what must USAGM do to improve 
        broadcaster effectiveness in these and other places?

    Answer. As I said in my oral testimony, ``my mission will be to 
make the Agency more effective. There was bi-partisan support to create 
this new CEO position. The hope was that a CEO would provide the 
leadership and vision to ramp up the impact of the five broadcasting 
entities and to create a more effective U.S international broadcasting 
effort on the world stage. That won't be easy or fast. I will confer 
extensively with the talented and dedicated men and women of USAGM and 
will consult with all stakeholders, including here in Congress.'' 
However effective USAGM has been to date, my mission, if confirmed, 
would be to make it more effective.


    Question. What, in your opinion, is the best mix of technologies to 
use in broadcasting to countries with repressive governments?

    Answer. The complement of countries targeted by the USAGM 
represents the most diverse mix of media markets in existence. As such, 
the mix of technological solutions deployed by the USAGM needs to craft 
each country's distribution tactics with the needs, desires and 
capabilities of each country. Accomplishing my goal to increase USAGM's 
effectiveness will involve evaluating the mix of technologies.

    Question. Should USAGM be focused primarily on increasing audience 
size with its platform choice, or on increasing the resilience of such 
broadcasting against government interference and tracking?

    Answer. I am confident USAGM can do better in terms of both 
increasing audience size and increasing resilience, especially in 
countries like Cuba and North Korea where circumventing government 
interference and tracking is especially important.

Firewall
    Question. While the ``firewall'' represented by the former 
Broadcasting Board of Governors is no longer in place legislatively, 
the U.S. International Broadcasting Act of 1994 still requires U.S. 
international broadcasting to meet standards and principles of 
journalistic integrity and independence.

  How do you plan to ensure these standards and principles are 
        upheld?

    Answer. I expect the thousands of journalists representing the 
USAGM broadcasting entities to practice the highest standards of 
professional journalistic ethics, accountability, and integrity. If 
confirmed, I will ensure management processes are in place at the 
Agency to support the intent of the U.S. International Broadcasting Act 
of 1994.

Separate Missions
    Question. As you know, U.S. international media operates under a 
bifurcated mission, with VOA informing the world about the United 
States and its policies, and the surrogate broadcasters taking the role 
of an otherwise absent free media.

  In your view, why maintain these separate missions?

    Answer. As I mentioned in my hearing and above, I will conduct a 
thorough review of existing practices and operations in consultation 
with stakeholders and USAGM leadership and staff. While I have no plans 
to make any structural changes, the question of how the five 
broadcasters should coordinate their missions will be part of the 
process of review and evaluation.

    Question. Do you believe that U.S. international media can only be 
successful if the broadcast entities act as objective providers of 
information, or should U.S. international broadcasters fashion their 
reporting to promote U.S. interests?

    Answer. USAGM can both provide objective information and promote 
U.S, interests. Far from being an either/or proposition, the two goals 
are very compatible. I understand that the current leadership USAGM is 
explicitly dedicated to achieving both goals. I also believe that 
maintaining both the reality and perception of USAGM media as 
objective, fair, and non-biased is essential to the success of the 
agency-it is its bedrock.

    Question. Should other U.S. foreign policy actors, including the 
State Department, have a greater say in directing or coordinating U.S. 
international media?

    Answer. I have been informed in my staff briefing that USAGM 
regularly communicates and coordinates with the State Department and 
other foreign policy actors, while maintaining the independence of its 
broadcasters. I do not see any reason to change that balance.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Michael Pack by Senator Jeanne Shaheen

    Question. Access to online sources of information is crucial, 
especially in a closed society where information is carefully 
controlled by the government. The USAGM plays an important role in 
supporting internet freedom and anti-censorship activities by funding 
the activities and operation of tools used to evade the Chinese 
firewall and all other such barriers to unfettered internet access 
throughout the world. Will you commit to making circumvention of 
internet firewalls a priority and provide immediate funding to add 
capacity to field-tested systems by increasing IP addresses and 
servers?

    Answer. As I mentioned to you in our brief discussion at my 
hearing, I consider internet freedom of vital national importance. In 
fact, I can think of few greater blows for freedom worldwide than 
successfully circumventing firewalls in closed societies, especially 
China but others as well. If confirmed, I will definitely commit to 
making it a priority, and I will rapidly review what is currently being 
done at USAGM in this area and how it can be improved.

    Question. Mr. Pack, over the last three years we have heard 
repeated complaints that the USAGM/BBG has smeared, and eventually 
defunded the most effective tools for evading the Chinese firewall and 
all other such barriers to unfettered Internet access throughout the 
world. This has left millions in China, Vietnam, Iran, and other closed 
societies unable to evade their country's firewalls. Will you commit to 
investigating these allegations, and if true remedy the situation?

    Answer. Yes, I will commit to investigating these allegations and 
correcting any problems.

    Question. I am concerned that USAGM will focus on preserving the 
old radio broadcast model of communicating with individuals in closed 
societies rather than embracing the power of a free Internet to 
accomplish agency goals. What is your vision of the role that internet 
freedom and firewall circumvention should play in fulfilling the 
USAGM's mission to ``inform, engage and connect with people around the 
world in support of freedom and democracy?'' How do you plan to counter 
these outdated and change-resistant forces at the USAGM?

    Answer. The opportunity to provide internet access to citizens 
operating behind firewalls in places like China, Iran, Vietnam and 
other countries dominated by autocratic regimes, is one of the best 
opportunities to truly implement the USAGM's charter. While I do 
believe that radio broadcasts are still effective in certain very 
closed regimes or where FM is still viable, I also understand that the 
media consumption patterns throughout the world continue to change with 
increased opportunities on digital platforms including Mobile, Social 
Media, Web, and Digital Television. I will explore those opportunities 
to maximize USAGM's effectiveness.

    Question. Since 2014, Congress has directed USAGM/BBG spend a 
minimum of $25 million of its annual nearly $800 million appropriation 
on firewall circumvention technologies to promote democracy in closed 
societies. However, USAGM has consistently spent less than $10 million 
on these technologies. Will you pledge to spend not less than $25 
million to fund existing field tested, scalable circumvention 
technologies that provide access to millions of users daily, and to do a
so on an annual basis?

    Will you commit to investigating concerns that USAGM/BBG has not 
        adequately funded some of the most effective tools for evading 
        the Chinese firewall and other firewall circumvention tools, 
        and if true remedy the situation?

    Answer. Yes. I have heard those reports myself and, if confirmed, I 
will ensure that we quickly assess the situation, establish 
accountability and swiftly remedy the situation.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Michael Pack by Senator Edward J. Markey

The Mission of U.S. Agency for Global Media
    Question. The U.S. International Broadcasting Act of 1994 requires 
U.S. international broadcasting to meet standards and principles of 
journalistic integrity and independence.

   How do you plan to ensure these standards and principles are upheld 
        at the U.S. Agency for Global Media (USAGM), if confirmed?

    Answer. I expect each reporter at the five USAGM broadcasting 
entities to embrace the standards and principles of journalistic 
integrity and independence with the utmost professionalism. Any lapse 
will be addressed and rectified immediately.

    Question. Will you respect the professional independence and 
integrity of the agency's broadcasting services and grantee 
broadcasters? Specifically, how will you ensure their professional 
independence and integrity?

    Answer. Yes. I believe that USAGM broadcasting entities' 
credibility rest on the belief that the reporters at all the networks 
are independent. As I stated during the committee hearing last week, 
the Agency would be completely undermined if there were political 
influence telling these journalists how to report the news and what to 
say.

    Question. Should the State Department have a greater say in 
coordination in at USAGM, or will you maintain the independence, 
substantive balance and integrity of the agency's broadcasting services 
and grantee broadcasters?

    Answer. If confirmed, I will most certainly maintain the 
independence, substantive balance and integrity of USAGM's federal 
broadcasters and grantees while communicating and coordinating with the 
State Department and other stakeholders and partners, as is the current 
practice.

    Question. Do you believe U.S. international media can only be 
successful if the broadcast entities act as objective providers of 
information, or should U.S. international broadcasters fashion their 
reporting to promote U.S. interests?

    Answer. I believe USAGM can provide objective information while 
promoting our nation's interests. Far from being and either/or 
proposition, the two goals are very compatible. I understand that the 
current leadership USAGM is explicitly dedicated to achieving both 
goals.

    Question. At the moment, the USAGM CEO is required to seek guidance 
from the Secretary of State. Do you think there are potential problems 
fulfilling this requirement? How do you plan to reconcile this 
requirement while at the same time promoting the foreign policy goals 
of the United States?

    Answer. I do not see this as a potential problem. If confirmed, I 
will confer regularly with the State Department as well as other 
stakeholders, including the Senate Foreign Relations Committee. A 
problem would only arise if the Secretary of State, or anyone else, 
tried to direct the coverage of USAGM journalists. As I said at my 
hearing, it would be my responsibility to say ``no.''

                               __________


              Letters Submitted Supporting Hon. Marshall 
                        Billingslea's Nomination

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 16, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.



    The committee met, pursuant to notice, at 2:05 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the committee, presiding.
    Present: Senators Gardner, Barrasso, Young, Shaheen, and 
Markey.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. The committee will come to order.
    Welcome, all, to today's full committee hearing on 
nominations. We have a full slate today with five nominees for 
very important posts, including three nominees for 
ambassadorships in the Indo-Pacific region. I am grateful for 
these nominees and their families who are here with us today, 
for their willingness to serve and sacrifice on behalf of our 
great country.
    Senator Markey is a bit delayed today, but with his 
permission, we will go ahead and begin with the testimonies 
from the nominees and he will deliver his opening statement 
upon arrival.
    But before we get into the nominees, I know Senator Young 
is here with an introduction. Senator Young, why do you not 
proceed with your introduction.

                 STATEMENT OF HON. TODD YOUNG,
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman. It is an 
honor to introduce Michael DeSombre today.
    Mr. DeSombre has spent the past 20 years living and working 
in Hong Kong. So he is well versed in how to get things done in 
Asia. Mr. DeSombre began gathering his knowledge of Asia as he 
studied quantitative economics, then East Asian studies at 
Stanford University. He went on to study at Harvard Law School 
where he graduated magnum cum laude.
    In addition to his academic work on law and economics, he 
has also mastered speaking Mandarin, which is very impressive 
for someone who is still working on English. Right?
    [Laughter.]
    Senator Young. Speaking Chinese has opened a number of 
doors for Mr. DeSombre. It has given him a unique position in 
his business interactions. He is an expert on mergers and 
acquisitions and a partner in the law firm of Sullivan and 
Cromwell since 2004. He has honed his negotiation skills, 
representing U.S. businesses opposite Chinese and other 
counterparties.
    Needless to say, having someone with Mr. DeSombre's 
extensive Asia experience, living and working throughout the 
region will serve the United States very, very well in 
Thailand.
    What also sets Mr. DeSombre apart from others in his 
efforts to give back to others is he serves on several boards 
that do meaningful and important work in Asia. As a board 
member of the Hong Kong Forum, he has sought to promote greater 
interaction and sharing of ideas between scholars and 
policymakers worldwide. As we look at the news coming out of 
Hong Kong right now, there is no question we need better 
dialogue to help resolve the crisis there.
    Mr. DeSombre has also been on the board of Save the 
Children Hong Kong since 2015. In that role, he has furthered 
the organization's goal of becoming more professional and 
responsive to the important mandate of helping each child 
achieve their full human potential.
    I am grateful he has accepted the call to serve his 
country. I know it is something that he and his wife discussed 
even before they were married. And his lovely bride is present 
today with three of his four children. I know they are all very 
proud of him. We are grateful for his desire to serve, his 
heart for service. We know he will be a true asset to the State 
Department, to the President, and to the nation.
    I look forward to supporting his nomination before this 
committee and on the Senate floor.
    Mr. Chairman, I yield back.
    Senator Gardner. Thank you, Senator Young. Thank you very 
much for that kind introduction.
    I am going to go ahead and introduce each and every one of 
the other witnesses before we begin with the testimony. So I 
will go ahead and start. Since Mr. DeSombre has already been 
introduced graciously by Senator Young, I will begin with the 
introduction of Ms. Cantor.
    Our next witness is Ms. Carmen Cantor, nominated to serve 
as Ambassador to the Federated States of Micronesia. Ms. Cantor 
is a career member of the Senior Executive Service and 
currently serves as Director of the Civil Service Human 
Resource Management at the Department of State.
    Previously Ms. Cantor served in various roles within the 
Department of State, including as the Executive Director of the 
Bureau of Educational and Cultural Affairs and Bureau of 
International Information Programs and as Executive Director of 
the Bureau of Counterterrorism.
    Welcome to the committee, and thank you very much for your 
service.
    Our next witness is Ambassador Kelley Eckels Currie, who is 
nominated to serve as Ambassador at Large for Global Women's 
Issues. Ambassador Currie currently serves as Deputy to the 
Ambassador-at-Large and Senior Bureau Official at the Office of 
Global Criminal Justice.
    From 2017 to 2019, she served as U.S. Representative to the 
Economic and Social Council at the U.S. mission to the United 
Nations.
    Thank you. Welcome back, Ambassador Currie. Thank you for 
your service as well.
    Ambassador Kim, our next witness nominated to serve as the 
Ambassador to Indonesia. Ambassador Kim is a career member of 
the Senior Foreign Service and currently serves as Ambassador 
to the Philippines. Ambassador Kim has an extensive history of 
public service, including as Ambassador to the Republic of 
Korea, Special Envoy for the Six Party Talks, Director of the 
Office of Korean Affairs, Special Representative for North 
Korea Policy, and Deputy Assistant Secretary of State in the 
Bureau of East Asian and Pacific Affairs.
    Welcome back, Ambassador Kim, and thank you for your long 
and distinguished career.
    And our final witness today is Mr. Morse Tan, who is 
nominated to serve as Ambassador at Large for Global Criminal 
Justice. Mr. Tan is an associate professor and professor of law 
at Northern Illinois University College of Law.
    Previously, he served as an assistant associate professor 
of law at Florida Coastal School of Law and visiting professor 
of law at the University of St. Thomas and a visiting scholar 
at both the University of Texas Law School and Northwestern 
University Pritzker School of Law.
    Welcome to you as well, and thank you, all of you, for your 
willingness to serve.
    So we will go ahead and begin with Ms. Cantor, if you would 
like to start. But I would remind all witnesses that we have a 
long day of this panel, as well as a subcommittee hearing 
following this, and in the middle somewhere, there are a number 
of votes that are about to occur beginning at 4:00 or so. I 
would kindly ask that you limit your testimony, your remarks to 
no more than 5 minutes. Your full written statement obviously 
will be made a part of the record.
    With that, Ms. Cantor, you may begin.

STATEMENT OF CARMEN G. CANTOR, OF PUERTO RICO, A CAREER MEMBER 
OF THE SENIOR EXECUTIVE SERVICE, TO BE AMBASSADOR EXTRAORDINARY 
  AND PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                 FEDERATED STATES OF MICRONESIA

    Ms. Cantor. Thank you very much, Mr. Chairman and 
distinguished members of this committee. I am honored to appear 
before you today as the President's nominee to be the next 
United States Ambassador to the Federated States of Micronesia, 
the FSM.
    I am grateful for the confidence that President Trump and 
Secretary of State Pompeo have placed in me with this 
nomination.
    If confirmed, I pledge to do my utmost to uphold this trust 
and to advance our nation's interests in the FSM and in the 
vital Indo-Pacific region.
    Over the past 29 years, I have been privileged to serve our 
nation in different roles and agencies: the Postal Service, the 
Federal Maritime Commission, the Foreign Agricultural Service, 
and the Department of State. Any measure of success that I 
achieved during these appointments would not have been possible 
without the support of my family. So I would like to start by 
expressing my heartfelt gratitude to them.
    I come from a very large Puerto Rican family. My father, an 
Army veteran, is one of 18 siblings. My mother is one of nine 
siblings. I have one sister and many uncles, aunts, and 
cousins. I will not name them all, but I do want to recognize 
my husband Carlos, a public servant at the Postal Service and 
Department of Health and Human Services for the last 35 years 
who is here with me today.
    Our daughters are here as well. Ashley is a public servant 
at NASA. Amanda is a student at the University of Maryland, and 
Adriana at Annapolis High School.
    As the FSM President David Panuelo highlighted in his 
inauguration speech, the U.S. is the FSM's most important 
partner. And from our perspective, the FSM is an important 
longtime partner, a stronghold of freedom in the Indo-Pacific. 
We share a distinctive partnership based on mutual values 
enshrined in the Compact of Free Association.
    The FSM's geopolitical importance is clear. The FSM shares 
our vision for an open and free Indo-Pacific that respects 
sovereignty, rule of law, and transparency.
    With that solid foundation in place, the reality is that we 
are at a historic moment. We have an opportunity to act as a 
positive alternative to China's growing presence in the FSM and 
the region. If confirmed, I will work to ensure the U.S. 
continues to support the FSM's peace, prosperity, democracy, 
and freedoms. I will continue to foster an interagency 
environment of collaboration with U.S. agencies, including 
Interior, Defense, USAID, Health and Human Services, 
Agriculture, and others.
    Pursuant to the Compact, the U.S. government provides 
economic assistance and access to federal programs and 
services, including the Federal Deposit Insurance Corporation, 
Postal Service, and National Oceanic and Atmospheric 
Administration, to name a few. The U.S. is also responsible for 
security and defense matters in and relating to the FSM and has 
special and extensive access to operate in the FSM's territory, 
as well as the authority to deny access to the FSM by other 
countries' militaries and their personnel.
    In August, Secretary Pompeo became the first Secretary of 
State to visit the FSM where he announced our intent to begin 
negotiations on agreements to amend certain provisions of the 
compact. If confirmed, I will continue working on solidifying 
our bonds with the FSM by facilitating efficient negotiations 
to advance our mutually beneficial partnership.
    FSM's sons and daughters, citizens representing all four 
states, serve in the U.S. military at per capita rates higher 
than most U.S. States. 10 citizens of the FSM have paid the 
ultimate price and died in combat while serving in the U.S. 
armed forces. Many FSM citizens join our military and put their 
lives at risk on behalf of freedom and democracy around the 
world. If confirmed, I will work with our Department of 
Veterans Affairs and the Department of Defense to improve the 
assistance veterans in the FSM receive.
    The FSM is highly vulnerable to natural disasters. I am not 
a stranger to the issues and challenges surrounding natural 
disasters in an island environment. Living in Puerto Rico, I 
remember very vividly Hurricane Hugo in 1989 and saw from afar 
the damage caused by Hurricanes George in 1998 and Maria in 
2017. I am aware of the loss caused by Typhoon Wutip in the FSM 
this past winter. If confirmed, I will work with the FSM 
government to strengthen resilience to disasters through 
preparedness and I will make the safety of our embassy staff a 
top priority.
    In closing, I cannot envision a greater honor other than to 
lead the U.S. mission to the FSM.
    Mr. Chairman, if confirmed, I look forward to working with 
you and the honorable members of this committee to advance U.S. 
interests in the FSM and to sustain and expand the progress we 
have achieved in our unique, long-term, and positive 
relationship with this extremely important partner.
    Again, thank you for the opportunity to appear before you 
today. I will be pleased to answer any questions you may have.
    [The prepared statement of Ms. Cantor follows:]


                 Prepared Statement by Carmen G. Cantor

    Thank you very much Mr. Chairman, Ranking Member, and distinguished 
members of the committee. I am honored to appear before you today as 
the President's nominee to be the next United States Ambassador to the 
Federated States of Micronesia, the FSM. I am grateful for the 
confidence that President Trump and Secretary of State Pompeo have 
placed in me with this nomination.
    If confirmed, I pledge to do my utmost to uphold this trust and to 
advance our nation's interests in the FSM and in the vital Indo-Pacific 
region.
    Over the past twenty-nine years, I have been privileged to serve 
our nation in different roles and agencies: the U.S. Postal Service, 
the Federal Maritime Commission, the Foreign Agricultural Service, and 
the U.S. Department of State. Any measure of success that I achieved 
during these appointments would not have been possible without the 
support of my family, so I would like to start by expressing my 
heartfelt gratitude to them.
    I come from a very large Puerto Rican family. My father, Anibal 
Castro Justiniano, an Army National Guard veteran, was one of 18 
siblings. My mother, Zoraida Laracuente Ramirez, was one of 9 siblings. 
I have one sister and many uncles, aunts and cousins. I won't name them 
all, but I do want to recognize my husband, Carlos, a public servant 
for the last 35 years, who is with me today. Carlos spent most of his 
career in the U.S. Postal Service and now works in the U.S. Department 
of Health & Human Services.
    Our daughters are here with us as well. Ashley is a public servant 
working at NASA, Amanda is a college senior at the University of 
Maryland, and Adriana is a freshman at Annapolis High School.
    As the Federated States of Micronesia President David Panuelo 
highlighted in his inauguration speech, the United States is the FSM's 
most important partner. And, from our perspective, the FSM is an 
important longtime partner and, as Secretary Pompeo said during his 
recent visit, a stronghold of freedom in the Indo-Pacific. We share a 
distinctive partnership based on mutual values enshrined in the Compact 
of Free Association (Compact), as amended.
    The FSM's geo-political importance is clear:


  The FSM shares our vision for an open and free Indo-Pacific that 
        respects sovereignty, the rule of law, and transparency.

  The FSM supports international efforts to advance the 
        denuclearization of North Korea, in particular by ensuring the 
        full implementation of U.N. sanctions.

  The FSM votes with the United States at the United Nations at rates 
        higher than most countries, especially to combat anti-Israel 
        bias.


    With that solid foundation in place, the reality is that we are at 
a historic moment in our unique and special partnership. We have an 
opportunity to act as a positive alternative to China's growing 
presence in the FSM and the region. If confirmed, I will work to ensure 
the United States continues to support the FSM's peace prosperity, 
democracy, and freedoms. I will continue to foster an interagency 
environment of collaboration with agencies including Department of the 
Interior, U.S. Agency for International Development, Department of 
Health and Human Services, and Department of Agriculture.
    Pursuant to the amended Compact, the U.S. government provides 
economic assistance and access to U.S. federal programs and services, 
including the Federal Deposit Insurance Corporation, U.S. Postal 
Service, and National Oceanic and Atmospheric Administration, to name a 
few. The United States is also responsible for security and defense 
matters in and relating to the FSM and has special and extensive access 
to operate in the FSM's territory, as well as the authority to deny 
access to the FSM by other countries' militaries and their personnel. 
In August, Secretary Pompeo became the first Secretary of State to 
visit the FSM where he announced the United States' intent to begin 
negotiations on agreements to amend certain provisions of the Compacts 
with the FSM, the Marshall Islands, and Palau. If confirmed, I will 
continue working on solidifying our bonds with the FSM by facilitating 
efficient negotiations to advance our mutually beneficial partnership.
    FSM's sons and daughters, citizens representing all four states, 
serve in the United States military at per capita rates higher than 
most U.S. States. Ten citizens of the FSM have paid the ultimate price 
and died in combat while serving in the U.S. armed forces. Many FSM 
citizens join our military and put their lives at risk on behalf of 
freedom and democracy around the world. If confirmed, I will work with 
our Department of Veterans Affairs and the Department of Defense to 
improve the assistance veterans in the FSM receive.
    The FSM is highly vulnerable to natural disasters. I am not a 
stranger to the issues and challenges surrounding natural disasters in 
an island environment. Living in Puerto Rico, I remember very vividly 
Hurricane Hugo in 1989 and saw from afar the damage caused by Hurricane 
George in 1998 and Hurricane Maria in 2017. I've seen landslides, 
flooded roads, devastation, and destruction. I'm aware of the loss 
caused by Typhoon Wutip in the FSM this past winter. If confirmed, I 
will work with the government of the Federated States of Micronesia to 
strengthen the FSM's resilience to disasters through disaster 
preparedness and I will make the safety of our embassy staff a top 
priority.
    In closing, I can't envision a greater honor other than to lead the 
U.S. Mission to the Federated States of Micronesia, working with our 
friends in the FSM and representing our nation during this vital time.
    Mr. Chairman, Ranking Member, if confirmed, I look forward to 
working with you and the honorable members of this committee to advance 
U.S. interests in the FSM and to sustain and expand the progress we 
have achieved in our unique, long-term, and positive relationship with 
this extremely important partner.
    Again, thank you for the opportunity to appear before you today. I 
would be pleased to answer any questions you may have.


    Senator Gardner. Mr. DeSombre?

   STATEMENT OF MICHAEL GEORGE DeSOMBRE, OF ILLINOIS, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE KINGDOM OF THAILAND

    Mr. DeSombre. Chairman, Ranking Member, Senators, I thank 
you for the opportunity to appear before you today as the 
nominee for the Ambassador to the Kingdom of Thailand.
    I want to thank President Trump for nominating me to be his 
personal representative to the Kingdom of Thailand, and I wish 
to thank Secretary Pompeo for his strong support.
    I am grateful to all members of this committee for the 
opportunity today to speak with you about my qualifications and 
intentions.
    I want to thank my wife and four children for their support 
of my desire to enter public service. My wife Jean and I 
recently celebrated our 27th wedding anniversary. Jean has 
always been my inspiration and in the last 27 years, we have 
managed to build our respective professional careers while 
together raising four wonderful children, Winnona, Gabrielle, 
Michael Ray, and Phoenix. Notwithstanding the logistical 
challenges of two continents and three cities, I am very 
pleased to be joined here today by my wife Jean, my two 
daughters, and my youngest son Phoenix. My eldest son Michael 
Ray plays scrum half on his rugby team in Hong Kong and is 
critical to their success at two matches during this period and 
thus was not able to make it here today. If I am confirmed, my 
son looks forward to playing rugby in Bangkok.
    I also would like to thank my parents, Eugene and Nancy, 
for their support. Mom and Dad were not able to make it here in 
person, but I know they are watching the livestream back in 
Chicago.
    Since a young age, I have been motivated to serve my 
country. I believe that my experience in legal, economic, and 
strategic matters over the past 30 years is directly relevant 
to the position for which I have been nominated.
    I have been a practicing lawyer for almost 25 years. I 
fundamentally believe in the importance of the rule of law, 
transparency, and good governance. This is true both for 
corporations and for countries.
    As the head of Sullivan & Cromwell's acquisitions practice 
in Asia, I have advised many Western corporations on complex 
investments in many different Asian countries, including 
Thailand. I also am frequently engaged by corporations to 
provide training on high-stakes negotiations.
    I have been a student of strategic issues between the 
United States and China since the late 1980s when I received my 
master's degree in East Asian Studies focused on China's 
military and foreign policy. While living and working in Hong 
Kong and China for the past 2 decades, I have had a front row 
seat to the challenges and opportunities presented by China's 
economic and military modernization.
    If confirmed, I will apply my background in law, commerce, 
and strategic issues in Asia to work with our longtime ally 
Thailand to advance a free and open Indo-Pacific, including 
promoting the rule of law and good governance, strengthening 
the economic partnership with Thailand, and further enhancing 
the U.S.-Thai military alliance. In that regard, I would like 
to thank Senator Gardner and Senator Markey for their 
leadership on the Asia Reassurance Initiative Act, which 
reflects very clearly the administration's foreign policy 
priorities in Asia.
    Thailand and the United States share an enduring 
friendship. Last year marked the 200th anniversary of Thailand 
and the United States as great and good friends, as President 
Lincoln told His Majesty Rama IV back in 1862. 2019 has already 
been a historic year for our Thai friends. Thailand saw the 
coronation of His Majesty, King Rama X, and also saw the long-
awaited elections that stood up a new civilian government led 
by Prime Minister Prayut Chan-o-cha. The resumption of elected 
civilian governance presents an opportunity for the U.S. to 
raise its cooperation with Thailand to a new level.
    Thailand is a major non-NATO ally and the only United 
States ally in mainland Southeast Asia. We have a broad, 
multifaceted relationship with Thailand that is both bilateral 
and regional in scope. The U.S.-Thai alliance helps Thailand in 
the lower Mekong countries maintain their sovereignty while 
protecting their security, supporting their economies, and 
safeguarding their rich cultures and environment. Our deep 
partnership with Thailand also includes more than a half 
century of extensive cooperation on public health issues of 
common concern in Thailand and in the region.
    United States and Thailand have a growing economic and 
commercial relationship and, if confirmed, it will be a 
priority of mine to focus on expanding this relationship. I am 
particularly excited by the opportunities available by the 
creation of the Development Finance Corporation under the BUILD 
Act.
    Thailand is making democratic strides. However, more 
progress is needed. If confirmed, I will consult closely with 
Congress to ensure we continue to promote the rule of law, 
transparency, human rights, democracy, and good governance in 
Thailand. I am confident that Thailand will become an even 
stronger ally as it strengthens its democratic institutions.
    If confirmed, I will dedicate myself to the U.S. 
government's highest priority, the protection of U.S. citizens 
in Thailand. I will also have the honor and privilege of 
leading the dedicated Americans and local staff of the State 
Department and the many other U.S. government agencies that 
make up Mission Thailand. As Secretary Pompeo emphasized before 
this committee in April of last year, the State Department's 
responsibility and one of my top priorities, if confirmed, is 
to empower the staff of Mission Thailand and provide them with 
the necessary support to apply their capabilities and ideas to 
further U.S. foreign policy goals. I have spent the last 15 
years leading teams and organizations in the private and NGO 
sectors in Asia and would hope to bring this experience to the 
management of Mission Thailand.
    Finally, Chairman, Ranking Member, and Senators, I would 
like to respectfully ask you for your support for my 
nomination.
    I look forward to your questions.
    [The prepared statement of Mr. DeSombre follows:]


             Prepared Statement of Michael George DeSombre

    Mr. Chairman, Ranking Member, Senators, I thank you for the 
opportunity to appear before you today as the nominee for the 
Ambassador to the Kingdom of Thailand.
    I want to thank President Trump for nominating me to be his 
personal representative to the Kingdom of Thailand and I wish to thank 
Secretary Pompeo for his strong support.
    I am grateful to all members of this committee for the opportunity 
today to speak with you about my qualifications and intentions.
    I want to thank my wife and four children for their support of my 
desire to enter public service. My wife Jean and I recently celebrated 
our 27th wedding anniversary. Jean has always been my inspiration and 
in the last 27 years we have managed to build our respective 
professional careers while together raising four wonderful children--
Winnona, Gabrielle, MichaelRay, and Phoenix. Notwithstanding the 
logistical challenges of two continents and three cities, I am very 
pleased to be joined here today by my wife Jean, my two daughters and 
my youngest son Phoenix. My eldest son Michael Ray plays scrum half on 
his rugby team in Hong Kong and is critical to their success at two 
matches during this period and thus was not able to make it here today. 
If I am confirmed, my son looks forward to playing rugby in Bangkok.
    I also would like to thank my parents Eugene and Nancy for their 
support. Mom and Dad were not able to make it here in person but I know 
they are watching the livestream back in Chicago.
    Since a young age I have been motivated to serve my country. I 
believe that my experience in legal, economic, and strategic matters 
over the past thirty years is directly relevant to the position for 
which I have been nominated.
    I have been a practicing lawyer for almost 25 years. I 
fundamentally believe in the importance of the rule of law, 
transparency and good governance. This is true both for corporations 
and for countries.
    As the head of Sullivan & Cromwell's acquisitions practice in Asia, 
I have advised many Western corporations on complex investments in many 
different Asian countries, including Thailand. I also am frequently 
engaged by corporations to provide training on high-stakes 
negotiations.
    I have been a student of strategic issues between the United States 
and China since the late 1980s when I received my Master's degree in 
East Asian Studies focused on China's military and foreign policy. 
While living and working in Hong Kong and China for the past two 
decades, I have had a front row seat to the challenges and 
opportunities presented by China's economic and military modernization.
    If confirmed, I will apply my background in law, commerce and 
strategic issues in Asia to work with our long-time ally, Thailand, to 
advance a free and open Indo-Pacific, including promoting the rule of 
law and good governance; strengthening the economic partnership with 
Thailand; and further enhancing the U.S.-Thai military alliance. In 
that regard I would like to thank Senator Gardner and Senator Markey 
for their leadership on the Asia Reassurance Initiative Act, which 
reflects very clearly the administration's foreign policy priorities in 
Asia.
    Thailand and the United States share an enduring friendship. Last 
year marked the 200th anniversary of Thailand and the United States as 
great and good friends, as President Lincoln told His Majesty Rama IV 
back in 1862. Two thousand nineteen has already been a historic year 
for our Thai friends. Thailand saw the coronation of His Majesty, King 
Rama X, and also saw the long-awaited elections that stood up a new 
civilian government led by Prime Minister Prayut Chan-o-cha. The 
resumption of elected civilian governance presents an opportunity for 
the U.S. to raise its cooperation with Thailand to a new level.
    Thailand is a major non-NATO ally and the only United States ally 
in mainland South East Asia. We have a broad, multi-faceted 
relationship with Thailand that is both bilateral and regional in 
scope. On the security side, we have frequent joint exercises and 
interactions, including our annual Cobra Gold multinational exercise 
that we have been co-hosting since 1982.
    America's partnership with Thailand also helps Thailand address 
increasing security and humanitarian challenges throughout the Lower 
Mekong region, including methamphetamine flows, trafficking in persons, 
and wildlife trafficking.
    The U.S.-Thai alliance helps Thailand and the lower Mekong 
countries maintain their sovereignty while protecting their security, 
supporting their economies, and safeguarding their rich cultures and 
environment. Our deep partnership with Thailand also includes more than 
half a century of extensive cooperation on public health issues of 
common concern in Thailand and in the region such as HIV, infectious 
diseases, and malnutrition.
    United States and Thailand have a growing economic and commercial 
relationship and, if confirmed, it will be a priority of mine to focus 
on expanding this relationship. I am particularly excited by the 
opportunities available by the creation of the Development Finance 
Corporation under the BUILD Act and other initiatives under the 
economic pillar of the Indo Pacific Strategy.
    Thailand is making democratic strides. However, more progress is 
needed. If confirmed, I will consult closely with Congress to ensure we 
continue to promote the rule of law, transparency, human rights, 
democracy, and good governance in Thailand. I am confident that 
Thailand will become an even stronger ally as it strengthens its 
democratic institutions.
    If confirmed, I hope to apply my knowledge and training to assist 
this important ally to continue democratic progress and will seek to 
use existing exchange programs like the Young Southeast Asian Leaders 
Initiative, or YSEALI, and the International Visitor Leadership Program 
to empower the next generation of Thai leaders to embrace the benefits 
of the rule of law, transparency, and good governance.
    If confirmed, I will dedicate myself to the U.S. government's 
highest priority--the protection of U.S. citizens in Thailand. I will 
also have the honor and privilege of leading the dedicated Americans 
and local staff of the State Department and the many other U.S. 
government agencies that make up Mission Thailand. As Secretary Pompeo 
emphasized before this committee in April of last year, the State 
Department's responsibility, and one of my top priorities, if 
confirmed, is to empower the staff of Mission Thailand and provide them 
with the necessary support to apply their capabilities and ideas to 
further U.S. foreign policy goals. I have spent the last 15 years 
leading teams and organizations in the private and NGO sectors in Asia 
and would hope to bring this experience to the management of Mission 
Thailand.
    Finally, Chairman, Ranking Member and Senators, I thank you for the 
opportunity to appear before you today.
    I look forward to your questions.


    Senator Gardner. Well done. 5 minutes exactly. Thank you, 
Mr. DeSombre.
    [Laughter.]
    Senator Gardner. Ambassador Kim, thank you very much for 
your service. I had the opportunity to work with you in both 
the Philippines and on Korea issues. So I look forward to your 
statement.

 STATEMENT OF HON. SUNG Y. KIM, OF CALIFORNIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF INDONESIA

    Ambassador Kim. Thank you very much, Mr. Chairman.
    Mr. Chairman, Senator Young, I am deeply honored to appear 
before you as the President's nominee to be U.S. Ambassador to 
the Republic of Indonesia.
    I am grateful to the President and Secretary Pompeo for 
placing their confidence in me and, if confirmed, I look 
forward to working closely with this important committee to 
advance our strong relationship with Indonesia.
    With your permission, Mr. Chairman, I would like to begin 
by thanking my family: my wife Jae and our daughters, Erin and 
Erica. At my confirmation hearing 3 years ago, they could not 
be present. They promised that they watched me on C-SPAN, so I 
am delighted that they are actually here with me today. I know 
they are proud and excited about the prospect of helping me 
represent the United States in Indonesia. My parents and 
siblings could not be here, but I am certain that they are 
watching over me as they always do.
    I also would like to thank the many friends, mentors, and 
colleagues who have been a source of tremendous inspiration for 
me throughout my career, and some of them are here today.
    Mr. Chairman, it has been a privilege to spend my entire 
30-year career in the State Department focused on Asia. I have 
been honored to represent my country as Ambassador to the 
Republic of Korea and currently to the Republic of the 
Philippines. To be able to serve a third time as Ambassador in 
this region of great importance would be an incredible honor, 
particularly given our special relationship with Indonesia.
    The U.S. and Indonesia have a strong relationship that 
dates back to a time in which prospects for democracy and 
prosperity in South Asia seemed far from certain. Now, as we 
celebrate 70 years of diplomatic relations, it is remarkable 
how much Indonesia has achieved, both as a stable democracy and 
as a G20 economy. As a proud partner and friend of Indonesia, 
we look forward to a future of even more progress, shaped by 
our shared commitment to democracy and good governance, respect 
for human rights, and promoting stability and prosperity in the 
region.
    The U.S. engagement with Indonesia is, indeed, both broad 
and deep, featuring extensive defense cooperation, robust 
partnership on counterterrorism, and meaningful development 
programs.
    Regionally, Indonesia has long been a leader in Southeast 
Asia. Today we recognize the dynamic role that Indonesia can 
and does play in support of ASEAN unity and centrality, and the 
promotion of stability in the evolving strategic framework.
    We applaud Indonesia's growing leadership on a wide range 
of global issues. Indonesia is an active member of the United 
Nations and a major source of U.N. peacekeepers. Indonesia is 
currently serving a term on the U.N. Security Council, where we 
coordinate closely on important issues facing the international 
community.
    We also appreciate how Indonesia, as the world's largest 
Muslim majority nation, demonstrates that Islam and democracy 
can not only coexist but thrive together. If confirmed, I will 
support Indonesian efforts to reinforce tolerance and 
interfaith harmony, and to advance respect for human rights 
more broadly.
    Mr. Chairman, I also plan to focus on advancing a far more 
significant, balanced bilateral economic and trade 
relationship. Our trade should better reflect the size of our 
markets and the depth of our cooperation in other areas.
    Of course, the ties between our countries are much more 
than what our governments do together. It also is about our 
private sectors working together, our civil societies advancing 
shared goals, and our students learning from each other. More 
fundamentally, our relationship is about people-to-people ties, 
and I look forward to leading our efforts to deepen the special 
friendship between Americans and Indonesians.
    As two of the world's largest democracies, we share a 
responsibility and compelling national interest to address 
strategic challenges on the international stage. If confirmed, 
I will do my best to ensure that our shared responsibility is 
carried out to the fullest.
    I appreciate the opportunity to appear before you today, 
and I am pleased to answer your questions. Thank you, Mr. 
Chairman.
    [The prepared statement of Ambassador Kim follows:]


                     Prepared Statement of Sung Kim

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as the President's nominee to be United States 
Ambassador to the Republic of Indonesia. I am grateful to the President 
and Secretary Pompeo for placing their confidence in me and, if 
confirmed, I look forward to working closely with this committee to 
advance U.S. interests and our strong relationship with Indonesia.
    With the Chairman's permission, I would like to begin by thanking 
the many friends and colleagues who have played an essential role in my 
career--some of them are here today. First and foremost, I'd like to 
thank my wife Jae and our two daughters, Erin and Erica. I know they 
are proud and excited about the prospect of helping me represent the 
United States in Indonesia. My family, friends, and colleagues have all 
been a source of tremendous support and inspiration.
    Mr. Chairman, it has been a privilege to spend my entire 30-year 
career in the State Department focused on Asia. I have been honored to 
represent my country as Ambassador to the Republic of Korea and to the 
Republic of the Philippines. To be able to serve a third time as 
Ambassador in this region of great importance to U.S. interests would 
be an incredible honor, particularly given the depth and breadth of our 
relationship with Indonesia.
    The United States and Indonesia have a strong relationship that 
dates back to a time in which prospects for democracy and prosperity in 
Southeast Asia seemed far from certain. Now, as we celebrate 70 years 
of diplomatic relations, it is remarkable how much Indonesia has 
achieved, as both a stable democracy and a G20 economy. As a proud 
partner and friend of Indonesia, we look forward to a future of even 
more progress, shaped by our shared commitment to democracy and good 
governance, respect for human rights, and promoting stability and 
prosperity in the region. In April, Indonesia successfully conducted 
what was likely the largest single-day election anywhere. Its 
democratic institutions are strong and only growing stronger.
    Mr. Chairman, if confirmed, I look forward to leading the dedicated 
Mission team of Americans and Indonesians who are working tirelessly to 
advance the U.S.-Indonesia Strategic Partnership. I also pledge to be a 
responsible steward of resources provided by Congress, both for the 
operations of our large diplomatic platform in Indonesia and for 
foreign assistance.
    U.S. engagement with Indonesia is both broad and deep. We have 
extensive defense cooperation, robust partnership on counterterrorism, 
meaningful development programs, increasing maritime security 
cooperation, growing science and technology ties, and deep people-to-
people diplomacy.
    Regionally, Indonesia has long been a leader in Southeast Asia. 
Today we recognize the dynamic role that Indonesia can and does play in 
support of ASEAN unity and centrality, and the promotion of stability 
in the evolving strategic context. Indonesia's initiative to forge a 
shared ASEAN vision of a free and open Indo-Pacific region stands as a 
valuable example of such leadership.
    We recognize Indonesia's growing leadership on a wide range of key 
global issues. Indonesia, an active member of the United Nations, is a 
top source of U.N. peacekeepers. Indonesia is currently serving a term 
on the U.N. Security Council, where we coordinate closely on the top 
issues facing the international community, including the 
denuclearization of North Korea and counterterrorism.
    Last year Indonesia hosted the Our Oceans Conference, and continues 
today to marshal global attention and resources to address marine 
debris, and illegal, unreported, and unregulated fishing.
    We also appreciate the special role Indonesia, as the world's 
largest Muslimmajority nation, can play as a positive example of where 
Islam and democracy not only coexist, but thrive. If confirmed, I will 
support Indonesian efforts to reinforce tolerance and interfaith 
harmony, and to advance respect for human rights more broadly.
    Mr. Chairman, if confirmed, I also plan to focus on advancing a far 
more significant, balanced bilateral economic and trade relationship. 
Our trade should better reflect the size of our markets and depth of 
our cooperation in other areas. The extent and type of our two-way 
economic engagement will add to the bedrock of a long term partnership.
    The ties between our two countries are much more than what our 
governments do together. The full Strategic Partnership is about our 
private sectors working together, it's about our civil societies 
advancing shared goals, and it's about students, the next generation of 
leaders in our two countries, learning from each other. More than 
anything else, our relationship is about people-to-people ties, and I 
look forward to leading our efforts to deepen the special friendship 
between Americans and Indonesians.
    As two of the world's largest democracies, we share a 
responsibility and compelling national interest to address strategic 
challenges on the international stage. If confirmed, I will do my best 
to ensure that our shared responsibility is carried out to the fullest.
    I appreciate the opportunity to appear before you today and am 
pleased to answer your questions.


    Senator Gardner. Thank you, Ambassador Kim.
    Mr. Tan?

  STATEMENT OF MORSE H. TAN, OF ILLINOIS, TO BE AMBASSADOR AT 
               LARGE FOR GLOBAL CRIMINAL JUSTICE

    Mr. Tan. Chairman Gardner, Senator Young, it's a privilege 
to be here. Let me thank you for the opportunity to be here 
today with you.
    My thanks as well to the President and to the Secretary of 
State for the confidence that they have expressed in me and 
also the friends and family, both those who are gathered here, 
as well as those who are watching live right now. I am pleased 
to have my parents, Minho and Sunae Tan; my wife, Dr. Sarah 
Tan; my daughter, Hope Tan; my sons, Enocth, Isaiah, and Moses 
Tan, here with me today, as well as various friends here as 
well.
    The fact that I am here before you today, Senators, is a 
tribute to the American dream. My parents were children during 
the hardships and difficulties of the Korean War, and it was a 
dream of my father's, from his youth, to come to the United 
States of America, which he views as the Promised Land.
    We came to Campbell, California where we stayed with those 
we fondly called Uncle Frank and Aunt Janet Ramirez. And we 
came with empty pockets but hearts full of this American dream.
    You may wonder how I got this unique name of Morse. Well, 
my practical parents realized that there were sounds in my 
Korean name that could not be pronounced in English, and they 
also figured that this energetic son of theirs was bound to get 
lost at some point. And so, given all those things, they 
actually named me after the street we lived on, Morse Avenue. 
We actually lived on Alice Avenue previous to that, and that's 
my sister's name. It is a good thing we did not live on Alameda 
de Las Pulgas or West 23rd Street, in which case I would ask 
that you call me Al or Wes. But that is how I got the name 
Morse.
    Here in this land of opportunity, my parents sacrificed to 
give my sister and me opportunities that they never had. My 
sister has served as a medical doctor treating heads of state. 
I was the first from both sides of my family to attend law 
school, much less to serve as a tenured full professor of law.
    I have devoted my professional life to the pursuit of 
justice. Whether it is justice for people who are crushed in 
political prisoner camps in North Korea or those who have been 
massacred in Latin America, I have advocated, taught, written, 
and dedicated myself to this ideal of justice. As far back as I 
can remember, I have been keenly wired along these lines to 
pursue justice. It is who I am.
    The GCJ Ambassador position is the first and only such 
position in the entire world and is a testament to the goodness 
and greatness of the United States of America, of the 
commitment of our government and people to address mass 
criminal atrocities, whether it is crimes against humanity, war 
crimes, or genocide.
    If confirmed, I would dedicate myself to the prevention, 
mitigation, and addressing of these mass criminal atrocities. 
And no government in the world has more tools than the United 
States of America to address these mass criminal atrocities 
whether it is diplomatic, whether it is economic, whether it is 
legal, whether it is military or intelligence tools.
    I am passionate that the cry of ``never again'' after the 
horrors of the Holocaust would find greater fulfillment. It was 
the United States that led, after World War II, in the 
formation of the Nuremberg and the Tokyo Trials, and it is the 
United States that is again leading the world through our 
promotion of global criminal justice through this office.
    If confirmed, I would be building upon the work of past 
ambassadors who have done amazing work, and I would be seeking 
to address the places that cry out for justice at this day and 
time. I have been privileged to get the support and counsel of 
past ambassadors and their deputies, and I would continue to 
seek their advice and counsel.
    I would look to collaborate with Congress and other 
partners to work together for this worthwhile cause. If 
confirmed, the work would be much bigger than that of just one 
person.
    I would also seek to learn voraciously during this time of 
service. In certain respects, I have been, I think, preparing 
for this unwittingly to a large extent, for most of my life.
    Serving in this capacity would be the greatest professional 
honor of my life. It is beyond anything I had ever dreamed of. 
To me, though, it is more of a mission than a position. If 
parents coming from the ruins and rubble of the Korean War can 
see their son in this position, then I submit to you that the 
American dream, which so many in our country have lived, is 
alive and well.
    Thank you again so much for the honor of being here today 
with you, and I would be pleased to respond to your questions.
    [The prepared statement of Mr. Tan follows:]


                    Prepared Statement of Morse Tan

    Senators, let me thank you, the President, the Secretary of State, 
and the friends and family who supported me, including those gathered 
here today.
    The fact that I am before you today, Senators, is a tribute to the 
American Dream, which so many in this country have experienced. My 
parents underwent the hardships of the Korean War as children, and it 
was my father's dream from his youth to come to America, which he has 
viewed as the Promised Land. After passing a very competitive test, he 
brought his family to the United States with almost empty pockets but a 
heart full of the American Dream. Initially, we lived with those we 
fondly called Uncle Frank and Aunt Janet Ramirez in Campbell, 
California.
    You may wonder how I have this unique first name Morse. Well, my 
practical parents figured that this energetic son of theirs was bound 
to get lost at some point. Furthermore, they came to realize that my 
Korean name had sound combinations that don't exist in the English 
language. So, they actually named me after the street we lived on, 
Morse Avenue, so that if I ever did get lost, my name would be the same 
as where I lived. Believe it or not, my sister somehow got Alice the 
same way, because we lived on Alice Avenue previously. It's a good 
thing we didn't live on Alameda de Las Pulgas or West 23rd Street. If 
we did, I'd probably tell you to just call me Al or Wes.
    Here in this land of opportunity, my parents sacrificed to give my 
sister and me opportunities they never had. I am the first from both 
sides of my family to attend law school, much less to serve as a 
tenured, full professor of law. My sister has cared for many patients, 
including heads of state, as a physician.
    I have devoted my professional life to pursue justice. Whether it 
is justice for people crushed in political prisoner camps in North 
Korea or those massacred in Latin America, I have written, taught and 
advocated for justice. From as far back as I can remember, I have been 
keenly wired for justice, which strongly motivates me.
    The position of Ambassador at Large for Global Criminal Justice, 
formerly known as the Ambassador-at-Large for War Crimes, was 
established 22 years ago to lead the U.S. policy response to the 
atrocities in the former Yugoslavia and Rwanda. Over the years, the 
work of the Ambassador and the Office of Global Criminal Justice (GCJ) 
has expanded to fight impunity throughout the world, such as in 
Cambodia, the Sudan, and Colombia. The office supports criminal 
accountability in international, hybrid, and national courts; it 
promotes efforts such as documentation and evidence collection to lay 
the groundwork for justice; and also promotes transitional justice 
policies to promote reconciliation as well as stability in seeking a 
durable peace under a just rule of law.
    The GCJ Ambassador position is the first and only such position in 
any government worldwide and a testament to the goodness and greatness 
of the United States of America, of the commitment of our government 
and people to pursue justice for the victims of the worst atrocities, 
including genocide, crimes against humanity, and war crimes--and to 
help prevent such atrocities in the first place.
    If confirmed, I would dedicate myself to the work of preventing, 
mitigating and seeking accountability for mass atrocities. No 
government in the world has more tools--whether diplomatic, 
intelligence, legal, military or economic--to do this work than the 
United States.
    I am passionate that the cry of ``Never Again'' after the horrors 
of the Holocaust would find greater fulfillment. It was the United 
States that led the way with the unprecedented Nuremberg and Tokyo 
Trials, and it is the United States that is again leading the world 
through our promotion of global criminal justice over the last couple 
of decades.If confirmed, I would be building upon this past work in 
areas crying out for justice today. I am honored to be supported by 
past Ambassadors who held this position as well as their Deputies. I 
have benefited from their counsel and would seek it while serving.
    I would look to collaborate with Congress and other partners to 
work together for this worthwhile cause. If confirmed, the work would 
be much bigger than that of just one person.
    My leadership style is one that seeks to delegate, play to the 
strengths of and credit those I work with. I am an affirming and 
encouraging person, who tries to find solutions and focus on positives, 
even in the context of crushing criminal abuses and violations. At the 
same time, I am a tenacious, persevering advocate for justice. I am 
deeply empathetic and conscientious, both tender hearted and tough 
minded. I believe these traits support success in this position, if 
confirmed.
    I would seek to learn voraciously throughout my time of service. In 
certain respects, I have prepared to serve in this position for most of 
my life without necessarily even being aware of it.
    Serving in this capacity would be the greatest professional honor 
of my life: it is beyond anything I had ever dreamed. To me though, it 
would be more of a mission than a position. If parents coming from the 
ruins and rubble of the Korean War can see their son in this 
Ambassador-at-Large for Global Criminal Justice position, then I submit 
to you that the American Dream, as it has been for so many in our 
country, is alive and well! Thank you again for the honor of being here 
before you, Senators, and I would be pleased to respond to your 
questions.


    Senator Gardner. Thank you, Mr. Tan.
    Ambassador Currie?

   STATEMENT OF HON. KELLEY ECKELS CURRIE, OF GEORGIA, TO BE 
         AMBASSADOR AT LARGE FOR GLOBAL WOMEN'S ISSUES

    Ambassador Currie. Thank you, Chairman Gardner and 
distinguished members of the committee, for giving me the 
opportunity to appear before you today. Morse is a tough act to 
follow.
    It is an amazing honor to serve the American people, and I 
deeply appreciate the confidence that President Trump and 
Secretary Pompeo have shown in me by nominating me for this 
position.
    I wanted to recognize my family, some of whom are here 
today: my wonderful husband Peter; my children, Mack and Sarah; 
and my mother-in-law Dottie, and to say, hey, to my family 
watching at home in Georgia, my mom G.G., and my sister Emily. 
And I also want to thank my friends and colleagues, especially 
my colleagues from the State Department who are here today and 
especially for all of the support that they have shown in 
helping me prepare for this hearing.
    Advancing the role of women and girls around the world, 
socially, politically, and economically, is central to 
achieving U.S. foreign policy goals. Throughout my career, I 
have worked to defend the rights of women and girls from 
regimes that are threatened by the ideas of freedom and 
equality. As a young congressional staffer, I was involved in 
early efforts to raise awareness around the Taliban's treatment 
of women and the Burmese military's systematic use of sexual 
violence against ethnic nationalities.
    At the International Republican Institute, I saw firsthand 
how important it was to encourage women to run for office and 
otherwise demand a seat at the most powerful tables in their 
countries.
    And at every job since, this has been a persistent thread, 
whether documenting Tibetan mothers who risked everything to 
get their children an education and religious freedom, or 
working to ensure the U.N. system was responding effectively to 
the scourge of sexual violence in conflict. I have been honored 
to work alongside and learn from so many amazing advocates, 
practitioners, political leaders, and survivors. These brave 
women continue to inspire and motivate me.
    Empowering women and girls around the world is a vital 
national security issue as well. We know that countries are 
more peaceful, prosperous, and stable when women are able to 
fully participate at all levels. In order to realize this goal, 
women and girls must be free from violence and discrimination 
in their homes, workplaces, and communities.
    We must ensure that women are involved in key decisions 
about peace and security in their communities and nations. 
Evidence shows that women's participation in peace-building, 
accountability, security sector reform, and countering violent 
extremism leads to better outcomes across the board. Yet, women 
historically have been absent from critical decision-making 
about security and power structures.
    Bold U.S. leadership is key to breaking this cycle, and we 
are already leading through the Women, Peace, and Security Act, 
the first country in the world to pass such legislation. Thank 
you. And we are implementing efforts underway across the 
administration. If confirmed, I will ensure that GWI takes a 
role, a leading role, in our new whole-of-government U.S. WPS 
strategy.
    Security and economic opportunity for women are 
intrinsically related. Women are key drivers of economic 
prosperity. Yet, their potential as employers, entrepreneurs, 
and workers remains undervalued, under-appreciated, and under-
developed.
    I am proud of the administration's commitment to women's 
economic empowerment through the Women's Global Development and 
Prosperity Initiative and am committed to advancing WGDP, if 
confirmed.
    Meaningful empowerment often requires changes to policies 
and societal norms that preclude women from fully participating 
in the economy. Women must be able to exercise their human 
rights and fundamental freedoms in the workplace, at home, and 
in their communities, confident that governments will protect 
and support them, not persecute them. Identifying and reducing 
the legal, political, and regulatory barriers faced by women is 
critical to building a durable foundation for economic 
empowerment. The State Department is uniquely positioned to 
carry out this important work, and if confirmed, I look forward 
to leading these efforts.
    It is also mission critical that we ensure today's girls 
receive the skills and education needed to become tomorrow's 
women leaders. The under-representation of women and girls in 
STEM fields, for example, is an area ripe for public-private 
engagement.
    The United States has long been a global leader on these 
issues. Using the new tools Congress and the White House have 
given us, we have to refocus our efforts, renew and expand our 
partnerships, and be bold in our advocacy. If confirmed, I look 
forward to working with our colleagues and counterparts across 
the U.S. government and around the world to advance and protect 
the rights of women and girls.
    Thank you so much for the opportunity to appear here today. 
I look forward to your questions.
    [The prepared statement of Ambassador Currie follows:]


             Prepared Statement of Ambassador Kelley Currie

    Chairman, Ranking Member, distinguished members of the committee, 
thank you for the opportunity to appear before you as President Trump's 
nominee to be the Ambassador-at-Large for Global Women's Issues. I am 
honored to have this opportunity to serve my country and appreciate the 
confidence President Trump and Secretary Pompeo have shown in me with 
this nomination. I also want to thank Senator Isakson for his kind and 
generous introduction. I've been fortunate to be a constituent of his 
since he was elected to the Senate to represent the great state of 
Georgia, and we'll certainly miss his leadership. I wish him all the 
best and fully expect he will continue to serve State and our country 
in some way.
    I wanted to take a moment to thank my family, some of whom are here 
today: my wonderful partner and husband Peter Currie, my children Mack 
and Sarah, and my mother in law Dottie Currie. I want to shout out to 
my family down in Georgia who are watching the proceedings: thanks Mom, 
G.G. and Emily for everything. And finally, to my friends and 
colleagues--especially all my State Department colleagues who have 
worked so hard to get us here--thank you so much for all your support.
    Advancing the role of women and girls around the world, socially, 
politically and economically, is central to achieving U.S. foreign 
policy goals, and it is something to which I am deeply committed. 
Throughout my career, I have had the privilege to serve in various 
roles working to advance human rights protections, and defend the 
rights of women and girls from regimes that are threatened by the idea 
of freedom and equality. I started out as a young congressional 
staffer, working on legislation and other congressional initiatives to 
promote and protect women's human rights. This included early efforts 
to raise awareness about the Taliban's treatment of women in 
Afghanistan and the Burmese military's systematic use of sexual 
violence against ethnic women. At the International Republican 
Institute, one of my most important responsibilities was promoting 
women's political participation through our programming in Asia, and I 
saw first-hand how important and difficult it was to encourage women to 
run for office, train them to ask for campaign contributions, and 
otherwise demand a seat at the most powerful tables. And in every job I 
have had since, this has been a persistent thread--whether I was 
interviewing Tibetan mothers about why they risked everything to get 
their children an education and religious freedom in India, or working 
with the Special Representative of the Secretary General on Sexual 
Violence in Armed Conflict to ensure the U.N. system is responding 
effectively to this horrific scourge. I have had the tremendous honor 
to work alongside and learn from so many amazing advocates, 
practitioners, political leaders and survivors. These brave women 
continue to inspire and motivate me.
    Empowering women and girls around the world is also a vital 
national security issue. We know that countries are more peaceful, 
prosperous and stable when women are able to fully participate at all 
levels of government and the economy. In order to realize this goal, 
women and girls must be free from violence and discrimination in their 
homes, workplaces and communities.
    The best way to make this happen is to make sure that women are 
involved in key decisions about peace and security in their communities 
and nations. Around the world, women are on the frontlines of some of 
the world's most pressing challenges: they are preventing atrocities, 
brokering ceasefires, delivering aid, implementing transitional justice 
and countering terrorism. Evidence shows that women's participation in 
peace-building, accountability efforts, security sector reform and 
countering violent extremism leads to better outcomes-not just for 
women, but for their families, their communities, and entire countries. 
Yet women historically have been absent from the places and processes 
where critical decisions are made about their communities' and 
countries' security and power structures. It is past time to reverse 
this historic trend and bold U.S. leadership will remain key to this 
effort. We are already leading through the passage of the Women, Peace 
and Security Act--the first country in the world to pass such 
legislation--and the implementation efforts that are underway across 
the administration. If confirmed, I will ensure that the GWI office is 
driving progress on the new U.S. Strategy on Women, Peace, and Security 
and proactively lead efforts to advance its implementation.
    Security and economic opportunity for women are also intrinsically 
linked. Women represent half of the population and are key drivers of 
economic growth. Yet, their potential as employers, entrepreneurs, and 
workers remains underdeveloped, under-resourced and underappreciated.
    Meaningful women's economic empowerment often requires changes to 
policies and societal norms that have historically precluded women from 
fully participating in the economy. It also relies on women's ability 
exercise their human rights and fundamental freedoms in the workplace, 
at home, and in their communities, safe in the knowledge that their 
governments will protect them and not persecute them.
    I am proud of the administration's commitment to women's economic 
empowerment through the Women's Global Development and Prosperity 
Initiative and am committed to advancing this ambitious initiative, if 
confirmed. The State Department is uniquely positioned to carry out the 
diplomatic and policy tasks required to deliver on this agenda. In 
particular, identifying and reducing the policy, legal, political and 
regulatory barriers faced by women is critical to building a strong and 
durable foundation for women's economic empowerment. If confirmed, I 
look forward to leading U.S. efforts on this front.
    To do this important work, we must also invest in the girls of 
today who will be the leaders of tomorrow. With today's large global 
youth population--the so-called ``youth bulge''--it is mission critical 
that we ensure the next generation of girls receive the skills and 
education needed to become productive members of society. The under-
representation of women and girls in STEM fields--not only as students, 
teachers and researchers, but also as managers, leaders, entrepreneurs 
and other role models--is an area ripe for public-private engagement 
and action.
    While the United States has long been a global leader on these 
issues, far too many women and girls around the world still face 
debilitating barriers and violence. We have to focus our efforts; build 
new partnerships with the international community; effectively utilize 
the new tools Congress and the White House have built out; and be bold 
in our advocacy. But we cannot do this alone; we need strong partners 
here in the United States and abroad. If confirmed, I look forward to 
working with our colleagues and counterparts across the U.S. government 
and around the world to advance and protect the rights of women and 
girls.
    Thank you for the opportunity to appear before the committee today. 
I look forward to your questions.


    Senator Gardner. Thank you, Ambassador Currie. And again, 
thanks to all of the nominees who are here today for your 
service. And to the families, again, my thanks to all of you 
for the time away from home, and the work that you provide and 
the efforts that go into this service is greatly appreciated.
    Ambassador Kim, I am reminded of our time when we had a 
meeting together. The very facility where we were meeting, 
hours after we left, was attacked. And I cannot think of 
anything more than just to say thank you from all of us 
sincerely for the work that each and every one of you is 
already doing and that you are about to undertake in further 
endeavors.
    We are going to start now with questions and turn to 
members.
    I just want to start briefly with comments on China. In a 
little bit, we are going to have a hearing on the Asia 
Reassurance Initiative Act, and we are going to go forward with 
that. So I know my colleague, Senator Markey, is going to be 
joining us shortly for that. But I am going to reserve my time 
and yield first to Senator Young, if you would like to begin 
with questions. Then we will go to Senator Shaheen after that. 
I caught him off guard. I apologize.
    Senator Young. No. It is just a dramatic pause.
    Well, I thank you all for your interest in serving. Without 
exception, I was favorably impressed by your backgrounds, by 
your qualifications, and I anticipate supporting each of you.
    I have had an opportunity to visit with a number of you. So 
I will ask Ms. Cantor--you and I have not been able to 
personally visit. So as you step into this role, just identify 
your top priorities for me please.
    Ms. Cantor. Thank you, Senator, for that question.
    If confirmed, I would love to strengthen the bilateral 
relationship between the FSM and the U.S. I will also work with 
the government of the FSM on reaching their economic 
development goals. There are certain areas where they need 
assistance. We have been providing about $80 million every year 
in six areas: health, education, the environment, public 
infrastructure, public sector capacity development, and private 
sector capacity development.
    I would also aim to encourage private sector investment. I 
will work with other agencies in the Federal government like 
the Department of the Interior and others that are present in 
the FSM.
    And I also would love to promote the role of women and 
girls in leadership in the FSM.
    Senator Young. Thank you.
    Mr. Kim, it was good to visit with you yesterday. I found 
quite interesting our conversation about the challenges 
associated with serving as an Ambassador, as our United States 
point person, to an island nation. And you are uniquely 
qualified for that role. Maybe you could sort of explain to my 
colleagues some of the challenges and opportunities associated 
with that.
    Ambassador Kim. Thank you very much, Senator. It was a 
privilege to meet you yesterday. I very much enjoyed our 
discussion as well.
    So the Philippines is a country of 7,000 islands. I did not 
think I could find a country that had even more islands, but 
Indonesia has 17,000 islands.
    [Laughter.]
    Ambassador Kim. And I think both countries present some 
unique circumstances.
    But I think at the heart of our relationship with both the 
Philippines and Indonesia is that we have a strong partnership, 
multifaceted partnership, that includes military cooperation, 
counterterrorism cooperation, a fairly robust economic 
partnership, and of course, both countries being in that 
important region are affected by Chinese behavior in the South 
China Sea.
    So I hope, if confirmed by the Senate, that I will have a 
chance to work with Indonesians to expand our cooperation with 
them in both regional and global issues.
    Senator Young. Well, thank you so much.
    Mr. Tan, you and I have not had an opportunity to visit. So 
just your top priorities please as Ambassador.
    Mr. Tan. Yes. Among my priorities would be what this body, 
namely Congress, has supported and given the first programmatic 
funding for, namely seeking accountability for ISIS in Iraq and 
Syria. There are efforts that are ongoing. I would continue to 
support them--the IIIM, for example, and UNITAD which are 
seeking to secure and gather evidence that could be used for 
prosecutions, some of which are going on domestically in places 
such as Germany and Sweden. But in the conflict and in the 
situations that are there, there are very serious issues that I 
would make a priority as you in Congress have done. And let me 
thank you for the support that Congress has given along these 
lines.
    North Korea, which I have dedicated much of my scholarship 
and media work and teaching to, is another priority of mine. I 
understand that it has also been a major priority both of 
Congress as well as the executive branch, and this would be an 
important priority. And I have various others, but those are 
two examples.
    Senator Young. Well, thank you.
    Ms. Currie, I have 40 seconds remaining. So one or two top 
priorities you would have, should you be confirmed.
    Ambassador Currie. Thank you, Senator Young.
    The two priorities are actually quite straightforward. We 
have two great new tools, the Women, Peace, and Security 
strategy that Congress has given us, the Women, Peace, and 
Security Act, and we are now implementing WPS strategies across 
the administration with a whole-of-government approach to this 
important initiative. And then the WGDP initiative, promoting 
women's economic empowerment.
    If confirmed, I would see building the office's work around 
these two really important strategic initiatives and making 
sure that we are focusing like a laser on implementing these 
two great initiatives.
    Senator Young. Well, thank you.
    I have more than a measure of confidence that each of you 
will, indeed, be confirmed. I wish you well and I look forward 
to doing some good together.
    I yield back.
    Senator Gardner. Thank you, Senator Young.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations to each of you on your nominations, and 
thank you for your willingness to serve at this critical time.
    Ambassador Currie, first of all, thank you for taking time 
to meet with me this morning. I appreciated the opportunity to 
talk with you. As you know, I shared some of my concerns about 
the way this administration has pushed an agenda on gender 
issues. For example, at the United Nations, U.S. officials have 
described the United States as a pro-life nation, which I 
appreciate. There are legitimate differences of view about 
abortion. My concern is that has bled over into other issues 
affecting women in ways that are often detrimental to the 
health of women.
    At the U.N. the U.S. threatened to veto a resolution 
supporting victims of rape over the single mention of sexual 
and reproductive health. When I think about reproductive health 
for myself, I am not talking about abortion. I do not think 
most women are.
    We have also aligned the U.S. with countries like Saudi 
Arabia that have a very troubling history on women's and LGBTQ 
rights.
    So can you commit, that if you are confirmed, that you will 
support women's rights, including reproductive rights, gender 
equality--and when I say reproductive rights, I am talking 
about in the context of family planning. I am not talking about 
abortion--gender equality and LGBTQ rights and all aspects of 
U.S. policy?
    Ambassador Currie. Thank you, Senator Shaheen, for that 
important question. And I appreciated the opportunity as well 
to have a frank exchange of views with you this morning.
    As I said this morning, this is a pro-life administration 
pursuing a pro-life foreign policy, and the policy of the 
administration is to protect women's health but also to ensure 
that U.S. taxpayer dollars are not used to promote or provide 
abortion as a form of family planning. So our efforts in that 
regard have been focused on that.
    I am committed to advancing the health and wellbeing of 
women and girls globally and continue to believe that the 
United States is a leader in this regard. We remain the largest 
provider of family planning assistance in the world, and that 
will continue to be the case. And we continue to support in the 
United States--the United States government and the 
administration continues to support a broad range of women's 
health initiatives related to maternal health, sexual violence 
in conflict--an issue I have worked on extensively--and HIV/
AIDS prevention and treatment. So I believe that the 
administration continues to provide for assistance to women's 
health and wellbeing and will continue to do so, and I strongly 
support those efforts.
    I would just leave it at that.
    Senator Shaheen. Thank you.
    And so will you commit to pushing back on pressure both 
within the administration and externally to move the U.S. in a 
counterproductive direction on issues that affect women and 
girls globally?
    Ambassador Currie. I will commit to pursuing a very 
vigorous policy of promoting and protecting the human rights of 
women and girls, including their rights to adequate health care 
and the highest attainable standards of health.
    Senator Shaheen. Thank you. I think it is very important 
for us to have an Ambassador for Global Women's Issues, and I 
very much appreciate your willingness to consider taking on 
this responsibility.
    Mr. Tan, will you commit to work with the Departments of 
Justice and Defense in order to ensure that those who are 
associated with a notorious British ISIS cell, known as the 
Beatles, are brought to justice in civilian courts in the 
United States, that they are not simply sent to Guantanamo Bay? 
And I would just point out that those terrorists who until 
recently were held in detention in Syria--it is my 
understanding that they have been moved, but they are believed 
to be responsible for the killing of Americans, including James 
Foley, whose family are constituents of mine. And I know that 
the families who lost loved ones to ISIS terrorists are very 
concerned about seeing that those responsible for the murders 
are brought back to the United States and brought to justice in 
civilian courts.
    Mr. Tan. Thank you, Senator Shaheen, for your important 
question.
    I share your concern and the concern of those who are both 
ISIS victims and their family members and loved ones, and 
bringing accountability for the atrocities that ISIS has 
committed will indeed be a priority of mine. And it is 
something that would encompass the range of the atrocities that 
have been perpetrated and are ongoing to an extent. So thank 
you very much for your important question, and I can commit to 
what you have mentioned.
    Senator Shaheen. Thank you. I appreciate that, and I know 
the families will too.
    Ambassador Kim, surprisingly New Hampshire has the largest 
Indonesian American population north of New York in 
Somersworth, New Hampshire. I do not know if you were aware of 
that. But they have recently inaugurated the first Little 
Indonesia, which we are very proud of, and I hope that if 
confirmed, that you will take time to come and visit Little 
Indonesia and visit Somersworth, New Hampshire and hear from 
the Indonesian population in New Hampshire their views on what 
is happening in the country.
    Ambassador Kim. Thank you very much for that warm 
invitation. I very much look forward to visiting Little 
Indonesia, if confirmed by the committee.
    Senator Shaheen. Many of those Indonesians who fled to New 
Hampshire and the United States came because of religious 
persecution. They are Christians who were persecuted in their 
home islands in Indonesia.
    Can you talk about how you would promote U.S. values around 
respect for religious freedom and, given that that has been 
challenging in Indonesia, how you can help encourage them to 
address that in a more positive way?
    Ambassador Kim. Thank you, Senator.
    Indonesia has made significant strides, but I think we can 
agree that more needs to be done. And I intend to spend a 
considerable amount of time working with senior government 
officials, including President Jokowi on promoting greater 
religious tolerance and interfaith harmony. I believe they are 
on the right path. We want to work with them to continue to 
encourage them.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman. My time is up.
    Senator Gardner. Thank you, Senator Shaheen.
    And Senator Markey has graciously allowed--I was going to 
yield to him for a statement, but go ahead, Senator Barrasso, 
if you would like.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Chairman, I want to take this opportunity to raise my 
concerns with the nomination of Sung Kim to be the U.S. 
Ambassador to Indonesia.
    In 2017, we learned through press reports that the U.S. 
Ambassador to the Philippines, Ambassador Kim, pledged to the 
Philippines government to move the Bells of Balangiga from 
Wyoming's F.E. Warren Air Force Base to the Philippines. I join 
Wyoming veterans in strongly opposing the efforts of Ambassador 
Kim. Despite the opposition of our veterans and legislation 
passed to protect the veterans' memorials, Ambassador Kim 
believed it was, quote, the right thing to do to return the 
bells soon.
    Well, the Bells of Balangiga were not just some bells 
indiscriminately taken during the Philippine insurrection. 
These bells were part of a veteran memorial located in Wyoming 
to pay tribute to the massacre of C Company, 9th Infantry. The 
Bells of Balangiga were used by the Filipino insurgents to 
signal the attack on American soldiers while they were asleep. 
In all, 48 of the 75 U.S. soldiers were killed during the 
attack. To honor the soldiers of C Company, these bells were 
legally brought to Cheyenne, Wyoming to be placed at Fort D.A. 
Russell, which is now F.E. Warren Air Force Base. A veteran 
memorial was erected displaying these bells as a way to 
recognize the troops who bravely fought for our nation and 
never came home.
    Mr. Kim's support for moving the bells to the Philippines 
resulted in tearing down a veteran memorial. In Wyoming, we 
have a strong tradition of never forgetting the sacrifices of 
our brave men and women. Dismantling this veteran memorial was 
completely unacceptable. It also sets a dangerous precedent for 
future veteran and war memorials. Mr. Kim's support and 
involvement helped establish a bad precedent for the future.
    There is nothing more important for a nation than to honor 
and remember those who died in service to their country. Mr. 
Kim's support for dismantling the Bells of Balangiga memorial 
is contrary to that commitment, and he failed to meet the 
standard expected of him.
    Mr. Chairman, I yield the remainder of my time.
    Senator Gardner. Thank you, Senator Barrasso.
    Senator Markey, would you like to give your opening 
statement? Then we will turn to Ambassador Kim and the panel 
for comments.
    Senator Markey. I can pass on the opening statement.
    Senator Gardner. At this point, Ambassador Kim, if you 
would like to respond.
    Ambassador Kim. Sure. Unfortunately, the Senator has left 
the room.
    But I would just like to state for the record that the 
administration's decision to return the Balangiga Bells was 
obviously a very difficult decision and one that was made after 
very careful deliberation by then Secretary of Defense Mattis 
and other senior officials of the administration. They decided, 
after extensive consultations with veterans' organizations, 
that returning the bells was the right thing to do for the 
alliance with the Philippines. Throughout the deliberation 
process, our colleagues in Washington consulted with various 
veterans' organizations and addressed their concerns fully.
    So I regret that Senator Barrasso has deep concerns about 
the decision, but it was an administration decision that was 
made after very careful consideration.
    Senator Gardner. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Kim, as we know, countering violent extremism is not a 
problem only in the Middle East but also in Southeast Asia. 
There are news reports that Indonesian ISIS fighters and family 
members have escaped prisons in northeast Syria during the 
current crisis initiated by President Trump. The global 
implications of the administration's poor judgment in the 
Middle East must be acknowledged.
    Mr. Kim, how will you work with the Indonesian government 
to address ISIS fighters and counter violent extremism?
    Ambassador Kim. Thank you very much, Senator, for that very 
important question.
    We have a strong law enforcement-led counterterrorism 
cooperation with Indonesia, and we hope to expand that 
cooperation. Indonesia in recent years has taken a number of 
steps to strengthen their counterterrorism fight, including 
passing a counterterrorism law that gives law enforcement 
authorities greater authority to go after funding for terrorist 
organizations and also to stop Indonesians from going overseas 
to join terrorist organizations. So we want to encourage them 
to do more, and I am deeply committed to focusing on this very 
important aspect of the relationship.
    Senator Markey. So, you have been working on ISIS issues in 
the Philippines. Is that correct?
    Ambassador Kim. Yes, sir.
    Senator Markey. So, thank you.
    So, it is just very important for them to know that we want 
to partner with them in that battle, but at the same time, the 
Indonesian government should establish truth and reconciliation 
measures, but also investigate and prosecute those responsible 
for grave human rights violations. So, we thank you for your 
commitment to hold Indonesia accountable and demonstrating 
American commitment to human rights in the region.
    You have also been nominated to serve in a country that has 
great potential, and while we appreciate the democratic 
progress that Indonesia has made since 1998, I am still 
concerned about the reports of increasing political 
instability, and threats to basic human rights protections and 
democratic norms. The proposed criminal code, which spurred the 
country into protests this past August and September, would 
have violated tenets of free speech and freedom of association. 
Various provisions would have restricted access to 
contraception, freedom of speech, and reduced the rights of 
religious minorities.
    Ambassador Kim, if confirmed, how will you press the 
Indonesian government to take action on human rights, ending 
hateful rhetoric against minorities, establishing 
accountability for security forces, and upholding the right to 
freedom of expression?
    Ambassador Kim. Thank you, Senator.
    Indonesia, as you suggest, has made significant progress on 
governance and respect for human rights, but more needs to be 
done. And I pledge to work closely with President Jokowi and 
his senior team to make sure that they remain focused on 
promoting human rights, improving governance, making 
bureaucracy more transparent and more accountable.
    I believe there is an opportunity for us to do more with 
them. Indonesia has long been a leader in Southeast Asia and 
has shown that they can be a responsible leader, not just on 
regional issues, but on global issues as well. So I look 
forward to working with them, if confirmed, to make sure that 
their path improving governance for all Indonesians continues.
    Senator Markey. So, a lot of the protests that are actually 
occurring are protesting the past human rights violations, and 
asking for accountability. That goes back to the Suharto era. 
President Widodo has not followed through on his promise to 
address past violations through the traditional system.
    So, Ambassador Kim, if confirmed, will you push the 
Indonesian government not only to establish truth and 
reconciliation measures, but also to investigate and prosecute 
those responsible for grave human rights violations?
    Ambassador Kim. Yes. I very much look forward to working 
with the leaders in Indonesia to make sure that their path 
towards greater governance, transparency, and accountability 
continues.
    Senator Markey. Do you agree that many of the proposed 
changes to Indonesia's criminal code raises serious human 
rights concerns, in particular, possible violations of basic 
civil and political rights?
    Ambassador Kim. Sir, apologies, but I am not fully read up 
on all of the provisions in the proposed criminal statute.
    But I do know that the concerns expressed by citizens with 
regard to possible curtailment of authorities given to the 
anti-corruption commission is of deep concern. That commission 
has played an important role not only dealing with corrupt 
activities currently but also looking into past corrupt 
practices. So I would like to work with Indonesian authorities 
to make sure that that very important commission's authorities 
are fully maintained.
    Senator Markey. I wrote a letter to Secretary Pompeo back 
in June expressing concerns for recent reports that the State 
Department was restricting U.S. embassies from flying the Pride 
parade. Such actions are worrying, especially at a time when it 
is crucial for the U.S. to be a leader in supporting LGBTI 
rights around the world. In Indonesia alone, reports have 
indicated harrowing incidents of intimidation, discrimination, 
and attacks against LGBTI people.
    Ambassador Kim, if confirmed, how will you encourage the 
government to reform its policies and attitudes towards the 
LGBTI community?
    Ambassador Kim. Senator, I am deeply committed to 
protecting and promoting LGBTI rights. And as I have done in my 
previous assignments in Korea and the Philippines, if 
confirmed, I look forward to working with Indonesian 
authorities, as well as the civil societies, to make sure that 
LGBTI communities' rights are protected adequately in 
Indonesia.
    Senator Markey. And, Indonesia in March threatened to pull 
out of the Paris Accord over an EU decision to rule out palm 
oil as a biofuel by 2030. Considered as one of the five largest 
emitters of greenhouse gases, Indonesia's suggestion only 
stalls our global commitment to fight the existential threat of 
climate change.
    Ambassador Kim, if confirmed, what types of U.S. programs 
or investments will you support to ensure Indonesia's continued 
commitment to fighting climate change?
    Ambassador Kim. Senator, thank you for that important 
question.
    USAID and other elements of the embassy in Jakarta have 
been engaged in a number of productive programs to help the 
Indonesians deal with environmental resilience and disaster 
relief. Some of the programs have focused on irresponsible 
deforestation. So I would like to continue those programs and, 
if at all possible, to enhance those programs, broaden those 
programs so that we are covering more of Indonesia in terms of 
environmental resilience and making sure that they responsibly 
utilize their natural resources and learn sustainability 
practices.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    I look forward to working with Ambassador Kim, Mr. 
DeSombre, and Ms. Cantor on the issues relating to 
implementation of the Asia Reassurance Initiative Act that 
Senator Markey and I authored as we move forward with the 
appropriations process, the tools that it makes available for 
continued and growing presence in Asia. And U.S. leadership is 
incredibly important.
    Mr. DeSombre, I would like to follow up with you at some 
point on a Colorado constituent issue that we have in Thailand 
in terms of a company that challenged that they are having a 
dispute over an issue with the Institute for Nuclear 
Technology. And perhaps we can get into that a little bit later 
as you get into the role itself.
    Thanks to Mr. Tan for being here as well. Perhaps we can 
have a conversation about Uighurs and the role of your office 
and the work that we need to do to stand up for human rights 
and the criminal activity that is taking place in China as a 
result of their treatment of populations like the Uighur 
population.
    And, Ms. Currie, we heard from Brian Hook this morning 
talking about the role of FIFA in Iran and how women were being 
excluded from these soccer games, matches and what it meant for 
U.S. leadership. And of course, that voice is incredibly 
important as we not only empower women and girls around Iran 
but around the world to the standards that we know every human 
being deserves.
    So thank you to all of you for your time and testimony 
today. I am going to go ahead and adjourn the hearing because 
of the need to move on with the next panel. So thank you all 
for attending the hearing. Thank you very much for your 
willingness to serve.
    For the information of members who attended or those who 
did not, the record will remain open until the close of 
business on Friday, including for members to submit questions 
for the record. This is your homework assignment. I kindly ask 
that you respond as promptly as possible. The responses will be 
made a part of the record.
    We are going to adjourn this committee hearing. We are 
going to have a few minutes of time to turn around and prepare 
for the next hearing. And once that is set, then we will begin 
with the subcommittee hearing.
    With that, the committee is adjourned.


    [Whereupon, at 3:00 p.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
      Submitted to Carmen G. Cantor by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have promoted human rights and democracy through my work 
in the Bureau of Education and Cultural Affairs (ECA), as well as 
through my experience as Executive Director in the Bureau of 
Counterterrorism (CT). At ECA, I supported exchanges designed to 
connect people from around the world with U.S. democratic processes and 
institutions. At CT, we protected and advanced human rights and 
democracy by countering intolerance and extremism. I see civil rights 
as human rights and have also dedicated a significant portion of my 
career to advancing civil rights within multiple agencies.

    Question. What are the most pressing human rights issues in 
Micronesia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Micronesia? What do 
you hope to accomplish through these actions?

    Answer. The government of the Federated States of Micronesia (FSM) 
generally respects human rights. In the Department of State's most 
recent Human Rights Report, the Department noted that civilian 
authorities maintained effective control over the security forces; 
there were no reports of egregious human rights abuses; and the 
government sometimes took steps to punish officials. Impunity does 
remain a problem, however, particularly regarding alleged corruption. 
Some other problems persist, including continued discrimination and 
violence against women. If confirmed, I will work to implement the 
Indo-Pacific Transparency Initiative, which promotes civil society, the 
rule of law, and transparent and accountable governments across the 
Indo-Pacific. I would do so through advocacy, outreach programs, and 
cooperation with local NGOs to address corruption, violence against 
women, and increase women's political and economic participation. I 
would also encourage stronger legal institutions and work to expand 
programs that provide U.S. training to the FSM judiciary, if confirmed.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Micronesia in 
advancing human rights, civil society and democracy in general?

    Answer. There are human rights challenges rooted in long-standing 
FSM customs. If confirmed, I will work to leverage available resources, 
including working with other embassies, international organizations, 
and local NGOs, to prevent and respond to gender-based violence and 
corruption. I will also work to increase political and economic 
participation for women. Women's political participation is 
particularly important; there has never been a woman representative in 
the National Congress of the Federated States of Micronesia.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Micronesia? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights and other NGO 
actors in both the United States and Micronesia to learn about their 
concerns and collaborate with them where possible and appropriate. 
Micronesia does not have a military of its own. Under the Compact and 
Amended Compact, the United States has full authority and 
responsibility for security and defense matters in or relating to the 
FSM. As Micronesia does not generally receive U.S. assistance for 
security forces, the Leahy Law is often not relevant to Micronesia. 
However, in the rare instances when U.S. assistance could be directed 
toward a Micronesian security force unit, I am committed to the 
effective implementation of the Leahy Law.

    Question. Will you and your embassy team actively engage with 
Micronesia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Micronesia?

    Answer. There have been no reports of political prisoners or other 
persons unjustly targeted by Micronesia. Should such a situation arise, 
I would, if confirmed, of course bring U.S. concerns to the attention 
of the government at the highest levels.

    Question. Will you engage with Micronesia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage the government, NGOs, 
civil society, and other partners on matters of human rights, civil 
rights, and governance as part of the U.S. government's commitment to 
these issues under the Indo-Pacific Transparency Initiative.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in Micronesia?

    Answer. My investments consist of rental property in the United 
States and cash accounts. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest and will remain 
vigilant with regard to my ethics obligations.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Promoting, mentoring, and supporting staff with diverse 
backgrounds both in the Foreign Service and Civil Service is something 
I have done throughout my career. If confirmed, I would make strong 
mentoring relationships an integral part of the Embassy culture by 
promoting initiatives that support employee engagement, job 
satisfaction, development of leadership skills, and increased teamwork. 
It is my expectation that by doing so, workplace diversity, employee 
retention, productivity, and morale will all improve.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Supervisors are instrumental to diversity and inclusion 
efforts. If confirmed, I will ensure that I foster an environment where 
differences are celebrated. I will develop specific strategies to 
promote inclusiveness such as listening to and communicating with all 
staff, holding more effective meetings, communicating goals, and 
measuring progress.
    If confirmed, I will verify the existence of a robust EEO program 
at post that includes continuous training and sensitization, meet 
individually with EEO counselors to gain their perspectives, and ensure 
that personnel are aware of the Department's discrimination and 
harassment policies and how to report violations. I will review the 
mentoring and support programs currently in place, meet with the 
American and local staffs in the Mission to determine where inclusivity 
is perceived as lacking, and work with employee organizations to 
discuss their support. In addition, I will review our HR processes to 
determine where and how we can mitigate unconscious biases and provide 
access to training that will support these efforts. I will also meet 
with Mission supervisors and the management team to discuss what I have 
heard from the employees, where improvements are needed and, based on 
all of the information gathered, put a plan in place to correct any 
weaknesses or gaps.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Micronesia 
specifically?

    Answer. Corruption undermines democratic governance and the rule of 
law, including in the Federated States of Micronesia. The law in 
Micronesia provides criminal penalties for corruption by officials, and 
the government generally implements the law, but some officials have 
engaged in corrupt practices with impunity. This erodes public 
confidence in institutions, systems of governance, and impedes 
achievement of the goals of our vision for a free and open Indo-
Pacific. The FSM can only reach its full potential if we make efforts 
to end these corrupt practices. The government of the FSM continues to 
work to address corruption through its Attorney General's Office. 
According to the Department's most recent Human Rights Report, this 
office operated independently and actively collaborated with civil 
society via a hotline operated by the Office of the National Public 
Auditor to encourage reporting of public complaints of corruption. The 
public auditor referred some corruption cases to the FSM Department of 
Justice during the year. One case concluded with the individual losing 
his job.

    Question. What is your assessment of corruption trends in 
Micronesia and efforts to address and reduce it by that government?

    Answer. The law in Micronesia provides criminal penalties for 
corruption by officials, and the government generally implemented the 
law, but some officials reportedly engaged in corrupt practices with 
impunity. There were numerous anecdotal reports of corruption.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Micronesia?

    Answer. If confirmed, I will work closely with the government of 
the FSM and U.S. law enforcement to advance the Indo-Pacific 
Transparency Initiative by strengthening good governance and 
anticorruption efforts. I will work with allies and likeminded partners 
to coordinate our efforts on these important issues. Through new 
funding for USAID on governance under the Indo-Pacific Strategy, 
including under the Indo-Pacific Transparency Initiative, I will work 
to ensure this is implemented in the FSM. I will also work closely with 
interagency partners to ensure that U.S. taxpayer resources are used 
for their intended purpose.

                               __________


            Responses to Additional Questions for the Record
    Submitted to Michael George DeSombre by Senator Robert Menendez

    Question. Since becoming head of state in 2016, King Maha 
Vajiralongkorn, Rama X, has consolidated his control over the Thai 
military, the $60 billion Crown Property Bureau, and the basic civil 
service of Thailand, dismantling much of the constitutional checks and 
balances put in place after 1932, when Thailand ended its earlier 
absolute monarchy. New regiments of the military have been placed 
directly under the king's command, and indications that he has more 
directly placed himself into the command structures of the Ministry of 
Defense. At the same time, there have been disturbing reports about the 
king's staff being forcibly disappeared at the palace in Bangkok. 
Critics of the king overseas have been killed (in Laos) or harassed (in 
Japan). There are also reports that the king may order the dissolution 
of the opposition Future Forward party, especially worrying given a 
recent speech by the military's new army chief, Apirat Kongsompong, 
threatening the party. What is your assessment of the king's actions, 
and do you have any concerns that this behavior could undermine 
Thailand's political system and the country's long term stability?

    Answer. The United States respects the institution of the Thai 
monarchy and understands the great esteem in which the people of 
Thailand hold the Royal Family. We regularly urge Thai authorities, 
both privately and publicly, to ensure that the exercise of freedom of 
expression is not criminalized and is protected in accordance with 
Thailand's international obligations and commitments. If confirmed, I 
will continue to encourage our Thai counterparts to respect human 
rights and fundamental freedoms, including freedom of expression, and 
to act in a manner consistent with international obligations and 
commitments.

    Question. Do you think the U.S. should consider any additional 
policy measures in light of these actions?

    Answer. The United States is consistently tracking Thailand's 
democratic progress and protections for human rights and fundamental 
freedoms. If I am confirmed, I will ensure that our messaging and 
policy priorities in Thailand continue to underscore our commitment to 
advancing democratic principles and protections for human rights and 
fundamental freedoms.

    Question. In the event that the government dissolves or dismantles 
the Future Forward Party what do you think are the appropriate measures 
the United States ought to take? Do you think that the U.S. should 
criticize the government for doing so? Warn Thailand that a failure to 
allow a viable political opposition puts additional or future U.S. 
assistance at risk, including military assistance?

    Answer. The United States consistently messages to the Royal Thai 
government, opposition parties, and civil society that democratic 
institutions must be strengthened and human rights and fundamental 
freedoms must be respected. These efforts have been a major part of all 
high-level engagements with Thailand for many years, including 
Secretary Pompeo's recent visit to Thailand for ASEAN Foreign 
Ministers' Meetings. The Department remains concerned about 
restrictions on human rights and fundamental freedoms, including 
harassment of civil society organizations and opposition politicians, 
and recognize that progress is a long-term effort. Our messaging and 
engagements intentionally underscore our commitment to advancing 
democratic principles in Thailand.

    Question. What about if, as a more general matter, if the Thai 
government's human rights record worsens?

    Answer. The United States is tracking and providing support for 
democratic progress and efforts to protect human rights in Thailand. 
Protecting human rights and fundamental freedoms and advancing 
democratic values are among our highest priorities and, if confirmed, I 
will be sure those priorities are elevated in our engagement. If 
confirmed, I will encourage the Royal Thai government to respect human 
rights and fundamental freedoms, including freedom of expression, and 
to act in a manner consistent with international obligations and 
commitments. I will also support U.S. efforts to respond to human 
rights concerns and any new circumstances in a manner consistent with 
applicable U.S. law, regulations, and policy priorities.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. For the past four years, I have had the honor to serve as 
the Chairman of the Board of Trustees of Save the Children Hong Kong, a 
member organization of the global Save the Children movement working in 
120 countries to provide health, education, protection, and disaster 
relief assistance to the world's most marginalized and deprived 
children. As a father of four children, the organization's mission is 
personal and important to me. I am extremely proud to have had the 
opportunity to support these efforts, and look forward to new 
opportunities to promote human rights and democracy in Thailand, if 
confirmed.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Thailand? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Challenges to democracy and human rights in Thailand 
include unlawful or arbitrary killings by the government or its agents; 
torture by government officials; arbitrary arrest and detention by 
government authorities; censorship, site blocking, and criminal libel; 
restrictions on political participation; and corruption. The United 
States supports democracy, human rights, and fundamental freedoms as 
essential components of good governance, peace, and prosperity in 
Thailand, the Indo-Pacific and around the world. We are committed to a 
long-term partnership with Thailand and have long supported accountable 
and transparent democratic governance, as well as efforts to strengthen 
democratic institutions and protect human rights. There has been 
democratic progress in Thailand this year, but we understand that work 
remains to be done by Thailand on democracy and human rights. The 
promotion of democracy and human rights and fundamental freedoms has 
been a major part of U.S. engagement with Thailand for many years. If 
confirmed, I will continue to ensure that human rights and democratic 
progress will be key areas of engagement.

    Question. What steps will you take--if confirmed--to support 
democracy in Thailand? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Thailand is a key partner and a long-term ally in Asia; our 
broad cooperation benefits both our countries, the region, and beyond. 
We have long supported accountable and transparent democratic 
governance in Thailand, and we are pleased to see a great diversity of 
opinion and voices in Parliament, but we understand that work remains 
to be done by Thailand on democracy and human rights. If confirmed, I 
will engage through new and existing U.S. programs focused on 
strengthening democracy in Thailand, including under our vision for a 
free and open Indo-Pacific. I would also continue to call on Thailand 
to strengthen democratic institutions and protect human rights and 
fundamental freedoms.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The United States supports democracy and human rights and 
fundamental freedoms in the Indo-Pacific as part of our Indo-Pacific 
Transparency Initiative, as well as around the world, as the building 
blocks of progress and the bulwarks of independence. If confirmed, I 
will work closely with interagency partners to use U.S. government 
assistance resources efficiently and effectively to support democracy 
and governance in Thailand. I would also continue to call on Thailand 
to strengthen its democratic institutions and protect human rights and 
fundamental freedoms.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Thailand? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and with local and other human rights NGOs in Thailand. 
Protecting human rights and fundamental freedoms and advancing 
democratic values are among our highest priorities under our vision for 
a free and open Indo-Pacific and, if confirmed, I will be sure those 
priorities continue to be elevated in our engagement with the Royal 
Thai government. The United States is consistently tracking and 
providing support for democratic progress and efforts to protect human 
rights in Thailand, and will respond to new situations or concerns 
according to U.S. law and policy.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. The United States has long supported a restoration of 
accountable and elected governance in Thailand. That support has 
included the strengthening of democratic institutions, civil society, 
and independent media in the country. The United States does not 
support any candidate or political party in Thailand--we support the 
democratic process. If confirmed, I will support transparency, good 
governance, and human rights and fundamental freedoms in Thailand and 
will continue to work with the Thai people and the Royal Thai 
government, including opposition politicians, to this end.

    Question. Will you and your embassy team actively engage with 
Thailand on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Thailand?

    Answer. If confirmed, I look forward to meeting with members of the 
press in Thailand. Fundamental freedoms and human rights, including 
freedom of speech, are top U.S. priorities under the Indo-Pacific 
Transparency Initiative. If confirmed, I will encourage the Royal Thai 
government to respect human rights and fundamental freedoms, including 
freedom of expression. I would work closely with Congress and 
interagency colleagues, like-minded foreign partners, civil society, 
and private sector partners to promote freedom of expression via 
internet or traditional media in Thailand, both through U.S. 
government-sponsored programs and in engagements with members of the 
media and the Royal Thai government.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Thailand?

    Answer. The United States takes a holistic approach to identifying, 
tracking, and countering disinformation. It is imperative that 
countries around the world continue to share information and work 
together in this effort by building collective resilience, sharing best 
practices, and imposing costs on actors that carry out disinformation 
campaigns. If confirmed, I will support U.S. efforts to counter 
disinformation, support a free and transparent news media environment, 
and to increase awareness by conducting outreach to the public, private 
industry, civil society, and academic groups.

    Question. Will you and your embassy teams actively engage with 
Thailand on the right of labor groups to organize, including for 
independent trade unions?

    Answer. The United States has long promoted internationally 
recognized labor rights with a particular focus on freedom of 
association and collective bargaining, and strengthening core labor 
standards, particularly for members of traditionally neglected groups, 
such as women, youth, and informal sector workers. If confirmed, I will 
work closely with Congress and interagency partners to support 
protections for labor rights in Thailand.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Thailand, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Thailand? What specifically will you commit to do to help LGBTQ 
people in Thailand?

    Answer. Promoting, protecting, and advancing human rights--
including the rights of lesbian, gay, bisexual, transgender, and 
intersex (LGBTI) persons--has long been the policy of the United 
States. If confirmed, I will support U.S. policy efforts to deter 
violence against LGBTI persons, advocate against laws that criminalize 
LGBTI status or conduct, and to prevent discrimination against LGBTI 
persons, as applicable in the context of Thailand.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. If confirmed, I commit to respond promptly and 
appropriately to requests for information by Members of this committee, 
in accordance with U.S. laws and regulations.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, in accordance with U.S. laws and regulations.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I will follow all Department rules and 
regulations as to reporting waste, fraud, and abuse, including 
notifying the Department's Inspector General when appropriate.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I have not faced such concerns in my previous experience. 
If confirmed, I will draw on the Department's resources for employees 
and uphold relevant laws, regulations and Department policy related to 
equal employment opportunity protections. As Secretary Pompeo has said, 
we aim to recognize the diversity of our employees' rich experiences, 
talent, knowledge, and personal characteristics. Fostering a culture of 
inclusion is about creating a workplace environment in which everyone 
is treated with dignity and respect, where each individual is valued 
and empowered to thrive.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree with that statement. If confirmed, I will work 
to prevent any attempts to target or retaliate against career employees 
on the basis of their perceived political beliefs, prior work on 
policy, or affiliation with a previous administration. I take 
allegations of such practices seriously and will ensure they are 
referred to the Department's Inspector General.

                               __________


       Responses to Additional Questions for the Record Submitted
        to Michael George DeSombre by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. For the past four years, I have had the honor to serve as 
the board chair of Save the Children Hong Kong, which is a global 
organization working in 120 countries to provide health, education, 
protection, and disaster relief assistance to the world's most 
marginalized and deprived children. As a father of four children, the 
organization's mission is personal and important to me. I am extremely 
proud to have had the opportunity to support these efforts. I recognize 
the importance of these issues in America's foreign policy, and, if 
confirmed, I, look forward to new opportunities to promote human rights 
and democracy in Thailand.

    Question. What are the most pressing human rights issues in 
Thailand? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Thailand? What do 
you hope to accomplish through these actions?

    Answer. As mentioned in the annual State Department Human Rights 
Report, human rights issues in Thailand include unlawful or arbitrary 
killings by the government or its agents; torture by government 
officials; arbitrary arrest and detention by government authorities; 
censorship, site blocking, and criminal libel; restrictions on 
political participation; and corruption. The United States supports 
democracy, human rights, and fundamental freedoms as essential 
components of good governance, peace, and prosperity in Thailand, the 
Indo-Pacific and around the world. We are committed to a long-term 
partnership with Thailand and have long supported accountable and 
elected governance, as well as efforts to strengthen democratic 
institutions and protect human rights. There has been democratic 
progress in Thailand this year, but we understand that work remains to 
be done by Thailand on democracy and human rights. The promotion of 
democracy, human rights, and fundamental freedoms has been a major part 
of U.S. engagement with Thailand for many years. If confirmed, I will 
continue to make sure that human rights and democratic progress will be 
key areas of engagement.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Thailand in 
advancing human rights, civil society and democracy in general?

    Answer. The United States is consistently tracking and providing 
support for democratic progress and efforts to protect human rights in 
Thailand. We remain concerned about restrictions on human rights and 
fundamental freedoms, including harassment of civil society 
organizations and opposition politicians, and recognize that progress 
is a long-term effort. If confirmed, I will encourage the Royal Thai 
government to respect human rights and fundamental freedoms, including 
freedom of expression, and to act in a manner consistent with 
international obligations and commitments.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Thailand? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and with local human rights NGOs in Thailand. Protecting human 
rights and fundamental freedoms and advancing democratic values are 
among our highest priorities under our vision for a free and open Indo-
Pacific and, if confirmed, I will be sure those priorities continue to 
be elevated in our engagement with the Royal Thai government. I will 
work closely with U.S. Embassy and Department of Defense colleagues to 
ensure that recipients of U.S. security assistance continue to be 
vetted in a manner consistent with the Leahy Law, other U.S. laws, and 
Department policy.

    Question. Will you and your embassy team actively engage with 
Thailand to address cases of key political prisoners or persons 
otherwise unjustly targeted by Thailand?

    Answer. If confirmed, I will directly engage the Royal Thai 
government on cases of particular concern, including political 
prisoners or other individuals targeted for exercising their human 
rights and fundamental freedoms. I will encourage the Royal Thai 
government to respect human rights and fundamental freedoms, including 
freedom of expression and the right to liberty of person, and to act in 
a manner consistent with international obligations and commitments.

    Question. Will you engage in Thailand on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. The United States supports democracy and human rights and 
fundamental freedoms in the Indo-Pacific as part of our Indo-Pacific 
Transparency Initiative, as well as around the world, as the building 
blocks of progress and the bulwarks of independence. If confirmed, I 
will continue to call on Thailand to strengthen democratic institutions 
and protect human rights and fundamental freedoms.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or any members of your immediate family have any 
financial interests in Thailand?

    Answer. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest. As reflected in my ethics 
agreement, I will divest my interests in investments the Department of 
State Ethics Office has deemed necessary to avoid a conflict of 
interest, and will remain vigilant with regard to my ethics 
obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As Secretary Pompeo has said, we aim to recognize the 
diversity of our employees' rich experiences, talent, knowledge, and 
personal characteristics. Fostering a culture of inclusion is about 
creating a workplace environment in which everyone is treated with 
dignity and respect, where each individual is valued and empowered to 
thrive. If confirmed, I will draw on the Department's resources for 
employees, including those related to work life wellness, resilience, 
and employee affinity groups. I will also meet with Mission supervisors 
and the management team to discuss employee feedback, where 
improvements are needed and, based on all of the information gathered, 
put a plan in place to correct any weaknesses or gaps. As the Secretary 
noted when he introduced the Department's Professional Ethos Statement 
on April 26, respect, responsibility, and accountability are the 
foundation of everything we do because our greatest resource is our 
people.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I intend to create a content and productive 
mission by focusing on the safety, security, and personal fulfillment 
of my staff, by remaining actively engaged, by extending opportunities 
in and out of the mission, and by listening to their needs. As 
Secretary Pompeo has said, all employees should feel they work in a 
professional, supportive, and teamwork-oriented community where 
everyone can contribute to the mission, regardless of position, rank, 
grade, or employment status. If confirmed, I will make taking care of 
my team and fostering a high-performing, healthy, and secure workplace 
a priority, with zero tolerance for misconduct, including sexual 
harassment.

    Question. How do you believe that political corruption impacts 
democratic governance and the rule of law generally, and in Thailand 
specifically?

    Answer. Corruption, whether in Thailand or elsewhere, saps energy 
from economic growth and undermines trust in government needed for 
long-term cohesion and stability. A key tenet of the Indo-Pacific 
strategy is to support good governance, including anticorruption 
measures. In November 2018, Vice President Pence announced the Indo-
Pacific Transparency Initiative, which dedicates $400 million over two 
years to empower the region's citizens, help combat corruption, and 
strengthen nations' sovereignty in order to achieve the goals of sound, 
just, and responsive governance. In Thailand, the United States has 
long supported a restoration of accountable and elected governance. For 
many years, we have supported the strengthening of democratic 
institutions, civil society, and independent media in the country. If 
confirmed, I will support transparency, good governance, human rights, 
and fundamental freedoms in Thailand and will continue to work with the 
Thai people and the Royal Thai government to this end.

    Question. What is your assessment of corruption trends in Thailand 
and efforts to address and reduce it by that government?

    Answer. The United States supports efforts to combat corruption in 
Thailand. In cooperation with the Royal Thai government, Mission 
Thailand sponsors a series of anticorruption training courses designed 
to improve the capacity of Thailand's criminal justice institutions to 
investigate and prosecute corruption crimes. It is my understanding 
that we use our International Law Enforcement Academy (a joint U.S.-
Thailand project sponsored by the Department of State's Bureau of 
International Narcotics and Law Enforcement Affairs) as a platform to 
deliver cutting-edge instruction by U.S. federal law enforcement 
experts from agencies such as the Federal Bureau of Investigations, 
Internal Revenue Service, Department of Justice, and Homeland Security 
Investigations. In 2019, anticorruption courses included public 
corruption investigations, asset recovery techniques, financial 
investigations, and trafficking in persons (TIP) related corruption. If 
confirmed, I look forward to continuing and strengthening these 
efforts.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Thailand?

    Answer. In November 2018, Vice President Pence announced the Indo-
Pacific Transparency Initiative, which dedicates $400 million over two 
years to empower the Indo-Pacific region's citizens, help combat 
corruption, and strengthen nations' sovereignty in order to achieve the 
goals of sound, just, and responsive governance. The United States 
supports several regional anticorruption projects that aim to 
strengthen good governance and anticorruption in Thailand. For example, 
a grant to the American Bar Association's Rule of Law Initiative (ABA 
ROLI) works to decrease corruption by providing expertise to regional 
anticorruption bodies and targeted technical assistance and capacity 
building training to domestic anticorruption bodies and law enforcement 
officials in order to promote implementation of international 
anticorruption commitments, with an emphasis on countering foreign 
bribery. If confirmed, I look forward to supporting and continuing 
these and other efforts to support good governance and anticorruption 
programming in Thailand.

    Question. As a military government, the Prayuth regime has severely 
curtailed freedoms of speech and assembly and reined in criticism from 
the press, academia, and civil society. Do you believe the new civilian 
government, also led by Prime Minister Prayuth, has restored a 
satisfactory level of political freedom in Thailand? If not, what would 
be your priorities in encouraging it to do so?

    Answer. The U.S.-Thai relationship covers a wide range of 
political, security, and economic cooperation. We congratulated the 
tens of millions of Thai citizens who participated in the long-awaited 
March 24 election for demonstrating their strong support for a return 
to elected government. The voting, robust media coverage of the 
process, and open debate around its merits are steps toward a more 
democratic government that reflects the will of the people. The United 
States welcomed the diverse elected voices in the newly formed 
Parliament, and has communicated to the Royal Thai government that 
continued progress to uphold democratic institutions, human rights, and 
fundamental freedoms is essential to the success of our ongoing 
partnership with Thailand. If confirmed, I will continue to place 
priority and emphasis on this important aspect of our relations.

    Question. How do you think the U.S. can continue to promote values 
of democracy and rule of law despite the strong political push-back 
from Thailand, particularly in the aftermath of the 2019 election?

    Answer. The Department consistently communicates to the Royal Thai 
government, opposition parties, and civil society that democratic 
institutions must be strengthened and human rights and fundamental 
freedoms must be respected. These efforts have been a major part of all 
high-level engagements with Thailand for many years, including 
Secretary Pompeo's recent visit to Thailand for ASEAN Foreign 
Ministers' Meetings. The Department's messaging and engagements 
intentionally underscore the commitment to advancing democratic 
principles in Thailand. Local elections, expected in 2020, present an 
opportunity for the U.S. to encourage Thai civil society and the Royal 
Thai government to enlarge the democratic space and promote peaceful 
freedom of expression. These elections will provide insight into 
Thailand's progress toward stronger democratic institutions.

    Question. If you are confirmed as Ambassador, how will you balance 
the goals of advancing the U.S.-Thai alliance and promoting democracy 
and rule of law?

    Answer. The United States is committed to a long-term partnership 
with Thailand, assisting it in defense modernization efforts to be 
ready and capable to address a broad range of 21st century threats to a 
free and open Indo-Pacific. At the same time, protecting human rights 
and advancing democratic values remain among our highest priorities in 
Thailand, and we will continue to ensure that those priorities are 
advanced in our engagement. U.S. military assistance to Thailand is 
consistently evaluated according to U.S. law and policy objectives, and 
we are carefully tracking Thailand's democratic progress and 
protections of human rights. For example, in addition to building 
relationships that support our diplomatic and military interests in 
Thailand, U.S. International Military Education and Training (IMET) 
courses help promote the United States' tradition of upholding and 
respecting the international law of armed conflict and human rights, 
including civil and political liberties, as well as the military's 
responsibility to protect civilian life and support a civilian 
government. If confirmed, I will continue to support these efforts to 
advance the U.S.-Thai alliance and promote democracy and the rule of 
law in Thailand.

    Question. Do you think U.S. approaches to Thailand will set 
precedents and send signals to other nations regarding what the U.S. 
considers to be an acceptable form of democracy?

    Answer. Thailand is a key partner and a long-term ally in Asia; our 
broad cooperation benefits both our countries, the region, and beyond. 
Following Thailand's elections in March, the seating of Parliament, and 
the subsequent formation of government, the Secretary certified that a 
democratically elected government had taken office in Thailand, which 
lifted the military coup restrictions on assistance to the government 
of Thailand in accordance with U.S. law. The United States has long 
supported accountable and elected governance in Thailand, and we are 
pleased to see a great diversity of opinion and voices in Parliament, 
but we understand that work remains to be done by Thailand on democracy 
and human rights. If confirmed, I will continue to call on Thailand to 
strengthen democratic institutions and protect human rights and 
fundamental freedoms.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. Sung Y. Kim by Senator Robert Menendez

    Question. Indonesia has a long and sordid history of criminalizing 
and intimidating human rights and environmental defenders, including a 
legacy of torture and in some cases murder. In recent months there has 
been a dramatic rise in the attacks against human rights defenders in 
Indonesia, including criminal charges against dozens of Papuan anti-
racism protestors; inhumane detention conditions for the peaceful 
solidarity activist Surya Anta; the criminalization of Veronica Komen, 
Dandhi Laksono and Ananda Badudu for their online human rights 
activism; and the recent suspicious death of the environmental human 
rights lawyer Golfrid Siregar in Sumatra:
   How would you encourage the Indonesian government to reverse this 
        trend and begin protecting rather than attacking human rights 
        defenders?

    Answer. In Indonesia, the Department continues to make clear at 
every level the importance the United States government places on 
respect for human rights and democracy. We do this through our 
engagement with government and civil society, people to people ties, 
and annual public reports, such as the Human Rights Report, 
International Religious Freedom Report, and Trafficking in Persons 
Report. The Department has emphasized our support for human rights in 
specific bilateral discussions related to reported violations and 
abuses by certain military members. USAID works with the National Legal 
Aid Foundation in 16 provinces to defend the rights of marginalized and 
vulnerable populations. If confirmed, I will continue this strong 
advocacy for the promotion of human rights in Indonesia.

    Question. Only last week, Golfrid Siregar, a human rights and 
environmental lawyer, died or was possibly murdered under suspicious 
circumstances. Golfrid was part of the legal advocacy team of the 
Indonesian Forum for the Environment (WALHI)/Friends of the Earth 
Indonesia, Indonesia's largest environmental organization. He had been 
heavily involved in fights to protect Sumatra's rainforests and 
communities threatened by palm oil plantations and large hydropower. 
While local authorities appear to be trying to treat his death as the 
result of a traffic accident, substantial evidence points to potential 
foul play. Indonesian civil society is calling on their government to 
launch an independent, transparent investigation into Golfrid's death--
to be led by Indonesian Police Headquarters (Mabes POLRI) rather than 
local North Sumatran police (POLDA Sumut). They are also calling for an 
independent fact-finding team coordinated directly by the National 
Commission on Human Rights (KOMNAS HAM):

   Will you support these demands?

    Answer. If confirmed, I will support a thorough and transparent 
inquiry into Siregar's tragic death in accordance with the rule of law.

    Question. Will you further support Presidential Regulations which 
establish and ensure protections for environmental, human rights 
defenders, so as to prevent any further violence and the 
criminalization of those who may expose unjust or illegal activities?

    Answer. Civil society has flourished in Indonesia since 1998, 
contributing to improvements in Indonesia's democratic governance, 
accountability, and citizen engagement. It is important that government 
and an independent civil society, including a vibrant media, work 
together to continue this progress. If confirmed, my focus will be to 
continue to encourage and foster opportunities to further this 
progress.

    Question. An already over-militarized area, West Papua has become 
even more heavily militarized, with additional troops, some 7000 police 
(not including intelligence operations), and militia. For years the 
political conflict in West Papua has continued as the Indonesian 
government pursued a policy of economic development and physical 
intimidation through state security forces. In the past year it has 
been apparent that this policy has not been accepted by the local 
population, with the eruption of conflict in Nduga that has displaced 
thousands of people since late 2018, and the dramatic anti-racism and 
pro-independence protests across the two provinces since August of this 
year, which resulted in more than 30 people killed in the town of 
Wamena:

 Does U.S. security assistance to Indonesia help or hinder an end to 
        violence in West Papua? How can the U.S. best assist a peaceful 
        resolution of the conflict there?

    Answer. The Department encourages the Indonesian government's 
efforts to engage in dialogue with local communities to address Papuan 
concerns, resolve conflicts peacefully, improve governance, and support 
development that is consistent with the desires of Papuans. We also 
support the rights to freedom of expression and freedom of peaceful 
assembly to express political views. The United States respects 
Indonesia's territorial integrity, to include the provinces of Papua 
and West Papua. The United States does not support separatism in Papua 
or in any other part of Indonesia.
    Important goals of U.S. security assistance to Indonesia and our 
military to military engagement include the strengthened 
professionalization of the military, reinforcement of the military's 
proper role in a democracy under the direction of civilian authority, 
and emphasis on the importance of the respect for human rights. Over 
time, the Indonesian military's advances in these areas contribute to 
better approaches by the Indonesian government and military to internal 
conflict resolution.

    Question. Would you support suspension of security assistance to 
Indonesia until these human rights violations cease in West Papua?

    Answer. We remain concerned about human rights violations and undue 
restrictions on human rights and fundamental freedoms in Papua, 
including the freedoms of expression and peaceful assembly, as well as 
the use of overly broad sedition laws. We have also urged greater 
transparency, including ensuring access for media and civil society, as 
well as visits by U.N. human rights representatives.
    Our U.S. security assistance to Indonesia and our military to 
military engagement include aims to strengthen military 
professionalization, reinforce the military's proper role in a 
democracy under the direction of civilian authority, and emphasize the 
importance of the respect for human rights. Over time, the Indonesian 
military's advances in these areas contribute to better approaches by 
the Indonesian government and military to internal conflict resolution. 
Suspending security assistance to Indonesia would undercut the 
objective of a more professional and accountable military, and impede 
other important U.S. objectives.

    Question. Will you encourage the Indonesian government to withdraw 
from a military approach to West Papua and instead pursue a dialogue 
with the United Liberation Movement for West Papua and the KNPB to find 
a peaceful solution to the conflict?

    Answer. If confirmed, I will urge the Indonesian government to 
engage in meaningful dialogue with Papuan leaders in the provinces of 
Papua and West Papua and local communities to peacefully address Papuan 
concerns and resolve conflicts peacefully. The United States respects 
Indonesia's territorial integrity, to include the provinces of Papua 
and West Papua. The United States does not support separatism in Papua 
or in any other part of Indonesia.

    Question. West Papua is now virtually sealed off from the outside 
world. Freedom of expression is effectively banned and those trying to 
assist the Papuan people are criminalized. At this year's Pacific 
Island Forum in Tuvalu (which the U.S. attended as a dialogue partner), 
leaders called on the U.N. Human Rights Commissioner to visit West 
Papua. However, Michelle Bachelet has encountered difficulties in 
persuading the Indonesian government to allow her to visit.

   How will you effectively press the Indonesian government to allow 
        open access to West Papua for the U.N. and other officials, 
        human rights advocates, and domestic and international media?

    Answer. The U.S. Mission has urged greater transparency, including 
access for media and civil society, as well as visits by U.N. human 
rights and other international representatives. If confirmed, I will 
continue this advocacy.

    Question. What will you do to support respect for human rights for 
the Papuan people, including the right to freedom of expression and 
freedom of assembly?

    Answer. We remain concerned about undue restrictions on human 
rights and fundamental freedoms in Papua, including the freedoms of 
expression and peaceful assembly, as well as the use of overly broad 
sedition laws. If confirmed, I will emphasize these concerns to the 
Indonesian government. Our Mission will also continue to work with and 
provide support to civil society efforts, as we do across Indonesia.

    Question. There are multiple Trump-branded projects in Indonesia, 
with alleged ties to corrupt businessmen and politicians. This includes 
projects in West Java and Bali with Hary Tanoesoedibjo, who has 
explicitly tied the business dealings to the president of the U.S, and 
Setya Novanto, who has been accused of widespread corruption with other 
U.S. businesses, such as Freeport McMoRan. Human Rights Watch Indonesia 
has questioned the ethics of these business dealings:

  What are your thoughts on the Trumps' investments and business 
        partnerships in Indonesia?

    Answer. The U.S. Embassy is not engaged in these private, business-
to-business matters. If confirmed as Ambassador, I will always act in 
the best interest of the United States government and the American 
people. I will never place the interests of any individual or company 
ahead of those of the American people, nor take actions that would 
unfairly advantage or disadvantage any U.S. company or entity. I will 
make clear that this is my expectation for all Embassy staff.

    Question. What steps will you take to prevent the Trumps' business 
interests from affecting U.S. policy toward Indonesia?

    Answer. The U.S. Embassy is not engaged in these private, business-
to-business matters. If confirmed as Ambassador, I will always act in 
the best interest of the United States government and the American 
people. I will never place the interests of any individual or company 
ahead of those of the American people, nor take actions that would 
unfairly advantage or disadvantage any U.S. company or entity. I will 
make clear that this is my expectation for all Embassy staff.

    Question. The U.S. government has yet to respond to the report of 
Timor-Leste's Commission for Reception, Truth and Reconciliation 
(CAVR), which documents human rights violations and crimes against 
humanity committed during Indonesia's illegal occupation. A number of 
the CAVR's recommendations are directed at the U.S. for its support of 
Indonesia:

  What do you think of the work of the CAVR and its recommendations 
        about justice?

    Answer. The United States supports credible accountability for 
significant human rights violations or abuses, including those 
committed in Timor-Leste in 1999.

    Question. Should the U.S. government Issue a formal response to the 
CAVR report and its recommendations?

    Answer. We value the work of bodies that credibly investigate and 
document serious human rights violations, such as those that took place 
in Timor-Leste (then East Timor) through 1999. The decision on when and 
how to respond to such reports depends on policy considerations, 
including whether an official response would further accountability in 
meaningful ways.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Early in my career as a political officer in Malaysia, I 
reported extensively on the human rights situation there and worked 
closely with local and international NGOs and the Malaysian government 
to address problems and strengthen democratic institutions. As a 
political officer assigned to Japan, I worked closely with the Japanese 
government to promote good governance and due process in Southeast 
Asia.
    More recently as ambassador to the Republic of Korea and the 
Philippines, I led the United States government's efforts to strengthen 
rule of law and protection of human rights. Our efforts included legal 
and law enforcement training that focused on transparency and 
accountability and initiatives to combat human trafficking. I also 
directly engaged government leaders in both Korea and the Philippines 
to address shortcomings and ensure protection of institutions and 
individuals involved in promoting democratic principles and human 
rights.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Indonesia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Indonesia's human rights environment has evolved and in 
many important ways improved since the end of the authoritarian rule of 
President Suharto and the emergence of democracy. During the Suharto 
era, many of the most egregious human rights abuses were directed by 
the state and perpetrated by its security forces. In the current 
democratic era, many of the key human rights challenges involve the 
government's role in safeguarding the constitutional and legal rights 
of all, including those of vulnerable minorities. Indonesia's efforts 
to preserve religious pluralism and tolerance, principles reflected in 
its constitution and state ideology Pancasila, also constitute a key, 
long-term challenge.
    In Indonesia, we continue to make clear at every level the 
importance the U.S. government places on respect for human rights and 
democratic principles, through our engagement with government and civil 
society, people to people ties, and annual public reports, such as the 
Human Rights Report, International Religious Freedom Report, and 
Trafficking in Persons Report. We have emphasized our support for human 
rights in specific bilateral discussions related to past abuses by 
certain military members and LGBTI rights. If confirmed, I plan to 
continue this strong advocacy for the promotion of human rights in 
Indonesia.

    Question. What steps will you take--if confirmed--to support 
democracy in Indonesia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Indonesia made a remarkably successful transition from 
authoritarian governance to democracy at the end of the 20th Century, 
and the Indonesian people, political parties, and government 
institutions now strongly support democratic principles and mechanisms. 
Civil society is active and robust. Nevertheless, Indonesia's democracy 
remains relatively new and continues to evolve. If confirmed, I pledge 
to continue high-level U.S. government engagement with the Indonesian 
government and civil society to underscore the importance of democracy 
and its centrality in our bilateral relationship. These will be central 
themes in my public engagements as well. When Indonesians seek U.S. 
advice, engagement, or training in ways to strengthen their democracy 
and protections for civil liberties, I would use our government 
resources, including exchange and assistance programs, to offer such 
opportunities.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The United States supports democracy and human rights and 
fundamental freedoms in the Indo-Pacific as part of our Indo-Pacific 
Transparency Initiative, as well as around the world, as the building 
blocks of progress and the bulwarks of independence. If confirmed, I 
will work closely with interagency partners to use U.S. government 
assistance resources effectively and efficiently to support democracy 
and governance in Indonesia, including U.S. assistance programs that 
strengthen key institutions critical for Indonesia's stability and 
development. Our programs combat corruption, increase civil society's 
capacity to effectively advocate for individual rights, and strengthen 
a civic culture of pluralism and tolerance.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Indonesia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and with local human rights and other NGOs in Indonesia. 
Protecting human rights and fundamental freedoms and advancing 
democratic values are among our highest priorities under our vision for 
a free and open Indo-Pacific and, if confirmed, I will be sure those 
priorities continue to be elevated in our engagement with the 
Indonesian government. Indonesia currently provides a relatively safe 
environment for NGO activism, but the legal and regulatory environment 
continues to evolve, and I would ensure we continue to monitor this 
closely and engage with legislators and relevant Indonesian government 
ministries and agencies. The United States is consistently tracking and 
providing support for democratic progress and efforts to protect human 
rights in Indonesia, and will respond to new situations or concerns 
according to U.S. law and policy.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I look forward to meeting with a wide 
spectrum of Indonesian political leaders, including those in the 
opposition, and continuing the U.S. tradition of not supporting any 
candidate or political party. Indonesia currently has a robustly 
competitive political environment, with independently-minded political 
party leaders and frequently evolving coalitions. Indonesia's political 
parties are mindful of the widespread aspiration for greater women's 
representation in legislative bodies and the cabinet; ethnic and 
religious minorities also have meaningful representation and openly 
advocate for their agendas. Many political parties and mass 
organizations have youth groups that function effectively as feeder 
organizations preparing young people for more prominent leadership 
positions. If confirmed, I will look forward to engaging with the full 
range of political actors, including youth groups and advocates for 
diverse political representation; I will support transparency, good 
governance, and human rights and fundamental freedoms in Indonesia and 
will continue to work with the Indonesian people and government to this 
end.

    Question. Will you and your embassy team actively engage with 
Indonesia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Indonesia?

    Answer. Our Embassy maintains good relationships with Indonesian 
media and media organizations, and regularly engages with contacts in 
the media sphere, both at the working level and the editorial level. 
Indonesian independent media continues to grow, and the Embassy 
encourages their development through participation in media literacy 
programs, skills building, and by supporting partnerships within 
Indonesia and the broader Indo-Pacific region. While Indonesia has made 
great strides on press freedom, some elements within the government, 
the judiciary, and police use laws against defamation and blasphemy to 
detain, prosecute, and convict individuals and to restrict freedom of 
expression, including for members of the press. If confirmed, I will 
continue our Embassy's engagement with editors and journalists, as well 
as media outlet owners, and consistently emphasize to all levels of 
Indonesian society the U.S. support for a free media.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in 
Indonesia?

    Answer. The U.S. Mission has consistently strengthened the capacity 
of Indonesian journalists to produce credible news reports, combat 
disinformation, and promote news literacy through exchanges and speaker 
programs, reporting tours, media co-ops, and partnerships with local 
and U.S. organizations. The Embassy has also supported the work of 
Indonesian fact checking organizations and engaged with student 
audiences and the Indonesian public through programs focused on tools 
for identifying disinformation and combatting hoax news. If confirmed, 
I plan to continue this important work.

    Question. Will you and your embassy teams actively engage with 
Indonesia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Indonesian law provides for the rights of workers to join 
independent unions, conduct legal strikes, and bargain collectively. 
Indonesian unions and labor groups do face some restrictions and 
challenges, but they are active in advocating on behalf of workers. If 
confirmed, I look forward to ensuring our Mission continues its regular 
engagement with labor unions and monitors closely the government's 
respect for union and workers' rights. We will also continue to promote 
close cooperation between the U.S. Department of Labor and Indonesian 
authorities.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Indonesia, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Indonesia? What specifically will you commit to do to help LGBTQ 
people in Indonesia?

    Answer. The U.S. Mission in Indonesia is committed to monitoring, 
reporting, and engaging on Indonesia's treatment of members of minority 
groups, including religious minorities and LGBTI persons. The embassy 
and consulates maintain close relationships with contacts and civil 
society organizations and support their initiatives, including through 
grants, technical support, and public engagement. As a best practice, 
the Mission works to support and expand human rights efforts initiated 
by Indonesians themselves. If confirmed, I will continue to express 
U.S. support for the human rights and dignity of all people in 
Indonesia, no matter their sexual orientation or gender identity.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. If confirmed, I commit to respond promptly to all requests 
for information by members of this committee, in accordance with U.S. 
laws and regulations.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, in accordance with U.S. laws and regulations.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No, I am not aware of any formal or informal complaint or 
allegation of sexual harassment, discrimination, or inappropriate 
conduct against me, in a workplace or any other setting.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take the issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness and throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies, including 
encouraging any employee who feels they have been harassed or 
discriminated against to report such behavior to any supervisor under 
my management or the Department's Office of Civil Rights. If confirmed, 
I will work to ensure that the message of zero tolerance is affirmed 
from the beginning of my assignment and repeatedly throughout.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree with that statement. If confirmed, I will work 
to prevent any attempts to target or retaliate against career employees 
on the basis of their perceived political beliefs, prior work on 
policy, or affiliation with a previous administration. I take 
allegations of such practices seriously and will ensure they are 
referred to the Department's Inspector General.

                               __________


      Responses to Additional Questions for the Record Submitted 
           to Hon. Sung Y. Kim by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Early ?in my career as a political officer in Malaysia, I 
reported extensively on the human rights situation there and worked 
closely with local and international NGOs and the Malaysian government 
to address problems and strengthen democratic institutions. As a 
political officer assigned to Japan, I worked closely with the Japanese 
government to promote good governance and due process in Southeast 
Asia.
    More recently as ambassador to the Republic of Korea and the 
Philippines, I led the United States government's efforts to strengthen 
rule of law and protection of fundamental human rights. Our efforts 
included legal and law enforcement training that focused on 
transparency and accountability and initiatives to combat human 
trafficking. I also directly engaged government le?aders in both Korea 
and the Philippines to ?address shortcomings and ensure protection of 
institutions and individuals involved in promoting democratic 
principles and human rights.
    I believe my efforts have a made a difference in improving overall 
protection of basic human rights ?in these countries and helped resolve 
difficult challenges for organizations and individuals.

    Question. What are the most pressing human rights issues in 
Indonesia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Indonesia? What do 
you hope to accomplish through these actions?

    Answer. Indonesia's human rights environment has evolved and in 
many important ways improved since the end of the authoritarian rule of 
President Suharto and the emergence of democracy. During the Suharto 
era, many of the most egregious human rights abuses were directed by 
the state and perpetrated by its security forces. In the current 
democratic era, many of the key human rights challenges involve the 
government's role in safeguarding the constitutional and legal rights 
of all citizens, including those of vulnerable minorities. Indonesia's 
efforts to preserve religious pluralism and tolerance, principles 
reflected in its constitution and state ideology Pancasila, also 
constitute a key, long-term challenge. In Indonesia, we continue to 
make clear at every level the importance the U.S. government places on 
respect for human rights and democratic principles, through our 
engagement with government and civil society, people to people ties, 
and annual public reports, such as the Human Rights Report, 
International Religious Freedom Report, and Trafficking in Persons 
Report. We have emphasized our support for human rights in specific 
bilateral discussions related to past abuses by certain military 
members and LGBTI rights. If confirmed, I planned to continue this 
strong advocacy for the promotion of human rights in Indonesia.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Indonesia in 
advancing human rights, civil society and democracy in general?

    Answer. Civil society has flourished in Indonesia since 1998, 
contributing to improvements in Indonesia's democratic governance, 
accountability, and citizen engagement. It is important that government 
and an independent civil society, including a vibrant media, work 
together to continue this progress. If confirmed, my focus will be to 
continue to encourage and foster opportunities to further this progress 
for all Indonesians, including LGBTI persons.
    While acknowledging some improvements in accountability for human 
rights abuses by Indonesian security services, I will, if confirmed, 
urge the government to do more to ensure that credible allegations are 
appropriately investigated, that suspects are prosecuted on charges 
commensurate with the crimes alleged, and that convicted perpetrators 
are held accountable with appropriate sentences.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Indonesia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and with local human rights NGOs in Indonesia. I will ensure 
that, consistent with the letter and spirit of U.S. law and Department 
policy, assistance to security force units continues to receive 
diligent and appropriate Leahy and other vetting. I will continue to 
make clear to Indonesian military counterparts that engagement remains 
predicated on respect for human rights by Indonesian military units.

    Question. Will you and your embassy team actively engage with 
Indonesia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Indonesia.

    Answer. Unjust detentions are contrary to the fundamentals of a 
just and democratic country. If confirmed, my team and I will actively 
engage with Indonesia to addresses cases of key political prisoners or 
persons otherwise unjustly targeted by Indonesia, should they arise.

    Question. Will you engage with Indonesia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, engagement on these issues will be one of my 
top priorities.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Indonesia?

    Answer. I do not have any investments apart from my cash accounts 
and TSP. I am committed to ensuring that my official actions will not 
give rise to a conflict of interest and will remain vigilant with 
regard to my ethics obligations.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will monitor the implementation of a robust 
Equal Employment Opportunity (EEO) program at post that includes 
continuous training and sensitization, meet individually with EEO 
Counselors to gain their perspectives, and ensure that personnel are 
aware of the Department's discrimination and harassment policies and 
how to report violations. I will review the mentoring and support 
programs currently in place, meet with the American and local staffs in 
the Mission to get their feedback on inclusivity, and work with 
employee organizations to discuss their support. I will also meet with 
Mission supervisors and the management team to discuss what I have 
heard from the employees, determine where improvements are needed and, 
based on all of the information gathered, implement a plan to correct 
any weaknesses or gaps. To ensure diversity in our future teams and 
workforce, I will also emphasize the importance of EEO principles 
throughout the hiring process.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. This has always been a priority for me in my leadership 
positions and Ambassadorial positions. If confirmed, in addition to the 
steps mentioned above, I will continue to make clear to the entire 
Embassy leadership team the priority I place on fostering an 
environment that is diverse and inclusive, and prioritize those 
principles within Mission's leadership development programs.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Indonesia 
specifically?

    Answer. Corruption is an impediment to democratic governance and 
the rule of law in Indonesia and many other areas of the world. The 
U.S. Mission to Indonesia assists Indonesia in combatting corruption by 
cooperating with key government of Indonesia institutions that combat 
corruption, including the Corruption Eradication Commission (KPK), the 
Indonesian National Police (POLRI) and the Attorney General's Office; 
promoting an anti-corruption culture; and strengthening the rule of 
law. Our engagement with the Indonesian government on capacity building 
to fight corruption has been positive and, if confirmed, I hope to 
continue to build on this ongoing cooperation.

    Question. What is your assessment of corruption trends in Indonesia 
and efforts to address and reduce it by that government?

    Answer. Indonesia has taken a number of steps to combat corruption, 
including the creation of the KPK and steps to improve the transparency 
and oversight of government procurement. The KPK continues to do its 
good work even in the face of ongoing challenges. The U.S. Mission 
supports the KPK and other relevant government institutions through 
training and other capacity-building programs.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Indonesia?

    Answer. If confirmed, I will work with all levels of the Indonesian 
government, with organizations such as the OECD, and with civil society 
to strengthen capacity, improve policy, and enhance citizen 
participation in monitoring and oversight of anti-corruption 
activities. I will continue to seek opportunities for USG assistance to 
strengthen governance practices in Indonesia.

President Joko Widodo
    Question. Under the new administration of President Joko Widodo, a 
number of new pieces of legislation have been introduced, curtailing 
the power of Indonesia's anti-corruption commission, placing new 
restrictions on individual rights, and criminalizing extramarital sex.

  Do you see these pieces of legislation as a major concern?

    Answer. The U.S. Mission has been closely monitoring the status of 
these pieces of legislation. Senior officers at our U.S. Mission in 
Indonesia consistently discuss, at the highest levels, issues of 
concern, as well as areas in which we might work together with the 
Indonesian government to promote and protect human rights and 
fundamental freedoms, and strengthen good governance. The Department 
has also noted the importance and impact of Indonesian public concern 
and pressure related to recent legislation.

    Question. Do you have a sense that President Widodo, in his second 
term, may be willing to pursue political compromises that limit human 
rights protections in order to achieve other economic development 
goals?

    Answer. Economic development goals, including human capital 
development, are a key priority for President Joko Widodo's second 
term. President Joko Widodo has publicly committed to pursue economic 
development to strengthen the capacity of Indonesia as a whole, and he 
has also consistently expressed support for human rights protections in 
Indonesia.

    Question. Do you see recent moves to curtail the operations of 
Indonesia's anti-corruption commission as a major concern? If so, what 
can the U.S. do to help protect this institution?

    Answer. The KPK continues to do its good work even in the face of 
ongoing challenges. The U.S. Mission supports the KPK, and other anti-
corruption bodies, through training and other capacity-building 
programs and will continue to do so.

Religious Intolerance
    Question. Many have argued that Indonesia has seen a rising amount 
of religious intolerance in recent years.

  What U.S. policy approaches do you believe are effective in helping 
        Indonesia combat such trends and remain a multi-ethnic 
        democratic success story?

    Answer. Indonesia's tradition of tolerance and respect for 
religious diversity are enshrined in the nation's constitution, which 
guarantees freedom of religion, and reflected in the state ideology 
Pancasila. Many members of minority religious groups serve in elected 
and appointed positions at the national, regional and local levels.
    One measure of a democracy is how it protects the rights of members 
of minority groups. Tens of millions of members of minority religions 
regularly practice their faith in Indonesia without issue. 
Nevertheless, members of some minority religious communities in 
Indonesia still face discrimination, and, in some cases, violence, 
because of their religious beliefs.
    The Department joins the great majority of Indonesians in 
condemning violence and intimidation against members of religious 
minority groups and urge the government to be proactive in protecting 
individuals against violence.
    The Department also promotes religious freedom at the highest 
levels, with both government and civil society leaders, and speak out 
publicly against discrimination and religious violence. Through 
outreach efforts the embassy and consulates have carried the message of 
respect for diversity and religious tolerance to millions of people 
throughout the country.

Environment
    Question. This year, Indonesia is again affected by large-scale 
wildfires causing severe air pollution, major public health damage, and 
large-scale greenhouse gas emissions. Such wildfires have recurred 
regularly for more than 20 years.

  How big a priority is this for U.S. policy towards Indonesia?

    Answer. This is an important priority. The United States and 
Indonesia partner directly to address environmental challenges. Our two 
countries have a wide range of programs to conserve and manage 
Indonesia's rich natural diversity, including programs related to 
forest conservation.

    Question. What measures have been effective in helping Indonesia 
curtail the excessive logging, both legal and illegal, that causes the 
fires, and what more might the U.S. do to help Indonesia with this 
problem?

    Answer. The United States continues to support the GOI with 
programs that focus on prevention, detection, and firefighting capacity 
in order to reduce the impact of the perennial human-caused fires in 
Indonesia, which are often set by farmers to clear land and delineate 
uncertain land rights. Our programs have strengthened Indonesia's 
ability to implement conservation activities, to support law 
enforcement, community development and awareness programs, forest 
restoration, and private sector engagement in concession management. 
Our natural resources management programs also empowers thousands of 
farmers, fishermen, and related businesses to pursue more profitable 
and sustainable livelihoods and strengthen conservation at the 
grassroots level.
    Our programs promote transparent and accountable land use planning 
and management that directs development away from fire-prone peatlands 
and forests. For example, in Central Kalimantan, USAID assists the 
provincial government with ecosystem restoration using techniques that 
reduce fire potential and enhance livelihood opportunities, and helping 
local governments to plan, finance, and implement fire prevention 
through support to local brigades. The U.S. Forest Service (USFS) also 
supports community fire prevention training, and catalyzes private 
sector engagement in fire prevention and mitigation.
    We also help Indonesia better detect fires before they spread out 
of control. The USAID Office of Disaster Assistance (OFDA), in 
partnership with the USFS is supporting improved fire risk and 
vulnerability mapping to detect fires in a timelier manner through 
early warning systems. Additionally, through the Embassy Science Fellow 
program, experts representing NOAA's National Environmental Satellite, 
Data, and Information Service (NESDIS) will soon bring resources and 
hands-on training to strengthen Indonesian agencies on using remote 
sensing analysis to more accurately detect and predict fires using data 
from America's advanced public satellite arrays.
    And finally, we help Indonesia respond to fires. Both USAID and the 
USFS have additionally trained Indonesian disaster management officials 
to integrate the Incident Command System (ICS) into its disaster 
management system and strengthen the capacity of emergency operations 
centers--two critical components of effective fire response.

                               __________


               Responses to Additional Questions for the 
      Record Submitted to Sung Y. Kim by Senator Edward J. Markey

Indonesia Criminal Code's Application to U.S. Citizens
    Question. Should the new criminal code in Indonesia become law, 
this would mean any U.S. citizen present in the country, who is part of 
the LGBTI community or receives an abortion, could be penalized or 
incarcerated. Some of these changes could impact the rights of 
expatriate U.S. citizens and U.S. companies operating in Indonesia.

   What is your plan to raise human rights concerns about proposed 
        legal reforms with Indonesian government officials, including 
        members of parliament?

    Answer. The U.S. Mission has been closely monitoring the status of 
this legislation; a proposed amendment of the criminal code which would 
have had significant impact on expatriates and Indonesians alike, 
including through criminalization of sexual activity outside of 
marriage, was pending in the legislature but did not pass by the end of 
the 2014-2019 session. This bill would need to be reintroduced, with 
hearings beginning anew, if the new session of parliament will aim to 
amend the criminal code. Senior officers at our U.S. Mission in 
Indonesia consistently discuss issues of concern at the highest levels, 
as well as areas in which we might work together with the Indonesian 
government to promote and protect human rights and fundamental 
freedoms, and strengthen good governance. We also have noted the 
importance and impact of Indonesian public concern and pressure related 
to recent legislation.
    If confirmed, I will engage early on and consistently throughout my 
time in Indonesia to continue to emphasize U.S. concerns about any 
possible legislation that could restrict the rights of U.S. citizens 
residing in or visiting Indonesia, with harmful effects also on the 
climate for international business and a chilling effect on tourism.

    Question. How will you urge and organize U.S. companies and 
investors operating in Indonesia to raise these concerns, and harness 
their combined market power to positively influence the government?

    Answer. If confirmed, I will continue the U.S. government's strong 
advocacy for the promotion of human rights in Indonesia. I will make 
clear at every level the importance the U.S. government places on 
respect for human rights and democratic principles, including through 
engagement with U.S. private sector partners operating in Indonesia. I 
believe U.S. companies are good corporate citizens and, while operating 
overseas, they model the positive principles and values of the United 
States.

Indonesia and Climate Change Activists
    Question. With continued deforestation and illegal land 
acquisitions in Indonesia there may be increased crackdowns on those 
seeking to defend the environment. Indonesia's parliament revised its 
counterterrorism law last year, opening the door for prosecution and 
lengthy detention of peaceful political activists.

  What can you do to support those who seek to raise awareness of 
        environmental damage?

    Answer. Civil society has flourished in Indonesia since 1998, 
contributing to improvements in Indonesia's democratic governance, 
accountability, and citizen engagement. It is important that government 
and an independent civil society, including a vibrant media, work 
together to continue this progress. If confirmed, my focus will be to 
continue to encourage and foster opportunities to further this 
progress.

    Question. How can the United States best prevent murder, arrest, 
and intimidation of climate change activists in Indonesia?

    Answer. Indonesia--we continue to make clear at every level the 
importance the United States government places on respect for human 
rights and democracy, through our engagement with government and civil 
society, people to people ties, and annual public reports, such as the 
Human Rights Report, International Religious Freedom Report, and 
Trafficking in Persons Report. We have emphasized our support for human 
rights in specific bilateral discussions related to reported violations 
and abuses by certain military members. If confirmed, I will continue 
this strong advocacy for the promotion of human rights in Indonesia, 
including respecting the rights of environmental activists.

                               __________


            Responses to Additional Questions for the Record
           Submitted to Morse Tan by Senator Robert Menendez

General Democracy Questions
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have devoted the bulk of my career to promoting human 
rights especially, but also democracy. I have done so through my 
writing, media engagements, teaching and public speaking. For example, 
I have produced more law review articles regarding North Korean human 
rights and the absence of democracy (among other subjects) than any 
other scholar. I wrote a lengthy book on ``North Korea, International 
Law and the Dual Crises: Narrative and Constructive Engagement'' 
(Routledge). I also have written law review articles on the Inter-
American Court of Human Rights. These works have been seminal and 
trailblazing in the field according to independent reviewers. The 
impact was expanded via media engagements, teaching and other public 
speaking events to raise awareness and advocate for human rights.

    Question. What issues are the most pressing challenges to democracy 
or democratic development today across the globe? Please be as specific 
as possible.

    Answer. Autocratic dictatorships are antithetical to democracy and 
democratic development. For example, the former Maduro regime has 
systematically dismantled democratic institutions and brutally 
repressed democratic actors, including civil society in Venezuela.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs when you travel abroad?

    Answer. Yes, if confirmed, I intend and plan to do so.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? In your position, what 
specifically will you commit to do to help LGBTQ persons globally?

    Answer. Yes, if confirmed, I am committed to protecting and 
defending the human rights and dignity of all persons, including 
marginalized or persecuted populations, regardless of labels.
    GCJ-Reorganization: Reports surfaced last year that GCJ might be 
eliminated as part of a proposed State Department reorganization. I 
strongly oppose the elimination of this key office.

    Question. In your opinion, what has been the role and effectiveness 
of this office in promoting accountability for perpetrators of 
atrocities, including genocide, crimes against humanity, and war 
crimes?

    Answer. The Office of Global Criminal Justice (J/GCJ) leads U.S. 
policy formulation on redressing atrocities--including genocide, war 
crimes, and crimes against humanity--and is the U.S. government's 
primary liaison with criminal tribunals and non-judicial transitional 
justice mechanisms. My understanding is that J/GCJ--despite its small 
size--has provided senior policymakers with expert advice and is active 
in promoting accountability for atrocities as a core component of U.S. 
policy in any country or region.

    Question. How can the office improve its effectiveness?

    Answer. If confirmed, I will review J/GCJ's activities and take 
steps towards bolstering its effectiveness.

International Criminal Court
    Question. What do you believe is the future of the U.S.-ICC 
relationship in meeting the mutual goals of holding perpetrators of 
atrocity crimes accountable for their actions?

    Answer. If confirmed, I will review the activities and mandate of 
the Office of Global Criminal Justice (J/GCJ) and take steps to extend 
its effectiveness. Regarding the U.S. relationship with the 
International Criminal Court, I understand that current U.S. policy is 
not to cooperate with or provide assistance to the ICC, given the ICC's 
attempts to assert jurisdiction over U.S. personnel. Rather, the United 
States supports accountability and justice for victims of atrocities, 
including through legitimate prosecutions by international, hybrid, 
mixed, and national tribunals.

Burma
    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. Do you 
believe that these crimes amount to crimes against humanity or 
genocide?

    Answer. I am appalled by the ethnic cleansing of and other acts of 
violence against Rohingya in northern Rakhine State. Atrocities 
including massacres, gang rape, as well as village and mosque burnings 
shock the conscience, and I am committed to promoting accountability 
for those responsible. I understand that the process for deciding 
whether and when to make a determination that certain acts may amount 
to crimes against humanity, or genocide, has historically been reserved 
within the Executive Branch to the Secretary of State. If confirmed, I 
will consult with experts within the Department and examine the 
information at my disposal to provide the Secretary with my best 
advice.

    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. What 
position and specific actions will you take to ensure accountability?

    Answer. If confirmed, I would want to promote accountability for 
those responsible for these atrocities, address victims' desire for 
justice, and seek to deter further atrocities, including by supporting 
the collection, preservation, and analysis of evidence by credible 
bodies including the U.N. Independent Investigative Mechanism for 
Myanmar, consult with victims and civil society, and use the available 
diplomatic tools to promote an improvement in behavior by Burmese 
security forces. Additionally, I would want to work with likeminded 
countries and international organizations to seek justice for victims 
and accountability for members of the Burmese security forces and 
others responsible for atrocities and abuses.

    Question. How do you see the decision to revoke the visas of ICC 
officials affecting the ability of your office to continue any 
beneficial relationship with the ICC?

    Answer. I understand the administration's policy toward the ICC 
remains unchanged at this time, including the restriction on issuance 
of U.S. visas for ICC officials who are determined to be directly 
responsible for any effort to conduct a formal investigation of U.S. or 
allied personnel, without consent of the United States or the affected 
ally. If confirmed, I would consult with State Department colleagues 
and, as appropriate, interagency colleagues to determine the best 
approach to take as the situation unfolds.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, I would intend and plan to do so appropriately within 
the framework of the priorities and purposes of this office and the 
law.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, I would intend and plan to do so appropriately within 
the framework of the priorities and purposes of this office and the 
law.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. I commit to raise concerns that I may have through 
appropriate channels.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No, never.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. No. I commit to address any such concerns or allegations 
that may become known to me through appropriate channels.

    Question. If so, please describe the outcome and actions taken.

    Answer. Not applicable.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. I commit to comply with all relevant laws, regulations, and 
rules, and to raise concerns that I may have through appropriate 
channels. Furthermore, I would seek to foster a positive workplace that 
rallies together around the noble purposes of the office. I am an 
affirming and encouraging person who wants to inspire and motivate the 
Office of Global Criminal Justice to fulfill its mission promoting 
justice and accountability.

                               __________


            Responses to Additional Questions for the Record
          Submitted to Morse Tan by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?
    Answer. I have devoted the bulk of my career to promoting human 
rights especially, but also democracy. I have done so through my 
writing, media engagements, teaching and public speaking. For example, 
I have produced more law review articles regarding North Korean human 
rights and the absence of democracy (among other subjects) than any 
other scholar. I wrote a lengthy book on ``North Korea, International 
Law and the Dual Crises: Narrative and Constructive Engagement'' 
(Routledge). I also have written law review articles on the Inter-
American Court of Human Rights. These works have been seminal and 
trail-blazing in the field, according to independent reviewers. The 
impact was expanded via media engagements, teaching and other public 
speaking events to raise awareness and advocate for human rights.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Bureau for Global Criminal Justice?

    Answer. As an immigrant member of a small minority myself whose 
family has overcome many challenges, and as one who relishes 
opportunities to provide mentoring, if confirmed, I will ensure 
professional development opportunities for all GCJ staff. I am an 
encouraging and affirming person who is deeply empathetic. My mentoring 
and support of my research assistants has helped launch them into 
opportunities in the State Department, Georgetown University, the City 
of Chicago, Chase Bank, and prestigious fellowships, among others. If 
confirmed, I would look forward to giving GCJ personnel opportunities 
to travel and forge relationships to advance the work of the Department 
and become more effective and productive. I want to build a strong 
culture of collegiality and mission-focus to reinforce the already 
existing culture of excellence that pervades the office.

    Question. What steps will you take to ensure each of the 
supervisors in the Bureau for Global Criminal Justice are fostering an 
environment that is diverse and inclusive?

    Answer. I have tried hard to be an inclusive person my entire 
career. In my classes, I emphasize civility, respect, and decency, even 
in the midst of difficult discussions. If confirmed, I would treat 
every team member in GCJ with dignity, as irreducibly valuable human 
beings and colleagues. I would expect everyone in the office, including 
employees with supervisory responsibilities, to do the same. I would 
want all of these things to mark the environment in GCJ. Perhaps these 
are among the reasons why I have had various people volunteer to work 
with and for me, and to enthusiastically go the extra mile to support 
me, as I have sought to do for them.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My parents and sister own property in South Korea. My 
investment portfolio includes diversified mutual funds, which may hold 
interests in companies with a presence overseas, but which are exempt 
from the conflict of interest laws. My investment portfolio also 
includes sector funds, which may hold interests in companies with a 
presence overseas. Finally, my investment portfolio does include 
financial interests in companies with a presence overseas. I am 
committed to ensuring that my official actions will not give rise to a 
conflict of interest. I will divest any investments the State 
Department Ethics Office deems necessary to avoid a conflict of 
interest. I intend to remain compliant with my ethics obligations.

Syria
    Question. Do you believe an international criminal tribunal should 
take jurisdiction over alleged war crimes and other atrocities in 
Syria?

    Answer. We should not wait for an international criminal tribunal 
to assert jurisdiction over alleged war crimes and other atrocities in 
Syria, but support the ongoing work of existing entities such as the 
U.N. International, Impartial, Independent, Mechanism, and Syrian 
documentation groups, which are gathering evidence of regime 
atrocities, and national jurisdictions that are already pursuing 
accountability efforts.

    Question. What, in your opinion, is the likelihood that those who 
have perpetrated atrocities in Syria will be held accountable by the 
Syrian justice system?

    Answer. It is highly unlikely that the current Syrian justice 
system will hold to account those who have perpetrated atrocities in 
Syria. It has not done so in eight years of conflict and hundreds of 
thousands of people dying at the hands of the Syrian regime. For that 
reason, it is important for the United States to support the work of 
the U.N. International, Impartial, Independent Mechanism (IIIM) and 
Syrian documentation groups gathering evidence of regime atrocities, 
and the work of national jurisdictions to hold the regime accountable.

War Crimes
    Question. What is your opinion of the criminal prosecution of war 
crimes in European domestic courts? Should the United States undertake 
similar prosecutions under concepts of universal jurisdiction? Do you 
believe the United States should support efforts of European domestic 
courts to carry out these prosecutions?

    Answer. I support the repatriation of foreign terrorist fighters to 
their home nations for prosecution, as has occurred in a number of 
European nations. I understand the United States has led by example, 
repatriating at least six foreign terrorist fighters and charging them 
with crimes in our domestic criminal justice system. I also believe the 
work of international mechanisms like the International, Impartial, and 
Independent Mechanism for Syria and the U.N. Investigative Team for 
Accountability of Da'esh are critical to gathering the necessary 
evidence to enable domestic courts to hold perpetrators accountable, 
and I concur with the United States' ongoing support of these valuable 
mechanisms.

Cameroon
    Question. Civil unrest that began as protests in the English 
speaking region of Cameroon has escalated into fighting between 
government forces and separatist groups. Separatists taken prisoner by 
the Cameroonian government have reportedly been imprisoned under 
inhumane and degrading conditions, and have been subjected to torture. 
In 2017, the U.N. Committee Against Torture demanded that the 
government of Cameroon institute investigations and ensure 
accountability for those who have perpetrated these crimes, but 
Cameroon has reportedly done little to hold anyone responsible. What 
should the United States be doing to ensure accountability for alleged 
war crimes and other violations of international human rights law 
committed by government personnel in Cameroon?

    Answer. I share your concerns about the situation in Cameroon. If 
confirmed, I would support the U.S. government's efforts to promote a 
peaceful resolution in Cameroon, including providing technical support 
to our Embassy by drawing on GCJ's areas of expertise, such as 
transitional justice and accountability. I support the Department's 
efforts to strengthen civil society's capacity to organize, reconcile 
internal divides, and formulate clear grievances and objectives on 
behalf of impacted populations. I would intend to work with others in 
the Department to urge the government to end the violence and hold 
those responsible accountable.

    Question. What steps should the international community as a whole 
be taking to prevent further occurrence of atrocity crimes and 
violations of human rights in Cameroon?

    Answer. The U.S. government and partners are working to create 
space for inclusive, credible dialogue without pre-conditions, which 
are necessary factors for the dialogue to proceed. If confirmed, I 
would want to work with our international partners to raise concerns 
both with the government and with those in the Anglophone Cameroonian 
opposition. I would also seek to work with Department and interagency 
colleagues to engage with the government and the separatists to end 
violence and engage in pertinent dialogue without pre-conditions, based 
so far on current knowledge.

    Question. What is your assessment of the Cameroonian government's 
actions toward the English-speaking minority in Cameroon? In your 
opinion, is there a danger of an escalation of atrocity crimes against 
the English-speaking minority?

    Answer. The situation in Cameroon remains of concern and if 
confirmed, I would want to work with key stakeholders to try to rectify 
it. We are concerned that the recent national dialogue lacked 
inclusivity and if it is to eventually succeed, it will have to take 
into account the concerns of all those affected by the crisis in the 
Anglophone northwest and southwest regions of Cameroon. If confirmed, I 
would want to join the Department's efforts to promote peaceful 
resolution, monitor all atrocity risk, and engage the government and 
the armed separatists to end violence and address grievances.

Rohingya
    Question. The Burmese government has engaged in a systematic 
campaign of repression and displacement of the country's Rohingya 
population. The U.N. Independent International Fact-Finding Mission on 
Myanmar (UNFFM) in 2018 found that the Burmese military should be 
investigated for genocide, crimes against humanity, and war crimes. 
What do you believe must be done to hold those accountable for atrocity 
crimes against the Rohingya?

    Answer. If confirmed, I will prioritize promoting accountability 
for those responsible for these atrocities, addressing victims' desire 
for justice, and seeking to deter further atrocities, including by 
supporting the collection, preservation, and analysis of evidence by 
groups like the U.N.'s Independent Investigative Mechanism for Myanmar, 
consulting with victims and civil society, and using the available 
diplomatic tools to promote behavior change by Burmese security forces. 
I would want to work with likeminded countries and international 
organizations to seek justice for victims and accountability for 
members of the Burmese security forces and others responsible for 
atrocities and other human rights violations and abuses.

    Question.  The Burmese government has engaged in a systematic 
campaign of repression and displacement of the country's Rohingya 
population. The U.N. Independent International Fact-Finding Mission on 
Myanmar (UNFFM) in 2018 found that the Burmese military should be 
investigated for genocide, crimes against humanity, and war crimes. Has 
the international community's response been sufficient or effective in 
ending Burmese military atrocities?

    Answer. The United States has worked with likeminded countries and 
international organizations to promote justice for victims and promote 
accountability for members of the Burmese security forces and others 
responsible for atrocities. The United States supported the U.N. Fact 
Finding Mission and supports the ongoing Independent Investigative 
Mechanism for Myanmar, tasked with building a legal foundation for 
future accountability. Continued support for the mandates of the U.N. 
Special Rapporteur for Human Rights in Myanmar and the Secretary-
General's Special Envoy for Myanmar is also important. If confirmed, I 
would want to support these efforts and the use of available diplomatic 
tools that promote justice, accountability and non-recurrence of 
atrocities.

    Question. The Burmese government has engaged in a systematic 
campaign of repression and displacement of the country's Rohingya 
population. The U.N. Independent International Fact-Finding Mission on 
Myanmar (UNFFM) in 2018 found that the Burmese military should be 
investigated for genocide, crimes against humanity, and war crimes. Do 
you believe the U.N. Security Council should refer the situation in 
Burma to the International Criminal Court for investigation?

    Answer. I support the United States' efforts to work with allies 
and partners to explore a broad range of options that will promote 
justice and accountability for those responsible for these atrocities, 
to address victims' desire for justice, and to deter further 
atrocities. If confirmed, I would support the collection, preservation, 
and analysis of evidence by groups like the U.N.'s Independent 
Investigative Mechanism for Myanmar, would want to continue to consult 
with victims and civil society, and seek to use available diplomatic 
and other tools to promote fundamental behavioral change on the part of 
Burmese security forces.

    Question. The Burmese government has engaged in a systematic 
campaign of repression and displacement of the country's Rohingya 
population. The U.N. Independent International Fact-Finding Mission on 
Myanmar (UNFFM) in 2018 found that the Burmese military should be 
investigated for genocide, crimes against humanity, and war crimes. Has 
U.S. policy been effective in ensuring eventual accountability for 
Burmese military leaders? What about U.S. policy could be improved?

    Answer. The State Department conducted an in depth investigation 
documenting abuses against Rohingya and released a report in September 
2018. I know that the U.S. has supported multilateral and unilateral 
processes that promote justice and accountability, including the U.N. 
Fact Finding Mission for Myanmar, the Independent Investigative 
Mechanism for Myanmar, the issuance of Global Magnitsky sanctions, and 
the Section 7031(c) designations for senior Burmese military officers 
responsible for these atrocities. If confirmed, I will work with the 
administration, and in consultation with victims and members of Burmese 
civil society, to continue our efforts to use available diplomatic 
tools to achieve these goals.

    Question. In 2018, the Prosecutor of the International Criminal 
Court (ICC) sought to investigate the forced deportation of Rohingya 
from Burma into Bangladesh, which the Prosecutor argues constitutes a 
crime against humanity. The ICC Pre-Trial Chamber found that because 
forced deportation of Rohingya occurred partially on the territory of 
Bangladesh (a state party to the Rome Statute, the convention that 
created the ICC), the Court may exercise jurisdiction over the alleged 
crimes. Burma is not party to the Rome Statute. In your opinion, was 
the decision of the ICC to exercise jurisdiction over the situation of 
the Rohingya in Bangladesh proper?

    Answer. Like you, I am appalled by the horrific atrocities 
committed against Rohingya, and believe there must be meaningful 
justice for victims and accountability for the perpetrators, including 
through prosecutions by a legitimate and credible criminal justice 
mechanism. If confirmed, I will work with the administration and 
members of Congress to explore how U.S. leadership and policy can 
appropriately achieve these goals.

    Question. Do you believe recourse to the ICC is the best avenue 
toward ensuring accountability for atrocity crimes committed by Burmese 
officials?

    Answer. Like you, I am appalled by the Burmese military's human 
rights abuses. I know that the U.S. has supported multilateral and 
unilateral processes that promote justice and accountability, including 
the U.N. Fact Finding Mission for Myanmar, the Independent 
Investigative Mechanism for Myanmar, the issuance of Global Magnitsky 
sanctions, and the Section 7031(c) designations for senior Burmese 
military officers responsible for these atrocities. If confirmed, I 
would work with the administration, and in consultation with victims 
and members of Burmese civil society, to continue our efforts to use 
available diplomatic tools to achieve these goals.

                               __________


            Responses to Additional Questions for the Record
           Submitted to Morse Tan by Senator Edward J. Markey

Burma
    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. Do you 
believe that these crimes amount to crimes against humanity or 
genocide? What position and specific actions will you take to ensure 
accountability?

    Answer. I am appalled by the ethnic cleansing of and other acts of 
violence against Rohingya in northern Rakhine State. Credible reports 
of massacres, gang rape, and village and mosque burnings shock the 
conscience, and I am committed to promoting accountability for those 
responsible. I understand that the process for deciding whether and 
when to make a determination that certain acts may amount to crimes 
against humanity, or genocide, has historically been reserved within 
the Executive Branch to the Secretary of State. If confirmed, I will 
consult with experts within the Department and examine all the 
information to provide the Secretary with my best advice. I have read 
the entirety of ``The Rohingyas'' (Hurst), by Azeem Ibrahim, the only 
academic work dedicated to the subject, among an array of materials I 
have already reviewed on this serious matter.

    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. Do you 
think there are negative consequences from having the Secretary of 
State withhold a determination on whether these attacks amount to 
crimes against humanity or genocide?

    Answer. I share your deep concern about the horrific attacks 
against Rohingya and the humanitarian crisis that has followed. I 
understand that the process for deciding whether and when to make a 
determination that certain acts may amount to crimes against humanity, 
or genocide, has historically been reserved within the Executive Branch 
to the Secretary of State. I would emphasize that there is no hierarchy 
of atrocities; they are all abhorrent and shocking. If confirmed, I 
would want to promote accountability for those responsible, address 
victims' needs and desires for justice, and try to deter further 
atrocities. The actions taken against atrocities are more important 
than the precise label.

International Criminal Court
    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. What do 
you believe is the future of the U.S.-ICC relationship in meeting the 
mutual goals of holding perpetrators of atrocities accountable for 
their actions?

    Answer. If confirmed, I will review the activities and mandate of 
the Office of Global Criminal Justice (J/GCJ) and take steps to 
maximize its effectiveness. Regarding the U.S. relationship with the 
International Criminal Court, I understand that current U.S. policy is 
not to cooperate with or provide assistance to the ICC, given the ICC's 
attempts to assert jurisdiction over U.S. personnel. Rather, the United 
States supports meaningful accountability and justice for victims of 
atrocities, including through legitimate and effective prosecutions by 
international, hybrid, mixed, and national tribunals.

    Question. In August 2017, the Burmese military forces increased 
their attacks against the Rohingya in Rakhine State in a coordinated 
and widespread campaign of indiscriminate killing, rape, and razing of 
villages. Following a series of investigations, including by the United 
Nations Fact Finding Mission and the State Department's contracting 
with PILPG, there have been credible reports documenting the egregious 
human rights violations that have occurred in Rakhine State. How do you 
see the decision to revoke the visas of ICC officials affecting the 
ability of your office to continue any beneficial relationship with the 
ICC?

    Answer. I understand the administration's policy toward the ICC 
remains unchanged at this time, including the restriction on issuance 
of U.S. visas for ICC officials who are determined to be directly 
responsible for any effort to conduct a formal investigation of U.S. or 
allied personnel, without consent of the United States of the affected 
ally. If confirmed, I would consult with State Department colleagues 
and, as appropriate, interagency colleagues to determine the best 
approach to take as the situation unfolds, including the appeal inside 
the ICC.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Kelley Eckels Currie by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights?

    Answer. I have spent my entire career working to promote human 
rights and democracy. During nearly five years as the Republican staff 
director for the Congressional Human Rights Caucus and as foreign 
operations appropriations associate for Congressman John Porter, I 
worked to curtail military assistance to countries over human rights 
abuses by their security forces; tighten restrictions on Burma; and 
expand financial support to democracy and human rights promotion 
efforts, including securing the first appropriation for Radio Free 
Asia. I also helped to develop an ?adopt a political prisoner? program 
that paired Members of Congress with Chinese and Tibetan political 
prisoners, and encouraged the Members to advocate for improved 
treatment and release of their `adopted' prisoner. I vividly remember 
the day that I met Jigme Sangpo, the long-serving Tibetan political 
prisoner our office had adopted, after he was released and exiled to 
Switzerland on medical parole. It was one of the highlights of my life 
to see him free.
    After leaving Capitol Hill to work for the International Republican 
Institute (IRI), I was fortunate to work on IRI's programs in Southeast 
Asia, including: helping to set up IRI's operations in Indonesia during 
its democratic transition and in Timor Leste during the establishment 
of its independence; managing IRI's support to the Burmese democracy 
movement at a critical juncture, when the military junta was engaged in 
one of its most severe crackdowns; and setting up a new program in 
Laos. In 2000, I helped a group of former Burmese political prisoners 
to launch an organization to provide humanitarian support to, and 
conduct documentation and advocacy on behalf of, Burma's thousands of 
political prisoners. Today, the Assistance Association for Political 
Prisoners (AAPP) remains one of the most important civil society 
organizations in the country and a key player in promoting legal and 
political reform as part of Burma's transition.
    While working as the Director of government Relations for the 
International Campaign for Tibet, I carried out documentation, advocacy 
and legislative initiatives on human rights and refugee issues related 
to Tibet. I also supported Special Envoy Lodi Gyari while he was 
engaged in the negotiations with the Chinese government; secured 
critical funding for Tibetan refugee and cultural preservation 
programs; and managed several successful Washington DC visits by His 
Holiness the Dalai Lama. This experience was invaluable when I joined 
the Office of the Special Coordinator for Tibetan Issues under 
Ambassador Paula Dobriansky, and worked to institutionalize the Tibetan 
Policy Act in U.S. policy and implement U.S. efforts to preserve 
Tibetan culture inside Tibet.
    While serving as a Senior Fellow at Project 2049 Institute, I 
conducted research and programming on human rights and political reform 
in the Asia-Pacific. I founded the Institute's Burma program, which 
included managing a multi-year grant from the Department of State's 
Bureau of Democracy, Human Rights and Labor. In addition to two large 
awards to key Burmese civil society groups, the program included a 
small grants program that identified and supported small Burmese 
organizations and catalytic individuals who were helping to push 
forward human rights and democracy in that country. My work with them 
was among the most consequential and personally fulfilling I have done.
    Since rejoining the executive branch in August 2017, both my 
posting at the U.S. Mission to the United Nations and my current job 
managing the office of Global Criminal Justice have featured a strong 
human rights orientation. In New York, I oversaw the passage of a new 
resolution on Freedom of Expression during the 2018-2019 General 
Assembly session, and fought to push back on Chinese efforts to 
undermine the normative human rights framework in the U.N. I also led 
the Mission's efforts to strengthen the role of U.N. Headquarters in 
New York in the U.N.'s human rights pillar as part of the Mission's 
Human Rights Council reform initiative. Since returning to Washington 
earlier this year, I have been deeply involved in the administration's 
advocacy on behalf of Uighurs and other Muslim minorities who are 
facing severe repression in Xinjiang, and accountability efforts 
regarding Burma, Syria, ISIS, Sudan and South Sudan.

    Question. What has been the impact of your actions?

    Answer. As previously noted, I have been involved in a number of 
legislative and policy initiatives that set the stage for the United 
States to lead on human rights. Nonetheless, after more than two 
decades of work in the field of human rights and democracy promotion, I 
have come to believe that the most effective way to advance human 
rights is to strengthen local capabilities to defend, promote and 
protect human rights. In that regard, my work to support training and 
funding for local civil society and political activists at both IRI and 
Project 2049 has probably had the most impact. By supporting local 
actors who advocate for accountability for abusers, justice for victims 
and changes to repressive laws and practices, we helping them to create 
the changes that their own societies need to move forward. I am 
especially proud of the work that I did to support Burmese civil 
society over the past twenty years, especially the efforts to promote 
women's political participation and leadership. When I was a program 
officer at the International Republican Institute in the late 1990's, I 
added a Women in Politics element to the Institute's Burma program. 
Today, some of the same women I worked with two decades ago as they 
were trying to organize and build capacity are among the most prominent 
and effective leaders in Burmese civil society and politics.

    Question. What issues are the most pressing challenges to democracy 
or democratic development today across the globe. Please be as specific 
as possible.

    Answer. I believe that the greatest threat to democracy and human 
rights today is the People's Republic of China's effort to undermine 
the fundamental pillars of the international human rights architecture 
and create a moral equivalence between its system of authoritarian 
state-led capitalism and our system, which is based on the concept that 
human rights attach at the individual level and are inherent to all 
human beings. If confirmed, I will continue to oppose China's efforts 
to undermine internationally accepted human rights standards and norms. 
I will stand for the freedoms of belief, association and expression, 
the right to fair trial guarantees, and government that is accountable 
to the people and operates subject to the consent of the governed. If 
confirmed, I will coordinate with offices and bureaus to elevate the 
issue and amplify the work being done across the USG and implementing 
partners to support women's political participation and democratic 
development across the globe.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs when you travel abroad?

    Answer. Yes, absolutely. Civil society plays a vital role in the 
protection and promotion of human rights, and I have always made 
meeting with, supporting and listening to these organizations a 
priority.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? In your position, what 
specifically will you commit to do to help LGBTQ persons globally?

    Answer. Yes. Respect for the inherent dignity rights, freedoms of 
others is not only at the core of our nation, but also the foundation 
of an effective foreign and national security policy. If confirmed, I 
look forward to working with our colleagues and counterparts across the 
U.S. government and around the world to advance and protect the rights 
of all women and girls.

    Question. The majority of refugees resettled through the USRAP 
program are vulnerable women and children. What do you see as the U.S. 
role in refugee resettlement?

    Answer. Breakdowns in the rule of law and forced displacement from 
conflict and disaster expose refugees and internally displaced persons, 
particularly women and girls, to additional risks of violence and 
exploitation. As the U.S. Strategy on Women, Peace, and Security 
states, women cannot fully participate in the prevention or resolution 
of conflict or participate in recovery efforts if they themselves are 
victims of violence or intimidation, and pervasive violence against 
women and girls undermines the recovery of entire communities and 
countries affected by violence or disaster. International humanitarian 
actors must design efforts to address the distinct needs of women and 
girls, including women's economic security, safety and dignity.

    Question. In past years, the United States has sought to ensure 
that at least 50% of all refugees referred by UNHCR were considered for 
U.S. resettlement. Today, the Trump administration has gutted the U.S. 
refugee resettlement program and reduced the refugee ceiling for FY 20 
to the historic low of 18,000 people. Do you think the United States 
should be a leading country for the resettlement of refugees, the 
majority whom are vulnerable women and children? Or, do you support the 
President's abdication of U.S. leadership in this area?

    Answer. If confirmed, I am committed to coordinating efforts across 
the Department to address the underlying issues that expose refugees 
and internally displaced persons, particularly women and girls, to 
additional risks of violence and exploitation. As the U.S. Strategy on 
Women, Peace, and Security states, women cannot fully participate in 
the prevention or resolution of conflict or participate in recovery 
efforts if they themselves are victims of violence or intimidation, and 
pervasive violence against women and girls undermines the recovery of 
entire communities and countries affected by violence or disaster. 
International humanitarian actors must design efforts to address the 
distinct needs of women and girls, including women's economic security, 
safety and dignity.

    Question. Many asylum seekers fleeing Central American are women 
and girls fleeing well-documented, and widespread sexual violence and 
extortion by gangs and drug cartels in Honduras, Guatemala, and El 
Salvador.

  Do you agree with President Trump's decision to practically-
        speaking shut the door on these women and children seeking U.S. 
        asylum at our southern border?

    Answer. If confirmed, I commit to working within the Department to 
address root causes of burgeoning immigration as they relate to women 
and girls--such as sexual violence and lack of economic opportunity for 
women--and work with others in the USG to address the broad security, 
governance, and economic drivers of immigration from Central America.

    Question. According to remarks by Secretary Pompeo, he established 
a State Department Commission on Unalienable Rights to ``make sure that 
we have a solid definition of human rights upon which to tell all our 
diplomats around the world.''

  Do you believe that women's human rights, including the right to be 
        free from domestic violence and to access reproductive 
        healthcare, are a part of a ``solid definition of human 
        rights?''

    Answer. Secretary Pompeo has asked members of the Department of 
State's Commission on Unalienable Rights to assess rights that are by 
their nature intrinsic and inherent, i.e. enjoyed by everyone, at all 
times. Unalienable rights are the ultimate ``universal'' rights. The 
United States was founded on the principle that all human beings are 
born free and equal in rights, and therefore in dignity. This is the 
aspiration that is embodied in our Declaration of Independence, and 
reflected in the Universal Declaration of Human Rights. Since our 
founding, and to this day, we as a nation have struggled--often at 
great costs--to move towards the fulfillment of this aspiration, 
including for women. I am proud that today the United States plays a 
leading role in supporting the rights of women and girls around the 
world, working to strengthen democratic, transparent, representative, 
and responsive governance that includes the voices of women and 
marginalized communities. If confirmed, I will be honored to uphold 
this leadership and fully support this U.S. commitment.

    Question. During the past year, there have been reports that U.S. 
officials have sought to remove language on sexual and reproductive 
health from U.N. documents addressing women's issues and the State 
Department's annual human rights reports. Most recently, administration 
officials reportedly requested that such language be removed from a 
draft U.N. Security Council Resolution on women, peace, and security 
that addressed sexual violence in conflict.

   To your knowledge, what are the administration's concerns about 
        such language and do you share them?

    Answer. The United States was responsible for the first-ever 
resolution in the Security Council on sexual violence in armed 
conflict, and has consistently fought to ensure that this issue remains 
on the Council's agenda--including over the objections of certain 
Council members. My understanding is that another delegation proposed a 
draft resolution that contained a number of problematic proposals, some 
of which were contrary to the hard-fought consensus that successive 
U.S. administrations had carefully built and preserved within the 
Council over a period of many years. After difficult negotiations, 
including the introduction of a poison pill text that would have set 
this agenda back more than a decade, Council members were able to 
achieve consensus on a resolution text that maintained the status quo 
and allowed for some additional scope for the work of the Special 
Representative of the Secretary General on Sexual Violence in Conflict. 
The administration remains a strong supporter of the SRSG's work, and I 
have personally met with her several times to discuss issues of shared 
concern. If confirmed, I pledge to continue to support her efforts to 
prevent conflict-related sexual violence and assist the victims of 
these heinous crimes.

    Question. I have serious concerns around U.S. policies restricting 
access to sexual and reproductive health and rights globally, including 
during your tenure at USUN. On top of State Department policies such as 
the use of a false justification to defund UNFPA and the massive 
expansion of the Global Gag Rule, U.S. negotiators at the U.N. have 
been taking an unprecedented hardline position against sexual and 
reproductive health and rights, including long-standing agreed language 
on sexual and reproductive health access for communities worldwide.

    Question. Given that access to sexual and reproductive health 
services, as well as the full protection of sexual and reproductive 
rights, is an essential component to any meaningful progress on women's 
economic empowerment, how will you work to ensure that the U.S. is not 
erecting additional barriers on sexual and reproductive health and 
rights globally?

    Answer. The United States remains the largest provider of women's 
health assistance, including for family planning, in the world. It is 
the policy of this administration, consistent with the laws of the 
United States, that U.S. taxpayer dollars should not be used to promote 
or provide abortion as a method of family planning. The administration 
supports the 1994 ICPD Program of Action and the 1995 Beijing 
consensus, neither of which includes an international right to 
abortion. In supporting the highest attainable standard of health for 
women and girls, the administration will seek to ensure that programs 
and activities that receive U.S. taxpayer funding are carried out in a 
manner consistent with U.S. law. Recognizing that different countries 
have different approaches to these sensitive issues, if confirmed, I 
will seek to find consensus with a wide group of Member States on 
terminology that captures our common commitment to meeting the health 
needs of women and girls in conflict settings, while still respecting 
national political spaces and prerogatives.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any appearance would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. I commit to comply with all ethics laws, regulations, and 
rules, and to raise concerns that I may have through appropriate 
channels.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting?

    Answer. I am not aware of any such incidents.

    Question. If so, please describe the nature of the complaint or 
allegation, your response, and any resolution, including any 
settlements.

    Answer. To my knowledge, no complaint or allegation has been 
brought forward against me.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. I am committed to providing a workplace that is free from 
sexual harassment. Sexual harassment in the workplace is against the 
law and will not be tolerated. The Department mandates annual 
harassment training for all employees. I agree that supervisors who 
observe, are informed of, or reasonably suspect incidents of possible 
sexual harassment should immediately report such incidents to the 
appropriate parties. I support the Department policies and my 
obligation to report and address allegations of sexual and/or 
discriminatory harassment. To my knowledge, neither I nor any employee 
I have directly supervised has been involved in any such incident, but 
if confirmed, I commit take effective measures to address any concerns 
or allegations within the Office of Global Women's Issues should such a 
need arise.

    Question. If so, please describe the outcome and actions taken.

    Answer. I have nothing to report.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. All federal government employees must comply with federal 
statutes, including personnel law and the Hatch Act, as well as ethics 
rules and Department policy that uphold merit principles and bar 
retaliation based on perceived political beliefs or long-term 
government service. If confirmed, I commit to comply with all relevant 
federal ethics laws, regulations and rules, and to raise concerns that 
I may have through appropriate channels.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. All federal government employees must comply with federal 
statutes, including personnel law and the Hatch Act, as well as ethics 
rules and Department policy that uphold merit principles and bar 
retaliation based on perceived political beliefs or long-term 
government service. If confirmed, I commit to comply with all relevant 
federal ethics laws, regulations and rules, and to raise concerns that 
I may have through appropriate channels.

                               __________


     Responses to Additional Questions for the Record Submitted to
           Kelley Eckels Currie by Senator Benjamin L. Cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have spent my entire career working to promote human 
rights and democracy. During nearly five years as the Republican staff 
director for the Congressional Human Rights Caucus and as foreign 
operations appropriations associate for Congressman John Porter, I 
worked to curtail military assistance to countries over human rights 
abuses by their security forces; tighten restrictions on Burma; and 
expand financial support to democracy and human rights promotion 
efforts, including securing the first appropriation for Radio Free 
Asia. I also helped to develop the Caucus' ?adopt a political prisoner? 
program that paired Members of Congress with Chinese and Tibetan 
political prisoners, and encouraged the Members to advocate for 
improved treatment and release of their `adopted' prisoner. I vividly 
remember the day that I met Jigme Sangpo, the long-serving Tibetan 
political prisoner our office had adopted, after he was released and 
exiled to Switzerland on medical parole. It was one of the highlights 
of my life to see him free.
    After leaving Capitol Hill to work for the International Republican 
Institute (IRI), I was fortunate to work on IRI's programs in Southeast 
Asia, including: helping to set up IRI's operations in Indonesia during 
its democratic transition and in Timor Leste during the establishment 
of its independence; managing IRI's support to the Burmese democracy 
movement at a critical juncture, when the military junta was engaged in 
one of its most severe crackdowns; and setting up a new program in 
Laos. In 2000, I helped a group of former Burmese political prisoners 
to launch an organization to provide humanitarian support to, and 
conduct documentation and advocacy on behalf of, Burma's thousands of 
political prisoners. Today, the Assistance Association for Political 
Prisoners (AAPP) remains one of the most important civil society 
organizations in the country and a key player in promoting legal and 
political reform as part of Burma's transition.
    While working as the Director of government Relations for the 
International Campaign for Tibet, I carried out documentation, advocacy 
and legislative initiatives on human rights and refugee issues related 
to Tibet. I also supported Special Envoy Lodi Gyari while he was 
engaged in the negotiations with the Chinese government; secured 
critical funding for Tibetan refugee and cultural preservation 
programs; and managed several successful Washington DC visits by His 
Holiness the Dalai Lama. This experience was invaluable when I joined 
the Office of the Special Coordinator for Tibetan Issues under 
Ambassador Paula Dobriansky, and worked to institutionalize the Tibetan 
Policy Act in U.S. policy and implement U.S. efforts to preserve 
Tibetan culture inside Tibet.
    While serving as a Senior Fellow at Project 2049 Institute, I 
conducted research and programming on human rights and political reform 
in the Asia-Pacific. I founded the Institute's Burma program, which 
included managing a multi-year grant from the Department of State's 
Bureau of Democracy, Human Rights and Labor. In addition to two large 
awards to key Burmese civil society groups, the program included a 
small grants program that identified and supported small Burmese 
organizations and catalytic individuals who were helping to push 
forward human rights and democracy in that country. My work with them 
was among the most consequential and personally fulfilling I have done.
    Since rejoining the executive branch in August 2017, both my 
posting at the U.S. Mission to the United Nations and my current job 
managing the office of Global Criminal Justice have featured a strong 
human rights orientation. In New York, I oversaw the passage of a new 
resolution on Freedom of Expression during the 2018-2019 General 
Assembly session, and fought to push back on Chinese efforts to 
undermine the normative human rights framework in the U.N. I also led 
the Mission's efforts to strengthen the role of U.N. Headquarters in 
New York in the U.N.'s human rights pillar as part of the Mission's 
Human Rights Council reform initiative. Since returning to Washington 
earlier this year, I have been deeply involved in the administration's 
advocacy on behalf of Uighurs and other Muslim minorities who are 
facing severe repression in Xinjiang, and accountability efforts 
regarding Burma, Syria, ISIS, Sudan and South Sudan, among others.

    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Bureau for Global Women's Issues?

    Answer. Throughout my career, I have benefitted personally and 
professionally from working with colleagues with diverse backgrounds 
and experiences. My personal approach to staffing is to find the best 
person for the job regardless of race, gender, religious, or other 
background, but I seek to promote candidates from underrepresented 
groups and diverse backgrounds. I have also found it deeply rewarding 
to mentor young women in the field of foreign and security policy. As 
staffing positions become available, if confirmed, I will work with the 
Department's human resources officials to draw from the broadest and 
most diverse candidate pool to ensure that GWI's team continues to lead 
the way as a rewarding and exciting office that showcases the best of 
America's federal workforce.

    Question. What steps will you take to ensure each of the 
supervisors in the Bureau for Global Women's Issues are fostering an 
environment that is diverse and inclusive?

    Answer. I support the Department of State's policy of equal 
opportunity and fair and equitable treatment in employment to all 
people without discrimination. If confirmed, I will strive to ensure 
each supervisor promotes, mentors, and supports all members of the 
Office of Global Women's Issues.

    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all ethics laws, regulations, and 
rules, and to raise concerns that I may have through appropriate 
channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all ethics laws, regulations, and 
rules, and to raise concerns that I may have through appropriate 
channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

    Question. Advancing the rights of women and girls globally should 
be central to U.S. foreign policy. The Office of Global Women's Issues 
leads the Department's efforts to include women and girls in U.S. 
diplomacy, partnerships, and programs, and to promote their rights and 
wellbeing around the world.

   Please describe your experience as a champion for the equality, 
        rights, and empowerment of women and girls. How have you 
        leveraged your role in the U.S. government to advance women's 
        and girls' rights specifically?

    Answer. As I mentioned in my testimony, I have had the tremendous 
honor throughout my career to work alongside and learn from so many 
amazing advocates, practitioners, political leaders, and survivors. I 
have also had the privilege of serving under the Under Secretary of 
State for Global Affairs Dobriansky, who led the Bush administration's 
global women's issues efforts. In every position I have held, whether 
in government or outside, I have always looked for opportunities to 
promote the rights of women and girls. Whether it was supporting 
women's political participation at the country level while working at 
IRI or working on sexual violence in armed conflict at the U.N. 
Security Council, these issues have always been of fundamental 
importance to my work. I ensured that my team at the U.S. Mission to 
the U.N. was comprised of strong women leaders who demonstrated every 
day our firm commitment to equality, fundamental freedoms and women's 
empowerment.

    Question. What more can the U.S. government broadly, and GWI 
specifically, do to lead by example on women's empowerment?

    Answer. Advancing the role of women and girls around the world, 
socially, politically, and economically, is central to achieving U.S. 
foreign policy goals, and it is something to which I am deeply 
committed. We have to focus our efforts, build new partnerships with 
the international community, effectively utilize the new tools Congress 
and the White House have built out, and be bold in our advocacy. But we 
cannot do this alone; we need strong partners here in the United States 
and abroad.
    If confirmed, I look forward to working with our colleagues and 
counterparts across the U.S. government and around the world to advance 
and protect the rights of women and girls. I believe GWI should be the 
policy and diplomatic focal point for U.S. leadership on the Women, 
Peace and Security and Women's Global Development and Prosperity 
agendas, and look forward to working with Congress to ensure U.S. 
leadership on these key initiatives.

    Question. What is your opinion on whether the Office of Global 
Women's Issues and the Ambassador-at-large position for Global Women's 
Issues be enacted into law?

    Answer. I believe that decision resides with Congress. If 
confirmed, I look forward to leveraging the position of Ambassador-at-
Large for Global Women's Issues to its fullest extent.

    Question. The Ambassador-at-Large for Global Women's Issues must 
espouse a commitment to opposing all forms of discrimination and 
violence, and to empowering vulnerable populations, including 
religious, racial and ethnic minorities; indigenous peoples; people 
with disabilities; LGBTQI; people living with HIV or AIDS; migrants, 
refugees and internally displaced people; older persons, married or 
unmarried adolescents and youth; widows; or people who are economically 
disadvantaged.

  How have you demonstrated this commitment to opposing 
        discrimination in your career so far?

    Answer. Throughout my career, I have had the privilege to serve in 
various roles working to advance human rights protections for all, and 
defend the rights of women and girls from regimes that are threatened 
by the idea of freedom and equality. This included early efforts to 
raise awareness about the Taliban's treatment of women in Afghanistan 
and the Burmese military's systematic use of sexual violence against 
ethnic women. From refugee camps to interagency policy discussions, I 
have seen far too often how women's voices are marginalized, overlooked 
and ignored. As someone who has faced discrimination and difficulty in 
my own career, I try to be an effective and contentious mentor and 
supervisor. I believe it is vitally important for women who have 
achieved positions of leadership to ensure we are using our voices not 
only to highlight critical issues that are often overlooked in national 
security and foreign policy, but also to encourage the next generation 
of women leaders.

    Question. How will you address attempts within the administration 
to limit the rights of these marginalized populations?

    Answer. I believe respect for the rights and freedoms of others is 
not only at the core of our nation, but also the foundation of 
effective diplomacy and a stable foreign policy. If confirmed, I look 
forward to working with our colleagues and counterparts across the U.S. 
government and around the world to advance and protect the rights of 
all women and girls.

    Question. The Office of Global Women's Issues plays a critical role 
in advancing several government-wide policies aimed at effectively 
promoting women's and girls' rights around the world, including the: 
(1) U.S. Global Strategy to Empower Adolescent Girls; (2) U.S. Strategy 
to Prevent and Respond to Gender-Based Violence Globally; and the (3) 
U.S. Strategy on Women, Peace, and Security, amongst others. The 
overarching purpose of these policies is to integrate advancing the 
rights of women and girls into the United States' foreign policy and 
assistance.

 How familiar are you with these strategies and the role the 
        Ambassador, the GWI office, and the State Department play in 
        implementing them?

    Answer. I am familiar with these strategies. If confirmed, I commit 
to using these and other tools to strengthen the Department's capacity 
to promote women's empowerment and advance the status of women and 
girls worldwide. I will seek to ensure that issues impacting women and 
girls are fully integrated in the formulation and conduct of U.S. 
foreign policy, and support a whole-of-government approach to 
addressing these challenges.

    Question. If confirmed as Ambassador, what immediate steps will you 
take to ensure effective and accountable implementation of these 
strategies in the State Department and across the U.S. government?

    Answer. If confirmed, I will continue to leverage the expertise and 
reach of our Department bureaus, offices, and embassies, and the 
broader interagency available to advance these objectives. I see the 
Ambassador at Large for GWI as a critical element in the implementation 
of these strategies by the State Department and other relevant 
agencies, as well as key allies and multi-lateral partners. By 
leveraging the diplomatic reach and policy expertise of the Department, 
and the GWI office in particular, I look forward to leading U.S. 
government efforts to mainstream protection and promotion of the rights 
of women and girls into our national security and foreign policy 
apparatus at all levels.

    Question. What is your assessment of the Trump administration's 
latest Women, Peace, and Security strategy?

    Answer. I support the Trump administration's commitment to 
protecting the United States and promoting global peace and stability 
by enhancing women's leadership in efforts to prevent conflict, stem 
terrorism, and promote security around the world. I am proud that the 
United States was the first country to pass a legislative framework to 
implement UNSCR 1325, and that we continue to lead with our new WPS 
Strategy.
    The WPS Strategy directs various departments and agencies with 
foreign policy and assistance missions to increase efforts to guarantee 
the meaningful participation of women in conflict resolution and 
disaster recovery; to increase women and girls' level of physical 
safety, access to assistance, and justice in areas experiencing 
conflict or disaster; and to ensure that the impact of our efforts are 
lasting. If confirmed, I commit to leveraging all available resources 
and Department tools to advance this goal.

    Question. As Ranking Member of the Subcommittee on Western 
Hemisphere, Transnational Crime, Civilian Security, Democracy, Human 
Rights, and Global Women's Issues, I was proud to cosponsor the Women, 
Peace, and Security Act of 2017 that calls for the creation of a Women, 
Peace, and Security Strategy and seeks to promote women's meaningful 
participation in conflict prevention around the world. Studies have 
shown that when women have meaningful involvement in peace processes, 
the outcomes are more successful and peace lasts longer. Women are more 
likely to build coalitions, speak up for marginalized groups, and 
promote human rights and national reconciliation.

  If confirmed, what will you do to encourage countries to include 
        women in decision making and peace processes?

    Answer. I am committed to advancing women's meaningful 
participation in decision making and peace processes. Women's 
leadership in peace processes positively correlates with the reduction 
of armed conflict, the sustainability of peace agreements and post-
conflict political frameworks, the evolution of democratic systems of 
governance, and the long-term security and recovery of communities and 
nations.
    If confirmed, I commit to leveraging all available resources and 
Department tools to advance this goal, including the WPS Strategy.

    Question. What challenges would you face in trying to increase 
women's participation in countries that historically do not include 
women in decision making roles? How do you plan to overcome these 
challenges?

    Answer. Supporting women's participation, voice, and empowerment in 
decision-making about security issues is key to achieving U.S. foreign 
policy goals, to which I am committed. Although they have led peace 
movements and driven community-led recovery efforts, women have 
historically been absent from places where decisions are made about 
their countries' and communities' future, such as relief and recovery 
programs, peace negotiations, political office, and security 
institutions.
    If confirmed, I commit to encouraging countries to promote 
political and social equality, and addressing legal, cultural, and 
historical barriers, including violence against women that preclude 
women's participation in decision making roles.

    Question. As you know, in the 115th Congress, Senator Boozman and I 
sponsored the Women's Entrepreneurship and Economic Empowerment Act 
(WEEE Act), which was signed into law at the end of 2018. Among other 
things, the WEEE Act requires that 50 percent of USAID's small and 
medium sized enterprise resources be targeted to reach those controlled 
by women, and makes it USAID policy to reduce gender disparity related 
to economic opportunity.

  How can the U.S. government better lead by example on women's 
        empowerment?

    Answer. The whole of government approach to the Women's Global 
Development and Prosperity Initiative and the Women, Peace, and 
Security Act boldly showcases to the world how ensuring women's 
empowerment both requires a holistic approach and directly impacts 
national security and prosperity. I am proud of the administration's 
leadership in developing these innovative tools to promote women's 
economic and political empowerment, and am committed to advancing these 
and other initiatives, if confirmed.

    Question. If confirmed, how do you plan to work with the White 
House to advance the mission of the GWI office?

    Answer. I look forward to working with the National Security 
Council, National Economic Council, the Office of Economic Initiatives 
and other relevant partners across the executive branch to advance 
women's empowerment. The GWI office will have a critical leadership 
role in coordinating the whole-of-government efforts to advance the 
Women's Global Development and Prosperity Initiative and the U.S. 
Strategy on Women, Peace, and Security and, if confirmed, I look 
forward to working closely and collaboratively to ensure we are using 
all the tools at our disposal to move these agendas forward.

    Question. As Ambassador at-large for Global Women's Issues, how 
will you ensure that the health and protection needs of women and girls 
in crises around the world are being met when the State Department has 
decided to defund one of the largest providers of lifesaving care in 
these settings?

    Answer. I am committed to advancing the health and protection needs 
of women and girls globally. The United States remains the largest 
provider of health assistance for women and girls in the world, and we 
will continue to be a leading funder of family planning, child and 
maternal health, HIV/AIDS, cancer research and treatment, and other 
programs that address the life-long health needs of women and girls. 
These efforts are critical, as the good health of women and girls 
positively impacts the health, stability, and development of their 
families and communities. If confirmed, I look forward to working with 
Congress and my colleagues within the Department on this important 
issue.

    Question. During the past year, there have been reports that U.S. 
officials have sought to remove language on sexual and reproductive 
health from U.N. documents addressing women's issues and the State 
Department's annual human rights reports. Most recently, administration 
officials reportedly requested that such language be removed from a 
draft U.N. Security Council Resolution on women, peace, and security 
that addressed sexual violence in conflict.

 To your knowledge, what are the administration's concerns about 
        such language?

    Answer. The United States was responsible for the first-ever 
resolution in the Security Council on sexual violence in armed 
conflict, and has consistently fought to ensure that this issue remains 
on the Council's agenda--including over the objections of certain 
Council members. My understanding is that another delegation proposed a 
draft resolution that contained a number of problematic proposals, some 
of which were contrary to the hard-fought consensus that successive 
U.S. administrations had carefully built and preserved within the 
Council over a period of many years. After difficult negotiations, 
including the introduction of a poison pill text that would have set 
this agenda back more than a decade, Council members were able to 
achieve consensus on a resolution text that maintained the status quo 
and allowed for some additional scope for the work of the Special 
Representative of the Secretary General on Sexual Violence in Conflict. 
The administration remains a strong supporter of the SRSG's work, and I 
have personally met with her several times to discuss issues of shared 
concern. If confirmed, I pledge to continue to support her efforts to 
prevent conflict-related sexual violence and assist the victims of 
these heinous crimes.


    Question. Do you share those concerns? If not, how do you plan to 
address this issue as Ambassador-at-Large for Global Women's Issues?

    Answer. It is the policy of this administration, consistent with 
the laws of the United States, that U.S. taxpayer dollars should not be 
used to promote or provide abortion as a method of family planning. The 
administration supports the 1995 Beijing consensus and the ICPD, 
neither of which includes an international right to abortion. In 
supporting the highest attainable standard of health for women and 
girls, the administration will seek to ensure that programs and 
activities that receive U.S. taxpayer funding are carried out in a 
manner consistent with U.S. law. Recognizing that different countries 
have different approaches to these sensitive issues, if confirmed, I 
will seek to find consensus with a wide group of Member States on 
terminology that captures our common commitment to meeting the health 
needs of women and girls in conflict settings, while still respecting 
national political spaces and prerogatives.

    Question. I strongly believe that women's access to health care, 
including sexual and reproductive health care like modern 
contraceptives, plays a significant role in their ability to advance 
their education, participate in the economy, and support their families 
and communities.

  Do you believe women's ability to control their own sexual and 
        reproductive health is essential for them to have agency over 
        other aspects of their lives?

    Answer. I am committed to advancing the health and well-being of 
women and girls globally. These efforts are critical, as the good 
health of women and girls positively affects the health, stability and 
development of their families and communities. If confirmed, I look 
forward to working with Congress and my colleagues within the 
Department on this important issue.


    Question. If confirmed, how do you plan to ensure the U.S. is not 
imposing additional barriers on women's critical right to fully 
participate in their education, economy, and community?

    Answer. If confirmed, I look forward to working with Congress and 
my colleagues within the Department on this important issue. I support 
ongoing U.S. efforts to ensure that women and girls achieve the highest 
attainable standard of health and well-being. I commit to addressing 
the many legal, cultural, and historical barriers, including violence 
against women that preclude girls' access to health care, quality 
education and women's participation in the workforce.

    Question. In February 2019, the Trump administration launched the 
Women's Global Development and Prosperity (W-GDP) Initiative, which 
aims to bring economic empowerment to the forefront of the U.S. 
development agenda by focusing on workforce development (ensuring women 
have the necessary skills to achieve economic empowerment); women 
entrepreneurs (ensuring women have equal access to capital networks 
they need to succeed in business); and enabling environments (changing 
laws, policies and norms that have limited women's economic potential).

  What is your assessment of this initiative and what role should GWI 
        play in its implementation?

    Answer. I am proud of the administration's commitment to women's 
economic empowerment through the Women's Global Development and 
Prosperity Initiative and am committed to advancing this ambitious 
initiative, if confirmed. I will work across the Department of State to 
carry out the diplomatic and policy tasks required to deliver on this 
agenda. In particular, identifying and reducing the policy, legal, 
political and regulatory barriers faced by women is critical to 
building a strong and durable foundation for women's economic 
empowerment. I look forward to leading U.S. efforts on this front.


    Question. How does it differ from previous U.S. efforts to address 
women's economic empowerment?

    Answer. The Women's Global Development and Prosperity Initiative is 
the Federal government's first integrated approach to global women's 
economic empowerment across multiple departments and agencies. The 
National Security Presidential Memorandum that the President signed on 
this initiative specifically focuses on women's economic empowerment 
and highlights women's economic empowerment as a national security 
issue.


    Question. What challenges do you think are likely in its 
implementation and how can they most effectively be addressed?

    Answer. The target of 50 million women reached is ambitious and 
intended to focus our efforts beyond the length of the administration. 
I believe making real progress on this issue will require sustained 
work over multiple years under strong leadership. By looking ahead to 
2025, we must align our programs, partnerships, and resources over the 
long term to ensure our impact is lasting. If confirmed, I will strive 
to align and advance all existing efforts to help achieve this target.

    Question. Research has found that access to quality education for 
girls can lead to increased economic empowerment and independence for 
women. Yet significant barriers to girls' education remain, including 
gender-based violence and other safety concerns, lack of nearby 
schools, family or societal pressure not to enroll in school or to drop 
out, and limited financial resources for textbooks or other supplies.

  How, if at all, should GWI work to address these issues and what 
        challenges do you anticipate?

    Answer. It is important to harness bilateral and regional 
diplomacy, multilateral diplomacy, public diplomacy, and programming to 
encourage counterparts in other countries to support progress toward 
the advancement of the status of women and girls, and address harmful 
traditional practices that serves as barriers to participation. If 
confirmed, I will strongly advocate for the girls of today to be the 
leaders of tomorrow in every nation and every sector of the economy.

    Question. Many experts contend that efforts to address 
international violence against women should focus not only on treatment 
and services for victims of violence, but also on eliminating certain 
traditional practices that are harmful to women and present significant 
health risks. Because these practices are often a part of a community's 
culture, however, programs that introduce treatment and services may 
meet resistance.

  Does the U.S. government support programs that address such 
        traditional practices? Have these programs been successful? 
        How, if at all, can they be improved?

    Answer. The prevention of violence against women and girls, 
including the harmful traditional practices of female genital 
mutilation and cutting and early and forced marriage, is critical to 
achieving the equality and empowerment of women and girls. I understand 
that various offices and agencies in the U.S. government manage 
programmatic efforts that seek to address these harmful traditional 
practices and, if confirmed, I will continue to support such efforts.

    Question. Sexual and gender based violence (SGBV) is a violation of 
human rights. It denies the human dignity of the individual and hurts 
human development. The United States has sought to elevate the issue of 
SGBV in conflict-affected settings. Despite these efforts, protection 
in humanitarian and conflict settings remains an ongoing challenge.

    Question. What are the Trump administration's priorities in 
addressing SGBV?

    Answer. I am committed to preventing and responding to sexual and 
gender-based violence, especially violence against women and girls. Per 
the Women's Global Development and Prosperity Initiative and the Women, 
Peace and Security strategy, efforts to address violence against women 
and girls are critical to addressing barriers to economic empowerment, 
peace and security, and political participation. If confirmed, I pledge 
to focus on using these tools to combat violence against women and 
girls across U.S. foreign and national security policy efforts.

    Question. To your knowledge, to what extent is the current 
administration continuing to implement the strategy initiated by 
President Obama?

    Answer. I firmly see the Women's Global Development and Prosperity 
Initiative and the U.S. Strategy on Women, Peace, and Security as 
foundational priorities for this administration. The Office of Global 
Women's Issues serves to strengthen the Department's capacity to 
promote women's equality and advance the status of women and girls 
worldwide, and seeks to ensure that issues impacting women are fully 
integrated in the formulation and conduct of U.S. foreign policy. If 
confirmed, I will continue to leverage all available resources and 
tools to advance this goal.

    Question. What, if any, are the areas of divergence?

    Answer. I am not aware of the specific areas of divergence in which 
you are referring.

    Question. If confirmed, will you commit to work with Congress on 
GBV-related issues?

    Answer. If confirmed, I will continue to work with Congress on 
issues related to violence against women and girls.

    Question. To what extent, if any, will GWI coordinate its efforts 
with other State Department and USAID offices on this issue, 
particularly through PRM and the Office of U.S. Foreign Disaster 
Assistance (OFDA)?

    Answer. If confirmed, I commit to working with other State 
Department and USAID offices on efforts to prevent and respond to 
violence against women and girls.

    Question. What are the SGBV risks and challenges that displaced 
women and girls face, and how can international humanitarian actors 
mitigate them?

    Answer. Breakdowns in the rule of law and forced displacement from 
conflict and disaster expose refugees and internally displaced persons, 
particularly women and girls, to additional risks of violence and 
exploitation. As the U.S. Strategy on Women, Peace, and Security 
states, women cannot fully participate in the prevention or resolution 
of conflict or participate in recovery efforts if they themselves are 
victims of violence or intimidation, and pervasive violence against 
women and girls undermines the recovery of entire communities and 
countries affected by violence or disaster. International humanitarian 
actors must design efforts to address the distinct needs of women and 
girls, including women's economic security, safety and dignity.

    Question. How, if at all, would you incorporate SGBV in the work of 
GWI?

    Answer. If confirmed, I would ensure that efforts to prevent and 
respond to violence against women and girls continue to be a priority 
for the Office of Global Women's Issues. The administration's 
priorities on women's economic empowerment and women, peace, and 
security, cannot be fully achieved if women and girls face violence in 
their homes, communities, and places of work.

    Question. This administration radically expanded the global gag 
rule to apply to all global health assistance, and earlier this year 
Secretary Pompeo announced in a press conference recently that the 
State Department would be taking action to ``implement this policy to 
the broadest extent possible.''

  What actions will you take as the leader of Global Women's Issues 
        to address gaps in services that disproportionately impact 
        women and girls?

    Answer. Global health programs are primarily the responsibility of 
other agencies and offices in the U.S. government, including USAID and 
the Department of Health and Human Services, but if confirmed, I will 
work with my colleagues across the administration to help support our 
global health objectives while safeguarding U.S. taxpayer dollars and 
protecting the sanctity of life for people all around the globe.

    Question. UNFPA, the U.N. agency mandated to provide reproductive 
health care and coordinate GBV prevention and response in humanitarian 
emergencies, has been deemed ineligible to receive U.S. funding due to 
the administration's politically motivated negative Kemp-Kasten 
determination.

 How will you ensure that the health and protection needs of women 
        and girls in crises around the world are being met when the 
        State Department has decided to defund one of the largest 
        providers of lifesaving care in these settings?

    Answer. The United States remains the largest funder of women's 
health and family planning assistance in the world, providing more than 
$400 million a year to programs in this area, including for health 
services for refugee and IDP women and girls. The Department also 
supports concrete steps to reduce child, early, and forced marriage; 
prevent violence, human trafficking, and HIV in adolescent girls and 
young women; and encourage governments to take steps to deliver quality 
education. If confirmed, I look forward to working with Congress and my 
colleagues within the Department on this important issue.

                               __________


            Responses to Additional Questions for the Record
     Submitted to Kelley Eckels Currie by Senator Edward J. Markey

    Question. The State Department Commission on Unalienable Rights was 
established to ``make sure that we have a solid definition of human 
rights upon which to tell all our diplomats around the world,'' 
according to Secretary Pompeo.

  Do you believe a ``solid definition of human rights'' includes 
        women's human rights to be free from domestic violence and to 
        access reproductive healthcare?

    Answer. Secretary Pompeo has asked members of the Department of 
State's Commission on Unalienable Rights to assess rights that are by 
their nature intrinsic and inherent, i.e. enjoyed by everyone, at all 
times. Unalienable rights are the ultimate ``universal'' rights. The 
United States was founded on the principle that all human beings are 
born free and equal in rights, and therefore in dignity. This is the 
aspiration that is embodied in our Declaration of Independence, and 
reflected in the Universal Declaration of Human Rights. Since our 
founding, and to this day, we as a nation have struggled--often at 
great costs--to move towards the fulfillment of this aspiration, 
including for women. I am proud that today the United States plays a 
leading role in supporting the rights of women and girls around the 
world, working to strengthen democratic, transparent, representative, 
and responsive governance that includes the voices of women and 
marginalized communities. If confirmed, I will be honored to uphold 
this leadership and fully support this U.S. commitment.

    Question. During the past year, press reports indicate that U.S. 
officials sought to remove language on sexual and reproductive health 
services from U.N. resolutions, reports, and documents as well as from 
the State Department's annual human rights reports. Recently, 
administration officials reportedly requested that such language be 
removed from a draft U.N. Security Council Resolution on women, peace, 
and security that addressed sexual violence in conflict.

  To your knowledge, what are the administration's concerns about 
        such language and do you share them?

    Answer. The United States was responsible for the first-ever 
resolution in the Security Council on sexual violence in armed 
conflict, and has consistently fought to ensure that this issue remains 
on the Council's agenda--including over the objections of certain 
Council members. My understanding is that another delegation proposed a 
draft resolution that contained a number of problematic proposals, some 
of which were contrary to the hard-fought consensus that successive 
U.S. administrations had carefully built and preserved within the 
Council over a period of many years. After difficult negotiations, 
including the introduction of a poison pill text that would have set 
this agenda back more than a decade, Council members were able to 
achieve consensus on a resolution text that maintained the status quo 
and allowed for some additional scope for the work of the Special 
Representative of the Secretary General on Sexual Violence in Conflict. 
The administration remains a strong supporter of the SRSG's work, and I 
have personally met with her several times to discuss issues of shared 
concern. If confirmed, I pledge to continue to support her efforts to 
prevent conflict-related sexual violence and assist the victims of 
these heinous crimes

    Question. During the past year, press reports indicate that U.S. 
officials sought to remove language on sexual and reproductive health 
services from U.N. resolutions, reports, and documents as well as from 
the State Department's annual human rights reports. Recently, 
administration officials reportedly requested that such language be 
removed from a draft U.N. Security Council Resolution on women, peace, 
and security that addressed sexual violence in conflict. 

 If confirmed, how would you work to ensure that the United States 
        is not erecting barriers on sexual and reproductive health and 
        rights globally?

    Answer. The United States remains the largest provider of women's 
health assistance, including for family planning, in the world. It is 
the policy of this administration, consistent with the laws of the 
United States, that U.S. taxpayer dollars should not be used to promote 
or provide abortion as a method of family planning. The administration 
supports the 1994 ICPD Program of Action and the 1995 Beijing 
Consensus, neither of which includes an international right to 
abortion. In supporting the highest attainable standard of health for 
women and girls, the administration will seek to ensure that programs 
and activities that receive U.S. taxpayer funding are carried out in a 
manner consistent with U.S. law. Recognizing that different countries 
have different approaches to these sensitive issues, if confirmed, I 
will seek to find consensus with a wide group of Member States on 
terminology that captures our common commitment to meeting the health 
needs of women and girls in conflict settings, while still respecting 
national political spaces and prerogatives.

    Question. In June 2019, the Trump administration released the U.S. 
Strategy on Women, Peace, and Security. This strategy seemed to suggest 
a long-overdue understanding that women were a core tenet of U.S. 
foreign policy--that women deserved a seat at the table. However, the 
administration recently abandoned Kurdish allies, including Kurdish 
women who dedicated themselves to our cause, fought violent extremism 
on our behalf and for freedom and peace in their communities. In 
Rojava, in northeast Syria, Kurdish women have earned representation in 
every aspect of society. They have taken up arms, and now fight in all 
female militias. Local communal assemblies are reportedly always co-
chaired by a woman. Even female politicians hold sway, giving voice to 
those where it is most needed. 

  If confirmed, what would you do to empower Kurdish women and help 
        them maintain the rights they had before Turkey's military 
        operations in Syria, considering most experienced NGOs are 
        finding it difficult to impossible to operate there at this 
        time?

    Answer. The State Department has a storied history in working with 
the ethnic and religious minorities in Syria to maintain their safety 
and rights, and I am extremely concerned by the reports of hundreds of 
thousands of displaced people, including Kurdish women, in the 
northeast Syria. I know that it is women and children who often bear 
the brunt of violence and suffering in war and conflict. President 
Trump has called on Turkey to ensure access for international 
humanitarian organizations and facilitate the urgent delivery of 
humanitarian assistance to those in need and displaced by the violence, 
and to ensure that those operating under its authority conduct their 
actions according to international humanitarian and human rights law. 
The administration is currently working to implement the President's 
announcement that the United States intends to obligate $50M in 
stabilization assistance to protect members of persecuted ethnic and 
religious minority groups, including Kurdish women, and advance human 
rights and accountability in Syria. If confirmed, I will work with the 
relevant bureaus and offices at the State Department and across the 
U.S. government to ensure that our policies and programs in Syria are 
sensitive to the protection of women and girls.

    Question. What do you see as the U.S. role in refugee resettlement?

    Answer. If confirmed, I am committed to coordinating efforts across 
the Department to address the underlying issues that expose refugees 
and internally displaced persons, particularly women and girls, to 
additional risks of violence and exploitation. As the U.S. Strategy on 
Women, Peace, and Security states, women cannot fully participate in 
the prevention or resolution of conflict or participate in recovery 
efforts if they themselves are victims of violence or intimidation, and 
pervasive violence against women and girls undermines the recovery of 
entire communities and countries affected by violence or disaster. 
International humanitarian actors must design efforts to address the 
distinct needs of women and girls, including women's economic security, 
safety and dignity.

    Question. Do you think the United States should be a leading 
country for the resettlement of refugees, the majority whom are 
vulnerable women and children?

    Answer. Breakdowns in the rule of law and forced displacement from 
conflict and disaster expose refugees and internally displaced persons, 
particularly women and girls, to additional risks of violence and 
exploitation. As the U.S. Strategy on Women, Peace, and Security 
states, women cannot fully participate in the prevention or resolution 
of conflict or participate in recovery efforts if they themselves are 
victims of violence or intimidation, and pervasive violence against 
women and girls undermines the recovery of entire communities and 
countries affected by violence or disaster. International humanitarian 
actors must design efforts to address the distinct needs of women and 
girls, including women's economic security, safety and dignity.

    Question. Many asylum seekers currently at our border who flee 
Central America are women and girls fleeing well-documented and 
widespread sexual violence and extortion by gangs and drug cartels in 
Honduras, Guatemala, and El Salvador.

 Do you think the United States should be a leading country for the 
        resettlement of refugees, the majority whom are vulnerable 
        women and children?

    Answer. If confirmed, I commit to working within the Department to 
address root causes of burgeoning immigration as they relate to women 
and girls--such as sexual violence and lack of economic opportunity for 
women--and work with others in the USG to address the broad security, 
governance, and economic drivers of immigration from Central America.

    Question. How will you ensure the United States continues to be a 
leader in addressing sexual and gender-based violence, and holding 
perpetrators of such violence accountable?
    Answer. I am committed to preventing and responding to sexual and 
gender-based violence (SGBV), especially violence against women and 
girls. Per the Women's Global Development and Prosperity Initiative and 
the U.S. Strategy on Women, Peace and Security, efforts to address 
violence against women and girls are critical to addressing barriers to 
economic empowerment, peace and security, and political participation. 
Accountability for SGBV crimes is essential to punishing perpetrators 
and deterring such crimes. If confirmed, I pledge to use various 
diplomatic tools to combat violence against women and girls across U.S. 
foreign and national security policy efforts.

                               __________

                              NOMINATIONS

                              ----------                              


                       TUESDAY, OCTOBER 29, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson [presiding], Risch, Gardner, 
Romney, Young, Shaheen, and Kaine.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good afternoon. This hearing will come to 
order.
    We are holding this hearing to consider the nominations of 
four individuals to be Ambassadors: one to the Marshall 
Islands, one to Georgia, one to Lithuania, and one to Albania.
    I want to, first, welcome our nominees. I want to thank you 
for your past service.
    I am pleased to note that all four of these nominees are 
career members of the Senior Foreign Service. In my discussion, 
as well as taking a look at the background, not only are they 
highly qualified in their past service, but also for these 
ambassadorships for which they have been nominated.
    So, again, really appreciate your past service and your 
willingness to continue serving this nation as Ambassadors.
    I do welcome their families and their friends. I want to 
encourage you, in your opening statements, to point them out 
and introduce the people that are here supporting you, because 
I think we both recognize--these positions are full-time 
positions. This takes a lot of effort, and there is a lot of 
sacrifice of, you know, members of the Senior Foreign Service, 
so they oftentimes--you know, work long hours, even when family 
members are in-country, but oftentimes, you know, worlds away, 
as well. So, again, we really appreciate that level of service 
and sacrifice. So, please point out your family members.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you, Mr. Chairman.
    And I want to echo your congratulations to all of our 
nominees today and thank both you and your families for your 
service.
    I think, these days, that career officers in our Foreign 
Service are under some stress, and that you feel the weight of 
great responsibility on your shoulders. And I want you to know 
how much all of--I and all of my colleagues appreciate the work 
that you do for the United States to uphold the values of this 
country. And I--I am sure that, as you take on these new 
positions, that you will also continue to uphold the country's 
values.
    Senator Johnson. Thank you, Senator Shaheen.
    So, we will go from my right to my left. Our first nominee 
is Ms. Roxanne Cabral, is--Ms. Cabral is the President's 
nominee to be Ambassador to the Marshall Islands. Ms. Cabral is 
a career member of the Senior Foreign Service and until 
recently served as Deputy Chief of Mission and Charge 
d'Affaires at the U.S. Embassy in Panama. Her previous posts 
include Director of the Office of Policy, Planning, and 
Resources in the Office of the Under Secretary for Public 
Diplomacy and Public Affairs, and Public Affairs Officer at the 
U.S. Consulate General in Guangzhou, China; and at the U.S. 
Embassy in Tirana, Albania. She also served in the Office of 
South Central Europe in the Bureau of European and Eurasian 
Affairs.
    Ms. Cabral.

 STATEMENT OF ROXANNE CABRAL, OF VIRGINIA, A CAREER MEMBER OF 
   THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
 THE UNITED STATES OF AMERICA TO THE REPUBLIC OF THE MARSHALL 
                            ISLANDS

    Ms. Cabral. Thank you. Mr. Chairman and members of the 
committee, I am honored to appear to--I am honored to appear 
before you today as the President's nominee for U.S. Ambassador 
to the Republic of Marshall Islands. I am grateful to President 
Trump and Secretary Pompeo for their confidence in nominating 
me for this position, and am equally grateful to receive your 
consideration.
    With the Chairman's permission, I would like to present my 
family. My husband, David Schroeder, and twin sons, Roman and 
Evan, are watching via video from Panama, but I am thrilled 
that my oldest son, Quinn, my mother and father-in- law, Nancy 
and Tom Schroeder, my niece, Grace, my sister-in- law, Sue 
Charlton, and her mother, Deborah, are present here, as well as 
my mother, Nancy, and my sister, Lisa, who inspired me to 
public service. I am grateful for their love and support.
    Over my 22-year career as a Foreign Service Officer, I have 
worked in Washington and around the world to promote U.S. 
interests and build strong partnerships. If confirmed, I will 
draw on my leadership experience in regional policy, public 
diplomacy, and managing government institutions and programs to 
advance the United States' enduring strategic interests in the 
Indo-Pacific.
    The Marshall Islands is a reliable partner that supports 
U.S. engagement in the region and our priorities globally. The 
Marshall Islands shares our positions on many important issues 
at the United Nations and is also one of Taiwan's remaining 
diplomatic partners, playing an important role in maintaining 
stability in cross-strait relations. If confirmed, I will work 
to maintain our strong partnership and leverage the goodwill 
fostered in May of this year, when President Trump met jointly 
with the Presidents of the Freely Associated States.
    If confirmed, I will focus on three priorities; first, 
maintaining a strong security relationship; second, fostering 
economic prosperity and stability as our countries approach a 
critical juncture under the Compact of Free Association; and, 
third, strengthening democratic institutions.
    Mutual security of our nations is a core feature of our 
special relationship. The Marshall Islands host an important 
military installation, which provides critical testing and 
support for our missile systems, and also will serve as a 
location for our space fence.
    More broadly, I will work to strengthen our ongoing 
partnership to keep the Indo-Pacific region free and open, 
implement U.N. Security Council sanctions, promote maritime 
security, combat illegal, unreported, and unregulated fishing, 
and tackle transnational crime.
    If confirmed, I will work with the Marshall Islands 
government to advance sustainable economic development. The 
United States is the Marshall Islands' largest donor partner, a 
key trading partner, and a contributor, along with Taiwan, to a 
jointly managed trust fund. I will advocate for the most 
effective use of U.S. assistance, look for ways to attract more 
private-sector interests, and work with the Marshall Islands as 
they build a prosperous, healthy, and more self-sustaining 
future.
    I recognize that the Marshall Islands, as a country with a 
maximum elevation of six feet above sea level, has profound 
concerns about the impact of rising sea levels. If confirmed, I 
will support ongoing and future efforts to enhance resilience 
and mitigation, and to engage with the Marshall Islands on 
these issues.
    If confirmed, my third goal would be to strengthen 
governance, rule of law, democratic institutions, and civil 
society through partnerships, technical assistance, and 
education exchange programs, especially for future leaders and 
women and girls. I also recognize the already rich people-to-
people ties that include service by Marshall Islands citizens 
in the U.S. Armed Forces.
    Shared history and common values make our friendship with 
the Marshall Islands one of the strongest in the world. If 
confirmed, I will continue our work with the Marshall Islands 
on issues of mutual concerns to both our country. The history 
of the Nuclear Testing Program and settlement of claims arising 
from that program are but one facet of our unique and 
longstanding relationship.
    I will seek constructive, realistic approaches that will be 
grounded in areas of mutual agreement while respecting the 
differences we may have in the evaluation of such issues.
    Mr. Chairman, in closing, I pledge to protect American 
interests, ensure fair treatment for U.S. citizens and their 
businesses, and to promote our values.
    I appreciate the opportunity to appear before you today, 
and I am pleased to answer your questions.
    Thank you.
    [The prepared statement of Ms. Cabral follows:]


                  Prepared Statement of Roxanne Cabral

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee for U.S. Ambassador to the 
Republic of the Marshall Islands. I am grateful to President Trump and 
Secretary Pompeo for their confidence in nominating me for this 
position, and I am equally grateful to receive your consideration.
    With the Chairman's permission, I would like to present my family. 
My husband, David Schroeder, and sons, Roman and Evan, are watching via 
video from Panama. My eldest son Quinn, my brother Neal, my sister-in-
law Sue Charlton and my niece Grace, and my mother and father-in-law, 
Nancy and Tom Schroeder, are present here. I would also like to thank 
all my family for their support during my career, especially my mother 
Nancy and sister Lisa, who inspired me to public service.
    Over my 22-year career as a Foreign Service Officer, I have worked 
in Washington and around the world to promote U.S. interests and build 
strong partnerships. If confirmed, I will continue to draw on my 
leadership experience in regional policy, public diplomacy, and 
managing government institutions and programs to advance the United 
States' enduring strategic interests in the Indo-Pacific.
    The Marshall Islands is a reliable partner that supports U.S. 
engagement in the region and U.S. strategic priorities globally. The 
Marshall Islands shares our positions on many important issues at the 
United Nations. The Marshall Islands is also one of Taiwan's 15 
diplomatic partners and plays an important role in maintaining 
stability in cross-Strait relations. If confirmed, I will work to 
maintain our strong partnership and leverage the goodwill fostered in 
May of this year when President Trump met jointly with the Presidents 
of the Republic of the Marshall Islands, Federated States of 
Micronesia, and Palau.
    If confirmed, I will focus on three priorities: maintaining a 
strong security relationship; fostering economic prosperity and 
stability as our countries approach a critical juncture under the 
Compact of Free Association; and strengthening democratic institutions.
    Mutual security of our nations is a core feature of our special 
relationship. The Marshall Islands hosts the U.S. Army's Ronald Reagan 
Ballistic Missile Defense Test Site, which provides critical testing 
support for our missile systems and also will serve as the location for 
our Space Fence, enabling the U.S. Air Force to locate and track the 
many objects orbiting Earth with more precision.
    More broadly I will work to strengthen our ongoing partnership with 
the Marshall Islands to keep the Indo-Pacific region free and open, 
implement U.N. Security Council sanctions, promote maritime security, 
combat illegal, unreported and unregulated fishing, and tackle 
transnational crime.
    If confirmed, I will work with the Marshall Islands government to 
advance sustainable economic development. The United States is the 
Marshall Islands' largest donor partner, is a key trading partner, and 
a contributor, along with Taiwan, to a jointly-managed Trust Fund 
established by the United States and the Marshall Islands, that will 
provide a source of revenue for the Marshall Islands in the coming 
decades. I will focus my efforts to be a responsible steward of 
taxpayer funds, advocating for the most effective use of U.S. 
assistance, while working to improve the investment climate to attract 
more private sector interest, and otherwise working with the Marshall 
Islands as they build a prosperous, healthy, and more self-sustaining 
future.
    I recognize that the Marshall Islands, as a country with a maximum 
elevation of six feet above sea level, has profound concerns about the 
impacts of rising sea levels. If confirmed, I look forward to 
continuing to support ongoing efforts to enhance resilience, and to 
engaging with the Marshall Islands on these issues.
    If confirmed, my third goal would be to strengthen governance, rule 
of law, democratic institutions, and civil society through 
partnerships, technical assistance, and education and exchange 
programs. I look forward to working with the government and people of 
the Marshall Islands to expand opportunities, especially for future 
leaders, for exchanges between our two countries. I also recognize the 
already rich people-to-people ties that include service by Marshall 
Islands citizens in the U.S. Armed Forces.
    Shared history and common values make our friendship with the 
Marshall Islands one of the strongest in the world, and if confirmed I 
look forward to continuing to work with the RMI on a host of issues of 
mutual concern to both our countries. The history of the nuclear 
testing program and the settlement of claims arising from that program 
are but one facet of the unique and longstanding relationship our two 
nations enjoy.
    If confirmed, I will seek constructive, realistic approaches that 
will be grounded in areas of mutual agreement while respecting the 
differences we may have in the evaluation of such issues.
    Mr. Chairman, in closing, I want to make a pledge to the committee 
to protect American interests, ensure fair treatment for U.S. citizens 
and their businesses, and to promote our values in every engagement I 
have.
    I appreciate the opportunity to appear before you today and am 
pleased to answer your questions.


    Senator Johnson. Thank you, Ms. Cabral.
    Our next nominee is Ms. Kelly Degnan. Ms. Degnan is the 
President's nominee to be the Ambassador to Georgia. Ms. Degnan 
is a career member of the Senior Foreign Service and currently 
serves as the Political Advisor to the Commander of U.S. Naval 
Forces in Europe and Africa. Her previous posts include Deputy 
Chief of Mission of the U.S. Mission to Italy; Deputy Executive 
Secretary of the Department of State; and Deputy Chief of 
Mission of the U.S. Embassy in Pristina, Kosovo. Ms. Degnan has 
been awarded the Secretary of State's Expeditionary Service 
Award. She speaks Italian, French, Turkish, and Urdu. Urdu. I 
cannot even pronounce it.
    [Laughter.]
    Senator Johnson. Ms. Degnan.

STATEMENT OF KELLY C. DEGNAN, OF CALIFORNIA, A CAREER MEMBER OF 
   THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
            THE UNITED STATES OF AMERICA TO GEORGIA

    Ms. Degnan. Thank you, Mr. Chairman, Ranking Member 
Shaheen. I am deeply honored to appear before you today as 
President Trump's nominee to serve as the United States 
Ambassador to Georgia. If confirmed, I pledge to work closely 
with this committee to advance U.S. interests and values in 
Georgia, and to build on the productive partnership between our 
two countries.
    I am very grateful to my family and friends for their 
unending support during my 26 years of government service, 
especially my sisters, Kate and Kim, and my partner, Doug 
Morris. They are watching from San Francisco and Italy. But, I 
have a nice contingent of friends--local friends who have come 
to support me today.
    I so wish my parents could be here today, as well. They 
were originally from small towns in Upstate New York and 
Colorado, and the core values that they lived by--hard work, 
respect, integrity, personal accountability--continue to guide 
me.
    While I have not yet had the chance to visit Georgia, the 
issues facing Georgia are not new to me. I was serving in 
neighboring Turkey when Russia invaded Georgia in 2008. A year 
later, I served at NATO headquarters, where Georgia was, and 
is, a valued partner. Allies reaffirmed their 2008 pledge that 
Georgia will become a member of NATO just last year at their 
summit. And during my 3 years at NATO, I was always impressed 
by Georgia's commitment to making the reforms that were 
necessary and strengthening its military. We saw that 
commitment in Afghanistan, where Georgia has deployed one of 
the largest contingents of forces, fighting with no caveats and 
at the cost of 32 Georgian lives and 290 wounded. Georgia is 
still there with us with almost 900 soldiers deployed to NATO's 
Resolute Support mission.
    Now, as the Foreign Policy Advisor to U.S. Naval Forces 
Europe, I have seen Georgia's value as a capable, dedicated 
partner supporting U.S. and NATO presence in the Black Sea. Our 
outstanding security cooperation underscores the fact that 
Georgia is a key partner in a geostrategic region of vital 
importance to the United States. We will continue our steadfast 
support of Georgia as it makes the reforms necessary for NATO 
membership and economic integration into the European Union and 
the West. Our work together is aimed at strengthening Georgia's 
capacity to defend its borders while it builds a prosperous, 
integrated, democratic society. If confirmed, I look forward to 
working with the Georgian government on these and other 
priorities.
    The progress that Georgia has made has not been easy, and 
there is still much work to do to hold and build on those 
achievements, especially in promoting a pluralistic 
legislature, an independent judiciary, a diverse media, and a 
vibrant civil society. A continued commitment to the principles 
of democracy and rule of law is absolutely fundamental to 
Georgia's Euro-Atlantic integration. If confirmed, I will make 
it a priority to work with all stakeholders in Georgia to 
ensure that next year's elections are free and fair.
    Perhaps because of its successes, Georgia still finds 
itself the target of destabilizing and destructive Russian 
actions. The United States will continue to be a vocal advocate 
of Georgia's sovereignty and territorial integrity within its 
internationally recognized borders. We strongly condemn the 
ongoing occupation of Georgia's Abkhazia and South Ossetia 
regions by Russian forces and Russia's attempts at 
borderization of the administrative boundary line.
    The solution to this conflict, which is a result of Russian 
aggression, is for Russia to fulfill its obligations under the 
2008 cease-fire agreement, including withdrawing its forces to 
preconflict positions, allowing humanitarian access, and 
reversing its recognition of Abkhazia and South Ossetia.
    If confirmed, I commit to sustaining our efforts to help 
the Georgian government and people build a resilient, 
prosperous society that values its rich and diverse heritage, 
and that can withstand the pressures of Russian malign 
activities and growing Chinese influence.
    Thank you again for considering my nomination. If 
confirmed, I will be a strong representative of our country and 
all that it stands for. I look forward to your questions. Thank 
you.
    [The prepared statement of Ms. Degnan follows:]


                 Prepared Statement of Kelly C. Degnan

    Mr. Chairman, Ranking Member, distinguished members of the 
committee, I am deeply honored to appear before you as President 
Trump's nominee to serve as the United States Ambassador to Georgia. I 
am grateful to the President, and Secretary Pompeo, for the confidence 
they have placed in me. If confirmed, I pledge to work closely with 
this committee to advance U.S. values and interests in Georgia, and 
build on the productive partnership our two countries have developed.
    I am also very grateful to my family and friends for their unending 
support during my 26 years of government service, especially my two 
sisters, Kim and Kate, and my partner, Doug Morris.
    I deeply regret that my parents are not here with me today. They 
were both originally from small towns--in upstate NY and Colorado--and 
the core values they lived by--hard work, integrity, respect--continue 
to guide me.
    While I have not yet had a chance to visit the Republic of Georgia, 
the issues Georgia faces are not new to me. I was serving in Turkey 
when Russia invaded Georgia in August 2008. A year later, I served at 
NATO, where Georgia was, and is, a valued partner. Allies reaffirmed 
just last year NATO's 2008 pledge that Georgia will become a member of 
NATO. During my three years at NATO, I was very impressed by Georgia's 
commitment to reforming and strengthening its institutions and 
military.
    I saw that same commitment serving in Afghanistan, where Georgia 
has deployed one of the largest contingents of forces, fighting with no 
caveats, and at the cost of 32 Georgian lives, and 290 wounded. Georgia 
is still with us there, with almost 900 soldiers deployed to NATO's 
Resolute Support Mission.
    Now, as Foreign Policy Advisor to U.S. Naval Forces Europe, I have 
seen Georgia's value as a capable, dedicated partner supporting U.S. 
and NATO efforts in the Black Sea. Just this summer, Georgia conducted 
a major, multilateral exercise in the Black Sea, involving 14 
countries, including the U.S.
    Our outstanding security cooperation underscores the fact that 
Georgia is a key partner, in a geostrategic region of vital importance 
to the United States. We will continue our steadfast support of Georgia 
as it seeks NATO membership and economic integration with the EU and 
the West. Our work together is aimed at strengthening Georgia's 
capacity to defend its borders, while it builds a prosperous, 
integrated, democratic society. If confirmed, I look forward to working 
with the Georgian government on these and other priorities.
    The progress Georgia has made hasn't been easy, and in many cases, 
it has come through U.S. engagement and foreign assistance. Georgia has 
repaid that investment by taking concrete action, such as increasing 
parliamentary oversight, and making significant judicial reforms.
    There is still much work to be done to hold and build on those 
achievements, especially in promoting a pluralistic legislature, an 
independent judiciary, a diverse media, and a vibrant civil society. A 
continued commitment to the principles of democracy and the rule of law 
is fundamental to Georgia's continued Euro- Atlantic integration. If 
confirmed, I look forward to working with all parties in Georgia to 
ensure free and fair elections next year.
    Despite its successes, Georgia still finds itself the target of 
destabilizing and destructive Russian actions. The United States will 
continue to be a vocal advocate of Georgia's sovereignty and 
territorial integrity within its internationally recognized borders. We 
strongly condemn the ongoing occupation of Georgia's Abkhazia and South 
Ossetia regions by Russian forces, and Russia's attempts at 
"borderization" of the Administrative Boundary Line.
    The solution to this conflict, which was created by Russian 
aggression, is for Russia to fulfill all of its obligations under the 
2008 ceasefire agreement, including withdrawing its forces to pre-
conflict positions, allowing humanitarian access, and reversing its 
recognition of Abkhazia and South Ossetia.
    Georgia's tenacity in the face of Russian malign activities is 
clear from its efforts to create a transparent business environment and 
spur much-needed economic growth. As Ambassador, I would make it a 
priority to promote a level playing field, to foster economic 
development, and create more opportunities for U.S. companies.
    If confirmed, I commit to sustaining our efforts to help the 
Georgian government and people build a resilient society, that values 
its diverse heritage, and that can withstand the pressures of Russian 
malign activities and growing Chinese influence.
    Thank you again for considering my nomination. If confirmed, I will 
be a strong representative of our country, and all that it stands for. 
I look forward to answering your questions.


    Senator Johnson. Thank you, Ms. Degnan.
    Our next nominee is Mr. Robert Gilchrist. Mr. Gilchrist is 
the President's nominee to be the Ambassador to Lithuania. Mr. 
Gilchrist is a career member of the Senior Foreign Service and 
currently serves as the Director of the State Department's 
Operations Center. Previously, he served as Deputy Chief of 
Mission of the U.S. Embassies in Sweden and Estonia, Director 
of Nordic and Baltic Affairs in the Bureau of European and 
Eurasian Affairs, and Chief of the Political Section of the 
U.S. Embassy in Romania. He speaks Spanish, French, Estonian, 
and Romanian.
    Mr. Gilchrist.

 STATEMENT OF ROBERT S. GILCHRIST, OF FLORIDA, A CAREER MEMBER 
 OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER- COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
   THE UNITED STATES OF AMERICA TO THE REPUBLIC OF LITHUANIA

    Mr. Gilchrist. Mr. Chairman, Ranking Member, distinguished 
members of the committee, it is a privilege to appear before 
you today as the President's nominee to serve as the United 
States Ambassador to the Republic of Lithuania. I am grateful 
to President Trump and Secretary of State Pompeo for the 
confidence they have placed in me. If confirmed, I look forward 
to working with the committee, your staffs, and your 
congressional colleagues to build on the strong and vibrant 
relationship between the United States and Lithuania.
    Mr. Chairman, with your permission, I would like to 
acknowledge some of my family members who are here today. I am 
deeply grateful to my two big brothers here, David and Donald, 
for their continued support and consistently honored--honest 
opinions, as you can get from brothers. They are here with my 
sister-in-law, Lynn, niece, Amelia, and nephews, Duncan and 
Liam. My parents are no longer with us, but I would like to 
think that, somewhere, they are watching, as none were prouder 
of my Foreign Service career. They gave me a sense of adventure 
and curiosity about the world that I have carried with me 
everywhere I have gone.
    For 29 years, I have cherished the privilege of serving my 
country as a career diplomat in Europe, the Middle East, and 
South America. I served in Romania as that country acceded to 
NATO and the EU. I served in Iraq during one of its most 
violent periods as we worked to lay the foundation of eventual 
stability. And I served for 9 years in leadership positions 
focused on the Nordic and Baltic region.
    The relationship between the United States and Lithuania 
runs long and deep. It is a relationship built on more than 100 
years of unbroken diplomatic engagement between two republics, 
including during Lithuania's half- century of forced 
incorporation into the Soviet Union. It is a relationship 
nurtured by the transatlantic ties with the many American 
citizens of Lithuanian ancestry, and it is strengthened through 
the partnership of the United States with Lithuania in 
addressing today's threats to freedom and security worldwide.
    Since Lithuania proclaimed the restoration of its 
independence in 1990, it has energetically embraced democracy 
and free-market principles. It joined NATO and the EU in 2004. 
And, with the United States, it has partnered with us in 
numerous fora in support of democracy and human rights.
    Lithuania has also been a particularly staunch supporter of 
the Euro-Atlantic integration of Ukraine, Georgia, and Moldova, 
providing generous assistance. Since the Russian invasion of 
Ukraine in 2014, the Lithuanian government has worked with us 
to maintain strong sanctions and press for full implementation 
of the Minsk Agreements.
    Increased Russian aggression over the past decade has 
elevated security concerns along NATO's eastern flank. A 
proponent of burden-sharing, Lithuania has met the NATO target 
of dedicating 2 percent of GDP to defense spending since 2018. 
The funds, supplemented by U.S. military assistance, are used 
to modernize Lithuania's armed forces and training facilities 
while enhancing NATO interoperability. Next summer, Defender 
2020, a joint multinational U.S. Army-led exercise, will test 
the effectiveness of this investment. The United States also 
works with the Lithuanian government to counter Russian- 
sponsored disinformation campaigns and cyberhacking.
    Beyond Europe, Lithuania is a committed ally, as well. It 
is a partner in the Global Coalition to Defeat ISIS, and 
actively contributes to counterterrorism operations. This 
includes deploying trainers to U.S.-led Operation Inherent 
Resolve in Iraq, redeploying its special operation forces to 
Afghanistan as part of the Resolute Support mission, and 
providing financial support for the Afghan National Defense and 
Security Forces. If confirmed, I will work to continue our 
close operation in addressing global challenges to the security 
of the United States and our allies.
    Lithuania further enhances its security by building the 
resilience of its economy. After a 17-percent drop in GDP in 
2009, Lithuania's economy rebounded to become one of the most 
vibrant in the EU. To reverse an immigration trend, the 
government has created a financial and regulatory environment 
favorable to innovation, startups, and foreign direct 
investment. The United States is Lithuania's 15th-largest 
investor, with 13,000 Lithuanian residents employed by U.S. 
companies.
    Lithuania has also moved expeditiously to diversify its 
energy sources and roots, substantially increase its energy 
security. In 2014, Lithuania completed the unbundling of its 
gas and electricity sectors, and opened an LNG import terminal 
in 2015, providing the first means for non-Russian natural gas 
to enter the Baltic region.
    Through the U.S.-EU Energy Council and bilateral engagement 
with the Departments of State and Energy, we have helped 
advance projects creating new gas and electricity links between 
Lithuania as well as Estonia and Latvia and their EU neighbors. 
If confirmed, I will continue the strategy to further enhance 
Lithuania's energy security as well as that of the entire 
Baltic region.
    Lithuania is a partner and ally on whom we can rely, and 
that partnership is due, in part, to the ties of friendship 
between Lithuanians and Americans. If confirmed, I will 
prioritize public engagement throughout the country and across 
the Atlantic to multiply those ties, and to increase business, 
educational, professional and cultural exchanges.
    In sum, if confirmed, I'll seek to advance U.S. interests 
and enhance the resilience of our Lithuanian ally by 
strengthening bilateral defense and economic ties and promoting 
the democratic values we share.
    Mr. Chairman, thank you again for this opportunity to 
appear before you today. I look forward to answering your 
questions.
    [The prepared statement of Mr. Gilchrist follows:]


               Prepared Statement of Robert S. Gilchrist

    Mr. Chairman, Ranking Member, distinguished members of the 
committee: It is a privilege to appear before you today as the 
President's nominee to serve as the United States Ambassador to the 
Republic of Lithuania.
    I am grateful to President Trump and Secretary of State Pompeo for 
the confidence they have placed in me. If confirmed, I look forward to 
working with the committee, your staffs, and your Congressional 
colleagues to build on the strong and vibrant partnership between the 
United States and Lithuania.
    Mr. Chairman, with your permission, I would like to acknowledge 
some family members who are here today. I am deeply grateful to my two 
brothers, David and Donald, for their continued support and 
consistently honest opinions. They are here with my sister-in-law 
Lynne, niece Amelia, and nephews Duncan and Liam. My parents are no 
longer with us, but I like to think they are somewhere watching, as 
none were prouder of my foreign service career. They gave me a sense of 
adventure and curiosity about the world that I have carried with me 
wherever I have served.
    For 29 years I have cherished the privilege of serving my country 
as a career diplomat in Europe, the Middle East, and South America. I 
served in Romania as that country acceded to NATO and the EU. I served 
in Iraq during one of its most violent periods, as we worked to lay the 
foundation for eventual stability. And I served for nine years in 
leadership positions focused on the Nordic and Baltic region, while 
Russia increased its aggressive activities and the region's economies 
recovered from the 2008 financial crisis.
    The relationship between the United States and Lithuania runs long 
and deep. It is a relationship built on more than 100 years of unbroken 
diplomatic engagement between two republics, including during 
Lithuania's half-century of forced incorporation into the Soviet Union. 
It is a relationship nurtured by the transatlantic ties of the many 
American citizens of Lithuanian ancestry, and it is strengthened 
through the partnership of the United States with Lithuania in 
addressing today's threats to freedom and security worldwide.
    Since Lithuania proclaimed the restoration of its independence in 
1990, it has energetically embraced democracy and free market 
principles. It joined NATO and the EU in 2004, and chaired the 
Community of Democracies and the Organization for Security and 
Cooperation in Europe in 2010-2011. In 2013, Lithuania held the 
Presidency of the European Union and used its position to champion 
democratic principles in countries of the former Soviet Union. During 
Lithuania's 2014-2015 tenure on the U.N. Security Council, it actively 
partnered with the United States to combat terrorism and advance human 
rights. During the past five years Lithuania has emerged as a leader in 
advancing energy security in the Baltic region, including through the 
establishment of the U.S.-Baltic Energy Dialogue in 2019.
    Lithuania has been a particularly staunch supporter of the Euro-
Atlantic integration of Ukraine, Georgia, and Moldova, providing 
generous assistance, including in the form of advisors and development 
aid. Since the Russian invasion of Ukraine in 2014, the Lithuanian 
government has worked with us to maintain a strong sanctions regime on 
Russia and press for full implementation of the Minsk Agreements.
    Increased Russian aggression over the past decade has elevated 
security concerns along NATO's eastern flank. A proponent of burden 
sharing, Lithuania's budget has met the NATO target of dedicating two 
percent of GDP to defense spending since 2018. The funds, supplemented 
by U.S. military assistance, are used to modernize Lithuania's armed 
forces and training facilities while enhancing NATO interoperability. 
Next summer Defender 2020, a joint multi-national U.S. Army-led 
exercise, will test the effectiveness of this investment. The United 
States also works with the Lithuanian government to counter Russian-
sponsored disinformation campaigns and cyber hacking.
    Beyond Europe, Lithuania is a committed ally as well. It is a 
partner in the Global Coalition to Defeat ISIS and actively contributes 
to counterterrorism operations. This includes deploying trainers to 
U.S.-led Operation Inherent Resolve in Iraq, redeploying its special 
operation forces to Afghanistan as part of the Resolute Support 
Mission, and providing financial support for the Afghan National 
Defense and Security Forces. If confirmed, I will work to continue our 
close cooperation in addressing global challenges to the security of 
the United States and our allies.
    Lithuania further enhances its security by building the resilience 
of its economy. After a nearly 17 percent drop in GDP in 2009, 
Lithuania's economy rebounded to become one of the fastest growing in 
the EU. Since 2017, the growth of its GDP has averaged between 3.5 and 
3.9 percent. Lithuania joined the Eurozone in 2015 and the Organization 
for Economic Cooperation and Development in 2018. To reverse an 
emigration trend, the government has created a financial and regulatory 
environment favorable to innovation, start-ups, and foreign direct 
investment. The United States is Lithuania's 15th largest investor, 
with 13,000 Lithuanian residents employed by U.S. companies. In support 
of government efforts to bring economic growth to less developed 
regions in Lithuania, our embassy has developed programs that encourage 
entrepreneurship and public-private partnerships at the local level.
    Lithuania has also moved expeditiously to diversify its energy 
sources and routes, substantially increasing its energy security. In 
2014, Lithuania completed the unbundling of its gas and electricity 
sectors. The break-up of Gazprom's monopoly paved the way for Lithuania 
to open an LNG (liquefied natural gas) import terminal in 2015, 
providing the first means for a non-Russian supply of natural gas to 
the Baltic states. Lithuania can now purchase gas at competitive market 
rates, and in 2017, Lithuania received its first two shipments of U.S. 
LNG. Through the U.S.-EU Energy Council and bilateral engagement with 
the Departments of State and Energy, we have helped advance projects 
creating new gas and electricity links between Lithuania, as well as 
Estonia and Latvia, and their EU neighbors. If confirmed, I will 
continue to support this strategy to further enhance Lithuania's energy 
security as well as that of the entire Baltic region.
    Lithuania is a partner and ally on whom we can rely. And that 
partnership is due in large part to the ties of friendship between 
Lithuanians and Americans. If confirmed, I will prioritize public 
engagement throughout the country and across the Atlantic, to multiply 
those ties through increased business, educational, professional, and 
cultural exchanges.
    In sum, if confirmed, I will seek to advance U.S. interests and 
enhance the resiliency of our Lithuanian ally by strengthening 
bilateral defense and economic ties, and promoting the democratic 
values we share.
    Mr. Chairman, thank you again for this opportunity to appear before 
you today. I look forward to answering your questions.


    Senator Johnson. Thank you, Mr. Gilchrist.
    Our final nominee is Ms. Yuri Kim. Ms. Kim is the 
President's nominee to be the Ambassador to Albania. Ms. Kim is 
a career member of the Senior Foreign Service, and most 
recently served as the Director of the Office of Southern 
European Affairs. Her previous posts include Director of the 
State Department's Center for the Study of Diplomacy, Chief of 
Staff to the Deputy Secretary of State, and Director of the 
Office of European Security and Political-Military Affairs. She 
speaks Korean, Mandarin, Japanese, and Turkish.
    Ms. Kim.

 STATEMENT OF YURI KIM, OF GUAM, A CAREER MEMBER OF THE SENIOR 
 FOREIGN SERVICE, CLASS OF COUNSELOR, NOMINEE TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE REPUBLIC OF ALBANIA

    Ms. Kim. Thank you, Mr. Chairman, Ranking Member Shaheen, 
and distinguished members of the committee. It is a distinct 
honor for me to appear today as President Trump's nominee to be 
our next Ambassador to the Republic of Albania. I am grateful 
to the President and to Secretary Pompeo for the confidence 
they have placed in me.
    If confirmed, I would be the first Korean-American woman to 
represent our great Nation as an Ambassador. I would also be 
our first Ambassador from the great U.S. Territory of Guam.
    Mr. Chairman, you had said earlier that you would encourage 
us to introduce our friends and family. And I am really afraid 
that they are going to all-too-enthusiastically introduce 
themselves back here, so----
    [Laughter and applause.]
    Ms. Kim. I am particularly pleased to have with me two of 
my four siblings, Yeong-Sae and Air Force Lieutenant Minwoo 
Kim. One is fostering innovation and entrepreneurship in 
Silicon Valley, and the other proudly keeps our Nation safe as 
a munitions officer at Minot Air Base. My parents and other 
family members are also, no doubt, watching from Guam and 
wherever else they might be, and I thank them for their 
support.
    For more than two decades, I have had the privilege of 
serving our country as a Foreign Service Officer. From Beijing 
to Baghdad and points in between, I have sought to ensure that 
the United States remains strong, safe, and secure, that our 
people and our businesses thrive, and that we continue to shape 
the rules and lead the institutions that have undergirded 
America's peace and prosperity over the last century. If 
confirmed, I look forward to continuing those efforts by 
further strengthening our already robust and productive 
relationship with Albania.
    Few friends have embraced America more warmly. Poll after 
poll shows Albanian support for the United States remains among 
the highest in the world. Few allies have been more loyal. 
Albanian troops have been at our side in Afghanistan, Kosovo, 
Bosnia, and on NATO's eastern flank. Few partners are more 
ready and willing to do more with the United States. We have a 
strong and loyal friend in Albania, and it is imperative that 
we hold friends like Albania close to us, especially in the 
face of strategic challenges to our shared interests, values, 
and institutions.
    If confirmed, I would advance three priorities:
    First, I would encourage Albania to maintain its steady 
course to reach the 2-percent Wales Defense Investment Pledge 
by 2024 so that Albania is an even stronger and more capable 
ally. Since Albania joined NATO in 2009, Albanian soldiers have 
fought side by side with American troops. In Afghanistan, the 
Albanians have been with us, advising and training Afghan's 
forces. Albania has also been a reliable partner in the Global 
Coalition to Defeat ISIS. Albania's actions demonstrate that it 
not only appreciates the benefits of NATO membership, but that 
it embraces the responsibilities of NATO membership.
    Second, I would continue to promote Albania's development 
as a democratic nation. In the immediate term, I would press 
Albania's leaders to resolve the current political impasse in a 
way that reinforces Albania's EU accession bid and best 
positions it to succeed during its term as OSCE chair-in-office 
in 2020. Albania's EU aspirations and the reforms that they 
entail will lead to more prosperity and stability for the 
country and for the region. It will also make Albania a 
stronger and more capable ally of the United States. More 
fundamentally, I would reinforce U.S. diplomatic and foreign 
assistance support for strengthening the rule of law, combating 
corruption, and combating organized crime. The United States 
should continue to encourage Albania to fully implement 
judicial reforms, continue the vetting of judges and 
prosecutors, and establish an independent Special Structure 
against Corruption and a National Bureau of Investigation. I 
would also redouble U.S. engagement and technical assistance in 
the investigation, prosecution, and punishment of corruption 
and transnational organized crime.
    Third, if I were confirmed, I would work to promote U.S. 
exports and U.S. investment in Albania so as to provide 
opportunities for both U.S. and Albanian citizens and to 
generate jobs in both countries. U.S. investment requires a 
welcoming business environment and a level playing field for 
our companies and investors. In this respect, I would 
underscore that confidence in the rule of law and transparency 
are essential.
    As we pursue our priorities, I would do my utmost to manage 
and safeguard our resources abroad, especially our most 
important resource, the dedicated employees of our Embassy. 
Their hard work and dedication are essential to achieving the 
goals of the United States and the American people. We owe it 
to ourselves to take care of our people, to make sure that they 
are safe, and to provide the support and the resources they 
need to succeed on behalf of our Nation.
    If confirmed, I look forward to advancing the interests of 
the United States by working together with Congress and this 
committee to continue strengthening our strong bonds with the 
government and people of Albania.
    Thank you for considering my nomination, and I look forward 
to taking your questions.
    [The prepared statement of Ms. Kim follows:]


                     Prepared Statement of Yuri Kim

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, it is a distinct honor to appear before you today as 
President Trump's nominee to be our next ambassador to Albania. I am 
grateful to the President and Secretary Pompeo for the confidence they 
have placed in me. If confirmed, I would be the first Korean-American 
woman to represent our great nation as an ambassador. I would also be 
our first ambassador from the U.S. Territory of Guam. In fact, I am 
joined today by a small cheering section from home, including my 
brothers Yeong-Sae and Air Force Lt. Minwoo Kim--one fostering 
innovation and entrepreneurship in Silicon Valley, the other keeping 
our nation safe as a munitions officer at Minot Air Force Base. My 
parents and other family members are also no doubt watching from Guam 
or wherever else they might be.
    For more than two decades, I have had the privilege of serving our 
country as a Foreign Service Officer. From Beijing to Baghdad, and 
points in between, I have sought to ensure that the United States 
remains strong, safe, and secure; that our people and our businesses 
thrive; and that we continue to shape the rules and lead the 
institutions that have undergirded America's peace and prosperity over 
the last century.
    If confirmed, I look forward to continuing those efforts by further 
strengthening our already robust and productive relationship with 
Albania. Few friends have embraced America more warmly--poll after poll 
shows Albanian support for the United States remains among the highest 
in the world. Few Allies have been more loyal--Albanian troops have 
been at our side in Afghanistan, Kosovo, Bosnia, and NATO's Eastern 
Flank. And few partners are as ready and willing to do more with the 
United States. We have a strong and loyal friend in Albania, and it is 
imperative that we hold friends like Albania close to us, especially in 
the face of strategic challenges to our shared interests, values, and 
institutions.
    If confirmed, I would advance three priorities:


  First, I would encourage Albania to maintain its steady course to 
        reach the two percent Wales defense investment pledge by 2024 
        so that Albania is an even stronger and more capable Ally. 
        Since Albania joined NATO in 2009, Albanian soldiers have 
        fought side by side with American troops. In Afghanistan, the 
        Albanians have been with us advising and training Afghan 
        forces. Albania has also been a reliable partner in the Global 
        Coalition to Defeat ISIS. Albania's actions demonstrate that it 
        not only appreciates the benefits of NATO, but embraces the 
        responsibilities of membership.

  Second, I would continue to promote Albania's democratic 
        development. In the immediate term, I would press Albania's 
        leaders to resolve the current political impasse in a way that 
        reinforces Albania's EU accession bid and best positions 
        Albania to succeed during its term as OSCE Chair-in-Office in 
        2020. Albania's EU aspirations--and the reforms they entail-- 
        will lead to more prosperity and stability for the country and 
        for the region. It will also make Albania a stronger, more 
        capable Ally of the United States. More fundamentally, I would 
        reinforce U.S. diplomatic and foreign assistance support for 
        strengthening the rule of law and combatting corruption and 
        organized crime. The United States should continue to encourage 
        Albania to fully implement judicial reforms, continue the 
        vetting of judges and prosecutors, and establish an independent 
        Special Structure Against Corruption and a National Bureau of 
        Investigation. I would also redouble U.S. engagement and 
        technical assistance in the investigation, prosecution, and 
        punishment of corruption and transnational organized crime.

 Third, I would work to promote U.S. exports and U.S. investment in 
        Albania so as to provide opportunities for both U.S. and 
        Albanian citizens and generate jobs in both countries. U.S. 
        investment requires a welcoming business climate and a level 
        playing field for our companies and investors. In this respect, 
        I would underscore that confidence in the rule of law and 
        transparency are essential.


    As we pursue our priorities, I would do my utmost to manage and 
safeguard our resources abroad, especially our most important resource: 
the dedicated employees of ourEmbassy. Their hard work and dedication 
are essential to achieving the goals of the United States and the 
American people. We owe it to ourselves to take care of our people, to 
make sure they're safe, and to provide the support and the resources 
they need to succeed on behalf of our nation.
    If confirmed, I look forward to advancing the interests of the 
United States by working together with Congress and this committee to 
continue strengthening our strong bonds with the government and people 
of Albania.
    Thank you for considering my nomination. I would be pleased to take 
your questions.


    Senator Johnson. Thank you, Ms. Kim.
    I really appreciate the attendance of my colleagues here. 
And, out of respect for their time, I will defer to Senator 
Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I would like to begin with you, Ms. Kim--no, I am sorry--
Mr. Gilchrist. last week, when we withdrew our troops from 
Syria, we deployed a battalion to Lithuania for an 
unprecedented 6-month rotation, clearly a move intended to 
deter Russian aggression in the Baltics and Lithuania. So, can 
you--as you assess the challenge--challenges facing Lithuania, 
do you see Russia as a threat? And what kinds of actions do you 
see Russia engaging in in Lithuania that would be of concern to 
the country?
    Mr. Gilchrist. Thank you for the question, Senator.
    No, indeed, I think Lithuania is certainly a valuable ally, 
and one of our staunchest allies along the eastern frontier of 
the alliance. Lithuania, over the past decade, has seen a 
number of challenges from Russia as the Russian government has 
increased military spending and as they have increased their 
attention towards the Baltic states. I think one of the biggest 
challenges has been Russian disinformation. The Lithuanians 
have been at the forefront, in terms of countering that 
disinformation, including through public-private partnerships, 
but also working closely with us.
    We are happy that the Lithuanians have increased their 
defense budget. They have increased it to 2 percent of GDP, 
with a commitment to actually increase it to 2.5 percent by 
2030. And certainly, we are working closely with them to ensure 
that that additional funding is spent wisely, in terms of 
increasing interoperability and in terms of increasing their 
preparedness.
    They are certainly happy to have American troops on the 
ground in such substantial numbers. We have supported the 
presence of the NATO-enhanced forward presence, led by the 
Germans for the past few years, which has been 1,000--roughly 
1,000 NATO troops in a very forward manner in Lithuania. We 
have also staunchly supported NATO air policing, which has gone 
on for several years, and participated in that actively.
    The Lithuanians continue to seek greater engagement, I 
think. The larger our footprint is in the Baltic region, I 
think, the happier the Baltic countries are, themselves. And 
certainly, if confirmed, I would work to strengthen that 
relationship in every way I possibly can.
    Senator Shaheen. So, it has been several years since I was 
in the Baltics, but one of the concerns that I heard when I was 
there was the disinformation campaigns that you referenced. So, 
what kinds of engagement can we participate in with Lithuania 
to address that disinformation?
    Mr. Gilchrist. Well, we have--the Embassy is already 
engaged in training journalists and in working ways to support 
the traditional media that is already in Lithuania. We have 
worked with the Lithuanian government on--and with Lithuanian 
security services--on programs that allow them, very early on, 
to detect Russian misinformation. And, I think, if you look 
through some of the recent press, you will see how the 
Lithuanians, really in a masterful way, have gotten out ahead 
of an issue before it became an issue domestically. And so, 
they have--they are, indeed, at the forefront, in many ways. I 
think there are some things that we could possibly learn from 
them, as well.
    Senator Shaheen. Do you have any--do you want to be more 
definitive about what you think we could learn from them?
    Mr. Gilchrist. Well, I have--they have this very active 
public-private partnership, I think, across the Baltic region, 
where private citizens are actively looking at what is showing 
up in the media, and then working with the government on that. 
And I think it is something that is interesting, but also it 
has been very productive in Lithuania.
    Senator Shaheen. Well, certainly I would agree that there--
we need to take a look at disinformation here in the United 
States, as well.
    Let me now go to Ms. Kim. Albania and Kosovo have had an 
ongoing dispute, as I know you are aware, and there has been 
some concern that ethnic Albanian Albin Kurti, who is poised to 
become Kosovo's next Prime Minister, has advocated for Kosovo's 
strong integration with Albania. So, the Serbian government 
believes this view to be provocative and not helpful to Serbia-
Kosovo normalization. Is there a role for you, as Ambassador, 
to work with the governments of all three of those countries to 
help reduce tensions and to try and encourage normalization of 
relations?
    Ms. Kim. Thank you, Senator, for that extremely timely and 
important question.
    There is no doubt that the United States can play a major 
role in helping to resolve a very prickly, potentially 
explosive issue. As Ambassador to Albania, if I were confirmed, 
I would work with leaders there to emphasize a few points. 
Number one, the United States has made a tremendous investment 
in the region, in bringing peace and in working with countries 
in the region to develop their capacity to stand independently, 
to stand peacefully, and to stand as, in a word, a team. 
Secondly, I would emphasize that reverting to calls that appeal 
to ethnicity, as opposed to values and to respecting existing 
borders, is not helpful. Third, I think you are aware, Senator, 
that we have not just one Special Representative, but two 
Special Envoys, actually, to deal with exactly this issue. So, 
I think there is no doubt that the administration is strongly 
committed to doing what we can to help resolve the issue.
    Senator Shaheen. Well, with respect to your second point, 
about the ethnic tensions within Albania, can you talk a little 
bit about what are some of the things that Albania is doing to 
reduce those tensions?
    Ms. Kim. My understanding, Senator, is that Albania--I do 
not know that ethnic tensions are a specific problem in 
Albania. They are a problem in the region, and have been for a 
long time, as we all know. Within Albania, they tend to be 
secular, and I think that we would want to encourage them to 
look towards building institutions that cut across identity 
politics.
    Senator Shaheen. On another note, one of the things that I 
and others on this committee were very pleased to see was when 
Albania agreed to take the residents of Camp Ashraf, who had 
been stuck--the Iranians who had been stuck in Iraq. And can 
you give us any update on how they are doing and whether the 
government continues to welcome them to the country?
    Ms. Kim. We have been working closely with the Albanian 
government for the last few years. We have close to 3,000 MEK 
residents living just outside the capital. We continue to work 
closely with the Albanians to ensure that--number one, that 
they are safe; number two, that they have the means to 
integrate into Albania and to become productive citizens for 
the duration that they are there.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Young.
    Senator Young. Thank you, Mr. Chairman.
    Before we get started, I have just seven questions that, my 
hope is, all of you can go ahead and answer at the same time. 
They should be very easy.
    Have you adhered to applicable laws in governing conflicts 
of interest?
    [The witnesses all replied in the affirmative.]
    Senator Young. Okay. And you can all answer at the same 
time to number two.
    Have you assumed any duties or any actions that would 
appear to presume the outcome of this confirmation process?
    [The witnesses all replied in the negative.]
    Senator Young. Okay, thank you.
    Exercising this committee's legislative and oversight 
responsibility makes it important we receive testimony, 
briefings, reports, and recordings, records, and other 
information the executive--from the executive branch on a 
timely basis. Do you agree, if confirmed, to appear and testify 
before this committee, when requested by the Chairman and 
Ranking Member?


    [The witnesses all replied in the affirmative.]


    Senator Young. All right. So, much of this is about the 
prerogatives of the committee, which I think is very important.
    Do you agree to provide documents and electronic 
communications in a timely manner, when requested by this 
committee, its subcommittees, or other appropriate committees 
of Congress, and to the requestor?


    [The witnesses all replied in the affirmative.]


    Senator Young. All right, thank you.
    Will you ensure that you and your staff comply with 
deadlines established by this committee for the production of 
reports, records, and other documents, including responding 
timely to hearing questions for the record?
    [The witnesses all replied in the affirmative.]
    Senator Young. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    [The witnesses all replied in the affirmative.]
    Senator Young. And finally, will those briefers be 
protected from reprisal from their briefings?
    [The witnesses all replied in the affirmative.]
    Senator Young. The word was ``reprisal.'' All right.
    Well, thank you.
    And congratulations, to all of you, for your nomination. 
And I would expect confirmation here today.
    I have a question for Ms. Cabral. We certainly appreciate 
the hospitality of the Marshall Islands to be a strong ally in 
the region and a host of our military. The history of our 
missile testing done in that area was essential to the military 
might that we still exhibit today. How do the Marshall Island 
leaders and citizens feel about our ongoing military presence 
there?
    Ms. Cabral. Thank you for the question, Senator.
    As you mentioned, we have a longstanding and historic 
relationship with the Marshall Islands. We share the same 
values, we share same common objectives, to maintain support 
for a free and open Indo-Pacific with freedom of navigation. 
And so, as I understand it, we still have that strong support 
of the Marshall Islands, in this respect.
    Thank you.
    Senator Young. That is good to know.
    So, following some news of the neighboring Solomon Islands 
and Kiribati ending their diplomatic relations with Taiwan, 
complying with the Chinese influence in the area, the Marshall 
Islands went the other direction and adopted a resolution to 
show its profound appreciation to the people and government of 
Taiwan. The Marshall Islands President said, ``We have all seen 
China's attempts to expand its territory and footprint, and 
this should be of great concern to democratic countries.'' I 
find this welcome news. What actions will you take, as 
Ambassador, Ms.--to ensure that we remain a close ally of the 
Marshall Islands?
    Ms. Cabral. Thank you for that question.
    It was good news to see that affirmation from the 
Parliament. And the President of the Marshall Islands was just 
in Taiwan last week to sign some bilateral cooperation 
agreements in the areas of economic and education exchange. So, 
if confirmed, I would try to strengthen this relationship, 
encourage a stronger relationship, and help the Marshall 
Islands create an environment that can push back on predatory 
economic practices of China that we have been seeing around the 
world.
    Thank you.
    Senator Young. I loved how you ended that. I have held a 
couple of subcommittee hearings on China's predatory economic 
practices. So that is, I think, the right direction, especially 
in light of China's effort to expand its reach through the Belt 
and Road Initiative. Our work to demonstrate our commitment to 
the region is being challenged every day. You know that so 
well. If confirmed, Ms. Cabral, how will you express our 
commitment, support, not only to the Marshall Islands, but to 
the broader region?
    Ms. Cabral. I think there are three ways that we can 
express our support for Taiwan and also against the predatory 
economic practices that I mentioned. And one is to increase 
transparency and expose bad deals. And another one is to 
provide alternatives. We provide a better model. I strongly 
believe this. And there are tools that this committee has 
created, such as ARIA and the BUILD Act, that can help us do 
that. And the third one is, just be present and work with our 
allies on this. China has no allies. And I think this is 
something important to remember. We have a longstanding 
relationship with many of the countries in this region, an 
historic relationship. We share the same values and the same 
common objectives.
    Thank you.
    Senator Young. Yeah. Arguably--I do not think you 
disagree--from a geopolitical standpoint, that is our greatest 
natural resource, our alliance system, right?
    All right. Thank you so much.
    I yield back, Mr. Chairman.
    Senator Johnson. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations, to each of you. I have both a Virginia 
resident, in Ms. Cabral, and a UVA graduate, in Mr. Gilchrist. 
And so, it is particularly good to congratulate you on your 
nominations and on your long careers of service.
    I want to ask a question to Ms. Kim, Mr. Gilchrist, and Ms. 
Degnan about Russia and NATO in the countries that you are 
involved in.
    So, Albania and Lithuania are NATO members, and Georgia is 
not. Georgia, there has often been a discussion about NATO in 
the future of Georgia. So, I think all of you are able to kind 
of grapple with this one. And it really is to get advice.
    There was a NATO-Russia Founding Act that was signed in 
1997. And the reality at that time was the transition away from 
the Soviet Union, and the breakup of the Soviet Union, and new 
countries emerging. And so, the Act basically established that 
NATO would not--in a whole series of ways, would not, sort of, 
present itself as a hostile face to Russia. But, the phrase 
that was used in the Act was also--also put some burdens on 
Russia. Let us see. Russia was obligated, quote, ``to exercise 
similar restraint in its conventional-force deployments in 
Europe.'' The invasion of the regions of Georgia, the seizure 
of Crimea, Russian-supported separatists in the Donbas area of 
eastern Ukraine--Russia really has not abided by its portion of 
this agreement.
    One of my proud possessions as a dad is a photo of my son 
being sworn in as a captain, being elevated from first 
lieutenant in the United States Marine Corps in a snowy field 
in the middle of Lithuania in December of 2016. He was deployed 
there as part of the European Defense Initiative. And I know, 
in Lithuania, there has been a desire for more presence, 
possibly permanent NATO presence. Thus far, we have decided to 
have large exercises. There is one coming up next year, 
Defender 2020, where we will be doing significant exercises.
    I just, sort of, for purposes of the committee--and I am on 
the Armed Services Committee, as well, but NATO is one of these 
things that is both Armed Services and Foreign Relations. As 
professionals, what do you think about the NATO-Russia Founding 
Act? There have been some who suggest we should scrap it. There 
are some that suggest it is already a dead letter. How should 
we be thinking about this, as policymakers, in terms of how we 
approach diplomacy or military engagements with the nations 
that are near Russia? They have not exercised restraint in 
their military deployments in the region. So, what does that 
mean about how we should approach this particular agreement?
    Ms. Degnan. Thank you very much. That is a very interesting 
question, Senator.
    Having served at NATO, I have seen the value of the NATO-
Russia Council. It is--can be a very frustrating forum, but it 
is a forum for dialogue, and continuing that dialogue is 
absolutely essential. As you pointed out, NATO is a political-
military organization. And the political part of it has been 
essential to bringing peace and stability and prosperity to 
Europe. It is a defensive organization that has served Europe 
and the United States and Canada well.
    I think it is essential that we continue to put that 
forward, that opportunity forward, to have dialogue with 
Russia. It goes in waves, in terms of how constructive it is. 
But, again, it underscores the fact that--nations have the 
right to choose the alliances they belong to, such as Georgia, 
such as Lithuania and Albania. And I think NATO will continue 
to be a strong force for stability in Europe as a result.
    Thank you.
    Senator Kaine. Other comments?
    Mr. Gilchrist. I would agree with that, in terms of the 
need to ensure that there is still a forum for dialogue. 
Obviously, over the past 5 to 10 years, the relationship--
NATO's relationship with Russia--has been on the decline, in 
light of the Russian invasion, first of Georgia, then of 
Ukraine. It has been a particular concern to the Baltic states. 
Although Lithuania does not have a substantial Russian 
population per se, it is strategically located as a border 
country with Kaliningrad.
    Senator Kaine. Kaliningrad.
    Mr. Gilchrist. And, you know, what we get from the Baltics 
is, they want greater U.S. engagement in any way possible. And 
certainly, they welcome the enhanced presence--enhanced NATO 
presence, which I think has been critical, continued NATO air 
policing, and the Defender 2020 exercise--I have just been 
reading the press today, some of the statements coming out from 
the senior leadership of Lithuania. They are certainly very 
pleased about this exercise and having 500 troops on the 
ground.
    Senator Kaine. Do you have an opinion about permanent NATO 
presence in Lithuania? Thus far, it has been significant 
forward deployments and exercises and things like that. There 
has often been a request by Lithuania that there be a permanent 
presence there.
    Mr. Gilchrist. I think the Lithuanians and all of the 
Baltic states will continue asking for as much as we are 
willing to give. And certainly, we have to be understanding and 
sensitive to what their security concerns are. With regard to a 
permanent president--presence, I am not prepared to comment on 
that right now, but I certainly think a robust relationship on 
security, on every level, is fundamentally important, if not 
existential, for the security of the Baltic states.
    Senator Kaine. Ms. Kim.
    Ms. Kim. Senator, thanks for that question.
    I think the key to the strength of NATO and its utility, 
going forward, for the United States relies on three things: 
solidarity, integration, and interoperability. In all three of 
those respects, Albania could not score higher. Thankfully, the 
Russian narrative does not get much traction in Albania. And I 
think, as I said in my statement, it behooves us to hold 
friends like this more closely at this time.
    Senator Kaine. I will just say, editorially, that I do not 
like the U.S. walking away from agreements, but I do think, 
after 20-plus years, whether it is NAFTA or the NATO- Russia 
Founding Act, you have probably learned some things, and the 
situation in the world, situation in the region, has changed 
dramatically. Russian behavior in the last years has been very, 
very different. So, it may be a time to assess the continuing 
value of the Founding Act and decide whether it might be 
improved upon and what kind of dialogue might lay that to 
happen.
    But, I appreciate your answers and congratulate you on your 
nominations.
    Thanks, Mr. Chair.
    Senator Johnson. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman.
    And thank you, to each of you who have decided to make the 
State Department your career, and appreciate your willingness 
to serve on behalf of our country and to serve in foreign 
places. It is a enormous sacrifice, I understand, and it is 
very much appreciated by those of us who get to live here and 
enjoy the freedoms that we have.
    There are two great, if you will, geopolitical competitors 
that are increasingly visible on the world stage. Russia has 
been such for a long, long time. China is increasingly so. And, 
in the case of Russia, my perception is that they have a real 
problem: a shrinking population, a weak industrial base. Yes, 
they have enormous natural resources--energy resources, in 
particular--but, they have got some real problems with smaller 
population, and certainly a small population relative to us and 
relative to their other neighbor, China. So, I would anticipate 
them continuing to have their eyes set on their neighbors as a 
way to grab population and to grab industrial base and to try 
and strengthen their hand. And therefore, I do believe that our 
posture in Georgia, in Lithuania--to a degree, in Albania--that 
those are areas where it is important for us to evidence our 
commitment to these nations and to the principles of 
sovereignty that have been violated by Russia in Georgia in the 
past, and also in Ukraine.
    From the standpoint of the three of you that are in nations 
that are confronting that concern, are there things that we 
should be doing that we are not doing? Are there things we 
should be emphasizing more to make it very clear that we have a 
full and complete commitment to preventing the invasion of 
other sovereign nations by Russia?
    Ms. Degnan. Thank you, Senator. That is a very timely 
question for Georgia.
    I think we have demonstrated on all fronts on Georgia, 
especially the United States, the importance of continued vocal 
advocacy of Georgia's territorial integrity and its 
sovereignty, and our strong commitment to support Georgia as it 
makes the kinds of reforms that are necessary to strengthen its 
institutions, to follow on the path that Georgia has chosen, to 
integrate into the European Union and the West. This is where 
we can really be a true friend to Georgia. I think the 
assistance that we have been providing to Georgia, especially 
in terms of building Georgia's capacity, its resilience, its 
self-reliance, its ability to defend its own borders, is 
absolutely essential. And we are not the only ones. We have 
well-coordinated assistance provided with the European Union 
and others who want to see Georgia succeed. And Georgia has 
made tremendous progress in the last 20 years.
    There is more work to be done, as I mentioned in my 
statement, but I think the progress they have made demonstrates 
their commitment to integrating into the West. It is the choice 
they have made.
    Senator Romney. Thank you.
    Ms. Degnan. Thank you.
    Mr. Gilchrist. Yes. Thank you, Senator, for your question.
    I think that anytime a United States Senator makes 
reference to the inviolability of Article 5, it is a message 
that resonates, certainly throughout the Baltic states, and 
throughout NATO.
    Since before Lithuania's membership in NATO, the United 
States played a central role in helping Lithuania rebuild its 
military forces. And we have developed an incredibly strong 
relationship with them, sharing information at multiple levels. 
And the Lithuanians have, in turn, fought with us side by side 
in Iraq, in Afghanistan, and in the war against terrorism.
    I think there is always more that we can do, and I know 
that they are always seeking more, but I will say that the 
presence right now of the 500 troops with Abrams tanks on the 
ground has been welcomed tremendously by Lithuania and, I know, 
by its Baltic neighbors, as well.
    Senator Romney. Thank you.
    I have just got to note, before we leave Lithuania, that I 
was born and raised in Michigan, and there is a very 
substantial Lithuanian-American community in Michigan. My 
father was a Governor and a politician there, and we spent a 
number of occasions in the Lithuanian community enjoying 
extraordinary food and culture. So, I am sure you will enjoy 
your experience there, and please give my best to my Lithuanian 
friends.
    Mr. Gilchrist. I will.
    [Laughter.]
    Senator Romney. Thank you.
    Any comment from Albania that----
    Ms. Kim. Sir, I think, in Albania, what we want to do is 
two things. One, help the Albanians strengthen their 
institutions so that they are more resilient against attempts 
by Russia, as well as, more importantly, I think, in Albania's 
case, China, to infiltrate their economy and to futz around 
with their political moorings. Secondly, I think we want to 
work very closely with the Albanians to develop their 
capabilities as a NATO ally. There is something to be said 
about strength and solidarity in these times, and that is what 
I would focus on, if confirmed.
    Senator Romney. Thank you.
    I would turn, for a moment, to our friends in the Marshall 
Islands, extraordinary friends over such a long period of time, 
which have housed our military, and we share many values with 
the people of the Marshall Islands. I salute them for their 
recognition of a important relationship with Taiwan, and hope 
that other nations in the Pacific will recognize the importance 
of transport of open oceans and maintaining the sovereignty of 
respective states.
    The commitment which Marshall Islands has made is a model. 
To what do you attribute this kind of commitment that they have 
made in a way where other nations in the region have shrunk 
from that kind of support?
    Ms. Cabral. I think that is an interesting question. And 
I--our--the Compact of Free Association, I think, a large part 
of our relationship which is built on a mutually beneficial 
relationship, has a lot to do with that. It is--we have a very 
strong partnership with the Marshall Islands. We are there and 
we are--will continue to be there. And I think that has a lot 
to do with it.
    Senator Romney. Yeah. Thank you.
    Mr. Chairman.
    Senator Johnson. Thank you, Senator Romney.
    You know, I think three of you mentioned the commitment and 
the contribution that our allies have made to NATO operations. 
Ms. Degnan, I think you mentioned 32 killed from Georgia. I do 
not know the exact numbers from the other nations. I know, in 
total, it has been about 1,000 since NATO invoked Article 5 in 
support of America after 9/11. So, it is something I do not 
think we talk enough about. It is something that we need to, 
and we need to acknowledge that.
    A lot of conversation about disinformation, the persistent 
nature of it coming out of Russia. I thought it was 
interesting. I am glad to hear, Ms. Kim, that, in Albania, they 
are just not buying it. They do not have much to sell. So, as a 
result--and we have held hearings on this, as well--you know, 
Russia's primary goal in their disinformation campaign is just 
simply to try and convince people they cannot believe anything. 
And so, we did have, a couple of weeks ago, in a--an 
interesting hearing, we had the nominee for the Broadcast Board 
of Governors. And I was not able to stay, because the hearing 
dragged on a little bit too long, but one of the questions I 
wanted to talk to him about--we submitted this for the record--
was our ability--and I think Senator Shaheen is aware of this, 
as well--we have an ability to circumvent the firewalls to 
provide Internet access to Russia, to China. The Broadcast 
Board of Governors is not using the resources that we have 
allocated to actually accomplish that goal.
    One way I think we can get them to--convince them to do 
that--you know, they will focus on programming, and I do not 
think we will ever keep up with Russia today, and--you know, 
the pervasive disinformation campaign in Russia, but just 
opening up, circumventing those firewalls, I think, would be 
incredibly important. I think the more Ambassadors that that 
message comes from, I think, the more pressure will be on the 
Broadcast Board of Governors. So, I would just like to ask all 
of you--because we are talking about both into Russia and to 
China. You know, Russia, obviously, is fomenting this 
proactively. China is just--obviously, just closing things up 
and preventing freedom as a result. So, can you just comment on 
your commitment to trying to get the Board of Governors to pay 
more attention to that issue?
    We will start with you, Ms. Kim.
    Ms. Kim. Senator, I think what you say makes an awful lot 
of sense. And if I have the opportunity, I would certainly 
explore that.
    Senator Johnson. Mr. Gilchrist?
    Mr. Gilchrist. I agree, as well, Senator. And I imagine 
that my Lithuanian counterparts would agree with that, as well.
    Senator Johnson. Ms. Degnan?
    Ms. Degnan. Thank you. Yes, I--if I am confirmed, I would 
certainly be happy to work with the committee on that. And I 
agree with you, it is worth exploring.
    Thank you.
    Senator Johnson. Ms. Cabral.
    Ms. Cabral. I also concur. The world has changed in many 
dramatic ways in the last 5, 10 years, and especially the way 
we communicate. And it is important that we keep up with the 
types of communications that work today.
    Thank you.
    Senator Johnson. Ms. Cabral, real quick, I--it was either 
in your testimony or in the briefing on the Marshall Islands, 
is--the whole issue of our nuclear testing there, and the issue 
of waste, and the protection of it. You--I did not realize it 
is only 6 feet, is the maximum elevation there. That, in 
itself, could potentially threaten nuclear waste. What do you 
know about that issue? And what do we need to do to protect 
that, both from, you know, natural disaster, but also just 
from, you know, malign intervention?
    Ms. Cabral. This is a complicated question, and I am just 
getting briefed on the ramifications of this. I know we just 
committed almost $2 million to do some additional monitoring 
and testing of some of the sites there. But, it is something I 
would really like to dig in deeper, if I am confirmed.
    Senator Johnson. Ms. Kim, you particularly mentioned 
organized crime. Organized crime is not the same, region to 
region, country to country. So, can you just kind of describe 
the type of organized crime you are really referring to in 
Albania? What is either particularly unique about that, or not 
unique?
    Ms. Kim. Albania has an unfortunate reputation, at this 
point, for being the locus of organized crime that moves 
people--in particular, women--as well as narcotics across 
borders. It is a serious problem.
    Senator Johnson. Ms. Degnan, Georgia has--you know, from my 
standpoint, it has made some great progress, in terms of rule 
of law, reducing corruption. I mean, there is no such thing as 
a corrupt-free society. It is just where you are on that scale. 
And this has been in the face of, just, persistent aggression 
on Russia's part. Talk about what we can do to support Georgia. 
Again, I appreciate the fact--I also want all of you to comment 
on this, as well--our concern--we just ratified North 
Macedonia's accession to NATO. From my standpoint, incredibly 
credible, incredibly important, what I have seen, the 
incentives that the ability to join NATO, to join the EU, 
creates for those governments to enact important reforms. 
Georgia has had that incentive out there for quite some time, 
since, what, I think, 2008, you mentioned, reaffirmed in 2018. 
And yet, you have what France just did to North Macedonia, you 
know, and I think to Albania. Can you just comment on how 
important that is--that aspiration, but also what can we do to 
keep those reforms moving forward?
    Ms. Degnan. Thank you, Senator.
    NATO being a political-military organization has very high 
standards. It is a rigorous process to become a member of NATO. 
And it should be. It should not be easy. And I think, at least 
from my experience when I was at NATO, Georgia is very aware of 
what the expectations are, and, I agree with you, has made 
great progress, especially in the military area, and is working 
hard on meeting the political standards, as well. We have been 
there to assist them, and we will continue to assist them. As 
that pledge from 2008 indicates, the allies are behind 
Georgia's membership, but it is on Georgia, also, to meet those 
very high standards of political-military requirements that are 
essential to NATO's strength.
    Senator Johnson. Talk a little bit about what you--what 
your knowledge is of Russia's persistent aggression. I mean, 
they continue--from my meetings, they continue to just move 
those lines forward--kidnappings, lack of ability of Georgians 
to cross borders to meet--to visit family members. I mean, talk 
a little bit about, you know, really what Russia is doing 
there.
    Ms. Degnan. Thank you. It is very concerning, actually, the 
pressure that remains. And I think we saw that in August, where 
there were increased tensions over Georgia building a police 
post near South Ossetia. We have a mechanism in place, the 
Geneva International Discussions, that is designed to address 
those kinds of tensions. Some of the mechanisms, like the 
Incident Prevention and Response Mechanisms, are not being used 
as fully as they could be. And I think that has been a constant 
effort on our part and other members, participants in the 
Geneva International Discussions, to try and reactivate those.
    Our call for the EU Monitoring Mission to have greater 
access, perhaps even the establishment of an OSCE monitoring 
mission so that there is more transparency on what is going on 
in the occupied territories so that we have more opportunities 
also to build solutions on the ground, I think, would be very 
helpful in terms of breaking that kind of Russian aggression 
and control.
    Fundamentally, I think, the most important support we can 
provide is to be a constant advocate for Georgia's sovereignty 
and territorial integrity, and to call continually for Russia 
to fulfill its obligations under the 2008 cease-fire agreement. 
We simply cannot stop with that message.
    Thank you.
    Senator Johnson. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to the nominees here before us today. Thank you 
for your public service, and welcome to your families this 
afternoon.
    Ms. Cabral, thank you very much for your time you took with 
me, here, several weeks ago in the office, to discuss issues 
surrounding the Asia-Pacific, the Indo-Pacific, and how we can 
enhance our presence and commitment to the region. I also know 
that you had a little bit of interaction earlier today. I think 
it was Senator Young, talking a little bit about ARIA. Thank 
you very much for your commitment to the Asia Reassurance 
Initiative Act. I think this committee has worked to get that 
legislation not only through the committee, but signed into 
law. Now we have about 2-and-a-half-billion dollars' worth of 
appropriations in the State and Foreign Operations 
appropriations bill. That really goes a long ways in showing to 
our allies in the region that the U.S. is committed, that we 
are going to be a longtime player in power--a long-term player 
in power in the Pacific, Indo- Pacific, and laying out how we 
can do a better job of doing just that. So, thank you very much 
for the commitment to the legislation.
    I want to talk a little bit about Taiwan, in particular. We 
have been working on a bill called the TAIPEI Act, which would 
create sort of a diplomatic roadmap, so to speak, of how the 
United States can enhance our support for Taiwan around the 
globe, but also how we can encourage our allies and other 
countries to continue their support for Taiwan, to step up 
their support for Taiwan, and, of course, in the case of the 
Marshall Islands, a country that continues to support the 
relationship that it has with Taiwan. What can we be doing more 
to show our appreciation for the Marshall Islands in that 
regard?
    Ms. Cabral. Thank you for that question. It is an important 
one.
    And, just last week, the President of the Marshall Islands 
was in Taiwan to sign a bilateral economic agreement and some 
other educational exchange programs. So, I think, fostering 
that relationship is something that we could do more of. And, 
if I am confirmed, I will work to strengthen this relationship.
    Thank you.
    Senator Gardner. Thank you. And could you just talk a 
little bit about China and what the United States can be doing 
to stand up within the region on the Chinese malign influences 
in the region?
    Ms. Cabral. We--Senator, we offer a better model. We really 
do. We offer a model that is based on rule of law, respect for 
country sovereignty and their own local laws, on fairness, on 
transparency. And that is why tools like the BUILD Act and ARIA 
are really important for us to help create a fair and even 
playing field so that our companies can compete evenly with 
China. And when we do compete, we win. So, I would like to use 
more of those tools to foster that kind of environment, if I am 
confirmed.
    Senator Gardner. Thank you. And U.S. compact assistance, 
obviously, with the Marshall Islands is beyond just any kind of 
an economic partnership. This is--goes to the very strategic, 
core interests of our relationship and presence in the Indo-
Pacific. Could you talk, or describe, perhaps, the strategic 
interests in the compact?
    Ms. Cabral. It is the foundation for our relationship, and 
it is really based on mutual benefits that we agree on. We 
share the same values, we have the same common objectives. And 
so, this relationship, through the compact, will last in 
perpetuity. Right now, there are certain provisions in the 
compact related to economic assistance that are under review. 
So, I look forward to seeing what kind of outcomes they----
    Senator Gardner. Thank you.
    Ms. Cabral. Yeah.
    Senator Gardner. And could you talk, perhaps, about some of 
your experiences in Panama, and how that relates--with Panama, 
and how it relates to Marshall Islands?
    Ms. Cabral. I have been spending quite a bit of time in 
Panama trying to educate them on the risk of doing business 
with Panama. As you know, they have----
    Senator Gardner. With China, yeah.
    Ms. Cabral. With China. They flipped, a couple of years 
ago. It was a popular decision in Panama, and it still is. But, 
the new government has said all the right things about 
maintaining the U.S. as its number-one partner in security, in 
commerce, and encouraging our people-to- people ties. And I 
think that is a good foundation for which to build on, if I am 
confirmed, to go to the Marshall Islands and do, the same--
deliver the same kinds of messages.
    Senator Gardner. Thank you.
    And thank you, Mr. Chairman. Thank you.
    Senator Johnson. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Ms. Cabral, some women's organizations estimate that more 
than half of all women in the Marshall Islands experience 
domestic violence. Various studies have suggested that sexual 
violence of all kinds is common, but frequently unreported. And 
I know there is a new woman President, the first woman 
President. Is there any effort that she has announced to 
address gender-based violence and the rights of women in the 
country?
    Ms. Cabral. Thank you, Senator. That is a really important 
topic.
    And the role of women in--you know, increased role of women 
in societies has shown that societies are more secure and more 
prosperous. I am not familiar with anything that she has 
introduced, but I would like to get back to you on that. I know 
she has been a champion of women's rights in her presidency.
    [The information referred to had not been received when 
this hearing was printed.]
    Senator Shaheen. And are there things that you think, as 
Ambassador, you could do to try and encourage some action to 
address this problem?
    Ms. Cabral. I do. I think, if you look at our Trafficking 
in Persons Report, for example, the Marshall Islands need to 
improve on investigations, prosecutions, and convictions in 
that area. So, if I am confirmed, I would try to enhance our 
law enforcement cooperation in this area.
    Senator Shaheen. That would be great. Thank you. I hope you 
will get back to us with the other question, because I think 
that is something we should share with the committee.
    Ms. Degnan, you and Senator Johnson were talking about NATO 
and Georgia's contributions to NATO despite the fact that it is 
not a member. They became an aspirant country in 2011, and yet 
they have not become a NATO member yet. They also signed an 
Association Agreement with the EU in 2014, but it is still not 
on the Brussels list of candidates or potential candidates for 
joining the EU in the future. So, one of the--it seems to me 
that one of the challenges that we have is, How do we keep 
Georgia on a path of reform, continuing to look to the West as 
where they would like to be, when their aspirations have not 
yet been achieved with respect to NATO or the EU? So, can you 
talk a little bit about what--how you think the Georgians view 
the failure to have been admitted to NATO at this point, 
recognizing that they have made a lot of reforms? As I am sure 
you are aware, there are discussions among--there are rumors 
that suggest that Georgia will not be admitted to NATO because 
of the impact that that would have on Russia. So, can you talk 
a little bit about what we should be thinking about, in terms 
of continuing to encourage Georgia to look to the West and to 
continue their positive contributions to NATO and their 
aspirations to the EU?
    Ms. Degnan. Thank you, Senator.
    As you say, Georgia has made a great deal of progress. And 
my impression, when I was at NATO, was that Georgia understands 
how much work is involved in becoming a member of that 
organization. The same with the European Union. These are 
designed, these were created, to help countries come a long 
way. And Georgia has, from a Soviet state to the democratic 
state that it is today. It is remarkable. But, I think there is 
real recognition that there is still work to be done to have an 
independent judiciary, a pluralistic legislature, a diverse 
media, space for civil society to really operate and play that 
role that is so important in a democracy.
    I think the confidence of Georgia is evident in the high 
percentages that still favor joining NATO--I think it is about 
70 percent--and joining the European Union, which is close to 
75 percent of the Georgian public still have chosen that path 
despite how hard it is, despite how long it takes.
    So, what we can do is, again, to provide the kinds of 
assistance to help them make the reforms they need--as we 
have--and to continue to be a close partner and a strong 
supporter of their sovereignty. I think our military 
cooperation alone has been just a perfect example of what we 
can do together with the shared values we have and the same 
objectives, to have stability in that region.
    Thank you.
    Senator Shaheen. And so, do you think there is concern 
because of the continued frozen conflict there with Abkhazia 
and Ossetia, that--and Russia's interest in those two 
territories, that that will prevent them from actually being 
able to join NATO in the near future?
    Ms. Degnan. I am sure that is Russia's hope and objective, 
and that is why we have put so much effort into resolving that 
conflict and keeping the pressure on Russia to meet its 
obligations under the cease-fire, to use the Geneva 
International Discussions and other fora to find ways to 
resolve that. And Georgia itself has come up with some 
interesting initiatives to try and integrate those populations, 
to do some people-to-people exchanges. Some of our assistance 
is also oriented at people-to-people exchanges to try and 
increase communication flow with the people in Abkhazia and 
South Ossetia.
    It is going to take some time. This is a very complex game 
that is being played there. But, I think those two tracks of 
trying to resolve the situation on the ground and trying to 
keep Georgia moving forward to its integration into the 
European Union and the West is essential.
    Senator Shaheen. Thank you.
    Ms. Kim, I want to go back to Albania. Everybody--you 
pointed out about Albania's contributions to NATO, about their 
contribution to the Global Coalition to Counter ISIS. And that 
has been very important. As I am sure you are aware, there are 
reports that show that about 120 Albanians have served as 
foreign fighters with ISIS, and they have been detained in 
Syria and Iraq. If confirmed as Ambassador, will you commit to 
working with the Albanian government to urge them to take back 
those citizens who have been serving as foreign fighters. As 
you are aware, I am sure, this has been a huge challenge that 
we have had with many of the countries who are home to some of 
these fighters. And terrorists who have fought with ISIS are 
now being detained and are not being taken back to their home 
country.
    Ms. Kim. Yes, Senator.
    The disposition of these foreign terrorist fighters who are 
in detention is a major issue for the administration. And 
certainly, if I were confirmed to be Ambassador to Albania, I 
would work very closely with the Albanian government to resolve 
their share of that issue.
    Senator Shaheen. Thank you.
    We have--in the defense bill, if it gets through, there is 
a position of a coordinator to help with detainees. So, 
hopefully, that will get done, and that person can help focus 
on this issue. Because, as we know, with our withdrawal from 
Syria and the unsteady situation there, we have a real 
challenge with those people who have been in detention.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Shaheen.
    So, again, we will note that Chairman Risch came to 
demonstrate his support for these nominations. I am assuming.
    [Laughter.]
    The Chairman. Correctly assumed.
    Senator Johnson. But, I just wanted to thank the nominees 
again for your past service, for your testimony, for your 
willingness to serve in the future. I want to thank your 
families for their support for this career path you have all 
chosen. Again, it is quite the commitment, and we truly do 
appreciate it.
    So, with that, the hearing record will remain open for 
statements or questions until the close of business on 
Thursday, October 31st.


    This hearing is adjourned.

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              

            Responses to Additional Questions for the Record
         Submitted to Roxanne Cabral by Senator Robert Menendez

    Question. In your written testimony, you stated ``I recognize that 
the Marshall Islands, as a country with a maximum elevation of six feet 
above sea level, has profound concerns about the impacts of rising sea 
levels. If confirmed, I look forward to continuing to support ongoing 
efforts to enhance resilience, and to engaging with the Marshall 
Islands on these issues:''

  You mention ``rising sea-levels'' but no mention of climate change 
        as a cause of rising sea levels. Do you believe that climate 
        change is real? Do you believe that it poses a serious threat? 
        If so, how should the United States most effectively position 
        itself to partner with the Marshall Islands to deal with these 
        issues?

    Answer. The United States recognizes that addressing environmental 
degradation and climate change is a priority to the Pacific Island 
countries, especially atoll nations like the Marshall Islands. Given 
the threat posed to the Marshall Islands by sea level rise and the 
region's vulnerability to natural disasters, the United States is 
committed to reducing the risks and impacts of flooding and other 
natural disasters. We have long been engaged in supporting disaster 
risk reduction programs aimed at saving lives and reducing the impact 
of disasters worldwide, including in the Marshall Islands.
    For example, the United States recently committed $10 million to 
provide support for disaster resilience, weather forecasting, and to 
address environmental challenges in the Pacific region. NOAA also 
provides weather services and related programs through the Weather 
Service Office in the Marshall Islands under the Federal Programs and 
Services Agreement.
    If confirmed, I look forward to assisting the Marshall Islands to 
protect natural resources, increase resilience, provide reliable and 
affordable energy, and respond to natural disasters.

    Question. You will be representing a President who has executed an 
unprecedented rollback of constructive efforts to address climate 
change, including walking away from the Paris Accord, and has cemented 
an environmental legacy that will be felt by generations to come:

  How do you plan on being effective as Ambassador to a country that 
        is watching their land fall underwater every day if the 
        administration you serve refuses to acknowledge the reality of 
        climate change?

    Answer. The United States recognizes that addressing environmental 
degradation and climate change is a priority for Pacific Island 
countries due to the threat posed by sea level rise and the region's 
vulnerability to natural disasters.
    We have long been engaged in supporting disaster risk reduction 
programs aimed at saving lives and reducing the impact of disasters 
worldwide, including in the Marshall Islands.
    The Department of State works with interagency partners to support 
resilience work with the Pacific Islands to improve drinking water 
quality and wastewater management; to support water and weather 
forecasting infrastructure; and to improve early warning and disaster 
resilience and response capability.
    Our recent commitment of $10 million to the region provides support 
for disaster resilience, weather forecasting, and other means to 
address environmental challenges in the Pacific region. If confirmed, I 
look forward to assisting the Marshall Islands build resilience, 
protect its natural resources, and more effectively respond to natural 
disasters.

    Question. It is no secret that China is maneuvering in the Indo-
Pacific to become an increasingly dominant player, using a wide range 
of tools including diplomacy, loans and assistance, infrastructure 
development, trade, and tourism--not to mention money under the table 
and other forms of corruption:

  In the face of rising Chinese influence in the Marshall Islands, 
        what will you do to promote U.S. economic engagement as 
        Ambassador?

    Answer. Good governance is a core pillar of the U.S. vision for a 
free and open Indo-Pacific. As part of the Indo-Pacific Transparency 
Initiative, the United States, with allies and partners, will promote 
just, transparent, and responsive governance through anti-corruption 
efforts while encouraging strong civil society and honest business 
practices. If confirmed, I would work with the RMI to create the 
conditions needed to unlock greater private investment, combat 
corruption, and secure the RMI from malign foreign influence. I will 
also work with other U.S. agencies to capitalize on opportunities for 
more private investment from the United States. I see this as 
beneficial for U.S. businesses as well as the Marshallese people.
    The United States provides the government of the RMI roughly $35 
million a year in grants to provide economic assistance for six 
sectors: health, education, public infrastructure, the environment, 
public sector capacity development, and private sector capacity 
development, with priorities in the education and health care sectors. 
If confirmed, I would work closely with the Department of the Interior 
and other U.S. departments and agencies operating in the RMI to 
encourage the RMI government to take an outcome-oriented approach in 
the use of economic assistance provided under the Amended Compact that 
would encourage the development of the RMI's economy.

    Question. What do you think will be the key or keys to ensuring 
that the Marshall Islands retains independence and autonomy in the face 
of increasing Chinese pressure?

    Answer. If confirmed, I would continue to highlight the benefits of 
our special, unique relationship and the mutual advantages that such a 
partnership confers. I would work to ensure that critical programs, 
provided for under our Compact of Free Association and U.S. domestic 
legislation, are identified so that we can encourage the RMI's 
continued development. These programs help reduce RMI's vulnerability 
to the People's Republic of China. The United States and the RMI also 
enjoy a special relationship with respect to security and defense 
matters which contributes to broader regional security, stability, and 
prosperity and supports RMI's resiliency. Our special relationship, 
with roots in our shared history and the free association of our two 
states, supports RMI's resiliency and ability to resist third country 
pressures.
    If confirmed, I would also encourage the Marshall Islands to employ 
a skeptical approach and insist on transparency and a rigorous, 
objective evaluation of any proposal or overture made by private firms 
affiliated with the Chinese government.
    The Marshall Islands and the United States share a profound 
commitment to democracy and open societies. These shared values are the 
foundation of, and a driving force in, our relationship. The RMI is one 
of 15 countries that maintains diplomatic ties with Taiwan. Taiwan is a 
democratic success story, a reliable partner, and a force for good in 
the world.
    Investment in the region's economic prosperity would be another key 
factor. On September 27, Secretary Pompeo announced $65 million in new 
assistance at a meeting with Pacific Island leaders. This new 
assistance is in addition to $36.5 million announced at the 50th 
Pacific Islands Forum in August, as well as approximately $350 million 
that U.S. agencies invest annually in projects, assistance, and 
operations to build a more prosperous future for the people of the 
region, including the RMI.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As a public diplomacy coned-FSO, much of my work in 
developing countries has focused on strengthening human rights, 
providing capacity building for NGOs and civil society organizations, 
and training and exchange programs for leaders of human rights 
organizations, including students.
    While posted in Washington, DC, my job was focused on ensuring PD 
sections' strategic plans focused on human rights issues as a priority 
and providing for program funding for such efforts.
    In China, the public diplomacy office I led focused grant activity 
on establishing and fostering women's rights groups, LGBT groups and 
others who lacked a convening authority to bring together and empower 
like-minded people to advocate more effectively for their rights. We 
reinforced this activity by arranging exchange programs so that leaders 
within these groups, NGOs and civil society leaders could come to the 
U.S. and see our model of governance and respect for human rights. The 
impact was immediate in most cases. For example, with the women's 
groups, participants not only expressed genuine gratitude for the 
opportunity to meet and coordinate with peers, they also formed 
longstanding bonds. These groups still exist today, eight or nine years 
after we helped put them together, and while it can be difficult for 
their voice to be heard in China, they continue to advocate for their 
rights.
    As charge d'affaires in Panama, I have directed our entire 
interagency team to shape our country strategy to incorporate the 
protection of human rights and promotion of democracy in all of our 
engagements within Panama. Every relevant embassy activity showcases 
our values and beliefs in support of human rights. While it is hard to 
gauge impact, the feedback that my staff and I have received has been 
very positive.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Our vision for a free and open Indo-Pacific seeks to ensure 
the freedom of the seas and skies, promote market economies, support 
good governance, and insulate sovereign nations from external pressure. 
The mission objectives of Embassy Majuro are already aligned with this 
strategy: empowering women in political and economic life, 
strengthening democratic institutions, and promoting inclusive and 
transparent economic growth. If confirmed, these are the key tenets I 
will seek to advance in the Marshall Islands through U.S. government 
assistance.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in the Marshall Islands?

    Answer. The Marshall Islands is a relatively new but strong and 
evolving multiparty democracy. If confirmed, I look forward to meeting 
with civil society members to hear about their goals and objectives and 
to learn how we might work together in areas of common concern. The 
United States values the voice and opinions of civil society and has a 
long history of engaging leaders both inside and outside the 
government. Civil society organizations have a critical role to play in 
supporting efforts to ensure a healthy democracy. In the Marshall 
Islands women are generally underrepresented in political bodies 
relative to their proportion of the population. If confirmed, I would 
seek opportunities to encourage greater inclusivity, possibly through 
U.S. government-sponsored programs.

    Question. If confirmed, will you advocate for access and 
inclusivity for women, minorities and youth within political parties?

    Answer. Yes, if confirmed, my Embassy team and I will actively 
engage with the government of the Marshall Islands and civil society to 
advocate for such inclusivity. The Marshall Islands is a relatively new 
but strong and evolving democracy. Although the Marshall Islands has a 
female President, the first for any independent Pacific island country, 
female participation in government is still low. Encouraging broader 
political participation is a priority, and it starts at the community 
level, in schools and advocacy organizations. If confirmed, I intend to 
encourage women and youth to participate in discussions about important 
issues--to give them a voice and a platform that they are not yet 
accustomed to having. If confirmed, I intend to develop strong 
relationships with members of parliament to encourage them to promote 
diversity in government. I view this advocacy role as a key element of 
my position as Ambassador.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
Marshall Islands?

    Answer. Yes, if confirmed, my Embassy team and I will actively 
engage with the government of the Marshall Islands and civil society to 
counter disinformation. My team and I would engage to promote 
transparency and good governance as well as strengthen the skills and 
capacity of local journalists through strategic use of public diplomacy 
tools including reporting tours and International Visitor Leadership 
Programs.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in the Marshall 
Islands, no matter their sexual orientation or gender identity? What 
challenges do the lesbian, gay, bisexual, transgender and queer (LGBTQ) 
people face in the Marshall Islands? What specifically will you commit 
to do to help LGBTQ people in the Marshall Islands?

    Answer. If confirmed, I will work to protect and defend human 
rights for all--including LGBTI persons. governments have an obligation 
to ensure that everyone can freely enjoy the human rights and 
fundamental freedoms to which they are entitled. The RMI has recently 
been elected to the U.N. Human Rights Council for 2020-2022.
    As stated in the Department of State's most recent Human Rights 
Report, neither the RMI's constitution nor law provides specific 
protection against discrimination for LGBTI persons. There were no 
reports of societal violence based on sexual orientation or gender 
identity. There were no reports of official or societal discrimination 
based on sexual orientation or gender identity in employment, housing, 
statelessness, or access to education or health care. The law prohibits 
same-sex couples or individuals involved in a same-sex relationship 
from adopting Marshallese children. If confirmed, I will work with the 
government to advocate for the human rights and fundamental freedoms of 
all individuals in the Marshall Islands, and urge the government to 
speak out against discrimination against LGBTI persons.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. I commit to comply with all relevant federal laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including required reporting to the Office of the 
Inspector General.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No, I am not aware of any formal or informal complaint or 
allegation of sexual harassment, discrimination, or inappropriate 
conduct against me, in a workplace or any other setting. If confirmed, 
I will make taking care of my team and fostering a high-performing, 
healthy, and secure workplace a priority, with zero tolerance for 
misconduct, including sexual harassment.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. If confirmed, I will make taking care of my team and 
fostering a high-performing, healthy, and secure workplace a priority, 
with zero tolerance for misconduct, including sexual harassment. In 
leadership positions I have held in the Department, I have guided my 
teams on handling potential personnel matters. In all such 
circumstances I have immediately responded to any issues raised in 
accordance with the Department of State's policies, including 
encouraging any employee who feels they have been harassed or 
discriminated against to report such behavior to any supervisor under 
my management or the Department's Office of Civil Rights for 
appropriate action.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. I take allegations of such practices seriously and 
will ensure they are dealt with through department rules and Federal 
law, including referral to the Department's Inspector General when 
called for. As a career member of the Senior Foreign Service, I am 
keenly aware and respectful of employee rights. In addition to ensuring 
compliance with mandatory training on prohibited personnel practices 
and discrimination, if confirmed, I will prioritize taking care of my 
team and fostering a healthy and secure workplace a priority, with zero 
tolerance for discrimination, harassment, retaliation, or other 
misconduct.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Roxanne Cabral by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a public diplomacy coned-FSO, much of my work in 
developing countries has focused on strengthening human rights, 
providing capacity building for NGOs and civil society organizations, 
and training and exchange programs for leaders of human rights 
organizations, including students.
    While posted in Washington, DC, my job was focused on ensuring PD 
sections' strategic plans focused on human rights issues as a priority, 
and providing for program funding for such efforts.
    In China, the public diplomacy office I led focused grant activity 
on establishing and fostering women's rights groups, LGBT groups and 
others who lacked a convening authority to bring together and empower 
like-minded people to advocate more effectively for their rights. We 
reinforced this activity by arranging exchange programs so that leaders 
within these groups, NGOs and civil society leaders could come to the 
U.S. and see our model of governance and respect for human rights. The 
impact was immediate in most cases. For example, with the women's 
groups, participants not only expressed genuine gratitude for the 
opportunity to meet and coordinate with peers, they also formed 
longstanding bonds amongst each other. These groups still exist today, 
eight or nine years after we helped put them together, and while it can 
be difficult for their voice to be heard in China, they continue to 
advocate for their rights.
    In Panama, I have directed our entire interagency team to shape our 
country strategy to incorporate the protection of human rights and 
promotion of democracy in all of our engagements within Panama. Every 
relevant embassy activity showcases our values and beliefs in support 
of human rights. While it is hard to gauge impact, the feedback that my 
staff and I have received has been very positive.

    Question. What are the most pressing human rights issues in the 
Marshall Islands? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in the 
Marshall Islands? What do you hope to accomplish through these actions?

    Answer. The government of the Republic of the Marshall Islands 
(RMI) generally respects human rights. In the Department of State's 
most recent Human Rights Report, the Department noted that civilian 
authorities maintained effective control over the police and there were 
no reports of egregious human rights abuses. Impunity remains a 
problem, however, particularly regarding alleged corruption. Some other 
problems persist, including continued discrimination and violence 
against women. If confirmed, I will work through advocacy, outreach 
programs, and cooperation with local NGOs to address corruption, 
violence against women, and increase women's political and economic 
participation.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Marshall 
Islands in advancing human rights, civil society and democracy in 
general?

    Answer. If confirmed, I will work to leverage available resources, 
including working with other embassies, international organizations, 
and local NGOs, to prevent and respond to gender-based violence and 
corruption. I will look for opportunities to strengthen current 
programs for judicial and law enforcement training. I will also work to 
increase political and economic participation for women. With the RMI's 
recent election to the U.N. Human Rights Council, I would encourage the 
RMI during their tenure to advance mutual democratic values and respect 
for human rights.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Marshall Islands? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and other non-governmental organizations in the Marshall 
Islands. Obtaining the views of civil society is essential in 
understanding the country conditions, including in support of 
democratic institutions and respect for human rights, and plays a key 
role in informing and advancing U.S. foreign policy. Supporting a 
rules-based and transparent order that advances democratic governance 
and empowers civil society is a key goal of the administration and is 
enshrined in our vision for a free and open Indo-Pacific. If confirmed, 
I will continue the embassy's strong engagement with civil society.
    RMI does not have a military of its own. Under the Compact and 
Amended Compact, the United States has full authority and 
responsibility for security and defense matters in or relating to the 
RMI. As RMI does not generally receive U.S. assistance for security 
forces, the Leahy Law is generally not relevant to RMI. However, in the 
rare instances when U.S. assistance could be directed toward an RMI 
security unit, I am committed to the effective implementation of the 
Leahy Law.

    Question. Will you and your embassy team actively engage with the 
Marshall Islands to address cases of key political prisoners or persons 
otherwise unjustly targeted by the Marshall Islands?

    Answer. There were no reports of political prisoners or detainees 
in the Marshall Islands. Should such a situation arise, I would, if 
confirmed, of course bring U.S. concerns to the attention of the 
government at the highest levels.

    Question. Will you engage with the Marshall Islands on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes. If confirmed, I will work with the Marshall Islands to 
engage on matters of human rights, fundamental freedoms, and 
governance. I would also seek to exchange best practices between our 
governments. Good governance is a core pillar of the U.S. vision for a 
free and open Indo-Pacific. As part of the Indo-Pacific Transparency 
Initiative, the United States, with allies and partners, will promote 
just, transparent, and responsive governance through anti-corruption 
efforts while encouraging strong civil society and honest business 
practices. If confirmed, I will work with the RMI to create the 
conditions needed to unlock greater private investment, combat 
corruption, and secure the RMI from malign foreign influence. I would 
continue to promote transparency, openness, rule of law, and the 
protection of human rights and fundamental freedoms.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Encouraging, mentoring, and supporting staff with diverse 
backgrounds both in the Foreign Service and Civil Service is something 
I have done throughout my career. If confirmed, I would make strong 
mentoring relationships an integral part of the Embassy culture by 
promoting initiatives that support employee engagement, job 
satisfaction, development of leadership skills, and increased teamwork. 
It is my expectation that by doing so, workplace diversity, employee 
retention, productivity, and morale will all improve.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will meet with the direct hire and local 
staffs in the Mission to determine where inclusivity is perceived as 
lacking, review our HR processes to determine where and how we can 
mitigate unconscious biases and provide access to training that will 
support these efforts. I would also meet with Mission supervisors and 
the management team to discuss what I have heard from the employees, 
where improvements are needed and, based on all of the information 
gathered, put a plan in place to correct any weaknesses or gaps.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in the Marshall Islands?

    Answer. My investment portfolio includes mutual funds that may have 
or may acquire investments in companies in the Marshall Islands; 
however, these funds are exempt from the conflict of interest laws. I 
am committed to ensuring that my official actions will not give rise to 
a conflict of interest. I will divest my interests in any investments 
the State Department Ethics Office deems necessary in the future to 
avoid a conflict of interest, and will remain vigilant with regard to 
my ethics obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in the 
Marshall Islands specifically?

    Answer. Corruption undermines democratic governance and the rule of 
law, including in the Marshall Islands. The law provides criminal 
penalties for corruption by officials, and although the RMI government 
generally implemented the law effectively, officials sometimes engaged 
in corrupt practices with impunity. This erodes public confidence in 
institutions, systems of governance, and impedes achievement of the 
goals of our vision for a free and open Indo-Pacific. The RMI can only 
reach its full potential if we make efforts to end these corrupt 
practices. The government of the RMI continues to work to address 
corruption.

    Question. What is your assessment of corruption trends in the 
Marshall Islands and efforts to address and reduce it by that 
government?

    Answer. As stated in the Department of State's Human Rights Report, 
the Attorney General's Office reported it received 13 allegations of 
bribery in official matters through August 2018. These involved theft, 
check forgeries, securing execution of documents by deception, 
embezzlement, bid rigging, abuse of public office for private gain, and 
misappropriation of public funds. One notable corruption case concluded 
in March 2018, when the High Court found a former senator from Mili 
Atoll, Kejjo Bien, guilty of ``civil theft'' for wrongfully taking and 
converting $40,000 in grant money from Taiwan for his own use.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in the Marshall Islands?

    Answer. If confirmed, I will work closely with the government of 
the RMI and U.S. law enforcement to strengthen good governance and 
anticorruption efforts. I would work with allies and likeminded 
partners to coordinate our efforts on these important issues. Through 
new funding for USAID on governance under the Indo-Pacific Strategy, 
including under the Indo-Pacific Transparency Initiative, I would work 
to ensure these programs are implemented to maximum effect in the RMI. 
I would also work closely with interagency partners to ensure that U.S. 
taxpayer resources are used for their intended purpose.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Kelly C. Degnan by Senator Robert Menendez

    Question. On October 28, 2019, Georgia was hit by a significant 
cyber-attack that took down more than 2,000 websites, including the 
presidential website and court websites, as well as the national TV 
station. Who does the State Department assess was responsible for this 
cyber-attack? Does State assess that the attack triggers sanctions 
under CAATSA Section 224?

    Answer. I am aware of the October 28, 2019, cyber-attack in 
Georgia, which the U.S. government is in the process of analyzing. The 
United States works to support allies and partners, like Georgia, in 
resisting cyber-threats and cyber-enabled efforts to destabilize them. 
If confirmed, I will work with the Georgian government and U.S. 
government partners to continue existing U.S. efforts to strengthen 
Georgia's cyber security, particularly in the run up to Georgia's 2020 
parliamentary elections. The Department is fully committed to 
comprehensive implementation of CAATSA and is continually engaged with 
the Treasury Department to assess potentially sanctionable activity.

    Question. Russia has maintained its illegal presence in the 
Georgian regions of Abkhazia and South Ossetia for over a decade now. 
What is the human rights situation in those two regions? What evidence 
is there of serious human rights abuses in the regions? Does the State 
Department assess that the human rights situation triggers sanctions 
under CAATSA Section 228?

    Answer. Georgians living in the Russian-occupied territories of 
Abkhazia and South Ossetia face severe restrictions on their 
fundamental freedoms, including but not limited to onerous restrictions 
on their freedom of movement and right to transfer property, and risk 
of arrest and detention by Russian and de facto security forces. In the 
past few years, a number of Georgian citizens have died while in 
detention in the occupied territories.
    Evidence of these human rights abuses comes from a variety of 
sources, including our Embassy's reporting on the ground, observations 
from the EU Monitoring Mission, conversations with the Geneva 
International Discussions Co-Chairs, UNHCR, and local NGOs and 
activists. We document these abuses in our annual Human Rights Report 
on Georgia.
    If confirmed, I will direct Embassy Tbilisi to continue to monitor 
human rights abuses in the occupied territories. The administration has 
not hesitated to designate individuals pursuant to CAATSA Section 228, 
and if there is evidence of human rights abuses in the occupied 
territories, I will forward that information to the State Department 
and interagency partners for proper assessment.

    Question. Corruption is a major concern in Georgia and will have a 
negative impact on its ability to potentially accede to NATO and the 
EU. How does the State Department assess the role of Bidzina 
Ivanishvili in Georgian politics, particularly in the judicial system, 
and in Georgian media?

    Answer. Corruption and the impact of informal governance, including 
by the unelected leader of the ruling Georgia Dream party, in Georgia 
are major concerns. If confirmed, I will support efforts to strengthen 
the Georgian government's democratic institutions and processes, so 
that decisions are transparent and made by accountable elected 
officials. If confirmed, I will support reform to strengthen judicial 
independence in Georgia and continue exchange programs with Georgia's 
legislators, prosecutors, and law enforcement bodies to bolster 
anticorruption efforts. I will also continue efforts to ensure Georgia 
maintains media pluralism and press freedoms, including programs to 
support media literacy, investigative reporting, and strengthen local, 
high-quality independent media. If confirmed, I plan to work with all 
groups, including government officials, party leaders, media outlets, 
and various civil society actors to address these concerns and advance 
U.S.-Georgia relations.

    Question. Next year's Georgian election is likely to happen under a 
new system that includes proportional representation and a 0% threshold 
for parties to win seats, among other changes. How does the State 
Department assess the changes will impact Georgia's political system? 
How does State assess they will impact Georgia's democratic trajectory?

    Answer. The Department has welcomed the ruling Georgian Dream 
party's stated support to switch to a fully proportional election 
system for elections in 2020--a change opposition parties have been 
requesting. While the full impact of the changes is unclear, we expect 
that it will require Georgian political leaders to work together, 
perhaps even in a coalition government, to face Georgia's democratic, 
economic, and security challenges. Nevertheless, much remains to be 
done in advance of next year's parliamentary elections. If confirmed, I 
plan to focus my efforts on ensuring a level playing field, preventing 
the misuse of administrative resources, and strengthening campaign 
finance regulations, among other issues. I will stress to the Georgian 
government that the conduct of the 2020 parliamentary election will be 
an important bellwether in Georgia's democratic development.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. During my 26 years of government service, I have had the 
privilege of working to promote American values and principles around 
the world, including respect for human rights, religious freedom, due 
process, and equal rights under the law. At the U.S. Mission to NATO, I 
negotiated to include strong language in support of Women, Peace, and 
Security (WPS) initiatives in NATO Summit communiques, which helped 
make WPS a standard component of NATO planning and policies. In Kosovo, 
my team and I worked with the Kosovo government to find ways to protect 
the rights of members of the minority Kosovo Serb community and better 
integrate Kosovo Serbs into Kosovo society. In Italy, I was a strong 
advocate for much-needed judicial reform to ensure timely resolution of 
disputes. The Italians implemented the reform, which cleared the docket 
of an extensive backlog and allowed for justice to be administered more 
efficiently. It has been my honor to advocate strongly for respect for 
human rights, including freedom of religion or belief and freedom of 
expression, due process, equal protection under the law, and other 
fundamental American principles. I am committed to continuing to be a 
strong representative of America, and all that we stand for.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Georgia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights, and press freedom. Please be as specific as possible.

    Answer. Electoral reform in advance of the 2020 Georgian 
parliamentary elections to ensure a level playing field, reforms 
advancing judicial independence, and further strengthening 
parliamentary oversight including of the security and law enforcement 
sector are the most pressing challenges in Georgia's democracy and 
democratic development. The ongoing occupation of Abkhazia and South 
Ossetia by Russia is also a major challenge to Georgia's democracy, as 
is informal governance.

    Question. What steps will you take--if confirmed--to support 
democracy in Georgia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will stress the importance of free and fair 
elections, parliamentary oversight, and respect for the human rights of 
all, protected by an independent judiciary as crucial for Georgia's 
development and long-term stability. I support an environment in which 
political groups do not face political violence or undue restrictions 
on their ability to register, to raise funds, to organize and recruit 
members, to reach out to citizens and hold public events, to gain 
access to the mass media, or to compete in elections. Integration of 
2018 OSCE/ODIHR electoral reform recommendations into legislation, as 
promised by the government, would help level the playing field ahead of 
the 2020 elections. I will also continue to be a vocal advocate of 
Georgia's sovereignty and territorial integrity within its 
internationally recognized borders. I will also explore how to use U.S. 
assistance effectively to support these goals.
    The goal of our efforts is a Georgia that is more democratic and 
capable of resisting Russian malign influence, and more capable of 
defending the rights of its citizens throughout its internationally-
recognized territory. Potential impediments to strengthening democracy 
in Georgia include a lack of judicial independence, a lack of security 
sector accountability, election legislation that does not prevent the 
misuse of administrative resources, tension between the ruling party 
and civil society, and entrenched interests.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Current Department of State and USAID democracy assistance 
seeks to strengthen civil society, encourage and facilitate citizen 
participation in local decision-making, and support electoral processes 
and an independent media. We stand ready to assist the Georgian 
government in making sustainable institutional changes in the justice 
and law enforcement sectors that will assist the government's anti-
corruption policies, support an independent judiciary, continue to 
build transparency and accountability through civil society, and 
strengthen local media's ability to be professional, competitive, and 
independent. If confirmed, I will continue to support these assistance 
efforts and will look for other ways to productively utilize assistance 
funds to promote shared objectives.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Georgia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, it will be among my top priorities to meet 
with those outside of the government, such as civil society 
representatives, including human rights-focused NGOs in the United 
States and Georgia, to demonstrate our commitment to human rights and 
fundamental freedoms. Georgia has a strong cadre of civil society 
organizations, and I look forward to engaging actively with the groups 
and individuals who are advocating for these important issues. If 
confirmed, I will speak out and use all diplomatic means to prevent any 
legal or regulatory measures that would restrict or penalize NGOs and 
civil society, as well as speak out against unfair and unjustified 
accusations against NGO and civil society leaders by government 
officials.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities, and youth within 
political parties?

    Answer. Yes, if confirmed, I will continue the Embassy's current 
commitment to have Embassy officers, at all levels, meet with those 
outside of the government, including political opposition figures and 
parties, to demonstrate our support for pluralism, checks and balances, 
and genuine political competition. I will continue efforts to advance 
electoral reform in advance of the 2020 Georgian parliamentary 
elections to ensure a level playing field. Finally, if confirmed, I 
will advocate for equal access and inclusivity for women, minorities, 
and youth in all spheres, including in political life, as well as 
explore how to use U.S. assistance effectively to support these goals.

    Question. Will you and your embassy team actively engage with 
Georgia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory, or other measures? Will you commit to meeting regularly 
with independent, local press in Georgia?

    Answer. Maintaining space for pluralistic media in Georgia is a 
continuing U.S. priority in Georgia due most recently to the context 
and timing of recent investigations of media actors not aligned with 
the ruling party. If confirmed, my Embassy team and I will engage 
actively on freedom of the press and will support the Embassy's 
continued commitment to meet with independent, local journalists. If 
confirmed, I will also support existing programs aimed at promoting a 
sustainable independent media environment, improving access to 
independent and reliable sources of information through media literacy 
programs and by strengthening professional standards, media management, 
and quality content of independent media.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, engaging with civil society and Georgian 
government officials to counter disinformation and malign propaganda, 
particularly Russian and other disinformation, will be one of my top 
priorities. Through foreign assistance, diplomatic efforts, and the 
Embassy's public diplomacy team, we can help mitigate Georgia's 
vulnerabilities to Russian pressure, counter Russian and other 
disinformation, assist Georgia's efforts to strengthen transparency and 
accountability of its democratic institutions, and communicate our 
positive message regarding the progress Georgia has made through its 
partnership with the United States.

    Question. Will you and your embassy teams actively engage with 
Georgia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, my Embassy team and I will continue the 
Embassy's engagement with labor groups, including independent trade 
unions. If confirmed, I will work to promote worker rights in Georgia 
by focusing on internationally-recognized labor rights related to the 
freedom of association, effective recognition of the right to 
collective bargaining, and the elimination of forced labor, child 
labor, and employment discrimination. I will urge Georgia to enhance 
its labor laws and implement a fully functioning labor inspectorate.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Georgia, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender, and queer (LGBTQ) people face in 
Georgia? What specifically will you commit to do to help LGBTQ people 
in Georgia?

    Answer. governments have an obligation to ensure that everyone can 
freely enjoy the human rights and fundamental freedoms to which they 
are entitled, and I commit to work to protect and defend human rights 
for all.
    As documented in the Department's Human Rights Reports, LGBTI 
persons continued to experience violence, oppression, abuse, 
intolerance, and discrimination in Georgia. Societal discrimination 
against LGBTI individuals on the basis of sexual orientation or gender 
identity negatively affected all aspects of life, including employment, 
housing, education, and health care.
    If confirmed, I will urge Georgian authorities to ensure the safety 
of LGBTI and all other demonstrators in rallies, conduct independent 
and credible investigations into reports of attacks on LGBTI 
individuals, hold any perpetrators responsible as soon as possible, and 
speak out against such practices and ensure the effective 
implementation of the country's anti-discrimination laws.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any appearance would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including, as applicable to the Inspector 
General.

    Question. In the wake of President Trump's comments welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the State Department have explicit 
guidance for all of its personnel on how to deal with this scenario. 
Guidance on handling interactions that prompt concern about 
exploitation by a foreign entity, such as FAM Chapter 12, Section 262, 
does not clearly address this situation. If a foreign person or 
government approaches you or a staffer at the embassy with derogatory 
information on a U.S. political figure, what is your understanding of 
official State Department policy on how to handle this specific 
situation? Has a cable with clear guidance on how to handle this 
specific situation been sent to all U.S. embassies?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules regarding interactions with foreign officials 
and other foreigners, both at home and abroad. It would not be 
appropriate to comment on hypothetical scenarios, however, if 
confirmed, I would continue, and reinforce, such policy and practice at 
my Mission.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I have never had a formal or informal complaint or 
allegation of sexual harassment, discrimination, or inappropriate 
conduct raised against me. I take these maters seriously and would 
ensure that all Embassy staff also understand the importance of 
handling any matter that arises promptly and appropriately.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. As Deputy Chief of Mission, I have handled personnel 
issues, including conduct and performance matters. I have worked 
closely with the Embassy's Human Resources Officer (HRO) and 
appropriate State Department offices in Washington to address possible 
issues.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Any targeting of or retaliation against career employees 
based on their perceived political beliefs, prior work on policy, or 
affiliation with a previous administration, is wholly inappropriate. I 
take allegations of such practices seriously and will ensure they are 
referred to the appropriate channels, including the Department's 
Inspector General. If confirmed, I will maintain a policy of zero 
tolerance in U.S. Embassy Tbilisi for any retaliation, blacklisting, or 
other prohibited personnel practices. I will hold U.S. Embassy Tbilisi 
employees accountable to the highest standards in accordance with anti-
discrimination, merit principle, and whistleblower protection statutes, 
laws, and regulations, including the Notification and Federal Employee 
Antidiscrimination and Retaliation Act of 2002. I will also ensure 
employees comply with their NO FEAR Act training requirements.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Kelly C. Degnan by Senator Benjamin L. Cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. During my 26 years of government service, I have had the 
privilege of working to promote American values and principles around 
the world, including respect for human rights, religious freedom, due 
process, and equal rights under the law. At the U.S. Mission to NATO, I 
negotiated to include strong language in support of Women, Peace, and 
Security (WPS) initiatives in NATO Summit communiques, which helped 
make WPS a standard component of NATO planning and policies. In Kosovo, 
my team and I worked with the Kosovo government to find ways to protect 
the rights of members of the minority Kosovo Serb community and better 
integrate Kosovo Serbs into Kosovo society. In Italy, I was a strong 
advocate for much-needed judicial reform to ensure timely resolution of 
disputes. The Italians implemented the reform, which cleared the docket 
of an extensive backlog and allowed for justice to be administered more 
efficiently. It has been my honor to advocate strongly for respect for 
human rights, including freedom of religion or belief and freedom of 
expression, due process, equal protection under the law, and other 
fundamental American principles. I am committed to continuing to be a 
strong representative of America, and all that we stand for.
    Question. What are the most pressing human rights issues in 
Georgia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Georgia? What do 
you hope to accomplish through these actions?

    Answer. Restricted fundamental freedoms of Georgians living in the 
Russian-occupied territories of Abkhazia and South Ossetia, electoral 
reform in advance of the 2020 Georgian parliamentary elections to 
ensure a level playing field, greater oversight of the security and law 
enforcement sector, and reforms advancing judicial independence are 
among Georgia's most pressing democracy, governance, and human rights 
issues.If confirmed, I will stress the importance of free and fair 
elections, security sector oversight, and respect for the human rights 
of all, protected by an independent judiciary as crucial for Georgia's 
development and long-term stability. I will support Embassy programs to 
engage all sectors of Georgian society on these issues. I will continue 
to raise awareness in the international community of human rights 
abuses by Russia and the de facto authorities in the occupied 
territories. The goal of our efforts is a Georgia that is more 
democratic and capable of resisting Russian malign influence, and more 
capable of defending the rights of its citizens throughout its 
internationally recognized territory.
    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Georgia in 
advancing human rights, civil society, and democracy in general?

    Answer. Potential impediments to addressing human rights issues 
include security sector accountability, corruption, lack of capacity 
among some of our Georgian partners, challenges to judicial 
independence, and entrenched interests. Russia's continued illegal 
occupation of Georgian territory and the de facto authorities' refusal 
to abide by international human rights norms and standards despite 
pressure applied on them in the context of the Geneva International 
Discussions serves as an obstacle to addressing human rights issues. If 
confirmed, I will work closely with the Georgian government, opposition 
political parties, civil society, the international community, and 
other stakeholders to address such impediments and advocate for 
progress in all of the areas crucial for strengthening democratic, 
accountable governance. Political will is a key first step to improving 
Georgia's electoral system and building a strong independent judiciary, 
but building up institutions is equally important.
    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Georgia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, it will be among my top priorities to 
meet with those outside of the government, including civil society 
representatives and human rights-focused NGOs, to demonstrate our 
commitment to human rights and fundamental freedoms. Georgia has a 
vibrant civil society, and I look forward to engaging actively with the 
groups and individuals who are at the forefront of pushing for 
meaningful change in Georgia.If confirmed, I will ensure that the 
Embassy team continues to adhere to all applicable laws, including the 
Leahy laws, to ensure that U.S. security assistance and security 
cooperation in Georgia reinforce human rights.
    Question. Will you and your embassy team actively engage with 
Georgia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Georgia?

    Answer. Yes. If confirmed, my embassy team and I will actively 
engage with Georgia to address any cases of political prisoners, 
selective prosecutions, or persons otherwise unjustly targeted by 
Georgia that may arise. More broadly, I will also continue to work with 
civil society and the international community to reinforce calls to 
reform the judiciary toward greater independence and transparency.
    Question. Will you engage with Georgia on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will stress to government officials, 
civil society, and the broader public the importance of respect for 
human rights and the rule of law. I will stress the important role of 
civil society, independent media, and opposition politicians to hold 
the government accountable and advocate publicly and privately for full 
respect for political pluralism and a level playing field for 
democratic competition.
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Diversity and inclusion on teams is very important to me. 
Diversity not only strengthens our effectiveness but also promotes a 
workplace culture that values the efforts of all members and enhances 
the professional experience of our valued public servants. If 
confirmed, I commit to promoting the Department's goal of ensuring a 
diverse workforce at Embassy Tbilisi.
    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would lead by example and promote the 
highest standards from our management team. Any behavior that hinders 
an inclusive environment will not be tolerated. Throughout my career, I 
have worked to foster inclusive and respectful work environments, and I 
will make clear to all supervisors at U.S. Embassy Tbilisi that every 
team member be treated equally with dignity and respect.
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.
    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.
    Question. Do you or do any members of your immediate family have 
any financial interests in Georgia?

    Answer. I am not aware of any financial interest in Georgia held by 
me or my immediate family. My investment portfolio includes mutual 
funds as well as individual stocks below the $15,000 threshold that may 
have or acquire investments in companies in Georgia; however, these 
funds are exempt from the conflict of interest laws. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest. I will divest my interests in any investments the State 
Department Ethics Office deems necessary in the future to avoid a 
conflict of interest, and will remain vigilant with regard to my ethics 
obligations.
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Georgia 
specifically?

    Answer. Corruption erodes the social contract between citizens and 
government, weakens government institutions and the trust that the 
public places in them, and has a corrosive impact on democratic 
governance and the rule of law. Georgia has implemented significant 
anticorruption reforms since 1991 and has largely eliminated petty 
corruption in public administration, but more work is needed. For 
example, work remains to be done to enforce anticorruption legislation 
and increase transparency and accountability in the judiciary. 
Additional efforts to combat corruption would assist the government in 
attracting investment and would improve adherence to democratic 
principles and rule of law in Georgia. Furthermore, recognizing that 
informal governance and abuse of administrative resources during 
elections can erode public trust, I will work to advance U.S. efforts 
to institutionalize rule of law and electoral reforms that will 
mitigate the abuse of administrative resources.
    Question. What is your assessment of corruption trends in Georgia 
and efforts to address and reduce it by that government?

    Answer. Georgia has made great strides in fighting corruption and 
currently ranks 41 out of 180 countries in Transparency International's 
2018 Corruption Perceptions Index, the highest ranking for any post-
Soviet country outside the Baltics. However, there is more work to be 
done. I will encourage Georgia to increase its enforcement of 
anticorruption legislation and advance transparency and accountability 
in the judiciary. If confirmed, I will work broadly with the Georgian 
government, the business community, and civil society to support 
anticorruption efforts.
    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Georgia?

    Answer. If confirmed, I will work with my team at the Embassy in 
Tbilisi to engage Georgian officials at all levels of government in 
support of good governance and anti-corruption. I will advocate for a 
level playing field in elections, strong institutions accountably to 
the Georgian people, and government systems free of corruption and 
bribery. My team and I will encourage the Georgian Parliament to 
exercise oversight to provide for public accountability, prevent 
corruption, and enhance transparency, including in local government in 
support of the government's ambitious decentralization plans. I will 
support judicial reform in Georgia and continue exchange programs with 
Georgia's legislators, prosecutors, and law enforcement bodies to 
bolster anticorruption efforts.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Richard S. Gilchrist by Senator Robert Menendez

U.S. Support for the Baltics
    Question. While President Trump did not divert European Deterrence 
Initiative funding from Lithuania to fund his border wall, he did 
divert nearly $16 million from its fellow Baltic State and NATO Ally, 
Estonia. Given that the Baltic States share common interests and 
frequently partner with each other, what message does this diversion of 
funds send to Lithuania about U.S. commitment to our Allies in the 
region?

    Answer. Lithuanian officials have not raised concerns with Embassy 
Vilnius about the re-programming of European Deterrence Initiative 
(EDI) funds to enhance border security at the U.S.-Mexico border. The 
Lithuanian government and public reactions to the October 21 arrival of 
a battalion-sized element from the U.S. Army's First Cavalry Division 
under the EDI-funded Operation Atlantic Resolve, however, have been 
overwhelmingly positive. Minister of Defense Raimondas Karoblis called 
the six-month training deployment of approximately 500 troops ``a vital 
factor of deterrence'' and noted that the EDI-funded rotation ``sends a 
message to Lithuania and neighboring NATO countries... that Allies are 
with us.''


    Question. I understand that the State Department is considering 
adding Lithuania to the European Recapitalization Incentive Program 
(ERIP). What is the status of discussions with Lithuania regarding 
ERIP, particularly regarding its bidding laws that could preclude it 
from purchasing American equipment?

    Answer. Lithuania has formally expressed interest in ERIP within 
the context of efforts to replace its legacy Soviet-era helicopters 
with a modern U.S.-manufactured alternative. Discussions are ongoing 
between the Department of State and U.S. European Command regarding 
additional allocations of ERIP. No funding decisions have been made 
thus far, but Lithuania is under consideration as a participant, along 
with other European partners in the region. All such discussions take 
into consideration relevant and applicable foreign country laws and 
regulations.


    Question. I understand that the proposed construction on the site 
of the Snipiskes Jewish cemetery in Vilnius has drawn a lot of 
criticism but may still proceed. How does the State Department assess 
the Lithuanian government's handling of the situation? If confirmed, 
what steps will you take to ensure the concerns of the Jewish 
community, particularly the Jewish-American community, are heard in 
this discussion?

    Answer. In 2009, the Lithuanian government signed an agreement with 
the Lithuanian Jewish Community and the London-based committee for the 
Preservation of Jewish Cemeteries in Europe (CPJCE), approving 
conditions for the protection of Snipiskes Jewish Cemetery and for the 
development of land adjacent to it. In 2014, the Lithuanian government 
announced plans to turn an empty sports center located in a ``buffer 
zone'' next to the cemetery into a conference center. Per the 2009 
agreement, the building is considered outside the cemetery's boundaries 
since ground penetrating radar could detect no human remains in the 
zone where the sports center is located.
    A few members of the Jewish American community disagree with the 
2009 agreement's definition of the boundaries of the cemetery, 
contending that undetected human remains are still in the zone where 
the sports center is located and that its renovation will desecrate the 
burial grounds. The CPJCE assessed the renovation proposal and approved 
the project, noting that the renovation would not desecrate the 
cemetery because remains may no longer be present; the Lithuanian 
Jewish Community concurred with the committee's assessment. Lithuania's 
state property bank will work with the CPJCE during the renovation, 
which is to begin in 2020, to avoid inadvertent disturbance of any 
possible human remains.
    The Embassy has remained in close contact with the Lithuanian 
Jewish Community, the Department of State's Special Envoy for Holocaust 
Issues (SEHI), the Bureau of Democracy, Human Rights, and Labor, and 
the U.S. Commission for the Preservation of America's Cultural Heritage 
Abroad regarding this controversy. If confirmed, I look forward to 
continuing such engagement to ensure the protection of Snipiskes 
Cemetery.

Democracy and Human Rights
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have made the promotion of human rights a core component 
of my work throughout my career. During my second assignment as the 
human rights officer at Embassy Caracas (1993-95), I helped secure 
outside funding to keep a key human rights organization from closing. 
While a political counselor in Bucharest (2003-6), I expanded the 
Embassy's outreach to numerous Roma and other civil society groups. I 
also obtained funding to provide training in the United States for a 
number of human rights leaders, many of whom remain important figures 
in Romania and have successfully pressed for government reform. While 
Deputy Chief of Mission in Tallinn (2010-13), I arranged for a visit to 
Estonia of anti-hate crime activists Judy and Dennis Shepard, who met 
with the Estonian president and appeared in numerous public fora, which 
gave unprecedented visibility to the grave problems of hate and 
intolerance, particularly against LGBT youth. These are but a few 
examples of my efforts to protect and promote human rights. If 
confirmed, I will ensure that the promotion of human rights and respect 
for individual human dignity remain central in the work of the United 
States Embassy in Lithuania.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Lithuania? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Lithuania is a vibrant democracy with resilient 
institutions, established respect for rule of law, and a free press. It 
is also a strong partner of the United States in advancing democracy 
and promoting human rights, especially in countries from the former 
Soviet space. Within Lithuania, the primary obstacles to addressing 
human rights issues are insufficient government coordination and 
financial assistance for NGOs. There is frequently a lack of 
coordination between the national government and the municipalities, 
which are the chief executors of key reforms. Civil society leaders say 
that more government support for their efforts is needed, and they also 
decry the weak spirit of volunteerism and philanthropy in Lithuanian 
society. As such, civil society organizations depend on a shrinking 
pool of assistance from foreign governments and international 
organizations.
    If confirmed, I will continue the work of Embassy Vilnius in 
pressing the Lithuanian government to address these challenges to 
protecting human rights, as the Embassy has successfully done to 
improve government coordination in the fight against human trafficking.

    Question. What steps will you take--if confirmed--to support 
democracy in Lithuania? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Lithuania is a vibrant democracy with resilient 
institutions and established respect for rule of law. The protection of 
human rights is essential to democracy, and the Lithuanian government 
has made important recent advances in promoting human rights by passing 
legislation to deinstitutionalize childcare for orphans, banning 
violence against children, supporting the LGBTI community, and fighting 
human trafficking.
    However, work needs to be done to address the prevalence of the 
sexual abuse of children, to create an environment that encourages 
women to report domestic violence to the authorities, and to increase 
tolerance toward members of minority groups. Furthermore, in the 
justice system, conditions are substandard in a number of prison and 
detention facilities, and lengthy pretrial detention is a problem.
    If confirmed, I will press the government to implement existing 
legislation and work to foster dialogue between the government and 
civil society to implement those reforms. I will also work to connect 
Lithuanian reformers with U.S. practitioners who can share their best 
practices and experience.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The Department uses diplomatic and foreign assistance tools 
to support democracy and governance. Given Lithuania's status as a 
market-based economy with strong democratic institutions and membership 
in the European Union, the United States no longer provides bilateral 
development assistance to Lithuania. At the same time, the United 
States has utilized regional programs to provide foreign assistance to 
Lithuania on a case-by-case basis to address challenges related to 
Russian malign influence. If confirmed, I will use all available tools 
and resources the United States government has to support democracy, 
governance and rule of law in Lithuania.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Lithuania? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. If confirmed, I commit to meeting with civil society 
members and representatives of human rights and other non-governmental 
organizations in the United States and in Lithuania. I will engage 
Lithuanian government and parliament officials and regulatory bodies to 
address concerns regarding any undue restrictions or penalties imposed 
upon non-government organizations and civil society groups.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes. If confirmed, I pledge to engage with a range of 
Lithuanian political parties and politicians to strengthen bilateral 
ties and promote U.S. interests and objectives in Lithuania. I will 
continue the efforts of our embassy in Vilnius to promote democracy and 
good governance initiatives, including free and fair political systems. 
I will advocate among Lithuanian government officials, political 
parties, and civil society groups for access and inclusivity for women, 
youth, and members of minority communities, including by advancing and 
implementing the objectives articulated in the June 2019 U.S. Strategy 
on Women, Peace, and Security.

    Question. Will you and your embassy team actively engage with 
Lithuania on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Lithuania?

    Answer. Yes. If confirmed, I will engage with Lithuanian government 
officials, media groups, and civil society to enhance the capabilities 
of independent media and ensure continued respect for freedom of 
expression, including for the press. I will also continue U.S. Embassy 
Vilnius' established practice of meeting with independent Lithuanian 
press groups and bodies.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. The United States and Lithuania work closely together 
to identify, recognize, and expose Russian disinformation in Lithuania 
and other parts of the world. The Lithuanian Ministries of Foreign 
Affairs and National Defense operate strategic communication (stratcom) 
teams, which monitor disinformation, spot trends, and coordinate inter-
ministerial responses to propaganda. U.S. Embassy Vilnius meets 
regularly with members of both stratcom teams. Lithuanian civil society 
also counters disinformation via the homegrown watchdog initiative 
debunk.eu, a Google-based web-scraping platform that partners with 
volunteers and journalists to debunk trending and dangerous 
disinformation. In addition, the United States and Lithuania partner to 
strengthen independent media, promote media literacy, and reach out to 
the small Russian and Polish minority communities to overcome societal 
tensions and feelings of marginalization. If confirmed, I will continue 
to support cooperation with and assistance to Lithuania to combat 
Russian disinformation. It is among our most knowledgeable and capable 
allies in countering such malign influence.

    Question. Will you and your embassy teams actively engage with 
Lithuania on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. Freedom of association and the right to collective 
bargaining are key elements of labor rights. If confirmed, I will 
actively engage with the Lithuanian government on protecting these 
rights for labor groups, including independent trade unions.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Lithuania, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Lithuania? What specifically will you commit to do to help LGBTQ 
people in Lithuania?

    Answer. According to the U.S. Department of State's 2018 Human 
Rights Report, societal attitudes in Lithuania toward lesbian, gay, 
bisexual, transgender, and intersex persons (LGBTI) remain largely 
negative. Stigma, discrimination, and violence remain significant 
issues for the LGBTI community. U.S. Embassy Vilnius is active in 
promoting a tolerant Lithuania, free from institutional homophobia and 
transphobia, and safe for the LGBTI community. For example, the Embassy 
provided a grant to bring a U.S. expert on homophobic bullying to 
Lithuania to discuss with students, civil society, parliamentarians, 
and media outlets, best practices for creating inclusive school 
environments. If confirmed, I will continue the efforts of the Embassy 
to defend the human rights and dignity of all people in Lithuania, no 
matter their sexual orientation or gender identity.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs in accordance with long standing Department and Executive 
Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including required reporting to the Office of the 
Inspector General.

Administrative
    Question. In the wake of President Trump's comments welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the State Department have explicit 
guidance for all of its personnel on how to deal with this scenario. 
Guidance on handling interactions that prompt concern about 
exploitation by a foreign entity, such as FAM Chapter 12, Section 262, 
does not clearly address this situation. If a foreign person or 
government approaches you or a staffer at the embassy with derogatory 
information on a U.S. political figure, what is your understanding of 
official State Department policy on how to handle this specific 
situation? Has a cable with clear guidance on how to handle this 
specific situation been sent to all U.S. embassies?

    Answer. If confirmed, I will follow the Department of State's 
guidance with regard to reporting derogatory information.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No. I take the issues of sexual harassment, discrimination, 
and inappropriate conduct with the utmost seriousness and throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies. To my knowledge, I 
have never been named as a responsible management official in a formal 
or informal complaint of harassment or discrimination.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take the issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness and throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies, including 
encouraging any employee who feels they have been harassed or 
discriminated against to report such behavior to any supervisor under 
my management or the Department's Office of Civil Rights.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration is wholly 
inappropriate. I take allegations of such practices seriously and will 
ensure they are referred to the appropriate channels, including the 
Department's Inspector General. If confirmed, I will maintain a policy 
of no tolerance for retaliation, blacklisting, or other prohibited 
personnel practices at U.S. Embassy Vilnius. I will hold U.S. Embassy 
Vilnius employees accountable to the highest standards in accordance 
with applicable law, rules, and regulations on anti-discrimination and 
prohibited personnel practices, including the Notification and Federal 
Employee Antidiscrimination and Retaliation Act of 2002, as amended.

                               __________


       Responses to Additional Questions for the Record Submitted
          to Robert S. Gilchrist by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have made the promotion of human rights a core component 
of my work throughout my career. During my second assignment as the 
human rights officer at Embassy Caracas (1993-95), I helped secure 
outside funding to keep a key human rights organization from closing. 
That organization remains an important independent voice in Venezuela 
today. While a political counselor in Bucharest (2003-6), I expanded 
the Embassy's outreach to numerous Roma and other civil society groups. 
I also obtained funding to provide training in the United States for a 
number of human rights leaders, many of whom remain important figures 
in Romania and have successfully pressed for government reform. While 
Deputy Chief of Mission in Tallinn (2010-13), I arranged for a visit to 
Estonia of anti-hate crime activists Judy and Dennis Shepard, who met 
with the Estonian president and appeared in numerous public fora, which 
gave unprecedented visibility to the grave problems of hate and 
intolerance, particularly against LGBT youth. These are but a few 
examples of my efforts to protect and promote human rights. If 
confirmed, I will ensure that the promotion of human rights and respect 
for individual human dignity remain central in the work of the United 
States Embassy in Lithuania.

    Question. What are the most pressing human rights issues in 
Lithuania? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Lithuania? What do 
you hope to accomplish through these actions?

    Answer. Recent achievements by the Lithuanian government in 
promoting human rights include passage of legislation to 
deinstitutionalize childcare for orphans, banning violence against 
children, supporting the LGBTI community, and fighting human 
trafficking.
    Nonetheless, work needs to be done to address the prevalence of the 
sexual abuse of children, to create an environment that encourages 
women to report domestic violence to the authorities, and to increase 
tolerance toward members of minority groups. Intolerance includes anti-
Semitism as well as continued prejudice against LGBTI persons and 
members of ethnic minority communities. Lithuania's Roma community 
continues to face social exclusion and bias and refugees from the 
Middle East encounter discrimination when searching for employment and 
housing. In the justice system, conditions are substandard in a number 
of prison and detention facilities, and lengthy pretrial detention is a 
problem.
    If confirmed, I will press the government of Lithuania to implement 
existing legislation and work to foster dialogue between the government 
and civil society to implement those reforms. I will also work to 
connect Lithuanian civil society with U.S. experts and practitioners to 
share best practices and experience.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Lithuania in 
advancing human rights, civil society and democracy in general?

    Answer. The primary obstacles to addressing human rights issues in 
Lithuania are insufficient government coordination and financial 
assistance for NGOs. There is frequently a lack of coordination between 
the national government and the municipalities, the chief executors of 
key reforms. Civil society leaders say they need more government 
support, and decry the weak spirit of volunteerism and philanthropy in 
Lithuanian society. As such, civil society organizations depend on a 
shrinking pool of assistance from foreign governments and international 
organizations.
    If confirmed, I will continue the work of U.S. Embassy Vilnius in 
pressing the Lithuanian government to address these challenges, as the 
mission successfully pressured the government to improve government 
coordination in the fight against human trafficking.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Lithuania? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations across the United States and in 
Lithuania on a wide array of human rights. I will also ensure vetting 
procedures for U.S. assistance to Lithuanian security forces are 
implemented consistent with U.S. law and Department policy.

    Question. Will you and your embassy team actively engage with 
Lithuania to address cases of key political prisoners or persons 
otherwise unjustly targeted by Lithuania?

    Answer. Lithuania is a strong partner sharing our values and 
principles on human rights. There are no reported cases of political 
prisoners or people unjustly targeted by Lithuania. If such reports 
become known in the future, I will engage Lithuanian government 
officials, regulatory bodies, parliamentarians, and nongovernmental and 
civil society organizations to address them.

    Question. Will you engage with Lithuania on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage Lithuanian officials on 
promoting democracy, respect for rule of law, human rights, the 
important role of civil society, and good governance practices, 
measures, and programs.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I fully support a diverse workforce. Diversity advances and 
illustrates American values and improves work environments by 
facilitating new perspectives and visions. Increasing diversity fosters 
an inclusive workplace and promotes the exchange of new ideas and 
innovative thinking. I strongly support the Department's goal of 
fostering a workplace that reflects the rich diversity of the United 
States. If confirmed, I will promote a workplace that encourages 
tolerance, respect, collaboration, and inclusion.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Diversity and inclusion must be a focus area for Embassy 
planning and leadership. If confirmed, I will foster a positive work 
environment by instituting diversity and inclusion as priority 
objectives in Embassy strategy and planning documents. I will also 
promote diversity and inclusion as focal points in my first meetings 
with Embassy leadership. If confirmed, I will underscore that our 
policies and outcomes are improved by drawing on inclusive, diverse 
teams with a breadth of experiences and perspectives. I will also 
communicate strongly the Department's EEO policies in my mission and 
ensure they are followed.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate and applicable channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to complying with all relevant 
federal ethics laws, regulations, and rules, and to raise any concerns 
that I may have through appropriate and applicable channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Lithuania?

    Answer. My investment portfolio includes mutual funds, which may 
hold interests in companies with a presence in Lithuania, but which are 
exempt from the conflict of interest laws. I am committed to ensuring 
that my official actions will not give rise to a conflict of interest. 
I will divest my interests in any investments the State Department 
Ethics Office deems necessary to avoid a conflict of interest, and will 
remain vigilant with regard to my ethics obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Lithuania 
specifically?

    Answer. Around the world, corruption saps economic growth, hinders 
development, destabilizes governments, undermines democracy, and 
provides openings for dangerous transnational criminal organizations 
and malign actors. In addition, weak rule of law and a corrupt judicial 
system constrain U.S. interests in promoting economic development, 
democratic consolidation, and stability in our allies. In Lithuania, 
political corruption is not endemic. The government has passed and 
adheres to laws aimed at controlling corruption. However, when 
corruption does occur, it weakens public confidence in judicial 
institutions and democracy, impedes access to justice, and limits the 
willingness of foreign investors to invest in the country.

    Question. What is your assessment of corruption trends in Lithuania 
and efforts to address and reduce it by that government?

    Answer. Lithuania is a vibrant democracy with resilient 
institutions, established respect for rule of law, and a free press. 
Lithuanian law provides effective mechanisms to investigate and punish 
corruption, including criminal penalties for corruption by government 
officials, and the government generally implements the law effectively. 
In 2017, Lithuania passed several new laws aimed at combatting 
corruption, among them laws to apply criminal liability to officials in 
the judicial system and to protect whistleblowers. That same year the 
Special Investigative Service, Lithuania's main anticorruption agency, 
conducted 171 pretrial investigations. As of September 2019, 155 
pretrial investigations were in progress. Of note among those 
investigations is a case of 48 persons, including eight judges and six 
attorneys, who were being investigated for judicial corruption, 
involving 110 criminal acts. According to the pretrial investigation, 
the judges received a total of 400,000 euros ($440,000) in bribes in 
exchange for favorable rulings. In September 2019, parliament passed 
resolutions to dismiss four of the eight judges under investigation in 
this case.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Lithuania?

    Answer. If confirmed, I will engage with Lithuanian officials on 
promoting democracy, good governance, and anticorruption reforms, 
measures, and programs. Through relevant U.S. programs and engagement, 
I will also deepen and expand our cooperation with Lithuania on ways to 
promote transparency and respect for rule of law. In addition, I will 
leverage available U.S. assistance programs to promote good governance, 
democracy, and human rights in Lithuania. Lithuania is currently a 
target beneficiary for regional Department of State assistance 
programming--implemented by the Department of Justice--to combat 
corruption and transnational organized crime in Europe.

                               __________


            Responses to Additional Questions for the Record
            Submitted to Yuri Kim by Senator Robert Menendez

    Question. Former U.S. Ambassador to Albania Donald Lu played a key 
role in jumpstarting judiciary reform in Albania. How does the State 
Department assess the current Albanian government's response to 
corruption? What role do you foresee for yourself in promoting 
continued judicial and other reforms?

    Answer. Albania's law enforcement institutions have delivered 
important results in the fight against organized crime and corruption. 
Albania is also proceeding apace on its reform track to overhaul the 
judiciary, but there is more to do. The first step of establishing 
independent judicial oversight bodies occurred in December 2018, and 
other steps are underway. U.S. foreign assistance to Albania 
facilitated the vetting of more than 140 judges and prosecutors. The 
United States is also supporting through diplomatic engagement and 
foreign assistance the establishment of an independent Special Anti-
Corruption Unit, consisting of the Special Prosecution Office and the 
National Bureau of Investigation, modeled on the FBI.
    If confirmed, I will continue U.S. efforts to encourage the 
Albanian government to keep making progress on strengthening the rule 
of law. U.S. assistance helps Albania strengthen its democratic 
institutions and deter threats, pushing forward reforms necessary to 
advance Albania on its chosen path of transatlantic integration. Our 
programs support Albanian efforts to combat transnational organized 
crime, strengthen judicial and law enforcement institutions, and 
bolster civil society organizations and an independent media, which 
promote government transparency and counter endemic corruption. If 
confirmed, I will continue to support necessary reforms and to make 
available needed technical assistance.

    Question. I am deeply concerned by China's growing presence in 
Albania and by the fact that the U.S. is reducing the number of 
personnel present there just as China ramps up its presence. Please 
describe the nature of China's growing presence in Albania and what 
advantages that presence gives China in influencing the Albanian 
government. How will the reduction of U.S. government personnel 
presence with USAID's strategic transition impact our ability to 
counteract this influence?

    Answer. China's role in the Albanian economy to date is relatively 
modest, though increasing in strategic sectors. With our encouragement, 
the Albanian government is taking steps to counter these risks. If 
confirmed, I will prioritize ensuring that U.S. foreign assistance is 
formulated, calibrated, and implemented in a manner that advances U.S. 
interests.
    Supported by one Senior Development Advisor and two Locally 
Employed Staff, USAID's $5.5 million legacy program, slated to launch 
in 2020, will continue work in the areas of transparency and 
accountability while regional programs will bolster economic growth. 
These are sectors where USAID believes it can contribute most while 
helping counter foreign malign influence. Other U.S. government 
programs will continue. State Department programs advancing justice 
sector reforms, strengthening border security, and preventing violent 
extremism--among others--will remain after USAID's transition.
    If confirmed, I will continue to press the government of Albania to 
protect its strategic infrastructure. I will also continue efforts to 
encourage Albania to consider whether proposed projects are 
economically viable and whether Albania's regulations will be 
respected.

    Question. Who at the State Department was consulted before USAID 
made its decision to reduce its presence in Albania? What feedback did 
State, and in particular the EUR bureau, provide before the decision 
was made, and how did USAID account for that feedback in its final 
decision? How did State assess the drawdown would impact the U.S.'s 
strategic interests in the Balkans? In your response, please do not 
refer us to USAID.

    Answer. The State Department was notified when USAID began planning 
a strategic transition of its presence in Albania. State F, the 
Assistance Coordinator's Office, the Albania desk, and Embassy Tirana 
provided feedback on transition options, taking into account our policy 
priorities and programmatic impact. Per its transition plan, USAID 
would continue to implement programs in three areas: 1) justice sector 
reform, 2) preventing violent extremism, and 3) local governance 
through early 2021. In 2020, USAID would begin a new program to promote 
job creation, counter corruption, and improve service delivery.
    U.S. foreign assistance to Albania would not end with USAID's 
transition. Albania is an important ally, and our priority remains 
assisting Albania on its chosen EU path. The State Department will 
continue to support Albania's Euro-Atlantic integration through 
programming focused on strengthening the justice sector, promoting 
freedom of expression, combatting organized crime and violent 
extremism, and strengthening border security.
    If confirmed as the next U.S. Ambassador to Albania, I commit to 
working with Congress to assess how foreign assistance and other tools 
can be used to support the desires of the Albanian people, as well as 
to advance U.S. national security interests.

    Question. I remain concerned by how the EU's failure to open 
accession talks with Albania and North Macedonia will impact the two 
countries' trajectory towards the West. Russia is already seeking to 
take advantage of the non-decision by inviting the two countries to 
join the Eurasian Economic Union. What steps should the U.S. take to 
diplomatically encourage the EU to open accession talks with the two 
countries, as its own European Commission has recommended? How should 
the U.S. work constructively with Western Balkan countries to encourage 
their reform and democratization processes in light of this 
disappointment?

    Answer. The United States strongly supports Albania's goal of Euro-
Atlantic integration and aspirations to join the European Union. The 
European Council did not say ``no'' to Albania, nor did EU member 
states establish new conditions for the opening of accession 
negotiations, and we underscore these points in our advocacy for 
Albania's reform efforts.
    The State Department demarched all 28 EU member states in support 
of North Macedonia and Albania's EU accession three times from March to 
October. U.S. Ambassadors to France and Germany, Deputy Assistant 
Secretary Palmer, and other senior State Department officials--
including Secretary Pompeo, Deputy Secretary Sullivan, and Under 
Secretary Hale--spoke with senior foreign government officials to 
encourage member states to reach consensus decisions at the European 
Council in support of North Macedonia and Albania.
    If confirmed, I will continue to advocate strongly for Albania's EU 
accession. I will urge Albania to implement justice reforms, fight 
corruption, and bolster its democracy in order to persuade the EU it is 
committed to Euro-Atlantic integration. I will also continue to support 
the government of Albania as it pursues these reforms.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have sought to promote human rights and democracy 
throughout my career as a foreign service officer. In my first 
assignment, in China in the late 1990s, I was responsible for covering 
North Korea. My reports drew attention to the growing number of North 
Koreans fleeing into China; described human rights violations occurring 
in North Korea; and informed U.S. action to promote human rights in 
North Korea and persuade Beijing to accommodate the migrants in a 
humane way. In Seoul, I worked with local politicians, community 
leaders, and the press to improve the ROK government's enforcement of 
laws regarding human trafficking, freedom of expression and assembly, 
and the rule of law. The ROK's improved performance was reflected in 
the annual Trafficking in Persons Report and the Human Rights Report, 
both of which I supervised. Most recently, in Turkey, I actively 
advocated for the defense of democratic institutions and practices, 
including as applied to American citizens and organizations. I am 
particularly proud to have played a role in bringing about the release 
of several unjustly detained American citizens and Turkish employees of 
the U.S. diplomatic mission in Turkey. If confirmed, I would likewise 
promote human rights and democracy in Albania.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Albania? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Corruption is endemic at all levels in Albania. However, 
Albania and the United States share common values, including the 
importance of protecting and promoting democracy and democratic 
development. Albania must take additional concrete steps to fight 
corruption and reform its judiciary. The State Department's 2018 Human 
Rights Report noted concerns about pervasive corruption, impunity for 
the powerful and well-connected, and threats, violence, and 
intimidation of journalists, which leads to self-censorship. Protecting 
and promoting human rights and fundamental freedoms, including freedom 
of the press, is a core element of our foreign policy. Additionally, a 
political standoff and polarization stemming from opposition party 
boycotts led to municipal elections this year in which the people of 
Albania did not have a meaningful choice.
    If confirmed, I will do everything in my power to uphold our shared 
values. I will particularly focus on implementing electoral reform and 
fighting corruption, impunity, and intimidation of journalists to 
support the Albanian people to craft a robust democracy whose elected 
leaders act transparently, in accordance with the will of Albanian 
voters, and in the interests of all Albanians. By promoting 
transparency, equality, and democracy, Albania will contribute to a 
more secure, just, and prosperous region.

    Question. What steps will you take--if confirmed--to support 
democracy in Albania? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. I recognize that Albania's Euro-Atlantic integration, 
including future accession to the European Union, can only come with a 
strong commitment to democratic principles, including respect for rule-
of-law and human rights. However, in Albania, pervasive corruption 
persists and the impunity bred by this corruption hampers democratic 
development, spurs emigration, and impedes access to justice. Every 
person has the right to a fair hearing in court and every entity has 
the right to a fair ruling by an independent, impartial judiciary, 
based on the rule of law, not on a payoff or extortion. If confirmed, I 
will continue to advance our key U.S. foreign policy interests in 
Albania, including the full and timely implementation of judicial 
reform and other rule-of-law reforms.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. U.S. government assistance helps Albania deter threats and 
strengthen its democratic institutions, pushing forward reforms that 
are necessary to advance Albania on its chosen path of transatlantic 
integration and its journey to self-reliance--defined as its ability to 
finance and implement solutions to its own development challenges. U.S. 
assistance programs support Albanian efforts to combat transnational 
organized crime, strengthen judicial institutions, and bolster civil 
society organizations and an independent media, which can work to 
promote government transparency and counter endemic corruption. If 
confirmed, I will use our assistance tools to prioritize projects that 
serve U.S. national interests and help ensure a stronger democratic 
partner in Albania.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Albania? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Human rights groups, civil society, and non-governmental 
organizations are all important players in the democratic process. In 
Albania, they are working to craft a robust democracy whose elected 
leaders act transparently, in accordance with the will of Albanian 
voters, and in the interests of all Albanians. If confirmed, I am 
committed to sustaining engagement with a broad spectrum of civil 
society groups.
    The State Department's 2018 Human Rights Report states that 
domestic and international human rights groups generally operated 
without government restriction and that government officials generally 
were cooperative and responsive to their views. In the event that the 
situation changes, I will, if confirmed, actively engage so that these 
groups are allowed to do their important work.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. A strong democracy requires a strong opposition. Albania's 
opposition parties, however, cannot play their crucial role in 
realizing Albania's EU aspirations while out of Parliament, protesting 
in the streets. We urge them to be constructive while seeking 
opportunities to re-engage in the democratic process. If confirmed, I 
will continue to support positive engagement by all sides to develop 
solutions for the benefit of all Albanians. Albania needs to overcome 
the zero-sum thinking that so often typifies this region, alienates 
Albanian voters, and damages democratic processes.
    A strong democracy also benefits from the inclusion of a wide array 
of views. If confirmed, I will continue the United States' regular 
engagement with a broad spectrum of civil society actors in Albania, 
including human rights activists advocating on behalf of historically 
marginalized groups and young Albanians, and the organizations that 
represent them.

    Question. Will you and your embassy team actively engage with 
Albania on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Albania?

    Answer. The U.S. Embassy in Tirana is actively engaged at many 
levels to maintain Albania's constitutional freedom of expression, 
including for the press. The embassy team is committed to the 
development of Albania's NGO sector and its independent media as a 
watchdog against possible abuses of power. If confirmed, I will 
continue these efforts, including our regular engagement with members 
of the press.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. I understand that the United States--through our Embassy in 
Albania--is already actively engaged at many levels to develop a more 
discerning public towards its media environment and to encourage a free 
and active exchange of ideas. If confirmed, I will continue this 
engagement.

    Question. Will you and your embassy teams actively engage with 
Albania on the right of labor groups to organize, including for 
independent trade unions?

    Answer. According to the Albanian Constitution and Labor Code, 
Albanian workers have the right to form and organize independent 
unions, and they exercise this right in practice. While the law 
prohibits union discrimination, there have been informal reports of 
direct and indirect threats by some employers, particularly in the 
textile and footwear sectors, against employees because of their 
involvement with unions. If confirmed, I will urge the government of 
Albania to defend workers' rights to the fullest extent permitted under 
law.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Albania, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Albania? What specifically will you commit to do to help LGBTQ people 
in Albania?

    Answer. Protecting and promoting human rights and fundamental 
freedoms is a core element of our foreign policy. Societies are more 
secure when they respect individual human rights, democratic 
institutions, and the rule of law. Albania has one of the most sweeping 
anti-discrimination laws in all of Europe, protecting numerous groups, 
including the LGBTQ community. Yet, members of Albania's LGBTQ 
community face challenges to participating in public life, obtaining 
employment, and living free from serious threats to their well-being. 
If confirmed, I look forward to continuing U.S. efforts to advocate for 
equal protection and respect for all members of Albanian society. If 
confirmed, I will continue the United States' engagement with civil 
society organizations, including those that represent the LGBTQ 
community in Albania, to protect the human rights and dignity of all 
Albanians.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes, I commit to respond promptly to all requests for 
information by Members of this committee, with the understanding that 
any such response would be organized through the Department of State's 
Bureau of Legislative Affairs and conducted in accordance with long-
standing Department and Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, with the understanding that any such appearance would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including as applicable to the Inspector General.

    Question. In the wake of President Trump's comments welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the State Department have explicit 
guidance for all of its personnel on how to deal with this scenario. 
Guidance on handling interactions that prompt concern about 
exploitation by a foreign entity, such as FAM Chapter 12, Section 262, 
does not clearly address this situation. If a foreign person or 
government approaches you or a staffer at the embassy with derogatory 
information on a U.S. political figure, what is your understanding of 
official State Department policy on how to handle this specific 
situation? Has a cable with clear guidance on how to handle this 
specific situation been sent to all U.S. embassies?

    Answer. If confirmed, I will follow the Department of State's 
guidance with regard to reporting derogatory information.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No, I have never had to address concerns or allegations of 
sexual harassment, discrimination, or inappropriate conduct made 
against an employee over whom I had supervisory authority. I take EEO 
and sexual harassment in the workplace seriously, and if confirmed, I 
will work to ensure that a message of zero tolerance for 
discrimination, harassment, and misconduct is affirmed from the 
beginning of my assignment.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I agree that any targeting of or retaliation against career 
employees based on their perceived political beliefs, prior work on 
policy, or affiliation with a previous administration, is wholly 
inappropriate. I take allegations of such practices seriously and will 
ensure they are referred to the Department's Inspector General. If 
confirmed, I will maintain a policy of zero tolerance in U.S. Embassy 
Tirana for any retaliation, blacklisting, or other prohibited personnel 
practices. I will hold U.S. Embassy Tirana employees accountable to the 
highest standards in accordance with anti-discrimination, merit 
principle, and whistleblower protection statutes, laws, and 
regulations, including the Notification and Federal Employee 
Antidiscrimination and Retaliation Act of 2002. I will also ensure 
employees comply with their NO FEAR Act training requirements.

                               __________

                               NOMINATION

                      WEDNESDAY, OCTOBER 30, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Barrasso, Portman, Young, Cruz, Menendez, Cardin, 
Shaheen, Coons, Murphy, Kaine, Markey, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Thank you all for attending today.
    Today we are going to hold the nomination hearing on a very 
important position. Our nominee today is the Honorable John J. 
Sullivan, to be the U.S. Ambassador to the Russian Federation.
    First, we have two distinguished, very distinguished I 
might add, colleagues of ours who wish to introduce our 
nominee. So we are going to allow them to proceed with 
introductions. Therefore, I am going to postpone my opening 
statement. I asked the ranking member do likewise until the 
nominees have been introduced. And with that, we are glad to be 
joined today by Senators Dan Sullivan of Alaska and Ben Cardin 
of Maryland. And I understand that Senator Sullivan has drawn 
the straw to go first.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. Thank you very 
much, and Ranking Member Menendez and all the members of the 
committee. It is an honor to be before the Senate Foreign 
Relations Committee again on behalf of my friend, John 
Sullivan, to support his nomination to be the United States 
Ambassador to the Russian Federation.
    Despite what his last name would suggest, we are not 
related, although I occasionally joke with Senator Markey, who 
is also a proud Sullivan member in his heritage, that somewhere 
back in history we are probably all related.
    I have publicly supported Secretary Sullivan's nomination 
once before and can speak to his long distinguished career, all 
of which you are familiar. And I would begin by stating that 
John's experience and qualifications have already been endorsed 
by this committee
    and by the United States Senate previously, confirmed as 
Deputy Secretary in May 2017 by a vote of 94 to 6 and confirmed 
in the Bush administration in March 2008 unanimously to be 
Deputy Secretary of Commerce and in July 2005 unanimously by 
the Senate to be General Counsel of the Department of Commerce 
by a voice vote.
    I first met John when we were serving together in the 
George W. Bush administration. I was working as an Assistant 
Secretary of State under Secretary of State Condoleezza Rice, 
and John was the Deputy Secretary of Commerce.
    And most notably since 2017, John has successfully served 
as the United States Deputy Secretary of State with integrity. 
He has done an extremely impressive job in this critical role, 
widely respected not just across federal national security 
agencies in our own government, but internationally and most 
importantly by the employees of the Department of State, which 
he has helped to lead. He has worked with them, led them, stood 
by them, and for them as his tenure as Deputy Secretary.
    Now, I do not often take to quoting the national media, but 
you may have noticed that there is a wide cross section of 
journalists and media in our country that have noted John's 
qualifications and reaffirmed the positive impact he has 
already had on the State Department.
    An article from ``Politico'' recently stated, ``John 
Sullivan, the Deputy Secretary, is winning over State 
Department employees. So far, Sullivan has shown a fluency with 
diplomacy that has delighted his colleagues in the State 
Department.''
    The Washington Examiner, ``Sullivan is smart, calm, 
experienced, three crucial ingredients in leading the U.S. 
mission to Russia.''
    And in a Wall Street Journal op-ed by Ambassador Thomas 
Pickering, one of our nation's most distinguished career 
diplomats, he said of Secretary Sullivan, ``I have come to 
respect John Sullivan's judgment, his balance, his good sense, 
his open-minded approach to how to deal with the difficult 
foreign relations problems our country has.''
    Mr. Chairman, you may have also seen this very long letter 
of distinguished national security executives and former 
diplomats and military officials and Secretaries of Defense and 
other positions who are all endorsing Secretary Sullivan's 
ambassadorship to Russia.
    As it relates to the responsibilities with regard to the 
new position for which he has been nominated, Deputy Secretary 
Sullivan currently leads the only two ongoing U.S.-Russia 
dialogues on counterterrorism and strategic security. He has 
also played a key role in numerous bilateral issues relating to 
the U.S.-Russia relationship over the past 2 years.
    At a time when U.S.-Russia relations are more complex and 
strained and difficult than ever, it is important to have 
someone like John as America's top diplomat.
    Mr. Chairman, a few months ago, I had the honor of 
introducing another outstanding American before this committee, 
General John Abizaid to be Ambassador to Saudi Arabia. At the 
time I said that while there were many disagreements in this 
body about our policy towards Saudi Arabia, there should be 
consensus that we need a well respected U.S. Ambassador there.
    The same holds true with Russia today. John Sullivan is a 
man of integrity and he understands what it means to honorably 
serve our nation and has a career of doing so. I urge this 
committee to support his nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    Since you mentioned the letter that was addressed to myself 
and Senator Menendez from a distinguished group of people from 
various aspects of public service, I am going to admit that 
into the record now.


    [The information referred to is located in the ``Additional 
Material Submitted for the Record'' section of this hearing 
transcript.]


    The Chairman. Senator Cardin?

             STATEMENT OF HON. BENJAMIN L CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Chairman Risch and Ranking 
Member Menendez.
    I am pleased to join Senator Sullivan in introducing 
Secretary Sullivan to this committee.
    Secretary Sullivan is a Marylander who has a Boston accent. 
He has served our nation--he sounds more like Senator Markey 
than he does me. But that is fine. He has served our nation 
well in public service as Deputy Secretary of State since May 
of 2017 and Acting Secretary of State in April 2018 and senior 
positions in the Department of Justice, the Defense Department, 
Commerce, 2 decades as a private attorney. He is well qualified 
for this position.
    John Sullivan to me is a straight shooter. He is an 
experienced public servant. My experience with him is that he 
has communicated with me effectively and honestly. He reached 
out to inform me when I was the ranking Democrat on this 
committee, and he has respected my role as a United States 
Senator and as a member of this committee.
    Most recently in our conversations, he told me he was 
looking for a challenge when he agreed to take this position. 
Well, you certainly will have a challenge, if confirmed as 
Ambassador to Russia. This is a challenging position.
    Russia has been our adversary. Make no mistake about it. 
They interfered in the 2016 elections and that was not isolated 
to the United States. A report that I authored on behalf of 
this committee in 2018 pointed out Mr. Putin's asymmetric 
arsenal in his attack against democratic institutions and 
democratic countries in Europe and now in the United States. He 
invaded and occupied and still occupies Ukraine in violation of 
every principle of the Helsinki Final Accords. Mr. Putin also 
is occupying Russia in Georgia and Moldova. He has interfered 
in Syria. He has violated the human rights of his own citizens, 
leading to the enactment of the Magnitsky law not only here in 
the United States but in countries around the world. The list 
goes on and on and on.
    So, Mr. Chairman, we need a confirmed Ambassador who will 
support our democratic principles and give hope to the voices 
in Russia that stand up to the repressive regime of Mr. Putin.
    Let me conclude by just quoting from Secretary Sullivan on 
his nomination hearing that Senator Sullivan referred to on May 
9th, 2017 when the nominee told us, ``Our greatest asset is our 
commitment to the fundamental values expressed at the founding 
of our nation, the right to life, liberty, and the pursuit of 
happiness. These basic human rights are the bedrock of our 
republic and at the heart of American leadership in the 
world.'' I could not agree more with those statements.
    I thank John Sullivan and his family for being willing to 
step forward to take on this challenge.
    The Chairman. Thank you, Senator Cardin. Thanks to both of 
you. And, Senator Sullivan, I know you have got a commitment. 
Senator Cardin----
    Senator Cardin. I have a commitment also.
    [Laughter.]
    The Chairman. You do, you do. We are glad to have you.
    Well, again, I want to thank all of you for coming. John, 
welcome.
    We are going to contemplate the nomination today of the 
Honorable John Sullivan to be United States Ambassador to the 
Russian Federation. We welcome you back to the committee and 
thank you for your willingness to continue serving in what is a 
challenging but very important role. Having been here before, I 
have no doubt that this will be a brief hearing and my 
colleagues will be kind and generous with you as we go through 
this.
    As Senators Cardin and Sullivan have already given Deputy 
Secretary Sullivan an introduction, I will simply take a few 
moments to talk about the importance of this position.
    Most would agree that the U.S. relationship with Russia is 
at a low point. Successive U.S. Presidents of both political 
parties have attempted to reset the relationship only to find 
that the other side is an unwilling partner. This is caused in 
no little part by our very different value sets and our very 
different views on helping mankind.
    Bilaterally, the past few years have been marked by 
Russia's interference in the American electoral process and, as 
already been noted, by their interference in other electoral 
processes around the globe, by the expulsion of each other's 
diplomats and by a compete lack of trust due to Russia's 
worldwide bad conduct.
    Internationally, rather than acting like the global power 
that it proclaims to be, Russia has chosen to wreak havoc. We 
are all familiar with the long, long list of Russia's malign 
global activity. It has shredded international agreements like 
the Conventional Forces in Europe Treaty and seized sovereign 
territory from both Georgia and Ukraine that it continues to 
occupy today in violation of all international norms and, 
indeed, United Nations condemnation.
    It has poisoned its enemies with chemical weapons on 
foreign soil and violated the INF Treaty so blatantly that all 
NATO allies reached a unanimous conclusion on those violations.
    Russia's support has kept brutal dictators in power in 
Syria and Venezuela long after they should have and would have 
fallen, and the government continues to meddle in the elections 
of other democratic states such as the Brexit referendum. It 
has even gone so far as to attempt a coup in Montenegro in 
2016.
    Thankfully, other than those of the international community 
who engage in similar conduct, most countries recognize 
Russia's malign global influence and have taken action. The EU 
and U.S. have sanctioned corrupt Russian oligarchs under the 
Magnitsky Act, its defense industry under CAATSA, and its 
energy industry via executive order, all of which strain 
Russia's ability to raise government revenue and to act 
maliciously.
    I hope the House and Senate will soon act to pass the bill 
sponsored by Senators Cruz and Shaheen that will sanction those 
involved in laying the NordStream 2 pipeline. Most of us have 
worked and continue to work to get that done.
    Despite our many issues with the Kremlin, there are also 
times of cooperation with the Russians like in the area of 
counterterrorism. And it is important we make clear to the 
Russian people that we do value our relationship with them. We 
should make sure that educational and cultural exchanges still 
take place and that we support civil society in their country 
in any way we can, notwithstanding the malign acts of their 
leaders. Russia is a proud and important country on the 
international stage, and the U.S.- Russia relationship will 
exist long after Putin is gone.
    All of this leads me to the reason we are here today: to 
evaluate the nomination of Deputy Secretary Sullivan to be the 
top U.S. representative to a country that we have such a 
contentious relationship with. It is an incredibly important 
role.
    Deputy Secretary Sullivan is ready for this role. He has 
served the U.S. government at the Department of Commerce, 
Defense, Justice, and now at State. I am confident that the 
past 2 years serving as our Deputy Secretary of State has given 
him a clear view of the multitude of problems we have with 
Russia, the U.S. government's efforts to resolve them, and the 
experience to navigate both our system and Russia's system.
    I am honored and pleased to hear the compliments that you 
have received from both sides of the aisle, even from the 
national media.
    Thank you for being here today. Thank you to your family 
for sharing the sacrifice it is going to take to do this.
    And with that, I will turn it over to Ranking Member 
Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    Mr. Secretary, congratulations on your nomination.
    You understand the role of Congress as a co-equal branch of 
government and you have differentiated yourself from those in 
the administration who have sought to break every norm in the 
conduct of foreign policy. And that is why we expect continued 
candidness from you here today.
    Unfortunately, one person, no matter how skilled and 
dedicated, cannot counteract the disarray that is the Trump 
administration's foreign policy.
    I have served 27 years between the House and the Senate and 
worked on foreign policy that entire time. Never before have I 
seen such chaos and U.S. policy incoherence from Syria, to 
Turkey, to Iran, to Ukraine, and to Russia.
    Our State Department is on the front lines of our national 
defense. They are patriots charged with achieving our goals 
through diplomacy not conflict. Never in my 27 years have I 
seen the Department so mismanaged and so many of our diplomats 
maligned. You do not have to take my word for it. Just look to 
the testimony of two patriots, Ambassador Yovanovitch and 
Ambassador Taylor. The denigration of these two dedicated 
public servants is a disgrace. The State Department is in 
disarray, a casualty of President Trump's decision to use U.S. 
national security as a political weapon.
    And never in my 27 years have I seen a Department or an 
administration so willing to stick its thumb directly in the 
eye of Congress, a co-equal branch of government. I do not 
think we have to cite the Constitution here today, but I am 
certainly prepared to do so. Over the years, there has been 
friction and disagreements between the legislative and 
executive branches. Those are normal. But we have entered new 
territory, dangerous territory for our republic. And I am not 
just talking about the House's current inquiry. I am talking 
about asking 20 times to get a basic piece of information, the 
extreme lengths we have had to go through to get a single 
document, the Department refusing to even discuss certain 
matters.
    This is not just playing hardball. It is undermining our 
democratic system of government. And unfortunately, Mr. 
Secretary, this has taken place under your watch and under the 
direction of Secretary Pompeo. The Secretary has a lot to 
answer for. But I believe so do you. We will talk about all of 
those issues that have been so central to the administration of 
the State Department over the past 2 and a half years.
    We are also here to talk about your vision for the 
bilateral relationship with the Russian Federation. I for one 
do not believe that Russia should be playing the role it is in 
Syria. I do not believe that those who do business with the 
Russian military like Turkey should be given a free pass under 
CAATSA. I do not believe that Russia belongs in the G7, at 
least not until they change the course of events. And I do not 
believe that it is acceptable to delay security assistance for 
Ukraine, a move that directly benefits Russia.
    President Trump, however, is on the record as believing all 
of those things. He believes every single one. Now, I think the 
President has lost any shred of legitimacy on Russia when he 
delayed security assistance for Ukraine. Ukrainians died 
because of this delay and died at the hands of Russian forces. 
And America was made less safe.
    So, Mr. Secretary, I want you to succeed in Moscow, if you 
are confirmed. I really do. But I need to hear directly from 
you as to what constitutes success. Is success fulfilling 
President Trump's pro-Kremlin vision for the U.S.-Russia 
bilateral relationship? Or will you actually advocate a policy 
that protects U.S. national security? It is a fundamentally 
important choice. If it is the former, I will have serious 
reservations about supporting your nomination. If it is the 
latter, then I am open to the conversation, and I look forward 
to hearing your thoughts on this fundamental choice.
    U.S. policy on Russia has been intrinsically wrapped up in 
our Ukraine policy, given that Russian forces continue their 
onslaught against Ukrainian troops and civilians in the Donbas, 
an onslaught I will again note that was made easier by the 
delay in providing security assistance. Your position at the 
State Department would have afforded you the responsibility of 
overseeing the conduct of policy. What did you know about the 
role played by Rudy Giuliani? Did Kurt Volker's unique 
volunteer status lead to conflicts of interests and a confusing 
policymaking process? Where was the State Department 
leadership, yourself included, when it came to defending 
Ambassador Yovanovitch and others?
    Now, I supported you for your present position, but before 
I vote on your nomination, we are going to need answers to 
these and other questions. So I cannot guarantee you the 
Chairman's suggestion that this will be a quick and simple and 
kind hearing. I do guarantee you it will be a fair and honest 
one. And I look forward to your answers to the questions that 
we will be posing.
    The Chairman. Thank you, Senator Menendez, for your views, 
as always.
    We will now turn to our nominee, Deputy Secretary Sullivan. 
As Senators Sullivan and Cardin mentioned, John Sullivan 
currently serves as the Deputy Secretary of State, a position 
he has held since 2017. Prior to serving as Deputy Secretary, 
he served in several senior positions at the Departments of 
Commerce, Justice, and Defense, as well as a partner in several 
law firms.
    Deputy Secretary Sullivan, thank you. Thank you to your 
family. The letter from the 40 former officials from previous 
administrations, Democrat and Republican, that have been 
entered into the record certainly speak to the high regard in 
which they hold you.
    So with that, we will turn it over to you. Your full 
statement will be included in the record. We would ask you to 
spend about 5 minutes talking to us about your views on these 
matters. Thank you, Secretary Sullivan.

  STATEMENT OF HON. JOHN JOSEPH SULLIVAN, OF MARYLAND, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE RUSSIAN FEDERATION

    Mr. Sullivan. Thank you, Chairman Risch, Ranking Member 
Menendez, members of the committee. It is an honor to appear 
before you today as the President's nominee to be the United 
States Ambassador to the Russian Federation.
    I want to thank the President for his confidence in me and 
for the opportunity, with the Senate's consent, to represent 
our nation in Moscow. I also want to thank Secretary Mike 
Pompeo for his leadership of the Department of State and his 
support of my nomination. Finally, I am indebted to our most 
recent Ambassador to Russia, my friend, Jon Huntsman, for his 
leadership of our mission there and his advice as I seek to 
succeed him.
    I come before the committee, as you noted, Mr. Chairman, 
after serving for 2 and a half years as the Deputy Secretary of 
State and for 6 weeks of that tenure as the Acting Secretary. 
My service at the Department, working with the men and women of 
the Foreign and Civil Service in Washington and around the 
world, has been the most rewarding professional experience of 
my life.
    But my service would not have been possible without the 
love and support of my family, who join me here today: my wife, 
Grace Rodriguez; and our children, Jack, Katie, and Teddy; my 
mother-in-law, Graciela Rodriguez; and my sister- in-law, Susan 
Rodriguez; her husband Tony; and their children, Evan and 
Cameron. I am eternally grateful to them for their support.
    If confirmed as the U.S. Ambassador to Russia, I will bring 
to my position not only my experience as the Deputy Secretary 
of State, but also my prior experience, as you noted, Mr. 
Chairman, in a variety of other government positions over the 
last 35 years. I believe my background and experience earned in 
four cabinet departments across three presidential 
administrations has prepared me to assume the profound 
responsibilities of serving as our Chief of Mission in Moscow.
    And experience teaches that this diplomatic mission will 
not be easy or simple. Our relationship with Russia has reached 
a post-Cold War ebb. The litany of Russia's malign actions that 
have severely strained our relationship is painfully familiar 
to this committee: attempting to interfere in our and our 
allies' elections, violating the territory integrity and 
sovereignty of Ukraine and Georgia, employing a weapon of mass 
destruction in an attempt to assassinate its citizens abroad, 
violating the INF Treaty, and infringing on the basic human 
rights of its people, among other things.
    Yet, the need for principled engagement with Russia is as 
important to our national interest as ever. Russia's status as 
a nuclear super-power and permanent member of the U.N. Security 
Council compels us to engage on a range of issues involving 
global stability and security. This requires sustained 
diplomacy with the Russian government in areas of shared 
interest, for example, in arms control, nonproliferation, 
counterterrorism, and resolute opposition to Russia where it 
undermines the interests and values of the United States and 
our allies and partners, for example, by threatening stability 
in Europe and election security in the United States.
    As the Deputy Secretary of State, I have been directly 
involved in developing U.S. policy on Russia. I lead the U.S. 
participation in an ongoing counterterrorism dialogue with the 
Russians, and I led a senior U.S. delegation to Geneva in mid-
July to restart a U.S.-Russia strategic security dialogue. Last 
month, I participated in the decision to impose sanctions on 
Yevgeniy Prigozhin and others associated with the Internet 
Research Agency for their attempts to interfere with the U.S. 
2018 midterm elections.
    In considering these complex issues, I want to acknowledge 
this committee's leadership and insights on Russia. As I have 
mentioned in recent meetings with many of you, if confirmed, I 
would welcome the opportunity to consult and collaborate with 
members of this committee individually and collectively on our 
Russia policy.
    If confirmed, I will continue to support dialogues with the 
Russian government on counterterrorism and arms control, as 
well as on denuclearizing the Korean Peninsula, on finding a 
peaceful solution to the conflict in Afghanistan, on Syria, and 
many other issues. But I will be relentless in opposing Russian 
efforts to interfere in U.S. elections, to violate the 
sovereignty of Ukraine and Georgia, and to engage in the malign 
behavior that has reduced our relationship to such a low level 
of trust.
    I assure the committee that I will also be indefatigable in 
protecting the American citizens who live in and travel to 
Russia, including the U.S. business community, scholars, 
athletes, tourists, and all Americans who visit the Russian 
Federation. If confirmed, I intend to continue to press the 
Russian government for the release of Paul Whelan, who has been 
imprisoned without charges for almost a year now, and to demand 
that Michael Calvey's case be disposed of in a civil 
proceeding, not in a criminal court.
    If confirmed, I look forward to engaging with the Russian 
people to celebrate Russian culture, commemorate Russian 
history, listen to their perspectives on the issues that unite 
and divide us, and convey to them directly my American 
perspective on those issues as well. I will also continue to 
promote, in accordance with U.S. law, people-to- people 
exchanges to foster a better understanding among the Russian 
people of the United States. And as I have done during my 
travels as Deputy Secretary of State, I will meet with civil 
society, including religious leaders and human rights 
activists.
    Finally, there would be no greater honor for me, if 
confirmed as the U.S. Ambassador to Russia, than to serve with 
the dedicated women and men and their families who constitute 
our mission in Russia. I know from firsthand experience that it 
is not easy to be a U.S. diplomat in Moscow, Yekaterinburg, or 
Vladivostok. Yet, dedicated career officers from across the 
U.S. government are serving with distinction in the wake of 
massive staff cuts, uncertainty, and intense pressure from the 
host government. Their tenacity in the face of these challenges 
is inspiring. Indeed, it was the example of my colleagues in 
Mission Russia that inspired me to seek to leave Washington and 
join them on the front lines of American diplomacy. I humbly 
ask this committee for that opportunity.
    Mr. Chairman, Ranking Member Menendez, and members of the 
committee, thank you for the opportunity to appear before you 
today. I welcome your comments and questions.
    [The prepared statement of Mr. Sullivan follows:]


            Prepared Statement of Hon. John Joseph Sullivan

    Chairman Risch, Ranking Member Menendez, and members of the 
committee, it is an honor to appear before you as the President's 
nominee to be the United States Ambassador to the Russian Federation. I 
want to thank the President for his confidence in me and for the 
opportunity--with the Senate's consent--to represent our nation in 
Moscow. I also want to thank Secretary Mike Pompeo for his leadership 
of the Department of State and his support of my nomination. Finally, I 
am indebted to our most recent Ambassador to Russia, my friend Jon 
Huntsman, for his leadership of our mission there and his advice as I 
seek to succeed him.
    I come before the committee after serving for two and a half years 
as the Deputy Secretary of State, and for six weeks of that tenure as 
the Acting Secretary. My service at the Department--working with the 
men and women of the Foreign Service and Civil Service in Washington 
and around the world--has been the most rewarding professional 
experience of my life. But my service would not have been possible 
without the love and support of my family, who join me today: my wife 
Grace Rodriguez and our children Jack, Katie, and Teddy; my mother-in-
law Graciela Rodriguez; and my sister-in-law Susan Rodriguez, her 
husband Tony, and their children Evan and Cameron. I am eternally 
grateful to them.
    If confirmed as the U.S. Ambassador to Russia, I will bring to the 
position not only my experience as the Deputy Secretary of State, but 
also my prior experience in a variety of government positions over the 
last thirty-five years: from my early service as a law clerk for Judge 
John Minor Wisdom and Justice David Souter, to my service at the senior 
levels of the Justice and Defense Departments, and, finally, to my most 
recent prior position as the Deputy Secretary of Commerce. I believe my 
background and experience--earned in four cabinet departments across 
three presidential administrations--has prepared me to assume the 
profound responsibilities of serving as our Chief of Mission in Moscow.
    And experience teaches that this sensitive diplomatic mission will 
not be easy or simple. Our relationship with Russia has reached a post-
Cold War ebb. The litany of Russia's malign actions that have severely 
strained our relationship is painfully familiar to this committee: 
attempting to interfere in our and our allies' elections, violating the 
territorial integrity and sovereignty of Ukraine and Georgia, employing 
a weapon of mass destruction in an attempt to assassinate its citizens 
abroad, violating the INF Treaty, and infringing on the basic human 
rights of its people, among other things.
    Yet the need for principled engagement with Russia is as important 
to our national interest as ever. Russia's status as a nuclear 
superpower and permanent member of the U.N. Security Council compels us 
to engage on a range of issues involving global stability and security. 
This requires sustained diplomacy with the Russian government in areas 
of shared interests, for example in arms control, nonproliferation, and 
counterterrorism, and resolute opposition to Russia where it undermines 
the interests and values of the United States and our allies and 
partners, for example by threatening stability in Europe and election 
security in the United States.
    As the Deputy Secretary of State, I have been directly involved in 
developing U.S. policy on Russia. I lead the U.S. participation in an 
ongoing counterterrorism dialogue with Russia, and I led a senior U.S. 
delegation to Geneva in mid-July to restart a U.S.-Russia Strategic 
Security Dialogue. Last month, I participated in the decision to impose 
sanctions on Yevgeniy Prigozhin and others associated with the Internet 
Research Agency for their attempts to interfere with the U.S. 2018 
midterm elections.
    In considering these complex issues, I want to acknowledge this 
committee's leadership and insights on Russia. As I mentioned in recent 
meetings with many of you, if confirmed as the next U.S. Ambassador to 
Russia, I would welcome the opportunity to consult and collaborate with 
the members of this committee, individually and collectively, on our 
Russia policy.
    If confirmed, I will continue to support dialogues with the Russian 
government on counterterrorism and arms control, as well as on 
denuclearizing the Korean Peninsula, on finding a peaceful solution to 
the conflict in Afghanistan, on Syria, and many other issues. But I 
will be relentless in opposing Russian efforts to interfere in U.S. 
elections, to violate the sovereignty of Ukraine and Georgia, and to 
engage in the malign behavior that has reduced our relationship to such 
a low level of trust.
    I assure the committee that I also will be indefatigable in 
protecting the American citizens who live in and travel to Russia, 
including the U.S. business community, scholars, athletes, tourists, 
and all American visitors. If confirmed, I intend to continue to press 
the Russian government for the release of Paul Whelan, who has been 
imprisoned without charges for nearly a year, and to demand that 
Michael Calvey's case be disposed of in a civil proceeding, not in a 
criminal court.
    If confirmed, I look forward to engaging with the Russian people to 
celebrate Russian culture, commemorate Russian history, and listen to 
their perspectives on the issues that unite and divide us and convey 
directly to them my American perspective as well. I also will continue 
to promote--in accordance with U.S. law--people-to-people exchanges to 
foster a better understanding among the Russian people of the United 
States. And, as I have during my travels as Deputy Secretary of State, 
I will meet with civil society, including religious leaders and human 
rights activists.
    Finally, there would be no greater honor for me, if confirmed as 
the U.S. Ambassador to Russia, than to serve with the dedicated women 
and men--and their families--who constitute our mission in Russia. I 
know from firsthand experience that it is not easy to be a U.S. 
diplomat in Moscow, Yekaterinburg, or Vladivostok. Yet dedicated career 
officers from across the U.S. government are serving with distinction 
in the wake of massive staff cuts, uncertainty, and intense pressure 
from the host government. Their tenacity in the face of these 
challenges is inspiring. Indeed, it was the example of my colleagues in 
Mission Russia that inspired me to seek to leave Washington and join 
them on the front-lines of American diplomacy. I humbly ask this 
committee for that opportunity.
    Mr. Chairman, Ranking Member Menendez, and members of the 
committee, thank you for the opportunity to appear before you today. I 
welcome your comments and questions.


    The Chairman. Thank you so much.
    We are now going to do a 5-minute round of questioning. I 
am going to reserve my time and will yield to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you, Secretary, for your statement.
    Do you think it is ever appropriate for the President to 
use his office to solicit investigations into a domestic 
political opponent?
    Mr. Sullivan. Soliciting investigations into a domestic 
political opponent--I do not think that would be in accord with 
our values.
    Senator Menendez. As the Deputy Secretary of State, are you 
aware of any other efforts by the President or anyone else to 
encourage, suggest, or request that a foreign government 
investigate one of the President's political rivals?
    Mr. Sullivan. I am not aware of any such, Senator.
    Senator Menendez. Not to President Xi?
    Mr. Sullivan. No.
    Senator Menendez. Prime Minister May?
    Mr. Sullivan. I am not aware of that, Senator.
    Senator Menendez. Let me ask you. You relayed to me--and I 
appreciate you came by to meet with me and we had an in-depth 
discussion. You relayed to me in our meeting yesterday that you 
personally have met Ambassador Yovanovitch in Kiev earlier this 
year. Is that correct?
    Mr. Sullivan. Last year actually.
    Senator Menendez. Last year, okay.
    So you would agree that she served the Department of State 
and represented the United States capably and admirably?
    Mr. Sullivan. I told her so.
    Senator Menendez. Yet, you were the one who told Ambassador 
Yovanovitch that she was being recalled early. Correct?
    Mr. Sullivan. I did.
    Senator Menendez. In your view, was there any basis to 
recall Ambassador Yovanovitch early?
    Mr. Sullivan. Yes, there was. The President had lost 
confidence in her.
    Senator Menendez. The President had lost confidence in her.
    Mr. Sullivan. Yes.
    Senator Menendez. And you were told that by the Secretary 
of State.
    Mr. Sullivan. I was.
    Senator Menendez. Did you ask why he lost confidence in 
her?
    Mr. Sullivan. Yes.
    Senator Menendez. And what was the answer?
    Mr. Sullivan. I was told that he had lost confidence in 
her. Period.
    Senator Menendez. Well, that is not a ``why.'' He just lost 
confidence in her. He did not explained why.
    Mr. Sullivan. You asked if I asked. I asked.
    Senator Menendez. And the answer you got was that he just--
--
    Mr. Sullivan. He had lost confidence.
    Senator Menendez. He did not explain why he lost confidence 
in her.
    Now, you said to me yesterday, once you were given this 
assignment, you wanted to treat Ambassador Yovanovitch with 
respect. Is that correct?
    Mr. Sullivan. That is correct.
    Senator Menendez. The best way to show respect would have 
been to push back on the Secretary and say why are we recalling 
someone, by the way, whose term had been extended and then we 
are recalling her back even though there was only a few months 
left in her nomination. A career ambassador. Why did you not 
push back?
    Mr. Sullivan. Well, as we also discussed yesterday, 
Senator, this had been a discussion that I had had with the 
Secretary over a period of time, and the Secretary, in turn, 
had pushed back and sought justification from those who were 
criticizing Ambassador Yovanovitch. After several months had 
elapsed, the Secretary finally told me that there had come a 
point at which the President had lost confidence in the 
Ambassador and that we needed to make a change in our mission 
to Ukraine.
    Senator Menendez. You were aware that there were 
individuals and forces outside of the State Department seeking 
to smear Ambassador Yovanovitch. Is that correct?
    Mr. Sullivan. I was.
    Senator Menendez. And seeking to remove her. Is that right?
    Mr. Sullivan. I was.
    Senator Menendez. And did you know Mr. Giuliani was one of 
those people?
    Mr. Sullivan. I believed he was, yes.
    Senator Menendez. When in fact this came about, did you 
ever personally advocate for a statement of support on behalf 
of Ambassador Yovanovitch?
    Mr. Sullivan. At the time of her removal, I did not.
    Senator Menendez. So let me turn then to some of these 
other questions.
    What did you know about a shadow Ukraine policy being 
carried out by Rudy Giuliani?
    Mr. Sullivan. My knowledge in the spring and summer of this 
year about any involvement of Mr. Giuliani was in connection 
with a campaign against our Ambassador to Ukraine.
    Senator Menendez. And you were given a packet of 
disinformation attempting to smear Ambassador Yovanovitch, 
given to you, if I recall correctly our conversation, by the 
State Department counsel?
    Mr. Sullivan. Counselor. Yes, it was in response to 
inquiries by the Secretary and others about what our Ambassador 
had done. We got, as I understood, that packet of materials.
    Senator Menendez. Now, did the counselor tell you how the 
package came to him?
    Mr. Sullivan. He had been given it--either he or the 
Secretary--I believe it was he. He had received that packet 
from someone at the White House.
    Senator Menendez. And did he tell you that he and the 
Secretary read the package?
    Mr. Sullivan. He had read the packet. I do not believe the 
Secretary had.
    Senator Menendez. Did you read the package?
    Mr. Sullivan. I did.
    Senator Menendez. And what did you think of it?
    Mr. Sullivan. It did not provide to me a basis for taking 
action against our Ambassador. But I was not aware of all that 
might be going on in the background, and to be cautious, I 
asked that the packet of materials, both for purposes of 
assessing the truth of the matters that were being asserted and 
their relevance, and the provenance of the package, who was 
giving it to us to influence us, be looked at by the Inspector 
General and by the Justice Department.
    Senator Menendez. Did you know it was Mr. Giuliani who 
created that package?
    Mr. Sullivan. I do not know that. To this day, I do not 
know that.
    Senator Menendez. You did not ask where did this come from?
    Mr. Sullivan. I did. Yes, I did ask, but I do not know.
    Senator Menendez. And no one told you where it came from.
    Mr. Sullivan. No.
    Senator Menendez. So it happened by immaculate conception.
    Mr. Sullivan. Hence, my referral of the package.
    Senator Menendez. Well, the reason I asked you this line of 
questions is because you are going to an embassy, one of the 
most critical positions in the national interest and security 
of the United States, in which I think the President's views 
differ clearly from many on both sides of the aisle as it 
relates vis-a-vis Russia. And there may be moments in time in 
which what happened in Ukraine is going to be happening as it 
relates to Russia. And the question is, what will you do? What 
will you do?
    Mr. Sullivan. I will follow the law and my conscience. In 
this instance with respect to the removal of the Ambassador, my 
experience had been that when the President loses confidence in 
an Ambassador, no matter what the reason, that the President's 
confidence in his Ambassador in a capital is the coin of the 
realm, the most important thing for that Ambassador. If he has 
lost that confidence--and this happened, as I think I may have 
mentioned to some of the members of this committee, to my uncle 
when he was the last U.S. ambassador to Iran. President Carter 
thought that my uncle was disloyal to the administration and to 
the President and his policies and, in January of 1979, asked 
Secretary Vance to have my uncle removed as our ambassador. 
Secretary Vance objected, said that my uncle was implementing 
the administration's policies. He pushed back.
    Several months later, the White House, the President said, 
``Sullivan has got to come out.'' He was removed as our 
ambassador. He was undermined by the White House. There were 
leaks about his character, his loyalty to the United States and 
to the administration. And as a result, after 32 years of 
service in the Foreign Service, three-time ambassador, he 
resigned from the Foreign Service.
    So when the President loses confidence in the ambassador, 
right or wrong, the ambassador needs to come home.
    Senator Menendez. Well, I will just close by saying I 
appreciate--you told me that story, and I appreciate hearing it 
again.
    When the President loses faith in an ambassador because of 
political reasons, not because of policy reasons, not because 
the ambassador has been disloyal to the United States, not 
because the ambassador is not doing their job, when it is 
because surrogates like Mr. Giuliani and others who have 
political and economic interests are pushing against our 
ambassador, I would have hoped that you would have spoken up a 
lot more loudly.
    And if you get this position, I would expect, if that 
happens to our people in the U.S. embassy in Russia, that you 
will speak up much more forcefully because that is the essence 
of being an ambassador. Yes, to represent the nation, but also 
to defend the men and women who work every day and should be 
insulated from that type of political consequence. With the 
experience you just told me about, I would have thought that 
you would have been more forceful.
    Thank you, Mr. Chairman.
    The Chairman. Senator Romney?
    Senator Romney. Thank you, Mr. Chairman.
    And thank you, Secretary Sullivan, for your willingness to 
serve in the Foreign Service and particularly to go on a 
foreign assignment in a far off and cold place. I acknowledge 
that you will be filling big shoes. Ambassador Jon Huntsman has 
served with distinction and honor in that post, and I 
anticipate that you will do the same.
    On October 21st, it was announced by Facebook that Russia 
continues to try and interfere in our election process by 
spreading false information and such, and Facebook took down a 
number of posts. So it is very clear that there has been no 
change on the part of Russia in terms of their intent to 
interfere with our election process.
    What can we do to change their behavior in this regard? 
What options do we have? So far, the actions we have taken have 
been incapable of dissuading them from their malign activity. 
Do you have thoughts about what actions either you can take as 
an ambassador or we should consider as the Foreign Relations 
Committee or as a nation to dissuade Russia or any other 
nation, Iran, North Korea, and so forth from trying to distort 
our electoral process, which is, if you will, at the heart of 
how a democracy works? Our elections are essential to a 
democracy. It requires the confidence of our people for 
democracy to work, that their votes are what made the decisions 
that will elect our officials. What might we be able to do?
    Mr. Sullivan. What we have done, Senator--and by the way, I 
have said in my discussions with members of the committee about 
this, this is an ongoing campaign by the Russian government. We 
think of it in terms of election milestones, but they are 
really seeking to undermine the United States, our democracy, 
and who we are, to divide us. We view it in terms of election 
milestones. They view it as an ongoing hybrid campaign against 
the United States whom they view as an implacable adversary of 
theirs. And they have, unfortunately, become an adversary of 
ours. We have pursued sanctions. We have pursued visa 
sanctions, economic sanctions, criminal prosecutions.
    Senator Romney. But those have not dissuaded them.
    Mr. Sullivan. So what we have done most recently, which I 
cannot go into great detail about in an open setting like this, 
involves our own tools not only in defense of our election 
infrastructure and our basic Internet infrastructure, but more 
forward-leaning cyber methods both in defending ourselves and 
our allies and partners and taking actions against those who 
threaten us, combining all of that with more direct messaging 
to the Russian Federation, to the Russian government from 
President Putin on down, that if they want to have a more 
stable relationship with the United States, which they profess 
to do--and I was with Vice President Pence when he had this 
discussion with President Putin last year in November at the 
East Asia Leaders Summit--that if they desire that, if they are 
true to their word, they have to stop this, that this is a 
redline for us.
    And our sanctions and our actions in response have to be 
directly coordinated to that message that is delivered to the 
Russians that it is not just amorphous, malign activities, but 
it is this particular activity directed by, authorized by the 
senior leadership of the Russian government, carried out by 
non-state actors who are controlled by the Russian government 
that are directed at our country, our society, and our election 
infrastructure.
    Senator Romney. Let me turn to Russia's plans with regard 
to nuclearization. My understanding is that they have invested 
as a nation dramatically in their nuclear arsenal, modernizing 
it. They have also aggressively invested in intermediate-range 
nuclear weapons in a way that has contravened our prior 
agreements. What is your sense of their ambition relating to 
their nuclear weapons program? At a time when I think the rest 
of the world was hoping that we would reduce nuclear weapons, 
that we might have a new New START Treaty that might actually 
reduce from the current levels, they seem to be investing more 
in nuclearization. Where are they headed and why?
    Mr. Sullivan. You have hit the nail on the head, Senator. 
They are investing in weapon systems, strategic systems that 
they would view as not covered by New START. I believe that 
they need to be included in a discussion, and I welcome a 
discussion with members of this committee. In our discussions 
going forward with the Russians in advance of what would be 
otherwise the lapsing of the New START Treaty on February 5th, 
2021, those at least five other weapon systems that we are 
aware of that President Putin publicized with that video that 
we are all familiar with, along with relatedly not just the 
weapon systems, the delivery systems, but a large number in a 
development of, manufacture of a large number of lower-yield 
nuclear devices that could be included on those systems that 
would not necessarily be deemed of a strategic level.
    When I discussed this with my Russian interlocutors in 
Geneva this past summer, I made it clear to them that the 
people of the United States--it is not going to matter to the 
President or the people of the United States if we are hit by 
an ICBM that is covered by the New START Treaty or some hybrid 
weapon with a low-yield nuclear weapon that destroys Denver or 
Salt Lake City. All those systems need to be addressed.
    But that is their strategy, to comply with New START--and 
we have determined that they have--but to build these other 
systems and a large number of devices that we do not really 
have a lot of transparency on. We do not even know the number. 
We asked for the number of nuclear weapons that they had, 
nuclear devices, and they would not even address the question.
    The Chairman. Thank you, Senator Romney.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Again, Secretary Sullivan, thank you very much.
    I appreciate your response in regards to Russia's 
interference in our elections, using your words, a redline, 
which I think it has to be absolutely clear that that is an 
attack on our country, on the very foundation of America. And 
of course, as I pointed out in your introduction, it is not 
unique to the United States by Russia's actions. They are doing 
it in many democratic countries around the world. And we must 
make it clear that that is a redline, that that cannot be 
tolerated.
    I also appreciate in your statement your willingness to 
meet with civil society and for our embassy to be a beacon of 
hope for those that are oppressed.
    Earlier this month, Senator Rubio and I authored a letter, 
joined by many of our colleagues, to Secretary Mnuchin and 
Pompeo in regards to Russia's actions against human rights 
advocates and the imprisonment of opposition leaders, urging 
the administration to be more aggressive in protecting those 
individuals, including the use of the Magnitsky sanctions.
    So I want to start, as I do with most ambassadors that are 
going through a nomination hearing in a country that has 
challenges on protecting human rights, as to how high of a 
priority will it be to promote American values as it relates to 
human rights, giving hope to the people of Russia that they do 
enjoy universal human rights that will be recognized by the 
United States and defended by the United States.
    Mr. Sullivan. It is a fundamental part. I would consider it 
a fundamental part of an American ambassador's mission to 
promote those values and to also point out the incongruity of 
the fact that the Russian constitution guarantees many rights, 
but the Russian government--their government--is infringing 
those rights.
    And there are many ways that we can encourage civil society 
in Russia. I want to do--as I have mentioned to some members of 
the committee, I want to make sure that I at first, as is said 
in the Hippocratic Oath, do no harm in embracing particular 
individuals and subjecting them to retaliation by the Russian 
state for their association with us. But I absolutely affirm 
the importance of promoting American values, basic human values 
that we all share, not just Americans, freedom of religion, and 
the fact that the consent of the governed, a democratic 
republic is the highest form of government they are entitled 
to.
    Senator Cardin. So let me tell you the challenges that we 
have seen over many administrations. When there are high 
visible opportunities, summit meetings, rarely do we see human 
rights as a front and center issue. Yes, we get into arms 
control. Yes, we get into counterterrorism. Yes, we get into 
the hotspots of the world trying to resolve the problems. But 
we see that human rights is rarely promoted to a top priority 
issue. I believe our mission in Russia can help make that more 
of a reality that these issues are showcased when we have those 
opportunities.
    Most recently, we have had horrible humanitarian disasters 
in different parts of the world, and as we look for resolutions 
of those issues, rarely do we hold those accountable for 
atrocities--accountable for their actions. If you are confirmed 
as Ambassador, will you be a champion for American values not 
being ignored as we deal with other very important issues--arms 
control is an important issue. Counterterrorism is critically 
important--but that we recognize that if we do not build those 
answers within American values, we are not doing a service to 
our country's national security?
    Mr. Sullivan. I have and will continue to do so. Senator, 
if I may offer a couple of examples to not just talk the talk 
but walk the walk. I gave a speech on religious freedom in 
Khartoum a year and a half ago in the face of threats against 
me. It was at a mosque in Khartoum. But the value of religious 
freedom and how important it was for the Sudanese government, 
which has now changed--it was then under the presidency of 
President Bashir. But the importance of that government 
respecting its citizens' rights, including religious freedom.
    I did the same thing in Nigeria when I was in Abuja to 
speak with the Nigerian president, roughly the same time last 
year and continue to do so.
    Senator Cardin. I appreciate that. And I also appreciate 
the fact that you responded to Senator Menendez's questions 
that you would follow the law and your conscience in regards to 
areas of potential conflict between what many of us believe is 
the policies of this country and where there is conflict 
particularly with this administration. And I think that becomes 
important.
    We had an appropriation in the fiscal year 2017 budget to 
counter Russia's misinformation, and the administration was 
very slow in releasing those funds. Very, very slow. We need to 
get the direct information from our missions as to the 
importance of those types of programs to counter Russia's 
propaganda and misinformation. We ultimately got the monies 
released, but it took a long time.
    So we want to make sure that our head of mission, our 
Ambassador in Russia, will be giving direct information to us 
as to the needs and our values. And if it is a conflict within 
the administration, we recognize the sensitivity of that and 
the importance of the Ambassador to have the confidence of the 
President, but we need to be able to get that direct 
information, consistent with law and your conscience.
    Mr. Sullivan. Yes, indeed, Senator. I agree. As I said in 
my opening statement, I will look forward to working 
individually and collectively with this committee, if I am 
confirmed as our Ambassador to Russia, on that issue and any 
others that are of interest to a member or collectively the 
committee.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    And, Secretary Sullivan, as I told you in our meeting, I 
appreciate your willingness to serve in a new and very 
important job that is going to be extremely difficult because 
you are going to be dealing with a relationship that is fraught 
with problems. You talked about some of those earlier today. 
You talked about their interference in our elections and how 
strongly we feel about their malign activities--Russia's malign 
activities around the world, the cyber attacks, certainly what 
is going on in terms of disinformation, which I want to talk to 
you about in a second.
    As you know, I spent a lot of time on the Ukraine issue. 
You mentioned Georgia and Ukraine. We did not talk much about 
Syria, but even today as we sit here, there is the potential 
for U.S. forces and Russian forces to be in conflict for the 
first time in many years. So there is lots going on.
    Having served in three administrations now, you have got 
the background and experience to be able to handle it I 
believe. So I am glad you are willing to do it.
    I am going to assume for the purposes of my questions that 
you went through this process, as you have in the past, and 
that, as I have seen this morning, you will be able to answer 
the questions that are raised by my colleagues in a way that 
will ensure that you are confirmed.
    I think there are three areas where you can play a 
particularly significant role. One is with regard to 
disinformation. The Global Engagement Center: you have been a 
champion of. I appreciate that. Senator Murphy and I passed 
legislation a few years ago that we have been trying to ensure 
ends up being implemented properly, including the funding. 
Senator Cardin just talked about that, you know, the DOD 
funding which we finally got over to the State Department. This 
is not just focused on Russia. It is focused on disinformation 
more broadly. But, frankly, Russia is the number one actor in 
this space.
    So let me ask you, from your perch in Moscow, will you 
continue to be an advocate for the Global Engagement Center, 
and can you help us to ensure that we do not have these 
glitches, that we have the funding at a stable level so that we 
can bring the expertise in to be able to push back on 
disinformation globally?
    Mr. Sullivan. Absolutely, Senator. In fact, we spoke at my 
confirmation hearing 2 and a half years ago; you may not 
remember this, but we spoke about the Global Engagement Center.
    Senator Portman. I remember it. At that time, you made 
commitments that you kept, which I appreciate.
    Mr. Sullivan. But the challenge we have had with the GEC 
has been that when it was originally created, it was focused on 
countering non-state actors, al Qaeda in the Arabian Peninsula, 
for example. Continuing that mission but adding state actors, 
specifically one as sophisticated as Russia, has made the job 
even more difficult, but just as, if not more so, necessary. 
And I appreciate this committee's help in seeking to get that 
funding, which has taken us far too long to get.
    Senator Portman. Second. So thank you and I think you will 
have a unique opportunity given your position I believe you are 
going to be confirmed for to be able to speak to that.
    Second is Ukraine. And as you and I have talked about, I 
have been there several times. I went there right after the 
Revolution of Dignity in the Maidan. And since then, members of 
this committee have supported over $3 billion in additional aid 
to Ukraine, including now lethal defensive aid, which is 
necessary. And now a lot of Americans know about that as well, 
given what has happened in the last couple months.
    The point is it is an extremely sensitive time in Ukraine. 
President Zelenskyy has told me--and he has taken some rather 
courageous political actions to fulfill this--that he would 
like to see the conflict in the Donbas resolved. He 
specifically has talked about the Steinmeier formula withdrawal 
of the Russian forces from the border areas, withdrawal of the 
Russian-backed surrogate forces there in exchange for elections 
in the east and in exchange for some level of autonomy. He has 
gotten a lot of pushback from that, as you know.
    But the point I am making is I think you, having had your 
experiences at the State Department understanding this issue 
more broadly, have an interesting role to play, which is to get 
Russia to the table in a good faith effort, which I have not 
seen yet, both with regard to Crimea, which we must never 
forget, and with regard to the eastern border. I think there is 
an opportunity here with the new administration with his 
majority in his parliament, the Rada, and with his 
determination to try to figure out a way forward.
    Are you willing to take on that role, which would not be 
the typical role of an Ambassador, but I think in your case it 
would be one that could be crucial again to getting Russia to 
the table in a way that this issue could be resolved?
    Mr. Sullivan. Well, thank you, Senator. Russia is the key 
actor in this whole drama. We have the situation we have in the 
Donbas and in Crimea solely because of Russia's actions.
    I thought we saw a little shift in the Russian position a 
few months ago when they agreed to the prisoner exchange to 
release the Kerch Strait sailors, the Ukrainian sailors that 
they had illegally attacked and seized. But I think there has 
not been the follow-through that we were hoping for.
    I would expect that the U.S. Ambassador to Russia would be 
involved in particular in engaging with the Russian government 
in coordination with colleagues at the Department of State and 
at the NSC on this extremely important issue.
    Senator Portman. Yes. Again, my time has expired, but we 
will continue this dialogue. But you will have the opportunity 
to play a central role of this because of your experience at 
the NSC and at the State Department and at the White House and 
the network you have developed and the respect you have here on 
the Hill. So I hope you will use that aggressively to be able 
to resolve some of these issues particularly with regard to the 
eastern border of Ukraine.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Secretary Sullivan, for your willingness to 
take on this challenging position at this difficult time.
    In your opening statement, you talked about the need for 
principled engagement with Russia that requires sustained 
diplomacy and resolute opposition to Russia where it undermines 
the interest and values of the United States and our allies and 
partners. Do you believe that this is the philosophy with which 
the President approaches our policy towards Russia?
    Mr. Sullivan. He has nominated me to be his Ambassador, 
Senator. I believe I would be fulfilling the President's 
desires with respect to Russia if I pursued that policy that I 
have laid out.
    Senator Shaheen. As you prepare to take on this engagement, 
can you explain whether or not you were briefed on President 
Trump's 2-hour private meeting with President Putin in July of 
2018?
    Mr. Sullivan. Whether I was briefed after the meeting?
    Senator Shaheen. Yes or anytime between then and now as you 
prepare to take on----
    Mr. Sullivan. Oh, I just meant not before the meeting, but 
after the meeting about results of the meeting.
    Senator Shaheen. Correct.
    Mr. Sullivan. Yes. I have been briefed by the Secretary of 
State and the National Security Advisor to the President. And 
the two principal items that I was charged with coming out of 
that meeting were the two dialogues that I now lead on 
counterterrorism and our strategic security talks with the 
Russians. There was a third request from President Putin 
concerning a business-to-business dialogue, which has yet to be 
implemented. It really would not involve substantial 
involvement by the United States government. But those were the 
three issues that I was briefed on coming out of the 
President's meeting with President Putin last year.
    Senator Shaheen. And did you ever see the actual notes from 
that meeting, or that was a verbal briefing from Secretary 
Pompeo?
    Mr. Sullivan. Well, and Ambassador Bolton. I did not see a 
verbatim memorandum reciting what exactly was the back and 
forth between the two presidents in the meeting. But I hesitate 
to say it was only orally. There may also be memos that 
discussed these priorities for the dialogues that I described. 
But I did not see a memo that summarized the results of the 
conversations between the two presidents. I was briefed on the 
outcomes that I should be looking to implement. And that 
briefing may have been in writing as well as orally. I cannot 
recall at this point.
    Senator Shaheen. A large number of Russian ISIS fighters 
are being held in prisons guarded by the SDF in northeast 
Syria. Of course, many more remain at large. And Russian 
terrorism analysts say that Russia in many ways has exported 
its own domestic terrorism problem to Syria.
    Do you agree with that assessment? And given Russia's 
increasingly prominent role in northeast Syria following our 
withdrawal, are you aware of any United States' efforts to push 
Russia to address the global ISIS problem and to take back its 
own ISIS fighters who have emigrated to Syria?
    Mr. Sullivan. Yes. In fact, that is a major topic of our 
discussion in the counterterrorism dialogue. We have had two 
meetings at the deputy minister/deputy secretary level and then 
a number of other meetings at lower levels involving FBI, CIA, 
et cetera.
    The Russian government, with respect to the foreign 
terrorist fighters in northeast Syria, has agreed with us that 
countries that have their citizens who are detained who left 
their homeland, went to northeast Syria or elsewhere but are 
now detained in northeast Syria, that they should be taking 
those citizens back to their home countries to be prosecuted 
and dealt with, including Russia.
    Senator Shaheen. Has Russia actually done that?
    Mr. Sullivan. They have in fact in fairly large numbers.
    In fact, we have the opposite concern, frankly, Senator, 
which is our concern about how people are going to be treated 
when they get sent back to Russia. So from my perspective in my 
discussions with the Russians, they are in fact in aggressive 
agreement with us on wanting their people back and putting 
pressure on other countries, particularly European countries, 
to take theirs. My concern is what happens to those people and 
particularly family members of those fighters who get sent back 
to Russia, which is one of the limitations on our 
counterterrorism dialogue. There are limits on how we can work 
with them because of their behavior.
    Senator Shaheen. And were you aware that Rudy Giuliani had 
opened a second channel of diplomacy, if you want to call it 
that, a second channel of effort in Ukraine?
    Mr. Sullivan. As I said in response to questions from 
Senator Menendez, I was aware that Mr. Giuliani was involved in 
Ukraine issues. My knowledge, particularly in the April, May, 
June timeframe, even into July, was focused on his campaign 
basically against our Ambassador to Ukraine.Senator Shaheen. 
And is that the normal way the State Department does business, 
to open a second channel?
    Mr. Sullivan. I will say that there are examples going back 
through history of Presidents using people outside of--U.S. 
citizens outside of the government in whom they repose trust to 
convey messages and represent them abroad. So it is not, in my 
experience, unprecedented. So I do not know whether I can say 
more than that.
    And it is also the President's prerogative even within the 
U.S. government if they are, for example, sending Secretary 
Perry to Ukraine to discuss energy issues, for example. Even 
though he is going on a foreign mission to a foreign country, 
he is not the Secretary of State, that is something that 
Presidents typically do.
    Senator Shaheen. My time is up, so I will stop. But I think 
we normally assume that everybody is pursuing the same policies 
when we have different channels of communication to a country.
    Thank you.
    Mr. Sullivan. May I respond?
    The Chairman. You may.
    Mr. Sullivan. Thank you, Mr. Chairman.
    That is a problem when there are multiple parties involved, 
and it is a challenge I think for any Secretary of State to 
maintain control over U.S. foreign policy in any government 
when there are--even within the U.S. government, if there are 
other cabinet secretaries involved. I note from my experience 
in the Bush 43 administration, great disagreements between the 
Department of Defense and the Department of State on what were 
essentially foreign policy issues. So it is a challenge for the 
Secretary of State to maintain control over that policy in any 
administration.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Secretary Sullivan, hello and welcome to the 
committee and congratulations on your nomination.
    I have found you to be accessible and highly competent, and 
you have comported yourself with great integrity thus far in 
public life. So I am disposed to support your confirmation.
    I have a question about--a series of questions related to 
arms control, which you have identified in your testimony as an 
area of sort of shared concern, shared interest between the 
United States and Russia. I do think it is important. As many 
challenges, as many disagreements as we have, if we can find 
some areas of commonality, I do not think that is a bad thing.
    So earlier you affirmed that you believe it is in the best 
interest of the United States to pursue an extension of New 
START. You further indicated I think the Russian strategy is 
indeed to comply with New START but all the while to build 
other weapon systems and also develop lower- yield nuclear 
weapons.
    In conjunction with pursuing a New START extension, are 
there particular updates or conditions that you believe are 
necessary to ensure New START is as potent and enforceable as 
possible?
    Mr. Sullivan. Yes. And what I would say is what I think our 
position, the United States' position, would not be to announce 
the extension of New START today--it expires on February 5th, 
2021--but to engage immediately with the Russians on not just 
the terms of an extension but these other weapon systems that I 
discussed with Senator Romney, the five that I think you and I 
talked about when we met earlier.
    Senator Young. So what role would you play as Ambassador in 
those conversations and ensuring we land in the right spot?
    Mr. Sullivan. Well, my expectation is if I am the chief of 
mission in Moscow, that I would be consulted and be a conduit 
to the Russian government in both directions. But my 
expectation is if we were to proceed with substantial arms 
control negotiations, that that would be a major undertaking 
requiring a large bandwidth of resources from the U.S. 
government across the interagency from the joint staff, DOD, 
NSC, the intelligence community. My expectation is that as 
Ambassador I would not be as directly involved as those 
negotiations proceeded.
    Senator Young. That is fair.
    Let me move to the plumbing. One of the most important 
roles of an ambassador is to make sure that the trains run on 
time, that personnel have what they need, our very competent 
diplomatic personnel, and so forth. And so you are going to 
need full embassy staffing and a functioning network of 
consulates throughout the country in order to be able to most 
effectively carry out your mission.
    In April of 2018, as you and I discussed in my office, 
Russia expelled 60 of our diplomats and closed our consulate in 
St. Petersburg.
    So what actions will you take, Mr. Secretary, to get our 
embassy staffing numbers back to where they need and to reopen 
that St. Petersburg consulate so that it can serve American 
citizens who are visiting from abroad?
    Mr. Sullivan. We have an ongoing discussion with the 
Russian foreign ministry on these issues. And it has gotten to 
the point where our staffing level was cut to 455 U.S. direct 
hires. In fact, because the dispute we have with Russia extends 
beyond just the initial expulsion of 60, but their refusal to 
give visas for us to be able to backfill, we are substantially 
below 400 people at this point in our mission. So I think the 
problem is even greater than you described. It is very acute. 
And that has become clear to me over my 2 and a half years as 
our mission has shrunk. We lost the consulate in St. 
Petersburg. The price for the consulate in St. Petersburg--we 
closed the Russian consulate in San Francisco, and we do not 
have plans to allow them to reopen that consulate, which was 
used for other than diplomatic purposes. But not having a 
consulate in St. Petersburg for purposes of providing American 
citizen services out of our embassy--we have so many Americans 
who visit, cruise ships that make port calls. It is essential 
that we have a consulate there and we are handicapped by having 
to work out of Moscow to service people there.
    Senator Young. So I think it is important. To the extent 
that I and other members of the committee can be helpful on 
that front, we of course want to.
    I am going to submit for the record a series of questions. 
I am going to very quickly publicly say them, and I would 
appreciate it if you could respond to them later, simple yes or 
no answers. I think it is really important that we sort of 
protect the prerogatives of this committee and of this Article 
I branch. So here they are.
    Have you adhered to applicable laws governing conflicts of 
interest?
    Have you assumed any duties or any actions that would 
appear to presume the outcome of this confirmation process?
    Do you agree, if confirmed, to appear and to testify before 
this committee when requested by the chairman and ranking 
member?
    Do you agree to provide documents and electronic 
communication in a timely manner when requested by this 
committee, its subcommittees, or other appropriate committees 
of Congress and to the requester?
    Will you ensure that you and your staff comply with 
deadlines established by this committee for the production of 
reports, records, and other documents, including responding 
timely to hearing questions for the record?
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    And finally, will those briefers be protected from reprisal 
for their briefings?
    I do not anticipate any challenges whatsoever, but I will 
submit this for the record.
    The Chairman. Thank you, Senator. Those questions will be 
submitted. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Deputy Sullivan. Thank you so 
much for your strong public service.
    Have you reviewed the memorandum of telephone conversation 
of the July 25 phone call between President Trump and Ukrainian 
President Zelenskyy that the White House made public last 
month?
    Mr. Sullivan. I have.
    Senator Kaine. I would like to introduce it into the 
record, Mr. Chair.
    The Chairman. It will be introduced.


    [The information referred to is located in the ``Additional 
Material Submitted for the Record'' section of this hearing 
transcript.]


    Senator Kaine. The memorandum states that it is not a 
verbatim transcript, and the presence of several ellipses in 
the memorandum suggest that some material was deleted.
    Have you read a full transcript of that conversation?
    Mr. Sullivan. The only version of that memorandum that I 
saw, Senator, was one that I got via public media.
    Senator Kaine. Have you asked to read any fuller version 
other than the one that you have read?
    Mr. Sullivan. I have not.
    Senator Kaine. Do you know whether any member of the State 
Department was invited to participate in that call?
    Mr. Sullivan. I believe the Secretary has said that he did. 
I do not know if others--my expectation is not, but I do not 
know that.
    Senator Kaine. Okay.
    President Trump initiated a discussion about former 
Ambassador Marie Yovanovitch on the call, saying the former 
Ambassador from the United States, the woman, was ``bad news.'' 
Do you believe that this dedicated career Foreign Service 
Officer was ``bad news''?
    Mr. Sullivan. As I said earlier, Senator, as Ambassador 
Yovanovitch in her written statement to the House impeachment 
inquiry, I told her that I had no reason to believe at the time 
that she had anything to be----
    Senator Kaine. I think you have testified to this already, 
but do you know what the President meant by the statement that 
she is ``bad news''?
    Mr. Sullivan. I do not know.
    Senator Kaine. He later said in the call, ``Well, she is 
going to go through some things.'' Do you have any idea what 
the President meant by that comment?
    Mr. Sullivan. I do not.
    Senator Kaine. She testified before the House that you told 
her that she was relieved of her post because she lost the 
President's confidence, but that she had done nothing wrong and 
that she had been the subject of a concerted campaign against 
her. Is that accurate? Is that accurate in terms of what you 
told her?
    Mr. Sullivan. Yes, it is.
    Senator Kaine. I was intrigued by who was mentioned on 
diplomatic call and who was not. The memorandum mentions Rudy 
Giuliani six times, Attorney General Barr five times, 
Ambassador Yovanovitch three times, Vice President Biden two 
times, Vice President Biden's son one time, and Robert Mueller 
one time. The transcript does not mention Secretary Pompeo, 
Ambassador Taylor, or anyone at the State Department other than 
the disparaging comments about Marie Yovanovitch. And the 
President repeatedly urges President Zelenskyy to work with 
Rudy Giuliani and Attorney General Barr.
    Does it surprise you that on a diplomatic call, the 
President would encourage Ukraine to communicate with Rudy 
Giuliani and AG Barr but not Secretary Pompeo or Ambassador 
Taylor or the State Department?
    Mr. Sullivan. Well, I think in the context of those 
references, Senator, it was to our anti-corruption efforts, 
which have been longstanding, going back to the prior 
administration. So it does not----
    Senator Kaine. Does the State Department not work on some 
of those things?
    Mr. Sullivan. Absolutely, as do other cabinet----
    Senator Kaine. But were not mentioned.
    President Zelenskyy raises the issue of defense cooperation 
and expresses interest in purchasing Javelin missiles. We now 
know that the White House was thwarting the command of Congress 
by withholding military support for Ukraine. When did you 
become aware of that?
    Mr. Sullivan. Of that----
    Senator Kaine. Of the thwarting of the military aid to 
Ukraine.
    Mr. Sullivan. I was aware that there was a hold on security 
assistance to Ukraine. I was not aware of the reason.
    Senator Kaine. In response to the request for military 
support during the phone call, President Trump does not 
encourage President Zelenskyy to reach out to the Secretary of 
Defense, the EUCOM commander, or Ambassador Taylor. He just 
encourages Ukraine to communicate with Rudy Giuliani and 
Attorney General Barr. Does it surprise you that on matters of 
defense cooperation, the President would encourage Ukraine to 
communicate with Rudy Giuliani and AG Barr but not the 
Department of Defense or our Ambassador?
    Mr. Sullivan. Well, as I said in response to your question 
regarding the Secretary of State, my understanding was in 
reading that transcript, the President's focus was on anti-
corruption efforts, which is why he would have referred to the 
Attorney General.
    Senator Kaine. But President Zelenskyy was asking about 
defense aid, and President Trump was engaging in that 
conversation but not encouraging communication with the 
Department of Defense.
    President Zelenskyy also raised the issue of trade with the 
United States and talked specifically about cooperation on 
energy-related issues. We now know that the White House 
directed Trade Representative Lighthizer in August to shelve 
all trade discussions with Ukraine.
    In response to the discussion about trade and energy, 
President Trump does not encourage President Zelenskyy to reach 
out to Secretary Ross, Secretary Perry, Trade Representative 
Lighthizer, or Ambassador Taylor. He just encourages the 
president to communicate with Attorney General Barr and Rudy 
Giuliani. Does that surprise you on a matter of trade and 
energy?
    Mr. Sullivan. Again, I would have the same answer that I 
believe the President's overriding focus was on anti- 
corruption.
    Senator Kaine. Well, for the record, we all know that Rudy 
Giuliani and Attorney General Barr are not responsible for U.S. 
policies on commerce, trade, energy, defense, or diplomacy.
    As far as you know, are there other countries where the 
President is directly encouraging the head of state to work 
with Rudy Giuliani and Attorney General Barr rather than the 
State Department, the Defense Department, the Commerce 
Department, the Energy Department, the Trade Representative, or 
our own U.S. Ambassador?
    Mr. Sullivan. I am not aware of any other country with 
respect to Mr. Giuliani----
    Senator Kaine. Let me ask you one other question.
    The Chairman. He wanted to finish.
    Mr. Sullivan. I just want to say with respect to Attorney 
General Barr, I do not know, but it would not surprise me if, 
given the role of the Justice Department, it may be. But I am 
not aware of any other instance with respect to Mr. Giuliani.
    Senator Kaine. Lastly, the President's calendar reveals 
that he held a phone conversation with Vladimir Putin 6 days 
after the call with President Zelenskyy. Do you know whether 
the President told President Putin that the U.S. was 
withholding military aid from Ukraine, stopping trade 
discussions with Ukraine, or that the U.S. was about to cut 
$800 million in NATO-related military construction projects in 
Europe during that call?
    Mr. Sullivan. I do not believe that that was mentioned in 
the call with President Putin.
    Senator Kaine. So you have seen a transcript of it.
    Mr. Sullivan. No, I have not, but I have not been told that 
that was the subject of the conversation.
    Senator Kaine. So you are unaware but not have been told.
    Mr. Sullivan. My recollection is that that call--that there 
was a massive wildfire.
    Senator Kaine. The summary of the call says it was about 
wildfires and trade.
    Mr. Sullivan. Yes.
    Senator Kaine. It does not give any additional details.
    Mr. Sullivan. That is what I am aware of.
    Senator Kaine. And you have not seen a transcript of the 
call.
    Mr. Sullivan. That is what I am aware of.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Rubio?
    Senator Rubio. Thank you for being here today, and thank 
you for your service to our country, which I think is across 
four cabinet departments, three administrations, the last 2 
years as the Deputy and all of 6 weeks as the Acting Secretary 
of State. And now you are going to Russia. As I told you 
yesterday, I do not know what you are going to do to top that. 
But that is a great record of service to our country.
    Because you are the nominee to such an important post, I 
think we are just going to cut to the chase. We all understand 
the theory and the argument made that the President of United 
States was engaged in an effort to leverage U.S. foreign aid to 
a country in exchange for the country helping him go after a 
political opponent. That is the allegation. That is what the 
House is looking into.
    Bottom line, were you aware at any time until, of course, 
this stuff was broken in press, but before that time, did 
anyone ever come to you? Were you ever aware of that sort of 
connection, that quid pro quo that is being alleged? Was that 
something that you were a part of? Just for the record, I think 
that is important.
    Mr. Sullivan. I was not, Senator.
    Senator Rubio. You were not aware?
    Mr. Sullivan. I was not aware.
    Senator Rubio. You never heard anyone tell you they will 
get the money if they investigate a political opponent?
    Mr. Sullivan. Not until the recent developments and 
disclosures from the whistleblower's complaint.
    Senator Rubio. That is the first time you were aware of it.
    Just as another matter because of your record, listen, you 
can be, as I am, deeply concerned that we would remove an 
ambassador from a post as a result of what now appears to be at 
least a somewhat foreign-directed effort, a concerted effort to 
spread misinformation about that U.S. ambassador. I would 
imagine it is wrong. It is bad for morale. It would encourage 
adversaries to do the same. Just to be clear, I am not 
justifying it. I am not saying it is right. I have concerns 
about it.
    But there is nothing illegal about an ambassador being 
removed from their post. In essence, neither you, if you are 
confirmed, or any other ambassador serving this country is 
entitled to serve in that role until there is cause. 
Ambassadors are re-assigned and can be re-assigned all the 
time. We may not agree with it. We may think it is unfair. We 
may think it is unwise. But you and anybody else serving in a 
post overseas could be re-assigned or asked to be re- assigned 
at any moment.
    Mr. Sullivan. For any or no reason, the President's 
authority, as I understand it--he may decide that he does not 
like my testimony today and does not want me to go to Russia. 
The President can decide, when he loses confidence in his 
ambassador or his nominee, that that person is not going to 
continue as ambassador. What he cannot do is he cannot decide 
that if it is a career employee, that that person is removed 
from the Foreign Service. And that is not what happened with 
respect to----
    Senator Rubio. Well, that was my last question. Ambassador 
Yovanovitch was not removed. There was no effort to remove her 
from the Foreign Service.
    Mr. Sullivan. In fact, the opposite. One part of my 
conversation with the Ambassador was my hope and her desire to 
continue to serve in the Foreign Service and what her 
assignment would be.
    Senator Rubio. The last topic here in the 2 minutes that 
are left. It is an interesting thing that is developing here 
between Russia and China. If we go back 40- 50 years, you know, 
Russia was the senior partner in that relationship when they 
were not in conflict. China was still a developing country. Now 
the roles have been reversed. We see China growing in 
geopolitical influence. Their economy continues to grow. 
Russia, on the other hand, is in decline demographically, 
economically, in some respects militarily in comparison to the 
Chinese. I think it is now fair to say that Russia is the 
junior partner in that relationship between China and Russia.
    And I am curious about your views about what is our role in 
managing how that plays out, for example, in Central Asia where 
the Eurasian Economic Union frankly is no match for China's 
offers with its Belt and Road Initiative. So you have got a 
country that is in decline relative to China. They may feel 
threatened by this, if they do not already, at some point. What 
is our role in that? How do we manage that? And what is our 
role in Central Asia as these two countries potentially have 
that tug of war?
    Mr. Sullivan. Well, as we discussed yesterday, Senator, 
those five countries are extremely important geopolitically--
their location--for any number of reasons, our counterterrorism 
mission, for example, resolving the conflict in Afghanistan on 
terms favorable to the United States.
    I believe there is competition between Russia and China in 
that area. We want to be involved. I met with the five foreign 
ministers from those countries. This would have been last year 
before a U.N. Security Council session on Afghanistan where 
they participated. I met with them to discuss our interests--
their interests in some of those countries, at least--being 
closer to the United States is they feel squeezed between 
Russia and China. So it is geostrategically important, as you 
noted, and we do have a role to play.
    The Chairman. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Secretary, Gordon Sondland came before this committee, 
as you are today, so that we could consider his nomination to 
be the U.S. Ambassador to the European Union, which no longer 
includes the Ukraine.
    According to statements by multiple government officials, 
including Lieutenant Colonel Alexander Vindman, a Purple Heart 
recipient and Ukraine expert assigned to the National Security 
Council, as well as other diplomats, Sondland was involved in 
efforts to get Ukrainian President Zelenskyy to investigate 
President Trump's political rival rather than to pursue the 
national security interests of the United States. In fact, 
Ambassador Sondland is reported to have determined that, quote, 
Ukrainian leaders delivered, quote, specific investigations to 
secure a meeting between President Zelenskyy and President 
Trump.
    In response to Senator Menendez, you stated that it would 
not be in accord with our values for a President to solicit a 
foreign investigation into a political rival.
    Have you ever heard of any other President ever asking a 
foreign government to investigate an American citizen?
    Mr. Sullivan. I cannot think of one off of the top of my 
head, Senator. But as I said in response to Senator Kaine's 
questions, the President and the United States government has 
been focused on anti-corruption efforts extensively in Ukraine.
    Senator Markey. So in your opinion--I would like to hear 
it--having President Trump ask Ukraine to investigate a U.S. 
citizen, his political rival, would be unprecedented in 
American history and certainly the American presidency?
    Mr. Sullivan. I am not--I do not consider myself competent 
to answer the historical----
    Senator Markey. To your knowledge?
    Mr. Sullivan. To my knowledge, I am not aware of that, 
which is not to say it has not happened.
    Senator Markey. As Ambassador to Russia, would you ever put 
any individual's political interests ahead of the foreign 
policy and national security interests of this country, even 
the political interests of the President of the United States, 
even if requested by the President of the United States?
    Mr. Sullivan. I would only implement the President's 
foreign policy in the national security interests of the United 
States.
    Senator Markey. So you would never compromise America if 
the political interests of the President ran contrary to our--
--
    Mr. Sullivan. My oath would be, as my current oath is in my 
present position, to the United States and our Constitution.
    Senator Markey. I have received information that before 
John Bolton resigned, President Trump may have made a decision 
to exit the Open Skies Treaty, which permits signatories to 
conduct short notice, unarmed reconnaissance flights over the 
entire territories to collect data on military forces and 
nuclear weapons activities. We then share this information with 
our allies and all signatories to the Treaty.
    Do you believe that withdrawing from the Open Skies Treaty 
is in the interest of the United States?
    Mr. Sullivan. To my knowledge, the United States has not 
withdrawn from the Open Skies Treaty. In fact, the United 
States this month is chairing the Open Skies Consultative 
Commission. There was the 1,500th Open Skies Treaty flight 
recently.
    Senator Markey. Do you believe that withdrawing from the 
Open Skies Treaty is in the best interest of the United States?
    Mr. Sullivan. There would need to be substantial evidence 
to support the national security interests for withdrawal from 
that Treaty, and there would need to be consultations with this 
committee, with Congress, and in particular with our NATO 
allies and the other countries that are members of the Treaty, 
as we did when we withdrew from the INF Treaty.
    Senator Markey. Have you made a decision to withdraw, to 
exit from the Open Skies Treaty yourself?
    Mr. Sullivan. I have not.
    Senator Markey. You have not. Just for the record, 
Secretary of State George Shultz, Secretary of Defense Bill 
Perry, Sam Nunn all strongly support continued U.S. 
participation.
    Has the White House consulted the State Department about 
potential withdrawal from the Open Skies agreement?
    Mr. Sullivan. I have been consulted because I heard those 
same rumors.
    Senator Markey. You have been consulted?
    Mr. Sullivan. Well, I inquired as to whether we had 
withdrawn from the Treaty and was assured we had not.
    Senator Markey. You have been involved in discussions given 
your leading role----
    Mr. Sullivan. I have and I have consulted with our 
ambassadors to NATO and the OSCE and heard their views and 
conveyed those views about their view that we should continue 
to be members of the Treaty. And our Ambassador to the OSCE, 
Ambassador Gilmore, is the chair, as I said, this month of the 
Consultative Commission on Open Skies.
    Senator Markey. You have consulted with allies who benefit 
tremendously from this agreement, and what is their view--our 
allies?
    Mr. Sullivan. We have not to my knowledge.
    Senator Markey. You have not.
    Mr. Sullivan. No.
    Senator Markey. Have you consulted with Congress on the 
withdrawal?
    Mr. Sullivan. Other than conversations in connection with 
my nomination, no.
    Senator Markey. Is the United States and Russia still in 
compliance with the Treaty?
    Mr. Sullivan. The United States is in compliance. The 
United States' view is that the Russians have not been in 
compliance in certain respects, including overflights over 
Kaliningrad. But we and the Russians and all the signatories of 
the Treaty continue to be members. And as I have said twice 
before, we are chairing the commission that oversees the 
Treaty. This month Ambassador Gilmore is.
    Senator Markey. Do you think the transparency which the 
Treaty creates is in our national interests and that we should 
resolve the ambiguities rather than withdrawing completely from 
it?
    Mr. Sullivan. It has been in our interests, and to the 
extent that it is not, we need to be transparent about why, as 
we were when we withdrew from the INF Treaty.
    Senator Markey. I think it is in our best national security 
interest that we remain in the Open Skies Treaty. It has helped 
us a lot and our allies have been tremendously benefited from 
it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Congratulations. Good to visit with you again.
    I know you have had a lengthy discussion about Russia's new 
strategic nuclear weapons. I wanted to just go back a bit to 
the New START Treaty, which I always believed was a one-sided 
agreement. I voted against it, have major concerns about it. To 
me it was more about reducing the United States' strategic 
nuclear forces but not Russia's forces because that Treaty 
required the United States and Russia to reduce our deployed 
nuclear warheads to numbers that Russia was already below those 
numbers. So I thought it was one-sided, unfair, and we made 
significant reductions to get below the limit.
    So in future arms control negotiations with Russia, are you 
committed to ensuring that the United States is not entering 
into a one-sided arms control agreement where we are a party 
required to make more reductions when Russia is not?
    Mr. Sullivan. Absolutely, Senator. The United States should 
only enter into any Treaty, particularly an arms control 
Treaty, that is in the national interests and security 
interests of the United States.
    Senator Barrasso. Russia, to me, continues to use economic 
instruments and propaganda to achieve its objectives and exert 
influence in Europe. And we see this as we travel in Europe, 
visit with our NATO allies that they try to influence and exert 
control over countries through a variety of means, military 
intimidation, energy dependence, cyber attacks, trade.
    Would you speak to what you see as Putin's ultimate 
objective?
    Mr. Sullivan. Well, particularly with respect to Europe, 
fracturing Europe, particularly Eastern Europe from Western 
Europe. I have spent a lot of time traveling in Eastern Europe 
and the Balkans, which is really a laboratory for Russian 
hybrid warfare, whether it is cyber, disinformation, 
intimidation, et cetera. It is more significant in Ukraine 
where there is actually violence being done on a daily basis 
not only in Donbas, but it is not really well known, but there 
are assassinations in Ukraine that are carried out. It is a hot 
war. There have been 13,000 people that have been killed in 
Ukraine in the Donbas over the last 5 years. So that is not 
just hybrid warfare. That is real warfare.
    Senator Barrasso. So what are the most effective tools and 
leverage points that we could use in trying to change Russian 
behavior?
    Mr. Sullivan. Well, we have talked about some of those 
today, Senator, sanctions, visa and economic sanctions. And 
also we have worked hard with our allies and partners 
particularly in Eastern Europe to harden them and their 
infrastructure, particularly cyber infrastructure against 
intrusions, forward deployment of U.S. assets, and by that I 
mean cyber as well. I think that is very important for us to 
support because they are under stress every day, particularly 
under cyber threats from Russia.
    Senator Barrasso. One of the things that we discussed when 
you came to my office was the issue of Europe's reliance on 
Russian energy and Russia's effort to addict Europe to their 
energy sources. Europe is trying to work on a number of 
initiatives to counter this influence. The European Union 
members at least have identified the risks associated with it, 
although Germany is moving ahead with the pipeline to 
NordStream 2.
    We look at some things that people are trying to do to 
avoid this dependence. Lithuania, as we discussed, created that 
floating LNG terminal called the Independence. There were 
efforts to increase interconnections, reverse flow capacities 
of European pipelines. You can see what they are trying to do 
running up and down in Montenegro and Croatia and that area.
    So despite these efforts, it does seem clear that more 
needs to be done especially in light of Russia's efforts to 
build NordStream 2.
    So as we look at the steps that our allies and partners in 
Europe can take to promote energy security, what efforts do you 
think need to be the top priorities here?
    Mr. Sullivan. Well, the top priority that we have had has 
been opposition to NordStream 2.
    But to address your particular question, Senator, it 
reminds me of my conversation with Senator Markey about 
Ukrainian dependence on Russian gas. And you refer to it as an 
addiction, and Senator Markey used the same term. It is. It is 
creation of dependency to control. And now, having made Ukraine 
dependent, completing that second pipeline is going to provide 
a huge lever. And among the issues that we can use with the 
Ukrainians is increasing energy efficiency, other sources of 
energy, whether it is LNG, or stopping NordStream 2 so that gas 
will continue to flow through Ukraine.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see you again, Ambassador Sullivan. Thank you very 
much for your service to the country.
    You have been asked I think a version of this question in a 
couple different ways, but let me ask it specific to the events 
that we now know took place over the course of the summer and 
fall.
    We have learned now with some certainty, as you have 
testified, that employees of the State Department, people under 
your supervision, specifically Kurt Volker, Gordon Sondland, 
and Bill Taylor, were pressing the Ukrainian government to open 
specific investigations into topics connected to the Biden 
family and alternative theories about who interfered in the 
2016 elections.
    Knowing what you know now about what was happening and 
those specific requests that were being made, do you think the 
actions of those individuals were proper?
    Mr. Sullivan. What they were doing back then, was it 
proper? I would have to think about that. As I have testified 
previously, the concept of investigating a political rival as 
opposed to encouraging anti-corruption reform, which is 
legitimate I think and consistent with our values, that would 
be inconsistent with our values.
    Senator Murphy. And so in this case, they were specifically 
requesting investigations connected to a political rival of the 
President of the United States. And so your testimony is that 
those requests were improper.
    Mr. Sullivan. To the extent that they were made. I am going 
to have to assume that what I read in the--I mean, I am not 
present at the depositions, but what has been reported in the 
press, I have said as a general matter in response to one of 
the first questions from Senator Menendez, that investigation 
of a--asking a foreign government to investigate a domestic 
political rival as opposed to as part of a larger anti-
corruption campaign, which we have been engaged in encouraging 
the Ukrainians for years--those are two different things.
    Senator Murphy. And do you have any reason to believe that 
the reports in the press and the testimony of Ambassador Taylor 
are wrong?
    Mr. Sullivan. I do not. I also do not know that they are 
accurate. I will accept for purposes that hypothetically if 
they are, I will answer the question. I just do not know 
personally.
    Senator Murphy. These, as I mentioned, were individuals 
acting under the auspices of the State Department. And so I 
think it is important for the committee to understand where 
their authority came from, and we talked a little bit about 
this in our private meeting. Did you order Volker, Sondland, 
and Taylor to coordinate with Rudy Giuliani in pressing the 
Ukrainians for these investigations into Burisma or the origins 
of the 2016 interference?
    Mr. Sullivan. I did not.
    Senator Murphy. Did Secretary Pompeo order these 
individuals to request these investigations?
    Mr. Sullivan. Not to my knowledge.
    Senator Murphy. Did John Bolton order these individuals to 
coordinate with Rudy Giuliani in pressing for these 
investigations?
    Mr. Sullivan. I do not have a basis to answer. I do not 
believe so, but I do not know that he did. I have no reason to 
think that he did. I do not have a factual basis to provide a 
definitive answer.
    Senator Murphy. But clearly if these are people under your 
supervision, you did not ask them to undertake these 
activities, I would imagine you would want to get to the bottom 
of that. And so what is your understanding as to where their 
instructions were coming from if they were not coming from you 
or the Secretary of State?
    Mr. Sullivan. Well, they are getting their instructions--a 
charge, Ambassador Taylor, in Kiev is getting instructions from 
the Secretary, from me and for our Under Secretary for----
    Senator Murphy. Right, but on this case, you testified that 
neither you nor the Secretary asked them to request these 
specific investigations. And so where did those instructions 
come from?
    Mr. Sullivan. I do not know.
    Senator Murphy. And have you made any attempt to find out?
    Mr. Sullivan. Since I learned of it in September, I have 
not.
    Senator Murphy. I think that is curious if people operating 
outside of your specific instructions--I think it is curious 
that you would not try to find out.
    Let me just ask a few more quick questions.
    Is it currently the policy of the United States that 
Ukraine must conduct investigations into Burisma and 
Crowdstrike?
    Mr. Sullivan. No.
    Senator Murphy. Why not? If this was the policy over the 
summer, so why is it not the policy now?
    Mr. Sullivan. I had accepted as a hypothetical that that 
was our policy. I do not know that. It is not our policy. Our 
policy has been to encourage anti-corruption reform generally 
in Ukraine. That is something that I have worked on for over 2 
years, but never with respect to a particular investigation or 
company or individual.
    Senator Murphy. Is Rudy Giuliani currently carrying out any 
diplomatic business on behalf of the United States?
    Mr. Sullivan. Not to my knowledge.
    Senator Murphy. So, Mr. Sullivan, I have a great deal of 
respect for the work that you have done. You have toiled under 
difficult circumstances, and I am frankly pleased that you are 
willing to take on this difficult assignment. But your 
testimony as to your lack of interest in asking questions about 
why people under your control were being given direction that 
did not come from you or the Secretary and your lack of 
attempts to delve into what the policy actually was during this 
period of time--you are accepting hypotheticals, but you do not 
seem to have an opinion as to whether it actually was the 
policy of the United States, which by the testimony that the 
House has received, it clearly was to encourage these 
investigations, I do think it is concerning.
    But, again, I appreciate the service you have given the 
country and I appreciate your testimony today.
    The Chairman. Thank you very much.
    Mr. Sullivan, I think my friends on the other side and your 
discussion have kind of sharpened the question that the jury in 
the Senate is going to have to answer, and that is having to do 
with the corruption in the Ukraine.
    You would agree with me that this corruption in Ukraine has 
been going on since they left the Soviet Union. It has been of 
great concern to virtually every administration, Republican, 
Democrat, over that period of time. Would you agree with that?
    Mr. Sullivan. Absolutely. The fact that it has been so 
longstanding in Ukraine is what makes it so difficult to change 
and eradicate now.
    The Chairman. And would you also agree with me that every 
time we discuss this--when I say ``we,'' I mean all of us that 
talk about Ukraine--it is almost impossible to talk about 
conditions there without talking about the corruption in the 
country over the many administrations they have had in the 
Ukraine since they got out from under the Soviet Union. Is that 
a fair statement?
    Mr. Sullivan. Yes. It affects the entire society.
    The Chairman. And having said that, the gas company has 
been right at the heart of that corruption in the Ukraine. Has 
it not?
    Mr. Sullivan. Well, gas is so central to the Ukrainian 
economy, that of course.
    The Chairman. So now we get a situation where people have 
taken this transcript and argued that the President was having 
them investigate a political rival regarding corruption that 
took place in Ukraine. And I think you said and I think 
everyone has said and agrees that if it was strictly a 
political rival to be investigated, that that would be wrong.
    What happens if the political rival is somehow involved in 
corruption in the Ukraine? That becomes a lot dicier question, 
does it not, whether a President has to look the other way if 
indeed a political rival is involved in----
    Mr. Sullivan. I would say so.
    The Chairman. It is going to be a question we are all going 
to deal with at some time in the not too distant future I 
think.
    In any event, thank you for that.
    Senator Coons?
    Senator Coons. Thank you, Mr. Chairman, Ranking Member 
Menendez, for holding today's hearing and, Mr. Deputy 
Secretary, for your distinguished service over many different 
positions across several administrations.
    I greatly appreciate your recognition, both in your public 
testimony and in our private meeting, of the critical work that 
Foreign Service and Civil Service officers do every day and 
their determination, their dedication to forwarding foreign 
policy goals and the national interests of our country aside 
from our partisan politics.
    Nowhere are those goals and interests more important than 
in our work in Russia. Russia, as you agree, attacked and 
undermined our elections in 2016 and continues its influence 
campaign efforts to meddle in democratic processes not just in 
the United States, not just in the United States and Europe. 
There is actually an article in the New York Times today about 
how Russia has launched influence campaigns across Africa in a 
new playbook that features outsourcing and franchising their 
influence campaign. So we all need a comprehensive and 
sustained strategy to blunt that, and it is my hope you will 
get the chance to carry out your commitments to push back 
forcefully on this malign activity by Russia.
    Let me just follow up on a question that you got asked 
before. Senator Kaine asked you--this is in the context of 
Ukrainian corruption that has been at the center of so many 
questions today--Senator Kaine asked you why President Trump 
kept referring Ukrainian President Zelenskyy to discuss all 
issues with Rudy Giuliani and Attorney General Barr. And you 
said President Trump was focused on anti-corruption. If anti-
corruption in Ukraine is such a priority for the President and 
this administration, I am struck--as an appropriator on the 
subcommittee that funds the International Narcotics Control and 
Law Enforcement budget--that in 2019 the administration 
requested a cut in funding to $13 million. Congress rejected 
that and restored funding to $30 million. In 2020, the 
administration again sought to cut that funding to $13 million. 
Congress I think is likely to once again restore it to $30 
million. If this is a great priority, combating corruption in 
Ukraine, for the administration, why does the President's 
budget not reflect that in any of the three budgets he has 
submitted?
    Mr. Sullivan. I think, Senator, the prime obstacle to anti-
corruption reform in Ukraine is not technical or monetary 
support by the United States but the will of the Ukrainian 
government to rein in Ukrainian oligarchs and reform their 
system. We saw this over 2 years in urging President Poroshenko 
to engage in anti-corruption reform, and the will was simply 
not there. And I think that is the biggest obstacle to anti-
corruption reform.
    But can we use that extra money and do an even better job 
on behalf of the United States? Absolutely. Will we be wasting 
that money if there is not a will to engage in anti- corruption 
reform by the Ukrainian leadership? I am afraid that is also 
true.
    Senator Coons. I will just politely disagree with you, if I 
might, that I think that funding is critical for the National 
Anti-Corruption Bureau and the Special Anti- Corruption 
Prosecutor's Office and for restoring some semblance of rule of 
law in a country where corruption is widespread.
    Let me move to one other issue before my time runs out: 
human rights. I am the co-chair of the Human Rights Caucus here 
in the Senate.
    There are hundreds of political prisoners in Russia. The 
Memorial Human Rights Center, a prominent Russian human rights 
organization, says the number of political prisoners has 
increased five-fold in the last 4 years.
    If confirmed, what will you do to draw attention to 
Russia's political prisoners and push for their release?
    Mr. Sullivan. I would point out, in fact, that I believe 
the rate at which the Russian government is incarcerating 
political prisoners is increasing, not decreasing. Shining a 
light and being transparent about what actually is going on and 
being public about it I think is the first step. And it is 
urging the Russian government to abide by its own laws and 
treat its people right.
    Senator Coons. The Senate unanimously passed earlier this 
year Senate Resolution 81, which I supported and helped draft. 
It condemns President Putin for targeting political opponents 
and working to cover up some of their actions, in particular 
the assassination of opposition leader Boris Nemtsov. And that 
resolution from the Senate urges our government officials to 
raise the case of Nemtsov's assassination.
    If confirmed, are you committed to raising this issue with 
senior Russian officials, including President Putin?
    Mr. Sullivan. Yes, I am.
    Senator Coons. Thank you.
    And Russian authorities continue to target the LGBTQ 
community despite condemnation from governments around the 
world. Will you commit to discussing, raising, and pressing 
LGBTQ rights with your Russian counterparts?
    Mr. Sullivan. Enthusiastically.
    Senator Coons. Thank you. I appreciate your appearing 
today. As a number of my colleagues have testified or have 
mentioned in their comments, we need a forceful presence in 
Moscow, and I appreciate that we have had this opportunity to 
talk today and look forward to working with you. Thank you.
    Mr. Sullivan. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Menendez?
    Senator Menendez. Thank you.
    You know, Mr. Secretary, I get struck by you as an 
honorable man. But I also get struck as someone who, in the 
role that you have had, has played the role of see no evil, 
hear no evil, speak no evil. So I am going to give you a chance 
to prove me wrong.
    Ambassador Sondland is Ambassador to the EU. Is that 
correct?
    Mr. Sullivan. That is correct.
    Senator Menendez. Ukraine is not part of the European 
Union. Is that correct?
    Mr. Sullivan. That is correct.
    Senator Menendez. Did you know what Ambassador Sondland was 
up to as it relates to Ukraine?
    Mr. Sullivan. I was aware that he had been tasked with the 
President with working with our other colleagues who were 
involved in Ukraine policy and assisting them.
    Senator Menendez. Now, when you responded to Senator 
Shaheen and to some extent Senator Kaine about Rudy Giuliani 
and that sometimes private citizens have a role, you are not 
suggesting that what Mr. Giuliani did in this case was kosher, 
okay, or correct.
    Mr. Sullivan. I cannot offer a judgment that what he did 
was kosher or correct because I am not sure exactly what he was 
up to in toto with respect to Ukraine.
    Senator Menendez. So you are the number two person at the 
State Department. You had no idea what he was doing as it 
relates to Ukraine although you knew he was doing something as 
it relates----
    Mr. Sullivan. I would not say it would be accurate to say I 
knew nothing. I was particularly aware of the campaign against 
our Ambassador in Kiev.
    Senator Menendez. But outside of that, you did not know 
what else he was doing.
    Mr. Sullivan. I was not aware of what he was doing or his 
purpose.
    Senator Menendez. Would you say that Putin and in Russia 
there is corruption? Would you say that in Putin and Russia 
there is corruption?
    Mr. Sullivan. Absolutely.
    Senator Menendez. Would you say the same thing about Mr. 
Orban in Hungary?
    Mr. Sullivan. I think corruption is endemic across----
    Senator Menendez. Yet these two people are the two people 
who were talking to the President about corruption in Ukraine.
    You also seem to suggest--and you are a very able attorney. 
You also seem to suggest a couch that the reason that these 
conversations were taking place, the money was being held was 
about corruption in Ukraine. Is that a fair statement?
    Mr. Sullivan. I did not know it at the time. My 
characterization of what the President was saying now was that 
it was about anti-corruption reform. And if you had asked me--
--
    Senator Menendez. You are characterizing his statements.
    Mr. Sullivan. Yes.
    Senator Menendez. But your own view--why was money being 
held?
    Mr. Sullivan. So as I think I have said to some members of 
the committee, if you had asked me in July, I was aware that 
money was being withheld. We had a number of requests----
    Senator Menendez. Did you ask why?
    Mr. Sullivan. Excuse me?
    Senator Menendez. Did you ask why money was being held?
    Mr. Sullivan. I did not.
    Senator Menendez. You did not.
    Mr. Sullivan. But I was aware that we had requests of the 
Ukrainian government not just on anti-corruption reform, but 
energy reform, and economic reform, all of which was important 
to----
    Senator Menendez. But none of that conversation has come 
forth even under the President's conversation. It is all about 
corruption. Right?
    Mr. Sullivan. That was that July 25th call, yes.
    Senator Menendez. But in fact, the Department of Defense, 
in coordination with the Secretary of State certified in May of 
this year, prior to this call that the President had, that 
Ukraine had made sufficient reforms to decrease corruption and 
increase accountability and could ensure accountability for 
U.S. military equipment. As a matter of fact, that 
certification by the Department of Defense, in cooperation with 
the Secretary of State, the person immediately above you, not 
only took place then, but it took place prior to that on July 
13 of 2018 and then, of course, May 23rd of 2019.
    So if DOD and State had already certified that Ukraine had 
made progress on corruption, what was left to review?
    Mr. Sullivan. For purposes of our assistance that was being 
provided to Ukraine, that that assistance would not be diverted 
for corrupt purposes. In fact, I recall a conversation with 
Secretary Mattis back in 2018 about those issues in providing 
that assistance.
    Senator Menendez. So what did you do to dislodge the money? 
Nothing? What did you do to dislodge the money?
    Mr. Sullivan. To dislodge the money, I did not personally 
take any actions.
    Senator Menendez. Did you call OMB?
    Mr. Sullivan. No. I had conversations about OMB. My 
perspective was that there were a number of programs that 
funding was being held for, including the Northern Triangle 
countries. My focus at the time in August and into September 
was on the funding for the Northern Triangle countries. I was 
leaving it to our Ambassador, Ambassador Taylor, Volker and so 
forth. I was informed. In fact, I went up to testify before the 
House Appropriations subcommittee on Northern Triangle----
    Senator Menendez. I appreciate that. I am focused on the 
position for which you are nominated.
    Mr. Sullivan. Yes, and that was the day I was told--I was 
handed a note that informed me, among other things, that the 
Ukrainian assistance--I believe it was September 11--the hold 
had been lifted.
    Senator Menendez. Mr. Chairman, I ask unanimous consent to 
introduce into the record the letter of the Under Secretary of 
Defense directed to you as the chairman of the committee, May 
23rd, 2019.
    The Chairman. That will be entered.


    [The information referred to is located in the ``Additional 
Material Submitted for the Record'' section of this hearing 
transcript.]


    Senator Menendez. Mr. Secretary, just a couple of other 
final questions here.
    Is it not true that Russia illegally occupies Crimea, 
continues to conduct attacks in eastern Ukraine?
    Mr. Sullivan. Absolutely.
    Senator Menendez. Is it not true that more than 13,000 
Ukrainian troops and civilians have been killed in the conflict 
since 2014?
    Mr. Sullivan. I believe I testified to that earlier.
    Senator Menendez. Is it not true that Russia conducted a 
chemical weapons attack in the United Kingdom in 2018?
    Mr. Sullivan. It did and we expelled----
    Senator Menendez. Is it not true that Russia assaulted our 
elections in 2016 using cyber attacks and disinformation?
    Mr. Sullivan. Indeed.
    Senator Menendez. Is it not true that Russia illegally 
occupies part of Georgia's territory?
    Mr. Sullivan. Part of?
    Senator Menendez. Is it not true that Russia illegally 
occupies part of Georgia's territory?
    Mr. Sullivan. Yes, indeed.
    Senator Menendez. Is it not true that Russia's bombing 
campaign in Syria also involved bombing innocents?
    Mr. Sullivan. I am sorry?
    Senator Menendez. Did the Russian bombing in Syria--the 
campaign--also bombing innocents?
    Mr. Sullivan. I believe so.
    Senator Menendez. Now, so we have established that the 
Kremlin behavior continues to pose a national security threat 
to the United States. Congress sought to address through the 
Countering America's Adversaries Through Sanctions Act that 
passed 98 to 2 and the President signed into law.
    So does it help or hinder U.S. national security when 
President Trump characterizes Russia's interference as a hoax?
    Mr. Sullivan. The United States government has not accepted 
that it is hoax. The United States government's position, led 
by President Trump, is we are dedicated to stopping it. We 
acknowledge that it occurs, is ongoing, and we are doing all we 
can to stop it.
    Senator Menendez. Does it help or hinder national security 
when President Trump jokes about election interference from 
President Putin?
    Mr. Sullivan. As I said, we are--I am devoting a huge 
amount of my time as Deputy Secretary to countering Russian 
election interference, and that is at the direction of the 
President.
    Senator Menendez. Does it help or hinder when the President 
redirects millions of dollars from the European Deterrence 
Initiative that is to help us in deterrence to Russia to pay 
for a border wall?
    Mr. Sullivan. That was the President's judgment and a 
national security priority.
    Senator Menendez. Yes. So here is the problem. You are 
going to go to Russia, and you are going to be saying one set 
of things based upon your testimony here today and private 
conversations you had with members. But we have the President 
who, in his public statements, is totally aligned differently 
than what you are going to be saying. Do you understand the 
incredible difficult job that you are going to have as a result 
of that?
    Mr. Sullivan. Well, what I would say, Senator, is--and you 
have cited the President's statements--I would cite the 
President's actions. You mentioned the nerve agent that was 
used in Salisbury. We expelled 60 undeclared--the President 
expelled 60 undeclared Russian intelligence officers in 
response. We have imposed sanctions on probably 350 Russian 
individuals and organizations, including under CAATSA and for 
election interference. So I think the President's actions speak 
very loudly in this, and Secretary Pompeo has said that this 
administration, this President, is firmly committing to 
confronting Russia in all these areas that you have listed----
    Senator Menendez. Overwhelmingly, those sanctions have been 
forced by the hand of Congress particularly in the legislation 
after having fashioned sanctions in Iran and other places, 
including Russia, in a way that provided very little discretion 
because, on a bipartisan basis, there was concern.
    Finally, let me just ask you this because I am trying to 
find a way forward on your nomination. The Department that you 
help run has tried to block individuals from testifying before 
Congress, something that I find appalling, because Article I of 
the Constitution, not Article II, not Article III--Article I of 
the Constitution ultimately provides as a check and balance on 
any administration, this or anyone in the future--forcing them 
to either choose between defying Congress or their superiors. 
This Department has sent them letters that appear to aim at 
scaring them out of appearing before Congress.
    Is this the type of support and protection you think that 
our public servants deserve?
    Mr. Sullivan. Well, I would say that the actions that the 
Department has undertaken, led by the Secretary, has been on 
the advice of counsel, not only State Department counsel but 
White House counsel as well, and direction from the White 
House.
    Senator Menendez. Why is the Department working to prevent 
employees from testifying before Congress?
    Mr. Sullivan. Well, as has been laid out in an extensive 
letter from the counsel to the President, the rationale is laid 
out there.
    Senator Menendez. Now, I understand the House is directing 
its request to you--is that correct--on these issues?
    Mr. Sullivan. They have, yes.
    Senator Menendez. Now, I would like to enter the letter 
from the House to Mr. Sullivan into the record, Mr. Chairman.
    The Chairman. It will be entered.


    [The information referred to is located in the ``Additional 
Material Submitted for the Record'' section of this hearing 
transcript.]


    Senator Menendez. Have you responded to them?
    Mr. Sullivan. I do not believe so. The letter was addressed 
to me, but--I personally have not. The letter has been 
addressed to me in the misunderstanding that the Secretary has 
recused himself.
    Senator Menendez. So the Secretary has not recused himself.
    Mr. Sullivan. The Secretary has not.
    Senator Menendez. So even though these information requests 
are coming to you, you are, in essence, turning them over to 
the Secretary.
    Mr. Sullivan. Correct. And I did not ask that they be sent 
to me. They have decided to send them to me.
    Senator Menendez. Finally, I ask a request to enter a 
series of letters into the record by--correspondence between 
the State Department and myself and letters from myself to the 
State Department, all of which have gone unanswered.
    The Chairman. Those will be entered.


    [The information referred to is located in the ``Additional 
Material Submitted for the Record'' section of this hearing 
transcript.]


    The Chairman. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Let me start by observing, as we sit in these august 
chambers from the storied committee above which the ghost of 
Henry Cabot Lodge, no doubt, looks down. I feel compelled to 
observe that the distinguished Senator from Virginia is 
choosing this moment to mock me for his Nationals beating my 
Astros last night in game 6 back in Houston.
    [Laughter.]
    Senator Cruz. And I will only say that there is a virtue to 
patience, and at this time tomorrow, one or the other of us 
will be on the losing side of a wager and wearing the colors of 
the winning team. So I look forward hopefully to 24 hours from 
now, my good friend, Senator Kaine.
    The Chairman. I cannot wait to see how that comes out 
either way.
    [Laughter.]
    Senator Cruz. Mr. Sullivan, welcome. Congratulations on 
your nomination. I am not sure what you did at State to merit 
being sent to Siberia, but congratulations nonetheless. I have 
every confidence that you will perform ably in this new role.
    Let us talk about some different aspects of Russia. Russia, 
as you know, has a long history of using energy as a weapon, 
and one of the tools that I believe poses a real threat for 
strengthening Russia, for weakening Europe, and for weakening 
America is the NordStream 2 pipeline.
    Can you give me your assessment of the regional and global 
impact of Russia's NordStream 2 pipeline if the construction is 
completed?
    Mr. Sullivan. I think it is going to be extremely 
detrimental to Ukraine. It is going to give the Russian 
Federation an enormous lever over Ukraine and a hammer that 
they can hit the Ukrainians with. If the Russians cut gas 
transit through Ukraine, Ukraine will lose billions in hard 
currency that is desperately needed for its economy.
    So the President has been as vociferous as he has been on 
almost any issue I have seen in opposing NordStream 2 and 
urging our NATO allies and particularly Germany to not 
cooperate in committing this pipeline because of the damage it 
will do to Ukraine. And we have not succeeded to date in 
convincing them to stop their cooperation.
    Senator Cruz. As you know, this committee has passed by an 
overwhelming bipartisan margin my legislation with Senator 
Shaheen to stop that pipeline from being completed. But the 
window for passing that legislation into law and stopping it--
that window is shrinking.
    What would the benefits be if we can finish the job and 
stop that pipeline from ever being completed?
    Mr. Sullivan. Well, we had this conversation in your office 
a few days ago about whether we have reached the point where 
the Russians can complete that pipeline because we have been 
saying for some time that it is over 80 percent complete, but 
construction has continued. There has been a holdup because of 
environmental reviews by Denmark, but those are not going to 
last forever. Those will be lifted soon.
    My concern is we may have already reached a point where the 
Russians will have resources and the ability to complete the 
pipeline no matter what we do, in which case imposing sanctions 
now will not stop the pipeline. It will impose a cost on Russia 
to be sure, maybe a substantial cost, but it would not stop the 
pipeline. I do not know that we have reached that point yet, 
though.
    Senator Cruz. Although the Russians lack the technology to 
lay the deep sea pipeline, so they have to rely on outsourcing.
    Mr. Sullivan. That is where I--and we discussed this. I 
think we need to discuss with some experts on that whether what 
they have left to do, the little stub that is left, whether 
they could complete that on their own. They would have to 
reposition assets that they are using elsewhere, but given the 
amount that has already been invested in the length of the 
pipeline that is already completed, it may be that they are 
already capable of doing that.
    Senator Cruz. Let us shift to the New START Treaty, which 
has been restricting our options and ability to defend 
ourselves while doing very little to modify Russia's malign 
behavior. The Trump administration rightly withdrew from the 
INF Treaty earlier this year. New START is slated to expire in 
February of 2021. Does the administration believe continued 
adherence is in the U.S. national security interest, or will we 
let the Treaty lapse?
    Mr. Sullivan. Our position is that we should engage with 
the Russians now in discussions about including those weapon 
systems, which you and I have discussed previously, which are 
not covered by the Treaty which President Putin has been 
publicizing.
    The problem that I foresee is if we were simply to extend 
New START now without touching those other systems, which the 
Russians have been investing in, we are tying our hands and not 
limiting where the Russians see their growth in their defense 
budget and their strategic assets.
    Senator Cruz. So one final question, shifting to another 
Treaty, the Open Skies Treaty with Russia. I have long been 
skeptical about this Treaty and, a couple of years ago, offered 
language in the National Defense Authorization Act conditioning 
U.S. compliance with it, as I have offered language on the NDAA 
concerning New START as well.
    What is your assessment of the effectiveness of the Open 
Skies Treaty? In my view, it exposes vulnerabilities in terms 
of opening ourselves up to monitoring in a way that does not 
gain us anything for Russia but gains Russia quite a bit. What 
is your assessment?
    Mr. Sullivan. I am not sure I can go into great detail in 
an open session like this, but there are intelligence community 
assessments on that very question.
    What I have been most concerned about is if we were to 
reach that decision, informed by intelligence community 
analysis and so forth, that it no longer was in the United 
States' interest to continue with the Treaty, that we would 
need to engage in--we, the administration--a consultation 
process with this committee, with Congress, and with our allies 
as we did with the INF Treaty. The most important thing in my 
opinion that we did with our withdrawal from the INF Treaty was 
getting unanimity at the NAC among our NATO allies that Russia 
has been and is in violation of the INF Treaty. And we need to 
do that as well to make sure we did not do damage to our NATO 
alliance and explain why we were withdrawing, if that decision 
were to be made.
    Senator Cruz. Thank you.
    The Chairman. Thank you.
    For those members of the committee who have not seen it, 
there are briefings available in the secured facility, and I 
would urge everybody to take a look at those regardless, as 
this discussion goes forward. I think it is important that 
everybody have the information at hand.
    Senator Cruz, before you got here, we had a discussion 
giving you and Senator Shaheen credit for the work on the 
NordStream 2, and with all due respect, I think regardless of 
whether we are past the point of no return or not, I think your 
bill needs to be pursued. And as you know, you and I are trying 
to find a path forward. Well, we found we path forward on that. 
We are going to try to make that happen. And I think almost 
everyone is in agreement with that.
    Senator Murphy, I understand you want another bite of the 
apple. Oh, Senator Kaine too? Okay.
    Senator Murphy. Yes, thank you. Just a few more additional 
questions.
    You testified earlier that it is not without precedent for 
the President to use individuals outside of the State 
Department to conduct conversations with foreign governments, 
and that is true. There is a long history of Presidents seeking 
advice outside of the State Department and occasionally using 
channels outside of the State Department. I would argue that 
there is really no precedent for what Rudy Giuliani was doing, 
which was using his access to the President as a means to try 
to score political points on the President's behalf with 
foreign nations.
    But for the purposes of this hearing, Rudy Giuliani does 
not actually say that he was acting simply at the direction of 
the President. He says he was acting at the direction of the 
State Department. In fact, he says, ``You know who I did it at 
the request of''--speaking about his conversations with 
Ukraine--``The State Department. I never talked to an Ukrainian 
official until the State Department called me and asked me to 
do it.''
    So did the State Department call Rudy Giuliani and ask him 
to have these conversations with Ukrainian officials?
    Mr. Sullivan. My recollection is that that is a reference 
to his communications with Kurt Volker, who was a special 
representative for Ukraine, and perhaps even Gordon Sondland as 
well. But I think in particular my recollection is that quote 
is in reference to communications he has had with Kurt Volker.
    Senator Murphy. You nor the Secretary asked Rudy Giuliani 
to carry out any diplomatic efforts.
    Mr. Sullivan. I did not, and I am not aware that the 
Secretary did either.
    Senator Murphy. And so to the extent that he is reporting 
back individuals, you believe he is referring to the others we 
have discussed.
    Mr. Sullivan. Kurt Volker in particular.
    Senator Murphy. The second question is--I want to support 
your nomination. You know that I believe in you as a public 
servant. I am having a little hard time understanding your 
reluctance to make a conclusion as to what the policy of the 
United States was over the course of the summer because you 
have seen the July 25th transcript, you have read the 
testimony, you have seen the texts. And I hope that you have 
conducted your own investigation.
    So let me just sort of ask the question I asked earlier 
again. Is it your understanding that it was the policy of the 
United States to press the Ukrainian government to conduct 
investigations into Burisma and alternative theories about the 
2016 election interference? I understand that you may not have 
been part of these efforts, but is it now your opinion that 
that was the policy of the United States, having read the 
transcript of the call with the President and seeing all this 
other evidence?
    Mr. Sullivan. So the President has been clear in his 
subsequent statements about there not being--the phrase that 
has been used is a ``quid pro quo.'' We are talking about the 
foreign----
    Senator Murphy. That is not what I am asking.
    Mr. Sullivan. I understand. You are talking about the 
policy.
    Senator Murphy. Was it our policy to request these specific 
investigations related to Burisma and related to relitigating 
or at least looking into alternative theories about the 2016 
election interference.
    Mr. Sullivan. Sure. So my understanding is that there was, 
as part of our general anti-corruption policy, encouraging 
anti-corruption reform in Ukraine, from reading the transcript 
of or the summary of the July 25th call, that looking at, as 
the Chairman mentioned, that gas company and board member and a 
U.S. person involvement was certainly mentioned by the 
President and therefore part of U.S. policy.
    What the President has denied was that there was any quid 
pro quo.
    Senator Murphy. Do you have knowledge that the President 
has ever raised any other specific corruption investigations 
that he wishes Ukraine to undertake other than the 
investigation related to Joe Biden and the investigation 
related to the 2016 election interference?
    Mr. Sullivan. Not specific investigations, but he has been 
emphatic about the need for anti-corruption reform generally in 
Ukraine.
    Senator Murphy. Again, I think as we sort of move forward 
on how to proceed as a Senate, I just do not buy this idea that 
there was general interest in corruption given the fact that 
the President has only raised two of these issues in the phone 
call. But I have no doubt that you care about the issue of 
corruption in Russia, Ukraine, and the region, and I hope you 
pursue it vigorously, as you have testified to before this 
committee.
    The Chairman. Thank you, Senator Murphy. I have no doubt 
you will get an opportunity to express yourself in a vote on 
the floor on this issue at some point in time.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thanks for holding 
this hearing.
    And I just want to acknowledge my colleague from Texas. 
Should the Astros win tonight in game 7, I will be wearing 
Astros gear and serving his staff Chesapeake crab cakes and 
Catoctin whiskey. Should the Nationals win, continuing the 
already historic trend of the visiting team winning every game 
thus far in the series, which has never happened past five 
games, he will wear Nationals gear and serve my staff Texas 
barbecue and Shiner beer. I would rather win than lose, but 
either way, a group of hardworking and ill-fed staffers will be 
having a cuisine far above their station in life.
    [Laughter.]
    Senator Kaine. So I am going to feel good about that.
    Mr. Sullivan. Is it permissible for me, although I have 
been a Marylander for almost 30 years, I am----
    The Chairman. If you want to get confirmed, I think I would 
stay out of this.
    [Laughter.]
    The Chairman. It is up to you.
    Mr. Sullivan. No. I just wanted to note that until tonight, 
the pending World Series champions are the Boston Red Sox.
    [Laughter.]
    Senator Kaine. Fair enough.
    Senator Cruz. I am afraid this nomination cannot proceed.
    [Laughter.]
    Senator Kaine. Deputy Sullivan, a couple more questions.
    I went through a line of questions with you about when 
President Zelenskyy brought up sanctions, President Trump did 
not say talk to the State Department or the Ambassador. He said 
talk to Attorney General Barr and Rudy Giuliani. When President 
Zelenskyy brought up military aid, President Trump did not say 
talk to the Secretary of Defense or the Ambassador. He said 
talk to Attorney General Barr and Rudy Giuliani. When he 
brought up energy and trade, he did not say talk to the 
Secretary of Commerce Trade Rep. He said talk to Attorney 
General Barr and Rudy Giuliani.
    Your explanation for that--and you are not President 
Trump--your understanding of it is the call was about 
corruption.
    Now, if the call was about corruption, I guess I could 
understand the President saying talk to Attorney General Barr, 
but why Rudy Giuliani?
    Mr. Sullivan. I think Rudy Giuliani, as the President's 
personal attorney and friend and outside advisor, had been 
talking to him about Ukraine, including about, as we have 
discussed previously, our mission to Ukraine.
    Senator Kaine. But you stated, as far as you know, he was 
not pursuing any policy for the State Department, as far as you 
know.
    Mr. Sullivan. To the extent that he was coordinating with 
the State Department, he was coordinating with the individuals 
that had been--Volker and----
    Senator Kaine. To the extent that. But do you know whether 
he had coordinated with them?
    Mr. Sullivan. I do not.
    Senator Kaine. I know that says that he did, but do you 
have any knowledge that he was coordinating?
    Mr. Sullivan. I have not spoken to Kurt about that.
    Senator Kaine. Was the State Department paying Rudy 
Giuliani for this?
    Mr. Sullivan. No.
    Senator Kaine. To your knowledge, was the U.S. government 
paying Rudy Giuliani----
    Mr. Sullivan. I have no idea. I would be surprised. I have 
no idea.
    Senator Kaine. Do you know whether he was getting paid at 
all, whether by President Trump or the Trump campaign or third 
parties, including foreign individuals or organizations?
    Mr. Sullivan. I have not the faintest idea. I do not know.
    Senator Kaine. Okay.
    Were you involved in any discussions about Turkey sanctions 
that were mandated by Congress due to the Turkish purchase of 
Russian air defense systems?
    Mr. Sullivan. Yes.
    Senator Kaine. And tell us a little bit about that. We have 
been frustrated here.
    Mr. Sullivan. I know.
    Senator Kaine. We do not think the sanctions have been put 
in place after the S-400 purchase.
    Mr. Sullivan. Right.
    Senator Kaine. Explain your involvement.
    Mr. Sullivan. Well, I have been involved for--it is a long 
time now. I mean, this deal has been pending for quite some 
time. Working with then-Secretary Mattis and Chairman Dunford 
and now Secretary Esper and Chairman Milley, along with my 
colleagues at the State Department, as this committee well 
knows, the U.S. has withdrawn Turkey from the F-35 program 
because of the S-400 acquisition.
    The question that is on the table is CAATSA sanctions and 
whether this is a significant transaction. I find it difficult 
to characterize it as insignificant given that we have 
sanctioned China for purchasing--along with aircraft--for 
purchasing the S-400 system.
    What we are still working to do and we have not reached 
that point yet is to convince the Turks to undo--as a NATO 
ally, to undo the damage they have done already by taking the 
system on board before it becomes operational and starts 
paying----
    Senator Kaine. Is it your testimony today that there is 
still a difference of opinion within the administration about 
whether the purchase of the S-400 is a significant transaction?
    Mr. Sullivan. I do not know that----
    Senator Kaine. Well, when you say if it is a significant 
transaction, then statutorily the CAATSA sanctions come into 
play.
    Mr. Sullivan. Correct.
    Senator Kaine. It is only if it is not a significant 
transaction.
    Is there a difference of opinion that you are aware of 
within the administration about whether this purchase was a 
significant transaction?
    Mr. Sullivan. I have not been involved in the legal 
discussions about parsing the statutory language. I am giving 
you my impression from my participation in the discussions----
    Senator Kaine. Let me ask one more question.
    Last week, in response to a question from Senator Menendez, 
the State Department Syria Envoy Jeffrey testified that he was 
not consulted prior to the President's decision to withdraw 
U.S. troops from the Kurdish region of northern Syria. Do you 
know if anyone at the State Department was consulted prior to 
that decision?
    Mr. Sullivan. I believe the Secretary at a minimum was 
involved.
    Senator Kaine. Do you know for certain based on 
conversations with him that he was----
    Mr. Sullivan. I have had conversations with him about it, 
and it has certainly been the case for anybody involved in 
Syria policy that it was well known the President's desire to 
withdraw our troops from Syria. This has been a topic of 
discussion going back----
    Senator Kaine. Last December.
    Mr. Sullivan.--years, including December of 2018 when 
Secretary Mattis resigned.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman. Thank you.
    With that, our sincere thanks. I think this has been a 
productive discussion. It focused our view on some of these 
issues. And your help is greatly appreciated.
    For the information of members, the record will remain open 
until the close of business on Friday, including for members to 
submit questions for the record.
    Again, thank you for your service. Thank you for your 
agreement to serve further. Thank you to your family for the 
sacrifice it is going to take.
    This committee will be adjourned.


    [Whereupon, at 12:20 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record

                              ----------                              


      Responses to Additional Questions for the Record Submitted 
        to Hon. John Joseph Sullivan by Senator Robert Menendez

Department Employees Testifying and Subpoena Compliance
    Question. You said in your nomination hearing, ``there would be no 
greater honor for me, if confirmed as the U.S. Ambassador to Russia, 
than to serve with the dedicated women and men and their families who 
constitute our mission in Russia.Dedicated career officers from across 
the U.S. government are serving with distinction in the wake of massive 
staff cuts, uncertainty, and intense pressure from the host 
government.''

 Do you commit that none of the individuals who have testified 
        before the House related to the Ukraine/impeachment inquiry 
        will be subject to any retaliatory action, demotion, 
        reassignment, transfer, or curtailment of duties or assignment 
        for giving testimony to Congress? Please describe in details 
        the steps you are taking or will take to ensure that these 
        actions do not take place.

    Answer. I am committed to ensuring all Department personnel are 
protected from prohibited personnel practices. I am not aware of any 
personnel action with regard to any individuals who have testified 
before the House inquiry.
    The Department has numerous safeguards in place for personnel to 
report prohibited personnel practices. I have personally directed the 
Department's publication of the rules that protect personnel who report 
wrong-doing, and continue to encourage personnel to come forward if 
they believe there are valid instances of waste, fraud, or abuse. If 
confirmed to serve as Ambassador to Russia, I look forward to 
continuing to uphold these longstanding Department policies and 
practices.

    Question. Do you commit that the Department will not seek to 
interfere with, block, preclude, or dissuade any Department employee or 
former Department employee from providing any testimony to Congress 
related to Ukraine/impeachment?

    Answer. While I have not been directly engaged in responding to the 
impeachment inquiry, I understand that the Department has been 
consistent in relying upon instructions and advice from the White House 
Counsel's Office and the Department of Justice. I am enclosing an 
October 8 letter from White House Counsel Pat Cipollone and a November 
1 letter from Assistant Attorney General Steve Engel.

    Question. Do you commit that the Department will cease sending any 
form of written or oral communication to any Department employee or 
former employee that has the direct or indirect purpose of seeking to 
dissuade an individual from testifying before Congress on Ukraine/
impeachment?

    Answer. While I have not been directly engaged in responding to the 
impeachment inquiry, I understand that the Department has been 
consistent in relying upon instructions and advice from the White House 
Counsel's Office and the Department of Justice. I am enclosing an 
October 8 letter from White House Counsel Pat Cipollone and a November 
1 letter from Assistant Attorney General Steve Engel.

    Question. On what legal basis has the State Department been 
directing Department employees not to appear voluntarily before 
Congress to provide testimony?

    Answer. While I have not been directly engaged in responding to the 
impeachment inquiry, I understand that the Department has been 
consistent in relying upon instructions and advice from the White House 
Counsel's Office and the Department of Justice. I am enclosing an 
October 8 letter from White House Counsel Pat Cipollone and a November 
1 letter from Assistant Attorney General Steve Engel.

    Question. On what legal basis has the State Department been 
directing former Department employees not to appear voluntarily before 
Congress to provide testimony?

    Answer. While I have not been directly engaged in responding to the 
impeachment inquiry, I understand that the Department has been 
consistent in relying upon instructions and advice from the White House 
Counsel's Office and the Department of Justice. I am enclosing an 
October 8 letter from White House Counsel Pat Cipollone and a November 
1 letter from Assistant Attorney General Steve Engel.

    Question. On what legal basis has the State Department been 
directing Department employees not to appear before Congress in 
response to duly authorized subpoenas?

    Answer. While I have not been directly engaged in responding to the 
impeachment inquiry, I understand that the Department has been 
consistent in relying upon instructions and advice from the White House 
Counsel's Office and the Department of Justice. I am enclosing an 
October 8 letter from White House Counsel Pat Cipollone and a November 
1 letter from Assistant Attorney General Steve Engel.

    Question. On what legal basis has the State Department been 
directing former Department employees not to appear before Congress in 
response to duly authorized subpoenas?

    Answer. While I have not been directly engaged in responding to the 
impeachment inquiry, I understand that the Department has been 
consistent in relying upon instructions and advice from the White House 
Counsel's Office and the Department of Justice. I am enclosing an 
October 8 letter from White House Counsel Pat Cipollone and a November 
1 letter from Assistant Attorney General Steve Engel.

    Question. Do you believe the executive branch should comply with 
congressional subpoenas?

    Answer. Yes, but subject to well established constitutional and 
legal protections for Executive Branch interests in certain appropriate 
cases. With respect to the House impeachment inquiry, I have not been 
directly engaged in responding to this inquiry. I understand that the 
Department has been consistent in relying upon instructions and advice 
from the White House Counsel's Office and the Department of Justice. I 
am enclosing an October 8 letter from White House Counsel Pat Cipollone 
and a November 1 letter from Assistant Attorney General Steve Engel.

    Question. What are you doing to ensure that the Department is 
responsive and provides documents to Congress, including in response to 
the House inquiry on Ukraine?

    Answer. The Department complies with congressional requests for 
documents, subject to well-established constitutional and legal 
protections for Executive Branch interests in certain appropriate 
cases. With respect to the House impeachment inquiry, I have not been 
directly engaged in responding to this inquiry. I understand that the 
Department has been consistent in relying upon instructions and advice 
from the White House Counsel's Office and the Department of Justice. I 
am enclosing an October 8 letter from White House Counsel Pat Cipollone 
and a November 1 letter from Assistant Attorney General Steve Engel.

    Question. Will the Department be providing documents in response to 
the House inquiry on Ukraine?

    Answer. The Department has been collecting and reviewing its 
records in relation to the House subpoena. With respect to the House 
impeachment inquiry, I have not been directly engaged in responding to 
this inquiry. I understand that the Department has been consistent in 
relying upon instructions and advice from the White House Counsel's 
Office and the Department of Justice. I am enclosing an October 8 
letter from White House Counsel Pat Cipollone and a November 1 letter 
from Assistant Attorney General Steve Engel.

State Department Personnel, Retaliation, and Retention
    Question. Does the Department have a formal retention program that 
provides guidance and support to those contemplating resignation?

    Answer. The Department has many programs that are designed to 
retain employees, which are not necessarily packaged as a formal 
retention program: telework, alternate work schedules, student loan 
repayment, employee consultation services, Domestic Employee 
Teleworking Overseas, and many others. Foreign Service officers and 
specialists are each assigned a Career Development Officer who provides 
career guidance. The Department conducts and provides data analytics 
and quarterly retention trend analysis for the different services and 
performs studies across all demographics.

    Question. Do you or does anyone from the Department interview 
personnel resigning from the Foreign Service?

    Answer. When Foreign Service officers resign, they are asked to 
fill out an exit survey. This tool is currently being enhanced to be 
deployed electronically on a global platform in order to provide data 
analytics and reveal underlying pattern and trends. In addition, I have 
met with many officers retiring or resigning from the Foreign Service 
or the Civil Service to solicit their views on the Department and our 
work.

    Question. What steps does the Department take to ascertain the 
reasons why employees are retiring or leaving the Department?

    Answer. Although the Department has conducted exit surveys in the 
past, we are in the process of revamping that system to ensure 
widespread and uniform participation. We expect to launch the new exit 
survey before the end of the year, and plan to follow it up with a 
`stay' survey, as an additional mechanism to enhance our understanding 
of any issues around retention. In addition, I have met with many 
officers retiring or resigning from the Foreign Service or the Civil 
Service to solicit their views on the Department and our work.

    Question. What is your assessment of the Department's ability to 
retain experienced and talented employees?

    Answer. The Department's retention rates have remained steady over 
the long-term. Nevertheless, we are committed to enhancing workplace 
flexibilities and overall workforce agility in order to ensure we 
remain an employer of choice and competitive in today's talent market.

    Question. In your opinion, what are the minimum qualifications that 
an individual should possess to be nominated for a Senate-confirmed job 
at the State Department or USAID? What are the ideal qualifications?

    Answer. All nominees must be of trustworthy character and in 
compliance with all ethics rules and requirements. An individual 
nominated for a Senate-confirmed position should offer experience and 
success leading a multi-faceted team to achieve a shared mission. The 
individual should have an understanding and appreciation of foreign 
affairs, diplomacy and national security.

    Question. What steps are you and the Department taking to ensure 
whistleblowers know their rights, know how to raise concerns through 
appropriate channels, and are not subject to retaliation for exercising 
their rights?

    Answer. I have personally advised Department employees on their 
rights and the many avenues to raise concerns without fear of 
retaliation, including to the Inspector General. As Deputy Secretary of 
State, I sent two Department-wide email messages to all personnel 
regarding the rights of and protections for whistleblowers.
    I have been an advocate for ensuring that all employees have access 
to information on whistleblower protections and where to report 
concerns, through policies published in the Foreign Affairs Manual, 
Department Notices and cables to personnel abroad, information on the 
Bureau Human Resources website and that of the Office of the Inspector 
General, and through other agency publications and directives, 
including materials such as posters. If confirmed, I will continue to 
ensure whistleblower protection at the U.S. Mission in Russia is fully 
in line with federal law and Department of State rules and regulations.

    Question. Do you agree retaliation of any kind has no place in 
federal government? Do you agree that anyone found to have engaged in 
retaliation should be held fully accountable, up to and including 
losing their job?

    Answer. Yes. Retaliation for protected whistleblowing activity or 
other protected activity has no place in the federal government. I 
agree that any employee found responsible for engaging in a prohibited 
personnel practice should be held accountable under the law.

    Question. When did you first become aware of allegations of 
retaliation at the Department? What did you do with those concerns? Did 
you ever raise concerns about political retaliation at the Department 
to Secretary Pompeo?

    Answer. I first became aware of the issues under review by the 
Office of the Inspector (OIG) in early 2018 and subsequently when a 
Congressional letter was submitted to the Department in March 2018 
prior to Secretary Pompeo's confirmation as Secretary of State. Upon 
learning of the allegations, I submitted the matter to the OIG and the 
Office of the Special Counsel for their review. If confirmed as 
Ambassador to Russia, I will to foster an environment consistent with 
the Department's goals of professionalism and excellence.

    Question. What have you done, personally, to address concerns of 
retaliation against career employees?

    Answer. I have sought during my tenure at the Department of State 
and throughout my career to foster an environment of professionalism 
and excellence without prohibited retaliation. Upon learning of the 
specific allegations, I took steps to refer the matter to the OIG in 
March 2018 for independent review. I made a subsequent referral in June 
2018 upon learning of additional allegations relating to employees in 
the Bureau of Internal Organizations (IO). I have counseled employees 
involved. Upon receiving the findings of the OIG with respect to the IO 
Bureau, I have worked with the Under Secretary for Political Affairs to 
put in place a corrective action plan for the IO bureau.

    Question. In April 2018, according to the Inspector General, a PDAS 
in IO expressed concerns about the management of IO and treatment of 
staff by Moley and Stull. What steps did you take next?

    Answer. When I became aware of the concerns, I counseled the 
Assistant Secretary. I also supported the PDAS in securing a new job 
opportunity within the Department.

    Question. Did you recommend any disciplinary action for Assistant 
Secretary Moley, including administrative steps to sideline Moley's 
supervisory role?

    Answer. I engaged with Assistant Secretary Moley to improve the 
management and performance of the bureau. Following the release of the 
IG report, I supported Assistant Secretary Moley's direct supervisor--
Under Secretary Hale--in pursuing management and performance 
improvement measures.

    Question. What prompted your June 25, 2018 meeting with Assistant 
Secretary to discuss ``the general atmosphere in IO?''

    Answer. In June, the Department received inquiries from a variety 
of sources relating to concerns about the leadership and management of 
the Bureau for International Organizations. I also asked the then-
Acting Under Secretary of State for Political Affairs to work with the 
bureau to address those concerns. Additionally, on June 28, I referred 
allegations relating to political retaliation to the Office of the 
Inspector General and the Office of Special Counsel for independent 
review.

    Question. After your meeting with Assistant Secretary Moley on June 
25, 2018, at which he dismissed employee concerns about leadership 
misconduct and retaliation in IO, what steps did you take next to 
protect IO employees or discipline Assistant Secretary Moley?

    Answer. I asked the then-Acting Under Secretary of State for 
Political Affairs to work with the bureau to address those concerns. 
Additionally, on June 28, I referred allegations relating to political 
retaliation to the Office of the Inspector General and the Office of 
Special Counsel for independent review.

    Question. Given you were aware of employee concerns about 
leadership misconduct in IO for at least three months by the time you 
met with Mr. Moley directly, did you express concerns to Secretary 
Pompeo or any other senior State Department officials about his conduct 
before meeting with him? How about afterward?

    Answer. I asked the then-Acting Under Secretary of State for 
Political Affairs to work with the bureau to address those concerns. 
Additionally, on June 28, I referred allegations relating to political 
retaliation to the Office of the Inspector General and the Office of 
Special Counsel for independent review.

    Question. Did you ask Moley to resign? Why not?

    Answer. Assistant Secretary Moley has announced his resignation, 
and he will be leaving the Department on November 29.

    Question. What steps are you taking to address low morale at the 
Department and in the IO Bureau?

    Answer. Since the release of the OIG report in August, I joined the 
Under Secretary of State for Political Affairs, who oversees the 
bureau, in meeting with staff during a town hall. As the Department 
wrote to you on October 29, the Department will continue to work with 
IO to reinforce the Department's ethos statement, which calls for all 
personnel to apply the highest standards of professionalism. As called 
for in the OIG report, the Under Secretary submitted a comprehensive 
corrective plan to the OIG within the 60 day timeframe set out in the 
report. He has put in place measures to ensure the IO bureau is 
carefully executing the plan.

    Question. What steps are you and the Department taking to ensure 
whistleblowers know their rights and are not subject to retaliation for 
exercising them?

    Answer. During my tenure as Deputy Secretary, I have been an 
advocate for ensuring that all employees are apprised of their rights 
under the Whistleblower Protection Act and Department policy through 
Department Notices, messages to personnel overseas, information 
available through the Bureau of Human Resources and the Office of the 
Inspector General, and other Department publications. I sent two 
Department-wide email messages to all personnel regarding rights and 
protections for whistleblowers. I have personally directed the 
Department's publication of the rules that protect personnel who report 
wrong-doing, and continue to encourage personnel to come forward if 
they believe there are valid instances of waste, fraud, or abuse. If 
confirmed, I will ensure that my staff apply the Department's clear 
guidance to our Mission in Russia, including posting these materials in 
highly visible locations in all buildings.

    Question. What else can the State Department do to prevent and 
counter retaliation?

    Answer. The Department, in coordination with the Office of the 
Inspector General's Whistleblower Protection Coordinator, must work 
diligently to ensure employees are aware of their rights under the 
Whistleblower Protection Act, as well as to ensure accountability for 
any retaliation. During my tenure as Deputy Secretary, I sent two 
Department-wide email messages to all personnel regarding the rights of 
and protections for whistleblowers. I have personally directed the 
Department's publication of the rules that protect personnel who report 
wrong-doing, and continue to encourage personnel to come forward if 
they believe there are valid instances of waste, fraud, or abuse. If 
confirmed, I will continue to ensure that employees understand the 
Department takes seriously any allegation of retaliation, and anyone 
engaging in retaliation would be subject to disciplinary action, up to 
and including separation.

Ukraine Policy/Giuliani
    Question. What did you know about Rudy Giuliani's involvement in 
Ukraine policy? What is the basis of that understanding?

    Answer. I have not engaged with Mr. Giuliani. What information I 
had came from conversations with State Department colleagues and from 
media reports. As I testified at my confirmation hearing, I was aware 
that Mr. Giuliani had an interest in and negative assessment of our 
ambassador in Ukraine.

    Question. When did you first learn that Mr. Giuliani was seeking to 
meet with Ukrainian officials?

    Answer. I have not engaged with Mr. Giuliani. I was aware of Mr. 
Giuliani's interest in Ukraine but unaware of any particular meetings 
he sought with Ukrainian officials. I am aware of press coverage on 
that topic since mid-September of this year.

    Question. How did you learn that Mr. Giuliani was seeking to meet 
with Ukrainian officials?


    Answer. I have not engaged with Mr. Giuliani. I was aware of Mr. 
Giuliani's interest in Ukraine but unaware of any particular meetings 
he sought with Ukrainian officials. I am aware of press coverage on 
that topic since mid-September of this year.

    Question. When did you learn that Mr. Giuliani was seeking to meet 
with State Department officials about Ukraine?

    Answer. I have not engaged with Mr. Giuliani. I was not aware that 
he sought a meeting with State Department officials. I am aware only of 
what has been reported in the press since mid-September of this year.

    Question. How did you learn that Mr. Giuliani was seeking to meet 
with State Department officials about Ukraine?

    Answer. I have not engaged with Mr. Giuliani. I was not aware that 
he sought a meeting with State Department officials. I am aware only of 
what has been reported in the press since mid-September of this year.

    Question. Were you aware of Mr. Giuliani's meetings with Ukrainian 
officials on or around the dates that they happened?

    Answer. No.

    Question. Are you aware of other meetings between Mr. Giuliani and 
foreign officials?

    Answer. No, only what has been reported in the press.

    Question. Are you aware of other meetings between Mr. Giuliani and 
State Department officials?

    Answer. No.

    Question. Did you instruct anyone in the Department to not provide 
assistance to Mr. Giuliani regarding his meetings with foreign 
officials?

    Answer. No.

    Question. Did you ever discuss Ambassador Yovanovitch with Rudy 
Giuliani?

    Answer. No.

    Question. Were you aware that Special Envoy Kurt Volker or 
Ambassador to the EU Gordon Sondland were engaged with Mr. Giuliani 
regarding Ukraine? How were you aware?

    Answer. As I stated during my hearing, I was not aware of any 
engagement by Mr. Volker or Ambassador Sondland with Mr. Giuliani until 
I read media reports beginning in mid-September of this year.

    Question. Who from the Department received readouts of, met with, 
or spoke to Mr. Giuliani about his meetings with foreign officials?

    Answer. As I told the committee, I have not engaged Mr. Giuliani. I 
am aware only of what has been reported in the press since mid-
September of this year.

    Question. Were you ever asked to communicate to Ukrainian officials 
President Trump's desire for assistance in investigating one of his 
political opponents or unsubstantiated theories related to Ukraine's 
involvement in the 2016 U.S. election?

    Answer. No.

    Question. Do you have any reason to believe that Ukraine interfered 
in the 2016 U.S. election? If so, what?

    Answer. I have no information regarding Ukrainian interference in 
the 2016 U.S. election. As you are aware, the Counselor of the 
Department received a file that I subsequently directed the Office of 
the Legal Adviser to submit to the Office of the Inspector General 
(OIG) for its review. I understand from the OIG letter to the Congress 
that the Inspector General later submitted the file to the FBI for its 
review.

    Question. Since you have been in your current role, how many times 
have you met or communicated with Rudy Giuliani? Please describe the 
subject and nature of your discussions with him.

    Answer. I have not engaged with Mr. Giuliani at all in that time.

    Question. Were you aware of any attempts by Giuliani to lobby, 
directly or indirectly, the State Department about any individuals, 
topics, clients, or countries? If so, whom/what topics? Please provide 
details.

    Answer. Other than what I have testified in my confirmation hearing 
and in response to questions 29-40, I am not.

    Question. Were you ever directed by Secretary Pompeo or anyone 
outside the State Department to meet or communicate with Rudy Giuliani? 
If so, please describe the circumstances.

    Answer. No.

    Question. When did you first become aware that Mr. Giuliani was 
working with and directing the actions of State Department officials on 
U.S. policy toward Ukraine?

    Answer. I have not engaged with Mr. Giuliani. I refer to my answers 
to previous questions.

    Question. Upon learning of Mr. Giuliani's role with regards to U.S. 
policy toward Ukraine, did you or anyone at the State Department take 
any steps to ensure that U.S. policy was not being influenced by Mr. 
Giuliani's private interests?

    Answer. I have not engaged with Mr. Giuliani. Secretary Pompeo has 
clearly stated the U.S. policy towards Ukraine: provide security and 
support to Ukraine to push back against Russian aggression, tackle the 
challenges of corruption that have long plagued the country's march 
towards democracy and rule of law, and support energy independence. 
That direction was clear and well understood across the Department.

    Question. Did you or anyone at the State Department review Mr. 
Giuliani's business interests for potential conflicts of interest?

    Answer. I did not. And I have not engaged with Mr. Giuliani.

    Question. Are you aware of Mr. Giuliani working with any other 
State Department officials on any other matters involving countries 
besides Ukraine?

    Answer. I have not engaged with Mr. Giuliani. I am not aware of 
such activity.

    Question. Were you aware of any efforts to provide Viktor Shokin 
with a visa to enter the United States? If so, what did you know and 
what did you do in response? What did you do to stop it?

    Answer. I have learned that Mr. Giuliani advocated for a visa for 
Viktor Shokin but that the visa was denied. I was not involved in any 
deliberations in relation to this matter.

    Question. Since you have been in your current role, has anyone from 
outside the State Department contacted you regarding Dmitry Firtash? If 
so, please describe the content of those discussions.

    Answer. No.

    Question. You testified in your nomination hearing that neither 
you, nor Secretary Pompeo, nor John Bolton ordered Volker, Sondland, 
and Taylor to coordinate with each other in pressing the Ukrainians for 
these investigations into Burisma or the origins of the 2016 U.S. 
elections interference. You also testified that, since you learned of 
these activities in September, you have not made any attempt to find 
out where their instructions were coming from. Why did you not seek to 
find out why people under your control were being given direction from 
an unknown source? Why did you not try to find out what the policy of 
the U.S. toward Ukraine was during this time period?

    Answer. Secretary Pompeo has clearly stated the U.S. policy towards 
Ukraine: provide security and support to Ukraine to push back against 
Russian aggression, tackle the challenges of corruption that have long 
plagued the country's march towards democracy and rule of law, and 
support energy independence. That direction was clear and well 
understood across the Department.

    Question. Were you ever asked to communicate to Ukrainian officials 
President Trump's desire for assistance in investigating one of his 
political opponents or unsubstantiated theories related to Ukraine's 
involvement in the 2016 U.S. election?

    Answer. No.

    Question. Have you received or are you aware of any requests from 
Ukraine that the U.S. investigation of oligarch Ihor Kolomoisky, a 
former business partner and patron of Ukraine President Zelenskyy, for 
money laundering to be dropped? Are you aware of any discussions of 
U.S. legal proceedings against Kolomoisky?

    Answer. No.

    Question. Have you or anyone at the State Department undertaken any 
action in response to the statement from Donald Trump that China should 
investigate Hunter Biden to pursue the issue with China or with any 
other country?

    Answer. No.

Zelenskyy Call
    Question. When did you first hear concerns from senior officials 
about the July 25 Trump-Zelenskyy call?

    Answer. I learned from press reports in September of this year.

    Question. Did you speak to any Ukrainian officials between May 1, 
2019 and September 12, 2019? If so, what did you discuss?

    Answer. I don't believe I did.

    Question. Did you ever communicate to Ukrainian officials that the 
President wanted to discuss corruption or investigations in Ukraine?

    Answer. Yes. Addressing corruption in Ukraine has been a 
longstanding policy concern of the United States and this 
administration. As a general matter, U.S. personnel who meet with 
Ukrainian officials emphasize U.S. concerns regarding corruption and 
the need for the United States to see reform efforts by the government 
of Ukraine. I have had many conversations with Ukrainian officials on 
this topic during my tenure as Deputy Secretary.

Security Assistance
    Question. When did you first become aware that security assistance 
to Ukraine would not be immediately obligated? What did you do to 
ascertain why it was being held up?

    Answer. To the best of my knowledge, the first time I learned that 
security assistance to Ukraine would not be immediately obligated was 
in late July. I received a letter from OMB in early August informing 
the Department and USAID that a number of accounts would be temporarily 
frozen pending further review. I assumed the Ukraine assistance hold 
was related to the administration's broader foreign assistance review 
and a potential rescission package.

    Question. Did you ever discuss assistance for Ukraine with U.S. 
diplomats based in Ukraine, including but not limited to Ambassador 
Taylor and Ambassador Yovanovitch?

    Answer. Not with Ambassador Taylor. I did with Ambassador 
Yovanovitch in 2018.

    Question. Did you discuss assistance to Ukraine with Ambassador 
Sondland or Special Representative Volker?

    Answer. No, I do not recall any such discussions.

    Question. Sondland testified that he understood all of his actions 
involving Ukraine to have ``the blessing of Secretary Pompeo,'' and 
that, ``very recently,'' he received a congratulatory note from 
Secretary Pompeo saying he was doing great work and encouraging him to 
``keep banging away.'' To what extent were you aware of Sondland's 
actions in Ukraine? Were you aware of Secretary Pompeo's ``very 
recent'' note to Sondland? Did Sondland keep you updated on his work 
relating to Ukraine?

    Answer. I was aware that Ambassador Sondland was involved in 
Ukraine policy and had attended President Zelenskyy's inauguration. I 
am not aware of any discussions he had with the Secretary. That said, 
Secretary Pompeo's guidance on Ukraine policy is clear: the United 
States is providing security and support to Ukraine to push back 
against Russian aggression, tackling the challenges of corruption that 
have long plagued the country's march towards democracy and rule of 
law, and supporting energy independence.

    Question. When did Sondland start engaging with Ukraine, which, as 
you know, is not an EU member state? Did you instruct Sondland to 
engage with Ukraine? When? How?

    Answer. I do not know when Ambassador Sondland first engaged on 
Ukraine policy. I know that he attended President Zelenskyy's 
inauguration in late May 2019.

    Question. Did you make any effort, through formal channels or 
otherwise, to weigh in and reverse the Office of Management and Budget 
hold on security assistance to Ukraine?

    Answer. I was not directly involved in the policy discussions with 
OMB regarding its review of Ukraine security assistance over the 
summer. The Department of State has consistently supported security 
assistance for Ukraine, and this administration took action to make 
lethal assistance available to Ukraine in its efforts to protect itself 
against Russian aggression.

    Question. Other than Ukraine, have you signed off on shutting down 
assistance to any country until that country addressed any alleged 
corruption issue in which a U.S. person was said to be involved?

    Answer. I have not signed off on shutting down assistance to 
Ukraine or any other country for that stated reason.

    Question. In your view, what changed from the time the funds were 
withheld until they were released in early September, other than the 
fact that the fiscal year was coming to a close? Did the White House 
communicate any changes to you? Did the State Department provide any 
analysis about Ukraine's anti-corruption efforts during this time 
period?

    Answer. I was not directly involved in the policy discussions with 
OMB regarding its review of Ukraine security assistance over the 
summer. The Department of State has consistently supported security 
assistance for Ukraine, and this administration took action to make 
lethal assistance available to Ukraine in its efforts to protect itself 
against Russian aggression.

    Question. Did you have any role in providing during the period of 
``interagency review'' of security assistance to Ukraine? Was the State 
Department involved in this interagency review in any manner? Please 
describe.

    Answer. I was not directly involved in the policy discussions with 
OMB regarding its review of Ukraine security assistance over the 
summer. The Department of State has consistently supported security 
assistance for Ukraine, and this administration took action to make 
lethal assistance available to Ukraine in its efforts to protect itself 
against Russian aggression.

    Question. Did the State Department take into account the Department 
of Defense's May 23, 2019 certification of Ukraine's anti-corruption 
efforts in its analysis?

    Answer. I was not directly involved in the policy discussions with 
OMB regarding its review of Ukraine security assistance over the 
summer. The Department of State has consistently supported security 
assistance for Ukraine, and this administration took action to make 
lethal assistance available to Ukraine in its efforts to protect itself 
against Russian aggression.

    Question. Sondland testified that the U.S. Mission to the EU's June 
4, 2019 event had a main event and then, ``Following the main event.a 
smaller, separate dinner for about 30 people. President Zelenskyy and 
several other leaders of EU and non-EU member states attended the 
dinner, along with Secretary Perry, U.S. State Department Counselor 
Ulrich Brechbuhl on behalf of Secretary Pompeo, and numerous other key 
U.S. and EU officials.'' Did you participate in the decision to send 
Brechbuhl on Pompeo's behalf? When was that decision made?

    Answer. I was not involved in Ambassador Sondland's diplomatic 
outreach or the development of his guest list.

    Question. Sondland testified that ``my boss Secretary Pompeo was 
very supportive of our Ukraine strategy''--speaking about the strategy 
that Sondland, Secretary Perry, and Ambassador Volker were pursuing. 
Did you ever hear Pompeo express support of the ``Ukraine strategy''? 
To whom?

    Answer. Secretary Pompeo's guidance on Ukraine policy is clear: the 
United States is providing security and support to Ukraine to push back 
against Russian aggression, tackling the challenges of corruption that 
have long plagued the country's march towards democracy and rule of 
law, and supporting energy independence. This is the only guidance on 
Ukraine policy that I have heard him express, and the only guidance I 
have.

    Question. Sondland testified that he encouraged Ambassador Taylor 
to contact Secretary Pompeo about ``concerns that the Ukrainians could 
perceive a linkage between U.S. security assistance and the President's 
2020 reelection campaign.'' Did Ambassador Taylor contact you about 
these concerns? When? What did you say?

    Answer. No, Ambassador Taylor did not contact me regarding his 
concerns.

    Question. Taylor testified that he wrote and transmitted a first-
person cable to Pompeo relaying his concerns about the ``folly'' of 
withholding of military aid to Ukraine on August 29, 2019. Did you see 
that cable? If so, when? What was your response?

    Answer. No. Ambassador Taylor's views were consistent with the 
Department of State's support of security assistance for Ukraine. For 
this reason, this administration took action to make lethal assistance 
available to Ukraine in its efforts to protect itself against Russian 
aggression.

Trump Organization
    Question. Since you have been in your current role, how many times 
have you met or communicated with individuals from the Trump 
Organization? Please describe the content of your discussions with 
them.

    Answer. I have not engaged in any such discussions.

    Question. Since January 20, 2017, how much money has the State 
Department spent at properties owned or licensed by the Trump 
Organization?

    Answer. I am aware of instances in which official diplomatic 
activity took place at a Trump-owned property. As you know, the 
Department of State has statutory authorization to spend appropriated 
funds on the ``travel of the President, the Vice President, or a Member 
of Congress to a foreign country, including advance arrangements, 
escort, and official entertainment.'' Once the trip is confirmed, the 
Department coordinates the execution of required logistical support 
using appropriated funds. The Department does not track this data.

The G7
    Question. President Trump selected his own property, Trump National 
Doral Miami, to host the 2020 Group of Seven (G7) leader-level summit. 
He has since walked back the decision, which raises further concerns 
about the process by which the Trump administration has been planning 
the U.S. Chairmanship of the G7 in 2020.

   In the past, the White House would pick the host city and the 
        Department would choose the hotels for the G7 site. Is that the 
        process that was followed leading up to the selection of Doral 
        as the site for the 2020 G7 summit? If not, will it be followed 
        moving forward?

    Answer. As the G7 is a domestic conference, the State Department's 
Office of Presidential Travel Support did not participate in the site 
selection. State Department employees from the Presidential Travel 
Support office do not stay at Trump properties when they travel and 
have never stayed at the Doral in particular.

    Question. Did you have any role in providing recommendations about, 
or in selecting the G7 site? If so, describe that role.

    Answer. No.

    Question. What was the Department's role in the initial selection 
of Doral to host the 2020 G7? Which Bureaus, Offices, and personnel in 
the Department were involved at any point in the selection process? 
Which Bureaus, Offices, and personnel in the Department will be 
involved moving forward? Please provide dates for the selection of the 
location for the G7 summit, including the date that the site selection 
process for the 2020 G7 began, the date that an initial solicitation 
was sent out, when proposals were received, when Doral was selected, 
when Doral was decided against, when the process of selection began 
again, and the deadline for a new site to be selected.

    Answer. I understand that neither the Office of Presidential Travel 
Support nor the Office of the Procurement Executive were involved in 
the now-reversed selection of Doral to host the 2020 G7.

    Question. Was the Department consulted in the decision to rescind 
the initial selection of Doral to host the 2020 G7? If so, which 
Bureaus, Offices, and personnel in the Department were involved? When?

    Answer. I understand that neither the Office of Presidential Travel 
Support nor the Office of the Procurement Executive were involved in 
the selection or rescission of Doral to host the 2020 G7.

    Question. Since the rescinded location decision, has the Department 
been consulted in the site selection process moving forward for the 
2020 G7? If so, which Bureaus, Offices, and personnel in the Department 
are involved in the process?

    Answer. I understand that neither the Office of Presidential Travel 
Support nor the Office of the Procurement Executive have been involved 
in the site selection process for the 2020 G7.

    Question. Did President Trump or anyone else at any point suggest 
hosting any other events associated with U.S. Chairmanship of the G7 in 
2020 at any other Trump Organization properties in addition to Doral?

    Answer. I understand that neither the Office of Presidential Travel 
Support nor the Office of the Procurement Executive have been involved 
in the site selection process for the 2020 G7.

    Question. Does the Department have a total estimated budget for the 
2020 U.S. Chairmanship of the G7 in its entirety, including a total 
estimated budget for the 2020 G7 leader-level summit, and including the 
Department's portion? How much of that would go directly to the host 
venue?

    Answer. As notified in the FY 2019 Diplomatic Programs end-of year 
Congressional Notification (CN 19-297), the Department provided $11.3 
million in FY 2019 funding within the Office of the Chief of Protocol 
allocation for G7 preparation activities, including funding of the site 
selection. The FY 2020 request includes an additional $10 million. The 
Department will be able to provide a more detailed estimate after a 
site is determined and other details become available.

    Question. Did anyone in the Department seek a legal opinion or 
guidance about hosting an official summit at Doral? Did anyone in the 
Department seek a legal opinion or guidance about hosting an official 
summit at Doral? Did the Office of the Legal Adviser furnish any 
opinion?

    Answer. No. The Office of the Legal Adviser provides legal guidance 
as necessary to bureaus and offices at the State Department to support 
their decision making and planning for major events such as the G-7. 
However, the decision about where to hold the G-7 in 2020 was made by 
the White House, not the State Department.

Climate and the G7
    Question. Mulvaney said that ``climate change will not be on the 
agenda'' for next year's G7 summit.

  Do you believe that climate change should be on the agenda for the 
        2020 G7?

    Answer. I support the White House's proposed ``back to basics'' G7 
Presidency. Climate change is one of many complex global challenges. 
The United States supports a balanced approach that promotes economic 
growth and improves energy security while protecting the environment.

    Question. Given your current position as Deputy Secretary of State, 
what role has, does, and will the Department play in the agenda-setting 
process for the 2020 G7, including on decisions such as whether to 
include climate change?

    Answer. The Department has been consulted and supports the White 
House proposed ``back to basics'' G7 Presidency. Climate change is one 
of many complex global challenges. The United States supports a 
balanced approach that promotes economic growth and improves energy 
security while protecting the environment.

    Question. Do you believe it is appropriate for the U.S., or even 
has the authority, to unilaterally strike an issue, like climate 
change, from the agenda of the G7?

    Answer. Each G7 President sets priorities and goals for the year.

Foreign Interference
    Question. In the wake of President Trump's comments welcoming 
derogatory information on a U.S. political figure from foreign 
entities, it is important that the State Department have explicit 
guidance for all of its personnel on how to deal with this scenario. 
Guidance on handling interactions that prompt concern about 
exploitation by a foreign entity, such as FAM Chapter 12, Section 262, 
does not clearly address this situation.

   Do you agree that any candidate for office in the United States who 
        is presented with information on an opponent from a foreign 
        power should report that to the FBI?

    Answer. If confirmed, I will follow the Department of State's 
guidance with regard to reporting such information.

    Question. If a foreign person or government approaches you or a 
staffer at the embassy with derogatory information on a U.S. political 
figure, what is your understanding of official State Department policy 
on how to handle this specific situation?

    Answer. If confirmed, I will follow the Department of State's 
guidance and report that conduct back through appropriate channels. If 
confirmed, I will work with the Embassy's regional security officer on 
such reporting.

    Question. Has a cable with clear guidance on how to handle this 
specific situation been sent to all U.S. embassies?

    Answer. Not on this precise topic, but the Department does 
regularly convey to posts the importance of prompt and accurate 
reporting and the need to follow all Department policies and 
procedures.

    Question. In your current role as Deputy Secretary of State, do you 
commit to issuing clear guidance to all U.S. embassies on how embassy 
staff should handle the specific situation of a foreign person or 
government approaching them with derogatory information on a U.S. 
political figure? Existing guidance on handling interactions that 
prompt concern about exploitation by a foreign entity, such as FAM 
Chapter 12, Section 262, does not clearly address this situation.

    Answer. I commit to review the existing guidance and to update it 
and communicate the update to posts as appropriate.

    Question. If confirmed as U.S. Ambassador to Russia, do you commit 
to issuing clear guidance on how to handle this specific situation?

    Answer. Yes. If confirmed, I will work with the Embassy Regional 
Security Officer to be sure that all personnel are familiar with their 
responsibilities to report derogatory information of any kind.

Anticorruption
    Question. Senator Coons asked you in your nomination hearing about 
the Trump administration's repeated attacks on U.S. anticorruption 
funding. Budgets reflect priorities, and the President's budget shows a 
diminished prioritization of State Department anticorruption efforts. 
You responded that ``the prime obstacle to anticorruption reform in 
Ukraine is not technical or monetary support by the United States but 
the will of the Ukrainian government.''

  What role do you believe U.S. technical and monetary support plays 
        in U.S. anticorruption efforts?

    Answer. Given corruption's deleterious impact internationally, 
including on U.S. foreign policy interests, the United States should 
draw strategically upon its full range of tools to affect change. 
Combined with political will of the receiving government, U.S. 
technical support can play an important role in addressing corruption, 
as part of a toolkit of other effective measures such as bilateral 
pressure and public diplomacy, leadership in multilateral bodies, and 
sanctions.

    Question. Do you believe combatting corruption should be a U.S. 
foreign policy priority?

    Answer. Yes. Combatting corruption should remain a top U.S. foreign 
policy priority. Corruption facilitates transnational organized crime, 
hinders economic development, disadvantages U.S. business, undermines 
democratic governance and the rule of law, and increases instability. 
Corruption also makes countries more vulnerable to foreign malign 
influence. To address corruption internationally, the United States 
should continue bilateral engagement and public diplomacy, exercise 
leadership in multilateral bodies, deploy targeted sanctions, and 
support foreign assistance programs that promote reform, build 
capacity, and increase cooperation across borders.

Alliances
    Question. President Trump has made a number disparaging comments 
about U.N. member states. In tweets, he has referred to Canadian Prime 
Minister Justin Trudeau as ``Very dishonest & weak,'' called Europe ``A 
total mess!''

   Do you personally agree with these statements? Is this how the U.S. 
        should be conducting diplomacy? How do you plan to keep U.S. 
        alliances strong with some of our closest partners, including 
        those who have been the target of the President's verbal 
        attacks? What do you see as the role of U.S. alliances 
        generally?

    Answer. The United States has consistently affirmed its support for 
NATO, including to collective defense under Article 5. The Alliance has 
been the bulwark of international peace and security for 70 years. Each 
generation has worked to adapt NATO to face the challenges of its 
times, and we continue working with our NATO Allies to do just that. As 
the President said, the NATO of the future must include a focus on 
terrorism, as well as threats from Russia on NATO's eastern and 
southern borders.

    Question. Do you believe that allies are important and integral to 
U.S. foreign policy?

    Answer. Yes.

Whistleblower Protection
    Question. As you know, those working for the federal government, 
including civil service, foreign service, and contractors, who possess 
information they reasonably believe demonstrates a violation of law; 
gross mismanagement; gross waste of funds; abuse of authority; a 
substantial and specific danger to public health or safety; or 
censorship related to research, analysis, or technical information are 
protected and entitled under federal law to raise those concerns 
through authorized channels, including to Congress or Inspectors 
General, without fear of retribution or reprisal. Even in cases where 
information is required to be kept secret in the interest of national 
defense or the conduct of foreign affairs, disclosure to Inspectors 
General or the Special Counsel is still protected. It is imperative 
that senior officials throughout government ensure that employees know 
their rights, and that employees are not discouraged from raising valid 
concerns.

  Do you agree with the President's statements on whistleblowers, 
        including his reference to them as ``spies''?

    Answer. If confirmed, I will continue to ensure whistleblower 
protection in accordance with federal law and Department of State rules 
and regulations.

    Question. What are you doing to stand up for career employees, both 
internally and externally?

    Answer. I never cease to be impressed by the skill, dedication, and 
determination of the Department's employees who serve in the Foreign 
Service, Civil Service, and as locally employed staff. Throughout my 
tenure I have sought to support the Department's employees as they 
further our nation's foreign policy objectives by recognizing and 
endorsing their work both domestically and on the global stage. If 
confirmed, I will continue to ensure that all employees with whom I 
work understand my commitment to our One Team, One Mission ethos, and 
take every opportunity to promote the strength and skill of our team to 
our interlocutors at home and abroad.

    Question. What are you doing to ensure that all State Department 
personnel know and understand their rights under federal whistleblower 
laws?

    Answer. During my tenure as Deputy Secretary, I have advocated to 
ensure that all employees are apprised of their rights under the 
Whistleblower Protection Act and Department policy through Department 
Notices, messages to personnel overseas, information available through 
the Bureau of Human Resources and the Office of the Inspector General, 
and other Department publications. I have personally directed the 
Department's publication of the rules that protect personnel who report 
wrongdoing. I have also sent two Department-wide email messages to all 
personnel on this topic. And I have raised the issue in large and small 
group meetings.
    If confirmed, I commit to ensure that everyone at Mission Russia 
understands their rights and protections in this regard.

    Question. What have you done to make sure all employees feel free 
to report concerns through the proper channels, including to Congress 
and Inspectors General?

    Answer. During my tenure as Deputy Secretary, I have advocated to 
ensure that all employees are apprised of their rights under the 
Whistleblower Protection Act and Department policy through Department 
Notices, messages to personnel overseas, information available through 
the Bureau of Human Resources and the Office of the Inspector General, 
and other Department publications. I have personally directed the 
Department's publication of the rules that protect personnel who report 
wrongdoing. I have also sent two Department-wide email messages to all 
personnel on this topic. And I have raised the issue in large and small 
group meetings.
    If confirmed, I commit to ensure that everyone at Mission Russia 
understands their rights and protections in this regard.

    Question. Has the U.S. Embassy in Russia issued any communications 
or documents to staff regarding whistleblower rights or communicating 
or cooperating with Congress since January 2017? If so, please provide 
a copy of each such communication or document. If not, do you pledge to 
issue such a communication if confirmed as Ambassador to Russia?

    Answer. All employees, including those at Embassy Moscow, have 
access to FAM information on whistleblower protections, including 
prohibited personnel practices. All employees also have access to 
Department policies that inform employees of protections for those who 
make protected disclosures to the Office of Inspector General, the 
Office of Special Counsel, and Congress. If confirmed, I commit to 
communicating directly with all staff at the Embassy to ensure they 
know their whistleblower protection rights in accordance with federal 
law and Department of State rules and regulations.

    Question. In light of President Trump's efforts to discredit and 
unmask the identity of a whistleblower, how do you plan to counter the 
damage to U.S. credibility in pressing for greater whistleblower 
protections globally?

    Answer. Employees are apprised of their rights under the 
Whistleblower Protection Act and Department policy through Department 
Notices, messages to personnel overseas, information available through 
the Bureau of Human Resources and the Office of the Inspector General, 
and other Department publications
    If confirmed, I commit to communicating directly with all staff at 
the Embassy to ensure they know their whistleblower protection rights 
in accordance with federal law and Department of State rules and 
regulations.

    Question. How do you plan to advance whistleblower protection at 
the U.S. Embassy to Russia?

    Answer. If confirmed, I commit to communicating directly with all 
staff at the Embassy to ensure they know their whistleblower protection 
rights in accordance with federal law and Department of State rules and 
regulations.

Yovanovitch
    Question. Did you ever personally advocate for a statement of 
support on behalf of Ambassador Yovanovitch? In your nomination 
hearing, you said, ``At the time of her removal, I did not.'' Did you 
do so at any other time?

    Answer. I have consistently advocated for Department personnel 
during my tenure as the Deputy Secretary of State. It has been my honor 
to lead such a distinguished and professional workforce. With regard to 
Ambassador Yovanovitch, I sought to be clear and honest with her 
regarding the President's direction with regard to her tenure as 
Ambassador to Ukraine and to ensure she was in a position to begin the 
next phase of her career in the Foreign Service.

    Question. At what point did you learn that the President had lost 
confidence in Ambassador Yovanovitch and no longer wished her to serve? 
Who told you?

    Answer. As I testified at my confirmation hearing, the Secretary 
informed me in discussions over a period of time in the spring of 2019 
that the President had lost confidence in Ambassador Yovanovitch.

    Question. Did you ever discuss Ambassador Yovanovitch with Rudy 
Giuliani?

    Answer. No.

    Question. What specifically did you do to protect Ambassador 
Yovanovitch from political retaliation?

    Answer. I sought to be clear and honest with Ambassador Yovanovitch 
regarding the President's direction with regard to her tenure as 
Ambassador to Ukraine and to ensure she was in a position to begin the 
next phase of her career in the Foreign Service. I worked with the 
Director General to secure an appropriate onward assignment for someone 
of her stature. Ambassador Yovanovitch continues to serve the 
Department with distinction and is currently teaching the next 
generation of diplomats at Georgetown University in Washington D.C.

    Question. How did you defend Ambassador Yovanovitch against efforts 
by President Trump, Giuliani, and others to discredit her using 
debunked conspiracy theories?

    Answer. I sought to be clear and honest with Ambassador Yovanovitch 
regarding the President's direction with regard to her tenure as 
Ambassador to Ukraine and to ensure she was in a position to begin the 
next phase of her career in the Foreign Service. I worked with the 
Director General to secure an appropriate onward assignment for someone 
of her stature. Ambassador Yovanovitch continues to serve the 
Department with distinction and is currently teaching the next 
generation of diplomats at Georgetown University in Washington D.C.

    Question. Ambassador Yovanovitch testified that you told her in 
your April 2019 conversation that there had been a concerted campaign 
against her, and that the Department had been under pressure from Trump 
to remove her since the summer of 2018. At what point did you become 
aware of the smear campaign against Ambassador Yovanovitch and Mr. 
Giuliani's role in seeking her removal?

    Answer. I was aware of questions raised regarding the Ambassador in 
mid to late 2018, but did not become aware of more acute issues until 
the early spring of 2019. All U.S. ambassadors serve at the pleasure of 
the President. As stated during my confirmation hearing, the President 
lost confidence in her and I conveyed this to her.

    Question. Ambassador Yovanovitch testified that you told her in 
your April 2019 conversation that she had done nothing wrong and this 
was not like other situations where you had recalled ambassadors for 
cause. Do you stand by that assessment? Had Ambassador Yovanovitch done 
nothing wrong?

    Answer. Yes. As I told the committee, the President lost confidence 
in Ambassador Yovanovitch, and she therefore could no longer serve as 
ambassador.

    Question. Did you receive instructions from the President, the 
White House, Rudy Giuliani, or Secretary Pompeo about Ambassador 
Yovanovitch's removal on prior to May 7, 2019? If so, what were they?

    Answer. As I told the committee, the Secretary informed me in 
discussions over a period of time that the President had lost 
confidence in Ambassador Yovanovitch and she therefore could no longer 
serve as ambassador.

    Question. After you became aware of Ambassador Yovanovitch's 
recalling, did you express concern to Secretary Pompeo about the way 
she was being treated? Did you express concerns before?

    Answer. As I told the committee, the President lost confidence in 
Ambassador Yovanovitch and she therefore could no longer serve as 
ambassador. I sought to be clear and honest with Ambassador Yovanovitch 
regarding the President's direction and to ensure she was in a position 
to begin the next phase of her career in the Foreign Service.

    Question. Did you speak to Ambassador Taylor about concerns he had 
about Ambassador Yovanovitch's treatment as he tried to make a final 
decision on taking the post in Ukraine?

    Answer. I was not consulted by Ambassador Taylor in his decision-
making regarding acceptance of this position in Kyiv.

    Question. Taylor testified that the decision of whether to agree to 
Secretary Pompeo's request to return to Kyiv was ``not an easy 
decision,'' because of how Ambassador Yovanovitch had been treated. Are 
you concerned about the implications for U.S. foreign policy if 
qualified candidates think twice about accepting important positions 
because of uncertainty that they will be treated fairly?

    Answer. I was not consulted by Ambassador Taylor in his decision-
making regarding acceptance of this position in Kyiv. It is an honor to 
represent the United States and to lead the women and men who serve in 
U.S. embassies overseas.

    Question. Michael McKinley testified that he left his post over 
frustration with Pompeo regarding the treatment of Ambassador 
Yovanovitch. He testified that he asked Pompeo repeatedly to show 
support for Ambassador Yovanovitch in the past month (September 2019-
October 2019) but that he did not respond. Did McKinley ask you to show 
support for Ambassador Yovanovitch? If so, when?

    Answer. No.

Disinformation Packet on Yovanovitch
    Question. To the best of your knowledge, how did the Secretary of 
State come into possession of a packet of disinformation that included 
claims about Ambassador Yovanovitch?

    Answer. As I testified at my confirmation hearing, my understanding 
is that the Counselor had been given the package by either the 
Secretary or someone at the White House. The Counselor then provided 
the file to me, and I directed that it be transmitted to the Office of 
the Inspector General.

    Question. Was it mailed? Hand-delivered?

    Answer. I believe it was hand-delivered.

    Question. You testified that the packet of disinformation came ``in 
response to inquiries by the Secretary and others about what our 
ambassador had done.'' What were those inquiries?

    Answer. I do not have any additional information beyond my 
testimony that he sought factual information about her performance as 
ambassador.

    Question. Did the Secretary ask people inside the State Department 
for information on what Ambassador Yovanovitch ``had done''?

    Answer. I do not know. I know the Counselor did.

    Question. Did the Secretary ask people outside the State Department 
for information on what Ambassador Yovanovitch ``had done''? Who?

    Answer. Yes. I am not aware of the names of the people he 
consulted.

    Question. What is your understanding of what the Secretary was 
referring to?

    Answer. I understood it to mean any evidence to support removing 
our Ambassador to Ukraine.

    Question. What had people told him that she ``had done''?

    Answer. I do not know, apart from the general assertion that she 
did not support the President or his foreign policy.

    Question. You testified that you believe that the Counselor, Ulrich 
Brechbul, obtained the packet from the White House. What is your 
understanding of who from the White House gave it to him?

    Answer. As I told the committee, my understanding is that the 
Counselor had been given the package by either the Secretary or someone 
at the White House. I do not have any additional information.

    Question. From whom did you receive the packet?

    Answer. As I stated during my hearing, I received it from the 
Counselor.

    Question. Did you discuss the packet with the Secretary? What 
specifically did you discuss about it?

    Answer. Yes, I informed the Secretary of my recommendation to have 
the packet referred to the OIG for further review.

    Question. Did you discuss the packet with Ulrich Brechbul? What 
specifically did you discuss about it?

    Answer. We discussed that it should be provided to the OIG for 
review.

    Question. Did you ask the Secretary how he came into possession of 
the packet?

    Answer. As I stated during my hearing, I was under the impression 
he or the Counselor received it from someone at the White House.

    Question. You testified that you asked where it came from. What 
were you told in response?

    Answer. I did not have a clear understanding of the origins of the 
materials, which was one of the reasons I referred it to the Office of 
the Inspector General.

    Question. With who else did you discuss the packet?

    Answer. The Office of the Legal Adviser.

    Question. Upon receiving it, were you concerned that someone was 
seeking to smear Ambassador Yovanovitch?

    Answer. I was unsure what the file was and the motivations of those 
who created it. Hence, I directed that it be provided to the Office of 
the Inspector General for review.

    Question. Why did you recommend that the Acting Legal Adviser 
provide it to the Inspector General?

    Answer. The Office of the Inspector General (OIG) serves as an 
independent body to review allegations of potential wrongdoing. As I 
stated at the hearing, I was unsure what the file was and the 
motivations of those who created it. Hence, I directed that it be 
provided to the OIG for review.

    Question. You testified that ``you [were]n't aware of all that 
might be going on in the background.'' What did you mean?

    Answer. I was unsure what the file was and the motivations of those 
who created it. Hence, I directed that it be provided to the Office of 
the Inspector General for review.

    Question. At the time you received the packet, why did you think 
that Rudy Giuliani might be involved with the information it contained?

    Answer. As I stated at the hearing, I was generally aware of Mr. 
Giuliani's concerns about our Ambassador to Ukraine.

    Question. Is it your understanding that Giuliani gave the packet to 
the Secretary, or that he caused it to be delivered to the Secretary 
through the White House? What is your basis for that understanding?

    Answer. As I testified, I do not know the provenance of the packet.

Calls with Foreign Leaders
    Question. When did you learn of the content of the President's July 
25 call with President Zelenksy? What action did you take when you 
learned of the July 25 call?

    Answer. I learned of the content when it was released by the White 
House on September 25. I consulted with my colleagues at the Department 
about the continuity of our Ukraine policy, which Secretary Pompeo had 
clearly stated was to: provide security and support to Ukraine to push 
back against Russian aggression; tackle the challenges of corruption 
that have long plagued the country's march towards democracy and the 
rule of law; and support energy independence.

    Question. Did you communicate, or are you aware of efforts by any 
U.S. officials to communicate, to Ukrainian officials the topics that 
the President wanted to discuss with President Zelenskyy?

    Answer. No.

    Question. Have you received transcripts or summaries of all of the 
President's calls with foreign leaders?

    Answer. No.

    Question. Did you receive a transcript or summary of the 
President's call with President Zelenskyy?

    Answer. No.

    Question. Did you receive a transcript or summary of any other 
calls between the President and a foreign leader in which he raised his 
political opponents?

    Answer. No.

    Question. Are you aware of any records of communications between 
the President and foreign leaders that have not been stored on the 
standard White House system for such calls?

    Answer. I have no role in, and am not aware of, the White House 
storage procedures.

    Question. Have you or anyone at the State Department undertaken any 
action in response to the statement from President Trump that China 
should investigate Hunter Biden to pursue the issue with China or with 
any other country?

    Answer. No.

Social Media
    Question. As a U.S. Ambassador, you are charged with representing 
the interests of the American people and communicating the viewpoints 
of the U.S. government overseas. This includes on any official social 
media profiles you have. As a recent review by the State Department 
Inspector General found, a number of Ambassadors have not complied with 
the Department's social media policies.

  Have you reviewed the Department's policies?

    Answer. Yes. In response to the OIG recommendation, the Department 
has developed and distributed guidance and illustrative examples of the 
types of postings appropriate for official and personal social media 
accounts, as well as types of postings that could lead to a violation 
of Department policy. Further, the Department is providing employees, 
including ambassadors and other senior officials, with regular social 
media policy reminders, and is ensuring that social media policies are 
adequately addressed during orientation sessions and through regular 
training. The Department is finalizing a standard operating procedure 
to assess, address, and, if necessary, recommend disciplinary measures 
for potential violations of social media policies.

    Question. Do you commit to following them going forward?

    Answer. Yes.

    Question. What are some examples of the types of posts that you 
understand would require review by the Department?

    Answer. For all Department personnel, any personal capacity public 
communications must be reviewed if they are on a topic ``of 
Departmental concern.'' The term ``of Departmental concern'' is defined 
to mean ``[p]ertaining to current U.S. foreign policy or the 
Department's mission (including policies, programs, operations or 
activities of the Department of State or USAID), or which reasonably 
may be expected to affect the foreign relations of the United States.'' 
Further, personal accounts and posts on such accounts must not claim to 
represent the Department or its policies, or those of the U.S. 
government, nor may they use any Department or other U.S. government 
seals or logos.

    Question. Do you commit to seeking review of any social media posts 
on a personal account that could be considered a matter of Departmental 
concern?

    Answer. Yes, if confirmed, I commit to reviewing all allegations of 
potential violations of the Department policy and other applicable 
rules.

U.S.-Russia Relations
    Question. If confirmed, will you encourage American companies to 
attend the St. Petersburg International Economic Forum? Will you attend 
the event?

    Answer. We support American companies and investors that do 
business in Russia, consistent with U.S. law. If confirmed, I will 
commit to doing my best to support American companies without 
undermining U.S. sanctions policy.

    Question. In what ways will the State Department work with the NSC 
and other government departments and agencies to address the arbitrary 
detention of U.S. citizens who are seemingly being arrested for the 
purpose of sanctions relief or prisoner trades?

    Answer. The safety and welfare of U.S. citizens abroad is of the 
utmost importance to the Department of State and the entire U.S. 
government. The Department takes seriously its responsibility to assist 
U.S. citizens who are incarcerated or detained abroad, promote their 
fair treatment and a fair and transparent judicial process. If 
confirmed, I will work with all relevant parts of the U.S. government 
to protect and assist U.S. citizens.

    Question. What actions will you take to secure Paul Whelan's 
release? What policy options has the United States put on the table in 
order to secure his release? Would you consider imposing targeted 
sanctions if Paul Whelan is not released in a timely manner?

    Answer. Yes. If confirmed, I will continue to press the Russian 
government to either release Mr. Whelan or provide a fair public trial 
for him, including an immediate fair and public hearing without undue 
delay. The Embassy will also continue to monitor Mr. Whelan's case 
closely and press for fair and humane treatment, unrestricted consular 
access, access to appropriate medical care, and due process. I will 
continue to raise these concerns with the Russian government, if 
confirmed.

    Question. Why was Maria Butina released early? In your response, 
please do not refer me to the Department of Justice for an answer.

    Answer. Maria Butina served the sentence imposed on her by a 
federal court, as consistent with relevant federal law. She was then 
deported to Russia.

Arms Control and Nonproliferation
    Question. Russia remains the only country whose nuclear forces pose 
an existential threat to the United States. One of the ways the United 
States has sought to manage this threat is through arms control 
agreements by limiting the size and capabilities of Russian nuclear 
forces. These agreements also have sought to provide transparency and 
stability to our nuclear relations with Russia to ensure we avoid a 
catastrophic nuclear miscalculation by either side. I'm extremely 
concerned the administration discounts the vital importance of arms 
control to U.S. national security and is on course to allow the New 
START Treaty to expire in February 2021.

  Do you believe it is in the national security interests of the 
        United States to continue legally binding arms control efforts 
        with Russia?

    Answer. Yes. The United States remains committed to effective arms 
control that advances U.S., Allied, and partner security; is verifiable 
and enforceable; and includes partners that comply responsibly with 
their obligations. President Trump has charged this administration with 
beginning a new chapter by seeking a new era of arms control that moves 
beyond the bilateral treaties of the past. Going forward, the United 
States calls upon Russia and China to join us in this opportunity to 
deliver real security results to our nations and the entire world.

    Question. Assuming Russia is in compliance with the New START 
Treaty do you support a five year extension of it?

    Answer. The administration has not yet made a decision about a 
potential extension of the New START Treaty. Central to the U.S. review 
of potential New START extension is whether an extension is in the U.S. 
national interest, and how the Treaty's expiration would affect U.S., 
Allied, and partner security in an evolving security environment.

    Question. The administration has stated it is seeking a new arms 
control agreement with Russia and China that include a range of new and 
complex issues. Who within the State Department is leading these 
efforts since all of the senior arms control positions at the State 
Department are now empty?

    Answer. As Secretary Pompeo has said, ``We will continue to work to 
allow the Treaty to be verified exactly as the verification regime 
exists. As for its extension, we have agreed that we will gather 
together teams to begin work not only on New START and its potential 
extension, but also on a broader range of arms control issues that each 
of our two nations have a vested interest in achieving an agreement 
on.'' We have a talented group of State Department professionals and 
senior leaders who continue to implement the President's policies.

    Question. Do you believe if New START expires, and all limitations 
on Russian strategic nuclear forces disappear, that Russia will 
increase its strategic nuclear forces? Will changes to the U.S. nuclear 
posture be necessary if New START disappears in 16 months? Wouldn't 
these changes require significant additional funding for U.S. nuclear 
forces?

    Answer. While the United States has continued to reduce the number 
and salience of nuclear weapons, others, including Russia and China, 
have moved in the opposite direction. They have added new types of 
nuclear capabilities to their arsenals, increased the salience of 
nuclear forces in their strategies and plans, and engaged in 
increasingly aggressive behavior, including in outer space and cyber 
space. Russia and China must be brought to the arms control table as we 
evaluate how our arms control agreements contribute to U.S. defense and 
deterrence requirements, as well as those of Allies and partners.

    Question. According to various reports, the administration is 
planning to withdraw from the Open Skies Treaty. It appears the 
administration is willing to take this step with zero consultation with 
Congress or U.S. allies. The Open Skies Treaty is an important 
multilateral arms control agreement and withdrawing would be yet 
another gift from the Trump administration to Putin. It has been an 
essential tool for United States efforts to constrain Russian 
aggression in Ukraine. In December of 2018, the United States conducted 
an extraordinary flight under Open Skies that the Department of Defense 
stated was ``intended to reaffirm U.S. commitment to Ukraine and other 
partner nations.?'' Has President Trump made a decision to withdraw the 
United States from the Open Skies Treaty? Yes or No. Was the State 
Department or the Defense Department consulted before a decision to 
withdraw was taken?

    Answer. No. The United States has not withdrawn from the Treaty on 
Open Skies, and the United States continues to implement this Treaty. A 
number of Allies have told us they value the Treaty and view it as a 
key instrument for gathering information on Russian military formations 
and troop deployments. We continue to work with our Allies and partners 
on all Treaty related compliance and implementation issues related to 
the Open Skies Treaty.

    Question. We have spoken with numerous NATO allies who informed us 
they deeply value the Open Skies Treaty and that a decision by the 
United States to withdrawal would adversely impact their security? Did 
the administration consult with allies before coming to this decision?

    Answer. The United States has not withdrawn from the Treaty on Open 
Skies, and the United States continues to implement this Treaty. A 
number of Allies have told us they value the Treaty and view it as a 
key instrument for gathering information on Russian military formations 
and troop deployments. We continue to work with our Allies and partners 
on all compliance and implementation issues related to the Open Skies 
Treaty.

    Question. What is the reasoning behind leaving Open Skies? How will 
abrogating Open Skies affect U.S. security?

    Answer. The United States has not withdrawn from the Treaty on Open 
Skies, and the United States continues to implement this Treaty. We 
continue to work with our Allies and partners on all compliance and 
implementation issues related to the Open Skies Treaty.

Russia in Africa
    Question. The administration's Africa strategy emphasizes Great 
Power competition across the continent. As exemplified by the recent 
Russia-Africa summit in Sochi, Russia is taking concrete steps to 
expanding its power and influence. At the summit's opening President 
Vladimir Putin pledged to double trade ties with the continent over the 
next 5 years. Putin also signaled interest in natural resources, 
promoting African partnerships with Russian natural gas and mineral 
resource companies, even meeting individually with several leaders to 
discuss potential projects. After the summit, the Central African 
Republic's (CAR) President stated that his country is considering 
hosting a Russian military base, and he would like Moscow to supply CAR 
with new weapons.

  What is your understanding of Russia's goals and aims for expanding 
        influence in Africa? If confirmed, how can you help shape the 
        administration's strategy for mitigating Russian influence 
        across the African continent?

    Answer. U.S. interests require countering Russian efforts to 
undermine the post-Cold War global order, including in Africa. The 
Kremlin's aggressive and opportunistic approach to foreign policy seeks 
global attention by inserting itself or its proxies to undermine 
Western efforts at stability, or by offering its false model of 
``sovereign democracy'' as an alternative to transparent democratic 
institutions and processes. Russia views its outreach to African 
countries as an avenue to break out of the international isolation 
generated by its ongoing aggression against Ukraine and gain support in 
international fora, including the U.N. and the Organization for the 
Prevention of Chemical Weapons (OPCW). If confirmed, I will work with 
all relevant U.S. government partners and agencies to support a 
strategy to counter this malign activity.
    A Russian national is a security adviser to CAR's President, 
Faustin-Archange Touadera and there are reports indicating that 
Russia's defense ministry intends to establish a five-person team at 
CAR's defense ministry. Russia has supplied arms to the CAR government, 
and the Russian private military contractor Wagner is present in the 
country.

    Question. What arms and material has the Russian government 
supplied to CAR? What is your understanding of the nature and purpose 
of Wagner's role in the Central African Republic? How many personnel do 
they have in country? To your knowledge, did Wagner play a role in the 
2018 murder of three Russian journalists in Central African Republic? 
Do you see Wagner's role in CAR as positive?

    Answer. The United States has serious concerns about Russian 
efforts to bolster its influence in Africa through arms sales and the 
use of private military companies (PMCs) and proxy forces, such as the 
U.S.-sanctioned Wagner, as exemplified in the Central African Republic 
(CAR). Malign activities such as these run counter to U.S. interests 
and undermine democratic development on the African continent. We are 
aware that Russia has supplied small arms and other military equipment 
to CAR. If confirmed, I will press Russia to work transparently and 
constructively with the international community to advance peace, 
security, and good governance in CAR.

    Question. If confirmed, what concrete actions will you take to 
ensure transparency in Russia's activities in CAR?

    Answer. If confirmed, I will press Russia to work transparently and 
constructively with the international community to advance peace, 
security, and good governance in CAR.

    Question. Assistant Secretary Tibor Nagy was quoted in a recent 
news article as stating that ``there is space for other countries to 
play a positive role in the [African] region.'' What positive role is 
Russia currently playing in Africa? What positive role could it play, 
and what specifically will you do if confirmed to ensure that Russia's 
role in Africa is positive?

    Answer. Russia's ongoing malign activities in Africa, including 
arms sales, the use of private military companies (PMCs) and proxy 
forces, as well as corrupt economic practices, play a negative role and 
undermine democratic development on the continent. While Russia 
purports to be a major actor in Africa, its role remains relatively 
modest. If confirmed, I will press the Russian government to be 
transparent regarding its activities in Africa.

    Question. Special Counsel Robert Mueller's report into Russian 
meddling in the 2016 Presidential elections noted that the Kremlin 
engaged in a concerted effort to upend the U.S. elections using social 
media and cyberattacks. To your knowledge did or does the Kremlin have 
similar plans to affect the outcome of African elections? If so, what 
impact did these efforts have? Does the Kremlin have a broader malign 
strategy to undermine democracy in Africa? What steps will you take as 
Ambassador if confirmed to discourage malign efforts by the Kremlin to 
impact the expansion of democracy in Africa?

    Answer. The Kremlin's aggressive and opportunistic approach to 
foreign policy seeks global attention by inserting itself or its 
proxies to undermine Western efforts at stability, or by offering its 
false model of ``sovereign democracy'' as an alternative to transparent 
democratic institutions and processes. The United States has serious 
concerns about Russian efforts to bolster its influence in Africa 
through covert, corrupt, and coercive means, including electoral 
interference. Malign activities such as these run counter to U.S. 
interests and undermine democratic development on the African 
continent. If confirmed, I will support continued efforts to counter 
vigorously this destabilizing Russian activity.Russia in the Middle 
EastThe administration's recent withdrawal from northern Syria has put 
Vladimir Putin firmly in the driver's seat in Syria and helped to 
reestablish Russia as a significant powerbroker in the Middle East. In 
Syria, Russia has bombed civilians in order to allow Bashar al-Assad to 
continue to rule over the rubble. In Libya, Russia has sided with 
ostensible U.S. allies like Egypt and the UAE to support General 
Heftar's destructive offensive in Tripoli against the international 
recognized government of National Accord. Throughout the region, Putin 
has cut energy and weapons deals, often in defiance of Congressional 
sanctions that this administration appears unwilling to enforce.

    Question. What are Russia's goals in the Middle East? What 
countries in the region do you see as priorities for Russia and in what 
countries should the U.S. prioritize pushing back on Russian influence?

    Answer. Russia seeks to extend its influence in the Middle East and 
undermine U.S. credibility, partnerships, and interests. Russia has not 
shown a willingness, let alone a capability, to organize a collective 
effort to confront a regional security threat. Russia has sought to 
play both sides in conflicts across the region to advance its narrow 
interests. The U.S. vision for the region stands in sharp contrast to 
the transactional relationships offered by Russia. The United States 
has a long track-record of working to bring peace, stability, and 
prosperity to the Middle East. We defend our allies, we are committed 
to economic growth that provides jobs and prosperity in the United 
States and around the world, and we value individual freedom and 
democracy.

    Question. What steps is the U.S. taking to counter Russian 
influence in the Middle East? What further steps should the U.S. take?

    Answer. Russia seeks to extend its influence in the Middle East and 
undermine U.S. credibility, partnerships, and interests. Russia has not 
shown a willingness, let alone a capability, to organize a collective 
effort to confront a regional security threat. Russia has sought to 
play both sides in conflicts across the region to advance its narrow 
interests. Our vision for the region stands in sharp contrast to the 
transactional relationships offered by Russia. The United States has a 
long record of working to bring peace, stability, and prosperity to the 
Middle East. We defend our allies, we are committed to economic growth 
that provides jobs and prosperity in the United States and around the 
world, and we value individual freedom and democracy.

    Question. If confirmed, what steps will you take to counter Russian 
influence in the Middle East?

    Answer. We will counter Russian influence in the Middle East by 
continuing to demonstrate that the United States remains the partner of 
choice to address the region's most pressing challenges. We will work 
to counter Russian disinformation that distorts the unhelpful role 
Russia plays in prolonging regional conflicts. In Syria, we will 
continue to call out Russia for its support of the murderous Assad 
regime. In Libya, Russia's use of so-called ``private'' military forces 
is plain to see. In the Gulf, Russia has reincarnated a failed 20-year 
old concept to divert attention from more effective efforts such as our 
International Maritime Security Construct. We have yet to see Russia 
take a principled stand on human rights in the region.

    Question. Do you believe that Russia is capable of or politically 
willing to reduce Iranian influence in Syria?

    Answer. Both Russia and Iran provide military and political support 
to the Syrian regime. While Russia and Iran's goals in Syria are not 
identical, we do not assess that Russia is seeking to limit Iran's 
influence in Syria.

    Question. Russia remains a key party to the JCPOA and has made 
clear its opposition to the maximum pressure campaign against Iran and 
has been muted in its condemnation of Iranian backsliding in the deal. 
What common interests does Russia share with the U.S. regarding Iran? 
What role will you play in engaging with Russia regarding Iran and the 
JCPOA?


    Answer. Although we have a shared interest with Russia in ensuring 
that Iran does not have nuclear weapons, Russia has generally been 
obstructionist in holding Iran accountable for both its JCPOA and NPT 
commitments. Every nation, including Russia, has an interest in 
preventing a nuclear Iran. If confirmed, I will play a supporting role 
to the Secretary and Special Representative Hook in implementing our 
Iran policy.

    Question. Russia continues to push weapons systems and arms sales 
with various Middle East countries. What specific steps will you take 
to address this concern and potential threat to U.S. interests in the 
region?


    Answer. We take reports of purchases of major Russian weapons 
systems seriously and engage with host governments on the matter. The 
Department does not pre-judge such sales before money is exchanged. If 
the Department identifies a potentially significant transaction for 
purposes of Section 231, it would review the specific facts of the case 
with these factors in mind. If a country is contemplating purchasing a 
major Russian system, we have frank discussions with the host 
government about the consequences of such sales. We have informed all 
countries about CAATSA implications for significant Russian arms 
purchases, and wherever possible we encourage partners to opt for 
systems from alternate suppliers that will meet their needs.

    Question. What message does it send to other countries in the 
Middle East that the United States has yet to fully implement CAATSA 
sanctions against Turkey for its purchase of the S400 Air Defense 
system?


    Answer. The administration is deeply concerned by the delivery of 
S-400 systems to Turkey, as demonstrated by our swift decision to 
suspend Turkey from the F-35 program. Our deliberative process on 
CAATSA sanctions is ongoing, and we are committed to implementing 
CAATSA. Our message to all our allies and partners around the world 
remains the same: avoid transactions with Russia's defense and 
intelligence sectors that could result in sanctions pursuant to CAATSA 
Section 231. As a result, Russia has lost billions of dollars' worth of 
deals.

Humanitarian Situation in Northeastern Syria
    Question. What steps is the administration/State Department taking 
to mitigate the humanitarian catastrophe in Northeast Syria?

    Answer. The State Department and USAID are committed to providing 
humanitarian assistance to the most vulnerable Syrians in need, 
regardless of territorial control. Some humanitarian partners, 
including U.N. partners, are currently operating in Syrian government-
controlled areas. Relief organizations that maintain registration with 
the government of Turkey are able to provide humanitarian assistance to 
some parts of Syria through Turkey but face many administrative 
barriers that limit assistance. Seeking registration and permissions to 
operate in areas controlled by either government is a significant 
challenge and the types of assistance permitted are often limited.

    Question. As Russian and Syrian forces take control of territory, 
there are thousands of Syrian aid workers under immediate threat of 
harassment, harm, arrest, conscription or worse. Will the USG ensure 
that funding for the humanitarian response inside Syria be made 
flexible to cover the costs of evacuation and relocation of these 
vulnerable Syrians who have supported U.S. efforts and interests? What 
is the diplomatic strategy for ensuring humanitarian access to those in 
need in NE Syria via the most direct routes, including cross-border 
mechanisms authorized under UNSC Resolution 2449?

    Answer. The U.S. government is committed to providing humanitarian 
assistance to the most vulnerable Syrians in need, regardless of 
territorial control, and many of our partners continue to provide 
assistance in the northeast, in whole or in part, where security 
allows. We work with partners to ensure flexibility and the protection 
and safety of their international and national staff. Shifts in lines 
of control and entities providing administrative control could impact 
the ability of organizations to provide humanitarian assistance. The 
U.S. government strongly supports the renewal of UNSCR 2165 which 
authorizes the use of four border crossings for relief operations. Both 
State/PRM and USAID offer Duty of Care financial assistance for this 
very purpose.

Crackdown on Activism in Russia
    Question. Please discuss your understanding of U.S visa policy 
toward pro-democracy activists from Russia, in light of the fact that 
many have been criminally convicted by the Russian state as a result of 
their activism (with criminal charges and facts often fabricated or 
grossly exaggerated) and the fact that many are not employed, again due 
to their activism.

    Answer. Democracy activists are always welcome to apply for visas 
and, by law, are not refused due to conviction for purely political 
offenses. Consular officers adjudicate visas consistent with the 
Immigration and Nationality Act and the CFR, which explicitly exempt 
``offenses that resulted in convictions obviously based on fabricated 
charges or predicated upon repressive measures against racial, 
religious, or political minorities.'' By U.S. law and Department 
policy, any visa applicant convicted of any crime is given the 
opportunity to explain the circumstances of the conviction during a 
visa interview.

    Question. Would you support the use of Global Magnitsky sanctions 
against judges, law enforcement investigators, and prosecutors who 
actively engage in the fabrication of cases and the criminal 
prosecution of pro-democracy protestors, and of the parents of youth 
protestors, often based on false or extremely exacerbated charges?

    Answer. The Global Magnitsky Act empowers the United States to take 
significant steps to protect and promote human rights and combat 
corruption around the world. If confirmed, I will work with all 
relevant interagency partners to implement Global Magnitsky in 
accordance with U.S. law, including against those who would use 
fabricated evidence or false charges against innocent protestors or 
activists.

    Question. If confirmed, how would you work as Ambassador with the 
U.S. State Department and the administration to increase pressure on 
the Kremlin to release the now more than 300 political prisoners held 
in the Russian Federation?

    Answer. I share Congressional concerns about the deteriorating 
human rights situation in Russia and, if confirmed, I will speak out 
about the growing number of political prisoners, the erosion of 
fundamental freedoms, crackdowns on demonstrations, and other concerns. 
Political prisoners in Russia are reportedly placed in particularly 
harsh conditions of confinement and subjected to other punitive 
treatment within the prison system, such as solitary confinement or 
punitive stays in psychiatric units. If confirmed, I will work to hold 
violators of human rights accountable, including by using sanctions and 
visa restrictions, where we are able to identify conduct that meets the 
required legal thresholds.

    Question. In early October, U.N. Secretary General Guterres sent a 
letter to all Member States raising the alarm about the financial 
situation of the U.N. and calling on States to pay their dues as soon 
as possible. Due to the U.N.'s financial crisis, the Secretary General 
has already suspended non-essential travel, stopped hiring, and 
cancelled or deferred some meetings. The letter indicated that unless 
States pay up, the U.N. may be unable to cover salaries beginning in 
November. As of October 30, 2019, has the U.S. paid all its assessed 
dues to the U.N. in full? If not, please detail what funding is 
outstanding, why the funding has not yet been obligated, and when the 
Department expects those funds to be paid.

    Answer. The Department paid $180 million toward the calendar year 
2019 U.S. assessment for the U.N. regular budget in mid-October. A 
balance of $494 million remains outstanding. The Department is in the 
process of seeking additional funds beyond those available under the 
current continuing resolution, in order to pay an additional $200 
million in late November.
    The Department has paid $634 million in U.N. peacekeeping 
assessments this year. Taking into account the application of $27 
million in credits from prior-year contributions, a balance of $1.6 
billion in current-year U.S. assessments remains outstanding. The 
Department will be paying these assessments at the rate of the 25 
percent cap on peacekeeping assessments later this fall.

    Question. What steps should the Department take to ensure that it 
pays its U.N. bills in full and on time?

    Answer. Paying the U.N. regular budget assessment in full and on 
time would require reversing the long-standing practice of deferring 
payments for the regular budget until the following fiscal year. That 
practice has been in place since the early 1980s. The Department paid 
$180 million toward the calendar year 2019 U.S. assessment for the U.N. 
regular budget in mid-October. A balance of $494 million remains 
outstanding. The Department is in the process of seeking additional 
funds beyond those available under the current continuing resolution, 
in order to pay an additional $200 million in late November.
    The Department is taking steps to pay U.N. peacekeeping assessments 
on a more timely basis. Paying peacekeeping assessments in full would 
require either: (a) reducing the actual peacekeeping assessment rate 
from the current 27.9 percent to 25 percent; or (b) reaching agreement 
to lift the 25 percent legislative cap on U.S. peacekeeping 
assessments. The Department has paid $634 million in U.N. peacekeeping 
assessments this year. Taking into account the application of $27 
million in credits from prior-year contributions, a balance of $1.6 
billion in current-year U.S. assessments remains outstanding. The 
Department will be paying these assessments at the rate of 25 percent 
later this fall.

Foreign Assistance
    Question. Do you believe that it is in the U.S. interest to provide 
development assistance supporting activities that improve economic 
growth and opportunity, stability, wellness, and security? Do you 
believe the cuts to foreign assistance the administration has 
consistently proposed for fiscal years 2018, 2019, and 2020, if 
enacted, would improve the effectiveness U.S. foreign assistance?

    Answer. Yes, I support the administration's budget requests. 
Foreign Assistance can be an effective tool, when deployed correctly 
and used in concert with diplomacy, to accomplish administration 
priorities and advance U.S. national security objectives. I look 
forward to continuing to support the effective and efficient use of 
every tax dollar appropriated by Congress.

    Question. During the President's 2018 State of the Union speech and 
again at the U.N. General Assembly in the Fall of last year, the 
President made the statement that the U.S. should only provide 
assistance ``to our friends.'' What is the policy realizing these 
statements? Who is, and is not, considered ``our friends''? What role 
have you played in developing and implementing this policy? Do you 
believe that this sort of transactional politics serve as the basis for 
determining where and to whom receives U.S. foreign assistance?

    Answer. With limited resources, it is important to focus our 
foreign assistance where we can have the greatest impact. And there has 
been an ongoing foreign assistance review to achieve that goal.

    Question. Can you explain the policy and process that led to the 
administration's decision to suspend most foreign assistance to 
Guatemala, Honduras and El Salvador? Would you please also provide the 
data that supports or recommends withholding or suspending foreign 
assistance as effective means towards reducing migration from these 
countries?

    Answer. The President directed the Secretary and the Department to 
reprogram certain aid that would have gone to El Salvador, Guatemala, 
and Honduras to send a message that these governments must demonstrate 
the political will to do more to address outward migration. The 
Secretary also decided to condition further action on some Fiscal Year 
2017 foreign assistance funds until the Department is satisfied that 
these countries are taking sufficient action to reduce the number of 
migrants coming to the U.S. border. Reductions in apprehensions of 
illegal immigrants at our southern border and the recently signed 
Asylum Cooperation Agreements (ACAs) are testament to the effectiveness 
of this policy. Some of the foreign assistance to these countries was 
resumed on October 16, 2019.

    Question. What are the goals and objectives that administration 
expects to accomplish through the suspension of foreign assistance to 
Guatemala, Honduras and El Salvador? Would you please include how these 
goals and objectives apply to any decision to maintain, carryover, or 
instate a suspension on foreign assistance to these countries for 
fiscal year 2020 and beyond?

    Answer. Earlier this year, consistent with the President's 
direction, the Department reprogrammed foreign assistance previously 
planned for these countries to persuade them to do more to stop illegal 
immigration through our southern border. Reductions in apprehensions of 
illegal immigrants at our southern border and the recently signed 
Asylum Cooperation Agreements (ACAs) are testament to the success of 
this policy. On October 16, the Department informed Congress of our 
intent to move forward with some targeted U.S. foreign assistance for 
El Salvador, Guatemala, and Honduras aimed at advancing our joint 
efforts to deter illegal immigration from these countries.

    Question. What role have you played in the decision to suspend most 
foreign assistance to El Salvador, Honduras, and Guatemala?

    Answer. I worked with the Director of the Office of Foreign 
Assistance to implement the President's decision to reprogram most 
foreign assistance to these countries.

    Question. What guidance is the State Department giving the USAID 
missions to El Salvador, Honduras, and Guatemala on how to plan for the 
year ahead while the status and availability of the resources remains 
in question?

    Answer. The progress these countries have made toward our mutual 
goals is a step in the right direction. These programs will complement 
our joint security plans for each government; augment private sector 
efforts to create economic opportunity; promote the rule of law, 
institution building, and good governance; and help these countries 
develop their capacities to implement the recently signed agreements to 
build stronger local asylum systems. The Department and USAID look 
forward to working with Congress in support of foreign assistance 
programs that aim to decrease outward migration and improve U.S. 
national security.

Climate Security
    Question. Do you believe the effects of climate change present 
challenges to U.S. national security that must be accounted for?

    Answer. I have no reason to take issue with the 2018 Worldwide 
Threat Assessment of the U.S. Intelligence Community, which identifies 
the impacts of climate change, among other factors, as likely to fuel 
economic and social discontent, and notes that extreme weather events 
in a warmer world have the potential for greater impacts and compound 
with other drivers to raise risks. National security agencies analyze 
and take into account all information and factors that could affect 
national security.

    Question. Are you aware of efforts, led by the White House 
(particularly those led by former Senior national security advisor Dr. 
William Happer, to question or reevaluate the significance of and 
utilization of climate science in U.S. national security planning?

    Answer. I am not. I am also not in a position to comment on 
internal policy deliberations at the White House, including 
participation and topics of discussions.

    Question. What role, if any, did you have in decisions and 
implementation of policies to diminish the consideration, or question 
the validity, of applying consensus climate science to national 
security planning? Have you expressed concerns, or opposed, any of the 
administration's efforts to diminish the utilization and application of 
climate science in national security planning?

    Answer. I have no reason to take issue with the 2018 Worldwide 
Threat Assessment of the U.S. Intelligence Community, which identifies 
the impacts of climate change, among other factors, as likely to fuel 
economic and social discontent, and notes that extreme weather events 
in a warmer world have the potential for greater impacts and compound 
with other drivers to raise risks. National security agencies analyze 
and take into account all information and factors that could affect 
national security.

Paris Agreement
    Question. Do you believe it is in the U.S. national interest to be 
the only country not party to the Paris Agreement on Climate Change? 
How are U.S. interests' better served as a non-party to the Paris 
Agreement?

    Answer. When the President announced his intention to withdraw from 
the Paris Agreement absent the identification of better terms for the 
American people, he emphasized concerns that the United States had 
pledged to do much more to reduce emissions under the Agreement than 
major U.S. economic competitors, and that the United States would put 
itself at an economic disadvantage. As a Party to the UNFCCC and in 
other fora, the Department continues to work to ensure that the United 
States remains engaged in international negotiations and discussions on 
the issue of climate change to advance and protect U.S. interests.

    Question. How is the United States, when (or if) it becomes a non-
party to Paris Agreement, is insulated or shielded from decisions and 
actions achieved by the parties to Paris Agreement that effect the 
global economy?

    Answer. The United States is proud of our record as a world leader 
in reducing all emissions and fostering resilience at home and abroad. 
The Department will remain a Party to the U.N. Framework Convention on 
Climate Change (UNFCCC), and will continue to participate in 
international climate negotiations to ensure a level playing field and 
to protect U.S. economic and environmental interests. The United 
States' approach to environmental protection serves U.S. interests and 
has unburdened communities, individuals, and industries to develop and 
implement policies that fit their needs. This approach leverages the 
ingenuity of our citizens and businesses to protect the environment, 
ensure our energy security, and grow our economy.
    When the President announced his intentions to withdraw the U.S. 
from the Paris Agreement on June 1, 2017 he mentioned his intention to 
take a number of alternative and related actions to the U.S.'s 
withdrawal from the Paris Agreement. In your role as Deputy Secretary 
of State can you please provide answers, to the best of your knowledge, 
to the following:

    Question. What progress has been made by the President to ``start 
to negotiate, and we will see if we can make a deal that's fair''? What 
involvement and work has the State Department done towards developing a 
new ``fair'' ``deal''? What efforts has the White House made to ``to 
immediately work with Democrats to either negotiate our way back into 
Paris''? Have you received any instruction, or taken any initiative to 
deliver on this objective as mentioned by the President?

    Answer. The U.S. position with respect to the Paris Agreement has 
not changed. I am not in a position to comment on internal policy 
deliberations and I would have to refer you to the NSC for more 
specific information in response to those questions.

    Question. What is the timeline for delivering outcomes on either of 
these intended actions?

    Answer. The U.S. position with respect to the Paris Agreement has 
not changed. I am not in a position to comment on internal policy 
deliberations and I would have to refer you to the NSC for more 
specific information in response to those questions.

El Salvador
    Question. What was the strategic reason and rationale for 
suspending and reprogramming U.S. foreign assistance to El Salvador?

    Answer. The President directed the Secretary and the Department to 
reprogram certain aid that would have gone to El Salvador to send a 
message that the government must do more to address outward migration. 
The Secretary further decided to condition further action on some 
Fiscal Year 2017 foreign assistance funds until the Department is 
satisfied El Salvador is taking sufficient action to reduce the number 
of migrants coming to the U.S. border. On October 16, the President 
decided to resume certain foreign assistance to El Salvador due to the 
successful efforts of that government in reducing illegal migration to 
the United States.

    Question. Can you tell us when you were informed of the President's 
decision to suspend and reprogram U.S. foreign assistance to El 
Salvador?

    Answer. On March 29, 2019.

    Question. Were you informed of this decision prior to the 
president's announcement?

    Answer. No, I was not personally informed prior to the decision. 
Once the decision was made, I supported State Department colleagues in 
implementing it.

    Question. What steps did you personally take to carry out this 
decision?

    Answer. Along with the Secretary, I instructed the Department to 
carry out the President's decision. I also personally engaged the House 
Appropriations Committee about the status of the assistance to these 
countries.

    Question. What steps did you personally take in the decision to 
partially reinstate foreign assistance to El Salvador?

    Answer. At the President's direction on October 13, I worked with 
the relevant offices in the Department and USAID to move forward with 
targeted assistance to El Salvador.

    Question. What evaluation did the State Department conduct about 
the repercussions to U.S. national interests and national security of 
suspending and reprogramming U.S. foreign assistance to El Salvador? 
When did such an evaluation start and when did it finish? What were the 
findings of any such evaluation?

    Answer. In April 2019, the Secretary initiated a review of all 
Department of State and United States Agency for International 
Development (USAID) Fiscal Year 2017 foreign assistance funding for 
current agreements and awards for El Salvador, Guatemala, and Honduras. 
This complex review encompassed $617 million in planned assistance 
spanning 707 individual programs and activities for these countries. 
The review focused on costs that would be incurred by shutting down 
existing activities. As a result of the review, the Secretary decided 
in June 2019 that Fiscal Year 2017 funds previously awarded via grants 
and contracts to implementing partners, would continue. These 
activities total approximately $450 million.

    Question. What specific steps does the United States want El 
Salvador to take prior to obligating new U.S. foreign assistance for El 
Salvador? Has El Salvador taken any such steps? What is the potential 
timeline for reinstating U.S. foreign assistance to El Salvador?

    Answer. The President and the Secretary expect the government of El 
Salvador to take clear action to stem irregular migration to the United 
States, such as combatting migrant smuggling and human trafficking 
rings, enhancing border security, dissuading its citizens from 
illegally immigrating, and receiving and reintegrating its returned 
citizens. The Department works with DHS to monitor migration flows in 
the region and actions by the government of El Salvador to reduce 
irregular immigration. El Salvador has taken important steps, including 
signing an Asylum Cooperation Agreement. Because of this successful 
approach, the President on October 16 reinstated targeted foreign 
assistance to support such actions.

    Question. To your knowledge, is the government of El Salvador 
speaking with any other foreign donors or investors-including, but not 
limited to the government of China- to offset the impact of the U.S. 
cuts during this period in which we have suspended foreign assistance?

    Answer. No, not to my knowledge. Nonetheless, increasing engagement 
by China and Russia in the region poses a nascent but serious challenge 
to U.S. national security interests. We actively engage governments on 
both the risks posed by problematic Chinese assistance as well as the 
opportunities presented by working with democratic development partners 
that bring international quality standards, transparency, and respect 
for human rights. These alternatives include the United States, Japan, 
South Korea, Taiwan, and multilateral development finance institutions 
such as the Inter-American Development Bank.Guatemala

    Question. What was the strategic reason and rationale for 
suspending and reprogramming U.S. foreign assistance to Guatemala?

    Answer. The President directed the Secretary and the Department to 
reprogram certain aid that would have gone to Guatemala to send a 
message that the government must do more to address outward migration. 
The Secretary further decided to condition further action on some 
Fiscal Year 2017 foreign assistance funds until the Department is 
satisfied Guatemala is taking sufficient action to reduce the number of 
migrants coming to the U.S. border. On October 16, the President 
decided to resume certain foreign assistance to Guatemala due to the 
successful efforts of the government in reducing illegal migration to 
the United States.

    Question. Can you tell us when you were informed of the President's 
decision to suspend and reprogram U.S. foreign assistance to Guatemala?

    Answer. On March 29, 2019.

    Question. Were you informed of this decision prior to the 
president's announcement?

    Answer. No, I was not personally informed prior to the decision. 
Once the decision was made, I supported State Department colleagues in 
implementing it.

    Question. What steps did you personally take to carry out this 
decision?

    Answer. Along with the Secretary, I instructed the Department to 
carry out the President's decision. I also personally engaged the House 
Appropriations Committee about the status of the assistance to these 
countries.

    Question. What evaluation did the State Department conduct about 
the repercussions to U.S. national interests and national security of 
suspending and reprogramming U.S. foreign assistance to Guatemala? When 
did such an evaluation start and when did it finish? What were the 
findings of any such evaluation?

    Answer. In April 2019, the Secretary initiated a review of all 
Department of State and United States Agency for International 
Development (USAID) Fiscal Year 2017 foreign assistance funding for 
current agreements and awards for Guatemala, El Salvador, and Honduras. 
This complex review encompassed $617 million in planned assistance 
spanning 707 individual programs and activities for these countries. 
The review focused on costs that would be incurred by shutting down 
existing activities. As a result of the review, the Secretary decided 
in June 2019 that Fiscal Year 2017 funds previously awarded via grants 
and contracts to implementing partners, would continue. These 
activities total approximately $450 million.

    Question. What specific steps does the United States want Guatemala 
to take prior to obligating new U.S. foreign assistance for Guatemala? 
Has Guatemala taken any such steps? What is the potential timeline for 
reinstating U.S. foreign assistance to Guatemala?

    Answer. The President and the Secretary expect the government of 
Guatemala to take clear action to stem irregular migration to the 
United States, such as combatting migrant smuggling and human 
trafficking rings, enhancing border security, dissuading its citizens 
from illegally immigrating, and receiving and reintegrating its 
returned citizens. We work with DHS to monitor migration flows in the 
region and actions by the government of Guatemala to reduce irregular 
immigration. Guatemala has taken important steps, including signing an 
Asylum Cooperation Agreement. Because of this successful approach, the 
President on October 16 reinstated targeted foreign assistance to 
support such actions.

    Question. Is the government of Guatemala speaking with any other 
foreign governments-including, but not limited to the government of 
China-to offset the impact of the U.S. cuts during this period in which 
we have suspended foreign assistance?

    Answer. No, not to my knowledge. Nonetheless, increasing engagement 
by China and Russia in the region poses a nascent but serious challenge 
to U.S. national security interests. We actively engage governments on 
both the risks posed by problematic Chinese assistance as well as the 
opportunities presented by working with democratic development partners 
that bring international quality standards, transparency, and respect 
for human rights. These alternatives include the United States, Japan, 
South Korea, Taiwan, and multilateral development finance institutions 
such as the Inter-American Development Bank.

Honduras
    Question. What was the strategic reason and rationale for 
suspending and reprogramming U.S. foreign assistance to Honduras?

    Answer. The President directed the Secretary and the Department to 
reprogram certain aid that would have gone to Honduras to send a 
message that the government must do more to address outward migration. 
The Secretary further decided to condition further action on some 
Fiscal Year 2017 foreign assistance funds until the Department is 
satisfied Honduras is taking sufficient action to reduce the number of 
migrants coming to the U.S. border. On October 16, the President 
decided to resume certain foreign assistance to Honduras due to the 
successful efforts of the government in reducing illegal migration to 
the United States.

    Question. Can you tell us when you were informed of the President's 
decision to suspend and reprogram U.S. foreign assistance to Honduras?

    Answer. On March 29, 2019.

    Question. Were you informed of this decision prior to the 
president's announcement?

    Answer. No, I was not personally informed prior to the decision. 
Once the decision was made, I supported State Department colleagues in 
implementing it.

    Question. What steps did you personally take to carry out this 
decision?

    Answer. Along with the Secretary, I instructed the Department to 
carry out the President's decision. I also personally engaged the House 
Appropriations Committee about the status of the assistance to these 
countries.

    Question. What evaluation did the State Department conduct about 
the repercussions to U.S. national interests and national security of 
suspending and reprogramming U.S. foreign assistance to Honduras? When 
did such an evaluation start and when did it finish? What were the 
findings of any such evaluation?

    Answer. In April 2019, the Secretary initiated a review of all 
Department of State and United States Agency for International 
Development (USAID) Fiscal Year 2017 foreign assistance funding for 
current agreements and awards for Honduras, El Salvador, and Honduras. 
This complex review encompassed $617 million in planned assistance 
spanning 707 individual programs and activities for these countries. 
The review focused on costs that would be incurred by shutting down 
existing activities. As a result of the review, the Secretary decided 
in June 2019 that Fiscal Year 2017 funds previously awarded via grants 
and contracts to implementing partners, would continue. These 
activities total approximately $450 million.

    Question. What specific steps does the United States want Honduras 
to take prior to obligating new U.S. foreign assistance for Honduras? 
Has Honduras taken any such steps? What is the potential timeline for 
reinstating U.S. foreign assistance to Honduras?

    Answer. The President and the Secretary expect the government of 
Honduras to take clear action to stem irregular migration to the United 
States, such as combatting migrant smuggling and human trafficking 
rings, enhancing border security, dissuading its citizens from 
illegally immigrating, and receiving and reintegrating its returned 
citizens. We are working with DHS to monitor migration flows in the 
region and actions by the government of Honduras to reduce irregular 
immigration. Honduras has taken important steps, including signing an 
Asylum Cooperation Agreement. Because of this successful approach, the 
President on October 16 reinstated targeted foreign assistance to 
support such actions.

    Question. Is the government of Honduras speaking with any other 
foreign governments-including, but not limited to the government of 
China-to offset the impact of the U.S. cuts during this period in which 
we have suspended foreign assistance?

    Answer. No, not to my knowledge. Nonetheless, increasing engagement 
by China and Russia in the region poses a nascent but serious challenge 
to U.S. national security interests. The Department actively engages 
governments on both the risks posed by problematic Chinese assistance 
as well as the opportunities presented by working with democratic 
development partners that bring international quality standards, 
transparency, and respect for human rights. These alternatives include 
the United States, Japan, South Korea, Taiwan, and multilateral 
development finance institutions such as the Inter-American Development 
Bank.

U.S.-Mexico Joint Declaration and Supplemental Agreement
    Question. On August 7, 2019 I sent a letter to the Secretary 
regarding the U.S.-Mexico Joint Declaration and Supp. Agreement. To 
date, I have not received a fulsome, accurate, and transparent written 
response to each question as requested. I have also received the 
following statements conveyed by the Department to the committee in 
response to questions originally submitted to the Department on June 8, 
2019:

 ``We can confirm that we regard the Joint Declaration with Mexico 
        to be an authoritative political agreement that both 
        governments will implement in good faith.''--email from the 
        Bureau of Legislative Affairs (C. Donnelly) to SFRC staff, 
        dated July 12. Acting Legal Adviser String, in his July 24 
        appearance before SFRC, testified that the JD is an 
        ``important, authoritative agreement.''
 ``We can now confirm that the United States regards the June 7 
        Joint Declaration and the Supplementary Agreement with Mexico, 
        which we have previously provided to the committee, 
        collectively to constitute a binding agreement under 
        international law. We will be transmitting these instruments to 
        Congress, in accordance with the Case Act.''--email from the 
        Bureau of Legislative Affairs (C. Donnelly) to SFRC staff, 
        dated July 29, and letter from Assistant Secretary for 
        Legislative Affairs to Ranking Member Menendez, dated August 1.
  ``We consider the Joint Declaration and Supplementary Agreement to 
        be, collectively, an executive agreement, concluded in the 
        exercise of the President's constitutional authority for the 
        conduct of foreign relations.''--email from the Bureau of 
        Legislative Affairs (C. Donnelly) to SFRC staff, dated July 29, 
        and letter from Assistant Secretary for Legislative Affairs to 
        Ranking Member Menendez, dated August 1.

    Please explain why the Department characterized the Joint 
Declaration (JD) as an ``authoritative political agreement,'' which 
appears to blur the line between instruments that are binding under 
international law--generally referred to as legal agreements--and 
instruments that are not binding under international law--generally 
referred to as political arrangements or commitments.

    Answer. I understand that representatives from the Department of 
State and the Department of Homeland Security recently have provided 
detailed briefings to the staff of the Foreign Relations Committee on 
the agreement. It is my further understanding that the United States 
regards the Joint Declaration and Supplementary Agreement collectively 
to constitute a legally binding agreement under international law and 
that the Department transmitted these instruments to the Congress 
pursuant to the Case Act on August 6, 2019.

    Question. Please explain the precise characteristics that lead to 
the classification of a written instrument or oral commitment as an 
``authoritative political agreement.''

    Answer. As you know, the President announced that the United States 
and Mexico had entered into this agreement on June 7. Two days later, 
the Mexican government issued a statement indicating a view that this 
arrangement was not legally binding.
    In the wake of this Mexican statement, we believed it was important 
to take time to review the status of the arrangement and engage with 
the government of Mexico before stating a definitive position, and it 
was during this period that we communicated the position that we viewed 
this arrangement as an ``authoritative political agreement.''
    While we recognize the ambiguity of this statement, we believed it 
was important at that time, given those ongoing discussions.
    We have now clearly communicated our view to the government of 
Mexico that the arrangement is legally binding, consistent with the 
requirements and timeframe envisioned by the Case Act.

    Question. Please provide examples of other ``authoritative 
political agreements'' in U.S. history. Were such instruments or oral 
commitments referred to as ``authoritative political agreements'' at 
the time they were finalized or concluded? If not, when were they 
classified as such? For any examples, please indicate whether they are 
binding or non-binding for purposes of international law, and whether 
they were reported under the Case Act (if finalized subsequent to 
enactment of that statute).

  Does the United States ever enter into political agreements that 
        are not ``authoritative?'' If yes, please explain why, and 
        please provide examples of such non-authoritative political 
        agreements.

  Does the Department generally transmit to Congress authoritative or 
        non-authoritative political agreements pursuant to the Case 
        Act? If yes, please provide examples. If no, please explain why 
        not.


    Answer. My understanding is that the situation presented a number 
of unique issues. As you know, the President announced that the United 
States and Mexico had entered into this agreement on June 7. Two days 
later, the Mexican government issued a statement indicating a view that 
this arrangement was not legally binding.
    In the wake of this Mexican statement, we believed it was important 
to take time to review the status of the arrangement and engage with 
the government of Mexico before stating a definitive position, and it 
was during this period that we communicated the position that we viewed 
this arrangement as an ``authoritative political agreement.''
    While we recognize the ambiguity of this statement, we believed it 
was important at that time, given those ongoing discussions.
    We have now clearly communicated our view to the government of 
Mexico that the arrangement is legally binding, consistent with the 
requirements and timeframe envisioned by the Case Act.
    With respect to the decision to report this under the Case Act, my 
understanding is that the Department followed the criteria set out at 
22 CFR 181.2 in deciding whether any undertaking, oral agreement, 
document, or set of documents, including an exchange of notes or of 
correspondence, constitutes an international agreement within the 
meaning of the Case Act. These include the identity and intention of 
the parties; the significance of the arrangement; specificity, 
including objective criteria for determining enforceability; the 
necessity for two or more parties; and the form of the instrument. It 
is my understanding that the Department transmitted to Congress the 
Mexico Joint Declaration and Supplementary Agreement under the Case Act 
on August 6, 2019.

    Question. Were the JD and Supplementary Agreement (SA) negotiated 
and concluded pursuant to C-175 authority?

   If yes, did the C-175 authorization and underlying memorandum of 
        law indicate that the JD, the SA or both, individually or 
        collectively, would constitute a binding agreement under 
        international law? Please explain.

  If yes, please proved the date(s) any such C-175 authority was 
        issued.

  If yes, please provide copies of the authority and underlying 
        memorandum of law.
 
 If the JD and/or the SA were not negotiated and/or concluded 
        pursuant to C-175 authority, please explain why.


    Answer. The Circular 175 process is an internal executive branch 
process for coordinating and facilitating review and approval of 
proposed international agreements. I am not in a position to discuss 
the administration's internal deliberations regarding the negotiation 
of the Joint Declaration and Supplementary Agreement. I can assure you, 
however, that the Joint Declaration and Supplementary Agreement were 
reviewed and approved prior to their conclusion.

    Question. Please indicate whether the JD alone is binding under 
international law.

  Please identify the characteristics of the JD from which it can be 
        concluded that both the United States and Mexico regard the JD 
        as binding under international law.

  Please indicate which specific provisions of the JD impose binding 
        obligations on either the U.S., Mexico, or both.

  Please indicate whether the SA alone is binding under international 
        law.

  Please identify the characteristics of the SA from which it can be 
        concluded that both the United States and Mexico regard the SA 
        as binding under international law.
  Please indicate which specific provisions of the SA impose binding 
        obligations on either the U.S., Mexico, or both.


    Answer. I understand that representatives from the Department of 
State and the Department of Homeland Security recently have provided 
detailed briefings to the staff of the Foreign Relations Committee on 
the agreement. It is my understanding that the United States regards 
the Joint Declaration and Supplementary Agreement collectively to 
constitute a legally binding agreement under international law.
    The two components of this arrangement contain a series of 
commitments, some of which are legally binding and others of which are 
not legally binding. The essential objective of this arrangement was to 
commit the government of Mexico to implement a series of measures 
designed to stem the flow of migrants into the United States.
    As the negotiations unfolded, it became essential to the 
administration to secure the firmest possible commitment that the 
government of Mexico would commence the negotiation of a safe third 
country agreement to ensure that the administration could put such an 
agreement in place if the other measures identified in the arrangement 
were unsuccessful in addressing the migrant flow problem.
    In our view, it is necessary to read the two components of the 
arrangement--the Joint Declaration and Supplementary Agreement--
together as establishing and identifying the triggering conditions for 
the Mexican obligation to ``take the all necessary steps under domestic 
law with a view to ensuring that the agreement will enter into force 
within 45 days.''
    We believe that these arrangements have allowed our two countries 
to make important progress in stemming the flow of migrants.

    Question. Please identify and explain in detail the specific 
factors that the Department analyzed in arriving at the position that 
the JD and SA collectively are binding under international law.

  Please provide a detailed explanation, with relevant examples, of 
        the legal theory by which the Department believes it is 
        possible for a subsequent instrument, such as the SA, to render 
        a change in the legal character of a prior instrument that was 
        not itself previously considered binding under international 
        law.
        
   Please indicate whether the Department's analysis of the binding 
        nature of the JD, SA, and the JD and SA collectively is 
        consistent with the practice and precedent of the United States 
        on international agreements and arrangements, or if the 
        analysis departs from the practice and precedent of the United 
        States in this area. If it does differ, please explain the 
        following: how it differs; why the executive branch departed 
        from U.S. practice and precedent; whether the executive 
        branch's position on the JD, SA, and SA and JD collectively is 
        a one-time departure from U.S. practice and precedent, or 
        whether the departure represents a shift in executive branch 
        practice; and whether the executive branch has made the 
        government of Mexico (GOM) aware of any departure in practice 
        and precedent.

   During the course of the negotiations of the JD and SA, what was 
        the position of the United States on whether the JD, the SA, 
        and the JD and SA collectively were binding under international 
        law?
        
    Acting Legal Adviser String appeared to indicate in his July 24 
        testimony that questions of whether the JD and SA were binding 
        under international law were still being considered within the 
        executive branch. If the United States did not have a position 
        on the question of whether the instruments were binding during 
        the negotiation or when the instruments were finalized, please 
        explain why that would be the case. Did the position of the 
        United States on whether the instruments were binding change 
        from the outset of the negotiations to the date the instruments 
        were finalized or at any point between the date the instruments 
        were finalized to the July 29 communication from the Department 
        to SFRC staff. If yes, please explain the substance of the 
        change(s)--i.e. from what to what--and the reason(s).


    Answer. I understand that representatives from the Department of 
State and the Department of Homeland Security recently have provided 
detailed briefings to the staff of the Foreign Relations Committee on 
the agreement. It is my understanding that the United States regards 
the Joint Declaration and Supplementary Agreement collectively to 
constitute a legally binding agreement under international law.
    The two components of this arrangement contain a series of 
commitments, some of which are legally binding and others of which are 
not legally binding. The essential objective of this arrangement was to 
commit the government of Mexico to implement a series of measures 
designed to stem the flow of migrants into the United States.
    As the negotiations unfolded, it became essential to the 
administration to secure the firmest possible commitment that the 
government of Mexico would commence the negotiation of a safe third 
country agreement to ensure that the administration could put such an 
agreement in place if the other measures identified in the arrangement 
were unsuccessful in addressing the migrant flow problem.
    In our view, it is necessary to read the two components of the 
arrangement--the Joint Declaration and Supplementary Agreement--
together as establishing and identifying the triggering conditions for 
the Mexican obligation to ``take the all necessary steps under domestic 
law with a view to ensuring that the agreement will enter into force 
within 45 days.''
    We believe that these arrangements have allowed our two countries 
to make important progress in stemming the flow of migrants.

    Question. Has the position that the JD and SA collectively 
constitute a binding agreement under international law been conveyed to 
the GOM?


   If yes, please indicate when this position was first conveyed to 
        the GOM. If no, please explain why it has not been conveyed to 
        the GOM.
  
   What is the Department's understanding of the position of the GOM 
        on the following:

   Whether the JD is binding for purposes of international law,

   Whether the SA is binding for purposes of international law, and

   Whether the JD and SA collectively are binding for purposes of 
        international law.

[Please note that the preceding questions are not a request for the 
Department to speak on behalf of the GOM; rather we are interested in 
the Department's understanding of the GOM's position.]

    Answer. I understand that representatives from the Department of 
State and the Department of Homeland Security recently have provided 
detailed briefings to the staff of the Foreign Relations Committee on 
the agreement. It is my understanding that the government of Mexico is 
aware that United States regards the Joint Declaration and 
Supplementary Agreement collectively to constitute a legally binding 
agreement under international law. I have no first-hand information 
regarding the government of Mexico's views on this matter.

    Question. If the GOM does not share (and never has shared) the 
executive branch position that the JD and SA collectively are binding 
under international law, would that change the executive branch 
position that the JD and SA collectively are binding? If no, please 
explain.

   If the GOM does not share (and never has shared) the executive 
        branch position that the JD and SA collectively are binding 
        under international law, could the GOM be bound by any 
        provision of such instruments? If yes, please explain.

   In light of the executive branch position that the JD and SA 
        collectively are binding under international law and the 
        indication that they will be transmitted to Congress pursuant 
        to the Case Act, does the Department commit to transmitting to 
        Congress, pursuant to the Case Act, all similarly-situated 
        instruments going forward?

   Does the Department generally transmit to Congress authoritative or 
        non-authoritative political agreements pursuant to the Case 
        Act? If yes, please provide examples. If not, why not?

    Answer. I understand that representatives from the Department of 
State and the Department of Homeland Security recently have provided 
detailed briefings to the staff of the Foreign Relations Committee on 
the agreement. It is my understanding that the United States regards 
the Joint Declaration and Supplementary Agreement collectively to 
constitute a legally binding agreement under international law.
    With respect to the Department's reporting practice with regard to 
the Case Act, my understanding is that the Department follows the 
criteria set out at 22 CFR 181.2 in deciding whether any undertaking, 
oral agreement, document, or set of documents, including an exchange of 
notes or of correspondence, constitutes an international agreement 
within the meaning of the Case Act, and that it will continue to do so.

    Question. The Department has indicated that it ``consider[s] the 
Joint Declaration and Supplementary Agreement to be, collectively, an 
executive agreement, concluded in the exercise of the President's 
constitutional authority for the conduct of foreign relations.'' Please 
be more specific concerning the constitutional authority asserted as 
the basis for the JD and SA. Which specific provisions of the 
Constitution does the Department view as providing the domestic legal 
authority for the JD and SA?


   Prior to the JD and SA, had the United States concluded any 
        international instrument related to immigration or migration 
        and asserted ``the President's constitutional authority for the 
        conduct of foreign relations'' or any other constitutional 
        authority of the President as the sole domestic legal basis for 
        the instrument(s)?

   If yes, please provide a list of each instrument that meets these 
        criteria, the date it was concluded, and a statement of the 
        specific constitutional provisions that provide the asserted 
        authority.

    Answer. It's my understanding that the Department transmitted the 
Mexico Joint Declaration and Supplementary Agreement under the Case Act 
on August 6, 2019 and that the accompanying report indicated that the 
legal authority for entering into the agreement was Article II of the 
U.S. Constitution.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have consistently sought to advance democracy and human 
rights over the course of my career and during my tenure as Deputy 
Secretary, including by meeting with civil society activists and 
highlighting the cases of individual dissidents. Recently, I was proud 
to co-host a widely attended and publicized event during the high-level 
week of the U.N. General Assembly at which Uighur victims and advocates 
spoke about the horrific abuses being perpetrated by the Chinese 
government against Uighurs and other Muslim minorities in Xinjiang. 
This work has brought more countries to bring pressure on China over 
these abuses. I have also played a primary role in implementing new 
economic and visa sanctions authorities against serious violators of 
human rights and corrupt officials under the Global Magnitsky Act and 
Section 7031(c) of the Appropriations Act of 2019.

    Question. What issues are the most pressing challenges to 
democratic development in Russia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The most pressing challenges to democratic development in 
Russia include impunity for gross violations of human rights such as 
extrajudicial killings and torture; rampant corruption and weak rule of 
law; the lack of authentic political competition; violence and 
discrimination against minorities; and restrictions on civil society, 
religious freedom, public demonstrations, and the press.

    Question. What steps will you take--if confirmed--to support 
democratic development in Russia? What do you hope to accomplish 
through these actions? What are the potential impediments to addressing 
the specific obstacles you have identified?

    Answer. The Russian government uses its powerful state propaganda 
machine to mischaracterize our support for universal human rights as an 
effort to foment a ``color revolution'' or ``interfere in Russia's 
internal affairs.'' The Russian government also seeks to deter our 
diplomatic mission from maintaining routine contacts with civil society 
and to impose costs on those in Russia who would engage with us. If 
confirmed, I will ensure that Mission Russia coordinates with 
likeminded embassies to push back against false propaganda narratives 
and any actions taken to deter our diplomats from performing their core 
functions.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. I believe that the Russian people, like people everywhere, 
deserve a government that supports an open marketplace of ideas, 
transparent and accountable governance, equal treatment under the law, 
and the ability to exercise their rights without fear of retribution. 
Although the space for civil society and free media in Russia has 
become increasingly restricted, Russian organizations and individuals 
continue to express a desire to engage with the United States. As long 
as this continues to be the case, the United States will support 
opportunities for direct interactions between Russians and Americans, 
including through peer-to-peer, educational, cultural, and other 
regional programs on themes of mutual interest.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Russia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. The Russian government has launched a crackdown on 
independent civil society through laws that label NGOs ``undesirable 
foreign organizations'' and ``foreign agents,'' and prevented the 
political opposition from appearing on the ballot. If confirmed, I will 
meet with members of Russian, U.S., and other civil society members. I 
will also work with allies and partners to call on the Russian 
government, in both public statements and private discussions, to 
uphold its international obligations and OSCE commitments to promote 
and protect human rights and fundamental freedoms, including regarding 
the right to freedom of association.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I plan to meet with a broad spectrum of 
Russian political leaders, including individual politicians and 
political parties. Representing America's democratic values, if 
confirmed, I will encourage genuine political competition and urge 
Russian authorities to honor their OSCE commitments to hold free and 
fair elections and respect the rights of free expression, association, 
and assembly.

    Question. Will you and your embassy team actively engage with 
Russia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Russia?

    Answer. If confirmed, I plan to actively engage with Russia on 
freedom of the press. I will routinely prioritize meeting with 
independent and local media.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The Department is leveraging public diplomacy and public 
affairs resources to counter disinformation. This includes promoting 
positive and truthful narratives. If confirmed, I will continue to 
support these efforts at Mission Russia.

    Question. Will you and your embassy teams actively engage with 
Russia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. The Department will engage with Russia on the rights of 
workers and the fundamental right of free association. I will speak out 
about violations of the Russian people's? right to free association, 
including restrictions on independent labor unions.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Russia, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Russia? What specifically will you commit to do to help LGBTQ people in 
Russia?

    Answer. LGBTI persons in Russia face daily discrimination and fear 
of violence. The Russian Federation should not continue to turn a blind 
eye to the grave human rights abuses and violations occurring on its 
soil, including those against LGBTI people. If confirmed, I will call 
upon Russia to investigate allegations of abuse, particularly in 
Chechnya. Unfortunately, rather than live up to its international 
obligations and commitments and its own constitution, Russia appears to 
support the perpetrators rather than the victims and has failed to 
address the grave situation in Chechnya.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No. I take issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness and have done so 
throughout my career.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. During my tenure as Deputy Secretary of State, I have 
immediately addressed any concerns raised to me in accordance with the 
Department of State's policies, including reporting conduct or 
allegations to the Department's Office of Civil Rights, the Inspector 
General, or the Office of Special Counsel, as appropriate.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree that any targeting of, or retaliation against, 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration is wholly 
inappropriate. I take allegations of such practices seriously, and if 
confirmed, I will ensure that all employees under my leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated.



       responses to follow-up questions for the record submitted
        to hon. john joseph sullivan by senator robert menendez
Documents
    Question. In October 2019, Ambassador Michael McKinley testified 
before the House Permanent Select Committee on Intelligence as part of 
the House impeachment inquiry. Ambassador McKinley testified that State 
Department employees had been meeting about collecting documents and 
data in response to congressional requests for documents on Ukraine. By 
October 2019, there had been multiple requests for documents about the 
withholding of U.S. security assistance to Ukraine, including by the 
House committees leading the impeachment inquiry, and a request I sent 
on September 24, 2019.

   What efforts have you made to ensure that the documents collected 
        are being produced toCongress?

    Answer. I searched my records and ensured that my staff searched 
theirs, and sent any potentially responsive documents to the Bureau of 
Administration for collection and, when authorized, production.

    Question. Did you collect documents in response to the House's 
inquiry?

    Answer. Yes.

    Question. If so, when did you collect documents?

    Answer. In early October 2019.

    Question. Who instructed you to collect documents?

    Answer. I collected potentially responsive documents following a 
tasking issued by the Executive Secretariat, as is standard process in 
the Department's document collection.

    Question. To whom did you provide those documents?

    Answer. As is standard process in the Department's document 
collection, my staff and I provided the documents to the Bureau of 
Administration, which compiles the documents for further review.

    Question. Have you had any further communications with any 
Department officials about providing those documents to Congress?

    Answer. No.

    Question. Have you collected any documents in response to my 
September 24, 2019 letter?

    Answer. My document search in early October of this year captured 
documents also responsive to your September 24, 2019 letter.

    Question. Have you had any further communications with any 
Department officials about providing those documents to Congress?

    Answer. No.

    Question. Did you have any advance knowledge of the Secretary's 
October 1, 2019 letter before it was sent to the House Committee on 
Foreign Affairs?

    Answer. No.

    Question. Did you provide any opinion or recommendation as to what 
that letter should or should not contain?

    Answer. No.

    Question. Do you agree with the statements in that letter, 
including that the House's request ``can be understood only as an 
attempt to intimidate, bully, and treat improperly the distinguished 
professionals of the Department of State''?

    Answer. Yes.
    Ambassador McKinley also testified that he raised questions about 
the accuracy of statements that Secretary Pompeo had made to Congress 
in his October 1, 2019 letter. Are you aware of those concerns? Did 
they concern you? What, if anything, did you do in response?
    He never discussed his concerns with me. I understand from his 
testimony that he did not read the letter.

    Question. Ambassador McKinley also testified that he raised 
questions about the accuracy of statements that Secretary Pompeo had 
made to Congress in his October 1, 2019 letter. Are you aware of those 
concerns? Did they concern you? What, if anything, did you do in 
response?

    Answer. He never discussed his concerns with me. I understand from 
his testimony that he did not read the letter.

Kent Memorandum
    Question. Ambassador McKinley testified that Deputy Assistant 
Secretary George Kent wrote a memorandum on or about October 3, 2019 
regarding his treatment by other Department officials, including a 
lawyer in the Legal Adviser's office (``L Bureau''). He testified that 
he passed that memo on to you. Did you read that memo?

    Answer. Yes.

    Question. Did it contain allegations that a State Department lawyer 
was trying to keep him from sharing information with Congress?

    Answer. The memo raised concerns about a briefing to European 
Bureau personnel by a career attorney from the Bureau of Legal Affairs.

    Question. Did it cause you any concern?

    Answer. Yes.

    Question. What did you do upon receiving that memo? Did you discuss 
it with anyone?

    Answer. I asked the Acting Legal Adviser to address the concerns 
raised in the memo directly with those in the Bureau of European 
Affairs who had received the prior briefing.

Bullying Concerns
    Question. Ambassador McKinley also testified that he forwarded 
allegations to senior officials, including you, about intimidation and 
bullying of Department employees who had been asked to provide 
testimony to Congress. Did you read what Amb. McKinley forwarded?

    Answer. Yes. The memorandum is the same document discussed in the 
response to the preceding category of questions and raised concerns 
about a briefing by a career attorney from the Bureau of Legal Affairs 
to personnel of the European Bureau.

    Question. Did those allegations concern you?

    Answer. Yes.

    Question. What, if anything, did you do in response?

    Answer. I asked the Acting Legal Adviser to address the concerns 
raised in the memo directly with those in the Bureau of European 
Affairs who had received the prior briefing.

                               __________


      Responses to Additional Questions for the Record Submitted 
           to Hon. John Joseph Sullivan by Senator Todd Young

    Question. Have you adhered to applicable laws and governing 
conflicts of interest?

    Answer. Yes.

    Question. Have you assumed any duties or any actions that would 
appear to presume the outcome of this confirmation process?

    Answer. No.

    Question. Do you agree, if confirmed, to appear and testify before 
this committee when requested by the Chairman and the Ranking Member?

    Answer. Yes.

    Question. Do you agree to provide documents, and electronic 
communications in a timely manner when requested by this committee, its 
subcommittees, and other appropriate committees of Congress and to the 
requester?

    Answer. Yes.

    Question. Will you ensure that you and your staff complies with 
deadlines established by this committee for the production of reports, 
records, and other documents, including responding timely to hearing 
questions for record?

    Answer. Yes.

    Question. Will you cooperate in providing witnesses and briefers in 
response to congressional requests?

    Answer. Yes.

    Question. And finally, will those briefers be protected from 
reprisal for their briefings?

    Answer. Yes.

                               __________


      Responses to Additional Questions for the Record Submitted 
       to Hon. John Joseph Sullivan by Senator Benjamin L. Cardin

Human Rights:
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have consistently sought to advance democracy and human 
rights in various ways over the course of my career, including by 
regularly meeting with civil society activists and highlighting the 
cases of individual dissidents. Recently, I was proud to host a widely 
attended and publicized event during the high-level week of the U.N. 
General Assembly at which Uighur victims and advocates spoke about the 
horrific abuses being perpetrated by the Chinese government against 
Uighurs and other Muslim minorities in the Xinjiang region. In 
organizing this event, we were able to convince a number of other 
countries to co-sponsor with us. This led to much greater media 
coverage and pressure on China to change its policy in Xinjiang. I have 
also played a primary role in increasing the Department's use of the 
new economic and visa sanctions authorities against serious violators 
of human rights and corrupt officials under the Global Magnitsky Act 
and Section 7031(c) of the Appropriations Act of 2019.

    Question. What are the most pressing human rights issues in Russia? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Russia? What do you hope to 
accomplish through these actions?

    Answer. President Putin has gutted independent institutions, turned 
the parliament into a rubber stamp, eliminated judicial independence, 
and taken control of all televised media. The government increasingly 
restricts free speech in public and online. It has launched a crackdown 
on independent civil society through laws that label NGOs ``undesirable 
foreign organizations'' and ``foreign agents,'' and prevented the 
political opposition from appearing on the ballot. If confirmed, I will 
work with allies and partners to call on the Russian government, in 
both public statements and private discussions, to uphold its 
international obligations and OSCE commitments to promote and protect 
human rights and fundamental freedoms.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Russia in advancing 
human rights, civil society and democracy in general?

    Answer. The Russian government uses its powerful state propaganda 
machine to mischaracterize our support for universal human rights as an 
effort to foment a ``color revolution'' or ``interfere in Russia's 
internal affairs.'' The Russian government also seeks to deter our 
diplomatic mission from maintaining routine contacts with civil society 
and to impose costs on those in Russia who would engage with us. If 
confirmed, I will ensure that Mission Russia coordinates with 
likeminded embassies to push back against false propaganda narratives 
and any actions taken to deter our diplomats from performing their core 
functions.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Russia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I intend to meet regularly with a broad 
spectrum of Russian society, including human rights activists, civil 
society, and religious minorities. I will also ensure that we fully 
implement the Leahy Law.

    Question. Will you and your embassy team actively engage with 
Russia to address cases of key political prisoners or persons otherwise 
unjustly targeted by Russia?

    Answer. If confirmed, my team and I will engage with Russian 
authorities to push for the release of political prisoners and to call 
for the fair treatment of other persons unjustly targeted by Russia.

    Question. Will you engage with Russia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage with Russian authorities and 
members of civil society to urge respect for human rights and good 
governance in Russia.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I would make strong mentoring relationships 
an integral part of the Embassy culture by promoting initiatives that 
support employee engagement, job satisfaction, development of 
leadership skills, and increased teamwork. Mentorship and inclusion are 
basic components of sound leadership.
    As Deputy Secretary of State, I have worked with the Department's 
Employees Affinity Groups (EAGs) and the Office of Civil Rights to 
further diversity and inclusion. I host a quarterly Diversity Forum 
with all EAGs and dedicate my Office's resources to meeting one-on-one 
with the EAGs to learn and address their priorities. If confirmed, I 
would ensure that meaningful discussions to advance diversity and 
inclusion efforts take place at Mission Russia.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will promote a robust Equal Employment 
Opportunity (EEO) program at post that includes continuous training and 
sensitization, meet with EEO counselors to gain their perspectives, and 
ensure that Embassy personnel are aware of the Department of State's 
discrimination and harassment policies and how to report violations. I 
will review current mentoring and support programs, meet with the 
direct-hire and local staff to determine where inclusivity is perceived 
as lacking and direct the Mission management team to make needed 
improvements. In addition, I will review our human resources processes 
to determine where and how we can mitigate unconscious bias and provide 
access to training to support these efforts.
    These are all components of the best leadership traits that I have 
observed during my career. If confirmed, I will stress the need for 
respect (in the workplace and for all colleagues), honestly, and 
accountability.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules. And I commit to raise any and all concerns that 
I may have on any ethics or legal issue through appropriate and 
established channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules. And I commit to raise any and all concerns that 
I may have on any ethics or legal issue through appropriate and 
established channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Russia?

    Answer. No. My investment portfolio includes diversified mutual 
funds, which may hold interests in companies with a presence overseas, 
but which are exempt from the conflict of interest laws. I remain 
committed to ensuring that my official actions will not give rise to a 
conflict of interest. In addition to those investments from which I 
have already divested, I will divest any investments the State 
Department Ethics Office deems necessary to avoid a conflict of 
interest. I assure the committee that I will remain vigilant with 
regard to my ethics obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Russia 
specifically?

    Answer. Political corruption undermines the legitimacy of 
democratic governments and impedes any democracy's efforts to adhere to 
the rule of law, respect its citizens' rights, and treat all citizens 
equally under the law. In Russia specifically, Russian citizens have 
increasingly criticized political corruption by protesting the results 
of the 2018 presidential election and the government's efforts to block 
the registration of legitimate candidates for this year's local 
elections. Political corruption in Russia has also resulted in a 
judicial system that is subject to undue influence from politicians, 
the executive branch, the military, and other security forces; as a 
result, Russian citizens are increasingly turning to the European Court 
of Human Rights for independent, transparent rulings.

    Question. What is your assessment of corruption trends in Russia 
and efforts to address and reduce it by that government?

    Answer. Despite Russia's claims to the contrary, corruption 
continues to be the linchpin of the government's strategy to retain 
control, provide profit for President Putin's oligarchs, punish 
political opponents, and enable opaque governance to benefit the ruling 
elite. Its manifestations include bribery of officials, misuse of 
budgetary resources, theft of government property, kickbacks in the 
procurement process, extortion, and improper use of official positions 
to secure personal profits. Official corruption continues to be rampant 
in numerous areas, including education, military conscription, health 
care, commerce, housing, social welfare, law enforcement, and the 
judicial system.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Russia?

    Answer. If confirmed, I promise to work with allies and partners to 
call on the Russian government, in both public statements and private 
discussions, to uphold the rule of law and create an independent 
judiciary in order to respect its citizens' rights, and treat all 
citizens equally under the law.

    Question. As you know, Russia uses transnational corruption 
networks to influence politicians, gain access to elite circles, and 
produce foreign policy outcomes advantageous to both Russia and its 
authoritarian model. This system uses ill-gotten gains to exert foreign 
influence.

    Question. How can the United States combat this weaponization of 
corruption? How can we be more proactive in engaging in anti-corruption 
diplomacy?

    Answer. Our response to Russia's export of corruption to achieve 
its political objectives continues to be rooted in democratic 
principles of transparency, accountability, and integrity. We will 
proactively identify and publicly address Russian corruption and 
speedily impose sanctions on corrupt foreign officials and agents 
working on behalf of or aligned with Russia. We will also continue to 
work with our allies to press Russia to uphold its anticorruption 
obligations and defend against attempts by Russia to distort the 
international anticorruption framework. We will use all the tools of 
diplomacy, including foreign assistance, to insulate our partners from 
all avenues of Russia's malign influence.

    Question. Corrupt Russian officials go about conducting all manner 
of malfeasance to protect their interests, twist the system of 
governance to their will, and silence rivals, dissidents, activists, 
journalists, and others who might expose their wrongdoing. They achieve 
this through a combination of reputation laundering and transnational 
repression, such abusive red notices at INTERPOL, defamation lawsuits 
meant to bankrupt their target, or plain old assassination. How can the 
United States counter these aspects of Russian foreign policy?

    Answer. As a democratic country that values freedom of speech, we 
must continue to respond quickly and publicly to Russian officials' 
misuse of legitimate institutions to silence their political critics. 
The U.S. government will continue to work with our allies and partners 
to quickly identify and address these abuses by corrupt Russian 
officials and to impose swift punishment through sanctions, visa 
restrictions, and expulsions. We also will continue to coordinate with 
our allies to push back against Russia's attempts to undermine or abuse 
the international framework to combat corruption. One example of 
progress to this end is INTERPOL's reforms allowing for a legal review 
of red notices prior to publication.

    Question. How can the United States and our allies work to diminish 
our roles as safe havens for Russian illicit wealth? How can we cease 
to be a complicit element of authoritarian kleptocracy?

    Answer. The U.S. government must continue its whole-of-government 
approach-in addition to its combined efforts with allies and partners-
to identify Russian individuals and corporations who attempt to 
obfuscate their identity and nationality to bring money into the United 
States illegally and take measures to prevent them from doing so.

Election Security
    Question. In July 2019, FBI Director Christopher Wray told the 
Senate Judiciary Committee that ``the Russians are absolutely intent on 
trying to interfere with our elections,'' and in October 2019, Facebook 
reported that it removed a Russia-based network of Facebook and 
Instagram accounts (together with three Iran-based networks) engaged in 
a disinformation campaign targeting U.S. presidential candidates. 
Former DNI Dan Coats said that Russia, among other nations, is 
``increasingly using cyber-operations to threaten both minds and 
machine in an expanding number of ways--to steal information and to 
influence our citizens.'' Former Special Counsel Robert Mueller found 
in his recent report that Russia interfered in a ``sweeping and 
systematic fashion'' in our 2016 presidential election.

   Do you agree with these assessments from the FBI, DNI, and Special 
        Counsel?

    Answer. Yes. I agree with the intelligence community's assessment 
that Putin ordered an influence campaign in 2016 aimed at the U.S. 
presidential election; one of the objectives of Russia's influence 
campaign was to erode faith in U.S. democratic institutions. I also 
agree with the DNI statement in December 2018 that while there was no 
evidence that U.S. election infrastructure was targeted in the 2018 
midterms, the intelligence community saw Russia conduct influence 
activities and messaging campaigns targeted at the United States to 
promote their strategic interests. I anticipate that Russia will 
continue to try to promote Moscow's strategic interests, stoke internal 
division, and erode faith in U.S. democratic institutions in the lead 
up to the 2020 elections.

    Question. Is the United States government doing enough to deter and 
prevent Russian election interference in the United States or 
elsewhere? What specific steps would you additionally take deter 
Russian interference?

    Answer. The administration is working on a whole-of-government 
basis-together with an integrated public-private coalition--to ensure 
the security of America's elections. This administration has imposed 
serious sanctions on Russia for prior attempts at election 
interference, including a new round of sanctions in September 2019. I 
have been clear in my interactions with senior Russia leaders that 
there will be serious consequences should Russia or its proxies attempt 
to interfere in our electoral processes again. If confirmed, I will 
continue to emphasize in Moscow that Russia will meet swift costs for 
attempts to interfere in democratic processes. And that if Russia 
desires improved relations with the United States, it must stop trying 
to interfere in our elections and in our democracy generally.

    Question. What are Russia's objectives in seeking to interfere in 
the 2020 U.S. presidential election?

    Answer. Russia's influence campaigns seek to promote Moscow's 
strategic interests, stoke internal division, and erode faith in U.S. 
democratic institutions, thereby weakening the United States.

    Question. Last summer, we became aware that a Russian oligarch 
close to Vladimir Putin became the largest investor in a fund tied to 
the company that hosts Maryland's statewide voter registration, 
candidacy, and election management system; the online voter 
registration system; online ballot delivery system; and the unofficial 
election night results website. The disclosure to state officials of 
this change in ownership was made by the FBI and not the company 
itself. This is why Senators Klobuchar, Van Hollen, and I introduced 
the Election Systems Integrity Act (ESIA) (S. 3572), which would 
require disclosure of foreign ownership of election service providers. 
In 2016, accounts tied to Russia circulated misinformation targeted to 
African American groups. The messages contained incorrect information 
about voting, and were designed to sow division. Senator Klobuchar and 
I have also introduced the Deceptive Practices and Voter Intimidation 
Prevention Act (S. 1834) which, among other actions, addresses the use 
of digital platforms to disseminate false information regarding federal 
elections to U.S. voters.

   Do you believe this legislation would help prevent Russian 
        interference in the 2020 election?

    Answer. In my role at the Department of State, I have not reviewed 
this legislation as it is focused on domestic activities. But, as I 
have testified previously, we do need a robust response to Russian 
election interference, including the examples cited above. Any effort 
by the Russian government or its proxies to interfere in our elections 
is unacceptable. All branches of government, civil society, and the 
private sector must work together to protect our elections from any 
type of foreign interference.

    Question. Will you commit to review both the ESIA and the Deceptive 
Practices and Voter Intimidation Prevention Act?

    Answer. Yes. While I will review legislation for potential Russia 
policy implications, I will defer to my colleagues in the domestic 
agencies for a review of these proposed statutes and evaluation of the 
domestic aspects.

Syria
    Question. Russia reportedly helped broker the recent agreement 
between the Kurdish-led Syrian Democratic Forces (SDF) and the Syrian 
government to deploy government forces to northeastern Syria. On 
October 15, 2019, the Russian Ministry of Defense stated that Russian 
military police units were patrolling between Turkish and Syrian 
military forces near Manbij. On October 22, Russia and Turkey 
reportedly concluded an agreement providing for Russian assistance in 
removing Kurdish fighters from a ``safe zone'' near the Syrian-Turkish 
border and joint patrols of Russian military police and Turkish forces.

 What is the U.S. position on current Russian activities in Syria?

    Answer. The United States is very concerned about Russia's support 
to the Assad regime. Russia uses its veto power in the U.N. to shield 
the Assad regime from scrutiny over its use of chemical weapons and the 
continued targeting of civilians. Russia could do more to help reach a 
political solution in Syria, including curbing Iran's influence. We 
will continue to use diplomatic and economic leverage--including 
engagement with other partners in the region--to ensure that Russia 
cannot dictate Syria's future. We have also imposed a series of 
sanctions on Russian companies for material support to the Assad 
regime. Many questions remain for Russia and Turkey regarding their 
October 22 arrangement in northeast Syria; we are seeking additional 
information on this matter.

Ukraine
    Question. On October 1, 2019, the Ukrainian government said that it 
agreed to implement the so-called ``Steinmeier formula,'' a refinement 
of the Minsk Protocols that would provide for internationally monitored 
and approved elections in Russian-controlled territories in eastern 
Ukraine in exchange for granting them ``special status.''

  What are Russia's aims in agreeing to the ``Steinmeier formula''? 
        What is the U.S. position regarding the ``Steinmeier formula''?

    Answer. The United States supports efforts to achieve a diplomatic 
solution to the conflict in eastern Ukraine. President Zelenskyy agreed 
to the Steinmeier formula, one of Russia's preconditions for a meeting 
of the Normandy Quartet. As part of the Minsk agreements, Russia must 
withdraw its forces and all heavy weapons in the Donbas, disband and 
end its support to illegal armed formations on Ukraine's territory, and 
agree to the reinstatement of Ukraine's control of its international 
border. Minsk agreement political measures can be implemented only 
after there is security on the ground. The Steinmeier Formula merely 
addresses what would happen after local elections meeting OSCE/ODIHR 
international ``free and fair'' standards. It thus complements, but 
does not alter, Russia's obligations.

    Question. With the resignation of U.S. Special Representative Kurt 
Volker, what is the status of U.S. engagement in the conflict 
resolution process?

    Answer. The Department of State remains actively engaged to support 
a diplomatic solution to the conflict in the Donbas. The United States' 
support for Ukraine is unwavering. We steadfastly support Ukraine's 
sovereignty and territorial integrity, secure within its 
internationally recognized borders. We will never recognize Russia's 
occupation and attempted annexation of Crimea, and we call for an 
immediate end to Russia's aggressive behavior in Ukraine.

    Question. How do you assess Russia's views of the new government in 
Ukraine and its objectives in Ukraine?

    Answer. Russia's participation in the prisoner exchange was a 
positive step, although there were some troubling aspects including at 
least one of the persons involved in the shoot-down of MH17. Russia's 
increased dialogue with the new government in Ukraine has unfortunately 
not led to any further tangible results. We urge Russia to start 
implementing its commitments under the Minsk agreements.

    Question. How does the withdrawal of U.S. forces from Syria affect 
Russia's military and diplomatic role in Syria and the broader Middle 
East?

    Answer. The United States remains committed to seeking a political 
solution to the Syria conflict and the enduring defeat of ISIS. We urge 
Russia to play a more constructive role in seeking peace in the Middle 
East and to hold the Assad regime accountable for its use of chemical 
weapons against its own population. The Department will continue to use 
diplomatic and economic leverage--including our engagement with other 
partners in the region--to ensure that Russia cannot single-handedly 
dictate Syria's future. We actively support the U.N.-led Geneva 
political process to achieve an enduring solution to the conflict.

Countering Russian Influence Fund
    Question. Since FY 2017, Congress has appropriated $625 million for 
the Countering Russian Influence Fund, which among other things 
provides support to countries in Europe and Eurasia to protect 
electoral mechanisms against cyberattacks, improve the rule of law and 
combat corruption, and help countries combat disinformation.

  Is the Fund an effective mechanism, in your view? How can it be 
        improved?

    Answer. The Countering Russian Influence Fund (CRIF) has been 
effective in addressing the specific levers of Russian malign activity. 
Foreign assistance funds appropriated under CRIF are a crucial piece of 
our overall foreign assistance efforts to support the goals of 
Countering America's Adversaries through Sanctions Act, and to counter 
Russian malign influence. CRIF enables the Department and USAID to 
provide targeted and innovative bilateral and regional programs to 
enhance defense capacity of allies and partners; improve cyber and 
energy security; diversify economies; support rule of law, independent 
media, and civil society; and counter disinformation in coordination 
with the Global Engagement Center.

Global Activities
    Question. Russia has expanded its foreign relations to a worldwide 
scale, cultivating close relations with China, India, and other 
countries and organizations around the globe, including across the 
Middle East, Latin America, and sub-Saharan Africa. In addition to 
supporting authoritarian regimes that the United States opposes, Russia 
seeks to develop a wide range of trade and/or investment relationships, 
particularly in arms, oil and gas, nuclear energy, mining, and 
foodstuffs (particularly wheat).

  What is your assessment of Russian objectives in expanding its 
        military, economic, and diplomatic activity worldwide, 
        including in places like Venezuela, Libya, and the Central 
        African Republic?

    Answer. We are concerned about Russia's unconstructive and 
aggressive actions around the world and its efforts to undermine the 
rules-based international order. The Department urges Russia to cease 
its malign behavior and to work with the United States and other 
members of the international community to address pressing challenges 
to international security.

Political Prisoners/Human Rights
    Question. On October 1, Senator Rubio and I sent a letter to 
Secretaries Pompeo and Mnuchin urging them to impose Magnitsky 
sanctions against Russian officials responsible for the widespread 
false imprisonment of political dissidents and rights defenders.

   Why do you think the Kremlin has resorted, as in the Soviet era, to 
        taking more political prisoners, especially when many of their 
        cases are widely known and condemned internationally? Do you 
        foresee more Russian and Ukrainian prisoner exchanges in the 
        future?

    Answer. We have seen that the Kremlin is willing to use all 
possible methods to silence political opponents, including detaining 
more political prisoners. It is impossible to predict but we hope there 
will be future Russian and Ukrainian prisoner exchanges.

    Question. In addition to imposing robust sanctions against 
officials responsible for politically motivated imprisonment, how else 
can the U.S. continue to push for the release of political prisoners 
and ensure accountability for those responsible for human rights 
abuses?

    Answer. If confirmed, I will advocate publicly and privately for 
the release of political prisoners and support coordination with 
likeminded allies to press for accountability for human rights 
violations in international fora such as the U.N. and OSCE. I will 
explore every possible avenue to ensure accountability for those 
responsible for human rights abuses, including the use of targeted 
sanctions and visa ban authorities, in such cases where we can 
demonstrate that an individual's conduct meets legal standards.

    Question. How do you assess the state of religious freedom in 
Russia? How can the United States defend Russian religious minorities 
against the misapplication of ``extremism'' laws?

    Answer. Religious freedom in Russia continues to deteriorate as the 
government engages in and tolerates severe violations of religious 
freedom, including torture, arbitrary arrest, and imprisonment. 
Widespread suppression of religious practice has led to the 
imprisonment of over 200 individuals for practicing their faith. 
Peaceful Jehovah's Witnesses, deemed an ``extremist'' organization in 
2017, have subsequently been targeted. In Crimea, dozens of Muslim 
Crimean Tartars have been sentenced to long prison sentences after 
being falsely accused of belonging to a ``terrorist'' organization. The 
United States will continue to speak out against Russia's misuse of 
``extremism'' laws against religious minorities.

    Question. What do you make of the Russian protest movements this 
past summer ahead of the Moscow municipal elections? Are they similar 
to protests we have seen before, or do they represent a new movement 
that could bring about real change?

    Answer. The protest movement in 2019 was significant and reflects 
the Russian people's desire to have their voices heard and their votes 
counted. If confirmed, I will call on the Russian government to honor 
its OSCE commitments to hold free and fair elections and respect the 
rights of free expression, association, and assembly.

    Question. How can the United States operate in the Russian human 
rights sphere when Russia has cracked down on ``foreign agents'' and 
``undesirable organizations''? How can we best support Russian human 
rights organizations?

    Answer. If confirmed, I plan to meet with a wide range of Russian 
civil society, work closely with likeminded embassies in Moscow to urge 
Russian authorities to respect freedom of association, and speak out on 
behalf of human rights defenders that are under threat.

    Question. How can the United States support media freedom and the 
protection of journalists in Russia?

    Answer. Russia remains one of the most dangerous countries for 
journalists to work. During commemorations of International Day to End 
Impunity for Crimes Against Journalists on November 2, the Department 
highlighted the case of Svetlana Prokopyeva, who faces up to seven 
years in jail for suggesting that the Russian government's restrictions 
on peaceful expressions of dissent may make people more likely to 
resort to violence. If confirmed, I intend to use Embassy and 
Department of State platforms to highlight the plight of embattled 
journalists, promote the fundamental human right of free expression, 
and continue pressing the Russian government to stop harassing 
journalists.

Recent Prisoner Exchange
    Question. On September 7, Russia and Ukraine conducted a prisoner 
exchange that resulted in the release of 70 people who had been 
imprisoned in both countries. Even still, Russia's number of political 
prisoners is at an all-time high since the collapse of the Soviet 
Union.

  What else can the U.S. do to bring attention to the plight of 
        political prisoners in Russia?

    Answer. I share Congressional concerns about the deteriorating 
human rights situation in Russia and, if confirmed, I will speak out 
about the growing number of political prisoners, the erosion of 
fundamental freedoms, crackdowns on demonstrations, and other concerns. 
Political prisoners in Russia are reportedly placed in particularly 
harsh conditions of confinement and subjected to other punitive 
treatment within the prison system, such as solitary confinement or 
punitive stays in psychiatric units. If confirmed, I will work to hold 
violators of human rights accountable, including by using sanctions and 
visa restrictions, where we are able to identify conduct that meets the 
required legal thresholds.

    Question. Does the recent prisoner exchange between Russia and 
Ukraine signal a new era of Russian willingness to compromise when it 
comes to political prisoners, or was it simply a one-off event?

    Answer. The September 7 prisoner exchange between Russia and 
Ukraine was a positive step. If confirmed, I will continue to call on 
Russia to release the over 300 political prisoners it holds, a group 
that includes journalists, protesters, over 200 members of religious 
minorities, and dozens of Crimean Tatars and other opponents of the 
occupation of Crimea.

    Question. What is the situation surrounding press freedom in 
Russia? How can the U.S. stand up for journalists like Ivan Golunov, 
who was arrested and then released after an international outcry?

    Answer. Press freedom in Russia is under increasing threat. 
Journalists are prosecuted for objective reporting, authorities raid 
independent newsrooms as reprisals for coverage, and government censors 
block or force the removal of critical content. Russia remains one of 
the most dangerous countries for journalists to work. The Department 
was outspoken about the case of Ivan Golunov, including at the OSCE 
Permanent Council. Domestic and international outcry helped secure 
Golunov's release. If confirmed, I will engage publicly and privately 
to highlight the plight of embattled journalists in Russia and defend 
the fundamental human right of free expression.

Sanctions
    Question. Especially since 2014, sanctions have been a central 
element of U.S. policy to counter Russian malign behavior.

   In your view, how effective have sanctions been in response to 
        Russian activities?

    Answer. Sanctions have had a serious negative effect on the Russian 
economy, but have not achieved our ultimate policy objectives, such as 
the return of sovereignty of Ukraine over the Donbas and Crimea. We are 
committed to comprehensive implementation of CAATSA and have imposed 
sanctions under sections 224, 228, and 231. We have also used the 
threat of sanctions as leverage to deter sanctionable activity, 
including through use of CAATSA 231 to deter or disrupt billions of 
dollars' worth of Russian arms transactions, or Sections 225 and 232 to 
deter participation in identified areas of Russia's energy sector. The 
United States has sanctioned more than 300 individuals and entities for 
their involvement in Russia's malign activities since January 2017.

    Question. Why has the administration not used the full range of 
sanctions authorities Congress established in the Countering America's 
Adversaries Through Sanctions Act (CAATSA)?

    Answer. We are committed to comprehensive implementation of CAATSA 
and have imposed sanctions under sections 224, 228, and 231. We have 
also used the threat of sanctions as leverage to deter sanctionable 
activity, including through use of CAATSA 231 to deter or disrupt 
billions of dollars' worth of Russian arms transactions, or Sections 
225 and 232 to deter participation in identified areas of Russia's 
energy sector. Including sanctions imposed pursuant to CAATSA, the 
United States has sanctioned more than 300 individuals and entities for 
their involvement in Russia's malign activities since January 2017.

    Question. Does the administration intend to impose sanctions on 
Turkey for taking delivery of Russian S-400 missile systems?

    Answer. Sanctions deliberations on this issue are ongoing. I cannot 
pre-judge a sanctions decision prior to a determination by the 
Secretary of State. The Secretary has made clear he is committed to 
implementing CAATSA. CAATSA deliberations are multi-faceted, complex, 
and conducted on a case-by-case basis. I cannot preview a timeline for 
a CAATSA decision on Turkey. The administration is not waiting for the 
outcome of CAATSA deliberations to take action in response to Turkey's 
S-400 acquisition. The President's decision to unwind Turkey from the 
F-35 Joint Strike Fighter program makes clear how seriously we take 
this issue.

Nuclear Arms Control
    Question. White House officials have indicated that the United 
States does not need to make a decision about an extension of the New 
START nuclear arms reduction Treaty until next year, as the Treaty does 
not expire until February 2021.

  Do you support an extension of New START?

    Answer. The administration has not yet made a decision about 
potential extension of the New START Treaty. Central to the U.S. review 
of potential New START extension is whether an extension is in the U.S. 
national interest, and how the Treaty's expiration would affect U.S., 
Allied, and partner security in an evolving security environment. As 
Secretary Pompeo has said, ``We will continue to work to allow the 
Treaty to be verified exactly as the verification regime exists. As for 
its extension, the Department has agreed that we will gather together 
teams to begin work not only on New START and its potential extension, 
but also on a broader range of arms control issues that each of our two 
nations have a vested interest in achieving an agreement on.''

    Question. Should future strategic arms reductions with Russia be 
considered? If so, should they cover a wider range of weapons and 
countries?

    Answer. Yes. President Trump has charged his national security team 
to think more broadly about arms control, both in terms of the 
countries and the weapon systems involved. Bilateral treaties that 
cover limited types of nuclear weapons or only certain ranges of 
missiles insufficiently address the threat environment we face today. 
Russia and China must both be brought to the table as we evaluate how 
our arms control agreements contribute to U.S. defense and deterrence 
requirements, as well as those of allies and partners. The Senate in 
its advice and consent to ratification of the New START Treaty called 
for negotiations with the Russian Federation to address the disparity 
between U.S. and Russian stockpiles of nonstrategic nuclear weapons.

    Question. In your view, what are possible implications of the U.S. 
withdrawal from the INF Treaty?

    Answer. On August 2, 2019, the United States terminated the INF 
Treaty because Russia failed to return to compliance after developing, 
flight-testing, and then fielding multiple battalions of an 
intermediate-range missile system in violation of its obligations. 
Russia is solely responsible for the Treaty's demise. Our NATO Allies 
fully supported the United States' determination and withdrawal from 
the Treaty, and we are working closely to ensure NATO's deterrence and 
defense against the full-range of Russia's capabilities, including the 
SSC-8. At the same time, President Trump has charged his national 
security team to think more broadly about arms control, both in terms 
of the countries and the weapon systems involved.

Paul Whelan's Imprisonment
    Question. As you know, Whelan, a former Marine was arrested in 
December 2018 and has since been held in Russian custody over 
allegations of espionage. Ambassador Huntsman visited Whelan on October 
2, his last working day, in addition to a few other visits. He called 
for Whelan's immediate release.

 If confirmed, what will you do as Ambassador to secure (or attempt 
        to secure) the release of Paul Whelan?

    Answer. The safety and welfare of U.S. citizens abroad is of the 
utmost importance to the Department of State and the entire U.S. 
government. The Department takes seriously its responsibility to assist 
U.S. citizens who are incarcerated or detained abroad. If confirmed, I 
will continue to urge the Russian government to ensure a fair trial for 
Mr. Whelan, including a fair and public hearing on his continued 
detention without undue delay. The Embassy will also continue to 
monitor Mr. Whelan's case closely and to press for fair and humane 
treatment, unrestricted consular access, access to appropriate medical 
care, and due process. I will continue to raise these concerns with the 
Russian government.

International Games
    Question. Microsoft announced that Russia hacked many anti-doping 
organizations, including the U.S. Anti-Doping agency. I met with Dr. 
Grigory Rodchenkov in March 2018, the Russian whistleblower who 
uncovered Russia's fraud at the Olympics. He still lives his life in 
fear of retaliation from Putin, despite his major contributions to our 
knowledge about Russia's malfeasance. It is after him that my 
colleagues and I have named the Rodchenkov Anti-Doping Act, which would 
criminalize doping conspiracies in international competitions and 
demonstrate once and for all that when the Russian FSB pushes Russia's 
athletes to cheat in international games, we do and will always 
perceive it as fraud against all U.S. and international athletes 
competing.

  How do you intend to confront Russia's use of international games 
        for soft-power purposes, its consistent bad behavior in those 
        games and as a member of the organizations that run them, and 
        Putin's cozy relationship with prominent figures in 
        international sports, such as International Olympic Committee 
        President, Thomas Bach?

    Answer. State-sponsored hacking and disinformation campaigns pose 
serious threats to our security and to our open society. As one example 
of how we are challenging Russia in this space, in 2018, the Department 
of Justice took actions against seven hackers, all military 
intelligence officers in the Russian Main Intelligence Directorate 
(GRU), for litany of crimes, including computer hacking into the World 
Anti-Doping Agency (WADA) and International Olympic Committee (IOC).

                               __________


       Responses to Additional Questions for the Record Submitted
         to Hon. John Joseph Sullivan by Senator Jeanne Shaheen

    Question. White House officials have indicated that the United 
States does not need to make a decision about an extension of the New 
START nuclear arms reduction Treaty until next year. Do you agree with 
the need for the New START Treaty to be extended by February 2021? Are 
you aware that the Treaty will end if it is not extended by that time?

    Answer. The administration has not yet made a decision about 
potential extension of the New START Treaty, which will expire on 
February 5, 2021, if the United States and Russian Federation do not 
agree to extend the Treaty for up to five years. Central to the U.S. 
review of a potential New START extension is whether an extension is in 
the U.S. national interest, and how the Treaty's expiration would 
affect U.S., Allied, and partner security in an evolving security 
environment.

    Question. When is the appropriate time to begin negotiations on the 
New START Treaty extension?

    Answer. As the New START Treaty is not scheduled to expire until 
February 5, 2021, the administration has time to determine whether it 
is in the U.S. national interest to extend. As Secretary Pompeo has 
said, ``We will continue to work to allow the Treaty to be verified 
exactly as the verification regime exists. As for its extension, the 
U.S. government has agreed to gather together teams to begin work not 
only on New START and its potential extension, but also on a broader 
range of arms control issues that each of our two nations have a vested 
interest in achieving an agreement on.''

    Question. Is it appropriate to forego the New START Treaty 
extension to advance a multilateral or trilateral agreement?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. Bilateral treaties that cover limited 
types of nuclear weapons or only certain ranges of adversary missiles 
are insufficient to address the threat environment we face today. The 
administration has not yet made a decision about a potential extension 
of the New START Treaty.

    Question. Would it be possible to negotiate a multilateral or 
trilateral agreement after New START extension by February 2021?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. Russia and China must be brought to 
the table as we evaluate how our arms control agreements contribute to 
U.S. defense and deterrence requirements, as well as those of allies 
and partners. It is important to negotiate a new trilateral arms 
control agreement that will constrain both Russia and China, and that 
will thus help prevent a dangerous arms race for far longer than merely 
the few more years New START would exist even if it were extended.

    Question. Is it necessary to forego existing constraints on 
Russia's nuclear arsenal to try for a new Treaty?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. The administration has not yet made a 
decision about a potential extension of the New START Treaty, which 
does not expire for over a year. As Secretary Pompeo has said, ``We 
will continue to work to allow the Treaty to be verified exactly as the 
verification regime exists. As for its extension, we have agreed that 
we will gather together teams to begin work not only on New START and 
its potential extension, but also on a broader range of arms control 
issues that each of our two nations have a vested interest in achieving 
an agreement on.'' It is important to negotiate a new trilateral arms 
control agreement that will constrain both Russia and China, and that 
will thus help prevent a dangerous arms race for far longer than merely 
the few more years New START would exist even if it were extended.

    Question. Can the United States both pursue an extension and a 
multilateral/trilateral agreement without losing one for the other?

    Answer. The administration has yet to determine whether New START 
extension is in the U.S. national interest. Whether we can extend and 
negotiate a new agreement depends on the willingness of Russia and 
China to engage us constructively to deliver better security for the 
world as President Trump has called for. That is why it is so important 
for the international community to make clear to both Russia and China 
that it is essential that they negotiate with the United States on a 
trilateral approach.

    Question. In your current role, you oversaw a State Department 
Working Group dealing with Brain Trauma suffered by Foreign Service 
Officers in Cuba and China. Why did the State Department ultimately 
determine that these groups remain separate and distinct even though 
the brain injuries mirrored one another?

    Answer. We have relied on medical and scientific experts from 
across the government and from many private medical institutions in 
making any determinations on this issue. My understanding from the 
experts who examined and treated all of the patients is that although 
the constellation of symptoms and the findings on examination were 
similar between both groups, the histories and physical findings of the 
patients from China did not match that of the Cuba cohort. That being 
said, the patients from China received the same level of care and 
benefits that those from Cuba were afforded.

    Question. Have all Foreign Service Officers in China and Cuba 
applied and/or received long-term workers' compensation to deal with 
their injuries?

    Answer. While all individuals interested in pursuing workers' 
compensation claims have applied, several individuals have decided not 
to apply for workers' compensation. The Department of Labor has 
approved the overwhelming majority of workers' compensation claims.

    Question. How many in each cohort have/have not received worker's 
compensation?

    Answer. While the Department of Labor has approved the overwhelming 
majority of workers' compensation claims, some initial workers' 
compensation claims (two from China, one from Cuba) lacked sufficient 
detail to be approved and are in the appeals phase. These individuals 
have not received workers' compensation.

    Question. Is the threat of Foreign Service Officers receiving these 
injuries resolved?

    Answer. No. The safety and security of U.S. personnel, their 
families, and U.S. citizens is our top priority. Our response continues 
to be guided by the facts. World-class specialists and other scientists 
at the University of Pennsylvania, the University of Miami, the 
National Institutes of Health, and the Centers for Disease Control and 
Prevention continue to examine the medical data to gain a better 
understanding of the nature and mechanism of injury that caused these 
patients' symptoms.
    Our investigation is ongoing, and the U.S. government is working 
diligently to determine what happened to our staff and their families.

    Question. Could you describe your perspective of the growing 
relationship between Russia and Turkey? Please also describe any joint 
ventures that Turkey and Russia are pursuing together and if confirmed, 
how you will view these ventures.

    Answer. We have publicly expressed concerns about the relationship 
of our NATO Ally, Turkey, with Russia, including the purchase of the S-
400 missile system. We are aware of media reports of potential military 
hardware collaborations, which are not consistent with Turkey's 
commitments as a NATO member, and are monitoring closely. I will 
continue to adhere to and implement these policy views if confirmed.

    Question. Is it your assessment that Russian President Vladimir 
Putin and Turkish President Erdogan engage in illicit financing 
operations and money laundering to be able to boost each other's own 
wealth?

    Answer. We have publicly expressed concerns about the relationship 
of our NATO Ally, Turkey, with Russia. We urge both countries to 
increase their efforts to curb illicit financial flows, safeguard their 
banking systems, and improve compliance with international standards to 
combat money laundering.

    Question. Have you looked into the issue of the Russian government 
developing ties with U.S. militias and biker groups? What is your view 
on this situation? If confirmed, how will you address these issues?

    Answer. I do not have a factual basis to address this question now, 
but will look into this matter. Russia's efforts to stoke internal 
divisions and foment violence outside of its borders are of great 
concern. If confirmed, I will support ongoing U.S. government efforts 
to counter this dangerous and destabilizing activity. In Moscow, I will 
remind the Russian government that efforts to undermine stability and 
security within the United States will not be tolerated.

    Question. What is your view of the differences between the Russian 
Federal Security Service (FSB) and Military Intelligence Agency (GRU)? 
Are you concerned by the increased prevalence of the GRU?

    Answer. The FSB is the principal security agency of Russia 
primarily concerned with internal security of the Russian state and 
counterintelligence. The GRU is the foreign military intelligence 
agency of the General Staff of the Armed Forces. The United States is 
concerned about ongoing GRU activity--including malicious cyber 
activity, involvement in the attempted coup in Montenegro in 2016, and 
responsibility for the chemical weapon attack on Sergei Skripal and his 
daughter in Salisbury, UK. We have taken decisive action to respond to 
this activity.

    Question. In your testimony, you noted that Russia has been taking 
back Russian detainees from Syria and Iraq back to Russia and described 
concerns over the treatment of those that are taken back. Could you 
further elaborate on your concerns?

    Answer. Russia's human rights record, in this case especially 
pertaining to prisoners, causes us concern. The United States does not 
facilitate the transfer of detainees to any country that has not 
committed to humane treatment assurances consistent with international 
law and standards.

    Question. Approximately, how many Russians have fought for ISIS in 
Syria and Iraq? How many remain?

    Answer. The Department is unable to provide details on Russian 
fighters in an unclassified setting. The Department is happy to 
promptly provide a classified briefing on this topic.

    Question. Could you specify the amount of actual ISIS fighters or 
detainees that Russia has taken back to Russia? Could you also specify 
the amount of children and family members of ISIS fighters that Russia 
has taken back?

    Answer. The Department is unable to provide details on Russian 
fighters and dependents in an unclassified setting. The Department is 
happy to, provide promptly a classified briefing on this topic.

                               __________


      Responses to Additional Questions for the Record Submitted 
      to Hon. John Joseph Sullivan by Senator Christopher A. Coons

    Question. In your opening statement, you stated that you ``intend 
to continue to press the Russian government for the release of Paul 
Whelan.'' How specifically will you advocate for his release before and 
during his trial?

    Answer. If confirmed, I will continue to urge the Russian 
government to ensure a fair trial, including an immediate fair and 
public hearing on Mr.Whelan's detention before trial. My team will 
continue to monitor Mr. Whelan's case closely and to press for fair and 
humane treatment, unrestricted consular access, access to appropriate 
medical care, and due process. I take Mr. Whelan's allegations of 
mistreatment seriously. I will ask Russian authorities to investigate 
these allegations and ensure Mr. Whelan's safety and security. I will 
continue to raise Mr. Whelan's case at every opportunity.

    Question. Will you advocate for the Trump administration to use the 
full resources of the U.S. government, including sanctions, if 
appropriate, to push for Mr. Whelan's release?

    Answer. The safety and welfare of U.S. citizens abroad is of the 
utmost importance to the Department of State, the entire U.S. 
government, and to me personally. The Department takes seriously its 
responsibility to assist U.S. citizens who are incarcerated or detained 
abroad, and to use all appropriate means to secure the release of those 
detained unjustly. If confirmed, I will continue to urge the Russian 
government to ensure a fair trial for Mr. Whelan, including a fair and 
public hearing without undue delay. My team will also continue to 
monitor Mr. Whelan's case closely and to press for fair and humane 
treatment, unrestricted consular access, access to appropriate medical 
care, and due process. I will continue to raise these concerns with the 
Russian government.

                               __________


      Responses to Additional Questions for the Record Submitted 
          to Hon. John Joseph Sullivan by Senator Jeff Merkley

    Question. Since 2002, the United States, its allies, and partners 
have conducted over 500 observation missions over Russian territory 
under the Treaty on Open Skies--one tool we have to reduce mistrust and 
the threat of war on the continent. Do you believe that U.S. continued 
implementation of the Treaty on Open Skies is in our national security 
interest and that of our allies and partners?

    Answer. The United States continues to implement the Treaty on Open 
Skies. We continuously review all of our international agreements to 
ensure they are in our national security interest. We are in full 
compliance with our obligations under this Treaty, unlike Russia, which 
has violated certain of its obligations. The Treaty, in force since 
2002, provides for manned overflights of the States Parties' territory 
in order to build confidence regarding military forces and intentions. 
As the Secretary has said, ``[t]he United States remains committed to 
effective arms control that advances U.S., allied, and partner 
security; is verifiable and enforceable; and includes partners that 
comply responsibly with their obligations.''

    Question. Has the government of Ukraine and the other 32 States 
Parties (other than Russia) to the Treaty on Open Skies advocated to 
you or other senior State Department officials, in recent weeks, urging 
the United States remain Party to the Treaty, and if so, what arguments 
have they made to that effect?

    Answer. The United States has not withdrawn from the Treaty on Open 
Skies and the United States continues to implement this Treaty. A 
number of allies have told us that they value the Treaty and view it as 
a key instrument for gathering information on Russian military 
formations and troop deployments. We continue to work with our allies 
and partners on all compliance and implementation issues related to the 
Treaty on Open Skies.

    Question. Will you commit that members of the Senate Foreign 
Relations Committee will be consulted in advance of any decision by the 
Administration on any changes to the U.S. implementation of the Treaty?

    Answer. The United States has not withdrawn from the Treaty on Open 
Skies and the United States continues to implement this Treaty. If that 
were to change, there would be appropriate consultations with Congress, 
including with the Senate Foreign Relations Committee.

    Question. Will you commit that the United States will not proceed 
with the procurement or deployment of an intermediate or shorter-range 
missile system to the territory of a European ally without first 
signing a Memorandum of Understanding with that country agreeing to 
that deployment as well as a North Atlantic Council consensus decision 
as to ensure alliance unity?

    Answer. On August 2, 2019, the United States withdrew from and 
effectively terminated the Intermediate-Range Nuclear Forces (INF) 
Treaty solely because Russia failed to return to compliance after 
developing, flight-testing, and then fielding multiple battalions of an 
intermediate-range missile system in violation of its obligations. Our 
NATO allies fully supported the U.S. determination and withdrawal from 
the Treaty. We are working closely to ensure NATO's deterrence and 
defense posture remains strong and united against the full-range of 
Russia's capabilities, including the SSC-8. As the United States has 
historically complied with the Treaty, we do not have a system that is 
ready to be deployed. It is far too early to discuss potential 
deployment.

    Question. Would the expiration of the New Strategic Arms Reduction 
Treaty (New START) with Russia on February 5, 2021--in the absence of a 
replacement Treaty or agreement that enters into force on or before 
that date--hamper U.S. insight into the location, movement, and 
disposition of Russian strategic nuclear forces and would such a 
development be in the U.S. national security interest?

    Answer. The Administration has not yet made a decision about a 
potential extension of the New START Treaty. Central to the U.S. review 
of such an extension is a determination of whether it is in the U.S. 
national interest and how the Treaty's expiration would affect U.S., 
allied, and partner security in an evolving security environment.

    Question. If the United States, Russia, and China cannot agree to a 
trilateral arms control agreement within the next year, is the 
Administration prepared to extend the New START Treaty while any 
trilateral dialogues continue?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. Bilateral treaties that cover limited 
types of nuclear weapons or only certain ranges of adversary missiles 
are insufficient to address the threat environment we face today. 
Russia and China must be brought to the table as we evaluate how our 
arms control agreements contribute to U.S. defense and deterrence 
requirements. Central to the U.S. review of a potential New START 
extension is whether it is in the national interest and how the 
Treaty's expiration would affect U.S., allied, and partner security in 
an evolving security environment. That decision has not yet been made.

    Question. What kinds of Chinese Weapons are the greatest priority 
to limit in an arms control agreement?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. Bilateral treaties that cover limited 
types of nuclear weapons or only certain ranges of adversary missiles 
are insufficient to address the threat environment we face today, in 
which China will likely double its nuclear forces, including 
intermediate range weapons systems, over the next decade.

    Question. I am particularly concerned by Russia's efforts to help 
North Korea evade sanctions. If confirmed, will you make it one of your 
top priorities to pressure Russia to be a constructive partner in 
maintaining pressure on North Korea to work toward denuclearization?

    Answer. If confirmed, I will continue to press Russia to fully 
implement and enforce all DPRK-related U.N. Security Council 
resolutions, particularly those related to North Korean workers and the 
supply of oil to the DPRK.

    Question. One of the ways Russia helps North Korea evade sanctions 
is by hosting approximately 10,000 North Korean workers, even though 
all countries are required to no longer host these workers by the end 
of the year. What will you do to press Russia to comply with its 
obligations on guest workers?

    Answer. Countries around the world are obliged by the U.N. Security 
Council resolutions to fully implement and enforce existing sanctions. 
Russia currently falls short of full implementation of all DPRK-related 
U.N. Security Council resolutions. If confirmed, I will press Russia to 
fully implement and enforce all DPRK-related U.N. Security Council 
resolutions, particularly those related to North Korean workers.

                               __________


       Responses to Additional Questions for the Record Submitted
         to Hon. John Joseph Sullivan by Senator Cory A. Booker

Protecting Journalists
    Question. According to the Committee to Protect Journalists, Russia 
is one of the world's worst offenders of violence against journalists. 
It ranks 11th on the list of countries in which criminal groups, 
politicians, and government officials turn to violence to stifle 
critical and investigative reporting. What will you do to push the 
Russian government to protect journalists?

    Answer. Russia remains one of the most dangerous countries for 
journalists to work. During commemorations of the International Day to 
End Impunity for Crimes against Journalists on November 2, the 
Department highlighted the case of Svetlana Prokopyeva, who faces up to 
seven years in prison for suggesting that the Russian government's 
restrictions on peaceful expressions of dissent may make people more 
likely to resort to violence. If confirmed, I intend to use Embassy and 
Department of State platforms to highlight the plight of embattled 
journalists, promote the fundamental human right of free expression, 
and continue pressing the Russian government to stop harassing 
journalists.

Russian Efforts in Afghanistan
    Question. Russia has bolstered its relationships with the Taliban 
and in 2017 even reportedly supplied equipment and small arms to the 
group. Russia has also expressed interest in supporting intra-Afghan 
discussions. Do you view Russian diplomatic efforts as helpful or at 
cross purposes with the United States?

    Answer. Russia remains a factor in Afghanistan given its location, 
history, and interests. Special Representative for Afghanistan 
Reconciliation, Ambassador Khalilzad, coordinates with his Russian 
counterpart, Ambassador Kabulov, to enlist Russian support for the U.S. 
effort to promote a negotiated solution to the Afghan conflict that 
ensures Afghanistan never again becomes a platform for transnational 
terrorism. If confirmed, I will work with Ambassador Khalilzad to 
engage Russia on this issue.

    Question. Do you view Russia's efforts help or hinder the United 
States' efforts?

    Answer. We welcome Russia's willingness to engage in dialogue on 
this important topic.

    Question. What are Russia's goals and objectives in Afghanistan?

    Answer. We understand that Russia seeks to stop the flow of drugs 
from Afghanistan to Russia and to prevent terrorism from spilling over 
into Central Asia and Russia.

    Question. Does Russia continue to supply weapons and equipment to 
the Taliban?

    Answer. We are aware of media reports that the Russian government 
clandestinely supplies arms to the Taliban. We condemn any such actions 
that would undermine the elected government of Afghanistan and could 
threaten Afghan civilians and U.S. and coalition forces.

    Question. Should Russia be trusted as a partner for the United 
States in Afghanistan?

    Answer. The United States and Russia share common interests in 
preventing Afghanistan from serving as a base for transnational 
terrorism and in promoting a negotiated settlement to the conflict. Our 
productive coordination with Russia is designed to advance our common 
interests. We welcome Russia's willingness to engage in dialogue on 
this important topic.

    Question. Russia cites concerns about the Islamic State affiliate 
in Afghanistan (Islamic State-Khorasan Province, aka ISKP or ISIS-K) to 
justify much of its dealings in Afghanistan. To what extent does the 
United States share those concerns and how much of a threat does ISKP 
represent to Russia and/or its regional interests?

    Answer. ISIS-K remains a serious threat in Afghanistan. If 
confirmed, I will encourage continued dialogue with Russia to address 
the threats posed to U.S. and Russian interests by ISIS-K and other 
terrorist groups in Afghanistan.

Russian Efforts in Africa
    Question. Russia has increased its interest in Africa. There are 
reports that Russia has increasingly invested in efforts to undermine 
democratic accountability in connection with upcoming African elections 
in Ghana, Guinea, Cote d'Ivoire, Burkina Faso and Burundi. How do you 
review Russian interests in Africa?

    Answer. U.S. interests require countering Russian efforts to 
undermine the post-Cold War global order, including in Africa. The 
Kremlin's aggressive and opportunistic foreign policy approach seeks 
global attention by inserting itself or its proxies to undermine 
Western efforts at stability, or by offering its false model of 
``sovereign democracy'' as an alternative to transparent democratic 
institutions and processes. Russia views its outreach to African 
countries as an avenue to break out of the international isolation 
generated by its ongoing aggression against Ukraine and to gain 
valuable support in international fora, including the U.N. and the 
Organization for the Prohibition of Chemical Weapons (OPCW).

    Question. How do you view these activities as threats to the United 
States' interests in these countries?

    Answer. The United States has serious concerns about Russian 
efforts to bolster its influence in Africa through arms sales and the 
use of private military companies (PMCs) and proxy forces, as 
exemplified in the Central African Republic. Malign activities such as 
these run counter to U.S. interests and undermine democratic 
development on the African continent. Russia has expanded its 
diplomatic and economic outreach to Africa by rekindling Cold War-era 
relationships and hosting a large African Economic Conference in Sochi 
in October 2019, attended by 40 African Heads of State.

    Question. Do you believe the United States has done enough to 
counter Russian meddling in democratic elections around the world?

    Answer. Free and fair elections are essential to democracy. Russian 
efforts to undermine democratic processes and the sovereignty of its 
neighbors are unacceptable and require a whole-of-government response. 
The Department of State works closely with other departments and 
agencies, as well as with allies and partners, to protect our nations 
against potential interference in our election processes. If confirmed, 
I will continue to raise concerns about Russia's destabilizing activity 
with Russian leadership at every opportunity. Our policy toward Russia 
will not change until Moscow takes demonstrable steps to end this 
activity.

                               __________


    Letter in Support of John J. Sulivan's Nomination to be Deputy 
                           Secretary of State


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Memorandum of the July 25, 2919 Telephone Conversation Between 
      President Donald J. Trump and President Zelenskyy of Ukraine

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Communication from Senator Robert Menendez to Hon. Mike Pompeo, 
                Regarding the Murder of Jamal Khashoggi


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Communication from Senator Robert Menendez to Hon. John J. Sullivan, 
                  Regarding Foreign Assistance Funding


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Communication from Members of the Senate to Hon. John J. Sullivan, 
        Regarding Russia's Sale of the S-400 Air Defense System


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Communication from Members of the Senate to Hon. John J. Sullivan, 
            Regarding the Resignation of Juan Jimemez Mayor


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Communication from John C. Rood to Senator James E. Risch, Regarding 
      Ukraine's Progress Toward Compliance to Legislative Funding 
                              Requirements


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Communication from Senator Robert Menendez to Hon. Mike Pompeo, 
  Regarding the Legal Status of the U.S.-Mexico Joint Declaration and 
                Supplementary Agreement of June 7, 2019


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Communication from Senator Robert Menendez to Hon. Mike Pompeo, 
          Regarding a Delay of Security Assistance to Ukraine


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Communication from Senator Robert Menendez to Hon. Mike Pompeo, 
                   Regarding the Ukraine Controversy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Communication from committee Chairmen Engel, Schiff, and Cummings, to 
Hon. John J. Sullivan, Regarding Testimony by Current and Former State 
 Department Officials Before the House of Representative's Impeachment 
                                Inquiry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Communication from Senator Robert Menendez to Hon. Mike Pompeo, Urging 
      Secretary Pompeo's Recusal from All Ukraine-Related Matters


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Communication from the Minority Members of the SFRC to Hon. Mike 
Pompeo, Regarding Secretary Pompeo's Failure to Defend Ambassador Marie 
              Yovanovitch from ``Undo Political Pressure''


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              


                              NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 31, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding], Gardner, Romney, 
Young, Cardin, Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Committee on Foreign Relations will come 
to order.
    I want to welcome the nominees.
    Today we will consider five nominations: Ms. Andeliz 
Castillo, to be the U.S. Alternate Executive Director of the 
Inter-American Development Bank; Ms. Alma Golden, to be the 
Assistant Administrator of the United States Agency for 
International Development; Mr. Peter Haymond, to be the 
Ambassador to Lao People's Democratic Republic; Ms. Alina 
Romanowski, to be the Ambassador to the State of Kuwait; and 
Ms. Leslie Meredith Tsou, to be Ambassador to the Sultanate of 
Oman.
    If confirmed, you will have important roles and 
responsibilities in advancing our nation's foreign policy 
objectives and in protecting our national security interests 
and values. This is especially true for those countries with 
concerning records on human rights and democracy and those in 
which we are working to improve the economy, security, and 
bilateral relations.
    In Laos, Mr. Haymond, the U.S. continues to pursue policies 
that advance the goal of a free and open Indo- Pacific. So I 
will be interested to hear how you see Laos fitting into 
America's strategy and interests in the region.
    In Kuwait, it is a strategic partner for the United States 
that is hosting military personnel and cooperating with us on a 
host of issues, including countering regional threats. I will 
be interested today to hear how we will continue to work with 
the Kuwaitis on counterterror financing and find opportunities 
to bring Kuwait closer to U.S. policy on halting Iran's 
destabilizing activities in the region.
    In Oman, the U.S. should also continue our cooperation, 
particularly on countering threats posed by the brutal regime 
in Tehran. We work together with them on many issues, and so I 
look forward to hearing views on ways to strengthen the 
relationship and advance our areas of mutual interest for our 
nations.
    Ms. Golden, on the USAID Global Health, the stakes of this 
position are high as global health programs consume roughly a 
third of USAID's budget. These programs and initiatives include 
maternal and child health, controlling the HIV/AIDS epidemic, 
combating infectious diseases such as tuberculosis, malaria, 
and tropical diseases. And doing so is not just a moral 
imperative. These are matters of national security for our 
country. Global health crises such as an Ebola outbreak in the 
DRC quickly become out of control, leaving many dead and 
creating instability and chaos. I believe it is in our 
country's interest to help countries build strong health 
systems and improve global health security. And that is why 
funding and effective leadership are important, and I look 
forward to hearing about your priorities.
    Finally, in the Inter-American Development Bank, the U.S. 
has an opportunity to help support economic, social, and 
institutional development in the region, a region of the world 
that lies obviously in our own hemisphere and yet I think is 
too often ignored. While we are one of the wealthiest nations 
in the world, countries to our south suffer from poverty, weak 
institutions, violence, political instability, dictatorial 
regimes, and growing influence and pressure from China and 
Russia. And so I look forward to hearing from you, Ms. 
Castillo, how you hope to address many of these issues that are 
holding back these countries in the region from becoming strong 
democracies, that respect the rule of law and human rights, and 
who have achieved economic stability and prosperity as well.
    Should each of you be confirmed to your respective 
positions, you will play important roles in advancing our 
foreign policy. We are at a critical point in our history where 
increasingly aggressive governments, such as the Chinese 
Communist government and the Russian government under Vladimir 
Putin, are working to weaken America's influence and role in 
the world. They would love nothing more than to exert their 
influence by stepping into vacuums left behind by our nation. 
And for these reasons and many more, the U.S. must remain 
engaged and play a key leadership role on the global stage, 
find ways to support young and emerging democracies, and 
strengthen our bilateral relationships around the world. We 
have a real opportunity, and that is why your roles will be 
important.
    So, again, I want to thank each of you and your families 
for your commitment to our nation and your willingness to 
serve.
    To the ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Chairman Rubio, for 
calling this hearing. We have five very important nominees for 
positions in regards to missions in other countries, as well as 
international organizations.
    I welcome all five of the nominees. I thank you for your 
willingness to serve our nation during these extremely 
challenging times, and we thank your families because we know 
that this will be a sacrifice to the families. And we thank you 
for your service.
    As I do with just about every nominee, I will be asking you 
questions concerning human rights and how you will advance 
human rights. But today particularly the question that is on 
the minds of most Americans is what your view was on the 
Houston manager's decision as it related to the changing of 
pitching.
    [Laughter.]
    Senator Shaheen. I do not think they have to answer that.
    [Laughter.]
    Senator Cardin. I do want to just acknowledge, Mr. 
Chairman, that until the people of the District of Columbia 
have their own U.S. Senators in this body, it is incumbent upon 
the Senators from Maryland and Virginia to speak out on behalf 
of the people of the District of Columbia. And we will.
    And congratulations to the Washington Nats. It was a great 
victory. I think we are all proud of the way that they 
conducted their season. They never gave up even though there 
were times that I think people wondered whether they had a 
chance. And now, of course, winning the championship we have 
great pride.
    So moving on to this hearing and who we have here, Ms. 
Castillo, I want to first thank you for your willingness. The 
Inter-American Development Bank is very important in their 
leadership in our own hemisphere. As the chairman has pointed 
out, there are significant challenges that we confront today 
from the influence of China and Russia in our hemisphere to the 
challenges that have been brought forward in regards to the 
migrations from Central America and the challenges from 
Venezuela.
    So we want to know how you will be leading this agency, if 
confirmed, to provide the help that the Inter-American 
Development Bank can do in regards to productivity and 
innovation in our hemisphere, gender equality, dealing with 
environmental stewardship, and the protection of human rights.
    To Ms. Golden, in regards to the Bureau of Global Health, 
we all understand that global health issues equals stability 
for us. It is a national security concern, as well as a 
humanitarian concern. So your leadership here is going to be 
critically important. We have seen new Ebola outbreaks, as well 
as measles and cholera, presenting challenges for us.
    I will mention that I welcome your thoughts as to how this 
administration's revised and expanded Mexico City policy is 
going to affect our mission on dealing with issues such as 
family planning. Even though no funds of the United States can 
go for abortion, we know that it is also affecting other 
programs and capacities within our mission to deal with global 
health.
    And in regards to Mr. Haymond, Ms. Romanowski, and Ms. 
Tsou, I want to thank all three of you for your career service, 
diplomatic service. That has been very much challenged in this 
environment, but you are continuing to serve our nation in 
critically important roles. Each of the countries that you have 
been nominated to are critically important to us for national 
security concerns, the growing influence of China. And I will 
be asking you as to how you will advance American values, if 
confirmed, including the protection of human rights of the 
people of the country in which our mission is located. I look 
forward to your testimony.
    Again, thank you all for your willingness to serve our 
country.
    Senator Rubio. Thank you very much.
    I guess I will start from right to left to introduce our 
nominees.
    Ms. Andeliz Castillo currently serves as the Special 
Assistant to the President and Deputy Director of Public 
Liaison and Intergovernmental Affairs in the Office of the Vice 
President. Of course, she is nominated to be U.S. Alternate 
Executive Director of the Inter-American Development Bank.
    Ms. Alma Golden, to be Assistant Administrator of the 
United States Agency for International Development. She is the 
Executive Director of the U.S. Global Development Lab where she 
oversees the lab and its operations.
    Mr. Peter Haymond, to be the Ambassador to the Lao People's 
Democratic Republic. He is a career member of the Senior 
Foreign Service and currently serves as charge at the U.S. 
embassy in Bangkok, Thailand.
    Ms. Alina Romanowski to be Ambassador to the State of 
Kuwait. Ms. Romanowski assumes her post as the Acting Principal 
Deputy Coordinator for Counterterrorism on November 14th--
assumed her post on November 14th as the Principal Deputy 
Coordinator for Counterterrorism where she oversees 
coordination and integration of the Department of State and the 
U.S. government's international efforts to advance specific 
counterterrorism policies, objectives, and develops, and 
implements them.
    Ms. Leslie Meredith Tsou, to be Ambassador to the Sultanate 
of Oman. She is a career member of the Senior Foreign Service, 
is Deputy Chief of Mission at the U.S. mission in Israel, and 
is the first Deputy Chief of Mission at the U.S. embassy in 
Jerusalem. Previously she served as the senior advisor on Iran 
and Director of the Office of Iranian Affairs at the Department 
of State.
    So thank you all for being here. We will start with you, 
Ms. Castillo. Thank you, and you are recognized for your 
opening statement.

  STATEMENT OF ANDELIZ N. CASTILLO, OF NEW YORK, TO BE UNITED 
   STATES ALTERNATE EXECUTIVE DIRECTOR OF THE INTER-AMERICAN 
              DEVELOPMENT BANK, VICE ELIOT PEDROSA

    Ms. Castillo. Good morning, Chairman Risch, Chairman Rubio, 
Ranking Members Menendez and Cardin, and members of the Senate 
Foreign Relations Committee.
    I am very honored and humbled that President Trump has 
nominated me to serve as the U.S. Alternate Executive Director 
of the Inter-American Development Bank. I am grateful to 
Secretary Mnuchin and U.S. Executive Director of the Inter-
American Development Bank Eliot Pedrosa for their confidence 
and support throughout this process.
    Earlier this year, I was blessed to become a mom to my 7-
month-old son, Noah Manuel. It is the toughest yet the most 
rewarding role I have held thus far. I share this 
responsibility with my loving husband, Reinaldo Pagan, who is 
here with me today. I must say that I am an incredibly proud 
wife of a U.S. veteran. My husband served this country for more 
than 20 years in the U.S. Army.
    My mom Nevis and my stepdad Jorge, who have always 
supported me with their unconditional love, could not be here 
today but are watching from home as they care for my son.
    And lastly, I would be remiss if I did not recognize my 
beautiful grandparents, Manuel and Bertha, who are watching 
from above.
    I was born and raised in New York City as a first 
generation immigrant. My mother, along with her three sisters 
and my grandparents, fled to the United States settling in New 
York in pursuit of basic rights and opportunities that were 
stripped away in their homeland of Cuba. Their experience of 
losing everything due to communism and authoritarianism taught 
me early on the value of democracy, economic opportunity, human 
rights, and freedoms. In addition to my mother's immigrant 
experience, her ability to successfully raise my brother Alex, 
my sister Adrianna, and me for several years on her own 
instilled the principles of self-reliance, hard work, and 
perseverance.
    In my nearly 15 years of professional experience, I have 
had the great privilege to serve the American people in the 
legislative and executive branch. I have worked in 
communications, coalition-building, intergovernmental affairs, 
and policy. My professional introduction to western hemisphere 
affairs began in the office of south Florida Congressman 
Lincoln Diaz-Balart and continued in a greater capacity after 
joining the House Committee on Foreign Affairs under Chairman 
Ileana Ros-Lehtinen.
    Today in the Vice President's office, although my primary 
function is to serve as an interface between civil society 
groups and Vice President Pence, I have worked closely with the 
western hemisphere national security team on issues to advance 
democracy and human rights throughout the region. I was 
fortunate to visit Colombia, Argentina, Chile, and Panama with 
the Vice President on his first official trip to Latin America.
    Outside of government, I led a nonprofit organization as 
Chief Operating Officer and Chief of Staff for several years. I 
gained valuable management and operations experience, 
overseeing a team of nearly 100 full-time employees across 10 
States.
    If I am fortunate to be confirmed, I look forward to 
addressing issues that are hindering progress in Latin America 
and the Caribbean such as poverty, corruption, weak 
institutions, gang violence, socialism, lack of human capital, 
and China's growing influence. The shared goal of the United 
States and of the Inter-American Development Bank is to achieve 
long-term economic prosperity, political stability, and freedom 
across the hemisphere, fundamentally to improve the lives of 
our southern neighbors. I share that vision and commit to 
working with this administration and Congress, especially 
members of this committee. I pledge to use the means available 
to advance democracy and human rights. And as a proud Hispanic 
woman, I look forward to working towards expanding 
opportunities for women throughout Latin America and the 
Caribbean.
    Mr. Chairman and Ranking Member and other members of this 
committee, thank you again for the opportunity to appear before 
you. I would be pleased to answer any questions you may have.
    [The prepared statement of Ms. Castillo follows:]


               Prepared Statemenmt of Andeliz N. Castillo

    Chairman Risch, Chairman Rubio, Ranking Members Menendez and Cardin 
and members of the Senate Foreign Relations Committee: I am very 
honored and humbled that President Trump has nominated me to serve as 
the U.S. Alternate Executive Director of the Inter-American Development 
Bank.
    I am grateful to Secretary Mnuchin and U.S. Executive Director of 
the InterAmerican Development Bank Eliot Pedrosa for their confidence 
and support throughout this process.
    Earlier this year, I was blessed to become a mom to my seven month 
old son, Noah Manuel. It is the toughest, yet the most rewarding role I 
have held thus far. I share this responsibility with my loving husband, 
Reinaldo Pagan, who is here with me today. I must say that I am an 
incredibly proud wife of a U.S. veteran. My husband served this country 
for more than 20 years in the U.S. Army. My mom Nevis and stepdad 
Jorge, who have always supported me with their unconditional love, 
could not be here today but are watching from my home as they care for 
my son. Lastly, I would be remiss if I did not recognize my beautiful 
grandparents, Manuel and Bertha, who are watching from above.
    I was born and raised in New York City as a first generation 
immigrant. My mother, along with her three sisters, and my grandparents 
fled to the United States, settling in New York in pursuit of basic 
rights and opportunities that were stripped away in their homeland of 
Cuba. Their experience of losing everything due to communism and 
authoritarianism, taught me early on the value of democracy, economic 
opportunity, human rights and freedoms. In addition to my mother's 
immigrant experience, her ability to successfully raise my brother 
Alex, my sister Adrianna and me for several years on her own instilled 
the principles of self-reliance, hard work and perseverance.
    In my nearly 15 years of professional experience, I have had the 
great privilege to serve the American people in the legislative and 
executive branch. I have worked in communications, coalition-building, 
intergovernmental affairs, and policy. My professional introduction to 
Western Hemisphere affairs began in the office of South Florida 
Congressman Lincoln Diaz-Balart, and continued in a greater capacity 
after joining the House Committee on Foreign Affairs under Chairman 
Ileana Ros-Lehtinen. Today, in the Vice President's office, although my 
primary function is to serve as an interface between civil society 
groups and Vice President Pence, I have worked closely with the Western 
Hemisphere national security team on issues to advance democracy and 
human rights throughout the region. I was fortunate to visit Colombia, 
Argentina, Chile and Panama with the Vice President on his first 
official trip to Latin America.
    Outside of government, I led a non-profit organization as Chief 
Operating Officer and Chief of Staff for several years. I gained 
valuable management and operations experience, overseeing a team of 
nearly 100 full-time employees across ten states.
    If I am fortunate to be confirmed, I look forward to addressing 
issues that are hindering progress in Latin America and the Caribbean 
such as poverty, corruption, weak institutions, gang violence, 
socialism, lack of human capital, and China's growing influence. The 
shared goal of the United States and of the InterAmerican Development 
Bank is to achieve long-term economic prosperity, political stability 
and freedom across the Hemisphere--fundamentally to improve the lives 
of our southern neighbors. I share that vision and commit to working 
with this Administration and Congress, especially members of this 
committee. I pledge to use the means available to advance democracy and 
human rights. And as a proud Hispanic woman, I look forward to working 
towards expanding opportunities for women throughout Latin America and 
the Caribbean.
    Mr. Chairman and Ranking Member and other members of this 
committee, thank you again for this opportunity to appear before you. I 
would be pleased to answer any questions you may have.


    Senator Rubio. Thank you, Ms. Castillo.
    Ms. Golden?

 STATEMENT OF DR. ALMA L. GOLDEN, OF TEXAS, TO BE AN ASSISTANT 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
             DEVELOPMENT, VICE ARIEL PABLOS-MENDEZ

    Dr. Golden. Senator Rubio, Senator Cardin, and Senator 
Shaheen, and the other members that will be joining I guess 
later, I am honored to be here today as the nominee for the 
Assistant Administrator for the Bureau for Global Health in the 
United States Agency for International Development. I am 
humbled by President Trump's nomination and the confidence of 
Administrator Green.
    I would like to recognize and thank my incredible 
colleagues in the Global Health Bureau, as well as well as the 
Global Development Lab as well.
    USAID's programs demonstrate the great compassion of the 
American people, while advancing also the U.S. security 
priorities and prosperity of our nation. If confirmed, I commit 
to supporting the mission of the Global Health Bureau to 
control the HIV epidemic, to prevent child and maternal deaths, 
and to combat infectious diseases while we advance health 
security.
    I consider myself to be one of the richest women you will 
meet. My wealth is not in money, but in relationships. I am 
privileged to be the mother of four children. 4 years ago in 
one of my last conversations with my eldest son, Dr. Matthew 
Davis, my trauma surgeon son encouraged me to reenter public 
service. I honor his inspiration today.
    My other children, David Jonathan Davis; Barbara Davis 
Eppink; Daniel Coe Davis; and Matt's wife, Sharon Davis; and 
their families are supporting me from Texas.
    Today Marina Svistova McCreight is with me. She joined our 
family as a Freedom Support Act Scholar from Ukraine 25 years 
ago and has been the daughter of my heart since that time. I am 
grateful to the Congress for the extraordinary programs like 
that which bring the world together.
    I am the grandmother of 12 amazing grandchildren, 15 if you 
count Marina's. So I am heavily invested in the future.
    Administrator Green's inspiring vision for USAID has been 
irresistible to this Texas pediatrician. My passion for access 
to health care has gone back to my childhood. As a child, I was 
inspired by stories I heard about missionaries who went to 
other parts of the world to help people in need. Like most 
young women growing up in the 1960s, I assumed I would enter 
nursing. However, my father, who was a decorated World War II 
aviator and who taught me to fly when I was 14, gave me wings 
of another sort when he asked me, why do you not just become a 
doctor?
    Later as a pediatrician and a single mom in my hometown in 
Texas, I could not serve overseas, but the needs of my own 
county captured my heart. While volunteering with the public 
health clinic, I recognized the absence of affordable, 
accessible, quality care. I left private pediatrics and I 
joined the University of Texas Medical Branch where for a 
decade I ran a network of 16 clinics over a span of about 270 
miles in south and east Texas providing health care in rural 
and underserved communities. This experience of front-line 
health care informed my 4 years at the Department of Health and 
Human Services while I worked with the Office of Population 
Affairs, as well as helped launch PEPFAR. It also has provided 
important insights while I worked with USAID since October 
2017.
    If confirmed, I commit to bring not only my passion for 
access to quality care, but also my experience to the countries 
where USAID operates.
    This administration proudly supports the Global Health 
Security Strategy, an effective tool to prevent, detect, and 
respond to infectious disease threats. I have witnessed the 
complexity of the recent Ebola epidemic firsthand in the DRC, 
and if confirmed, I commit to supporting and strengthening 
global health security that builds resilience and 
responsibility around the world.
    USAID prioritizes the empowerment of women and girls, and 
we must remain engaged in order to stop the harmful practices 
of child marriage, child exploitation, domestic violence, and 
other forms of trafficking and abuse. I commit to continuing 
that fight.
    One agent of change in health outcomes that is mostly 
under-appreciated and inadequately resourced is men. Caring men 
strengthen diverse health outcomes, including the use of 
prenatal care, immunizations, school attendance, use of 
voluntary family planning, and adequate nutrition while 
lowering rates of domestic violence and exploitation. If 
confirmed, I commit to identifying current programs and new 
supports to help male champions of health and well-being.
    Global Health is on the threshold of a decade of 
significant change. We will confront, no doubt, new epidemics, 
increase in antimicrobial resistance, changing populations and 
additional manmade crises. But we also have extraordinary 
possibilities.
    Thank you for the opportunity to be here. I look forward to 
answering your questions.
    [The prepared statement of Dr. Golden follows:]


              Prepared Statement of Dr. Alma Crumm Golden

    Senator Rubio, Senator Cardin, and distinguished members of the 
committee, I am honored to come before you today as the nominee for 
Assistant Administrator of the Bureau for Global Health at the United 
States Agency for International Development (USAID). I am humbled by 
President Trump's nomination of me to serve in this important role, and 
am grateful for the confidence Administrator Green has placed in me.
    I would like to recognize and thank the incredible leaders in the 
Global Health Bureau. USAID's Global Health programs demonstrate the 
great compassion of the American people, while advancing U.S. national 
security priorities and prosperity here at home. If confirmed, I commit 
to supporting the mission of the Global Health Bureau to control the 
HIV/AIDS epidemic, prevent child and maternal deaths, combat infectious 
diseases, and promote global health security.
    I am privileged to be the mother of four children. In one of my 
last conversations with my late son, Matthew Davis, we discussed new 
opportunities I had been offered in health policy, which ultimately led 
me to serve in this administration and sit before you today. Just like 
the accomplished trauma surgeon that he was, Matt cut to the heart of 
our conversation and said, ``Go for it, Momma! Just go for it!'' Now, 
three and a half years after my son's death, I know he is pleased that 
I have this opportunity to truly ``go for it.'' I honor his inspiration 
today.
    I consider myself one of the richest women you will meet. My wealth 
is not in money, but in relationships. I am the grandmother of 12 
amazing grandchildren, and I can assure you, I am heavily invested in 
the future. Today, my youngest son, Daniel Davis, my daughter, Barbara 
Eppink, my middle son, David Davis, Matt's wife, Sharron, and their 
families are supporting me from Texas. I am pleased to be joined today 
by Marina Svistova McCreight. She joined our family as a Freedom 
Support Act Scholar from Ukraine 25 years ago and has been the daughter 
of my heart since. I am grateful to Congress for extraordinary programs 
like that which bring the world together.
    Administrator Green's inspiring vision for USAID--ending the need 
for foreign assistance--is irresistible to this Texas pediatrician. I 
have had a passion for access to health care for vulnerable populations 
for as long as I can remember.
    As a child with severe asthma, I admired the doctors and nurses who 
cared for me. This admiration grew into a life-calling after hearing 
stories at church of selfless missionaries who were providing medical 
aid to those in need overseas. Like most young women in the 1960's 
interested in a career in healthcare, I prepared to enter nursing. 
However, my father, a decorated WWII aviator who taught me to fly when 
I was 14, gave me wings of another sort when he asked, ``Why don't you 
just become a doctor?'' That question set me on a new path.
    After medical school, I became a pediatrician in my hometown of 
Alvin, Texas. As a working single-mother of four, my capacity to serve 
overseas was limited, but the needs in my own county captured my heart. 
While volunteering with a free clinic, the absence of affordable, 
accessible, and quality health care for children distressed me. I left 
private practice to work for the University of Texas Medical Branch, 
where, for a decade, I ran a network of 16 clinics that spanned over 
270 miles of rural East and South Texas, and provided maternal and 
child health care in rural and under-served communities. This 
experience of front-line health care informed my four years at the U.S. 
Department of Health and Human Services while directing the Office of 
Population Affairs and collaborating on the launch of the United States 
President's Emergency Plan for AIDS Relief (PEPFAR), and has also 
provided unique insights during my tenure at USAID since October 2017. 
If confirmed, I commit to bring not only my passion for access to 
quality care, but also my clinical, community, national and 
international experience, to the countries in which for women and their 
families, USAID operates.
    USAID's work in global health saves lives at home and abroad. This 
administration proudly supports the Global Health Security Agenda 
(GHSA), an effective coalition to prevent, detect and respond to 
infectious-disease threats, and the International Health Regulations 
(IHRs). In March, on my second trip to the Democratic Republic of 
Congo, I witnessed the complexity of the current Ebola epidemic first-
hand. If confirmed, I commit to doing everything I can to support and 
strengthen the implementation of the IHRs, the GHSA, and the 
administration's Global Health Security Strategy as tools for building 
resilience and responsibility across nations to protect the United 
States and the world.
    USAID prioritizes the empowerment of women and girls through health 
care, education, legal protection, and economic empowerment. It is 
critical that USAID remain engaged in personal, community, national, 
and international venues to stop the harmful practices of child 
marriage; the sexual exploitation and abuse of girls and young women; 
domestic and sexual violence; and trafficking in persons and other 
forms of modern slavery. Communities thrive when women and girls 
thrive. If confirmed to lead the Global Health Bureau, I commit to 
promoting increased interagency collaboration to address these 
important issues, particularly to the Departments of Health and Human 
Services and State.
    In addition, we must recognize one agent of change in health 
outcomes that is mostly underappreciated and inadequately resourced: 
men. Positive male figures, including caring fathers, strengthen 
diverse health outcomes, such as the use of prenatal care, improved 
immunization rates, lower rates of domestic violence, higher rates of 
school completion, greater use of modern forms of voluntary family 
planning, and lower prevalence of wasting and stunting that reflect 
adequate nutrition. If confirmed, I commit to identifying synergies 
with current programs, and to develop new opportunities to promote male 
champions of the health and well-being of women and children.
    The Journey to Self-Reliance is only possible with the engagement 
of local partners, community groups, faith-based organizations, and the 
private sector, which together produce long-term and sustainable 
progress across sectors. Many of these partners have worked with us to 
yield significant impact around the world for decades. If confirmed, I 
commit to supporting innovative ways to strengthen USAID's existing 
partnerships, and to exploring new collaborations.
    Global health is at the threshold of significant change. The next 
ten years will likely bring us unprecedented challenges, including new 
epidemics, a rise in non-communicable diseases, an increase in 
antimicrobial resistance, rapidly changing populations, and additional 
man-made crises. If confirmed, I fully commit before God, this august 
body, the administration, and the American people to partner with 
governments, civil society, and the private sector in developing 
nations to improve health, resilience, opportunities and self-reliance 
around the world.
    Thank you for the opportunity to appear before you today. I look 
forward to answering your questions.


    Senator Rubio. Thank you, Dr. Golden.
    Mr. Haymond?

STATEMENT OF PETER M. HAYMOND, OF VIRGINIA, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
   STATES OF AMERICA TO THE LAO PEOPLE'S DEMOCRATIC REPUBLIC

    Mr. Haymond. Mr. Chairman, Ranking Member, members of the 
committee, thank you for giving me the honor of this 
opportunity to appear before the committee today.
    I also want to thank the President and the Secretary of 
State for the confidence they have shown in me by nominating me 
as the next U.S. Ambassador to the Lao People's Democratic 
Republic.
    I am joined today by my wife Dusadee, my companion and 
closest partner over the past 30 years, also by my daughter 
Faye, who knows well the challenges of growing up in the 
frequent-moving Foreign Service life. Faye had already attended 
five schools in four countries by the time she reached second 
grade.
    I am proud to have devoted almost 29 years to the service 
of the American people as a Foreign Service officer. I believe 
my multiple previous diplomatic assignments in Laos and in two 
of Laos' most important neighbors, China and Thailand, have 
prepared me well for this lofty assignment, should the Senate 
confirm my nomination.
    Today I am happy to say that the U.S.-Laos relationship 
continues to develop beyond the heights reached in 2016 with 
the announcement of our Joint Comprehensive Partnership. The 
administration remains steadfast in its commitment to this 
comprehensive partnership as the road map for furthering 
deepening ties with Laos. If confirmed, I will diligently 
explore new ways to deepen this burgeoning relationship with 
Laos, based on common interests and a shared desire to heal the 
wounds of the past.
    In addition to a growing bilateral partnership with the 
United States, Laos is a member of the 10-nation Association of 
Southeast Asian Nations, or ASEAN. The administration's vision 
for a free and open Indo-Pacific has ASEAN at its core and is 
built on principles that are widely shared in the region: 
ensuring the freedom of the seas and skies; insulating 
sovereign nations from external pressure; promoting market-
based economics, open and transparent investment environments, 
and free, fair, and reciprocal trade. It also supports good 
governance and respect for human rights. These values and 
policies have helped the Indo-Pacific region grow and thrive.
    Laos itself is the geographic connective tissue of mainland 
Southeast Asia, sharing over 3,000 miles of land borders with 
China and four other ASEAN countries, including sub-regional 
leaders Thailand and Vietnam. Laos is also one of the weakest 
countries in ASEAN economically, making it potentially more 
vulnerable to external pressure. If confirmed, working to 
empower Laos as a sovereign nation will be a top priority.
    Our sustained engagement with and support for Laos, 
including increased senior official visits in recent years, has 
engendered a greater trust and enabled progress on strategic 
U.S. priorities.
    Together with like-minded partners, we are seeking a Laos 
that is more prosperous and better governed, protecting and 
promoting the human rights of those in Laos. We are engaging 
with emerging reform-minded leaders, and we are encouraging 
Laos to maintain its sovereignty and be a constructive member 
of the rules-based international order.
    Although the emerging U.S.-Lao relationship holds promise, 
significant roadblocks remain. The Lao People's Revolutionary 
Party remains the ultimate authority in this one-party state, 
and many of the Indo-China War veteran leaders still in charge 
of the government first dealt with the United States in a very 
different and difficult era in our relations. With American 
help and encouragement, however, we are embarked now on a new 
and positive era in our ties. As one example, we have been 
assisting as the Lao government grapples with the many 
challenges of transnational crime. To fight human trafficking, 
for instance, Laos last year took notable new steps, although 
there is still great room for improvement. If confirmed, I will 
actively work with the Lao in their efforts to more effectively 
transnational crime in the sub-region.
    If confirmed, I would plan to focus on our forward- looking 
comprehensive relationship with Laos, but I also pledge to 
continue addressing challenges remaining from the past. I will 
do everything I can to support the Defense POW/MIA Accounting 
Agency's efforts to achieve the fullest possible accounting for 
the remaining 286 U.S. personnel still missing in Laos from the 
Indochina War. The United States is currently the number one 
donor in the effort to remove unexploded ordnance, or UXO, that 
remains from that war, having contributed some $200 million 
since 1995. The Lao government has committed to eliminate UXO 
as a barrier to national development by 2030, and the 
administration supports that goal and believes it is 
achievable.
    Mr. Chairman, Ranking Member, members of the committee, if 
confirmed, I will devote all my ability and experience to 
advancing U.S. objectives in Laos, a country that is an 
important link in the administration's free and open Indo- 
Pacific strategy. I look forward to your questions.
    [The prepared statement of Mr. Haymond follows:]


                 Prepared Statement of Peter M. Haymond

    Mr. Chairman, Ranking Member, members of the committee, thank you 
for giving me the honor of this opportunity to appear before the 
committee today. I also want to thank the President and the Secretary 
of State for the confidence they have shown in me by nominating me as 
the next U.S. Ambassador to the Lao People's Democratic Republic.
    I am joined today by my wife Dusadee, my companion and closest 
partner over the past 30 years. Also by my daughter Faye, who knows 
well the challenges of growing up in the frequent-moving Foreign 
Service life--Faye had already attended five different schools in four 
countries by the time she reached 2nd grade.
    I am proud to have devoted almost 29 years to the service of the 
American people as a Foreign Service Officer. I believe my multiple 
previous diplomatic assignments in Laos--and multiple assignments in 
two of Laos' most important neighbors, China and Thailand, most 
recently as Deputy Chief of Mission and Charge d'Affaires in Bangkok--
have prepared me well for this lofty assignment, should the Senate 
confirm my nomination.
    Today, I am happy to say that the U.S.-Laos relationship continues 
to develop beyond the heights reached in 2016 with Laos' successful 
tenure as ASEAN chair and the first-ever visit to Laos by a U.S. 
president, which included the announcement of our Joint Comprehensive 
Partnership. The administration remains steadfast in its commitment to 
this comprehensive partnership as the roadmap for further deepening 
ties with Laos. If confirmed, I will diligently explore new ways to 
deepen the burgeoning relationship with Laos, based on common interests 
and a shared desire to heal the wounds of the past.
    In addition to a growing bilateral partnership with the United 
States, Laos is a member of the 10-nation Association of Southeast 
Asian Nations, or ASEAN. The administration's vision for a Free and 
Open Indo-Pacific has ASEAN at its core, and is built on principles 
that are widely shared in the region: ensuring the freedom of the seas 
and skies; insulating sovereign nations from external pressure; 
promoting market-based economics, open and transparent investment 
environments, and free, fair, and reciprocal trade. It also supports 
good governance and respect for human rights. These values and policies 
have helped the Indo-Pacific region grow and thrive.
    Laos is the geographic connective tissue of Mainland Southeast 
Asia, sharing over 3,000 miles of land borders with China and four 
other ASEAN countries, including sub-regional leaders Thailand and 
Vietnam. More of the strategic Mekong River flows through and along 
Laos than through any other Southeast Asian nation. Laos is also one of 
the weakest countries in ASEAN economically, making it potentially more 
vulnerable to external pressure. If confirmed, working to empower Laos 
as a sovereign nation will be a top priority.
    Our sustained engagement with and support for Laos, including 
increased senior official visits in recent years, has engendered 
greater trust and enabled progress on U.S. strategic priorities. We are 
currently joining with Japan, Australia, South Korea, and the European 
Union as partners endeavoring to facilitate Laos' further integration 
into the ASEAN Economic Community and global economy.
    The Lao government is enthusiastic about American investment in 
energy, which Laos sees as its most promising natural resource. 
Hydropower dominates the sector, but solar and wind power generation 
are promising and receiving growing interest from American business. In 
August, Secretary Pompeo announced an additional $29.5 million dollars 
in support of the Japan-U.S. Mekong Power Project or JUMPP to meet 
growing energy demands in the Mekong.
    With timely support from the State Department, USAID, the 
Department of Commerce, the U.S. Trade and Development Agency (USTDA), 
and the upcoming Development Finance Corporation, the U.S. government 
and U.S. companies can help Laos diversify its economic relations and 
lessen its dependence on any one country.
    Together, with like-minded partners, we are seeking a Laos that is 
more prosperous and better governed, protecting and promoting the human 
rights of those in Laos; we are engaging with emerging reform-minded 
leaders; and we are encouraging Laos to maintain its sovereignty and be 
a constructive member of the rules-based international order.
    Although the emerging U.S.-Lao relationship holds promise, 
significant roadblocks remain. The Lao People's Revolutionary Party 
remains the ultimate authority in this one-party state, and many of the 
Indochina War-veteran leaders who are still in charge of the Party and 
government first dealt with the United States in a very different and 
difficult era in our relations. With American help and encouragement, 
however, we are embarked on a new and positive era in our ties. As one 
example, we have been assisting as the Lao government grapples with the 
many challenges of transnational crime, including trafficking of 
narcotics and wildlife; human trafficking; money laundering; and cases 
of official corruption that have helped enable the other crimes. To 
fight human trafficking, for instance, Laos last year took notable new 
steps, though there is still great room for improvement. If confirmed, 
I will actively work with the Lao in their efforts to more effectively 
fight transnational crime.
    If confirmed I would plan to focus on our forward-looking 
comprehensive relationship with Laos, but I also pledge to continue 
addressing challenges remaining from the past. I will do everything I 
can to support the Defense POW/MIA Accounting Agency's efforts to 
achieve the fullest possible accounting for the remaining 286 U.S. 
personnel still missing in Laos from the Indochina War, including 
acknowledging the Lao government's important role in successfully 
returning our heroes home. The United States is currently the number 
one donor in the effort to remove unexploded ordinance (UXO) that 
remains from the war, having contributed some $200 million since 1995. 
U.S. funding supports UXO clearance, risk education, survivor's 
assistance, and capacity building. The Lao government has committed as 
part of its strategic development goals to eliminate UXO as a barrier 
to national development by 2030--the administration supports that goal 
and believes it is achievable.
    Mr. Chairman, Ranking Member, members of the committee, if 
confirmed, I will devote all my ability and experience to advancing 
U.S. objectives in Laos, a country that is seeking more engagement with 
the United States, and is an important link in the administration's 
Free and Open Indo-Pacific Strategy. I would look to work closely with 
the Congress in that effort, and hope to welcome many Members of 
Congress to Vientiane, should I be confirmed.
    I look forward to your questions.


    Senator Rubio. Thank you.
    Ms. Romanowski?

STATEMENT OF ALINA L. ROMANOWSKI, OF ILLINOIS, A CAREER MEMBER 
OF THE SENIOR EXECUTIVE SERVICE, TO BE AMBASSADOR EXTRAORDINARY 
  AND PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                        STATE OF KUWAIT

    Ms. Romanowski. Chairman Rubio, Ranking Member Cardin, and 
distinguished members of the committee, I am honored to appear 
before you today as the President's nominee to be the U.S. 
Ambassador to the State of Kuwait.
    With your permission, I would like to submit my full 
statement for the record.
    I am grateful to the President and Secretary Pompeo for 
placing their trust and confidence in me. If confirmed, I 
pledge to work closely with this committee to advance U.S. 
interests, American values, and our strong relationship with 
Kuwait.
    First, I would like to express my deepest gratitude to my 
parents. I am a first generation American. My father came to 
the United States from Poland in 1946. He enlisted in the U.S. 
Army, served in Korea, and became an accomplished professor of 
high-energy physics. My mother came to the United States from 
Canada and gave back to our community as a high school French 
teacher. They instilled in me a strong sense of service, 
respect, and humility and are always with me in spirit.
    I want to thank my family and friends for being here with 
me today. My husband, Bill Matzelevich, served in the U.S. Navy 
for 24 years as a submariner and has provided me with steadfast 
support throughout my career. My two sons, Nicholas and Eric, 
have brought me tremendous price and joy. My sister Dominique 
is watching live stream from California. Without their love and 
support, I would not be here today.
    Mr. Chairman, November marks almost 40 years of my U.S. 
government service, most of it focused on the Middle East in 
positions at four different national security agencies. If 
confirmed, I will draw on that broad experience to advance 
American objectives in Kuwait and the region, not only on 
security and economic issues, but also on democracy, human 
rights, and the rule of law.
    Kuwait hosts U.S. military forces that are critical to 
stability and security in the Middle East and essential to our 
national security interests. Kuwait is a key member of the 
Global Coalition to Defeat ISIS and calls for unity among the 
members of the Gulf Cooperation Council. If confirmed, I will 
continue building on a partnership that I have directly 
supported since the 1990 Gulf War.
    The U.S. military and diplomatic partnership with Kuwait 
has been essential to increasing pressure on Iran and 
containing its malign activities throughout the region. We must 
work together with key partners such as Kuwait to counter the 
Iranian threat.
    Mr. Chairman, if confirmed, my highest priority will be the 
safety and security of all Americans in Kuwait. Over 45,000 
private American citizens are working in Kuwait across a range 
of industries.
    Our strong people-to-people ties, however, go both ways. 
Last year, over 12,000 Kuwaitis registered to study at 
universities across America. These students inject more than 
$1.2 billion into the U.S. economy each year. They take back 
their understanding of the United States to Kuwait, 
strengthening the social and cultural ties between our 
countries.
    Kuwait's economy centers on oil. Kuwait currently produces 
2.75 million barrels of oil per day and wants to grow this in 
the near future. To meet this goal, Kuwait is benefiting from 
the expertise of U.S. oil services companies. This year, 
Halliburton signed a $597 million contract to explore oil 
offshore. If confirmed, advocating for U.S. businesses will be 
one of my top priorities.
    Kuwait must strengthen the rights of its vulnerable 
populations, namely women, stateless Arab Biddon, and Kuwait's 
large expat labor force. Our cooperation with Kuwait can drive 
this change because strong, sustained U.S. advocacy was 
critical to Kuwait's upgrade to tier 2 status in the 2019 
Trafficking in Persons report. Kuwait is already a leader in 
the region for allowing space for political expression, 
fostering independent media, and encouraging participatory 
government. If confirmed, I will make these issues an important 
part of my dialogue with the Kuwaiti leadership and its 
citizens.
    Although our history with Kuwait is the foundation of the 
lasting friendship that we have today, our relations must not 
depend on what we have achieved in the past. The influence of 
younger Kuwaitis born after the liberation in 1990 grows every 
day. Together, we must build a foundation for the future rooted 
in our shared values, interests, and vision. If confirmed, I 
will work tirelessly to ensure the next generation of Americans 
and Kuwaitis can be proud of our cooperation and shared values.
    Chairman Rubio, Ranking Member Cardin, and distinguished 
members of the committee, thank you for the opportunity to 
appear before you today, and I look forward to your questions.
    [The prepared statement of Ms. Romanowski follows:]


               Prepared Statement of Alina L. Romanowski

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee: I am honored to appear before you today as President Trump's 
nominee to serve as Ambassador to the State of Kuwait. I am grateful to 
the President and to Secretary Pompeo for the trust and confidence they 
have placed in me to undertake this important role. If confirmed, I 
pledge to work closely with members of the committee to advance U.S. 
national security interests and American values in Kuwait and to ensure 
Kuwait remains a strong regional partner for the United States.
    I would first like to express my deepest gratitude to my family and 
friends. Without their love and support, I would not be here today. As 
a first generation American, I must recognize my father who came to the 
United States from Poland in 1946. He enlisted in the U.S. Army, served 
in Korea, and became an accomplished professor of high-energy physics. 
My mother came to the United States from Canada and gave back to our 
community as a high school French teacher. They instilled in me a 
strong sense of service, respect, and humility and are always with me 
in spirit.
    I would also like to recognize my husband and my children who are 
here with me today. My husband, Bill Matzelevich, served in the U.S. 
Navy for 24 years as a submariner and has provided me with steadfast 
support throughout my career. Our two sons, Nicholas and Eric, have 
brought tremendous pride and joy to me. My sister, Dominique, could not 
be here today, but is watching the live stream from California. I also 
thank the many friends and colleagues who have played important roles 
in my career--some of them are here today.
    Mr. Chairman, this November will mark almost 40 years of my service 
with the U.S. government, almost half of it as a career Senior 
Executive focused on the Middle East in positions with the Departments 
of State and Defense, the U.S. Agency for International Development, 
and the intelligence community, where I began my career. If confirmed, 
I will draw on that broad experience and my leadership to continue to 
advance American objectives in Kuwait and the region, focusing not only 
on security and economic issues, but also on democracy, human rights, 
and the rule of law.
    Kuwait hosts U.S. military forces that are critical to stability 
and security in the Middle East and essential to our national security 
interests. If confirmed, I look forward to building on a partnership I 
have directly supported since the 1990 Gulf War to advance U.S. 
national security interests.
    The U.S. military and diplomatic partnership with Kuwait has been 
essential to increasing pressure on Iran and containing its malign 
activities throughout the region. Through its proxies, Iran has sown 
violence against U.S. allies and U.S. interests across the Middle East 
and beyond. The September 14 attacks against critical oil 
infrastructure in Saudi Arabia represent a dangerous escalation in 
Iran's behavior. Iranian attacks against international oil tankers in 
the Gulf threaten freedom of navigation in one of the world's most 
critical seaways. Through its support of the Houthis in Yemen, Bashar 
al Assad's regime in Syria, and Hezbollah in Lebanon, Iran is working 
to destabilize the entire region. We must work together with key 
partners such as Kuwait to counter this threat.
    Mr. Chairman, if confirmed, my highest priority will be the safety 
and security of all Americans in Kuwait. Over 45,000 U.S. citizens are 
working in Kuwait as military contractors, teachers, and 
businesspeople, in addition to U.S. government and military personnel.
    Our strong people-to-people ties, however, go both ways. Last year 
over 12,000 Kuwaitis registered to study at universities across the 
United States--from Idaho to New Jersey to Utah to Connecticut. These 
students come to the United States on scholarships fully funded by the 
Kuwaiti government and represent an injection of more than $1.2 billion 
into the U.S. economy each year. These students bring their life and 
cultural experience to the United States, and take back their knowledge 
and understanding of the United States to Kuwait. This exchange greatly 
strengthens the social and cultural ties between our two countries. 
This is a strong bond that we continue to build from generation to 
generation, with the recognition that relationships with our partners 
need to be nurtured and tended.Kuwait's economy centers on oil. Kuwait 
currently produces 2.75 million barrels of oil per day and want to 
increase production to as much as 4 million in the near future. To meet 
this goal, Kuwait is benefitting from the technical expertise of U.S. 
oil services companies, as many countries in the region have. One 
recent example is the $597 million contract that Halliburton signed to 
explore for offshore oil, a first for the Kuwait Petroleum Company. 
Significant opportunities for U.S. businesses to provide services and 
equipment also exist in the petroleum refining, petrochemicals, power 
generation and transmission, and water desalination industries. If 
confirmed, advocating for U.S. businesses will be one of my top 
priorities.Kuwait must strengthen the rights of members of vulnerable 
populations in the country, namely: women, stateless Arabs known 
colloquially as the Bidoon, and Kuwait's large expatriate labor force. 
The United States can help. We know that our cooperation with Kuwait 
can drive this change because strong, sustained U.S. advocacy and 
partnership were critical to Kuwait's upgrade to Tier 2 status in the 
2019 Trafficking in Persons report. Kuwait is already a leader in the 
region for allowing space for political expression, fostering an 
independent media, and encouraging participatory government. Kuwaitis 
have a well-functioning and empowered elected parliament. If confirmed, 
I will make these issues an important part of my discussions with 
Kuwaiti leadership, and I will continue a regular dialogue with 
Kuwaitis as they pursue advances in democratic, economic, and social 
development, as well.Kuwait's importance to the United States goes 
beyond our bilateral relationship. Under the leadership of the Amir, 
His Highness Sheikh Sabah AlAhmad Al-Jaber Al-Sabah, Kuwait's foreign 
policy has encouraged peace and cooperation between our partners in the 
region. Kuwait has worked to develop stronger economic ties across its 
border with Iraq, as evidenced by its effort to normalize trade 
relations and modernize the primary border crossing at Safwan. Kuwait 
is a key member in the Coalition to Defeat ISIS. Together with the 
United States, Kuwait has demonstrated sustained leadership in calling 
for unity among Gulf Cooperation Council countries and to set aside the 
divisions between its members that only benefit the regime in 
Iran.While our history with Kuwait is the foundation of the lasting 
friendship that we have today, our relations must not depend on what we 
have achieved in the past. Together, we must build a foundation for the 
future. The influence of younger generations of Kuwaitis, born after 
the liberation in 1990, grows every day.Our relationship must continue 
to be rooted in our shared values, interests, and vision for the 
future. Since 2016, the U.S.-Kuwait Strategic Dialogue has served as 
the framework to expand the strategic partnership between our countries 
and strengthen our political, economic, cultural, and military ties. We 
will continue to strengthen cooperation across our governments in 
education, healthcare, transportation, and cybersecurity. If confirmed, 
I will ensure the United States continues to plan for what we can 
accomplish together in the years to come.The United States and Kuwait 
enjoy an important strategic partnership that has withstood the test of 
time. We must continue to work together to confront the very real 
threats to the region from the Iranian regime and terrorist groups. If 
confirmed, I will work tirelessly to ensure the next generation of 
Americans and Kuwaitis can be proud of our cooperation and shared 
values.
    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, thank you for the opportunity to appear before you today. I 
look forward to taking your questions.


    Senator Rubio. Thank you.
    Finally, Ms. Tsou.

STATEMENT OF LESLIE MEREDITH TSOU, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE SULTANATE OF OMAN

    Ms. Tsou. Chairman Rubio, Ranking Member Cardin, and 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee to serve as U.S. 
Ambassador to the Sultanate of Oman.
    I thank the President and the Secretary for the trust they 
have placed in me and I am grateful for their confidence. If 
confirmed, I pledge to work closely with you to advance U.S. 
national security interests and values in Oman.
    Here with me today are my father, Edward Tsou, a physician 
and first generation American, also a retired U.S. Air Force 
office who served with the 101st Airborne Division in Vietnam, 
and my mother Carol Tsou, a former registered nurse who holds 
master's degrees in liberal studies and theological studies. My 
sister Wendy Berg is here today, as well as my nieces, Alexa 
and Haley Strunk. I value their love and support more than they 
know.
    If confirmed as Ambassador to Oman, I will focus on three 
core priorities.
    My first priority will be the safety and security of all 
Americans in Oman, those at the embassy, as well as the many 
U.S. citizens living, working, studying, and traveling there.
    My second priority will be to build on our already strong 
cooperation with Oman to confront threats to regional security 
and to U.S. national interests. I will focus intensively on 
countering the threat from Iran, promoting safety and security 
of navigation through the Strait of Hormuz, pushing for a 
political solution to the conflict in Yemen, and combating 
terrorism in all its forms.
    As we have recently seen in Saudi Arabia, Iran's malign 
activities throughout the region pose a threat to international 
stability. Oman has a policy of open communications with is 
neighbors, including Iran, with which it borders the Strait of 
Hormuz. Approximately 40 percent of the world's exported oil 
and gas passes through the Strait of Hormuz, most through 
internationally approved shipping lanes in Oman's territorial 
sea. Unlike Iran, Oman is committed to the safety and security 
of navigation through the strait. It shares our concern about 
Iranian behavior. We hold regular discussions with the 
government of Oman on our Iran sanctions policy, and Oman is 
committed to ensuring that its banks and companies fully comply 
with U.S. sanctions. If confirmed, I will prioritize in my 
consultations with Omani leaders our government's work to 
counter Iran's destabilizing activity in the region.
    Across Oman's southwestern border, the conflict in Yemen 
has entered its fifth year. Oman is deeply concerned about it 
and has continuously called for a political solution. It fully 
supports the U.N. process led by Special Envoy Martin Griffiths 
to bring the conflict to an end. The U.S. government is working 
with Oman to secure its border with Yemen and specifically to 
prevent Iran from shipping weapons, advisors, and dual-use 
technology to the Houthis. Our comprehensive border security 
assistance program with Oman aims to deepen our engagement with 
Omani defense and law enforcement and to strengthen Oman's 
capacity to effectively protect its borders.
    If confirmed, I will commit myself to continuing and 
strengthening these efforts. Iran has zero legitimate national 
interests inside Yemen apart from inflaming regional tensions, 
prolonging the conflict, inflicting damage on the Yemeni 
population and precluding meaningful political negotiation.
    Secretary Pompeo visited Oman most recently in January, 
during which he praised what he called ?Oman's unique capacity 
to create opportunities for dialogue on difficult issues at 
challenging times, including by separately hosting both 
Palestinian Authority President Abbas and Israeli Prime 
Minister Netanyahu in Oman in October 2018.? Oman made history 
in October 2018 when the Sultan invited Israeli Prime Minister 
Bibi Netanyahu to Muscat, the first time an Israeli prime 
minister has visited a Gulf country in over 2 decades. Through 
its unique role, Oman has also helped bring the Houthis into 
the U.N. peace process. In the past few years, it has played a 
pivotal role in securing the safe release and return of about a 
dozen U.S. citizens held in Yemen and continues to offer its 
good offices to secure the release of other Americans unjustly 
held in Yemen, Iran, and Syria.
    Ultimately, safety and stability in Oman and Oman's ability 
to play a productive role in regional stability will depend on 
its ability to transform its economy and bring prosperity to 
the Omani people.
    That is why, if confirmed, my third priority will be to 
expand our economic partnership with Oman. The United States 
and Oman signed a Free Trade Agreement in 2009. In the 10 years 
since, the value of American exports to Oman has tripled and 
the value of Omani exports to the United States has doubled. 
This is a solid basis from which to expand trade even further.
    Chairman Rubio, Ranking Member Cardin, members of the 
committee, you have my commitment that, if confirmed, I will 
promote American values and U.S. national security interests in 
every engagement that the U.S. embassy has with the government 
of Oman and its people.
    Thank you for the opportunity to testify before you, and I 
look forward to taking your questions.
    [The prepared statement of Ms. Tsou follows:]


               Prepared Statement of Leslie Meredith Tsou

    Chairman Rubio, Ranking Member, distinguished members of the 
committee, I am honored to appear before you today as President Trump's 
nominee to serve as U.S. Ambassador to the Sultanate of Oman. I thank 
the President and the Secretary for the trust they have placed in me 
and am grateful for their confidence. If confirmed, I pledge to work 
closely with you to advance U.S. national security interests and values 
in Oman.
    Here with me today are my father, Edward Tsou, a first-generation 
American and retired U.S. Air Force officer who served with the 101st 
Airborne Division in Vietnam, and my mother, Carol Tsou, a former 
registered nurse who holds Masters Degrees in Liberal Studies and 
Theological Studies. My sister Wendy Berg is here, as well as my nieces 
Alexa and Haley Strunk. I value their love and support more than they 
know.
    If confirmed as Ambassador to Oman, I will focus on three core 
priorities.
    My first priority will be the safety and security of all Americans 
in Oman--those at the Embassy as well as the many U.S. citizens living, 
working, and traveling there.
    My second priority will be to build on our already strong 
cooperation with Oman to confront threats to regional security and to 
U.S. national interests. I will focus intensively on countering the 
threat from Iran, promoting safety and security of navigation through 
the Strait of Hormuz, pushing for a political solution to the conflict 
in Yemen, and combatting terrorism in all its forms.
    As we have recently seen in Saudi Arabia, Iran's malign activities 
throughout the region pose a threat to international stability. Oman 
has a policy of open communication with its neighbors, including Iran, 
with which it borders the Strait of Hormuz. Approximately 40 percent of 
the world's exported oil and gas passes through the Strait of Hormuz, 
most through internationally-approved shipping lanes in Oman's 
territorial sea. Unlike Iran, Oman is committed to the safety and 
security of navigation through the Strait. It shares our concern about 
Iranian behavior. We hold regular discussions with the government of 
Oman on our Iran sanctions policy, and Oman is committed to ensuring 
that its banks and companies fully comply with U.S. sanctions. If 
confirmed, I will prioritize in my consultations with Omani leaders our 
government's work to counter Iran's destabilizing activity in the 
region.
    Across Oman's southwest border, the conflict in Yemen has entered 
its fifth year. Oman is deeply concerned about it and has continuously 
called for a political solution. It fully supports the U.N. process led 
by Special Envoy Martin Griffiths to bring the conflict to an end. The 
U.S. government is working with Oman to secure its border with Yemen, 
and specifically to prevent Iran from shipping weapons, advisers, and 
dual-use technology to the Houthis. Our comprehensive border security 
assistance program with Oman aims to deepen our engagement with Omani 
defense and law enforcement, and to strengthen Oman's capacity to 
effectively protect its borders. Recent border security assistance 
efforts include provision of equipment and training to expand Oman's 
intelligence, surveillance, and reconnaissance capabilities along the 
Oman-Yemen border; training sessions for Omani law enforcement 
personnel on management of border security checkpoints, rural border 
patrol operations, and response plans to counter crossborder threats; 
and training to improve Oman's ability to detect and interdict weapons, 
explosives, WMD materials, and dual-use technology.
    If confirmed, I will commit myself to continuing and strengthening 
these efforts. Iran has zero legitimate national interests inside 
Yemen, apart from inflaming regional tensions, prolonging the conflict, 
inflicting damage on the Yemeni population, and precluding meaningful 
political negotiation.
    Secretary Pompeo visited Oman most recently in January, during 
which he praised what he called ``Oman's unique capacity to create 
opportunities for dialogue on difficult issues at challenging times, 
including by separately hosting both Palestinian Authority President 
Abbas and Israeli Prime Minister Netanyahu in Oman in October[2018].'' 
Oman made history in October 2018 when the Sultan invited Israeli Prime 
Minister Bibi Netanyahu to Muscat, the first time an Israeli Prime 
Minister has visited a Gulf country in over two decades. Through its 
unique role, Oman has also helped bring the Houthis into the U.N. peace 
process. In the past few years, it has played a pivotal role in 
securing the safe release and return of about a dozen U.S. citizens 
held in Yemen, and continues to offer its good offices to secure the 
release of other Americans unjustly held in Yemen, Iran and Syria.
    Ultimately, safety and stability in Oman, and Oman's ability to 
play a productive role in regional stability, will depend on its 
ability to transform its economy and bring prosperity to the Omani 
people.
    This is why, if confirmed, my third priority will be to expand our 
economic partnership with Oman. The United States and Oman signed a 
Free Trade Agreement in 2009. In the 10 years since, the value of 
American exports to Oman has tripled, and the value of Omani exports to 
the United States has doubled. This is a solid basis from which to 
expand trade even further. U.S. and Omani companies have only scratched 
the surface on potential benefits from our Free Trade Agreement and our 
Science and Technology Cooperation Agreement, which we signed in 2016.
    Oman is already taking steps to diversify its economy. The 
ambitious Port of Duqm project is creating a new logistical and 
shipping hub in the region to link Asia, the Middle East, and Africa. 
U.S. companies can be a part of this, and, if confirmed, I will make 
sure American firms understand the opportunities available to them at 
Duqm Port and the surrounding Special Economic Zone.
    Chairman Rubio, Ranking Member, members of the committee, you have 
my commitment that if confirmed, I will promote American values and 
U.S. national security interests in every engagement that the U.S. 
Embassy has with the government of Oman and its people.
    Thank you for the opportunity to testify before you. I look forward 
to taking your questions.


    Senator Rubio. Okay, great. We will begin with Senator 
Shaheen.
    Senator Shaheen. Thank you very much, Mr. Chairman and 
Senator Cardin.
    And congratulations to each of you on your nominations. Mr. 
Haymond, Ms. Romanowski, and Ms. Tsou, we especially appreciate 
all of the career Foreign Service officers and thank you all 
very much for your service. Dr. Golden and Ms. Castillo, we 
very much appreciate your willingness to consider coming in and 
doing public service, Dr. Golden again and Ms. Castillo again, 
and taking on these challenging assignments.
    Dr. Golden, I especially appreciated our conversation 
yesterday, and I wanted to go back to a couple of things that 
we talked about. As I said to you, I am very concerned about 
the way this administration has implemented and expanded the 
Mexico City policy. And I have heard from representatives of 
organizations that it is having a chilling effect on family 
planning programs, as well as the broader the Global Health 
program from HIV and the PEPFAR program to other areas where I 
think we would all agree that it is important that we support 
what organizations are doing around the world and encourage 
them to address global health issues.
    And I know that you talked to me about the work that you 
have done in Texas especially with those who are most at risk. 
So I especially appreciate your interest in ensuring that 
people get the support they need.
    But will you commit to ensuring that USAID provides 
unbiased and apolitical information to prime and sub- 
recipients of U.S. foreign assistance who are not clear about 
how to best comply with the expanded Mexico City policy?
    Dr. Golden. Thank you. I enjoyed very much our visit 
yesterday, and I thank you for the opportunity to get together.
    I think you know from our discussion that I am genuinely 
committed to access to care for people around the world.
    As you know, the United States has the largest bilateral 
support of family planning in the world, and we are grateful 
that we have an opportunity where we work with not only large 
organizations, but local organizations as well to address the 
needs that are there. As you are aware, there has been no 
reduction, not even a single dollar, of our support for foreign 
assistance for family planning, whether Mexico City is in force 
or not.
    So consequently, even though the vast majority of our 
organizations, our NGOs, that we work with have agreed to the 
policy, those few that have not signed up to continue under the 
PLGHA, the dollars and the services have been transitioned to 
other partners. So we are monitoring that carefully. USAID is 
an experienced transitioner of contracts and partners, and we 
have everything fully in place right now so that we can assure 
that the money and the services can continue.
    We are working with the interagency. Because this is an 
all-of-government activity, we are working with the interagency 
to finalize reviews and to monitor in an ongoing manner.
    Senator Shaheen. Dr. Golden, I am going to interrupt you 
and ask that maybe--we will submit a question for the record 
and hopefully you could delineate some of those other areas. I 
am running out of time and I have some other questions.
    Dr. Golden. Sorry. Thank you so much.
    Senator Shaheen. Thank you very much.
    Dr. Golden. I commit to doing that. Thank you.
    Senator Shaheen. Ms. Castillo, I appreciate that in your 
testimony you highlighted the importance of the Inter- American 
Development Bank to better the lives particularly of women in 
Latin America and the Caribbean. And if confirmed, how would 
you use the weight of the U.S. and our role at the IDB to 
promote loans directed at women's rights and empowerment?
    Ms. Castillo. Thank you, Senator, for the question.
    As you said and I mentioned in my opening statement, it 
would be a priority of mine. If I am fortunate to be confirmed, 
I would be extremely supportive of loans that would provide 
access for vocational training, for instance, or for those 
women who are entrepreneurs, also reducing the gender gap. I 
would be extremely supportive of those.
    Senator Shaheen. Thank you.
    Mr. Haymond, since 1982, the Laos government has been 
largely supportive of accounting for U.S. personnel who have 
gone missing in Laos. These are very important efforts to 
address the uncertainty and end the lack of information that so 
many American families have. There are 268 unaccounted for 
Americans who were lost during the Vietnam War in Laos. We 
think they are in Laos.
    Can you talk about whether there is any way we can help 
improve our ability to work with the Lao government to get the 
return of those remains and find out what happened to those 
service members?
    Mr. Haymond. Thank you, Senator.
    As I mentioned, this will be my third time working in Laos. 
In each of those assignments, the search for the POW/MIA 
remaining personnel was one of our key goals in the embassy. It 
would certainly be so, if I am confirmed and if I were to go to 
Vientiane again.
    The Lao government in recent years has shown some 
increasing flexibility in allowing larger teams to come in and 
search, in allowing more flexibility in where those teams are 
based. I would continue to press the Lao government to increase 
that flexibility and help us gain access to any remaining 
witnesses from that period. This has been, as I say, a lead 
issue in our relationship for many years, and I am very much 
committed to pushing that forward towards the most successful 
conclusion possible.
    Senator Shaheen. Thank you.
    And finally, Ms. Tsou and Ms. Romanowski, you are both, if 
confirmed, going to countries in the Middle East that have been 
relatively stable, at least for the last several decades, and 
are in very strategic locations to be more engaged in helping 
to address some of the conflicts in that part of the world.
    Are there ways in which you see that we can encourage that? 
I very much appreciate what you said about Oman and their 
interest in addressing the war in Yemen, but are there other 
things that we can do to encourage them to get more engaged in 
helping to resolve some of these conflicts? I would ask either 
or both of you to respond.
    Ms. Tsou. Thank you, Senator. I will go first.
    Oman has this knack of being able to find a way to straddle 
some of the divides in the area, religious and otherwise, and 
to play a positive role. We work with them on a range of 
issues, as you know. We have for years. I think Yemen is a 
place where they have been particularly helpful.
    Since my last post was in Israel, I was very heartened by 
their stance towards the Israelis and the Palestinians. I 
thought that that was a great move that they did and maybe we 
can build on that as well.
    They have been very responsive to what we have asked. So I 
would be happy to work with any of you on the committee to 
think of ways perhaps that can be helpful. And if I am 
confirmed and I am out there, I will be looking for ways to 
utilize that.
    So thank you for that question.
    Senator Shaheen. Thank you.
    Ms. Romanowski?
    Ms. Romanowski. Thank you, Senator, for the question.
    Kuwait has been, as I mentioned, a strategic partner for a 
long time for us and provides us some incredible access for us 
to achieve our objectives in trying to resolve the conflict, 
but also it has been a really solid counterterrorism partner 
with us.
    The Emir has been an early mediator in the Gulf rift and 
works with us very closely on trying to find new and creative 
ways to bring the GCC members together. We are continuously 
talking and speaking with the Kuwaitis on responding to the 
ever-changing environment with terrorists in the region. We do 
have a very close dialogue with them. The strategic partnership 
dialogue that we do have affords us an incredible platform to 
talk about ways in which we can advance and broaden the work 
that we do together.
    So if I am confirmed, I have many opportunities and 
platforms to ensure that the Kuwaitis remain really good 
partners with us on seeking resolution and solutions and 
advancing our challenges in the region. Thank you.
    Senator Shaheen. Thank you all.
    Thank you very much, Mr. Chairman.
    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of you.
    So I have a question for Ms. Romanowski and Ms. Tsou about 
Kuwait because I understand you were in Kuwait at an earlier 
point in your career. And this is really to educate us about 
why sectarian conflict has traditionally been so low in Kuwait.
    In June of 2015, ISIS carried out a set of attacks on the 
same day in Kuwait, Tunisia, Sudan, and France. And the attack 
in Kuwait that ISIS carried out was the bombing of a Shia 
mosque in the heart of town. And in response to that bombing, 
the country's Sunni leaders came to the mosque immediately, and 
then the funeral for the Shia who had been killed at Friday 
prayers was held in the primary Sunni mosque in Kuwait City.
    I happened to be leading a CODEL to the region, and we were 
there the day of the funeral by coincidence and we went to pay 
our respects. But it was a very notable statement that Sunni 
leadership and clerical leadership opened up the Sunni Mosque 
for the funeral for these 27 Shia victims of the ISIS bombing.
    And Kuwait has had that as part of its DNA for some time, 
whereas other nations, Bahrain, Yemen, Syria, you see very 
significant tensions between Sunni, Shia or between groups like 
the Alawites that have had a traditional connection to the Shia 
or the Houthis have had a traditional connection to the Shia.
    So what is it about Kuwait that has enabled them to deal 
with the sectarian divide which is so corrosive in other nearby 
countries? And what can we learn from it, and how might we 
promote it more broadly?
    Ms. Romanowski. Senator, let me take that question first 
and I will turn to my colleague, Leslie.
    I think there are a number of reasons why the Kuwaitis have 
been more successful. They have, I think early on, integrated 
the 30 percent of Shia population into the political life and 
the social and cultural life of Kuwait. They also have a 
national assembly that is much more active in encouraging 
public debate in dealing with these issues. And I think it is 
the leadership in Kuwait that has demonstrated that there is a 
way to integrate minorities and other streams and ideas in 
their country. And I think the Kuwaitis continue to do that, 
and I think as you pointed out, the response in 2015 of that 
terrorist incident is an indication of exactly how they go 
about making sure that they minimize or at least manage 
whatever sectarian problems they have.
    Senator Kaine. Ms. Tsou?
    Ms. Tsou. Thank you, Senator. It has been a long time since 
I have been in Kuwait.
    But I remember that Shia mosque very well. It was quite 
prominent and the Kuwaitis seemed to have no problem with that, 
unlike other countries I have served in.
    Oman is also an example of a place where different sects 
live side by side. The government does not keep statistics, but 
some NGOs speculate that a little under half of the population 
of Oman is Ibadi, which is a different type of religion--sect 
of Islam, which you do not see in very many places in the 
world. But there is also the same number of Sunni muslims who 
live there and they live side by side. Inside the government, 
they have representatives from each.
    I think that comes from Oman's commitment to have 
communication with all of its neighbors regardless of religion, 
regardless of political affiliation. It is part of the 
country's ethos, if you will.
    Senator Kaine. Well, I encourage you both to do all you can 
to promote that example, should you be confirmed. I believe you 
both will be confirmed.
    I think one of the tragedies of the region is the horrible 
proxy war throughout the region between Saudi Arabia and Iran. 
I have voted for Iran sanctions many times and do not like many 
of the things they are doing. I also am very disturbed at Saudi 
behavior, the sort of kidnapping of the Lebanese Prime Minister 
a couple years ago and now that government has fallen. There is 
an effort by both of these countries to engage in proxy 
activity across the region, and as I travel there, people talk 
about feeling crushed by a proxy war between Saudi Arabia and 
Iran. Now, that is not purely Sunni/Shia. It is sort of Sunni/
Shia and Arab/Persian and revolutionary guard and monarchy and 
economic competitors.
    Neither of these nations are going anywhere. They are going 
to be dozens of miles apart forever, and unless or until they 
figure out a path to, over time, deescalate the tensions 
between themselves--we could solve every other problem in the 
region and there would still be significant problems there.
    So both Oman and Kuwait have the ability I think to hold 
themselves as an example, but also be part of dialogue that 
might bring down the proxy war and I would encourage you in 
that.
    Dr. Golden, I was interested in one aspect of your 
testimony. You talked about one great agent of change in health 
outcomes is men, and I think that that is very true, support of 
men. And you used a phrase that kind of struck me when you said 
it, greater use of modern forms of voluntary family planning. 
The word ?voluntary? I guess I did not expect to hear. I would 
have probably not even registered had you said ?family 
planning.? Why the word ?voluntary??
    Dr. Golden. I think the term ?voluntary? has actually been 
in place for most of the government programs for the last 50 or 
more years because we recognize that we do not want compulsory 
environments where people feel constrained or forced into doing 
something that is against their conscience or their belief or 
against the needs of their family themselves. So, yes, it has 
been a definite part of family planning throughout the USAID 
history, as well as the other parts of the government.
    Senator Kaine. I think that is really important. One of the 
reasons why there is such strong objection by members of the 
committee to the gag rule, to the Mexico City policy, is we 
feel like it is a violation of that very principle, the 
voluntary principle, just as we would oppose governments that 
have a one-child policy or things like that because, as you 
say, you do not want to have people feel coerced or constrained 
in making their own family planning choices. And I think you 
just said it so well. We should not allow governments, 
including our own, to coerce people, nor should we allow 
governments, including our own, to constrain people in making 
the decisions that is best for them.
    So I hope you true to that longstanding mission. And I 
think that you are going to have members of this committee 
continue to advocate against policies that we think actually 
violate that principle of voluntariness by constraining people 
or coercing their choices.
    Thank you, Mr. Chair.
    Senator Rubio. The ranking member.
    Senator Cardin. Once again, let me thank all of our 
nominees.
    Ms. Golden, I want to follow up on Senator Shaheen and 
Senator Kaine. I strongly disagree with the administration's 
expansion of the Mexico City policy and the gag rule and 
recognize that is not your decision. I recognize it, but it 
affects you carrying out your mission. And the impact on global 
health--you mentioned that the funding is the same although 
there are organizations that are now not participating. And we 
have had a policy for a long time on the use of federal funds 
for abortion. That is a policy that is not really in debate 
right now. It is the expansion of the Mexico City policies that 
have caused angst among health care organizations globally.
    And the issue I really want to talk about is that we want 
to be prepared for pandemics. We have to respond. We recognize 
that, but our best line of defense is adequate preparation. My 
concern, I think a concern of many people, is that the gag 
rule, the expanded gag rule, is going to affect our ability to 
be prepared, to have in place the health care facilities and 
infrastructure globally.
    The last 6-month review report that was prepared by this 
administration on the impact of the expanded Mexico City policy 
was February 2018. We have not had any further review by the 
administration.
    So can you share with us what you believe the impact of the 
expanded Mexico City policy will have on your ability to carry 
out your mission to protect global health?
    Dr. Golden. Thank you, Senator Cardin. I am glad to 
respond.
    First of all, I think it is important to note that there 
are many people with many different perspectives on what is 
part of family planning and what is not. I will have to go back 
to my roots. I am a pediatrician. I have been an advocate for 
children whether they were born or not for a very long time. 
Abortion as a form of family planning has never been something 
that I could be comfortable with personally. That is why it has 
been comfortable for me to advocate for the protecting life and 
global health assistance. I am a strong advocate and always 
have been of voluntary family planning, working alongside 
family planning progress for over 20 years--30 years I guess 
now.
    But I do believe, considering the vast majority of the 
organizations that sign on and are more than happy to not only 
provide family planning but also other coordinated services and 
also promote prevention techniques toward strengthening health 
systems, I think we can still certainly meet our goals without 
using U.S. tax dollars to support the NGOs that provide or 
promote abortion. So I thank you for your question.
    You also asked about the review. I have not been in the 
Bureau for Global Health for the last 7 months, but I can tell 
you that there have been active activities to monitor all of 
our family planning, as well as our other activities, and that 
we are following not only what our partners are doing but we 
are sharing that information with the interagency. And I am 
confident that when I get back to Global Health, I will have an 
opportunity to check on what the status of the review is, and I 
will be glad to get back to you at that time.
    Senator Cardin. I appreciate that.
    Also as to the balance, as to how we use resources to deal 
with pandemic preparation. We have to respond. I recognize 
that. But preparation is a key ingredient sometimes that we 
overlook that could prevent the next pandemic from being out of 
control.
    Dr. Golden. I agree. I have been in the northeast part of 
the DRC now twice, and one of the impressions I had was that if 
we had stronger systems of health whereby you could do more 
active prevention or even introduce more things like just 
preventive hand washing or immunizations or building up a 
communication framework that is in the community, that we could 
actually address and respond much more quickly.
    I think that the framework that we have with the Global 
Health Security Agenda of prevention, detection, and response 
is one that I am very excited about working with.
    Thank you very much.
    Senator Cardin. Thank you.
    Ms. Castillo, the challenges we have talked about--we have 
in Central America the challenge of migration. Good governance 
is critically important. You mentioned the anti- gang activity 
is very important in that part in order to provide stability in 
those countries, and also, by the way, to deal with the 
migration issue.
    Plan Colombia. We have a lot of hope in Plan Colombia. 
There are challenges in getting that plan implemented. But now 
we have an additional crisis in the region with Venezuela, 
which puts tremendous pressure on Colombia with migrants coming 
into that country.
    How do you see the role of the Bank in helping us to deal 
with stability in Colombia, dealing with the crisis in 
Venezuela, and dealing with Central America?
    Ms. Castillo. Thank you, Senator, for the question.
    I share, obviously, your concerns with what is happening in 
Venezuela. A country that was once the richest country in Latin 
America has seen its economy collapse and fall into dictatorial 
rule.
    With regards to supporting the neighboring countries that 
have received over 4 million Venezuelan migrants--actually that 
is globally--it is my understanding that the bank has set up a 
fund to try to help offset the financial impact of those 
migrants.
    If I am fortunate to be confirmed, I look forward to 
continuing to support a fund like that, as well as being part 
of the reconstruction and rebuilding of Venezuela when Maduro 
is no longer in power and working with Juan Guaido's 
administration as well.
    Senator Cardin. I would hope that would be a high priority. 
We have invested so much in that region in Plan Colombia and 
now Peace Colombia. We got to make sure it succeeds. And in 
Central America, again we have invested a great deal, and there 
are still challenges. And investment is going to be critically 
important.
    I want to get to the three career ambassadors and the 
posts, if I might. I always ask questions of every ambassador, 
even if it is to a very, very friendly developed democratic 
state, what they are going to do to advance American values on 
human rights of its citizens.
    But the three countries here do have challenges. You have 
all addressed it in your statements before us, the human rights 
issues. And you talk with pride about the progress that has 
been made in all of the countries. And that is true. There has 
been progress made.
    So Laos. Yes, they have improved their trafficking and they 
are no longer Tier 3, but they are Tier 2 Watch, which is 
nothing to brag about. They still have a way to go. And 
protection for civil society is still a challenge in that 
country.
    That is also true in regards to Kuwait. Civil society does 
not have the freedoms that we would like to see in democratic 
states. Yes, they are better than their neighbors, but there is 
still a way that they need to advance in order to protect their 
human rights.
    In regards to Oman, yes, they have made some advances on 
dealing with Iran, but there is still trafficking of weapons in 
to the Houthis in Yemen which is creating one of the most 
serious humanitarian crises of our time.
    So I would like to hear your commitment to make American 
values and basic rights a top priority, if you are confirmed, 
and how you will work with this committee and work with this 
Senator as to how we can advance the rights of civil society, 
of the people of their country to be able to speak out, the 
freedom of the press, those types of protections, and certainly 
to make further advancements on trafficking in persons in each 
of the countries involved. So I will give you each a chance.
    Mr. Haymond. Thank you, Senator.
    To say a tier 2 watch list is nothing to brag about, we are 
looking at a positive trend line, and my commitment would be to 
do my best to assist the Lao, urge the Lao to continue that 
trend line to increase. It is not satisfactory at this point. 
It is better than it was. We will look forward to helping them 
make it better further.
    As you note correctly, there are many challenges for civil 
society and basic human rights in Laos. I am happy to commit to 
prioritizing pushing forward American values and support for 
human rights both because it is the right thing and because I 
would look forward to making the case to the Lao government 
that working with civil society is the best way to build trust 
between a people and its government, and that is going to be 
the best way to help Laos maintain its sovereignty as a 
stronger nation in the face of influence growing from some of 
its larger neighbors.
    So I would look forward to working with your office and 
with the committee on both of those issues and the broader 
question of human rights support.
    Ms. Romanowski. Senator, I will say in Kuwait, I think we 
have been engaging the Kuwaiti leadership and its own people 
and its small, nascent civil society organizations on human 
rights. We have made progress with the upgrade to tier 2, and 
that was really a result of sustained engagement on the U.S. 
embassy's part and our part on that. It is a positive trend 
line. There is a lot more to do, and we can do more to do that.
    Engaging with Kuwaiti citizens on American values is 
important. We have a good foundation to build on the student 
program that comes here, which I am committed to ensure that it 
continues and grows with the Kuwaitis.
    When we learn of problems in human rights or allegations, 
we engage again the Kuwaiti leadership and their justice system 
and the law enforcement system.
    So I think we can make progress, but it needs sustained 
engagement, and if confirmed, I commit that I will be working 
very hard to keep that forward trend going.
    Ms. Tsou. Senator, Oman's human rights record is better 
than many in the region, but there is obviously work to be done 
there. Trafficking in persons is one area where I think we can 
make some concrete progress. Oman is also on the tier 2 watch 
list, but they understand what they need to do. A lot of the 
problems that they have is that they have made oral commitments 
to abiding by the trafficking in persons standards that we have 
laid out with them and discussed with them, but they have not 
actually done anything through their parliament, and I think 
that that is something that we can help them with and we will 
work very extensively towards so that we can hopefully get them 
off of the tier 2 watch list and even into tier 1. Bahrain is 
an example of a country in the Gulf that is on tier 1, and I 
know the Omanis are interested in that as well.
    You raised a real concern about Oman's possible role in 
allowing the Iranians to provide military assistance, advisors, 
weapons across their border to the Houthi in Yemen. We have 
been very clear with Omani government that they cannot permit 
Iran to use Omani territory to do this. They said they are 
doing the best they can not to, but that is probably not good 
enough. We are providing them border security assistance, 
concrete training so that they can recognize, for example, if 
some kind of cargo is being transported across the border, what 
is it, how do you detect whether it is what it says it is or 
whether it is actually a weapon of some sort, strengthening 
their border guard, et cetera. But that is a real concern of 
mine. It is a concern of our entire government and something 
that I will really commit myself to.
    Also, I want to say I am very happy to talk to you or any 
of the rest of the committee about ideas you might have in this 
regard and also on the human rights so that we can work on this 
together.
    Senator Cardin. Thank you all. I appreciate your response.
    Senator Rubio. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to the nominees before us today. Thank you for 
your service.
    Mr. Haymond, we had the opportunity to visit in the office 
here last week. We talked about your experiences in Thailand. 
How do you think the experiences that you have gained in 
Thailand, your previous service as well in the Foreign 
Service--how can you apply that to your new position in Laos, 
particularly as it relates to China and the developments in 
those relationships?
    Mr. Haymond. Thank you, Senator. I did enjoy the 
conversation we had last week.
    The Indo-Pacific strategy under the administration, free 
and open Indo-Pacific strategy, is based on ASEAN as a core, as 
a centerpiece. And so the strength of ASEAN is going to be an 
important part of having that be a successful strategy. Laos is 
one of the weakest members in ASEAN, but it is also a country 
that is not looking to be a satellite of any country, China or 
any other.
    I have spent the last 3 years in Thailand working with the 
Thai on initiatives to help bring together the five countries 
of the Lower Mekong to strengthen themselves as a unit and as 
half of ASEAN so as to make the best deals possible for 
infrastructure, other proposals that come through, to support 
each other as a greater unit managing the resources of the 
Lower Mekong, which our Lower Mekong Initiative has been 
working on for these last 10 years. Going across the river to 
Laos, I would look to work with the Lao government and 
encourage the Lao government to work with their ASEAN 
neighbors, particularly Thailand and Vietnam, the stronger 
economies, as well as with other like- minded countries that 
are looking to help Laos maintain its sovereignty, maintain its 
independence, and grow and strengthen integration within the 
ASEAN community.
    Senator Gardner. We had the opportunity as well to talk 
about the Asia Reassurance Initiative Act, which states that 
human rights and democracy promotion are key to U.S. national 
security interests. You are committed to these values, and I 
want to make sure that we are doing everything we can to help 
further advocate for those values in Laos.
    What are your impressions of the treatment of the Hmong 
people and other minorities in Laos?
    Mr. Haymond. Laos--it has been some years since I have been 
there. There have been challenges in the past with the Lao 
government, its relationship with the Hmong, particularly those 
who were still mounting some resistance to the government 
dating back to the war and suspicions between the Lao 
government and the Lao Hmong diaspora. My understanding is that 
that situation has improved somewhat in the recent years. If 
confirmed, I would commit to work with the Lao government to 
make sure that all of its ethnic minorities, certainly the 
Hmong, are treated equally along with other Lao citizens and 
would look to build stronger ties and positive relations 
between Laos and the Lao diaspora in the United States.
    Senator Gardner. And following up on that question, same 
line of question really, does U.S. assistance help create space 
for civil society within Laos, perhaps a greater role? Does it 
create room for dialogue and improvements in human rights 
discussions and efforts?
    Mr. Haymond. The civil society is also nascent in Laos, but 
the assistance we are providing, particularly that through our 
USAID office, which we hope next year will become a new 
mission, is aimed at helping the Lao with health, education, 
counter-trafficking in persons, other issues and prefers, 
wherever possible, to work with civil society groups within 
Laos. And as I mentioned to Senator Cardin, if confirmed, I 
would look to make the case to the Lao government that civil 
society can be a strength for Laos going forward and help it to 
maintain that sovereignty that it certainly wants.
    Senator Gardner. Well, very good. And as I have talked to 
every nominee going into the Indo-Pacific region, talking about 
the tools that ARIA provides, the funding that has been 
provided by this Congress, should that be signed into law, is 
significant. And so I hope that we can continue to count on 
implementation of the goals of that legislation. I look forward 
to you doing just that. Congratulations on the nomination.
    And thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    So I do not ask you a question that somebody has already 
asked, the question I was going to ask you, particularly you, 
Ms. Tsou--I think almost all the questions I was going to ask 
have been asked and answered.
    So I always tell people when they are nominated, the less 
people who show up the hearing and the shorter it is, the 
better the news is. Like if I am ever nominated for something 
and I have to appear in front of these guys, I do not want 
anybody showing up and I want it to be like 5 minutes long. 
That is a very good sign.
    [Laughter.]
    Senator Rubio. It is always a good sign. You feel bad, then 
you realize.
    Ms. Castillo, I think we are all really concerned about 
predatory lending practices of the Chinese all over the world, 
but we are starting to see it in the western hemisphere. One 
really good example is the Coca Coda Sinclair Dam in Ecuador. 
According to press reports, only 2 years after opening, there 
are thousands of cracks. They are splintering the dam's 
machinery. Its reservoir is clogged with silt, sand, and trees, 
and the only time engineers tried to throttle up the facility 
completely, it shook violently and shorted out the national 
electricity grid. That is like a bad dam. Right? But again 
financing this sort of method.
    So how can the Inter-American Development Bank help? I 
mean, is there a concerted effort to help members of the 
community avoid these predatory lending practices where they 
owe all this money, the leverage that is created, and they are 
stuck with a dam that you cannot operate because--I have never 
heard of a dam shaking. I am not an engineer, but my sense is 
that is not good engineering. But how can we help nations avoid 
falling into that trap? What can the Inter-American Development 
Bank do and what is it doing now?
    Ms. Castillo. Sure. Thank you for the question, Senator.
    As you mentioned, that is an example of a result of working 
with the Chinese. And we have seen them in other countries as 
well like Venezuela. Working with the Chinese may include a 
short-term gain, but at the end of the day, it is in exchange 
for long-term dependency.
    And if I am fortunate to be confirmed at the bank, I would 
work closely with the U.S. executive team to work with our 
counterparts on education and informing them on how an Inter-
American Development Bank goes through a robust process, 
working with civil society groups and state and local elected 
officials, taking in consideration environmental and social 
impacts on the approval loan process. But at the end of the 
day, loans from the bank lead towards long-term sustainability.
    Senator Rubio. My only point on that is these are 
developing countries for the most part or countries whose 
leaders are under tremendous pressure to deliver. A case in 
point, El Salvador. The new president really formed his own 
party to win. He does not really have a governing majority in 
the legislative branch. So he needs some victories. Other 
places--you know, the Bahamas now have some significant needs 
on two of the islands for rebuilding. They have to deliver. 
This happens all over the world.
    And then here come the Chinese with the promise of easy 
money in exchange for some project they cut a ribbon on. It 
looks good. And from time to time, by the way, some people get 
bribed along the way to land some of these deals.
    And my only hope is that the Inter-American Development 
Bank will make it a priority to sort of identify countries that 
have legitimate needs, political leaders that need to deliver 
for purposes of the expectations that are upon them, and whose 
only option appears to be--we cannot do anything about the 
bribe part, but the only option appears to be a financing deal 
for something that is not going to work. Jamaica got stuck with 
a crazy highway that they owe money to. Argentina. There are 
multiple countries. And I hope that becomes a priority.
    Something that is a priority for me, Dr. Golden, is 
maternal mortality. I am actually startled at the numbers in 
the U.S. are as high as they are. One of the reasons I am 
really sensitive to it my father's mother did not die in child 
birth, but she died when he was 9 years old. And it basically 
defined so many of the challenges he faced the rest of his 
life.
    Now, according to USAID, in the last 20 years, the number 
of maternal deaths per 100,000 live births decreased by more 
than 50 percent in the 25 priority countries that it had 
identified. Yet and still, the World Health Organization 
reports that 830 women die every day from preventable causes 
related to pregnancy, and 99 percent of these deaths, of 
course, are happening in developing countries. And I imagine 
that is a combination of postpartum hemorrhage. I would imagine 
it also includes preeclampsia that is not treated or not 
monitored and so forth.
    I guess I do not think I have to ask you about your 
commitment to that cause because I know it is significant. What 
I do think is important is for always to justify what it means 
to a country societally, what happens to a society and to a 
country and to a nation where so many women are dying in child 
birth, what it means for their children. In many cases, they 
already have other children who are left without a mother. What 
happens to a country? Because that tells us how important 
prioritizing maternal mortality prevention programs are.
    Dr. Golden. Senator Rubio, thank you for that question, and 
it does go to the core of who I am and what I have done for 
several decades now.
    I think that one of the things that I am grateful for is 
that we have made progress in identifying high impact, 
efficient systems to help countries and organizations and even 
individual communities to approach maternal-child health more 
holistically.
    However, I think that the next step, in terms of really 
building the journey to self-reliance, as we often use in 
USAID, is to really equip each country to have the capacity to 
set up the systems that are necessary, back to Senator Cardin's 
concept too, that we have coordination and collaboration so 
that when we have maternal-child health, we also can relate to 
our malaria, our TB, our family planning, our HIV programs so 
that we do treat people more holistically since malaria also is 
another significant cause of infant death.
    So we want to be sure that we are doing collaborative 
programs, that we support directly the maternal-child health, 
but we have the surrounding health services that also help 
bring to the forefront the possibility of preventing maternal-
child death.
    I think by analysis of some of the monitoring and 
evaluation that we have now, we have a clearer view of how to 
do that, and we also anticipate that we are going to be able to 
use some more high impact practices, including secure 
technology.
    We also believe that women's empowerment is a very 
important part of this so that women not only know that they 
have health care but they have the freedom to go. They also 
have the education they need, and we can delay the exploitation 
or early childhood marriage that complicates the situation for 
so many of these women.
    I look forward to working with you on that, if confirmed.
    Senator Rubio. Just on this question, when you look at the 
countries where this progress has been made, what in particular 
has been--I mean, I know that there is a holistic need and all 
the other associated ailments that someone may have going into 
child birth. But is there one, two, or three things that have 
been highly effective? For example, the availability of blood 
or blood products in case there is hemorrhage; the prenatal 
treatment where someone--preeclampsia, the high blood pressure 
and all the associated risks that come with that--is actually 
identified, monitored, and treated at the front end. Are there 
one or two strategies that have yielded the most results in 
your opinion?
    Dr. Golden. I think there are several that you mentioned. 
First of all, I think the availability of prenatal care and 
some development of several different systems to offer that is 
helpful. The second thing is to have the delivery at a health 
care site rather than in the village. That actually has shown 
to be consistently helpful in reducing maternal mortality 
partly because of things like prevention of hemorrhage or 
identification of the need of a cesarean section. And there are 
some advantages coming out even like some inhaled oxytocin to 
reduce hemorrhaging. So things along those lines are also 
helpful.
    And the other component that I mentioned in my testimony is 
that we recognize that women who are well supported and cared 
for by their families, including their husbands, actually tend 
to utilize the services more and also have better timing and 
spacing to their pregnancies.
    So I think the prenatal, the delivery in a safe 
environment, the availability of appropriate treatment as 
necessary, and supportive families and communities are places 
where we can really make continued inroads to improve maternal 
and child mortality.
    Senator Rubio. And my final question, because my question 
for you, Ms. Romanowski, was also asked and answered. So it is 
not because of the way you guys are lined up. It just worked 
out that way.
    But, Mr. Haymond, I wanted to ask you related to the same 
issue regarding China, the same sort of predatory investment. 
So we know Laos has reportedly taken--this is what I read 
anyway--$480 million in loans from a Chinese Exim Bank, and the 
IMF has classified Laos as high risk for debt distress.
    So are there areas in this relationship where you think the 
U.S. or our partners and different entities that we can 
leverage can provide viable alternatives to the sort of 
predatory Chinese investment that we have seen offered in 
different parts of the world and potentially even in Laos?
    Mr. Haymond. Thank you, Senator.
    I do believe there are alternatives that the administration 
is working to provide with other partners. I neglected to 
mention when Senator Gardner was here out in the field, it is 
great to see the bipartisan support for the goals we have under 
the free and open Indo-Pacific strategy represented by the Asia 
Reassurance Initiative Act.
    It is very true that Laos is debt distressed, and that 
China is by far its largest creditor. It is also true that as 
China is its largest investor, many of those investments have 
not been to the labor standards or environmental standards or 
law enforcement standards one would hope for, whether it is one 
of those special economic zones notoriously being sanctioned by 
our Treasury for its involvement in human trafficking, drug 
trafficking, and other forms of corruption and crime.
    Under the free and open Indo-Pacific strategy, new tools we 
are hoping to use, including the increased capital that is 
being projected for OPIC as a new development finance 
corporation, if that appropriation goes through, with technical 
assistance under the ITAN, the Infrastructure Transaction and 
Assistance Network, to provide technical assistance to the Lao 
so that they can work to improve their own investment 
environment, right now they only have access to or they largely 
have access to companies that are heavily subsidized by the 
state, and when there are corruption issues, countries that are 
willing to take advantage of that situation in order to bring 
in more top quality U.S. companies and find companies from 
other countries in the world that are not predatory. We want to 
work with the Lao government to help them improve the 
environment there that makes it more attractive for those 
private sector companies to come in. We will have assistance 
through the U.S. Agency for International Development.
    We have assistance on the law enforcement side through the 
International Narcotics and Law Enforcement Bureau out of State 
to help the Lao raise their standards for governance that 
includes investment and help them make the best deals possible, 
that is, some of the technical assistance to help them when 
they are brought a proposal for financing or for any type of 
new infrastructure, that they can apply the best standards 
possible both because we have helped them learn what those 
standards are, both because we as a development partner are 
supporting a five-country initiative put forward by Thailand to 
help all five of those countries improve the quality of their 
infrastructure, and because we and the Lao are coordinating 
with other countries, other interested countries in Southeast 
Asia, the neighbors and countries like Australia and Japan and 
Korea who are also very much interested in maintaining a strong 
sovereign Laos not dominated by China or any other country.
    Senator Rubio. All right. Well, I know all of you will be 
deeply disappointed that we are not going to go another hour 
here. But all good things must come to an end, even today's 
hearing. All kidding aside, you all have done a phenomenal job, 
and we look forward to the work you will do on behalf of our 
country. I know you are supposed to say ?if confirmed? but I 
hope I can be saying ?when confirmed.? You have all done very 
well today, and I appreciate all you being here.
    The record for this hearing is going to remain open for 24 
hours, which means members that may not have been able to 
attend may submit questions, as well as each of you may submit 
additional answers if necessary.
    So again, I want to thank you all for being here and for 
your patience.
    It ended perfectly on time. We have a vote at 11:30. So now 
I got to sprint down there and get that done.
    But anyway, I appreciate all of you for being here and you 
have done great. And we look forward--at least I personally 
look forward to supporting each of you and your nomination.
    So with that, the hearing is adjourned.


    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
      Submitted to Andeliz N. Castillo by Senator Robert Menendez

Democracy
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. In my current role in the Office of the Vice President, I 
organized listening sessions for Vice President Pence with Venezuelan 
migrants and Venezuelan-Americans. The roundtable participants shared 
their personal experiences of human rights violations and/or shared 
stories of their loved ones and friends, including some who were 
murdered or wrongly imprisoned in Venezuela. It provided an opportunity 
for the Vice President to hear on more than one occasion first-hand 
accounts on the subversion of democracy and human rights in Venezuela. 
Also, I coordinated a meeting between Vice President Pence and Cuban-
American exile leaders, in which the Vice President could hear directly 
from individuals who lived under the oppression of the Castro regime or 
have loved ones who were harmed by the Castro regime. Following the 
aforementioned roundtables/meetings, I organized larger speaking 
engagements in which the Vice President recognized the Venezuelan's 
people right to be free, as well as the people of Cuba and Nicaragua, 
and reinforced the United States' unequivocal support for democracy and 
human rights.
    I helped arrange Vice President Pence's address to the Organization 
of American States in order to continue the attention on the Venezuelan 
crisis and fortify multilateral support among our allies across Latin 
America. Lastly, I assisted in the production of a video message by 
Vice President Pence directed to the people of Venezuela encouraging 
them to exercise their freedom of speech prior to the January 23, 2019 
demonstrations. As a result, my actions played a part in offering a 
voice to those who yearn for freedom in Venezuela, Cuba and Nicaragua 
and for those individuals to receive reassurance that the United States 
condemns the regimes in Venezuela, Cuba and Nicaragua.
    While at the House Committee of Foreign Affairs, Chairman Ileana 
Ros-Lehtinen was very passionate about bringing awareness on human 
rights and democracy in the Western Hemisphere; I drafted many 
statements and several editorials in an effort to expose actions that 
threatened democratic principles and demonstrated a lack of respect for 
human rights by Cuba, Venezuela, Ecuador, Bolivia and other bad actors 
in Latin America and the Caribbean. When I served in the office of 
South Florida Congressman Lincoln Diaz-Balart, I helped organize Cuba 
Awareness Day events on Capitol Hill, featuring former political 
prisoners and other Cuban exiles who were victims of the Cuban regime.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. If confirmed, I commit to respond promptly to all requests 
for information by members of this committee, in accordance with U.S. 
laws and regulations.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. If confirmed, I commit to appear before this committee upon 
request, in accordance with U.S. laws and regulations.

    Question. If you become aware of any suspected waste, fraud, or 
abuse, do you commit to report it?

    Answer. If confirmed, I commit to comply with all relevant laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I am not aware of any allegations or complaints that have 
been made against me.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I do not recall receiving any complaints or allegations of 
this nature against an employee over whom I supervised.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I have always conducted myself in a respectful and ethical 
manner and I intend to continue to do so if confirmed. I will work to 
ensure that all employees under my supervision are fully trained in all 
applicable policies as well as legal and ethical rules so that 
employees adhere and put into practice those policies and rules.

                               __________


            Responses to Additional Questions for the Record
     Submitted to Andeliz N. Castillo by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In my current role in the Office of the Vice President, I 
organized listening sessions for Vice President Pence with Venezuelan 
migrants and Venezuelan-Americans. The roundtable participants shared 
their personal experiences of human rights violations and/or shared 
stories of their loved ones and friends, including some who were 
murdered or wrongly imprisoned in Venezuela. It provided an opportunity 
for the Vice President to hear on more than one occasion first-hand 
accounts on the subversion of democracy and human rights in Venezuela. 
Also, I coordinated a meeting between Vice President Pence and Cuban-
American exile leaders, in which the Vice President could hear directly 
from individuals who lived under the oppression of the Castro regime or 
have loved ones who were harmed by the Castro regime. Following the 
aforementioned roundtables/meetings, I organized larger speaking 
engagements in which the Vice President recognized the Venezuelan's 
people right to be free, as well as the people of Cuba and Nicaragua, 
and reinforced the United States' unequivocal support for democracy and 
human rights.
    I helped arrange Vice President Pence's address to the Organization 
of American States in order to continue the attention on the Venezuelan 
crisis and fortify multilateral support among our allies across Latin 
America. Lastly, I assisted in the production of a video message by 
Vice President Pence directed to the people of Venezuela encouraging 
them to exercise their freedom of speech prior to the January 23, 2019 
demonstrations. As a result, my actions played a part in offering a 
voice to those who yearn for freedom in Venezuela, Cuba and Nicaragua 
and for those individuals to receive reassurance that the United States 
condemns the regimes in Venezuela, Cuba and Nicaragua.
    While at the House Committee of Foreign Affairs, Chairman Ileana 
Ros-Lehtinen was very passionate about bringing awareness on human 
rights and democracy in the Western Hemisphere; I drafted many 
statements and several editorials in an effort to expose actions that 
threatened democratic principles and demonstrated a lack of respect for 
human rights by Cuba, Venezuela, Ecuador, Bolivia and other bad actors 
in Latin America and the Caribbean. When I served in the office of 
South Florida Congressman Lincoln Diaz-Balart, I helped organize Cuba 
Awareness Day events on Capitol Hill, featuring former political 
prisoners and other Cuban exiles who were victims of the Cuban regime.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Inter-American Development Bank?

    Answer. If I am fortunate to be confirmed as Alternate Executive 
Director, I will work closely with the U.S. Executive Director to 
promote, mentor and support personnel who are from diverse backgrounds 
and underrepresented groups, consistent with fair management practices 
and applicable U.S. government and IDB policies.

    Question. What steps will you take to ensure each of the 
supervisors in the U.S. Inter-American Development Bank are fostering 
an environment that is diverse and inclusive?

    Answer. If confirmed as Alternate Executive Director, I will work 
with the U.S. Executive Director to try to ensure that IDB management 
promotes an environment that is diverse and inclusive. I will 
proactively support that these issues are included, as appropriate, in 
the implementation and execution of IDB's human resources policies.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the U.S. Inter-American Development Bank) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. If I am fortunate enough to be confirmed as Alternate 
Executive Director, I commit to carry out my duties consistent with 
applicable conflict of interest laws and policies, and to reporting any 
potential misconduct of which I become aware to the appropriate 
authorities.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If I am fortunate enough to be confirmed as Alternate 
Executive Director, I commit to carry out my duties consistent with 
applicable conflict of interest laws and policies, and to reporting any 
potential misconduct of which I become aware to the appropriate 
authorities.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

China in Latin America
    Question. Latin America and the Caribbean's economic relationship 
with China is increasing quickly, with exports to China increasing by 
30% in 2017 according to IDB data. As China-Latin America trade has 
increased over the past several years, China has increased its 
financial contributions to various IDB financing mechanisms and China 
was chosen as the site for the 2019 IDB annual meetings.

   How can the U.S. respond to China's increasing influence in the 
        Western Hemisphere, especially in light of the U.S. decision to 
        scale back contributions to the IDB?

    Answer. While I am not currently serving at the bank, it is my 
understanding that the United States is the preeminent shareholder of 
the IDB and is committed to ensuring that the institution responsibly 
supports economic growth and prosperity in the region.
    While China was originally chosen as the site for the 2019 IDB 
Annual Meetings, China did not end up hosting the meetings as the 
bank's membership overwhelmingly rejected China's attempt to bend the 
institution to its foreign policy goals in Venezuela. Instead, the 
United States hosted a successful celebration by Leaders of the IDB's 
60th Anniversary and Ecuador hosted a productive session of the Board's 
Annual Meeting.
    The United States will continue to work with multilateral 
development banks, including the IDB, to build best practice 
development standards that support high quality infrastructure, provide 
technical assistance to improve governance performance, promote robust 
safeguards that respect human rights and protect vulnerable 
populations, and deliver aid within a sustainable debt framework. A 
benefit of U.S. engagement and leadership in the IDB over the years has 
been that the IDB has adopted policies that allow it to support efforts 
in these areas with decreased reliance on new financial contributions 
from the United States and increased contributions from the countries 
in the region. If confirmed, I would look forward to helping the IDB 
marshal development assistance to countries using established best 
practices.

BUILD Act
    Question. As you know, The BUILD Act is part of the U.S. policy 
response to China's growing economic influence in developing countries. 
It aims to provide an alternative to China's state-directed investment 
financing model-which many U.S. policymakers view as lacking 
transparency, operating under inadequate environmental and social 
safeguards for projects, and employing questionable lending practices 
that may lead to unsustainable debt burdens in some poorer countries 
(``debt diplomacy'').

 
   What can you do to make multilateral development bank financing 
        more attractive to developing countries relative to bilateral 
        financing by China?

    Answer. I believe that financing from the MDBs, including the IDB, 
represents an advantageous alternative to bilateral Chinese financing 
for the following reasons:


   The MDBs have well-established relationships with developing 
        countries.

   The MDBs possess technical expertise and high quality standards 
        that the Chinese and many other bilateral donors often do not 
        possess.

   The MDBs have fair and transparent, untied procurement standards, 
        meaning they offer the greater value per dollar invested. 
        Strong procurement standards guard against corruption and 
        related political scandals.

    The MDBs have established programs to advise developing countries 
        about the economic viability of potential infrastructure 
        projects and the impact on the recipient country's debt 
        sustainability of engaging in these projects, and to require 
        them to provide data to the MDBs about the terms of existing 
        debt obligations. The MDBs' efforts to help countries avoid 
        unsustainable debt traps enhances the developing countries' 
        degree of independence and sovereignty.

    The MDBs also have independent accountability mechanisms, which the 
        Chinese and most bilateral donors do not have.

    Strong engagement by the United States in these institutions is 
critical to ensuring the ability of MDBs to continue to serve as an 
effective alternative to Chinese financing. If confirmed to this role 
at the IDB, I look forward to putting my experience in coalition 
building to work to ensure that the IDB offers appealing alternatives 
to bilateral Chinese financing along the lines outlined above.

    Question. What are opportunities for synergies between the new DFC 
and the IDB in collaborating on infrastructure and other projects in 
countries along China's Belt and Road Initiative?The IDB often pursues 
opportunities for co-financing with bilateral agencies. It is my 
understanding that the new DFC will be well positioned to collaborate 
with the IDB in this way. The DFC's precursor, OPIC, and IDB Invest 
recently signed an MOU to launch a strategic co-investment framework 
that will seek to better leverage each institution's capabilities and 
should enhance OPIC and DFC's collaboration with the IDB Group.

Northern Triangle of Central America
    Question. The IDB has worked extensively in Central America's 
Northern Triangle.

  How would you gauge the effectiveness at these efforts in 
        increasing security, good governance, and prosperity to address 
        the root causes of migration?

    Answer. I understand that the root causes of migration are 
multifaceted and stem from a lack of economic opportunities, citizen 
insecurity and violence in the region. To address the region's outward 
migration trends, the northern Central American countries established 
the Alliance for Prosperity with the technical and financial support 
from the U.S. government and with the IDB as the Secretariat. This 
effort has produced clear progress in addressing the level of violence 
in the region. In addition, there has been an increase in the 
detention, prosecution, andarraignment of public officials involved in 
corruption.

    Question. What more can the IDB do to address the root causes of 
migration?

    Answer. The IDB can continue to strengthen its engagements with the 
northern Central American countries in the IDB's areas of competence 
with the goal of creating employment and educational opportunities as 
well as increasing private investment.

    Question. If confirmed, how would you work to ensure the IDB 
effectively channels resources and technical assistance to the region?

    Answer. As the Secretariat of the Alliance for Prosperity, the IDB 
has a unique role in supporting the governments of the northern Central 
America countries in their own efforts to foster growth, develop human 
capital, improve security and strengthen institutions. If confirmed, I 
would work to ensure that the IDB facilitates coordination between the 
major donors and governments to support these goals.

Venezuela Crisis
    Question. What role does the IDB have in ensuring the region is 
equipped to handle the effects of the Venezuela crisis, including the 
influx of millions of fleeing Venezuelans?

    Answer. It is my understanding that the IDB expanded its Grant 
Facility in 2019 so that it may provide grant resources to support 
countries facing intraregional migration inflows. At the outset, the 
Grant Facility will be primarily used to address the Venezuelan 
migration crisis, as well as smaller migration flows resulting from 
Nicaragua's deterioration that are having a significant local effect in 
Costa Rica. This effort is critically important for both the well-being 
of Venezuelans who have fled their home country due to economic 
collapse and oppression, and for the countries in the region that are 
doing admirable work to support these refugees.

    Question. Do you believe the IDB has the resources it needs to 
respond to the Venezuela crisis?

    Answer. The IDB has sufficient resources so that when a transition 
happens in Venezuela and the government clears its arrears, the IDB can 
support economic recovery. In addition, IDB Invest has sufficient 
capacity to enable private sector transactional support. As the only 
one of the international financial institutions to recognize the 
government of Interim President Juan Guaid", the IDB is leading 
coordination efforts to ensure that a constitutional government can act 
quickly to rebuild an economy devastated by decades of corruption and 
mismanagement. An important part of this effort will be providing the 
environment necessary for private sector investment to supplement 
public sector resources. If confirmed, I will look forward to 
supporting these important efforts.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Andeliz N. Castillo by Senator Jeanne Shaheen

    Question. If confirmed, how will you work with and support the 
efforts of the Gender and Diversity Division at the IDB?

    Answer. If I am fortunate enough to be confirmed as Alternate 
Executive Director, I will work closely with the U.S. Executive 
Director to support efforts of the Gender and Diversity Division at the 
IDB, consistent with fair management practices and applicable U.S. 
government and IDB policies. In addition, I will try to ensure that IDB 
management, including the Board of Directors, supports an environment 
that is diverse and inclusive. I will advocate that the efforts of the 
Division be considered, as appropriate, in the implementation and 
execution of IDB's policies.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Dr. Alma Golden by Senator Robert Menendez

Management & Leadership
    If confirmed, you will have leadership and management 
responsibility for a significant portfolio of financial and human 
resources extending nearly everywhere USAID works.

            Motivation and Morale
    Question. Given the ongoing impact of last year's hiring freeze, 
budget constraints, and pressure from externalities such as State 
Department-run programs and financials, the Global Health bureau's 
staff has been under high degrees of prolonged stress. Please share 
your current staffing levels, vacancies, and attrition/departures by 
Office. If confirmed, what steps will you take to improve morale?

    Answer. Although I do not currently have access to the specific 
data requested as I am not currently working in the Bureau for Global 
Health (GH), if confirmed, I commit to working with you and your staff 
to share information on GH's staffing and vacancies, in accordance with 
longstanding Executive Branch practice. I will note that during my time 
with GH, I saw attrition from normal factors such as retirement, 
departures for advanced graduate study, and other life circumstances. 
Working in international development and relief environments often 
means dealing with unusually stressful and challenging situations. 
Given these factors, the motivation and morale of our staff is of 
utmost importance.
    I am committed to fostering a work environment in which all of our 
employees feel valued. Ensuring the resilience, wellness and work-life 
balance of our employees are integral parts of the culture of the U.S. 
Agency for International Development (USAID) and something I strongly 
support. If confirmed as Assistant Administrator, I would remain 
committed to our Agency's Leadership Philosophy and other practices and 
behaviors that lead to a more empowered and adaptable workforce, able 
to thrive in our increasingly complex and changing world. If confirmed, 
I will support our staff to identify key issues of concern, create 
teams to execute action plans to address these matters, and implement 
changes to advance the Agency's values of passion for mission, 
excellence, integrity, respect, empowerment and inclusion. I will also 
continue my past practice of conducting regular ``All Hands'' meetings 
in the Bureau; maintain an open-door policy; and incorporate our 
Agency's wellness resource, Staff Care, as a regular part of our 
Bureau's wellness practices, if confirmed.

            Staffing and Attrition
    Question. Does USAID have a workforce and leadership succession 
plan? If so, what will you do as Assistant Administrator for Global 
Health to ensure that USAID improves the hiring and retention of a 
skilled and adequately sized workforce of Foreign Service Officers and 
civil servants to implement USAID's mission, both at headquarters and 
across the globe? If not, how can you address hiring and retention of a 
skilled and adequately sized workforce of foreign service officers and 
civil servants to implement USAID's vast global health mission, both 
here at headquarters and abroad?

    Answer. The globally dispersed workforce of the U.S. Agency for 
International Development (USAID) has continually adapted to support 
the Journey to Self-Reliance in our partner countries throughout the 
world. Over 68 percent of our staff work overseas; the Agency has an 
official presence in 87 countries, and funds programs in 19 
others.Workforce-planning is the lynchpin that will help the Agency 
determine whether it can meet its new mission needs successfully in the 
future, by defining them against existing capacity and finding 
effective ways to fill the gaps adequately. As such, USAID's emphasis 
is on strengthening its workforce-planning capability to support the 
identification, deployment, and management of the optimal personnel mix 
for the Agency.
    USAID is working to establish a workforce-planning process that-
through an integrated cycle of activities-links human-capital resources 
with the Agency's vision, enables a more-robust understanding of the 
current and projected workforce, and inform the development and 
implementation of a workforce strategy to close identified gaps in 
personnel. Overall, this process will help USAID track progress against 
its workforce goals, improve transparency and accountability, as well 
as instill a culture of continuous improvement.
    I fully support all the Agency personnel who make achieving the 
critical work of USAID possible and, if confirmed, I will be strongly 
committed to working with USAID's Office of Human Capital and Talent 
Management to ensure that the Bureau for Global Health and our Missions 
in the field have the necessary Foreign Service Officers, Civil 
Servants, and other employees to execute their mission.

            GH Bureau Transformation
    Question. What are the top three organizational priorities and 
intended outcomes/changes you intend to implement in the GH bureau 
through the Agency's Transformation initiative?

    Answer. I am aware that the Bureau for Global Health (GH) is 
preparing for a process of Transformation, but I have not been involved 
in the deliberations since my nomination. It is my intention, if 
confirmed, to understand fully where the GH Transformation process is 
before making any assessments of my top organizational priorities. I 
intend to work closely with the GH Bureau, the Restructuring Management 
Unit, and the Agency's leadership to identify what changes we should 
prioritize.

    Question. How will any of these priorities and/or changes impact 
the bureau's Office of Family Planning and Reproductive Health?

    Answer. If confirmed, I commit to work with the Agency's leadership 
to champion appropriate priorities and support decisions regarding the 
structure and functions of the Bureau for Global Health.

    Question. Will you commit to consulting with my staff prior to 
finalizing changes under the Transformation Initiative?

    Answer. Yes, if confirmed, I commit to consulting with Congress on 
any changes to the structure of the Bureau for Global Health in 
accordance with law and the rules and regulations of the U.S. Agency 
for International Development (USAID).

            Equal Employment Opportunity (EEO) Violations and Sexual 
                    Harassment
    Question. How many EEO and sexual harassment lawsuits against 
Global Health bureau officials have been settled by the agency over the 
past three calendar years? How many EEO and sexual harassment lawsuits 
are currently pending against officials in the Global Health bureau? If 
confirmed, what steps would you take to determine that EEO violations 
and sexual harassment matters are being dealt with appropriately in the 
Global Health bureau, both at headquarters and overseas?

    Answer. Although I do not have access currently to the specific 
information requested, if confirmed, I will commit to working with you 
and your staff to share information on the Equal Employment Opportunity 
(EEO) data of the Bureau for Global Health (GH) in compliance with law 
and the rules and regulations of the U.S. Agency for International 
Development (USAID). I would also note that, if confirmed, as the 
Assistant Administrator for Global Health, I would not necessarily be 
aware of every EEO case, given confidentiality requirements.
    I fully support USAID Administrator Mark Green's Action Alliance 
for Preventing Sexual Misconduct (AAPSM), which has underscored our 
commitment to prevent such practices, for our staff as well as our 
beneficiaries. I commit to preventing and addressing sexual 
exploitation and abuse, as well as to preventing and addressing sexual 
harassment in the workplace. Sexual misconduct of any kind among staff, 
implementing partners, or program beneficiaries is wholly inappropriate 
and counter to our Agency's core values. I am committed personally to 
fostering a respectful culture at USAID that demonstrates 
accountability and elevates the voice of survivors by putting their 
needs and well-being at the forefront of our efforts.
    I am equally committed to ensuring that GH follows the critically 
important tenets and principles of EEO, and will work with USAID's 
Office of Civil Rights and Diversity (OCRD) to make sure OCRD may 
investigate and respond to any EEO or sexual-harassment allegations 
promptly. If confirmed, I also commit to working with OCRD to ensure GH 
staff have the information and training they need on these critically 
important issues.

GH Financial Management & Budget
            GH Programming, Planning, and Policy
    Question. Given the shake-up caused in the GH bureau's Policy, 
Planning, and Programming Office from the untimely departure of the 
experienced civil servant Director, followed by the short tenure of a 
political appointee, what is the current status of that Office's 
management, staffing/morale, and financial management functions, and If 
confirmed, what steps will you take to ensure that the Office's 
staffing and leadership circumstances are well situated to achieve 
those critical financial management functions, which directly affect 
the GH missions, bureau, and other Offices across the Agency?

    Answer. I understand a career civil servant has filled the position 
of Director of the Office of Policy, Planning, and Programming in the 
Bureau for Global Health. If confirmed, I look forward to supporting 
the staff and important work of this office, as well as staff 
throughout the Bureau.
            PEPFAR
    Question. We have heard from multiple sources of the planning, 
programming, and implementation difficulties experienced by USAID and 
its implementing partners due to the Office of the Global AIDS 
Coordinator's delays in transferring apportioned funds to the Agency. 
If confirmed, what steps would you take to ensure that the FY19 funds 
approved through this year's COP processes, and those of upcoming 
approval processes are made available from OGAC to USAID and 
implementing partners in a timely manner?

    Answer. As one of several Departments and Agencies that contribute 
to the President's Emergency Plan for AIDS Relief (PEPFAR), the U.S. 
Agency for International Development (USAID) respects the program's 
commitment to ending the HIV/AIDS epidemic abroad.
    I also fully appreciate the importance of thoughtful strategic 
planning and meticulous monitoring and oversight of PEPFAR resources by 
the Office of the Global AIDS Coordinator (OGAC), USAID, and our other 
interagency partners to manage the American taxpayers' generous 
investment in this cause effectively and responsibly. If confirmed, I 
commit to maintain the positive and productive relationship between 
OGAC, USAID, and the PEPFAR Interagency Budget and Management Group-
which has streamlined communications and helped to clarify approval 
processes and timelines--as we continue to ensure the effective and 
responsible investment of PEPFAR resources and the critical work of our 
Mission teams in the field and their bilateral, multilateral, and other 
implementing partners.

Family Planning
    Question. The administration proposed an over 60 percent cut to 
international family planning and reproductive health in the FY 2020 
budget request. The budget justification also deletes references to the 
role of family planning in preventing unintended pregnancy and 
``enhanc[ing] the ability of couples to decide the number, timing, and 
spacing of births'' and ``reducing abortion.'' Women's access to health 
care, including sexual and reproductive health care like modern 
contraceptives, plays a significant role in their ability to advance 
their education, participate in the economy, and support their families 
and communities. Ensuring women utilize modern contraception methods 
dramatically reduces maternal and newborn deaths. When women are able 
to space their pregnancies at least three years apart, they are more 
likely to survive pregnancy and childbirth and their children are more 
than twice as likely to survive infancy.

  Do you think that providing women the tools and accurate 
        information about preventing unintended pregnancies is a worthy 
        public health goal?

  What are the most important actions you have taken in your career 
        to date to support women's rights to determine their own 
        reproductive outcomes, and/or empower them to space their 
        pregnancies? What has been the impact of your actions?

    Answer. As the world's largest bilateral donor of family planning 
assistance, the United States remains committed to helping women and 
their children thrive. Preventing child and maternal deaths remains a 
priority for this administration. Access to voluntary family planning 
is a key intervention for achieving the healthy timing and spacing of 
pregnancy, preventing child and maternal deaths, and for helping 
communities progress along the Journey to Self-Reliance.
    We know that women need access to a range of contraceptive options 
over their reproductive years as their fertility intentions change over 
time. We serve women and men best when we provide them with access to a 
range of modern contraceptive options--from fertility-awareness 
methods, to short- and long-acting reversible methods, to voluntary 
permanent methods--as well as to high-quality counseling so women and 
their partners can make their own informed choices. We are also 
committed to supporting the development, introduction, and scale-up of 
a wide range of contraceptive methods to meet the needs of women and 
couples for voluntary family-planning to promote the healthy timing and 
spacing of pregnancy.
    If confirmed, I will continue to support a full range of modern 
contraceptive methods to ensure that women and couples have access to 
the information, counseling, and methods best suited to their needs.

    Question. If confirmed, will you commit to see to it that U.S. 
funded programs continue to support and supply a full range of (modern) 
contraceptive methods in order to ensure that women have access to the 
information, counseling, and methods best suited to their needs?

    Answer. The children's health clinics I helped set up, staffed, and 
managed for over a decade in rural South and East Texas were co-located 
with clinics focused on voluntary family planning and maternity care.
    I worked closely with our providers of women's health care to 
promote the healthy timing and spacing of pregnancy. Co-locating our 
clinics for children's health with these clinics ensured that mothers 
and their children had access to a one-stop model that could meet their 
health needs holistically.
    The decade during which I managed these clinics helped inform my 
four years directing the Office of Population Affairs in the U.S. 
Department of Health and Human Services (HHS). At HHS, I continued to 
support programs focused on the healthy timing and spacing of 
pregnancy, through education and voluntary, informed family planning, 
including modern methods of contraception, and helping adolescents 
delay sexual involvement and pregnancy. These programs also worked to 
help reduce the risk of complications from high-risk pregnancies for 
both mothers and babies, and reduced rates of pregnancy among early 
adolescents.

Youth
    Question. The world currently has the largest generation of young 
people ever. This presents tremendous opportunity for global 
development but also means that we have to take action to promote the 
health and well-being of adolescents and youth everywhere. Yet 
complications during pregnancy and childbirth are the leading cause of 
death for adolescent girls (ages 15-19 years). Adolescents, both 
married and unmarried, face a range of barriers to accessing 
reproductive health care, including lack of knowledge, stigma, health 
worker bias and unwillingness to acknowledge young people's 
reproductive health needs.
    Sexual risk avoidance, also known as abstinence only until marriage 
programs, have been proven ineffective in preventing pregnancy and 
STIs, and have been shown to have no impact on behaviors or number of 
partners.

 If confirmed, how will you promote access to comprehensive health 
        information and services for young people as a means of 
        preventing maternal deaths?

 If confirmed, what specific steps will you take to ensure 
        comprehensive, evidence based health and education programs are 
        supported for young people under USAID's global health 
        programs?

    Answer. During adolescence, girls and boys establish life-long 
health behaviors, which makes it a pivotal time in development.
    Evidence shows that healthy timing (delaying the first pregnancy 
until a woman is at least 18 years old) and spacing (at least 24 months 
between giving birth and becoming pregnant again) are critical to 
reducing maternal mortality and morbidity among adolescents and young 
women, as well as to reducing infant mortality. In addition to 
encouraging the healthy timing and spacing of pregnancies, our work 
also focuses on preventing coercion, exploitation, and abuse; delaying 
sexual debut; avoiding sexual, substance-abuse and other risks; 
stopping female genital mutilation; reducing the acceptance of child 
marriage; and keeping girls in school. These interventions support 
girls and young women as individuals, help delay marriage, and avoid 
early pregnancy, all of which result in lower rates of maternal and 
child mortality.
    Also, the U.S. Agency for International Development (USAID) is 
currently funding a project dedicated to expanding the evidence base 
for what works in positive youth development and applying improved 
approaches across programs and sectors. Under the President's Emergency 
Plan for AIDS Relief (PEPFAR), activities include reviewing existing 
and piloting promising approaches for mentoring adolescent girls and 
young women at increased risk of HIV/AIDS, identifying life skills most 
relevant to sexual and reproductive health, preventing violence and 
other cross-sectoral youth outcomes and identifying and disseminating 
effective interventions that can increase the uptake of testing for HIV 
and create better linkages to treatment among young people. If 
confirmed, I will ensure USAID continues to support evidence-based 
health and education programs for young people, especially adolescent 
girls, under PEPFAR and USAID's other global health programs.
    If confirmed, I will also work to ensure that USAID's programming 
for young people includes the engagement of influencers who have a 
vested interest in their welfare--such as parents, grandparents, and 
religious and community leaders--so that young people can have access 
to correct, age- and context-appropriate, high-quality health 
information and care and live full, productive lives.

    Question. Data tells us that Africa has the most youthful 
population in the world, with more than 200-million of its 1.2-billion 
people aged between 15 and 24. Africa's youth population is expected to 
reach over 830 million by 2050.

  What budgetary impact will the youth bulge have on USAID's global 
        health programming in Africa over the next three to five years 
        if we are to reach the same portion of the population with 
        health services, including services in sexual and reproductive 
        health? If confirmed, what steps will you take ensure that the 
        bureau analyzes and is prepared to respond to the increasing 
        need?

    Answer. The youth bulge in sub-Saharan Africa is one of the biggest 
challenges to our health programs. If confirmed, I will ensure the 
Bureau continues its long-standing history of engagement with 
innovators, the private sector, global donor partners, and recipient 
governments to generate ideas and mobilize resources to meet this 
challenge, including through comprehensive health programming for 
youth. I commit to building new alliances and partnerships to address 
the health and well-being of the growing number of adolescents and 
youth in the countries where we work.

Faith-Based Organizations/Civil Society Engagement
    Question. There is a strong push within global HIV/AIDS programs to 
fund faith-based organizations, which have been critical partners in 
the fight against HIV, but may not be best-positioned to deliver 
comprehensive HIV prevention, care and treatment services to everyone 
who needs it in all settings. I understand that you conducted regular 
meetings with a small set of Faith-Based Organizations during your 
tenure as Deputy Assistance Administrator and then as Senior Deputy 
Administrator.

   During your tenure as Deputy Assistance Administrator and then as 
        Senior Deputy Administrator, how many open town hall meetings 
        that included non-faith based NGO actors engaged in PEPFAR or 
        maternal and child health did you hold? When were each of these 
        meetings held?

    Answer. My recollection is that during my tenure as the Deputy 
Assistant Administrator and then the Senior Deputy Assistant 
Administrator of the Bureau for Global Health (GH) until April 2019, I 
hosted two formal, open ``town hall'' meetings with the maternal and 
child health community. These meetings included a diverse array of 
partners, both faith-based and secular. On at least one occasion, I, 
along with GH staff, met with leaders from Jewish, Islamic, and 
Christian faith-based organizations, at their request. In addition, the 
other two members of GH's senior leadership and I regularly engaged 
with the implementers of the President's Emergency Plan for AIDS Relief 
and our programs in maternal and child health in numerous informal 
group and one-on-one meetings in-person, by phone, and by email. Since 
I have recused myself from GH's activities since April 2019, I am not 
aware of the status of current meetings the Bureau might be holding 
with external organizations on HIV/AIDS, maternal and child health, and 
nutrition.

    Question. If confirmed, do you commit to both evaluating which 
partners are best able to achieve programmatic goals, and to engaging 
with diverse civil society organizations?

    Answer. The U.S. Agency for International Development (USAID) has a 
long history of engaging with a diversity of partners, including small 
businesses and civil-society, non-governmental, and faith-based 
organizations. Diversifying USAID's partner base to reflect today's 
expanded development landscape is an important component of the Journey 
to Self-Reliance, because choice and competition are key to innovation 
and resource-mobilization in development work, just as they are in the 
private-sector economy.
    USAID has no ``earmark'' for faith based organizations, and does 
not give them special treatment. If confirmed, I commit to engaging 
with a diverse set of partners to achieve our programmatic goals. If 
confirmed, I also commit to following USAID's policy guidance regarding 
assessing, evaluating and selecting potential and existing partners 
through the Agency's procurement processes. These policies help ensure 
USAID is engaging with the most-capable partners to assist us in 
implementing high-impact, sustainable programs.

Global Gag Rule
    Question. Secretary Pompeo announced in a press conference recently 
that the State Department would be taking action to ``implement this 
policy to the broadest extent possible.'' Under this broad 
interpretation, a foreign NGO in compliance with the Global Gag Rule 
would have to force compliance with the policy on foreign organizations 
who they subgrant to using funding from ANY source for ANY purpose, 
effectively gagging funding of other government and private donors, 
which constitutes a significant expansion of the reach and impact of 
the Global Gag Rule, further dividing complying and non-complying 
partners, and undermining coordination and collaboration in the field. 
    NGOs have already reported that compliance with the Global Gag Rule 
has increased their administrative costs due to adding complicated 
compliance mechanisms.

   Has USAID looked into how this broad interpretation will impact 
        programs across the health and development sector?

   How much will this broad interpretation increase the administrative 
        costs for these NGOs? How much will this new compliance burden 
        affect the amount and quality of health services this funding 
        is intended for? How will you monitor this and other impacts if 
        confirmed?

    Answer. As the world's largest bilateral donor to global health 
programs, the United States remains committed to helping women and 
their children thrive, particularly in countries where the need is 
greatest. The U.S. Agency for International Development (USAID) works 
continually with our field Missions to review our programs; develop 
stronger, more systematic reporting systems; and minimize any potential 
disruption of the health care we fund. USAID successfully reprogrammed 
all funds for voluntary family planning within each country when the 
Mexico City Policy was in place, and has done the same for all affected 
health assistance under the Protecting Life in Global Health Assistance 
(PLGHA) Policy.
    USAID will continue to work closely with implementing partners to 
ensure they understand what compliance with the PLGA Policy entails. We 
expect our partners to comply with this new guidance, and will actively 
monitor their compliance. In the event a partner chooses not to accept 
the Policy, USAID takes active steps to ensure another implementer 
continues the activities continue. If confirmed, I will continue to 
work with USAID's staff in Washington and overseas to answer questions 
and provide guidance to ensure the proper implementation of the PLGHA 
policy.

    Question. The State Department stated they would complete a second 
review of the Mexico City Policy, also known as the Global Gag Rule, by 
the end of 2018, yet we are still waiting on that report.

   When do you expect the report to be delivered to Congress, and what 
        accounts for the delay?

    Answer. The U.S. Department of State recognized that the Six-Month 
Review of the Protecting Life in Global Health Assistance (PLGHA) 
Policy, released in February 2018, took place early in the Policy's 
implementation. As a result, the Department of State, in coordination 
with the U.S. Agency for International Development (USAID), and the 
Departments of Health and Human Services and Defense, undertook a 
subsequent review to assess the implementation of the policy, including 
any effects on the delivery of care. While I have not been involved in 
this subsequent process, I have received a briefing that USAID is 
working with our interagency colleagues to finalize the review, and we 
expect the report to be released very soon. I would refer you to the 
State Department for more information.

    Question. A new study published in Lancet found that when the 
Mexico City Policy was in effect between 2001-2008, abortion rates 
increased about 40 percent among women in countries most affected by 
the policy. It also found a symmetric reduction in the use of modern 
contraception while the policy was enacted, coinciding with an increase 
in pregnancies. This pattern of more frequent abortions (many of which 
are unsafe in the impacted countries) and lower contraceptive use was 
reversed after the policy was rescinded in 2009.

  Has anyone in the bureau of Global Health met with the authors of 
        the report to discuss its findings and the methodology used to 
        produce the report?
  Is decreasing access to family planning and increasing abortion in 
        line with USAID goals, and the goals of the administration more 
        broadly? If not, what actions do you intend to take in light of 
        these new research findings?
  What actions will you take as the leader of USAID's Global Health 
        priorities to determine whether there are gaps in contraception 
        services due to the imposition of the Mexico City Policy and if 
        so, how these gaps are being addressed?
   How will you assess and evaluate whether there have been service 
        disruptions and inefficiencies created by the need for USAID to 
        switch implementing partners in cases where implementers 
        refused to agree to the restrictions imposed by the Mexico City 
        Policy?

    Answer. I am not aware that anyone from the Bureau for Global 
Health (GH) has met with the authors of the Lancet study to discuss its 
findings and methodology. If confirmed, I commit to continuing the 
conversation with the committee on Foreign Relations regarding how the 
U.S. Agency for International Development (USAID) will consider these 
findings moving forward.
    It is critical that Global Health and other Family Planning donors 
and advocates continue to follow the indicators and demographic surveys 
that track access to modern contraceptive care and outcomes for women 
and children in order to assure that vulnerable populations are 
supported. Currently, and consistent with ongoing practices, USAID 
Missions monitor and track all award transitions, whether related to 
PLGHA or other changes in partners or funding, to minimize disruptions 
to recipients.
    If confirmed, I will work with GH staff and the other U.S. 
government Departments and Agencies that implement the Protecting Life 
in Global Health Assistance Policy to examine the second review of the 
implementation of the Policy to determine what adjustments we might 
have to make if disruptions in care occurred as a result of transitions 
between partners.

Siljander
    Question. As you may be aware from recent State Department 
announcements, a policy known as the Siljander amendment prohibits the 
use of foreign assistance funds to lobby for or against abortion. 
Repeatedly at the U.N., representatives of the State Department, USAID, 
and U.S. Mission to the U.N. are alleged to have made statements that 
``we [the United States] do not support abortion,'' spread false 
information that comprehensive sex education programs ``promote 
abortion as a solution to teen pregnancy,'' and are said to have stated 
``the U.S. is a pro-life country'' despite the fact that for over 40 
years the right to abortion has been established in this country under 
Roe v. Wade.

  Has the Office of Legal Counsel or the Inspector General undertaken 
        a review of allegations about statements such as the 
        aforementioned to determine whether a violation of the 
        Siljander amendment has occurred?

    Answer. Consistent with longstanding practice, the United States 
routinely describes its foreign-policy positions on issues before 
multilateral bodies.

    Question. What steps will you take to ensure compliance with, and 
hold employees under your supervision accountable for, compliance with 
the Siljander prohibition on lobbying for or against abortion, and to 
ensure that officials as USAID are properly informed so as not to 
spread false, misleading information about comprehensive education 
concerning sexual and reproductive health?

    Answer. The U.S. Agency for International Development takes 
compliance with the Siljander Amendment very seriously, and I will 
ensure that staff are familiar with its provisions. We would address 
any specific response to an alleged compliance issue on a case-by-case 
basis.

Health Systems/Workforce
    Question. Frontline health workforce teams and the systems 
supporting them are the bedrock of resilient countries, and U.S. global 
health programs cannot succeed unless we place a high priority on 
workforce and systems strengthening, as was highlighted in a report 
released recently from USAID's Inspector General. The Global Health 
Bureau's Office of Health Systems, by your own reporting, and a new 
USAID Inspector General's report has made major inroads in maximizing 
the efficiency and impact of the dollars we allocate to your bureau on 
these cross-cutting issues.
 
  What is your vision for this office, and how will you ensure the 
        Bureau has the leadership and cross-bureau programs, 
        flexibility, data and reporting the IG report recommends to 
        ensure partner countries have the workforce and systems needed 
        to deliver the global health outcomes we wish to achieve?

    Answer. Annex B of the report of the Office of the Inspector 
General (OIG) for the U.S. Agency for International Development (USAID) 
contains a list of actions the Agency has already committed to take to 
respond to the OIG's recommendations. I support these actions and, if 
confirmed, will continue to support USAID's efforts to improve the 
overall cohesion of systemic investments in health institutions by 
providing better and updated guidance to our field Missions and 
integrating cross-cutting programs within the overall quantifiable 
results the Bureau for Global Health is working to achieve. I also 
think these actions will help ensure Missions are accountable for 
adhering to the guidelines and provide a means to better track progress 
in building the capacity of public-health and medical institutions 
around the world.

    Question. A High-Level Commission on Health Employment and Economic 
Growth in 2016 concluded that investments in health have a nine-fold 
return and accounted for about one quarter of economic growth between 
2000 and 2011 in low- and middle-income countries, having an outsized 
impact for women, who make up about 70 percent of the health and social 
workforce worldwide. Simultaneously, the World Health Organization has 
projected a shortfall of 18 million health workers by 2030 without bold 
and sustained action, mostly in the low- and middle-income countries 
USAID operates. This projected shortfall threatens to derail the 
ability to put countries on the journey to self-reliance as called for 
by the administration, and the tremendous progress the United States 
has spearheaded in saving lives around the world and also leaves us 
more vulnerable to infectious disease threats like Ebola.

  How will you prioritize USAID's programs to help spur the 
        investments and policies needed to strengthen the global health 
        workforce that can simultaneously tackle our greatest global 
        health challenges and drive global economic growth and women's 
        economic empowerment?

    Answer. New, well-trained health workers are needed across the 
priority countries in which the U.S. Agency for International 
Development (USAID) invests global health funding. As our partners 
implement strategies to train and deploy new workers, it will also be 
important for us to work with governments, civil society, and the 
private sector to maximize the efficiency of existing health workers 
and ensure linkages between community health workers and health 
facilities, as well as between public- and private-sector health 
workers, including those who work for international non-governmental 
organizations and faith-based groups. We also need to leverage new 
technologies to help extend the reach of health workers. While each of 
our field Missions will determine the best approaches given their local 
situations, I was pleased to note that earlier this year the World 
Health Organization published guidelines to optimize programs that 
deploy community health workers, which I think will help to formalize 
this important cadre of health providers, the majority of whom are 
women. If confirmed, I will work to ensure USAID implements robust 
programs that maximize the number and effectiveness of health workers, 
especially as a key driver of women's economic empowerment.

LGBTQ Equal Rights
    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people impacted by USAID's 
Global Health programs, no matter their sexual orientation or gender 
identity?

    Answer. The U.S. Agency for International Development (USAID) 
recognizes that our strength comes from our diversity, and I am 
committed to our Agency's Leadership Philosophy and values of 
integrity, respect, empowerment, and inclusion. If confirmed, under my 
leadership, we will value all of our employees equally, and all 
employees in the Bureau for Global Health will be expected to 
demonstrate professionalism and respect in their communications and 
behavior.
    I will foster an environment that empowers every team member to 
meet his or her full potential. I will also work to advance equal 
opportunity and address inequality within our Agency, and in our work 
in the field.

    Question. What challenges do you see remaining for LGBTQ people 
across USAID global health programs and regions?

    Answer. Unfortunately, lesbian, gay, bisexual, transgender, and 
queer people around the world continue to face stigma, isolation, and 
marginalization. The U.S. Agency for International Development is 
committed to addressing inequality in our field work to ensure 
beneficiaries can access health care in safe and respectful 
environments, and to help improve their health and well-being.

Congressional Consultations
    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff on a regular basis?

    Answer. During my tenure at the U.S. Agency for International 
Development, it has been a pleasure and honor to meet, consult, and 
brief Members of Congress and Congressional staff regularly. If 
confirmed, I commit to continuing to do so, in accordance with law and 
the rules and regulations of the U.S. Agency for International 
Development.

                               __________


       Responses to Additional Questions for the Record Submitted
          to Dr. Alma L. Golden by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. From the time that I first became a pediatrician, I 
recognized the devastating impact of sexual abuse, coercion and 
exploitation on children and young teens. In addition to caring for 
these children and teens individually, I served on local and State 
child-protective advisory committees, testified in court cases, 
advocated with the Texas Pediatric Society, and later worked in 
programs with the U.S. Department of Health and Human Services (HHS), 
all to strengthen clinical training for providers to identify, manage, 
and report on children who might have been exploited and abused. 
Through initiatives during my time at HHS, in partnership with the U.S. 
States Department of Justice, we were able to hold multi-disciplinary 
conferences, and roll these programs out nationwide so they have had 
impact across the country.
    From 1991 to 2001, I developed and directed pediatric care for the 
Maternal and Child Program of the University of Texas (UT) Medical 
Branch at Galveston, which brings health care to poor and indigent 
individuals and vulnerable populations across extremely underserved 
rural counties in South and East Texas. The network of 16 pediatric 
clinics supported by UT Medical Branch spanned 270 miles. I helped set 
the clinics up, hired and trained staff, and served as director and 
backup physician for all of the sites. I also served on State and 
national committees regarding access to care for indigent people that 
also delivered care for disabled populations. Through collaboration 
with the School of Education at Baylor University and McLane Children's 
Hospital, we developed clinical and therapeutic care for children with 
autism, developmental difficulties, and physical disabilities.
    During my tenure in Bureau for Global Health at the U.S. Agency for 
International Development (USAID), I was involved in promoting programs 
to benefit women and girls around the world, including on women's 
empowerment, access to health care, and education. Our work has served 
and supported orphans and vulnerable children; young married 
adolescents; women with childbirth-related fistula; and victims of 
gender-based violence, including those with traumatic fistula from 
sexual assault and rape. USAID also has implemented programs to address 
child and early marriage and female genital mutilation.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the U.S. Agency for International Development (USAID)?

    Answer. I am committed to our Agency's Leadership Philosophy and 
our values of integrity, respect, empowerment, and inclusion. Under my 
leadership, we will continue to recognize that strength comes from 
diversity. We will value all of our employees equally, and I will 
expect all employees of the Bureau for Global Health to demonstrate 
professionalism and respect in their communications and behavior. I 
will foster an environment that empowers every team member to meet his 
or her full potential. I will also advance equal opportunity and 
address inequality within our Agency and in our work in the field.

    Question. What steps will you take to ensure each of the 
supervisors in your bureau at USAID are fostering an environment that 
is diverse and inclusive?

    Answer. I commit to ensuring that all supervisors under my purview 
complete the mandatory U.S. Agency for International Development 
(USAID) University Supervisory Certification Course, a two-week class 
designed to target competencies in both management and leadership to 
equip our leaders with the skills and tools needed to perform in their 
role as managers of an inclusive diverse and multicultural workforce.
    Additionally, the Bureau for Global Health will engage closely with 
USAID's Office of Civil Rights and Diversity to prioritize our focus on 
diversity and inclusion, through explicit attention to best practices 
and opportunities to execute on these issues across all levels of the 
organization, including in hiring. We will create opportunities for 
training on inclusiveness, diversity, and leadership at all levels.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the U.S. Agency for International Development) 
any change in policy or U.S. actions that you suspect may be influenced 
by any of the President's business or financial interests, or the 
business or financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise any concerns that I might have 
through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant Federal ethics laws, 
regulations and rules, and to raise any concerns that I might have 
through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No. Neither I nor my immediate family members have any 
financial interests in any country abroad.

Global Health Security
    Question. Funding for preventing global pandemics through global 
health security has been dwarfed by spending on disease outbreak 
response. Annual appropriations for USAID global health security 
programs, for example, average roughly $75 million. On the other hand, 
Congress appropriated over $5 billion in emergency funds to contain the 
2014-2016 Ebola outbreak in West Africa; to date, the U.S. government 
has spent over $150 million in the DRC on humanitarian aid and Ebola 
control. 
 
  Considering the resurgence of Ebola, as well as other diseases, 
        including yellow fever and dengue, what do you think about the 
        balance of funds spent on pandemic preparedness versus pandemic 
        response?

    Answer. Funding for the Global Health Security Agenda allows us to 
support the prevention and detection of, and response to, global 
pandemics and outbreaks of infectious diseases with pandemic potential. 
The U.S. government needs to support both preparedness and response. 
This does not mean that we should fund each equally. Investments to 
support preparedness activities (including capacity- building for local 
health professionals and staff) and efforts to prevent outbreaks are 
more cost-effective than focusing exclusively on responding to an 
outbreak event when one occurs. However, it is also important to ensure 
we have adequate funding available to respond to an outbreak, to 
mitigate the risk that the outbreak will spread, which would put the 
lives of the affected population at risk as well as pose a potential 
threat to the U.S. homeland.

    Question. What changes, if any, might the Congress, in particular, 
and U.S. government, in general, consider in how resources are 
allocated for pandemic preparedness and prevention?

    Answer. Because risk factors for different emerging diseases change 
rather quickly, preparedness and prevention activities for potential 
outbreaks are challenging to predict (in terms of disease, location, 
time, duration, etc.). A successful outbreak-prevention program needs 
to have flexibility incorporated into it to ensure it remains nimble 
and responsive to changing conditions and risk factors. Preparedness 
includes many components of the Journey to Self-Reliance, including 
health communication, basic prevention of infections, and surveillance 
for new and emerging pathogens and antimicrobial resistance.

    Question. When implementing pandemic response programs, to what 
extent do U.S. assistance efforts prioritize resilience against future 
threats?

    Answer. Efforts to respond to outbreaks of dangerous infectious 
diseases primarily focus on reducing the transmission of a disease and 
mitigating the morbidity and mortality it causes, with the goal of 
limiting the damage inflicted upon the affected population. In a 
response effort, the U.S. Agency for International Development also 
considers what systemic weaknesses exist in health institutions in the 
affected country or countries, and uses that knowledge to design 
interventions that will improve the ability of governments to meet 
their obligations under the International Health Regulations (2005) and 
build resilience against future threats, including the capacity to 
share critical health information with affected communities, utilize 
effective immunizations when available, and to improve the delivery of 
care at the local level.

Health Systems Strengthening OIG Report Recommendations
    Question. On October 21, USAID's Office of Inspector General 
published a report, ``More Guidance and Tracking Would Bolster USAID's 
Health System Strengthening Efforts.'' The report concluded that 
USAID's health systems strengthening activities ``are not designed with 
the primary focus to fully prepare health systems to address large-
scale emergencies like the Ebola epidemic.'' However, ``with the right 
tools, USAID missions are well-positioned to determine the appropriate 
mix of health activities primarily designed to save lives and have 
immediate impact, and those focused on strengthening health systems 


   Would you support the creation of a whole-of-government strategy to 
        help clarify and improve coordination between individual 
        activities and missions designed to strengthen and integrate 
        health systems?

    Answer. I concur that integrated health systems can improve 
sustainable health outcomes. Generally, health activities funded by the 
U.S. government at the country level are coordinated among the Federal 
Departments and Agencies active in a particular country. I believe this 
is critical, and if confirmed, I will continue efforts by the U.S. 
Agency for International Development to improve interagency 
coordination of health activities, both in Washington and in the field, 
to maximize the sustainable impact of our programs.

    Question. In pursuit of the third recommendation of the report (to 
identify and disseminate a set of indicators for missions to track HSS 
progress, such as implementation, achievement, and improvement at the 
country level), would you support a U.S. government strategy that would 
identify partner countries based on potential to make progress towards 
self-sufficiency in building health systems capacity?

    Answer. A U.S. government strategy that would prioritize partner 
countries based on the potential of their governments, civil society, 
and the private sector to make progress towards self-sufficiency in 
building capacity in public health and the delivery of health care 
could have merit. That being said, Annex B of the report published by 
the Office of the Inspector General for the U.S. Agency for 
International Development includes the actions the Agency has already 
committed to take to measure progress in strengthening health 
institutions. I support these actions and believe such approaches will 
go a long way to enable us to understand where our cross-cutting health 
investments are having an impact.

    Question. In your assessment, what would be the most important 
indicators to include for missions to track HSS progress?

    Answer. If confirmed, I look forward to working with our experts in 
the Global Health Bureau to identify such indicators and how we can 
ensure progress in strengthening public and private health 
institutions.

Health Systems Strengthening vs. Emergency Response Efforts
    Question. The Ebola outbreak in the DRC has been spreading for more 
than one year and has now infected over 3,000 people and killed over 
2,000 people. Measles and cholera outbreaks that began in the beginning 
of 2019 are claiming more lives than the current Ebola outbreak. 
Broader health system resource constraints and diversion of health 
resources for Ebola control have been cited as factors slowing response 
to these outbreaks.

  How does USAID balance health systems strengthening efforts with 
        emergency response efforts, like the Ebola response in the case 
        of DRC?

    Answer. In the Democratic Republic of Congo (DRC), the U.S. 
government's efforts to combat the current outbreak of Ebola also 
complement a comprehensive set of programs managed by the Mission of 
the U.S. Agency for International Development (USAID) in the DRC that 
target public health and the strengthening of health institutions. 
These activities work with local partners to ensure hospitals, clinics, 
and health workers can provide vulnerable populations access to life-
saving health interventions, including the prevention, detection, and 
treatment of malaria and tuberculosis and efforts to improve the 
survival of mothers and their children. Collaboration between USAID's 
implementing partners and trusted community leaders is critical to 
improving health communication and the appropriate use of screening and 
tracking tools, treatment, and other health interventions.

    Question. How can we better invest in long term sustainability 
challenges to health systems, such as capacity building, training, 
infrastructure, and supply chain issues, so that our partners are 
better prepared to respond to and mitigate the spread of pandemics 
before they become global humanitarian crises? What, if anything, can 
you tell us about U.S. plans for future engagement in the GHSA?

    Answer. The improved capabilities developed around the world with 
U.S. government funding, including from the U.S. Agency for 
International Development (USAID), aim to mitigate the scope and 
magnitude of future outbreaks of dangerous infectious diseases by 
detecting them early and mounting effective, multi-sectoral responses 
to them. The administration's Global Health Security Strategy (GHSS) 
outlines the U.S. government's approach to global health security, the 
funding available for it, and the roles of Federal Departments and 
Agencies in this collaborative effort. The GHSS emphasizes that all of 
our activities should include a robust component of building and 
investing in long-term, sustainable capacity among local health 
professionals and staff, medical and public-health infrastructure, and 
the supply-chain for medicines and commodities.
    As outlined in the GHSS, these programs will continue to invest 
funding appropriated by Congress and requested by the President in his 
Budget Request for Fiscal Year 2020. Under the GHSS, USAID works with 
the Centers for Disease Control and Prevention within the U.S. 
Department of Health and Human Services, the U.S. Departments of State 
and Defense, and other U.S. government Departments and Agencies to 
accelerate the capability in target countries to prevent, detect, and 
respond to outbreaks of infectious diseases. Under the Global Health 
Security Agenda, USAID helps governments, civil society, and academia 
in 16 priority countries in sub-Saharan Africa and Asia to strengthen 
their capacity in areas such as zoonotic diseases, workforce-
development, disease surveillance, emergency operations, and laboratory 
detection of pathogens.

Health Systems Strengthen: Workforce Issues
    Question. Frontline health workforce teams and the systems 
supporting them are the bedrock of resilient countries, and U.S. global 
health programs cannot succeed unless we place a high priority on 
workforce and systems strengthening, especially for communities with 
the highest disease burden or least access to trained and supported 
health workers, as was highlighted in a USAID Inspector General report. 
The Global Health Bureau's Office of Health Systems and the USAID 
Inspector General's report has made major inroads in maximizing the 
efficiency and impact of the dollars we allocate to your bureau on 
these cross-cutting issues.

   What is your vision for this office, and how will you ensure the 
        Bureau has the leadership and cross-bureau programs, 
        flexibility, data and reporting the IG report recommends to 
        ensure partner countries have the workforce and systems needed 
        to deliver the global health outcomes we wish to achieve?

    Answer. Annex B of the report of the Office of the Inspector 
General (OIG) for the U.S. Agency for International Development (USAID) 
contains a list of actions the Agency has already committed to take to 
respond to the OIG's recommendations. I support these actions and, if 
confirmed, will continue to support USAID's efforts to improve the 
overall cohesion of systemic investments in health institutions by 
providing better and updated guidance to our field Missions and 
integrating cross-cutting programs within the overall quantifiable 
results the Bureau for Global Health is working to achieve. I also 
think these actions will help ensure Missions are accountable for 
adhering to the guidelines and provide a means to better track progress 
in building the capacity of public-health and medical institutions 
around the world.

    Question. What is your vision for this office, and how will you 
ensure the Bureau has the technical leadership and critical programs 
needed to assist countries in ensuring they have the workforce and 
systems needed to deliver the global health outcomes we wish to 
achieve?

    Answer. As noted in my testimony before the committee on Foreign 
Relations, global health is at the threshold of significant change. The 
next ten years will likely bring us unprecedented challenges, including 
new epidemics, a dramatic rise in non-communicable diseases, an 
increase in antimicrobial resistance, rapidly mobile populations, and 
additional man-made crises, as well as unique and promising 
opportunities, including swift advances in diagnostic and curative 
technologies and the expansion of options for patients. It is important 
to recognize that a ``health system'' does not just mean government 
facilities and Ministries of Health, but is the constellation of public 
and private institutions and providers that offer public-health 
interventions and preventative, curative, and rehabilitative care to a 
population. My vision is that ``the Bureau for Global Health will 
partner in developing nations to improve health, resilience, 
opportunity, and self-reliance.'' Consequently, if confirmed, I commit 
to working within the Bureau to ensure it has the technical leadership 
and critical programs needed to deliver the measurable health outcomes 
we wish to achieve, including to strengthen public and private health-
care and public-health institutions in a dynamic environment.

    Question. USAID's Global Health Bureau and other U.S. global health 
programs have recently placed a larger emphasis on deliberately working 
across sectors to improve impact and efficiency of investment across 
U.S. programs. How would you concretely put cross-sectoral programs 
into practice at the Global Health Bureau given its current funding and 
policy restrictions and deliverables?

    Answer. If confirmed, consistent with my activities in prior 
academic and clinical environments, and my previous work at the U.S. 
Department of Health and Human Services and the U.S. Agency for 
International Development, I commit to working within the Bureau for 
Global Health to determine how we can put into practice effective, 
concrete, cross-sectoral programs.

Budget
    Question. How do you plan to work with leadership throughout the 
agency to ensure timely delivery and execution of Congressionally-
mandated appropriations for the Global Health Bureau?

    Answer. The Office of Policy, Programs, and Planning (P3) within 
the Bureau for Global Health (GH) at the U.S. Agency for International 
Development (USAID) works closely with the Agency's central Office of 
Budget and Resource Management (BRM) to follow the budgetary processes 
of the Office of Foreign Assistance Resources at the U.S. Department of 
State and the Office of the Chief Financial Officer (CFO) within 
USAID's Bureau for Management (M) to allot funds to GH as quickly as 
possible. Once allotted, the Bureau's execution team ensures the rapid 
obligation of funds to meet Congressional mandated directives. If 
confirmed, I will work with P3, BRM, and M/CFO to ensure we obligate 
funding from the Global Health account in a timely manner.

BUILD Act and Private Sector Engagement
    Question. As you know, the BUILD Act established a new U.S. 
International Development Finance Corporation and doubled U.S. 
development finance capacity to $60 billion. In December 2018, 
Administrator Mark Green announced the USAID Private Sector Engagement 
(PSE) Policy to ``signal an intentional shift towards enterprise-driven 
development.''

   How does the PSE policy relate to the health bureau?

    Answer. The Bureau for Global Health (GH) at the U.S. Agency for 
International Development (USAID) has been working with the commercial 
private sector for decades to improve the lives of women, children, 
families, and communities by helping to introduce new, life-saving 
products (e.g., oral-rehydration salts, zinc, the Sayana Press); 
incentivize research and development; and develop appropriate financing 
mechanisms and models and achieve cost-savings that make innovations 
more widely available. GH has also funded efforts to reform national 
policies and regulations to enable the private-sector provision of 
health care to thrive while ensuring public safety, patient privacy, 
and the security of records and funding. While I was in GH, I was 
impressed with the work of the Center for Innovation and Impact in this 
regard.
    USAID's Private-Sector Engagement (PSE) Policy is a call to action 
for the Agency to deepen our relationships with commercial firms and 
investors as part of our support for the Journey to Self-Reliance. I am 
aware that GH is currently developing its plan, due on December 31, 
2019, to put the the PSE policy into practice; however, I am not 
currently involved in that process. If confirmed, I intend to work 
closely with GH to embrace a systematic approach that will improve 
internal systems and enhance the capacity of our staff to engage more 
effectively with a broad range of private-sector actors to promote the 
greater adoption of innovative techniques and technologies and market-
based approaches in low- and middle-income countries.

    Question. What discussions, if any, are underway at USAID to 
leverage new direct foreign investment, as permitted through the BUILD 
Act, to support global health system strengthening efforts worldwide?

    Answer. The Bureau for Global Health (GH) within the U.S. Agency 
for International Development (USAID) has a long history of mobilizing 
private capital to achieve its development objectives, and of working 
with the private sector. For example, the Bureau has used USAID's 
Development Credit Authority to open up commercial lending to small and 
medium-sized health businesses, which has enabled them to provide more 
and better-quality care to our target populations. GH also explores 
opportunities to use other blended and innovative financing instruments 
to mobilize private capital for health, such as Development-impact 
bonds. The creation of the Development Finance Corporation under the 
Better Utilization of Investments Leading to Development (BUILD) Act 
provides an expanded set of financing tools USAID can use to help 
mobilize more private financing for health.

Global Health Security Agenda
    Question. U.S. officials, including the Secretary of the Department 
of Health and Human Services, have indicated support for extending the 
Global Health Security Agenda (GHSA) through 2024, yet the FY 2020 
administration budget request includes a 10% budget cut for USAID 
global health security activities for FY 2020.

   Please explain why a budget reduction is sought in this area.

    Answer. The President's Budget Request for Fiscal Year (FY) 2020 
aims to balance fiscal responsibility here at home with our leadership 
role and national-security imperatives on the world stage. While the 
Request for FY 2020 proposes to reduce funding for global health 
security at the U.S. Agency for International Development (USAID), the 
overall amount allocated for global health is $6.343 billion. The 
President's Budget Request will ensure the United States will remain 
the world's largest contributor to global health, and the Global Health 
Security Agenda (GHSA) remains an administration priority. If 
confirmed, I will continue to advocate for robust programming under the 
GHSA that not only protects our Nation, but also strengthens capacity 
and responsibility in our partner countries.
    USAID implements its programs under the parameters of the 
administration's Global Health Security Strategy (GHSS), which outlines 
the U.S. government's approach to global health security, the funding 
available for it, and the roles of Federal Departments and Agencies in 
this collaborative effort. Under the GHSS, USAID works with the Centers 
for Disease Control and Prevention within the U.S. Department of Health 
and Human Services, the Departments of State and Defense. and other 
U.S. government Departments and Agencies to accelerate the capabilities 
in target countries to prevent, detect, and respond to outbreaks of 
deadly infectious diseases.

Climate Change
    Question. Studies show that climate change is bringing overall 
warmer, wetter, more variable and more severe weather patterns that are 
exacerbating human health challenges in a number of areas, 
particularly: food insecurity, heat-related deaths and ailments, and 
infectious diseases.

   What role does the Global Health Bureau play in addressing the 
        effects of climate change and supporting countries' resilience 
        against its impacts?

    Answer. The investments of the Bureau for Global Health within the 
U.S. Agency for International Development (USAID) are helping 
governments, civil society, and the private sector in our partner 
countries adapt to improve their resilience and climate-adaptation in a 
variety of ways. For example:


  To understand and predict how climate could influence the incidence 
        of malaria, some USAID Missions in sub-Saharan Africa offer 
        ways to connect and integrate weather information with health 
        and other data;
  
  The President's Malaria Initiative has begun to include climate-
        related information into its data-integration platform to 
        improve planning for seasonally dependent interventions and the 
        analysis of the transmission of malaria;

   Some USAID-funded pharmaceutical and medical-supply warehouses have 
        begun adopting solar power to offset greenhouse-gas emissions;

   USAID's program on Neglected Tropical Diseases is re-mapping the 
        ranges of vectors to target populations more effectively, and 
        is taking into account climate events when planning mass drug-
        administration campaigns; and

   USAID's supply-chain program is including potential extreme weather 
        events in its risk-mitigation strategies and efforts.

    Question. What challenges, if any, does the global health bureau 
face in coordinating with other bureaus on addressing the health 
effects of climate change?

    Answer. The Bureau for Global Health (GH) at the U.S. Agency for 
International Development (USAID) is actively involved in the monthly, 
multi-Bureau meetings chaired by the Office of Global Climate Change 
(GCC) within the Bureau for Economic Growth, Education, and the 
Environment (E3), which provides oversight of the process to manage 
climate-related risk (CRM) process throughout the Agency. E3/GCC also 
provides orientation and training on CRM (both in-person and online) to 
new GH staff.

Protecting Life in Global Health Assistance (PLGHA) Initiative
    Question. The Trump administration reinstated and expanded the 
Mexico City Policy in 2017 and called it the Protecting Life in Global 
Health Assistance (PLGHA) initiative. In February 2018, the Trump 
administration released a six-month review on the impact of the policy. 
The administration has not issued another review, though others have, 
including one published in the British Medical Journal, which found 
that ``PLGHA has affected multiple health domains and populations 
within the first year of implementation, including programs related to 
HIV, WASH, and Zika.''

    What information, if any, can you share on the impact of PLGHA on 
        health programs?

    Answer. [The committee received no response to this question.]

    Question. The six-month review conducted by the State Department 
summarized some of the confusion implementing partners faced in trying 
to comply with the PLGHA. 

   In addition to the FAQ and online training course, what resources 
        has USAID provided to clarify confusion around PLGHA 
        compliance, particularly for local implementing partners with 
        intermittent or limited access to internet service?

    Answer. [The committee received no response to this question.]

    Question. Secretary Pompeo announced in a press conference recently 
that the State Department would be taking action to ``implement this 
policy to the broadest extent possible.'' Under this broad 
interpretation, a foreign NGO in compliance with the Protecting Life in 
Global Health Assistance (Global Gag Rule) would have to force 
compliance with the policy on foreign organizations who they subgrant 
to using funding from any source for any purpose. This effectively gags 
funding of other government and private donors, which constitutes a 
significant expansion of the reach and impact of the global gag rule 
and would further divide complying and non-complying partners, thus 
undermining coordination and collaboration in the field.

   Has USAID looked into how this broad interpretation will impact 
        programs across the health and development sector?

    Answer. As the world's largest bilateral donor to global health 
programs, the United States remains committed to helping women and 
their children thrive, particularly in countries where the need is 
greatest. The Protecting Life in Global Health Assistance (PLGHA) 
Policy does not change funding levels by one dollar, nor does the 
Secretary's announcement. The vast majority of foreign non-governmental 
organizations (NGOs) to which the U.S. Agency for International 
Development (USAID) has provided global health assistance subject to 
the PLGHA Policy are accepting the conditions on awards required under 
it, and continue to participate in global health programs funded by 
USAID. In the event a partner declines to accept terms of the Policy, 
USAID takes active steps to ensure another partner takes on and 
continues the activities.
    The U.S. Department of State recognized that the Six-Month Review 
of the PLGHA Policy, released in February 2018, took place early in the 
Policy's implementation. As a result, the Department of State, in 
coordination with USAID and the Departments of Health and Human 
Services and Defense, has undertaken a subsequent review to assess the 
implementation of the Policy, including any effects on the delivery of 
care. While I have not been involved in this subsequent review, I have 
received a briefing that USAID is working with our interagency 
colleagues to finalize the review, and we expect the report to be 
released very soon. I would refer you to the State Department for more 
information.
    As noted in May 2017 when the President announced the PLGHA policy, 
he directed that no U.S. taxpayer money should support foreign 
organizations that perform or actively promote abortion as a method of 
family planning in other nations. The guidance from Secretary Pompeo 
clarifies the expectation that all subgrantees under awards of U.S. 
global health assistance must be consistent with that intent.

    Question. NGOs have already reported that compliance with the 
Global Gag Rule has increased their administrative costs due to adding 
complicated compliance mechanisms. How much will this broad 
interpretation increase this burden for these NGOs?

    Answer. The U.S. Agency for International Development (USAID) has 
developed a number of training materials and other tools to assist its 
staff and implementing partners in understanding and applying the 
Protecting Life in Global Health Assistance (PLGHA) Policy. We have 
provided our partners and staff with publicly available answers to 
frequently asked questions (FAQs) and several online training courses, 
on U.S. statutory requirements on abortion, voluntarism in family 
planning, and the PLGHA Policy. USAID has also translated our training 
materials and the standard provision included in our grants and 
cooperative agreements into several languages to facilitate greater 
comprehension of the policy by a wide range of implementing partners. 
In addition, if confirmed, I will support the development of new 
resources, with a particular focus on supporting prime implementing 
partners to communicate with sub-recipients on the PLGHA Policy.
    USAID will continue to work closely with implementing partners to 
ensure they understand what compliance with the policy entails. We 
expect our partners to comply with Secretary Pompeo's announcement, and 
will actively monitor their compliance. If confirmed, I will continue 
to work with USAID's staff in Washington and overseas to answer 
questions and provide guidance to ensure the proper implementation of 
the PLGHA Policy.

    Question. How much will this new compliance burden affect the 
amount and quality of health services this funding is intended for?

    Answer. I have not been in the Bureau for Global Health for over 
seven months. Consequently, I have not discussed the current status of 
the implementation of the Protecting Life in Global Health Assistance 
Policy. If confirmed, I commit to learning more about current 
programmatic patterns and responding to future questions.

    Question. How will you monitor this and other impact in your 
leadership of the USAID Bureau of Global Health?

    Answer. Access to high-quality care is a core focus for me. The 
Bureau for Global Health (GH) within the U.S. Agency for International 
Development has many indicators that inform the Agency and the public 
regarding the effectiveness and outcomes of our investments in 
improving access to health care. If confirmed, these indicators will 
continue to provide insights to me and other GH leaders regarding our 
programmatic priorities and implementation.

WASH, Nutrition Programs and USAID Redesign
    Question. The Acting on the Call website, which provides updated 
information on USAID maternal and child health (MCH) programs, cites 
water, sanitation and hygiene (WASH) and nutrition programs as integral 
MCH priorities. A number of groups have expressed concern that USAID's 
redesign diminishes the prioritization of WASH and nutrition programs.

  How might the USAID redesign affect the integration of WASH and 
        nutrition into global health programs in general and MCH 
        programs in particular?

    Answer. Water, sanitation, hygiene (WASH), and nutrition remain 
priorities of the U.S. Agency for International Development (USAID), 
but the Agency has not always managed its investments in these areas in 
a fully coordinated way. The Agency's Transformation has elevated both 
WASH and nutrition through the creation of a Leadership Councils for 
Nutrition and Water, both co-chaired by a Deputy Assistant 
Administrator from the Bureau for Global Health. The new Bureau for 
Resilience and Food Security will also add a Center for WASH and a 
Center for Nutrition, which will increase the integration of priorities 
and coordination of work in these disciplines across sectors.

    Question. As a key focus of the USAID redesign is self-reliance, 
please describe how the metrics under development relate to health.

    Answer. Of the 17 independent, third-party Self-Reliance Metrics, 
the one most directly related to health is the Child Health Index, 
which is a composite measure that aggregates child mortality, access to 
at least basic drinking water supplies, and access to at least basic 
sanitation facilities. Since malnutrition is an underlying cause of an 
estimated 45 percent of child deaths, and since water and sanitation 
are part of this composite measure, both nutrition and access to water, 
sanitation, and hygiene contribute directly to this capacity metric.In 
addition, the Bureau for Global Health within the U.S. Agency for 
International Development (USAID) worked with the metrics team in the 
Bureau for Policy, Planning, and Learning to develop health-related 
secondary metrics to complement the Child Health Index, which will 
allow USAID's staff, especially at the Mission level to delve more into 
the other ways in which progress in the health sector advances the 
Journey to Self-Reliance.

Abstinence Education Promotion
    Question. Beyond your current role as Deputy Assistant 
Administrator at USAID, you served as a Deputy Assistant Secretary for 
the Office of Population Affairs in the Department of Health and Human 
Services (HHS) during the George W. Bush administration, where your 
work centered on abstinence education promotion.

  If confirmed, how would this background influence your role in the 
        Global Health Bureau at USAID?

    Answer. I appreciate the opportunity to clarify my role as Deputy 
Assistant Secretary for the Office of Population Affairs in the U.S. 
Department of Health and Human Services (HHS). My portfolio included, 
among other things, the program to prevent teen pregnancy authorized 
under Title X of the Public Health Service Act, a portion of which 
focused on abstinence education. It was my privilege to convene the 
first conference in the United States on research into abstinence 
education, which examined the outcomes of abstinence programs. This 
background provided me with an awareness of the potential to develop 
holistic programs that focus on increasing knowledge among adolescents 
of puberty, reproduction, healthy relationships, positive decision-
making, refusal skills for exploitation and abuse, and planning for the 
future.

Family Planning
    Question. I was very disappointed to see the administration propose 
an over 60 percent cut to international family planning and 
reproductive health in this year's budget request. The budget 
justification also deletes references to the role of family planning in 
preventing unintended pregnancy and ``enhanc[ing] the ability of 
couples to decide the number, timing, and spacing of births'' and 
``reducing abortion.''
    Women's access to health care, including sexual and reproductive 
health care like modern contraceptives, plays a significant role in 
their ability to advance their education, participate in the economy, 
and support their families and communities. We know ensuring that women 
can utilize the modern contraception that they want would dramatically 
reduce maternal and newborn deaths--when women are able to space their 
pregnancies at least three years apart, they are more likely to survive 
pregnancy and childbirth and their children are more than twice as 
likely to survive infancy. 


  Do you think that providing women the tools and information they 
        need to prevent unintended pregnancies is a worthy public 
        health goal?
 
  Can you assure us that under your leadership as Assistant 
        Administrator for the Bureau of Global Health, U.S. funded 
        programs will continue to support and supply a full range of 
        (modern) contraceptive methods in order to ensure that women 
        have access to the information, counseling, and methods best 
        suited to their needs?
        
   Can you speak to how you will work in this post to promote access 
        to comprehensive reproductive health care, including the full 
        range of safe and effective family planning methods?

    Answer. As the world's largest bilateral donor of family planning 
assistance, the United States remains committed to helping women and 
their children thrive. Preventing child and maternal deaths remains a 
priority for this administration. Access to voluntary family planning 
is a key intervention for achieving the healthy timing and spacing of 
pregnancy, preventing child and maternal deaths, and for helping 
communities progress along the Journey to Self-Reliance.
    We know that women need access to a range of contraceptive options 
over their reproductive years as their fertility intentions change over 
time. We serve women and men best when we provide them with access to a 
range of modern contraceptive options--from fertility-awareness 
methods, to short- and long-acting reversible methods, to voluntary 
permanent methods--as well as to high-quality counseling so women and 
their partners can make their own informed choices. We are also 
committed to supporting the development, introduction, and scale-up of 
a wide range of contraceptive methods to meet the needs of women and 
couples for voluntary family-planning to promote the healthy timing and 
spacing of pregnancy.
    If confirmed, I will continue to support a full range of modern 
contraceptive methods to ensure that women and couples have access to 
the information, counseling, and methods best suited to their needs.

Youth
    Question. The world currently has the largest generation of young 
people ever. This presents tremendous opportunity for global 
development but also means that we have to take action to promote the 
health and well-being of adolescents and youth everywhere. Yet 
complications during pregnancy and childbirth are the leading cause of 
death for adolescent girls (ages 15-19 years). Adolescents, both 
married and unmarried, face a range of barriers to accessing 
reproductive health care including lack of knowledge, stigma, and 
health worker bias and unwillingness to acknowledge young people's 
reproductive health needs. 
 
  As Assistant Administrator, how will you promote access to 
        comprehensive health information and services for young people 
        as a means of preventing maternal deaths? Also, how will you 
        ensure comprehensive, evidence based health and education 
        programs are supported for young people under USAID's global 
        health programs?

    Answer. During adolescence, girls and boys establish life-long 
health behaviors, which makes it a pivotal time in development.
    Evidence shows that healthy timing (delaying the first pregnancy 
until a woman is at least 18 years old) and spacing (at least 24 months 
between giving birth and becoming pregnant again) are critical to 
reducing maternal mortality and morbidity among adolescents and young 
women, as well as to reducing infant mortality. In addition to 
encouraging the healthy timing and spacing of pregnancies, our work 
also focuses on preventing coercion, exploitation, and abuse; delaying 
sexual debut; avoiding sexual, substance-abuse and other risks; 
stopping female genital mutilation; reducing the acceptance of child 
marriage; and keeping girls in school. These interventions support 
girls and young women as individuals, help delay marriage, and avoid 
early pregnancy, all of which result in lower rates of maternal and 
child mortality.
    Also, the U.S. Agency for International Development (USAID) is 
currently funding a project dedicated to expanding the evidence base 
for what works in positive youth development and applying improved 
approaches across programs and sectors. Under the President's Emergency 
Plan for AIDS Relief (PEPFAR), activities include reviewing existing 
and piloting promising approaches for mentoring adolescent girls and 
young women at increased risk of HIV/AIDS, identifying life skills most 
relevant to sexual and reproductive health, preventing violence and 
other cross-sectoral youth outcomes and identifying and disseminating 
effective interventions that can increase the uptake of testing for HIV 
and create better linkages to treatment among young people. If 
confirmed, I will ensure USAID continues to support evidence-based 
health and education programs for young people, especially adolescent 
girls, under PEPFAR and USAID's other global health programs.
    If confirmed, I will also work to ensure that USAID's programming 
for young people includes the engagement of influencers who have a 
vested interest in their welfare--such as parents, grandparents, and 
religious and community leaders--so that young people can have access 
to correct, age- and context-appropriate, high-quality health 
information and care and live full, productive lives.

Faith-Based Organizations/Civil Society Engagement
    Question. There is a strong push within global HIV/AIDS programs to 
fund faith-based organizations (FBOs), which have been critical 
partners in the fight against HIV, but may not be best positioned to 
deliver comprehensive HIV prevention, care and treatment services to 
everyone who needs it in all settings. I understand that you've also 
conducted regular meetings with a small set of FBOs, while up until 
earlier this month have halted more open town hall meetings with a wide 
set of NGO actors engaged in maternal and child health.

  With scarce resources, are you still committed to evaluating which 
        partners are best able to achieve programmatic goals and 
        engaging with diverse civil society? Or is there an earmark and 
        special treatment for certain types of faith-based partners?

    Answer. The U.S. Agency for International Development (USAID) has a 
long history of engaging with a diversity of partners, including small 
businesses and civil-society, non-governmental, and faith-based 
organizations. Diversifying USAID's partner base to reflect today's 
expanded development landscape is an important component of the Journey 
to Self-Reliance, because choice and competition are key to innovation 
and resource-mobilization in development work, just as they are in the 
private-sector economy.
    USAID has no ``earmark'' for faith based organizations, and does 
not give them special treatment. If confirmed, I commit to engaging 
with a diverse set of partners to achieve our programmatic goals. If 
confirmed, I also commit to following USAID's policy guidance regarding 
assessing, evaluating and selecting potential and existing partners 
through the Agency's procurement processes. These policies help ensure 
USAID is engaging with the most-capable partners to assist us in 
implementing high-impact, sustainable programs.

Siljander Amendment
    Question. As you may be aware from recent State Department 
announcements, a policy known as the Siljander amendment prohibits the 
use of foreign assistance funds to lobby for or against abortion. 
Repeatedly at the U.N., representatives of the State Department, USAID, 
and U.S. Mission to the U.N., including USAID Senior Advisor Bethany 
Kozma, have made statements that ``we do not support abortion,'' 
spreading false information that comprehensive sex education programs 
``promote abortion as a solution to teen pregnancy,'' and ``the U.S. is 
a pro-life country'' despite that fact that for over 40 years the right 
to abortion has been established in the this country under Roe v. Wade.

   Do you believe these statements made by employees of the U.S. State 
        Department are considered to be lobbying against abortion, and 
        thus a direct violation of the Siljander amendment?

    Answer. Consistent with longstanding practice, the United States 
routinely describes its foreign-policy positions on issues before 
multilateral bodies.

    Question. What will you do to hold your employees accountable to 
complying with the Siljander prohibition on lobbying against abortion?

    Answer. The U.S. Agency for International Development takes 
compliance with the Siljander Amendment very seriously, and I will 
ensure that staff are familiar with its provisions. We would address 
any specific response to an alleged compliance issue on a case-by-case 
basis.

                               __________


      Responses to Additional Questions for the Record Submitted 
            to Dr. Alma L. Golden by Senator Jeanne Shaheen

    Question. As I raised during the hearing, I am concerned that the 
Mexico City Policy is being implemented in such a way that it is having 
a chilling effect on family planning programs as well as broader global 
health programming. Independently conducted research has raised 
concerns about a lack of information and communication from the U.S. 
government to implementing partners. This has caused organizations to 
over-police their services in order to avoid an unintentional violation 
of this vaguely-written policy.


    Will you commit to ensuring that USAID provides unbiased and 
        apolitical information to prime and sub-recipients of U.S. 
        foreign assistance who inquire about how best to comply with 
        the Mexico City Policy?
        
    How would you ensure that the process for implementing partners to 
        ask and receive answers to questions on the Mexico City Policy 
        does not, either intentionally or unintentionally, discourage 
        organizations from providing services allowed for under the 
        policy?

    Answer. Yes, I commit to ensuring that the U.S. Agency for 
International Development (USAID) provides unbiased and apolitical 
information to prime and sub-recipients of U.S. foreign assistance who 
inquire about how best to comply with the Protecting Life in Global 
Health Assistance (PLGHA) Policy.
    USAID values our relationships with our partners. The vast majority 
of foreign non-governmental organizations (NGOs) to which USAID has 
provided global health assistance subject to the PLGHA Policy are 
accepting the conditions on awards required by it and continue to 
participate in global-health programs funded by USAID. The U.S. 
Department of State has recently released, in coordination with USAID 
and other affected Federal Departments and Agencies, an updated version 
of publicly available answers to frequently asked questions (FAQs) on 
the PLGHA Policy. Additionally, USAID has developed a number of 
training materials and compliance tools to assist its staff and 
implementing partners in understanding and applying the PLGHA Policy, 
including a publicly available online training course. USAID has also 
translated training materials and the standard provision included in 
our grants and cooperative agreements into several languages to 
facilitate greater comprehension of the Policy by a wide range of 
implementing partners. USAID continues to design additional tools to 
facilitate the Policy's implementation and help ensure implementing 
partners understand it fully.
    If confirmed, I would continue to work with USAID's staff in 
Washington and overseas to answer questions and provide guidance to our 
implementing partners to ensure the proper implementation of the PLGHA 
Policy.

    Question. I am concerned about reports of cases where U.S. foreign 
assistance implementing partners that provide family planning services 
are denying services based on marital status and other factors.

   What oversight exists of prime and especially sub-recipients to 
        ensure they are not engaging in discriminatory actions that are 
        explicitly prohibited under USAID guidance?
   Where would a victim of discrimination go to report violations?
   How do we relay information about these channels to patients and 
        others who seek U.S.-funded health services overseas?
   I included language in the Fiscal Year 2020 State and Foreign 
        Operations appropriations bill that would implement a reporting 
        system to provide oversight of these concerns. If confirmed, 
        would you work with Congress to ensure that the oversight 
        mechanism is an effective tool for reporting abuses of U.S. 
        foreign assistance?

    Answer. Non-discrimination is the basic foundation of the approach 
to inclusive development of the U.S. Agency for International 
Development (USAID), and all USAID's programs should ensure non-
discriminatory access for all potential beneficiaries. The Agency 
ensures compliance with these requirements through the inclusion of 
mandatory standard provisions on nondiscrimination in our contracts, 
grants, and cooperative agreements, and implementing partners are 
expected to comply with them. Implementing partners are also expected 
to include the provisions in all sub-contracts and sub-awards. USAID 
monitors programmatic implementation through its routine oversight 
processes, which include regular site visits for programs that deliver 
health care. Furthermore, any individual or organization can report 
allegations of non-compliance with our award requirements to the 
Agency, including to the Office of Acquisition and Assistance within 
the Bureau for Management, the Bureau for Global Health, and/or the 
Office of the USAID Inspector General. If confirmed, I will continue to 
work with Congress to ensure the effective implementation of USAID's 
non-discrimination requirements.

    Question. Since 2002, the Global Fund has work in coordination with 
USAID's tuberculosis and malaria programs to achieve lifesaving 
results. In countries where both USAID and the Global Fund partners, 
the Global Fund contributes to commodity procurement and program 
financial support for malaria and TB. At the same time, USAID works to 
provide in-country technical assistance to strengthen countries' 
national responses and service deliveries.

  Can you address how you plan to prioritize such purposeful 
        collaborative and complementary work of USAID and the Global 
        Fund on malaria and TB within your role if you are confirmed in 
        this role?

    Answer. Since 2006, the U.S. President's Malaria Initiative (PMI) 
has engaged closely with the Global Fund to Fight AIDS, Tuberculosis, 
and Malaria to ensure a coordinated, country-level response to malaria, 
including by supporting National Malaria-Control Programs. PMI's in-
country staff participate in the development of Global Fund Concept 
Notes, national strategic plans, and programmatic evaluations, and the 
Global Fund's Portfolio Managers participate in PMI's operational 
planning. Furthermore, PMI and the Global Fund have made significant 
commitments to accelerate collaboration around the collection, 
analysis, and sharing of malaria-related data; the procurement, 
delivery, and tracking of anti-malaria drugs and commodities; and the 
monitoring of global resistance to anti-malarial drugs and 
insecticides.
    Since the inception of the Global Fund, USAID's Tuberculosis (TB) 
Program has engaged closely with the Global Fund to ensure a 
coordinated, country-level response to TB to achieve the strategic 
goals in our priority countries and maximize quantifiable impact. Staff 
from USAID's TB Program provide technical expertise in the development 
of the national strategic plans, programmatic evaluations, and 
epidemiological assessments that are the basis for Global Fund Concept 
Notes. Our staff also participate in the development of Global Fund 
Concept Notes at the country level, and in many of the Global Fund's 
working groups at the global level. Staff from USAID's TB Program 
monitor the implementation of the Global Fund's TB and TB/HIV grants to 
identify challenges and resolve bottlenecks in a timely fashion, 
including by deploying long- and short-term technical-assistance 
resources efficiently and effectively.
    If confirmed, I commit to ensuring the continuation of this 
collaboration between USAID and the Global Fund.

    Question. The impact of HIV/AIDS, TB, and malaria on vulnerable 
populations such as adolescent girls and young women is significant. 
Every week, roughly 6,200 young women aged 15-24 years become infected 
with HIV. In addition to being a global health epidemic, TB is also a 
women's issue, due to the complications that can arise when a woman 
contracts TB. Pregnant women and children under age 5 are most at risk 
for malaria due their weaker immune systems.

   Can you speak to how you would prioritize addressing the health 
        needs of adolescent girls and young women as it relates to TB, 
        HIV and Malaria?

    Answer. Adolescence establishes life-long health behaviors, which 
makes it a pivotal time in development. If confirmed, I will work to 
ensure that the programming for young people funded by the U.S. Agency 
for International Development (USAID) strengthens a ``three 
generation'' approach that recognizes the critical roles of not only 
adolescents, but also caring family, faith, and community leaders, 
while preparing them for future careers and families. This holistic 
Positive Youth Development approach promotes access to high-quality, 
age- and content-appropriate health information, skills and care so 
they live full, productive lives as individuals and in community.
    USAID's programming responds to the needs of those most at risk for 
tuberculosis (TB) by strengthening prevention programs and ensuring the 
success of TB-treatment initiatives--including for children and 
adolescents. USAID focuses on a person-centered approach to improve 
access to high-quality TB care and efforts to increase the correct 
detection of all TB cases, especially ones that are resistant to first-
line therapies.
    USAID implements the Determined, Resilient, Empowered, AIDS-Free, 
Mentored, and Safe (DREAMS) program of the President's Emergency Plan 
for AIDS Relief (PEPFAR), a public-private partnership aimed at 
addressing the disproportionately high risk adolescent girls and young 
women in sub-Saharan Africa have of acquiring HIV. DREAMS has reduced 
HIV diagnoses among adolescent girls and young women by over 25 percent 
in the majority of its intervention regions; 85 percent of these 
regions showed additional declines in 2018. Implemented in 15 
countries. DREAMS interventions align with USAID's whole-of-girl 
approach. DREAMS provide a layered package of care and support to an 
adolescent girl or young woman based on her age and vulnerability to 
HIV infection, which can include educational assistance, access to HIV 
testing, and safe spaces with mentor-led sessions on the prevention of 
HIV and sexual violence.
    Given the dangers and the subsequent risks to families and 
communities when a woman/mother is ill with malaria, USAID, through the 
President's Malaria Initiative, prioritizes the prevention of malaria 
during pregnancy. Key interventions include the provision of a long-
lasting insecticide treated bed net at a pregnant woman's first 
prenatal-care visit; monthly preventive treatment during pregnancy, 
starting early in the second trimester and continuing until delivery; 
and prompt diagnosis and effective treatment for cases of malaria in 
pregnancy.
    If confirmed, I will continue to prioritize these critical programs 
in TB, HIV, and malaria, as well as to address the health needs of 
adolescent girls and young women in all USAID's global-health 
programming.

    Question. I was disappointed to see the administration propose an 
over 60% cut to international family planning and reproductive health 
in this year's budget request. The budget justification also deletes 
references to the role of family planning in preventing unintended 
pregnancy and ``enhanc[ing] the ability of couples to decide the 
number, timing, and spacing of births'' and ``reducing abortion.''

   Do you think that providing women the tools and information they 
        need to prevent unintended pregnancies is a worthy public 
   Can you assure this committee that under your leadership as 
        Assistant Administrator for the Bureau of Global Health, U.S. 
        funded programs will continue to support and supply a full 
        range of modern contraceptive methods in order to ensure that 
        women have access to the information, counseling, and methods 
        best suited to their needs?

    Answer. As the world's largest bilateral donor of family planning 
assistance, the United States remains committed to helping women and 
their children thrive. Preventing child and maternal deaths remains a 
priority for this administration. Access to voluntary family planning 
is a key intervention for achieving the healthy timing and spacing of 
pregnancy, preventing child and maternal deaths, and for helping 
communities progress along the Journey to Self-Reliance.
    We know that women need access to a range of contraceptive options 
over their reproductive years as their fertility intentions change over 
time. We serve women and men best when we provide them with access to a 
range of modern contraceptive options--from fertility-awareness 
methods, to short- and long-acting reversible methods, to voluntary 
permanent methods--as well as to high-quality counseling so women and 
their partners can make their own informed choices. We are also 
committed to supporting the development, introduction, and scale-up of 
a wide range of contraceptive methods to meet the needs of women and 
couples for voluntary family-planning to promote the healthy timing and 
spacing of pregnancy.
    If confirmed, I will continue to support a full range of modern 
contraceptive methods to ensure that women and couples have access to 
the information, counseling, and methods best suited to their needs.

    Question. Women's access to health care, including sexual and 
reproductive health care like modern contraceptives, plays a 
significant role in their ability to advance their education, 
participate in the economy and support their families and communities. 
We know ensuring that women can utilize the modern contraception that 
they want would dramatically reduce maternal and newborn deaths--when 
women are able to space their pregnancies at least three years apart, 
they are more likely to survive pregnancy and childbirth and their 
children are more than twice as likely to survive infancy. Can you 
speak to how you will work in this post to promote access to 
comprehensive reproductive health care, including the full range of 
safe and effective family planning methods?

    Answer. I agree that access to health care, including sexual and 
reproductive health care like modern contraceptives, plays a 
significant role in the ability of women to advance their education, 
participate in the economy, and support their families and communities. 
As the world's largest bilateral donor of voluntary family-planning 
assistance, the United States remains committed to helping women and 
their children thrive.
    Access to voluntary family planning is a key intervention for 
achieving the healthy timing and spacing of pregnancy, preventing child 
and maternal deaths, and helping communities progress along the Journey 
to Self-Reliance. We know that access to a range of contraceptive 
options over their reproductive years can help women and couples as 
their fertility intentions change over time. We serve women and men 
best when we provide them with access to a range of modern 
contraceptive options--from fertility-awareness methods, to short- and 
long-acting reversible methods, to voluntary permanent methods--and 
high-quality counseling. We are also committed to supporting the 
development, introduction, and scale-up of a wide range of 
contraceptive methods to meet the needs of women and couples for 
voluntary family planning to promote the healthy timing and spacing of 
pregnancy.
    If confirmed, I will continue to support a full range of modern 
contraceptive methods to ensure women and couples have access to the 
information, counseling, and methods best suited to their needs.

    Question. The world currently has the largest generation of young 
people ever. This presents tremendous opportunity for global 
development but also means that we have to take action to promote the 
health and well-being of adolescents and youth everywhere. Yet 
complications during pregnancy and childbirth are the leading cause of 
death for adolescent girls (ages 15-19 years). Adolescents, both 
married and unmarried, face a range of barriers to accessing 
reproductive health care including lack of knowledge, stigma, and 
health worker bias and unwillingness to acknowledge young people's 
reproductive health needs. As Assistant Administrator, how will you 
promote access to comprehensive health information and services for 
young people as a means of preventing maternal deaths?

    Answer. During adolescence, girls and boys establish life-long 
health behaviors, which makes it a pivotal time in development.
    Evidence shows that healthy timing (delaying the first pregnancy 
until a woman is at least 18 years old) and spacing (at least 24 months 
between giving birth and becoming pregnant again) are critical to 
reducing maternal mortality and morbidity among adolescents and young 
women, as well as to reducing infant mortality. In addition to 
encouraging the healthy timing and spacing of pregnancies, our work 
also focuses on preventing coercion, exploitation, and abuse; delaying 
sexual debut; avoiding sexual, substance-abuse and other risks; 
stopping female genital mutilation; reducing the acceptance of child 
marriage; and keeping girls in school. These interventions support 
girls and young women as individuals, help delay marriage, and avoid 
early pregnancy, all of which result in lower rates of maternal and 
child mortality.
    Also, the U.S. Agency for International Development (USAID) is 
currently funding a project dedicated to expanding the evidence base 
for what works in positive youth development and applying improved 
approaches across programs and sectors. Under the President's Emergency 
Plan for AIDS Relief (PEPFAR), activities include reviewing existing 
and piloting promising approaches for mentoring adolescent girls and 
young women at increased risk of HIV/AIDS, identifying life skills most 
relevant to sexual and reproductive health, preventing violence and 
other cross-sectoral youth outcomes and identifying and disseminating 
effective interventions that can increase the uptake of testing for HIV 
and create better linkages to treatment among young people. If 
confirmed, I will ensure USAID continues to support evidence-based 
health and education programs for young people, especially adolescent 
girls, under PEPFAR and USAID's other global health programs.
    If confirmed, I will also work to ensure that USAID's programming 
for young people includes the engagement of influencers who have a 
vested interest in their welfare--such as parents, grandparents, and 
religious and community leaders--so that young people can have access 
to correct, age- and context-appropriate, high-quality health 
information and care and live full, productive lives.

    Question. There is a strong push within global HIV/AIDS programs to 
fund faith-based organizations (FBO), which have been critical partners 
in the fight against HIV, but may not be best positioned to deliver 
comprehensive HIV prevention, care and treatment services to everyone 
who needs it in all settings. I understand that you've also conducted 
regular meetings with a small set of FBOs, while up until earlier this 
month have halted more open town hall meetings with a wide set of NGO 
actors engaged in maternal and child health. With scarce resources, are 
you still committed to evaluating which partners are best able to 
achieve programmatic goals and engaging with diverse civil society or 
is there an earmark and special treatment for certain types of faith-
based partners?

    Answer. The U.S. Agency for International Development (USAID) has a 
long history of engaging with a diversity of partners, including small 
businesses and civil-society, non-governmental, and faith-based 
organizations. Diversifying USAID's partner base to reflect today's 
expanded development landscape is an important component of the Journey 
to Self-Reliance, because choice and competition are key to innovation 
and resource-mobilization in development work, just as they are in the 
private-sector economy.
    USAID has no ``earmark'' for faith based organizations, and does 
not give them special treatment. If confirmed, I commit to engaging 
with a diverse set of partners to achieve our programmatic goals. If 
confirmed, I also commit to following USAID's policy guidance regarding 
assessing, evaluating and selecting potential and existing partners 
through the Agency's procurement processes. These policies help ensure 
USAID is engaging with the most-capable partners to assist us in 
implementing high-impact, sustainable programs.

    Question. The State Department stated they would complete a second 
review of the Mexico City Policy by the end of 2018, yet we are still 
waiting on that report. A new study published in Lancet found that when 
the policy was in effect between 2001-2008, abortion rates increased 
about 40% among women in countries most affected by the policy. It also 
found a symmetric reduction in the use of modern contraception while 
the policy was enacted, coinciding with an increase in pregnancies. 
This pattern of more frequent abortions (many of which are unsafe in 
the impacted countries) and lower contraceptive use was reversed after 
the policy was rescinded in 2009. What actions do you intend to take in 
light of these new research findings?

    What actions would you take as the leader of USAID's Global Health 
        priorities to address these gaps in services and how are these 
        needs being filled?
    How will you assess and evaluate these types of service disruptions 
        and inefficiencies created by switching partners?

    Answer. As the world's largest bilateral donor to global health 
programs, the United States remains committed to helping women and 
their children thrive, particularly in countries where the need is 
greatest.
    The U.S. Department of State recognized that the Six-Month Review 
of the Protecting Life in Global Health Assistance (PLGHA) Policy, 
released in February 2018, took place early in the Policy's 
implementation. As a result, the Department of State, in coordination 
with the U.S. Agency for International Development (USAID), and the 
Departments of Health and Human Services and Defense, undertook a 
subsequent review to assess the implementation of the policy, including 
any effects on the delivery of care. While I have not been involved in 
this subsequent process, I have received a briefing that USAID is 
working with our interagency colleagues to finalize the review, and we 
expect the report to be released very soon. I would refer you to the 
State Department for more information.
    It is critical that Global Health and other Family Planning donors 
and advocates continue to follow the indicators and demographic surveys 
that track access to modern contraceptive care and outcomes for women 
and children in order to assure that vulnerable populations are 
supported. Currently, and consistent with ongoing practices, USAID 
Missions monitor and track all award transitions, whether related to 
PLGHA or other changes in partners or funding, to minimize disruptions 
to recipients.
    If confirmed, I will work with GH staff and the other U.S. 
government Departments and Agencies that implement the Protecting Life 
in Global Health Assistance Policy to examine the second review of the 
implementation of the Policy to determine what adjustments we might 
have to make if disruptions in care occurred as a result of transitions 
between partners.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Peter M. Haymond by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. In each of my diplomatic assignments, and particularly in 
senior management assignments overseas, I have striven to promote 
respect for human rights and democratic values. A few examples:

  As Deputy Chief of Mission in Laos, I led the Embassy's efforts to 
        address concerns about the welfare of over 4,000 Lao Hmong who 
        were forcibly repatriated from Thailand back to Laos when they 
        sought refugee status and third country resettlement. We worked 
        with Lao and Thai officials to gain access to the site where 
        most of the Hmong had been resettled, including visits by 
        Members of Congress; then secured permission to provide U.S. 
        humanitarian assistance to the resettled community, allowing 
        periodic monitoring; and finally convinced interlocutors to 
        allow those deemed persons of concern by UNHCR to leave Laos 
        for resettlement abroad.
  As Principal Officer of our consulate in Chengdu, China, I spoke 
        frequently at universities around the five-province consulate 
        district on themes that included the universality of human 
        rights and the observed fact that China rapidly grew wealthier 
        and stronger after the extreme human rights constraints of the 
        Mao era were relaxed.
   As Deputy Chief of Mission and Charge d'Affaires in Thailand, I 
        participated in and oversaw Embassy efforts, in close 
        coordination with other likeminded diplomatic missions, to urge 
        appropriate Thai government action on specific human rights 
        cases. In most instances, that coordinated approach produced 
        positive results.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Laos? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The Lao People's Revolutionary Party remains the ultimate 
authority in this communist one-party state, and the LPRP continues to 
closely control all Lao media and political expression, including the 
formation of civil society organizations. The LPRP does not permit 
expressions of opposition to its rule. Weak institutions make Lao 
citizens vulnerable to a host of human rights abuses and many 
marginalized groups struggle to be fully included in the Lao judicial 
system. Furthermore, the United States is concerned about reports of 
disappearances, forced repatriation, and suspicious deaths of some 
political activists in Southeast Asia.

    Question. What steps will you take--if confirmed--to support 
democracy in Laos? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The administration's vision for a free and open Indo-
Pacific supports advancing democratic values, good governance, and 
respect for human rights. Our sustained engagement with and support for 
Laos, including increased senior official visits in recent years, has 
engendered greater trust and enabled progress on these priorities. If 
confirmed, I will work together with like-minded partners continue to 
engage the Lao government, including engaging with the emerging reform-
minded leaders, to promote transparency, democratic values, good 
governance, and respect for human rights. One challenge is that many of 
the Indochina War-veteran leaders who are still in charge of the Party 
and government first dealt with the United States in a very different 
and difficult era in our relationship, and remain suspicious of U.S. 
actions.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. The United States supports democracy, human rights, and 
fundamental freedoms in the Indo-Pacific as part of our Indo-Pacific 
Transparency Initiative, as well as around the world, as the building 
blocks of progress and the bulwarks of independence. If confirmed, I 
will work closely with interagency partners to use U.S. government 
assistance resources efficiently and effectively to support development 
of democratic values and improved governance in Laos. I would also 
continue to call on Laos to protect human rights and fundamental 
freedoms.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Laos? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and with local human rights and other NGOs in Laos. Protecting 
human rights and fundamental freedoms and advancing democratic values 
are among the highest priorities under the administration's vision for 
a free and open Indo-Pacific and, if confirmed, I will be sure those 
priorities continue to be elevated in our engagement with the Lao 
government.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. The Lao Revolutionary People's Party is the sole political 
party in Laos, but the United States continues to advocate for 
increased transparency, democratic values, good governance, and respect 
for human rights.
    If confirmed, I will work closely with Congress and interagency 
colleagues, like-minded foreign partners, the Lao government, civil 
society, and private sector partners to promote these values.

    Question. Will you and your embassy team actively engage with Laos 
on freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory or other 
measures? Will you commit to meeting regularly with independent, local 
press in Laos?

    Answer. If confirmed, I look forward to meeting with members of the 
press in Laos. Fundamental freedoms and human rights, including freedom 
of speech, are top U.S. priorities under the Indo-Pacific Transparency 
Initiative. If confirmed, I will encourage the Lao government to 
respect human rights and fundamental freedoms, including freedom of 
expression. I would work closely with Congress and interagency 
colleagues, like-minded foreign partners, the Lao government, civil 
society, and private sector partners to promote freedom of expression 
via internet or traditional media in Laos, both through U.S. 
government-sponsored programs and in engagements with members of the 
media and the Lao government.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in Laos?

    Answer. The United States takes a holistic approach to identifying, 
tracking, and countering disinformation. It is imperative that 
countries around the world continue to share information and work 
together in this effort by building collective resilience, sharing best 
practices, and imposing costs on actors that carry out disinformation 
campaigns. If confirmed, I will support U.S. efforts to counter 
disinformation, support a free and transparent news media environment, 
and to increase awareness by conducting outreach to the public, private 
industry, civil society, and academic groups.Questions for the Record 
submitted to

    Question. Will you and your embassy teams actively engage with Laos 
on the right of labor groups to organize, including for independent 
trade unions?

    Answer. The United States has long promoted internationally 
recognized labor rights with a particular focus on freedom of 
association and collective bargaining, and strengthening core labor 
standards, particularly for members of traditionally neglected groups, 
such as women, youth, and informal sector workers. Laos faces many 
challenges in seeking to ensure that the labor rights of its citizens 
who migrate to work in neighboring countries are protected, as well as 
protecting the labor rights of the increasing number of foreign workers 
entering Laos to work on large foreign investment projects. If 
confirmed, I will work closely with Congress and interagency partners 
to support protections for labor rights in Laos.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Laos, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Laos? What specifically will you commit to do to help LGBTQ people in 
Laos?

    Answer. Promoting, protecting, and advancing human rights--
including the rights of lesbian, gay, bisexual, transgender, and 
intersex (LGBTI) persons--has long been the policy of the United 
States. If confirmed, I will support U.S. policy efforts to deter 
violence against LGBTI persons, advocate against laws that criminalize 
LGBTI status or conduct, and to prevent discrimination against LGBTI 
persons, as applicable in the context of Laos.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes, if confirmed, with the understanding that any such 
response would be organized through the Department of State's Bureau of 
Legislative Affairs and conducted in accordance with long-standing 
Department and Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, if confirmed, with the understanding that any such 
appearance would be organized through the Department of State's Bureau 
of Legislative Affairs in accordance with long standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you committo report it to the Inspector 
General?

    Answer. If confirmed, I will follow all Department rules and 
regulations as to reporting waste, fraud, and abuse, including 
notifying the Department's Inspector General when appropriate.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. Not to my knowledge.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. Specific allegations of sexual harassment or discrimination 
are confidential, and in such circumstances, I have immediately 
addressed any issues raised to me in accordance with the Department of 
State's policies, including providing a witness statement to the 
Department's Office of Civil Rights. I take EEO and sexual harassment 
in the workplace seriously, and if confirmed, I will work to ensure 
that a message of zero tolerance for discrimination, harassment, and 
misconduct is affirmed from the beginning of my assignment.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree. If confirmed, I will work to prevent any 
attempts to target or retaliate against career employees on the basis 
of their perceived political beliefs, prior work on policy, or 
affiliation with a previous administration. I take allegations of such 
practices seriously and will ensure any such actions are referred to 
the Department's Inspector General.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Peter M. Haymond by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. In each of my diplomatic assignments, and particularly in 
senior management assignments overseas, I have striven to promote 
respect for human rights and democratic values. A few examples:
    As Deputy Chief of Mission in Laos, I led the Embassy's efforts to 
address concerns about the welfare of over 4,000 Lao Hmong who were 
forcibly repatriated from Thailand back to Laos when they sought 
refugee status and third country resettlement. We worked with Lao and 
Thai officials to gain access to the site where most of the Hmong had 
been resettled, including visits by Members of Congress; then secured 
permission to provide U.S. humanitarian assistance to the resettled 
community, allowing periodic monitoring; and finally convinced 
interlocutors to allow those deemed persons of concern by UNHCR to 
leave Laos for resettlement abroad.
    As Principal Officer of our consulate in Chengdu, China, I spoke 
frequently at universities around the five-province consulate district 
on themes that included the universality of human rights and the 
observed fact that China rapidly grew wealthier and stronger after the 
extreme human rights constraints of the Mao era were relaxed.
    As Deputy Chief of Mission and Charge d'Affaires in Thailand, I 
participated in and oversaw Embassy efforts, in close coordination with 
other likeminded diplomatic missions, to urge appropriate Thai 
government action on specific human rights cases. In most instances, 
that coordinated approach produced positive results.

    Question. What are the most pressing human rights issues in Laos? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Laos? What do you hope to 
accomplish through these actions?

    Answer. The United States supports transparency, democratic values, 
good governance, and respect for human rights. Human rights issues in 
Laos include include arbitrary detention, political prisoners, 
censorship, substantial interference with the rights of peaceful 
assembly and freedom of association, restrictions on political 
participation, corruption, and trafficking in persons. Senior U.S. 
representatives have consistently engaged Lao leaders at the highest 
levels, ensuring that Laos understands our priorities and recognizes 
that human rights are universal. In addition, our development 
assistance supports our goal of Laos respecting and promoting human 
rights, whether through programming to support the rule of law, basic 
education for Lao children, labor rights, or media training and access. 
The State Department has programs that support civil society capacity 
development, and USAID supports persons with disabilities, to name just 
two examples. We are engaged with Lao youth via Facebook and our YSEALI 
programs. There is very active participation by Lao people in our 
programs at the American Center in Vientiane, which expose the Lao to 
English language, education opportunities in the United States, and 
American culture and values.
    If confirmed, I will work closely with Congress and interagency 
colleagues, like-minded foreign partners, the Lao government, civil 
society, and private sector partners to promote these values.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Laos in advancing 
human rights, civil society and democracy in general?

    Answer. The Lao People's Revolutionary Party remains the ultimate 
authority in this communist one-party state, and the LPRP continues to 
closely control all Lao media and political expression, including the 
formation of civil society organizations. The LPRP permits no public 
expression of opposition to its rule. Furthermore, the United States is 
concerned about reports of disappearances, forced repatriation, and 
suspicious deaths of some political activists in Southeast Asia.
    The administration's vision for a free and open Indo-Pacific, and 
specifically the Indo-Pacific Transparency Initiative, supports 
advancing democratic values, good governance, and respect for human 
rights. Our sustained engagement with and support for Laos, including 
increased senior official visits in recent years, has engendered 
greater trust and enabled progress on these priorities. If confirmed, 
together, with like-minded partners, I will engage the Lao government, 
including engaging with the emerging reform-minded leaders, to promote 
these priorities.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Laos? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. If confirmed, I look forward to meeting with human rights, 
civil society, and other non-governmental organizations in the United 
States and with embassies of like-minded nations, and with local NGOs 
and civil society organizations that promote human rights in Laos. I 
would ensure my embassy team continues to adhere to and enforce the 
Leahy Law so that U.S. security assistance reinforces human rights. 
Protecting human rights and fundamental freedoms and advancing 
democratic values are among our highest priorities under our vision for 
a free and open Indo-Pacific.

    Question. Will you and your embassy team actively engage with Laos 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Laos?

    Answer. The United States supports transparency, democratic values, 
good governance, and respect for human rights. If confirmed, I will 
work with Congress and interagency colleagues, like-minded foreign 
partners, and civil society to promote these values with the Lao 
government.

    Question. Will you engage with Laos on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. The United States supports transparency, democratic values, 
good governance, and respect for human rights. Senior U.S. 
representatives have engaged Lao leaders at the highest levels, 
ensuring that Laos understands our priorities and recognizes that human 
rights are universal. In addition, our development assistance supports 
our goal of Laos respecting and promoting human rights, whether through 
programming to support the rule of law, basic education for Lao 
children, labor rights, or media training and access. The State 
Department has programs that support civil society capacity 
development, and USAID supports persons with disabilities, to name just 
two examples. We are engaged with Lao youth via Facebook and our YSEALI 
programs. There is strong participation among Lao people for our 
programs at the American Center in Vientiane, which expose the Lao to 
English language, education opportunities in the United States, and 
American culture and values.
    If confirmed, I will work closely with Congress and interagency 
colleagues, like-minded foreign partners, the Lao government, civil 
society, and private sector partners to promote these values.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Laos?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. My investment 
portfolio also includes a sector fund, which may hold interests in 
companies with a presence overseas, but its value is currently below 
the de minimis exemption level. I am committed to ensuring that my 
official actions will not give rise to a conflict of interest. I will 
divest any investments the State Department Ethics Office deems 
necessary to avoid a conflict of interest. I will remain vigilant with 
regard to my ethics obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will direct my senior staff to join me in 
mentoring and supporting more junior staff, certainly including staff 
that come from diverse backgrounds and underrepresented groups in the 
Foreign Service. This will include access to leadership training both 
at post and in Washington, and regular opportunities for consultation 
and counseling on career decisions and progression.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will make clear to each of the supervisors 
at the Embassy that I expect them all to foster a diverse and inclusive 
environment, and that regular performance evaluations will reflect that 
expectation. I will hold myself to the same standard.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Laos 
specifically?

    Answer. The United States supports transparency, democratic values, 
good governance, and respect for human rights. The Indo-Pacific 
Transparency Initiative prioritizes anticorruption and fiscal 
transparency as one of its five key program areas precisely because 
corruption negatively impacts democratic governance and the rule of 
law. The Lao People's Revolutionary Party remains the ultimate 
authority in this communist one-party state, and the LPRP continues to 
closely control all Lao media and political expression, including the 
formation of civil society organizations.
    If confirmed, I will work closely with Congress and interagency 
colleagues, like-minded foreign partners, the Lao government, civil 
society, and private sector partners to promote transparency, 
democratic values, good governance, and respect for human rights.

    Question. What is your assessment of corruption trends in Laos and 
efforts to address and reduce it by that government?

    Answer. The United States supports transparency, democratic values, 
good governance, and respect for human rights. The Lao government is 
grappling with cases of official corruption that have helped enable 
other crimes. Prime Minister Thongloun Sisoulit has made fighting 
corruption a key theme of his government and his anti-corruption 
campaign has shown positive results, including increased investigations 
and prosecutions where appropriate.
    Senior USG representatives have engaged Lao leaders at the highest 
levels on good governance issues, ensuring that Laos understands our 
priorities.
    If confirmed, I will work closely with Congress and interagency 
colleagues, like-minded foreign partners, the Lao government, civil 
society, and private sector partners to promote anti-corruption 
efforts.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Laos?

    Answer. The administration's vision for a free and open Indo-
Pacific supports advancing transparency, democratic values, good 
governance, and respect for human rights. Our sustained engagement with 
and support for Laos, including increased senior official visits in 
recent years, has engendered greater trust and enabled progress on 
these priorities. Our USAID development assistance and International 
Narcotics and Law Enforcement Bureau (INL) assistance both include 
programming to strengthen good governance, including the transparency 
that hampers corrupt acts. If confirmed, I will engage the Lao 
government to promote transparency, democratic values, good governance, 
and respect for human rights.

    Question. What role does Laos play in the Trump administration's 
pursuit of a Free and Open Indo-Pacific?

    Answer. Laos is a member of the 10-nation Association of Southeast 
Asian Nations, or ASEAN. The administration's vision for a free and 
open Indo-Pacific has ASEAN at its core. Laos is the geographic 
connective tissue of Mainland Southeast Asia, sharing over 3,000 miles 
of land borders with China and four other ASEAN countries, including 
sub-regional leaders Thailand and Vietnam. More of the strategic Mekong 
River flows through and along Laos than through any other Southeast 
Asian nation. Laos is also one of the weakest countries in ASEAN 
economically, making it potentially more vulnerable to external 
pressure.
    Our sustained engagement with and support for Laos, including 
increased senior official visits in recent years, has engendered 
greater trust and enabled progress on U.S. strategic priorities. 
Together, with like-minded partners, we are seeking a Laos that is more 
prosperous and better governed, protecting and promoting the human 
rights of those in Laos; we are engaging with emerging reform-minded 
leaders; and we are encouraging Laos to maintain its sovereignty and be 
a constructive member of the rules-based international order.

    Question. How do U.S.-Laos relations fit into broader U.S. 
diplomatic, economic, and security interests in the region?

    Answer. The Mekong region is strategically important to the United 
States, a focal point of our Indo-Pacific Strategy, and integral to our 
engagement with ASEAN as a whole. The People's Republic of China (PRC) 
is increasingly encroaching on the Mekong River through cross-border 
riverine patrols and investment in joint Special Economic Zones (SEZs) 
along the river, including the Golden Triangle SEZ, home of the King's 
Roman Casino, which was designated as a Transnational Criminal 
Organization by the U.S. Department of Treasury. Additionally, the PRC 
is building dams upstream that affect the water and sediment flow, with 
serious implications for livelihoods downstream.
    Although China is Laos' biggest investor and one of its closest 
partner, Laos is proud of its own unique history, culture and 
independence and does not want to become equivalent to another province 
of the PRC. Consequently, Laos seeks to balance China against neighbors 
Vietnam and Thailand, newer friends like Japan and Korea, the U.S. and, 
most importantly, ASEAN.
    If confirmed, I will support regional initiatives and new areas of 
cooperation with Laos and like-minded partners to help Mekong countries 
preserve their sovereignty.

    Question. Given extensive Chinese investment in the country and 
perceptions that Laos is one of the ASEAN nations closest to Beijing, 
what productive roles do you see for Laos in regional diplomacy?

    Answer. Although China is Laos' biggest investor and one of its 
closest partners, Laos is proud of its own unique history, culture, and 
independence, and does not want to become dependent on a single 
country. Consequently, Laos seeks to balance its relationships within 
the region. Thus, when Laos served as ASEAN Chair and now as the U.S. 
ASEAN country coordinator, Laos has acted responsibly in seeking 
consensus with ASEAN countries on issues like the South China Sea.

    Question. How would you as Ambassador encourage Laos to pursue such 
roles?

    Answer. If confirmed, I will support regional initiatives and seek 
new areas of cooperation with Laos and like-minded partners that can 
help Mekong countries preserve their sovereignty.

    Question. Does U.S. assistance help with the creation of greater 
space for civil society and respect for human rights in Laos?

    Answer. The administration's vision for a free and open Indo-
Pacific supports advancing transparency, democratic values, good 
governance, and respect for human rights. Our sustained engagement with 
and support for Laos, including increased senior official visits in 
recent years, has engendered greater trust and enabled progress. Our 
assistance programs regularly engage civil society and encourage 
greater respect for human rights. If confirmed, I will engage the Lao 
government, including engaging with the emerging reform-minded leaders, 
to promote these priorities.

    Question. Can aid be used as leverage with the Laos government?

    Answer. The purpose of foreign assistance is to advance U.S. 
national security and development objectives through evidence-informed 
decision-making as represented by the Integrated Country Strategy, East 
Asian and Pacific Bureau, and government-wide plans. If confirmed, I 
will support the administration's efforts through the free and open 
Indo-Pacific Strategy, including through the Indo-Pacific Transparency 
Initiative, to provide foreign assistance that promotes transparency, 
democratic values, good governance, and respect for human rights.

    Question. Would progress in economic development help move the 
country to a more open political system?

    Answer. The Indo-Pacific Strategy is built on principles that are 
widely shared throughout the region: ensuring the freedom of the seas 
and skies; insulating sovereign nations from external pressure; 
promoting market-based economics, open investment environments, and 
fair and reciprocal trade; and supporting good governance and respect 
for human rights. The synergy among these values and policies have 
helped this region grow and thrive. If confirmed, I will engage the Lao 
government to promote these principles.

    Question. What is your assessment of U.S. assistance to the UXO 
sector? What funding gaps have been addressed in recent years and what 
gaps still remain?

    Answer. The United States has contributed $200 million towards 
unexploded ordnance (UXO) removal efforts since 1995 and is currently 
the number one donor in this sector. The Lao government has committed 
as part of its strategic development goals to eliminate UXO as a 
barrier to national development by 2030--the United States supports 
that goal and believes it is achievable. If confirmed, I will firmly 
support the administration's efforts in the UXO sector.

    Question. How can the U.S. support Laos' efforts to counter human 
trafficking?

    Answer. Last year Laos made significant progress to combat human 
trafficking. In 2018, the Lao government provided restitution to 
trafficking victims through its criminal justice process; provided 
direct services to male victims for the first time, addressing a key 
shortcoming; issued a decree establishing anti-trafficking steering 
committees throughout the country; and increased local training and 
awareness-raising activities. But there is still much work to be done 
in order to build off this momentum. USAID includes Laos in a current 
regional assistance program countering human trafficking; the 
Department of State INL Bureau's support of law enforcement capacity 
building will also help Laos better control traditional human 
trafficking routes; and the TIP Office helps provide support services 
to victims of trafficking in Laos. If confirmed, I will engage the Lao 
government and civil society to promote further progress on protecting 
its country's most vulnerable people.

    Question. What multilateral solutions might help, given that much 
of Laos' trafficking problems involve victims trafficked to other 
countries?

    Answer. The Lao government grapples with the many challenges of 
transnational crime, including trafficking of narcotics and wildlife; 
human trafficking; money laundering; and cases of official corruption 
that have helped enable the other crimes. To fight human trafficking, 
Laos last year took notable new steps that are detailed in the 
Trafficking in Persons Report, though there is still significant room 
for improvement. USAID's counter human trafficking regional program is 
aimed at helping to address the transnational aspects of this problem, 
as is our regional cooperation with UNODC and UNDP. If confirmed, I 
will actively work with the Lao in their efforts to work with their 
neighbors to more effectively fight transnational crime, including 
human trafficking.

    Question. How does Laos fit into U.S. goals under the Lower Mekong 
Initiative?

    Answer. Laos is the geographic connective tissue of Mainland 
Southeast Asia, sharing over 3,000 miles of land borders with China and 
four other ASEAN countries, including sub-regional leaders Thailand and 
Vietnam. Since its launch in 2009, the Secretary of State has met 
annually with Mekong country counterparts through the Lower Mekong 
Initiative (LMI). Over the past decade, LMI programs have built the 
human capital of Mekong countries to better address transboundary 
challenges on water security, smart hydropower, energy and 
infrastructure planning, and STEM education. LMI projects have 
delivered tangible improvements to the lives of the people of the 
Mekong region, including in Laos. If confirmed, I will support the LMI 
and other regional initiatives that improve the lives of the Lao and 
advance U.S. strategic priorities.

    Question. What impact do you see from the country's plans to 
construct two large-scale dams along the Mekong River?

    Answer. Laos' considerable hydropower resources are a significant 
driver of the country's economic development and a key source of 
electricity for the region. But they also create considerable 
challenges in both Laos and the broader Mekong region as they are 
developed, particularly when environmental concerns and downstream 
water security impacts are not adequately taken into consideration. 
Recent droughts and unpredictable flooding underscore the hazards 
facing this predominantly agrarian country as it continues to rapidly 
develop its hydropower resources. The collapse of a dam in Attapeu 
Province last year that killed dozens and displaced thousands shows the 
peril of developing these resources without proper management and 
oversight. If confirmed, I would encourage the government to consider 
environmental concerns and take steps to mitigate them during the 
design process, including coordinating with the Lower Mekong Initiative 
and other USG activities to empower decision makers to incorporate 
sustainability and other factors into their planning.

    Question. How can the United States help mitigate the negative 
environmental impacts from these projects?

    Answer. he United States has provided assistance to the Lao 
government to help shape the country's hydropower sector. USAID 
continues its long-term support for the Lao power sector with a focus 
on alternative energy technologies, such as solar, that would reduce 
the need for large, high-impact hydropower projects. USG programs like 
Clean Power Asia and Asia EDGE could help unlock opportunities for 
these advanced energy technologies in Laos, reducing environmental 
impacts of energy development while resulting in opportunities for 
American investors, exporters, and service providers. This assistance 
supports our efforts to create open, efficient, rule-based, and 
transparent energy markets where environmental impacts are taken into 
consideration.
    Furthermore, following the collapse last year of a hydropower dam 
in southern Laos' Attapeu Province that killed dozens and displacing 
thousands, USAID's Office of Foreign Disaster Assistance provided 
immediate support, contributing $200,000 to the recovery effort. The 
U.S. Army Corps of Engineers also is participating, in an advisory and 
liaison capacity, in a safety review of existing and under construction 
dam projects, helping to promote transparency and high standards in the 
hydropower sector that will contribute to a better-regulated, better-
managed power sector. If confirmed, I will support efforts like these 
to promote transparency and infrastructure projects that utilize high 
standards.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Alina L. Romanowski by Senator Robert Menendez

Trafficking and Labor
    Question. Kuwait has made notable improvements in trafficking and 
labor in recent years, moving from Tier 3 to Tier 2 on the State 
Department's annual Trafficking in Persons report between 2015 and 
2019. Nevertheless, challenges remain. Kuwait has been consistently 
slow to criminally prosecute offenders while not regularly using 
standard procedures to proactively identify victims and continuing to 
detain, prosecute, and deport trafficking victims, including those 
fleeing forced labor.

   What steps will you take to press the Kuwaiti government to 
        criminally prosecute traffickers and ensure that victims are 
        identified and treated in a way that meets international 
        standards?

    Answer. Our Embassy engages the government of Kuwait on this issue, 
and the upgrade to a Tier 2 ranking reflects an increased, significant 
effort by the Kuwaiti government to meet minimum standards for the 
elimination of trafficking in persons.
    The Kuwaiti government demonstrated its commitment to this issue by 
deploying a specialized trafficking unit housed in the Public 
Prosecutor's Office to initiate more criminal investigations and more 
prosecutions under the anti-trafficking law. The Kuwaiti government 
referred significantly more potential trafficking victims for 
protective services, operationalized its central recruitment agency to 
hire and better safeguard the rights of hundreds of domestic workers, 
and increased enforcement of its domestic worker law.
    Still, the government needs to do a better job of using a formal 
criminal court process to prosecute offenders with stringent sentences 
under the anti-trafficking law vice administrative proceedings, and 
identify potential victims among vulnerable migrant worker populations. 
Kuwait has made positive steps on this issue, and, if am confirmed, I 
will work to ensure the government of Kuwait keeps improving these 
efforts and continues implementing its TIP plan.

    Question. I was heartened by the recent news that Qatar will 
quickly move to phase out its Kefalah system, which is prevalent 
throughout the region and provides the regulatory framework for a 
number of trafficking and labor abuses. How deeply entrenched is the 
Kefalah system in Kuwait? What is the likelihood of phasing it out 
there and what steps will you take to that end?

    Answer. The Kefalah system of sponsorship still exists in Kuwait. 
Reforming this system of employment is one of our key goals for Kuwait 
in fighting trafficking in persons. Workers should be able to change 
employers and leave the country without employer approval, and the 
government should not prosecute workers who flee employment. If 
confirmed, reforming this system will be a top priority for the 
Embassy.

Non-Proliferation
    Question. Kuwait is potentially caught in the middle of a regional 
arms race with Iran scaling back compliance with the JCPOA and Saudi 
Arabia showing sustained interest in developing nuclear power with few 
or any safeguards against weaponization.

   How concerned is the Kuwaiti government about this issue? What is 
        the potential for them to engage positively on the issue and 
        what steps must the U.S. take to secure that engagement?

    Answer. Kuwait, like other U.S. partners in the Gulf, is very 
concerned about the destabilizing activity of Iran in the region. Like 
the United States, Kuwait does not seek a military confrontation with 
Iran. When Iran is ready to come back to the negotiating table, we 
believe Kuwait can play a positive role on this issue.

Gulf Rift
    Question. Kuwait has played a positive role in trying to mediate 
the GCC rift between Saudi Arabia and Qatar. Is there room for more 
Kuwaiti engagement and, if so, what should that engagement be? What 
steps will you take to promote that engagement?

    Answer. Kuwait has been an early and consistent mediator following 
the June 2017 rift between Qatar and Saudi Arabia, the UAE, Bahrain, 
and Egypt. Kuwait wants to see the rift settled as quickly as possible. 
The Amir has made numerous attempts to bring the parties together to 
reach a settlement. The United States has consistently supported these 
efforts. If confirmed, I will continue to work with the Kuwait 
leadership on this issue.

Democracy
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been core 
focal points throughout my career, and if confirmed, I will continue to 
advocate passionately for these issues in Kuwait. I have been directly 
involved in overseeing, developing, and implementing U.S. foreign 
assistance programs to support human rights and advance democracy in 
regions of the world where these issues are under attack every day and 
I have advocated that our foreign policy include respect for human 
rights, fundamental freedoms, and the rule of law. Some of my most 
meaningful achievements have included the following initiatives:

  While in the Bureau of Educational and Cultural Affairs, I led a 
        team that launched the State Department's most dynamic women's 
        empowerment program--The Fortune/U.S. Department of State 
        Global Women's Mentoring Partnership. This public-private 
        partnership with Fortune magazine and Vital Voices brings 
        accomplished women leaders to the United States to enhance 
        their leadership skills through training and a two-week 
        mentorship with top Fortune 500 female executives across the 
        United States. Now in its 14th year, this program has over 300 
        alumni from 56 countries and territories. I was also a member 
        of the team that launched the first-ever annual International 
        Women of Courage Awards sponsored by the Department of State- 
        also a program that I'm proud to say, continues today, honoring 
        women around the globe who have exemplified exceptional courage 
        and leadership in advocating for human rights, women's 
        equality, and social progress, often at great personal risk. 
        This is the only Department of State award that exclusively 
        pays tribute to emerging women leaders worldwide.

  I feel strongly that counterterrorism efforts must include and 
        adhere to fundamental human rights, respect for democratic 
        principles, and must be conducted within the rule of law. For 
        example, under my oversight in the Counterterrorism Bureau, I 
        advocated that the draft of UNSCR 2396 must include the 
        reaffirmation by Member States that any measures taken to 
        counter terrorism comply with international human rights law, 
        international refugee law, and international humanitarian law. 
        The resolution underscores that respect for human rights, 
        fundamental freedoms, and the rule of law are an essential part 
        of any successful counterterrorism effort.

   During my tenure at the U.S. Agency for International Development, 
        I was committed to helping the Middle East region build 
        participatory democracies, improve transparent and accountable 
        governments, engage civil society, youth, minorities, and women 
        on key issues such as improving human rights and increasing 
        political participation. For example, we assisted thousands of 
        women in rural Egyptian governorates to exercise their 
        political and economic rights, including helping 48,000 women 
        receive government IDs. In Libya, we worked to ensure that 
        minority groups were included in the drafting the constitution. 
        Similarly, I led an initiative in Yemen that helped minority 
        ethnic and religious groups, youth, and women weigh in on what 
        we hoped would be the future of their country through 
        contributing to the National Dialogue Conference. In Tunisia, 
        we worked with civil society and the government to foster a 
        consultation process that led to the implementation of some of 
        the most progressive NGO laws in the region and became a model 
        for throughout the region.

   To address the crisis in Syria as millions of refugees initially 
        poured into neighboring countries, I helped set new priorities 
        for development assistance programs at USAID. Our programs 
        responded to the needs of the most vulnerable in all 14 Syrian 
        governorates and Syrian refugees in five neighboring countries-
        --Jordan, Lebanon, Turkey, Iraq, and Egypt. The programs I 
        designed and oversaw provided over $75 million in assistance to 
        help the Syrian Opposition Coalition, local councils, and 
        others provide essential services to their communities, improve 
        governance and women`s participation, and enhance the 
        credibility of moderate voices in Syria. Jordan, in particular, 
        faced the largest number of Syrian refugees not just flowing 
        into refugee camps, but also into Jordanian host communities. I 
        helped address those tremendous challenges by launching a new 
        package of assistance, including an additional $300 million in 
        direct budget support and a $1.25 billion loan guarantee. As a 
        result, for example, Jordanian communities were able to 
        alleviate increased demand for services, including through 
        hospital renovations, water infrastructure repair and 
        maintenance, and fast -track the expansion of 20 schools and 
        train additional teachers. These community engagement projects 
        helped Jordanian communities alleviate tensions by prompting 
        dialogue and addressing stressors.

  As Coordinator for U.S. Assistance to Europe, Eurasia, and Central 
        Asia, I oversaw the implementation of over $200 million in 
        democracy programs, aimed at empowering citizens to engage with 
        their governments, whether through civil society, independent 
        media, the justice sector, or political activism. We proudly 
        initiated programs that supported civil society and independent 
        media to shine a light on democratic and good governance 
        challenges in the Balkans, such as NGO monitoring of public 
        spending and fact-checking; countering democratic backsliding; 
        and supporting brave activists, journalist, and ordinary 
        citizens to hold governments accountable to their international 
        obligations and live up to democratic principles often 
        enshrined in their constitutions. We built on the anti-
        corruption initiative, steering new assistance programs to help 
        civil society organizations use innovative technology tools to 
        counter corruption and advance transparency in the region.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Kuwait? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Kuwait has an elected parliament, women vote and run for 
office, and there is lively press and public debate, including a strong 
tradition of freedom of political speech.
    However, as detailed in our annual Human Rights, International 
Religious Freedom and Trafficking in Persons reports, we do have 
concerns over human rights in Kuwait. Like other states in the region, 
Kuwait has placed limits on freedom of expression, including 
prosecuting social media users, internet site blocking and the 
criminalization of libel. Allegations of torture, abuse of migrant 
laborers and interference with the rights of peaceful assembly and 
association remain concerning.
    We discuss these issues openly and frankly with our partners in 
Kuwait. If confirmed, I will continue to raise our concerns at the most 
senior levels of the Kuwaiti government in the spirit of strengthening 
and advancing our relationship in the context of U.S. values.

    Question. What steps will you take--if confirmed--to support 
democracy in Kuwait? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Kuwait's elected parliament has real responsibility within 
Kuwait's government. We must recognize this accomplishment, while at 
the same time encouraging them to increase the participation of women 
and minorities toward realizing a fuller democracy.
    Still, if confirmed, I will make clear that the United States 
remains concerned about allegations of torture, arbitrary detention, 
arrest of political prisoners, interference with privacy, restrictions 
on free expression and other human rights abuses that run counter to 
U.S. values.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I plan to leverage U.S. foreign assistance, 
along with other tools available to the U.S. government, to advance our 
foreign policy goals ?and national security interests, including 
through support for democracy and governance. I will continue to ensure 
that U.S. foreign assistance resources and programs support civil 
society organizations, promote inclusive participatory governance, and 
further respect for human rights.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Kuwait? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I am committed to meeting with human rights, 
civil society, and other non-governmental organizations both in the 
United States and in Kuwait. I will ensure that the Embassy complies 
with all obligations under the Leahy Law, and that U.S. security 
assistance and security cooperation reinforces the respect for human 
rights.If confirmed, I will continue to raise human rights concerns at 
the most senior levels of the Kuwaiti government in the spirit of 
strengthening and advancing our relationship in the context of U.S. 
values.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I am committed to meet with the full range of 
Kuwaiti society, including those working on strengthening democracy in 
Kuwait. It has genuine political competition, and its parliament 
represents many different Kuwaiti viewpoints. Still, Kuwait can do more 
to encourage the participation of women, minorities, and youth in 
decision-making and consultation, and my team at the Embassy will work 
with these groups to identify opportunities for greater inclusion in 
the Kuwaiti government.

    Question. Will you and your embassy team actively engage with 
Kuwait on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Kuwait?

    Answer. If confirmed as Ambassador, I will engage with the Kuwaiti 
government on freedom of the press and other restrictions on free 
expression. I will meet regularly with the full range of Kuwaiti 
society, including independent journalists and local press.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, my embassy team and I will engage with a 
diverse cross-section of Kuwaiti society, including government 
counterparts, on freedom of thought and expression, as well as the 
importance and value of a free and open press.

    Question. Will you and your embassy teams actively engage with 
Kuwait on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Kuwaiti law protects the right of Kuwaiti workers to form 
and join trade unions, bargain collectively, and conduct legal strikes, 
with significant restrictions, although the government did not always 
respect these rights. If confirmed, I will underscore to Kuwaiti 
leadership that the United States is a strong advocate for the human 
rights of workers across the globe, and evaluates each country's labor 
rights in our annual Human Rights Report.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Kuwait, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Kuwait? What specifically will you commit to do to help LGBTQ people in 
Kuwait?

    Answer. If confirmed, I pledge to support and defend the rights of 
LGBTQ Kuwaitis and expatriates, particularly their right to freedom 
from harassment and abuse. In Kuwait, consensual same-sex sexual 
conduct between men can be punished with imprisonment and LGBTQ persons 
have reported stigmatization, harassment, and abuse. The United States 
must stand for the human rights of all LGBTQ persons, and if I am 
confirmed I will make our position clear to the Kuwaiti leadership.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs in accordance with long standing Department and Executive 
Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you committo report it to the Inspector 
General?

    Answer. Yes. I will follow all Department rules and regulations as 
to reporting waste, fraud, and abuse, including notifying the 
Department's Inspector General when appropriate.
Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take all allegations of sexual harassment, 
discrimination, or inappropriate conduct in the workplace extremely 
seriously. Throughout my career, I have indicated clearly to all those 
around me that I have zero tolerance for such behavior. Any time 
allegations of this behavior have been raised to me, I have provided 
the proper guidance and ensured that employees had all the necessary 
information available to them regarding the appropriate channels within 
the organization to address their concerns. In addition, I have ensured 
that bureau employees take all mandatory training on sexual harassment, 
discrimination, and inappropriate behavior in the workplace. While 
advancing in my career, I have cultivated and maintained relationships, 
and am also a mentor to employees outside my direct supervision and 
ensure they too have the resources they need should any situation 
arise.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree that targeting or retaliation against career 
employees for these reasons is wholly inappropriate. If confirmed, I 
will ensure that all employees under my leadership understand their 
legal protections, and that prohibited personnel practices will not be 
tolerated.

                               __________


       Responses to Additional Questions for the Record Submitted
          to Alina L. Romanowski by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. The promotion of human rights and democracy has been core 
focal points throughout my career, and if confirmed, I will continue to 
advocate passionately for these issues in Kuwait. I have been directly 
involved in overseeing, developing, and implementing U.S. foreign 
assistance programs to support human rights and advance democracy in 
regions of the world where these issues are under attack every day and 
I have advocated that our foreign policy include respect for human 
rights, fundamental freedoms, and the rule of law. Some of my most 
meaningful achievements have included the following initiatives:

  While in the Bureau of Educational and Cultural Affairs, I led a 
        team that launched the State Department's most dynamic women's 
        empowerment program--The Fortune/U.S. Department of State 
        Global Women's Mentoring Partnership. This public-private 
        partnership with Fortune magazine and Vital Voices brings 
        accomplished women leaders to the United States to enhance 
        their leadership skills through training and a two-week 
        mentorship with top Fortune 500 female executives across the 
        United States. Now in its 14th year, this program has over 300 
        alumni from 56 countries and territories. I was also a member 
        of the team that launched the first-ever annual International 
        Women of Courage Awards sponsored by the Department of State- 
        also a program that I'm proud to say, continues today, honoring 
        women around the globe who have exemplified exceptional courage 
        and leadership in advocating for human rights, women's 
        equality, and social progress, often at great personal risk. 
        This is the only Department of State award that exclusively 
        pays tribute to emerging women leaders worldwide.

 I feel strongly that counterterrorism efforts must include and 
        adhere to fundamental human rights, respect for democratic 
        principles, and must be conducted within the rule of law. For 
        example, under my oversight in the Counterterrorism Bureau, I 
        advocated that the draft of UNSCR 2396 must include the 
        reaffirmation by Member States that any measures taken to 
        counter terrorism comply with international human rights law, 
        international refugee law, and international humanitarian law. 
        The resolution underscores that respect for human rights, 
        fundamental freedoms, and the rule of law are an essential part 
        of any successful counterterrorism effort.

  During my tenure at the U.S. Agency for International Development, 
        I was committed to helping the Middle East region build 
        participatory democracies, improve transparent and accountable 
        governments, engage civil society, youth, minorities, and women 
        on key issues such as improving human rights and increasing 
        political participation. For example, we assisted thousands of 
        women in rural Egyptian governorates to exercise their 
        political and economic rights, including helping 48,000 women 
        receive government IDs. In Libya, we worked to ensure that 
        minority groups were included in the drafting the constitution. 
        Similarly, I led an initiative in Yemen that helped minority 
        ethnic and religious groups, youth, and women weigh in on what 
        we hoped would be the future of their country through 
        contributing to the National Dialogue Conference. In Tunisia, 
        we worked with civil society and the government to foster a 
        consultation process that led to the implementation of some of 
        the most progressive NGO laws in the region and became a model 
        for throughout the region.

 To address the crisis in Syria as millions of refugees initially 
        poured into neighboring countries, I helped set new priorities 
        for development assistance programs at USAID. Our programs 
        responded to the needs of the most vulnerable in all 14 Syrian 
        governorates and Syrian refugees in five neighboring countries-
        --Jordan, Lebanon, Turkey, Iraq, and Egypt. The programs I 
        designed and oversaw provided over $75 million in assistance to 
        help the Syrian Opposition Coalition, local councils, and 
        others provide essential services to their communities, improve 
        governance and women`s participation, and enhance the 
        credibility of moderate voices in Syria. Jordan, in particular, 
        faced the largest number of Syrian refugees not just flowing 
        into refugee camps, but also into Jordanian host communities. I 
        helped address those tremendous challenges by launching a new 
        package of assistance, including an additional $300 million in 
        direct budget support and a $1.25 billion loan guarantee. As a 
        result, for example, Jordanian communities were able to 
        alleviate increased demand for services, including through 
        hospital renovations, water infrastructure repair and 
        maintenance, and fast -track the expansion of 20 schools and 
        train additional teachers. These community engagement projects 
        helped Jordanian communities alleviate tensions by prompting 
        dialogue and addressing stressors.

  As Coordinator for U.S. Assistance to Europe, Eurasia, and Central 
        Asia, I oversaw the implementation of over $200 million in 
        democracy programs, aimed at empowering citizens to engage with 
        their governments, whether through civil society, independent 
        media, the justice sector, or political activism. We proudly 
        initiated programs that supported civil society and independent 
        media to shine a light on democratic and good governance 
        challenges in the Balkans, such as NGO monitoring of public 
        spending and fact-checking; countering democratic backsliding; 
        and supporting brave activists, journalist, and ordinary 
        citizens to hold governments accountable to their international 
        obligations and live up to democratic principles often 
        enshrined in their constitutions. We built on the anti-
        corruption initiative, steering new assistance programs to help 
        civil society organizations use innovative technology tools to 
        counter corruption and advance transparency in the region.

    Question. What are the most pressing human rights issues in Kuwait? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Kuwait? What do you hope to 
accomplish through these actions?

    Answer. As detailed in our annual Human Rights report, we have 
concerns over Kuwait's record on human rights. There have been 
allegations of torture, arbitrary detention, detention of political 
prisoners, interference with privacy, and restrictions on free 
expression, among others. These abuses disproportionately affect 
vulnerable groups like women, stateless Arab Bidoon, and Kuwait's large 
migrant labor force.
    If confirmed, strengthening respect for human rights in Kuwait will 
be one of my top priorities. I will urge the Kuwaiti government to 
thoroughly investigate and prosecute perpetrators of human rights 
abuses, review the existence and implementation of current laws 
surrounding these issues, and push for necessary reforms. We discuss 
human rights issues openly and frankly with our partners in Kuwait, 
and, if confirmed, I will continue to engage the Kuwait government on 
these issues at the most senior levels in the spirit of strengthening 
and advancing our relationship in the context of U.S. values.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kuwait in advancing 
human rights, civil society and democracy in general?

    Answer. Kuwait passed legislation on women's suffrage in 2005, 
private sector labor regulations in 2010, human trafficking in 2015, 
and domestic worker rights in 2015, but implementing laws continues to 
be a challenge. Despite women's suffrage, Kuwait has only one woman in 
parliament. Despite the creation of labor regulation, labor 
exploitation continues to be reported. Migrant laborers continue to be 
victims of exploitation, abuse, and human trafficking.
    Still, I know that sustained partnership with the Kuwaiti 
government produces results. On human trafficking, Kuwait moved up in 
the State Department's tiered ranking system to Tier 2, a result of 
steady improvement since the 2015 anti-trafficking law was passed. 
Kuwait's parliament has announced its intention to consider a new law 
on Bidoon rights and domestic violence in its current session. If 
confirmed, I will continue to engage the Kuwaiti government on human 
rights issues, and I will ensure that this remains a top Embassy 
priority.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kuwait? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am absolutely committed to meeting with human rights, 
civil society, and other non-governmental organizations both in the 
United States and in Kuwait. If confirmed, I will ensure that the 
Embassy complies with all obligations under the Leahy Law, and that 
U.S. security assistance and security cooperation reinforces the 
respect for human rights.

    Question. Will you and your embassy team actively engage with 
Kuwait to address cases of key political prisoners or persons otherwise 
unjustly targeted by Kuwait?

    Answer. If confirmed, I will engage with the Kuwaiti government to 
investigate and address all allegations of political prisoners, and to 
ensure that everyone receives equal treatment by the Kuwaiti legal 
system.

    Question. Will you engage with Kuwait on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes, I believe that it is a core part of the mission of 
every U.S. Embassy to promote human rights, civil rights, and good 
governance. If confirmed, I will engage with Kuwait on these topics, 
and I will look to build on the progress that Kuwait has already made 
on these issues in recent years.

    Question. The State Department identifies the principal human 
rights problems in Kuwait as: arbitrary detention; political prisoners; 
arbitrary or unlawful interference with privacy; restrictions on free 
expression, the press, and the internet, including criminalization of 
libel, censorship, and internet site blocking; interference with the 
rights of peaceful assembly and freedom of association. Kuwait is the 
most democratized of the Gulf States, but State Department human rights 
reports reflect worrying authoritarian tendencies.

 What is your assessment of Kuwait's record when it comes to freedom 
        of press, assembly, expression, etc.?

    Answer. Kuwait has one of the most open societies in the region, 
but we remain concerned about restrictions on freedom of expression. 
Individuals can be arrested for posting anti-government or ``immoral'' 
messages on social media, publishing information that could damage the 
economy, or insulting a person or religion. These regulations are too 
restrictive and do not promote a free and open society. Noncitizens and 
some minorities face further restrictions on free expression and 
assembly. If confirmed, I will continue working with the Kuwaiti 
government to make progress on these issues.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Kuwait?

    Answer. No.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am proud of the work I have done throughout my career to 
promote diversity and inclusion in public service, and if confirmed, I 
will continue that work at the U.S. Embassy in Kuwait. I believe that 
every member of our work force, regardless of background, should have 
the opportunity to grow professionally and thrive as leaders in the 
State Department and throughout the U.S. government.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Inclusion begins in hiring, and, if confirmed, I will 
ensure all hiring managers are trained on how to standardize interviews 
and candidate selection to reduce unconscious bias. Beyond hiring, I 
will ensure mentorship, training, and professional development 
opportunities are available to employees of all backgrounds.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Kuwait 
specifically?

    Answer. Political corruption undermines democratic governance and 
the rule of law. Kuwait has had high profile cases from the cabinet 
level down to entry-level bureaucrats, but their government has 
generally taken these allegations seriously and investigated them.

    Question. What is your assessment of corruption trends in Kuwait 
and efforts to address and reduce it by that government?

    Answer. The Kuwaiti government recognizes the risks associated with 
corruption, and the government has held public officials accountable 
for corruption in the past. The United States supports Kuwait's efforts 
to fight corruption at every level of government.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Kuwait?

    Answer. If confirmed, I will work with my team in Kuwait to 
determine how the United States can best support Kuwaiti efforts to 
tackle corruption. I will make it clear to Kuwaiti leadership that the 
United States supports anti-corruption efforts in the region, and I 
will look for government and civil society partners who share our 
vision and values.

    Question. What progress did Kuwait make in just one year to improve 
its TIP ranking? How likely to do you think the government of Kuwait is 
to continue to implement its TIP plan?

    Answer. Our Embassy works diligently to engage the government of 
Kuwait on this issue, and the upgrade to a Tier 2 ranking reflects an 
increased, significant effort by the Kuwaiti government to meet minimum 
standards for the elimination of trafficking in persons.
    The Kuwaiti government demonstrated its commitment to this issue by 
deploying a specialized trafficking unit housed in the Public 
Prosecutor's Office to initiate more criminal investigations and more 
prosecutions under the anti-trafficking law. The Kuwaiti government 
referred significantly more potential trafficking victims for 
protective services, operationalized its central recruitment agency to 
hire and better safeguard the rights of hundreds of domestic workers, 
and increased enforcement of its domestic worker law.
    Still, the government needs to do a better job of using a formal 
criminal court process to prosecute offenders with stringent sentences 
under the anti-trafficking law vice using administrative proceedings, 
and proactively identify potential victims among vulnerable migrant 
worker populations. Kuwait has made positive steps on this issue, and, 
if I am confirmed, I will work to ensure the government of Kuwait keeps 
improving its efforts and continues implementing its TIP plan.

    Question. What resources are most needed to help Kuwait meet 
minimum standards?

    Answer. Kuwait has the financial resources needed to meet minimum 
standards to fight trafficking in persons. If confirmed, I will work 
with our experts from the State Department Office to Monitor and Combat 
Trafficking in Persons to share best practices from the region in order 
to further improve Kuwait's tier ranking.

    Question. How can the U.S. support Kuwait's efforts to counter 
human trafficking?

    Answer. If confirmed, I will continue to engage Kuwaiti government 
officials to make legislative and policy changes to better fight 
trafficking in persons. I will also work with our experts from the 
State Department Office to Monitor and Combat Trafficking in Persons to 
share best practices from the region in order to further improve 
Kuwait's tier ranking.

Defense Cooperation
    Question. As you know, Iraq's invasion of Kuwait in August 1990, 
and the U.S. role in ending the Iraqi occupation in early 1991, 
deepened the U.S.-Kuwait defense relationship. The U.S. and Kuwait 
signed a formal bilateral Defense Cooperation Agreement (DCA) in 1991 
and in 2004, President George W. Bush designated Kuwait as a ``major 
non-NATO ally,'' a designation only held by one other Gulf state 
(Bahrain).

  How crucial is Kuwait to U.S. strategy in the Gulf, particularly 
        with respect to recent challenges from Iran? Would U.S. forces 
        be able to utilize Kuwaiti facilities in a conflict with Iran?

    Answer. Kuwait supports the U.S. government's maximum pressure 
campaign against Iran, and we continue to work hand in hand with Kuwait 
to enforce all international sanctions against Iran. Kuwait is a 
critical partner in protecting the safety and stability of the region, 
and we have enjoyed a close relationship with their military since 
liberation of Kuwait in 1991.
    The United States does not seek military conflict with Iran. The 
goal of the maximum pressure campaign is to bring the Iranian regime to 
the negotiating table for a comprehensive and peaceful political 
agreement. For further questions on our military's readiness to defend 
U.S. interests in the region, we would recommend a discussion with our 
colleagues at the Department of Defense in a classified setting.

    Question. What is the nature of the U.S. security commitment to 
Kuwait, if any? What assistance does the DCA with Kuwait commit the 
United States to?

    Answer. Kuwait is a vital U.S. partner on a wide range of regional 
security issues. The United States works with Kuwait and other members 
of the Gulf Cooperation Council to increase cooperation on border 
security, maritime security, arms transfers, cybersecurity, and 
counterterrorism. The access, basing, and overflight privileges granted 
by Kuwait facilitate U.S. and Global Coalition operations against Al 
Qaeda, the Islamic State of Iraq and Syria (ISIS), and its regional and 
global affiliates. The 1991 Defense Cooperation Agreement with Kuwait 
governs the presence of U.S. forces, their civilian component, and DoD 
contractors in Kuwait, and does not commit the United States to any 
assistance to Kuwait.

    Question. What major purchases of arms has Kuwait requested, if 
any? What would be the administration's criteria for deciding to sell 
such arms to Kuwait? Should human rights considerations be taken into 
account for such arms sales?

    Answer. Recent major arms transfers to Kuwait include the sale of 
28 advanced F/A-18 Super Hornet aircraft (valued at approximately $10.1 
billion), 218 M1A2 tanks (valued at approximately $1.7 billion), 15 
Fast Patrol Boats (valued at approximately $100 million), and Patriot 
PAC-3 interceptor missiles (valued at approximately $4.2 billion). All 
arms transfers--to any partner--are reviewed and approved consistent 
with the Arms Export Control Act, the President's Conventional Arms 
Transfer Policy, and other appropriate governing regulations. This 
includes provisions for consideration of potential human rights abuses.

    Question. As part of the Saudi-led coalition, what actions has 
Kuwait taken in Yemen?

    Answer. The State Department would be happy to provide a briefing 
on this in a classified setting.

Iran
    Question. Kuwait has undertaken consistent high-level engagement 
with Iran, reflecting a legacy of Kuwait's perception of Iran as a 
counterweight to Saddam Hussein's Iraq. Kuwaiti officials have 
indicated the country will join a potential U.S.-backed Middle East 
Strategic Alliance (MESA) to counter Iran, if such a bloc is formed, 
while at the same time backing mediation efforts to de-escalate 
heightened U.S.-Iran tensions as of mid-2019.

  With respect to Kuwait's engagement with Iran, how helpful has 
        Kuwait been--and how could it be more helpful--in supporting 
        the ``maximum pressure'' campaign on Iran's economy?

    Answer. Kuwait, like many other nations in the Middle East, wants 
to see a change in Iran's actions. They have observed all international 
and U.S. sanctions against Iran as part of the maximum pressure 
campaign.

    Question. To what extent, if at all, has Kuwait been helpful in 
reintegrating Iraq into the Arab fold and weakening Iranian influence 
there?

    Answer. Since the formation of the Abd al-Mahdi government in Iraq, 
bilateral relations between Iraq and Kuwait have improved 
significantly, enabling the Amir's visit to Baghdad in June 2019, the 
first such visit in a number of years. Reintegrating Iraq with its Arab 
neighbors is a top Department priority and a prudent means of 
curtailing malign Iranian influence. Several important, high-level 
visits by members of Iraq's new government preceded the Amir's trip, 
including by Iraqi President Barham Salih and Speaker Mohammed al-
Halbusi to Kuwait in the fall of 2018, and Prime Minister Adil Abd al-
Mahdi's and Foreign Minister Mohammed al-Hakim's trips to Kuwait in May 
2019.
    A top priority of the Kuwaiti government has been to support the 
stabilization of the political and economic environment in Iraq. This 
has included humanitarian assistance and the normalization of bilateral 
trade relations. Kuwait has invested hundreds of millions of dollars to 
provide food and health care and to fund camp projects for IDPs and 
refugees in Iraq. In February 2018, Kuwait hosted an international 
conference for the reconstruction of Iraq that netted more than $30 
billion in pledges from participants, including $1 billion from Kuwait. 
Most of those pledges were in the forms of export credits, loans, and 
grants. The Kuwait Fund plans to invest in the construction of schools 
and health centers across Iraq to fulfill a significant portion of this 
pledge.

    Question. To what extent can Kuwait continue to contribute to a 
resolution of the intra-GCC rift?

    Answer. Kuwait has been an early and consistent mediator following 
the June 2017 rift between Qatar and Saudi Arabia, the UAE, Bahrain, 
and Egypt. Kuwait wants to see the rift settled as quickly as possible. 
The Amir has made numerous attempts to bring the parties together to 
reach a settlement. The United States has consistently supported these 
efforts. We believe that the Amir, as one of the most respected leaders 
in the region, is making a great contribution to resolving the intra-
GCC rift.

    Question. Once the Amir is succeeded by his half-brother Nawaf al-
Ahmad, what will be the scenarios for continuations of the Amir's 
mediation-centric foreign policies?

    Answer. The Amir has been a great friend to the United States and a 
valued mediator in the region. We believe that Kuwait's position as a 
neutral country and a voice for reconciliation and stability in the 
region will continue.

Countering Terrorism Financing
    Question. The State Department report on international terrorism 
for 2017 (released in the fall of 2018) praised Kuwaiti government 
steps to counter terrorism financing, including the October 2017 
designation of 13 individuals associated with the Islamic State-Yemen 
and Al Qaeda in the Arabian Peninsula (AQAP). The report also commended 
the Central Bank of Kuwait for implementing a ``same business-day'' 
turnaround policy for imposing U.N. terrorist financing-related 
sanctions, requiring Kuwaiti banks to monitor U.N. sanctions lists 
proactively. Other experts assert that Kuwait's record is mixed and 
that terrorist financiers still operate in Kuwait.

  What can the United States do to further help Kuwait improve its 
        efforts to counter the financing of terrorist groups?

    Answer. The government of Kuwait, and Kuwaitis themselves, take 
terrorist groups like Al Qa'ida and ISIS very seriously. These groups 
are violently hostile towards the country's culture of moderation and 
its traditions of constitutional governance, religious tolerance, non-
sectarianism, and women's rights.
    Our collaboration with Kuwait against the broad range of global and 
regional terrorist threats extends from capacity building of its 
security services to coordination of our efforts to counter the 
financing of terrorism.
    However, private financial support to terrorist groups continues. 
The United States would like Kuwait to continue to monitor and 
implement regulations, and to compile and release the number of 
financial intelligence reports filed by mandated reporting entities in 
order to help measure the effectiveness of these regulations.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Alina L. Romanowski by Senator Jeanne Shaheen

    Question. Kuwait has long been an important regional and defense 
ally of the U.S. Like several other U.S. allies in the region, Kuwait 
faces extensive human rights issues that it must resolve:

 What should be the role of the United States in fostering 
        democratization and human rights improvements in Kuwait? In 
        your estimation, what are the most effective U.S. tools for 
        doing so?

    Answer. As detailed in our annual reports on Human Rights, 
International Religious Freedom, and Trafficking in Persons, we have 
concerns over Kuwait's record. There have been allegations of torture, 
arbitrary detention, political prisoners, interference with privacy, 
and restrictions on free expression, among others. These abuses 
disproportionately affect vulnerable groups like women, stateless Arab 
Bidoon, and Kuwait's large migrant labor force.If confirmed, 
strengthening the respect for human rights in Kuwait will be one of my 
top priorities. I will urge the Kuwaiti government to thoroughly 
investigate human rights abuses, review current laws surrounding these 
issues, and push for further human rights reforms. We discuss human 
rights issues openly and frankly with our partners in Kuwait, and I 
will continue to do so at the most senior levels of the Kuwaiti 
government in the spirit of strengthening and advancing our 
relationship in the context of U.S. values.

    Question. Kuwait has echoed concerns of other countries about a 
surge in violence following the death of ISIS leader Abu Bakr al-
Baghdadi and the possibility of renewed terrorist attacks throughout 
the region and around the world:

  Given your previous role as the Deputy in the Counterterrorism 
        Bureau, if confirmed, how would you work with Kuwait and other 
        regional U.S. allies to ensure coordination on counterterrorism 
        efforts?

    Answer. Despite Abu Bakr al-Baghdadi's death and the group losing 
all of its territory in Iraq and Syria, ISIS continues to pursue its 
terrorist objectives, including through branches and networks around 
the world. As the Coalition works to prevent ISIS's resurgence in Syria 
and Iraq, we are also looking to stem the group's expansion and 
worldwide reach in part by focusing on the financial, foreign terrorist 
fighter travel, and other ISIS networks and resource flows. Kuwait has 
been a key partner in the Global Coalition to Defeat ISIS, and if I am 
confirmed I will continue to work closely with the Kuwaitis on 
coordination on counterterrorism efforts.

    Question. I work very closely with the families of ISIS victims, 
and particularly with Diane Foley, Jim Foley's mother. I understand 
that in your time at the Counterterrorism Bureau you worked on the 
issue of the Beatles and potential ways to get them to the United 
States to face justice:

  Understanding that there is a limit to what can be detailed in an 
        unclassified setting, could you provide more detail about this 
        work? Does the CT Bureau at State ever meet with the families 
        of victims to update them on developments?

    Answer. The Counterterrorism Bureau (CT) leads interagency 
coordination on FTF detention issues and has encouraged foreign 
partners to consider viable disposition options for the Beatles. CT has 
also encouraged the UK to share evidence of the Beatles' crimes with 
appropriate countries. Our goal is to ensure that the Beatles are 
brought to justice. Senior-level State and NSC officials have engaged 
the families of the Beatles' victims to share information as 
appropriate. Broadly, I would highlight that the interagency Hostage 
Recovery Fusion Cell, the Special Presidential Envoy for Hostage 
Affairs, and the Bureau of Consular Affairs hold primary responsibility 
for supporting hostages and their families, and frequently meet with 
families to share updates as appropriate.

                               __________


       Responses to Additional Questions for the Record Submitted
           to Leslie Meredith Tsou by Senator Robert Menendez

Yemen
    Question. Oman has been a helpful mediator in the Yemen conflict. 
What role do you see Oman taking in this conflict going forward? What 
steps will you take to encourage that engagement?

    Answer. Oman has called for a political solution to the conflict in 
Yemen and fully backs U.N. Special Envoy Martin Griffiths' efforts to 
bring the conflict to an end. Oman maintains channels of communication 
with a variety of Yemeni actors, including the Houthis, and has helped 
to bring the Houthis into the U.N. peace press. It has also played a 
pivotal role in securing the safe release and return of about a dozen 
U.S. citizens held in Yemen, and continues to offer its good offices to 
try to secure the release of other Americans unjustly held in Yemen, 
Iran, and Syria.

    Question. At the same time, there continues to be concern about 
smuggling over the Oman-Yemen border. What steps has the U.S. taken to 
address this concern and what further steps will you take, if 
confirmed?

    Answer. The United States is working closely with both our Omani 
and Yemeni partners to stem the flow of illicit materiel into Yemen. We 
continue to provide successful border security training through our 
Export and Border Security (EXBS) program that has bolstered the 
capabilities of Yemeni and Omani border security agencies to identify, 
interdict, and stem the flow of illicit materiel into Yemen.
    Over the last year, the State Department has successfully engaged 
Oman through EXBS assistance to address deficiencies in its strategic 
trade control and border security systems, especially those that may 
have contributed to Iran's supply of weapons to Houthi rebels.
    This year, EXBS obligated $2.4 million in FY 2018 funds to build 
upon these positive steps to further develop Oman's 
counterproliferation capabilities, and thereby disrupt proliferation 
and counter Iran's malign influence in the region.
    If confirmed, I will make it a priority to support these efforts, 
which are critical to mitigating the threats of illicit materiel flows, 
supporting the arms embargo in U.N. Security Council Resolution (UNSCR) 
2216, and bolstering the efforts of the U.N. Special Envoy for Yemen to 
reach a negotiated political solution by reducing the extent to which 
external actors can effectively intervene in and sustain the conflict.

Trafficking and Labor
    Question. Oman has moved from Tier 2 Watch list to Tier 2 on the 
State Department's annual Trafficking in Persons report between 2017 
and 2019. Nevertheless, challenges remain. Oman has been consistently 
slow to criminally prosecute offenders. What steps will you take to 
press the Omani government to criminally prosecute traffickers and 
ensure that victims are identified and treated in a way that meets 
international standards?

    Answer. As stated in the 2018 Trafficking in Persons report, Oman 
has made significant efforts to counter human trafficking, including by 
increasing investigations, prosecutions and convictions of sex 
traffickers and by sentencing offenders to significant jail time. 
However, it does not yet meet the minimum requirements of the 
Trafficking and Victim Protection Act. We encourage Oman to continue to 
increase its efforts to investigate and prosecute trafficking and 
forced labor offenses, to institute formal procedures to identify 
trafficking victims, and to amend the law to expand referrals of 
suspected male and female trafficking victims to protective services.
    There is will among key Omani government officials to advance these 
reforms, but slow bureaucratic processes and the difficulty of 
interagency coordination within the Omani system remain obstacles. If 
confirmed, I will work with the Omani government to build on the 
progress it has made on this critical human rights issue. Oman is 
currently on the Trafficking in Persons (TIP) Tier II ranking; my goal 
will be to get them to Tier I.

    Question. I was heartened by the recent news that Qatar will 
quickly move to phase out its Kefalah system, which is prevalent 
throughout the region and provides the regulatory framework for a 
number of trafficking and labor abuses. How deeply entrenched is the 
Kefalah system in Oman? What is the likelihood of phasing it out there 
and what steps will you take to that end?

    Answer. The Kefalah system has been deeply entrenched in all Gulf 
societies, but Gulf governments are gradually phasing it out. The 2018 
Trafficking in Persons Report recommends that Oman amend the system to 
allow expatriate workers to leave reportedly abusive employers and to 
remove the requirement for ``no objection'' certificates in seeking new 
employment and exit permits. If confirmed, I will continue to urge the 
Omani government to institute these and other reforms to counter 
trafficking in persons.

Gulf Rift
    Question. What is Oman's position on the GCC rift between Saudi 
Arabia and Qatar? Is there room for Omani engagement to help mediate 
and, if so, what should that engagement be? What steps will you take to 
promote that engagement?

    Answer. While Oman has maintained neutrality in the rift between 
Saudi Arabia and Qatar, it remains concerned and has encouraged both 
sides to resolve their differences.

Democracy
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have spent the majority of my career working on issues 
and in areas where human rights and democracy present major challenges, 
and their promotion often requires creative and unorthodox ideas. One 
of my most meaningful achievements in this area was leading the State 
Department's Office of Iranian Affairs in creating a Farsi-language 
satirical comedy based on the ``Daily Show,'' with the goal of using 
incisive humor to criticize the Iranian regime. We aired the show on 
our Virtual Embassy Tehran website, the U.S. government's only direct 
outreach to the Iranian people. The show became the world's most 
watched web-based program in Farsi, and was also picked up for 
broadcast by satellite television. In addition to giving the Iranian 
people a much-needed respite from the regime's relentless propaganda 
machine, and allowing them to think about the regime in new ways, it 
brought together on social media disparate groups from all over Iran, 
helping them to form ties that I hope will foster a more democratic 
Iran in the future.
    U.S. embassies abroad are a perfect place to model human rights and 
democratic norms to the local population. In Libya, which was an 
absolute dictatorship under Moammar Qadhafi when I served there in 
2004-2005, one of our new Libyan staff members proudly told me he had 
voted for the first time in his life after he and his fellow employees 
elected our very first Locally Employed Staff council. As the Deputy 
Chief of Mission at then-Embassy Tel Aviv, I oversaw the Embassy's move 
to Jerusalem in 2018, as well as the closure of Consulate General 
Jerusalem (``the ConGen'') in 2019. This meant merging into one 
structure the Tel Aviv local staff, comprised mainly of Israeli Jews, 
with the ConGen's more religiously and ethnically diverse staff which 
included Palestinian Christians and Muslims. I worked hard to alleviate 
anxiety among all the staff, reassuring them that the USG does not 
discriminate against any person based on race, sex, color, religion, 
disability, national origin, or age. By the end of my tour in July 
2019, we had the laid the ground work for a cohesive mission. I hope 
Embassy Jerusalem demonstrates that all people can come together 
equally, in the very best American tradition.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Oman? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Oman's human rights record is improving overall. Its most 
significant human rights issues include occasional allegations of 
torture of prisoners and detainees in government custody; undue 
restrictions on free expression, the press, and the internet, including 
censorship, site blocking, and laws that define libel as a criminal 
offense; substantial interference with the rights of peaceful assembly 
and freedom of association; restrictions on political participation, 
and criminalization of lesbian, gay, bisexual, transgender, and 
intersex conduct.

    Question. What steps will you take - if confirmed - to support 
democracy in Oman? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Oman is a Sultanate, and the Sultan is at the center of the 
governing system. It has a bicameral parliament composed of an elected 
lower chamber, the Shura Council, and an appointed upper chamber, the 
State Council. The parliament's legislative and regulatory powers have 
expanded in recent years, but it is not fully independent. In recent 
years, Oman has expanded political participation, increased the 
parliament's legislative and regulatory powers, and held successful 
elections for the the Shura Council. Nearly 350,000 Omani voters - or 
just under half of registered voters - participated in the most recent 
Shura Council elections on October 27, electing 86 members. In recent 
years, Oman has expanded political participation and increased the 
parliament's legislative and regulatory powers. Based on its current 
trajectory, I believe the parliament's role in the Omani political 
system will continue to grow and evolve, and if confirmed I will look 
for ways that the United States can support this trend.
    One area where I hope to make a difference is in the rights of 
women in society. The current Omani ambassador to the United States 
holds the distinction of being the first-ever female ambassador to the 
United States from a Gulf country. Oman's Minister of Education and 
Minister of Higher Education are women, and just last month, the Sultan 
appointed women to serve as the Minister of Technology and 
Communications and the Minister of Arts Affairs. Omani women also 
comprise the majority of university students.
    At the same time, because of deeply embedded cultural and tribal 
practices, women in Oman do not have completely equal status with Omani 
men. I hope to lead by example, and if confirmed will look for ways 
that I can support greater rights and opportunities for women.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. I will use all tools at my disposal to deepen our 
cooperation with Oman on democracy and governance.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Oman? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I commit to engaging broadly with Omani civil 
society to hear their concerns and assess how best I can address any 
legal or regulatory restrictions or penalties they may face.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I intend to engage with all elements of Omani 
society. Under Omani law, political parties are not part of the 
political system. In the October 27 elections for the lower chamber of 
parliament, the Shura Council, voters elected 86 Shura Council members, 
all of whom ran without political party affiliations. Just two out of 
the 86 were women, double the number in the last Shura Council.

    Question. Will you and your embassy team actively engage with Omani 
officials on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Oman?

    Answer. If confirmed, I commit that my Embassy staff and I will 
promote freedom of the press. The Omani government restricts and 
controls foreign officials' access to the local press. If confirmed, I 
will work with my Omani counterparts to identify opportunities where I 
might engage with them nonetheless.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, we will.

    Question. Will you and your embassy teams actively engage with 
Omani officials on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, we will.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Oman, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Oman? What specifically will you commit to do to help LGBTQ people in 
Oman?

    Answer. Omani law bans all lesbian, gay, bisexual, transgender, and 
intersex conduct. If confirmed, I will do my best to represent American 
values, including support for the fundamental human rights and dignity 
of all people.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes, with the understanding that any such response would be 
organized through the Department of State's Bureau of Legislative 
Affairs and conducted in accordance with long-standing Department and 
Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, with the understanding that any such appearance would 
be organized through the Department of State's Bureau of Legislative 
Affairs in accordance with long standing Department and Executive 
Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you committo report it to the Inspector 
General?

    Answer. Yes. I will follow all Department rules and regulations as 
to reporting waste, fraud, and abuse, including notifying the 
Department's Office of the Inspector General.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment,discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in aworkplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation,your response, and any resolution, including 
any settlements.

    Answer. No one has ever made such a complaint against me.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g.,racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whomyou had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I have no tolerance for harassment, discrimination, or 
inappropriate conduct of any kind. Whenever such allegations or 
concerns have come to my attention as a supervisor, I have taken 
immediate and concrete actions to ensure they are dealt with as quickly 
as possible, in accordance with State Department rules and regulations.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree, and will make clear to all Embassy employees 
that such prohibited personnel practices cannot and will not be 
tolerated.



                               __________


       Responses to Additional Questions for the Record Submitted
         to Leslie Meredith Tsou by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have spent the majority of my career working on issues 
and in areas where human rights and democracy present major challenges, 
and their promotion often requires creative and unorthodox ideas. One 
of my most meaningful achievements in this area was leading the State 
Department's Office of Iranian Affairs in creating a Farsi-language 
satirical comedy based on the ``Daily Show,'' with the goal of using 
incisive humor to criticize the Iranian regime. We aired the show on 
our Virtual Embassy Tehran website--the U.S. government's only direct 
outreach to the Iranian people. The show became the world's most 
watched web-based program in Farsi, and was also picked up for 
broadcast by satellite television. In addition to giving the Iranians 
people a much-needed respite from the regime's relentless propaganda 
machine, and allowing them to think about the regime in new ways, it 
brought together on social media disparate groups from all over Iran, 
helping them to form ties that I hope will foster a more democratic 
Iran in the future.
    U.S. embassies abroad are a perfect place to model human rights and 
democratic norms to a local population. In Libya, which was an absolute 
dictatorship under Moammar Qadhafi when I served there in 2004-2005, 
one of our new Libyan staff members proudly told me he had voted for 
the first time in his life after he and his fellow employees elected 
our very first Locally Employed Staff council. As the Deputy Chief of 
Mission at then-Embassy Tel Aviv, I oversaw the Embassy's move to 
Jerusalem in 2018, as well as the closure of Consulate General 
Jerusalem (``the ConGen'') in 2019. This meant merging into one 
structure the Tel Aviv local staff, comprised mainly of Israeli Jews, 
with the ConGen's more religiously and ethnically diverse staff which 
included Palestinian Christians and Muslims. I worked hard to alleviate 
anxiety among all the staff, reassuring them that the USG does not 
discriminate against any person based on race, sex, color, religion, 
disability, national origin, or age. By the end of my tour in July 
2019, we had the laid the ground work for a cohesive mission. My goal 
for Embassy Jerusalem was to demonstrate that all people can come 
together equally, in the very best American tradition.

    Question. What are the most pressing human rights issues in Oman? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Oman? What do you hope to 
accomplish through these actions?

    Answer. Oman's human rights record is improving overall. For 
example, it has taken steps to support religious freedom and tolerance, 
including for its community of foreign workers, many of whom practice 
non-Muslim faiths. If confirmed, I will continue to engage with the 
government and minority religious groups to support efforts to promote 
religious tolerance and interfaith dialogue.
    Trafficking in persons is one issue where we need to help Oman make 
progress in the near term. As stated in the most recent Trafficking in 
Persons report, Oman has made significant efforts to counter human 
trafficking, but it does not yet meet the minimum requirements of the 
Trafficking and Victim Protection Act. We are encouraging Oman to 
continue to increase its efforts to investigate and prosecute 
trafficking and forced labor offenses, to institute formal procedures 
to identify trafficking victims, and to amend the law to expand 
referrals of suspected male and female trafficking victims to 
protective services. If confirmed, I will work with the Omani 
government to build on the progress it has made in recent years on this 
critical human rights issue. Oman is currently Tier II on the 
Trafficking in Persons country ranking; my goal will be to get them to 
Tier I.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Oman in advancing 
human rights, civil society and democracy in general?

    Answer. There is will among key Omani government officials to 
advance reforms to counter trafficking in persons, but slow 
bureaucratic processes and the difficulty of interagency coordination 
within the Omani system remain obstacles. There is growing awareness 
among government officials and the Omani public about trafficking in 
persons, but the necessary shift in attitudes will require a long-term 
process. I will work with the Omani government to ensure relevant 
officials receive appropriate training on trafficking in persons and to 
raise public awareness about this issue.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Oman? If confirmed, what steps will you take 
to pro-actively support the Leahy Law and similar efforts, and ensure 
that provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. If confirmed, I intend to engage broadly with Omani civil 
society. The U.S. Embassy in Muscat will continue to implement Leahy 
Law requirements as we deepen our bilateral security cooperation. It is 
a standard feature of our security assistance and security cooperation 
activities that they incorporate U.S. human rights standards and help 
develop respect for human rights among our security partners.

    Question. Will you and your embassy team actively engage with Oman 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Oman?

    Answer. We will. If confirmed, I will raise cases of concern when 
they occur.

    Question. Will you engage with Oman on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. I will. If confirmed, my Embassy team and I will promote 
American values in all our engagements.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Oman?

    Answer. No.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. My personal experience has been exactly what this research 
concludes--that all organizations benefit from diversity of background, 
opinion, and ways of thinking. I am fully committed to the support of 
mission staff who come from diverse backgrounds and to ensuring that 
all points of view are represented in decision making.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure my senior staff understands the 
need for diversity of background, opinion, and ways of thinking from 
all elements of our team.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Oman 
specifically?

    Answer. The Omani government recognizes the negative effects of 
corruption. It has acted against corruption, and there are legal 
proceedings against officials on corruption changes currently in the 
court system.

    Question. What is your assessment of corruption trends in Oman and 
efforts to address and reduce it by that government?

    Answer. The Omani government recognizes the negative effects of 
corruption and has acted against it. There are legal proceedings 
against officials on corruption changes currently in the court system.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Oman?

    Answer. If confirmed, I would like to arrive in country and assess 
the situation first hand before initiating actions or programs. We have 
numerous tools at our disposal--international visitor programs, 
training, and law enforcement guidance, for instance--that we could 
employ based on the needs.

Political Affairs and Succession
    Question. Over 80 percent of the Omani population was born since 
Qaboos assumed control of Oman in 1970. Sultan Qaboos is reportedly 
receiving periodic cancer treatment, has no children, and has not 
publicly designated a successor.

  What are the possible scenarios for Oman's cooperation with the 
        United States and its role in the region under Qaboos' unnamed 
        successor?

    Answer. Sultan Qaboos is a close and longstanding partner of the 
United States. If confirmed, I look forward to many years of continued 
partnership with the Sultan and his government.
    Oman formalized its procedure for succession in the 1996 Basic Law. 
This procedure empowers the Royal Family Council to choose the Sultan's 
successor within three days of his death or abdication. If its members 
cannot come to agreement on a successor, a separate council of senior 
officials, known as the Defense Council, will confirm the appointment 
of a successor designated by the Sultan in a letter he has left with 
the Royal Family Council.

Defense Cooperation
    Question. The Sultanate of Oman has been a strategic ally of the 
United States since 1980, when it became the first Persian Gulf state 
to sign a formal accord permitting the U.S. military to use its 
facilities. Oman has hosted U.S. forces during every U.S. military 
operation in the region since then, and it is a partner in U.S. efforts 
to counter regional terrorism and related threats.

 What missions are U.S. military personnel deployed in Oman 
        performing?

    Answer. The Sultanate of Oman is a valuable security partner whose 
defense needs and goals closely align with U.S. regional priorities.
    There are no U.S. troops deployed to Oman. The United States and 
Oman maintain close military-to-military ties, carrying out numerous 
bilateral military exercises, subject matter expertise exchanges, and 
conferences each year. In addition to expanding bilateral 
interoperability, these engagements foster mutual understanding and 
build strong ties between current and future generations of U.S. and 
Omani military leaders. Oman has an important strategic location and 
provides extensive support for U.S. military overflights and access, 
including to ports outside the Strait of Hormuz.

    Question. What are Oman's primary security requirements? What are 
U.S. plans for providing security assistance to Oman in the coming few 
years?

    Answer. U.S. security assistance to Oman includes programs focused 
on counterterrorism, border security, maritime security, crisis 
management, and overall defense capabilities. Oman remains a keen 
consumer of U.S. security assistance, placing tremendous value on both 
Defense Department and State Department-funded programs for training 
and equipping. We will continue to closely engage with our Omani 
partners to build both interoperability and interpersonal ties between 
U.S. and Omani security forces through our security assistance 
programming.

    Question. What U.S. arms purchases, if any, is Oman considering at 
this time? What would be the justification for selling those systems to 
Oman?

    Answer. In the past, Oman has purchased U.S.-produced fighter and 
cargo aircraft, air defense systems, and weapons for its ground forces. 
If you would like information about potential future purchases, I would 
be happy to discuss this in a classified setting.

Regional Affairs
    Question. Oman, sandwiched between Yemen, Saudi Arabia, the UAE, 
and across a narrow strait from Iran, has sought a neutral, non-
confrontational role in regional affairs. Oman's foreign minister 
traveled to Tehran for negotiations during increased tensions between 
the United States and Iran earlier this summer, and Sultan Qaboos 
hosted both Mahmood Abbas and Benjamin Netanyahu for separate visits in 
2018. Oman is not part of the Saudi-led coalition fighting Houthis in 
Yemen.

 Does the administration support or oppose Oman's maintaining close 
        ties to Iran?

    Answer. The United States would prefer that all its Gulf partners 
adopted our approach to confronting and isolating Iran. We recognize 
that Oman's policy is to maintain open channels of communication with 
all of its neighbors. Oman and Iran have a shared history that goes 
back centuries, but today Oman's strategic relationship with the United 
States is far closer than its ties with Iran. Oman and Iran share the 
Strait of Hormuz, but Oman's support for the safety and security of 
navigation through the Strait differentiates it markedly from Iran's 
malign behavior. The Omanis share our concern about a nuclear Iran. 
They have committed to ensuring that Omani banks and companies fully 
comply with the implementation of sanctions as part of our maximum 
pressure campaign.

    Question. To what extent would Oman be able to determine if and 
when Iran is ready to take up U.S. offers to negotiate a new JCPOA that 
accommodates the broad range of U.S. concerns?

    Answer. Oman's policy is to maintain open channels of communication 
with all of its neighbors. We consult regularly with Oman on regional 
issues, including Iran, and we appreciate its insights.

    Question. To what extent, if any, is Oman helping block the flow of 
Iranian weaponry to the Houthis in Yemen?

    Answer. Iran has zero legitimate national interests inside Yemen; 
instead, it focuses on inflaming regional tensions, prolonging the 
conflict, inflicting damage on the Yemeni population, and precluding 
meaningful political negotiation. The Department is working with the 
Omanis to ensure its territory and territorial waters are not used by 
Iran to smuggle weapons to the Houthis. I would be happy to discuss 
this issue further in a classified setting.

    Question. How does Oman view the potential benefits and risks of 
building ties to Israel, and what is the potential backlash from Oman's 
allies and citizens?

    Answer. Israeli Prime Minister Binyamin Netanyahu's visit to Oman 
in October 2018 was the first visit by an Israeli Prime Minister to a 
Gulf country in over 20 years. This bold gesture demonstrates Oman's 
commitment to peace, its support for a resolution to the Israeli-
Palestinian conflict, and its willingness to take risks that advance 
that goal. Oman's outreach to Israel has led to some social media 
criticism from some Omani citizens and from elsewhere in the region. 
Oman has also been clear publicly that it believes establishing a 
Palestinian state is an essential step to end the conflict and 
stabilize the region.

Port Access
    Question. On March 24, 2019, Oman and the United States signed an 
agreement allowing U.S. forces to use the ports of Al Duqm and Salalah. 
Al Duqm is large enough to handle U.S. aircraft carriers, and the 
agreement expands the U.S. ability to conduct operations in the region, 
including countering Iran.

 What strategic benefits does the United States derive from the Port 
        Access Agreement signed in March?

    Answer. The Framework Agreement codifies and expands U.S. military 
access to ports and facilities in Salalah and Duqm, strategic locations 
outside of the Strait of Hormuz. Both prior to and since the signing of 
the agreement, Oman has provided the U.S. military with reliable, 
consistent access to its air and maritime ports in Duqm and Salalah.

    Question. What additional financial or other commitments, if any, 
did the United States pledge to Oman for that agreement?

    Answer. The details of the Framework Agreement and other U.S.-Oman 
bilateral defense agreements are classified, and I would be happy to 
provide further information in a classified setting.

Countering Terror Financing:

    Question. Oman's law to counter the financing of terrorism (CFT) 
requires financial institutions, private industry, and non-profit 
organizations to screen transactions for money laundering or terrorist 
financing and requires the collection of know-your-customer data for 
wire transfers. While Oman has made CFT progress, a number of gaps 
remain.

 To what extent do terrorist groups try to use Omani territory or 
        its financial system to move operatives and funds around the 
        region?

    Answer. Oman is an important regional counterterrorism partner that 
actively works to prevent terrorists from conducting attacks, using the 
country as a safe haven, or transferring funds through its financial 
system. There have been no terrorist incidents in Oman in recent years. 
Omani officials regularly engage with U.S. officials on the need to 
counter violent extremism and terrorism, but rarely broadcast their 
counterterrorism efforts publicly. Oman continues to use U.S. security 
assistance programs to improve its counterterrorism tactics and 
procedures.

    Question. How do you assess Oman's performance in countering the 
financing of terrorism?

    Answer. Oman is a member of both the Middle East and North Africa 
Financial Action Task Force and the Riyadh-based Terrorist Finance 
Targeting Center. Oman's National Center for Financial Information--
Financial Intelligence Unit hosted workshops on money laundering and 
terrorism financing in September 2018 and October 2019. Oman has 
specific laws in place aimed at countering the financing of terrorism 
(CFT). Progress has been made, but some gaps remain. These include 
completing the drafting and implementation of certification procedures 
for anti-money laundering and CFT, issuing directives for the immediate 
freezing and seizure of the assets of persons and entities on the U.N. 
sanctions list under U.N. Security Council resolution 1267 (1999) and 
its successor resolutions, and designating wire transfer amounts for 
customer due diligence procedures.

    Question. How does Oman's record on this issue compare to those of 
the other Gulf States?

    Answer. Oman, a member of the Global Coalition to Defeat ISIS, is 
an important regional counterterrorism partner that works to prevent 
terrorists from conducting attacks or using the country as a safe 
haven. Oman has been cooperative in maintaining port security and 
countering terrorist financing. If confirmed, I will work with the 
Omanis to continue to build upon and further strengthen this 
partnership.

                               __________

                               NOMINATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:19 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Barrasso, Portman, Paul, Young, Cruz, Menendez, Cardin, 
Shaheen, Coons, Udall, Murphy, Kaine, Markey, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Today we will consider the nomination of Mr. Stephen Biegun 
to be Deputy Secretary of State. Mr. Biegun has a long history 
of service, with roots right here in this very committee. We 
are glad to have you back. We thank him for the good work he 
has done as special envoy to North Korea and also for his 
willingness to continue serving in that position as he takes on 
this incredibly important role at the State Department.
    With nearly 200 countries across the globe, there is no 
shortage of important issues which need the attention and 
leadership of the United States. For the first time in 
generations, the world is seeing the reemergence of substantial 
competitors: Russia where it can, Iran in the Middle East, and 
China across the world. And at the same time, people around the 
world are losing faith in the institutions of their 
governments.
    Our competitors are willing and, most importantly, able to 
compete against the United States, and this competition 
threatens to disrupt the world order that America and our 
allies created in the aftermath of World War II. That world 
order, without a doubt, benefited everyone but especially those 
who believe in the principles of democracy, human rights, the 
rule of law, free markets, and free trade.
    These cornerstones of liberty and prosperity are once again 
under assault as we face global competition from a China that 
wants to displace the United States in the Indo-Pacific and 
exert deep influence in every other region of the world and a 
resurgent Russia that wants to regain the influence it enjoyed 
during the height of the Cold War.
    At the same time, rogue states like Iran, North Korea, and 
Venezuela continue to challenge stability in their regions. 
Collectively this is an outcome that U.S. foreign policy has 
always aimed to prevent.
    Of our many challenges, China presents the most substantial 
competitive threat and should be the top priority in American 
foreign policy for the coming decades. The Chinese Communist 
Party wants China to take what it believes is its rightful 
place at the center of the international system and ensure the 
international system functions according to China's values and 
objectives.
    China's economic and political reach is visible throughout 
the Indo-Pacific region and extends across the continent of 
Africa and throughout Latin America. Through the ``One Belt, 
One Road'' initiative, the Chinese government is pursuing 
significant investments in critical infrastructure and ports 
around the globe.
    And it is not just physical infrastructure. China is deeply 
interested in setting the standards and norms for emerging 
technologies. That has deep implications for the future 
economy, of course, but also for the human rights and freedoms 
of individuals around the world.
    It is clear that China does not just present a challenge to 
American interests. It poses a challenge to the key interests 
we share with allies and partners. We must be in lockstep with 
our Indo-Pacific partners, and working with our NATO and 
European allies will also be key. Brain death is not an option.
    As I said earlier, there is no shortage of issues that 
require our attention. In the face of these challenges, U.S. 
global leadership is critical. But maintaining that leadership 
requires more than aid dollars. It requires a robust diplomatic 
presence that enables us to project our values and interests, 
and I know our nominee today understands that as no other.
    The State Department is part of the bedrock of our national 
security. Its diplomats are our eyes and ears on the ground 
across the globe. These men and women are the tip of the spear 
for advancing U.S. interests overseas, our first line of 
defense against malign influences, and a vital lead in 
negotiations to make sure that our relationships with friends 
and foes abroad do not go off the rails.
    We need to make sure that our diplomats are getting the 
support they need to get outside the walls of our diplomatic 
posts. I can assure you Chinese, Russian, and Iranian diplomats 
do not have trouble getting off their embassy compounds.
    In 2019, the stakes are too high to hamstring our national 
security in this way. We need our people out there working with 
our security partners, advancing human rights and the rule of 
law, and pushing for American business. These are things we 
simply cannot do very well sitting at a desk behind several 
layers of security in an embassy.
    Mr. Biegun's nomination comes at a pressing time for a 
range of issues, for Middle East diplomacy as we pursue maximum 
pressure against Iran, negotiate for peace in Afghanistan, and 
continue to apply pressure to the Islamic State.
    Putin continues his pattern of arms control treaty 
violations, making the way ahead for bilateral arms control 
with Russia increasingly uncertain. This pattern includes 
Russia's ongoing nuclear modernization campaign, which includes 
new exotic weapons it says are not subject to current arms 
control agreements.
    Russia continues to have a large and modernizing tactical 
nuclear stockpile, which is an asymmetric capability the 
Russians say is increasingly key to their operations and which 
could enable greater Russian aggression in Europe.
    With regard to the Western Hemisphere, there should be no 
doubt that the United States has an enduring interest in a 
region that is democratic, prosperous, and secure. I hope the 
administration will continue its maximum pressure campaign 
against undemocratic regimes and transnational criminal 
organizations, work dynamically with partners to safeguard 
critical institutions with malicious external influence, and 
heighten support for organizations seeking greater transparency 
from their governments.
    Additionally, of great relevance today is that South Korea 
has taken the counterproductive step of moving to end its 
participation in a key information sharing agreement with 
Japan. We have a critical week in that regard this week. This 
increases the risk to U.S. forces in Korea and damages the 
U.S.-Korea alliance. In partnership with Ranking Member 
Menendez, SASC Chairman Inhofe, and Ranking Member Reed, I plan 
to introduce a resolution urging South Korea to reverse that 
decision.
    These are just a few of the many challenges facing U.S. 
foreign policy and global leadership today. They illustrate how 
imperative it is that we have the right person in the role of 
Deputy Secretary. Mr. Biegun is that person, and he is more 
than prepared for this vital role that will touch all aspects 
of the work that our State Department carries out.
    Steve, thank you for being willing to do this and to your 
family for the sacrifices they will have to make for this.
    And with that, I turn it over to the ranking member.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Biegun, congratulations on your nomination. Thank you 
for the service you have rendered to our country to date. We 
appreciate it, and we look forward to discussing your 
nomination to serve as Deputy Secretary of State.
    Now, I am compelled to begin by addressing the Trump- 
Ukraine scandal that has gripped the nation. The public 
testimony we have heard over the last 2 weeks has detailed the 
weaponization of U.S. foreign policy and national security for 
the personal and political gain of President Trump.
    As you may know, Gordon Sondland, the U.S. Ambassador to 
the European Union, is currently testifying as part of the 
House impeachment inquiry. Among other things, he has made it 
clear that Secretary Pompeo was fully aware of the President's 
corrupt scheme. So while completely unacceptable, it is sadly 
not surprising that Secretary Pompeo has obstructed the House 
inquiry and has refused to produce even a single document to 
Congress.
    Given Secretary Pompeo's direct involvement in the scandal, 
I called on him to recuse weeks ago. I expect at some point 
soon, he will realize it is untenable for continue making 
decisions about document production in a matter in which he is 
directly implicated. So, Mr. Biegun, you may very well be on 
the hook for making decisions about the Department's 
cooperation with lawful congressional subpoenas, and I look 
forward to hearing how you plan to comply.
    As we discussed last week, the Deputy Secretary position is 
crucial to the functioning of the Department and to advancing 
U.S. foreign policy. Given the expectation that Secretary 
Pompeo will leave the Department early next year to run for 
Senate and that, if confirmed, you will be the Acting Secretary 
of State for quite some time, your nomination takes on even 
greater significance.
    Now, you have deep experience in foreign policy and 
national security matters, and I am hopeful that, if confirmed, 
you will rely on that experience in carrying out your duties. 
As a former staff director on this committee, you know what it 
means for the committee and the Department to engage 
meaningfully on foreign policy and the results that that can 
deliver for the American people. I want you to ensure that 
engagement.
    As a State Department official, you have worked side by 
side with our career diplomats. So you know firsthand what a 
dedicated and talented team the Department and our embassies 
and consulates around the world have. I want you to value and 
protect them.
    And as a foreign policy professional in prior 
administrations, you have seen how a robust State Department 
advances and protects U.S. national security. I want you to 
strive for this role to ensure the Department is playing that 
exact role and that diplomacy is once again treated as a 
critical component of national security decision-making.
    These are incredibly difficult assignments given the 
current state of affairs. From my perspective, the relationship 
between the committee and the Department is at a low point. We 
are not provided the information we need to satisfy our 
oversight role, and that has to change. Our career Civil 
Service and Foreign Service professionals have been debased and 
demoralized. That also has to change. And you have been 
nominated for this post at a time of unparalleled chaos in 
American foreign policy, the likes of which I cannot recall in 
my nearly 3 decades in Congress. And that too needs to change.
    So, if confirmed, you will be responsible likely as the 
Acting Secretary of State, for U.S. foreign policy and 
management of the State Department. Your credibility will be on 
the line.
    In my view, this administration's actions have undermined 
our ability to promote American foreign policy and national 
security interests, betrayed our values, and has made our 
citizens and partners, and the world less safe.
    Far from America first, it is leaving America isolated, 
corrupted, and behind.
    Let me start with some serious ongoing concerns about the 
state of the State Department itself.
    The Department you will inherit is one with plummeting 
morale, an insufficient budget which the administration has 
repeatedly, over congressional objections, tried to cut, a 
culture in which political retaliation against career civil 
servants has gone unchecked, a sharp drop in new foreign 
service applications, and a hollowed-out senior diplomatic 
corps. If you are confirmed as Deputy Secretary, I hope fixing 
these problems will be your first job.
    Let me move on to one or two policy items.
    Senior members of the intelligence community continue to 
point to, quote, ?incontrovertible,? close quote, proof of 
Russia's interference in our 2016 elections. Yet, the President 
still refuses to acknowledge their attack on our democracy. And 
everywhere we turn, it is hard to imagine a bigger winner these 
past several years than Mr. Putin. While many in Congress and 
around the world agree with the administration that our policy 
with China needs adjustment and we want to work to advance that 
goal, there is no evidence that the administration's efforts 
have led China to change its actions in the South China Sea, 
address the structural issues at play in our trade 
relationship, or address its worsening human rights and 
governance behavior.
    You have dedicated the past few years of your life trying 
to reach a denuclearized North Korea, for which we applaud you. 
But North Korea is on track this year to conduct more nuclear-
capable ballistic missile tests than ever. And President Trump 
has undone our defensive alliance, military exercises, shaking 
the confidence of our allies and partners.
    And while there is talk about restoring deterrence against 
Iran's aggression, there is no sign of a comprehensive strategy 
to counter Iran's growing influence throughout the regime, even 
as Iran's proxy fighters grow more aggressive on all fronts 
against the Israeli border.
    In the western hemisphere, while the President says he 
wants to confront the root causes of migration, drug 
trafficking, and the opioid epidemic, he has repeatedly tried 
to cripple our counternarcotics, law enforcement, and 
development operations in the Northern Triangle and Mexico. All 
we are left with are derogatory, hateful, and racist tweets, 
tweets that will ultimately leave Americans more at risk and 
the region more unstable.
    And while along with the President, we support Juan Guaido 
and want a peaceful end to the Maduro regime, we need to do 
more to address the fate of millions of Venezuelans fleeing 
their country and the hundreds of thousands of Venezuelans that 
are in the United States in desperate need of temporary 
protected status.
    And in so many other areas, from climate change to the U.N. 
to human rights, we are abdicating American leadership.
    The administration appears to have completely written off 
the entire continent of Africa. We are absent in South Sudan, 
and we are not doing enough to combat Russian malign influence 
or to provide an alternative to China. China and Russia are 
hosting African heads of state at summits. In contrast, we have 
a Secretary of State who has spent plenty of time in Kansas but 
outside of Egypt has not set foot on the continent since his 
confirmation.
    I can keep going, but I think you get the point of how I 
feel. Mr. Biegun, it does not have to be this way, and I hope 
it gets better. There are serious people on this committee on 
both sides of the aisle who are committed to advancing our 
national security and to the values that have truly made 
America great: democracy, governance, labor, human rights, 
transparency. And if you are confirmed, our door will be open, 
and I hope you will take advantage of that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Mr. Biegun, after that bleak portrait, perhaps you want to 
rethink this, but I do not think so. Certainly we have issues 
and always will have. I cannot think of anyone better to rise 
to the occasion to deal with the usual issues that we have.
    Mr. Biegun serves as special representative for North 
Korea, as we all know, a position he has held since 2018. Prior 
to serving as special representative, he served in several 
senior positions at the Ford Motor Company, the office of 
Senate majority leader, office of the National Security 
Council, and most importantly, on this committee, for which we 
are very grateful. Thank you.
    Mr. Biegun, thank you for your willingness to serve at this 
critical time and in this critical role. I hope you will take a 
few minutes for your remarks, and then we will include your 
entire statement in the record and subject yourself to the 
intense questioning of this committee. Thank you so much. The 
floor is yours.

         STATEMENT OF STEPHEN E. BIEGUN, OF MICHIGAN, 
                TO BE DEPUTY SECRETARY OF STATE

    Mr. Biegun. Thank you very much, Mr. Chairman, and thank 
you, Ranking Member Menendez. It is truly an honor to be here 
before this committee today, and I thank you for giving me a 
chance to appear in support of my nomination as Deputy 
Secretary of State.
    I want to thank the President and the Secretary of State 
for their confidence in me and nominating me for this position.
    I also want to thank our outgoing Deputy Secretary, John 
Sullivan, for 2 and a half years of stellar service in the 
Department. And beyond that, I want to thank the many former 
deputy secretaries of state who, over the course of the last 
couple of weeks, have shared their time and counsel with me in 
order to help me better understand the responsibilities and 
also better prepare for the responsibilities, if I am confirmed 
for this position.
    I want to thank my team, who are here with me today, both 
the team from the North Korea office, as well as the Deputy 
Secretary's staff who have done so much to help me prepare for 
this position.
    I also want to state for the record what an honor it will 
be to serve alongside the 76,000 men and women who constitute 
our State Department, the Foreign Service, the Civil Service, 
the locally employed staff and the support teams around the 
world. I look forward to serving with them, and I look forward 
to being a leader who is worthy of their confidence.
    Let me also credit here some of the people who are most 
important for bringing me here. Behind me today is my wife 
Adelaide Biegun, as well as my oldest son Joseph. And they have 
been with me every step of this journey. In fact, Joseph was 
born in 1995, the day after we filed the START II Treaty 
document here on the committee staff, and so I remember that 
day well for two reasons.
    Lastly, I want to thank all of you members of the committee 
for your generous offer of time over the last couple of weeks 
to spend time with you, to hear your priorities, to discuss my 
priorities, if I am confirmed as Deputy Secretary of State. And 
I do want to assure you that that will not be--that was not our 
first discussion, frankly, and it will not be our last 
discussion. I will be a rigorous and active engaged 
representative of the Department with this committee.
    Senator Risch has gone through my background, and I think 
that it would be redundant for me to repeat my resume. Suffice 
it to say that over the 30 years I have been here in 
Washington, D.C., I have had an opportunity to work with the 
people in this town and around the world in government, in the 
private sector, as well as in the nonprofit sector. Through 
those years, I have learned many great lessons from leaders 
with whom I have worked and in my senior positions as leaders 
of teams or as a member of leadership teams, I have learned 
much on how to work with other people, how to serve as a leader 
in an organization, and I hope to bring that to bear, if 
confirmed as Deputy Secretary of State.
    During my time here in the Congress, we achieved many great 
things. We passed the SEED Act in 1989 to help transition the 
former Warsaw Pact countries to democratic capitalism. We 
passed the Freedom Support Act in 1992 to do the same with the 
former Soviet Union. In the mid-1990s, we enlarged NATO for the 
first time through an overwhelming treaty vote in the United 
States Senate. We passed comprehensive legislation to 
reorganize the Department of State. We reformed the United 
Nations and paid off arrears that had accumulated over the 
course of the preceding decade, and on numerous occasions, we 
authorized the budgets of both the State Department and the 
U.S. Agency for International Development. Lastly, one of the 
proudest achievements of my time here in the Senate was our 
passage of the PEPFAR program, the President's Emergency 
Program for AIDS Relief in Africa, which still rates as one of 
the best foreign aid programs the United States Congress has 
ever approved.
    As I take up new responsibilities, if confirmed by this 
committee, the various issues that I intend to focus on can 
roughly be broken down into three broad baskets. I plan to 
focus on people. I plan to focus on policy, and of course, I 
will need to focus on process and execution. Many 
administrations have fallen down in their pursuit of America's 
national interests in the execution rather than the formulation 
of foreign policy, and I intend to bring a discipline to that 
in order to ensure that to the best of our abilities, we 
advance America's interests around the world.
    In regards to people, as I said a moment ago, it is a great 
honor to serve alongside the 76,000 people of the Department of 
State. I have every intention of being fully involved in how we 
manage the people, and I look forward to working closely with 
an excellent Under Secretary for Management, Brian Bulatao; our 
Director General of the Foreign Service, Carol Perez; and the 
head of the American Foreign Service Association, our Foreign 
Service union, Eric Rubin, all of whom I have had an 
opportunity to have lengthy discussions over the course of the 
last couple of weeks to better understand the challenges and 
opportunities that we have at the Department of State. I will 
do everything I can to sustain the reputation of the United 
States Department of State as the finest collection of 
diplomats in the world, and I am confident that we will be 
successful in doing so.
    As far as policy goes, of course, I will work very hard not 
only to deliver the best policy recommendations I can to the 
Secretary of State and through the Secretary to the President, 
but I will also do the very best to extract the huge benefit of 
the talent that we have inside the Department of State. As the 
special representative for North Korea over the course of the 
last 15 months, I have been able to draw upon unparalleled 
reporting, the broad global reach of our diplomats, their 
incredibly well developed judgment and the contacts that they 
have nurtured in the societies where they represent the United 
States of America, and I have found that it has created an 
opportunity for us to advance in the most effective way 
possible the policies of the President of the United States on 
North Korea.
    Getting the policy right is important, but I want to go 
back to the people. The State Department is not an $89 billion 
portfolio of real estate. It is not the 276 embassies, 
consulates, and missions we have around the world. It is the 
76,000 people who every day show up for work and advance 
America's interests. I will be part of the talent management 
process. The State Department is investing enormously in 
recruitment and retention and development of our professional 
teams, and I look forward to joining my colleagues in that 
effort.
    Lastly, in terms of process, because of my varied 
experiences over the course of many years, I have come to the 
conclusion that America's foreign policy is strongest when it 
is most closely coordinated and transparently communicated 
internally and externally. Internally, of course, for me as a 
representative of the executive branch, that means maintaining 
a strong role in the interagency process, drawing upon the 
views and perspectives of various government agencies, our 
intelligence services, and of course, our armed forces. But 
also that means consultation between the executive branch and 
the congressional branch. And as has been said already in the 
opening statements, it would be very difficult for me to turn 
my back on that experience since I have seen it from both 
sides. And while there are oftentimes gray lines that divide 
the prerogatives of the two branches of government, 
communication is the mother's milk of moving forward, and I 
will do everything I can in the course of my job to work with 
the committee to respond to what are legitimately the 
responsibilities and requirements of the first branch of 
government while dutifully representing the prerogatives and 
protections of the second branch of government.
    Lastly, let me just say that in my 30 years of experience 
in foreign policy, I have come to the conclusion that America's 
policies are most effective when they sit on a three-legged 
stool of our capabilities, our interests, and our values. Any 
two of those in combination without the third could leave us 
weaker and certainly presents us with uncertain prospects for 
success. Our interests without our values, our values without 
our capabilities, our capabilities without our interests, each 
of these in my experience has been a recipe for less not more 
success. But when all three work in concert, we are most 
effective at advancing America's interests around the world. 
And when I speak about values, I speak about American values, 
but I also speak about values that so many people share around 
the world: democracy, freedom, human rights, free markets. All 
of these are important to me, and all of these will be among 
the priorities that I seek to advance as a representative of 
the Department of State, if confirmed by this committee.
    I have long thought America was great, but America is not 
great because of the strength of our military alone. And 
America is not great because of the wealth of our economy 
alone. America is great because we are good. And I will do 
everything to uphold that.
    Thank you.
    [The prepared statement of Mr. Biegun follows:]


                Prepared Statement of Stephen E. Biegun

    Chairman Risch, Ranking Member Menendez, distinguished members of 
the committee, I am honored to appear before you today as the nominee 
for Deputy Secretary of State.
    I am deeply grateful to President Trump and to Secretary Pompeo for 
the confidence and trust they have placed in me with my nomination for 
this position. I also want recognize Deputy Secretary John Sullivan for 
his outstanding service during the past two and a half years. I am 
grateful to John and to several other former Deputy Secretaries of 
State--both Republicans and Democrats--who have generously provided me 
advice and counsel as I prepare for the position for which I have been 
nominated.
    I want to thank the men and women of the State Department--Foreign 
Service, Civil Service, locally employed staff--for the work they do 
every day in advancing American interests and protecting American 
citizens around the world. If confirmed, it would be my great honor to 
serve alongside the 76,000 employees of the State Department in 
advocating for and representing the United States of America.
    I appreciate the careful consideration members of this committee 
have given to my nomination, particularly during a time when so many 
issues demand your attention. I am especially grateful for the courtesy 
of introductory meetings in which we were able to discuss your many 
priorities with the Department and U.S. policies. Should I be 
confirmed, I pledge to continue close consultation with this committee 
and the Congress on issues related to foreign policy.
    I am a Michigander. I was born, grew up, and attended college in 
Michigan. I moved to Washington after graduating from the University of 
Michigan because I was drawn to public service. Except for a two-year 
break after the fall of the Soviet Union, during which I led democracy 
building programming in Russia on a grant from the National Endowment 
for Democracy, I served for nearly two decades in government, including 
seven years on the staff of this committee. During my time in Congress, 
we oversaw expansion of NATO after the end of the Cold War, 
Congressional approval of the PEPFAR program, sweeping reforms of the 
United Nations, and authorization of the State Department and foreign 
aid budgets over several years. I later served as the Executive 
Secretary of National Security Council from 2001-2003, where I directed 
and managed the interagency formulation, execution, and implementation 
of U.S. national security policies as a senior staff member to National 
Security Advisor Condoleezza Rice.
    In 2004, I returned to my Michigan roots, following the footsteps 
of my grandfather and great-grandfather to become the third generation 
in my family to work for Ford Motor Company, one of the great American 
companies. At Ford, I led an 80-person team located across 20 countries 
advocating for U.S. business interests in overseas markets related to 
international trade, tax policy, and regulatory issues.
    Last year, Secretary Pompeo asked me to return to public service to 
lead our diplomatic efforts on North Korea and tackle the problem of 
North Korea's nuclear weapons program, a problem that multiple 
administrations, both Republican and Democrat, have worked to resolve 
for 25 years. For the past 15 months, as Special Representative for 
North Korea, I have led a State Department and interagency team as we 
seek to eliminate the threat posed to the United States and our allies 
by North Korea's weapons of mass destruction and ballistic missile 
programs. We work closely on this effort with our allies--the Republic 
of Korea, Japan, and Australia in the Indo-Pacific, as well as NATO 
Allies--and others around the world, including China, Russia, members 
of the U.N. Security Council, the EU, and ASEAN. While we have not seen 
concrete evidence that North Korea has made the choice to denuclearize, 
we still believe that Pyongyang can make this choice, and if confirmed, 
I will continue to press U.S. efforts to make progress on the 
commitments President Trump and Chairman Kim Jong Un made at their 
Singapore Summit.
    As my work on North Korea and prior service demonstrates, I am 
deeply committed to diplomatic solutions to address seemingly 
intractable problems. If confirmed as Deputy Secretary, I will continue 
to champion diplomatic approaches to the tough challenges our Nation 
faces to advance American interests and ensure that America remains 
prosperous, secure, and strong.
    My priorities will be simple: people, policy, and process. In order 
to operate effectively and successfully advance U.S. national security 
interests and American values, our number one priority must be our 
people, and this is an area where I plan to focus on adding value for 
Secretary Pompeo. The people of the State Department, with their 
skills, character and dedicated commitment to public service, are the 
champions of America's diplomacy. Having led teams at the National 
Security Council, Ford, and the Department, I am particularly 
interested in helping enhance our recruitment and retention of talent 
by being the employer of choice, caring for our people, developing 
their skills, and boosting their resiliency and well-being. Under the 
leadership of Secretary Pompeo, we are nearing an all-time high in 
hiring for the Foreign Service and are planning to reinforce Civil 
Service staffing to fill gaps created by a past hiring freeze. If 
confirmed, I will continue to advocate for and advance ongoing efforts 
to accelerate hiring and training of foreign service officers and civil 
servants into what is, and must continue to be, the finest diplomatic 
corps in the world. I am confident that as we look after our people, we 
will retain a premier diplomatic team, agile and flexible enough to 
take on the global opportunities and challenges we face.
    During my tenure as Special Representative for North Korea, I have 
been privileged to lead a team of talented foreign service officers and 
civil servants and benefitted from the unparalleled reporting, 
analysis, recommendations, and work conducted by State Department 
employees in Washington and around the world. If confirmed, I look 
forward to continuing to draw upon the wisdom and counsel of State 
Department experts. I will encourage debate and hear out dissenting 
views on the broad range of challenges and opportunities for which the 
State Department is responsible.
    As we formulate the policies to take on those challenges and 
opportunities, we will continue to be guided by our vision and our 
values: a vision of a world made up of strong, sovereign, and 
independent nations, thriving side-by-side in prosperity, freedom, and 
peace, and our values of freedom, human rights, democratic ideals, and 
rule of law. If confirmed, I will enhance our diplomatic efforts to 
advance these principles and defend democratic institutions against 
efforts to undermine them, including by working with civil society, 
non-state partners, and the private sector. With competitors and 
adversaries, we will work to find areas where our interests align in 
order to advance American interests, and we will disagree where 
necessary. Most importantly, we must work with our allies to enhance 
and leverage our alliances to address the full range of foreign policy 
challenges facing the United States today. In tackling these 
challenges, we are stronger because of the alliances--in this 
hemisphere, across the Atlantic, and in the Indo-Pacific--that have 
been the foundation of our national security for decades.
    And lastly, in order to ensure our people have the tools to execute 
our policies effectively, we have to get the process right. American 
foreign policy is most effective when there is smooth interagency 
coordination within the executive branch, when there is close 
communication and collaboration between the executive and legislative 
branches of government, and when possible, there is alignment with 
members of civil society and non-state partners on our policy 
objectives and execution. In my tenure as Special Representative for 
North Korea, I have sought to turn these goals into reality on North 
Korea policy, and pledge, if confirmed, to strive to meet these goals 
across all our policy priorities.
    Thank you, and I look forward to your questions.


    The Chairman. Thank you, Mr. Biegun. We appreciate that.
    And we will go to a round of 5-minute questions. With that, 
Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And I wholeheartedly appreciate your statement, 
particularly your view, of what makes this nation great and the 
role the State Department plays in that, and I would fully 
embrace that. And if you are confirmed, we look forward to you 
actually being able to fulfill that vision.
    Now, I want to ask you a series of questions today of 
actions that you might take as the Deputy Secretary. I would 
rather have spent my time on policy, but if confirmed, there 
are a range of personnel ethical, legal, and policy issues I 
think that you will confront. These are not theoretical 
abstractions. If they say that past is prologue, then I think 
there is a great possibility that you will face some of these. 
So let me begin.
    This morning, Ambassador Sondland testified that Mr. 
Giuliani, the President's personal attorney with a long list of 
financial conflicts of interest in Ukraine and elsewhere, 
worked for the State Department at the direction of the 
President, that Mr. Giuliani was expressing the desires of the 
President of the United States, that Mr. Giuliani's requests 
were a quid pro quo, and that relevant decision- makers at the 
National Security Council and State Department knew the 
important details of these efforts, which appears to have 
sought to use U.S. security assistance to extort assistance on 
the President's personal and political agenda.
    Does this sound to you like normal U.S. foreign policy?
    Mr. Biegun. Senator Menendez, I know that in parallel with 
this hearing are the continuation of the hearings on the House 
side reviewing the activities around Ukraine. And I should 
start by stating the obvious, that in the 15 months I have been 
at the Department of State, my responsibilities have been 
around the issue of North Korea. So in regards to the specific 
matters around the Ukraine inquiry that is happening in the 
House of Representatives today, I do not have anything I can 
add to your understanding.
    Senator Menendez. I did not ask you that. You are an 
excellent attorney.
    Mr. Biegun. I just want to say this for the record.
    Senator Menendez. But I am not going to have you eat up my 
time as the State Department does.
    Mr. Biegun. Okay.
    Senator Menendez. So my question is very simple. Do you 
believe that fact pattern, whether you dispute it or not, 
whether you know it or not--that fact pattern--is that a normal 
foreign policy process?
    Mr. Biegun. Senator, I rely upon on a large suite of 
outside advisors in my position.
    Senator Menendez. Those advisors have conflicts of interest 
against the national interests or the State Department's stated 
policy?
    Mr. Biegun. I presume--but I do not always have full 
evidence to my advantage--that each of them is motivated 
sincerely by the desire to achieve a good outcome in our 
negotiations on North Korea.
    But I will answer your question, Senator. I think the 
questions you raise are serious ones, and while I am not going 
to pass judgment at this point on facts, which I do not have 
firsthand, I will say that in my work as a member of the senior 
leadership team at the Department of State, I will seek to 
determine those things before I decide how to recommend we act 
and where I feel that it is inappropriate, I will say so.
    Senator Menendez. If you are confirmed and are confronted 
by a similar set of circumstances, what would you do?
    Mr. Biegun. Senator, I will evaluate each case on its merit 
and I will make the best recommendation to my ability. If I 
feel that somebody is, in fact, advancing their own personal 
interest in the course of interacting with American diplomats 
in a manner that is inappropriate, I will say so.
    Senator Menendez. Let me ask you this. Mr. Sondland made 
the point this morning that the State Department has not 
provided one single document to Congress regarding its inquiry 
into the Ukraine matter. And in fact, the State Department 
refused to provide him access to his own materials as he 
prepared for his testimony.
    If confirmed, will you cooperate with the Congress and 
provide documents and materials as requested regarding the 
Ukraine investigation and other matters.
    Mr. Biegun. Senator, as I said in my opening statement, I 
have a long record on both sides of the equation on the 
interactions between the executive branch and the Congress. I 
will always be accessible. I will always be straight with you 
where I believe the committee can extend those documents----
    Senator Menendez. And I look forward to that. But my 
question is, will you provide documents?
    This administration, this State Department--forget about 
Ukraine for the moment. We cannot get information about the 
texts of an executive agreement. We cannot get the legal 
justification for failure to comply with the Magnitsky Law and 
the brutal murder of Jamal Khashoggi. We cannot get the legal 
basis for bypassing Congress and arguing there was an emergency 
that necessitated 22 arms sales to Saudi Arabia, any material--
any material, not so much as one document.
    So I appreciate your future open door policy. That does not 
guarantee me and other members of this committee, who have an 
oversight role over the State Department, the documentation to 
make independent decisions and judgments about what is going 
on.
    Can I get from you that if you are in this position, that 
you will have a more forthcoming attitude in providing 
documentation to the committee?
    Mr. Biegun. Yes.
    Senator Menendez. Now, one final set of questions, if I 
may. Would you commit to making clear that political 
retaliation is absolutely not acceptable and to hold 
accountable any State Department official found to have 
undertaken any act of political retribution at the Department?
    Mr. Biegun. Senator, I will state it here. All of us should 
be guided by the professional requirements as leaders in the 
Department of State which precludes us from making political 
considerations on personnel issues or assignments.
    In the case of the people who are involved in this inquiry 
in the House of Representatives currently, the State Department 
has made clear--and I believe that Under Secretary Bulatao did 
the same to you in a direct letter--that there will not be 
disciplinary action by the State Department against any of our 
employees who are testifying under subpoena in front of the 
House inquiry commission.
    The State Department has gone further. We have provided 
resources to underwrite the legal costs that those people may 
acquire in the course of this inquiry, and we have also sought 
to provide travel orders and support so that people who are 
located outside the United States of America can return to meet 
their responsibilities in front of the Congress.
    Senator Menendez. I appreciate that, although the political 
retribution I was speaking of certainly encompasses all those 
people, and I am glad to hear that is the Department's view.
    But there is an Inspector General's report about political 
retributions against individuals outside of the Ukraine 
process, and there are still ongoing investigations. And it is 
in that context that generically across the board I would 
expect you to oppose any effort of political retribution 
against an individual.
    Mr. Biegun. Senator, I have had the advantage of working 
very closely with a team in the State Department. I have a 
personal relationship with my entire team. If confirmed by this 
committee, I will have responsibilities to 76,000 men and women 
around the world, and I will not be able to have that same 
personal relationship with each of them for obvious reasons. 
But what I can do is have that same personal interaction with 
the other leaders in the Department of State, and I will 
reinforce the message that you just delivered.
    Senator Menendez. Thank you.
    The Chairman. Senator Portman?
    Senator Portman?
    Senator Portman. Thank you.
    And I am very pleased that you were willing to step 
forward. You have amazing experience. I have seen it on the 
National Security Council when you worked for Condy Rice. 
Certainly the members of this committee appreciate the fact 
that you were staff director of this committee as well as your 
experience on the House side. And it is not just about 
experience. It is about judgment. So I have seen that, Steve. I 
am glad you are willing to step forward.
    As has been indicated today by my two colleagues, who have 
already spoken, it is an important job at an important time. 
And your passion for the 76,000 people who represent all of us 
at the State Department is also commendable, and I appreciate 
that part of your testimony this morning. By the way, no notes 
because it is a matter of you feeling this in your heart. I 
know that from our conversations. I think that is needed right 
now at the State Department, frankly. I think morale is an 
issue, and I think your approach will be refreshing for a lot 
of people. So I am glad you are stepping forward to do this.
    A few quick questions. One on China. As I mentioned to you 
briefly this morning, the Permanent Subcommittee on 
Investigations yesterday issued a report. We had a hearing on 
China stealing intellectual property and specifically how they 
do it through their talent recruitment programs. Shocking. The 
State Department testified it was because visas are provided 
for a lot of these individuals who then become on contract with 
the Chinese government. The Chinese Communist Party actually 
controls this process, and then they are asked not to tell 
U.S.-funded entities, say, the National Science Foundation, 
NIH, Department of Energy, that they are, in effect, working 
for a Chinese institution, not allowed to disclose that. And 
they are required in many cases, as you know, to bring 
information, research back to China.
    Do you agree that we need to tighten this up? And 
specifically, will you work with us to ensure that the visa 
part of this is part of the approach that we take. The 
screening on the visas is virtually nonexistent now in terms of 
individuals who we know are members of these talent recruitment 
programs. Can you speak to that?
    Mr. Biegun. Yes. Thank you, Senator.
    In regard to the general issue you raise, absolutely it is 
a very serious issue for us and it manifests itself in a number 
of ways not just in these visits but also it manifests itself 
in acquisitions of key industries and key parts of supply 
chains around the world, not just in the United States 
incidentally, although obviously our concern is principally the 
United States, but it happens in the countries of many of our 
friends and allies around the world as well. And we are not the 
only ones who have woken up to it. We have seen a backlash in 
countries like Australia and Germany, and the European Union 
itself is pushing in a similar direction that many here in the 
United States Congress are pushing.
    I think it is very important for us to find a way to work 
with likeminded countries in reversing this because it is a 
global problem and because a lot of times those technologies 
may be made in America, but they are found all over the world. 
And likewise, many technologies from other parts of the world 
make their way here into our industries and into our economy 
and into our military industrial complex.
    Senator Portman. I think that is insightful. In fact we are 
working with some of those other countries because in fact we 
do provide, as we do here in America because we are transparent 
in terms of our research--we have the right ethical standards I 
believe.
    Mr. Biegun. In regard to the visas, I will take a look at 
it, Senator. I am not sufficiently in depth on issues of how we 
change consular processes and how we would do that, but it is 
certainly something I will be willing to take a look at.
    Senator Portman. Great. I will tell you your representative 
yesterday actually seemed to be asking us to help them with 
legislation to be able to tighten up some of the visa 
requirements.
    North Korea. As you know, I represent Ohio and am close to 
the Warmbier family. I appreciate your work there. But it has 
exposed this human rights disaster in North Korea to so many 
Americans, and through Otto Warmbier's death, I think there has 
been more awareness.
    You are now taking a new role not just with regard to 
negotiating with North Korea but a broader role as Deputy 
Secretary. Are you willing to help us to be able to expose the 
human rights violations that occur on a daily basis in North 
Korea? And will you help this committee, in particular, to come 
up with the right approach?
    Mr. Biegun. Sure. Senator, as I said in my opening 
statement, that is one of the core values of the United States 
of America that I will advance in all of my work, including in 
that portfolio.
    I will say that like all of you I am deeply moved by what 
happened to the Warmbiers' son. It is unacceptable. Part of the 
hypothesis of our engagement with North Korea on a broad set of 
issues, including denuclearization but others as well, is to 
create a better basis for us to be able to have discussions on 
some of these issues that have previously been off the table in 
our discussions. We are not there yet not by a long shot, but I 
assure you that not only will I give attention to these issues, 
but I will give attention to Fred and Cindy Warmbier as well.
    Senator Portman. My time has expired, but I just want to 
mention one other issue quickly, the Global Engagement Center. 
You and I have talked about it quite a bit. Senator Murphy is 
here. He may talk about it as well. We have had a tough time in 
the past sometimes getting State Department focus. Recently it 
has been good. You made a commitment to me already in private. 
If you could make a commitment here publicly that you are 
supportive of the Global Engagement Center and going after 
disinformation and propaganda of our adversaries, especially 
Russia.
    Mr. Biegun. Yes, absolutely, Senator. The Global Engagement 
Center, which was an excellent idea but a little bit slow 
getting off the ground, is now up and running. As I mentioned 
to you earlier, I had a chance to site down with the director 
of the center, Lea Gabrielle. She is incredibly talented. She 
has put together a strong team. Even more importantly, she has 
gotten office space inside the Department of State for that 
team, which is like getting blood out of a turnip. And she has 
also managed to get a substantial amount of funding, including 
support from some of the other departments, including the 
Defense Department, to get up and running. And she is up and 
running and she is doing some great work. Her and her team are 
in the process already of refuting some of the false narratives 
that we had not tools available to us to refute 4 years ago.
    Senator Portman. Thank you.
    The Chairman. Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Biegun, thank you very much for your willingness to 
serve our country and we thank your family because we do know 
there are sacrifices the family has to make.
    And I must tell you I was extremely impressed by our 
meeting and the conversations we had and by your opening 
statement today. And I do not doubt your sincerity and your 
commitments as you have expressed them.
    But I do know the pressure that you are going to be under 
by this administration to do otherwise. And that is why the 
questions we are asking are critically important, and I 
appreciate your answer to Senator Menendez in regards to if 
inappropriate conduct comes to you, you will be forthcoming in 
identifying that and then using your independent judgment in 
regards to that. At least that is how I interpreted your 
response to Senator Menendez.
    Mr. Biegun. Yes.
    Senator Cardin. You are taking an oath to defend the 
Constitution. You know firsthand the Constitution, the 
independence of the legislative branch of government. And that 
is going to be tested because we have already seen this 
administration take action that to me is an affront to the 
Constitution of the United States as to the separation of 
powers and the importance of Congress to have the information 
it needs to conduct its affairs.
    So my question to you is, if you are confirmed as Deputy 
Secretary of State, are you willing to exercise independent 
judgment in regards to the Constitution of the United States 
and the importance of the separation of branches of government 
to give your independent advice and, if necessary, publicly 
express that in regards to the constitutional responsibilities 
that the Congress has and the information that is requested 
from the Department of State?
    Mr. Biegun. Senator, I will not just say it. I will live 
it, and if I did not, I think I would be something of a 
hypocrite. I have been on both sides of this debate for a very 
long time. We will not always agree. I should say that. There 
will be places where the view of the Congress and the view of 
the executive branch do not coincide. And that is not new, but 
it should not be the default position. I will be a steady 
presence here, and we will continue to discuss these issues and 
work together to try to find the appropriate place for us to 
meet----
    Senator Cardin. Thank you on that. Again, the loyalty is to 
the Constitution. And yes, we may disagree as to a request for 
information, et cetera, but I am depending upon you to exercise 
independent judgment as to what the Constitution requires not 
so much to be the champion for this administration.
    Mr. Biegun. I appreciate that, Senator. I should just state 
for clarification. I am already under that oath. By virtue of 
the position I took in August of last year, I swore to uphold 
the Constitution and I shall continue to do so, if confirmed in 
this position.
    Senator Cardin. I want to get further clarity in regards--
you answered the question in regards to retaliation against the 
State Department officials. I understand that in regards to the 
inquiries that are taking place.
    But what I want to see from the Deputy Secretary of State 
is support for the independence of our career diplomats and a 
climate that allows them to express their views without fear 
that by expressing their honest views, that they will not be 
supported at the highest levels in the State Department. Do we 
have your commitment that you will encourage the independent 
thoughts of our career diplomats as they perform their 
responsibilities around the world?
    Mr. Biegun. Within the processes of the executive branch 
and in support of policies promulgated by our leadership, you 
have my guarantee 100 percent. Again, my words alone do not 
need to be sufficient here. I have a reputation and experience 
that I fall back upon over 20 years, and my most recent 
experience over the last year and a half in the Department of 
State, my team, which is comprised of Foreign Service officers, 
Civil Service members, political appointees, and others, 
including interagency representatives--the mantra in our team 
is that there are no such things as bad ideas, just bad 
decisions. We listen to everything. We think it through and we 
make our best recommendations.
    Senator Cardin. I appreciate that. All of us have traveled. 
All of us have seen our diplomats in theater. We have also 
visited here in the United States. Our diplomats are not 
Democrats or Republicans. They are fighting for American values 
as you expressed so well in your opening statement. And they 
need a champion in the State Department that will defend that 
tradition of our diplomats, and that is what we are looking for 
you to be able to do in your position.
    I also would express protecting the values that you hold so 
dear that you expressed so well in the history. And that has 
been challenged by this administration. And we look to our 
Deputy Secretary of State and perhaps our Acting Secretary of 
State to understand that and give that type of independent 
commitment to those values. You are expressing that. I just 
want to reinforce the point that we will expect you to exercise 
that independent judgment based upon the statements that you 
have said to us today. If that is not accurate, you should 
clarify it before this hearing is over.
    The last point I would make, Mr. Chairman, in the opening 
statement, Mr. Biegun has talked about his priorities for 
people, policies, and process. We are not going to get enough 
time in this hearing to go through all the different policy 
issues that we have concern about. So we will ask you questions 
for the record, which we do regularly. I want to underscore how 
important your answers are going to be to those questions for 
the record. And I just urge you to personally get engaged in 
those answers and do not let the White House team answer them 
for you. We are going to hold you to the answers of those 
questions for the record.
    Mr. Biegun. Thank you, Senator. In regard to your first 
question, I so far have nothing that I have said that I would 
seek to clarify and the comments I made at the beginning of my 
testimony I believe sincerely.
    As far as the many policy issues which we have to discuss, 
both you and I know that even questions for the record 
oftentimes are insufficient for the depth and nuance that we 
need to have between the two branches of government to arrive 
at good policy conclusions. This will not be the last time that 
you and I have an opportunity to talk.
    Senator Cardin. I really appreciate that answer.
    Mr. Biegun. And I look forward to that.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    Senator Paul?
    Senator Paul. Mr. Biegun, thank you for your testimony and 
thank you for your willingness to serve.
    A lot of people have criticized the President for his 
unorthodox approach to foreign policy. In fact, many in the 
foreign policy establishment would probably have no discussions 
with North Korea. We would have never gotten anywhere because 
they thought it was beneath the President to talk to the North 
Korean leader. They thought until they agreed to complete 
denuclearization, we cannot talk to them. And yet, that is a 
conclusion. That is why you start the talks to try to get to 
where you want to get. But I think we were prevented from 
diplomacy by orthodoxy, orthodoxy of having unacceptable 
parameters for discussion.
    So I compliment you for being willing to take part in that 
knowing that there is a great deal of concern that the North 
Koreans will not follow through, that we will not get the 
agreement we wish. But I do think that having a discussion and 
having diplomacy and having talks is a good thing.
    With regard to the President's willingness to talk, I think 
this also should be--the lesson of North Korea could also be 
taken to Iran as well in the sense that Iran wants all 
sanctions removed before they talk. I think that is 
unreasonable probably from our perspective. And we want 12 
points that Pompeo has laid out. And somewhere in between, 
there might be a diplomatic discussion, but we have to have a 
discussion. So my hope is that if you are appointed to this 
position, you will be open to discussions with Iran. The 
President has said he will, and I think that is one of the 
President's great strengths is he is not bound up by foreign 
policy orthodoxy that prevents us from talking.
    The President has also said that the Iraq war was the 
biggest geopolitical mistake of a generation. What is your 
opinion?
    Mr. Biegun. Can I comment on the first two?
    Senator Paul. Sure.
    Mr. Biegun. On North Korea, I want to thank you for that, 
Senator Paul. That is why I came into this position. It was a 
tough decision to come back into the government after 15 years 
outside. But the creative opportunity that the President has 
presented us with, being unhindered by--at least not completely 
hogtied by 70 years of history that preceded him, has allowed 
us to test new ideas which so far have not been successful, but 
have also allowed us to sustain a diplomatic process for over 
16 months. And the President remains of a view that Chairman 
Kim Jong-un can make this decision to move forward, and if so, 
the world and certainly the Korean Peninsula will be a much 
more peaceful place.
    In regard to Iran diplomacy, I do believe the President 
would be prepared to undertake diplomacy with Iran. It requires 
Iran to address the full range of American interests, much 
broader than what was discussed in the JCPOA, and a level of 
conduct that the President has requested of the Iranians is not 
unlike that which we would request of most normal countries 
around the world. The delta between Iran's conduct and those 
requirements are not because the requirements set the bar too 
high but because Iran's conduct is just too low.
    Senator Paul. The President has also deviated from some of 
the hawks around here who say we have to have regime change and 
we are going to begin diplomacy with saying we are going to 
have regime change. And he has said that that is not part of a 
prerequisite, obviously, for diplomacy.
    Mr. Biegun. And that is not his policy towards North Korea 
either.
    In regard to Iraq, you and I had a chance to discuss this 
during our meeting in the last week. I will tell you, Senator, 
as I said to you then, that the intelligence information that 
suggested that Saddam Hussein had an active weapons of mass 
destruction program proved to be wrong. And as that was the 
premise under which we went into the war in Iraq, it was 
unfortunate that we went in there on false pretense.
    But as I pointed out to you, Senator, the sequence of 
decisions that led to the decision to go into Iraq in 2003 need 
to be traced back all the way to 1990 to the beginning of this 
process when Saddam Hussein went into Kuwait. I will not use 
your time to go through that sequence, but I do think it is 
important for us to reflect upon the decisions--what 
contributed to the decision to go into Iraq.
    Senator Paul. I guess my question is more towards the 
question of regime change in the sense that is regime change a 
good policy. We can say we went in for WMDs, but also there are 
many people that just simply wanted regime change. Hussein is a 
bad guy. Assad is a bad guy. Qaddafi is a bad guy. And I guess 
my point--and the President has made this point--it has not 
always turned out so well.
    We have such a confusing situation in Libya now that I 
think there is more of a chance for terrorist organization in 
that chaos now. I am not certain from one day to the next 
whether our government supports the existing government of 
Libya or whether they support Haftar. And there have been 
various and confusing statements on that.
    But I guess the point is and the question is, you know, has 
regime change worked in the Middle East, or is there a lesson 
to be learned from the different attempts at regime change in 
moving forward?
    Mr. Biegun. Yes. There are two lessons to be learned.
    One is in how decisions were made, particularly in the case 
of Iraq where I believe it was the sincere bipartisan judgment 
of Members of Congress, as well as the executive branch, that 
Saddam Hussein posed a compelling threat. But with the benefit 
of hindsight, we know that the intelligence information did not 
support that case. We saw what we wanted to see, and perhaps we 
were also overly affected by the shock to our nation that came 
from the 9/11 attacks, not that that was related to Saddam 
Hussein, but only that it was driving a sense of--a mood in 
this town in which decisions like that were made in a slightly 
more fearful manner than we should ever make such decisions.
    In terms of the success or failure of those, we have a lot 
of work to do in Iraq, and Libya is in terrible shape. And so I 
cannot argue objectively with the case you laid out. My job as 
Deputy Secretary of State will be to take those circumstances 
and try to produce the best possible outcome for the United 
States of America.
    If I may, I worked for an outstanding corporate leader who 
used to look at the world from the vantage point of the top of 
a global corporation. The world is full of problems and 
challenges not of this scale or severity, but in a similar 
context, he came to talk about challenges like this as 
opportunities. And that is how we have to look at it. How do we 
make it better? Whatever decisions were made, whatever mistaken 
decisions were made have been made. We need to learn from them. 
You are absolutely correct. We need to do better next time, but 
we also need to make the very best under the circumstances that 
this administration inherited.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez, for holding this hearing.
    And to Mr. Biegun, thank you for your willingness to 
continue your service to our nation. You bring to this 
challenge and this opportunity experience here in the Senate 
and the executive branch and the private sector, and I think 
you will be fully engaged and challenged in that service, if 
confirmed as the next Deputy Secretary. And to your family, 
thank you for supporting what has been a meaningful career in 
public service and in the private sector.
    I think it is more important now than ever that the State 
Department have leadership that stands up for the expertise and 
the professionalism of the folks. You referenced the 76,000 men 
and women who serve the State Department, whether for national 
Civil Service or the career Foreign Service. And I think it is 
important they know that they work with leadership that 
advances the national interests and values of our country over 
the narrow personal or partisan interest of any one individual.
    So as we discussed when we met, this is a difficult time 
for career diplomats in the State Department. Supporting them 
will be one of the top elements of your job description. Your 
testimony notes you will prioritize recruitment and retention 
of the Foreign Service and the Civil Service.
    The women and men at the State Department work hard under 
difficult and challenging circumstances to implement U.S. 
foreign policy which, as you said, stands on the three legs of 
capabilities, interests, and our core values. I hope you will 
agree these nonpartisan career diplomats need and deserve our 
full support. I think leadership support is critical to the 
retention that you say will be a big priority.
    What are your plans to reassure our career diplomats that 
as they undertake their efforts to extend our foreign policy, 
they can do so without concern for a partisan reprisal or 
narrow agendas overtaking our national interests?
    Mr. Biegun. Thank you very much, Senator. And I very much 
appreciate the conversation we had last week.
    Let me say that part of what I hope serves as a message to 
the men and women of the State Department with whom I will 
serve, if confirmed, is our discussion today. The messages that 
I have delivered to you are not intended only for your ears but 
also for those of the people for whom I will have the 
opportunity to serve with in the future, if the committee 
confirms my nomination.
    In corporate life, we have plenty of tools to gauge the 
sentiment of the people in the organizations we work. We do 
frequent polling of our personnel, and the management and the 
leadership sit down and reflect upon those and determine course 
changes or actions, or in some cases just better explanations 
of tough realities are necessary in order for people to 
understand better and feel more part of the decisions in the 
organization. But I do not have that. We do not have that at 
the Department of State.
    But let me just start without refuting your assumption that 
in this time of turmoil with all that is going on around us 
with the members of the State Department testifying before a 
committee of inquiry, that we have to give people confidence in 
the issues that you describe. I will do so not only in what I 
say to you but, more importantly, the behaviors that I intend 
to model as part of the leadership team in the Department of 
State.
    I have had the benefit in the past year working with a 
small part of the State Department, but as I said, a 
combination of every part of the Department. We have a great 
team. I have been the benefit of getting absolutely the best 
out of that team because they understand our priorities, 
because they have a say in how we best implement them, and 
because they are aligned around that goal through their 
participation and they see their work and the results. Again, I 
cannot do that in all 76,000 people in the Department, but I 
can make sure that that is the leadership behavior that I model 
and that in doing so, that we set that tone for all of our 
leaders below the deputy in the Department of State.
    Senator Coons. Thank you, Mr. Biegun. I look forward to 
consulting with you regularly and hope that that vision, that 
prioritization of the professional career Foreign Service will 
in fact characterize your service.
    Let me ask, if I can, two more questions, Mr. Chairman.
    The Chairman. As long as you stay within the 47 seconds you 
have. Have at it.
    Senator Coons. Forty-seven seconds. Let me begin a 
question.
    The ranking member asked whether Africa has been abandoned 
by the current leadership of this administration's State 
Department. And I know you referenced in your testimony that 
your involvement in the passage of PEPFAR and its deployment 
gave you a front row seat to one of the most effective, most 
widely celebrated initiatives in our foreign aid program.
    You also remember the time when this committee annually 
passed authorization bills, and that strengthened its reach and 
its capabilities.
    As we talked about, the Global Fragility Act has passed the 
House, has passed this committee, will pass, I hope, the Senate 
with strong bipartisan support and lead to better congressional 
oversight over a stronger strategy for stabilizing fragile 
states. This would be critical in the Sahel in Africa, as well 
as in the Northern Triangle.
    Can I count on your support to actually implement that 
legislation if it finally passes this body? And what do you 
intend as a priority for U.S. Africa policy?
    Mr. Biegun. Yes, you can, Senator. I had a chance, after 
our meeting, to review the Global Fragility Act. It looks like 
a very sound piece of legislation to me. One of my colleagues 
at the State Department is going to be up testifying before the 
Congress in a few weeks, and I am going to leave more 
definitive judgments or tweaks to him.
    But let me say that in my experience here on the committee, 
while we did authorize foreign aid successfully a couple of 
times, the most effective foreign aid programs we did were 
narrow, targeted efforts to authorize specific priorities or 
specific regions, the SEED Act, the Freedom Support Act, the 
Millennium Challenge Corporation, PEPFAR. And I encourage you, 
Senator, to think this way. I think that is how this committee 
can be most effective in demonstrating the will of the 
Congress. Of course, you have the legislate that in order to 
move that through, and I assure you that the executive branch 
will be a partner and dialogue with you that if we have any 
tweaks or any priorities that we would like included in the 
legislation, we will communicate those to you.
    Senator Coons. Thank you. I think the MCC put out a 
framework that has been transformative and should be applied 
more broadly to a lot more of our foreign aid programs, and I 
am hopeful that the Global Fragility Act will bring some strong 
bipartisan authorizing and then some real partnership between 
the executive and legislative branch in how we deliver aid to 
some of the most fragile states in the world.
    Thank you, Mr. Chairman, for your forbearance.
    The Chairman. Thank you, Senator Coons.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Biegun, for your service and willingness 
to serve.
    Could you explain a little bit further your continued role 
in North Korea policy under this new position, if confirmed?
    Mr. Biegun. So, Senator, as you know from our many 
meetings, I serve as the lead person in the Department of 
State. We do not have any infrastructure or bureaucracy built 
around the North Korea issue because the United States has 
never had diplomatic relations with North Korea. While 
ostensibly it fits, to some extent, within our East Asian and 
Pacific Affairs Bureau, for many, many years the State 
Department has determined that having a special representative 
is an important part of bringing focus to that.
    I do not see this as detracting from my focus on North 
Korea. I see this as us elevating further the priority on North 
Korea to the Deputy Secretary position. And I think that is 
very important. I think that is not only an important message 
of the President's priority and his confidence that we can 
reach an agreement here, but it is an important message to our 
counterparts of North Korea as well.
    The person who needs to negotiate with me in North Korea is 
the First Vice Minister of Foreign Affairs, Choe Son-hui. So 
far, she has not participated in these negotiations in a 
meaningful way, and my position as Deputy Secretary of State is 
going to make sure that when we engage the North Koreans, they 
are bringing forward a person at a sufficient level of 
leadership and confidence in their leadership that they can 
actually sit across the table from me and make decisions about 
how we implement the vision that the two leaders agreed to in 
Singapore.
    Senator Gardner. Could you describe the current status of 
our negotiation or posture with North Korea?
    Mr. Biegun. We are now 15 months--I am 15 months into my 
tenure. We are about 16-17 months since the Singapore summit.
    We have agreed with the North Koreans on a broad construct 
for how to pursue these negotiations. The two leaders agreed in 
Singapore on four priorities: transforming relations, advancing 
a permanent peace regime on the Korean Peninsula, 
denuclearization of the Korean Peninsula, and recovery of 
remains, which I would say more is closing the historical 
tragedy of the Korean War, healing the wounds of that war in a 
way that we were very successful with our friends in Vietnam 25 
years ago when we normalized relations with them. This is a 
core part of two societies coming to grips and reaching closure 
and moving forward.
    In each of these areas, we have discussed with the North 
Koreans feasible, specific initiatives that can begin advancing 
us in that direction while needing to put in place a broader 
construct----
    Senator Gardner. Do you believe that we are closer to 
denuclearization today of the North Korean regime than we were 
15 months ago?
    Mr. Biegun. I do, but I have to say, Senator, in all 
candor, there is no meaningful or verifiable evidence that 
North Korea has yet made the choice to denuclearize. But as was 
discussed earlier, we have to start with the point of 
engagement. We have listened to the North Koreans.
    Senator Gardner. And our policy remains complete, 
verifiable, irreversible denuclearization of the North Korean 
regime.
    Mr. Biegun. Yes, sir.
    Senator Gardner. And maximum pressure continues to be the 
doctrine that the administration will apply.
    Mr. Biegun. Senator, we have maintained through the entire 
tenure of my role here, oftentimes to the discontent of the 
North Koreans, the complete set of sanctions that are in place. 
But the President has said he would be pleased to have the 
opportunity to move forward in a balanced way with the North 
Koreans towards that ultimate goal of complete, verifiable, 
irreversible denuclearization if we could begin to make 
progress on the real issues, the tangible issues of 
denuclearization.
    Senator Gardner. Is China doing everything they need to be 
doing to enforce sanctions against North Korea?
    Mr. Biegun. No.
    Senator Gardner. Is Russia doing everything they need to be 
doing to enforce sanctions against North Korea?
    Mr. Biegun. They could do more.
    Senator Gardner. Should we continue our efforts to sanction 
third parties in China, Russia, and beyond that are violating 
the sanctions?
    Mr. Biegun. We do.
    Senator Gardner. And you would support those sanctions and 
continue those sanctions.
    Mr. Biegun. We do.
    Senator Gardner. Thank you.
    Turning quickly to the burden sharing agreement with South 
Korea, it is your belief, if confirmed, to continue to advocate 
for presence of U.S. military personnel in South Korea.
    Mr. Biegun. Countries like South Korea, with which the 
United States has longstanding shared interests and values, our 
alliance partners who are the foundation of American influence 
in various parts of the world, South Korea is among our most 
important alliance partners. That does not mean anybody gets a 
free ride. We have a tough burden sharing negotiation that we 
are in the middle of with the South Koreans. We have asked a 
lot of the American armed forces to serve abroad----
    Senator Gardner. But you believe we should continue a 
presence in South Korea.
    Mr. Biegun. I do.
    Senator Gardner. Thank you.
    Japan is the same--the SMA. Negotiations are going to 
continue but we should maintain a presence in Japan.
    Mr. Biegun. Not just with Japan but with all the countries 
with which we have alliances currently. But it also requires 
those countries to take fully seriously their responsibilities 
in the alliance as well. I am confident we can do this through 
negotiations, but these are going to be tough negotiations.
    Senator Gardner. There were some very disturbing reports 
out of China--continue to be very disturbing reports out of 
China particularly related to the treatment of Uighurs, ethnic 
minorities in western China, in Xinjiang in particular. We have 
reports in the New York Times that students were told their 
behavior could shorten or extend the detention of their 
parents. They were threatened for their own good that their 
behavior fall in line with the Chinese Communist Party 
officials and dictates. Senior party leaders were recorded 
ordering drastic and urgent action against Uighurs. Some very 
disturbing documents have been released in the New York Times 
and others.
    What should the United States be doing right now as it 
relates to China's treatment of ethnic minorities, Uighurs, 
Christians, you name it, detention camps that are more like 
concentration camps, reeducation camps that are simply a prison 
not a school, and the threat that the people of China are 
facing from these kinds of actions?
    Mr. Biegun. So I saw that same press report that you 
described and I read the documents and they were chilling.
    I also saw a press report maybe a week before that that 
showed some of the photographic evidence of the systematic 
elimination of Muslim heritage sites, cemeteries, mosques.
    While I in no way question the veracity of these accounts, 
I have learned to be a little bit gun shy about accepting at 
face value either photos or reports these days because of the 
ease with which these can be manipulated or manufactured. But 
that said, I have no reason to question the veracity of these, 
and in fact, I think all of these reports suggest an appalling 
type of behavior that is targeted against an ethnic population 
and a religious community in China, and it is unacceptable.
    Senator Gardner. I apologize. I am out of time.
    Should we pursue sanctions, Global Magnitsky sanctions, or 
others against Chinese officials responsible for the detention 
of these?
    Mr. Biegun. We will take a look at it, Senator.
    The Chairman. Thank you.
    Mr. Biegun, let me follow up for just a minute on an area 
that was raised by Senator Gardner. You know, I was sitting in 
the closing ceremonies of the Olympics in 2017, the Winter 
Olympics, in Seoul with a number of people from the State 
Department when all of our cell phones went off with the news 
that Kim Jong-un had indicated that he was willing to talk and 
talk along the lines that we had to have, and that is the 
complete, verifiable denuclearization. And admittedly it came 
through the South Koreans, not the North Koreans. But I think I 
can tell you that all of us were shocked that that direct kind 
of a communication came out. Since then, of course, you and the 
administration are making the serious efforts that you have to 
try to get to that point.
    We all know that this is a one-man show, and I cannot 
fathom that that text that came out was not authorized, and 
indeed, Kim Jong-un himself as much has said that that is where 
he was at the time.
    Give me the executive summary. What is holding us up right 
now? Because he obviously does have the kind of power that 
nobody in this country has or, for that matter, most countries 
have. What is holding this up right now?
    Mr. Biegun. Senator, let me start by saying that the 
President continues to have confidence that the discussions 
that he has had in private and in larger groups with Chairman 
Kim convince him that we can move forward on the priorities 
that the two of them agreed to in Singapore. The job of my team 
and myself are to test the hypothesis of whether or not the 
North Koreans can make that choice.
    In the course of the meetings that I have had over the 15 
months as the lead U.S. negotiator, I have met with 
counterparts on the other side of the table who are capable, 
who are experienced diplomats. But they have no authority. They 
have been given no authority to work through the hard, 
complicated issues that we are going to have to make progress 
on in order to present each of our leaders in North Korea and 
the United States a successful path to achieve the vision they 
laid out in Singapore. You described the North Korea system 
well. This is why the administration, the President, has used 
direct contact at the leader level as a catalyst to change the 
dynamic that has failed to produce a durable solution for 25 
years to these intractable issues. But at the same time, we 
have to convince the North Koreans to open space below the 
leader level for the kind of dialogue we have.
    This goes back to my answer to Senator Gardner, that if 
confirmed in this position, I will bring a higher stature to 
the North Korean issue. I am fully committed, and I believe it 
is possible for us to get a diplomatic outcome that is 
satisfactory to the United States and that I believe the North 
Koreans at the end of the day will find satisfactory as well.
    But we have yet to engage with an empowered negotiator 
across the table. I believe that person is the First Vice 
Minister of Foreign Affairs, Choe Son-hui. She has the 
confidence of Chairman Kim. She is among the senior leaders in 
the North Korean Ministry of Foreign Affairs. She is constantly 
in his presence, and she has been given the level of confidence 
by Chairman Kim that President Trump has given to me.
    And let me say I fully believe in the President's policies 
here. I think he has created an opportunity for us that we have 
not had in a generation. The window is still open, but the 
North Koreans should not miss this opportunity. If we cannot do 
it with the circumstances we have now, with the alignment of 
leaders we have now in South Korea, Japan, even Russia and 
China--even with countries like Russia and China with whom we 
agree on very little, we do agree on the objectives for peace 
and stability on the Korean Peninsula and for transforming 
relations there to a much better future for all of us. But 
ultimately it is the North Koreans that have to make the 
choice, Mr. Chairman. And as I said earlier to Senator Gardner, 
we do not have any verifiable or meaningful evidence that they 
have yet made that choice. Our hypothesis is they can make that 
choice, and that is what our determined efforts are designed to 
test.
    The Chairman. Well, I appreciate that. And I agree with 
everything that you have said.
    I guess the thing that has troubled me is, first of all, 
there was no reason for Kim Jong-un to make the statement he 
made if indeed he was not headed in that direction. There would 
be no reason for him to do that.
    And then secondly, when I was in North Korea, I was--as I 
am sure you have been--incredibly impressed with the bench on 
each side like Allison Hooker on our side, people who have been 
at the table for decades on all the details of this. And so my 
view of these things is that you can really get to the place 
that you want to get to if both sides have a common objective 
and if both sides are acting in good faith to get there. It is 
just a matter of working through the details to get there, and 
that has proven to be elusive it seems to me. And I am 
surprised at that, like I said, with the experience these 
people have had. These people know each other on a first name 
basis that have been working for decades at this.
    So that is just my impression being outside of this, but 
your thoughts on that.
    Mr. Biegun. When we engage in these discussions with the 
North Koreans, Senator, it is fairly obvious to us that we are 
able to reach the people. We have good discussions, even a few 
weeks ago when our two teams met in Stockholm. While the 
characterization after the meeting was quite negative from the 
North Korean side, during the course of a daylong discussion, 
we had a very constructive discussion about feasible steps that 
we could take moving forward to advance the vision of the two 
leaders. For their own reasons, they chose to characterize that 
as a failure. They even used the word ?sickening? talks.
    The dilemma we face here is there are the people and there 
is the system. Reaching the people is not our challenge. 
Penetrating the system is. But that is where we need the strong 
support of the leader of that system, Chairman Kim, to create 
the space below himself to empower a negotiator who is capable 
and has his confidence to advance that vision.
    President Trump has given my team and myself all of the 
tools we need to test the hypothesis that I described. The 
window is still open. But we all know that events of the world 
move on. The provocations that we have seen in recent months, 
various things that happen here, congressional legislation, 
human rights resolutions, speeches, comments, commentators, 
private citizens, all are sufficient to affect the view of the 
North Koreans on this diplomacy. And we cannot stave all of 
that off. We are a democratic society. We have separate 
branches of government that speak for themselves. But the 
window is still open. That is the message for the North 
Koreans. The window is still open but they need to seize the 
moment.
    The Chairman. Thank you for your optimism and your sincere 
work in this regard.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank you for your service, Mr. Biegun. I really 
appreciate you are willing to step forward in these difficult 
times.
    Will you recommend to the President, the Secretary of 
State, and the National Security Advisor that they seek an 
authorization from Congress, as required by the Constitution, 
before entering into any hostilities with Iran?
    Mr. Biegun. So, Senator, I have been part of this debate in 
the Congress.
    Senator Udall. This is a pretty straightforward yes or no 
here. I understand that there is a debate, but this is a 
constitutional issue. You are a lawyer.
    Mr. Biegun. I am not a lawyer, sir. I am a former 
congressional staff member and a representative of the 
executive branch. But I have participated in this.
    We are strongest when we have the Congress and the 
executive branch standing together in unity. That is what 
happened in 1990--1991 when George Herbert Walker Bush sought 
authorization for the use of force to expel Saddam Hussein from 
Iraq. That is what happened after 9/11. That is what happened 
in 2002 when we went into Iraq. It does not always guarantee 
success, but it is the best foundation for us to send our armed 
forces abroad.
    At the same time, Senator, this is a subject fraught with 
constitutional disagreement between the two branches of 
government. It is one that has never been completely settled, 
and it is not my intention today as a non-lawyer to create any 
new precedent.
    Let me just say that I believe that that kind of engagement 
between the executive branch and Congress is important and 
constitutes an important part of not only success in these kind 
of undertakings, but also in winning and sustaining the support 
of the American people who ultimately bear the brunt of 
decisions on sending their sons and daughters into conflict.
    Senator Udall. With the U.S. troop withdrawal from Syria, 
the Trump administration has touted that he is fulfilling a 
campaign promise to bring troops home. In contrast, there have 
been reports that the administration will now keep troops in 
northern Syria to defend an oil well in possible violation of 
U.S. and international law.
    Meanwhile, we are deploying several thousand additional 
troops to Saudi Arabia apparently because they are paying for 
our petroleum and paying for our protection.
    I voted for the 2001 AUMF, and I can tell you that Congress 
never intended to give the President permission under the 2001 
AUMF to defend an oil well in Syria or to invade Syria, for 
that matter.
    Under what legal authority is this administration 
maintaining troops in Syria, and who are we giving the oil to? 
And do we know what they are doing with the money they are 
getting for it?
    Mr. Biegun. So, Senator, I will confess that I do not have 
all of the details at my disposal currently prior to taking the 
position to understand the totality of the issues that you are 
raising.
    But let me say generally I do know that we are retaining 
that presence in Syria, and it is my understanding as well that 
it is for purposes of protecting vital economic interests but, 
mostly in that case or entirely in that case, to deprive some 
of the more malign forces that remain in Syria from seeking 
access to those resources to support their own aims.
    The United States policy in Syria with the troops that 
remain there and our presence in the region of the Middle East 
are to maintain the enduring defeat of ISIS, which is going to 
require a longer effort than we have seen so far. It is also to 
seek to be part of the leverage that we use to achieve a more 
peaceful outcome in the Syrian territory, the restoration of 
its sovereignty, the return of internally displaced people and 
refugees to their homes, and ultimately also to maintain U.S. 
leverage to keep Iranian influence from growing any further 
and, if possible, reversing it.
    The authority for that is likely, Senator, the same 
authority that the executive branch used in the initial 
deployments into Syria before this President took office.
    I understand the strong views here in the executive branch 
about the need for these authorizations. I will tell you like 
many other issues we have discussed today, I have been on both 
sides of that equation. My view is that we are at our strongest 
when we are unified on these issues.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Romney?
    Before you start, for the benefit of the committee, we have 
a vote that just started, and what I intend to do is to run 
that along as late as we can until they are screaming for us to 
come down and vote. We will take a break when we do, go down 
and vote for the first and the second, which will be the only 
two in this tranche, and then come back here to finish up, just 
for everyone's edification.
    So with that, Senator Romney.
    Senator Romney. Mr. Biegun, thank you for being here today 
and for your willingness to serve our country yet again.
    Thank you, Mr. Chairman, for hosting this hearing and our 
ranking member.
    I presume you were born at Henry Ford Hospital in Detroit. 
Is that right?
    Mr. Biegun. Providence, sir. Providence.
    Senator Romney. I was born in Harbor Hospital in Detroit, 
so we have that shared beginning although not in the same 
hospital. I cannot imagine you would not have been at Henry 
Ford, given your family history.
    Mr. Biegun. Yes. My grandfather and great grandfather both 
worked for Ford, but my dad slipped out of the auto industry. 
But I found my way back to it a generation later.
    Senator Romney. They should give a discount for family 
members.
    Putting that aside, I believe the challenge of the century 
that we have is one where democracy, human rights, a vibrant 
economy, free enterprise, freedom itself is going to be 
challenged by an emergent China, which has an entirely 
different model based upon authoritarianism.
    Is that a fair characterization from your point of view?
    Mr. Biegun. It is, Senator. It has been much debated in 
recent years about whether or not the basic assumptions we made 
in the late 1990s and the early 2000s will prove to be 
completely wrong, and I think there is plenty of evidence to 
suggest they are. We thought we could bring China into global 
institutions, and the global institutions would change the 
behavior of China. But instead, what we have seen is a 
concerted effort by China to change the rules of the global 
organizations. Those rules help us. Those rules are good for 
us, but they are also good for the world. And it is very 
important for us that we fortify across the board the effort to 
reinforce these global norms.
    Senator Romney. I totally agree. That is the challenge of 
the century where freedom, human rights, democracy, the 
prosperity of all by virtue of the power of free enterprise is 
being challenged by China that has an entirely different model.
    They also have a very effective strategy, a very 
comprehensive strategy, which encompasses not only their desire 
to become the economic, military, and geopolitical leader of 
the world, but a strategy which has as its point of the spear 
economic warfare, if you will, of a kind, not playing by the 
rules that the rest of the world plays by, as well as taking 
away the rights of their people, indoctrinating their people, 
brainwashing their people, and affect public attitudes around 
the world.
    Some people say that we have a strategy. I made a living 
working in strategy. We do not have a strategy that stands up 
under the meaning I would apply to that term. They do.
    I would hope that the State Department and you in 
particular would augur for the creation of an American and 
Western strategy to protect the rules of the road as it relates 
to our economy, to protect our military lead, and to protect 
our geopolitical priorities and believe it is of the highest 
urgency that we contemplate the development of that kind of 
strategy.
    Do you agree with that?
    Mr. Biegun. I do, Senator. I agree with you that--of the 
desires that you see in the People's Republic of China, but I 
would point out that desire does not equal likelihood of 
success. Strategy affects likelihood of success but not desire. 
The Chinese may desire this, but I am not sure they have a 
great strategy. In many places around the world, I actually see 
countries reacting quite negatively to that. One of the places 
maybe we can be more effective is finding a way to work with 
likeminded partners in concert to address the issues of mutual 
concern.
    But let me also say that I spent a lot of time in China. I 
spent a lot of time there in track 2 and track 1.5 dialogues. I 
spent many years there as a business person. The company in 
which I was formerly employed was and remains heavily invested 
in China.
    China is not a monolith. I would not write off China 
altogether. There are many, many good people with whom we can 
work and with whom we can cooperate. This is a particularly 
tough moment, and I do have some deep concerns about the shift 
in the direction of Chinese leadership over the last few years, 
which in a single party state is of course consequential. But 
we should not give up on China either, Senator.
    Senator Romney. I totally agree. One of the statements that 
you made in your opening remarks was this. We must work with 
our allies to enhance and leverage our alliances to address the 
full range of foreign policy challenges facing the United 
States today. I totally agree.
    For a small country--and we are a small country relative to 
China. They are almost four times our size. Their economy will 
be larger than ours eventually--much larger. Their military 
will be larger than ours eventually given that economic base 
barring some kind of discontinuity which may occur. That is 
very possible that will occur. But they are going to be a very, 
very strong nation.
    And the way that a smaller nation is able to defend the 
global interests that are associated with freedom and human 
rights is by linking arms with our friends around the world and 
strongly encourage the State Department and you as a leader to 
foster an attitude of cooperation and joint strategy 
development with our allies around the world.
    Mr. Biegun. So, Senator, I resorted to a little corporate 
speak earlier. I do not know if you were here. But I worked for 
a former CEO of Ford Motor Company who did not refer to 
challenges but rather to opportunities. I see it as an 
opportunity-rich environment for us. We have to approach things 
the right way. We have a lot of partners we can work with, but 
I am confident that we have a lot of headroom to make some very 
important improvements and achieve alignment with many 
countries around the world on these shared concerns.
    The Chairman. Thank you, Senator Romney.
    Unfortunately, we are up against it on the vote. So we are 
going to take a break. I appreciate the inconvenience, but it 
is what we live with. So with that, we will be in recess until 
the second vote has started and we are able to vote on that.
    [Recess.]
    The Chairman. The committee will come to order.
    I apologize for the inconvenience, but it is what it is.
    Senator Cruz, you are up.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Biegun, congratulations on your nomination.
    I want to start by talking about a topic you and I 
discussed yesterday afternoon, which is Nord Stream 2. In your 
judgment, what would the consequences be for Russia, for 
Europe, and for America if Nord Stream 2 is completed and goes 
online?
    Mr. Biegun. Senator, as I said to you yesterday and I will 
affirm here, it is our policy in the United States government 
that we oppose the completion of the Nord Stream 2 pipeline. We 
think that it will add leverage to Russia's ability to bring 
political influence to bear upon many of our partners and 
allies in Europe. It will also potentially cause economic 
damage to Ukraine by bypassing Ukraine with important energy 
supplies. More importantly, it seems to me that it will also 
cement in place a certain status quo that I think needs to 
fundamentally change, which is that Russia should be engaged in 
a transparent, legitimate way with our European friends and 
allies, but they should not be given undue influence and 
certainly not under the circumstances in which we see Russian 
policies being guided today, which is to actively subvert many 
of our friends and allies in Europe. And I think this pipeline 
is simply one more tool they will be able to use.
    Senator Cruz. Well, I agree with you. Nord Stream 2, if 
completed, would help Russia. It would strengthen Putin. It 
would generate billions of dollars that could be used to fuel 
Russian aggression. And at the same time, it would hurt all of 
Europe by making Western Europe more dependent on Russian 
energy, more subject to economic coercion, more subject to 
economic blackmail. I think it is better for all parties 
concerned for Europe to be able to get energy from sources that 
will not use it as economic black-mail. And were Europe to be 
importing energy from the United States, that means jobs here 
at home instead of enriching Putin.
    As you know, this committee passed my bipartisan 
legislation on Nord Stream 2 by an overwhelming bipartisan 
vote, 20 to 2. That legislation is right now pending on the 
floor. I am hopeful that the Senate will take it up and that 
the House will pass it. Our window for getting this done is 
rapidly shrinking. Our window for getting this done--the 
current projections are the pipeline will be completed by 
January, which means we have maybe 2 months to get this done, 
and if we fail to get it done, we will have vastly strengthened 
Putin's hands at the expense of the rest of the free world. I 
hope that the Senate acts, takes it up on the floor and passes 
it. And the House does as well.
    But there is an alternative way to get the job done, which 
is under CAATSA. The administration already has the authority 
to impose these sanctions. There is right now an active debate 
within the administration about whether or not to use that 
authority. The legislation that has overwhelming bipartisan 
support is narrowly tailored. It is designed like a scalpel to 
stop this pipeline and do nothing more. There are five 
companies on the face of the planet that have the technology to 
lay the deep-sea pipeline. The Russians lack that technology 
themselves. They have contracted with two European companies. 
If Congress passes the legislation or if the administration 
simply uses its existing authority under CAATSA to implement 
the same policy--to sanction any company that lays this deep-
sea pipe, Nord Stream 2 will stop in its tracks.
    So I want to encourage you, Mr. Biegun, to go back to the 
administration to the debate that is occurring as we speak and 
make abundantly clear that giving speeches saying the 
administration is opposed to Nord Stream 2 is a completely 
empty gesture if the administration is not willing to act under 
its statutory authority it has right now to stop the pipeline. 
The strength of the rhetoric, the strength of the denunciations 
of Nord Stream 2 will be measured by one simple test: did we 
allow the pipeline to be built or not? And the administration, 
with a flip of a switch, can stop this pipeline. And so I would 
encourage you to carry that message back.
    There are voices within the administration that are 
resisting using this authority, and I think those arguments--
and in fact, the arguments they are posing is they hypothesize 
that, ``well, maybe Russia has ships that might be able to lay 
this pipeline after all.'' Now, my team thinks that they are 
incorrect in their assessment. But even if they are correct, 
the worst outcome is that imposing the sanctions on the 
companies laying the deep-sea pipe would delay Nord Stream 2 by 
over a year and cost billions more to Putin, delaying the 
benefits. The best outcome, and the outcome that I think is 
likely, is we stop the pipeline altogether. Either way, that is 
a win-win. So, I would encourage you to carry that to your 
colleagues.
    Mr. Biegun. Thank you, Senator. And as you said yesterday, 
you have also had a chance to discuss this with Secretary 
Pompeo. I have not seen him since then. He is on travel 
currently. But I assure you I will follow his lead on this.
    The Chairman. Thank you, Senator.
    I am sure you know, Mr. Biegun, that Senator Cruz's passion 
on this is not limited to Senator Cruz himself. This is 
widespread here in this institution. He speaks for the vast 
majority I think of the United States Congress on this issue.
    Senator Markey, you are next.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Biegun, thank you for your service in government and 
leading our diplomatic outreach in North Korea.
    On Monday, a senior advisor to Kim Jong-un rebuffed the 
suggestion from the administration to hold another summit. 
Meanwhile, we are 6 weeks away from the end-of-the-year 
deadline set by Pyongyang.
    Mr. Biegun, if Washington and Pyongyang fail to make 
diplomatic progress regarding North Korea's nuclear weapons 
program before December 31st, what actions do you believe North 
Korea will take and how might these actions affect the security 
of our allies and the United States?
    Mr. Biegun. Thank you, Senator.
    In fact, we have seen an unprecedented surge in North 
Korean statements, not limited to the statement that you 
referred to, which is surprising, almost unprecedented in 
discipline in North Korea on the way they communicate to us. 
And it has caused us to ponder a bit about what is exactly 
going on in Pyongyang. A number of officials--in fact, over the 
last week, we have had seven statements under the name of five 
different officials on various elements of this.
    Let me say clearly we have never proposed another summit 
with the North Koreans. It is possible that there would be 
another summit between President Trump and Chairman Kim, but 
the President has expressed the view that we should have a deal 
or a near deal in order to ensure such a summit actually 
produces an outcome that delivers on the vision of the two 
leaders.
    Let me say likewise there has been some suggestion that I 
have appealed to the North Koreans to meet again in Stockholm. 
And let me be clear. While we are willing to do so, we would do 
so at the invitation of the Swedish government that has reached 
out to us and to the North Korean regime directly.
    On a third point, on the year-end deadline, we do not have 
a year-end deadline, Senator. We have been at this for 25 
years, and we will be at this as long as it takes. That is an 
artificial deadline set by the North Koreans, and 
unfortunately, it is a deadline that they have set upon 
themselves now. That does not make it any less worthy of our 
attention, but it is not our deadline. It is their deadline, 
and they put that on themselves.
    You asked me what kind of provocations that we might expect 
in the aftermath of that. I can imagine that we could see a 
possibility of going back to some of the more provocative steps 
that preceded the start of this diplomacy to begin with. I 
think that would be a huge mistake and a missed opportunity by 
the Democratic People's Republic of Korea. The window for 
diplomacy is open.
    Senator Markey. If I may, President Trump tweeted to Kim on 
Sunday, see you soon. So I am not saying he said let us have a 
summit, but see you soon--when the presidents of two countries 
meet, that is a summit. That is the President perhaps engaging 
in diplomacy around the State Department. I do not know. But 
that is how he operates. And if that is a message sent to 
Pyongyang, then the message that came back is saying that is 
not going to happen. That was on Monday of this week.
    Mr. Biegun. Senator, can I just comment briefly on that?
    Senator Markey. I just have a couple questions.
    Mr. Biegun. Sure. Yes, sir. Go ahead.
    Senator Markey. So has North Korea continued to produce 
fissile material for nuclear weapons since the leader level 
summits began?
    Mr. Biegun. Senator, in this setting, what I would say is 
we have no evidence to suggest that they have stopped.
    Senator Markey. So that means your answer is yes. Is that 
correct?
    Mr. Biegun. Yes.
    Senator Markey. Has North Korea continued to test nuclear-
capable missiles that can target our allies in South Korea and 
Japan, as well as American forces in the region?
    Mr. Biegun. As I said, North Korea has--as I said earlier, 
Senator, we have seen no meaningful or verifiable evidence that 
North Korea has begun the process of denuclearization, taken 
the steps that we are asking.
    However, Senator, we look at this holistically. There are a 
whole range of----
    Senator Markey. Is the answer yes that they continue to 
test nuclear-capable missiles?
    Mr. Biegun. That is correct.
    Senator Markey. And next, do shorter-range missile tests 
help North Korea advance its intercontinental ballistic missile 
program?
    Mr. Biegun. One can presume that they learn things from the 
short-range ballistic missiles that can be scaled up.
    Senator Markey. Yes. So they continue to proceed. We have 
not, in fact, tightened up those sanctions to a level where Kim 
knows that we mean business. I think it is, again, a continuing 
problem. And as North Korea does advance its nuclear weapons or 
ballistic missile programs, your role is going to be even more 
important, and you are going to be in a position to perhaps do 
something about it so that you can make the recommendations as 
to how tough we have to make these sanctions to bring him to 
the table.
    And finally, North Korea also engages in systematic human 
rights violations. Last year for the first time since 2013, the 
U.S. Ambassador to the U.N. failed to place on the Security 
Council agenda an annual meeting to discuss North Korea's 
abuses. I am putting together a letter from members here to 
Ambassador Craft to make clear that the meeting must return to 
the agenda because from North Korea to Cambodia to Turkey to 
Saudi Arabia to Burma, we are seeing an explosion of human 
rights violations.
    Mr. Biegun, what steps would you take to help the United 
States strengthen our claim to moral leadership in the human 
rights area?
    Mr. Biegun. Thank you, Senator. And let me also thank you 
for your many years of leadership on the issue. I know that you 
come from a point of passion on this, as traced back the full 
25 years of our diplomatic efforts.
    Senator, we are grappling with a challenge that was fully 
manifested by the time President Trump took office and one 
which drove us to an unprecedented level of tensions in 2017, 
only to pivot to a diplomatic opportunity in 2018 that I 
continue to believe is possible. I believe the President's 
direction is sound. I have interactions with him on this issue. 
His inputs on this have almost--in fact, in all cases advanced 
what we are trying to do, including his tweets and his public 
messages, which are very specifically intended to reassure the 
North Koreans that we are prepared to engage seriously in this 
diplomatic----
    Senator Markey. My time has expired. I would just say but 
when it is not on the agenda of the Security Council, that 
sends another signal to Kim.
    Mr. Biegun. Senator, we continue to----
    Senator Markey. The more pressure that we apply by having 
other countries have to deal with it, it is the more pressure 
Kim----
    Mr. Biegun. Senator, we continue to make this issue a high 
priority. Just in the last week in the Third Committee of the 
United Nations, there was a similar resolution. It did not 
generate a very positive response by the North Koreans. In 
fact, one of those seven messages from five different authors 
that we received in the past week was a blistering 
denunciation, but that does not deter us, Senator. We have 
values that we will pursue around the world regardless of the 
country with whom we are interacting.
    My view is that if we could advance down the road some of 
the objectives that the President and Chairman Kim have 
decided, we can find an easier way to have this discussion on 
sensitive issues which heretofore have not been on the agenda, 
at least the bilateral agenda of the United States and North 
Korea. It is challenging. It is one of the most difficult 
issues we wrestle with when it comes to North Korea. But I can 
assure you we are not shying away from American values on these 
issues.
    Senator Markey. Put it back on the Security Council agenda. 
That will prove we are not shying away.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Murphy, you are next.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see you, Mr. Biegun. Thank you for your interest in 
continuing to serve.
    The ranking member referenced in his opening round of 
questions the absolutely earth-shattering testimony that we are 
hearing today from Ambassador Sondland testifying that under 
the President's orders, he and others were engaged in an effort 
to try to get the Ukrainian government to investigate or launch 
investigations connected to the President's political rivals in 
exchange for access to the White House and the release of 
security aid.
    This is a really serious moment when we are learning that 
many, if not most, of the people at the top of America's 
national security leadership were asked to do things that they 
knew were wrong, but they did them anyway. And they are now 
testifying to that in droves before the committee.
    And so I do not want to dwell on this with you, but I do 
not think it is sufficient for you to avoid sharing with this 
committee your judgment on some of the most egregious events 
that are being detailed and upon the principles that are at 
stake because you are going to be in a position in which you 
may have to deal with similar instances, if not identical 
instances, especially if there are no consequences handed down 
for this behavior.
    So let me just ask you two questions. One is a principle-
based question and one is a question based upon at least one 
fact that has unequivocally emerged.
    The first is a principle-based question. Is it ever proper 
to withhold access to the White House or security aid as 
leverage to secure political help for the President?
    Mr. Biegun. Senator, I take my lead from the Senator from 
my home State of many years ago, Arthur Vandenberg, who 
suggested that politics best stop at the water's edge. I think 
that goes into the conduct of our foreign policy worldwide, and 
that is the dictum that I will abide by.
    Senator Murphy. The answer would be that it is not proper.
    Mr. Biegun. It is not something I would recommend.
    Senator Murphy. Second, a fact-based question. You 
acknowledged that Presidents have relied sometimes on outside 
advisors both for domestic policy and foreign policy, and I do 
not deny that. There is certainly a history of relying on 
outside individuals to help advance the goals of the President 
of the United States.
    But Rudy Giuliani was and still does openly advertise 
himself as representing the political interests of the 
President. He does not represent that he is helping to 
effectuate the national security goals of this country. He is 
unabashed in his representation that he is there to represent 
the political interests of his client, Donald Trump.
    And so do you believe it was proper for Rudy Giuliani to 
play a role in U.S.-Ukraine policy?
    Mr. Biegun. Senator, I do not know what qualifications an 
individual like that would bring to these issues, and as I said 
earlier to Senator Menendez, I do not have firsthand knowledge 
of what role he played or what he was telling the President or 
what opinions the President formed based upon what he was 
telling him.
    I will tell you in my experience--and all ultimately I can 
be judged upon is the record of my own experience and my own 
reputation. I understand we will be challenged. I will be 
challenged both on policy issues, as well as issues of 
propriety, and that would happen in any administration, 
Senator. I have a record of not interjecting politics into the 
foreign policy of the United States. I work with a team of a 
dozen professionals at the State Department. I do not know 
their politics, and I do not care. Using somebody for any 
purposes other than to advance the policy is not something that 
I intend to pursue or would recommend pursuing.
    Senator Murphy. Listen, I do not think we have any other 
choice than to take you at your word. But we have had plenty of 
other nominees for important posts at the State Department who 
have sat in that seat and testified the exact same thing to us. 
And then when they were confronted with these requests to put 
the political interests of the President before the national 
security interests, they might have complained privately and 
now they are complaining publicly, but for the most part, they 
implemented those.
    Mr. Biegun. I understand your skepticism, and I understand 
the degree of concern you bring, Senator. But I want to say 
these are more than words. This is also my background and my 
experience. It is a model that I have followed.
    Senator Murphy. I appreciate that.
    I will not ask you to give a long answer to this question, 
but you and I have talked about the really damaging diminution 
in U.S. diplomatic presence in Iraq. We had 2,000 diplomats 
there in 2012, which was a very dangerous time. Today 
reportedly we have 15 State Department officials working 
directly on core diplomatic functions, and it is not 
coincidental that Iraq is beginning to unravel as the United 
States has pulled out. It is no longer justified based on 
security threats to have this minimal presence because we had 
even greater security threats confronting our diplomatic 
personnel for long portions of our time in Iraq. We need to 
find a way to get our folks back into Baghdad before we lose 
everything that we have gained in that country.
    Can you at least today just commit to me--I mean, there is 
news that this is permanent, that the Secretary has made a 
decision that we are just out of Baghdad, and that would be 
disastrous for U.S. national security interests. Can you just 
make a commitment to give a very hard look at our presence in 
Baghdad and see if there is a way to get our people back in?
    Mr. Biegun. I will, sir.
    Senator Murphy. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And, Mr. Biegun, thank you for your service. You have done 
a very good job in your current role in my view. It has not 
borne the fruit we would want, but that is on North Korea, not 
on you. And I think you have been creative, and I appreciate 
your persistence in that role.
    One of the things you told me when we talked, which I found 
fascinating, is the challenge of being an American diplomat 
when the people you are sitting with across the table are 
afraid. You mentioned that some of them put a tape recorder on 
the table when you start talking, and they are not taping you. 
They are taping themselves because others want to listen to 
them and see if they have done a good job. It is a hell of a 
thing to be a hard-working public servant and worry about 
whether doing your job will cost you your career or cost you 
your safety or even cost you your life. And that is something 
we might expect--and condemn--from another country. That is not 
something that should ever be thought of about the United 
States.
    You have an ambassador who is a career Foreign Service 
officer who was fired under highly unusual circumstances, and 
the person who currently occupies your position, John Sullivan, 
told her she had done nothing wrong. He confirmed that in 
testimony here last week. So her career has been significantly 
affected. When the American with the loudest bully pulpit in 
the world says that she is bad news and then tweets out that 
she may bear some responsibility for the internal disarray in 
Somalia, her career has been affected.
    It is more than just career. There is reporting in the Wall 
Street Journal and Reuters and other publications that the Army 
is now assessing whether they need to move one of the witnesses 
who has testified in the House, Lieutenant Colonel Vindman, who 
lives in Virginia--whether they need to move him to a military 
base to protect him because of allegations that have been made 
about his loyalty, about his patriotism, about his character, 
and about his judgment.
    If you are confirmed into this role, you will be chairman 
of something that is called the ``D Committee,'' which I 
understand is the committee within the State Department that is 
sort of the key committee dealing with personnel. The D 
Committee is an internal body that reviews career candidates to 
serve as chiefs of missions, ambassadors, and deputy assistant 
secretaries, and makes recommendations to the Secretary for 
such positions. A key responsibility, should you be confirmed, 
is the assessment, of the promotion of, the protection of 
people who are at the State Department.
    Will you commit to me that you will do everything, should 
you be confirmed, to protect State Department employees from 
any political retaliation because of their good faith public 
service?
    Mr. Biegun. Yes, Senator. You have my commitment, and if 
confirmed, I will take those responsibilities very seriously. 
These folks are my colleagues. They are my team, and they are 
my friends.
    Senator Kaine. Thank you for that. Thank you for that.
    This morning, just coincidentally, I had a hearing in the 
Armed Services with the Deputy Secretary of the Department of 
Defense, so it would sort of be your equivalent, should you be 
confirmed, at the DOD, David Norquist. And we asked him about a 
letter that he sent to--it is dated October 22, 2019--I will 
put it in the record--to Daniel Levin, who is an attorney at 
White & Case.


    [The material referred to is located at the end of this 
hearing transcript.]


    Senator Kaine. And it was a letter sent to him because Mr. 
Levin is an attorney who was retained by Laura Cooper, who is a 
DOD Assistant Secretary of Defense for Russia and Ukraine. It 
looks to be a boilerplate letter that is being sent to those 
who are being summoned to testify before Congress.
    The letter in its kind of operative paragraph says, this 
letter informs you and Ms. Cooper of the administration-wide 
direction that executive branch personnel cannot participate in 
the impeachment inquiry under these circumstances. The letter 
goes on to say, in the event that the committee issues a 
subpoena to compel Ms. Cooper's appearance, you should be aware 
that the Supreme Court has held in United States v. Rumely that 
a person cannot be sanctioned for refusing to comply with a 
congressional subpoena unauthorized by House rule or 
resolution.
    Do you know whether the State Department is sending this 
kind of a boilerplate letter to State Department employees who 
are being asked to testify to Congress?
    Mr. Biegun. I do not know, Senator. But I do know that our 
Under Secretary for Management, Brian Bulatao, has sent a 
letter to the ranking member of the committee just recently in 
which he reaffirmed that State Department employees testifying 
under oath in front of the House review committee will not face 
any disciplinary action, that the State Department is seeking 
to provide provision for offsetting legal expenses for those 
people.
    Senator Kaine. That is helpful.
    Mr. Biegun. Their travel is and meeting the requirements of 
the committee will be----
    Senator Kaine. And you intend to honor that commitment.
    Mr. Biegun. It is our commitment.
    Senator Kaine. Right. Thank you.
    Your predecessor, John Sullivan, was here recently, and he 
was asked by Senator Menendez during his confirmation hearing 
for the Ambassador to Russia position whether he thought, 
quote, it is ever appropriate for the President to use his 
office to solicit investigations into a domestic political 
opponent. I appreciated that Deputy Secretary Sullivan was 
unequivocal. This was his response. Quote, soliciting 
investigations into a domestic political opponent? I do not 
think that would be in accord with our values.
    Do you agree with that testimony of the person whose office 
that you might be approved to?
    Mr. Biegun. First of all, I hear Deputy Secretary 
Sullivan's voice in that comment.
    Senator Kaine. With the Boston accent.
    Mr. Biegun. And he is somebody for whom I have a lot of 
respect, and I would not diverge from anything he said, 
Senator.
    Senator Kaine. So you do affirm the principle that he 
testified to.
    Mr. Biegun. My view is that we need to leave the politics 
at the water's edge.
    Senator Kaine. Thank you.
    One last question. Were you involved in the decision--I 
think I know the answer to this, but just for the record--that 
was recently announced by the Secretary of State that the 
United States would overturn decades of policy and no longer 
consider settlements in the West Bank a contravention of 
international law?
    Mr. Biegun. Senator, I have not yet had the pleasure to 
expand my portfolio beyond North Korea. I look forward to 
taking on the full range of issues in my responsibilities as 
Deputy. But prior to confirmation, I have not had any----
    Senator Kaine. Do you know whether it is still United 
States policy to support a two-state solution with a nation of 
Palestine and a nation of Israel living side by side in peace?
    Mr. Biegun. My understanding is the common denominator in 
all of these policies over the past 2 and a half years is to 
create a basis for the two parties themselves to agree on all 
of these issues. I do not know the specific answer to your 
question, but I expect that as Deputy I will have enhanced 
responsibilities for the Middle East. And that is an issue that 
we will certainly be prepared to continue to discuss with the 
committee.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Biegun, just a few final questions.
    In reference to Mr. Cardin's statement, which I fully 
endorsed, that questions for the record here are going to be 
very important, many of Deputy Secretary Sullivan's QFR 
responses on issues under the Deputy's purview were either 
incomplete or unacceptable. So we are going to be resubmitting 
these questions for you. They are not specific to him. They are 
specific to the position. And I hope that we get a better 
response this time around.
    I want to follow up on both Senator Murphy's and Senator 
Kaine's question because you are very artful in how you express 
yourself even though I thought you were a lawyer. So that is 
how well you do. But you said in response to Senator Murphy, it 
is not something I would recommend. And you have just repeated 
to Senator Kaine that I believe politics must end at the 
water's edge.
    That was a statement used as it relates to Members of 
Congress, particularly of an opposing party of whoever an 
administration is, not to ultimately engage in criticism abroad 
of an administration's policies here at home. And that is 
something I have tried to embrace during my time in nearly 30 
years in Congress on the Foreign Relations Committee in the 
House and the Senate.
    But that is not the question. The question that was posed 
to you, do you believe that it is proper to ultimately create a 
condition to access to a meeting with the President of the 
United States and/or to withhold security assistance to a 
country for the political purposes of a domestic political 
opponent--to review a domestic political opponent.
    So I ask you the synthesized question. I am not talking 
about Ukraine right now. I am talking about in a broader 
context. Is that proper?
    Mr. Biegun. In principle, no.
    Senator Menendez. Okay.
    Now, does it trouble you that the Department has not come 
out in a forceful defense--actually forget ?forceful?--any 
defense of Ambassador Yovanovitch, not when she was smeared 
with no basis, not when she was attacked by the President, not 
on Friday?
    I am deeply troubled by it. I happen to know Ambassador 
Yovanovitch. She has had confirmation hearings here, including 
for her position in Armenia, as well as Ukraine. I asked her 
really tough questions, as I am asking you. I have the deepest 
respect for her as a career Foreign Service officer. But there 
is no defense of this Ambassador.
    And I bring her up because this is the crystallization of 
what we have been trying to ask you in a broad context about 
how you are going to stand up for the Foreign Service people. 
Are you in any way upset by the way she has been treated?
    Mr. Biegun. Senator, I am going to start with the point 
that every--it has been much mentioned in the past weeks, which 
is all of us, myself included, as presidential appointees serve 
at the pleasure of the President. I know you are not 
questioning that, and I know you are not questioning the 
prerogatives of the President to make changes in his personnel 
for the reasons that he chooses. And I have seen over 30 years 
those types of personnel changes for many different reason, 
performance-related, policy disputes, in some cases because one 
official coveted the position of another official and used 
sufficient influence inside the administration to supplant them 
and take the position. In general, Presidents have this 
authority and it is unconstrained.
    In regard to Ambassador Yovanovitch, I know her. And we are 
not close. I have not seen her in many, many years, but we 
worked together when she was in Moscow as a young political 
officer and I was working closely with Russia in a different 
respect. And I found her to be a very capable Foreign Service 
officer. And through friends and colleagues that remained in 
close contact in working with her over the years, my esteem has 
done nothing except grow for her.
    It is clear to me that an outside party based in Ukraine 
slandered her, and that information flowed through media 
outlets and through other conduits into the government. And I 
do not know from that point at which--what perceptions were 
formed, why decisions were made, or on what basis.
    Senator Menendez. And I must be honest with you. It is less 
than satisfying.
    Mr. Biegun. Well, Senator----
    Senator Menendez. I gather everything that you said. I am 
not questioning about the discretion of the President to have 
people serve at his will. I get that. I do not dispute that.
    The question was very simply whether someone, a career 
Foreign Service officer, a distinguished Ambassador who, by the 
way, whose term in Ukraine was extended before it was abruptly 
ended--so you do not extend someone who is not doing a job 
there--who was extended before it was abruptly ended ultimately 
should be demeaned in the way that she was because you can 
serve at the pleasure but not have to publicly demean someone, 
undermine someone, not stop the smear campaign that was going 
against her, which was fallacious.
    So I mean, it is not what I really want to hear from the 
person who is going to be the Deputy Secretary. I want to hear 
what happened to her for whatever reasons happened to her was 
not simply right, and as the Deputy Secretary, I would not 
tolerate it if it was under my administration. So I did not 
hear that from you.
    Now, let me turn to----
    Mr. Biegun. Senator, can I add a comment?
    Senator Menendez. Of course.
    Mr. Biegun. If confirmed as Deputy Secretary of State, that 
is not how I will approach it.
    Senator Menendez. All right.
    So one final substance thing. And I am worried. I think you 
are a very capable guy, but I am worried that you want to keep 
the North Korea portfolio, which I understand you have invested 
a lot of time and have a lot of knowledge in, and at the same 
time be the Deputy Secretary of State and if I am right--I 
might be totally wrong, but if I am right, maybe very well the 
Acting Secretary of State. That is a huge, huge portfolio. And 
so are we not setting you up for failure in one of the two?
    Mr. Biegun. Senator, I have been careful throughout the 
process of talking to members of this committee, as well as my 
internal meetings at the Department of State, to be mindful in 
this new position I cannot boil the ocean. I cannot take on 
everything.
    But I have spoken to my predecessors, to Deputy Secretary 
Sullivan, to Deputy Secretary Blinken, to Deputy Secretary 
Burns, Deputy Secretary Zoellick, to Deputy Secretary Armitage, 
to Deputy Secretary Negroponte, Democrats and Republicans from 
across the last two administrations, to get their advice on 
many things, large and small, including this point. And the 
constant in that is that the Deputy Secretary does need to take 
the lead on some of the most important issues because it will 
add weight and empower the broader team that are working on 
that issue.
    I understand your concern, and it is well placed that if 
the Deputy Secretary becomes overstretched, then they do not do 
anything well if they are trying to do everything well.
    I am blessed with a phenomenally talented team. There will 
be some reorganization underneath me and there will be some 
reorganization, if confirmed, in the Deputy Secretary's office 
to allow for the Deputy Secretary to play a more substantial 
role in this. I do not think it is just a prudent step. I think 
it creates additional opportunities for us----
    Senator Menendez. I have raised the concern. You are fully 
aware of it, and I will trust that if you are confirmed, you 
will use your judgment if at some point in time you cannot 
fully function in both positions.
    Mr. Biegun. Yes, sir, I will.
    Senator Menendez. And then finally, Secretary Pompeo was 
here I guess almost 2 years ago. I asked him a series of 
questions about our goals as it relates to North Korea. So I 
would like to ask you a series of simple yes or no questions 
today about the elements of a deal that Secretary Pompeo agreed 
to before this committee in testimony as being essential to any 
deal with North Korea and which he told us that, quote, did not 
need to worry, end quote, about the administration's ability to 
achieve within a year. That was 2 years ago.
    So yes or no. As of today, do we have an agreement in 
writing with North Korea that the current nuclear test 
suspension must continue----
    Mr. Biegun. No.
    Senator Menendez.--that denuclearization means the 
dismantlement or removal of all nuclear weapons facilities, 
technology, and material from North Korea?
    Mr. Biegun. We have no agreed definition.
    Senator Menendez. That North Korea will end the production 
and enrichment of uranium and plutonium from military programs?
    Mr. Biegun. We have yet no agreement on that point.
    Senator Menendez. That North Korea will permanently 
dismantle and disable its nuclear weapons infrastructure, 
including test sites, all nuclear weapons research and 
development facilities, particularly with respect to advanced 
centrifuges and nuclear weapons enrichment and reprocessing 
facilities?
    Mr. Biegun. We have no such agreement although that remains 
our goal.
    Senator Menendez. That North Korea will put forward a full, 
complete, and verifiable declaration of all its nuclear 
activities.
    Mr. Biegun. At an appropriate point in the process.
    Senator Menendez. Do we have that in writing from them?
    Mr. Biegun. No, but it is part of----
    Senator Menendez. My premise question goes to all of these.
    Mr. Biegun. It is baked into our basic negotiating approach 
with North Korea, which partially explains, Senator, why this 
process has been so difficult. We are placing some very 
significant demands in front of the North Koreans.
    Senator Menendez. That North Korea has agreed to robust 
restriction to assure that nuclear material technology and 
expertise are not exported.
    Mr. Biegun. That remains our priority.
    Senator Menendez. But when you say ?remains our priority,? 
I just want you to----
    Mr. Biegun. We do not have an agreement on that issue.
    Senator Menendez. We do not have a written agreement.
    Mr. Biegun. No, sir.
    Senator Menendez. As a matter of fact, on any of these 
issues that North Korea continue its--let me just go through 
them so you do not have to go through each one of them unless 
there is one that is in writing. Then I would like to know 
about it.
    North Korea will continue its current missile test 
suspension, including all ballistic missiles and any space 
launch, and has agreed to the dismantlement of all ballistic 
missiles and a prohibition on all ballistic missile 
development; that like nuclear technology, North Korea has 
agreed to sufficient safeguards to assure us that no ballistic 
missiles and associated technologies are proliferated or 
exported; that North Korea will submit to a robust compliance 
inspection and verification regime for its nuclear and 
ballistic missile programs, including complete access to all 
nuclear-related sites and facilities with real-time 
verification and including anywhere, anytime inspections and 
snapback sanctions if North Korea is not in full compliance; 
that any agreement is permanent in nature with no sunsets on 
its provisions; that progress on sanctions relief should be 
dependent on dismantlement and removal of North Korea's nuclear 
weapons and ballistic missile programs; and finally, that any 
deal that gives North Korea sanctions relief for anything other 
than the verifiable performance of its obligations to dismantle 
its nuclear missile arsenal is a bad deal.
    Are there any of those things in writing?
    Mr. Biegun. No. That is a very accurate description in 
detail of our negotiating objectives, but we do not have that 
agreement in place yet to cover those issues.
    Senator Menendez. So my concern is that we are now moving 
into the final year of the administration, the ability to 
achieve such an agreement. If after nearly 3 years of such a 
negotiation and some unprecedented steps by the President, his 
personal input into such a situation, with greater missile 
tests than we have had certainly in the last year, do we really 
think that there is an opportunity in this closing window to 
actually get to such an agreement based upon what the Secretary 
told the committee was necessary for such an agreement?
    Mr. Biegun. Senator, the answer is yes. We still believe 
that that is possible, and it amplifies, Senator, the reason 
why I am so personally devoted to this. I think there is a 
possibility here.
    The President is trying to reverse 70 years of history on 
the Korean Peninsula. The President's policies have given us an 
opportunity in a manner that has not been tested before to get 
a different outcome after 25 years of wave after wave of 
negotiations by administrations on both sides that have 
successfully been unable to achieve the goals that you just 
laid out. And each day that passes, each administration that 
has succeeded leaves us with ever-more limited choices and an 
ever-more grave challenge on the Korean Peninsula.
    But there are two ways for us to make sure that North Korea 
becomes a permanent nuclear weapons state. The first is to 
accept it. The other is to abandon our efforts to reverse it.
    We are not going to abandon our efforts, Senator. Our goal 
is the complete, verifiable, irreversible denuclearization, or 
as we frame it, the final fully verified denuclearization of 
the Korean Peninsula. We believe that has to be our goal. It is 
not easy, Senator. It has not been a pleasurable 16 months. It 
has not been 3 years. It has been a year and a half since the 
Singapore summit, but 3 years into the administration. The 
President got us to the table. With Chairman Kim, they have 
agreed on a framework of commitments in Singapore that if we 
can make progress in each of these areas in parallel and 
simultaneously, we can begin untying this knot that is cinched 
so tight after 70 years.
    I appreciate how formidable this task is. I probably know 
as well as anybody in the United States government how 
substantial this challenge is, Senator, and I am not 
Pollyannaish. But I am committed, as is the President of the 
United States.
    Senator Menendez. I would just say in closing getting to 
the table has never been a difficult thing. Both Republican and 
Democratic administrations have been at the table with the 
North Korean regime. Actually getting an agreement that is 
worthy, yes, that has been more formidable.
    Mr. Biegun. Senator, I am not claiming victory. Trust me.
    Senator Menendez. I did not suggest you were. I am just 
trying to accurately test the--I will call the aspirations 
versus the reality that we are facing and the time frame we 
have to achieve such a goal, not that it cannot be pursued in 
the next administration, whoever that might be. But I think it 
is unrealistic from what I have seen and how Kim is acting and 
what he is insisting on, the same game we have seen 100 times 
where he basically cajoles then threatens, acts in certain ways 
in order to receive a response. And at the end of the day, when 
we have had somebody who is an international pariah now brought 
by the President through his direct diplomacy out of that role 
of pariah into a more accepted state where we stopped our 
defense engagement in terms of active exercises in the region, 
which I think are incredibly important, and several other 
things, that I am not sure that after making some 
extraordinarily different moves that we are any closer. So we 
will look forward to continuing with you in that discussion as 
it moves forward.
    Mr. Biegun. Thank you, Senator.
    Senator Menendez. Thank you for your, I would say, open 
engagement here on all of these questions.
    Mr. Biegun. Thank you, sir. Your skepticism is well 
founded, and I assure you that I will continue to be accessible 
to the committee for the kind of private discussions in 
particular that we have had on this issue in order to make sure 
that you are aware of all of the sensitivities and strategies 
that we are deploying.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Mr. Biegun, thank you so much for your service. I think 
your descriptions of what you are trying to do on the Korean 
Peninsula are nothing short of heroic. The heavy lift that you 
have there is I think fully appreciated by everyone here. 
Unfortunately, we have a political situation in the United 
States today regarding the President of the United States that 
really undermines the discussions that take place regarding 
this. You are to be commended for keeping your eye on the ball 
and your focus towards trying to obtain what will be a 
tremendous victory for the American people if we can get this 
done and for the Korean people and for the people of the world. 
It is certainly one of the biggest challenges that America has 
had in recent times.
    So thank you again to you and your family for your 
willingness to serve.
    For the information of the members, the record will remain 
open until the close of business on Friday, including for 
members to submit questions for the record. When you get the 
questions for the record, if you would get them back to us as 
quickly as possible. We want to move your confirmation because 
of the importance of this position, but we are going to need 
the responses. So thank you so much.
    And with that, the committee is now adjourned.


    [Whereupon, at 12:58 p.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              

            Responses to Additional Questions for the Record
         Submitted to Stephen Biegun by Senator James E. Risch

    Question. In response to the Venezuela crisis, the U.S. has 
provided over $472 million in humanitarian aid, sanctioned over 130 
associates of the Maduro regime, and worked with other democracies in 
the region to invoke the Inter-American Treaty of Reciprocal Assistance 
(TIAR). The lack of European support for credible measures that would 
convince Maduro and his accomplices to give way to a democratic future 
in Venezuela is very concerning.

 What factors explain the general reluctance by the European Union 
        to join other democratic nations in taking credible measures 
        against the Maduro regime? To what extent are European economic 
        interests in Cuba and Venezuela obstacles or leverages to reach 
        a solution to the crisis?

    Answer. European support for pressure against the former Maduro 
regime is critical to show that the international community will not 
stand for Maduro's continued abuses of power and manipulation of well-
intentioned negotiation processes. We have been able to work closely 
with our allies to implement sanctions, but more must be done. We share 
information and coordinate in advance of sanctions announcements as a 
way of encouraging the EU and other European partners to implement 
their own sanctions and visa restrictions. At the same time, we have 
made it clear that European-based companies should limit all 
transactions with the former Maduro regime and the Cuban government, 
particularly those that may trigger U.S. sanctions.

    Question. How can the U.S. better work with the international 
community to increase the pressure campaign on the Maduro regime and 
support Interim President Guaido?

    Answer. We are using a whole-of-government approach to engage the 
international community to build pressure against the former Maduro 
regime, including through the Rio Treaty and with the 57 other 
countries that recognize Guaid". We will continue to assist Guaid"'s 
efforts to shore up current partners' support while building the 
international coalition of supporters. We will also continue to 
identify those responsible for committing and contributing to human 
rights abuses and corruption that are subject to sanctions or penalties 
under U.S. law to deter those malign activities.

    Question. What steps should we take with our partners to encourage 
them to take a stronger stance and pressure the Maduro regime in 
support of democracy for the Venezuelan people?

    Answer. The United States will continue to work closely with our 
partners in the international community to support the Venezuelan 
people, interim President Guaid", and the National Assembly in their 
efforts to restore democracy. We work closely with our partners around 
the world to amplify the voices of Venezuela's democratic actors, 
including as they peacefully protest against the former Maduro regime. 
At the same time, we urge partners to exert more pressure, either 
through sanctions or other measures, to drive Maduro to negotiate in 
good faith toward free and fair presidential elections.

    Question. The Merida Initiative is the cornerstone of U.S.-Mexico 
security and rule of law efforts and has strengthened our law 
enforcement partnership to address drug trafficking and crime. However, 
the future of the Merida Initiative remains unclear, as Mexican 
President Obrador has shifted Mexico's security strategy to a softer 
approach. Organized crime and violence in Mexico has since increased, 
seeing record violence in 2018.

 How would you rate our bilateral law enforcement cooperation with 
        the national authorities in Mexico?

    Answer. My understanding is there is strong bilateral law 
enforcement cooperation between both countries and we will remain 
closely engaged with the Mexican government to ensure this remains a 
high priority. As evidenced by the brutal killing of American families 
recently in the state of Sonora and the many ruthless attacks against 
Mexican citizens by the cartels, transnational criminal organizations 
pose a serious threat to both Mexico and the United States. Our 
governments must strengthen our collaboration to address these mutual 
challenges, including through law enforcement cooperation. Effectively 
addressing these shared challenges requires a comprehensive approach to 
counter narcotics, removing illicit profits from drug traffickers and 
addressing the trafficking of arms and money from the United States to 
Mexico.

    Question. Are existing U.S. law enforcement training authorities 
sufficient for the United States to successfully train subnational-
level law enforcement agencies in Mexico and other Latin American 
countries?

    Answer. Yes. Within our authorities, we are able to effectively 
target capacity-building needs in partner countries. The Bureau of 
International Narcotics and Law Enforcement utilizes a variety of 
partners to train law enforcement agencies at various levels in Mexico 
and other Latin American countries, relying on the expertise of U.S. 
federal, state, and local law enforcement, determined by an analysis of 
how best to meet partner institution needs.

    Question. The countries of Sudan and Ethiopia are in the midst of 
major transitions that, if successful, would represent a tectonic shift 
in the democratic trajectory of the East and Horn of Africa sub 
regions. Both of these nations are of tremendous strategic importance 
to the United States.

 Are we prepared diplomatically to increase our support of these 
        democratic transitions? Do you have any concerns that these 
        transitions are occurring with engagement from global and 
        regional actors from China to Russia, to the Gulf States and 
        Egypt, nations with interests that might be in conflict with 
        our own? Is the United States sufficiently prioritizing 
        engagement with Sudan and Ethiopia?

    Answer. In both Sudan and Ethiopia, we have unique opportunities to 
ensure that the efforts of the Sudanese and Ethiopian people are able 
to achieve our shared goal of democratic transformation. To help these 
countries succeed, it is imperative that China, Russia, and Gulf states 
with interests in Ethiopia and Sudan do not undermine the current 
reform efforts. If confirmed, I will work with our Special Envoy for 
Sudan and the Bureau of African Affairs to continue to prioritize 
efforts that provide all required diplomatic support, work with 
partners in advancing this transition, and counter any elements 
impeding democracy.

    Question. How do you see the U.S. role in both the Sudanese and 
Ethiopian transitions? Do you believe we have a leadership role to 
play? If so, what do you envision?

    Answer. I believe that the United States should continue to support 
the Sudanese people to achieve peace, democracy, and economic 
opportunity. The United States should continue to lead efforts to 
mobilize international political and financial support to enable the 
civilian government to lead the nation to free and fair elections.
    We have a historic opportunity in Ethiopia and the United States 
supports Ethiopia's Prime Minister Abiy Ahmed and the Ethiopian 
people's democratic aspirations. To spur economic development, the 
Department seeks to continue foreign assistance efforts and coordinate 
with like-minded countries to identify foreign investors to counter 
Chinese and Russian influence.

    Question. Recently, the African Union has signaled an increased 
willingness to play a more forward leaning security role and to be more 
proactive in addressing undemocratic actions of the member states 
(e.g., ``third-termism,'' coups, peace processes).

  How do you see the strategic partnership between the United States 
        and the African Union evolving as challenges from across the 
        spectrum continue to test democratic institutions and actors in 
        countries throughout the continent?

    Answer. The U.S. strategic partnership with the African Union (AU) 
is key to advancing peace and security, democracy and governance, and 
economic development across the continent. The AU also serves as an 
important forum for African partners to proactively work through 
diplomatic and security challenges before they arise, and to provide 
credible, African-led, multilateral responses to resolve ongoing 
conflicts and other security challenges. I believe targeted U.S. 
advisory, technical, and limited operational assistance in coordination 
with like-minded partners is the most effective way to further the AU's 
ability to advance these objectives.

    Question. What can the United States do to better incorporate 
continental multilateral institutions like the African Union in our 
diplomatic efforts?

    Answer. I believe our partnership with the African Union is 
critical to advancing U.S. strategic interests in Africa. The United 
States was the first non-African partner to establish in 2006 a 
dedicated diplomatic mission to the African Union. The African Union is 
increasingly at the forefront of securing peace and stability on the 
continent, and it is driving continental economic integration, in 
particular through the African Continental Free Trade Area.
    If confirmed, I will look to strengthen our diplomatic efforts with 
the African Union Commission and its member states in the areas of 
peace and security, two-way trade and investment, democracy and 
governance, health, and opportunity and economic development.

    Question. South Sudan continues to face one of the worst 
humanitarian disasters on the continent and in the world. The United 
States has played a crucial role in meeting the humanitarian needs of 
the South Sudanese people, as well as the political and economic needs 
of the world's youngest country.

 Do you believe the United States' diplomatic efforts to date are 
        sufficient?

    Answer. Bringing a definitive end to South Sudan's civil war and 
enabling that country's transition to democracy and prosperity is and 
should remain a diplomatic priority of the United States. If confirmed, 
I will work closely with the Bureau of African Affairs and other 
relevant bureaus to implement cost-effective ways to enhance our 
senior-level diplomatic engagement with key regional countries and 
institutions. I view U.S. diplomatic leadership as critical in helping 
the region end this conflict and the suffering of the South Sudanese 
people.

    Question. Do the United States' diplomatic efforts sufficiently 
complement our overwhelming investment in the humanitarian relief and 
the early efforts of American diplomats to usher through freedom and 
independence for the South Sudanese people?

    Answer. The failure of South Sudan's leaders to create the 
conditions necessary to form a national unity government by their self-
imposed deadline of November 12 has shown the need for all of the 
country's partners to increase their diplomatic efforts to build a 
definitive peace for the South Sudanese people. If confirmed, I will 
remain cognizant of both our historic links to South Sudan's 
independence struggle, and our vast humanitarian investments, as I work 
closely with our Bureau of African Affairs and other relevant bureaus 
to ensure effective American diplomatic leadership in partnering with 
our regional allies to resolve this conflict.

    Question. The African continent has increasingly become a focus of 
various global and regional powers. This focus has taken the form of 
investment, military support, and sometimes malign activities such as 
resource manipulation, corruption, and negative influence on internal 
political processes such as elections.

  What must the United States to do ensure democratic institutions 
        and the continent's people are not just bystanders in this 
        global and regional scramble for influence?

    Answer. American strength and influence lies in our fundamental 
democratic identity based on individual freedom, the rule of law, and 
protection of human rights. We champion American ideals as a means of 
combating the spread of authoritarianism, terrorism, and democratic 
subversion. If confirmed, I will promote the rule of law and access to 
justice, respect for human rights, adherence to constitutionally 
mandated term limits, and strong democratic institutions, including 
civil society, which are all fundamental to a long-term peace and 
prosperity on the African continent.

    Question. Who do you believe should be our partners in this fight 
for the people and democracies on the continent? Which countries and 
regions deserve our keen focus in the immediate years ahead?

    Answer. African countries have made important but fragile gains in 
democracy and institution building, but there are still too many 
countries where the transition to democracy is uneven. We need to 
continue to support democratic governments through diplomacy and 
development assistance, and encourage new opportunities for democratic 
transition, especially in places like Angola, the Democratic Republic 
of the Congo, Ethiopia, Sudan, and The Gambia. We must take advantage 
of the opportunity presented by reform-minded leaders to build more 
stable, democratic societies through improving the capacity and 
governance of core institutions to improve human rights, increase 
accountability, open political space, and combat corruption.

    Question. What would you describe as the administration's Africa 
strategy for the United States? Which tools and tactics would best 
ensure a U.S. place in the future of Africa?

    Answer. I support the administration's Africa Strategy's focus on 
three core objectives: supporting key African states' progress toward 
stability, citizen-responsive governance, and self-reliance with all of 
our diplomatic tools; protecting the United States from cross-border 
health and security threats by early intervention; and advancing trade 
and commercial ties with key African states to spur sustainable 
economic growth. I believe the new Prosper Africa initiative can bring 
a whole-of-government focus to substantially increase two-way U.S.-
Africa trade and investment, while the $60 billion and tools available 
through the U.S. International Development Finance Corporation could 
help catalyze private-sector investment and accelerate development.

    Question. How can we ensure that the more than 1 billion people 
expected to be added to the African population over the rest of this 
century view America as a friend and partner?

    Answer. The United States remains a committed partner to help build 
a free and prosperous Africa, by advancing economic growth, good 
governance, and rule of law. This is a critical moment for government 
and business to invest in young Africans and provide them with tools to 
face current and future challenges. With programs like the Young 
African Leaders Initiative, we are taking steps towards ensuring the 
increasing population benefits from opportunities for economic growth 
and strengthening their ties to the United States. If confirmed, I will 
work to promote two-way trade and investment, support young, talented 
leaders, and strengthen our economic and security partnerships across 
the African continent.

    Question. Cameroon is facing a major security and political crisis 
driven on the back of ethnic, geographic, and historical divisions, and 
poorly handled by the host government. Global actors such as the French 
also have a longstanding colonial history in the country, and a 
questionable post-colonial record that has aggravated challenges facing 
the Cameroonian people today.

  What do you believe should be done to ensure the French are more 
        constructive actors in resolving the ongoing civil war in 
        Cameroon?

    Answer. France is a major donor to Cameroon and has deep ties to 
the country. If confirmed, I will work with the Bureau of African 
Affairs to engage with the French and other partners on helping 
Cameroon through its current challenges, including through multilateral 
fora. The Department will continue to urge France and other partners to 
engage closely with civil society and to encourage the government of 
Cameroon on one side, and separatist groups on the other, to relinquish 
any hopes for a military solution and to enter into open-ended dialogue 
without preconditions.

    Question. How can the United States utilize its multiple 
international engagements with the French to elevate the Cameroon 
crisis, and compel the French government to act more responsibly not 
just in Cameroon but the larger Francophone Africa region?

    Answer. If confirmed, I will work with the Bureau of African 
Affairs to keep Cameroon on the agenda in our bilateral relations with 
France and address Cameroon issues in our international engagements and 
through multilateral fora. We will continue to call attention to the 
crisis in the Anglophone Northwest and Southwest Regions of Cameroon. 
In public and private, we will continue to express our concerns and 
push our prominent partners to take an assertive role in resolving the 
crisis. As successful democracies with strong economies, France and the 
United States are natural allies as permanent members of the U.N. 
Security Council. Like the United States, France contributes to the 
development and better governance of sub-Saharan Africa, including 
Cameroon.

    Question. Mr. Biegun, I'd like to ask you about the growing number 
of Americans detained in Russia. There have been several cases this 
year, most coming to a quick resolution. However, one American, former 
U.S. Marine Paul Whelan, has been detained nearly a year for alleged 
espionage, without any evidence produced. One of the State Department's 
primary responsibilities is to help keep U.S. citizens safe while 
abroad.

  How is the U.S. government working to bring Mr. Whelan home? Does 
        the case of Paul Whelan bring to light any issues within our 
        consulate response system? Are you comfortable that system is 
        up to current challenges?

    Answer. The safety and welfare of our U.S. citizens abroad is of 
the utmost importance to the Department of State and the entire U.S. 
government. The Department takes seriously its responsibility to assist 
U.S. citizens who are incarcerated or detained abroad. Paul Whelan's 
case receives attention at the highest levels of the U.S. government. 
If confirmed, I will continue to urge the Russian government to ensure 
a fair and transparent judicial process without undue delay. My team 
will also continue to monitor Mr. Whelan's case closely and to press 
for fair and humane treatment, unrestricted consular access, access to 
appropriate medical care, and due process.

    Question. Mr. Biegun, over the past few years, the transatlantic 
relationship has experienced some tension: from the Paris Climate 
Agreement, the JCPOA, and NATO defense spending, to Chinese investment 
in 5G, and accusations of unfair trade practices. In these, the U.S. 
has one position, and Europe has another. While we may not agree on 
every issue with our European cousins, we must work through them 
because keeping the U.S.-Europe relationship strong is critical to U.S. 
prosperity and security.

   How do you view the current transatlantic relationships, including 
        political relationship and the military capabilities of NATO? 
        As Deputy Secretary of State, what would you do to ensure our 
        relationship with Europe stays strong, through our 
        disagreements, in defense, trade, and diplomacy?

    Answer. Europe and NATO remain America's closest and most capable 
partners and Allies. We are united by enduring values, shared 
interests, and the fundamentals of our relationship remain strong. NATO 
continues to remain the cornerstone of transatlantic security, and our 
NATO Allies and European partners are who we turn to first to deal with 
the full range of global security concerns. Our NATO Allies acknowledge 
the need to improve burden sharing and are stepping up with increased 
defense investment, more ready forces, and modernized capabilities, 
which contributes to all of our collective security, and if confirmed, 
I will continue to engage our European Allies on these issues as well 
as how we can address global security concerns.

    Question. The media has reported that the State Department does not 
plan to fill the role of Special Envoy to the Russia-Ukraine conflict.

  Is this accurate? If so, through what channels does the U.S. intend 
        to engage the Kremlin on this vital issue?

    Answer. United States support for Ukraine's sovereignty and 
territorial integrity is unwavering, and we welcome President 
Zelensky's commitment to achieving a diplomatic resolution to the 
conflict in eastern Ukraine. We will continue to support peace efforts 
through existing diplomatic channels. I am not aware of any plans at 
present to appoint another Special Representative for Ukraine 
Negotiations after the departure of Kurt Volker, but I intend to be 
personally involved in this issue if confirmed.

    Question. Over the past few years, several of the five Central 
Asian countries have taken steps to incrementally open up their long-
closed countries to outsiders, including the West. For example, 
Uzbekistan has made several meaningful reforms, such as loosening some 
media controls, opening border crossings with its neighbors, and 
liberalizing visa requirements to allow people to enter and exit more 
easily. There are encouraging signs in the other four, as well. While 
all five are still considered closed and authoritarian, these are 
positive developments in a region sandwiched between Russia, Iran, and 
China.

  Mr. Biegun, how should the U.S. react to these developments? How 
        can we support and encourage more reforms in such a strategic 
        but long neglected region? Should our government and our 
        businesses prioritize engagement and investment in the region?

    Answer. The United States is committed to supporting the 
sovereignty, independence, and territorial integrity of the Central 
Asian states. If confirmed, I will work to grow our partnerships to 
increase regional economic connectivity and benefit U.S. businesses, 
improve security cooperation and military-to-military exchanges, and 
support necessary reforms for the promotion of democracy and protection 
of fundamental freedoms, such as those begun in Uzbekistan and underway 
in the Kyrgyz Republic. Annual bilateral dialogues, the C5+1 diplomatic 
platform, Trade and Investment Framework Agreement discussions, and 
support for economic and educational reforms are key to building 
stability and prosperity in the region.

    Question. In violation of both the 1994 Budapest Memorandum and the 
Ukraine-Russia Friendship Treaty, Russia's seizure of Crimea, 
establishment of the Sevastopol military base, and deployment of S 400 
missile systems to the peninsula have resulted in a militarization of 
the Black Sea that is largely surrounded by NATO and non-NATO allies. 
Furthermore, Russia has used Sevastopol to support its operations in 
Syria.

 Is the U.S. doing enough to push back on Russia's occupation of 
        Crimea and its militarization of the Black Sea? Are our allies 
        equipped to push back on Russia's violations of this strategic 
        body of water?

    Answer. As Secretary Pompeo announced in the July 25, 2018, Crimea 
Declaration, the United States rejects Russia's attempted annexation of 
Crimea and will maintain this policy until Ukraine's territorial 
integrity is restored. Our Crimea-related sanctions will remain in 
place until Russia returns control of the Crimean peninsula to Ukraine. 
Russia's militarization of Crimea threatens the security of the Black 
Sea region and is used as a platform for destabilizing actions in Syria 
and Eastern Mediterranean. The United States has committed over $1.6 
billion in military assistance to Ukraine. NATO adopted a package of 
measures on Black Sea security in April that includes maritime security 
training, increased port visits, and strengthened information sharing, 
as well as deepened cooperation with NATO's partners in the region.

    Question. For the third year in a row, Congress has rejected 
efforts to impose deep cuts across the international affairs budget. 
For the second year in a row, Congress has pushed back against efforts 
to rescind billions of dollars in previously appropriated funds. Though 
the Office of Management and Budget (OMB) ultimately abandoned efforts 
to rescind funds through legally established procedures, the Department 
of State and the U.S. Agency for International Development (USAID) 
experienced significant disruptions this summer after OMB executed a 
last minute reapportionment exercise, resulting in programmatic 
uncertainty and delays, excessive and unnecessary bureaucratic burdens, 
and the expiration of funds that were intended to advance key U.S. 
priorities.

  Mr. Biegun, do you support a healthy international affairs budget? 
        Why or why not?

    Answer. I strongly support an international affairs budget that 
advances the Department's core mission to support the United States' 
most critical foreign policy goals. I understand that recent budget 
requests have reflected the administration's priorities to advance 
peace and security, expand American influence, and address global 
crises, while making efficient use of taxpayer dollars. I value and 
respect the important role that Congress plays in providing funds to 
support U.S. government operations and programs, including for the 
State Department and USAID. If confirmed, I look forward to continuing 
discussions with Congress on funding for foreign assistance and 
diplomacy programs.

    Question. What areas of the budget deserve the greatest attention?

    Answer. Above all else, I believe the Department and USAID's budget 
must support effective American foreign policy, prioritize embassy 
security and the protection of diplomats and staff, and provide for 
strategic partnerships and diplomatic progress. It is also important to 
ensure that the budget makes programs more effective, while increasing 
burden sharing in order to lessen the burden on American taxpayers and 
maximize global outcomes. If confirmed, I look forward to working with 
Congress to ensure these priorities are reflected in the international 
affairs budget.

    Question. Experience over the past three years demonstrates that 
Congress is not prepared to rubberstamp deep, arbitrary, across-the-
board cuts.

  Do you have specific recommendations for foreign assistance reforms 
        for congressional consideration? Are you prepared to work with 
        Congress in an open, transparent, and timely manner to achieve 
        strategic, targeted reductions?

    Answer. The President's budget request seeks to enable the 
Department of State, USAID, and other international programs to protect 
U.S. citizens, increase American prosperity, and advance the 
development of democratic societies. Continuously reviewing the 
effectiveness of our foreign assistance programs will maximize the 
impact of our investments. We must assess what is working, what is not 
working, and continuously learn and adapt as contexts across the globe 
evolve. If confirmed, I will prioritize continued coordination with 
Congress as we deliver strategic, effective, and coordinated resources 
on behalf of the American people.

    Question. Will you commit to personally intervene in and engage the 
non-transparent ``foreign aid reviews'' that have been underway for the 
past three years and presumably will continue in order to ensure that 
final recommendations are informed by the views of the career diplomats 
and development professionals that actually deliver and oversee U.S. 
foreign aid programs? If not, why not? If so, how?

    Answer. Delivering foreign assistance is an important mission of 
the Department of State and USAID, and if confirmed, I am committed to 
working with Congress to ensure it serves our national security 
interests. The Department will continue to critically review foreign 
assistance programs to ensure that U.S. efforts carry out the 
President's direction, align with our core national interests, and 
maximize the impact of American taxpayer investments. If confirmed, I 
plan to ensure the voices of career diplomats and development 
professionals are at the forefront of our work.

    Question. I strongly support reforms to U.S. humanitarian 
assistance programs that will enable the United States to save more 
lives in less time and at less cost. In partnership with multiple 
administrations, Congress has demonstrated bipartisan support for 
reforming U.S. food aid programs, in particular. The President has 
attempted to advance food aid reforms in the past three budget requests 
by defunding antiquated Title II Food for Peace programs and, 
alternatively, prioritizing resources for the fully reformed Emergency 
Food Security Program (funded through International Disaster Assistance 
[IDA]). Unfortunately, this effort has been undermined by the failure 
request funds under the IDA account that reflect actual needs.

   Mr. Biegun, what are your views on the nexus between food security 
        and national security? Do you agree that food security is a 
        vital part of national security?

    Answer. I agree that food security is a vital component of national 
security. Food insecurity is a driver of conflict, political 
instability, social unrest, and migration. Food and food insecurity are 
used as both weapons and recruitment tools by terrorist organizations 
and corrupt governments. Famine and famine-like conditions are a major 
budgetary expense for the U.S. government and our allies. Additionally, 
food production shortfalls and global price spikes have implications 
for our own economy and the well-being of American consumers.

    Question. If so, are you willing to advocate for a budget level 
under the IDA account that reflects actual U.S. food aid needs rather 
than an arbitrary percentage reduction?

    Answer. The United States takes our role in improving global food 
security seriously. Through our Food for Peace programs we remain the 
largest donor of emergency food assistance in the world. Our global 
food security initiative, Feed the Future, brings partners together to 
help developing countries transform their food systems to boost growth, 
opportunity, food security, resilience and stability. If confirmed, I 
will be committed to making sure this important work is efficient, 
effective, and funded at an appropriate level, through the most 
relevant mechanisms.

    Question. How important is it for U.S. diplomats to regularly get 
outside of the embassy to engage local populations? How do you assess 
the current ability of U.S. diplomats to engage face-to-face with local 
populations at posts abroad? Does the Department need to make engaging 
outside of our embassies and consulates a higher priority?

    Answer. The Department prioritizes face-to-face interaction as a 
core element of diplomacy. We weigh the value of getting outside the 
embassy against the security threats in any given country. Our officers 
consider engaging local populations a key part of their jobs, and seek 
as many opportunities as possible to pursue these engagements.

    Question. Given the sharp rise in Chinese economic diplomacy across 
the globe, do you believe that the State Department should increase its 
emphasis on economic diplomacy, including by increasing the number of 
economic officers posted abroad?

    Answer. The Department is focused on confronting unfair economic 
competitors, including China. I understand the Department is aligning 
economic work across the interagency and throughout our missions. Part 
of this work includes assessing our staffing and capabilities. We seek 
to use the staffing and resources already allocated to the State 
Department to execute U.S. foreign policy. This year we have assigned, 
for the first time ever, Foreign Service Officers with China expertise 
to serve as regional China officers to Europe, Africa, Latin America, 
South Asia, the Middle East, and the Pacific Islands. Should we find a 
need for additional resources, the Department will work with Congress 
to properly resource our economic efforts.

    Question. State Department coordination with the Department of 
Defense is a key to advancing U.S. national interests across the globe.

   Do you believe that DoD details to the State Department are an 
        important effort to bolster cooperation between the 
        departments? What about State Department details to DoD? Do you 
        support encouraging and, where possible, providing incentives, 
        for State Department Civil and Foreign Service Officers to 
        participate in non education details to DoD?

    Answer. The Department of Defense and Department of State Exchange 
Program, and other mutually beneficial detail opportunities that permit 
officers from each Department to serve within the other, are critical 
to increasing interagency understanding, synchronizing our efforts to 
strengthen relations our partners and allies, and assisting in bridging 
the diplomacy and defense worlds. We have a shared responsibility for 
national security and bolstering the work of each other as we cover 
foreign policy objectives around the globe. If confirmed, I will 
support these professional development opportunities.

    Question. Civil service hiring is still below pre-hiring freeze 
levels and morale has yet to fully recover.

   How do you intend to increase the pace of hiring as well as improve 
        morale?

    Answer. Eliminating the deficit of Civil Service personnel is one 
of our top management priorities. The Department has finalized an 
agreement with the Defense Finance and Accounting Service (DFAS) to 
outsource pending recruitment requests and DFAS is already on pace to 
supplement other hiring actions. In addition, I understand that the 
Department is using policies for shared certificates, direct hiring 
authorities, Veterans-only announcements, and other non-competitive 
authorities to comprehensively address staffing shortfalls. Increased 
staffing, along with an increased emphasis on improving communications, 
a more supportive managerial culture, and workforce flexibilities are 
all intended to improve morale.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Stephen E. Biegun by Senator Robert Menendez

    Question. The State Department has refused to make Department 
lawyers available to State Department employees providing information 
and testimony to Congress in the House of Representatives' impeachment 
inquiry of the withholding of security assistance to Ukraine. To date, 
the Department has not provided a single document to Congress on this 
matter.

  Please describe in detail the steps you will take as Deputy 
        Secretary to ensure that no retaliatory action, demotion, 
        reassignment, transfer, or curtailment of duties or assignment 
        for giving testimony to Congress will occur.

    Answer. Under Secretary Bulatao wrote to you on November 18, 2019, 
assuring you that no employee has faced any adverse action by the 
Department for testimony before Congress on this matter. The Department 
will not discipline any Department employee for appearing before 
Congress in response to a subpoena. Department counsel has been made 
available to every Department employee involved in this matter, both to 
assist the employee and the employee's personal counsel. Department 
counsel has also been available to assist employees to prepare for and 
attend Congressional hearings and interviews. Additionally, the 
Department has proactively established a program to provide financial 
assistance with respect to private counsel legal fees incurred by 
Department employees. Diplomats who have testified before the House 
have prepared for testimony and appeared before the House while on 
regular pay status and with approved travel orders so that they have 
not had to expend personal leave or incur travel-related expenses. If 
confirmed, I would uphold the Department of State's well-established 
system for assignments, consistent with U.S. law, to include the 
Foreign Service Act for assignment of its personnel. If confirmed, I 
will publicly reiterate this position during my first days on the job.

    Question. Do you commit that the Department will not seek to 
interfere with, block, preclude, or dissuade any Department employee or 
former Department employee from providing any testimony to Congress 
related to Ukraine/impeachment?

    Answer. While I have not been directly engaged in responding to 
this inquiry, I understand that the Department has been consistent in 
relying upon instructions and advice from the White House Counsel's 
Office and the Department of Justice. I have enclosed an October 8 
letter from White House Counsel Pat Cipollone and a November 1 letter 
from Assistant Attorney General Steve Engel.

    Question. Do you commit that the Department will cease sending any 
form of written or oral communication to any Department employee or 
former employee that has the direct or indirect purpose of seeking to 
dissuade an individual from testifying before Congress on Ukraine/
impeachment?

    Answer. While I have not been directly engaged in responding to 
this inquiry, I understand that the Department has been consistent in 
relying upon instructions and advice from the White House Counsel's 
Office and the Department of Justice. I have enclosed an October 8 
letter from White House Counsel Pat Cipollone and a November 1 letter 
from Assistant Attorney General Steve Engel.

    Question. What steps will you take to ensure the Department 
produces documents to Congress in a timely and efficient manner?

    Answer. While I have not been directly engaged in responding to 
this inquiry, I understand that the Department has been consistent in 
relying upon instructions and advice from the White House Counsel's 
Office. I have enclosed an October 8 letter from White House Counsel 
Pat Cipollone in this regard.

    Question. How will you work with Secretary Pompeo and push him to 
respond to Congressional document requests produce documents to 
Congress in its impeachment inquiry?

    Answer. If confirmed, I look forward to working with Secretary 
Pompeo and the White House to review the request.Bullying Concerns: 
Ambassador McKinley testified before the House of Representatives that 
he forwarded allegations to senior officials at the Department, 
including to the current Deputy Secretary, about intimidation and 
bullying of Department employees who had been asked to provide 
testimony to Congress.

    Question. How do you plan to address concerns of bullying and 
intimidation at the Department?

    Answer. While I have not been engaged in responding to this 
inquiry, if confirmed I look forward to reviewing the allegations of 
bullying referred by Ambassador McKinley to determine whether any 
actions are warranted. As a general matter, I do not tolerate bullying 
in the workplace and, if confirmed, will make clear to the Department's 
personnel that Secretary Pompeo and I expect a workplace that 
prioritizes professionalism consistent with the Department ethos.

    Question. What steps will you take to ensure Department personnel 
are aware of protections against such prohibited personnel practices?

    Answer. If confirmed, I am committed to ensuring that all 
Department personnel operate in an environment that is professional and 
where bullying and intimidation are not tolerated. I will personally 
advise employees of their rights and protections regarding prohibited 
personnel practices. I will ensure our policies in this regard are 
widely disseminated on a regular basis to raise awareness of 
protections against these practices. I also commit to coordinating 
closely with all relevant offices, including the Office of the 
Inspector General, the Office of Civil Rights, the Director General, 
and the Under Secretary for Management, to review and update our 
policies as needed. I do not know the facts and circumstances regarding 
the allegations discussed by Ambassador McKinley. I look forward to 
reviewing them if confirmed and taking any appropriate actions as 
warranted.

    Question. Do you agree with Secretary Pompeo's statement in his 
October 1, 2019 letter to the House Committee on Foreign Affairs that 
the House of Representatives' request for the Department's cooperation 
in its impeachment inquiry ``can be understood only as an attempt to 
intimidate, bully, and treat improperly the distinguished professionals 
of the Department of State''?

    Answer. As I understand Secretary Pompeo's October 1, 2019 letter, 
he highlighted the fact that the House of Representatives was refusing 
to allow Department personnel to coordinate testimony with the Bureau 
of Legislative Affairs and the Office of the Legal Adviser, and was 
prohibiting Department counsel from being present in depositions to 
protect classified information and Executive Branch confidentiality 
interests.Yovanovitch: At your confirmation hearing, you stated that 
Ambassador Yovanovitch, a 33 year career diplomat, was very capable and 
your esteem for her has grown over the years. You also acknowledged 
that an outside party in Ukraine slandered her inappropriately and 
defamed her character. In a divergence from the Department's current 
senior leadership, who have remained silent on this subject, you stated 
that ``if confirmed, as Deputy Secretary of State, that is not how I 
will approach it.'' However, you did not specify what you would do to 
defend Ambassador Yovanovitch.

    Question. How exactly would you have handled the attacks on 
Ambassador Yovanovitch? Please provide a detailed explanation.

    Answer. As I said in my hearing, I was not involved in the events 
surrounding Ambassador Yovanovitch. Without being party to all the 
circumstances and information, I cannot speculate as to how I would 
have acted. However, I can tell you about the approach I will take, if 
confirmed, to leadership and management, reflecting the approach I have 
taken over the past 30 years in government and the private sector in 
empowering, supporting, and protecting members of my team and ensuring 
their work is valued. If confirmed, one of my first acts will be to 
address the Department workforce and to highlight what I stated 
publicly at the hearing: I have the utmost respect for the 76,000 women 
and men serving at the State Department. I will assure Department 
leaders and their teams that they have the full support and trust of 
Department leadership as they perform the important work of advancing 
American interests. As I stated at the hearing, Ambassador Yovanovitch 
is an example of this professionalism and excellence.

    Question. Do you think the Department could have and should have 
done more to publicly support her?

    Answer. As I have stated, I was not involved in the events 
surrounding Ambassador Yovanovitch and without being party to all the 
circumstances and information, I cannot speculate as to how I would 
have acted. However, I want to highlight my record of supporting 
members of my team, as well the leadership and management principles I 
have discussed as being important to me that I plan to carry into the 
Deputy Secretary position, if confirmed. I will address Department 
leaders and their teams and assure them that they have the Department's 
full support and trust.

    Question. Please detail how you plan to defend Ambassador 
Yovanovitch and other Department personnel that have testified in the 
impeachment inquiry moving forward.

    Answer. If confirmed as Deputy Secretary, I will reiterate the 
pledge set out in Under Secretary Bulatao's November 18 letter. I can 
assure the committee, that if confirmed, I will ensure that Ambassador 
Yovanovitch, and other Department personnel who have testified in the 
House proceedings, will not face any disciplinary action for their 
appearance. I will make this position clear in my interactions with 
senior Department leaders and their teams.Standing Up for Employees: It 
is apparent that several State Department senior officials were aware 
of the ``irregular channel'' spearheaded by President Trump's personal 
agent Rudy Giuliani to smear Ambassador Yovanovitch and pressure 
Ukraine to conduct political investigations. Documents aimed at 
smearing Ambassador Yovanovitch even made it into the Department and 
were circulated among senior leaders. Yet, it seems no one spoke up in 
defense of a widely respected Ambassador.

    Question. What do you think it says about State Department culture, 
senior leadership, and fostering an environment where the oath to the 
constitution is understood and valued?

    Answer. As I stated in my hearing, one of my top priorities, if 
confirmed, will be to ensure that we look after our people in order to 
retain the finest diplomatic corps in the world. A critical part of 
that is ensuring that the State Department is an environment in which 
employees feel respected, supported, and valued. I plan to focus on 
caring for our people, developing their skills, and boosting their 
resiliency and well-being.

    Question. Do you think additional steps are necessary to encourage 
the moral courage and leadership skills so senior officials will stand 
up and voice their concerns? How will you effect these changes?

    Answer. Encouraging debate and hearing out dissenting views has 
long been a principle of my leadership and management style. If 
confirmed as Deputy Secretary, this will continue to be important to me 
and I plan to meet early on with Department leaders and their teams to 
communicate the importance of encouraging debate.Whistleblowing

    Question. What steps will you take to ensure whistleblowers know 
their rights, know how to raise concerns through appropriate channels, 
and are not subject to retaliation for exercising their rights?

    Answer. If confirmed as Deputy Secretary of State, I will be a 
strong and consistent advocate for ensuring that all Department 
employees know their rights and where to report concerns without fear 
of retaliation. I will personally advise Department employees of their 
whistleblower rights and the various avenues to raise concerns, working 
in close coordination with the Inspector General. I will provide 
assurances to all employees that they will not be subject to 
retaliation for exercising their rights and will ensure that our 
policies are widely disseminated on a regular basis to increase 
awareness of whistleblower rights and protections among all Department 
employees. Additionally, should any employee be found responsible for 
engaging in retaliation, I will ensure that he/she is held accountable.

    Question. What steps will you take to ensure whistleblowers know 
their rights and are not subject to retaliation for exercising them?

    Answer. As stated above, if confirmed as Deputy Secretary of State, 
I will personally advise all Department employees of their 
whistleblower rights and provide assurances that they will not be 
subject to retaliation for exercising them. I will ensure our policies 
are widely disseminated on a regular basis to increase awareness of 
whistleblower rights and protections among all Department employees. 
Additionally, should any employee be found responsible for engaging in 
retaliation, I will ensure that he/she is held accountable.

    Question. In August 2019, the Office of the Inspector General (OIG) 
found that senior leadership in the Bureau of International 
Organization Affairs (IO) targeted career employees for their perceived 
political beliefs. This month, the IG also found that at least one 
employee was politically targeted and discriminated against for her 
national origin and perceived political affiliation. Since the OIG 
released its findings, the Department has failed to take serious steps 
to hold perpetrators of political targeting and other prohibited 
personnel practices accountable. Do you agree that any targeting of or 
retaliation against career employees based on their perceived political 
beliefs, prior work on policy, or affiliation with a previous 
administration, is wholly inappropriate and has no place in the federal 
government?

    Answer. Retaliation for protected whistleblowing activity or other 
protected activity has no place in the federal government. I agree that 
any employee found responsible for engaging in a prohibited personnel 
practice should be held accountable. I agree that targeting or 
retaliation against employees is inappropriate.

    Question. Do you agree that anyone found to have engaged in 
retaliation should be held fully accountable, up to and including 
losing their job?

    Answer. Yes. Retaliation for protected whistleblowing activity or 
other protected activity has no place in the federal government. I 
agree that any employee found responsible for engaging in a prohibited 
personnel practice should be held accountable.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. I take allegations of such practices seriously, and if 
confirmed, I will ensure that all employees under my leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated. If confirmed, I will ensure 
that all Department employees are aware of the laws and policies 
regarding prohibited personnel practices, and that they know how to 
report violations. I will continue to ensure that all employees are 
protected from prohibited personnel practices by requiring Department 
managers to receive training on the laws and policies they must adhere 
to.

    Question. What else can the State Department do to prevent and 
counter retaliation?

    Answer. As a leader and supervisor, I am accountable for the 
employees who work under me. If confirmed, I will ensure that employees 
know that I will not tolerate violations of merit systems principles. 
Additionally, the Department will continue to advise employees of their 
rights through Department Notices and other messages from the bureau of 
Human Resources, the Office of Civil Rights, and the Office of the 
Inspector General. I will further ensure that employees receive 
training on application of merit system principles, and I will take 
steps to ensure that all Department employees know how to report 
violations.

    Question. Will you commit to periodic updates every 60 days 
regarding progress on addressing retaliation in IO and at the 
Department for your first six months?

    Answer. The Department takes seriously any allegations of 
prohibited personnel practices, including politically motivated 
retaliation against career Department employees. If confirmed, I pledge 
to work with Department leadership to provide periodic updates 
regarding the progress on addressing retaliation in IO and across the 
Department.

    Question. Will you commit to disseminating guidance to empower 
employees against retaliation and discrimination and warn Department 
supervisors of the consequences for engaging in such prohibited 
personnel practices?

    Answer. If confirmed, I will ensure that employees understand the 
Department takes seriously allegations of retaliation or 
discrimination, and that anyone engaging in such behavior will be 
subject to disciplinary action, up to and including separation. I take 
allegations of reprisal seriously. As such, if I become aware of a 
violation of merit systems principles, I will report the violation to 
the Office of Inspector General, the Office of Civil Rights, or the 
Office of Special Counsel as appropriate. I will not tolerate 
prohibited personnel practices at the Department, and I will ensure 
that all employees who fail to follow merit systems principles, 
regardless of rank, will be held accountable.

    Question. What steps are you taking to address low morale at the 
Department and in the IO Bureau?

    Answer. If confirmed, I will commit to building and maintaining a 
positive working environment across the Department, domestically and 
overseas, including the IO Bureau. I plan to work with the Department's 
senior leadership to ensure that we have a strong, well-resourced 
workforce, and that all our employees and families have the support 
they need. The Department takes seriously any allegations of prohibited 
personnel practices, including politically-motivated retaliation 
against career employees. The Department is implementing the Corrective 
Action Plan for the IO Bureau, including through improving 
communication, mandatory training for IO officers, and increasing 
engagement with the Office of the Under Secretary for Political 
Affairs.

    Question. Have you personally been made aware of any concerns 
regarding or reports of prohibited personnel practices during your 
tenure at State? If so, what actions have you taken to address them?

    Answer. I have not been made aware of any allegations of prohibited 
personnel practices relative to my work at the Department. During my 
tenure, I have observed the vast majority of Department employees 
adhere to the highest standards of conduct, and I am confident the 
Department has appropriate mechanisms in place to appropriately 
investigate and take action regarding allegations of misconduct.

    Question. This year, the OIG determined that the ill-planned hiring 
freeze under Secretary Tillerson had a negative or very negative effect 
on morale for one hundred percent of bureaus and offices at the 
Department. If confirmed as the Deputy Secretary of State, you will be 
responsible for improving the Department's approach to its personnel 
and developing a plan to address these issues moving forward. Please 
review the OIG's August 2019 report on the effects of the hiring 
freeze. What measures will you take to undo the extensive damage 
created by the hiring freeze, cited in the OIG's report?

    Answer. If confirmed, I commit to support actions to grow Foreign 
Service and Civil Service staffing levels and bolster morale. Building 
on work that I understand Director General Carol Perez has already 
started, I will continue to promote workplace flexibilities and overall 
workforce agility to ensure the Department remains an employer of 
choice and competitive in today's talent market. Since the hiring 
freeze was lifted, the Department has instituted measures to increase 
Foreign Service and Civil Service hiring, with the goal of reaching 
employment targets stipulated in the Department's FY 2018 Statement of 
Managers and funded in recent appropriations. If confirmed, I will 
continue to build upon these efforts.

    Question. As you know, the Department is plagued by numerous key 
vacancies, departures of senior employees, and a shrinking Foreign 
Service Officer pool. What is your biggest concern and how will you 
tackle it?

    Answer. The Foreign Service Officer pool has returned to levels 
prior to the hiring freeze, and is expected to increase in the upcoming 
year. Projected intake of Foreign Service Officers for FY 2020 is 
planned to be higher than normal, and it will be higher than the 
projected attrition. Attrition among the senior ranks remains stable. 
Promotions are anticipated to backfill losses with highly talented and 
experienced mid-level officials. Retaining our people is a critical 
concern, as they are the Department's greatest asset and if confirmed, 
I will work closely with our Under Secretary for Management, the 
Director General and other relevant offices to ensure that we 
strengthen our retention efforts.

    Question. In the last three years, the Department has seen its 
smallest incoming Foreign Service Officer classes in years. Does this 
concern you? Do you commit to revisit the incoming class numbers and 
assess whether additional FSOs slots should be approved for this year?

    Answer. If confirmed, I am committed to assessing Department needs 
and adjusting intake based on the requirements of the Foreign Service. 
From my understanding, Foreign Service Officer classes over the past 
two years have returned to a more stabilized level. Projected intake of 
Foreign Service Officers for FY 2020 will be at the highest level since 
FY 2016, well above attrition levels.

    Question. Do you commit to revisiting the current hiring and 
promotion policies in place and report back to Congress on what steps 
you think are necessary to ensure that we have a robust and experienced 
workforce going forward?

    Answer. I am committed to assessing Foreign Service employment 
needs and adjusting intake based on the candidates on the registers and 
the requirements of the Foreign Service. If confirmed, I will conduct 
this assessment and report to Congress on steps the Department is 
taking to ensure that the Department recruits, develops, retains, and 
promotes the best talent that this country has to offer.

    Question. Many experienced diplomats have expressed extreme concern 
about the retention of experienced Foreign Service Officers and civil 
servants and the impact on the Department's short-and long-term ability 
to carry out its diplomatic function. Do you agree this is a critical 
area of concern? What will you do to ensure that we are not 
hemorrhaging experienced Foreign Service Officers and civil servants, 
and that the Department will have the experience it needs for the next 
5 to 10 years?

    Answer. Retaining the Department's diplomats as its greatest asset 
is a critical concern. Over the past ten years, attrition rates among 
career employees have been less than four percent for Foreign Service 
Officers, approximately five percent or less for Foreign Service 
Specialists, and about eight percent or less for the Civil Service. 
These attrition rates are lower than the government-wide rates, which 
from 2014 to 2018 ranged from 12 to 15 percent according to the Bureau 
of Labor Statistics. Nevertheless, the Department is committed to 
enhancing workplace flexibilities and overall workforce agility in 
order to retain an experienced workforce and attract new talent.

    Question. Will you review all current workforce planning and report 
to Congress on what additional steps related to staffing and personnel 
you think the Department should take this year?

    Answer. Yes, if confirmed, I will review the Department's workforce 
plans and work with Congress this year.

    Question. How many mid-level foreign service officers have left the 
Department since the beginning of the administration (January 20, 
2017)?

    Answer. Between January 31, 2017, and October 31, 2019, 270 career 
mid-level Foreign Service (FS) officers left. Mid-level FS officer 
attrition rates have been very low and stable, varying from 2.5 percent 
to just over 3.5 percent across the past 10 years. Retirements, both 
voluntary and mandatory for the FS at age 65, constitute the majority 
(over 70 percent) of the attrition. In FY 2019, the overall attrition 
rate for mid-level FS officers was 3.2 percent, slightly above the FY 
2017 rate of 2.8 percent and the FY 2018 rate of 2.9 percent.

    Question. How many senior foreign service officers have left the 
Department since the beginning of the administration (January 20, 
2017)?

    Answer. Between January 31, 2017, and October 31, 2019, 154 career 
Senior Foreign Service (SFS) officers left. SFS attrition rates vary 
more than the mid-level because they are a smaller population. Over the 
past 10 years, the SFS attrition rate has ranged from nine to just over 
12 percent, with retirements constituting the majority (over 99 
percent) of the separations. In FY 2019, the overall attrition rate for 
SFS Officers was 12 percent, slightly lower than the FY 2017 rate of 
12.3 percent and higher than the FY 2018 rate of 10.7 percent.

    Question. How does the current number of civil service personnel 
compare to the number on December 31, 2017?

    Answer. As of October 31, 2019, the Department's Civil Service 
full-time permanent employment level was 10,118, which is 385 below the 
December 31, 2017, level of 10,503.

    Question. How do you plan to compensate for the loss of expertise 
with the exodus of senior level officials?

    Answer. Attrition among the senior ranks has remained stable. The 
Department has a deep bench of experienced and capable Foreign Service 
officers. As is routine in the Foreign Service, promotions of talented 
and experienced mid-level officers are anticipated to backfill losses.

    Question. Which bureaus currently face the most difficult staffing 
challenges? Why?

    Answer. Currently, I understand that the Administrative and 
Management bureaus are the most under-staffed bureaus because these 
bureaus received few Civil Service hiring exemptions/waivers under the 
hiring freeze. This includes the Bureau of Administration, the Foreign 
Service Institute, the Bureau of Human Resources, and the Bureau for 
Overseas Buildings Operations. The Department has raised the staffing 
level targets for these bureaus for FY 2020 in order to produce a 
robust recruitment pipeline that should eliminate a significant part of 
the staffing gaps that hamper current operations.

    Question. Does Human Resources need additional tools to help 
increase civil service hiring? What?

    Answer. Increasing Civil Service hiring is a top management 
priority. The Department is committed to innovation, developing new 
tools and implementing policies to streamline processes and increase 
capacity. The Department finalized an agreement with the Defense 
Finance and Accounting Service to outsource pending recruitment 
requests. The Department is utilizing Shared Certificates, Direct 
Hiring Authorities, Veterans-only announcements and other non-
competitive appointing authorities. The Bureaus of Human Resources and 
Diplomatic Security are partnering in order to streamline the security 
clearance process to further expedite the onboarding of candidates.

    Question. Do you commit to taking steps to ascertain the reasons 
why employees are retiring or leaving the Department?

    Answer. If confirmed, I am committed to improving how the 
Department collects information from employees separating from the 
agency, as well as enhancing the quality of the data so that it can be 
used to inform our policies and procedures. The Department is updating 
existing exit survey questionnaires in order to collect more granular 
data, adopting more agile technology for survey administration, and 
developing a marketing campaign for the survey launch. I expect that 
modernizing the process and formally launching the exit survey tool 
will improve response rates and data distribution throughout the 
Department of State. If confirmed, I will support all efforts to ensure 
that this new system is operational as soon as practicable.

    Question. Does the Department have a formal retention program that 
provides guidance and support to those contemplating resignation?

    Answer. The Department supports the retention of a high-performing 
workforce and continues to facilitate professional development. Foreign 
Service Officers contemplating resignation may consult with their 
Career Development Officers for advice and guidance. Resigning officers 
are asked to complete a voluntary Resignation Questionnaire to provide 
us insight into their reasons for resigning. This questionnaire is 
currently being revised. The Department also provides services to all 
employees to ensure that their professional development is responsive 
to the Department's needs, to include access to the Career Development 
Resource Center, which provides one-on-one career counseling both 
domestically and overseas.

    Question. Do you or does anyone from the Department interview 
personnel resigning from the Foreign Service?

    Answer. The Department does not conduct exit interviews for 
separating personnel at this time. In lieu of interviews, all Foreign 
Service personnel separating from the Department are asked to complete 
a voluntary exit survey. All respondents receive the same questions and 
can respond confidentially, which limits the introduction of bias in 
their responses. Low participation rates have prevented the Department 
from maximizing the exit survey data we have collected; however, I 
believe participation rates will improve with the launch of the new 
exit survey this fiscal year.

    Question. What is your assessment of the Department's ability to 
retain experienced and talented employees?

    Answer. I have met and worked with many experienced and talented 
Department employees. My understanding is that the Department's 
retention rates have remained steady over the long-term. If confirmed, 
I will be committed to enhancing workplace flexibilities and overall 
workforce agility in order to ensure the Department remains an employer 
of choice and competitive in today's talent market.

    Question. What else can the Department do to improve the ability to 
retain experienced and talented personnel?

    Answer. Employees and family members are the Department's greatest 
asset. The Department supports retention of talented personnel and 
offers a variety of professional development opportunities through the 
facilitation of training and career development for both Foreign 
Service and Civil Service employees. The Department supports details to 
other USG agencies and programs for those who wish to pursue advanced 
degrees. The Department also participates in programs allowing Foreign 
Service Officers to work for a year in the Foreign Ministry of another 
country and in the U.S. Congress. The Department offers a variety of 
work-life flexibility programs such as telework, flexible work 
schedules, and leave without pay, and is developing additional such 
programs.

    Question. What will you do to ensure Bureaus are adequately staffed 
to respond to pressing foreign policy challenges as well as operational 
functions of the bureau?

    Answer. If confirmed, I will support necessary programs to ensure 
adequate staffing. In FY 2020, the Department is projected to hire 
Foreign Service Officers above anticipated attrition, consistent with 
the Department's recent appropriations. For the Civil Service, the 
Department is taking several actions to accelerate hiring, including 
finalizing an agreement with the Defense Finance and Accounting Service 
to outsource pending recruitment requests, and utilizing a variety of 
other policies to comprehensively address staffing shortfalls. 
Anticipated employment growth, in both the Foreign and Civil Service, 
should enhance the Department's capacity to fill key vacancies 
worldwide and ensure that Bureaus are adequately staffed to respond to 
policy challenges.

    Question. Do you commit to meeting and communicating directly and 
frequently with career employees? How will you achieve this?

    Answer. Yes. The Department has no greater resource than our 
people, the more than 75,000 career employees--Foreign Service, Civil 
Service, and Locally Employed staff--who work at home and abroad to 
advance the United States' foreign policy goals. If confirmed, I commit 
to engage our career workforce regularly through ``meet and greet'' 
opportunities when I travel to our missions overseas, conversations at 
home and abroad, and meetings with employee groups and unions. I will 
also leverage technology to enhance employee communication. I 
understand that Director General Perez and her team have launched 
creative tools to that end, and I look forward to working with her and 
the Bureau of Global Public Affairs to connect with our people 
regularly.

    Question. If confirmed, you will be charged with representing the 
interests of the American people and communicating the foreign policy 
viewpoints of the U.S. government. This includes on any official social 
media profiles you have. As a February 2019 report by the State 
Department Inspector General found, a number of Ambassadors have not 
complied with the Department's social media policies. Are you familiar 
with the IG Report? Have you read it?

    Answer. Yes. In response to the 2019 OIG recommendation, the 
Department developed and distributed guidance and illustrative examples 
of the types of postings appropriate for official and personal social 
media accounts, as well as those that could violate Department policy. 
Further, the Department is providing employees, including ambassadors 
and other senior officials, with regular social media policy reminders, 
and is ensuring that social media policies are adequately addressed 
during orientation and through regular training. The Department is 
finalizing a standard operating procedure to assess and address 
potential violations of social media policies. If confirmed, I commit 
to ensuring the policy is followed.

    Question. Have you reviewed the Department's social media policies?

    Answer. I have been briefed that in response to the 2019 OIG 
recommendation, the Department developed and distributed guidance and 
illustrative examples of the types of postings appropriate for official 
and personal social media accounts, as well as types of postings that 
could lead to violation of Department policy. Further, the Department 
is providing employees, including ambassadors and other senior 
officials, with regular social media policy reminders, and is ensuring 
that social media policies are adequately addressed during orientation 
sessions and through regular training. I commit to supporting the 
Department's efforts to ensure that appropriate uses of official and 
personal social media accounts are followed.

    Question. Do you commit to following them going forward?

    Answer. Yes. Pursuant to the Department's policies, accounts that 
are or have been used for official communications are considered 
Department accounts and are either retained by the Department for use 
by the incumbent's successor or retired in accordance with applicable 
records disposition schedules, as appropriate.

    Question. What are some examples of the types of posts that you 
understand would require review by the Department?

    Answer. The personal capacity public communications of all 
Department personnel must be reviewed if the content addresses a topic 
``of Departmental concern.'' The term ``of Departmental concern'' is 
defined to mean ``[p]ertaining to current U.S. foreign policy or the 
Department's mission (including policies, programs, operations, or 
activities of the Department of State or USAID), or which reasonably 
may be expected to affect the foreign relations of the United States.'' 
Further, personal accounts and posts on such accounts must not claim to 
represent the Department or its policies, or those of the U.S. 
government, nor may they use any Department or other U.S. government 
seals or logos.

    Question. Do you commit to seeking review of any social media posts 
on a personal account that could be considered a matter of Departmental 
concern?

    Answer. Yes, if confirmed, I commit to reviewing all allegations of 
potential violations of the Department policy and other applicable 
rules.

Responsiveness
    Question. At your nomination hearing, you committed to have a 
``more forthcoming attitude in providing documentation'' to the Senate 
Foreign Relations Committee and said ``you would be more accessible.'' 
More pointedly, however, do you commit to the following:

   Will you respond timely and promptly to all requests for 
        information from each and every member of this committee?

    Answer. Yes, with the understanding that any such effort would be 
organized through the Department of State's Bureau of Legislative 
Affairs and Office of the Legal Adviser and conducted in accordance 
with long-standing Department and Executive Branch practice.

    Question. Will you respond timely and promptly to all requests for 
documents from each and every member of this committee?

    Answer. Yes, with the understanding that any such effort would be 
organized through the Department of State's Bureau of Legislative 
Affairs and Office of the Legal Adviser and conducted in accordance 
with long-standing Department and Executive Branch practice.

    Question. Will you provide briefings in a timely and prompt manner 
in response to requests by each and every member of this committee?

    Answer. Yes, with the understanding that any such effort would be 
organized through the Department of State's Bureau of Legislative 
Affairs and Office of the Legal Adviser and conducted in accordance 
with long-standing Department and Executive Branch practice.

    Question. How, specifically, do you plan to improve the 
Department's responsiveness to this committee?

    Answer. As I stated during my confirmation hearing, I intend to 
emphasize as a leader that a strong foreign policy must include 
consultation between the Executive Branch and the Legislative Branch. 
With experience in both branches, I have seen that there are often gray 
lines that divide the prerogative of the two branches of government, 
and communication is essential to moving forward. If confirmed, I will 
do everything I can to work with the committee to respond to what are 
legitimately the responsibilities and requirements of the legislative 
branch of government while dutifully representing the prerogatives and 
protections of the executive branch of government and I will make 
myself personally available to members of the committee in order to 
advance this goal.

Investigations by Foreign Power.
    Question. Do you think it is ever appropriate for the President to 
use his office to solicit investigations into a domestic political 
opponent?

    Answer. No.

    Question. If you discover that this occurs, if confirmed, what will 
you do?

    Answer. I would immediately refer any such actions giving rise to 
such allegations to the Office of the Legal Adviser and to the Office 
of the Inspector General for their review to determine whether such 
allegations should be referred to the Department of Justice for further 
action.

    Question. Despite widespread employee concerns that they lack 
adequate resources and human capital, the Trump administration 
continues to propose massive budget cuts, including an almost 30 
percent budget cut for the State Department in Fiscal Year (FY) 2019 
and a 23 percent cut for FY 2020. These budget requests would leave the 
Department of Defense without strong U.S. diplomatic or development 
partners. Given the importance of cultivating institutional development 
expertise within our civilian workforce, I am deeply concerned about 
the proposed budget cuts to the State Department and USAID and the 
ongoing staffing vacancies. Given these budget constraints, are you 
confident that you will be able to put in place the 21st-century 
workforce your agency needs and demands? Can you share with the 
committee your staffing plan?

    Answer. If confirmed, I look forward to working to align available 
resources and staffing with strategic priorities, and to advocate for 
the budget to address potential gaps. It is my understanding that the 
Department's FY 2020 budget request would fund existing workforce 
levels for the Department of State and USAID, and the Department 
continues to accelerate hiring efforts. I will support Secretary Pompeo 
in requesting funding that serves national interests and to ensure we 
have the personnel to support excellence.

    Question. The State Department should accurately reflect the 
American people. Unfortunately, we currently have a huge diversity gap 
in our Foreign and Civil Service workforce, especially at the higher 
ranks. This committee has specifically included language in past years 
outlining that the State Department Human Resources Bureau has a 
responsibility to recruit and manage a talented and diverse workforce. 
If confirmed, what will you do to elevate and embrace the diversity of 
people, voices, and backgrounds within the State Department's 
workforce?

    Answer. The Department must ensure that each of our colleagues 
feels valued and respected and has an equal opportunity to develop and 
contribute their talents. If confirmed, I will meet with employee 
affinity groups on a consistent basis to understand and support the 
needs and interests of those groups.
    I understand that Under Secretary Bulatao has coordinated the 
Department's Diversity and Inclusion Strategic Plan (DISP) Taskforce. 
Each bureau has designated a representative to contribute to the 
enterprise-wide framework for diversity and inclusion efforts, which 
include efforts to recruit widely for diversity. I will ensure the DISP 
is communicated broadly and hold the Department accountable to the 
established plan. If confirmed, I will ensure that senior leaders 
prioritize diversity and inclusion in their internal and external 
mission.

    Question. Will you commit to fully support the full funding and 
maintenance of the Rangel Fellows program, and diversity initiatives at 
large within the State Department?

    Answer. Yes. If confirmed, I will continue to support all the 
Department's diversity programs, including the Rangel Fellows program. 
A main focus in the Department's recruitment efforts is working with 
organizations such as the Hispanic Association of Colleges and 
Universities and placing some of the Diplomats in Residence at 
Historically Black Colleges and Universities such as Howard University 
and Florida A&M. Fellowship programs such as the Pickering and Rangel 
programs provide a pipeline into the Foreign Service and typically 
account for 20 25 percent of Foreign Service Officer intake every year.

    Question. How do you plan to address that gap and assure that we 
have a vibrant, robust and diverse workforce at the Department of 
State?

    Answer. The Department's recruitment strategy involves identifying, 
recruiting, and hiring on merit from the broadest, deepest pool of 
diverse candidates to ensure a strong pipeline of Civil Service and 
Foreign Service personnel. To meet these goals and provide nationwide 
coverage, the recruitment team includes Washington, D.C.-based 
recruiters with diversity-focused portfolios and 16 regional 
recruiters, known as Diplomats in Residence. Recruiters engage with 
undergraduate and graduate students at colleges and universities as 
well as professionals at national-level associations and conferences. 
As of September 13, 2019, the recruitment team participated in 208 
diversity-focused events this year, specifically geared toward 
recruiting women, individuals from underrepresented populations, and 
veterans.

    Question. What efforts will you make to address inclusion and 
retention at the State Department with professional development, 
unconscious bias training, sexual harassment and assault training, and 
career advancement opportunities?

    Answer. The Department's Foreign Service Institute has integrated 
diversity and inclusion into required training and development for all 
employees, particularly supervisors, to ensure they are aware of their 
roles and responsibilities to support diversity and inclusion in the 
workplace. The emphasis placed on supervisors ensures that they know 
the laws and rules that prohibit certain personnel practices, as well 
as those that provide special hiring authorities that affirm the role 
of diversity in the government. If confirmed, I will fully support 
these programs.

    Question. If confirmed, what will you do to support more minority 
candidates applying and successfully receiving promotions within the 
Senior Foreign Service?

    Answer. If confirmed, I will advocate for programs that advance a 
diverse and inclusive workforce, with a particular view to promoting 
minorities and underrepresented groups into the senior ranks. I will 
also work with the Director General and her team to understand the 
barriers these groups face and identify possible solutions. I will 
encourage all pursuing the Senior Foreign Service (SFS), especially 
those from underrepresented backgrounds, to identify and participate in 
training and development opportunities throughout their careers to 
prepare them for senior leadership. If confirmed, I will also encourage 
current SFS officers to mentor officers of all backgrounds and work to 
formalize that initiative.

    Question. In October 2019, President Trump selected his own 
property, Trump National Doral Miami to host the 2020 Group of Seven 
(G7) summit before abruptly reversing its decision a day later. The 
President's selection and the subsequent reversal raises questions 
about the site-selection process. Do you think the selection of 
President Trump's own property for the G7 summit affects the 
Department's ability to promote transparency and anti-corruption 
efforts?

    Answer. The Department and I remain committed to efforts to promote 
transparency and anti-corruption efforts. As President Donald J. Trump 
announced on October 19, the G7 Leaders' Summit will not be held at 
Trump National Doral in 2020.

    Question. To the extent the State Department plays a further 
consultative role in the selection of the G7 site, will you advice the 
President to select a site that does not benefit him financially, and 
therefore risk undercutting our global anti-corruption work?

    Answer. I understand that neither the Office of Presidential Travel 
Support nor the Office of the Procurement Executive have been involved 
in the site selection process for the 2020 G7. The Department is wholly 
committed to promoting anti-corruption efforts globally, and the G7 
site selection process does not impact that commitment.

    Question. Do you believe that climate change should be on the 
agenda for the 2020 G7?

    Answer. The White House sets the agenda for the U.S. G7 presidency, 
in consultation with the Department and other cabinet agencies. I 
understand that the 2020 agenda has not yet been finalized, but the 
administration has decided to focus our presidency on a ``back to 
basics'' G7 Presidency with the following economic themes: rejuvenating 
incentives for growth and prosperity; rolling back onerous prosperity-
killing regulations; ending trade barriers; and opening energy markets.

    Question. What role has, does, and will the Department play in the 
agenda-setting process for the 2020 G7, including on decisions such as 
whether to include climate change?

    Answer. The White House sets the agenda for the U.S. G7 presidency, 
in consultation with the Department and other cabinet agencies. I 
understand that the 2020 agenda has not yet been finalized, but the 
administration has decided to focus our presidency on a ``back to 
basics'' G7 Presidency built primarily around economic themes.

    Question. Does the Department have a total estimated budget for the 
2020 U.S. Chairmanship of the G7 in its entirety, including a total 
estimated budget for the 2020 G7 leader-level summit, and including the 
Department's portion? What is that total? Please do not refer to any 
other documents.

    Answer. In my current role, I have not had any involvement in the 
site selection process for the G7 Summit. I understand that the site 
selection process is still ongoing and that the budget for the G7 
Summit, including the Department portion, has not been finalized.

    Question. How much of that would go directly to the host venue?

    Answer. As a final decision regarding the site for the G7 Leaders' 
Summit has not been made, the Department cannot outline the line item 
for costs incurred at the host venue at this time.

    Question. Which Department Bureaus, Offices, and personnel in the 
Department will be involved in the G7 site selection process moving 
forward?

    Answer. In my current role, I have not had any involvement in site 
selection for the G7 Summit but I understand that neither the Office of 
Presidential Travel Support nor the Office of the Procurement Executive 
were involved in the selection of Doral to host the 2020 G7. If 
confirmed, I will look into this matter.

    Question. Please provide dates for the selection of the location 
for the G7 summit, including the date that the site selection process 
for the 2020 G7 began, the date that an initial solicitation was sent 
out, when proposals were received, when Doral was selected, when Doral 
was decided against, when the process of selection began again, and the 
deadline for a new site to be selected.

    Answer. In my current role, I have not had any involvement in site 
selection for the G7 Summit but I understand that neither the Office of 
Presidential Travel Support nor the Office of the Procurement Executive 
were involved in the selection of Doral to host the 2020 G7. If 
confirmed, I will look into this matter.

    Question. In the past, the White House would pick the host city and 
the Department would choose the hotels for the G7 site. Is that the 
process that will be followed in the site selection process moving 
forward?

    Answer. As the G7 is a domestic conference, the State Department's 
Office of Presidential Travel Support did not participate in the site 
selection. State Department employees from the Presidential Travel 
Support office do not stay at Trump properties when they travel and 
have never stayed at the Doral in particular.

    Question. Do you believe it is appropriate for the U.S., or even 
has the authority, to unilaterally strike an issue, like climate 
change, from the agenda of the G7?

    Answer. The country holding the rotating presidency of the G7 has 
wide latitude to set an agenda that reflects its priorities. As the G7 
is a consensus-based group, it is appropriate for the administration, 
as it sets the agenda, to focus on those issues where it is possible to 
build consensus among all members.

    Question. On February 14, 2019, I sent a letter asking for 
information regarding the brutal murder of Jamal Khashoggi, and 
specifically asking for the Department's legal determination that it is 
not required to submit a report to the Chairman and Ranking Member of 
the Senate Foreign Relations Committee pursuant to section 1263(d) of 
the Global Magnitsky Human Rights Accountability Act. Will you commit 
to provide the committee with the Department's legal justification for 
not making the determination required under the Global Magnitsky Act?

    Answer. I understand that this authority remains with the 
President; however, accountability and justice for Jamal Khashoggi is 
crucial. At President Trump's direction, the United States was the 
first nation to impose visa restrictions and financial sanctions on 
individuals implicated in his murder. If confirmed, I commit to urge 
the government of Saudi Arabia--and all governments around the world--
to protect human rights.

Vetting Outside Conflicts
    Question. At the hearing, in response to my question regarding 
irregular channels and whether Rudy Giuliani's involvement in foreign 
policy was demonstrative of ``normal'' foreign policy, you responded 
that you often have worked with outside advisors in your current 
position.

   If confirmed, do you commit that you will personally ensure the 
        Department has a policy to vet any such ``outside advisor'' who 
        is playing a significant role in U.S. foreign policy, is 
        subject to vetting, including a conflicts of interest and 
        financial check?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, including Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. As for 
outside advisors, I will not allow any individual outside the Executive 
Branch to play a role in my work other than an advisor role, based on 
their expertise, and I will seek to ensure this does not contribute to 
any conflict of interest.

    Question. The Department's Dissent Channel was set up during the 
Vietnam War era as an avenue for foreign and civil service officers to 
raise concerns with senior management about U.S. foreign policy, 
without fear of retribution. The Foreign Affairs Manual explicitly 
states ``Freedom from reprisal for Dissent Channel users is strictly 
enforced.'' In the past, the Trump administration has said that Foreign 
Service Officers using the ``Dissent Channel'' to express their views 
on Presidential Executive Orders should ``either get with the program 
or they can go.'' Are you aware of the Department's Dissent Channel 
policies?

    Answer. It is the Department of State's policy that all U.S. 
citizen employees should be able to express dissenting or alternative 
views on substantive issues of policy in a manner that ensures serious, 
high-level review and response. All drafters of Dissent Channel cables 
are offered anonymity and are guaranteed by the FAM freedom from 
reprisals. I fully support the Department's Dissent Channel policies.

    Question. Do you commit to upholding these policies and holding 
accountable any personnel who engage in retribution against employees 
who use the Dissent Channel?

    Answer. The Department has a strong interest in facilitating open 
dialogue on substantive foreign policy issues. I take seriously my 
responsibility to foster an atmosphere supportive of such dialogue, 
including the opportunity to offer dissenting opinions without fear of 
penalty. Freedom from reprisal for Dissent Channel users is strictly 
enforced. Anyone found to have engaged in retaliation against a Dissent 
Channel drafter, or to have divulged to unauthorized personnel Dissent 
Channel messages, will be subject to appropriate disciplinary action. 
Dissent Channel messages, including the identity of the authors, are 
one of the most sensitive elements of our internal deliberative process 
and are protected accordingly.

    Question. How specifically will you encourage employees to utilize 
the Dissent Channel and combat any chilling effects against using the 
Dissent Channel stemming from the White House?

    Answer. If confirmed, I will strongly encourage employees to 
utilize the Dissent Channel. The Dissent Channel was created to bring 
in alternative views on substantive foreign policy to the attention of 
the Secretary of State, and other senior State Department leaders, in a 
manner that protects the author from any penalty, reprisal, or 
recrimination. I believe that use of the Dissent Channel is a sign of 
the strength of the employees of the Department of State, not a 
weakness.

Role of State Department
    Question. Mr. Biegun, in the past Secretary Pompeo has 
characterized the State Department political nominees the 
administration has sent to this committee as ``excellent'' and 
``outstanding'' candidates. While I have great respect for qualified 
career State Department Foreign Service Officers, we have also received 
political nominees that are, to put it bluntly, unqualified and unfit. 
I recognize that yours would not be the only voice in approving 
nominations. But you would have role in the process, so I would like to 
know, if confirmed, if will you sign-off on:

   A nominee who has, on social media, made personal attacks on 
        members of this committee or their family members?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House.

    Question. A nominee who has retweeted a post with anti-Semitic or 
racist content, or expressions of religious bigotry and intolerance?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. The 
Department works to combat anti-Semitism, bigotry, and intolerance 
around the world, including through our public diplomacy efforts and 
our Special Envoy to monitor and combat anti-Semitism. Additionally, 
the Department's Office of Civil Rights works daily foster an 
environment of fairness, equity, and inclusion within the Department.

    Question. Nominees who have had restraining orders issued against 
them?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. The 
Department carefully reviews the criminal history of every applicant as 
part of the hiring and clearance process.

    Question. Someone who may have committed tax fraud?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. All 
Department employees are required to comply fully with U.S. tax law.

    Question. A nominee who has been involved in sexual harassment 
lawsuits?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. The 
Department is committed to providing a workplace that is free from 
sexual harassment. Sexual harassment in the workplace is against the 
law and will not be tolerated. When the Department determines that an 
allegation of sexual harassment is credible, it takes prompt and 
appropriate corrective action.

    Question. A nominee for a strategic post with literally no foreign 
policy experience?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. The 
President may appoint Ambassadors based on their unique qualifications 
and experience, including in outside sectors, such as private business.

    Question. Can I have your commitment, if confirmed, that you will 
oppose political nominees with these sorts of marks in their files from 
being nominated?

    Answer. I agree with you and with Secretary Pompeo on the need to 
recruit talented personnel to represent the United States in all 
positions, to include Department leadership. I will work hard to ensure 
qualified candidates are vetted carefully during their consideration 
for overseas ambassadorial and domestic positions requiring Senate 
confirmation, including in coordination with the White House. If 
confirmed, I will seek out and support political nominees who are 
highly qualified and demonstrate a track record of excellence and 
integrity.

    Question. Foreign diplomacy under this administration has been 
frequently carried out outside official diplomatic channels. In the 
Gulf, we've seen certain officials in the White House develop personal 
relationships with senior Gulf leaders, including Mohammad bin Salman 
and operate--from what we understand--completely outside of the 
standard diplomatic channels. Do you think it's appropriate for the NSC 
or anyone in the White House to be pursuing policies with the Kingdom 
without the input, sign-off or even awareness of the Chief of Mission, 
the State Department, or any other embassy staff? If confirmed, what 
will you do if you run across such a situation?

    Answer. The U.S. government should always act as one unit in the 
execution of foreign policy. If confirmed, I will forcefully work to 
ensure that U.S. government officials in Washington and at our missions 
overseas are operating in the most coordinated manner possible.

    Question. What steps will you take to ensure U.S. diplomats are 
kept in the loop and U.S. relationships are conducted through normal 
diplomatic channels?

    Answer. If confirmed, my policy as Deputy Secretary will be to have 
Department representatives and appropriate interagency counterparts 
directly involved in every official meeting and communications channel 
with foreign government interlocutors, to the extent possible. I 
believe strongly the U.S. government should always act as one unit in 
the execution of foreign policy, and all U.S. officials with formal 
responsibilities on a specific issue or country should be involved, 
commensurate with their ranks and roles.

    Question. If one of our senior diplomats warned you that ending 
Temporary Protected Status (TPS) for a country and stripping hundreds 
of thousands of people of humanitarian protections would jeopardize our 
national security, yet a Trump administration political appointee 
recommended that you accelerate the termination of TPS so it wouldn't 
be a liability during the 2020 election, what would you do?

    Answer. The decision on whether to designate or extend a country's 
designation for TPS is made by the Secretary of Homeland Security, 
after consultation with appropriate agencies. I understand that, as 
part of the process, the Secretary of Homeland Security usually 
consults with the Secretary of State. If confirmed, I will seek to 
ensure the Secretary has what he needs to properly inform the DHS 
decision.

    Question. If one of our senior diplomats told you ending TPS would 
send hundreds of thousands of people back to countries ridden with 
crime and violence, but a Trump administration political appointees 
recommended it anyway, what would you do?

    Answer. The decision on whether to designate or extend a country's 
designation for TPS is made by the Secretary of Homeland Security, 
after consultation with appropriate agencies. I understand that, as 
part of the process, the Secretary of Homeland Security usually 
consults with the Secretary of State. If confirmed, I will seek to 
ensure the Secretary has what he needs to properly inform the DHS 
decision.

    Question. If one of our senior diplomats told you that hundreds of 
thousands of American citizen children would face crime and violence if 
they accompanied their TPS recipient parents back to their homeland, 
yet Trump administration political appointees still recommended it, 
what would you do?

    Answer. The decision on whether to designate or extend a country's 
designation for TPS is made by the Secretary of Homeland Security, 
after consultation with appropriate agencies. I understand that, as 
part of the process, the Secretary of Homeland Security usually 
consults with the Secretary of State. If confirmed, I will seek to 
ensure the Secretary has what he needs to properly inform the DHS 
decision.

    Question. A hallmark of U.S. leadership has long been our 
commitment to our partners and allies. President Trump doesn't seem to 
appreciate that, and his actions undermine American credibility. The 
Syrian Democratic Forces (SDF) have fought on the frontlines against 
ISIS, in close partnership with the United States and United States 
allies, and lost more than 11,000 lives as a result. It seems to me 
that the United States should continue this partnership with the SDF in 
order to defeat ISIS and protect U.S. national security. Have our 
Kurdish partners in Syria been a reliable ally?

    Answer. U.S. actions in Syria remain driven by our core objectives: 
the enduring defeat of ISIS and al-Qa'ida; a political solution to the 
Syrian conflict in line with United Nations Security Council Resolution 
2254; and encouraging the removal of all Iranian-backed forces from 
Syria. The United States longstanding interests have been clearly 
stated and align with our Kurdish-led Syrian Democratic Force (SDF) 
partners in these areas.
    Many Kurdish SDF fighters in Syria and Iraqi Kurds fought valiantly 
against ISIS. The United States sincerely appreciates the tremendous 
sacrifice these forces made. The Kurdish-led SDF remains a reliable 
partner in U.S. efforts to ensure the enduring defeat of ISIS in 
northeast Syria, and the U.S. will continue working with them.

    Question. Would we have defeated the physical ISIS caliphate 
without the Kurds?

    Answer. The Kurdish-led Syrian Democratic Forces are an important 
partner in our efforts to ensure the enduring defeat of ISIS. Many 
Kurdish fighters in both Iraq and Syria courageously fought alongside 
U.S. and Coalition forces to defeat ISIS. The United States sincerely 
appreciates the tremendous sacrifice these forces made.

    Question. Do our Kurdish partners view us as a reliable partner?

    Answer. On October 23, the spokesperson for the Kurdish-led Syrian 
Democratic Forces thanked President Trump on Twitter for his support 
and efforts to stabilize the region. The Kurdish-led Syrian Democratic 
Forces remain an important and reliable partner in our efforts to 
ensure the enduring defeat of ISIS in northeast Syria. The President 
has clearly and publicly articulated his support for our Syrian 
Democratic Forces partners. I understand that Ambassadors Jeffrey and 
Roebuck remain in daily contact with the SDF leadership.

    Question.  How will this decision impact our ongoing ability to 
confront continuing ISIS threats?

    Answer. The Kurdish-led Syrian Democratic Forces remain our 
partners in northeast Syria as the United States continues to pursue 
and defeat ISIS. As the President has stated, some U.S. troops will 
remain in Syria for now to help ensure that ISIS does not reconstitute 
or gain control of oil fields in northeast Syria.

    Question. Withdrawing troops in northern Syria and greenlighting 
Turkey's incursion paves the way for continued Iran adventurism in 
Syria. A reduced U.S. presence in Syria with increased Russian activity 
all but guarantees that Iran and will fill in the vacuum, positioning 
itself to build its long sought land bridge to the Mediterranean. From 
there it can easily deliver arms and supplies to Hezbollah and further 
threaten our ally Israel. Does the administration have a plan for 
countering Iran in Syria?

    Answer. U.S. policy in Syria remains the removal of all Iranian-
backed forces from Syria, the enduring defeat of ISIS and al-Qa'ida, 
and a political solution to the conflict in line with U.N. Security 
Council Resolution 2254. The administration opposed the Turkish 
invasion of northern Syria. Turkey has a role to play in resolving this 
crisis, but it has acted unwisely and dangerously despite warnings and 
incentives from this administration to pursue different courses of 
action. The administration remains committed to pushing back on malign 
Iranian influence in the region, including full support of Israel's 
right to self-defense.

    Question. If so, please explain what it is and how it will account 
for recent gains by Iran-backed, pro regime forces that are filling the 
vacuum the departure of U.S. troops created in northern Syria.

    Answer. The United States is conducting a campaign of economic 
pressure to deny the Iranian regime funds that it uses for its malign 
regional activities, including in Syria. Since May 2018, our sanctions 
have reduced Iran's crude oil exports by more than 90 percent, 
depriving the regime of around $25 billion in export revenues and as 
much as $50 billion in revenue annually going forward. The 
administration is putting effective pressure on Iran for the first time 
in a long time. U.S. efforts supporting a political resolution in Syria 
in line with U.N. Security Council Resolution 2254 counter Iran's 
actions to prop up the brutal Assad regime and the U.S. supports 
Israel's action against Iranian forces threatening Israel from Syrian 
soil.

    Question. What commitments, if any, do we have with Turkish and 
Iraqi authorities to prevent Iran from moving fighters and supplies 
from Iraq through northern Syria?

    Answer. Iran is the biggest cause of insecurity in the Middle East, 
and routinely violates the sovereignty of Iraq by sending personnel and 
material through Iraq to Syria. We have routinely pressed the 
government of Iraq (GOI) to control its borders and prevent these 
movements, while providing substantial security assistance to Border 
Guard Forces. The United States has bilateral and NATO instruments with 
Turkey to ensure border security, including information-sharing 
arrangements related to the threat posed by foreign terrorist fighters. 
The United States expects the GOI and the government of Turkey to 
continue cooperation with the United States and others to prevent 
Iran's malign activities.

    Question. If there are no commitments, what steps with the U.S. 
take to prevent this from happening?

    Answer. The United States regularly presses the government of Iraq 
to monitor and control its borders and prevent the movement of illicit 
actors into northeastern Syria. The Global Coalition to Defeat ISIS and 
the United States work with the Syrian Democratic Forces to ensure the 
enduring defeat of ISIS and prevent the emergence of a security vacuum 
in northeast Syria that could be exploited by Iran, ISIS, or other 
malign actors.

    Question.  How has the Turkish incursion into northeastern Syria 
impacted Iranian ability to operate directly or through proxies in 
Syria?

    Answer. The United States is conducting a campaign of economic 
pressure to deny the Iranian regime funds for its malign regional 
activities, including in Syria. Since May 2018, U.S. sanctions reduced 
Iran's crude oil exports by more than 90 percent, depriving the regime 
of around $25 billion in export revenues and as much as $50 billion in 
revenue annually going forward. For the first time in many years, this 
administration placed effective pressure on Iran. Efforts by the United 
States supporting a political resolution in Syria in line with U.N. 
Security Council Resolution 2254 counter Iran's actions to prop up the 
brutal Assad regime and the United States supports Israel's action 
against Iranian forces threatening Israel from Syrian soil.

    Question. Recent reports indicate that the U.S. may wind up with 
900 troops stationed around oil fields in eastern Syria, only 100 fewer 
than the 1,000 that were in Syria before the President's withdrawal 
announcement. A significant number of those troops appear to include 
National Guard armored units. What are the administration's current 
priorities in Syria and is our current posture enough to achieve them?

    Answer. The administration's Syria policy consists of three 
priorities: the enduring defeat of ISIS and al-Qa'ida; a political 
solution to the Syrian conflict in line with U.N. Security Council 
Resolution 2254; and the removal of all Iranian-backed forces from 
Syria. I fully support the administration's approach of using all 
political and economic tools available to pressure the Assad regime and 
advance the political process in line with 2254 to deliver real reforms 
that have a real impact for all Syrians, including those in the 
diaspora, while maintaining a U.S. military presence in northeast Syria 
to ensure the enduring defeat of ISIS.

    Question. The President keeps referring to the mission of the U.S. 
Armed Forces stationed in Syria as ``protecting the oil''; he often 
also speaks of ``taking'' the oil. Do you believe that the U.S. 
``taking'' the oil, or bringing in outside companies to extract the 
oil, without the permission of the Syrian government, is illegal under 
international law?

    Answer. The enduring defeat of ISIS is a key priority of the 
administration's Syria policy and is critical to the national security 
of the United States. Oil fields were a major source of revenue for the 
ISIS territorial caliphate, which the United States has now 100 percent 
destroyed. The United States will deny ISIS access to critical 
resources and revenue that could allow them to regain strength. The 
United States will continue to partner with the Syrian Democratic 
Forces to prevent an ISIS resurgence, including by denying them access 
to the revenues they could generate from oil fields.

    Question. Does the President have any authority under the 
Constitution or under any Authorization of Use of Military Force to 
militarily protect the Syrian oil fields from Syrian government forces 
or Russian forces? If not, then do you believe that the President would 
need a new AUMF in order to do so?

    Answer. Legal authorities for our presence in Syria have not 
changed and the administration is not seeking an additional AUMF. The 
President has sufficient constitutional and statutory authority to 
direct the U.S. Armed Forces to carry out the mission of denying ISIS 
access to critical resources and revenue that could allow them to 
regain strength. Oil fields were a major source of revenue for the ISIS 
territorial caliphate. The enduring defeat of ISIS is a key priority of 
the administration's Syria policy and is critical to our national 
security, which the President is charged with protecting.

    Question. In the wake of the administration's maximum pressure 
campaign, Iran has renounced many of the nuclear commitments it made in 
the JCPOA. Iran has restarted its enrichment program at Fordow, a 
fortified laboratory hidden beneath a mountain. The Institute for 
Science and International Studies warned in early September that over 
time these steps could ``shrink precipitously'' the amount of time Iran 
needs to produce the material for one nuclear weapon, known as breakout 
time. Would you agree that the nuclear steps Iran has taken since July 
have shrunk their breakout time below one year?

    Answer. If confirmed, I will defer to the intelligence community 
and the Department of Energy for their analysis of the impact of Iran's 
recent nuclear escalations on their breakout timeline. The maximum 
pressure campaign is putting the Iranian regime under unprecedented 
economic strain. Since May 2018, U.S. sanctions have reduced Iran's 
crude oil exports by over 90 percent, depriving the regime of over $25 
billion in export revenues. The regime would have used this money to 
fund destabilizing activities, including its nuclear program.

    Question. Given Iran turning away from its JCPOA nuclear 
commitments and increased aggressive actions against the Gulf states 
and in the Strait of Hormuz, is now the time to take into account and 
debate the differing views and ideas across the branches of government? 
Do you assess that Iran is now closer to achieving its goal of building 
a nuclear weapon than it was before the maximum pressure campaign was 
initiated?

    Answer. If confirmed, I will approach with an open mind the many 
challenges Iran poses to the United States and the world. I look 
forward to engaging with Congress and the relevant interagency partners 
on how to best achieve our objectives. Iran is facing an unprecedented 
economic crisis as a result of the maximum pressure campaign. Iran 
therefore must choose between funding its terrorism proxies abroad or 
stabilizing its economy.

    Question. What is the administration's strategy for reigning in 
Iran's nuclear program now that Iran has said it is no longer bound by 
the commitments it made in the JCPOA?

    Answer. The JCPOA was a flawed deal because it did not permanently 
address our concerns with respect to Iran's nuclear program or its 
destabilizing conduct. The fact that Iran has been able to return to 
higher levels of nuclear enrichment so easily reflects the deal's 
deficiencies. The purpose of the maximum pressure campaign is to bring 
Iran to the negotiation table to address both its nuclear program and 
its destabilizing activities. The United States is also engaged in 
robust international engagement to bring multilateral pressure on Iran 
and to raise the costs of its nuclear escalation. At the same time, the 
United States continues to support the IAEA's continued professional 
and independent verification and monitoring of Iran's program.

    Question. At what point will the size and sophistication of Iran's 
nuclear program force the administration to consider whether military 
action is necessary to restrain Iran's nuclear program?

    Answer. The President has been clear that we do not seek war with 
Iran. That is why the maximum pressure campaign is solely diplomatic 
and economic in nature, forcing Iran to choose between ceasing its 
destabilizing activities or facing greater economic pressure and 
isolation. Iran must meet our diplomacy with diplomacy, not with 
violence and extortion.

    Question. What concrete steps are you taking to get Iran back to 
negotiations to address its nuclear activity, including ballistic 
missile production?

    Answer. The maximum pressure campaign is putting the Iranian regime 
under unprecedented economic strain. Since May 2018 our sanctions have 
reduced Iran's crude oil exports by over 90 percent, depriving the 
regime of over $25 billion in export revenues, and as much as $50 
billion in revenue annually going forward. The purpose of the campaign 
is to get Iran back to comprehensive negotiations that address not only 
its nuclear activities but also its missile program, destabilizing 
activities in the region, and continued unjust detention of American 
and foreign citizens.

    Question. How are our European partners responding to Iran's 
nuclear developments? What steps are you taking to ensure international 
coordination on efforts to constrain Iran's nuclear ambitions?

    Answer. The UK, France, and Germany have all expressed concern with 
Iran's recent decisions to advance its nuclear program through 
increased uranium enrichment and research efforts in advanced 
centrifuge design. Cooperation with European allies and partners to 
address the range of threats posed by Iran remains robust and we are in 
regular communication with our allies and partners regarding our Iran 
policy and how to increase pressure on Iran for its nuclear 
escalations. I understand that the U.S. welcomed the E3's September 23 
statement urging Iran to reverse its nuclear developments and accept 
negotiations on a framework for its nuclear and missile programs.

    Question. Iran's violent response to ongoing protests throughout 
the country are the same response we have seen to previous protests. 
How are these protests similar or different from earlier protests that 
the regime was able to repress?

    Answer. The current protests began after the regime's announcement 
on November 15 that it would raise gasoline prices substantially. We 
have been closely monitoring these protests and the regime's response, 
but it is too early to make a definitive comparison to the protests in 
late 2017 and early 2018. Our early assessments indicate that they were 
widespread and damage to property was extensive. The unconfirmed number 
of protesters killed by the regime also appears to be higher than in 
the 2017-2018 protests. The decision by the regime to shut down 
Internet access almost completely for several days across the country 
was more extensive than actions it had taken previously.

    Question. What is the administration's strategy to engage these 
protests? How does the administration plan to balance support for these 
protesters with the maximum pressure campaign??

    Answer. A key component of our Iran strategy is support for the 
Iranian people, who are the longest suffering victims of the Iranian 
regime. During the recent protests, we have called for the regime to 
respect their human rights. This is consistent with the maximum 
pressure campaign, which seeks to comprehensively change the behavior 
of the regime so that the Iranian people can have the government they 
deserve. The State Department, working with other agencies, is 
committed to using sanctions and other authorities to hold human rights 
abusers accountable. For example, the United States sanctioned Iran's 
Minister of Information and Communication on November 22 for his role 
in restricting Internet access to the people of Iran.

    Question. In Iraq and Lebanon, we have seen massive protests in 
response to, among other things, Iran's undue influence in politics and 
corruption in those countries.

   What steps is the administration taking to counter malign Iranian 
        influence in those countries and around the region?

    Answer. The economic strain caused by the maximum pressure campaign 
means the Iranian regime has less money to support its proxies and 
spread terror across the region. Earlier this year, Hizballah Secretary 
General Hassan Nasrallah publicly appealed for donations for the first 
time ever. In Iraq, Embassy Baghdad continually highlights the 
difference between positive, constructive American engagement and the 
exploitative and destructive malign influence of Iran. Iranian proxies 
in Syria and elsewhere are going unpaid, and the services they once 
relied upon are drying up. Hamas has also enacted what it calls an 
``austerity plan'' to deal with a lack of funds from Iran.

    Question. What steps is the administration taking to engage 
protesters and support their calls for responsive governments free from 
corruption and malign Iranian influence?

    Answer. One of the chief goals of the maximum pressure campaign is 
to curb the Iranian regime's malign influence in the region. Recent 
protests in Iraq in particular demonstrate that people are demanding 
responsive government and reduced Iranian influence. The Iranian people 
also continue to call on their government to invest more at home and 
less on misadventures abroad. The United States supports the Iranian 
people's demands, and the Department will continue to work with our 
partners to counter Iran's malign behavior and support transparent, 
improved governance free from corruption.

    Question. In the U.N. Special Rapporteur for extrajudicial, summary 
or arbitrary executions' report on Jamal Khashoggi's murder, she found 
that there is ``credible evidence warranting further investigation of 
high-level Saudi officials' individual liability, including the crown 
prince.''

   Have you read the report? If not, will you commit now to reading 
        it?

    Answer. I have been briefed on the report, and if confirmed, am 
committed to reviewing, all information available to the U.S. 
government regarding the murder of Jamal Khashoggi.

    Question. Do you commit to assisting any U.S. government efforts to 
investigate the cause of Khashoggi's murder?

    Answer. I am committed to any U.S. government efforts to collect 
all the facts regarding the horrific murder of Jamal Khashoggi.

    Question. Do you believe that any individuals, regardless of who 
they are, should be held responsible?

    Answer. Yes. The President and Secretary of State have been clear 
that Saudi Arabia must hold accountable every individual implicated in 
the horrific murder of Jamal Khashoggi, regardless of rank. If 
confirmed, I will do my utmost to advance this goal. As you are aware, 
the United States was the first country to take significant action to 
promote accountability in the case, including use of Global Magnitsky 
sanctions authorities to aggressively pursue individuals who had a role 
in the killing. If confirmed, I will support continued action as new 
information becomes available.

    Question. Do you commit to urging Saudi Arabia to conduct trials 
that are free and fair, and to investigate the individuals responsible 
for Khashoggi's murder?

    Answer. Yes. If confirmed, I will continue to urge the government 
of Saudi Arabia to fully investigate the murder, hold all parties 
involved accountable, and conduct a fair and transparent judicial 
process.

    Question. Do you commit to publicly raising concerns about other 
human rights abuses inside Saudi Arabia?

    Answer. Yes. If confirmed, I will continue to raise human rights 
issues both publicly and privately, whether with the government of 
Saudi Arabia or other governments around the world. I will continue to 
urge the Saudi government to ensure fair trial guarantees, 
transparency, rule of law, and freedom from arbitrary and extrajudicial 
detention. If confirmed, I will call on Saudi Arabia to treat prisoners 
and detainees humanely, to ensure that allegations of abuse are 
investigated quickly and thoroughly, and that those found responsible 
are held accountable.

    Question. Please detail the U.S. embassy presence at the Saudi 
trials of those it says it is holding responsible for the death of 
Jamal Khashoggi.

    Answer. U.S. embassy observers have attended all eight hearings of 
the Jamal Khashoggi murder trial. I understand the trial remains 
ongoing.

    Question. What efforts you are taking to secure the release of 
Americans in prison in Saudi Arabia?

    Answer. The safety and welfare of U.S. citizens overseas is one of 
my top priorities. If confirmed, the U.S. Embassy Riyadh team and I 
will continue to press the Saudi government for the fair and humane 
treatment of all U.S. citizens detained in Saudi Arabia and for an 
expeditious and transparent judicial process so their cases may be 
resolved quickly.

    Question. Foreign diplomacy under this administration has been 
frequently carried out by unofficial diplomats. In the Gulf, we've seen 
certain officials develop personal relationships with senior Gulf 
leaders, including Mohammad bin Salman and operate--from what we 
understand--completely outside of the standard diplomatic channels. Is 
it appropriate for official staff or anyone affiliated with the White 
House to be pursuing policies with Saudi Arabia without the input, 
signoff or even awareness of the Chief of Mission, the State Department 
or any other embassy staff?

    Answer. The U.S. government should always act as one unit in the 
execution of foreign policy. If confirmed, I will forcefully work to 
ensure that U.S. government officials in Washington and at our missions 
overseas are operating in the most coordinated manner possible.

    Question. What steps will you take to ensure U.S. diplomats are 
kept in informed of unofficial exchanges and U.S. relationships are 
conducted through normal diplomatic channels?

    Answer. If confirmed, my policy as Deputy Secretary will be to have 
State Department representatives and appropriate interagency 
counterparts directly involved in every official meeting and 
communications channel with foreign government interlocutors, to the 
extent possible. I believe strongly the U.S. government should always 
act as one unit in the execution of foreign policy, and all U.S. 
officials with formal responsibilities on a specific issue or country 
should be involved, commensurate with their ranks and roles.

    Question. As I have recently noted in letters to Secretary Pompeo, 
Ambassador Abizaid and Twitter CEO Jack Dorsey, I am extremely troubled 
by Saudi attempts to spy on and intimidate activists over social media, 
as shown by the charges recently brought by the U.S. Department of 
Justice. What steps is the State Department taking, specifically, to 
raise concerns with Saudi officials about using U.S. technology 
companies to monitor and gather information on dissidents and those 
critical of the Kingdom?

    Answer. I share your concerns and understand the Department 
immediately raised the issue with Saudi Arabian officials in Riyadh and 
Washington. The reported misuse of American technology companies and 
social media to access personal data of dissidents is unacceptable. I 
know Department officials in both capitals regularly raise with Saudi 
leaders a range of human rights issues and advocate for Saudi Arabia's 
adherence to international principles, including respect for civil 
liberties and the rights to freedom of association and expression, 
including peaceful dissent. If confirmed, I pledge to continue raising 
these issues with Saudi leadership.

    Question. How is the administration working with technology 
companies to ensure they are not being exploited by foreign countries, 
including Saudi Arabia, for surveillance of dissidents?

    Answer. The United States engages with technology companies on a 
variety of subjects, including defending against state and non-state 
actors. Specific to Saudi Arabia, the U.S. Commercial Service team in 
country is in regular contact with U.S. technology companies and other 
U.S. businesses to address their concerns in conducting business in 
Saudi Arabia, including privacy and data protection. The Commercial 
Service will lead an inbound Digital Economy Mission in January 2020 to 
engage the Saudi Arabian government on these issues.

    Question. The Associated Press, Human Rights Watch, Amnesty 
International, and the U.N. Panel of Experts on Yemen have all issued 
reports detailing the torture of Yemeni detainees by Yemeni forces 
receiving support from the UAE. There are also allegations that at 
times UAE forces themselves have directly participated in the torture 
and illegal detention of Yemeni detainees in a network of secret 
prisons. Have you read these reports? If not, will you commit now to 
reading them?

    Answer. I will read these reports.

    Question. Given the findings of these reports, do you agree or 
disagree with their conclusions that the UAE has responsibility for the 
torture and disappearances of detainees in Yemen by its own forces or 
by Yemeni forces under the UAE's effective control or direction?

    Answer. I have been briefed that the administration is not able to 
independently verify the allegations upon which the findings of the 
reports are based, but, given the seriousness of the allegations, the 
United States has raised and will continue to raise with the UAE 
through diplomatic, intelligence, and military channels.. It is crucial 
for the United States to investigate such reports and ensure that any 
forces found to have engaged in such abuses are held accountable.

    Question. What should the United States' role be in investigating 
the allegations of illegal detention and torture?

    Answer. The administration takes allegations of illegal detention 
and torture by all sides in the Yemen conflict very seriously and 
closely monitors human rights conditions in Yemen. The Department 
reported on allegations of illegal detention and torture in Yemen in 
the most recently published Human Rights Report. If confirmed, I will 
continue to raise such allegations with government counterparts at 
senior levels through diplomatic, intelligence, and military channels. 
I would also emphasize the importance of investigating such reports and 
ensuring that those responsible for such abuses are held accountable.

    Question. What steps will you take to push the UAE to release any 
and all unjustly held individuals in UAE-run facilities in Yemen and to 
hold accountable those responsible for arbitrary detention and torture?

    Answer. If confirmed, I will work closely with administration 
colleagues to continue to urge all parties, including the UAE, to treat 
prisoners and detainees humanely and to ensure that abuses are 
investigated and those responsible are held accountable. In any 
engagements with Yemeni government and Saudi-led coalition officials, I 
will urge all parties to allow regular access by the International 
Committee of the Red Cross to any detention facilities in Yemen under 
their control to ensure detainees are being treated in accordance with 
international law.

    Question. I remain concerned over reports that the UAE has 
transferred U.S. origin weapons, including small arms, anti-tank 
missiles and armored vehicles to armed Yemeni groups that include 
affiliates of al Qaeda fighters and hardline Salafi militias. Such 
transfers are in direct violation of sales agreements made between the 
U.S. and the UAE. I understand the Department is also continuing to 
review these allegations. If confirmed, what steps will you take to 
ensure there is a thorough investigation into these transfers and make 
certain that they do not happen again?

    Answer. The Department takes all allegations of unauthorized 
transfers of U.S-origin defense articles very seriously. We continue to 
investigate this matter and intend to reach a determination soon. If a 
partner country does violate provisions of any transfer agreements, the 
Department will typically work with the country to ensure that they 
have a complete understanding of their requirements and assist in 
establishing procedures for appropriate oversight. Depending on the 
severity of the violation, we may consider other measures.

    Question. Going forward, what steps should the U.S. take to prevent 
such transfers that were not taken in this instance?

    Answer. As with all such cases, we will first determine what 
occurred and will then take steps relevant and applicable to whatever 
circumstances occurred. In all such cases, our goals include ensuring 
there are no violations.

    Question. On July 1, Iraq's Prime Minister issued a decree 
attempting to more closely integrate the Popular Mobilization Forces 
(PMFs) into the Iraqi Armed Forces. As you know, these militias, some 
of which are backed by Iran, contribute to Iraq's instability, 
especially in the northern regions. What continuing support, if any, 
does Iran provide to PMF units? What is your assessment of the PMF 
threat to Iraq's security and the steps taken by the Iraqi government 
so far to address that threat?

    Answer. Iran provides support to some PMF units. This includes 
logistical, advisory, and material support as well as training. The 
actions of undisciplined PMF units such as Kata'ib Hezbollah, Harakat 
al-Nujaba, and other Iran-backed groups are destabilizing and threaten 
Iraq's internal security.
    The prime minister's July 1 decree ordering PMF units to 
depoliticize, remove checkpoints, and forego economic activities was a 
positive step toward reform. Iraq had made minor progress implementing 
the decree before the country was racked by wide-spread protests in 
October.

    Question. What is your assessment of the role played by Iran-backed 
Popular Mobilization Forces (PMF) in the violent response to recent 
protests?

    Answer. The Department assesses that some members of Iran-backed 
PMF units have taken part in the violent suppression of protests in 
Iraq. Not all PMF units have taken part in quelling protests; some 
disciplined units that are sponsored by Iraq's Shia religious 
authorities--the Marja'iyah--have refrained from violence against 
demonstrators. As Secretary Pompeo said on November 19, ``the United 
States is prepared to impose sanctions.on those responsible for the 
deaths and wounding of peaceful protesters.'' We expect to announce new 
sanctions in the coming days.

    Question. Please describe how the United States is supporting Iraqi 
efforts to integrate security forces into government control. What 
steps will be taken going forward?

    Answer. The prime minister's July 1 decree ordering PMF units to 
depoliticize, remove checkpoints, and cease economic activity was a 
positive step. The timeline by which PMF units are integrated into the 
Iraqi security forces as called for by the decree is for the government 
of Iraq to decide. Prior to the start of protests in October, Prime 
Minister Adel Abd al-Mahdi was steadfast in his statements that the PMF 
must reform into a disciplined and apolitical security service, yet 
progress was negligible. The United States is prepared to offer 
technical assistance to the government of Iraq to reform its security 
sector and to take punitive action against spoilers who, through 
violence or corruption, attempt to block legitimate reform efforts.

    Question. We recently passed the seventh month mark since the State 
Department instituted ordered departure of all non-emergency personnel 
from Iraq. With little congressional engagement in the interim, the 
ordered departure in Iraq appears to have been lifted. Additionally, 
proposed security assistance to Iraq has taken a cut under this 
administration's FY 2020 budget proposal. What exactly is the plan for 
U.S. presence in Iraq?

    Answer. On May 14, Mission Iraq went on ordered departure due to 
credible threats from armed groups not under the control of the Iraqi 
government. The evacuation included the Baghdad embassy compound, the 
Baghdad diplomatic support center, and Consulate General Erbil. In late 
June/early July, the Department developed a new minimal staffing plan 
to advance the President's strategic objectives while minimizing the 
number of personnel working in a high threat, high-risk volatile 
environment. On November 5, the Department terminated ordered 
departure. The Department has consulted with Congress on this new 
minimal staffing plan and is preparing a formal Congressional 
notification.

    Question. While I recognize that you may not be able to share 
numbers in an unclassified format, please describe how many personnel 
are currently in country and where? When does the administration plan 
to be at full staffing levels in Iraq, given the lifting of the ordered 
departure? What percentage of pre-departure levels will they be?

    Answer. Mission Iraq terminated ordered departure on November 5. 
During ordered departure, the Department developed a new minimal 
staffing level. Consistent with the findings of the staffing review, 
the current plan is to reduce Mission Iraq staffing levels by 28 
percent below the pre-ordered departure staffing levels (inclusive of 
U.S. direct hires, personal service contractors, and third-country 
nationals, excluding certain personnel) by May 31, 2020. The Department 
has consulted with Congress on this plan and is preparing a formal 
Congressional notification.

    Question. What have been the impacts of reducing diplomatic 
presence in our diplomatic facilities, especially given the ongoing 
protests?

    Answer. The reduction of our diplomatic staff in Iraq has had 
minimal impact on the State Department's ability to address the 
protests. Ambassador Tueller leads a team of our best and most 
effective diplomatic professionals at our embassy in Baghdad and our 
consulate in Erbil. As the largest donor to humanitarian, 
stabilization, demining, and security assistance, our efforts are aimed 
at helping the government of Iraq improve its delivery of essential 
basic services, encouraging it to institute reforms demanded by the 
protesters, and urging the security forces to exercise maximum 
restraint and refrain from violence in dealing with protesters.

    Question. Please provide an unclassified description of the current 
threat level in Iraq and the decision making process that led to the 
lifting of the ordered departure.

    Answer. In May, in the face of credible threats from armed groups 
not under the control of the Iraqi government, the Department 
authorized an ordered departure and evacuated all non emergency 
personnel to reduce the potential threat against U.S. facilities and 
personnel. In early November, the Department lifted the ordered 
departure, implementing a staffing plan that leaves the minimal number 
of staff at our posts necessary to accomplish the U.S. government's 
mission. The Department continues to monitor the security situation and 
adjusts staffing levels as appropriate. The Department has consulted 
with Congress on the new minimal staffing levels and is preparing a 
formal Congressional notification.

    Question. Will you commit to keeping Congress informed about 
staffing and personnel plans?

    Answer. Yes, we are committed to keeping Congress appropriately 
informed.

    Question. Along with many of my colleagues, I continue to be 
concerned about the closure of our consulate in Basra. Outreach to 
Iraq's Shia heartland seems more important than ever given the ongoing 
protests there. Please describe the administration's plans for 
engagement with the southern governorates of Iraq closure of the U.S. 
Consulate in Basra.

    Answer. Ambassador Tueller and his team in Baghdad will continue to 
engage with a variety of contacts in southern Iraq to keep apprised of 
the situation there. We will continue to engage officials at the 
highest levels within the government of Iraq and urge them to address 
the protesters' demands throughout the country and not to use violence 
against peaceful protesters.

    Question. What effects has the U.S. withdrawal had on U.S. 
interlocutors among the local Iraqi populations in the south?

    Answer. Ambassador Tueller and his team in Baghdad have made use of 
an extensive network of relationships with contacts in southern Iraq--
built over many years--to work around the challenges posed by the 
reduction of our diplomatic presence in Basrah. This is how Embassy 
Baghdad has been able to monitor the protests in southern Iraq and 
events elsewhere in Iraq.

    Question. Although the State Department, including Secretary Pompeo 
have publicly supported the right of Iraqis to peacefully protest and 
urged the Iraqi security services to use restraint against protesters, 
I am concerned that the recent drawdown has handicapped our ability to 
respond to events on the ground. Please provide an unclassified 
assessment of the Embassy Baghdad's response to the recent protests 
during the drawdown period.

    Answer. Our staff has been able to monitor the protests throughout 
the country and has kept the Department fully informed through timely 
and insightful reporting, despite the reduction of our diplomatic 
presence in Iraq. Our efforts are aimed at helping the government of 
Iraq improve its delivery of essential basic services, encouraging it 
to institute reforms demanded by the protesters, and urging the 
security forces to exercise maximum restraint and refrain from violence 
in dealing with protesters. Ambassador Tueller has repeatedly delivered 
this message in recent weeks to the prime minister, president, speaker, 
minister of defense, and other Iraqi leaders. We have also said that we 
will hold accountable those responsible for abusing the human rights of 
Iraqis and stealing the country's wealth through rampant corruption. I 
understand that we plan to announce sanctions against such individuals 
in the coming days.

    Question. What is the plan for Embassy engagement in the protests 
going forward, now that the ordered departure has been lifted?

    Answer. We have conducted a full review of our minimal staffing 
needs and, now that ordered departure has been lifted, we have been 
able to return to full staffing as determined by the review. Our 
efforts are aimed at helping the government of Iraq improve its 
delivery of essential basic services, encouraging it to institute 
reforms demanded by the protesters, and urging the security forces to 
exercise maximum restraint and refrain from violence against the 
protesters.

    Question. How would that plan be different if staffing levels 
returned to pre-departure levels?

    Answer. The current full staffing level, as determined by the 
review, is lower than pre-ordered departure numbers, but it enables us 
to engage diplomatically with government of Iraq officials, opposition 
leaders, academics, civil society, and a host of others. Ambassador 
Tueller and his team are leveraging a vast network of Iraqi contacts, 
as well as coordinating closely with other country missions and the 
U.N. Assistance Mission for Iraq, to promote U.S. interests amidst the 
protests. Our staff has been able to monitor the protests throughout 
the country and has kept the Department fully informed through timely 
and insightful reporting based on this active engagement.

    Question. What further steps will the administration take, both 
through Embassy Baghdad and in Washington, to urge the Iraq government 
to address protester concerns and respond less violently?

    Answer. As Secretary Pompeo has said, the United States urges 
Iraq's leaders to protect human rights as Iraqis lift their voices to 
secure a flourishing democracy. We remain the largest humanitarian 
donor to Iraq, providing more than $2 billion in food, water, medicine, 
and shelter since 2014. And we are the largest donor as well to 
stabilization, rebuilding more than 500 schools, 100 health centers, 
and 50 water treatment plants, with many more projects coming soon.
    Our commitment continues. The United States will not hesitate to 
use its available legal authorities to sanction corrupt individuals who 
are stealing the public wealth of the Iraqi people and those killing 
and wounding peaceful protesters.

    Question. How do you think the United States can best secure our 
interests, including an independent and stable Iraq, whose government 
is responsive to the demands of its people?

    Answer. The United States remains committed to our bilateral 
relationship with Iraq, which is key to our national security 
priorities in the region, and continues daily diplomatic engagement to 
counter malign Iranian influence in Iraq. Iranian efforts to undermine 
the Iraqi government, propagate sectarianism, and increase Iraq's 
dependency on Iran have alienated many Iraqis, as has become clear 
during the current protests. In contrast, our public diplomacy outreach 
highlights the marked difference between positive, constructive 
American engagement and the exploitative and destructive malign 
influence of Iran in Iraq and the broader region. We will continue to 
work with the Iraqi security forces to ensure the ISIS caliphate does 
not re-emerge.

    Question. Until recently, the U.S. was consistent in its support 
for the internationally recognized government of National Accord as 
well as the U.N.-brokered political process. However, that record was 
muddied by President Trump's April 15 telephone call with General 
H[a]ftar, which appeared to embolden the General in his advance on 
Tripoli. Soon after that, the U.S. reportedly vetoed a U.K.-drafted 
U.N. Security Council Resolution calling for a ceasefire in Libya. What 
is the administration's current policy towards Libya?

    Answer. To my knowledge, the United States did not veto a U.N. 
Security Council Resolution on Libya. The United States is engaging all 
Libyan parties and their external backers to urge them to de-escalate, 
agree to a ceasefire, and return rapidly to dialogue and U.N.-
facilitated political mediation. The United States supported the U.N. 
Security Council's unanimous adoption of strong language supporting the 
arms embargo when it renewed the U.N. Support Mission in Libya's 
mandate in September (UNSCR 2486), and is participating in German-
hosted discussions as part of the three point plan U.N. Special 
Representative Salame outlined to the U.N. Security Council.

    Question. Is it still our position to back the internationally 
recognized government of National Accord?

    Answer. Yes, there has been no change to U.S. policy with regard to 
recognition of the Libyan government of National Accord (GNA). The 
United States is engaging all Libyan parties and their external backers 
to urge them to de-escalate, agree to a ceasefire, and return rapidly 
to dialogue and U.N.-facilitated political mediation.

    Question. Does the U.S. support a ceasefire and resumption of U.N.-
brokered talks in Libya?

    Answer. Yes. The United States continues to make clear this 
position, in public and private.

    Question. Recent media reports have warned that Russian 
paramilitary snipers deployed to Libya threaten to tip the balance of 
fighting in Tripoli in favor of General Haftar. What is your assessment 
of these reports?

    Answer. The United States supports Libya's sovereignty and 
territorial integrity in the face of Russia's attempts to exploit the 
conflict against the will of the Libyan people. I agree with the U.N.'s 
Special Representative of the Secretary-General, who said on November 
18, ``[T]here is growing involvement of mercenaries and fighters from 
foreign private military companies. The insertion of these experienced 
fighters has naturally led to an intensification in the violence.''

    Question. What is your assessment of Russia's role in Libya more 
broadly?

    Answer. The United States strongly condemns Russia's destabilizing 
interference in this conflict. Libyan civilians suffer the most when 
foreign mercenaries are brought in to fight, and the Libyan economy is 
weakened when billions of counterfeit Libyan dinars are secretly 
funneled to parallel, illegitimate Libyan authorities. Libya's future 
should be for Libyans to decide, and Libya's resources should be for 
the benefit of the Libyan people. This tenet is in danger.
    The United States has noted deep concerns about attempts by 
terrorist groups to exploit a security vacuum in Libya. By fueling the 
conflict, external actors create space for these terrorists to regroup.

    Question. How does Russia's influence with Haftar compare to other 
regional actors?

    Answer. General Haftar maintains relationships to varying degrees 
with a range of countries. The United States prioritizes engagement 
with foreign backers of the Libyan parties as an essential part of a 
diplomatic strategy to press for a ceasefire and a return to U.N.-
facilitated political mediation. The United States emphasizes to these 
countries that the conflict is endangering our shared interests, 
particularly by degrading counterterrorism cooperation, fostering 
instability in Libya's oil sector, and renewing migration pressures 
across the region.

    Question. I have serious concerns about the erosion of political 
and human rights in Egypt, the systematic choking off of avenues for 
legitimate dissent, press freedom and LGBTQ people and the threat this 
poses for Egyptian stability. I am especially concerned by Egypt's 
crackdown on the recent protests and this administration's minimal 
public engagement on this issue. These protests have been mostly 
peaceful, but still prompted a brutal response by Egyptian security 
services. At least 4,300 people have been detained and there are 
credible reports of protesters being tortured while in detention.

   What points of leverage can the U.S. use to push the Egyptian 
        government to improve its human rights record?

    Answer. I have serious concerns about human rights and governance 
in Egypt. The State Department will continue to raise these concerns at 
the senior-most levels of the Egyptian government and urge progress in 
addressing them. We are especially concerned by recent reports of 
arrests and mistreatment of activists and protesters and are following 
these cases closely. The Department will continue to stress to the 
Egyptian government how respect for human rights and universal freedoms 
are required for a robust civil society that helps ensure stability.

    Question. If confirmed, will you commit to publicly raising 
concerns regarding political and human rights in Egypt and to meet with 
Egyptian civil society actors?

    Answer. Yes. If confirmed, I commit to continue the State 
Department's engagement with Egypt on political and human rights 
concerns.

    Question. What further steps can the U.S. take to address the 
challenges facing the Coptic community in the context of broader human 
rights concerns in Egypt?

    Answer. I am aware, despite the positive steps Egyptian President 
Sisi has taken to protect Coptic Christians and promote their rights, 
that governmental and societal discrimination against Copts remains a 
problem. The administration continues to urge protection for religious 
minority groups, and Egypt participated in the Secretary's July 
ministerial on international religious freedom. We will continue to 
emphasize privately and publicly the importance of respect for the 
freedoms of expression, peaceful assembly, association, and religion to 
ensure the Egyptian government takes steps to end discrimination and to 
ensure the safety of all Egyptians, including Coptic Christians, and 
their places of worship.

    Question. As the United States provides significant military 
assistance to Egypt, I am concerned about their deepening relationship 
with Russia. I am specifically concerned about Egypt's reported 
purchase of 20 Russian Sukhoi SU-35s and the loan that Moscow has 
provided to construct the nuclear power plant at Dabaa.

 The per unit cost for a Su-35 is about $85 million, meaning this 
        deal for 20 SU-35 is worth about $1.7 billion dollars. Does the 
        administration consider a $1.7 billion sale of 20 fighter jets 
        to be a ``significant transaction'' for the purposes of CAATSA?

    Answer. The administration is deeply concerned about Egypt's 
reported purchase of Russian Sukhoi Su-35s. Prior to the Secretary of 
State's determination, I cannot prejudge whether a specific transaction 
will result in sanctions. The Secretary has made clear that he is 
committed to implementing CAATSA, and the administration has urged 
Egypt to forgo transactions with Russia that could trigger mandatory 
CAATSA section 231 sanctions. As the Secretary said to Congress last 
spring, the Department has told Egypt that, without a waiver, the law 
requires imposition of CAATSA sanctions on any person who knowingly 
engages in a significant transaction with the Russian defense or 
intelligence sectors.

    Question. What does it say about the U.S.-Egypt partnership that 
Egypt is pursuing these deals with Russia?

    Answer. Russia seeks greater influence in Egypt and across the 
Middle East and Egypt's political, economic, and military cooperation 
with Russia is longstanding. In recent years, Egypt has signed major 
arms deals with various suppliers other than the United States, 
including France, Germany, and Russia. While Russia-Egypt relations 
have improved during President Sisi's tenure, I do not believe these 
relations threaten the strong and longstanding U.S.-Egypt partnership. 
U.S. assistance to Egypt has long played an important role in Egypt's 
economic and military development, and Egypt continues to demonstrate 
that the United States is Egypt's preferred partner for arms sales and 
to address its most pressing challenges.

    Question. If confirmed, how will you engage with the Egyptian 
government to stress that these sorts of deals run against the spirit 
of that partnership and, in the case of the Sukhois, make it liable for 
sanctions under CAATSA?

    Answer. The administration has repeatedly warned Egypt against 
taking delivery of the Russian Sukhoi Su-35s because such an arms 
transaction risks triggering CAATSA sanctions. If confirmed, I will 
continue this warning to the highest levels of the Egyptian government 
and reiterate that CAATSA is not aimed at undermining our partners' 
defense or security capabilities; it is aimed at addressing Russia's 
malign behavior by imposing costs and depriving it of the revenue, 
access, and influence derived from defense and intelligence 
transactions. I also will stress the central role U.S. military 
cooperation and assistance has played in Egypt's military development, 
maritime and border security, and counterterrorism efforts as well as 
in regional security.

    Question. Gulf States like Saudi Arabia and the UAE have grown 
increasingly involved in the Red Sea basin, building bases and ports 
along the Red Sea corridor and the Horn of Africa and engaging 
neighboring countries in a ``Red Sea forum.'' Please describe U.S. 
national security interests in the Red Sea Corridor.

    Answer. U.S. interests in the Red Sea region are anchored in 
maritime security, including freedom of navigation through the Suez 
Canal and the Bab al-Mandeb Strait. These sea lanes carry significant 
volumes of international seaborne trade and oil shipments and are 
strategic corridors for the Navy in support of operations in the Gulf 
and the Indo-Pacific theater. The United States also seeks to limit 
Iranian malign regional influence, counter piracy and terrorism, and 
limit Chinese and Russian malign influence in the region. We work 
closely with partners on both sides of the Red Sea to encourage 
cooperative efforts to promote regional stability. We also have an 
interest in maintaining access to Camp Lemonnier and associated posture 
locations in Djibouti.

    Question. Has the U.S. been invited to participate in a ``Red Sea 
forum''? If so, what has been the response?

    Answer. The United States has not been invited to participate in a 
``Red Sea forum'' by any governments or international organizations in 
the region. The State Department has participated in informal dialogues 
and forums organized by the United States Institute of Peace (USIP) and 
National Defense University's Near East--South Asia (NESA) Center and 
Africa Center for Strategic Studies (ACSS). The Department has worked 
with these entities to ensure that the results of these discussions can 
inform policy deliberations toward the Red Sea region.

    Question. What role do you think the U.S. should play in such a 
``Red Sea forum''?

    Answer. Any role for the United States in a ``Red Sea forum'' 
should ensure that it functions as an inclusive mechanism to promote 
regional security and stability in a way that advances our interests in 
the region and limits the ability of Russia and China to expand their 
regional influence. We encourage dialogue and cooperation among Middle 
Eastern and African states and welcome constructive, coordinated 
engagement by Gulf states in the Horn of Africa. We will continue to 
work with Gulf states to support the transition to a civilian 
government in Sudan and promote efforts in Somalia to enable the AU 
Mission in Somalia transition plan.

    Question. I am troubled by the minor role that the State Department 
is playing in facilitating discussions and/or negotiations between 
Egypt and Ethiopia over construction of the Grand Ethiopian Renaissance 
Dam (GERD). Please explain how the Treasury Department has come to lead 
this engagement, when the issues involved and technical expertise are 
clearly within the purview of and located at the State Department.

    Answer. The Department of State has been deeply involved in the 
planning for the GERD meeting hosted by Secretary of the Treasury 
Mnuchin. The Department will continue to be directly engaged, as long 
as the three governments of Egypt, Ethiopia, and Sudan believe our 
involvement is useful and appropriate.

    Question. Please describe the intended role of the Treasury 
Department, including the commitment to providing a neutral 
environment; and mitigating circumstances should these talks fail/fall 
apart.

    Answer. I defer to the Department of the Treasury regarding their 
role.

    Question. Please describe the role that the State Department has 
played in these talks, and the role that the State Department is 
expected to play going forward.

    Answer. I understand that the Department has been engaging at 
various levels to move these countries toward a mutually acceptable, 
sustainable resolution while ensuring parity in our engagements between 
the countries. The Department has participated as an observer in the 
most recent Treasury-organized GERD talks and will continue to serve as 
an observer throughout these talks. The Department continues to provide 
background information and policy recommendations to the Department of 
the Treasury. The Department of State will continue to engage as long 
as the three countries find our involvement useful and appropriate.

    Question. I am concerned by Under Secretary of State for Political 
Affairs David Hale's testimony on November 20 that the Office of 
Management and Budget (OMB) has not removed its hold on $105 million in 
FMF for Lebanon. However, as shown by Secretary Pompeo's release of 
Ukraine FMF over the objections of OMB, the State Department can 
release funds in spite of OMB objections. While there are concerns 
about Hezbollah's role in the LAF, I understand that the interagency, 
with the exception of OMB is in consensus that FMF to support the 
Lebanese Armed Forces (LAF) serves U.S. national security interests.

   Please confirm that OMB is opposed to releasing these funds and 
        that neither the State Department nor other members of the 
        interagency are opposed.

    Answer. The Secretary remains committed to the Lebanese Armed 
Forces (LAF) and views that support as a key element of our Lebanon 
strategy. The U.S. government's assistance helps to ensure a LAF free 
of Hizballah's influence and one able to secure Lebanon's borders, 
defend its sovereignty, and preserve its stability.

    Question. What reasons have been given for the hold?

    Answer. The budget process involves a continual review of all 
assistance programs to ensure we are meeting U.S. foreign policy 
objectives and optimizing value for the American taxpayer.

    Question. If the State Department is not bound by OMB objections to 
the release of funds, as shown with Ukraine's FMF, why has the State 
Department not released the funds and when can we expect them to be 
released?

    Answer. Strengthening the capacity of the Lebanese Armed Forces is 
critical to securing Lebanon's borders, defending its sovereignty, and 
preserving its stability.

    Question. Have there been any disruptions to either the delivery of 
weapons systems or current or potential sales to the LAF? If not, at 
what point do you anticipate any disruptions and what would those 
disruptions be?

    Answer. To date, no Lebanese expenditures or purchases of military 
materiel have been delayed.

    Question. Turkey's taking delivery of Russian S-400s clearly counts 
as a significant transaction that merits sanctions under CAATSA Section 
231. However, no sanctions have been placed. With countries like Egypt 
and Serbia also considering purchasing Russian military equipment, this 
failure to follow the CAATSA law undermines our diplomats' ability to 
dissuade them from these purchases. Why has State not yet made a 
determination on whether the Turkish government's acceptance of S-400s 
constitutes a significant transaction?

    Answer. I cannot prejudge a sanctions decision prior to a 
determination by the Secretary of State, nor can I preview a timeline 
for a CAATSA decision. The Secretary has made clear he is committed to 
implementing CAATSA and that he will comply with the law.
    The administration is not waiting for the outcome of CAATSA 
deliberations to take strong action. The decision to unwind Turkey from 
the F-35 program makes clear how seriously we take this issue. As 
President Trump told President Erdogan during his recent visit, 
resolving the S-400 issue is vital to achieving progress on other 
elements of the bilateral relationship.

    Question. When will this determination be made?

    Answer. I cannot preview a timeline for a sanctions determination 
by the Secretary of State. The Secretary has made clear he is committed 
to implementing CAATSA and that he will comply with the law. Any 
decision to impose sanctions requires a thorough, complex deliberative 
process conducted on a case-by-case basis to ensure that the law is 
followed and that possible consequences of various courses of action 
are assessed. We intend to get this right rather than rushing a 
decision.

    Question. Have other parts of government, including the White 
House, attempted to influence State's determination?

    Answer. Any decision to impose sanctions requires a thorough, 
complex deliberative process conducted on a case-by-case basis to 
ensure that the law is followed and that possible consequences of 
various courses of action are assessed. The current sanctions 
deliberations have involved robust interagency discussions.

    Question. If confirmed, how will you engage with the governments of 
India, Egypt, Serbia, and other countries considering significant 
military transactions with Russia to convince them not to do so?

    Answer. If confirmed, I will continue the Department's vigorous 
global implementation of CAATSA Section 231. The Department always 
emphasizes that the law is not aimed at undermining our partners' 
defense or security capabilities, but rather at addressing Russia's 
malign behavior by imposing costs and depriving it of the revenue, 
access, and influence it derives from defense and intelligence 
transactions. If the Department identifies a transaction of potential 
concern before it occurs, it seeks to engage partner states as far in 
advance as possible to help ensure they do not engage in sanctionable 
activity. As a result of our CAATSA section 231 implementation efforts, 
U.S. allies and partners have taken action to forego many billions of 
dollars in arms purchases from Russia.

    Question. How are our European partners responding to Iran's 
nuclear developments? What steps are you taking to ensure international 
coordination on efforts to constrain Iran's nuclear ambitions?

    Answer. The UK, France, and Germany have all expressed concern with 
Iran's recent decisions to advance its nuclear program through 
increased uranium enrichment and research efforts in advanced 
centrifuge design. Cooperation with European allies and partners to 
address the range of threats posed by Iran remains robust and we are in 
regular communication with our allies and partners regarding our Iran 
policy and how to increase pressure on Iran for its nuclear 
escalations. I understand that the U.S. welcomed the E3's September 23 
statement urging Iran to reverse its nuclear developments and accept 
negotiations on a framework for its nuclear and missile programs.

    Question. How do you believe China and Russia will interact with 
Iran once restrictions against arms imports set in the JCPOA begin to 
fall away?

    Answer. If confirmed, I will defer to the intelligence community 
for an assessment of Chinese and Russian intentions of transacting arms 
deals with Iran upon the expiration of the U.N. arms embargo. However, 
continuing the U.N. arms embargo on Iran beyond the current expiration 
of October 2020 is a priority for this administration. We do not 
assess, based on Iran's malign activity and its role in supporting 
militias across the region, that conventional arms restrictions on Iran 
should be removed. If confirmed, I will ensure that the Department 
continues to work with our partners on the UNSC to build support for an 
extension of the arms embargo. In addition, we will utilize other tools 
available to us in our efforts to both block Iran from acquiring the 
weapons currently restricted under the existing U.N. arms embargo, as 
well as to prevent the supply, sale, or transfer of arms and related 
material from Iran.

    Question. As I, along with the Chair of the Senate Foreign 
Relations Committee and the Chair and Ranking Member of the Senate 
Armed Services Committee, wrote in an op-ed, Turkey's taking delivery 
of Russian S-400s clearly counts as a significant transaction that 
merits sanctions under CAATSA Section 231. However, no sanctions have 
been placed.

  Why has State not yet made a determination on whether the Turkish 
        government's acceptance of S-400s constitutes a significant 
        transaction?

    Answer. I cannot pre-judge a sanctions decision prior to a 
determination by the Secretary of State, nor can I preview a timeline 
for a CAATSA decision. We intend to get this right rather than rush a 
decision. The Secretary has made clear he is committed to implementing 
CAATSA and that he will comply with the law.
    The administration is not waiting for the outcome of CAATSA 
deliberations to take strong action. The decision to unwind Turkey from 
the F-35 program makes clear how seriously we take this issue. As 
President Trump told President Erdogan during his recent visit, 
resolving the S-400 issue is vital to achieving progress on other 
elements of the bilateral relationship.

    Question. When will this determination be made?

    Answer. I cannot preview a timeline for a sanctions determination 
by the Secretary of State. The Secretary has made clear he is committed 
to implementing CAATSA and that he will comply with the law. Any 
decision to impose sanctions requires a thorough, complex deliberative 
process conducted on a case-by-case basis to ensure that the law is 
followed and that possible consequences of various courses of action 
are assessed. We intend to get this right rather than rushing a 
decision. I further note that the announcement in September 2018 of our 
previous decision to impose sanctions on a Chinese entity under CAATSA 
took place months after the delivery to China of Su-35 fighter jets and 
S-400 equipment.

    Question. Have other parts of government, including the White 
House, attempted to influence State's determination?

    Answer. Any decision to impose sanctions requires a thorough, 
complex deliberative process conducted on a case-by-case basis to 
ensure that the law is followed and that possible consequences of 
various courses of action are assessed. The current sanctions 
deliberations have involved robust interagency discussions.

    Question. Ahead of the Erdogan-Putin talks in Sochi, what 
discussions did the United States have with the Turkish government 
regarding the planned content of those talks? How does the State 
Department assess the compatibility of that agreement with U.S. 
interests?

    Answer. U.S. objectives in Syria remain the enduring defeat of ISIS 
and al-Qa'ida, a political solution to the Syrian conflict in line with 
U.N. Security Council Resolution 2254, and the removal of all Iranian-
backed forces from Syria. We shared these objectives with Turkey. We 
remain skeptical about Russia's commitment to upholding its 
responsibilities as outlined in the October 22 Russia-Turkey 
arrangement for northeast Syria. The October 17 U.S.-Turkey joint 
statement has saved lives and limited violence. No subsequent 
arrangements made with other countries replace or modify Turkey's 
commitments under its arrangement with the United States. We remain 
ready to re impose sanctions should Turkey fail to uphold commitments 
outlined in the Joint Statement.

    Question. I am deeply concerned by Turkey's decision to drill 
exploratory wells in the Republic of Cyprus's Exclusive Economic Zone 
(EEZ). I appreciate that the State Department has urged Turkey to halt 
its drilling, but that does not seem to have impacted Turkey's actions. 
Has State Department communicated directly with the Turkish government 
on this issue, and at what level is that communication happening? What 
consequences has the State Department told Ankara could occur if it 
does not stop its illegal drilling?

    Answer. Turkey's drilling operations escalate tensions in the 
Eastern Mediterranean and erode trust in the region. Secretary Pompeo 
and other senior officials expressed concern publicly and privately 
about Turkey's exploration and drilling activities and made clear we 
consider Turkey's actions damaging and provocative. We clearly stated 
to Turkey and to others in the region longstanding U.S. policy on the 
right of the Republic of Cyprus to develop natural resources and that 
the resources of Cyprus and its EEZ should be shared equitably among 
the communities.

    Question. The European Union has imposed aid cuts and suspended 
high-level talks with Ankara due to its illegal drilling in Cyprus's 
EEZ, and has threatened harsher sanctions in the future. What 
discussions has the State Department had with the EU regarding its 
planned and future response to Turkey's illegal drilling? The U.S. has 
taken no action to date in response to Turkey's activities in the EEZ. 
What measures are being considered?

    Answer. We regularly raise with EU partners longstanding U.S. 
policy on the right of the Republic of Cyprus to develop resources in 
its EEZ. We continue to support the development of an equitable 
solution for sharing the benefits of Cyprus' hydrocarbon resources 
between the two communities. We have warned publicly and privately that 
Turkey's drilling and exploration operations are provocative and raise 
tensions. The Department, on August 19, issued a statement terming 
Turkish drilling activities within the territorial sea of Cyprus 
``unlawful.'' We urge all states to settle maritime disputes peacefully 
and in accordance with international law and to make every effort to 
avoid jeopardizing the reaching of a final maritime agreement.

    Question. 1.5 million Armenians perished during the Ottoman 
Empire's systematic campaign to eliminate the Armenian population. 
Attempts to deny that this campaign happened, or to pretend it was 
anything other than a genocide not only deny a clear truth, but also 
make it impossible to learn from this horrific part of history and 
prevent it from ever happening again. Other than Turkey's objections, 
what factors have prevented the U.S. government from recognizing the 
reality of the Armenian Genocide?

    Answer. The U.S. government acknowledges and mourns the 1.5 million 
Armenians who were deported, massacred, and marched to their deaths at 
the end of the Ottoman Empire. Each year, on April 24, the U.S. 
government commemorates the Meds Yeghern, one of the worst mass 
atrocities of the 20th century. We welcome efforts of Armenians and 
Turks to acknowledge and reckon with their painful history.

    Question. Recently, a number of humanitarian organizations have 
highlighted the impact of U.S. counter-terrorism and sanctions policies 
as inhibiting humanitarian action in conflict settings.

  What do you see as the major obstacles facing humanitarian actors 
        in reaching populations in need in conflict affected 
        environments?

    Answer. The greatest obstacles preventing humanitarian actors from 
reaching populations in conflicts are the myriad security challenges 
posed by both state and non-state armed groups, as well as unduly 
delayed or denied permission for humanitarian personnel and/or goods, 
restricted access to populations, and limitations on life-saving 
activities. If confirmed, I will encourage the U.S. government's 
support for humanitarian organizations in insecure areas while 
maintaining accountability for U.S. taxpayer funds and respecting 
applicable domestic and international law. For example, the Treasury 
Department may, in appropriate circumstances, issue licenses to 
authorize the provision of assistance that may otherwise implicate U.S. 
sanctions authorities.

    Question. What do you see as the State Department's responsibility 
with respect to partner forces who are impeding humanitarian assistance 
abroad?

    Answer. If confirmed, I will support the U.S. government's long-
standing policy to promote compliance with the law of armed conflict by 
the foreign militaries we train and to promote access to humanitarian 
assistance that is not unduly impeded. The State Department closely 
monitors reports of undue impediments to rapid humanitarian response 
and raises verified reports with the relevant government. It is also 
important to emphasize adherence to the law of armed conflict and 
taking all feasible measures to protect civilians, including 
humanitarian personnel, and civilian objects.

    Question. How will you work with DoD and allied government to 
ensure partner forces in Yemen (and Nigeria and elsewhere) are meeting 
their obligations under International Humanitarian Law to facilitate 
safe passage civilian populations and for humanitarian assistance?

    Answer. If confirmed, I will ensure the Department continues to 
work closely with DoD to promote compliance with the law of armed 
conflict by the foreign militaries we train and encourage best 
practices for the protection of civilians. This includes taking reports 
of civilian casualties and impediments to humanitarian response 
seriously and intervening with partner governments and military 
leadership to adjust training, operations, and accountability 
mechanisms as necessary. I support emphasizing to both civilian and 
military leadership the importance of adherence to the law of armed 
conflict and taking all feasible measures to protect civilians, 
including humanitarian personnel, and civilian objects.

    Question. How will you work with humanitarian agencies to ensure 
they `don't get in their own way', when it comes to their 
responsibilities and opportunities to provide lifesaving assistance to 
populations in need?

    Answer. If confirmed, I will continue the Department practice to 
encourage our international and non-governmental partners to provide 
humanitarian assistance based on their mandates, technical capacities, 
geographic reach, and comparative advantage under international 
humanitarian coordination mechanisms such as U.N. Humanitarian Response 
Plans, which provide a comprehensive assessment of humanitarian needs 
at the regional or country level and present coordinated and 
prioritized response plans. By providing the most accurate assessment 
of needs and how best to meet them, these plans mobilize resources 
focused on the people, sectors, and areas that need them the most and 
promote coordinated and effective humanitarian response.

    Question. All international staff of humanitarian NGOs have 
evacuated from northeast Syria, but local Syrian staff remain--many 
work for U.S. implementing partners and continue to deliver programming 
and work to meet humanitarian need. Many have already been displaced 
multiple times and most have few options to relocate to seek safety for 
themselves and their families. They find themselves in increasing 
danger--from Turkish advances from the north and from advancing 
government of Syria troops from the south--including threats of 
conscription, detention, or worse.

 What steps is the administration taking to ensure the safety and 
        security of local humanitarian workers in Syria?

    Answer. The United States is committed to supporting the safety and 
security of humanitarian aid workers inside Syria. The U.S. government 
funds partner organization duty of care policies in Syria to assess 
risks to staff and provide funding to support staff members who need to 
depart quickly or lose their jobs. As the situation in northeast Syria 
continues to unfold, the Department will remain flexible with our 
partners and with our funding, and it will use the full range of 
diplomatic tools available to advocate for the safety of our partners 
and humanitarian workers in Syria.

    Question. If you were to become Acting Secretary of State, would 
you utilize the emergency authorities of the Arms Export Control Act to 
bypass Congress to export arms without prior timely consultation with 
this committee?

    Answer. If confirmed, I will fully comply with the provisions of 
the Arms Export Control Act and only consider exercising this option in 
the event of an emergency. The Department respects Congress' oversight 
role in the arms transfer process and commits to continued consultation 
with the Senate Foreign Relations Committee and House Foreign Affairs 
Committee.

    Question. Do you believe that the May 24th emergency declaration 
for 22 arms sales to Saudi Arabia and the UAE was necessary to deter 
Iran from attacking either country, as was claimed by the Secretary of 
State at the time? If so, was it successful?

    Answer. I was not involved in these matters as Special 
Representative for North Korea but believe that accelerating the 
delivery of defense equipment to our partners, in particular that 
related to air and missile defense, was both vital to reassuring to our 
partners of our support in the face of increasing Iranian malign 
activities and an important step to improve their readiness while 
deterring Iran.

    Question. Do you agree that continuing arms sales to countries that 
use them in human rights abuses, including violations of the law of 
armed conflict, can do more harm to the national security of that 
country, and to U.S. national security, foreign policy, and 
reputational interests, than discontinuing or conditioning those sales?

    Answer. The United States considers all such issues consistent with 
applicable law and policy, including the Conventional Arms Transfer 
Policy. Our goals with arms sales include promoting the national 
security and foreign policy interests of the United States.

    Question. Congress amended the Arms Export Control Act in 2002 to 
give Congress more oversight over the export of firearms to foreign 
countries, and to enact joint resolutions of disapproval on firearms 
sales that were unwise or dangerous. As part of this oversight process, 
for example, sales of firearms proposed by State to President Erdogan's 
thuggish bodyguards--after they had beaten peaceful protestors in 
Washington--were halted.

  Why does the State Department now seek to take away that oversight 
        role from Congress by moving these firearms to the Commerce 
        Department?

    Answer. The Department is focused on maintaining a U.S. Munitions 
List (USML) that controls those items that provide the United States 
with a military or intelligence advantage. This supports a competitive 
defense industrial base while ensuring that the Department's resources 
are focused on the export of technologies that pose a threat to 
America's military edge. This effort removed a significant number of 
items from the USML and transferred them to the export jurisdiction of 
the Department of Commerce. Further to your concerns, under the final 
rule notified to Congress earlier this month, semiautomatic firearms 
will continue to require export licenses and remain subject to foreign 
policy review, including for human rights concerns.

    Question. As part of that proposed transfer of export of firearms 
to Commerce, the technical information to 3D print nearly-undetectable 
guns will also go to Commerce, which has informed committee staff on 
multiple occasions that it cannot effectively control the Internet 
posting of such information by its own export regulations, unlike on 
State U.S. Munitions List, which controls that information now.

  Do you believe that it is a good idea to allow the global Internet 
        dissemination of 3D printing gun blueprints? Would that make 
        foreign air travel safer or less safe for Americans? Would that 
        make U.S. embassies and consulates abroad safer or less safe?

    Answer. The Department of Commerce drafted rules, which were 
provided to Congress, that would control the technology to manufacture 
3D firearms under its export control system. Commerce maintains a 
fulsome compliance and enforcement system to support the export 
controls it administers. Further, I understand the Department of State 
utilizes a multilayered approach to respond to emerging threats in 
order to protect our facilities and employees, providing a secure 
environment for the conduct of U.S. diplomacy. I understand the 
Department will continue to review new technologies to develop 
effective mitigation strategies.

    Question. Earlier this year, I sent a letter to the Secretary of 
State asking about several reports of American citizens providing 
defense services abroad under suspicious circumstances, including Erik 
Prince providing training to Chinese security services; an American 
acting as a military officer for the UAE; and more nefarious services 
in Yemen. I asked if these persons had State licenses under the 
International Trafficking in Arms Regulations, and if not, were there 
any investigations into these reported activities. The response from 
the Assistant Secretary of Legislative Affairs told me, in effect, to 
mind my own business; the information was, quote, ``non-public'' and 
``potentially proprietary'', and State would inform Congress if there 
were any results of any investigations.

  Do you agree that it is none of Congress's oversight business to 
        ensure that the laws of the United States are being faithfully 
        implemented by the Department of State? If you do not agree, 
        how do you propose we verify that State is doing its job?

    Answer. As a matter of policy and practice, the Department does not 
confirm or deny the existence of investigations into possible 
violations of the International Traffic in Arms Regulations (ITAR) 
arising from direct commercial sales transactions. I would note, 
however, we do routinely brief Congress on administrative settlements 
resolving such investigations upon their conclusion, and I certainly 
commit to continuing this established practice if confirmed.

    Question. China's rise presents something new and different, and 
outside our experience of the past 240 years.a nation with an economy 
equal or greater than our own, and a competitor across every dimension 
of power. I agree with President Trump that China is a serious threat 
to the United States. And while I would welcome the emergence of a 
China that follows established international economic rules, and 
supports international institutions, laws, and norms..I am very 
concerned that that does not appear to be the China that we are seeing. 
But more immediately troubling, for all the tough talk out of the Trump 
administration on China, I simply do not see the evidence that your 
administration's approach to China is working to change China's 
behavior. Merely being more confrontational with China does not make us 
more competitive with China.

  China's aggressive maritime activities in the South China Sea, 
        including recent incursions into Vietnamese, Filipino and 
        Malaysian waters, and on-going building of infrastructure that 
        could easily be turned to military use continues unchecked.
  China has yet to make any significant concessions on any of the 
        deep structural issues that lie at the heart of our trade and 
        economic imbalance. Instead, China is going toe-to-toe with us 
        in a ``good'' in an ``easy to win'' trade war and our economy 
        is suffering.
  China's ``belt and road'' continues to expand and make in-roads 
        around the world.
  China continues to provide support for North Korea even as North 
        Korea continues to move forward with its missile and nuclear 
        programs unconstrained.and with the United States no longer 
        conducting necessary military exercises to assure readiness on 
        the Peninsula.
  China's digital authoritarianism continues apace, with ever-greater 
        repression at home and soup-to-nuts systems fully installed for 
        dictators and despots around the globe.
  China's great leap backwards on human rights and governance is 
        gathering momentum, with the administration conspicuously 
        silent as the people of Xinjiang and Tibet suffer, and Chinese 
        civil society space is crushed.
  Beijing continues to squeeze Taipei, including the loss of several 
        of Taiwan's diplomatic allies on Trump's watch. Can you point 
        me to any significant area of success where the Trump 
        administration has successfully engineered a change in Chinese 
        policy or behavior on security, trade, human rights, diplomatic 
        or other issues?

    Answer. This administration is committed to countering the People's 
Republic of China's counterproductive behavior, while defending 
American interests and values. The administration succeeded in securing 
China's commitment to schedule fentanyl as a controlled substance, and 
in November, China carried out its first fentanyl-related prosecution. 
We obtained Chinese support for unprecedented DPRK-related U.N. 
Security Council Resolutions, which brought Pyongyang to the 
negotiating table. We have taken concrete actions to respond to the 
repression in Xinjiang and are strengthening partner capacity to resist 
Beijing's interference in their maritime activities. We support Taiwan 
as it resists efforts to constrain its appropriate participation on the 
world stage.

    Question. If you can't point to any evidence that the current 
policy is working, what alternative or new ideas do you plan to propose 
to get China right if you are confirmed as Deputy Secretary of State?

    Answer. If confirmed, I will continue to vigorously implement the 
administration's policy of strategic competition with the People's 
Republic of China (PRC), as outlined in the President's 2017 National 
Security Strategy. Through this policy, we are holding the PRC 
accountable for its counterproductive behavior, defending American 
interests and values, and bolstering our partners' ability to resist 
the PRC's coercive actions. I will work to build on the concrete 
progress we have already achieved towards these goals, including with 
respect to counternarcotics, the DPRK, the South China Sea, Taiwan, 
human rights, and other priority issues.

    Question.  Chinese companies such as Huawei and ZTE are global 
competitors in the electronics and telecommunications industries. As 
part of their expanding efforts, these companies are investing in 
emerging markets and building out 5G infrastructure globally. While 5G 
alternatives to Huawei are available, such as Ericsson or Samsung, the 
United States itself does not have an integrated 5G alternative. One 
key concern surrounding cyber and U.S. national security is its impact 
on nuclear weapons. As we modernize our nuclear systems, they 
additionally become increasingly linked with the cyber domain, 
potentially opening our deterrent capabilities to new vulnerabilities.

   How will the proliferation of these Chinese-enabled 5G technologies 
        impact U.S. and allied security interests? What is the U.S. 
        doing to combat China's growing influence in the 
        telecommunications field?

    Answer. I take the national security issues associated with 5G 
technology very seriously and, if confirmed, will continue to make this 
a high priority for the Department. The United States is advocating 
with our allies and partners for telecommunications networks that are 
secure and free from suppliers that are subject to foreign government 
control or undue influence, which poses risks of unauthorized access 
and malicious cyber activity.

    Question. Does the administration have a plan to aid U.S. 
development of 5G? How can the United States be a main player on 5G 
when we are not at the forefront of the infrastructure itself?

    Answer. If confirmed, I will support the Department's continued 
international engagement with partners and allies on the risks of 
untrusted vendors in 5G networks. I will continue to emphasize that 
there are trusted end-to-end network alternatives to Chinese companies 
Huawei and ZTE, namely Ericsson, Nokia, and Samsung. While these 
companies are not American, they are headquartered in democratic 
countries with the rule of law and contain a significant amount of 
U.S.-origin equipment in their supply chains.

    Question. What is Huawei's role in the mass incarceration and re-
education of Uyghurs and other ethnic minorities in Xinjiang province? 
How is the U.S. holding China, and Huawei, accountable, for the human 
rights abuses occurring in Xinjiang?

    Answer. I am alarmed by the People's Republic of China (PRC)'s 
campaign of repression against Uighurs and other members of Muslim 
minority groups in Xinjiang, which includes mass arbitrary detentions 
in camps and pervasive, high-tech surveillance. The PRC, with the 
active support of multiple companies, uses technologies to undermine 
fundamental freedoms by gathering and exploiting data in Xinjiang and 
beyond. The administration is taking concrete action. I understand that 
the State Department announced in October visa restrictions on Chinese 
government and Communist Party officials believed to be responsible 
for, or complicit in, the detention or abuse of Uighurs, Kazakhs, or 
other members of Muslim minority groups in Xinjiang. I understand that 
the Commerce Department added 28 Chinese governmental and commercial 
organizations to the Department of Commerce Entity List in light of 
their connection to Xinjiang abuses. If confirmed, I will work with the 
interagency to use all tools available to discourage those responsible 
from committing these human rights abuses.

    Question. What is your interpretation of the authorities the 
administration retains in regards to use of force in the cyber domain? 
What constitutes an attack in the cyber domain? How does the 
administration define so-called ``grey area'' activities within the 
context of use of force authorities? Are there mechanisms for 
attribution for such an attack?

    Answer. The United States may exercise its inherent right of self-
defense in response to cyber activities that amount to an armed attack 
or imminent threat thereof. In determining whether a cyber operation 
would constitute a use of force, we would consider whether the direct 
physical injury and property damage resulting from the cyber event look 
like that which would be considered a use of force if produced by 
kinetic weapons. Decisions to attribute malicious cyber activity are 
made on a case-by-case basis, using a combination of technical and non-
technical means and with input from the entire government. The United 
States has been exploring mechanisms to promote coordinated joint 
attributions of malicious cyber activity with our international 
partners.

    Question. What are the administration's efforts at curbing attacks 
through the digital domain on the United States and our partners? Is 
the administration considering engaging in arms control conversations 
with other countries on standards and norms of conduct in the cyber 
domain?

    Answer. We work on a whole-of-government basis to counter, contest, 
respond to, and deter cyber threats to the United States and its 
partners. This includes international efforts to share information, 
build capacity, and defend forward. The Department is building 
cooperation among likeminded countries to hold states accountable when 
they act contrary to the consensus framework for responsible state 
behavior in cyberspace, one we have championed for more than a decade. 
A focus on norms of behavior, coupled with efforts to expose and 
contest behavior inconsistent with these norms, will be more effective 
than arms control (i.e., bans on development or use of capabilities) at 
reducing the risk of conflict stemming from a cyber incident.

    Question. What is the U.S. doing to ensure our deterrent capability 
is not deleteriously affected by cyber intrusions? Does the U.S. need 
to rethink our nuclear command and control structure as we face a new 
digital atmosphere and rising great power competition geopolitically?

    Answer. Securing our military and sensitive industrial networks 
against cyber intrusions is an urgent requirement that both government 
and the private sector must take seriously. As far as this relates to 
our nuclear command and control structure, I would refer you to the 
Department of Defense.

    Question. You may or may not be aware that every year for the past 
three years under this administration we have faced a real crunch when 
it comes to the congressional notification process at the end of the 
fiscal year. This creates risk for the sustainability and 
implementation of many of our foreign assistance programs and 
diplomatic efforts. We have been voicing our concerns on this ever 
year, with ever-greater urgency. Finally, this past year--just a few 
months ago--the Department's mishandling of the process--aided and 
abetted by OMB-- created a car crash in which tens of millions of 
dollars appear to have been effectively lost. We actually don't know 
the full extent of the damage yet because the Department itself doesn't 
seem to fully know or understand what transpired--which is not a great 
indicator of capable or competent management, no matter how much 
swagger it has. I would like your commitment, if confirmed, that you 
will pay personal attention to this matter and make sure that at the 
end of this upcoming fiscal year we are not yet again subject to a 
frantic and hysterical last-minute process that undermines the proper 
functioning of the Department of State.

    Answer. If confirmed, I will be personally involved in the budget 
process to ensure the Department is effectively leveraging its 
resources to meet the foreign policy objectives of the United States. I 
will work with the relevant bureaus to obligate funds appropriated by 
Congress consistent with the Department's operating plans, 
Congressional notifications, and applicable laws.

    Question. You may be aware that earlier this year both the Chairman 
and I sent a letter to the Secretary expressing our concern that the 
administration was considering a rescissions package that would have 
unconstitutionally prevented congressionally-appropriated funds from 
being spent. If Congress passes an appropriation, and it is signed into 
law, will you commit to carry out the congressional mandate and intent, 
through the funds that we appropriate, and for the purpose in which 
Congress has appropriated those funds?

    Answer. If confirmed, I commit to working with the relevant bureaus 
to obligate funds appropriated by Congress consistent with applicable 
laws.

    Question. Regardless of the mechanism that the executive branch 
chooses, if the President wants to rescind or cancel funds that 
Congress has previously appropriated and the President has signed into 
law, Congress still must agree to cancel out or rescind those funds. As 
a longtime budget staffer, is it your understanding that if Congress 
does not agree or act in some way to rescind or cancel funds, the 
executive branch agency must spend the appropriated funds for their 
original purpose?

    Answer. If Congress does not act on a rescission proposal by the 
administration within the statutory period, the Department and USAID 
would take appropriate measures to obligate funds appropriated by 
Congress consistent with applicable laws.

    Question. Should the President choose to try and rescind or cancel 
funds that Congress has previously appropriated and which have been 
enacted into law, do you commit to communicate any such request to this 
committee and providing a briefing regarding the rationale for such a 
request?

    Answer. If confirmed, I will communicate with the committee 
regarding formal administration proposals to rescind or cancel funding.

    Question. I am deeply concerned about the efforts by the Trump 
administration over the past three years to slash upwards of 30 percent 
from the Function 150 budget. If it were not for congressional 
pushback, these cuts would have gravely undermined the ability of the 
United States to pursue an effective national security strategy. What 
are your views on the importance of robust diplomacy and soft power 
tools to lead U.S national security policy and strategy, supported by 
our hard power?

    Answer. The administration is committed to restraining overall non-
defense discretionary spending, including for the State Department and 
USAID. The Department remains committed to ensuring the effective use 
of U.S. taxpayer dollars, driving efficiencies, and working on behalf 
of the American people to advance national security objectives and 
foreign policy goals. If confirmed, I look forward to continuing 
discussions with Congress on funding for our diplomacy and foreign 
assistance programs.

    Question. What are the implications for our ability to be able to 
continue to provide global leadership if the administration's budget 
proposals are fully enacted?

    Answer. The Department's FY 2020 budget request factors in the 
administration's commitment to restraining overall non-defense 
discretionary spending, including international affairs programs 
resources. Therefore, the FY 2020 request is a reflection of U.S. 
national priorities while remaining within an overall budget topline. 
The request upholds U.S. commitments to key partners and allies through 
strategic, selective investments that enable America to retain its 
position as a global leader, while relying on other nations to make 
greater contributions toward shared objectives, including advancing 
democracy worldwide.

    Question. What steps will you take, if confirmed, to assure that 
the Function 150 budget is fully resourced?

    Answer. If confirmed, I look forward to working across the 
interagency and with each bureau across the Department to ensure 
alignment of available resources with strategic priorities and to 
address potential gaps in foreign assistance programs. I am committed 
to putting in place the appropriate oversight to ensure the Department 
meets its responsibility to use taxpayer dollars wisely and 
effectively. If confirmed, I look forward to continuing discussions 
with Congress on funding for diplomatic and foreign assistance programs 
and working to ensure the Department has the right systems, personnel, 
and infrastructure in place to execute these programs effectively.

    Question. At this time, outstanding U.S. contributions to the U.N. 
regular budget and U.N. peacekeeping are about $3.5 billion. In 
addition, on peacekeeping, I have not heard whether any of the CIPA 
money referred to in a September 13, 2019 CN has been obligated to the 
U.N. yet. Knowing the U.N. is in real financial crisis and must stop 
hiring and holding after-hours meetings and may be short on salaries 
next month, why is the State Department slow-walking the funds when it 
should be available now?

    Answer. I understand that the Department is in the process of 
paying $855 million in peacekeeping assessments. These payments should 
be complete by the first week of December. Once the payments are 
complete, the Department will have paid all but three U.S. peacekeeping 
assessments received through September for the current U.N. 
peacekeeping financial year. The Department is paying these assessments 
at the rate of 25 percent, as specified by section 404(b) of the 
Foreign Relations Authorization Act, Fiscal Years 1994 and 1995. The 
Department is also in the process of making a $300 million payment for 
the U.N. regular budget, which should be complete by the end of 
November.

    Question. Why has the State Department not yet paid our 
peacekeeping dues yet? Did rescission affect the ability of IO and 
other State staff to process payments to the U.N.? Please provide 
details on reasons for the delay.

    Answer. I understand that the Department is in the process of 
paying U.S. peacekeeping assessments for the current U.N. peacekeeping 
financial year. Payment of the peacekeeping assessments was delayed in 
part due to the OMB reapportionment exercise, and also because the 
Department prioritized payments to the assessed regular budgets of the 
U.N. and other major organizations. I understand that the financial 
impacts of delays in the regular budget payments were significantly 
greater than the impacts of the delays in the payment of peacekeeping 
assessments.

    Question. Ethiopia and Sudan are in the midst of political 
transitions, which represent a once-in-a-generation opportunity for 
democratic change for more than 100 million people in east Africa. 
However, both transitions are extremely fragile. Sudan's economy is in 
shambles, and the verdict is out on whether Prime Minister Hamdouk will 
retain firm control of the government. Lt. Gen. Mohamed Hamdan 
``Hemeti,'' a man widely believed to be responsible for human rights 
abuses in Darfur, retains a significant amount of influence. In 
Ethiopia, nearly three million people-and likely more--have been 
displaced due to what observers on the ground have labeled ``ethnic 
cleansing.'' Mass graves are said to have been uncovered, the result of 
attacks across the country. Armed groups are active in some areas. If 
confirmed, what specific actions and support will you prioritize to 
help ensure Ethiopia and Sudan successfully transition to democracy?

    Answer. If confirmed, I will prioritize working with Congress, 
international partners, and the Friends of Sudan to provide the 
technical, political, and economic support that Sudanese civilian 
leaders require to reform the economy, deliver on demands for justice 
and accountability, and prepare the groundwork for free and fair 
elections. For Ethiopia, I will prioritize capacity building for the 
justice sector that can establish rule of law and a renewed Ethiopian 
security sector that can peacefully address the challenge of ethnic 
conflict, rather than instill fear and oppression. I will continue 
advancing U.S. support for Ethiopia's historic reforms, including by 
supporting civil society organizations that can help can document and 
address the gravest incidences of human rights abuses.

    Question. What steps do you think the U.S. could take to bolster 
Sudanese Prime Minister Hamdouk in his efforts to consolidate civilian 
leadership in Sudan during the transition period?

    Answer. For Sudanese Prime Minister Hamdouk to succeed, he will 
need to demonstrate an ability to deliver on the Sudanese people's 
demands for justice, peace, democracy, and economic recovery. Continued 
U.S. diplomatic leadership in the Friends of Sudan partnership is 
critical to mobilizing the political, economic, and technical support 
required to deliver in these areas. If confirmed, I would equally 
prioritize bilateral engagement with and financial support to the 
Sudanese civilian government to create political and fiscal space to 
enable it to enact economic reforms, expand human rights protections, 
finalize and implement peace agreements in historically marginalized 
areas, and move towards free and fair elections.

    Question. What should the U.S. be doing to help Prime Minister Abiy 
create an environment conducive to credible elections in Ethiopia next 
year?

    Answer. The Department has conducted assessments of the pre-
electoral environment to identify how best to support and prepare 
Ethiopia's electoral commission for free, fair, and credible elections 
in Ethiopia next year. Supporting civil society organizations will be 
essential in ensuring Ethiopia's democratic transition, particularly 
given their role in educating and training voters and in monitoring 
elections next year. The United States will also continue to support 
the electoral commission to prioritize and enact effective electoral 
reforms, and to identify, prioritize, and address critical 
vulnerabilities that could undermine the integrity of the 2020 
electoral process.

    Question. Will you commit to work with Congress to develop such an 
approach similar to that the U.S. undertook to support Eastern Europe's 
transition to democracy for East Africa?

    Answer. If confirmed, I will commit to advancing policies that 
support democratic principles and the aspirations of communities and 
populations in East Africa. This will include supporting governments 
such as Ethiopia and Sudan that have seen transformational changes, 
speaking out against democratic backsliding in countries such as 
Tanzania, and continuing to deploy tools that support credible and 
transparent elections, promote civil society, and advance human rights 
and democratic governance.

    Question. Since the start of the civil war in South Sudan, nearly 
400,000 people are estimated to have died. That number is likely 
higher. The ceasefire signed in September 2018 has created a fragile 
peace, allowing 594,000 displaced people to return home, increasing 
food production, and enhancing humanitarian access. However, the 
parties to the conflict once again delayed the formation of a unity 
government, the third such delay since the so-called ``Revitalized'' 
peace agreement was signed. What are the obstacles to the formation of 
a unity government and what is our strategy for helping the parties 
move towards implementation of the Revitalized Peace agreement?

    Answer. The obstacles to the formation of a unity government are 
President Kiir and opposition leader Riek Machar, whose inability to 
achieve this basic demonstration of political will for the people of 
South Sudan calls into question their suitability to continue to lead 
the nation's peace process. Neither has been willing to set aside 
personal interests or compromise on key areas of disagreement, 
including the number of states, political space for the opposition, and 
the implementation of security provisions of the peace agreement. If 
confirmed, I will support Secretary Pompeo's efforts to reevaluate the 
U.S. relationship with the government of South Sudan and will continue 
working bilaterally and with the international community to take action 
against all those impeding South Sudan's peace process.

    Question. If confirmed what specific diplomatic actions will you 
take to ensure that the revitalized peace process is implemented?

    Answer. If confirmed, I will work closely with the Bureau of 
African Affairs and other relevant bureaus to prioritize routine 
senior-level diplomatic engagement on the South Sudan peace process. I 
will also ensure that U.S. efforts are conducted in conjunction with 
the leadership of Uganda, Kenya, Ethiopia, Sudan, the AU, and the 
Inter-Governmental Authority on Development. Our leadership in helping 
these regional actors devise a way forward is essential. I would also 
work with our troika partners--the UK and Norway--to increase our 
pressure on South Sudanese leaders, and through our U.N. and AU 
missions to promote freedom of movement for the U.N. Mission in South 
Sudan and to facilitate the establishment of the AU Hybrid Court for 
South Sudan.

    Question. What steps will you take, if confirmed, to help avert a 
resumption of hostilities should this latest deadline for the formation 
of a unity government not be met?

    Answer. If confirmed, I would work closely with our Bureau of 
African Affairs to place diplomatic pressure--in partnership with our 
allies--on both President Salva Kiir and opposition leader Dr. Riek 
Machar to recommit publicly and frequently to upholding the ceasefire, 
to cease arms purchases, to end recruitment activities, and to 
implement effectively the security sector reform components of the 
peace agreement. I would also work through the U.S. Mission to the U.N. 
to identify arms embargo violators and hold them accountable while 
simultaneously working with UNSC allies to ensure the U.N. Mission in 
South Sudan is prepared to protect civilians and afforded the freedom 
of movement necessary to do so.

    Question. The Gulf countries are influential actors in the Horn of 
Africa. Analysts have expressed concern that the Gulf crisis may 
exacerbate regional tensions in the Horn. Sudan, Somalia and Ethiopia 
can easily be further destabilized. What actions will you take, if 
confirmed, to ensure that our Ambassadors in Riyadh, Ankara, Abu Dhabi 
and Doha are consistently delivering messages about the importance of 
refraining from actions which for example undermine efforts to support 
the formation of a strong federal state in Somalia, or which could 
otherwise potentially play a destabilizing role in the Horn of Africa?

    Answer. If confirmed, I will work closely with the Bureau of Near 
Eastern Affairs, the Bureau of African Affairs, and our ambassadors in 
the region to ensure the United States is urging Gulf countries at all 
levels to play a constructive role in advancing peace and stability in 
the Horn. I will work to support the development of a mechanism to 
manage commercial and security concerns related to the Red Sea. On 
Somalia, I will continue to encourage our partners in the Gulf to 
support federalism reforms; peaceful, inclusive, and democratic 
national elections next year; the development of Somali security forces 
to enable the AMISOM transition plan; and economic reforms that will 
allow Somalia to enter the debt relief process next spring.

    Question. The UAE, Saudi Arabia, and Turkey have increased their 
military presence along the coast of the Horn of Africa, expanding and 
increasing activity throughout the Red Sea Corridor. What steps will 
you take, if confirmed, to improve coordination of State Department's 
strategies, programs, and policies implemented by the Africa and Near-
East-Asia bureaus relative to the Red Sea?

    Answer. If confirmed, I will work closely with my colleagues in the 
Bureaus of Near Eastern, African, and European and Eurasian Affairs, 
and our ambassadors in relevant countries engaged in the Red Sea 
region, to ensure that our strategies, programs, and policies are well 
coordinated in addressing issues throughout the Red Sea Corridor. 
Working together, we can encourage these countries to play a 
constructive role in advancing peace and stability in the Red Sea, 
Gulf, and Horn of Africa.

    Question. If confirmed, what steps will you take to secure access 
to the Anglophone regions of Cameroon for international and domestic 
observers to ascertain the veracity of the current accounts of 
widespread government abuses against civilians in those regions? What 
role do you see the United States as having in facilitating, 
encouraging, and/or leading constructive dialogue between the 
government of Cameroon, and opposing parties in the Anglophone region, 
and what actions will you take if confirmed to help foster political 
dialogue?

    Answer. I will work with the Bureau of African Affairs to seek 
unfettered access for humanitarian aid workers to the Anglophone 
Northwest and Southwest Regions of Cameroon and to call for full and 
independent investigations of abuses committed by both sides. The 
United States calls for an end to violence on both the Cameroonian 
government side as well as the side of the various armed separatist 
groups. I will continue calling on both sides to enter into an open-
ended dialogue without pre-conditions and supporting the Swiss-led 
dialogue initiative. Additionally, if confirmed, I will continue 
support working closely with civil society organizations in Cameroon to 
strengthen grass-roots peace builders.

    Question. Security across the Sahel continues to devolve. Latest 
reports show over 4 million displaced-- one million more than last 
year. Violent extremism is expanding from Mali into Burkina Faso.

  If confirmed, what steps will you take to develop a strategy to 
        deal with the challenge of worsening security and increasing 
        violent extremism across the Sahel?

    Answer. Instability in the Sahel threatens U.S. national security 
and undermines the Department's broader goals for the region. The 
administration is committed to whole-of-government approaches to 
addressing fragility in the region that harness our defense, 
development, and diplomatic capabilities. If confirmed, I will support 
the Department's ongoing efforts to develop a robust diplomatic 
engagement framework for Sahel stabilization focused on bolstering 
rights-respecting, citizen-responsive governance, improving 
coordination internally and with our partners and other donors to 
ensure complementarity of effort, and advancing cornerstone political 
objectives, such as implementing the Algiers Accord in Mali.

    Question. China and Russia have made concerted efforts to increase 
their countries' political, security, and economic influence across 
Africa, providing security services, loans and building infrastructure. 
Russia has interfered with elections in Africa. The administration's 
strategy in Africa recognizes this challenge, but little action has 
been taken.

  What specific actions will you take to if confirmed to counter 
        Russian and Chinese influence in Africa?

    Answer. If confirmed, I will continue to monitor China's and 
Russia's involvement in Africa and support efforts to counter malign 
influences in line with U.S. national security interests and those of 
our African partners. If confirmed, I will work hard to promote peace 
and security and to increase U.S. trade and investment in Africa. 
Countries around the globe can play a role as a source of capital and 
knowledge for African development, but they must apply the highest 
international standards of openness, inclusivity, transparency, and 
governance.

    Question. Several countries in Africa, notably Uganda, Zimbabwe, 
Tanzania, and Burundi have seen the increasing closure of space for 
local civil society, media/journalists, political opposition, and even 
international NGOs.

  What will you do if confirmed to ensure that we help protect 
        democratic space in countries in which human rights and 
        democratic freedoms are increasingly at risk?

    Answer. Civil society continues to face challenges to its role in 
representing and advocating for citizens, particularly where the 
enabling environment is closing or closed. If confirmed, I am committed 
to promoting and protecting the role of civil society as an essential 
element of citizen-centered democratic governance. I will support the 
development of the institutional architecture to support victims, 
enhance access to justice and promote voices that encourage local 
dialogue among Africans, respect the rule of law and support access to 
justice, foster civil society, and recognize the critical role played 
by independent media.

    Question. I am concerned by the continued lack of normalcy in 
Indian-administered Kashmir and by the difficulty in getting reliable 
information on the situation on the ground. Has the State Department 
tried to send U.S. diplomats to Indian-administered Kashmir since the 
revocation of Article 370 on August 5th? If the Indian government has 
blocked U.S. diplomats from entering the area, what reasoning have they 
given for doing so?

    Answer. Since India's August 5 decision to abrogate Article 370, 
the Indian government has denied the Department of State's requests to 
visit Jammu and Kashmir, citing security concerns. If confirmed, I will 
support the Department of State's efforts to renew diplomatic visits, 
including to the Kashmir Valley, to observe and report on developments 
firsthand.

    Question. What discussions has the State Department had with the 
Indian government regarding the situation in Indian-administered 
Kashmir, and at what level have these conversations taken place? How 
does the State Department assess the credibility of Indian government 
statements regarding the situation in Indian-administered Kashmir?

    Answer. Since August 5, senior State Department officials in 
Washington and New Delhi have consistently engaged the Indian 
government to seek updated information regarding conditions on the 
ground. Department officials are also working to represent the 
interests of U.S. citizens and their families, urge respect for human 
rights, and encourage the Indian government to ensure a rapid return to 
normalcy, including by easing detentions and movement restrictions, 
lifting communications blackouts, ensuring adequate access to food and 
medicine, and fulfilling its commitment to hold local assembly 
elections at the earliest opportunity. The Indian government has argued 
that the revocation of Article 370 will result in better governance and 
economic development for the people of Kashmir; however, the onus is on 
the Indian government to fulfill that promise.

    Question. What discussions has the State Department had with Indian 
civil society, and particularly with civil society based in Indian-
administered Kashmir, regarding the situation there?

    Answer. Since August 5, Department of State officials in Washington 
and New Delhi have maintained close contact with a broad range of civil 
society groups, journalists, religious leaders, and political 
organizations, including individuals who are based in or travel 
regularly to Kashmir. These meetings have helped Department officials 
better understand conditions on the ground and perspectives regarding 
ongoing political developments, including as they affect religious 
minorities, women and youth, and other vulnerable populations.

    Question. The vast majority of refugees are hosted in developing 
countries, who have taken on a disproportionate share of the burden in 
hosting displaced populations while continuing to have difficulty 
meeting the needs or their own populations. This has resulted in a lack 
of resources to help refugees during their prolonged displacement. For 
example, many displaced children are unable to attend school and are 
missing out on critical years of their educational development. 
Further, many of these host countries are allies of the United States. 
How will you answer to our allies who have been shouldering a 
disproportionate share of the burden, while the U.S. draws back its 
commitment, both in contributions and leadership?

    Answer. The United States continues to be the single largest donor 
of humanitarian assistance in the world, providing nearly $9.3 billion 
in FY 2019. At the same time, humanitarian needs worldwide continue to 
grow, beyond the capacity of any single donor to adequately respond. I 
understand the Department supports, and if confirmed I would continue 
to support, the World Bank's development of funding platforms to assist 
refugee-hosting countries that have adopted policies to include 
refugees in national development efforts, including education.

    Question. SFRC minority has a hold on State CN 19 112, which 
reduces staffing levels at Embassy Kabul. I understand that other 
committees may also have holds on this CN. However, State has started 
implementing the CN in spite of the hold by notifying Embassy staff 
that their positions will be terminated and by declining to include 
positions affected by the staffing cuts in the September 2019 ``bid 
list.'' Sec. 7073(a) of the FY19 State and Foreign Operations 
Appropriations Act prevents use of appropriated funds to ``implement a 
reorganization, redesign, or other plan described in paragraph (2)'' 
without ``prior consultation.with the appropriate congressional 
committees''.

   How many positions that are targeted for elimination under the 
        Staffing Review are currently unfilled? How many are filled?

    Answer. It is my understanding that since undertaking the Kabul 
staffing review, the Department has provided extensive information, 
including pre-notification consultations prior to submitting CN 19-112. 
Following expiration of the CN period, the Department changed some 
Kabul assignments, as has previously been briefed to the committee. The 
Department's ``bid lists'' depend on service need and the Department's 
global posture. The September 2019 bid list did not include certain 
positions affected by the Kabul Staffing review; however, the 
Department has not eliminated these positions nor made final decisions 
regarding assignments.

    Question. What is the Department's legal justification to start 
implementing the Kabul Staffing CN in spite of the Congressional holds?

    Answer. Since undertaking the staffing review of Kabul, the 
Department has worked to provide extensive information to Congress, 
including pre-notification consultations prior to submitting 
congressional notification (CN) 19-112 on May 3, holding more than ten 
separate briefings to our respective oversight committees, and 
arranging phone calls between members and senior Department officials 
on the CN itself. The Department has provided and continues to provide 
responses to requests for information and questions raised during 
consultations and briefings. Following the expiration of the CN period, 
the State Department has changed the assignments of some staff who were 
to go to Afghanistan in 2019 consistent with the congressional 
notification, and a number of these steps have previously been briefed 
to the committee.

    Question. Which Department official made the decision to start 
implementing the Kabul Staffing CN in spite of the Congressional holds? 
Who else was involved in the decision-making?

    Answer. Under the direction of the Secretary of State, I understand 
that the Department has made adjustments to some Afghanistan 
assignments and taken measures to ensure all impacted employees have 
new assignments. The Department has not permanently eliminated the 
positions or taken other similar actions regarding those positions.

    Question. If confirmed as Deputy Secretary of State, will you 
continue implementing the Embassy Kabul staffing cuts in spite of the 
SFRC minority hold?

    Answer. I understand that the Department has made some assignment 
changes in Embassy Kabul but has not eliminated positions. If 
confirmed, I will uphold the Department's commitment to working closely 
with our Congressional committees to address any remaining concerns 
regarding CN 19-112.

    Question. If confirmed as Deputy Secretary of State, will you 
commit to respecting Congressional holds and not implementing programs 
or changes for which the Congressional notification is on hold?

    Answer. If confirmed, I commit to working collaboratively with 
Congressional committees to address concerns regarding Congressional 
notifications.

    Question. President Trump has repeatedly stated that Mexico will 
pay for the border wall along the Southwest border of the United 
States. Do you believe that Mexico should be required to pay for a 
border wall?

    Answer. I believe we should continue to cooperate closely with 
Mexico to manage and protect our nearly 2,000-mile border and to combat 
shared threats posed by transnational criminal organizations. If 
confirmed, I will work to secure our borders by working with the 
Mexican government to advance our shared security interests.

    Question. Do you intend to formulate a strategy to make Mexico pay 
for his proposed border wall between our countries?

    Answer. If confirmed, I intend to maintain an ongoing dialogue with 
Mexico to ensure close coordination with respect to our joint efforts 
to secure and modernize the border. Border infrastructure is one part 
of a comprehensive approach to improve security at our southern border. 
A strategy to secure our border should include working closely with 
Mexico to prevent illegal immigration, human trafficking, and the 
smuggling of drugs and other contraband across our shared border.

    Question. Over the last few months, there have been a series of 
``asylum cooperation agreements'' that the Department of Homeland 
Security recently signed with Honduras (September 25, 2019), Guatemala 
(July 26, 2019) and El Salvador (September 20, 2019). As far as we can 
determine, none of these agreements have yet been transmitted to 
Congress, as required by U.S. law, despite the fact that the 60-day 
window for reporting appears to have passed for the Guatemala 
agreement. Can you please explain why these congressionally mandated 
reports have not yet been transmitted, and when we can expect them?

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea. However, I am advised of the 
following:

    Pursuant to 1 U.S.C. Sec. 112b, ``the Secretary of State shall 
transmit to the Congress the text of any international agreement 
(including the text of any oral international agreement, which 
agreement shall be reduced to writing), other than a treaty, to which 
the United States is a party as soon as practicable after such 
agreement has entered into force with respect to the United States but 
in no event later than sixty days thereafter.''
    The agreements about which you asked did not enter into force 
immediately upon signature. The Asylum Cooperation Agreement with 
Guatemala entered into force on November 15, 2019, and will be 
transmitted to Congress within 60 days of that date. Asylum Cooperation 
Agreements with El Salvador and Honduras have not entered into force. 
Should they enter into force in the future, they will be transmitted to 
Congress within 60 days of the date of their entry into force.

    Question. Do you commit to transmitting these agreements to 
Congress?

    Answer. As indicated in my previous answer, I am advised of the 
following: The Asylum Cooperation Agreement with Guatemala entered into 
force on November 15, 2019, and will be transmitted to Congress within 
60 days of that date. The Asylum Cooperation Agreements with El 
Salvador and Honduras have not entered into force. Should they enter 
into force in the future, they will be transmitted to Congress within 
60 days of the date of their entry into force.

    Question. What is your assessment of security conditions in El 
Salvador and do you believe the country is able to provide safety and 
security to asylum seekers if they are sent to El Salvador?

    Answer. I understand an individual cannot be removed to a country 
in which the individual would be persecuted or tortured. The Attorney 
General and the Secretary of Homeland Security must certify that all 
countries with which the United States signs Asylum Cooperation 
Agreements, including El Salvador, meet the requirements of 8 U.S.C. 
Sec. 1158(a)(2)(A) prior to implementation of said agreements, 
including that individuals will have access to a full and fair 
procedure for adjudicating a claim for asylum or equivalent temporary 
protection.

    Question. What is your assessment of the Salvadoran asylum system?

    Answer. El Salvador has a nascent asylum system. Through its 
international humanitarian partners, the Department is providing 
support to help strengthen the capacity of the Salvadoran asylum system 
to allow migrants seeking protection to receive that protection closer 
to home.
    I understand that prior to implementing any Asylum Cooperation 
Agreements, the Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C. 
Sec. 1158(a)(2)(A), including that the individual will have access to a 
full and fair procedure for determining a claim to asylum or equivalent 
temporary protection, and that individuals cannot be removed to a 
country in which the individual would be persecuted.

    Question. What is your assessment of security conditions in 
Honduras and do you believe that the country is able to provide safety 
and security to asylum seekers if they are sent to Honduras?

    Answer. I understand no individual can be sent to a country in 
which the individual would be persecuted or tortured. The Attorney 
General and the Secretary of Homeland Security must certify that 
Honduras meets the requirements of 8 U.S.C. Sec. 1158(a)(2)(A) prior to 
implementation of the Asylum Cooperation Agreement, including that 
individuals will have access to a full and fair procedure for 
determining a claim to asylum or equivalent temporary protection.

    Question. What is your assessment of the Honduran asylum system?

    Answer. Honduras has a nascent asylum system. Through its 
international humanitarian partners, the Department is providing 
support to help strengthen the capacity of the Honduran asylum system 
to allow migrants seeking protection to receive that protection closer 
to home.
    I understand that prior to implementing any Asylum Cooperation 
Agreements, the Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C. 
Sec. 1158(a)(2)(A), including that the individual will have access to a 
full and fair procedure for determining a claim to asylum or equivalent 
temporary protection, and that individuals cannot be removed to a 
country in which the individual would be persecuted.

    Question. What is your assessment of security conditions in 
Guatemala and do you believe that the country is able to provide safety 
and security to asylum seekers if they are sent to Guatemala?

    Answer. On November 15, the agreement the United States signed with 
Guatemala entered into force following certification by the Attorney 
General and the Secretary of Homeland Security pursuant to 8 U.S.C. 
Sec. 1158(a)(2)(A) that individuals seeking asylum who are removed to 
Guatemala will have access to a full and fair procedure for determining 
their asylum claim or equivalent protection and following an exchange 
of diplomatic notes. Individuals who would be persecuted or tortured in 
Guatemala will not be sent to that country pursuant to this same 
statutory provision.

    Question. What is your assessment of the Guatemalan asylum system?

    Answer. Guatemala and the United States signed an Asylum 
Cooperation Agreement on July 26. The Attorney General and Secretary of 
Homeland Security determined that Guatemala's asylum system provides 
full and fair access to individuals seeking protection, as required by 
U.S. law, prior to the ACA entering into force on November 15. The 
first individual was sent to Guatemala under the agreement on November 
21. While the ACA is a bilateral agreement, humanitarian assistance 
efforts funded by the Bureau of Population, Refugees, and Migration 
complement its implementation through partners like the U.N. High 
Commissioner for Refugees and International Organization for Migration. 
The ACA helps address the humanitarian and security crisis at our 
southern border, while fulfilling our mandate to provide protection and 
resolve the plight of persecuted and uprooted people.

    Question. If the administration fails to extend New START beyond 
2021 and does not replace it with another arms control agreement, how 
will Russia change its nuclear posture? Do you believe that Russia will 
expand its nuclear arsenal in an unconstrained environment post-New 
START?

    Answer. While Russia is complying with the New START Treaty's 
central limits on accountable weapons, Russia is currently expanding 
and diversifying its large stockpile of nonstrategic nuclear weapons, 
which are not covered by the New START Treaty. Russia is also pursuing 
novel strategic weapons that do not fall under the treaty's existing 
definitions and are thus unconstrained by the treaty's central limits. 
These Russian developments, together with China's assessed buildup to 
at least double the size of its current nuclear arsenal, inform both 
the administration's ongoing evaluation of whether an extension of the 
New START Treaty is in the U.S. national interest and the 
administration's efforts to think more broadly about arms control, both 
in terms of the countries and the weapon systems involved.

    Question. Do you believe the United States will be more or less 
secure if New START is not extended and no follow-on arms control 
treaty is agreed to?

    Answer. The administration's priority is to make the United States 
more secure. One of our key considerations in evaluating arms control 
efforts is whether such efforts advance U.S., allied, and partner 
security. That is why we are both evaluating whether an extension of 
the New START Treaty is in the U.S. national interest and thinking more 
broadly about arms control, both in terms of the countries and the 
weapon systems involved.

    Question. One of the issues that detractors of New START repeatedly 
bring up is Russia's new, exotic nuclear systems and how the Treaty may 
not constrain these systems. As you are aware, Russia has already 
stated that two systems, the Sarmat ICBM and Avengard Hypersonic Glide 
Vehicle, will fall under New START. Furthermore, reports indicate that 
the other systems of concern likely will not reach deployment during 
the lifespan of the New START, even if it is extended. Considering the 
circumstances surrounding these new systems, in your estimation, what 
is the impact or non-impact of these systems on New START?

    Answer. Russia is pursuing novel strategic weapons that do not fall 
under the treaty's existing definitions and thus are unconstrained by 
the treaty's central limits. Russia is also expanding and diversifying 
its large stockpile of nonstrategic nuclear weapons, which are not 
covered by the New START Treaty. These Russian developments, 
unconstrained by the New START Treaty, increase threats to U.S., 
allied, and partner security. The question is therefore not what impact 
or non-impact these systems have on the New START Treaty, but rather 
what arms control efforts will advance U.S., allied, and partner 
security in the face of the threats these systems pose.

    Question. Do you think New START should be extended knowing the 
circumstances of these exotic systems?

    Answer. The administration has not yet made a decision about the 
potential extension of the New START Treaty. The development of novel 
new strategic systems and Russia's growing stockpile of nonstrategic 
nuclear weapons, which are not covered by the New START Treaty, 
together with China's nuclear buildup and how the Treaty's expiration 
would affect U.S., Allied and partner security, all inform our ongoing 
evaluation of whether an extension is in the U.S. national interest, as 
well as our efforts to think more broadly about arms control, both in 
terms of the countries and the weapon systems involved.

    Question. In a post-New START environment, how would you address 
constraining these systems?

    Answer. As the administration has not yet determined whether to 
extend the New START Treaty, it is premature to speculate about a post-
New START environment. However, the interest in constraining additional 
weapons beyond those limited by past agreements is motivating the 
administration's efforts to think more broadly about arms control. The 
administration is also committed to ensuring the United States 
possesses modern, flexible, resilient, and effective nuclear forces to 
deter nuclear attack.

    Question. Do you believe that extending New START would provide 
additional time to negotiate methods for constraining these systems?

    Answer. The administration has not yet made a decision about 
potential extension of New START. Central to the U.S. review of 
potential New START extension is whether an extension is in the U.S. 
national interest and how the Treaty's expiration would affect U.S., 
Allied and partner security.

    Question. President Trump has repeatedly stated that he seeks a 
new, trilateral arms control agreement that includes both Russia and 
China. What are the status of these negotiations? Are they occurring at 
all?

    Answer. Negotiations on a new, trilateral arms control agreement 
have yet to start.

    Question. As you know, the State Department currently does not have 
a T Under-Secretary or AVC Assistant Secretary, the individuals who 
would generally lead such negotiations. Consequently, who is leading 
these trilateral negotiations?

    Answer. Negotiations on a new, trilateral arms control agreement 
have yet to start.

    Question. Due to the drastically different arsenal and strategic 
calculus held by China, do you believe it is feasible to bring China 
into the same arms control regime as the United States and Russia, or 
should the U.S. pursue alternative arms control measures to protect the 
United States from Chinese nuclear weapons?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. Bilateral treaties that cover limited 
types of nuclear weapons or only certain ranges of adversary missiles 
are insufficient to address the threat environment we face today. 
China's expanding nuclear arsenal, estimated to more than double in the 
next decade, poses increasing threats to the United States, our allies, 
and partners. Neither U.S. nor Russian security are served by Chinese 
nuclear forces remaining unconstrained.

    Question. According to the administration, what is the current 
status of the Open Skies Treaty?

    Answer. The United States is a party to the Open Skies Treaty and I 
understand that the United States continues to implement it and are in 
full compliance with our obligations under the treaty, unlike Russia. 
As Secretary Pompeo has said, ``The United States remains committed to 
effective arms control that advances U.S., Allied, and partner 
security; is verifiable and enforceable; and includes partners that 
comply responsibly with their obligations.'' For so long as we believe 
the Open Skies Treaty meets these criteria, the U.S. will remain in the 
Treaty. The U.S. will continue to work with its Allies and partners on 
all treaty related compliance and implementation issues related to the 
Open Skies Treaty.

    Question. Does the administration intend to withdraw from the Open 
Skies Treaty, as earlier indicated?

    Answer. The United States is a party to the Open Skies Treaty and I 
understand that the United States continues to implement it and are in 
full compliance with our obligations under the treaty, unlike Russia. 
The United States remains committed to arms control agreements that 
advance U.S., Allied, and partner security; are verifiable and 
enforceable; and include parties that comply responsibly with their 
obligations. The United States will continue to approach the Open Skies 
Treaty from this perspective and work with its Allies and partners on 
all treaty related compliance and implementation issues related to the 
Open Skies Treaty.

    Question. Current Deputy Secretary of State John Sullivan told the 
Senate Foreign Relations Committee last month that any decision to 
withdraw from the Open Skies Treaty would require the unanimous support 
of NATO ``to make sure we don't do damage to our NATO alliance.'' Do 
you agree with this statement? Sullivan also stated that the U.S. 
ambassadors to NATO and the OSCE support the United States remaining a 
party to the treaty. Is that also your understanding?

    Answer. Deputy Secretary Sullivan told the committee the United 
States' decision to remain in or withdraw from the treaty should be 
made only after close consultation with our Allies and other 
participants in the treaty. The United States remains committed to arms 
control agreements that advance U.S., Allied, and partner security; are 
verifiable and enforceable; and include parties that comply responsibly 
with their obligations.

    Question. Do you believe it is in the security interests of the 
United States to remain party to the Open Skies Treaty?

    Answer. The United States is a party to the Open Skies Treaty, and 
I understand that the United States continues to implement it and are 
in full compliance with our obligations under the treaty, unlike 
Russia. The United States remains committed to arms control agreements 
that advance U.S., Allied, and partner security; are verifiable and 
enforceable; and include parties that comply responsibly with their 
obligations. The United States will continue to approach the Open Skies 
Treaty from this perspective and continue to work with our Allies and 
partners on all compliance and implementation issues related to the 
Open Skies Treaty.

    Question. Have you discussed Open Skies with our Allies? Do they 
believe in the value of the Treaty?

    Answer. If confirmed, I will to work closely with our Allies and 
partners on all Open Skies Treaty related compliance and implementation 
issues.

    Question. What is the current status of denuclearization 
negotiations with North Korea, especially in the aftermath of the 
Stockholm meeting?

    Answer. President Trump remains committed to making progress toward 
the Singapore Summit commitments, which include transforming relations, 
building lasting peace on the Korean Peninsula, and complete 
denuclearization of the DPRK. We work closely with the international 
community to send a unified message that North Korea must engage with 
the United States to achieve these commitments. We have not seen 
concrete evidence that North Korea has made the choice to denuclearize, 
but we still believe that Pyongyang can make this choice.

    Question. What actions do you believe North Korea intends to take 
if the U.S. and North Korea do not come to some agreement before Dec. 
31? Do you believe North Korea will resume ICBM and nuclear testing?

    Answer. President Trump remains committed to making progress toward 
the Singapore Summit commitments, which include transforming relations, 
building lasting peace on the Korean Peninsula, and complete 
denuclearization of the DPRK. We work closely with our allies and 
others around the world as we seek to eliminate the threat posed to the 
United States and our allies by North Korea's weapons of mass 
destruction and ballistic missile programs. If confirmed as Deputy 
Secretary, I will continue to champion diplomatic approaches to the 
tough challenges our nation faces to ensure that America remains 
prosperous, secure, and strong.

    Question. Do you believe that a peace agreement would contribute to 
the achievement of goals outlined at the Singapore summit?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK. The United States remains ready to take 
simultaneous and parallel actions on the commitments our leaders made 
at the Singapore Summit. That includes transforming the U.S.-DPRK 
relationship; establishing a lasting and stable peace on the Korean 
Peninsula; complete denuclearization of the DPRK; and making progress 
on the recovery of remains. We also look forward to cooperating to 
build a bright economic future for the North Korean people, the region, 
and the world.

    Question. What are some of the specific, meaningful steps towards 
denuclearization that North Korea could take for the United States to 
consider a partial lifting of sanctions?

    Answer. We have had extensive conversations with the DPRK about the 
contours of final, fully verified denuclearization, as committed to by 
Chairman Kim in Singapore. In our talks with the DPRK, the United 
States brought creative ideas and previewed a number of new initiatives 
that would allow us to make progress in each of the four pillars of the 
Singapore Joint Statement. We also reviewed events since the Singapore 
summit, and the importance of more intensive engagement to solve the 
many issues of concern for both sides. The Department is committed to 
keeping you and other members of Congress updated on the 
administration's efforts.

    Question. Mr. Biegun, I asked the following questions for the 
record of Assistant Secretary Cooper after his SFRC hearing of July 10, 
2019. More than four months later, I have yet to see any response to 
these questions, despite multiple inquiries by my staff. Therefore, I 
ask them of you: In May, the Secretary of State declared an 
``emergency'' with regard to 22 arms sales to Saudi Arabia and UAE.

   What is the State Department's operative definition of an 
        ``emergency''?

    Answer. It is my understanding that there were emergency 
circumstances that necessitated, in the national security interests of 
the United States, the immediate issuances of Letters of Offer and 
Acceptance and Export Licenses. These circumstances were set forth in 
the detailed justification for the determination, which was provided to 
Congress on May 24 consistent with section 36 of the Arms Export 
Control Act.

    Question. Did the Legal Adviser's office opine on what an 
``emergency'' is? If so, was that opinion in writing? If so, will you 
provide a copy of that written opinion to the committee? If not, what 
legal privilege is State claiming to exercise that prevents it, or 
enables it, from providing that written opinion to the committee?

    Answer. I cannot speak to deliberative, pre-decisional 
communications that may be subject to Executive Branch confidentiality 
interests. However, as a general matter, the Department's practice for 
every Congressionally notified Foreign Military Sale or Export License 
package is for the Bureau of Political-Military Affairs to consult with 
the Office of the Legal Adviser prior to notifying Congress.

    Question. Why did the State Department not inform Senator Menendez 
or his staff that an emergency declaration for these arms sales was 
being contemplated, or was going to be invoked, prior to May 24, 2019?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. Did anyone from State Department inform any Member or 
staff of the Senate Foreign Relations Committee prior to May 24, 2019, 
about consideration of, or a decision made, to make the emergency 
declaration issued by the Secretary of State on May 24, 2019?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. How many FMS Letters of Offer and Acceptance have been 
concluded, and how many have been transmitted for consideration, to the 
governments of Saudi Arabia and the United Arab Emirates?

    Answer. I have been briefed that of the 11 FMS sales advanced via 
the May 24 Emergency Certification, Letters of Offer and Acceptance for 
nine have been offered to Saudi Arabia and the UAE. Six offers have 
been signed.

    Question. How many of the 13 commercial sales have begun delivery? 
Which ones? What percentage of deliveries have been made so far of the 
total authorized in each sale?

    Answer. It is my understanding that the Department issued the 
related licenses for these sales shortly after it notified Congress. It 
is the Department's understanding that several of these export 
authorizations--for which there is an underlying signed contract--have 
moved forward for delivery. Detailed delivery information resides with 
the exporting companies.

    Question. Many of these sales could take months or years to be 
delivered, isn't that right? If so, and these sales are important to 
build Saudi and UAE capacity to defend against a threat from Iran, does 
the expediting of these sales via an emergency declaration also give 
Iran an incentive to attack sooner, before the months and years pass 
for these weapons to be brought to bear against them? Was the 
subsequent attack by Iran on Saudi oil facilities partially the result 
of these sales, or where these emergency sales essentially irrelevant 
to Iran's considerations in launching that attack?

    Answer. Iranian malign activity poses a threat to the stability of 
the Middle East and to United States security interests at home and 
abroad; equipping our partners to be the first line of defense against 
such Iranian activity remains a critical U.S. national security 
interest.

    Question. What date was the first discussion in the State 
Department regarding invoking an emergency determination for these 
sales?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. When, specifically, did the Secretary decide to use an 
emergency declaration for these sales?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. Did State Department personnel discuss declaring an 
emergency for these sales with the Secretary before the Secretary 
briefed the Senate and the House on May 21 and 22?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. PM Assistant Secretary Cooper testified at a House 
hearing that the decision memo to the Secretary was prepared, quote, 
``right before we issued the declaration.'' On what date, specifically, 
was that memo prepared?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. What does ``right before'' mean? An hour? 8 hours? 24 
hours?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. Is that why the Secretary didn't follow the law and make 
individual justifications for each of the 22 sales, as required by law? 
He just didn't have the time to find out what the law was and whether 
he was complying with it?

    Answer. It is my understanding that he Secretary's emergency 
certification was consistent with the relevant provisions of the Arms 
Export Control Act. The justification transmitted to Congress as part 
of the certification applied to each of the 22 cases.

    Question. Did the office of the Legal Advisor produce a written 
legal analysis, determination, and/or recommendation that the Secretary 
actually had the authority to invoke an emergency for these sales?

    Answer. I cannot speak to deliberative, pre-decisional 
communications that may be subject to Executive Branch confidentiality 
interests. However, as a general matter, the Department's practice for 
every Congressionally notified Foreign Military Sale or Export License 
package is for the Bureau of Political-Military Affairs to consult with 
the Office of the Legal Adviser prior to notifying Congress.

    Question. If so, what was the date of that legal analysis, 
determination and/or recommendation?

    Answer. As a general matter, the Department's practice for every 
Congressionally notified Foreign Military Sale or Export License 
package is for the Bureau of Political-Military Affairs to consult with 
the Office of the Legal Adviser prior to notifying Congress.

    Question. Will State Department provide a copy of that written or 
any related legal analysis, determination and/or recommendation to the 
committee? If not, what legal privilege is State claiming to exercise 
that prevents it, or enables it, from providing such written legal 
analysis, determination and/or recommendation to the committee?

    Answer. I cannot speak to deliberative, pre-decisional 
communications that may be subject to Executive Branch confidentiality 
interests.

    Question. Can you explain why the Secretary invoked an emergency on 
Friday, May 24--the Friday before a weeklong Memorial Day recess? Why 
not one day prior? Why not three days prior, when the Secretary had 
briefed the Senate on the Iran threat?

    Answer. I was not involved in the internal decision-making process 
leading up to the May 24 emergency certification.

    Question. PM Assistant Secretary Cooper's written testimony also 
claims that the emergency certification was also intended to preserve, 
quote, ``strategic advantage against near-peer competitors.'' Is this 
the new standard for the State Department for congressional oversight, 
that it cannot be tolerated if it in any way undermines this 
``strategic advantage''?

    Answer. The United States is the partner of choice for Saudi 
Arabia, the UAE, and other Gulf states. The State Department seeks to 
ensure perceived U.S. unreliability does not translate into partner 
preference for near-peer competitors such as Russia and China.

    Question. Does the Secretary now want to sell anything to any 
dictator for a strategic business advantage?

    Answer. The Department assesses all arms transfers consistent with 
applicable law and policy, including the Conventional Arms Transfer 
Policy.

    Question. In pushing through these sales and circumventing 
Congress, doesn't it send a dangerous message to authoritarian regimes 
and autocrats everywhere that legislative oversight doesn't matter to 
Secretary Pompeo, the State Department, and the Trump administration, 
as when it is inconvenient, the administration will just ignore it and 
declare an ``emergency''?

    Answer. I understand that the Department provided a detailed 
justification for the determination on May 24 consistent with section 
36 of the Arms Export Control Act. The Department assesses all arms 
transfers consistent with applicable law and policy, including the 
Conventional Arms Transfer Policy.

    Question. Section 36(c)(2) of the Arms Export Control Act arguably 
does not give the President or the Secretary the authority to declare 
an emergency for commercial sales for countries that are not members of 
NATO and are not Israel, Australia, South Korea, Japan or New Zealand.

   What is State's legal basis for why the Secretary can use authority 
        not explicitly present in the statute?

    Answer. The Secretary's certification met the requirements in this 
provision in light of the opening paragraph of section 36(c)(2), which 
is the key provision addressing the implications of an emergency 
certification.

    Question. Would U.S. companies issued export licenses that are not 
legal under U.S. law be legally liable for violating U.S. export laws?

    Answer. U.S. companies are entitled to rely on the terms of export 
licenses issued to them.

    Question. The law is very clear that the President has to provide 
individual justifications for each arms sale that is the subject of an 
invocation of an emergency determination. Yet, the Secretary only 
provided one, overarching boilerplate justification of the history of 
Iran's malign activities, for all 22 separate sales, as disparate as 
they are.

   Does this in State's opinion comply with the AECA requirement to 
        submit individual justifications for each sale? Why?

    Answer. The Secretary's emergency certification was consistent with 
the relevant provisions of the Arms Export Control Act. The 
justification transmitted to Congress as part of the certification 
applied to each of the 22 cases.

    Question. Is the Department investigating allegations that the UAE 
transferred MRAP vehicles to others in Yemen without U.S. permission?

    Answer. Yes. The Department is investigating the allegations that 
the UAE transferred MRAP vehicles to entities in Yemen without U.S. 
permission.

    Question. Approximately when did this investigation begin? Was it 
before the Secretary's May 24th declaration of an emergency?

    Answer. The State Department began investigating equipment 
transfers shortly after media allegations surfaced in February 2019.

    Question. Why did the Secretary think it was a good idea to bypass 
the 30-day Congressional review period and expedite the process of 
getting these arms to UAE, some of which they could also retransfer 
without permission? Does he not care if U.S. arms are illicitly 
transferred or misused? Or does he care, but just not enough to slow 
down the process, as required by statute, for Congressional review?

    Answer. The Secretary extended the informal review period that 
precedes formal notification by weeks, even months, to accommodate 
fulsome Congressional review of the pending cases. When the situation 
in the Gulf became dramatically worse, the Secretary acted in a manner 
that was fully respectful of statute, consistent with the law, and was 
acutely mindful of the concerns you outline.

    Question. Provide a detailed individual justification as to how the 
marketing, sale, and on-going support of ScanEagle and Integrator 
Unmanned Aerial Systems and support for future Intelligence, 
Surveillance, and Reconnaissance (ISR) requirements for the UAE Armed 
Forces will enable the UAE to counter a specific physical military 
threat or actual military attack from Iran, and please include a 
description of the specific physical military threat.

    Answer. The ScanEagle and Integrator platforms are unarmed Unmanned 
Aerial Systems (UAS), which provide the UAE armed forces with a key 
Intelligence, Surveillance, and Reconnaissance (ISR) capability. The 
provision of this equipment will help ensure the UAE has the means to 
defend itself and deter the growing threat posed by Iran's malign 
activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale of RQ-21A Blackjack UAVs for intelligence, surveillance and 
reconnaissance to the UAE will enable the UAE to counter a specific 
physical military threat or actual military attack from Iran, and 
please include a description of the specific physical military threat.

    Answer. The RQ-21 Blackjack UAS will provide the UAE armed forces 
with an advanced ISR capability. The provision of this equipment will 
help ensure the UAE has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale of Aircraft Follow On Logistics and Support Services for the Saudi 
Air Force, including repair and spare parts, will enable Saudi Arabia 
to counter a specific physical military threat or actual military 
attack from Iran, and please include a description of the specific 
physical military threat.

    Answer. Saudi Arabia's fleet of F-15 fighters and other U.S.-origin 
aircraft are highly important assets in ensuring Saudi Arabia maintains 
air superiority over Saudi territory. Without U.S. sustainment 
services, logistical services, and spare and repair parts, mission 
readiness rates for the Royal Saudi Air Force would decline. The 
provision of these services and equipment will help ensure Saudi Arabia 
has the means to defend itself and deter the growing threat posed by 
Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale of USMC Training for UAE Presidential Guard in unit operations 
such as operating the Javelin Anti-Tank Weapon System; plan, conduct 
and supervise individuals in Rappelling and Fast Roping from a static 
structure; Special Operations Basic Course and in operation of Special 
Forces Weapon Systems used within the Presidential Guard, will enable 
the UAE to counter a specific physical military threat or actual 
military attack from Iran, and please include a description of the 
specific physical military threat.

    Answer. The Presidential Guard provides an important ground and 
special operations warfighting capability for the UAE, similar to the 
role of the Marine Corps within the U.S. military. Continuing the U.S. 
Marine Corps Training Mission with the UAE Presidential Guard builds 
the capacity and professionalism of one of the UAE's premier fighting 
forces. The provision of this training will help ensure the UAE has the 
means to defend itself and deter the growing threat posed by Iran's 
malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
continuance of spare and repair parts and contractor support for the 
Tactical Air Surveillance Support System in Saudi Arabia will enable 
Saudi Arabia to counter a specific physical military threat or actual 
military attack from Iran, and please include a description of the 
specific physical military threat.

    Answer. The Tactical Air Surveillance System aircraft provides the 
Saudi armed forces with a key ISR capability. The provision of this 
equipment will help ensure Saudi Arabia has the means to defend itself 
and deter the growing threat posed by Iran's malign activities in the 
region.

    Question. Provide a detailed individual justification as to how the 
sale of Aircraft Follow Logistics On and Support Services Services for 
the Saudi Air Force, including repair and spare parts, will enable 
Saudi Arabia to counter a specific physical military threat or actual 
military attack from Iran, and please include a description of the 
specific physical military threat.

    Answer. Saudi Arabia's fleet of F-15 fighters and other U.S.-origin 
aircraft are highly important assets in ensuring Saudi Arabia maintains 
air superiority over Saudi territory. Without U.S. sustainment 
services, logistical services, and spare and repair parts, mission 
readiness rates for the Royal Saudi Air Force would decline. The 
provision of these service and equipment will help ensure Saudi Arabia 
has the means to defend itself and deter the growing threat posed by 
Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale Advanced Precision Kill Weapons System rockets to the UAE will 
enable the UAE to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. The Advanced Precision Kill Weapons System is a laser 
guidance system for 2.75 inch rockets. The UAE has requested this 
capability to fill a legitimate precision ground attack capability 
requirement and the provision of this equipment will help ensure the 
UAE has the means to defend itself and deter the growing threat posed 
by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale of Javelin anti-armor Guided Missiles to the UAE will enable the 
UAE to counter a specific physical military threat or actual military 
attack from Iran, and include a description of the specific physical 
military threat.

    Answer. Anti-Tank Guided Missiles such as Javelin are a key 
component in conventional ground operations against an adversary 
operating tanks or other armored vehicles. The provision of this 
equipment will help ensure the UAE has the means to defend itself and 
deter the growing threat posed by Iran's malign activities in the 
region.

    Question. Provide a detailed individual justification as to how the 
sale Additional equipment for AH-64E Apaches, including 1 new 
helicopter, to the UAE will enable the UAE to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. AH-64E Apache attack helicopters provide an important 
defense capability to the UAE armed forces, which already operate 
Apache helicopters. The provision of this equipment will help ensure 
the UAE has the means to defend itself and deter the growing threat 
posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how: 
(A) the authorization of coproduction and manufacture in Saudi Arabia 
of Paveway Pre-Amp Circuit Card Assemblies (CCA), Guidance Electronics 
Assembly (GEA) CCAs, and Control Actuator System (CAS) CCAs for all 
Paveway variants; (B) the authorization of coproduction and manufacture 
in Saudi Arabia of Paveway II Guidance Electronics Detector Assemblies 
(GEDA) and Computer Control Groups (CCG); and (C) the transfer of up to 
64,603 additional kits, partial kits, and full-up-rounds will enable 
Saudi Arabia to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. Precision-Guided Munitions such as Paveway provide an 
important air force capability. The provision of this equipment will 
help ensure Saudi Arabia has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale of Integration, installation, operation, training, testing, 
maintenance, and repair of the Maverick AGM-65 Weapons System and the 
Paveway II, Paveway III, Enhanced Paveway II, and Enhanced Paveway III 
Weapons Systems to the UAE will enable the UAE to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. Precision-Guided Munitions such as Paveway provide an 
important air force capability. The provision of this equipment will 
help ensure the UAE has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
sale of installation, integration, modification, maintenance, and 
repair services for F110-GE- 132 gas turbine engines for use in F-16 
Aircraft for use by the UAE in the amount of $50,000,000 or more will 
enable the UAE to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. Continued support for the UAE's F-16s, including F-110 
Engine services, contributes to the UAE's ability to maintain air 
superiority over its territory and deter Iranian attacks. The provision 
of this equipment will help ensure the UAE has the means to defend 
itself and deter the growing threat posed by Iran's malign activities 
in the region.

    Question. Provide a detailed individual justification as to how the 
sale of Manufacture, production, test, inspection, modification, 
enhancement, rework, and repair of F/A-18E/F and derivative series 
aircraft panels to Saudi Arabia will enable Saudi Arabia to counter a 
specific physical military threat or actual military attack from Iran, 
and include a description of the specific physical military threat.

    Answer. Delays to this case impacted F/A-18 aircraft manufacture 
for the U.S. Navy and other international partners. Advancing this sale 
is an act of strategic reassurance, demonstrating U.S. support during a 
crisis, in keeping with our regional partnerships and desire to remain 
the security partner of choice.

    Question. Provide a detailed individual justification as to how the 
sale of assistance to Saudi Arabia's Ministry of Defense Transformation 
Project will enable Saudi Arabia to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. It is important for U.S. national interests that we support 
the modernization and professionalization of the Saudi ministry of 
defense and armed forces. The provision of this training will help 
ensure Saudi Arabia has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
authorization for a technical assistance agreement with the UAE to 
support the preparation, shipment, delivery, and acceptance of the 
Guidance Enhanced Missiles (GEM-T) (Patriot) will enable the UAE to 
counter a specific physical military threat or actual military attack 
from Iran, and include a description of the specific physical military 
threat.

    Answer. Air defense is critical for the UAE in the face of regional 
threats. The provision of this equipment will help ensure the UAE has 
the means to defend itself and deter the growing threat posed by Iran's 
malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
transfer of technical data and defense services in order to provide 
technically qualified personnel to advise and assist the Royal Saudi 
Air Force (RSAF) in maintenance and training for the RSAF F-15 fleet of 
aircraft will enable Saudi Arabia to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. Saudi Arabia's fleet of F-15 fighters and other U.S.-origin 
aircraft are highly important assets for Saudi Arabia. Without U.S. 
sustainment services, logistical services, and spare and repair parts, 
mission readiness rates for the Royal Saudi Air Force would decline. 
The provision of these services and equipment will help ensure Saudi 
Arabia has the means to defend itself and deter the growing threat 
posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
authorization to retransfer of 500 Paveway II laser guided bombs to 
Jordan will enable Jordan to counter a specific physical military 
threat or actual military attack from Iran, and include a description 
of the specific physical military threat.

    Answer. Precision-Guided Munitions such as Paveway provide an 
important air force capability. The provision of this equipment will 
help ensure Jordan has the means to defend itself and deter the growing 
threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
export of 15,000 120mm M933Al 120mm mortar bombs to the Saudi Arabian 
Royal Land Forces will enable Saudi Arabia to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. Artillery capabilities, such as 120mm mortar shells, are an 
important defense requirement for all ground forces preparing for 
conventional combat operations. The provision of this equipment will 
help ensure Saudi Arabia has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
export of 100 M107Al, .50 caliber semi-automatic rifles and 100 sound 
suppressors to the UAE for end use by the General Headquarters, UAE 
Armed forces will enable the UAE to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. Small arms capabilities, such as .50 caliber rifles, are an 
important defense requirement for all ground forces preparing for 
conventional combat operations. The provision of this equipment will 
help ensure the UAE has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
export of defense articles, including data and defense services, to 
support the performance of maintenance and repair services of F-110 
engines for the Kingdom of Saudi Arabia Ministry of Defense will enable 
the Saudi Arabia to counter a specific physical military threat or 
actual military attack from Iran, and include a description of the 
specific physical military threat.

    Answer. Saudi Arabia's fleet of F-15 fighters and other U.S.-origin 
aircraft are highly important assets in ensuring Saudi Arabia maintains 
air superiority over Saudi territory. Continued support for the Saudi 
aircraft, including F-110 engine services, is essential to these 
objectives. The provision of these services and equipment will help 
ensure Saudi Arabia has the means to defend itself and deter the 
growing threat posed by Iran's malign activities in the region.

    Question. Provide a detailed individual justification as to how the 
transfer of defense articles, defense services, and technical data to 
support the integration of the FMU-152A/B Joint Programmable Bomb Fuze 
system into the UAE Armed Forces General Headquarters' fleet of 
aircraft and associated weapons will enable the UAE to counter a 
specific physical military threat or actual military attack from Iran, 
and include a description of the specific physical military threat.

    Answer. Precision-Guided Munitions (PGM) provide an important air 
force capability. FMU-152 fuzes are a critical component of the UAE's 
PGM stockpile. The provision of this equipment will help ensure the UAE 
has the means to defend itself and deter the growing threat posed by 
Iran's malign activities in the region.

    Question. On August 7, 2019 I sent a letter to the Secretary 
regarding the U.S.-Mexico Joint Declaration (JD) and Supp. Agreement 
(SA). Because I had not received the written responses I had requested, 
I resubmitted the questions as Question for the Record to Deputy 
Secretary John Sullivan. Some of Deputy Secretary Sullivan's responses 
were non-responsive, incomplete or otherwise unacceptable. As such, I 
am resubmitting the following questions and look forward to fulsome, 
accurate and transparent written responses to each question, including 
all sub-parts to each question. I note in particular that Answer 212 
submitted by Deputy Secretary Sullivan, on November 5, 2019, was 
erroneous and unacceptable. Answer 212 indicated that Deputy Secretary 
Sullivan could not respond to questions about the C-175 process 
because, in his view, doing so would implicate internal executive 
branch deliberations. The C-175 process is designed to implement 
statutory requirements under the Case Act. The questions posed above 
are submitted as part of routine congressional oversight in relation to 
the State Department's compliance with the Case Act and pursuant to 
Senate Foreign Relations Committee jurisdiction over treaties and 
international agreements. The mere connection to internal deliberations 
of the executive branch does not serve as a basis to withhold this 
information from the committee, and doing so is inconsistent with 
routine practice and precedent between the Department and the 
committee.

   Please indicate whether the JD alone is binding under international 
        law.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please identify the characteristics of the JD from which 
it can be concluded that both the United States and Mexico regard the 
JD as binding under international law.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please indicate which specific provisions of the JD 
impose binding obligations on either the U.S., Mexico, or both.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please indicate whether the SA alone is binding under 
international law.

    Answer. I have had no involvement with this issue in my capacity as 
Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please identify the characteristics of the SA from which 
it can be concluded that both the United States and Mexico regard the 
SA as binding under international law.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please indicate which specific provisions of the SA 
impose binding obligations on either the U.S., Mexico, or both.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please identify and explain in detail the specific 
factors that the Department analyzed in arriving at the position that 
the JD and SA collectively are binding under international law.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representive for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please provide a detailed explanation, with relevant 
examples, of the legal theory by which the Department believes it is 
possible for a subsequent instrument, such as the SA, to render a 
change in the legal character of a prior instrument that was not itself 
previously considered binding under international law.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Please indicate whether the Department's analysis of the 
binding nature of the JD, SA, and the JD and SA collectively is 
consistent with the practice and precedent of the United States on 
international agreements and arrangements, or if the analysis departs 
from the practice and precedent of the United States in this area. If 
it does differ, please explain the following: how it differs; why the 
executive branch departed from U.S. practice and precedent; whether the 
executive branch's position on the JD, SA, and SA and JD collectively 
is a one-time departure from U.S. practice and precedent, or whether 
the departure represents a shift in executive branch practice; and 
whether the executive branch has made the government of Mexico (GOM) 
aware of any departure in practice and precedent.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. During the course of the negotiations of the JD and SA, 
what was the position of the United States on whether the JD, the SA, 
and the JD and SA collectively were binding under international law?

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Upon finalizing the JD and SA, what was the position of 
the United States on whether the JD, the SA, and the JD and SA 
collectively were binding under international law?

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Acting Legal Adviser String appeared to indicate in his 
July 24 testimony that questions of whether the JD and SA were binding 
under international law were still being considered within the 
executive branch. If the United States did not have a position on the 
question of whether the instruments were binding during the negotiation 
or when the instruments were finalized, please explain why that would 
be the case.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Did the position of the United States on whether the 
instruments were binding change from the outset of the negotiations to 
the date the instruments were finalized or at any point between the 
date the instruments were finalized to the July 29 communication from 
the Department to SFRC staff. If yes, please explain the substance of 
the change(s)--i.e. from what to what--and the reason(s).

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. When was the position that the JD and SA collectively 
constitute a binding agreement under international law conveyed to the 
GOM?

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. What is the Department's understanding of the position of 
the GOM on the following:

   Whether the JD is binding for purposes of international law,
   Whether the SA is binding for purposes of international law, and
   Whether the JD and SA collectively are binding for purposes of 
        international law.
   [Please note that the preceding questions are not a request for the 
        Department to speak on behalf of the GOM; rather we are 
        interested in the Department's understanding of the GOM's 
        position.]

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. If the GOM does not share (and never has shared) the 
executive branch position that the JD and SA collectively are binding 
under international law, would that change the executive branch 
position that the JD and SA collectively are binding? If no, please 
explain.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. If the GOM does not share (and never has shared) the 
executive branch position that the JD and SA collectively are binding 
under international law, could the GOM be bound by any provision of 
such instruments? If yes, please explain.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. Prior to the JD and SA, had the United States concluded 
any international instrument related to immigration or migration and 
asserted ``the President's constitutional authority for the conduct of 
foreign relations'' or any other constitutional authority of the 
President as the sole domestic legal basis for the instrument(s)?

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.

    Question. If yes, please provide a list of each instrument that 
meets these criteria, the date it was concluded, and a statement of the 
specific constitutional provisions that provide the asserted authority.

    Answer. I have had no involvement with these issues in my capacity 
as Special Representative for North Korea and am not in a position to 
provide any additional information on these questions.
    I understand that administration officials have previously briefed 
the Foreign Relations Committee staff on issues related to the Joint 
Declaration and Supplementary Agreement. If confirmed, I commit to 
supporting future briefings on this important topic, as appropriate.



                               __________

            Responses to Additional Questions for the Record
          Submitted to Stephen E. Biegun by Senator Todd Young

    Question. Have you adhered to applicable laws and governing 
conflicts of interest?

    Answer. Yes.

    Question. Have you assumed any duties or any actions that would 
appear to presume the outcome of this confirmation process?

    Answer. No.

    Question. Exercising this committee's legislative and oversight 
responsibility makes it important we receive testimony, briefings, 
reports, and recordings, records and other information from the 
executive branch on a timely basis. Do you agree, if confirmed, to 
appear and testify before this committee when requested by the Chairman 
and the Ranking Member?

    Answer. If confirmed, I commit to appear before this committee upon 
request, with the understanding that any such appearance would be 
conducted in accordance with long-standing Department and Executive 
Branch practice.

    Question. Do you agree to provide documents, and electronic 
communications in a timely manner when requested by this committee, its 
subcommittees, and other appropriate committees of Congress and to the 
requester?

    Answer. Yes, with the understanding that any such effort would be 
organized through the Department of State's Bureau of Legislative 
Affairs and Office of the Legal Adviser and conducted in accordance 
with long-standing Department and Executive Branch practice.

    Question. Will you ensure that you and your staff complies with 
deadlines established by this committee for the production of reports, 
records, and other documents, including responding timely to hearing 
questions for record?

    Answer. Yes, with the understanding that any such effort would be 
organized through the Department of State's Bureau of Legislative 
Affairs and Office of the Legal Adviser and conducted in accordance 
with long-standing Department and Executive Branch practice.

    Question. Will you cooperate in providing witnesses and briefers in 
response to congressional requests?

    Answer. If confirmed, I commit to appear before this committee upon 
request, with the understanding that any such appearance would be 
conducted in accordance with long-standing Department and Executive 
Branch practice.

    Question. And finally, will those briefers be protected from 
reprisal for their briefings?

    Answer. If confirmed, I will maintain a policy of zero tolerance 
for any retaliation, blacklisting, or other prohibited personnel 
practices.

                               __________


      Responses to Additional Questions for the Record Submitted 
           to Stephen E, Biegun by Senator Benjamin L. Cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has long been 
personally important to me and a priority in my career. After the fall 
of the Soviet Union, I spent two years in Russia on a grant from the 
National Endowment for Democracy working with the Russian government 
and civil society to develop and implement a program of technical 
assistance in support of democracy building activities, development of 
electoral processes, and political expert exchange programs. As a 
Senate Foreign Relations Committee staff member, I advocated for, and 
the Senate approved, the expansion of NATO to former Warsaw Pact 
countries that today are strong democracies that advocate for human 
rights. For many years, I also served on the board of Freedom House in 
support of its efforts to expand freedom and democracy around the 
world. In my current capacity as Special Representative for North 
Korea, we are seeking-along with the complete elimination of North 
Korea's weapons of mass destruction and ballistic missile programs--a 
fundamental transformation of the relationship between the United 
States and North Korea that, if realized, would allow us to directly 
address broader areas of concern, including the human rights abuses and 
violations in North Korea. If confirmed, I will continue to enhance our 
diplomatic efforts to advance the promotion of human rights and 
democracy and defend democratic institutions against efforts to 
undermine them, including by working with civil society and non-state 
partners.

    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the State Department?

    Answer. If confirmed, I will work with the appropriate teams to 
review the Department's human resources policies and programs to ensure 
fair and transparent practices and equal access for all of our 
employees. This includes reviewing career development programs and 
promotion and advancement opportunities. I will work with my team to 
determine where and how we can mitigate unconscious biases and provide 
access to training that will support these efforts. I will also meet 
with employees to discuss perceptions, explore where improvements are 
needed, and work to correct any weaknesses or gaps. I am committed to a 
diverse and inclusive workforce. The Department, without question, must 
be a leader in promoting diversity and inclusion.

    Question. What steps will you take to ensure each of the 
supervisors in the State Department are fostering an environment that 
is diverse and inclusive?

    Answer. If confirmed, I will support and advance the work of the 
Under Secretary for Management and the Director General in providing 
managers with tools and services to foster an inclusive work 
environment. This includes offering training on mitigating unconscious 
bias and further integrating diversity and inclusion into training and 
development for all employees, particularly supervisors, to ensure they 
are aware of their roles and responsibilities to support inclusion in 
the workplace. I am committed to a diverse and inclusive workforce to 
strengthen the best diplomatic service in the world.

    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. While I currently 
hold financial interests in the Ford Motor Company, which has interests 
in various foreign countries, I have committed to divesting these 
interests if I am confirmed. I am committed to ensuring that my 
official actions will not give rise to a conflict of interest. I will 
divest any investments the State Department Ethics Office deems 
necessary to avoid a conflict of interest. I will remain vigilant with 
regard to my ethics obligations.

    Question. Will you commit to maintaining an open line of 
communication and provide information to myself and to the U.S. 
Congress when requested?

    Answer. If confirmed, I commit to appear before this committee upon 
request, with the understanding that any such appearance would be 
conducted in accordance with long-standing Department and Executive 
Branch practice.

    Question. Despite earlier statements by Secretary Pompeo, I'm not 
convinced that Iran's alleged support to al-Qa'ida--a group whose 
takfiri Sunni doctrine is completely at odds with Iran's revolutionary 
Shiism--makes military action against Iran authorized under the 2002 
AUMF. Furthermore, the network of Iran's proxy forces throughout the 
Middle East and beyond suggests that any strikes against the regime 
would be met by disproportionate attacks on U.S. interests worldwide. I 
and a bicameral, bipartisan group of 27 other legislators highlighted 
the need earlier this year for the National Defense Authorization Act 
to include a prohibition against unconstitutional war with Iran. 
Section 1229 of the draft 2020 NDAA reiterates the need for the 
President to seek congressional authorization ``before engaging in war 
with Iran,'' and clarifies that ``Nothing in the [2002 AUMF] may be 
construed to provide authorization for the use of military force 
against Iran.'' What might be the international legal ramifications if 
the United States were to undertake retaliatory, preventive, or 
preemptive strikes against Iran without a U.N. Security Council 
mandate?

    Answer. As Secretary Pompeo has noted, the administration's goal is 
to find a diplomatic solution to Iran's activities, not to engage in 
conflict with Iran. The Department of State has great respect for 
Congress's role in authorizing the use of military force. The 
administration has not, to date, interpreted either the 2001 or 2002 
Authorization for Use of Military Force as authorizing military force 
against Iran, except as may be necessary to defend U.S. or partner 
forces engaged in counterterrorism operations or operations to 
establish a stable, democratic Iraq.

    Question. Will you counsel the Secretary of State and members of 
the National Security Council on their legal obligations according to 
constitutional separation of powers when considering any military 
operations targeting Iran?

    Answer. I am committed to following the Constitution and all 
applicable law regarding the use of force. As Secretary Pompeo has 
noted, the administration's goal is to find a diplomatic solution to 
Iran's activities, not to engage in conflict. The Department of State 
has great respect for Congress' role in authorizing the use of military 
force. The administration has not, to date, interpreted either the 2001 
or 2002 Authorization for Use of Military Force as authorizing military 
force against Iran, except as may be necessary to defend U.S. or 
partner forces engaged in counterterrorism operations or operations to 
establish a stable, democratic Iraq.

    Question. Given your prior work on NATO expansion as staff of this 
committee and other relevant experience, do you believe that the U.S 
should work to keep Turkey in the NATO alliance?

    Answer. NATO is stronger with Turkey as a member. We have many 
challenging issues with Turkey at present, but Turkey's status as a 
NATO Ally is not--and should not be--subject to review within the 
Alliance. One of Russia's key strategic goals is to drive a wedge 
between NATO Allies; we need to do everything we can to maintain strong 
cooperation within the Alliance. Turkey is strategically located on 
NATO's periphery, controlling transit into the Black Sea. Turkey hosts 
a U.S. radar system critical for NATO's ballistic missile defense 
mission and the protection of U.S. troops in Europe and the Middle 
East. This system, and the other Allied materiel hosted in Turkey, are 
critical to the Alliance's military readiness.Question:How important is 
U.S. support to Turkey's external defense and internal stability, and 
to what extent does that support serve U.S. interests?

    Answer. Turkey faces security threats ranging from domestic 
terrorism to cross-border attacks from entities in Syria. Our 
counterterrorism support to the Turkish government is crucial for 
preventing and interdicting violent extremist threats. Turkey's 
neighbors include Iran and Russia, from which the NATO Alliance faces 
significant threat of attack.Our military and defense support to 
Turkey, whose strategic location is on NATO's periphery, enables the 
protection of U.S. troops in Europe and the Middle East. U.S. and NATO 
support for Turkey--and for any other Ally--showcases our commitment to 
European security in the face of Russian attempts to fracture the 
Alliance.Question:If confirmed, how would the Department of State under 
your leadership hold Turkey and its proxy forces in northern Syria to 
account for gross violations of human rights carried out during the 
October incursion--including under the authority of Syrian War Crimes 
Accountability Act--after Trump hastily pulled U.S. troops from the 
region?

    Answer. Our actions in Syria are driven by our core objectives: the 
enduring defeat of ISIS and al-Qa'ida; a political solution to the 
Syrian conflict in line with United Nations Security Council Resolution 
2254; and encouraging the removal of all Iranian-backed forces from 
Syria. Turkey has a role to play there. The administration is deeply 
troubled by reports suggesting Turkish-supported opposition groups 
targeted civilians following Turkey's October 9, 2019 incursion. We 
have urged Turkey to investigate reports and hold those responsible to 
account. If confirmed, I will uphold U.S. commitment to promote 
accountability and remain prepared to re-impose sanctions if Turkey 
acts inconsistently with commitments in the October 17 joint 
statement.Question:We have heard that Turkey's relationship with Russia 
is ``transactional,'' but the relationship between these two countries 
has certainly become closer in recent years. What would be the national 
security and geopolitical implications if these relations continue to 
improve?

    Answer. Deepening Turkish relations with Russia--including but not 
limited to the additional acquisition of Russian arms--would damage 
NATO interoperability, further challenge Alliance consensus-building, 
and undermine our overall efforts to keep Turkey aligned to the Euro-
Atlantic community. The United States is unwinding Turkey from the F-35 
program following its receipt of the Russia-made S-400 system to 
protect the platform's sensitive technology. Further limitations on 
U.S. arms sales could push Turkey toward Russia and other alternate 
suppliers.

    Question. Does the administration intend on imposing CAATSA 
sanctions against Turkey for its purchase of Russian S400s? What is the 
status of administration discussions with Turkey regarding the 
purchase?

    Answer. I cannot pre-judge a sanctions decision prior to a 
determination by the Secretary of State. The Secretary has made clear 
he is committed to implementing CAATSA as required by law. The 
administration is not, however, waiting for the outcome of CAATSA 
deliberations to take strong action. The decision to unwind Turkey from 
the F-35 program makes clear how seriously the U.S. takes this issue. 
As President Trump told President Erdogan during his visit, resolving 
the S 400 issue is vital to achieve progress on other elements of the 
bilateral relationship.

    Question. After the cancellation of peace negotiations by President 
Trump in September--Trump said at the time the talks were ``dead''--an 
October 17 United Nations report stated that Afghan civilians were 
being killed in record numbers, with 2,563 civilians killed and 5,676 
wounded in the first nine months of 2019. ISIS and Taliban insurgents, 
the report further claimed, were responsible for 62 percent of these 
casualties. A suspected militant attack on a mosque in eastern 
Afghanistan the day after the report's release killed over 60 
worshipers attending Friday prayers. If confirmed, what steps would you 
implement as Deputy Secretary to pursue talks leading to a peace 
settlement in Afghanistan?

    Answer. The U.S. policy is to pursue an end to the war in 
Afghanistan through a negotiated settlement that ensures terrorists can 
never again use Afghan soil to threaten the United States or its allies 
and protects the gains that Afghans have made in the past 18 years. As 
the President and Secretary Pompeo have observed, the resumption of 
peace talks and the start of intra-Afghan negotiations will require a 
real reduction of violence in Afghanistan. I will support the 
Department's efforts, led by Special Representative for Afghanistan 
Reconciliation Ambassador Zalmay Khalilzad, to work with all parties to 
create an environment that is conducive to the resumption of talks and 
the start of intra Afghan negotiations.

    Question. President Ashraf Ghani continues to assert a role for the 
government of Afghanistan in peace negotiations, securing the Taliban's 
release of two western hostages--including an American citizen--in 
exchange for three senior members of the Haqqani Network. U.S. 
Ambassador to Kabul John Bass called Ghani's decision to pursue the 
exchange ``the latest in a series of courageous steps.to respond to the 
overwhelming desire for peace among Afghans.'' The results of 
Afghanistan's September presidential election, meanwhile, are still 
unknown; the release of results has been delayed twice due to 
unspecified technical issues. What role do you envision for the 
government of President Ashraf Ghani in the resumption of peace 
negotiations?

    Answer. A durable political settlement to the conflict is only 
possible through negotiations that would include the Afghan government, 
the Taliban, and other key stakeholders, including women's groups and 
other civil society leaders. Prior to their suspension, U.S. talks with 
the Taliban had secured a commitment to begin these intra-Afghan 
negotiations, and it is important that the Afghan government be 
prepared should intra-Afghan negotiations restart soon. I believe it is 
vital for President Ghani and other Afghan leaders to move ahead 
immediately on forming an inclusive, national team that can effectively 
engage in intra-Afghan negotiations.

    Question. How should the U.S. government ensure that no momentum is 
lost if election results show that Ghani was not re-elected?

    Answer. The outcome of any election would not change the reality 
that a durable political settlement in Afghanistan requires intra-
Afghan dialogue and negotiations that include the Afghan government, 
the Taliban, and other Afghan stakeholders. The two leading 
presidential candidates are President Ghani and Chief Executive Dr. 
Abdullah, with both officials deeply involved in peace process decision 
making. Only Afghans can decide how best to govern their own country; 
the United States cannot be a substitute for any party in these talks, 
but we can and should continue to advocate for all parties to 
participate in dialogue and negotiations that could lead to a 
settlement.

    Question. As you note in your testimony, when you were staff on 
this committee, you oversaw expansion of NATO after the end of the Cold 
War. President Trump's criticisms of NATO, the EU, and some key 
European countries have prompted concerns about the trajectory of 
transatlantic relations. What are your views on the state of the 
transatlantic alliance?

    Answer. NATO remains the cornerstone of transatlantic security and 
our NATO Allies are our partners of first resort. NATO provides a forum 
for Allies to have frank discussions, work through disagreements, and 
come to consensus about the threats we face and the best ways to 
address them together. Allies have responded to Europe's changed 
security environment by enhancing NATO's deterrence and defense 
posture. Allies work together daily to counter disinformation and other 
hybrid threats. Allies acknowledge the need to improve burden sharing 
and meet NATO defense spending commitments and have increased spending 
for five consecutive years. If confirmed, I will continue to engage our 
European Allies on these issues as well as how we can address global 
security concerns.

    Question. How do you respond to European concerns that U.S. 
decisions such as withdrawing from the Iran nuclear deal and the Paris 
climate agreement, or pulling out U.S. troops in Syria fighting the 
Islamic State terrorist organization, undermine U.S. credibility as a 
reliable partner?

    Answer. Europe and NATO remain America's closest and most capable 
partners and Allies. We are united by enduring values and shared 
interests. The United States and Europe agree on far more than we 
disagree, and the fundamentals of our relationship remain strong. While 
there are occasional disagreements about how we approach these issues, 
the United States recognizes that we have no better partners in the 
world than our European Allies and we want to work with European 
countries to narrow our differences, expand our areas of agreement, and 
advance shared goals.

    Question. As you note in your testimony, you worked on democracy-
building programming in Russia on a grant from the National Endowment 
for Democracy. What is the state of democracy in Russia?

    Answer. The most pressing challenges to democratic development in 
Russia include impunity for gross violations of human rights, such as 
extrajudicial killings and torture; rampant corruption and weak rule of 
law; the lack of authentic political competition; violence and 
discrimination against minorities; and restrictions on civil society, 
religious freedom, public demonstrations, and the press.

    Question. What are your views on how we can better support the 
Russian people in their quest for democracy and human rights?

    Answer. If confirmed, I will engage with Russian authorities and 
members of civil society to urge respect for human rights and good 
governance in Russia. I promise to work with allies and partners to 
call on the Russian government, in both public statements and private 
discussions, to uphold the rule of law and create an independent 
judiciary in order to respect its citizens' rights and treat all 
citizens equally under the law. If confirmed, I will encourage relevant 
officials to engage a broad spectrum of Russian society, including 
human rights activists, civil society, and religious minorities. We 
must respond and defend our democratic processes with equal vigor, and 
I intend to play a leadership role in these efforts.

    Question. Especially since 2014, sanctions have been a central 
element of U.S. policy to counter Russian malign behavior. In your 
view, how effective have sanctions been in response to Russian 
activities? How could they be used more effectively?

    Answer. Our actions have sent a clear message to those who engage 
in malign Russian activity. There is evidence that sanctions have 
indeed imposed a cost on Russia and provide us leverage in our 
diplomatic efforts. Any new Congressional sanctions under consideration 
should continue to provide discretion and be framed with an eye towards 
our critical transatlantic unity on this vital national security issue.

    Question. Why has the administration not used the full range of 
sanctions authorities Congress established in 2017 in the Countering 
America's Adversaries Through Sanctions Act (CAATSA)?

    Answer. We are committed to comprehensive implementation of CAATSA 
and have imposed sanctions under sections 224, 228, and 231. We have 
also used the threat of sanctions as leverage to deter sanctionable 
activity, including through use of CAATSA section 231 to deter or 
disrupt Russian arms transactions worth billions of dollars, and 
Sections 225 and 232 to deter participation in identified areas of 
Russia's energy sector. The United States has sanctioned more than 300 
individuals and entities for their involvement in Russia's malign 
activities since January 2017, including sanctions imposed pursuant to 
CAATSA. If confirmed, I will continue to consider the full range of 
sanctions authorities Congress established under CAATSA.

    Question. White House officials have indicated that the United 
States does not need to make a decision about an extension of the New 
START nuclear arms reduction treaty until next year, as the Treaty does 
not expire until February 2021. Do you support an extension of New 
START?

    Answer. The administration has not yet made a decision about a 
potential extension of the New START Treaty. Central to the U.S. review 
of potential New START extension is whether an extension is in the U.S. 
national interest and how the treaty's expiration would affect U.S., 
allied, and partner security in an evolving security environment.

    Question. Should future strategic arms reductions with Russia be 
considered? If so, should they cover a wider range of weapons and 
countries?

    Answer. The United States remains committed to effective arms 
control that advances U.S., allied, and partner security; is verifiable 
and enforceable; and includes partners that comply responsibly with 
their obligations. The United States stands ready to engage with Russia 
on arms control that meets these criteria. President Trump has charged 
his national security team to think more broadly about arms control, 
both in terms of the countries and the weapon systems involved. 
Bilateral treaties that cover limited types of nuclear weapons or only 
certain ranges of adversary missiles are insufficient to address the 
threat environment America faces today.

    Question. There is a growing body of evidence that shows poor 
governance--marked by high corruption and lack of government 
transparency--is a key driver of fragility and political instability in 
many parts of the world today. Citizens frustrated by government 
corruption, repression, and a loss of dignity and hope are more likely 
to tolerate or support violent extremist groups such as Al Qaeda, ISIS, 
and Boko Haram. Obviously, this jeopardizes both the United States and 
its allies. Last April, I introduced legislation that identifies and 
ranks countries according to their levels of corruption--which has been 
favorably acted upon by the SFRC. I believe that moral leadership is an 
asset. Can you reassure me and the committee that as Deputy Secretary 
of State, you will work with me in regards to the legislation I 
introduced and advocate for strong rules to ensure that our government 
and private sector are operating in a transparent manner that makes it 
more difficult for corrupt leaders to siphon off wealth that should be 
benefiting all citizens of their country?

    Answer. If confirmed, I will work with you and the committee on 
legislation to strengthen our efforts to combat corruption globally. I 
will support the State Department's continued efforts to use all of its 
tools to address corruption, including multilateral and bilateral 
diplomacy, foreign assistance programs to support reforms, build 
capacity of foreign partners, strengthen civil society, and ensure 
robust implementation of anticorruption sanctions and visa restriction 
authorities.

    Question. I have remarked on more than one occasion on the worrying 
trend of democratic backsliding among our NATO allies, most 
significantly in Hungary, Poland, and Turkey. These trends are evident 
in these states' recent moves to consolidate central power over 
academia, the judiciary, and civil society organizations while stifling 
criticism. Which specific tools in the diplomatic arsenal will be most 
effective against these anti-democratic maneuvers and, if confirmed, 
what is your plan and timeline to bring these tools to bear?

    Answer. The State Department's track record of promoting democracy 
and rule of law is important to me and, if confirmed, I intend to use 
the tools at my disposal to continue to press for these core principles 
around the world, including in countries that are our allies and 
friends. The situation in every country is different, but our toolbox 
includes speaking out publicly; speaking frankly in private with 
government officials; engaging with civil society and a broad range of 
political actors; assistance programs to promote democracy and rule of 
law; and sanctions in appropriate cases.

    Question. For three years now, the Trump administration has 
proposed drastic cuts to the State, Foreign Operations, and Related 
Programs (SFOPS) budget. The most recent FY 2020 request ($42.72 
billion in discretionary funds) proposed a 21 percent cut to the FY 
2019 enacted SFOPS funding level. I believe that our foreign affairs 
and foreign assistance budgets are every bit as essential to ensuring 
America's national security as funding for the Department of Defense, 
the Intelligence Community, and law enforcement. What are your views on 
the administration's previous budget proposals?

    Answer. I support the President's priorities to defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer. If 
confirmed, I look forward to continuing discussions with Congress on 
funding for our diplomacy and foreign assistance programs, including 
for FY 2020 and FY 2021. I will make the case to defend the resources 
that the State Department needs.

    Question. How do you view foreign assistance in terms of ensuring 
U.S. national security?

    Answer. I view foreign assistance as an effective tool, when 
deployed correctly and used in concert with diplomacy and other tools 
of statecraft, to advance U.S. national security. I support the use of 
foreign assistance to advance the Department's strategic priorities 
including protecting America's security at home and abroad, renewing 
America's competitive advantage for sustained economic growth and job 
creation, promoting American leadership through balanced engagement, 
and ensuring effectiveness and accountability to the American taxpayer. 
This use of foreign assistance allows us to engage effectively in great 
power competition, support our friends and encourage greater burden 
sharing, and strategically transition recipients of U.S. assistance 
into full partners.

    Question. This Congress I reintroduced the National Security 
Diversity and Inclusion Workforce Act to address the concern that our 
most recent statistics show that African-Americans, Latinos, Asians, 
and other diverse communities only account for 6-25 percent of 
diplomatic, intelligence, military, and other national security 
workforces despite making up close to half of the U.S. current and 
future workforce. And, very few are in senior ranks. This is not only a 
jobs issue for our diverse communities, but also a long-term 
recruitment, strength, strategic security, and diplomatic advantage 
issue for our country. Senator Corker and I passed diversity 
legislation for the State Department last Congress given we see 
diversity as a key strength of our diplomacy. Please let us know how 
you would plan to implement these diversity pipeline, recruiting, 
hiring, promotion, and retention provisions that are now law at all 
levels at State, especially given the ongoing losses of mid and senior 
level personnel at State.

    Answer. I support increasing the diversity of the State Department 
workforce, and if confirmed, I will ensure the Department abides by 
laws related to diversity recruitment. Diversity programs, such as our 
Pickering and Rangel Fellowship programs, provide a pipeline into the 
Foreign Service and typically account for 20-25 percent of the Foreign 
Service Officer intake every year.
    The Department will continue to review workforce demographics to 
identify and correct potential barriers to the advancement of 
underrepresented populations. In addition to tracking metrics of race, 
ethnicity, and gender, I will support the Department's recent 
initiatives to foster a culture of inclusion and respect.

    Question. President Trump has reportedly directed his 
administration to seek a new arms control agreement with Russia and 
China. Administration officials have criticized New START for only 
limiting U.S. and Russian deployed strategic nuclear weapons. I'm glad 
that the president has recently announced that he wants to add Russian 
non-strategic nuclear weapons in a future arms control agreement and 
include China in an arms control discussion. But not at the expense of 
or as a condition for extending New START. What is the administration's 
strategy for achieving more comprehensive arms control deals with 
Russia and China?

    Answer. As detailed in the 2018 Nuclear Posture Review, Russia and 
China are investing in a broad range of nuclear capabilities, including 
nonstrategic nuclear weapons and dangerous and destabilizing new 
strategic weapons, to hold the United States and our allies at risk. 
China is also on track to at least double the size of its nuclear 
arsenal over the next decade. Our arms control policies should be 
responsive to the threats we face. We seek to reestablish the 
conditions necessary for greater trust with the Russian Federation and 
improved transparency with China.

    Question. As far as you know, have negotiations begun? What is the 
administration doing to motivate negotiations between the potential 
parties to such an agreement?

    Answer. Potential trilateral arms control negotiations have not yet 
begun. The United States has sought a meaningful dialogue with China on 
our respective nuclear policies, doctrine, and capabilities in pursuit 
of a peaceful security environment and stable relations. State 
Department officials regularly meet with Russian officials bilaterally 
and multilaterally to discuss matters relating to strategic stability. 
We will continue these discussions as appropriate in the interest of 
U.S. national security.

    Question. Would China, which has only about 300 total nuclear 
warheads compared to the roughly 6,200 total warheads possessed by the 
United States and 6,500 possessed by Russia, be allowed to build up to 
the much higher New START levels were it to join the treaty? Or would 
the United States and Russia be required to reduce their forces to 
China's level?

    Answer. In any future trilateral agreement, specifics regarding 
which weapon systems would be limited and how they would be limited are 
key questions that would have to be agreed upon by all parties should 
negotiations begin.

    Question. What is the administration willing to put on the table in 
talks with Russia and China on more comprehensive agreements?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapon systems involved. As negotiations have not begun, it is 
premature to speculate on the content and direction such discussions 
might take.

    Question. Wouldn't extending New START by five years buy additional 
time to develop U.S. negotiating positions, address issues of mutual 
concern that impact strategic stability, and avoid new risks from an 
unconstrained and less transparent U.S.-Russian nuclear relationship?

    Answer. The administration has not yet made a decision about a 
potential extension of the New START Treaty, which does not expire 
until February 2021. Our arms control policies and agreements should be 
responsive to the threats we face. It is important to negotiate a new 
trilateral arms control agreement that will constrain both Russia and 
China. This will help prevent a dangerous arms race for far longer than 
merely the few more years in which New START would exist, even if it 
were extended. Whether we can negotiate such a new agreement depends on 
the willingness of Russia and China to engage constructively with us to 
deliver better security for the world, as called for by President 
Trump.

    Question. As special representative for North Korea, you are tasked 
to lead efforts to negotiate a ``final, fully verified denuclearization 
of North Korea.'' It appears that these negotiations have stalled. What 
are the statuses of negotiations and how has your strategy vis-a-vis 
engagement with North Korea changed since you were appointed last 
August?

    Answer. President Trump remains committed to making progress toward 
the Singapore Summit commitments of transformed relations, building 
lasting peace, and complete denuclearization. Since assuming the duties 
of Special Representative for North Korea, I have worked closely on 
this effort with our allies--including the Republic of Korea, Japan, 
Australia, and NATO Allies--and others around the world, including 
China, Russia, and members of the U.N. Security Council, the EU, and 
the Association of Southeast Asian Nations (ASEAN). We have not seen 
concrete evidence that North Korea has made the choice to de-
nuclearize, but we still believe that Pyongyang can make this choice. 
If confirmed, I will continue to U.S. efforts to make progress on the 
commitments President Trump and Chairman Kim Jong Un made in Singapore. 
Our goal with North Korea is final, fully verified denuclearization, 
and we remain fully committed to that outcome.

    Question. It has been nearly six months since demonstrators in Hong 
Kong first took to the streets advocating for repealing the extradition 
legislation, dropping all charges against arrested protestors, 
retracting the proclamation of protests as ``riots,'' establishing an 
independent investigation into police brutality, and implementing the 
election of Chief Executive and all Legco members by universal 
suffrage. In June, Senator Rubio and I re-introduced our Hong Kong 
Human Rights and Democracy Act, which reaffirms U.S. commitment to Hong 
Kong's autonomy from China as well as towards its civil society. This 
legislation was sent to the White House for signature on November 20. 
Does the State Department support passage of the Hong Kong Human Rights 
and Democracy Act?

    Answer. I share Congressional concerns about efforts by Beijing to 
erode the autonomy that underpins U.S. special treatment of Hong Kong. 
I look forward to working with the relevant departments and agencies to 
fully implement the Hong Kong Human Rights and Democracy Act.

    Question. What would be the consequences and implications if the 
Chinese government were to use their security forces to crackdown on 
the protestors?

    Answer. I am deeply concerned by the ongoing political unrest and 
violence in Hong Kong. U.S. officials have repeatedly called for 
restraint from all parties in Hong Kong and pointed out that the Hong 
Kong government bears primary responsibility for bringing calm to Hong 
Kong. The President has called for a humane resolution to the protests 
and noted that the world fully expects that the People's Republic of 
China will honor its commitments and obligations under the Sino-British 
Joint Declaration and respect Hong Kong's social and economic systems, 
as well as Hong Kong's executive, legislative, and independent judicial 
power.

    Question. The 2017 U.S. National Security Strategy describes China 
as a ``competitor.'' The 2018 U.S. National Defense Strategy refers to 
China as a ``strategic competitor.'' The 2019 National Intelligence 
Strategy puts China in the category of ``adversaries.'' What are the 
implications, if any, of these different labels?

    Answer. Our national strategies reflect the a dministration's 
consensus view of threats to our national interests. The 2017 National 
Security Strategy states, ``China is using economic inducements and 
penalties, influence operations, and implied military threats to 
persuade other states to heed its political and security agenda.'' The 
2018 U.S. National Defense Strategy states: ``The central challenge to 
U.S. prosperity and security is the reemergence of long-term, strategic 
competition by what the National Security Strategy classifies as 
revisionist powers. gaining veto authority over other nations' 
economic, diplomatic, and security decisions.'' These descriptions are 
consistent with the threat posed by the government of the People's 
Republic of China.

    Question. To what degree do you think U.S. labels feed into China's 
strategic decision-making?

    Answer. The U.S. government develops its national strategies 
according to its own assessments of its national interests, threats to 
those interests, and actions and behaviors by third-country governments 
and other actors. The United States does not choose the language in our 
strategies with regard for the impact on another country's strategic 
decision-making.

    Question. In August 2018, a U.N. panel said it was ``alarmed'' by 
reports of mass detentions and mass surveillance in Xinjiang. It 
recommended an end to extralegal detentions and the immediate release 
of detainees. In his October 2018 speech, Vice President Pence asserted 
that Uyghurs were being subjected to ``around-the-clock brainwashing'' 
and that survivors see the camps as an effort to ``stamp out the Muslim 
faith.'' Are U.S. officials pressing PRC officials about human rights 
issues in Xinjiang, and, if so, through what means and in what venues?

    Answer. I remain deeply concerned by the People's Republic of 
China's (PRC) abuses of the human rights and fundamental freedoms of 
Muslim minority groups in Xinjiang. U.S. officials have consistently 
pressed the PRC at high levels to end its repression of ethnic and 
religious minority groups and to release all those who have been 
arbitrarily detained. The U.S. has also taken concrete steps in this 
regard. On October 8, 2019, the Department announced visa restrictions 
on PRC government and Communist Party officials who are believed to be 
responsible for, or complicit in, the unjust detention or abuses of 
Uighurs, ethnic Kazakhs, or other members of Muslim minority groups in 
in Xinjiang. If confirmed, I will work to sustain this pressure.

    Question. Is the United States government involved in any 
coordinated international activity on behalf of Uyghurs in Xinjiang?

    Answer. The Department of State is leading extensive multilateral 
efforts to galvanize international condemnation of the People's 
Republic of China's policies in Xinjiang. On March 13, 2019, we co-
hosted an event at the U.N. in Geneva to highlight the crisis. During 
President Trump's Global Call to Protect Religious Freedom at the U.N. 
General Assembly on September 23, 2019, Jewher Ilham testified to 
China's abuses of Uighurs. On September 24, 2019, Deputy Secretary 
Sullivan co-hosted an event on the crisis in Xinjiang on the sidelines 
of the U.N. General Assembly. On October 29, 2019 the United States 
joined a group of 23 other countries in signing a joint statement on 
Xinjiang at the U.N. General Assembly's Third Committee. If confirmed, 
I will continue to support these efforts.

    Question. What is the status of U.S. considerations regarding 
imposing Global Magnitsky Act sanctions on Xinjiang officials?

    Answer. The People's Republic of China's (PRC) detention of more 
than one million individuals in Xinjiang since April 2017 is 
illustrative of the worsening human rights situation in China. If 
confirmed, I will commit to working with the interagency to use all 
tools available as appropriate, including the possibility of imposing 
Global Magnitsky Act sanctions, to pressure PRC officials responsible 
for these human rights abuses into ending this campaign of repression.

    Question. In 2017, over a million Rohingya fled persecution at the 
hands of the Myanmar military, in what the United Nations Fact Finding 
Mission Report has called genocide, crimes against humanity and more. 
The United States has yet to make a legal determination as to what 
crimes occurred--despite the State Department leading an evidentiary 
fact-finding report to help the State Department come to that 
conclusion. Do you believe that the crimes committed against the 
Rohingya constitute genocide or crimes against humanity?

    Answer. I am appalled by the Burmese military's human rights abuses 
against Rohingya and members of other ethnic and religious minority 
groups. If confirmed, I will ensure the Department remains focused on 
accountability for those responsible, seeking justice for victims, 
advocating for unhindered humanitarian access, and promoting reforms 
that will prevent the recurrence of atrocities and other human rights 
violations and abuses across Burma. Further, if confirmed, I will 
continue to assess all available information and make recommendations 
to the Secretary to continue to advance justice and accountability for 
atrocities and abuses committed across Burma, including those against 
Rohingya.

    Question. Recently, the administration called the chief commander 
of the Myanmar military Ming Aung Hlaing a gross human rights violator 
for his involvement and command and control responsibility over the 
atrocities that happened in 2017 and before that. The State Department 
only announced a visa ban--and fell short of the larger calls from 
Congress, the United Nations Fact Find Mission recommendations and 
human rights organizations calling for financial targeted sanctions. 
Senior military officials were already banned from coming into this 
country through the JADE Act. What steps is the administration taking 
in imposing real costs to the Burmese military and in imposing 
financial sanctions on the highest-levels of the senior military 
officials?

    Answer. If confirmed, I will prioritize promoting accountability 
for those responsible for these abuses and violations of human rights 
and ensuring justice for victims. I will aim to continue U.S. 
leadership of the international response to the crisis and efforts to 
deter further atrocities. In this regard, I will consider all policy 
tools at our disposal, including sanctions. Further, I would work 
closely with the U.N. and like-minded countries and regional partners 
to press the government of Burma to grant unhindered access to U.N. 
mechanisms, including the International Investigative Mechanism for 
Myanmar, the U.N. Special Rapporteur, and the U.N. Special Envoy.

    Question. The U.S. government contributed more than $10 billion via 
Plan Colombia to support the Colombian government in fighting back 
organized crime and to help put an end to fifty years of conflict with 
the FARC guerrillas. Those hard-fought gains are now at risk of being 
lost due to renewed violence in the countryside, the spillover effects 
of Venezuela's humanitarian crisis, and inaction on the part of the 
Colombian government to implement the peace accords with the FARC. To 
what extent has the peace process been affected by the assassination of 
human rights activists and by the August 2019 decision of some 
prominent FARC former leaders to abandon the accord?

    Answer. Colombia has made important progress to implement the 2016 
peace accord. The Duque administration is committed to this 
undertaking, though the challenges to fully consolidate peace remain 
complex. The United States is deeply concerned by attacks on social 
leaders and raised this issue at the October 2019 U.S.-Colombia High 
Level Dialogue. I am encouraged by President Duque's efforts to improve 
protection, strengthen investigations, and prevent violence against 
these leaders. Former FARC leaders Ivan Marquez and Jesus Santrich are 
criminal outliers who lack popular support and do not represent most 
ex-combatants. The Colombian government, FARC political party, and 
international community all repudiated their call for a return to arms.

    Question. What is the Trump administration doing to address these 
recent setbacks to Colombia's peace process?

    Answer. The United States strongly supports the efforts to secure a 
just and durable peace in Colombia. During the October 2019 U.S.-
Colombia High Level Dialogue, senior officials from both governments 
explored ways to strengthen accord implementation. The Duque 
administration has made progress on ex-combatant reincorporation, 
emphasized the importance of rural development, and taken steps to 
reduce attacks on social leaders. U.S. assistance to Colombia continues 
to provide vital support to all these efforts. We are also assisting 
Colombia to provide essential support for conflict victims, and to 
expand state presence and institutions to strengthen the rule of law, 
especially in vulnerable conflict-affected regions.

    Question. At this time, what should the U.S. prioritize in its 
support for peace accord implementation?

    Answer. If confirmed, I will continue to prioritize U.S. assistance 
to advance peace implementation in Colombia and to align our support 
with the strategic geographic areas that Colombia has defined as 
critical to these efforts. Bilateral U.S. assistance to Colombia 
comprises three broad lines of effort, all critical to the Duque 
administration's efforts to secure a durable peace: (1) consolidating 
and expanding progress on security and counternarcotics; (2) expanding 
state presence and institutions to strengthen the rule of law and rural 
economies, especially in conflict-affected areas; and (3) promoting 
justice and other essential services for marginalized communities, 
human rights defenders, and conflict victims.

    Question. The political and economic crisis in Venezuela under the 
authoritarian rule of Nicol s Maduro has intensified over the past two 
years, resulting in mass migration to neighboring countries. Interim 
President Guaid" has ruled out a return to negotiations with Maduro, 
but he is approaching a year since he took office as President of the 
National Assembly and has yet to gather enough support to wrest Maduro 
from power. How do recent changes in the geopolitical landscape of 
Latin America bode for a resolution to the ongoing crisis in Venezuela 
(elections in Argentina, interim government in Bolivia, protests in 
many countries, etc.)?

    Answer. The changes in the geopolitical landscape in Latin America 
remind us of the importance of preserving democracy, human rights, and 
basic freedom in our hemisphere and highlight the interconnected nature 
of our neighboring countries. We hope this will continue to unite the 
region in support of democracy. The Department remains committed to 
helping interim President Guaido shore up the support of current 
partners and expand the international coalition of supporters. The Lima 
Group--active supporters of a resolution to the crisis for more than 
two years--the Organization of American States (OAS), and the Rio 
Treaty (TIAR) are examples of regional coordination mechanisms 
dedicated to resolving the crisis in Venezuela.

    Question. How should the U.S. engage Russia and China on Venezuela? 
Should we be convincing them to reduce their participation in the 
region? Or asking them to contribute to the humanitarian response?

    Answer. We must continue to increase pressure, publicly and 
privately, on Russia and China to cease their support for the former 
Maduro regime. We have condemned Russian and Chinese interference in 
Venezuela and will continue to encourage our partners to do the same. 
The U.S. government has designated firms, vessels, and state-owned 
enterprises participating in the transport of Venezuelan oil to Cuba, 
giving away a natural resource at the expense of the Venezuelan people. 
If confirmed, I will work with the Treasury Department to make 
additional sanctions designations, as appropriate. We encourage all 
donations for humanitarian efforts in Venezuela and will encourage 
donors to adhere to international standards.

    Question. What more can be done to help garner the requisite 
international support for humanitarian efforts in Venezuela?

    Answer. The United States continues to raise awareness about the 
Venezuela regional crisis, including through the recent International 
Solidarity Conference hosted by the European Union, United Nations High 
Commissioner for Refugees, and the International Organization for 
Migration in Brussels. This conference garnered over $100 million in 
additional funding for the regional humanitarian response from European 
donors, in addition to an additional pledge of $10 million from the 
United States. We continue to call on other donors to provide 
additional humanitarian assistance through neutral and independent 
implementing partners and to explore ways to further raise the profile 
of the crisis throughout the international community.

    Question. To what extent, if at all, are economic sanctions and 
other actions intended to undercut the Maduro regime increasing health 
threats, causing malnutrition, or worsening general insecurity?

    Answer. Maduro's failed economic policies, not sanctions, caused 
the malnutrition and worsening security situation in Venezuela. The 
Venezuelan economy has been collapsing due to the corruption and failed 
policies of the former Chavez and Maduro regimes since long before the 
United States began imposing sanctions on malign actors associated with 
the former Maduro regime. These sanctions promote accountability. The 
former Maduro regime has gutted Venezuela's health, agriculture, and 
social systems. Targeted sanctions have been directed against Maduro 
and his allies and have explicitly exempted food, medicine, and 
clothing intended to relieve human suffering.

    Question. Cameroon is beset by twin crises: An ongoing 
counterinsurgency in the north against Boko Haram militants that has 
led to an estimated 271,000 Internally Displaced Persons (IDPs) as well 
as a separatist struggle in the predominantly English- speaking 
Northwest and Southwest Provinces that resulted in 542,000 IDPs and 
credible allegations of gross human rights abuses by government 
Security Forces and separatist militias. If confirmed, how will the 
Department's African Affairs bureau moderate its engagement with 
Yaounde, multilateral fora, civil society organizations, and allies 
like France to counteract violence in Cameroon?

    Answer. If confirmed, I will work with the Bureau of African 
Affairs to continue to assess the situation in Cameroon closely. We 
will continue to work with partners to support the Swiss-led mediation 
process, and implement recommendations from those dialogues. It is also 
important that we continue to engage with civil society working to 
promote peace, and through multilateral fora to urge both the 
government of Cameroon and separatists groups to come to a non-military 
solution and hold accountable those responsible for human rights abuses 
and violations. I will also support, if confirmed, continued U.S. 
government-sponsored humanitarian assistance to IDPs, as well as our 
efforts to work with the government of Cameroon to counter Boko Haram 
and ISIS-West Africa.

    Question. If confirmed, how do you propose to provide Cameroon the 
Security Assistance its forces need to fight Boko Haram while making 
sure that no support flows to security forces violating the human 
rights of civilians in the Northwest and Southwest Provinces?

    Answer. If confirmed, I will work with the Bureau of African 
Affairs and the Bureau of Democracy, Human Rights, and Labor to 
continue robust Leahy vetting of all potential recipient units to 
ensure that U.S. assistance is not provided to security forces where 
there is credible information that the unit has committed a gross 
violation of human rights. I will also ensure, if confirmed, that all 
U.S. security programs in Cameroon continue to undergo thorough 
monitoring and evaluation.

    Question. If confirmed, what would your policy be for strengthening 
good governance and democracy in sub-Saharan Africa?

    Answer. I strongly believe that democratic institutions, rule of 
law, and human rights are the foundation for peace, stability, and 
security, and drive inclusive economic growth. If confirmed, I will 
continue to work in partnership with African governments, regional 
organizations, and civil society to strengthen institutions, protect 
political space and fundamental freedoms, promote justice, and ensure 
respect for human rights on the continent.

    Question. Which U.S. incentives would be most effective in 
countering overtures by Russia and China in sub-Saharan Africa?

    Answer. The United States offers a different model of partnership 
through its investment in the countries and peoples of sub-Saharan 
Africa. The U.S. does so with programs that save lives, bring 
electricity access, build economic opportunity, give African youth the 
tools to contribute to their economies, support women's economic 
empowerment, and promote peace and security. To complement this, the 
administration has launched Prosper Africa to increase two way trade 
and investment between the United States and Africa. It will respond to 
the challenge of mercantilist or exploitative economic policies 
employed by China and Russia, while continuing to insist that American 
economic actors on the continent adhere to the highest standards of 
transparency, anti-corruption, debt sustainability, and human rights.


                               __________


            Responses to Additional Questions for the Record
           Submitted to Stephen E. Biegun by Senator Ted Cruz

Iran
    Question. As you know, because of the Iran deal and U.N. Security 
Council Resolution 2231, next year the international arms embargo 
against Iran will expire. Our rivals in China and Russia are eagerly 
anticipating being able to sell the full spectrum of weaponry to Iran. 
As you also know, there is a way to stop that from happening. The 
resolution includes a snapback mechanism that is open to any of the 
original participant states, as defined by the resolution itself. There 
is no legal problem with going to the United Nations, invoking the 
snapback mechanism, and restoring international sanctions against Iran.

   What is the State Department's legal analysis regarding whether the 
        United States can invoke the snapback mechanism described by 
        paragraphs 10-15 of United Nations Security Council Resolution 
        2231, which reverses the terminations described in paragraph 
        7(a) of that resolution?

    Answer. The requirements for initiating snapback under UNSCR 2231 
are that (i) a ``JCPOA participant State'' (ii) notify the U.N. 
Security Council (iii) of an issue it believes constitutes 
``significant non-performance'' of commitments under the JCPOA. As the 
United States is an original JCPOA participant identified in paragraph 
10 of UNSCR 2231, there is a legally available argument we can assert 
that the United States can initiate the snapback process under UNSCR 
2231 by submitting a notification to the Security Council of an issue 
that the United States believes constitutes significant non-
performance. UNSCR 2231 does not define ``significant non-
performance.''

    Question. If the State Department concludes it either cannot or 
will not invoke the snapback mechanism in UNSCR 2231, what policy will 
you pursue to ensure the arms embargo does not expire?

    Answer. Continuing the U.N. arms embargo on Iran beyond the current 
expiration of October 2020 is a priority. This administration does not 
assess, based on Iran's ongoing malign activity and its current role in 
supporting non-state actors across the region, that conventional arms 
restrictions on Iran should be removed. If confirmed, I will ensure 
that the Department continues to work with our partners on the Security 
Council to build support for an extension of the arms embargo. We will 
continue to coordinate with likeminded partners and use other tools 
available to us in our efforts to both prevent Iran from acquiring 
currently restricted weapons, as well as to prevent the supply, sale, 
or transfer of arms and related material from Iran.

    Question. Sudan is a state sponsor of terrorism. Nevertheless, 
after 30 years of President al-Bashir's brutal reign, Sudan is facing 
an inflection point. The Sudanese people have put their lives on the 
line to pursue a civilian-led government, one that reflects their 
aspirations for democracy, justice, and peace. Earlier this year, 
Senator Durbin and I passed a resolution in the Senate, urging for a 
swift transition of power from the military to a civilian-led 
authority. While a power-sharing arrangement between the military and 
opposition is in place for a transition, there are many issues that 
remain. Meanwhile there are voices suggesting that we should rush to 
lift the designation on Sudan of being a state sponsor of terrorism.

   Please describe the criteria that you think should be used in 
        evaluating whether to change this designation? Can you commit 
        to ensuring that any sanctions relief or re-categorization for 
        Sudan happens only to the extent that they meet the long-
        standing benchmarks that this administration has been asking 
        for?

    Answer. To remove Sudan's State Sponsor of Terrorism designation, 
the Sudanese government must demonstrate to the satisfaction of the 
United States that it meets the statutory and policy criteria for 
rescission. When considering rescission, the Department of State 
reviews the relevant government's activities to assess whether it is 
supporting acts of international terrorism as defined by established 
statutory criteria. The country must also provide credible assurances 
that it will not support such acts in the future. Moving forward, 
priority areas of U.S. engagement with Sudan will continue to include 
addressing certain terrorism-related claims, counterterrorism, the 
promotion of democracy and human rights, humanitarian access, conflict 
resolution, and economic reform.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Stephen E. Biegun by Senator Jeanne Shaheen

    Question. Congress has continued to express its concerns regarding 
OIG reports that several political appointees in the State Department 
have acted improperly toward career officials on the basis of their 
perceived political or ideological views. The November 2019 OIG report 
outlined evidence of inappropriate practices, which it characterized as 
``disrespectful and hostile treatment of employees, accusations against 
and harassment of career employees premised on claims that they were 
`disloyal' based on their perceived political views, and retaliation 
associated with conflicts of interest.''

  While at the Department, were you aware of the allegations outlined 
        by the Inspector General, particularly regarding senior 
        leadership's response or any attempts to remedy the situation?

    Answer. These matters fell outside my responsibilities. My only 
awareness of these allegations came from knowledge of the August 2019 
and November 2019 reports after the OIG released them and from reading 
general press reporting on these issues. Regarding the August 2019 
report, I understand the Under Secretary of State for Political Affairs 
submitted a comprehensive corrective plan to the OIG within the 60-day 
timeframe set out in the report and has put in place measures to ensure 
the IO bureau is carefully executing the plan.

    Question. During our meeting, you commented that Secretary Pompeo 
has asked for you to focus your attention on addressing some of the 
personnel and management issues plaguing the Department at this time. 
You mentioned you did not view many of these problems as management 
issues, but rather as leadership issues. From a leadership perspective, 
where in your opinion has the Department failed to address personnel 
problems and what would you have done differently?

    Answer. A leader has the ability to influence, motivate, and 
empower others to contribute to the success of the team. If confirmed, 
I will be committed to promoting a workplace of exceptional 
professionalism and respect. I will undertake a review of personnel 
issues that have arisen in order to assess what leadership and/or 
management problems may need to be addressed, including any issues of 
possible misconduct. I will commit to work with my leadership team and 
employees throughout the Department to promote a culture that values 
and respects all employees, promotes inclusion, and models the 
Department's leadership and management principles.

    Question. How would you respond if others inside or outside of the 
State Department raised similar allegations with you?

    Answer. I take all allegations and criticism from employees 
seriously. Candid engagement with employees is critical to success. I 
always welcome the opportunity to do better. If confirmed, I plan to 
work with my colleagues, both in Washington and at our missions all 
over the world, to identify and resolve deficiencies, innovate 
solutions, and ensure the Department remains a place where people want 
to work.

    Question. What would you do to ensure that senior personnel are 
treating career employees in a manner consistent with federal laws and 
regulations governing the management of State Department personnel?

    Answer. I view my Foreign and Civil Service colleagues at the State 
Department in the highest regard. If confirmed, I will work with the 
Under Secretary for Management and the Director General to ensure that 
personnel practices are consistent with all laws and regulations and 
that Department managers follow merit system principles and fulfill 
their obligations in leading our workforce. I know the Department has 
taken significant steps in the last two years to enhance its training 
in leadership, combatting harassment, and unconscious bias. If 
confirmed, I plan to look at the results of those efforts to identify 
and address any remaining gaps or areas for improvement.

    Question. If confirmed, could you describe the types of actions you 
will take to address morale and lingering feelings of distrust in the 
offices identified in the OIG report, in addition to the State 
Department office handling Ukraine affairs?

    Answer. If confirmed, I will commit to working to boost morale at 
the Department's domestic offices, including the office handling 
Ukraine affairs, and at our diplomatic missions around the world. I 
plan to work with the Department's senior leadership to ensure that our 
employees and families have the support they need to carry out our 
critical mission. I understand that Director General Perez' new Talent 
Action Plan for the Department has begun several new workplace 
flexibilities that have been well received and that I will support. If 
confirmed, I will fight to ensure that a strong, well-resourced 
workforce is at the forefront of U.S. diplomacy.

    Question. The OIG's review also addressed the failure to fill a 
high number of vacancies throughout the Department, and the negative 
effect this has had on core Department operations. How would you help 
fill these vacancies and remedy the negative impacts identified by the 
OIG and Congress?

    Answer. Under Secretary Pompeo's leadership, I understand that the 
Department made tremendous progress on staffing in 2019. Addressing the 
deficit of Civil Service professionals is a top management priority. 
The Department finalized an agreement with the Defense Finance and 
Accounting Service to outsource the fulfillment of pending recruitment 
requests and is utilizing Shared Certificates, Direct Hiring 
Authorities, Veterans-only announcements, and other non-competitive 
authorities to address staffing shortfalls. Foreign Service Officer and 
Consular Fellow staffing reached an all-time high earlier this year and 
if confirmed, I will seek to maintain this level of Foreign Service 
employment in future.

    Question. Over the last several years, Congress has been monitoring 
closely and responding to a number of worrisome developments in U.S.-
Russia policy. Despite the rise in Russia's destabilizing activities 
against the United States and its allies, it seems as though President 
Trump disregards Russia's malign actions and seeks to pursue a one-
sided normalization with Putin. Of particular concern to me is Russia's 
interference in our electoral process, and the effect it will have on 
next year's elections. In July 2019, FBI Director Christopher Wray told 
the Senate Judiciary Committee that ``the Russians are absolutely 
intent on trying to interfere with our elections.'' In October 2019, 
Facebook reported that it removed a Russia-based network of Facebook 
and Instagram accounts (together with three Iran-based networks) 
engaged in disinformation campaigns targeting U.S. presidential 
candidates.

   Given the Russian government's long list of problematic activity, 
        what do you believe are Russian President Vladimir Putin's 
        intentions with respect to its relationship with the United 
        States and President Trump?

    Answer. I anticipate that Russia will continue to try to promote 
Moscow's strategic interests, stoke internal division, and erode faith 
in U.S. democratic institutions in the lead up to the 2020 elections. 
The Department of State works closely with other departments and 
agencies, as well as with allies and partners, to protect our nations 
against potential interference in our election processes. If confirmed, 
I will continue to raise concerns about Russia's destabilizing activity 
with Russian leadership at every opportunity. Our policy toward Russia 
will not change until Moscow takes demonstrable steps to end this 
activity.

    Question. What do you think would be Russia's objectives in trying 
to interfere in the 2020 U.S. presidential election?

    Answer. While efforts may spike around elections, Russian influence 
campaigns seeking to promote Moscow's strategic interests, stoke 
internal division, and erode faith in U.S. democratic institutions 
occur without interruption. We must respond and defend our democratic 
processes with equal vigor, and I intend to play a leadership role in 
these efforts.

    Question. How do you view U.S. efforts to counter Russian 
aggression? What can we be doing better?

    Answer. The Department of State works closely with other agencies 
on a whole-of-government response that combines diplomatic, 
intelligence, financial, and law enforcement lines of effort to expose 
and impose costs for Russian malign influence. Most recently, on 
September 30, the administration imposed sanctions against Russian 
actors that attempted to influence the 2018 U.S. midterm elections, 
including increasing pressure on Russian oligarch and Internet Research 
Agency financier Yevgeniy Prigozhin's physical assets. If confirmed, I 
will make clear to senior Russian counterparts that this activity is 
unacceptable and that we will continue to hold Russia accountable if 
this continues.

    Question. I recently met with NATO Secretary General Jens 
Stoltenberg and he touted the benefits of New START. What have U.S. 
allies, particularly in Europe, told your State Department colleagues 
about how New START reinforces their security?

    Answer. The extension of New START is a topic of discussion with 
our Allies. We will continue to take into account allied and partner 
views as we decide next steps on a potential extension of the Treaty. 
The Department of State remains committed to continued engagement with 
diplomatic counterparts on this important issue.

    Question. What is your assessment of how U.S. allies would react if 
New START goes away with nothing to replace it?

    Answer. New START does not expire until February 2021, and the 
administration has made clear its interest in seeking a new agreement 
with China and Russia. Speculating on allies' possible reactions to a 
hypothetical outcome would be premature.

    Question. How does the withdrawal of U.S. forces from Syria affect 
Russia's military and diplomatic role in Syria and the broader Middle 
East?

    Answer. The administration will use diplomatic and economic 
leverage to ensure that Russia cannot single-handedly dictate Syria's 
future. We actively support the U.N.-facilitated political process, 
ensuring that Russia cannot use its own separate formats to seize the 
initiative from the U.N. We have imposed a series of sanctions on 
Russian companies for their material support to the Assad regime. At 
the same time, we are finding ways in which we can work with Russia. 
For example, de-confliction mechanisms have enabled both U.S. and 
Russian forces to conduct D-ISIS operations without creating 
unnecessary risk of unintended incidents. Meanwhile, some U.S. and 
Coalition forces will remain in northeast Syria to continue the D-ISIS 
mission.

    Question. I was pleased that in March of this year, President Trump 
finally moved to fill the critical position of Ambassador at Large for 
Global Women's Issues. As you may know, the Office of Global Women's 
Issues has been without an Ambassador since January 20, 2017. While the 
career civil servants who work in that office are undoubtedly devoted 
to the mission, there are concerns that the office is understaffed and 
its role within State is not prioritized. Will you commit to the full 
staffing of the Office with qualified and experienced individuals with 
a history of productive engagement on gender equality?

    Answer. First, let me make clear that the State Department remains 
committed to continuing the important work of advancing the status of 
women and girls globally through our diplomatic and programmatic 
activities. It is a fundamental tenet of foreign policy that when women 
are able to participate politically and economically to the same degree 
as men, societies are more prosperous, stable, and secure. If 
confirmed, I will ensure the office is appropriately staffed and 
continues to leverage all available resources and Department tools to 
advance this goal.

    Question. How will you work with Secretary Pompeo and other State 
officials to ensure that the Office of Global Women's Issues is engaged 
in the formulation of State Department policy?

    Answer. I support the full empowerment of women and girls as a 
priority for this administration. The Secretary's Office of Global 
Women's Issues plays a central role in ensuring the Department has the 
know-how and the appropriate processes to strategically incorporate 
women's issues into policies and programs. The Office harnesses 
bilateral and regional diplomacy, multilateral diplomacy, public 
diplomacy, and programming to encourage counterparts in other countries 
to support the advancement of the status of women and girls. If 
confirmed, you have my commitment to work with Secretary Pompeo to 
ensure that women's issues remain a priority for the formulation and 
implementation of U.S. foreign policy.

    Question. Will you commit to empowering the Ambassador-at-Large for 
Global Women's Issues to have the authority needed to carry out the 
mission of the Office throughout the State Department? What steps will 
you take to ensure the position is enabled to do so?

    Answer. The Secretary's Office of Global Women's issues through the 
leadership of the Ambassador-at-Large advances the Department's work to 
empower women and girls socially, politically, and economically in the 
communities and societies in which they live. If confirmed, I commit to 
working with the confirmed Ambassador-at-Large to advance 
administration priorities such as the Women's Global Development and 
Prosperity Initiative and the U.S. Strategy on Women, Peace, and 
Security.

    Question. In the last two years, we have witnessed the decline of 
U.S. diplomatic and military presence in the Middle East, most 
problematically in the places that most need U.S. intervention and 
leadership. Given the wide array of challenges in the region, what do 
you define as core U.S. interest in the Middle East, and how do you 
intend to prioritize/promote these interests under this administration?

    Answer. The security and stability of the Middle East and North 
Africa remain a critical and enduring U.S. national interest. Core U.S. 
interests in the region include stopping terrorist organizations and 
states that sponsor terrorism from threatening the United States and 
our partners, preventing the proliferation of weapons of mass 
destruction, ensuring the free flow of global commerce and strategic 
natural resources, and working with our closest partners, including 
Israel, to bolster regional security. Sustaining U.S. engagement and 
championing American values are top priorities as we address the 
challenge to U.S. interests posed by malign Iranian influence, ISIS, 
and efforts by China and Russia to expand their influence in this 
strategic region.

    Question. How do you view the administration's Syria policy?

    Answer. I support the goals of the administration's Syria policy, 
which consist of three priorities: the enduring defeat of ISIS and al-
Qa'ida, a political solution to the Syrian conflict in line with U.N. 
Security Council Resolution 2254, and the removal of all Iranian-backed 
forces from Syria. I share the view that there can be no military 
solution to the Syrian conflict; there can only be a political solution 
that respects the rights and dignity of the Syrian people. This 
proposition applies to all aspects of the Syrian conflict.

    Question. What actions should the United States take to improve the 
outcome in Syria?

    Answer. For more than eight years, the regime of Bashar al-Assad 
has waged a war against the Syrian people, resulting in half a million 
deaths and the displacement of more than 11 million Syrians. But there 
is no military solution to the Syrian conflict; there is only a 
political solution. I fully support the administration's approach of 
using all available political and economic tools to pressure the Assad 
regime to advance a political process based on U.N. Security Council 
Resolution 2254. I also support the administration's efforts to deliver 
real reforms with a real impact for all Syrians, including those living 
in the diaspora, while maintaining a U.S. military presence in 
northeast Syria to ensure the enduring defeat of ISIS.

    Question. How important is the U.S.-Turkey relationship, and what 
do Turkey's purchase of a Russian S-400 system and its incursion into 
northern Syria mean for the bilateral relationship?

    Answer. A strong U.S.-Turkey relationship is crucial for achieving 
U.S. foreign policy goals, including countering Russian and Iranian 
malign influence and ensuring the lasting defeat of ISIS. Turkey's 
purchase of the S-400 defies our shared commitments as NATO Allies, and 
resolving the S-400 issue is key to achieving progress elsewhere in the 
bilateral relationship. We strongly opposed Turkey's unilateral 
invasion of northeast Syria. The October 17 joint statement negotiated 
by Vice President Pence and Secretary Pompeo is working. We remain 
ready to re-impose sanctions should Turkey fail to act in line with its 
commitments outlined in the arrangement.

    Question. Does the administration plan to enforce CAATSA sanctions 
for the S-400 purchase?

    Answer. I cannot pre-judge a sanctions decision prior to a 
determination by the Secretary of State. The Secretary has made clear 
he is committed to implementing CAATSA and that he will comply with the 
law.The administration is not waiting for the outcome of CAATSA 
deliberations to take strong action. The decision to unwind Turkey from 
the F-35 program makes clear how seriously we take this issue. As 
President Trump told President Erdogan during his recent visit, 
resolving the S-400 issue is vital to achieving progress on other 
elements of the bilateral relationship.

    Question. Would you recommend the Secretary overturn the decision 
to ban F-35 sales to Turkey as long as they are in possession of the S-
400 system?

    Answer. I agree with the decision to unwind Turkey from the F-35 
program after Turkey began to take receipt of the S-400 system. As 
Secretaries Pompeo and Esper have repeatedly made very clear to Turkey, 
the S-400 and F-35 cannot coexist.

    Question. In April 2019, Kim Jong Un issued an end-of-year deadline 
for diplomacy with the United States. This deadline has been reiterated 
on multiple occasions by North Korean officials. North Korea has 
repeatedly called on the United States to change its negotiation stance 
and to meet Pyongyang's demands in order to reach a diplomatic 
settlement that is favorable to both sides. If Washington and Pyongyang 
fail to reach a diplomatic agreement regarding North Korea's nuclear 
weapons program before December 31, 2019, what actions do you believe 
North Korea will take and how might these actions affect the security 
of our allies and of the United States?

    Answer. President Trump remains committed to making progress toward 
the Singapore Summit commitments, which include transforming relations, 
building lasting peace on the Korean Peninsula, and complete 
denuclearization of the DPRK. We work closely with the international 
community to send a unified message that North Korea must engage with 
the United States to achieve these commitments. The United States does 
not have a deadline, we have a goal with North Korea: final, fully 
verified denuclearization. We remain fully committed to that outcome.

    Question. Does the State Department expect that South Korea will 
meet the Trump administration's demand for a five-fold increase in 
annual contributions for hosting U.S. military forces in the country?

    Answer. The U.S.-ROK alliance remains the linchpin of regional 
stability and security throughout the Indo-Pacific region for the 
benefit of both of our peoples. We are currently involved in 
negotiations for the 11th Special Measures Agreement that will 
facilitate the Republic of Korea defraying the costs of stationing U.S. 
forces on the peninsula. The amount we requested aims to offset some of 
the U.S. costs and reduce the burden on the American taxpayer. As 
negotiations are ongoing, I cannot predict the final amount both sides 
will agree upon but we remain focused on reaching an acceptable outcome 
that strengthens the alliance between our two countries.

    Question. What plans does the administration have to safeguard the 
military intelligence agreement, and/or improve Japan-South Korea 
relations?

    Answer. Our relationships with the Republic of Korea and Japan are 
among our most important alliances and are vitally important in the 
face of shared regional challenges, including North Korea, in the Indo-
Pacific and around the world. We will continue to encourage the 
Republic of Korea and Japan to engage in sincere discussions to ensure 
a lasting solution to historic issues. I strongly believe that defense 
and security issues should remain separate from other areas of the ROK-
Japan relationship. If confirmed as Deputy Secretary, I will continue 
to pursue bilateral and trilateral security cooperation with the 
Republic of Korea and Japan in recognition of our shared interests.

    Question. Unlike the North Korea policy that we discussed in our 
meeting, which employs both carrots and sticks, U.S. policy towards 
Iran has relied on a ``maximum pressure'' campaign that is heavily 
dependent on sanctions. Do you believe our Iran policy would benefit 
from the same internal strategies you use in your discussions around 
North Korea (no idea is a bad idea, balancing of diplomacy with 
sanctions)?

    Answer. We have made clear to the Iranian regime that we are open 
to diplomacy and are willing to negotiate without preconditions. We 
have put on the table for Iran full sanctions relief, as well as the 
re-establishment of full diplomatic and commercial relations with the 
United States as part of a comprehensive agreement to permanently 
address Iran's nuclear program, their ballistic missile program, and 
Iran's malign influence throughout the Middle East.

    Question. Given Iran turning away from its JCPOA nuclear 
commitments and increased aggressive actions against the Gulf states 
and in the Strait of Hormuz, is now the time to take into account and 
debate the differing views and ideas across the branches of government 
and in the interagency?

    Answer. I will approach with an open mind the many challenges Iran 
poses to the United States and the world. I look forward to engaging 
with Congress and the relevant interagency partners on how to best 
achieve our objectives. Iran is facing an unprecedented economic crisis 
as a result of the maximum pressure campaign. Iran therefore must 
choose between funding its terror proxies abroad or stabilizing its 
economy. Iran can change course, engage in diplomacy with us, and make 
a different set of choices that will allow Iran to benefit from 
behaving as a normal country in a manner consistent with international 
law.

    Question. Many European leaders are dismayed by President Trump's 
hostility towards the U.S.-EU partnership, and his transactional view 
of the NATO alliance. How will you respond to European concerns that 
U.S. decisions, such as withdrawing from the Iran nuclear deal and the 
Paris climate agreement, or pulling U.S. troops from Syria, undermine 
the United States as a credible partner?

    Answer. The United States and Europe agree on far more than we 
disagree, and the fundamentals of our relationship remain strong. The 
United States recognizes that we have no better partners in the world 
than our European Allies and we want to work with European countries to 
narrow our differences, expand our areas of agreement, and advance 
shared goals. We are facing many global challenges and the most 
effective way to respond is to do as we have always done, discuss, 
sometimes disagree, and ultimately come to a shared vision of a future 
in pursuit of peace and stability.

    Question. Current Deputy Secretary of State John Sullivan told the 
Senate Foreign Relations Committee last month that the decision to 
withdraw from the Open Skies Treaty would require the unanimous support 
of NATO ``to make sure we don't do damage to our NATO alliance.'' Do 
you agree with this statement?

    Answer. Deputy Secretary Sullivan told the committee any decision 
to remain in or withdraw from the treaty should be made only after we 
have closely consulted with our allies and other participants in the 
treaty. The United States remains committed to arms control agreements 
that advance U.S., allied, and partner security; are verifiable and 
enforceable; and include parties that comply responsibly with their 
obligations.

    Question. Sullivan also stated that the U.S. ambassadors to NATO 
and the OSCE support the United States remaining a party to the treaty. 
Is that also your understanding?

    Answer. The United States remains committed to arms control 
agreements that advance U.S., allied, and partner security; are 
verifiable and enforceable; and include parties that comply responsibly 
with their obligations.

                Correspondence Relating to the House of 
               Representatives' 2019 Impeachment Inquiry

                                ------                                

       Letter from Deputy Secretary of Defense David L. Norquist 
                 to Daniel Levin, White & Case LLP \1\
---------------------------------------------------------------------------

    \1\ [Note: Included in the hearing record at the request of Senator 
Tim Kaine.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


   Letter from Assistant Attorney General Steven A. Engel, Office of 
    Legal Counsel to Pat A. Cipollone, Counsel to the President \2\
---------------------------------------------------------------------------

    \2\ [Note: Included in the hearing record at the request of Stephen 
E. Biegun as part of his answer to an additional question for the 
record.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



  Letter from Counsel to the President Pat A. Cipollone to Hon. Nancy 
 Pelosi, Hon. Eliot L. Engel, Hon. Adam B. Schiff, and Hon. Elijah E. 
               Cummings, Members of the U.S. Congress \3\
---------------------------------------------------------------------------

    \3\ [Note: Included in the hearing record at the request of Stephen 
E. Biegun as part of his answer to an additional question for the 
record.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________

                              NOMINATIONS

                              ----------                              


                       TUESDAY, DECEMBER 17, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding], Gardner, Romney, 
Young, Cardin, Shaheen, Udall, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Senate Foreign Relations Committee will 
come to order.
    I want to welcome the nominees that are before us today. We 
are going to consider four nominations: the Honorable Todd 
Chapman to be the U.S. Ambassador to the Federative Republic of 
Brazil, Mr. John Hennessey-Niland to be the U.S. Ambassador to 
the Republic of Palau, Ms. Dorothy Shea to be the U.S. 
Ambassador to the Lebanese Republic, and Mr. Donald Wright to 
be the U.S. Ambassador to the United Republic of Tanzania.
    We have nominees here from different regions of the world, 
but each one of these is important. If you are confirmed, you 
are going to play a very important role in advancing our 
nation's foreign policy objectives and in protecting our 
national security interests and our values in these four 
countries.
    Briefly to touch on the four nations that you have been 
nominated to serve in, with Brazil, it is a very important U.S. 
ally on both trade and on security. And the current government 
that is led by President Bolsonaro has worked to strengthen its 
ties with the U.S. on a number of issues. That includes 
security cooperation. We have collaborated on drug trafficking, 
on arms trafficking, on cyber crime, money laundering, 
financial crimes, and on terrorism. And in July, the Trump 
administration designated Brazil as a major non-NATO ally, 
which provides privileged access to the U.S. defense industry. 
It also includes increased military exchanges and exercises and 
training. And that only scratches the surface. So it is 
critical that we continue to strengthen U.S.-Brazil trade 
relations as well as counterterrorism laws to monitor foreign 
terrorists utilizing Brazil's airport in its capital of Sao 
Paulo as a hub into the Americas.
    And Palau is a strategic location in the Western Pacific. 
It is especially vulnerable to Chinese pressure. In 2018, for 
example, Beijing banned its citizens from visiting Palau as 
tourists in an effort to pressure them to sever ties with 
Taiwan. They have remained strong. They have not succumbed to 
this bullying, and they should be applauded for that. Mr. 
Hennessey-Niland, I am interested to hear how you plan to 
strengthen our relations with that nation and how you plan to 
push back against these Chinese efforts.
    Lebanon presents its own set of challenges but also 
opportunities. The challenges are well known: an unstable 
security situation, an economy that is collapsing. And now this 
has led to mass protests, as well as a nation that now hosts 
one of the largest refugee populations in the world. So, Ms. 
Shea, if you are confirmed, you will be heading there at an 
important moment in their history. And as we see protesters 
that are crossing sectarian divides to demand an end to rampant 
corruption within the government, it is our hope that Lebanon 
will implement critical reforms to pull itself out of this 
economic crisis.
    Meanwhile, Hezbollah, a strong ally of Iran and a U.S.-
designated terrorist organization, remains a threat to the 
security of that nation and to its internal stability. They 
also remain, of course, a regional threat, particularly to our 
ally Israel, and they are more capable than they have ever been 
from a military standpoint.
    So we will need to continue to work closely with Lebanon to 
bolster its ability to protect its borders, to advance regional 
stability and security, and to address all the issues that are 
associated with hosting over 1 million refugees from Syria.
    Finally but not least is Tanzania, which has long been a 
U.S. partner and is critical to regional stability in East 
Africa. However, we have seen a concerning decline in human 
rights in a democratic space, and we should raise these issues 
with the government as they risk hindering important economic 
security and development objectives. So, Mr. Wright, I look 
forward to hearing what your priorities will be, if confirmed, 
and when it comes to countering Chinese influence and in 
supporting different development goals in the country.
    So, again, I think the goal of all members of this 
committee is a U.S. that remains engaged globally, but in order 
to do that, we need Ambassadors who are committed to faithfully 
implementing U.S. policy and fostering strong relationships in 
their host countries.
    So, again, I want to thank you and your families for your 
commitment to our country, for your willingness to serve it.
    And now I recognize the ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you very much, Mr. Chairman.
    We do have a really impressive panel here today 
representing all parts of the globe. So we thank them. You have 
a lot in common. We have three career diplomats that are here, 
and we thank you for your years of service to our country. We 
have one professional nominee who has served our nation very 
well in several capacities and brings that type of public 
commitment to this nomination. So in all four cases, we have 
individuals who have very impressive backgrounds, and we thank 
you very much for your willingness to continue to serve our 
nation.
    I also want to acknowledge the families that are here 
because it is a family sacrifice, and we recognize that you 
cannot do this without a supportive family. So we thank all of 
you for your willingness to do this.
    I must point out in Ms. Shea's case you bring another 
qualification here being a Pearson Fellow to former Senator 
Dick Lugar. We all respect the manner in which he went about 
making those selections, and it is not an easy process. And it 
was an incredible opportunity for you, but he has also, we have 
been told, praised very much your service as a Pearson Fellow.
    In all four cases, as the chairman has pointed out, we have 
serious issues. We are dealing with countries that are 
important to the United States for different reasons, but in 
all cases, the way that we do development assistance needs to 
be targeted towards U.S. objectives. And how we go about doing 
this, we are looking at how we are going to modify development 
assistance to accomplish our goals. How can we better target 
those funds? And I hope we will get a chance to talk about 
that.
    Environmental stewardship is going to be very important in 
all four of the countries we are talking about. Palau--
obviously, what is happening to that island is a major concern 
to its future existence. And Brazil, the Amazon, the 
rainforest, the fact that so much of the rainforest is in 
Brazil, and that Brazil was on a path to really do great 
conservation work, which has been dramatically changed by this 
current administration. How are we going to deal with those 
issues?
    So we have also promoting human rights. All four countries. 
And I hope that you will go into how we are going to improve 
and increase human rights in all of the countries that are 
involved in today's hearing.
    In Lebanon, we know there has been a challenge on 
governance. We know that Hezbollah presents a security 
challenge to the United States. We know that we have borders 
that need to be more secure as to how we are going to deal with 
those secure borders, preventing Iran from influencing the 
terrorist activities within Lebanon. But at the same time, 
there are legitimate protests within that country as to the 
welfare of the people. They have to get their economy back on 
track. How do they do that in a way that does not create unrest 
among the citizens as we look to how we achieve those 
objectives?
    In Tanzania, a country very important to us in Africa, 
human rights is a major concern. This is a country that has 
been challenged on good governance for a long time. How do we 
deal with those issues in that country?
    So Palau. I will be interested as to how we are moving 
forward with the compact. This is a country that we have a 
really special relationship with, one that has been mutually 
beneficial, including the security of the island, as well as 
the United States' security interests. As we look toward the 
new plateau of 2025, how are we going to move forward in those 
countries?
    So, Mr. Chairman, we have four different countries, but we 
have professional nominees and we look forward to a 
conversation as to how we can use the tools we have available 
in America to further our national security interests as it 
relates to counterterrorism, as it relates to environment, and 
as it relates to promoting American values of human rights. I 
look forward to our discussion.
    Senator Rubio. Thank you.
    I am going to introduce the four nominees. Then we are 
going to start with the opening statements from my right to 
left, from your left to right.
    Mr. Chapman is a career member of the Senior Foreign 
Service. He most recently served as the Ambassador to the 
Republic of Ecuador.
    Ms. Shea is a career member of the Senior Foreign Service 
and currently serves as the Deputy Chief of Mission of the 
United States embassy in Cairo, Egypt.
    Dr. Wright is career member of the Senior Executive Service 
and is the Deputy Assistant Secretary for Health and Director 
of the Office of Disease Prevention and Health Promotion at the 
Department of Health and Human Services.
    And Mr. Hennessey-Niland is a career member of the Senior 
Foreign Service and currently serves as the Political Counselor 
at the U.S. embassy in Australia.
    Thank you again all for being here. We look forward to your 
opening statements. We will begin with you, Mr. Chapman.

 STATEMENT OF HON. TODD C. CHAPMAN, OF TEXAS, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
          AMERICA TO THE FEDERATIVE REPUBLIC OF BRAZIL

    Ambassador Chapman. Thank you, Chairman Rubio, Ranking 
Member Cardin, and honorable members of this committee. Thank 
you for this immense privilege of appearing before you today as 
the nominee to serve as the next U.S. Ambassador to the 
Federative Republic of Brazil.
    I am grateful to President Trump and Secretary Pompeo for 
the trust and confidence they have shown in me through this 
nomination.
    Firstly, I would like to recognize and honor my wonderful 
family. Words are simply insufficient to capture my love, 
admiration, and appreciation for my wife Janetta and her 
commitment to service wherever God has led us around the world. 
Love you, Honey. I am also grateful for our two sons, Joshua 
and Jason, the dynamic duo, and our amazing daughter-in-law 
Brooke for their constant love, support and encouragement, all 
watching from Denver. As a family, we have shared in the 
adventures, the excitement, and the joys, and yes, sometimes 
the challenges of the lifestyle and service that a Foreign 
Service career brings. And through it all, we have been richly 
blessed.
    I am proud to be a career member of the United States 
Foreign Service. During these 29 years, I have served five 
Presidents on four continents in seven U.S. embassies. Most 
recently, I was U.S. Ambassador to Ecuador and participated in 
a most rewarding time of dynamic renewal in the U.S.- Ecuador 
bilateral relationship.
    Representing our great nation to other great nations is an 
undertaking I proudly embrace. If confirmed, this would be an 
opportunity to continue my long personal history with Brazil. 
In 1974, when just 11 years old, I moved with my family to Sao 
Paulo, and I completed junior high and senior high school there 
in Sao Paulo. I eventually would return to Brazil as Deputy 
Chief of Mission from 2011 to 2014.
    Thus, with this background, I am confident in the promise 
and opportunities which an ever-closer U.S.-Brazil relationship 
can offer to our citizens and to the world. The United States 
and Brazil have the western hemisphere's largest economies, the 
largest militaries, populations, and territories. We share 
democratic values, a long history of cooperation, and an over 
$100 billion two-way trading relationship. Therefore, when 
President Trump and President Bolsonaro met in March this year, 
they set out an ambitious agenda for this relationship. In 
their joint statement, they committed, quote, to ?building a 
new partnership between their two countries focused on 
increasing prosperity, enhancing security, and promoting 
democracy, freedom, and national sovereignty.?
    This is the agenda and implementation is underway. 
Expanding commercial opportunities for our private sectors, 
facilitating travel both ways, promoting scientific and 
economic cooperation, and developing innovative ways to 
collaborate on the environment. Working together regionally as 
well, we share an interest in restoring democratic rule in 
Venezuela, supporting the democratic transition in Bolivia, and 
countering Cuban influence in the region. Indeed, the U.S.-
Brazil partnership already extensive and broad is ripe for 
growth.
    If confirmed, I will protect the interests of the over 
240,000 U.S. citizens who currently reside in Brazil and the 
over 500,000 citizens who visit Brazil each year. And if 
confirmed, I will be honored to lead the 1,400-plus Brazilian 
and American professionals who comprise Mission Brazil and who 
are working effectively to operationalize and develop this 
bilateral agenda.
    Mr. Chairman, Mr. Ranking Member, members of this 
committee, if confirmed, I commit to doing my very best to 
represent the very best of the United States to the people and 
government of Brazil. And if confirmed, I look forward to 
working closely with this distinguished committee to enhance 
the strong partnership between these two great democracies.
    I sincerely thank you for this opportunity to appear before 
you today, and I look forward to your questions. Thank you.
    [The prepared statement of Ambassador Chapman follows:]


               Prepared Statement of Hon. Todd C. Chapman

    Chairman Rubio, Ranking Member Cardin, and honorable members of 
this committee, thank you for the privilege of appearing before you 
today as the nominee to serve as the next U.S. Ambassador to the 
Federative Republic of Brazil. I am grateful to President Trump and 
Secretary Pompeo for the trust and confidence they have shown in me 
through this nomination.
    Firstly, I would like to recognize and honor my wonderful family. 
Words are insufficient to capture my love, admiration, and appreciation 
for my wife Janetta and her commitment to service wherever God has led 
us around the world. I am also so grateful for our two sons, Joshua and 
Jason, the dynamic duo, and our amazing daughter-in-law Brooke, for 
their constant love, support, and encouragement. As a family, we have 
shared in the adventure, excitement, joys, and sometimes the hardships, 
associated with this Foreign Service career and lifestyle, and through 
it all we have been richly blessed.
    I come before you today as a career member of the United States 
Foreign Service, a professional corps of which I am proud to be a part. 
During my 29 years with the U.S. government, across five Presidential 
administrations, I have served in seven U.S. embassies throughout Latin 
America, Africa and Asia, as well as multiple assignments here in 
Washington, DC. From Bolivia to Costa Rica, and Mozambique to 
Afghanistan, I advanced a wide variety of U.S. interests and 
collaborated with partner nations to reach shared goals. Most recently, 
I served as U.S. Ambassador to Ecuador from early 2016 to June of this 
year and participated in a rewarding time of dynamic renewal in the 
U.S.-Ecuador bilateral relationship.
    Representing our great nation to other great nations is an 
undertaking I proudly embrace.
    If confirmed, this would be an opportunity to continue my long 
personal history with Brazil. In 1974 when just 11 years old, I moved 
to Sao Paulo with my family, where I completed junior high and high 
school. After college I returned to Sao Paulo two different times to 
work in the private sector, and it was there that I took the Foreign 
Service Exam at the U.S. Consulate General in Sao Paulo, literally on 
the dare of a friend. It would then take me over twenty years to return 
to Brazil as Deputy Chief of Mission at the U.S. Embassy in Brasilia 
from 2011-2014.
    With this background, I am confident in the promise and 
opportunities which an evercloser U.S.-Brazil relationship can offer to 
our citizens and to the world. The United States and Brazil have the 
Western Hemisphere's two largest economies, militaries, populations and 
territories. We share democratic values, a long history of cooperation, 
and an over $100 billion dollar two-way trading relationship. 
Therefore, when President Trump and President Bolsonaro met in 
Washington in March this year, they set out an ambitious agenda for the 
bilateral relationship. In their Joint Statement, the Presidents 
declared their commitment to, and I quote, ``building a new partnership 
between their two countries focused on increasing prosperity, enhancing 
security, and promoting democracy, freedom, and national sovereignty.''
    Implementation of this agenda is underway. Important 
accomplishments have already been made, including Brazilian 
ratification of a joint Technology Safeguards Agreement, expansion of 
trade opportunities for our private sectors, visa free-travel for U.S. 
citizens heading to Brazil and a pilot program for Brazil to join the 
Global Entry Program to facilitate participants' travel to the U.S. In 
the important area of environmental protection and biodiversity 
conservation, our two governments worked together with private sector 
partners to launch the $100 million dollar Althelia Biodiversity Fund 
Brazil aimed at supporting investment in sustainable development 
projects in the Amazon in partnership with local communities.
    Brazil's global influence and aspirations are frequently fully 
consistent with U.S. national security objectives. Working together on 
shared concerns--such as restoring democratic rule in Venezuela, 
countering the malevolent influences of Cuba, and supporting the 
democratic transition in Bolivia--exemplifies how the U.S.-Brazil 
partnership, already extensive and broad, is ripe for growth.
    In such an expansive relationship with a consequential partner like 
Brazil, there will always be areas that require broader dialogue. I 
commit to advancing respectful dialogues on the economy, the 
environment, human rights and irregular migration, with the goal of 
improving mutual understandings and reaching beneficial outcomes.
    If confirmed, I will also be honored to protect the interests of 
the over 240,000 U.S. citizens who reside in Brazil, the 500,000 U.S. 
citizens who visit Brazil each year, and to serve as Chief of Mission 
with the over 1,400 American and Brazilian professionals who comprise 
Mission Brazil and are working effectively to develop and 
operationalize this bilateral agenda.
    Mr. Chairman, Mr. Ranking Member, committee members, if confirmed, 
I commit to doing my very best to represent the very best of the United 
States of America to the government and people of Brazil. I would look 
forward to working collaboratively with the distinguished members of 
this committee, the U.S. Congress, and your professional staff to 
achieve U.S. policy goals in Brazil and to enhance the strong and 
enduring partnership between these two great democracies.
    I sincerely thank you for the opportunity to appear before you 
today and I welcome your questions and observations.
    Thank you.


    Senator Rubio. Thank you.
    Mr. Hennessey-Niland?

   STATEMENT OF JOHN HENNESSEY-NILAND, OF ILLINOIS, A CAREER 
MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF PALAU

    Mr. Hennessey-Niland. Chairman Rubio, Ranking Member
    Cardin, and distinguished members of the Committee on 
Foreign Relations. It is an honor and a privilege to appear 
before you.
    I am grateful for the confidence the President and 
Secretary Pompeo have placed in me as the nominee to be the 
next U.S. Ambassador to the Republic of Palau. If confirmed, I 
look forward to working with you to advance our nation's 
interests with respect to our bilateral relationship with 
Palau, a key partner of the United States in the Indo-Pacific 
region.
    From a young age, I have always known that I wanted to 
serve my country. Growing up abroad, I saw firsthand the 
importance of American leadership. My dad worked for a number 
of years overseas as a senior executive with Standard Oil of 
Indiana. As a student at Tufts University and later at the 
Fletcher School of Law and Diplomacy, in addition to my studies 
and playing on the varsity soccer team, I focused on passing 
the Foreign Service exam, and it has been an honor to serve as 
a Foreign Service officer over the past 30 years.
    My wife Julie is here with me today, and without her, I 
would not be before this committee. She has been by my side 
ever since we were graduate students together. She has done so 
much to support our family, including countless moves and 
giving up her own global career with AT&T so that I--we--could 
serve our country. Our two sons, Connor and Aidan, could not be 
with us today. They are both recent graduates and have found 
gainful employment, which greatly pleases their parents.
    [Laughter.]
    Mr. Hennessey-Niland. Connor has just completed a masters 
degree in international politics at Trinity College in Dublin, 
Ireland and is a research service coordinator. Aidan graduated 
earlier this year with a B.A. in economics and government from 
William and Mary and is the team operations coordinator for the 
Pittsburgh Steelers.
    I have sought throughout my career to represent the United 
States to the best of my ability and to embody the principles 
and values of this great nation. I recognize that while service 
is a personal commitment, it is very much a shared endeavor. I 
believe my background as a Charge D'Affaires and Deputy Chief 
of Mission, as a Director at the National Security Council, and 
as a Foreign Policy Advisor to the U.S. military demonstrates 
diplomatic experience and the capability to serve as a Chief of 
Mission. My work in the Pacific, currently as the Acting Deputy 
Chief of Mission and previously as the Political Counselor at 
the U.S. Mission in Australia, and earlier in my career as the 
Political and Economic Section Chief in Suva, Fiji exemplifies 
the substantive knowledge of the region that may be 
particularly helpful in leading the U.S. embassy in Palau.
    The opportunity, in particular, to serve as the foreign 
policy advisor alongside our U.S. Marines at MARFORPAC, first 
as part of the command team of General John Toolan and later 
with General David Berger, now the Commandant of the Marine 
Corps, has been particularly meaningful in my development as a 
Foreign Service officer and a leader.
    Our military ties to Palau run deep. Many citizens of Palau 
have served in the U.S. military. Their service is a reminder 
of our nation's enduring commitment to peace and security in a 
dynamic and critical part of the world.
    The relationship between Palau and the United States, 
forged in the field of battle, continues to be strong, as is 
the U.S. commitment to our Compact of Free Association with 
Palau. Recognizing our unique relationship with Palau, we 
consult closely on foreign policy matters, and the U.S. has 
full responsibility and authority for security and defense 
matters. Palau also shares our core values, supporting 
democracy and human rights, and continues to maintain strong 
diplomatic ties with Taiwan.
    If confirmed, I pledge to work closely with President 
Remengesau and his government to deepen and strengthen the ties 
between Palau and the United States. With a large and 
increasing number of U.S. government agencies engaged in 
projects in Palau, coordination and leadership of U.S. 
government initiatives will be a personal priority to ensure a 
whole-of-government approach to our mission and to ensure 
transparency and accountability for all our programs in Palau.
    I pledge to this committee to promote and to protect U.S. 
interests and our people in Palau to the best of my ability and 
to ensure the strongest possible relationship with Palau, such 
a key partner of the United States in the Indo-Pacific.
    Thank you again, Mr. Chairman, Ranking Member, 
distinguished members of the committee, for this opportunity to 
speak with you today and answer your questions.
    [The prepared statement of Mr. Hennessey-Niland follows:]


              Prepared Statement of John Hennessey-Niland

    Mr. Chairman, Ranking Member, and distinguished members of the 
Committee on Foreign Relations, it is an honor and a privilege to 
appear before you today. I am grateful for the confidence the President 
and Secretary Pompeo have placed in me as the nominee to be the next 
U.S. Ambassador to the Republic of Palau. If confirmed, I look forward 
to working with you to advance our nation's interests with respect to 
our bilateral relationship with Palau, a key partner of the United 
States in the Indo Pacific region.
    From a young age, I have always known that I wanted to serve my 
country. Growing up abroad, I saw firsthand the importance of American 
leadership. I recognize that I enjoyed a privileged upbringing thanks 
to my parents. My dad worked for a number of years overseas as a senior 
executive for Standard Oil of Indiana. As a student at Tufts University 
and later at the Fletcher School of Law and Diplomacy--in addition to 
my studies and playing on the Varsity soccer team--I focused on passing 
the Foreign Service exam and being selected as an American diplomat. It 
has been an honor to serve over the past 30 years.
    My wife Julie is here with me, and without her I would not be 
before the committee today. She has been by my side ever since we were 
graduate students together and she was the Residential Assistant in our 
dorm. She has done so much to support our family, including countless 
moves and giving up her own global career with AT&T, so that I could 
serve our country. Our two sons, Connor and Aidan, could not be with us 
today. They are both recent graduates and have both found gainful 
employment--which greatly pleases Julie and me as their proud parents. 
Connor has just completed a Masters Degree in International Politics at 
Trinity College in Dublin, Ireland and is a Research Services 
Coordinator for Qualtrics, an SAP company. Aidan graduated earlier this 
year with a B.A. in Economics and government from the College of 
William and Mary in Virginia and is the Team Operations Coordinator for 
the Pittsburgh Steelers.
    I have sought throughout my career to represent the United States 
to the best of my abilities and embody the principles and values of 
this great nation. I recognize that while service is a personal 
commitment, it is very much a shared endeavor. I believe my 
background--as Charge D'Affaires and Deputy Chief of Mission, as a 
Director at the National Security Council and as the Foreign Policy 
Advisor to the U.S. Marine Corps Forces Pacific (MARFORPAC)--
demonstrates significant diplomatic experience and the capability to 
serve as a Chief of Mission. My work in the Pacific--currently as the 
Acting Deputy Chief of Mission and previously as the Political 
Counselor at the U.S. Mission in Australia, as the Political and 
Economic Section Head in our Embassy in Fiji--exemplifies a substantive 
knowledge of the region that may be particularly helpful in leading the 
U.S. Embassy in Palau. Personal experience with small teams in remote 
areas--such as my assignment as head of a prosecutions unit with the 
International Criminal Tribunal for the former Yugoslavia and the 
International Criminal Tribunal for Rwanda--has prepared me for the 
challenges and opportunities of service at a small embassy in a distant 
location. I believe my management of people and budgets has shown that 
I have the positive attributes required to build successful 
organizations and use resources appropriately and effectively. I 
support a whole of mission approach and inclusive and innovative 
practices that build on the diverse strengths and talents of our 
officers and locally engaged staff.
    The opportunity, in particular, to serve as the foreign policy 
advisor alongside our U.S. Marines at MARFORPAC, first as part of the 
Command Team of General John Toolan and later with General David 
Berger, now the Commandant of the Marine Corps, has been particularly 
meaningful in my development as a Foreign Service Office and a leader. 
The power of inspiration, of leading by example, and understanding that 
the strength of any organization is determined by the cohesion of the 
unit and the clarity of its mission, are enduring lessons not just for 
Marines. I saw these skills put into use daily at Camp H.M. Smith and 
around the Pacific by the men and women assigned to the Indo Pacific 
Command.
    Our military ties to Palau run deep. The Battle of Peleliu lasted 
for over 75 days from September to November 1944. U.S. Marines of the 
1st Marine Division, and later soldiers of the U.S. Army's 81st 
Infantry Division, fought to capture an airstrip on that small coral 
island. By 1944, American victories in the Southwest and Central 
Pacific had laid the groundwork for the campaign by General MacArthur 
to return to the Philippines. However, before General MacArthur could 
do so, the Palau Islands needed to be liberated from Japanese 
occupation. In that key battle at Peleliu, our forces were ultimately 
successful. Many citizens of Palau have subsequently served in the U.S. 
military. Their service is a reminder of our nations' enduring 
commitment to peace and security in a dynamic and critical part of the 
world.
    The relationship between Palau and the United States, forged in the 
field of battle, continues to be strong, with the U.S. commitment to 
our Compact of Free Association with Palau, as well as our Compacts 
with the other two Freely Associated States--the Federated States of 
Micronesia and the Republic of the Marshall Islands. As Deputy 
Assistant Secretary of State Sandra Oudkirk testified before this 
committee in July, our relationship with Palau has contributed to a 
secure, stable and prosperous Western Pacific, which is a strategic 
location for the United States in the larger Indo-Pacific region. As 
DAS Oudkirk noted in her testimony, recognizing our unique, historic 
and special relationship with the Freely Associated States, including 
Palau, we consult closely on foreign policy matters and the U.S. has 
full responsibility and authority for security and defense matters in 
or relating to these three countries. Palau also shares our core 
values, supporting democracy and human rights, and continues to 
maintain strong diplomatic ties with Taiwan.
    The United States and Palau enjoy a close and positive 
relationship, anchored in shared history and values. In 1947, the 
United Nations assigned the United States administering authority over 
the Trust Territory of the Pacific Islands, including what is now 
Palau, the Republic of the Marshall Islands, the Federated States of 
Micronesia, and the Commonwealth of the Northern Mariana Islands, which 
the United States had liberated from Japanese occupation. In 1981, 
Palau adopted its own constitution and in 1986 the governments of the 
United States and Palau concluded a Compact of Free Association which 
entered into force in 1994. This Compact of Free Association provides 
the framework for much of our bilateral relationship with Palau.
    If confirmed, I pledge to work closely with President Remengesau 
and his government to deepen and strengthen the ties between Palau and 
the United States. With a large and increasing number of U.S. 
government agencies engaged in projects in Palau, coordination and 
leadership of U.S. government initiatives will be a priority to ensure 
a whole-of-government approach to our mission and to ensure 
transparency and accountability for all our programs in Palau.
    I'd like to reiterate the thanks expressed by Deputy Assistant 
Secretary Oudkirk in her testimony to this committee in July, for 
working to fulfill the commitment to Palau under the 2010 U.S.--Palau 
Compact Review Agreement and the leadership of this committee in that 
regard continues to be greatly appreciated. The implementation of the 
Compacts with the Freely Associated States is closely watched by our 
allies, partners, other Pacific Island countries and our competitors in 
the region and is seen as a sign of our commitment to the Indo Pacific. 
The Secretary announced on August 5 that we have begun negotiations on 
agreements to amend certain provisions of the Compacts of Free 
Association with the Federated States of Micronesia and the Marshall 
Islands, and have begun Compact Review discussions with Palau. The 
progress of these negotiations and future funding decisions will be an 
important signal of our support to the region.
    Our cooperation with Palau is comprehensive and extensive. The U.S. 
Civic Action Team (CAT) headquartered at Camp Katuu, with its six-month 
rotations of military engineers and Seabees, supports a large number of 
projects around the islands of Palau which benefit the government and 
people of Palau. Palau participates in the Proliferation Security 
Initiative to interdict illicit transfers of weapons of mass 
destruction consistent with international law. Palau cooperates closely 
with us to ensure its shipping registry is not used by bad actors. 
Palau is a key partner in deregistering and reporting vessels that have 
been found using its flag for sanctions evasion and is actively engaged 
in a maritime law enforcement agreement to combat illegal, unreported 
and unregulated fishing and other illicit activities in its Exclusive 
Economic Zone. We work closely with Palau on a full suite of law 
enforcement matters through the Department of Homeland Security, U.S. 
Coast Guard, Drug Enforcement Agency and the Federal Bureau of 
Investigation. We conduct law enforcement training in Palau and 
collaborate on law enforcement investigations. Together, the United 
States and Palau are working to secure our borders, including our 
shared maritime border with the Freely Associated States. The scope of 
our people-to-people ties continues to expand. The United States is 
working with the next generation of leaders in the region and the 
annual Young Pacific Leaders conference is a positive example of this 
focus. The Department of State, together with the government of New 
Zealand and the East-West Center, is implementing a women's leadership 
program in Palau and across the North Pacific to address community 
needs and increase women's participation and decisionmaking in their 
communities.
    As noted in the joint statement issued after the historic meeting 
in Washington in May of this year between the President of the United 
States and the Presidents of the Freely Associated States, the U.S. and 
Palau are committed to ensuring the Pacific Ocean continues to be an 
important and vibrant corridor for maritime trade and that we will work 
together to reduce vulnerabilities to shared concerns, such as natural 
disasters, and support the resiliency of the Pacific Islands 
environment. The joint statement concludes with the shared confidence 
that our relationship with Palau and the other Freely Associated States 
will ``further our abiding mutual interests and remain a source of 
regional security, stability, and prosperity.''If confirmed, I pledge 
to promote and protect U.S. interests and our people in Palau to the 
best of my ability and to lead effectively and in good spirit our 
talented and dedicated American and Palauan staff at the U.S. Embassy 
in Koror. I warmly welcome the opportunity to work with you to ensure 
the strongest possible relationship with the Republic of Palau--a key 
partner of the United States in the Indo Pacific.
    Thank you again, Mr. Chairman, Ranking Member, and distinguished 
members of the committee, for this opportunity to speak with you today 
and answer your questions.


    Senator Rubio. So far this is a great panel. They have all 
come in under 5 minutes on their opening statements. Phenomenal 
work.
    [Laughter.]
    Senator Rubio. It speaks very well of your capabilities.
    All right. No pressure, Ms. Shea.

   STATEMENT OF DOROTHY SHEA, A CAREER MEMBER OF THE SENIOR 
FOREIGN SERVICE, CLASS OF MINISTER COUNSELOR, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                AMERICA TO THE LEBANESE REPUBLIC

    Ms. Shea. I intend to maintain that track record, Mr. 
Chairman.
    Chairman Rubio, Ranking Member Cardin, distinguished 
members of the committee, it is an honor to appear before you 
today as the President's nominee to serve as U.S. Ambassador to 
Lebanon.
    I am grateful to President Trump and Secretary of State 
Pompeo for putting me forward for this position. If confirmed, 
I look forward to working closely with you and your colleagues 
to advance U.S. interests in Lebanon and the region.
    With your permission, I would like to submit my full 
statement for the record.
    I am grateful to be joined today by several members of my 
family, whose love and support for me throughout my career has 
been critical to my resilience and my overall success. Excuse 
me for getting a little emotional about that. My sister, 
Margaret Shea Burnham, and my brothers, Brandon and Steve, plus 
several of my nieces and nephews--and I would highlight Catie 
Burnham who graduated from University of South Carolina 
yesterday and drove all night with her sister to get here 
today.
    I grew up in Falls Church, Virginia just a few miles from 
here, the youngest of six children. I heard stories from my 
father, Brandon Shea, about his Army service in World War II 
and afterwards in Paris as part of the Marshall Plan. My 
mother, Audrey Martin Shea's work also took her overseas from 
time to time. Their stories, together with the curiosity that 
was sparked when my family hosted Japanese exchange students 
spurred my interest in international relations. Little did I 
imagine that one day I would be sitting here before you in this 
chamber as an ambassadorial nominee. It is very humbling.
    I joined the Foreign Service 28 years ago, and every day of 
my public service has been an honor and privilege. I realized 
early on that key components of job satisfaction for me were 
that I continue to be learn, to be challenged, and to 
contribute in some way, however small, to the greater good. And 
as long as those criteria were met, I would stick it out in 
this peripatetic career. And sure enough, every job I have had 
in the Foreign Service has met those criteria in spades. In a 
couple of these jobs, I have had the opportunity to travel to 
Lebanon, including as a Pearson Fellow with this very 
committee. It was a great honor to help cover Middle East 
issues for the then-ranking member, Richard Lugar, a true 
statesman. I am lucky to count as friends those who were 
colleagues from my time with the committee, some of whom are 
here today.
    Turning to Lebanon, I would like to address the broad- 
based protests that began on October 17th and continue today. 
In a country known for its multi-religious character, these 
protests have been unprecedented in their truly national nature 
with involvement of Lebanese citizens across the nation, across 
sects, and across socioeconomic levels. Demonstrators have been 
calling for an end to the economic mismanagement and endemic 
corruption that have plagued Lebanon for decades. The United 
States strongly supports the right of Lebanon's citizens to 
protest peacefully and has called for their continued 
protection.
    The message from the protesters is loud and clear. The 
Lebanese people have had enough of their leaders prospering 
while the rest of the country struggles under crushing debt and 
in the absence of the most basic services, including trash 
removal, electricity, clean water. Their demands for a 
government committed to enacting far-reaching reforms led to 
the resignation of the cabinet on October 29th. But 
unfortunately, Lebanon's political leadership has failed to act 
expeditiously to respond to those calls for reform, and the 
government remains in caretaker status today.
    Until Lebanon's political leaders embrace the need for real 
and lasting reform, no government can succeed. But if leaders 
do embrace change, we stand ready to work with the government 
and the people to rebuild Lebanon's shattered economy.
    Lebanon's economic difficulties are profound, and it will 
not be easy to enact the structural reforms necessary to 
increase public investment, lower public debt and diversify its 
economy.
    A new Lebanese government also needs to pass measures that 
markedly improve transparency and root out corruption to gain 
the confidence of Lebanon's citizens and the international 
community.
    Mr. Chairman, Ranking Member, and distinguished committee 
members, I believe U.S. foreign policy is most effective when 
there is close communication and collaboration between the 
executive and legislative branches. If confirmed, I look 
forward to and I can pledge close cooperation on these critical 
foreign policy issues.
    I thank you again for the opportunity to appear before you 
today and look forward to your questions.
    [The prepared statement of Ms. Shea follows:]


                 Prepared Statement of Dorothy C. Shea

    Chairman, Ranking Member, distinguished members of the committee, 
it is an honor to appear before you today as the President's nominee to 
serve as U.S. Ambassador to Lebanon. I am grateful to President Trump 
and Secretary of State Pompeo for putting me forward for this position. 
If confirmed, I look forward to working closely with you and your 
colleagues to advance U.S. interests in Lebanon and the region.
    I am grateful to be joined today by several members of my family, 
whose love and support for me throughout my career has been critical to 
my resilience and my overall success. I was raised a few miles from 
here, in Falls Church, Virginia, the youngest of six children. I grew 
up hearing stories about my father Brandan Shea's Army service in World 
War II, and afterwards in Paris as part of the Marshall Plan; he later 
went on to work for the Department of Defense as a civilian for many 
years. My mother Audrey Martin Shea's work also took her overseas from 
time to time. Their stories, together with the curiosity that was 
sparked when my family hosted Japanese exchange students for a couple 
of successive summers, spurred my interest in international relations. 
Little did I imagine that one day I would be sitting before you in this 
chamber as an ambassadorial nominee.
    I joined the Foreign Service 28 years ago, and every day of my 
public service has been an honor and privilege. I did not necessarily 
think I would make a career out of the Foreign Service. But, I realized 
early on that the key components for job satisfaction for me were that 
I continue to learn, to be challenged, and to be able to contribute in 
some way, however small, to the greater good. I reasoned that as long 
as those criteria were met, I would stick with this peripatetic career. 
Sure enough, in every job I have had as a Foreign Service Officer, 
those criteria have been met. Indeed, I believe each job has helped 
prepare me to serve in the next position of greater responsibility. In 
a couple of the above-mentioned jobs, I had the opportunity to travel 
to Lebanon. One such position was as a Pearson Fellow with this very 
committee. It was a great honor to cover Middle East issues for the 
then-Ranking Member Richard Lugar. I am lucky to count as friends those 
who were colleagues from my time with the committee, some of whom are 
here today. I would also like to acknowledge Foreign Service mentors 
who have taught me so much over the years; they set the standard for 
leadership that I attempt to emulate every day.
    At the core of our interests in Lebanon are efforts to ensure a 
stable and prosperous nation with whom we can effectively partner to 
advance vital national security interests in the country and region. 
Working with the international community and the Lebanese people to 
address its now faltering stability is at the heart of U.S. interests 
in the Middle East and remains critical to ensuring our success in our 
efforts to defeat ISIS, foster regional stability, and counter Iran's 
destabilizing influence in the region.
    Since 2005, when the end of the Syrian military occupation of 
Lebanon created a strategic opportunity to increase U.S. impact and 
dilute the influence of the Iran/Syria/Hizballah axis, our strategy has 
been broadly consistent: supporting constructive political voices 
responsive to the needs of the Lebanese people and building the 
capacity of Lebanese state institutions, including the Lebanese Armed 
Forces (LAF).
    The spillover from the Syria conflict--including the movement of 
over one million Syrian refugees into Lebanon and deadly incursions by 
ISIS--injected new urgency into our approach, while unprecedented 
nationwide protests have presented new possibilities for responsiveness 
and reform.
    On October 17, broad-based protests began in Lebanon. In a country 
known for its multireligious character, these protests have been 
unprecedented in their truly national nature, with involvement of 
Lebanese citizens across the nation, across sects, and across socio-
economic levels. Demonstrators have been calling for an end to the 
endemic corruption and economic mismanagement that has plagued Lebanon 
for decades. The United States supports the right of Lebanon's citizens 
to protest peacefully and has called for their continued protection.
    These protests continue throughout the country today. The message 
from the protesters is loud and clear: the Lebanese people have had 
enough of their leaders prospering while the rest of the country 
struggles under crushing debt and in the absence of the most basic 
services, including trash removal, electricity, and clean water. They 
are demanding far-reaching reforms. They have called for a new 
government committed to meeting those demands, leading to the 
resignation of the cabinet on October 29. Unfortunately, Lebanon's 
political leadership has failed to act expeditiously to respond to 
those calls for reform and the government remains in ``caretaker'' 
status today.
    Until Lebanon's political leaders embrace the need for real and 
lasting reform, no government can succeed. But if leaders do embrace 
change, we stand ready to work with the government and people to 
rebuild Lebanon's shattered economy. The composition of the new 
government is a matter for the Lebanese people, not for the United 
States, to decide. We will work with anyone who is dedicated to reform 
and will put the interests of the Lebanese people first.
    Lebanon's economic difficulties are profound; it will not be easy 
to enact the structural reforms necessary to increase public 
investment, lower public debt, and diversify its economy. Several 
sectors of the economy will need to be completely revamped, because 
they generate massive debt and fail to collect adequate revenue, while 
failing to deliver satisfactory services.
    A new Lebanese government also needs to pass measures that markedly 
improve transparency and root out corruption so they can regain the 
confidence of Lebanon's citizens and the international community. If 
confirmed, I look forward to working with such a government to advance 
good governance, transparency, and economic reform.
    As my colleague Principal Deputy Assistant Secretary for Near 
Eastern Affairs Joey Hood testified before this committee on December 
4, the United States is committed to a vision of shared prosperity, 
regional and global security and stability, and a lasting partnership 
with the people of Lebanon.
    I believe that American foreign policy is most informed and 
effective when there is close communication and collaboration between 
the executive and legislative branches of government. If confirmed, I 
pledge to continue our close cooperation on these critical foreign 
policy issues.
    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I thank you again for the opportunity to appear before you 
today. I look forward to taking your questions.


    Senator Rubio. Thank you very much.
    And finally, Dr. Wright.

 STATEMENT OF DR. DONALD WRIGHT, OF VIRGINIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE UNITED REPUBLIC OF TANZANIA

    Dr. Wright. Mr. Chairman, Ranking Member, and distinguished 
members of the committee, I am honored to appear before you 
today as the nominee for Ambassador to the United Republic of 
Tanzania. I am deeply appreciative of the confidence that the 
President and the Secretary of State have placed in me by this 
nomination.
    At the outset of this hearing, I wanted to acknowledge 
family members that have played pivotal roles in my 
professional journey. First and foremost is my wife, Kathy 
Wright, who has been the source of unending encouragement and 
support. I would also like to acknowledge my parents who I 
believe are watching from above, probably in total shock.
    [Laughter.]
    Dr. Wright. From them, I inherited a strong work ethic and 
a commitment to lifelong learning.
    Trained in the disciplines of family medicine, occupational 
medicine, and public health, I spent the first 17 years of my 
professional life as a practicing physician in central Texas. 
In 2003, I moved to Washington to serve as Director of the 
Office of Occupational Medicine at OSHA in the Department of 
Labor. This relocation began my 16 years as a career civil 
servant, a career devoted to improving the health and safety of 
the American people. With a personal passion for prevention, it 
has been a privilege to lead the Office of Disease Prevention 
and Health Promotion for almost 8 years.
    Over 30 years ago, very much at the dawn of my medical 
career, I landed in Dar es Salaam, Tanzania to serve as a 
volunteer physician at a public hospital in Zanzibar. Alongside 
a British physician, I treated children with malnutrition, 
malaria, parasites, and tuberculosis. During that memorable 
summer, I developed a deep admiration for the Tanzanian people. 
They were warm, generous, and treated strangers like family.
    If confirmed, it would be an honor to come full circle and 
serve in Dar es Salaam, Tanzania 3 decades later as the United 
States Ambassador.
    The United States has a longstanding commitment to 
Tanzania's development as a stable, reliable, democratic 
partner, capable of growing its economy sufficiently to support 
the health, education, and ambitions of its people while also 
becoming a market for U.S. exports and investment. Tanzania 
provides vital stability in the region and contributes to 
peacekeeping in Central Africa, Sudan, and South Sudan.
    If confirmed, I will focus broadly on three priorities: 
people, health, and trade.
    As a medical doctor, my career has focused on the lives of 
people. My first priority will likewise focus on the lives of 
people: American and Tanzanian. Ensuring the safety and 
security of embassy staff and the American expatriate community 
will be a top priority. For the Tanzanian citizens, continuing 
deterioration of democratic norms has restricted their personal 
liberties, including free association and freedom of assembly. 
I am committed to working with the host government, like-minded 
missions, civil society, and international organizations to 
address this trend.
    Furthermore, Tanzania's national elections will be held in 
October 2020. If confirmed, I look forward to continuing the 
work of our embassy to encourage a fair, free, transparent, and 
inclusive election. Lastly, I will work with the host 
government to improve the prevention and prosecution of human 
trafficking.
    Almost 80 percent of the development assistance provided by 
the American taxpayer to Tanzania is directed to improving the 
health of the Tanzanian people. Efforts to reduce the burden of 
HIV, malaria, and tuberculosis are bearing fruit. If confirmed, 
I am committed to leveraging American investments to produce 
continued improvements in health outcomes. Utilizing the 
expertise of the Global Health Security Agenda, which includes 
U.S. government agencies, international partners, and private 
stakeholders, we will continue to train Tanzanians in the 
prevention, detection, and response to deadly viruses that are 
endemic to the region such as Ebola.
    The current challenging business environment has impeded 
U.S. business investment. Yet, Tanzania has been one of 
Africa's fastest growing economies. If confirmed, I look 
forward to expanding American business opportunities in 
Tanzania and to improving the overall investment climate.
    It is difficult to imagine a greater honor than returning 
to Tanzania as the U.S. Ambassador. If confirmed, my preeminent 
goal will be to strengthen this important bilateral 
relationship.
    I thank you for the opportunity to appear before you today 
and look forward to answering your questions.
    [The prepared statement of Dr. Wright follows:]


              Prepared Statement of Donald Wright, MD, MPH

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am honored to appear before you today as the nominee for 
Ambassador to the United Republic of Tanzania. I am deeply appreciative 
of the confidence that the President and the Secretary of State have 
placed in me by this nomination.
    At the outset of this hearing, I want to acknowledge family members 
that have played pivotal roles in my professional journey. First and 
foremost, is my wife, Kathy Wright, who has been the source of unending 
encouragement and support. I would also like to acknowledge my parents, 
who I believe are watching from above. From them, I inherited a strong 
work ethic and a commitment to life-long learning.
    Trained in the disciplines of Family Medicine, Occupational 
Medicine and Public Health, I spent the first 17 years of my 
professional life as a practicing physician in Central Texas. In 2003, 
I moved to Washington to serve as the Director of the Office of 
Occupational Medicine at OSHA in the Department of Labor. This 
relocation began my 16 years as a career civil servant: a career 
devoted to improving the health and safety of the American people. With 
a personal passion for prevention, it has been a privilege to lead the 
Office of Disease Prevention and Health Promotion for almost eight 
years.
    Over 30 years ago, at the dawn of my medical career, I landed in 
Dar es Salaam, Tanzania to serve as a volunteer physician at a public 
hospital in Zanzibar. Alongside a British physician, I treated children 
with malnutrition, malaria, parasites, and tuberculosis. During that 
memorable summer, I developed a deep admiration for the Tanzanian 
people; they were warm, generous and treated strangers like family.
    If confirmed, it would be an honor to come full circle and serve in 
Dar es Salaam, Tanzania three decades later as the United States 
Ambassador.
    The United States has a long-standing commitment to Tanzania's 
development as a stable, reliable, democratic partner, capable of 
growing its economy sufficiently to support the health, education and 
ambitions of its people, while also becoming a market for U.S. exports 
and investment. Tanzania provides vital stability in the region and 
contributes to peacekeeping in Central Africa, Sudan, and South Sudan.
    If confirmed, I will focus broadly on three priorities: people, 
health, and trade.
    As a medical doctor, my career has focused on the lives of people. 
My first priority will likewise focus on the lives of people: American 
and Tanzanian. Ensuring the safety and security of embassy staff and 
the American expatriate community will be a top priority. For the 
Tanzanian citizens, continuing deterioration of democratic norms has 
restricted their personal liberties, including free association and 
assembly. I am committed to working with the host government, like-
minded missions, civil society and international organizations to 
address this trend.
    Furthermore, Tanzania's national elections will be held in October 
2020. If confirmed, I look forward to continuing the work of our 
embassy to encourage a fair, free, transparent and inclusive election. 
Lastly, I will work with the host government to improve the prevention 
and prosecution of human trafficking.
    Almost 80 percent of the development assistance provided by the 
American taxpayer to Tanzania is directed to improving the health of 
the Tanzanian people. Efforts to reduce the burden of HIV, malaria, and 
tuberculosis are bearing fruit. If confirmed, I am committed to 
leveraging American investments to produce continued improvements in 
health outcomes. Utilizing the expertise of the Global Health Security 
Agenda, which includes U.S. government agencies, international 
partners, and private stakeholders, we will continue to train 
Tanzanians in the prevention, detection and response to deadly viruses 
that are endemic to the region, such as Ebola.
    The current challenging business environment has impeded U.S. 
business investment, yet Tanzania has been one of Africa's fastest-
growing economies. If confirmed, I look forward to expanding American 
business community opportunities in Tanzania, and to improving the 
overall investment climate.
    It is difficult to imagine a greater honor than returning to 
Tanzania as the U.S Ambassador. If confirmed, my preeminent goal will 
be to strengthen this important bilateral relationship. I thank you for 
the opportunity to appear before you today and look forward to 
answering your questions.


    Senator Rubio. Thank you.
    Senator Cardin?
    Senator Cardin. Again, let me thank all four of you for 
your presence here today and your testimony.
    I want to start with Mr. Chapman. We had a chance to chat. 
I really want to compliment the manner in which you were here 
once before as Ambassador to Ecuador, and we had a conversation 
then. You made certain commitments, and you carried out those 
commitments, which I find not only important, but it gives me 
an indication about your sincerity to work with the Members of 
Congress.
    Ambassador Chapman. Thank you, sir.
    Senator Cardin. In regards to Brazil, there are many 
challenges. It is a very important country. It is a large 
country. It is very important in its region, as well as 
globally. And I find the trends to be extremely concerning in 
that country under its current leadership. When the president 
calls protests in Chile, Colombia, and beyond terrorist acts, 
he is referring to what is happening in his own country as far 
as lawful protests in an effort that he has to change the 
democratic principles of Brazil by stacking the deck in favor 
of the current government. Human rights in that country is 
moving in the wrong direction.
    How do you intend to use America's presence in Brazil to 
strengthen its commitment to human rights and protecting the 
population?
    Ambassador Chapman. Thank you, Senator Cardin, and thank 
you for recalling our previous conversations. And I appreciate 
the chance to call upon you in your office as well.
    Human rights is a fundamental element of American foreign 
policy, and when President Trump and President Bolsonaro met, 
as part of their joint statement, they made a commitment to 
democratic values. And I think that is one of the priorities 
that we must advocate for, is to promote U.S. human rights 
principles and values when we are abroad representing our 
country.
    Brazil has a rich history. It has perhaps different views 
on different subjects, but the important thing is that we have 
a very constructive engagement on human rights. They are 
supporting our positions whether it comes to religious freedom 
or combating the trafficking in persons involving Venezuelan 
refugees. So we have opportunities and we have challenges.
    Now, when addressing these challenges, it is important that 
we have frank, constructive dialogues with countries with we 
may have discrepancies. And as I committed before I went to 
Ecuador, I commit to you again, sir, I will have those frank 
discussions with our counterparts, and I look forward to that.
    Senator Cardin. I appreciate that, and I hope that our 
mission will be a haven for those that are seeking a voice in 
regards to human rights.
    Ambassador Chapman. Absolutely. It is important that the 
U.S. embassy represents those values, and I commit to speaking 
with a broad range of civil society within the country. And 
fortunately, Brazil does have very strong institutions, whether 
it is the free press, a strong judiciary, strong civil society. 
With them, we can dialogue and work together on these issues.
    Senator Cardin. The other major change we have seen in the 
country under its new president is its lack of commitment to 
the environment. Since August of 2018, Brazil has lost area in 
the rainforest equivalent to 12 times the size of New York 
City. When we try to engage, we get a really, I think, arrogant 
response. We recognize that Brazil is responsible for the 
control of its own territory, but the rainforest is a universal 
treasure.
    How can we leverage the U.S. involvement with our global 
partners to protect that valuable resource that not only 
captures carbon but also provides biodiversity, which is 
critically important to our world security?
    Ambassador Chapman. Yes, sir. I am very aware that the 
recent fires in the Amazon attracted a lot of attention. These 
are annual occurrences. When I lived in Brasilia before, I 
remember in this certain time period of August to October, you 
would see the smoke coming across the country.
    However, I think we have a constructive engagement plan 
that we are executing with the Brazilians right now. First of 
all, in response to the wildfires, we sent six experts from our 
U.S. Forest Service to go down and assist. We saw above average 
fires in August, but actually below average amount of fires in 
the subsequent 2 months. The current administration in Brazil 
committed 9,500 extra personnel in September to help combat the 
fires. That was a robust response resulting in a slightly below 
average amount of wildfires this year compared with earlier 
years.
    So I think the important thing, sir, is constructive 
engagement. We have an $80 million program with USAID over the 
next 8 years on conservation, and we also have an innovative 
social impact fund, a $100 million fund, that we just signed 
with the government that I think will provide opportunities for 
responsible development in the Amazon.
    Senator Cardin. I appreciate that response. If constructive 
engagement works, fine. If not, let us look at stronger ways to 
make sure that progress is made to preserve the Amazon.
    Mr. Hennessey-Niland, you came from Australia, as I 
understand.
    Mr. Hennessey-Niland. Correct, sir.
    Senator Cardin. So I will excuse you for your reference to 
your son's support for the Pittsburgh Steelers.
    [Laughter.]
    Mr. Hennessey-Niland. Thank you, sir.
    Senator Cardin. They are playing an important game at 
Ravens Stadium next weekend, and I will not ask who you are 
rooting for.
    But thank you very much for your service.
    I want to talk a little bit about human rights. I am 
concerned that we find a major concern for women. Approximately 
35 percent of the women experience physical or sexual violence 
or both since the age of 15. The report also noted that there 
are no shelters for rape or domestic violence victims. So I do 
think that the United States, which enjoys a very close 
relationship with Palau, that we should be able to leverage 
that to advance the protection of its population, particularly 
women.
    So how do you intend to use our mission to try to advance 
those goals?
    Mr. Hennessey-Niland. Thank you, Senator. You raise a very 
important issue.
    I think there is no higher priority than the protection of 
women and children and the vulnerable.
    As you know, there are challenges in Palau. It is a tier 2 
country in terms of trafficking in persons. It is a transit 
point in the Western Pacific. But it has been a priority of the 
administration and the U.S. embassy in Koror to focus on these 
challenges. And sir, the U.S. government has a number of 
programs in place to improve the human rights conditions in 
Palau, as you said, sir. We have a specific and unique 
relationship with Palau under the compact arrangements. And I 
certainly pledge to you, Senator, if confirmed as Ambassador, 
this will be one of my top priorities.
    Senator Cardin. I would just make the final note on this 
that as we look at beyond 2024 and the compact, I hope that 
this will be one of the areas that we will concentrate on 
expecting to see additional progress made protecting women and 
human rights issues on the island.
    Mr. Hennessey-Niland. Senator, I appreciate that point. And 
as the Secretary of State mentioned in August in his historic 
visit to Micronesia, he noted that we are just at the beginning 
part of those discussions on that next part of the compact 
arrangement, and this certainly will be a key element of those 
discussions.
    Senator Cardin. Thank you.
    I will get to the other two on the second round. Do not 
think I ignored you.
    Senator Rubio. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thanks to all of the nominees here today for your service 
and willingness to continue to serve the country.
    Mr. Hennessey-Niland, just to continue the conversation you 
had, could you broadly briefly speak about the importance of 
Palau and the Pacific islands more generally to U.S. interests?
    Mr. Hennessey-Niland. Senator Gardner, thank you for your 
question. I would be happy to.
    And also I would like to thank you for taking the time this 
morning to discuss with me your very strong and sincere 
interest in the Pacific.
    I have served in the Pacific on a number of occasions in a 
number of different roles, earlier in my career as the Chief of 
the small Political Economic Section in Suva, Fiji, which is a 
regional post for the Department of State. Later I was a 
military advisor for the Marine Corps forces in the Pacific 
headquartered in Hawaii, and we traveled across the Pacific. 
And most recently I have served as the Political Counselor at 
the U.S. embassy in Canberra, which is a platform for 
protecting U.S. influence and U.S. interests and U.S. ideals 
across the Pacific.
    Palau is strategic. The map does not change. Palau was a 
key strategic battle in 1944, the battle of Peleliu, and the 
geography remains the same. It is a bastion, a stronghold of 
American ideals and American values. It has a unique 
relationship with the United States.
    As the chairman noted, unfortunately it has been a victim 
of bullying from the PRC in terms of turning off the spigot of 
terrorism from the mainland China. Fortunately, Palau is 
resolute, determined, and remains a strong supporter of the 
U.S. relations with Israel. It is a key partner and recognizes 
Taiwan.
    And I will do my utmost, if confirmed as Ambassador, to 
ensure that the strength of our relationship with Palau 
continues long into the future.
    Senator Gardner. This committee passed and the Congress 
approved the Asia Reassurance Initiative Act. In the new 
appropriations bill that we will be voting on later this week, 
we appropriated about $2.5 billion for implementation of ARIA, 
as well as the Indo-Pacific Strategy and related programs.
    What does that kind of a resource and program authority 
mean for Palau and others in the region?
    Mr. Hennessey-Niland. Senator Gardner, ARIA is extremely 
important. As Assistant Secretary David Stilwell testified 
before this committee, it is very, very complementary to the 
administration's National Security Strategy and to the Indo-
Pacific Strategy. And certainly now that there is funding in 
the pipeline for ARIA, this administration and certainly I, if 
confirmed as Ambassador, will want to work very closely with 
this committee to ensure that we use the full gamut of tools 
available under ARIA to assist with our foreign policy 
objectives in the Western Pacific.
    Senator Gardner. ARIA talks a lot about U.S. interests, 
particularly countering some of the activities of China and 
giving our allies in the region reasons to join the U.S. 
economically from a national security perspective.
    What do you see from your perspective in Australia and your 
experiences in other places--what do you see China--their 
efforts in Palau and other places--what do you see them doing 
on a daily basis? What do you see this contested space like?
    Mr. Hennessey-Niland. So it is a very good question.
    And I would describe the Pacific as the front lines in this 
competition with the PRC. As you have said, sir, I have served 
there for a number of years in different positions in different 
parts of the Pacific. But the challenge is the same. I think 
the template, the game plan for the PRC remains the same. We 
see it in Australia even, a strong democracy, a Five Eyes 
partner, treaty ally of the United States.
    And I think it is incumbent upon all of us as 
representatives of this great country to push back, to compete, 
and to confront when necessary, and to call out publicly when 
appropriate, malign and malicious activities of the PRC. 
Unfortunately from my perspective, sir, I see that taking place 
across the Pacific, and it is our duty and obligation, I think, 
as representatives of this great country to call out such 
misbehavior and to support an international rules-based, norms-
based order.
    Senator Gardner. The Senate passed the Taipei Act, which 
was designed to help create a more strategic approach the U.S. 
has around the world as it relates to Taiwan and to those 
countries with relations to Taiwan, diplomatic relations, 
recognition of Taiwan.
    What does the Taipei Act mean to Palau? How can we continue 
this effort? Palau has a strong relationship with Taiwan. Do 
you want to talk about that a little bit more?
    Mr. Hennessey-Niland. Certainly, sir. And as we discussed 
this morning, if the Taipei Act becomes law, I think it would 
be a very important contribution to supporting allies as Palau, 
which has recognized and remains one of the countries that 
continues to recognize Taiwan. Taiwan is an important partner 
of the United States in the Pacific and, as we discussed this 
morning, sometimes an under-utilized ally in the Pacific. And I 
think we can do more with Taiwan to assist Pacific Island 
nations such as Palau.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Good morning. Thank you all for being willing to consider 
the nominations to these critical positions at this time in our 
history. I appreciate your being here to answer our questions.
    I want to begin with you, Ms. Shea. I want to bring to your 
attention the case of a U.S. citizen and New Hampshire 
resident, Amer Fakhoury. He is a constituent of mine. I know 
people and have myself frequented his small business in Dover, 
New Hampshire. So I appreciate his support in the Dover 
community.
    For those who are not familiar with this case, Mr. Fakhoury 
has been detained in Lebanon since September, and there is 
particular urgency now because he is very gravely ill with 
lymphoma and is in serious need of treatment. The embassy in 
Beirut has been very engaged in advocating on Mr. Fakhoury's 
behalf, but so far we have been unable to persuade the Lebanese 
government to grant his release on humanitarian grounds. Time 
is of the essence, and as a long-time supporter of the U.S.-
Lebanon partnership, the last thing I would want to see is a 
situation that complicates our relationship with Lebanon 
because an American citizen who was being detained there has 
died in Lebanese custody.
    So, if confirmed, do you commit to working with the 
Lebanese government towards a humanitarian solution in this 
case and to keeping my office informed of this progress?
    Ms. Shea. Yes, Madam Senator. I am familiar with the case. 
I am aware that Ambassador Richard and others at the embassy 
team have been heavily engaged, and I would commit myself, if 
confirmed, to maintain that level of engagement. I view there 
being no higher calling than to protect U.S. citizens overseas 
when we are serving our country in our embassies. And I am 
concerned about Mr. Fakhoury's wellbeing too. I would commit 
myself to calling to make sure that he received the proper 
medical care while he is in detention and advocating 
strenuously for his release.
    Senator Shaheen. Thank you very much. Obviously, the 
situation is challenging in Lebanon right now because of the 
unrest, and analysts suggest that it has reached a point of no 
return where its politicians have to regain the confidence of 
the people of Lebanon.
    Can you talk about what you could do as Ambassador to help 
support stability in Lebanon and to help getting a resolution 
to some of the issues that the people of Lebanon have raised?
    Ms. Shea. Thank you for the question.
    I have been watching with great interest over the last 2 
months as Lebanese people have taken to the streets exercising 
their human rights, calling very rigorously for the government 
to embrace very serious, very structured systematic reforms. 
And the United States? administration stands with the people of 
Lebanon as they demand their basic needs to be met by their 
government. If confirmed, I would want to play a responsible 
role.
    The United States would want to be careful not to be seen 
as interfering or intervening, but playing a supportive role in 
respecting the role of citizens to make these basic demands of 
their government. It really underscores for me, now that we 
have seen some acts of violence over the last 3 days, the 
urgency for the political leadership in Lebanon to listen to 
these demands and to act on them. It is very clear what needs 
to be done in terms of the kinds of reforms that people are 
demanding, and there is a very clear road map that was laid out 
in the CEDRE conference of 2018. If confirmed, I would try to 
work with the political leaders to persuade them to embrace 
these very much needed reforms.
    Senator Shaheen. Thank you very much.
    Ambassador Chapman, gender violence is an urgent human 
rights issue that I think more and more we are becoming aware 
of around the world. And under the Bolsonaro administration, 
there have been allegations that his comments have increased 
misogynistic behavior and dialogue. And I wonder if you have 
any concerns about President Bolsonaro's commitment to 
democracy and human rights, particularly the rights of women?
    Ambassador Chapman. Thank you, Senator Shaheen. It is nice 
to see you and thank you very much for that question.
    Gender-based violence is a problem not only in Brazil, but 
all throughout Latin America. I spent 3 and a half years in 
Ecuador as Ambassador, and while I was there, as our mission 
team, we decided to select only one social issue to concentrate 
our efforts for our country team, and as a group we chose 
gender-based violence because it touches on so many different 
aspects of a society. So taking that knowledge and experience 
of working on gender-based violence issues in Ecuador, I hope 
to be able to replicate that in Brazil.
    There are many roots, many causes for gender-based 
violence. Sometimes it is women who feel trapped, that they 
cannot economically support themselves if they were to get out 
of a difficult relationship. We sponsored a very successful 
women's entrepreneurship program in Ecuador and saw how 
beneficial that was for gender-based violence. So I would hope 
that in Brazil, I would be able to take some of the lessons 
that I learned personally and my mission learned personally in 
Ecuador--and you have somebody on your staff who was a part of 
that process, your Pearson Fellow. Wonderful to see her.
    So it is an opportunity I think for us to expand our 
engagement in Brazil, look for new solutions. And the U.S. has 
a lot of offer here. I think constructive engagement, again 
having frank conversations, not being afraid to hold them, and 
then look for solutions that are practical, implementable, and 
that go beyond rhetoric is really the key to achieving 
demonstrable success.
    Senator Shaheen. Thank you.
    Another area that has been controversial during the 
Bolsonaro administration has been his rather cavalier response 
to the fires in the Amazon and the environmental degradation 
that has resulted. Can you talk about to what extent you could 
work with the Bolsonaro administration and what we can do as 
Americans and as people concerned about our global environment 
to support efforts in Brazil to protect the environment?
    Ambassador Chapman. Yes. Clearly the environment is an 
important element of our U.S. agenda in the country of Brazil. 
I will repeat myself just a little bit from some earlier 
comments made that we do have a very constructive agenda right 
now with the Brazilians. We have a USAID program for $80 
million over an 8-year period to promote conservation in the 
Amazon. We have a $100 million social impact fund that was just 
launched with this government that we are very hopeful the 
private sector is going to be able to find sustainable ways to 
develop the Amazon. We are good at this. We know how to do 
this. And I think by engaging the Bolsonaro government, we can 
provide some alternatives. But, again, it is important that we 
have that constructive dialogue, that it be one that they 
believe that we are on the same side. We all want the same 
thing. We want to see the Amazon prosper for generations, and I 
think the U.S. has a role to play.
    Senator Shaheen. Thank you. I agree. Several years ago, 
actually when I was Governor, we had a group of Brazilians come 
up, sponsored by one of our federal agencies. And we were 
connecting them with people who were working on water and 
sewage treatment initiatives, small businesses. And it was a 
very successful pairing, and it is the kind of thing that we 
want to encourage and try and do more of. So thank you for your 
response.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to the nominees. You all have 
impressive public service backgrounds. And, Ms. Shea, you give 
hope to Pearson Fellows everywhere like this one.
    [Laughter.]
    Senator Kaine. He may amount to something one day.
    [Laughter.]
    Senator Kaine. The Pearson Fellow program has been 
magnificent. J.C. Jaine is my Pearson Fellow right now, and 
they have served the members and the committee so well.
    I missed some of the Q and A because of an Armed Services 
hearing, but I want to start with you, Ms. Shea, on Lebanon.
    There has been controversy recently about the U.S. 
relationship with the Lebanese Armed Forces (LAF) just because 
there was a hold on funds that has since been released. But 
share your perspective on the importance of the U.S.-LAF 
relationship. And if there are issues where we want to 
encourage them to do better, how can we and what would your 
approach be to that?
    Ms. Shea. Thank you for the question, Mr. Senator.
    The United States has invested a lot in the Lebanese armed 
forces trying to build up its capacity and its professionalism 
over the last 13-plus years. And as a result of this 
investment, we see now that the Lebanese armed forces are 
securing Lebanon's border with Syria whereas in the past, there 
were deadly incursions from ISIS fighters. They have worked 
with us and under our mentorship on a military-to-military 
basis. And we are very pleased with the investment that we are 
making, and we see further potential for development in the 
professionalization of the army.
    I would also want to credit the Lebanese armed forces for 
playing a largely responsible role as these protests have gone 
on for the last 2 months, actually cordoning off peaceful 
protesters and protecting them from armed thugs who came out to 
harass and intimidate and perpetrate acts of violence against 
them on behalf of Hezbollah or Amal. So this is very much in 
keeping with the kind of doctrine that our military officers 
have been imparting to them.
    Senator Kaine. Can I ask your perspective as someone who 
has spent a lot of time in the region? If we look at protests 
in Lebanon, Iraq, and Iran, are there underlying similarities, 
or are they so country-specific that you cannot generalize 
about the similarities in these protests?
    Ms. Shea. Well, Mr. Senator, there are probably some common 
threads. I myself feel a little bit limited in my ability to 
extend analogies beyond my immediate purview here, but I know 
my colleague, Principal Deputy Assistant Secretary Joey Hood, 
addressed this committee on December 4th looking at just this 
very phenomenon of protests.
    What I would offer is that I believe it represents an 
opportunity for, as my colleague on the panel was saying, 
constructive U.S. engagement. How these citizens of these 
countries present their demands to their elected governments, 
how they advocate for the reforms that they want to see and the 
services that they rightfully deserve as citizens is really 
their call. But we can support their exercise of their basic 
human rights in doing so and call out others who malign them, 
who attack them violently, and we can call for their 
protection.
    Senator Kaine. Mr. Hennessey-Niland, I have not been to 
Palau, but it is a small nation spread over hundreds of islands 
and it is very vulnerable to climate issues. Talk a little bit 
about what work you have done in the past that might deal with 
environmental threats and then how you would bring that to bear 
in trying to assist Palau from the United States' perspective, 
should you be confirmed.
    Mr. Hennessey-Niland. Thank you, Senator Kaine, and it is 
an important issue.
    I have had the good fortune of visiting Palau once before, 
but I have had extensive service in the Pacific. We addressed 
environmental concerns years ago when I was the Political 
Economic Chief in Suva, Fiji. It was also actually a matter of 
concern for the U.S. military when I was the foreign policy 
advisor with the Marine Corps forces in the Pacific because for 
Pacific island states, this is a serious concern. And the U.S. 
government recognizes that climate change and environmental 
degradation are serious concerns, in particular for small 
Pacific island nations.
    These issues were highlighted most recently at the Pacific 
Islands Forum summit just a few months ago in Tuvalu. It is 
something that in my current position as the Political 
Counselor and Acting Deputy Chief of Mission in Australia we 
talk to the Australian government a lot because Australia is a 
key partner of the United States addressing environmental 
challenges in the Pacific. And the U.S. has sought to support a 
balanced approach to addressing these concerns, to protect the 
environment on the one hand and to promote economic development 
on the other. And both are essential for prosperity and 
security and stability of these small Pacific economies.
    Senator Kaine. We need not pitch them as being a choice, 
one against the other.
    Mr. Hennessey-Niland. No. They are both necessary.
    Senator Kaine. I remember having Secretary Perry before us 
in the Armed Services Committee to talk about the work that the 
DOE does on the nation's nuclear reactors, and we were talking 
about his experiences as Governor of Texas and the work that 
they did on alternative energy, wind and solar, in Texas was 
great for the environment and it was tremendously impactful in 
a good way on the Texas economy. So we can hit the balance 
where we are achieving both goals.
    Mr. Hennessey-Niland. I completely agree, sir.
    Senator Kaine. Dr. Wright, I want to ask you. My son was 
deployed in Tanzania as part of AFRICOM as a marine, and we do 
an awful lot of mil-to-mil cooperation with nations, including 
Tanzania. Talk a little bit about the importance of mil-to-mil 
relations with the country and how you would work to continue 
to have the U.S. be a good security partner of choice for the 
government of Tanzania.
    Dr. Wright. Thank you, Senator, for that important 
question.
    It is true that the security concerns are one of the bright 
spots in our bilateral relationship with Tanzania. There are 
multiple examples of where we have worked very effectively with 
the host government. In the area of peacekeeping and U.N. 
peacekeeping forces, there has been a great deal of success. 
Certainly maritime security is another area that there has been 
good success between the two countries.
    And then in the area of wildlife conservation, something 
that is very important, certainly the park systems within 
Tanzania and the animals that inhabit them is one of the crown 
jewels of Tanzania and they need to be protected. There have 
been some transnational criminal elements that have used 
poaching as a means to raise funds for their activities. And I 
am very proud of the work that the U.S. government has done in 
training those anti-trafficking individuals. They work very 
closely with the Tanzanian wildlife management agency and 
provided them skills that they need to be effective from air 
land reconnaissance to patrolling to weapons, et cetera, et 
cetera.
    So there is a very strong security bilateral relationship 
between the two countries, and I will continue to pursue that, 
if I am confirmed.
    Senator Kaine. Excellent. Thank you.
    And just lastly, Ambassador Chapman, I am not going to 
repeat the question that Senator Shaheen asked about the 
Amazon. I think many of us are very concerned about that, and 
it is tied a little bit to us. The trade issues that are 
leading to the complete drop-off of soybean exports from the 
United States into China has led China to look for other 
markets, and some of the deforestation in the Amazon is being 
done to clear to grow soybeans as China looks to Brazil as a 
soybean exporter. So you have already sort of answered the 
question, but I just want to encourage you to focus 
significantly on that issue, should you be confirmed.
    Ambassador Chapman. Will do, Senator. Thank you.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Rubio. Thank you.
    Let me just start with Brazil. I am not sure there is 
anything you can do about it in the short term, but I wanted to 
bring an issue to your attention. Back in October of this year, 
the ranking member of this full committee, Senator Menendez, 
and I sent a letter to the Treasury and it was in regards to a 
Brazilian-based company, conglomerate, by the name of JBS. And 
they have become increasingly active in the American food 
sector. In fact, they are the world's largest meat processing 
company with major holdings across the country. They purchased 
the beef and pork processing company, Swift Food. Then they 
acquired the beef processing operations of Smithfield Foods in 
2009. They obtained the majority of the poultry processing 
operations of Pilgrim Pride, and they purchased Cargill's pork 
processing operations in 2015.
    Here is the problem. JBS, which has been increasingly 
involved in the U.S. market, has been implicated in a wide 
range of illicit activities in Brazil. The company, J&F 
Investimentos, which owns 40 percent of JBS, in fact reached a 
settlement. They paid $3.2 billion in fines for its role in a 
bribery scandal in Brazil. The head of that settlement, the 
owners of that company, Joesley and Wesley Batista, who happen 
to be the sons of the founder of JBS, admitted to bribing more 
than 1,800 Brazilian politicians in the amount totaling more 
than $150 million in order to illicitly acquire loans and 
financing from the Brazilian Development Bank.
    The problem is that those loans and that financing, this 
ill-gotten financing, that it received, which totaled more than 
$1.3 billion--they used it to acquire these American companies 
that I just outlined. In fact, there have been reports that the 
Justice Department has opened an investigation into this 
company for potential violations of foreign corrupt practices.
    But that underscores our concerns, but it also points to 
the fact that this company has conducted business with a number 
of dubious partners which include the so-called Venezuelan 
Corporation of Foreign Trade, which is identified by FINCEN in 
September of 2017 in public corruption. And we have seen 
investigative reporting that has documented how the Batista 
brothers' personal relationship with a drug lord by the name of 
Diosdado Cabello in Venezuela also raised these concerns.
    So I only raise it because this is an issue that I hope 
will come to a head and that we are focused with. And I imagine 
that the issue would be raised in our embassy.
    I think there is a lot of awareness in Brazil about the 
tri-border area, the area that links Paraguay, Argentina, and 
Brazil, to become a safe haven for organized crime and for 
terrorist groups. That includes Hezbollah.
    But the other concern that we talked about a little bit was 
not that Brazil is a source country for terrorism because it 
would not be necessarily, but they would be a transit point for 
people seeking entry into the United States via Brazil, perhaps 
purchasing false travel documents and the like.
    What can we do to be good partners in that regard? How can 
we further our work with the Brazilian government on that 
potential counterterrorism threat?
    Ambassador Chapman. Senator Rubio, on the first question of 
JBS, I am aware of your letter, and this is something that our 
government and the Brazilian government share an interest in is 
rooting out corruption, rooting out private companies that are 
bribing officials. So I do not know exactly where this 
particular issue stands, but if confirmed, I will be following 
up with the Department of the Treasury and Department of 
Justice to understand where that particular case might be.
    On the tri-border area, an area that has long been a 
bastion for organized crime and ill-doing, fortunately in 
recent months, we have been able to increase our cooperation 
with Brazil and with Argentina and Paraguay to look together at 
how U.S. law enforcement can increase our cooperation and come 
up with more lasting solutions. Hezbollah has not yet been 
designated as a terrorist organization by the government of 
Brazil. They have passed legislation that might permit them to 
do so and are working now in implementing regulations. Of 
course, Argentina and Paraguay have already done so. So this 
will be a point of follow-up.
    But I do see that law enforcement cooperation, which is 
already extremely good is an area where we can expand in the 
coming months and years.
    Senator Rubio. Thank you.
    Mr. Hennessey-Niland, I am not asking you to do anything 
about it, but I too need the Steelers to lose that game because 
the Dolphins hold their first round pick next year, and the 
worse the Steelers do, the better the pick is. I am not saying 
that is in any way linked to your nomination.
    [Laughter.]
    Senator Rubio. But if you would put in a good word.
    So anyway, on Palau, China has been, obviously, putting a 
lot of pressure. We saw the tourism package ban that they had. 
We have seen their offers to supplement and/or replace U.S. 
assistance and so forth. And we have seen it play to some 
results in places like the Solomon Islands and Kiribati which 
broke off ties with Taiwan. The Taiwan issue is a concern. The 
broader concern is obviously the presence in that region for 
geopolitical purposes and to leverage out the United States' 
ability to be present in the Pacific and the Western Pacific 
region.
    And the particular concern now with Palau is that there are 
these reports of these high profile politicians who also happen 
to be involved in a hotel project with Chinese partners who are 
reportedly now becoming advocates for switching recognition 
from Taiwan to China.
    So we go to these countries and we say you should not do 
this because. What is the ?because,? number one? What is the 
argument? Why is it not in their interest? They are going to 
argue we need investment. They provide all this money that 
would make us look good but also would help our economies. And 
they argue you have nothing comparable to replace it with. So 
what is the argument that we make to governments like this 
particularly, if confirmed, that you would make as to why sort 
of not just switching recognition but accepting this Chinese 
largesse is bad for the long-term security and wellbeing of 
Palau?
    Mr. Hennessey-Niland. Thank you, Chairman Rubio. I very 
much appreciate the question.
    It is the issue that we focus on every single day across 
the Pacific. There is a nexus of issues in that question. One 
is corruption, and unfortunately corruption is rife across 
these vulnerable small economies and governments. And 
governance is an issue that the United States prioritizes in 
our discussions and our negotiations with the Pacific island 
nations. It is a key part of the compact arrangements with our 
three trust territories in the Pacific.
    I think people focus sometimes on the opportunities 
associated with the Chinese largesse. I think part of our job 
is to point out some of the risks associated with those same 
so-called lucrative investments. The Chinese game plan has been 
to push wherever they can. I think we have to be responsive, 
present, and committed to pushing back when appropriate. I 
think there is no equivalence between the PRC and the United 
States. What the U.S. and its like- minded partners across the 
Pacific offer is not corruption or bribery. What we offer is a 
sustained commitment to these island nations, working with them 
productively, constructively to ensure that they have 
democratic systems in place that benefit their people. It is a 
daily struggle.
    Fortunately in the case of Palau, Palau has been resolute 
in maintaining its support for Taiwan. It has been resolute in 
supporting U.S. objectives and relations with Israel. That is 
not to say that there are not certain politicians and certain 
business people who would like to flip that arrangement. And if 
confirmed as Ambassador to Palau, it would be my daily duty to 
do my very best to ensure that we have the closest possible 
relationship with Palau and its people.
    Senator Rubio. And, Dr. Wright, I have a similar question 
about Tanzania. They have longstanding political, trade, and 
military ties with China. But we know that as China continues 
to try to expand its reach in Africa as well, it oftentimes 
comes at the expense of our relationship. What is our counter-
argument to those efforts as they seek to both gain unfair 
access to natural resources and economic ties and military 
ties? What is the argument we make to nations about the danger 
involved in accepting that largesse?
    Dr. Wright. Thank you, Senator, for that very important 
question not only for Tanzania but for the entire African 
continent.
    Let me say that the Chinese have a long vested interest in 
Tanzania going back to the 1970s when they actually built the 
railroad from Dar es Salaam into Zambia, and they have had 
ongoing interactions with the Tanzanian government since that 
period of time.
    I would also like to point out that there is a very 
lopsided trade imbalance between China and Tanzania. The United 
States is much more on equal footing as it relates to 
reciprocal trade.
    To your question of what our strategy should be moving 
forward, well, I think first and foremost as Ambassador and as 
an embassy, there needs to be transparency. We need to point 
out that sometimes short-term gain is not worth long- term 
indebtedness. In addition to that, I think we need to call out 
some of the poor quality of projects that have been seen across 
the globe that have been financed by the Chinese and, in 
addition, point out that very frequently those projects do not 
conform with environmental standards, do not conform with labor 
standards, et cetera.
    But that in and of itself I do not think is enough. We need 
to talk about alternatives. And certainly funding through OPIC 
and its successor organization I think is one thing that we can 
point to moving forward that gives an option to a government 
that is looking for a major infrastructure project.
    And then lastly, I would have to say that I think it is 
very important for us to utilize the allies in the region that 
we have worked over decades to develop to address this 
particular concern.
    Senator Rubio. And finally, Ms. Shea, Lebanon is really a 
complicated situation. I think there has been a lot of focus 
today on the protests, and that is obviously relevant to 
everything that is going on.
    But beyond it, before the protests and for a long time, 
there is the complication there that you have a nation state 
and embedded within that nation state is a group in Hezbollah 
which, by the way, has killed more Americans than any terror 
group in the world except al Qaeda. And they are both part of 
the government system, and then they also operate as semi-
autonomous from the government in areas that they control. And 
then there is always the fear that, on the one hand, the way to 
counter that is to strengthen the Lebanese armed forces and 
Lebanese government. The flip side of it is there is a concern 
that whatever it is we provide them could one day wind up in 
the hands of Hezbollah and some of the loyalties that may exist 
between members of the Lebanese armed forces towards Hezbollah.
    And then adding to all that complexity is the real 
possibility that at some point, because of Hezbollah's 
increasing capabilities, I think at some point, unfortunately, 
there is going to be another Israel-Hezbollah conflict. We hope 
it is no time in the near future, but we can anticipate that 
day arriving. The Israeli response could potentially not just 
be against Hezbollah directly, but depending on how embedded 
they are in the broader government, other areas of Lebanon that 
are not traditionally associated with Hezbollah and thereby 
triggering a much broader regional conflict. All of it--
obviously, we are only a day away from that conflict on any 
given day of any week in any year that could spiral quickly out 
of control.
    So all that to say they picked a heck of a place for you to 
go. Could you help us just to unwrap some of the thinking 
involved in all this complexity and what the U.S. role is in 
that regard?
    Ms. Shea. Thank you for the multi-layered question, Mr. 
Chairman.
    I would identify with a bit of the paradigm of holding up 
the Lebanese armed forces and other state institutions as a 
counterweight effectively to Hezbollah. Hezbollah benefits when 
the state is weak, when its state institutions are weak. So 
this has been a longstanding enterprise of the U.S. government 
to try to build up the professionalism and the capacity of the 
Lebanese armed forces.
    Now, of course, Hezbollah tries to exert influence in all 
areas of society. And you are absolutely right that they might 
try to portray themselves as a political party in one instance 
or a social services provider in another. But we make no 
mistake in identifying Hezbollah as a terrorist organization. 
And it is the same leadership that exercises control over the 
entirety of Hezbollah's operations. So we do not make any 
distinction between Hezbollah's roles and we do not think 
others should either. And we welcome it when other countries 
also designate Hezbollah as a terrorist organization. If 
confirmed, I will do everything in my power to continue that 
trend.
    I would like to speak to the Lebanese armed forces in terms 
of their being recipients of U.S. military assistance. And I am 
pleased to report that they have an exemplary track record in 
using military assistance exactly in the way that it has been 
intended as we have provided this assistance to them. Indeed, 
they have zero incidents of leakage in our very rigorous end-
use monitoring of our military assistance. So our overall 
strategy is to build up their capacity, to exercise checks and 
balances through rigorous end-use monitoring, to maintain that 
mentorship, and also maintain that line of control that 
ultimately the Lebanese armed forces answers to the civilian 
leadership of the country.
    Senator Rubio. Thank you.
    Senator Cardin, the ranking member, has some follow-up.
    Senator Cardin. Let me just follow up with that, Ms. Shea. 
First of all, thank you very much for coming in from Egypt just 
to meet with us. It was very nice of you to make that trip. We 
appreciate it.
    You have already heard from our colleagues on the human 
rights issues within Lebanon, which is a major concern, and you 
and I had a chance to talk about it and we will be talking 
about how our mission can assist the rights of the people in 
that country.
    We have also talked about the economic balance here, the 
reforms that are necessary in Lebanon in order to be able to 
get the type of economic assistance it needs for its economy to 
grow versus the unrest it could cause in regards to how those 
economic reforms are implemented. That is something again that 
our mission needs to be actively engaged in order to deal with.
    But I want to just ask one question and follow up on the 
chairman's question. And there is a difference between leakage 
from the Lebanese armed forces to terrorist organizations, and 
another thing as to how the Lebanese armed forces respond to 
security challenges within Lebanon and whether there is 
infiltration from Iran or Hezbollah in regards to how the armed 
forces are used. I understand your confidence in our helping 
the capacity building of the Lebanese armed forces, but I just 
want to express our concern with a country that has not a 
strong central government as to the impact that the local 
Hezbollah could have, encouraged by outside influences such as 
Iran or coming through Syria.
    So your response to that.
    Ms. Shea. Thank you, Mr. Senator and Ranking Member. And I 
also want to thank you for taking the time to meet with me to 
discuss these issues.
    You raise a very valid concern, and in identifying myself 
with this project of working so consistently over the past 
decade and more to help professionalize the Lebanese armed 
forces, I am in no way suggesting that they be given a free 
pass or that continuous review not always take place to make 
sure that our assistance is bringing about the desired end 
state that we intend for it to do.
    Now, one thing that we can look at is how the Lebanese 
armed forces have acted just in the past 2 months. I think we 
might look at this as a bit of a test case, and on their own 
volition, they came out and they protected those peaceful 
protesters. So I think that was quite admirable of them, and it 
could have been much more injurious to the protesters had they 
not been there to play that role.
    I think we need to be mindful and be skeptical. A proper 
amount of skepticism is warranted to make sure that our 
assistance continues to be used appropriately not just over the 
short term but over the long term. And I believe that we have 
the kind of partners in the Lebanese armed forces that we can 
count on, but we will maintain that relationship to keep it 
under constant review.
    Senator Cardin. Thank you. Just be careful because the 
track record of the country, particularly of outside influence, 
is just very disappointing. It is a beautiful country. It has 
got wealth, but its wealth has been taken away as a result of 
the infiltration and Hezbollah.
    Dr. Wright, your medical background--you are going to the 
right country. Tanzania ranks one of the highest in HIV/AIDS, 
one of the highest in mosquito-transmitted diseases, including 
malaria. They have not built up the capacity that many other 
African countries have built up.
    How can our mission be helpful to build the type of 
resiliency in Tanzania to deal with their health issues?
    Dr. Wright. Thank you, Senator, for that question.
    You are absolutely right. Health issues are front and 
center within Tanzania. And we have over a decade of assistance 
to Tanzania and the Tanzanian people trying to improve their 
health outcomes.
    And there are some positive bright spots in this process. 
Through the PEPFAR program, a large number of the Tanzanian 
people know their HIV status, and we now have 1.1 million 
people on antiretroviral therapy. Granted, there is more work 
to be done. There are a number of Tanzanians that do not know 
their HIV status, and we need to press for more testing across 
the country.
    In the area of malaria, again through the President's 
malaria initiative, I think there has been progress made over a 
10-year period of time. The prevalence rate within Tanzania of 
malaria has dropped 10 percent. So we are making progress. That 
said, there are still 7 million cases of malaria in Tanzania 
each and every year, and we need to focus on the prevention 
side of the equation and that is what we have been doing: 
insecticide impregnated bed nets, indoor spraying, and then I 
think also focusing on vulnerable populations, in particular 
pregnant women. We know having malaria during pregnancy is both 
injurious to the mother, as well as to the child. I think that 
there are efforts now to try with this foundation that the 
United States has built over the last decade to encourage the 
host government to begin to take more responsibility for the 
health of their own people and continue the programs that we 
have built a foundation for.
    Senator Cardin. Thank you.
    In human rights, Tanzania has really got significant 
concern. Just recently they have been de-regulating political 
parties. They did not have a free and fair election. There is 
another one coming up that is unlikely--the jury is out, but it 
could very well not pass international standards for free and 
fair elections. The LGBT community is very much targeted and 
discriminated against.
    So how, if confirmed, will you be an advocate for the human 
rights of the people of Tanzania based upon international 
standards of human rights?
    Dr. Wright. Thank you, Senator Cardin. It is a very timely 
question.
    I think historically the United States has had a very 
strong bilateral relationship with Tanzania. That said, there 
is no question that there has been a narrowing of the 
democratic norms in the country over the last several years 
with the deterioration of basic human rights. It is something 
that needs to be addressed, that has been addressed by the 
embassy, and certainly I am committed to addressing if I move 
forward.
    I think the policy, the strategy of the embassy has been 
that we promote human rights for all Tanzanian citizens. 
However, that said, there is a special focus on those 
vulnerable populations. And the vulnerable populations would 
include the LGBT community. It would include journalists in the 
country, and it would include political opposition candidates.
    What would be my strategy to deal with this issue, if I was 
confirmed? Well, first and foremost, I am committed to you of 
speaking both publicly and privately with the host government 
about our concerns in this particular area. And I think they 
need to be reminded that history tells us that it is the 
countries that protect the human rights of their citizens that 
are the most peaceful over the long term and the most 
prosperous over the long term. So it is certainly in their best 
interest to offer basic human rights to their citizens.
    I do not think my voice is enough. Certainly I will partner 
with like-minded missions within Tanzania, those that share our 
views on human rights, so that we can speak with a united voice 
on this very, very important topic.
    In addition, certainly there are large elements of civil 
society that need to be brought into the equation to continue 
the dialogue. And if confirmed, I am committed to doing that.
    And lastly I will tell you I think that the Ambassador has 
the power of convening, and that is something that I will do 
often to make sure that the dialogue on human rights remains 
front and center.
    Senator Cardin. I very much appreciate that comprehensive 
answer, one which is to me the right blueprint for our mission.
    For all four of the nominees, you have partners in the
    United States Senate to advance American values of human 
rights, good governance, democracy, et cetera. Recognize that 
we want you to make progress, if confirmed, in each of your 
missions on these goals. And we are here to work with you, and 
we would appreciate being kept informed on how we can be 
helpful by our actions. Sometimes it is resolutions that we 
pass. Sometimes it is just our statements that we make on the 
floor of the Senate. But please let us know how we can partner 
with you to advance American values.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    We want to thank all of you for being here. Thank your 
families for being here, particularly that those drove through 
the night.
    [Laughter.]
    Senator Rubio. I do not have anybody in my family who would 
drive through the night for anything.
    [Laughter.]
    Senator Rubio. So I think it is great.
    But I want to thank all of you for being here.
    The record will remain open for 48 hours.
    And with that, this hearing is adjourned.


    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              


      Responses to Additional Questions for the Record Submitted 
         to Hon. Todd C. Chapman by Senator Benjamin L. Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As Ambassador to Ecuador from 2016 to 2019, I led Embassy 
efforts to condemn government restrictions on press freedom and 
repression of opposition political parties. I also launched the 
Interfaith Dialogue Committee of Ecuador in my living room with 
religious leaders from eight different faiths, coordinated on social 
projects and proposed revisions to Ecuador's freedom of religion law. I 
directed Embassy efforts to combat gender-based violence and organized 
an international grouping of Ambassadors, U.N. Women, and others to 
promote new legislation. As Charge d'Affaires in Mozambique, I spoke 
out publicly against the government electoral authorities who were 
manipulating the election process. Our efforts resulted in increased 
scrutiny by the international electoral observation missions.

    Question. What are the most pressing human rights issues in Brazil? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Brazil? What do you hope to 
accomplish through these actions?

    Answer. The Department of State has expressed concern on a range of 
priority human rights issues, including unlawful or arbitrary killings 
by state police; harsh and sometimes life-threatening prison 
conditions; violence against journalists; corruption; societal violence 
against indigenous populations and lesbian, gay, bisexual, transgender, 
and intersex persons; killings of human rights defenders; and slave 
labor that may amount to human trafficking. The Department highlights 
these concerns in the annual State Department Human Rights Report. I 
plan to continue our constructive engagement with Brazil to promote 
human rights and democracy, if confirmed.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Brazil in advancing 
human rights, civil society, and democracy in general?

    Answer. Our governments are enthusiastic and motivated to work 
together, based on our shared values. While we do disagree on some 
issues, Brazil sees the United States as its desired partner of choice, 
a fact which presents us with the opportunity to engage across the 
board. Potential obstacles remain, including various competing 
interests within Brazil's large and diverse bureaucracy, historical 
inertia that could slow enhanced engagement, and limited USG resources 
with which to engage in large programs on human rights, including civil 
rights, and democracy in general. Nevertheless, as I have done in 
previous postings, I will make maximum use of what does exist, and be 
active in the media drawing attention to these issues.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Brazil? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will encourage collaboration with civil 
society, promote human rights, social inclusion, and discuss these 
issues with Brazilian officials at the highest levels. I will meet with 
such organizations in both Brazil and the United States, as I have done 
during previous postings overseas. The United States seeks to provide 
trainings and capacity building to the Brazilian federal and state 
governments and local law enforcement agencies, when appropriate, on 
effective law enforcement techniques that respect human rights. 
Supporting the implementation of the Leahy Law is an important tool in 
this endeavor, and I will make doing so a priority.

    Question. Will you and your embassy team actively engage with 
Brazil to address cases of key political prisoners or persons otherwise 
unjustly targeted by Brazil?

    Answer. The United States and Brazil work closely to ensure 
liberty, democracy, and human rights are upheld in our countries, our 
hemisphere, and around the world. I am unaware of any political 
prisoners in Brazil. If confirmed, I commit to constructive engagement 
with Brazilian officials at the highest levels to uphold human rights.

    Question. Will you engage with Brazil on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. The Department of State is vigilant in promoting respect 
for human rights around the world and the United States condemns any 
violations or abuses of human rights. If confirmed, I will promote 
collaboration with civil society and promote human rights, social 
inclusion, and democratic values with Brazil at the highest levels. The 
State Department will continue to promote human rights, collaboration 
with civil society, and social inclusion with the Brazilian government, 
at the highest levels, including via the new U.S.-Brazil Strategic 
Partnership Dialogue, which was launched on September 13 of this year.

Violence Against Indigenous Brazilians
    Question. Under President Bolsonaro's leadership, murders of 
indigenous Brazilian activists have increased. Bolsonaro has reacted 
dismissively to those who have drawn attention to the issue, responding 
to a critical tweet from Swedish youth climate activist Great Thunberg 
by saying ``Greta said the Indians died because they were defending the 
Amazon (forest). How can the media give space to a brat like that?''

    Answer. If confirmed, I look forward to meeting with 
representatives of the indigenous community, press, civil society, and 
government regarding these issues. If confirmed, I will ensure that the 
Mission continues to stay true to our values and principles and speaks 
out on the issues that are important to U.S. foreign policy and to us 
as a nation.

    Question. How will Embassy staff under your leadership, if 
confirmed, work to report on and otherwise draw attention to violence 
facing Brazil's indigenous populations?

    Answer. I have demonstrated throughout my career, and most recently 
as Ambassador in Ecuador, that I steadfastly support human rights, 
including the rights of persons in minority and vulnerable populations. 
If confirmed, I commit to promote human rights with all levels of the 
Brazilian government and to actively engage with civil society to 
uphold fundamental freedoms. For example, the Department of State 
highlights threats against indigenous peoples annually as part of the 
Human Rights Report. If confirmed, I will ensure that Embassy staff 
continue to closely follow and report on indigenous issues, including 
violence and human rights issues.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. The Department of State strives to recruit, retain, and 
sustain a diverse, talented, and inclusive workforce that is prepared 
to advance U.S. national security interests and American values in 
every corner of the world. I am fully committed to building a workforce 
that reflects our nation's diversity and leverages the creativity of 
diverse, talented groups to advance America's foreign policy 
priorities. It is my standard practice to recruit a diverse team and to 
promote a diversity of backgrounds in my senior staff and I commit to 
continuing this practice in Brazil.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. To represent the United States to Brazil, and to countries 
around the world, our Embassies overseas must have a workforce that 
reflects the rich composition of our citizenry. If confirmed, I commit 
to an inclusive workplace in which every employee is treated with 
dignity and respect and feels empowered to serve the American people. I 
will outline my expectations clearly to my Country Team members, hold 
them accountable, and lead by example.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. Should I have any such concerns, I will raise them with the 
appropriate authorities, including this committee and the State 
Department Inspector General, as determined by the Department of State 
and U.S. law.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes, I do. As outlined in the State Department professional 
ethos inaugurated in 2019 by Secretary Pompeo, I pledge to proudly 
serve the United States and the American people, support and defend the 
Constitution of the United States, and to act with uncompromising 
personal and professional integrity.

    Question. Do you or do any members of your immediate family have 
any financial interests in Brazil?

    Answer. We do not.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Brazil 
specifically?

    Answer. Brazil has taken strong steps in recent years to address 
corruption at all levels. There have been wide-ranging consequences to 
the criminal conduct in various major companies, including Petrobras, 
Odebrecht, and Braskem, which have paid billions of dollars in 
penalties for their violations of anti-bribery provisions of our 
Foreign Corrupt Practices Act, or FCPA. Corruption undermines 
democratic stability, economic growth, and security, and the Department 
of State is committed to strengthening the ability of governments and 
their citizens to promote transparency, accountability, and integrity.

    Question. What is your assessment of corruption trends in Brazil 
and efforts to address and reduce it by that government?

    Answer. Fighting corruption promotes democratic rule of law, 
economic growth and stability, transnational security, and citizen 
hopes for a better life. The United States supports Brazil's efforts to 
combat corruption and impunity. Brazil has been one of the region's 
leaders in addressing corruption, and the hallmark ``Lava Jato,'' or 
``Car Wash,'' anti-corruption case has had reverberations throughout 
the hemisphere. I applaud Brazilian investigators and prosecutors for 
their commitment to rooting out corruption, and for their international 
cooperation. The fight against corruption, however, is always an 
ongoing effort, and, as always, more work remains to be done.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Brazil?

    Answer. Cooperation between U.S. and Brazilian law enforcement is 
an important tool in combatting corruption and supporting good 
governance. Our U.S.-Brazil Permanent Security Forum brings together 
law enforcement officials from both our countries to work together. The 
United States encourages Brazilian efforts to maintain a strong, 
capable, and autonomous financial intelligence unit that complies with 
international standards and obligations with regards to combatting 
money laundering, terrorist financing, and countering the proliferation 
of weapons of mass destruction. Finally, the United States will 
continue to apply all tools available to hold corrupt actors 
accountable, including publicly denying entry to known current and 
former corrupt officials and their immediate family members.

Political Situation and Latin America Protests
    Question. Latin America is experiencing a wave of changes in the 
geopolitical landscape, including elections in Argentina, an interim 
government in Bolivia, and protests in countries from Chile to 
Nicaragua. President Bolsonaro has called the protests in Chile, 
Colombia, and beyond ``terrorist acts,'' and asked the National 
Congress for the authority to use the military to stop any violence 
that might arise. On the other hand, former Brazilian president Luiz 
Inacio Lula da Silva has actually encouraged his followers to ``follow 
the example of the people of Chile [and] Bolivia.''

 How concerned are you that a large protest movement could develop 
        in Brazil?

    Answer. Freedom of expression is indispensable to a vibrant, 
functioning democracy, as is the ability to debate and protest 
peacefully. Brazil's democratic institutions are strong, especially its 
vigorous free press, organized civil society, and independent 
judiciary, but also its electoral process. Brazil has a long history of 
peaceful public and civil society activism that has often promoted 
beneficial change within the country.

    Question. How do you anticipate Bolsonaro would respond to unrest?

    Answer. Brazil's democratic institutions, free press, organized 
civil society, and independent judiciary have demonstrated integrity 
and independence in their efforts to uphold human rights. Self-
expression through elections and peaceful public assembly remains a 
vital aspect of human rights in a democratic society, and those in 
Brazil have exercised their rights of freedom of expression, peaceful 
assembly, and for citizens, their right to vote both before and after 
the election of President Bolsonaro last year. I have no reason to 
anticipate that President Bolsonaro would act in any way which is not 
fully consistent with Brazilian laws and security norms.

    Question. If confirmed, how will you promote human rights in Brazil 
and in the hemisphere more broadly?

    Answer. The Department of State is vigilant in promoting respect 
for human rights around the world and the United States condemns any 
violations or abuses of human rights. As the two largest democracies in 
the hemisphere, Brazil is a valued partner in advancing human rights 
regionally. I have shown throughout my career that I strongly support 
human rights and fundamental freedoms, and if confirmed, I will promote 
these fundamental American values at the highest levels.

    Question. While Bolsonaro was member of Congress, Human Rights 
Watch argues that he endorsed torture and other abusive practices, and 
unapologetically made openly racist, homophobic and misogynist 
statements. A poll conducted in 2018 by the Pew Research Center found 
that 83% of Brazilians were not satisfied with the way democracy was 
working in their country. How do you anticipate President Bolsonaro's 
concerning human rights record has, and will continue to, impact 
bilateral relations?

    Answer. As the two largest democracies in the hemisphere, the 
United States and Brazil are deepening our cooperation across a range 
of areas, including promoting human rights and fundamental freedoms. 
Brazil's democratic institutions, especially its vigorous free press, 
organized civil society, and independent judiciary, have demonstrated 
integrity and independence in upholding human rights. Secretary of 
State Pompeo raised the issue of human rights with Brazilian Foreign 
Minister Ernesto Araujo during his January 2019 visit to Brazil, and 
the Minister reaffirmed Brazil's commitment to defending human rights.

    Question. If confirmed, how will you seek to address concerns 
surrounding Bolsonaro's commitment to democracy and human rights?

    Answer. If confirmed, I look forward to meeting with 
representatives of civil society and government regarding human rights 
issues. We will continue to stay true to our values and principles and 
speak out on the issues that are important to U.S. foreign policy and 
to us as a nation.

Environment
    Question. I am very concerned with President Bolsonaro's apparent 
disregard for the Amazon rainforest. In September, I, along with many 
of my Senate colleagues, sent one letter to William Popp, the current 
Charge d'Affaires in Brazil, and a second letter to Secretary Pompeo, 
Secretary Mnuchin, and Administrator Green requesting a more 
substantial response to the fires there. The Amazon rainforest in 
Brazil lost an area about 12 times the size of New York City from 
August 2018 through July of this year, according to data recently 
released by Brazil's National Institute for Space Research. I am also 
extremely concerned at reports of indigenous communities being harmed 
in their attempts to protect the rainforest.

  If confirmed as Ambassador, how high would you rank efforts to 
        reduce deforestation in the Amazon and decrease greenhouse gas 
        emissions among your other priorities for Brazil?

    Answer. Brazil and the United States face very similar 
environmental challenges and have been collaborating and sharing our 
experiences and best practices. The Department's Bureau of Oceans and 
International Environmental and Scientific Affairs (OES) works with our 
technical agencies to address environmental challenges, including the 
environmental impact of projects, water quality, wildfires, protecting 
nature, and combatting wildlife trafficking. Examples include the EPA, 
the U.S. Geological Survey, U.S. Forest Service, U.S. Fish and Wildlife 
Service, and NOAA. If confirmed, I look forward to continuing this 
constructive engagement with the Brazilian government, civil society, 
Amazon communities, and the private sector.

    Question. How could the United States and Brazil enhance bilateral 
cooperation on environmental issues, especially considering the U.S. 
withdrawal from the Paris Climate Accords?

    Answer. The Department of State, USAID, and other U.S. government 
departments and agencies provide funding to help partners around the 
world address deforestation and wildfires through ongoing programs, 
including technical partnerships in Brazil. The United States continues 
to work with Brazil on investment in healthy forests, creating 
incentives to protect these critical natural resources. Brazil and the 
United States are both active parties to several multilateral 
environmental agreements such as the U.N. Framework Convention on 
Climate Change, the International Convention for the Regulation of 
Whaling, and the Convention on the International Trade in Endangered 
Species. If confirmed, I look forward to continuing this important 
work.

    Question. How should Brazil be held accountable for abuses against 
environment defenders and for not conserving the Amazon if, as the 
Brazilian government claims, the area would be best used for economic 
development?

    Answer. Our ongoing work in the Amazon region strategically 
leverages private sector resources and innovation in developing 
partnerships with government, private sector, and civil society to 
achieve shared objectives. For example, USAID has a multi-year, $80 
million bilateral agreement, the Partnership for Conservation of Amazon 
Biodiversity (PCAB). The PCAB has strengthened management of 66 
protected areas covering 37 million hectares in the Amazon. The United 
States has also convened key actors to organize a new private sector 
led $100 million biodiversity-focused impact-investment fund for the 
Brazilian Amazon, which was launched in November 2019.

Trade and Bilateral Relations
    Question. Jair Bolsonaro was nicknamed the ``Trump of the Tropics'' 
during his Presidential campaign. While in office, he has made it a 
priority to foster a close relationship with President Trump and has 
attempted to align Brazil's foreign policy with that of the U.S. 
However, earlier this month, President Trump turned his trade war 
toward Brazil by announcing that he would reinstate tariffs on aluminum 
and steel imports from the country.

  How has the announcement impacted bilateral relations? When do you 
        expect the tariffs to take effect? What other ramifications of 
        this announcement do you anticipate?

    Answer. Brazil and the United States share a significant and 
growing economic relationship that promotes prosperity in both our 
countries. The United States is working with President Bolsonaro's 
government to enhance the prosperity of both our countries, seeking 
deeper trade and investment in energy, agriculture, technology, 
healthcare, and infrastructure. The administration continues to promote 
fair and reciprocal trade globally. Recognizing the importance of the 
steel and aluminum industries for both our countries, and the strategic 
bilateral relationship between the United States and Brazil, President 
Trump announced he would not impose tariffs on steel and aluminum 
imports from Brazil.

    Question. How does this announcement impact the near-term prospects 
for concluding a formal agreement such as a bilateral investment treaty 
or a free trade agreement with Brazil?

    Answer. The United States traded $103 billion worth of goods and 
services in 2018. The United States is the top destination for 
Brazilian exports of valued-added manufactured goods. Our countries 
benefit from tens of billions of dollars in direct investment in both 
directions, which supports thousands of jobs. And foreign direct 
investment is substantial--the total stock of Brazilian direct 
investment in the United States is valued at $39.8 billion (2018, UBO, 
Commerce, BEA) and the total stock of U.S. investment in Brazil is 
valued at $68.3 billion (2017, FP). Other agencies, including USTR and 
Treasury, hold dialogues with Brazilian counterparts on trade and tax 
matters, respectively, which the State Department participates in. If 
confirmed, I look forward to continuing to expand our commercial and 
investment partnership in the coming years.


                               __________

           Responses to Additional Questions for the Record 
         Submitted to Hon. Todd C. Chapman by Senator Ted Cruz

    Question. The Tri-Border Area, formed by Paraguay, Argentina, and 
Brazil, is a safe-haven for organized crime and terrorist groups, 
including Hezbollah. As you know, Hezbollah has been designated a 
terrorist organization by the United States, Argentina, and, most 
recently, Paraguay. I have urged the Secretary of State to call on the 
Tri-Border Area countries to blacklist Hezbollah. Soon after, on the 
25th anniversary of the AMIA bombing--when the Iranian-backed group 
carried out an attack on the Jewish community center in Buenos Aires--
Argentina formally designated Hezbollah a terrorist organization. 
Paraguay followed suit and labeled Hezbollah less than a month later:

  In your view, what is Hezbollah's operational role in Brazil?

    Answer. While Hizballah has not conducted terrorist attacks in 
Brazil, there is concern that Hizballah financiers, facilitators, and 
sympathizers have been active in Brazil. Actions include soliciting 
donations from sympathizers in the sizable Middle Eastern and diaspora 
communities in the region and participating in activities like trade-
based money laundering (TBML) in the Tri-Border Area (TBA). Brazil 
arrested Hizballah financier Assad Ahmad Barakat in September 2018, and 
he continues to await extradition to Paraguay. The TBA hosts a multi-
billion-dollar contraband trade that includes money laundering, arms 
and narcotics trafficking, TBML, smuggling, counterfeiting, and tax 
evasion. Some of the laundered funds reportedly benefit Hizballah, but 
the magnitude of TBA money that finances terrorist operations is 
unclear.

    Question. Can you commit to this committee that you will work with 
your counterparts toward designating Hezbollah as a terrorist 
organization?

    Answer. Absolutely. Hizballah actively engages in the development 
of infrastructure that can support terrorist activities and associated 
criminal schemes throughout the Western Hemisphere. Financiers, 
facilitators, and sympathizers of Hizballah operate throughout the 
region, including the tri-border area (TBA) of Argentina, Brazil, and 
Paraguay. This dynamic is becoming increasingly understood throughout 
our Hemisphere, and as Brazil's neighbors one by one continue to 
designate Hizballah, there are fewer and fewer excuses for Brazil to 
refrain from doing so. We will not only continue to engage with Brazil, 
but also assist Brazil in establishing an effective domestic 
designations regime enabling Brazil to freeze the assets of terrorist 
actors and entities.

    Question. At the July 2019 Western Hemisphere Counterterrorism 
Ministerial, there was agreement by the United States, Argentina, 
Brazil, and Paraguay to establish a new regional security initiative to 
address the threats and gaps that transnational illicit actors, 
including terrorists groups, are exploiting:

 This is welcome news. How do you plan to keep this momentum going 
        in order to address and target such illicit activity? What role 
        can the U.S. play in coordinating efforts to thwart 
        transnational crime and terrorist-financing networks operating 
        in the Tri-Border Area?

    Answer. We work in three areas to combat Transnational criminal 
organizations (TCOs): operations, capacity building, and policy, where 
we engage to promulgate the effective implementation of the 
international standards on Anti-Money Laundering/Combating the 
Financing of Terrorism (AML/CFT). Ongoing initiatives with Brazil and 
its neighbors include the U.S.-Brazil Permanent Security Forum, which 
facilitates law enforcement cooperation, training and mentoring. 
Arrests and seizures have increased, information is shared more 
quickly, and domestic interagency collaboration has improved, including 
a new fusion center in the Brazil-Argentina-Paraguay tri-border area 
(TBA). These efforts strengthen compliance with international standards 
and obligations, as well as increase investigations, prosecutions, and 
convictions. U.S.-implemented workshops have resulted in several 
arrests and extraditions of money launderers and Hizballah supporters.

U.S.-Brazil Space Cooperation
    Question. The United States and Brazil are seeking to strengthen 
our bilateral commercial relationship--and there is much to be 
optimistic about, particularly the new bilateral commercial space 
launch agreement, which was signed earlier this year, and ratified by 
Brazil's Senate last month. This agreement opens the door for new 
opportunities and advanced technologies transfers in both the civil and 
commercial space sectors. However, I remain concerned that confusing 
and burdensome U.S. bureaucracy and export controls are driving Brazil 
into the arms of China and Russia at a crucial moment as they are, no 
pun intended, trying to get their space program off the ground:

  If confirmed how will you work to foster and grow the U.S.-Brazil 
        space relationship?

    Answer. In recognition of the growing economic and strategic 
importance of outer space activities and technologies, we are expanding 
our cooperation with Brazil. The recent Brazilian ratification of the 
Technology Safeguards Agreement (TSA) is a major step forward. This 
agreement will unlock commercial opportunities for U.S. space 
companies--including satellite and rocket launches in Brazil--as well 
as opening the door for other space-related cooperation between U.S. 
and Brazilian space companies. If confirmed, I will ensure our Mission 
to Brazil remains actively engaged with the Brazilian government as 
well as the U.S. interagency to ensure U.S space companies do not miss 
the opportunity to become the partner of choice for Brazil's nascent 
space program.

    Question. What can you do, and what will you commit to doing, to 
make it easier for U.S. commercial space companies to operate in Brazil 
and, conversely, for the government of Brazil and Brazilian businesses 
to view the U.S. as the default partner on all things space?

    Answer. As Ambassador, I would work closely with the Commerce 
Department's Foreign Commercial Service, and other interagency 
partners, to maintain open lines of communication with U.S. commercial 
space companies to address obstacles to investment and help facilitate 
U.S. company commercial success in Brazil. I will also work with Brazil 
to support their efforts to ensure that the Alcantara facility--which, 
following the recent ratification of the Technology Safeguards 
Agreement (TSA), now has authorization to host U.S. satellite 
launches--has the necessary infrastructure to make it an attractive 
option for U.S. companies.

Countering China's Investment in Brazil
    Question. As you know, China is Brazil's number one trading 
partner. President Bolsonaro has previously said ``China isn't buying 
in Brazil. China is buying Brazil:''

  I have deep concern that Brazil, who is now a major non-NATO ally, 
        will be lobbied by China's Huawei to build a 5G network. Do you 
        share this concern? And if so, are you committed to working 
        with your colleagues to convey to Brazilian counterparts the 
        national security risks of accepting Chinese-manufactured 
        telecommunications equipment, and 5G technology from Huawei?

    Answer. The Department of State is actively engaging governments, 
including Brazil, to support informed decision-making when procuring 
new technologies, bearing in mind information and communications 
technology (ICT) networks are an attractive target for foreign 
adversaries and malicious actors. The United States is working with 
partners and allies to raise awareness about the true costs and 
implications of using untrusted telecom equipment vendors, which 
include widespread national security risks and interoperability issues, 
as well as ways procurement decisions today can have serious long-term 
impacts. We work closely with Brazil on digital economy and 
cybersecurity issues and how best to advance our shared values and will 
continue to do so.

    Question. Most recently, two Chinese companies won rights to 
develop major offshore oil deposits in an auction last month that was 
reportedly very limited to other foreign companies. How would you 
characterize the current relationship between Brazil and China?

    Answer. Like all major global economies, Brazil has a complex 
relationship with China. President Bolsonaro and Foreign Minister 
Araujo have publicly expressed some skepticism of China but China is 
also Brazil's largest trading partner and in recent years one of its 
most significant sources of foreign investment. Over 90 percent of 
Brazilian exports to China are for a few commodities (soy, petroleum, 
metal ore, and wood pulp), while high-value Brazilian exports to China 
have declined in recent years. Meanwhile, China exports many industrial 
and household goods to Brazil, threatening a number of Brazilian 
industries since China was admitted into the WTO in 2001. China's often 
predatory and non-transparent behavior in Brazil and other parts of the 
region is a serious concern. With very low domestic savings and 
investment, most Brazilian economists advocate welcoming any form of 
FDI, including large investments in Brazil's electricity 
infrastructure. We also have shared with Brazil our experiences on 
national security screening of foreign investment (CFIUS) and 
encouraged the Brazilian government to develop a similar screening 
mechanism.

                               __________


           Responses to Additional Questions for the Record 
     Submitted to Hon. Todd C. Chapman by Senator Edward J. Markey

Climate Science Special Report
    Question. The United States Global Change Research Program issued a 
Climate Science Special Report as part of the Fourth National Climate 
Assessment, developed in conjunction with the Department of 
Transportation and 12 other federal agencies. This report concluded 
that ``human activities, especially emissions of greenhouse gases, are 
the dominant cause of the observed warming since the mid-20th 
century.''

  Do you agree with this finding?

    Answer. I have no reason to take fault with the findings of the 
Climate Science Special Report of the Fourth National Climate 
Assessment. The Department of State is one of thirteen federal agencies 
that participate in the United States Global Change Research Program. 
Climate change is one of many complex global challenges. The United 
States is a world leader in protecting the environment and in reducing 
greenhouse gas emissions. If confirmed, I will support these efforts 
via a balanced approach that promotes economic growth and improves 
energy security while protecting the environment.

The Amazon Rainforest
    Question. The Amazon rainforest is approximately as large as the 
contiguous United States-the largest tropical rainforest in the world 
and the home of around a tenth of the planet's biodiversity. The health 
of the Amazon is critical to the global climate, to indigenous groups 
who depend upon its resources, and to the unique flora and fauna living 
in the rainforest ecosystem. Around 65 percent of the Amazon rainforest 
is within Brazil's borders:

 If confirmed, would you commit to encouraging the Brazilian 
        government to enforce its rainforest conservation laws?

    Answer. Yes, if confirmed, I will work with the Brazilian 
government to assist in efforts to conserve the Amazon, including by 
supporting Brazilian efforts to enforce its laws to protect the region.

    Question. If confirmed, would you support Brazilian and 
international civil society efforts to keep the public informed about 
deforestation, wildfires, and unsustainable exploitation?

    Answer. If confirmed, I look forward to meeting with 
representatives of Brazilian and international civil society, in 
addition to indigenous groups, the press, the Brazilian government, and 
other stakeholders, regarding these issues and to ensure the public is 
properly informed.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to John Hennessey-Niland by Senator Benjamin L.Cardin

Human Rights
    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy?

    Answer. My most meaningful achievements to date came during my 
secondment heading a team working to obtain prosecutions at the 
International Criminal Tribunal for the former Yugoslavia and the 
International Criminal Tribunal for Rwanda. In this position, I 
advanced human rights and justice for atrocity crimes--a role that 
reflected the best of American values. If confirmed, I will promote 
these values in Palau as well.

    Question. What has been the impact of your actions?

    Answer. As a result of my work and the work of other seconded U.S. 
government colleagues with the International Criminal Tribunal for the 
former Yugoslavia and the International Criminal Tribunal for Rwanda, 
the United States demonstrated U.S. commitment to international law and 
the rule of law. Our work resulted in multiple convictions for war 
crimes, bringing justice on behalf of countless victims.

    Question. What are the most pressing human rights issues in Palau?

    Answer. As stated in the most recent Department of State Human 
Rights Report, there were no reports of egregious human rights abuses 
in Palau. The government took steps in 2018 to prosecute officials who 
committed abuses, although it did not punish any officials for 
involvement in human trafficking offenses. Gender-based violence 
remains a challenge. The most recent government-sponsored research 
project on violence against women indicated that approximately 35 
percent of women had experienced physical or sexual violence, or both, 
since the age of 15. There are no shelters for victims of rape and 
domestic violence.

    Question. What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Palau?

    Answer. If confirmed, I will work through advocacy, outreach 
programs, and cooperation with local NGOs to address corruption and 
violence against women, and to increase women's political and economic 
participation. I will work closely and constructively with government 
officials and civil society actors in order to particularly address the 
issue of trafficking in persons. These priorities are consistent with 
the five program areas of the Indo-Pacific Transparency Initiative, 
part of the Governance Pillar of our vision for a free and open Indo-
Pacific, which focus on anticorruption and fiscal transparency, 
democracy assistance, youth and emerging leader development, media and 
internet freedom, and fundamental freedoms and human rights.

    Question. What do you hope to accomplish through these actions?

    Answer. If confirmed, I will work to leverage available resources, 
including working with other embassies, international organizations, 
and local NGOs, to prevent and respond to gender-based violence and 
corruption. I will look for opportunities to strengthen current 
programs for judicial and law enforcement training. I will also work to 
increase political and economic participation for women.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response?

    Answer. Both corruption and gender-based violence remain 
challenges. Palau's limited government resources and small population 
(under 20,000) make it difficult to establish domestic violence 
shelters and dedicate additional resources to address gender-based 
violence. If confirmed, I will work to leverage available resources, 
including with other embassies, international organizations, and local 
NGOs, to prevent and respond to gender-based violence and corruption.

    Question. What challenges will you face in Palau in advancing human 
rights, civil society, and democracy in general?

    Answer. Palau's limited government resources and small population 
(under 20,000) make it difficult to advance some of these priorities. 
If confirmed, I look forward to engaging civil society and the 
government of Palau to advance human rights and democracy, in line with 
the Indo-Pacific Transparency Initiative. As enshrined in our Compact 
of Free Association, we share many of the same values as Palau, and I 
will draw on this strong and long-standing partnership.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Palau?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and 
Palau. Obtaining the views of civil society is essential to 
understanding local conditions, supports democratic institutions and 
respect for human rights, and informs U.S. foreign policy. Supporting a 
rules-based and transparent order that advances democratic governance 
and empowers civil society is a key goal of the administration and is 
enshrined in our vision for a free and open Indo-Pacific. If confirmed, 
I will continue the embassy's strong engagement with civil society.

    Question. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. Palau does not have a military of its own. Under the 
Compact, the United States has full authority and responsibility for 
security and defense matters in or relating to Palau. To the extent 
U.S. assistance is provided to Palau's law enforcement units, I am 
committed to the effective implementation of the Leahy Law.

    Question. Will you and your embassy team actively engage with Palau 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Palau?

    Answer. There were no reports of political prisoners or detainees 
in Palau. Should such a situation arise, I would, if confirmed, bring 
U.S. concerns to the attention of the government at the highest levels.

    Question. Will you engage with Palau on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will work with Palau to engage on 
matters of human rights and fundamental freedoms, and governance. I 
would also seek to exchange best practices between our governments. 
Good governance is a core pillar of the U.S. vision for a free and open 
Indo-Pacific. As part of the Indo-Pacific Transparency Initiative, the 
United States, with allies and partners, will promote just, 
transparent, and responsive governance through anti-corruption efforts 
while encouraging strong civil society and honest business practices. 
If confirmed, I will work with Palau to create the conditions needed to 
unlock greater private investment, combat corruption, and secure Palau 
from malign foreign influence. I would continue to promote 
transparency, openness, rule of law, and the protection of human rights 
and fundamental freedoms.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity.

  What will you do to promote, mentor, and support your staff that 
        come from diverse backgrounds and underrepresented groups?

    Answer. If confirmed, I would make strong mentoring relationships 
an integral part of the Embassy culture for all staff, including those 
from diverse backgrounds and underrepresented groups. I will promote 
initiatives that support employee engagement, job satisfaction, 
leadership development, increased teamwork, and inclusion. It is my 
expectation that by doing so, workplace diversity, employee retention, 
productivity, and morale will all improve.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will meet with the direct hire and local 
staff in the Mission to determine whether there are areas where 
inclusivity is perceived as lacking, review our Human Resources 
processes to determine where and how we can mitigate unconscious 
biases, and provide access to training that will support these efforts. 
Based on the information gathered during my meetings, I would work with 
my team to put a plan in place to correct any weaknesses or gaps. I 
will work to create an embassy environment that fosters inclusion, 
including by modeling this behavior and setting clear expectations for 
supervisors about the importance of inclusion.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including required reporting to the Office of the 
Inspector General.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including required reporting to the Office of the 
Inspector General.

    Question. Do you or do any members of your immediate family have 
any financial interests in Palau?

    Answer. My investment portfolio includes diversified mutual funds 
that may have investments in companies in Palau; however, these funds 
are exempt from the conflict of interest rules. My investment portfolio 
also includes financial interests in companies that may maintain a 
presence in Palau. I am committed to ensuring that my official actions 
will not give rise to a conflict of interest. I will divest my 
interests in any investments the State Department Ethics Office deems 
necessary in the future to avoid a conflict of interest and will remain 
vigilant with regard to my ethics obligations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Palau 
specifically?

    Answer. Corruption undermines democratic governance and the rule of 
law, including in Palau. The law provides criminal penalties for 
corruption by officials, but officials sometimes engage in corrupt 
practices with impunity. This criminal behavior erodes public 
confidence in institutions and systems of governance and impedes 
achievement of our vision for a free and open Indo-Pacific. Palau can 
only reach its full potential if we make efforts to end these corrupt 
practices. If confirmed I will fully support efforts to end corrupt 
practices.

    Question. What is your assessment of corruption trends in Palau and 
efforts to address and reduce it by that government?

    Answer. As stated in the Department of State's Human Rights Report, 
there are isolated cases of government corruption in Palau, and the 
government takes steps to address them. The law provides criminal 
penalties for corruption by officials. The government requires elected 
and some appointed public officials to file annual financial disclosure 
statements; candidates for office must file a similar statement with 
the Ethics Commission. In Palau and elsewhere, corruption erodes public 
confidence in institutions, systems of governance, and impedes 
achievement of the goals of our vision for a free and open Indo-
Pacific. Palau can only reach its full potential if we make efforts to 
end these corrupt practices.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Palau?

    Answer. If confirmed, I will work closely with the government of 
Palau, civil society, and U.S. law enforcement to strengthen good 
governance and anticorruption efforts. I will work with allies and 
like-minded partners to coordinate our efforts on these important 
issues. Through funding for USAID on governance under the Indo-Pacific 
Strategy, including the Indo-Pacific Transparency Initiative, I will 
work to ensure these programs are implemented to maximum effect in 
Palau. I will also work closely with interagency partners to ensure 
that U.S. taxpayer resources are used for their intended purpose.

Extending U.S. Assistance Beyond 2023
    Question. U.S. officials recently travelled to the Freely 
Associated States to discuss preparations for formal negotiations to 
extend economic assistance beyond 2023 for the Marshall Islands and 
Federated States of Palau and 2024 for Palau.

   What was discussed in these meetings?

    Answer. I was not involved in these meetings but if confirmed, I 
look forward to working closely with the government of Palau and the 
key U.S. government agencies who will provide input into the Compact 
Review discussions with Palau.

    Question. What are the main areas of concern for U.S. and Palau 
officials?

   Please discuss areas of Compact assistance that might be considered 
        for change after 2024.

    Answer. Since the entry into force of the Compact in 1994, the 
United States has provided over $700 million in direct assistance and 
investment to Palau. The U.S. investment in Palau under the Compact, 
and numerous other federal programs, has provided funds for essential 
government operations, law enforcement, infrastructure development, 
weather pattern monitoring, immunizations and health screenings, 
scholarships for higher education, and postal services. Our 
relationship is broad and enduring. Our Compact with Palau took effect 
in 1994. It does not have a termination date and requires our 
governments to formally review its terms, and its related agreements, 
on the 15-year, 30-year, and 40-year anniversaries of the effective 
date of the Compact. Following Secretary Pompeo's announcement 
regarding agreements to amend the Compacts during his August 2019 visit 
to the Federated States of Micronesia, the Department has begun to 
engage Palau on Compact Review discussions.

    Question. What are the rationales behind such considerations?

    Answer. Our relationship with Palau is wide-ranging. Compact Review 
discussions are mandated to occur on the 15-year, 30-year, and 40-year 
anniversaries of the effective date of the Compact, and require the 
formal review of the terms of the Compacts and its related agreements. 
It requires that the governments of the United States and Palau 
consider the overall nature and development of the relationship between 
the United States and Palau, and consideration of the operating 
requirements of Palau and its progress in meeting certain development 
objectives.

U.S.-Palau Compact Review Agreement--Funding Delay
    Question. Although the United States and Palau concluded the U.S.-
Palau Compact Review Agreement, which extended economic assistance for 
another 15 years, in 2010, Congress did not fully fund the agreement 
until FY 2018.

   What was the impact in Palau of the delay in full funding?

    Answer. Our commitment to the Freely Associated States, including 
Palau, is steadfast. Our partners and allies are aware that this 
funding was subject to our appropriations process.

    Question. Will the past delay affect Palau's positions in bilateral 
negotiations for the possible extension of economic assistance after 
2024?

    Answer. The United States has spent approximately $3.5 billion in 
the Freely Associated States over the past 25 years, which reflects the 
support of the American people for the Freely Associated States, 
including Palau. Our partners and allies are aware that any potential 
additional future funding for the Freely Associated States would be 
subject to our appropriations process.

Climate Change
    Question. Palau President Tommy Remengesau stated, ``Climate change 
is really the biggest threat to our food security, our economic 
security, our cultural and social way of life, and the security that we 
enjoy as island people.'' As a party to the 2015 Paris Agreement on 
reducing greenhouse gas emissions, Palau pledged to take actions to 
increase energy efficiency and reduce carbon emissions by half between 
2020 and 2025.

   What assistance is the United States providing to address climate 
        issues in Palau?

    Answer. The United States recognizes that addressing environmental 
degradation and climate change is a priority for Pacific Island 
countries due to the threat posed by sea level rise and the region's 
vulnerability to natural disasters.
    We have long been engaged in supporting disaster risk reduction 
programs aimed at saving lives and reducing the impact of disasters 
worldwide, including in Palau.
    The Department of State, working with interagency partners, 
recently committed $10 million to provide support for disaster 
resilience and weather forecasting, and to address environmental 
challenges, in the Indo-Pacific region.
    If confirmed, I look forward to assisting Palau to build 
resilience, protect its natural resources, and more effectively respond 
to natural disasters.

    Question. What elements of Palau's climate action plan, which Palau 
submitted to the U.N. in November 2015, can the U.S. and other partners 
engage in as part of broader assistance efforts?

    Answer. The Department works closely with likeminded partners on a 
range of issues, including resilience. Japan and Taiwan have missions 
in Palau and Australia just opened a mission in 2019. In addition, 
USAID will soon expand its staff presence in the Pacific region, 
including in Palau. If confirmed, I look forward to working with both 
interagency and international partners to assist with the Pacific 
priority of addressing environmental degradation and climate change.

Maritime Law Enforcement
    Question. The United States is currently working with Palau to 
improve its maritime law enforcement capabilities, including the 
deterrence of illicit drug trafficking, illegal migration, and 
protection of sovereignty of their exclusive economic zone.

   What other opportunities are there for the United States engage 
        with Palau to enhance our shared national security interests?

    Answer. The United States has full authority and responsibility for 
security and defense matters in or relating to Palau. In addition, 
there is a wide range of other opportunities, from maritime law 
enforcement to human rights and democracy, for working closely with 
Palau to enhance our shared interests. Through the Global Defense 
Reform Program, we will embed an advisor with Palau's maritime law 
enforcement agency to enhance maritime governance and security. If 
confirmed, I will work with the government of Palau, as well as the 
citizens of Palau, to deepen our strong, unique, and historic 
relationship and enrich our people-to-people ties.

                               __________


            Responses to Additional Questions for the Record
          Submitted to Dorothy Shea by Senator Robert Menendez

Economic Stability
    Question. It has now been two months since protests swept across 
Lebanon, with a cross-section of the Lebanese people calling for an 
overhaul of the country's political system. Lebanon is facing an 
economic catastrophe, created in part by the very same corruption that 
drove the protestors out into the street.

  What steps can the United States take to help stabilize the 
        situation in Lebanon without undermining the legitimate 
        concerns and goals of the protestors?

    Answer. Lebanon's potential can only be realized if and when the 
government implements long overdue reforms. The United States has urged 
Lebanese leaders to put aside partisan interests, act in the national 
interest, and commit to and undertake meaningful, sustained reforms. 
The Department has called on Lebanon's government and security services 
to guarantee the rights and safety of the protesters. The Department 
will also continue to strengthen Lebanon's institutions, such as the 
Lebanese Armed Forces (LAF), and provide development and economic 
assistance in areas that can improve the lives of everyday Lebanese 
like workforce enhancement, good governance, social cohesion, the 
delivery of basic services, and economic growth.

    Question. What steps can the United States take whether 
unilaterally or alongside the international community to alleviate the 
deteriorating economic situation in Lebanon?

    Answer. One of the most important things Lebanon can do to 
stabilize the economic situation and regain the confidence of domestic 
and international investors is to have its leaders commit to and 
undertake meaningful, sustained reforms. The United States has stressed 
this message unilaterally and as part of the international community. 
The United States will continue its long-standing partnership with the 
Lebanese people. USAID allocated $117.5 million in FY 2019 Economic 
Support Funds to support initiatives in Lebanon that promote workforce 
development, good governance, social cohesion, delivery of basic 
services, and economic growth. The Department is also providing 
humanitarian assistance to help Lebanese communities most in need.

    Question. What reforms do you think will be the most critical for 
the Lebanese government to make?

    Answer. The United States and the international community are ready 
to help Lebanon develop economic prosperity and good governance, but we 
need a credible commitment to reform. Reforms that can improve 
government revenue and lower government spending, such as reforms of 
the electric sector and customs, remain important. In April 2018, 
Lebanon committed to pass a series of important reforms at the CEDRE 
conference, including (1) increasing public investment, (2) fiscal 
adjustment, (3) structural and sectoral reforms, and (4) an economic 
diversification strategy. Those all remain areas for work today.

    Question. What tools the United States have to support efforts to 
improve the delivery of basic services?

    Answer. USAID programming in Lebanon includes initiatives to 
improve basic services, especially those that have been strained by the 
influx of more than one million Syrians. USAID programs improve the 
capacity of regional water authorities, and strengthen Lebanon's public 
schools by training teachers, improving reading skills, and improving 
access to education for vulnerable Lebanese and Syrian refugees. In 
addition, USAID supports municipalities in delivering essential 
services to meet the needs of local communities.

    Question. Will you commit to expeditiously utilizing the economic 
tools and foreign assistance that Congress has appropriated?

    Answer. Yes. If confirmed, I commit to expeditiously utilizing the 
economic tools and foreign assistance appropriated by Congress to 
advance U.S. objectives.

U.S. Regional Security Interests
    Question. Components of United States policy in Lebanon support 
regional policy objectives including countering Iran's destabilizing 
activities including its support for Hezbollah, countering terrorism 
from the Islamic State, Al-Qaeda and its affiliates, and support our 
allies including Israel.

  How will you engage with Lebanon's political and civil society 
        leaders in order to continue to promote United States foreign 
        policy objectives for the region?

    Answer. If confirmed, I will engage with Lebanese government 
representatives, political and civil society leaders, and the Lebanese 
people to promote U.S. objectives. As I noted in my testimony, at the 
core of our interests in Lebanon are efforts to ensure a stable and 
prosperous nation with which the United States can partner to advance 
security interests in the country and region. Working with the 
international community and the Lebanese people to address the 
country's now faltering stability is critical to ensuring success in 
our efforts to defeat ISIS, foster regional stability, and counter 
Iran's destabilizing influence in the region.

UNIFIL
    Question. On August 29, 2019, the U.N. Security Council adopted 
Resolution 2485, extending the mandate of the United Nations Interim 
Force in Lebanon (UNIFIL) for another year. Since 2006, UNFIL's mandate 
has included accompanying and supporting the Lebanese Armed Forces as 
they deployed throughout southern Lebanon, helping to ensure 
humanitarian access to civilian populations, and taking steps toward 
establishment of ``an area free of any armed personnel, assets and 
weapons other than those of the government of Lebanon and of UNIFIL'' 
in its area of responsibility.

   What is your assessment of UNIFIL's performance in Lebanon, 
        specifically its efforts to carry out its mandate under UNSCR 
        1701?

    Answer. UNIFIL has helped maintain relative stability in southern 
Lebanon, especially through its liaison activities. The United States 
remains concerned, however, that UNIFIL continues to be prevented from 
fully implementing its mandate. The Department has urged the U.N. to 
increase its reporting on, and ability to monitor and verify 
implementation of, the arms embargo. The Department also continues to 
press Lebanese civilian leadership to facilitate UNIFIL's unimpeded and 
timely access to the entire Blue Line, including Green Without Borders 
sites, areas deemed private property, and all other areas relevant to 
implementation of and consistent with UNIFIL's mandate.

    Question. What steps will you take to help ensure UNIFIL is 
fulfilling its mandate?

    Answer. UNSCR 1701 called for a cessation of hostilities between 
Israel and Hizballah and no supply of arms to Lebanon without Lebanese 
government authorization. The cessation of hostilities was premised on 
a long-term solution which included the disarmament of armed groups in 
Lebanon. If confirmed, I will continue U.S. efforts to urge the U.N. 
and UNIFIL's leadership to do more to report on violations of UNSCR 
1701, and urge the Lebanese government to provide UNIFIL access to all 
areas along the Blue Line, including border tunnels and areas from 
which Hizballah has launched anti-tank missiles.

Lebanese Armed Forces FMF
    Question. Recently, the Trump administration released the $105 
million in FMF for Lebanon that Congress appropriated. However, I 
believe it is important that Congress have an understanding why the 
release of funds it appropriated was delayed. While there are concerns 
about Lebanese Armed Forces' (LAF) relationship with Hezbollah, I 
understand that the interagency, with the exception of OMB was in 
consensus that FMF to support the LAF serves U.S. national security 
interests. Furthermore, as shown by Secretary Pompeo's release of 
Ukraine FMF over the objections of OMB, the State Department can 
release funds in spite of OMB objections.

  If confirmed, what steps will you take to ensure the responsible 
        delivery of funds to Lebanon deemed Congress has assessed as 
        necessary for protecting U.S. national security interests?

    Answer. U.S. foreign policy is optimized when there is 
communication and collaboration between the executive and legislative 
branches of government. If confirmed, I pledge to continue our 
cooperation on these issues, and I will work through the interagency 
and with Congress to ensure the delivery of appropriated funds to 
Lebanon.

    Question. Will you work to continue countering Hezbollah influence?

    Answer. Yes, if confirmed, I commit to continuing to build on our 
efforts to counter Hizballah's influence.

LAF and the Internal Security Forces
    Question. The LAF has shown a great deal of improvement and 
professionalization over the past decade and is increasingly recognized 
by the people of Lebanon as a genuinely national institution. In 
contrast, other Lebanese institutions such as the Internal Security 
Forces (ISF) have yet to fully professionalize. Consequently, the 
Lebanese government has had to rely on the LAF to fill gaps in internal 
security missions, further stretching its limited force and budget. 
While the LAF has exercised restraint in order to protect civilian 
protestors, reports of the ISF's use of tear gas, rubber bullets, and 
water cannons are disconcerting.

 What factors have prevented the Internal Security Forces from 
        achieving the standards of professionalization set by the LAF?

    Answer. The Department continue to work with Lebanon's Internal 
Security Forces (ISF) to develop and improve its capabilities, 
including through a five-year strategic plan. Using FY 2019 funds, the 
Bureau for International Narcotics and Law Enforcement Affairs will 
continue supporting the modernization and professionalization of the 
ISF, maintaining the Police Professionalism (EP2) program to train the 
ISF Gendarmerie Force. During the recent protests, Lebanon's security 
forces predominately demonstrated restraint and professionalism in 
interactions with protestors. The Department has cautioned all sides 
against the use of violence or provocative actions and encouraged 
security services to ensure the right to peaceful protest.

    Question. How do you anticipate the economic crisis facing Lebanon 
will impact the LAF's ability to effectively perform its mandate, given 
its already limited force and budget?

    Answer. The LAF will continue to execute its mandate in the near-
term. The Department remains in contact with LAF leadership and 
candidly discusses its resource constraints, operational contingency 
planning, and the various challenges and opportunities faced by the 
organization. However, given the economic crisis, the international 
community has underscored to Lebanon's leaders the urgent need for 
reforms that can stabilize the economy and ensure government revenues.

    Question. What steps can the United States take to help the 
Lebanese government professionalize the ISF and transform it into a 
national institution?

    Answer. The United States is helping the ISF achieve its five-year 
strategic plan to improve its professionalism and capabilities. U.S. 
funding has provided training to over one-third of the ISF, improving 
their professionalism and public trust. U.S. assistance includes a 
professional training program for ISF personnel operating in critical 
areas outside Beirut, developing the ISF training academy, providing 
specialized training through the FBI, upgrading the ISF's biometric 
systems, and developing the ISF's IT systems to automate paper-based 
processes. The Department will continue to work with the ISF to improve 
its ability to build a stable and secure Lebanon.

Democracy
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights?

    Answer. I am proud of my work to promote human rights (HR) and 
democracy throughout my career, by meeting with HR defenders to 
understand challenges, reporting same, advocating for governments to 
respect citizens' rights, and through relevant Embassy programs and 
outreach. In word and deed, I have worked to promote strong democratic 
institutions, respect for HR and the rule of law, religious freedom, 
press freedom, and women's empowerment, and to counter trafficking in 
persons. As an illustrative example, I contributed to efforts to 
persuade the government of Egypt (GOE) to resolve ``Case 173'' 
convictions of employees of U.S. non-governmental organizations (NGO); 
and reform its draconian NGO law.

    Question. What has been the impact of your actions?

    Answer. I am proud that democracy activists and human rights 
defenders have felt safe sharing their concerns with my teams and me. 
They often relied on our convening power, advocacy with foreign 
governments, and public messaging. In some instances, expressing 
concern privately with governments about a case or a trend helped bring 
relief; more concerted pressure has sometimes been instrumental. With 
regard to the asks mentioned above, international NGO employees who had 
been convicted for political reasons in ``Case 173'' were acquitted, 
and the GOE repealed the draconian NGO law and passed a new version. 
The Department continues to advocate for more progress.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Lebanon? (These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.)

    Answer. Political deadlock and economic weaknesses jeopardize 
Lebanon's stability, and together, challenge democratic development. 
Lebanese citizens report that the economic crisis and corruption are 
the most serious problems facing their country. In addition to concerns 
about accountable and responsive government institutions, press freedom 
and freedom of expression are key human rights challenges that, if 
confirmed, I will seek to address.

    Question. What steps will you take - if confirmed - to support 
democracy in Lebanon?

    Answer. The priority for supporting democracy in Lebanon is to 
address the people's demands for more accountable, responsive, and 
transparent governance. If confirmed, I would press Lebanese officials 
to respond to their citizens' demands, meet with Lebanese activists and 
civil society to understand their concerns, and review U.S. assistance 
to ensure it is focused on strengthening key democratic institutions 
and protecting the human rights and fundamental freedoms of all 
individuals in Lebanon.

    Question. What do you hope to accomplish through these actions?

    Answer. My objective would be to build a secure, inclusive, 
accountable, and economically prosperous Lebanon that remains a 
regional partner of the United States.

    Question. What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. Political deadlock and endemic corruption and resulting 
economic weaknesses jeopardize Lebanon's stability, and as a result 
challenge democratic development. Regional adversaries like Syria and 
Iran try to maintain their entrenched interests through Hizballah, 
because accountable, transparent, and rights-respecting governance in 
Lebanon would threaten their corrupt influence.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. As part of its programming for 2020, USAID plans to provide 
targeted support for elections and governance to the Lebanese 
Supervisory Commission on Elections. Through its support to strengthen 
municipal services, USAID encourages municipal leaders to involve 
constituents in identifying projects to improve services and 
livelihoods. The State Department's Bureaus of International Narcotics 
and Law Enforcement works to professionalize security services and 
offers training to the judiciary. Embassy Beirut's public diplomacy 
initiatives include a focus on the promotion of good governance and 
democracy.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Lebanon?

    Answer. If confirmed, I commit to continuing my predecessors' 
tradition of meeting with human rights, civil society and other non-
governmental organizations in the United States and in Lebanon. Embassy 
Beirut routinely meets with local NGOs to learn about alleged human 
rights abuses and hear their views on how the United States might 
advance human rights in Lebanon.

    Question. What steps will you take to pro-actively address efforts 
to restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. Civil society in Lebanon is vibrant, and civil society 
actors contribute to public debate about how the country can best 
advance its democratic principles. If confirmed, I look forward to 
meeting with human rights, civil society, and other non-governmental 
organizations in the United States and in Lebanon. I would encourage 
the government of Lebanon to fairly and transparently apply the laws 
governing NGOs and civil society organizations.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties?

    Answer. Yes, if confirmed as ambassador to Lebanon, I will commit 
to meeting with democratically oriented political opposition figures 
and parties.

    Question. What steps will you take to encourage genuine political 
competition?

    Answer. Embassy Beirut regularly meets with rights-respecting 
parties represented in the Lebanese government, a practice I would 
continue if confirmed as U.S. ambassador. U.S. government assistance to 
civil society NGOs through democracy and governance programs help 
create an enabling environment for genuine political competition.

    Question. Will you advocate for access and inclusivity for women, 
minorities and youth within political parties?

    Answer. Yes, if confirmed, I will engage with Lebanese political 
parties and advocate inclusion of women, members of minority groups, 
and youth. Societies benefit from integrating diverse voices into 
political, economic, and social life.

    Question. Will you and your embassy team actively engage with 
Lebanon on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures?

    Answer. Lebanon enjoys an independent press landscape, and the U.S. 
Embassy in Lebanon regularly meets with the press. That said, I am 
aware that media outlets and workers face intimidation, censorship, and 
occasional legal action related to their work. If confirmed, I would 
continue the Embassy's engagement on these issues. A free press has a 
vital role to play in a democratic society and we would express U.S. 
concerns to the government of Lebanon should it or other actors 
undermine press freedom.

    Question. Will you commit to meeting regularly with independent, 
local press in Lebanon?

    Answer. Yes, Embassy Beirut routinely meets with journalists, 
including those representing independent local press. If confirmed, I 
commit to doing so, as well.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will meet with civil society and government 
counterparts on countering disinformation and propaganda disseminated 
by foreign state actors. Civil society organizations are one of the 
most useful resources in terms of providing facts to help counter 
disinformation and propaganda campaigns, including by malign local 
actors.

    Question. Will you and your embassy teams actively engage with 
Lebanon on the right of labor groups to organize, including for 
independent trade unions?

    Answer. As the Department of State's Country Report on Human Rights 
Practices states, Lebanese law provides for the right of private-sector 
workers to form and join trade unions, bargain collectively, and strike 
but does place some important restrictions on these rights. If 
confirmed, I will continue my predecessors' tradition of meeting with 
labor rights groups and trade unions in Lebanon and raising concerns 
about restrictions on their rights with the government.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Lebanon, no matter 
their sexual orientation or gender identity?

    Answer. I am aware that the Lebanese penal code effectively 
criminalizes consensual, same-sex sexual conduct among adults. If 
confirmed, I will use my position to defend the human rights of all 
people in Lebanon, regardless of their sexual orientation or gender 
identity.

    Question. What challenges do the lesbian, gay, bisexual, 
transgender and queer (LGBTQ) people face in Lebanon?

    Answer. There are no provisions of law providing anti-
discrimination protections to Lesbian, gay, bisexual, transgender and 
intersex (LGBTI) persons based on their sexual orientation, gender 
identity or expression, or sex characteristics. According to the State 
Department's 2018 Country Reports on Human Rights Practices, official 
and societal discrimination against LGBTI persons persist. Although 
human rights and LGBTI organizations acknowledged some recent 
improvements in detainee treatment, these organizations and former 
detainees continued to report that ISF officers mistreated LGBTI 
individuals in custody particularly outside of Beirut. Officials also 
interfered with or restricted events focused on the rights of LGBTI 
individuals.

    Question. What specifically will you commit to do to help LGBTQ 
people in Lebanon?

    Answer. If confirmed, I intend to engage with senior Lebanese 
officials to emphasize U.S. commitment to protecting LGBTI individuals 
from unlawful human rights abuses. We will also explore ways to show 
our support for civil society organizations that advocate for 
protecting the rights of LGBTI persons.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes, if confirmed, with the understanding that any such 
response would be organized through the Department of State's Bureau of 
Legislative Affairs and conducted in accordance with long-standing 
Department and Executive Branch practice.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, if confirmed, with the understanding that any such 
appearance would be organized through the Department of State's Bureau 
of Legislative Affairs in accordance with long standing Department and 
Executive Branch practice.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes, if confirmed, I will follow all Department rules and 
regulations as to reporting waste, fraud, and abuse, including 
notifying the Department's Inspector General when appropriate.

Administrative
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting?

    Answer. Yes.

    Question. If so, please describe the nature of the complaint or 
allegation, your response, and any resolution, including any 
settlements.

    Answer. To my knowledge, I have never been named as a responsible 
management official in any complaint for which there was a finding of 
discrimination or harassment. I am aware of two EEO matters, one of 
which was withdrawn and the other was not substantiated. I take EEO and 
sexual harassment in the workplace seriously, and if confirmed, I will 
work to ensure that a message of zero tolerance for discrimination, 
harassment, and misconduct is affirmed from the beginning of my 
assignment.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. Yes.

    Question. If so, please describe the outcome and actions taken.

    Answer. I have immediately addressed any issues involving concerns 
or allegations of sexual harassment, discrimination or inappropriate 
conduct raised to me in accordance with the Department of State's 
policies, including taking disciplinary actions against employees under 
my supervision. I am aware of an instance where a subordinate acted 
inappropriately during an ongoing EEO matter. I took the matter 
seriously and immediately addressed the issue.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I agree that targeting or retaliation against career 
employees for these reasons is wholly inappropriate. If confirmed, I 
will ensure that all employees under my leadership understand their 
legal protections, and that prohibited personnel practices will not be 
tolerated.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I would ensure that the entire team at the 
Embassy is aware that I will not tolerate retaliation, blacklisting, or 
any other prohibited personnel practice. I will also ensure the 
Management and Human Resources offices at the Embassy know how to 
identify and prevent prohibited personnel practices. If I learn of any 
allegations of prohibited personnel practices, I will work with the 
Office of Inspector General and the Bureau of Human Resources to 
address the issues as expeditiously as possible, including through 
disciplinary action when appropriate. Additionally, I will ask the 
Office of the Legal Adviser and Human Resources about resources that I 
may provide to Embassy staff in order to ensure that they are aware 
prohibited personnel practices in Embassy briefings and notices.

    Question. Will you commit to pressing the case of Amer Fakhoury? 
Will you ensure that the U.S. Embassy has access to him and press for 
the Lebanese government to address his case with due process?

    Answer. The United States is concerned by the detention of U.S. 
citizen Amer Fakhoury in Lebanon. Ambassador Richard, our Ambassador in 
Lebanon, monitors his case. The Department is in regular contact with 
Mr. Fakhoury and the Embassy in Beirut has conducted frequent consular 
visits throughout Mr. Fakhoury's detention.If confirmed, I will 
continue to monitor Mr. Fakhoury's case, if it has not been resolved by 
that time. The administration takes all allegations of mistreatment 
seriously and whenever we receive credible reports, we raise our 
concerns directly with the host government at the highest levels.

                               __________


            Responses to Additional Questions for the Record
             Submitted to Dorothy Shea by Senator Ted Cruz

    Question. Do you believe that the United States should provide 
assistance to any government of Lebanon if that government is 
controlled by Hezbollah, is unduly influenced by Hezbollah, or has 
ministries that Hezbollah controls?

    Answer. The U.S. government works assiduously to prevent the use of 
U.S. government funds from benefitting individuals or entities 
associated with terrorist groups, particularly Hizballah. U.S. foreign 
assistance to Lebanon aims to counter Hizballah's narrative and 
influence and build the institutions of the Lebanese state. U.S. 
economic aid is not provided directly to the Lebanese government, but 
is implemented through NGOs and international organizations. U.S. 
security assistance provides training and equipment to the Lebanese 
Armed Forces and Internal Security Forces to build capable and 
committed partner forces for the United States.

    Question. Do you believe that the United States should provide 
assistance to any Lebanese entities in the absence of a sitting 
Lebanese government?

    Answer. The ``caretaker'' status of the Lebanese government should 
not affect the implementation of USAID programming. Funding is not 
provided to or through the Lebanese national government. U.S. 
development and economic assistance to Lebanon is implemented through 
NGOs and international organizations.
    The United States provides training and equipment directly to the 
Lebanese Armed Forces (LAF) and Internal Security Forces (ISF). The LAF 
and ISF continue their mandate to provide security in Lebanon while the 
Lebanese government remains in caretaker status.

    Question. Please describe the degree to which Hezbollah exercises 
influence or control over the Beirut-Rafic Hariri International Airport 
or facilities located within the airport.

    Answer. The U.S. government is concerned about Hizballah's 
influence at ports of entry into Lebanon, including the airport. As 
U.S. Treasury Assistant Secretary Marshall Billingslea stated publicly 
last September, Hizballah ``engages in a wide range of illicit business 
activities in Lebanon, [that are] well outside the financial sector.'' 
Including, he said, ``the abuse of the airport and the seaports.''

    Question. Please describe the degree to which Hezbollah exercises 
influence or control over the Port of Beirut or facilities located 
within the port.

    Answer. The influence Hizballah exerts over ports of entry remains 
of considerable concern and denies the Lebanese people the benefit of 
customs revenue, significant given the large budget deficits Lebanon 
faces. To combat Hizballah's influence, the U.S. Department of the 
Treasury's Office of Foreign Assets Control (OFAC) designated under 
Executive Order 13224 Hizballah security official Wafiq Safa, for 
acting for or on behalf of Hizballah. As head of Hizballah's security 
apparatus, Safa exploited Lebanon's ports and border crossings to 
smuggle contraband, facilitate Hizballah travel, and facilitate the 
passage of illegal drugs and weapons into the seaport of Beirut, 
routing certain shipments to avoid scrutiny.

    Question. What percent of U.S. military assistance to Lebanon was 
used for activities or operations aimed at disarming Hezbollah in 2019? 
A rough estimate or a range will be sufficient.

    Answer. U.S. military assistance to the LAF does not focus on 
direct disarmament, but rather focuses on developing the LAF as an 
institutional counterweight to Hizballah's influence and freedom of 
action. Since 2006, the United States has provided over $2 billion in 
security assistance to the LAF and ISF. U.S. assistance to the LAF has 
helped it to increase its ability to act as the exclusive legitimate 
defender of Lebanon's sovereignty, enabling it to defend Lebanon from 
violent extremist organizations, including ISIS.

    Question. What percent of U.S. military assistance to Lebanon was 
used for activities or operations aimed at disrupting Hezbollah 
activities short of disarming them in 2019, e.g. through roadblocks? A 
rough estimate or a range will be sufficient.

    Answer. With complementary diplomatic efforts, the entirety of U.S. 
security assistance to Lebanon since 2006 has been an integral part of 
the Department's strategy to support state institutions and security 
agencies in order to bolster stability and counter Hizballah's malign 
influence in Lebanon and in the region. Over the past several months, 
the LAF has undertaken a series of security actions, including 
maintaining security cordons and roadblocks, that have prevented or 
deterred Hizballah from intimidating or harming peaceful protesters.

    Question. You testified on December 17, 2019 that military 
assistance to Lebanon bolsters American national security because it 
helps to professionalize the army and provide a counterweight to 
Hezbollah's claims to be a legitimate part of Lebanon:

   Please describe which parts of Hezbollah's claims have been 
        dissolved due to U.S. assistance since 2006?
   Please describe which parts of Hezbollah's claims remain to be 
        dissolved?
   In your opinion, how much more assistance from the U.S. will be 
        necessary to dissolve these remaining parts of Hezbollah's 
        claims?

    Answer. According to a December 2019 GAO Report, the LAF's border 
security and counterterrorism capabilities notably improved from 2013 
to 2018, undercutting Hizballah's long-standing, disingenuous claim 
that state institutions are not sufficient to protect Lebanon. With the 
support of U.S. training and equipment, the LAF has defeated ISIS in 
Lebanon, reasserted control over Lebanese territory along its border 
with Syria, and increased its presence in southern Lebanon in support 
of UNIFIL. These improvements undercut Hizballah's unfounded argument 
that its weapons are necessary to protect Lebanon's sovereignty. During 
the recent protests, the LAF helped contain the violence and protect 
protestors.

    Question. On December 3, 2019, Principal Deputy Undersecretary Hood 
testified that the LAF hasn't moved to disarm Hezbollah pursuant to 
their obligations under U.N. Security Council resolution 1701 because 
the government of Lebanon has not directed them to do so:

   Do you agree with that assessment?
   If so, why do you believe the Lebanese government has not ordered 
        the LAF to disarm Hezbollah?
   Please describe the degree to which you believe the LAF is under 
        the authority of Lebanon's civilian government.
   Please describe the degree to which you believe the LAF is 
        independent of Lebanon's civilian government.

    Answer. The LAF's leadership acts to fulfill its mission under the 
guidance of Lebanon's civilian leadership. It is unlikely the LAF, 
which responds to the civilian authorities in Lebanon, would be ordered 
to disarm Hizballah by force.

    Question. In recent weeks, the world has witnessed horrifying 
videos and images of Lebanese security forces beating peaceful 
protesters and dissidents. Those forces have included personnel drawn 
from security institutions supported by the United States:

   Are you concerned that these videos and images have undermined our 
        efforts to dissolve Hezbollah's narrative?
   Has the State Department concluded that no U.S. equipment was used 
        against protesters and dissidents?
   Has the State Department concluded that none of the security forces 
        who attacked protesters were trained by the U.S.?

    Answer. At the highest levels, the United States has called on 
Lebanon's government and security services to guarantee the rights and 
safety of protestors. While security forces predominantly demonstrated 
restraint and professionalism in interactions with protesters, the LAF 
and ISF have occasionally failed to intervene during violent attacks 
against protesters and in some instances used tear gas and rubber 
bullets to disperse protesters who resisted the efforts of security 
forces to clear key thoroughfares or prevent their entry into 
government buildings. The State Department has not yet reached any 
conclusions about the use of U.S. equipment or training. The Department 
is aware of at least two instances of violence by security forces that 
are being investigated by Lebanese authorities.

    Question. On December 12, 2019, the United States Agency for 
International Development (USAID) transmitted to Congress a 
Congressional Notification (CN) obligating $114.5 million in ESF and 
ESF-OCO ``to support good governance, civil society, water supply and 
sanitation, basic education, higher education, and private sector 
productivity programming in Lebanon.'' The CN included obligations for 
the Local Development Project, which ``intends to work with groups of 
municipalities.'' As you know, Hezbollah controls mayors and heads of 
villages across Lebanon, and especially in southern Lebanon and the 
Bekaa region, where the CN suggests some of the money will be spent:

   Please provide a list of all municipalities with which the State 
        Department intends to facilitate partnerships via the ESF 
        obligated by the December 12, 2019 CN.
   For each municipality, please describe the degree to which the 
        State Department assesses that the municipality is controlled 
        or unduly influenced by Hezbollah.

    Answer. USAID has not yet determined which municipalities in 
southern Lebanon and Bekaa regions it intends to work in using FY 19 
funds. USAID implements a three-stage process to mitigate the risk of 
U.S. government resources inadvertently benefitting a designated 
terrorist or sanctioned groups. This process verifies that select 
municipal councils proposed to benefit from assistance are not 
controlled by Hizballah or any other designated foreign terrorist 
organization.

    Question. In 2018, The Livelihoods and Inclusive Finance Expansion 
project (LIFE), a USAID-funded project, partnered with Jammal Trust 
Bank (JTB). USAID celebrated the partnership on social media, saying it 
would ``increase access to financial services,'' that ``many 
individuals would have never thought they can open a bank account with 
such ease, and that ``[w]ith a $250,000 grant'' the project would reach 
``new unbanked customers.'' In 2019, the U.S. Department of the 
Treasury's Office of Foreign Assets Control (OFAC) targeted and 
designated Jammal Trust Bank as a Specially Designated Global Terrorist 
(SDGT) pursuant to Executive Order (E.O.) 13224 ``for brazenly enabling 
Hizballah's financial activities,'' for posing ``a direct threat to the 
integrity of the Lebanese financial system,'' and because it ``provides 
support and services to Hizballah's Executive Council and the Martyrs 
Foundation, which funnels money to the families of suicide bombers,'' 
according to Undersecretary for Terrorism and Financial Intelligence 
Sigal Mandelker. The OFAC release noted that Jammal Trust's 
relationship with Lebanese and Iranian-based terror financing groups 
was ``longstanding.''

   Public statements and testimony suggest that the U.S. had long been 
        aware of JTB's ties to Hezbollah. When did the State Department 
        become aware of those ties? Did they transmit to USAID 
        knowledge of those ties? If yes, when? If not, why not?
   Has the State Department estimated how much U.S. taxpayer money was 
        funneled, diverted, or provided as fungible resources for 
        Hezbollah activities through the LIFE-JTB partnership? If so, 
        what was that estimate? If not, why not?
   What measures have been taken to ensure that USAID is not providing 
        additional financing to Hezbollah-linked banks?

    Answer. USAID and State received information from other U.S. 
agencies about JTB's links with Hizballah following the announcement of 
the award in 2018. USAID subsequently revetted JTB based on the 
information that had not previously been included in vetting channels, 
and the additional information resulted in an ineligible vetting 
determination and termination of the sub-award.
    The initial sub-award to JTB was for $250,000, and USAID only 
authorized the reimbursement of $105,000 in allowable costs incurred 
prior to the termination of the sub-grant. To the State Department's 
knowledge, none of the $105,000 in funds released were diverted to 
Hizballah or any other designated terrorist organization.
    Following this case, USAID and the Treasury Department shared 
information on all other existing partners in Lebanon to confirm there 
are no additional concerns.

    Question. The State Department and USAID have long used independent 
evaluations to assess the performance of their grantees. In 2014 and 
2015, the State Department controversially withdrew funding from Hayya 
Bina, an independent anti-Hezbollah Shiite democratic activist group 
that trains women across the country, and told reporters it was because 
of ``performance concerns'' after an ``independent evaluation.''

   How many of the programs targeted for ESF funding pursuant to the 
        December 12, 2019 CN have been subject to independent 
        evaluations to ensure their performance meets the expectations 
        of the USAID Administrator and the Secretary of State?

    Answer. As a matter of USAID policy, all programs are required to 
undergo independent mid-term and final evaluations. All USAID/Lebanon 
activities include budget line items to fund independent, third-party 
evaluations. In addition, USAID/Lebanon has third-party contractors 
that periodically monitor assistance interventions to mitigate the risk 
of poor performance, as well as the misuse or diversion of U.S. 
government resources. USAID/Lebanon also has a separate architectural 
and engineering contract in place to evaluate independently any 
construction/infrastructure activities undertaken through its 
assistance activities. As for Hayya Bina, the ``performance concerns'' 
articulated by the Department were subsequently determined to have been 
unfounded.

                               __________


       Responses to Additional Questions for the Record Submitted
            to Dr. Donald Wright by Senator Robert Menendez

    Question. What programs is the U.S. government currently 
undertaking to help protect civic, political and media space?

    Answer. Through various USG programs, the Embassy is engaging on 
matters of human rights, democracy, and good governance. These include 
efforts to improve the resilience of civil society organizations in the 
face of diminishing democratic space, supporting Tanzanian partners to 
advance their advocacy priorities related to human rights, enhancing 
the professionalism of independent media, and seeking to improve the 
inclusivity and transparency of democratic processes. Additionally, the 
U.S. government is supporting the introduction and expansion of good 
governance within service delivery systems and bolstering transparency, 
citizen participation, and accountability within planning and financial 
management processes.
    I am committed to working with the Tanzanian government, like-
minded missions, civil society, and international organization to 
advance these important areas.

    Question. What assistance are we currently undertaking to help 
ensure the 2020 general elections outcomes in Tanzania reflect the will 
of the people?

    Answer. The United States remains committed to supporting 
democracy, human rights, and good governance in Tanzania. These 
principles are enshrined within Tanzania's constitution and remain 
central to the aspirations of the Tanzanian people.
    The United States plans to support appropriately a transparent and 
inclusive political and electoral process in Tanzania in four main 
areas: systematic domestic observation of the 2020 elections; civic and 
voter education campaigns; assistance to political parties to be more 
inclusive and to candidates to run more professional and issue-focused 
campaigns; and assistance for Tanzanian-led efforts to introduce and 
advance electoral reforms that increase the participation of women and 
youth.

    Question. What more in your view could the U.S. be doing?

    Answer. The Embassy, broader U.S. government institutions, our 
partners in the host government, the international community, civil 
society groups, and the private sector must continue to communicate and 
remain vigilant. Democracy and institution building is an ongoing 
effort.

    Answer. Addressing repressive actions takes a multifaceted 
approach. If confirmed, I will partner with like-minded missions, 
engage civil society and other influential voices to be part of the 
dialogue, and leverage my convening power to ensure that these topics 
remain front and center. I will collaborate and engage with a broad 
array of Tanzanians, including government officials, to ensure they 
know that the American people share their aspirations for a durable 
Tanzanian democracy and robust respect for human rights and fundamental 
freedoms.

    Question. What steps will you take if confirmed to support the 
efforts of Tanzanians to push back against closing political and civic 
space?

    Answer. If confirmed, I will use my leadership and voice, both 
publicly and privately, to underscore that respect for human rights is 
essential for Tanzania's future growth, prosperity, and security. I 
will engage Tanzanian authorities, international partners, civil 
society organizations, and business leaders to work together toward 
these goals.

    Question. What threats is Tanzania facing in the areas of terrorism 
and violent extremism?

    Answer. Tanzania's security vulnerabilities include porous borders 
with its neighbors. Al-Shabaab sympathizers have drawn recruits from 
disaffected youth populations in Zanzibar and Tanzania's Tanga region, 
and the Allied Democratic Forces and ISIS-Central Africa affiliates are 
believed to frequently cross into Western Tanzania from the Democratic 
Republic of Congo. Recruits, weapons, and provisions from Tanzania 
cross the porous border into northern Mozambique to equip extremists in 
the Cabo Delgado province.

    Question. What steps do you plan to take, if confirmed, to work 
with the Tanzanian government to help facilitate their acknowledgement 
of potentially worsening terrorism and violent extremism problems?

    Answer. Security cooperation is one of the bright spots in our 
bilateral relationship with Tanzania. If confirmed, I will continue to 
work closely with Tanzania to strengthen maritime security and to 
strengthen Tanzania's ability to disrupt and reduce trafficking in 
wildlife, which have been used by transnational criminal elements and 
violent extremists in the past to raise funds. U.S. assistance supports 
the training of Tanzanian Police Force officers in terrorism-related 
and forensic investigations, including support for the establishment of 
a specialized Rural Border Patrol Unit to secure the coastal land 
border with Kenya. Countering Violent Extremism programming trains 
community leaders to identify violent extremism risks and 
radicalization trends and strengthens community resiliency.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I agree with this statement. As a career civil 
servant, I have treated and will continue to treat all employees with 
respect and professionalism. If confirmed, I will work to prevent any 
attempts to target or retaliate against career employees on the basis 
of their perceived political beliefs, prior work on policy, or 
affiliation with a previous administration. I take allegations of such 
practices seriously and will ensure they are referred to the 
Department's Inspector General.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed as Ambassador, it will be my responsibility to 
set the highest professional standard for the entire mission. I will 
comply with all relevant federal laws, regulations, and Department 
policies, and will raise concerns that I may have through appropriate 
channels. Under my leadership, retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated. I will make sure 
that employees understand this by holding town halls, meeting with 
section chiefs, and other appropriate means.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting?

    Answer. No. I have not had any formal or informal complaints or 
allegations of sexual harassment, discrimination, or inappropriate 
conduct made against me in the workplace or any other setting.

    Question. If so, please describe the nature of the complaint or 
allegation, your response, and any resolution, including any 
settlements.

    Answer. [Not applicable]

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. Yes, I have.

    Question. If so, please describe the outcome and actions taken.

    Answer. I take the issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness, and I immediately 
address these issues once they are brought to my attention. I 
understand a subordinate was named in an EEO complaint after 
terminating an employee for unsuccessful performance. The complainant 
alleged the action was based on national origin and sexual orientation. 
An Administrative Judge found that the case lacked merit and ruled in 
the Department of Health and Human Services' favor. I was not named as 
a responsible management official or a witness in either the initial or 
follow-up complaints.

    Question. Does the United States support any activities focused on 
training for judges or law enforcement on trafficking investigation and 
prosecutions?

    Answer. The USG has ongoing programs that provide training to 
migration officials, judges, and law enforcement personnel on 
trafficking investigations, prosecutions, and prevention. Training 
events bring together stakeholders from immigration, law enforcement, 
the judiciary, social welfare offices, and NGOs on investigations, 
prosecutions, and protections for victims of trafficking.

    Question. Has the United States provided funding to the Ministry of 
Justice for anti-trafficking efforts?

    Answer. The USG provides training and technical assistance to 
judicial and law enforcement personnel. The USG does not provide direct 
funding to the Ministry of Justice.

    Question. What organizations on the ground provide care for 
trafficking victims and how are they funded?

    Answer. There are a variety of Tanzanian organizations that are 
providing care for trafficking victims, including: Kiota Women's Health 
and Development (KIWOHEDE), Daughters of Mary Immaculate, the Faraja 
Orphan Home, and WoteSawa. These organizations receive resources from a 
variety of sources, including through the International Organization 
for Migration (IOM) and private donors.

    Question. What further steps could the government of Tanzania take 
to improve its TIP ranking next year, and what actions will you 
advocate they take if you are confirmed?

    Answer. In order to improve its TIP ranking next year, the 
government of Tanzania could:

   Table the Amendment to the 2008 Anti-Trafficking Act, which will 
        remove sentencing provisions that allow fines in lieu of 
        imprisonment and align the procedural law pertaining to 
        trafficking-related arrests within the act with the 
        requirements for other serious crimes;
   Increase funding to the Anti-Trafficking Secretariat to support 
        their prosecution, protection, and prevention efforts;
   While respecting the rule of law and human rights, increase efforts 
        to investigate, prosecute, and convict trafficking offenders, 
        including complicit officials, and impose adequate penalties;
   Implement a systematic victim-witness support program; and,
   Institutionalize the use of a national centralized anti-trafficking 
        data collection and reporting tool and consider increasing 
        information sharing.

    If confirmed, under my leadership, the Embassy will continue to 
emphasize to the government of Tanzania the importance of meeting the 
goals of its National Anti-Trafficking in Persons Action Plan (2018-
21), which is aligned with the 2019 Trafficking in Persons Report 
recommendations.

    Question. What assistance stands to be suspended should Tanzania be 
designated Tier Three under the Trafficking Victims Protection Act?

    Answer. If Tanzania were ranked as Tier 3 in the Trafficking In 
Persons report, a restriction on non-humanitarian, nontrade-related 
foreign assistance would apply to the government under the Trafficking 
Victims Protection Act, which could impact Education, Water, Nutrition, 
Agriculture, and Natural Resources Management programs.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights?

    Answer. As a physician employed by the United States Department of 
Health and Human Services, my Federal career has focused on improving 
the health and safety of the American people. Consequently, I have not 
worked on the international promotion of human rights and democracy. 
However, if confirmed as Ambassador, I look forward to advocating for 
human rights and fundamental freedoms for all people in Tanzania.

    Question. What has been the impact of your actions?

    Answer. [Not applicable]

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Tanzania?

   These challenges might include obstacles to participatory and 
        accountable governance and institutions, rule of law, authentic 
        political competition, civil society, human rights and press 
        freedom. Please be as specific as possible.

    Answer. It is clear that over the past four years respect for human 
rights and the rule of law have steadily declined in Tanzania, 
impacting the ability of individuals to enjoy the freedoms of 
association, expression, and peaceful assembly. The government has 
targeted journalists as well as the political opposition in a campaign 
of intimidation that was most recently exemplified by irregularities in 
the November 24 local elections. In addition, the government has 
recently decided to bar individuals and NGOs from filing cases against 
it at the African Court on Human and People's Rights. Through 
legislation, authorities have made it untenably expensive for online 
bloggers to operate. There are direct threats and intimidation from the 
government and laws targeting free expression and free association. The 
government's actions have included closures of several independent 
media outlets, suspensions of several opposition parliamentarians, and 
an indefinite ban on political rallies and activities, including 
private meetings. Authorities use the 2015 Cybercrimes Act to bring 
criminal charges against individuals who criticize the government in 
electronic media.

    Question. What steps will you take--if confirmed--to support 
democracy in Tanzania?

    Answer. If confirmed, I will use my leadership and voice, both 
publicly and privately, to underscore that respect for human rights is 
essential for Tanzania's future growth, prosperity, and security. The 
steady decline of civic and political space has been a source of 
critical concern inside and outside of the country. I will engage 
Tanzanian authorities, international partners, civil society 
organizations, and business leaders to work together toward these 
goals.

    Question. What do you hope to accomplish through these actions?

    Answer. Through these actions, I hope to help Tanzania develop into 
a 21st century partner of the United States and desire to see the 
country return to serving as a democratic, human rights-respecting 
model for the region. The United States and Tanzania have a long and 
rich history of partnership; if confirmed, I look forward to further 
developing and deepening relationships with the Tanzanian government, 
international and domestic partners, and the people of Tanzania to 
ensure the tangible advancement of human rights, civil society, 
democracy, and mutual prosperity.

    Question. What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. Bringing together multiple stakeholders, including 
Tanzanian government officials, international partners, civil society, 
and business leaders, will likely be one of the most important steps 
and challenges.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. U.S. assistance to Tanzania advances democracy and 
governance, both through funds dedicated specifically for those issues 
and through sector-specific programming, such as health, which rely on 
a reliable, evidence-based, technocratic government. Through our 
development assistance, the United States improves the resilience of 
civil society organizations in the face of diminishing democratic 
space, supports Tanzanian partners to advance their advocacy priorities 
related to human rights, enhances the professionalism of independent 
media, and seeks to improve the inclusivity and transparency of 
democratic processes. Additionally, the United States supports the 
introduction and expansion of good governance within service delivery 
systems (health, education, etc.), which bolsters transparency, citizen 
participation, and accountability within planning and financial 
management processes. To complement and expand these efforts, I will 
continue to engage within the Department and with USAID to ensure 
appropriate resources are available to advance U.S. interests in 
Tanzania.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Tanzania?

    Answer. Human rights, civil society organizations, and other non-
governmental organizations, regardless of where they are registered or 
operate, all play an important role in advancing democratic governance, 
respect for human rights and freedoms, and assisting Tanzania to 
develop into a 21st century partner of the United States. If confirmed, 
I am committed to meeting with any individual or entity that can be 
beneficial to U.S. goals.

    Question. What steps will you take to pro-actively address efforts 
to restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. There is no question that there has been a narrowing of 
democratic space in Tanzania over the past several years, including 
through the targeting of NGOs and civil society. In July, President 
Magufuli signed into law the Miscellaneous Amendments No. 3 Act, 2019, 
also known as the ``Written Laws,'' which placed further restrictions 
on civil society organizations. The Registrar of Civil Society 
Organizations has broad authority to suspend organizations as well as 
evaluate, investigate, and suspend their operations, and authorities 
can also refuse to register any organization without giving a valid 
reason. If confirmed, I am committed to continuing to promote human 
rights for all individuals in Tanzania, with a particular focus on 
those who are members of vulnerable populations.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties?

    Answer. If confirmed, under my leadership the United States Embassy 
will continue to engage with representatives from across the political 
spectrum, including the ruling party and opposition parties.

    Question. What steps will you take to encourage genuine political 
competition?

    Answer. If confirmed, I will ensure the United States will continue 
to support appropriately transparent and inclusive political and 
electoral processes.
    With respect to Tanzania's upcoming 2020 elections, I would focus 
on four main areas: systematic domestic observation of the 2020 
elections; civic and voter education campaigns; assistance to political 
parties and to candidates to run more professional and issue-focused 
campaigns; and, assistance for Tanzanian-led efforts to introduce and 
advance electoral reforms that increase the participation of women and 
youth.

    Question. Will you advocate for access and inclusivity for women, 
minorities and youth within political parties?

    Answer. Yes, if confirmed I will advocate for access and 
inclusivity for women, minorities, and youth within political and 
electoral processes.

    Question. Will you and your embassy team actively engage with 
Tanzania on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures?

    Answer. The United States supports media freedom and is committed 
to strengthening journalistic professionalism. If confirmed, I will 
engage with like-minded missions, civil society, and international 
partners to underscore the importance of an independent, professional, 
and open media to a free and democratic society. I will press for the 
United States to continue its support to Tanzania's media, which has 
included partnerships with community radio stations to build their 
professionalism and financial viability, the development of a platform 
for registering violations of freedom of expression for members of the 
press, and education initiatives for journalists and media stakeholders 
about their rights. Tanzanian journalists have participated in U.S. 
government-sponsored professional exchange programs on political 
reporting, safeguarding freedom of expression, and the media's role in 
strengthening democratic institutions.

    Question. Will you commit to meeting regularly with independent, 
local press in Tanzania?

    Answer. If confirmed, I am committed to meeting with any individual 
or entity relevant to the Mission's strategic objectives, including 
local press.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The United States supports media freedom and is committed 
to strengthening journalistic professionalism. If confirmed, I will 
engage with like-minded missions, civil society, and international 
partners to underscore the importance of a credible, independent, 
professional media to a free and democratic society.

    Question. Will you and your embassy teams actively engage with 
Tanzania on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will continue our embassy's efforts to 
promote human rights. As the embassy noted in our 2018 Human Rights 
Report, the Tanzanian government did not consistently enforce the law 
protecting collective bargaining. I would advocate for continued 
improvements in this area, and document progress in the Human Rights 
Report.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Tanzania, no 
matter their sexual orientation or gender identity?

    Answer. The United States continues to support upholding human 
rights and the dignity of all individuals in Tanzania, no matter their 
sexual orientation or gender identity. I am committed to promoting 
human rights for all in Tanzania, including members of the LGBTQ 
community.

    Question. What challenges do the lesbian, gay, bisexual, 
transgender and queer (LGBTQ) people face in Tanzania?

    Answer. Consensual same-sex sexual conduct between adults is 
illegal in the country. The law on both the mainland and Zanzibar 
punishes ``gross indecency'' by up to five years in prison or a fine. 
The law punishes any person convicted of having ``carnal knowledge of 
another against the order of nature or permits a man to have carnal 
knowledge of him against the order of nature'' with a prison sentence 
of 30 years to life on the mainland and imprisonment up to 14 years in 
Zanzibar. In Zanzibar, the law also provides for imprisonment of up to 
five years or a fine for ``acts of lesbianism.'' In the past, courts 
charged individuals suspected of same-sex sexual conduct with loitering 
or prostitution. Police often harassed persons believed to be LGBTQ 
based on their dress or manners. The Department also has reports that 
some suspected gay men have been subjected to forced anal examinations 
while in police custody.
    The government opposed improved safeguards for the rights of LGBTQ 
persons, which it characterized as contrary to the law of the land and 
the cultural norms of society. Senior government officials have made 
several anti-LGBTQ statements that led to some arrests and harassment.

    Question. What specifically will you commit to do to help LGBTQ 
people in Tanzania?

    Answer. I will commit that before taking any action I will be 
mindful of complexities in this space, inter-group dynamics, and will 
seek to avoid escalating both existing animosity between LGBTQ 
organizations and groups, and raising the risks faced by LGBTQ people 
in general. The United States is pursuing the continued availability of 
emergency response support to LGBTQ people facing medical, legal, or 
other threats.

    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff each time you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Tanzania?

    Answer. Working with members of congress is very important to the 
State Department. If confirmed, I am committed to coordinating robust 
congressional engagement in accordance with the guidance of the African 
Bureau and State Department's Office of Legislative Affairs.

                               __________


      Responses to Additional Questions for the Record Submitted 
           to Dr. Donald Wright by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As a physician employed by the United States Department of 
Health and Human Services, my Federal career has focused on improving 
the health and safety of the American people. Consequently, I have not 
worked on the international promotion of human rights and democracy. 
However, if confirmed as Ambassador, I look forward to advocating for 
human rights and fundamental freedoms for all in Tanzania.

    Question. What are the most pressing human rights issues in 
Tanzania? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Tanzania? What do 
you hope to accomplish through these actions?

    Answer. It is clear that over the past four years respect for human 
rights and the rule of law has declined in Tanzania, impacting the 
ability of individuals to enjoy the freedoms of association and 
peaceful assembly. If confirmed, I will use my leadership and voice, 
both publicly and privately, to underscore that respect for human 
rights is essential for Tanzania's future growth, prosperity, and 
security. I will engage Tanzanian authorities, international partners, 
civil society organizations, and business leaders to work together 
toward these goals.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Tanzania in 
advancing human rights, civil society, and democracy in general?

    Answer. Bringing together multiple stakeholders, including 
Tanzanian government officials, international partners, civil society, 
and business leaders will likely be one of the most important steps and 
challenges. The steady decline of civic and political space has been a 
source of critical concern inside and outside of the country. The 
United States and Tanzania have a long and rich history of partnership. 
If confirmed, I look forward to developing further and deepening 
relationships with the Tanzanian government, international and domestic 
partners, and the Tanzanian population to ensure the tangible 
advancement of respect for human rights, empowerment of civil society, 
commitment to democracy, and the increased prosperity of both the 
United States and Tanzania.

    Question. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Tanzania? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Human rights, civil society organizations, and other non-
governmental organizations, regardless of where they are registered or 
operate all play an important role in advancing democratic governance, 
respect for human rights and fundamental freedoms, and assisting 
Tanzania develop into a 21st century partner of the United States. I am 
committed to meeting with any individual or entity that can be 
beneficial to U.S. policy goals. As I mentioned in my hearing, security 
cooperation is one of the bright spots of the U.S.-Tanzania 
relationship. The Leahy Law is an important mechanism to ensure that we 
do not furnish U.S. assistance to a security force unit where there is 
credible information the unit committed a gross violation of human 
rights. If confirmed, I will continue ongoing practices at Embassy Dar 
es Salaam to implement the Leahy vetting process.

    Question. ill you and your Embassy team actively engage with 
Tanzania to address cases of key political prisoners or persons 
otherwise unjustly targeted by Tanzania?

    Answer. The United States has been a strong advocate in Tanzania 
for the respect of human rights, including the rights of freedom of 
expression, freedom of association, and fair trial guarantees. If 
confirmed, I am committed to speaking both publicly and privately with 
the government of Tanzania about our concerns. I will partner with 
like-minded missions in Tanzania to speak with a united voice on this 
topic, will work with civil society to ensure our voice is joined by 
every-day Tanzanians committed to the country's democratic future, and 
will use my convening power to ensure the dialogue on human rights in 
Tanzania remains front and center of our agenda.

    Question. Will you engage with Tanzania on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. There is no question that there have been a number of 
concerns related to good governance and respect for human rights in 
Tanzania over the past several years. If confirmed, I am committed to 
continuing to promote human rights for all individuals in Tanzania, 
with a particular focus on those who are members of vulnerable 
populations, including the LGBTI community, journalists, and the 
political opposition. I am committed to working with the Tanzanian 
government, like-minded missions, civil society, and international 
organizations to address these important areas. I will also engage with 
the population of Tanzania by urging continued U.S. programming in the 
areas of human rights, democracy, and good governance.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will embrace every opportunity to promote 
diversity and inclusion in the workplace. I would ensure the Embassy 
devotes resources to mentoring and support for all staff, including 
those from diverse backgrounds and underrepresented groups. I agree 
with the research that indicates that diverse teams are richer in 
creativity and perspective, and I believe all leaders should embrace a 
wide range of inputs, viewpoints, and backgrounds.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, fostering an environment that is diverse and 
inclusive will be a priority. Proactively, I will make sure supervisors 
within the Embassy complete diversity training on a regular basis. As 
the most senior official within the Embassy, it will be my 
responsibility to set the example for fostering an environment that is 
diverse and inclusive.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Tanzania?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence overseas, but 
which are exempt from the conflict of interest laws. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest. I will divest any investments the State Department Ethics 
Office deems necessary to avoid a conflict of interest. I will remain 
vigilant with regard to my ethics obligations.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Tanzania 
specifically?

    Answer. In many developing countries, efforts to foster broad-based 
economic growth, improve the delivery of public services, and pursue 
effective development policies continue to be stymied by disparities in 
economic and political power and corruption. These dynamics undermine 
participatory policy making and effective policy implementation and 
service delivery. The United States has witnessed democratic 
backsliding across the world, and recent events in Tanzania are an 
example of this trend. Public corruption undercuts all democratic 
nations' governance and rule of law, and can pose an existential threat 
to nascent or weak democracies.

    Question. What is your assessment of corruption trends in Tanzania 
and efforts to address and reduce it by that government?

    Answer. In 2015, President Magufuli ran on a robust anti-corruption 
platform, which resonated with the Tanzanian population and foreign 
business representatives exasperated with endemic corruption. Since 
Magufuli's election, Tanzania has improved its standings in 
Afrobarometer and Transparency International surveys on perceptions of 
corruption. However, corruption remains pervasive, especially among the 
police and judiciary. According to experts, recent anti-corruption 
efforts have not addressed deep structural issues that contribute to 
corruption. If confirmed, under my Ambassadorship the United States 
will continue to advocate for a comprehensive, systemic approach to 
combat corruption that empowers the people and promotes inclusive 
democracy and economic growth in Tanzania.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Tanzania?

    Answer. If confirmed as Ambassador, I will use my convening power 
to engage with a wide array of actors who influence and are impacted by 
governance decisions. I will speak publicly and engage privately with 
the government to state our concerns and offer support where 
appropriate. I will also seek to have the U.S. Embassy in Dar es Salaam 
lead advocacy on matters of human rights, democracy, anti-corruption, 
and good governance, including through continued U.S. programming in 
the areas of freedom of expression, including for members of the press, 
and strengthened civil society organization.

    Question. What is the United States doing, and what more can be 
done, to help bolster and support freedom of the press in Tanzania?

    Answer. The United States supports media freedom and is committed 
to strengthening journalistic professionalism. If confirmed, I will 
engage with like-minded missions, civil society, and international 
partners to underscore the importance of an independent, professional, 
and open media to a free and democratic society, especially as Tanzania 
prepares for national elections in 2020. I will press to continue 
United States support to Tanzania's media, including through 
partnerships with community radio stations to build their 
professionalism and financial viability, the development of a platform 
for registering violations of freedom of expression for members of the 
press, and education initiatives for journalists and media stakeholders 
about their rights. Tanzanian journalists have participated in U.S. 
government-sponsored professional exchange programs on political 
reporting, safeguarding freedom of expression, media freedom, and the 
media's role in strengthening democratic institutions.

    Question. In what manner, if at all, should the United States seek 
to ensure the protection of former opposition MP Tundu Lissu? Should he 
return to Tanzania after receiving medical treatment abroad from the 
multiple gunshot wounds he suffered in his unsolved 2017 attempted 
assassination?

    Answer. If confirmed, as Ambassador I will advocate for respect for 
human rights and equal protection under the law for all individuals in 
Tanzania. I will speak both publicly and privately with the host 
government on its international human rights obligations and 
commitments. Under my leadership, the United States Embassy will 
continue to engage with representatives across the political spectrum, 
including the ruling party and opposition parties.

    Question. How would you assess the relative freedom of use and 
access to the Internet in Tanzania?

    Answer. Tanzania's Internet penetration rate has increased 
exponentially in the past two decades from less than 1 percent in 2000 
to 45 percent in 2019. This increased access to the Internet has the 
potential to bring tremendous socioeconomic benefits to the Tanzanian 
people. Since 2015, however, the government of Tanzania has also 
instituted a series of internet censorship policies. The 2015 
Cybercrimes Act, for example, increased censorship of online expression 
by introducing and using sweeping powers to police the internet, 
including social media. In recent years, under this act, a number of 
human rights activists and government critics have been charged with 
``publishing false information,'' ``offensive content,'' or 
``insulting'' President Magufuli. The Electronic Postal Communications 
(Online Content) Regulations enacted in March 2018 broadly restrict 
online content, require bloggers to pay prohibitively expensive 
registration fees, and permit surveillance of cybercafes without 
judicial oversight.

    Question. What is the current stance of the state toward lesbian, 
gay, bisexual, and transgender (LGBT) people? What is your assessment 
of the current level of danger faced by this population?

    Answer. Consensual same-sex sexual conduct between adults is 
illegal in the country. The law on both the mainland and Zanzibar 
punishes ``gross indecency'' by up to five years in prison or a fine. 
The law punishes any person convicted of having ``carnal knowledge of 
another against the order of nature or permits a man to have carnal 
knowledge of him against the order of nature'' with a prison sentence 
of 30 years to life on the mainland and imprisonment up to 14 years in 
Zanzibar. In Zanzibar, the law also provides for imprisonment up to 
five years or a fine for ``acts of lesbianism.'' In the past, courts 
charged individuals suspected of same-sex sexual conduct with loitering 
or prostitution. Police often harass persons believed to be LGBT based 
on their dress or manners. The Department also has reports that some 
suspected gay men have been subjected to forced anal examinations while 
in police custody.
    The government opposed improved safeguards for the rights of LGBT 
persons, which it characterized as contrary to the law of the land and 
the cultural norms of society. Senior government officials have made 
several anti-LGBT statements. The LGBT community is under threat of 
continued arrests and harassment.

    Question. What impact does the Tanzanian State's crackdown on LGBT 
rights have on the availability of health services for at-risk 
populations?

    Answer. The government of Tanzania has banned certain health 
services and products and created an environment in which many members 
of the LGBT community do not feel safe seeking out health services. For 
example, the government banned drop-in centers where members of at-risk 
populations could gather to share critical health information and 
access services, banned products that reduce the risk of HIV 
transmission among gay men, and has arrested members of the LGBT 
community on spurious charges, some of whom have reportedly endured 
forced anal examinations.
    The policy of the Embassy has been to promote human rights for all 
people in Tanzania, including members of the LGBT community. The U.S. 
Embassy works closely with the government of Tanzania to ensure health 
services are provided to key populations including the LGBT community. 
This is particularly crucial in the area of HIV, because timely testing 
and treatment helps to prevent new infections. The Embassy also works 
with partners to address violence, discrimination, and stigma against 
the LGBT community, so that all people in Tanzania feel safe and 
comfortable seeking out health services.

    Question. How do you plan, if confirmed, to leverage your platform 
as Ambassador to help convince potentially unreceptive interlocutors of 
the need for tolerance and humane treatment of all Tanzanians, 
regardless of sexual orientation?

    Answer. If confirmed, I will promote dialogue on the importance of 
human rights. Under my leadership, the Embassy will continue to work 
with partners to address violence, discrimination, and stigma against 
all vulnerable populations, including the LGBT community.
    All actions that I take will be mindful of complexities in this 
space, inter-group dynamics, and will seek to avoid escalating both 
existing animosity between LGBT organizations and groups, and raising 
the risks faced by LGBT people in general.

    Question. What reasons did the ministry for regional administration 
and local government-which administered the recent local government 
elections-give for disqualifying large numbers of opposition party 
candidates?

    Answer. By law, the President's Office for Regional Administration 
and Local government manages and oversees local elections on the 
Tanzanian mainland. Minister for Regional Administration and Local 
government, Selamani Jafo, reported that election officials rejected 
opposition party candidate applications for a number of reasons, 
including errors on the candidate applications forms, the absence of 
required ethics or asset declarations, and for candidates not being 
resident in the jurisdictions in which they applied to be candidates. 
In addition, opposition parties reported their candidates found 
registration offices closed in the days leading up to the registration 
deadline and faced intimidation in some locations when attempting to 
register. The Embassy expressed concern in a public statement about the 
management of local elections, including irregularities in the 
candidate registration process. Minister Jafo's explanation of why 
opposition candidates were rejected did not assuage those concerns.

    Question. To what degree, if at all, were opposition parties 
willing or able to legally contest alleged process irregularities 
during the recent civic polls?

    Answer. While local election regulations provided candidates whose 
applications were rejected with a mechanism for appealing the decision 
to local election officials within two days of the initial rejection, 
it is unclear if opposition party candidates were willing or able to 
avail themselves of the appeal process.

    Question. What implications did these elections have for governance 
in Tanzania and the relative hold on state power of the CCM?

    Answer. Following the rejection of approximately 90 percent of 
opposition candidates for the November 24 local elections, and the 
principal opposition parties' decision to boycott the elections 
following the disenfranchisement of their candidates, the ruling Chama 
Cha Mapinduzi (CCM, Revolution Party) was declared the winner of 99.9 
percent of seats in the more than 80,000 villages, hamlets and 
neighborhood councils across the Tanzanian mainland. Although some 
candidates from the boycotting opposition parties remained on the 
ballots and were declared winners, the opposition parties announced 
they would not recognize the results. As a result, the CCM will control 
local government councils across the Tanzanian mainland.

    Question. What should the response of the United States be if the 
same types and scope of irregularities that featured in the 2019 
election occur in the 2020 election?

    Answer. The United States remains committed to supporting 
democracy, human rights, and good governance in Tanzania; these 
principles are enshrined within Tanzania's constitution and remain 
central to the aspirations of the Tanzanian people. The U.S. government 
has engaged the Tanzanian government publicly and privately on the need 
for free and fair elections over the past year. If confirmed, as 
Ambassador I will continue to raise our concerns, publicly and 
privately, when we observe actions that are inconsistent with 
democratic values.
    In 2020, the United States plans to support appropriately 
transparent and inclusive political and electoral processes in Tanzania 
in four main areas: systematic domestic observation of the 2020 
elections; civic and voter education campaigns; assistance to political 
parties to be more inclusive and to candidates to run more professional 
and issue-focused campaigns; and assistance for Tanzanian-led efforts 
to introduce and advance electoral reforms that increase the 
participation of women and youth.

    Question. What about the U.S. stance if the government refuses to 
re-register key opposition parties?

    Answer. In 2020, the United States plans to support appropriately 
systematic domestic observation of national elections, which is 
designed to include long-term observation that would include oversight 
of the candidate registration process. Additionally, U.S.-supported 
programs will provide support for electoral dispute resolution 
mechanisms and to political parties, including on strategic planning.

    Question. What are the implications of the 2019 Political Parties 
Act for free and fair democratic participation, and the relative 
ability of political parties and their members to assemble and 
organize? Is Tanzania heading toward a resurrection of the one party 
state?

    Answer. A number of legislative actions over the past years, 
including the 2019 Amendments to the Political Parties Act, have served 
to restrict civil liberties for all people in Tanzania, especially 
those who seek to exercise their rights to freedoms of expression, 
association, and peaceful assembly. The amendments give the Registrar 
of Political Parties expansive statutory authority to regulate parties' 
internal affairs and add to concerns about Tanzania's future as a 
multiparty democracy. In this context, the United States has publicly 
called on Tanzanian authorities to ``act decisively to safeguard the 
rights of civil society organizations, human rights defenders, 
journalists, health workers, political activists, and all people in 
accordance with the Tanzanian constitution.''

    Question. Please describe the level and nature of U.S. assistance 
aimed at helping to ensure that the 2020 vote is free, fair, and fully 
participatory.

    Answer. In 2020, the United States plans to support appropriately 
transparent and inclusive political and electoral processes in Tanzania 
in four main areas: systematic domestic observation of the 2020 
elections; civic and voter education campaigns; assistance to political 
parties and to candidates to run more professional and issue-focused 
campaigns; and, assistance for Tanzanian-led efforts to introduce and 
advance electoral reforms that increase the participation of women and 
youth.

    Question. How would you describe Tanzania's current relationship 
with China?

    Answer. Tanzania is one of China's principal African trading 
partners and aid recipients. The two countries maintain close and 
enduring party-to-party and military-to-military relationships. 
President Magufuli and members of his cabinet frequently praise China's 
``no-strings attached'' foreign assistance, and it is common for 
politicians to describe China as Tanzania's ``all-weather friend.'' 
However, President Magufuli has also been skeptical of China's 
intentions. For example, Tanzania suspended negotiations on a $10 
billion Chinese-funded port project, and President Magufuli publicly 
announced he is willing to cancel the whole project if the investors do 
not offer better terms. Chinese citizens have also reportedly been 
subjected to increased scrutiny and investigations into possible 
criminal, labor, and other violations.

    Question. What role, if any, does China play as a U.S. competitor 
in Tanzania?

    Answer. The United States is the preferred partner to Tanzanian 
companies that value quality. Our trade relationship with Tanzania, 
while small in comparison to China, includes high value items such as 
aircraft and machinery, and cereals and other commodities. China 
continues to be Tanzania's largest trading partner, a leading source of 
foreign investment, and a financier of big-ticket infrastructure 
projects that form the cornerstone of Magufuli's industrialization 
agenda. These avenues provide China with influence within the 
government of Tanzania, while allowing it to tout its ``no-strings 
attached'' contributions to Tanzania's economic development. Tanzania's 
trade with China is extremely lopsided; a fact that is not lost on 
Tanzanian officials. If confirmed, I will lead my Embassy economic and 
commercial team in presenting the United States as a viable alternative 
for trade and investment partnerships. To this end, we will leverage 
Prosper Africa and opportunities under the BUILD Act to support U.S. 
businesses and investors and enable them to better compete with Chinese 
firms in Tanzania. Of note, there are areas for potential enhanced 
cooperation with China on common issues of concern in Tanzania, to 
include wildlife trafficking, public health, and business climate 
issues.

    Question. If confirmed, how would you apply your background as a 
physician and health policy administrator to these challenges?

    Answer. Over 80 percent of American developmental assistance to 
Tanzania is directed to improving the health security of the people in 
Tanzania. Tanzania has a high burden of HIV/AIDS with an estimate of 
over 1.6 million people living with HIV (PLHIV), and mosquito-borne 
illnesses such as malaria and dengue fever are also prevalent. The 
United States has supported Tanzania's efforts to build health sector 
capacity while also encouraging Tanzania to adhere to its commitments 
under the International Health Regulations (2005)--including 
transparency and reporting on outbreaks of infectious disease.
    Over the last decade, more than one million HIV positive Tanzanians 
have been placed on anti-retroviral therapy. Ultimately, we want to 
ensure that at least 90 percent of those infected with HIV know they 
are sero-positive for HIV. Once diagnosed, 90 percent or more of 
identified positive Tanzanian should be receiving anti-retroviral 
therapy. To achieve this goal, we need to reduce stigma towards HIV, 
scale-up targeted/index testing, and ensure PLHIV stay on treatment 
across the country.
    Mosquito-borne illnesses are common in Tanzania at 524 deaths per 
100,000 live births. Prevention strategies, implemented by the 
President's Malaria Initiative, are bearing fruit. Prevalence rates for 
malaria dropped 10 percent over a decade. These prevention efforts 
center on the use of insecticide impregnated bed nets and indoor 
spraying. Despite this success, more work remains to decrease further 
the burden of malaria and other mosquito borne diseases in Tanzania.

    Question. What improvements would you recommend to improve 
Tanzania's absorptive capacity for U.S. assistance dollars targeting 
the health sector?

    Answer. Tanzania will receive intensive support in Fiscal Year 2020 
(FY 2020) as one of the U.S. government's 19 Global Health Security 
Agenda (GHSA) partner nations. Almost 80 percent of the development 
assistance provided by the American taxpayer to Tanzania is directed to 
improving the health of the Tanzanian people. The United States has 
encouraged the Tanzanian government to take more responsibility for the 
health of Tanzanians and continue the programs that have built a 
foundation for improved health security over the past decade. To do 
this, Tanzania needs to improve its health sector systems, spend the 
local resources that it has allocated on paper to actual implementation 
of programs to improve the health of its people, promote greater 
involvement of the private sector in public health, and adopt policies 
that will promote transparency and bring healthcare to the communities 
and decrease the vulnerability of women and children. It is imperative 
to strengthen the allocative efficiencies for health budgets at the 
national and sub-national level in order to strengthen health services 
delivery and increase health security.

    Question. Please discuss Tanzania's stance on the repatriation of 
Burundian refugees.

    Answer. Under a Tripartite Agreement with the government of Burundi 
and the United Nations High Commissioner for Refugees (UNHCR), the 
government of Tanzania has committed to the voluntary repatriation of 
Burundian refugees. However, the government of Tanzania has also stated 
that the best and only viable option for Burundian refugees is 
repatriation. Tanzanian authorities stated that Burundi is ready for 
returns, despite continuing serious political and security issues in 
Burundi that show no signs of improving and raise concerns ahead of 
Burundian elections in May 2020. Top Tanzanian officials have accused 
international organizations of interfering with the repatriation of 
Burundian refugees. Tanzania has stopped allowing Burundians to 
register as asylum seekers.

    Question. Why, to what extent, and in what manner is Tanzania-which 
for decades has hosted waves of refugees fleeing various periods of 
political violence and instability in Burundi-seeking to force the 
return of Burundian refugees?

    Answer. The government of Tanzania maintains it is not forcing the 
return of Burundian refugees. However, it has implemented a series of 
policies in refugee camps that are creating conditions that some 
perceive are designed to pressure Burundian refugees to return to 
Burundi. These includes restrictions on the ability of Burundian 
refugees to engage in livelihood activities (e.g. participate in 
markets), forcing Burundians to register to repatriate in order to 
receive services, and other tactics such as banning some UNHCR staff 
from entering the camps, and banning sports activities and the use of 
bicycles within the camps.

    Question. What is the U.S. stance on this matter?

    Answer. Tanzania should uphold its international obligations and 
ensure refugee returns are voluntary, safe, and dignified. The United 
States supports the voluntary repatriation of Burundian refugees and 
supports the UNHCR's efforts to ensure the voluntariness of returns. 
UNHCR assesses that conditions in Burundi are not yet conducive to 
promote returns. If confirmed as Ambassador, I will ensure the Embassy 
will continue to monitor the voluntariness of the returns and to 
advocate for refugee access to asylum, fair and timely refugee status 
determination, and for any refugee returns to be voluntary, safe, 
informed, and dignified.

    Question. Please discuss the nature and level of U.S. assistance 
for Burundian refugees in Tanzania.

    Answer. The United States provides funding to the UNHCR, 
International Organization for Migration (IOM), the World Food Program, 
and NGOs to provide humanitarian assistance to refugees and to fund 
voluntary returns. UNHCR, with State Department support, started a 
large-scale program to resettle long-staying DRC refugees currently in 
Uganda, Rwanda, Tanzania, and Burundi. The United States has resettled 
over 18,000 refugees from Tanzania since FY 2014, mostly Congolese 
refugees with a smaller number of Burundi refugees, including nearly 
3,760 in FY 2019, making it the largest U.S. Refugee Admissions Program 
globally. The government of Tanzania regularly states its appreciation 
for the U.S. resettlement program.
    In addition to continent-wide support, in FY 2019, the U.S. 
government, through State's Bureau of Population, Refugees, and 
Migration, provided more than $33.4 million in support of UNHCR, IOM, 
and other NGOs to Tanzania's country-wide operations, supporting 
protection and multi-sectoral assistance to refugees and host 
communities in Tanzania. Since 2016, the U.S. government also provided 
over $77 million in cash and in-kind assistance to the World Food 
Program to provide emergency assistance, including food rations and 
specialized nutrition products geared towards pregnant women and 
children.

    Question. How would you tackle the trafficking in persons challenge 
in Tanzania, if confirmed?

    Answer. Under my leadership, the Embassy will continue to emphasize 
to the government of Tanzania the importance of meeting the goals of 
its National Anti-Trafficking in Persons Action Plan (2018-21), which 
is aligned with the 2019 Trafficking in Persons Report (TIP) 
recommendations.
    In order to improve its TIP ranking next year, the government of 
Tanzania could:

   Table the Amendment to the 2008 Anti-Trafficking Act, which will 
        remove sentencing provisions that allow fines in lieu of 
        imprisonment and align the procedural law pertaining to 
        trafficking-related arrests within the act with the 
        requirements for other serious crimes;
   Increase funding to the Anti-Trafficking Secretariat to support 
        their prosecution, protection, and prevention efforts;
   While respecting the rule of law and human rights, increase efforts 
        to investigate, prosecute, and convict trafficking offenders, 
        including complicit officials and impose adequate penalties;
   Implement a systematic victim-witness support program; and,
   Institutionalize the use of a national centralized anti-trafficking 
        data collection and reporting tool and consider increasing 
        information sharing.

    Question. What are the key sources of U.S. leverage with respect to 
countering the Magufuli government's increasingly repressive and anti-
democratic record?

    Answer. The United States has expressed concerns about Tanzania's 
shrinking democratic space. Addressing repressive actions takes a 
multifaceted approach. If confirmed, I will continue to speak out, 
publicly and privately, when the government of Tanzania acts in ways 
that are not in accordance with our shared democratic values or their 
obligations to uphold human rights and fundamental freedoms. I will 
partner with like-minded missions, engage civil society and other 
influential voices to be part of the dialogue, and leverage my 
convening power to ensure that these topics remain front and center. I 
will collaborate and engage with a broad array of Tanzanians, to 
include government officials, to ensure they know that the American 
people share their aspirations for a durable Tanzanian democracy and 
robust respect for human rights and fundamental freedoms.
    Question. What are other key U.S. development program priorities in 
Tanzania and what strategy would you recommend implementing to ensure 
U.S. priorities in the country are advanced?

    Answer. Given the high population growth rate, youth are an 
increasingly important demographic in Tanzania and will set a tone for 
the future. Their success or disengagement can tip Tanzania towards 
prosperity or towards failure. Future development programs should be 
focused on ensuring that youth have a strong foundation for success 
from birth, which includes adequate health care and quality education. 
They should continue to build on that foundation as young adults, also 
ensuring that they have economic and civic opportunities that allow 
them to contribute to their country's success. Development must be done 
in a way that safeguards gains for future generations; managing natural 
resources for long-term benefit as well as building government and non-
governmental institutions that can create more stable governance. This 
work includes strengthening the business environment for both 
employment creation and U.S. business interests.

                               __________


                                 [all]
</pre></body></html>
